<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-301]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-301, Pt. 2

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                  Department of Defense

                                                         Appropriations

                                                            Fiscal Year
                                                                   2007

                                         109th CONGRESS, SECOND SESSION

                                                              H.R. 5631

PART 2
        DEPARTMENT OF DEFENSE
        NONDEPARTMENTAL WITNESSES
     Department of Defense Appropriations, 2007 (H.R. 5631)--Part 2



                                                 S. Hrg. 109-301, Pt. 2
 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 5631

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2007, AND FOR OTHER PURPOSES

                               __________

                                 PART 2

                         Department of Defense
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                    U.S. GOVERNMENT PRINTING OFFICE
27-992                      WASHINGTON : 2006
_______________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            DANIEL K. INOUYE, Hawaii
ARLEN SPECTER, Pennsylvania          ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BYRON L. DORGAN, North Dakota
RICHARD C. SHELBY, Alabama           RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland

                           Professional Staff

                              Sid Ashworth
                           Jennifer Chartrand
                             Alycia Farrell
                              Mark Haaland
                              Kate Kaufer
                            Mazie R. Mattson
                            Ellen Maldonado
                              Brian Potts
                              Brian Wilson
                       Charles J. Houy (Minority)
                       Nicole Di Resta (Minority)
                        Betsy Schmid (Minority)
                      Kate Fitzpatrick (Minority)

                         Administrative Support

                             Janelle Treon


                            C O N T E N T S

                              ----------                              

                         Tuesday, March 7, 2006

                                                                   Page

Department of Defense............................................     1

                       Wednesday, March 15, 2006

Department of Defense: Department of the Navy....................    19

                        Tuesday, March 28, 2006

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................   107

                       Wednesday, March 29, 2006

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................   179

                       Wednesday, April 26, 2006

Department of Defense:
    National Guard...............................................   243
    Reserves.....................................................   303

                         Wednesday, May 3, 2006

Department of Defense: Medical Health Programs...................   353

                        Wednesday, May 10, 2006

Department of Defense: Missile Defense Agency....................   437

                        Wednesday, May 17, 2006

Department of Defense: Office of the Secretary...................   479

                        Wednesday, May 24, 2006

Nondepartmental Witnesses........................................   535


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                         TUESDAY, MARCH 7, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:38 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senator Stevens.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. TINA JONAS, UNDER SECRETARY OF 
            DEFENSE (COMPTROLLER)
ACCOMPANIED BY VICE ADMIRAL MARTY CHANIK, DIRECTOR OF FORCE STRUCTURE, 
            ASSESSMENTS AND RESOURCES, JOINT CHIEFS OF STAFF


                opening statement of senator ted stevens


    Senator Stevens. I am sorry to be a little bit late. We 
have several conferences going on at the same time. Our co-
chairman has indicated he cannot be with us now. But I do 
welcome you here, Ms. Jonas, with your colleagues. I understand 
you are joined by Admiral Marty Chanik from the Joint Chiefs. 
Admiral, you are the Director of Force Structure, is that 
right?
    Admiral Chanik. Yes, sir, the J-8 on the Joint Staff, which 
is Director of Force Structure Assessments and Resources.
    Senator Stevens. Thank you. Well, it is good to have you 
both here and we look forward to your testimony. I am sorry 
that we have these conflicting things going on right now. There 
are conferences going on, caucuses on the questions of lobbying 
and the basic problems that we face as far as rule changes in 
those areas.
    As we meet here, our men and women remain engaged in 
critical missions. We just had a whole series of briefings 
about the budget aspects of defense and I think we all know 
that you have $67.5 billion for defense activities on this 
bill. That is a 6 percent increase as I understand it for this 
year. Included in that is $423.2 billion for Department of 
Defense (DOD) programs under the purview of our subcommittee.


                           prepared statement


    We will make your statements part of the record completely 
as well as Senator Inouye's in the record, and hopefully we 
will be joined by others.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, it is indeed a pleasure for me to join you 
once again as we begin our oversight hearings of the fiscal 
year 2007 defense budget. For the sake of those who are here 
today, I want to point out that this is the twenty-sixth year 
that Senator Stevens has served the Defense Subcommittee as 
either its chairman or ranking member.
    His record of accomplishment during this period is 
unmatched. His knowledge of defense matters remains 
unparalleled elsewhere in the Congress. His dedication to the 
men and women in the military is inspirational. And, his 
fairness to members on both sides of the aisle is a model that 
all of us should emulate.
    So, Mr. Chairman I just want to reiterate what a pleasure 
it is for me to be able to join you once again as we formulate 
the subcommittee's recommendations for defense spending in the 
coming year.
    The budget request before this subcommittee is $422.6 
billion, an increase of $23.8 billion--not including 
supplemental funding for wars and natural disasters.
    It includes small percentage increases for our military pay 
and health care programs, and relatively large increases for 
procurement and day to day operations.
    I find it curious that a major emphasis in this year's 
request is to try to rein in personnel and health care programs 
at a time when the Defense Department is having such a 
difficult time encouraging young people to join the military.
    I also find it interesting that the Defense Department has 
decided to terminate the C-17 program when we are flying the 
wings off of our airlift fleet in the gulf. This is even more 
surprising when one learns that airlift is the Air Force's top 
unfunded priority this year.
    So to, I was surprised to learn that DOD planned to 
eliminate the second engine supplier for the Joint Strike 
Fighter after we have invested more than $1 billion to ensure 
we would have competitive pricing in what is expected to be a 
multi-thousand aircraft program.
    I hope to learn more about these subjects, and the DOD 
recommendations today.
    Finally, Mr. Chairman, I want to join you in welcoming our 
witnesses here today. Ms. Jonas and Admiral Chanik we 
appreciate all that you do for the nation in your current 
positions. We understand the challenges that you face in trying 
to meet our nation's military needs with limited resources. The 
chairman and I and this subcommittee face the same challenge as 
we prepare our committee's recommendations. We thank you for 
being here today, and look forward to your testimony.

    Senator Stevens. I am really quite interested in the 
conversation we are going to have today because we have talked 
about it a little bit on a personal basis, Ms. Jonas, but the 
sustainability of these budgets is beginning to worry me 
considerably.
    Would you like to summarize your statement? We have all the 
time in the afternoon, so I am not setting a limitation on any 
time. The whole statement, though, is in the record as though 
read.


                           SUMMARY STATEMENT


    Ms. Jonas. Thank you very much, Mr. Chairman. I will just 
hit a few highlights of the budget if I might. We thank you for 
having us here today. I thank you for the opportunity to 
discuss the President's fiscal year 2007 budget request for the 
Department of Defense, and I would also like to thank this 
subcommittee for their strong support of the men and women of 
America's armed forces and their families.
    So let me just briefly summarize. The President's fiscal 
year 2007 budget request is $439.3 billion. This is a 7 percent 
increase over the 2006 enacted level of $410.8 billion. This 
subcommittee has jurisdiction over $422.6 billion, which 
includes operation and maintenance, procurement, research and 
development, and military personnel.
    The budget supports the President's 2005 national security 
strategy and the long war against terrorist extremists and the 
findings and recommendations of the 2006 Quadrennial Defense 
Review (QDR). The budget is aligned with the QDR, the strategic 
priorities, and invests in capabilities and forces the Nation 
needs to prevail in irregular warfare operations, to defend the 
homeland, and to maintain America's military superiority. Of 
course, this budget supports strongly our men and women in 
uniform and their families.
    In the area of prevailing in irregular warfare operations, 
the budget substantially increases the size and capabilities of 
the special operations forces. We invest $5.1 billion in 2007 
and $28.7 billion over the fiscal year 2007 to 2011 program 
period. Some highlights in that area include an additional 
14,000 special operations forces (SOF). That is a growth of 
4,000 forces in fiscal year 2007. In addition, we add SOF 
battalions, we increase funds for the Marine Corps Special 
Operations Command, and we establish a Special Operations 
Forces Unmanned Aerial Vehicle Squadron, and we increase the 
number of Navy SEAL teams as well.
    In addition, we are increasing our joint combat power and 
the budget provides $6.6 billion in 2007 and $40.6 billion over 
the program period to complete the conversion of 48 regular 
Army brigades to 70 modular brigade combat teams. We also 
continue the modernization and integration of ground forces. 
The Future Combat System is fully funded in this budget, $3.7 
billion in the fiscal year 2007 period.
    In addition, because understanding the nature of the battle 
space on a minute to minute basis is critical to the success of 
our forces, the budget provides $1.7 billion in fiscal year 
2007 and $11.6 billion over the program for unmanned aerial 
vehicles to increase our intelligence-gathering capabilities 
and enable persistent real-time intelligence.
    In addition, we equip our forces with language and cultural 
skills that they need for the 21st century mission, and the 
budget highlights an investment of $181 million for fiscal year 
2007 to expand our language training for both general and 
special operations forces.
    The budget also invests significantly in defending the 
homeland against 21st century threats, including global terror 
networks and rising states with nuclear weapons. The budget 
provides $1.7 billion to develop countermeasures against 
advanced biological and other weapons and to tag, track, and 
locate and render-safe nuclear weapons.
    The budget also includes $10.4 billion in fiscal year 2007 
to produce and field additional ground-based and sea-based 
interceptors to defend against intercontinental and theater 
ballistic missiles, and $900 million in 2007 and about $9.3 
billion over the program to dramatically increase and extend 
satellite communications capabilities to our deployed forces 
around the world.
    In addition, we want to maintain our military superiority 
and our ability to deter or defeat conventional forces of other 
nations, and the Department maintains a robust procurement 
program. The budget invests $84.2 billion in 2007. Just as a 
point of reference, this is twice what it was in 1995, so that 
is an important area of investment for us. This includes funds 
to improve our joint air support capability, maintain and 
improve joint air dominance, and improve our maritime 
capabilities, including $4.7 billion to purchase additional 
aircraft, such as the Apache, the Chinook, Blackhawk 
helicopters, and the V-22 Osprey.
    We include $10.4 billion over the 2007 period to acquire 
more capable weapon systems also, such as the F-22, the F/A-E 
and F, and the first procurement, notably, of the Joint Strike 
Fighter in this budget.
    In the shipbuilding area, we provide $11.2 billion in 
fiscal year 2007. This includes seven ships, two DD(X) 
destroyers, two littoral combat ships, one Virginia class 
submarine, one amphibious assault ship, and the logistics ship, 
the T-AKE. So that is an important feature also of our 
investment program.
    Importantly, I would like to focus also on what we are 
doing for our service members and their families, because 
everything we do depends on their success and their dedication 
and skill. So in the area of military pay, the budget provides 
2.2 percent over the enacted level of 2006. But importantly, we 
also include for certain enlisted, senior enlisted members, 
$263 million in this budget to provide them additional 
increases over the 2.2 percent increase. So for example, an E-5 
with 8 to 12 years of service might receive 2.5 percent in 
addition to the 2.2 percent. So that is an important piece. 
Certain warrant officers would receive as much as an 8.3 
percent increase. So it is very important here.
    We also increase the basic allowance for housing to ensure 
no out-of-pocket housing costs for military families living off 
base. An average rate of 5.9 percent will be experienced by 
most family members.
    As many of you know, we have spoken about health care over 
the past years and our budget provides $39 billion to provide 
health care for our military personnel and families. That 
includes the personnel and infrastructure associated with 
providing care. Of that portion, $21 billion is associated with 
the defense health program, which is a $1 billion increase over 
the 2006 level.
    We are very concerned about this area because over the last 
5 years our military health care costs have nearly doubled, 
going from $19 billion in 2001 to $37 billion enacted in 2006. 
Unless action is taken to address this rising cost, the current 
program is projected to increase to $50 billion by 2011 and 
would go to $64 billion by 2015.
    So we are very concerned about these and we have proposed 
in this budget an increase to the fee structure and cost share. 
When the TRICARE program was established by Congress there were 
certain cost shares established. In 1995, as Congress 
established the program 73 percent of the cost was paid by the 
Department of Defense and 27 percent of the cost of the care 
was provided by the beneficiary. Today those cost shares have 
gone to 88 percent for the Department of Defense and 12 percent 
for the beneficiary.
    So the budget is proposing to make some slight increases to 
that cost share for beneficiary. I do have also with me Dr. 
Bill Winkenwerder if there are further questions on that in 
testimony.
    So, Mr. Chairman, we appreciate your support of this 
budget. We believe the budget sustains the President's 
commitment to defend the United States, especially against 
catastrophic terrorism, and provides for the security of the 
American people. It continues his strong support of service 
members and their families and it supports the continued shift 
in emphasis away from static posture and forces of the last 
century to highly mobile expeditionary forces needed to prevail 
against adversaries ahead.
    As you know, sir, we also have in front of the Congress a 
$65.3 billion supplemental, and I know that is not the subject 
of today's hearing, but we would be happy to answer questions 
on that as well.


                           PREPARED STATEMENT


    So thank you, sir, for your support and the subcommittee 
for its support of our men and women in uniform.
    [The statement follows:]

                  Prepared Statement of Tina W. Jonas

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to discuss President Bush's fiscal year 2007 budget request 
for the Department of Defense.
    I would like to begin by saying thank you to the Committee for your 
continued strong support for the men and women of America's Armed 
Forces and their families. I will briefly summarize some of the more 
important elements of the request.
    The President's fiscal year 2007 budget request for the Department 
of Defense is $439.3 billion. This is a seven percent increase over the 
fiscal year 2006 enacted level of $410.8 billion.
    This Committee has jurisdiction over $422.6 billion, which includes 
operation and maintenance, procurement, research and development, and 
military personnel.
    The budget supports the President's 2005 National Security 
Strategy, the long war against terrorist extremists, and the findings 
and recommendations of the 2006 Quadrennial Defense Review (QDR).

                          STRATEGIC PRIORITIES

    Like the QDR, the fiscal year 2007 budget supports the Department's 
continued shift in emphasis--away from the static posture and forces of 
the last century to the highly mobile and expeditionary forces needed 
to prevail against any adversary in the years ahead.
    The budget is aligned with the QDR's strategic priorities and 
invests in the capabilities and forces the Nation needs to:
  --Prevail in irregular warfare operations, including wars of long 
        duration, like the global war on terror;
  --Defend the homeland, especially against catastrophic terrorism and 
        other advanced threats;
  --Maintain America's military superiority, to ensure our ability to 
        deter or defeat threats from other nation-states; and
  --Continue the Department's strong support of our military men and 
        women and their families.

                PREVAIL IN IRREGULAR WARFARE OPERATIONS

    To prevail in irregular warfare operations, the fiscal year 2007 
budget substantially increases the size and capabilities of Special 
Operations Forces, investing $5.1 billion in fiscal year 2007 and $28.7 
billion over the fiscal year 2007 to 2011 program to:
  --Fund an additional 14,000 Special Operations Forces (Special 
        Operations Forces will expand from 50,000 in fiscal year 2006 
        to 64,000 by fiscal year 2011. This is a growth of 4,000 in 
        fiscal year 2007);
  --Increase the number of SOF battalions by 33 percent (Active duty 
        battalions will grow from 15 to 20 by fiscal year 2012);
  --Fund a new Marine Corps Special Operations Command;
  --Establish a SOF Unmanned Aerial Vehicle Squadron; and
  --Increase the number of Navy SEAL teams to provide added maritime 
        capability.
    To increase Joint combat power, the budget provides $6.6 billion in 
fiscal year 2007 and $40.6 billion over the program, to complete 
conversion of 48 regular Army brigades to 70 modular Brigade Combat 
Teams.
    To continue the modernization and integration of ground forces, and 
produce a swifter, smarter, and more lethal force, the budget provides 
$3.7 billion in fiscal year 2007 and $22.4 billion over the program for 
the Future Combat System.
    Understanding the nature of the battle space on a minute-to-minute 
basis is critical to the success of our forces. The budget provides 
$1.7 billion in fiscal year 2007 and $11.6 billion over the program for 
unmanned aerial vehicles to increase U.S. intelligence-gathering 
capabilities and enable persistent, real-time intelligence--24 hours a 
day, seven days a week.
    In addition, to equip our forces with the language and cultural 
skills they will need for 21th century missions, the budget invests 
$181 million in fiscal year 2007 and $760 million over the program to 
expand language training for both general and special operations 
forces.

                          DEFEND THE HOMELAND

    To defend the homeland against 21st century threats, including 
global terror networks and rising states with nuclear weapons, the 
fiscal year 2007 budget provides:
  --$1.7 billion in fiscal year 2007, and $9.3 billion over the program 
        to develop countermeasures against advanced biological and 
        other weapons, and to tag, track, locate and render-safe 
        nuclear weapons;
  --$10.4 billion in fiscal year 2007 and $47.5 billion over the 
        program to produce and field additional ground and sea-based 
        interceptors to defend against intercontinental and theater 
        ballistic missiles; and
  --$0.9 billion in fiscal year 2007 and $9.3 billion over the program 
        to dramatically increase and extend satellite communications 
        capabilities to our deployed forces around the world.

                   MAINTAIN U.S. MILITARY SUPERIORITY

    While the focus in the years ahead will be on irregular warfare 
operations rather than another major conventional war, the United 
States must maintain the ability to deter or defeat the conventional 
forces of other nations.
    The Department continues to maintain a robust procurement program. 
The budget invests $84.2 billion in fiscal year 2007. This is an 
increase of $8 billion over the fiscal year 2006 level.
    To improve joint air support capabilities, maintain and improve 
joint air dominance, and improve the maritime capabilities of the joint 
force, the budget invests:
  --$4.7 billion in fiscal year 2007 and $27.1 billion over the 
        program, to purchase additional Apache, Chinook, and Black Hawk 
        helicopters as well as the V-22 Osprey;
  --$10.4 billion in fiscal year 2007, and $61.3 billion over the 
        program, to acquire more capable weapons systems--such as the 
        F-22, the F/A-18 E/F, and the first procurement of the Joint 
        Strike Fighter; and
  --$11.2 billion in fiscal year 2007 and $77.5 billion over the 
        program for seven new multi-mission, multi-capable ships: two 
        Destroyers (DDX), two Littoral Combat Ships (LCS), one Virginia 
        Class Submarine (SSN), one Amphibious Assault Ship (LHA(R)), 
        and one Logistics Ship (T-AKE).

             SUPPORTING SERVICE MEMBERS AND THEIR FAMILIES

    Because success in everything we do depends on the skill and 
dedication of the men and women who safeguard the freedom we enjoy 
every day, the fiscal year 2007 budget continues the Department's 
strong commitment to provide a high quality of life for those who serve 
and their families.

                              MILITARY PAY

    One demonstration of that commitment is military pay. Since 2001, 
basic military pay has increased 29 percent. In fiscal year 2007, basic 
pay will rise another 2.2 percent over the fiscal year 2006 level.
    That means an Army Sergeant (E-6) with 14 years of service, for 
example, will earn $779 more in fiscal year 2007 than he or she did in 
fiscal year 2006, and $8,893 more than in 2001.
    A typical Air Force captain (0-3) will earn $1,188 more in fiscal 
year 2007 than in fiscal year 2006, and $11,347 more than in fiscal 
year 2001.
    To ensure no out-of-pocket housing costs for military families 
living off-base, the budget increases the basic allowance for housing 
by an average rate of 5.9 percent.

                          MILITARY HEALTH CARE

    High-quality health care is another important benefit for service 
personnel and their families. The Department's health care program, 
TRICARE, provides one of the best health care coverage programs in the 
Nation.
    The budget provides $39 billion in fiscal year 2007 to provide 
health care for military personnel and their families. This includes 
$21 billion for the Defense Health Program--a $1 billion increase over 
the fiscal year 2006 enacted level.
    In fact, over the past five years, the full cost to provide 
military health care has nearly doubled--from $19 billion in fiscal 
year 2001 to $37 billion enacted in fiscal year 2006. Unless action is 
taken to address the rising cost of care, the current program is 
projected to increase to $50 billion by fiscal year 2011.
    Clearly, these rising costs cannot be sustained over the long term. 
Therefore, to place the health benefit on a sound fiscal basis for the 
long term, the Department is proposing to rebalance the share of costs 
between individuals and the government. The budget proposes to adjust 
the cost share for working-age retirees under 65. This change will not 
affect active duty service personnel and their families, except for 
minimal changes to pharmacy co-payments for family members.
    In 1995, as established by Congress, 73 percent of the cost was 
paid by the Department of Defense; 27 percent of the cost was paid by 
the beneficiary. Today, 88 percent of the cost is paid by the 
Department of Defense; and just 12 percent by the beneficiary.
    The budget proposes to gradually adjust these shares to less than 
the 1995 cost-share level.

             DEPARTMENT OF DEFENSE FISCAL YEAR 2007 BUDGET

    The Quadrennial Defense Review is the result of an extensive, year-
long review of U.S. military capabilities and forces. The QDR 
identified strategic priorities for added investment, and the fiscal 
year 2007 budget initiates the process of funding those priorities.
    The budget sustains the President's commitment to defend the United 
States, especially against catastrophic terrorism, and provide for the 
security of the American people. It continues the Department's strong 
support of service members and their families, and it supports the 
Department of Defense's continued shift in emphasis--away from the 
static posture and forces of the last century, to the highly mobile and 
expeditionary forces needed to prevail against any adversary in the 
years ahead.

                              SUPPLEMENTAL

    The President recently submitted a request for a fiscal year 2006 
supplemental appropriation. The Department of Defense's portion of this 
request is $65.3 billion, which will fund ongoing military operations 
in Afghanistan and Iraq, and other incremental costs of the global war 
on terror.
    The Department appreciates the Committee's prompt passage of 
previous supplemental requests, and we request your support for this 
one as well. Approval of the supplemental request will enable the 
Department to fund war-related costs for the rest of this fiscal year.

    Senator Stevens. Thank you very much.
    Admiral, do you have any comments to make?

                                 BUDGET

    Admiral Chanik. Chairman Stevens, just a couple comments 
that I will add to Ms. Jonas's if that is okay. First, sir, I 
thank you for the opportunity to be able to speak to you today 
in reference to the President's fiscal year 2007 budget request 
for the Department of Defense.
    What I will do, since Ms. Jonas has pretty much captured 
the essence of the budget, is just add a couple words. From a 
warfighter's perspective, we believe that this is a budget that 
represents a balance of near-term risk versus long-term risk, 
that the services and the Combatant Command (COCOMs) worked 
hard on to weigh current readiness, the global war on terror, 
and investments in transformational initiatives for the future 
fight.
    We think it provides a budget for the armed forces that 
allows the armed forces to be fully capable of executing our 
national military strategy and that it supports the chairman's 
priorities of winning the war on terrorism, of accelerating 
transformation, of strengthening joint warfighting, and of 
improving the quality of life for our troops and their 
families.
    As Ms. Jonas mentioned in her opening statement, we think 
it provides, continues to provide, strong support for today's 
fighting forces, that it invests in the capabilities we need to 
have to prevail in irregular warfare operations and in defense 
of the homeland.
    What I would like to underline and reemphasize, because she 
did speak to it in quite a bit of detail, are the thoughts on 
the proposal with reference to the health program. We think 
that this proposal takes some vital and important steps in 
renorming some of those fees for a superb military health care 
system. I would like to underline the fact that this affects 
those retirees under the age of 65 primarily and does not 
affect our active duty service personnel and their families. 
But as you have heard, the Chairman, the Joint Chiefs, and the 
Secretary are all behind this important proposal.
    I will close by thanking you and your subcommittee for your 
continued support to our men and women in uniform. As you are 
well aware, they are doing tremendous work around the world in 
some very difficult circumstances, and they certainly 
appreciate what you and your subcommittee and what Congress 
provides to them.
    I look forward to your questions, sir.
    Senator Stevens. Thank you both very much. I am saddened 
that I am here alone today.
    I think we will face substantial controversy when we get to 
the floor with this bill, primarily by people who want to add 
to it. I will ask you some questions about that. I think what I 
will do is, with your consent, would be just submit some of 
these questions, the ones that should be, just as matters for 
the record. I will submit them to you and ask you to respond to 
them. I do not know if Senator Inouye would have similar ones, 
but if he does we will do that.
    Ms. Jonas. Certainly.
    Senator Stevens. I am going to make a rule from now on, we 
are not going to seek answers to questions from Senators who do 
not attend the session unless there is a reason such as the 
good co-chairman has today. But I do believe more people should 
come to these hearings and should pursue their questions here 
before they present amendments on the floor.

                       END STRENGTH OF ARMY GUARD

    We heard about a recent agreement that you are going to 
fund the Army Guard at a strength of 350,000 soldiers for 2007. 
Is that in the budget? Is that amount covered by the budget?
    Ms. Jonas. Senator Stevens, what is in the budget is an 
amount for 333,000. If I can explain, that is the amount, the 
number, that they were currently at. The Congress has 
authorized 350,000. In prior years they have not made their 
number and so that has resulted in a little bit of funds 
available for other purposes and so we have reprogrammed those.
    But it is the Army's intent to fund the number that the 
Guard can reach. So we will make sure that that is done. We 
will work very closely, Mr. Chairman, with that.
    Senator Stevens. Are you going to do that through 
reprogramming, or how are we going to get to that figure?
    Ms. Jonas. In the past, sir, when we have had an overage--
and this has happened in prior years--we have reprogrammed 
funds. We did so last year when they did not reach the 350,000. 
I think there was about $347 million available. But my 
expectation is that we would work with the Army to reprogram 
funds.

                             SPECIAL FORCES

    Senator Stevens. A similar question with regard to the 
special forces capabilities. It is our understanding that there 
is going to be a significant increase in those forces 
capabilities. Are any of those capabilities funded in this 
request?
    Ms. Jonas. Yes, Mr. Chairman. As I noted in my testimony, 
we increased about 4,000, by about 4,000 in this 2007 budget 
and about 14,000----
    Senator Stevens. I heard that, but is the money in here for 
that?
    Ms. Jonas. Yes, sir. We are about $1 billion over where we 
were for special forces last year.
    Senator Stevens. You are going to increase them by 13,000 
over 5 years and there is 2,000 in this year's budget?
    Ms. Jonas. We are increasing the number by 4,000 in fiscal 
year 2007 and 14,000 over the program period, sir.

                            COSTS OF THE WAR

    Senator Stevens. We have discussed the problem of 
sustainability and I mentioned that. Now, it is our 
understanding, my staff tells me, that this bill before us now 
funds military operations at the current level, which is 
roughly $6.8 billion a month as we understand it, for the 
global war on terror. If that is correct, are we not looking at 
a supplemental just going in for that portion of this 
operation, these operations of the Department?
    Ms. Jonas. Mr. Chairman, the request before the Congress 
right now for the supplemental, the DOD portion of it, which 
excludes the intelligence funding, is $65.3 billion. So the 
rate that you are discussing, the $6.8 billion what is referred 
to as a burn rate, was what we had for the prior year, for 
fiscal year 2005. We expect there to be some increase due to 
increases in fuel costs. Our personnel are going to be a little 
bit more expensive because of the addition of death benefits, 
for example. There also is a little bit of inflation.
    In addition, we have costs for reset, what we call reset 
and reconstitution. So it will be a little bit higher than $6.8 
billion, we expect, in fiscal year 2006.
    Senator Stevens. I am told again by my staff that there is 
some sort of an amendment that we are going to look at which 
deals with a bridge, a $50 billion bridge. Bridges, I do not 
like to talk about bridges, coming from where I come from. But 
this one is from A to B.
    Why do you need a bridge in addition to this bill?
    Ms. Jonas. The bridge fund or the request for fiscal year 
2007--we have got in front of you a 2006 supplemental and what 
the administration is proposing for 2007 is an additional 
bridge fund of $50 billion. We will provide----
    Senator Stevens. $50 billion?
    Ms. Jonas. For 2007, sir.
    Senator Stevens. Will that be the supplemental for 2007?
    Ms. Jonas. It will be, yes, sir, a portion. We do not know 
exactly how much we are going to need, but the administration 
wanted to make sure, so that it could count against the overall 
budget concerns of the Congress, that we would at least have 
some of that counted for deficit projection purposes.
    Senator Stevens. How soon do you need the 2006 funding?
    Ms. Jonas. Mr. Chairman, we believe that we need those 
funds by the end of April, no later. We do not have sufficient 
operation and maintenance (O&M) dollars to get us through May.
    Senator Stevens. The supplemental that there was a hearing 
on this morning, we have got a hearing every day this week, I 
think, that is for 2006, right?
    Ms. Jonas. That is correct, sir.
    Senator Stevens. Are we going to include any portion of the 
2007 bridge in that one?
    Ms. Jonas. No, sir.
    Senator Stevens. Do we expect that, though, to come in 
before the end of this fiscal year, to have a bridge to 2007?
    Ms. Jonas. That is our expectation, sir.
    Senator Stevens. And am I led to believe that is $25 
billion?
    Ms. Jonas. $50 billion.
    Senator Stevens. No, you have got that $50 billion already, 
do you not?
    Ms. Jonas. Sir, we have $50 billion from the prior--
actually, we have $45 billion from your prior action, so the 
bridge supplemental that you recently approved and we are 
executing.
    Senator Stevens. That is for 2006?
    Ms. Jonas. Yes. And so in addition to that, we are asking 
for the $65.3 billion which is before you now for fiscal year 
2006.
    Senator Stevens. You are anticipating $50 billion for 2007?
    Ms. Jonas. Correct, sir.
    Senator Stevens. When are we going to start folding these 
into the regular bill?
    Ms. Jonas. Mr. Chairman, I will answer that in the way that 
the Secretary has. He is fully open to doing it either way. The 
concern that many of us have is that we cannot provide the type 
of detail that is normally wanted by the Congress. For example, 
when we develop the request before you we actually plug in the 
deployment orders into our cost modeling, so that provides a 
level of exactness that you cannot get with some of the types 
of projections on the $50 billion.
    But I certainly understand your concerns, Mr. Chairman. I 
know the Secretary does. But that would really be something 
that needs to be worked out, I think, between the congressional 
leadership and the Office of Management and Budget with respect 
to the use of supplementals.
    Senator Stevens. Well, I am concerned because some of the 
things that are in the regular bill for 2007 are related to the 
war on terror, are they not?
    Ms. Jonas. Yes, sir.
    Senator Stevens. And the $50 billion is exclusively, 
theoretically, for the war on terror?
    Ms. Jonas. Yes, sir.
    Senator Stevens. But when we were in Iraq and we went out 
to Fallujah and we saw the trucks that were there being up-
armored, that money was paid for out of the supplemental, 
right?
    Ms. Jonas. Yes, sir.
    Senator Stevens. But it was really a routine matter that is 
going to go on all over the Department, but just those in Iraq 
were paid for out of the supplemental?
    Ms. Jonas. I would have to get to your specific, at what 
you were looking at specifically. But we have equipment that--
--
    Senator Stevens. I am just using that as an example.
    Ms. Jonas. Yes, sir.
    Senator Stevens. I think these things blend--we think we 
are controlling expenses, but up here we have got a feather 
pillow that just goes wherever you want to put it and it does 
not make any difference what we try to do to try to get some 
control over some of these expenses.
    Ms. Jonas. Yes, sir. We try to the best that we can to 
track what is spent in theater. We do have reporting to the 
Congress that we provide. As a general matter, the overhaul and 
the wear and tear on the equipment that is being used in 
theater is being funded or rehabbed out of supplemental funds. 
Maybe Marty wants to talk to this a bit, but we are doing the 
best we can to try to give the Congress some clarity on that, 
sir.

                              CONTRACTING

    Senator Stevens. Well, who makes the decision when to out-
source an activity? Admiral?
    Admiral Chanik. Yes, sir. Can you clarify that question? I 
am not sure I have exactly what you mean when you talk about 
out-sourcing activity.
    Senator Stevens. They have got enormous contracts over 
there, food servicing, repair of vehicles, so many different 
things that we saw. Who makes the decision that those things 
cannot be done by people in uniform in the regular course of 
appropriations?
    Admiral Chanik. Sir, I will have to get back to you to see 
exactly who does that. That certainly is the commander in 
theater and his staff that is going to work through those 
issues and determine the best way to provide the requirements 
to support the soldiers, the sailors, airmen, marines on the 
ground. So they will work through that staff. They certainly 
have multiple regulations they comply with to go through that.
    But who exactly in that chain in the logistics side, we can 
certainly provide that for you if you would like, sir.
    [The information follows:]

    When determining outsourcing needs, the combatant commander 
allows Service components to create outsourced logistical 
support in their respectively assigned areas, consistent with 
Service regulations and authorities. Service components then 
develop and tailor outsourcing initiatives in their respective 
areas of responsibility (AORs). For example, there are more 
than 40,000 contractors in the U.S. Central Command (USCENTCOM) 
AOR performing functions in the combat support and combat 
service support arenas. Specific support functions currently 
contracted under the Logistics Civil Augmentation Program 
(LOGCAP) include: (1) Theater Transportation Mission; (2) Corps 
Logistical Service Support; (3) Army Oil Analysis Program; (4) 
Embassy Support, Baghdad; (5) Test Measurements Diagnostic 
Equipment; (6) Base Operations for U.S. Personnel; and (7) 
Subsistence (Dining Facilities operation).

    Senator Stevens. We are getting more and more questions, as 
I said to Ms. Jonas, from Members of the Senate about the out-
sourcing and who makes the decision and who decides what the 
level of commitment will be and where does that money come 
from. I really think you are going to have to help us get some 
details here on how these decisions are made and what level of 
control there is over out-sourcing as compared to the control 
we have over regular expenditures through the Department's 
normal procedures.
    Admiral Chanik. Yes, sir. We can certainly do that. I can 
assure you that in theater when they look at the alternatives 
of how to supply a particular capability, whether it is out-
sourced or whether it is organic to the forces in theater, they 
will look at that and determine what is the best way to achieve 
what they need to achieve in the time that they have to do that 
at the best cost. They will have a certain set of rules to go 
through that. But we can get you more detail, sir, and provide 
that to you.
    [The information follows:]

    The combatant commander allows Service components to create 
outsourced logistical support in their respectively assigned 
countries. Service components then develop and tailor 
outsourcing initiatives in their respective areas of 
responsibility consistent with Service regulations and 
authorities. Specifically, outsourcing initiatives are 
regulated by set guidelines. These regulations include: (1) 10 
USC 129a, which authorizes the Secretary of Defense to use 
civilian contracting if it is financially beneficial and 
consistent with military requirements; (2) Department of 
Defense Directive 1100.4, ``Guidance for Manpower Management'', 
which directs that assigned missions shall be accomplished 
using the least costly mix of personnel (military/civilian/
contractor) consistent with military requirements; (3) 
Department of Defense Instruction 3020.37, ``Continuation of 
Essential DOD Contractor Services During Crises'', which states 
that DOD components shall rely on the most effective mix of the 
total force, cost, and other factors, including contract 
resources necessary to fulfill assigned missions; and (4) Army 
Regulation 700-137, which established policies, 
responsibilities, and procedures for the implementation of the 
Logistics Civil Augmentation Program (LOGCAP). The LOGCAP 
objective is to preplan for the use of civilian contractors to 
perform selected services in wartime to augment Army forces.

                          FUNDING FOR VETERANS

    Senator Stevens. One of the questions we have been asked so 
far or told so far is going to be raised is the adequacy of 
funding for veterans under this bill. I am told there will be 
an amendment to add funds for veterans. What funding is already 
in this bill that covers veterans activities?
    Ms. Jonas. The Department of Veterans Affairs does provide 
the funding for that. I am unaware of any funding in the 
supplemental for that. We can certainly get back to you for the 
record, sir.
    [The information follows:]

    The Department of Veterans Affairs provides the funding for 
veterans benefits.
    The fiscal year 2007 President's Budget request for the 
Department of Defense does not include any funding for veterans 
benefits. However, the Defense portion of the President's 
fiscal year 2006 supplemental appropriations request for 
ongoing military and intelligence operations in support of 
Operation Iraqi Freedom, Operation Enduring Freedom, and 
selected other international activities does include about $0.9 
billion in funds to reimburse the Department of Veterans 
Affairs for casualty and disability benefits. These funds are 
included in the amounts requested for the Department's military 
personnel appropriations and include $0.4 billion for 
reimbursement of Servicemembers' Group Life Insurance (SGLI) 
claims and $0.5 billion for reimbursement for claims associated 
with the SGLI Traumatic Injury Protection program proposed by 
the President and enacted as part of Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror, and 
Tsunami Relief, 2005 (Public Law 109-13).

    Senator Stevens. We understand that, but I understand that 
this bill will be the target of additions for funding of 
veterans, particularly those that are coming out of this 
current involvement in Iraq. Is there any money for veterans in 
the supplemental to your knowledge?
    Ms. Jonas. Sir, I would have to get back to you for the 
record. Not to my knowledge, sir.

                          FUNDING FLEXIBILITY

    Senator Stevens. I am told that the services have expressed 
concerns about the lack of flexibility to fund emerging 
requirements or cash flow for combat operations if the basic 
allowance for housing and facilities, sustainment, restoration, 
and modernization funding are pro-rated in the Military Quality 
of Life and Veterans Affairs appropriations bill. As you know, 
this comes about because of the separation in the House now.
    Is there a problem there? Can you give us your assessment 
of the impact of this change in terms of the operations of the 
Department?
    Ms. Jonas. Certainly, Mr. Chairman, it will change the way 
we have to work with the Congress and it may limit our ability 
to transfer funds between certain accounts. For example, the 
sustainment accounts we will not be able to access for 
reprogramming or cash flowing purposes. So there are some 
limitations, but we will work carefully with the Congress to 
make sure that we can meet the requirements. But it does cause 
some constraints that we have not experienced in the past and 
will limit our flexibility to a degree.
    Senator Stevens. I will submit the balance of that 
question, then. That is really a technical question as I see 
it. I do not know how we are going to get through--this is the 
first year when that separation is going to take place.
    We did have to make a reduction overall on the bill last 
year of a 1 percent reduction. Have you determined how that 
impacts your budget with regard to the various functions, such 
as military personnel?
    Ms. Jonas. Yes, Mr. Chairman. It has caused some 
difficulties in the military personnel accounts. For example, 
we are working through an issue with the Navy right now in 
trying to execute this budget. We expect to have to reprogram 
some funds. So that has caused some little bit of difficulty in 
certain accounts.
    Senator Stevens. Are those attributable to the war on 
terror or are they routine impacts on the overall bill because 
of the 1 percent?
    Ms. Jonas. My understanding is that these are routine 
impacts. You mentioned the basic allowance for housing, for 
example. Those surveys to assess how much we actually provide 
are done later in the budget year and so that has also caused a 
little bit of a difficulty for the Navy. But the 1 percent has 
caused us some issue within the baseline.
    Senator Stevens. What kind of detail do you provide--now, 
we have gone through 2005 and we had both the basic bill and 
the supplemental in 2005. Have you filed either with OMB or 
with the authorization committee an as-spent type of budget? Do 
we know how that money was actually spent?
    Ms. Jonas. Yes, sir, we do provide, I believe, to the 
committees on a routine basis--and I will have to check with my 
folks----
    Senator Stevens. I do not mean--I mean a closeout for the 
year. Can we compare how we thought the money was going to be 
spent and how it was actually spent?
    Ms. Jonas. Yes, sir. That can be done, and we do provide 
what are called 1002 accounts. It is an accounting report of 
how funds were spent, sir.
    Senator Stevens. We will submit the rest of the questions, 
Ms. Jonas and Admiral. But I have got to tell you, as I said, I 
left that budget discussion and the projections out into the 
future on how this current trend is adjusted, assuming we do 
complete our actions in Iraq and still have the war on terror. 
The presumption is that we would have a bill that would cover 
the Department's operations and we would no longer have 
supplementals; is that a reasonable assumption?

                                 COSTS

    Admiral Chanik. Yes, sir. I think we have certain costs, 
obviously, as you are well aware now, with the efforts in 
Afghanistan, the efforts in Iraq, and those bring costs 
associated with them. Once those drop off, then I think that we 
have a much better chance of getting away from supplementals.
    I would also mention to you that one of our assumptions, as 
I think you are well aware, is that as we reset and 
reconstitute the force based on all that we have done in Iraq 
and Afghanistan, that there are still some dollars associated 
with that and that we will be requesting some supplementals to 
help in that reset of the force since we cannot really quantify 
that at the moment.
    But that is something that the chiefs have brought up in 
some of their testimony, that there will be some costs directly 
attributable to what we have done in Iraq and Afghanistan, even 
when those drop down to a steady state normal operating pace.
    Senator Stevens. Well, we are going to schedule some 
discussions with the Armed Services Committee. I have the 
feeling that one of the reasons that we do not have people here 
is they really do not know what questions to ask. We are 
getting just these gross figures and gross demands and we are 
not really getting a handle on what controls there are on 
either.
    If you look at the trend line I just looked at from 2001 to 
now, the total amount for the Department is more than double 
what it was in 2001. We are lacking in the capability to assess 
the rationale for those increases and to determine whether they 
are actually necessary. I really think we are going to be in 
for some real problems, particularly on this year's amounts, 
because we are looking at the bridge amount and then we are 
looking at another supplemental for 2007 once we are in that. 
It is very difficult for us to tell people, yes, we have gone 
over these accounts and these are accounts we understand, 
because we do not have the detail to know what they are.
    Ms. Jonas. Sir, we would be happy to provide as much detail 
as this subcommittee needs to assess the request in front of 
you. I will say, as we mentioned earlier, what I am concerned 
about is the cost, the rising cost of personnel. If you think 
about what we are spending on healthcare, for example, we are 
spending $2 billion more than Germany spends for its entire 
defense budget, on healthcare.
    We have mentioned the issue of other benefits that are 
important for our families that get added. But as you look at 
why our costs have increased over time, I would suggest that in 
the personnel area that is one area.
    Certainly in the area of acquisition there are studies that 
have been undertaken on acquisition and we need to do what we 
can to control overruns, cost overruns on weapon systems. That 
is a key area.
    But you should know, with respect to accountability and 
understanding what we are doing with funds, just to give you an 
example, the Defense Contract Audit Agency reviews $320 billion 
worth of contracts annually. They do 40,000 audits annually. So 
they are just one of the audit entities that we have working in 
the Department.
    I understand your concern and the Congress' concern about 
how funds are spent, accountability for those large increases 
that you noted, and we do take it seriously and we have got 
some terrific, dedicated professionals working on that, sir.
    Senator Stevens. I look forward to some discussions because 
the real--some of the questions that are coming at us, 
particularly in the area of out-sourcing--when there is out-
sourcing, when these functions are performed by military 
personnel or by civilian personnel in the Department, there are 
guidelines and there are precedents as far as what is spent. 
When it is out-sourced, we have had questions about what is the 
level of control on a contractor spending money to do the 
functions that otherwise would have been done by the military. 
It does not appear to be within the budget that the military 
would have done the job.
    Admiral?

                               OVERSIGHT

    Admiral Chanik. Sir, the only thing I guess I can add to 
that, I think as we mentioned earlier perhaps we need to be 
able to come back or take a question for the record to give you 
more detail that you want on that. I know it is certainly an 
area that the services are very concerned about. In fact, there 
is going to be established an inspector general, an inspector 
general office, in Qatar to help in terms of oversight on some 
of these issues. So it is getting a tremendous amount of 
attention to review the rules and regulations of how these 
decisions are made and how the out-sourcing occurs.
    But I think the best thing is if we can take some questions 
for the record, sir, and we will come back with some better 
detail than that general comment.
    Senator Stevens. All right. Well, just look at it this way. 
We will have dealt with $120 billion this year for which we 
have no justification at all. It is emergency spending in 
supplementals. Those are the areas that we are going to get the 
questions on and I believe that those are the areas where 
questions ought to be raised.
    As Ms. Ashworth said, we do not have justification books on 
them, nor do we have any post-expenditure explanations that I 
know of. I think we are going to start getting questions we 
cannot answer, and once we cannot answer them we do not get a 
bill.
    So I hope that you will really consider what information we 
can have about how this money is going to be spent and what 
controls there are on its being spent, okay?
    Ms. Jonas. Absolutely, Mr. Chairman. My understanding is 
that we provide quarterly reports on the expenditure of the 
funds.
    Senator Stevens. That is in gross. We have got that. Yes, 
we have got, we spent x billion dollars.
    Ms. Jonas. Okay. I believe that we provide account-level 
detail, but we will provide this subcommittee whatever it needs 
to properly assess the proper expenditure of funds and the 
requests before you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Again, I am sad that the other people are 
not here. We will submit the questions and will ask Senator 
Inouye if he wishes to submit any.
    Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Ted Stevens

                      BASIC ALLOWANCE FOR HOUSING

    Question. The Services have expressed concern about the lack of 
flexibility to fund emergent requirements or to cash flow combat 
operations if Basic Allowance for Housing and Facilities Sustainment, 
Restoration and Modernization funding are appropriated in the Military 
Quality of Life and Veterans Affairs Appropriations bill for fiscal 
year 2007. Please explain the impact this change will have on budget 
execution with the Department?
    Answer. The reorganization of the Department of Defense (DOD) and 
the Military Construction Appropriations Bills poses significant 
financial management challenges for the Department. As proposed, the 
reorganization moves the following programs out of the DOD 
Appropriations Bill into a new Military Quality of Life and Veterans 
Affairs Bill:
  --Facilities Sustainment, Restoration and Modernization (FSRM) 
        (Currently, generally funded as part of the Services' 
        Operations and Maintenance appropriations.)
  --Defense Health Program (DHP)
  --Environmental Programs (Currently funded in transfer accounts; most 
        of the funds are transferred to the Services' Operations and 
        Maintenance accounts for execution.)
  --Basic Allowance for Housing (BAH)
    Splitting the Operation and Maintenance and Military Personnel 
appropriations into two bills: creates suboptimal tradeoffs within each 
of the separate bills; constrains the Department's ability to react to 
emergent execution requirements; and adds additional administrative 
burdens on both DOD and congressional staffs.
    The Military Construction Appropriations Bill does not include 
general transfer authority. Year of execution cost increases for BAH or 
medical care would require the Department to submit supplemental 
appropriations requests to the Congress.
    At a minimum, DOD must have the authority to: transfer funds 
between and among the appropriations included in the final Acts; 
increase DOD's General Transfer Authority; and transfer from/to the 
Foreign Currency Fluctuation appropriations to offset foreign currency 
losses resulting from a decline in the market value of the U.S. dollar.
    Providing authority to transfer funds between and among the 
appropriations included in the final Acts and increasing DOD's General 
Transfer Authority, will help mitigate, but not solve issues 1 and 2 
above. For example:
  --DOD Contingency Operations.--The new bill structure will make it 
        more difficult to finance contingency operations, such as 
        Operation Iraqi Freedom and Operation Enduring Freedom, because 
        historically Commanders use Facilities Sustainment, Repair and 
        Modernization (FSRM) funding to cash flow critical war fighter 
        needs until a supplemental is received.
      During fiscal year 2005, the Department cash flowed significant 
        percentage of the FSRM funds to finance operational 
        requirements. Any delay in enactment of the supplemental will 
        make it more difficult to execute the Global War on Terror 
        (GWOT).
  --BAH.--Annual funding of BAH fluctuates based on a number of 
        factors, including the number of military personnel, grade 
        structure, dependency rates and the availability of military 
        housing. In addition, to provide Service members with the most 
        accurate allowance possible, BAH rates are set outside of the 
        budget cycle.
    --At present, due to the large size of the military personnel 
            appropriations (over $100 billion), the Department has 
            managed BAH fluctuations within the current appropriation 
            structure.
    --If transfer authority between appropriations and across 
            appropriations Acts is not provided, DOD would have to seek 
            supplemental funds to avoid any pay problems for our 
            military members and their families.
    --Even if transfer authority is provided, DOD would need to 
            formally reprogram funds causing delays and possible pay 
            problems if shortfalls are realized late in the year. It 
            also increases the risk of pay errors due to payment of 
            military personnel from duplicative accounting 
            infrastructure required for BAH and other military 
            compensation.
    --None of the current military pay and accounting systems has the 
            functionality to properly pay the BAH from a separate 
            account. Time to make the changes depends on the system and 
            the complexity of the change. At a minimum, it will require 
            6 months from the time when all requirements are known.
    Question. I understand that rate changes in Basic Allowance for 
Housing have caused significant bills for the Services, particularly 
the Navy. Can you explain how the Department would fund these 
requirements if Basic Allowance for Housing is funded in the Military 
Quality of Life and Veterans Affairs Appropriations bill?
    Answer. The current unfunded fiscal year 2006 estimate for the BAH 
program is over $800 million. This is due to both an increase in 
inflation after the fiscal year 2006 President's Budget was submitted, 
and the impact of congressional reductions in fiscal year 2006.
    How the Department would fund these requirements depends on the 
flexibility provided in the law for reprogramming funds. In the past, 
BAH shortfalls have often been financed from within the military 
personnel appropriations due to variances in force level execution (the 
number of personnel, or the mix of personnel by officer/enlisted and by 
grade).
    If flexibility is provided to reprogram between the Defense 
Appropriations Bill and the Military Quality of Life Appropriations 
Bill, the Department would more than likely reprogram resources from 
the military personnel appropriations; if additional resources are 
required, other programs would be considered. If there is no 
flexibility to reprogram from outside the Military Quality of Life and 
Veterans Affairs Appropriations bill, and general transfer authority is 
provided to reprogram resources among Quality of Life accounts, then 
Facilities Sustainment, Restoration and Modernization (FSRM) funding 
would likely be the source. If no general transfer authority is 
provided, the Department would be forced to submit a supplemental 
appropriations request.
    Even if transfer authority between appropriations and across 
appropriations acts is provided, the proposed realignment would require 
the Department to formally reprogram funds causing delays and possible 
pay problems if shortfalls are realized late in the year.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                            CORROSION COSTS

    Question. Since the return on investment is so great and the annual 
costs of corrosion so high, why is the Department of Defense reducing 
this budget and recommending only $13 million for the corrosion 
prevention and control?
    Answer. The Department of Defense agrees that significant funding 
for corrosion prevention and mitigation is warranted. The Congressional 
mandate manifested in 10 U.S.C. 2228 requiring the corrosion prevention 
and mitigation program has illuminated the problem and drawn the 
attention of a much wider audience throughout DOD. However, we must be 
judicious in determining the size of the investment. The Global War on 
Terrorism, international and national disasters, and other high 
priority competing programs have severely stretched the DOD budget. The 
DOD Corrosion Prevention and Control Strategic Plan, our long term 
strategy, depicts an integrated approach in preventing and mitigating 
corrosion of DOD's weapons systems and infrastructures. This approach 
entails R&D; training; outreach and communications; specifications, 
standards and qualification processes; policy and requirements; 
facilities; and cost of corrosion and other metrics. Funding specific 
projects with high and measurable ROIs is just one of the several 
approaches identified in our Strategic Plan to combat corrosion. 
Therefore, the current level of investment is appropriate as we 
continue to validate the projected return on the $27 million investment 
in the fiscal year 2005 and the $14 million investment in the DOD 
Corrosion Program. It is critical to our continued success to show 
quantitatively and objectively that the projected cost avoidance 
associated with our corrosion projects is real and demonstrable. We 
plan to continue supporting science and technology investment in 
corrosion understanding and prevention technologies to maintain a 
supply of transitionable research products for current and future 
forces.
    Question. Can we expect to see an increase in corrosion funding in 
the future, so we can take advantage of potential savings?
    Answer. We will evaluate the results of the cost of corrosion 
baseline study and the results of funded corrosion prevention and 
control projects with other Department requirements. The Under 
Secretary of Defense (Acquisition, Technology and Logistics) is 
evaluating the requirements in consideration for the next budget cycle.

                          SUBCOMMITTEE RECESS

    Senator Stevens. If there is nothing further, the 
subcommittee will stand in recess.
    [Whereupon, at 3:19 p.m., Tuesday, March 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Burns, and Inouye.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

STATEMENT OF THE HONORABLE DAVID C. WINTER, SECRETARY 
            OF THE NAVY
ACCOMPANIED BY:
        ADMIRAL MICHAEL G. MULLEN, CHIEF OF NAVAL OPERATIONS
        GENERAL MICHAEL W. HAGEE, COMMANDANT, MARINE CORPS

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. My apologies, gentlemen. I had a visit 
from one of the youth commissions in my State, that had a few 
questions. I hope you've got the answers. We're pleased to 
welcome the Secretary of the Navy, the Chief of Naval 
Operations, and the Commandant of the Marine Corps today, to 
discuss the fiscal year 2007 budget.
    Secretary Winter, Admiral Mullen, this is your first 
appearance before the subcommittee and the co-chairman and I, 
and our whole subcommittee welcome both of you.
    The Department of the Navy budget request for fiscal year 
2007 is $127.3 billion. Approximately $4.4 billion above the 
level we provided last year, excluding supplementals.
    We look forward to hearing about your priorities for these 
funds, and about the current status of the Navy and the Marine 
Corps, and we're also interested in the recent four structure 
changes, such as stand up of the new Marine Corps Special 
Operations Command, and the new Riverine Force. We hope you 
will share with us some of the challenges facing the Navy and 
Marine Corps team. And such as the need to reconstitute the 
force after returning from operations in the war theatre.
    As always, your statements will appear in the record in 
full, as though read. Let me turn to other Members here, to see 
if they have any opening statements.
    Mr. Chairman.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman and 
gentlemen. I join my chairman in showing our appreciation that 
you've joined us today to testify before this subcommittee. Mr. 
Secretary and Admiral Mullen, we welcome you for your first 
appearance before this subcommittee and General Hagee, it's 
always good to see you. Sir, welcome back.
    Mr. Secretary, you and your military partners present a 
shared vision for the Navy and Marine Corps. One that seeks to 
modernize your forces while bringing the marines and Navy into 
a closer and more efficient partnership. Admiral, we recognize 
your requirement to modernize the fleet, to ensure that we do 
not continue to reduce the number of ships.
    General Hagee, we also see the need to rebuild our marine 
forces as they return to duty from Iraq. We hope to learn today 
how you will balance these modernization goals, while still 
providing sufficient funding to steam your ships, train your 
pilots, support the quality of life programs, such as military 
healthcare that are very vital to retention.
    Mr. Chairman, as you are aware, this is a challenging 
period for our military forces. They are being called upon 
increasingly to serve in harm's way. At the same time, the 
Defense Department has adopted policies which either reduce 
their forces, or increase commitments within the same force 
structure. We know these policies could strain our marines and 
Navy if they are not implemented with great care.
    Gentlemen, this is a tough assignment. We appreciate that 
you've joined us today and look forward to the meaningful 
discussion on balancing the needs of our maritime forces within 
budget limits.
    Thank you, very much. Mr. Chairman.
    Senator Stevens. Chairman of the full Committee.

     PREPARED STATEMENTS OF SENATORS THAD COCHRAN AND CONRAD BURNS

    Senator Cochran. Mr. Chairman, I'll be glad to put a 
statement in the record. Thank you very much.
    Senator Stevens. Senator Burns.
    Senator Burns. Same with me, Mr. Chairman. I think we want 
to hear from the witnesses today.
    [The statements follow:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to welcome Secretary Winter, 
Admiral Mullen, and General Hagee to this hearing. We 
appreciate your cooperation with this committee as we review 
the requests for appropriations for the Navy and Marine Corps. 
We also appreciate the response to the needs of disaster 
victims in the Gulf Coast region in the wake of Hurricane 
Katrina. I'd also like to thank General Hagee for the Marines' 
outstanding support provided to Mississippi's 155th Separate 
Armor Brigade while they were deployed to the Anbar Province 
and attached to the Second Marine Expeditionary Force.
    I join you, Mr. Chairman, in praising the performance of 
our military forces. They reflect great credit upon our 
country. We continue to keep them in our prayers as they 
maintain their legacy of sacrifice and service.
                                ------                                


               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. Secretary Winter, Admiral Mullen, 
General Hagee.
    First of all, I want to congratulate you for the tremendous 
service that your sailors and Marines are providing to win this 
war on terror. Our sailors and Marines are deployed all over 
the world. These great Americans are carrying the weight for 
our nation.
    In fact the future of the Middle East rests in the battle 
tested hands of your young men and women who now serve all over 
the world. We have a unique opportunity to bring stability to 
an area of the world that has not known peace in generations. 
This opportunity will not come again. We must do everything we 
can to ensure that our courageous men and women have the tools 
they need to succeed around the world.

    Senator Stevens. Mr. Secretary, we're pleased to have your 
statement.
    Mr. Winter. The Chairman, Senator Inouye, members of the 
subcommittee----
    Senator Stevens. Can you pull that mic back toward you a 
little bit, Mr. Secretary? Thank you.
    Mr. Winter. Thank you for the opportunity you've given the 
Navy and Marine Corps team to appear before this subcommittee. 
But before I start, I would like to express my deepest sympathy 
to Senator Inouye and his family on behalf of the entire 
Department of the Navy. Sir, you have our deepest sympathies.
    Now today, I'm joined by Admiral Mullen and General Hagee, 
and I could not ask for better, more honorable teammates. It is 
a true pleasure to work with them. Now each of us has provided 
a statement to this subcommittee and I appreciate the inclusion 
of those statements into the record.
    These documents outline in detail, this Department's 
priorities. Our top priorities are clear. We must prosecute the 
global war on terror today, while deterring potential 
adversaries and reset the force for tomorrow.
    Mr. Chairman, let me be blunt: We are a nation at war. 
Support for sailors and marines in the Iraqi theatre of 
operations is our most urgent task, and I am focused daily on 
what the Navy and Marine Corps can do to help achieve victory 
in Iraq and against terrorists elsewhere around the globe.
    I am now in my third month as Secretary. Being a firm 
believer in the idea that there is no substitute for personal 
observation, I recently made my first visit to Iraq and to the 
5th Fleet. I met with sailors and marines at a number of major 
naval bases in the United States, and overseas, and visited 
several leading shipyards on the east coast.
    During my visit to Iraq last month, where I traveled 
throughout Al Anbar process from Falluja to the Syrian border, 
I spoke to hundreds of marines and sailors on an individual 
basis and the experience has left me with more pride and 
admiration for their courage and commitment, than I have 
thought possible. I was truly struck by their genuine 
enthusiasm and professionalism, and humbled by their 
achievement.
    It is difficult to describe the feeling one gets, for 
example, after meeting a team of four marines in Al Taqaddum, 
southwest of Baghdad, standing in front of a mangled and broken 
Humvee--a vehicle destroyed by an improvised explosive device 
(IED) while they were patrolling in it just days before. But 
though the vehicle was damaged beyond repair, all four marines 
were healthy, resolute, and determined--ready to go back out on 
patrol.
    Mr. Chairman, the courage of those four marines is symbolic 
of the courage shown by countless others on duty in the global 
war on terror, and it is inspiring to all of us who serve our 
Nation.
    There are countless unsung heroes--yes, heroes--doing 
extremely important work under demanding conditions on land and 
at sea, 24 hours a day, 7 days a week, all over the globe.
    To highlight one other example, Navy sailors are guarding 
strategically vital oil terminals off the coast of Iraq, 
thereby protecting not only Iraq's, but the world's economy 
from attacks by terrorists. They know the importance of their 
mission and they take great pride in doing it well.
    Now I would like to thank this subcommittee for its strong 
support for the Navy and marines. Your visits to forward 
deployed marines and sailors are essential, and they are deeply 
appreciated by those serving so far from home.
    The same applies to visits to wounded heroes at Bethesda 
Naval Hospital, Walter Reed Medical Center, and other medical 
facilities. I know from my own visits with injured sailors and 
marines that your personal concern and support means a great 
deal to these young patriots who have sacrificed so much in the 
service of this Nation.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. I look forward to your questions.
    [The statement follows:]

            Prepared Statement of Honorable Donald C. Winter
 Providing the Right Force for the Nation Today . . . While Preparing 
                   for the Uncertainties of Tomorrow

                              INTRODUCTION

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today. I recently had the opportunity 
to visit our forces in Iraq. This was my first visit to Iraq. I was 
truly impressed by the genuine enthusiasm and drive of our forces. Our 
Marines and Sailors believe in what they are doing and they are 
performing superbly in very challenging circumstances. From the Iraqi-
Syrian border region to Iraq's off-shore oil terminals, our troops are 
making a difference in the transition of Iraq to a democratic nation. 
Our troops recognize they are making a difference and are proud of what 
they do. And, I am very proud of what they are doing to win the war. It 
is not an easy battle but one that, with the support of the American 
people and Congress, we can and will win. Your continued support of our 
Sailors and Marines has a profound, positive impact on our ability to 
provide matchless naval forces for the defense of the United States.
    Throughout the world, the Navy and Marine Corps Team continues to 
answer the Nation's call and play a leading role in the Global War on 
Terror (GWOT). During 2005, the versatility and flexibility of 
expeditionary naval forces were repeatedly demonstrated while 
undertaking missions that ranged from major combat operations in 
Afghanistan and Iraq, to Humanitarian Assistance and Disaster Relief 
(HA/DR) operations in Indonesia and on our own Gulf Coast after 
Hurricanes Katrina and Rita.
    Providing the right force for the Nation today, in a time of war, 
is not the only challenge. We must also prepare for the uncertainties 
of tomorrow that include future terrorists and other emerging 
asymmetric threats, as well as potential peer competitors. All of these 
will require Navy and Marine Corps forces capable of preserving 
America's longstanding maritime dominance.
    Naval forces have inherent, unique warfighting capabilities that 
include global access, a non-intrusive footprint, persistent presence, 
and expeditionary power that always figure prominently in the 
President's deliberations during times of crisis. Far-sighted leaders 
in Congress, recognizing naval forces' unique strengths, deserve our 
thanks for the key resource decisions they have made in recent years.
    This past year featured a long and impressive list of Navy and 
Marine Corps achievements in support of GWOT. Last year in Iraq, Navy 
and Marine Corps personnel proved critical to the achievement of 
wartime objectives. A Marine Expeditionary Force conducted operations 
in Al Anbar province, the heart of the Baathist insurgency, and was 
successful in ensuring security for the historic elections in January 
and December 2005. Marines also executed missions in Afghanistan and 
the Horn of Africa. Sailors were deployed to U.S. Central Command 
(USCENTCOM) in various missions ashore, requiring boots on the ground. 
Missions were performed by SEALs, Seabees, Military Police (MP), 
Explosive Ordnance Disposal (EOD), medical, intelligence, civil 
affairs, and other support personnel.
    The flexibility and professionalism of naval forces were also on 
display in providing humanitarian relief to tsunami victims in South 
Asia, earthquake victims in Pakistan, and to our own citizens along the 
Gulf Coast. After Hurricane Katrina hit, naval forces responded with 23 
ships, more than 12,000 Sailors and Marines, and 104 aircraft to 
evacuate more than 8,000 victims and deliver more than 2 million pounds 
of food and countless gallons of water. The zeal and professionalism 
with which Sailors and Marines rushed forward to save lives and provide 
comfort to the afflicted were brought under an international spotlight, 
proving once again that naval forces have the versatility to serve as 
first responders with global reach.
    In carrying out these missions, from Kabul to Baghdad, and 
Indonesia to New Orleans, the Navy and Marine Corps performed superbly, 
taking advantage of their unique capabilities to engage the enemy or 
rescue those in distress, achieving objectives ranging from eliminating 
a terrorist enclave to building enduring relationships and gaining 
influence through our goodwill gestures. Faced with the strategic 
imperatives of providing the right force for the nation today, while 
simultaneously building naval capabilities for the challenges of 
tomorrow, the Department must continue on its course towards 
transformation and modernization. Funding technologies and weapons 
systems that will enable naval forces to enlarge their contributions to 
GWOT is our most urgent task. Investing in the ships, aircraft, 
submarines, and Marine Corps warfighting equipment and people to 
preserve this Nation's historic naval power to dissuade or deter peer 
competitors, to prevail in war, and to win hearts and minds, remains an 
enduring, fundamental strategic requirement.
    Responsible and successful statesmanship requires matching 
strategic ends to available means. This requires trade-offs and hard 
choices in a security environment where errors or misjudgments can 
result in significant consequences. The Department of the Navy's 
portion of the President's Budget for fiscal year 2007 is the product 
of a realistic, rigorous assessment of naval requirements, resources, 
and priorities. It reflects both wartime exigencies and prudent 
investments, with a vigilant eye on the uncertainties of tomorrow.
    As Navy and Marine Corps forces are actively engaged in combat 
operations in Iraq, Afghanistan, and stand ready around the globe, we 
have a solemn duty to ensure that our Sailors and Marines are trained, 
equipped, and prepared for all missions. The fiscal year 2007 
President's Budget meets these requirements.

                   FISCAL YEAR 2007 BUDGET PRIORITIES

    In support of the Department of the Navy's mission and as validated 
by the 2006 Quadrennial Defense Review (QDR), the fiscal year 2007 
President's budget provides the right force for the Nation today, 
prepares for the uncertainties of tomorrow, and effectively manages the 
risk imposed by legitimate fiscal constraints.
    The fiscal year 2007 budget includes $127.3 billion for the 
Department of the Navy, an increase of $4.4 billion over last year's 
baseline appropriations.
    In fiscal year 2007, every appropriations category increases except 
for Research and Development (R&D). Military Personnel accounts 
increase due primarily to health care costs and retired pay. Operating 
accounts increase because of the rising cost of fuel, and to support 
higher readiness levels that overall generates a more cost-efficient 
use of valuable naval assets. Procurement accounts increase as we build 
the future fleet. The R&D accounts decrease as a result of programs 
transitioning from development to production. The following summarizes 
the fiscal year 2007 budget highlights for the Department of the Navy:
    Personnel Salary and Benefits.--The fiscal year 2007 President's 
budget includes an increase of $1.4 billion in military personnel 
spending which includes a basic pay raise of 2.2 percent for all 
service members, health benefits, a 5.9 percent increase in housing 
allowance, special pays, and targeted pay raises for warrant officers 
and mid-grade/senior enlisted personnel. As a result of targeted pay 
incentives, the Navy and Marine Corps achieved nearly every active duty 
recruiting and retention goal with exceptions found only in highly 
technical specialties. To maintain momentum, the Navy and Marine Corps 
have increased funding for enlistment bonuses. Congressional support is 
appreciated for the re-enlistment bonus increases slated for selected 
technical ratings.
    Operation and Maintenance.--The fiscal year 2007 President's budget 
increases Operation and Maintenance by $2.1 billion. As part of a joint 
warfighting team, the Navy and Marine Corps will control the seas, 
assure access, and project offensive power and defensive capability to 
influence events at sea and ashore. The ability of naval forces to meet 
the Combatant Commanders' requirements is a function of their combat 
readiness. The Navy's Fleet Response Plan (FRP) produces adaptable 
force packages and better sustains readiness throughout a unit's 
operational cycle to ensure the availability of fully ready Carrier 
Strike Groups (CSG) and other fleet assets. The goal of FRP is to 
provide the Nation with 6 CSGs within 30 days, and an additional CSG 
within 90 days. Fiscal year 2007 funding will invest in future 
readiness for an experienced and trained fleet and will also provide 
better trained, safer, and more lethal Marines before they deploy. 
Marine forces preparing for combat operations also require additional 
training resources. Fiscal year 2007 funds will also pay to implement 
the following new joint capabilities, which reflect an increased role 
for the Department of the Navy in prosecuting GWOT:
  --The Marine Corps Special Operations Command (MARSOC) will enhance 
        interoperability, and provide greater flexibility and increased 
        capability to conduct irregular warfare.
  --Regeneration of a Navy Riverine Capability will fill a critical 
        capability gap by extending operations into the ``brown water'' 
        environment, and provide additional opportunities to build 
        partner-nation cooperation.
  --The Expeditionary Security Force will increase the effectiveness of 
        shipborne security and maritime interdiction operations by 
        supporting intercept and boarding capabilities in every CSG/
        ESG, as well as providing high end defensive capabilities 
        within the Navy in support of force protection, harbor/port 
        defense, and protection of maritime infrastructure.
  --The National Maritime Intelligence Center, serving as the Nation's 
        Global Maritime Intelligence Integration Center, will increase 
        Maritime Domain Awareness (MDA) by strengthening interagency 
        operations and enhancing partner-nation cooperation.
    Shipbuilding Account.--The fiscal year 2007 budget for shipbuilding 
ensures that tomorrow's fleet will remain the world's preeminent. In 
fiscal year 2007, fourteen ships will be delivered to the Navy that 
include: four Amphibious Transport Dock ships (LPD)--(Hurricane Katrina 
impact may delay two ships to fiscal year 2008), three Dry Cargo and 
Ammunition ships (T-AKE), three Guided-Missile Destroyers (DDG), one 
Amphibious Assault ship (LHD), one Attack submarine (SSN), and one 
Oceanographic Survey ship (T-AGS). Also, the first of its class 
Littoral Combat Ship (LCS) will be delivered, built in less than two 
years. This is the payoff of previous years' investments toward buying 
naval capabilities for the future.
    Aviation Account.--The fiscal year 2007 budget increases aviation 
procurement by $1.2 billion to support the continued acquisition of 
critical programs including the Joint Strike Fighter (JSF), F/A-18E/F, 
EA-18G, MV-22, AH-1Z/UH-1Y, MH-60R, MH-60S multimission helicopters, 
and the Joint Primary Aircrew Training System (JPATS). Funding for 165 
aircraft in fiscal year 2007 reflects an increase of 31 aircraft over 
fiscal year 2006, and a total of 1,150 new aircraft over the Future 
Years Defense Plan (FYDP).
    Marine Corps Ground Equipment Accounts.--High Mobility Multi-
Purpose Wheeled Vehicle (HMMWV), Light Armored Vehicle Product 
Improvement Program (LAV PIP), Lightweight 155 mm Howitzer (LW-155), 
High Mobility Artillery Rocket System (HIMARS), and the Assault 
Breaching Vehicle (ABV) are vital programs funded in this budget. The 
Expeditionary Fighting Vehicle (EFV) begins initial low rate production 
in fiscal year 2007.
    Research, Development, Test & Evaluation (RDT&E) Account.--In 
fiscal year 2007, research and development decreases by $1.8 billion, 
reflecting acquisition maturation and the transition to production. 
Additionally, there is a transfer of $280 million from Navy R&D to 
Defense Wide R&D for Joint Forces Command efforts. Critical 
Shipbuilding programs include CVN 21, DD(X), LCS, Joint Highspeed 
Vessel and the SSN 774 Virginia-Class submarine. Critical manned 
aviation programs include the Joint Strike Fighter (JSF), P-8A Multi-
Mission Maritime Aircraft (MMA), VH-71 Presidential helicopter 
replacement, E2D, EA-18G, and CH-53K.
          Providing the Right Force for the Nation Today . . .

                            NAVAL WORKFORCE

    Those of you who have visited forward deployed Navy and Marine 
forces, as I have recently done, know that naval forces include the 
best of America's young men and women. I am energized every time I have 
an opportunity to meet and talk with our Sailors and Marines. It is 
pure joy each time I reenlist or promote these true patriots. I deeply 
admire their willingness to continue their service and swear an oath of 
allegiance knowing the dangers and hardships they face. My visits 
reinforced the highest regard I already hold for the tremendously 
dedicated men and women who serve our Nation, in uniform and out, and 
for their leadership.
    Commitment to the welfare and professional development of these 
Sailors and Marines is a top priority. I give the same emphasis to 
safety. The Department is making investments in protecting Sailors and 
Marines through accident prevention initiatives and with armor and 
specialized equipment. Our Sailors and Marines, civilians, and 
contractors deserve our very best efforts to maintain their continued 
safety and welfare.
    The rising cost of naval manpower continues to drive the overall 
budget significantly. While the Department continues to increase 
performance efficiency through targeted manpower reductions, total 
manpower costs continue to rise. We must invest in this force so that 
it remains technically competent, properly equipped, and well trained.
    Protect Sailors and Marines.--Protecting Sailors and Marines is a 
top priority. In response to growing force protection concerns in Iraq 
and Afghanistan, the Department has expeditiously acquired technology 
and hardware to equip Marines and Sailors for current wartime 
operations.
  --Personal Protective Equipment.--Every Marine, Sailor, and 
        Department of the Navy civilian is issued a complete set of 
        body armor before going into Iraq or Afghanistan. They are 
        outfitted with the Interceptor Body Armor System, including 
        Outer Tactical Vests, Small Arms Protective Inserts (SAPI), 
        ballistic helmets and ballistic goggles. Enhanced SAPI plates 
        have been providing a significant force protection improvement, 
        with 13,798 sets fielded. In June 2005 the Marine Corps 
        identified the need for armor side plates. Delivery to the 
        field began in November 2005, and to date 11,614 sets of body 
        armor side plates have been shipped to theater, and an 
        additional 9,000 sets will be fielded during the third quarter 
        of fiscal year 2006. Other initiatives, such as an improved 
        lightweight combat helmet, and lower face and body armor, are 
        under development.
  --Vehicle Hardening.--Since August 2004, all Marine Corps vehicles 
        operating outside Forward Operating bases have been equipped 
        with Level II armor or better. The Marine Corps worked hard to 
        replace the first generation armor with this improved zonal 
        protection.
  --A fiscal year 2006 bridge supplemental of $179 million is procuring 
        the final 524 M1114s (Up-Armored Armament Carrier configuration 
        of the HMMWV family) to fill the requirement for 2814 M1114s, 
        by September 2006. The Marine Corps Systems Command and the 
        Marine Corps Warfighting Lab teamed with the Army Developmental 
        Test Command to test and rapidly assess various materials for 
        use in vehicle hardening, to include improved ballistic glass, 
        armor, and ceramics. These added armor capabilities have been 
        incorporated into the next generation of vehicle hardening 
        initiatives: the Marine Armor Kit (MAK) for the HMMWV, and the 
        Medium Tactical Vehicle Replacement (MTVR) Armor System (MAS). 
        MAK and MAS armor are replacing previous generations with an 
        integrated, comprehensive (improved perimeter, top, and under-
        body) armor kit. A total of 2,660 HMMWV MAK installations were 
        completed by November 2005. MTVR MAS kit installation is over 
        60 percent complete with an estimated completion date of May 
        2006 for the remaining vehicles.
  --Counter IED Technology and Equipment.--The Department has 
        aggressively developed technologies to counter the threat posed 
        by Improvised Explosive Devices (IEDs) in Iraq and Afghanistan. 
        I recently had the opportunity to visit our forces in Iraq. 
        From first-hand observation, I can assure you that we are 
        working the IED problem comprehensively and with a great sense 
        of urgency. IEDs are a continuously evolving problem and we are 
        constantly evolving our response. We are effectively addressing 
        challenges associated with IEDs.
    The Department of Defense (DOD) designated the Navy as the single 
manager for Explosive Ordnance Disposal (EOD) technology and training 
responsible for the development of Joint Service EOD technology. The 
Department has fully supported the Joint IED Defeat Organization with 
leadership as well as delivery to Iraq of a number of high and low 
powered jammers. The Office of Naval Research (ONR) is focusing on 
long-term (5-10 years) research for solutions to countering the IED 
threat. Over 450 responses to their Broad Agency Announcement have been 
received and are currently being evaluated.
    Recruit/Retain the Right Force.--With advances in the technology of 
weapons systems and platforms requiring personnel with highly 
specialized knowledge of computers and engineering, Navy and Marine 
Corps recruiters must target the top of the talent pool. Those who join 
and are subsequently trained to further develop their skills become 
increasingly valuable and are difficult to replace. Monetary incentives 
to recruit and retain are important, but not sufficient. Effective 
leadership and the sense that one is engaged in a noble, rewarding 
profession are even more important in motivating talented people to 
serve the Nation.
  --Pay Compensation Initiatives.--Officer retention rates remain well 
        above the historical lows of the late 1990s. The improvement is 
        directly attributable to targeted incentive/critical skill pays 
        established to address shortfalls. Despite the current positive 
        retention trend, shortfalls remain in the Lieutenant Commander 
        through Captain ranks in the Surface and Submarine communities. 
        The use of continuation pay to target shortfalls will be 
        continued.
  --Family Support.--Military service places unique demands on families 
        and communities. The fiscal year 2007 President's budget for 
        family and community services supports my personal emphasis on 
        our people. It improves recruiting and retention, and supports 
        our personnel in times of crisis. Family support programs and 
        services assist in achieving operational readiness and improve 
        retention by caring for our families. The Marine for Life--
        Injured Support Program provides continuing care for the 
        critically injured Marines and Sailors serving with Marines. A 
        robust family support system is an essential element to 
        maximizing every Sailor's and Marine's quality of service, and 
        is my personal priority.
  --Housing Initiatives.--Improving housing is a top priority as we 
        recruit, retain, and improve the naval workforce. The complete 
        elimination of inadequate military housing is our goal. The 
        Department's housing strategy focuses on several areas 
        including zero average out-of-pocket expenses for Sailors and 
        Marines by raising Basic Allowance for Housing (BAH) in high-
        cost areas, completing construction of new housing units, and 
        completing our successful program of privatizing military 
        family housing. Additional initiatives include maintaining the 
        ``Homeport Ashore'' program that constructs new housing for 
        single, junior (E1-E3) personnel currently living onboard their 
        ships, even while in homeport. Marine Corps improved housing 
        for single Marines will be completed by fiscal year 2011.
  --Healthcare.--Providing superb health care to Sailors, Marines, and 
        their families is a critical part of the Department's support 
        for personnel. The fiscal year 2007 budget includes an increase 
        in funding to support healthcare accrual costs. Navy medicine 
        is focused on supporting the deployment readiness of the 
        uniformed services by delivering the right medical care for the 
        fleet and Fleet Marine Force while providing for the health 
        care needs of families and retirees. This health care includes 
        improved post deployment care for returning Marines, Sailors 
        and their families.
    Shape the Force to Match the Need.--As the world gets more complex, 
the future force must continue with technology intensive training, but 
must also develop new skill sets as we move from the blue to the green 
and brown water environments. Advances in ship and systems designs will 
allow us to use technology to improve warfighting readiness, while 
skills like cultural awareness and foreign languages will enhance our 
effectiveness as we operate across the littorals and ashore. Future 
emphasis will focus on matching the right skills and experience to the 
right place at the right time, and providing the personal and 
professional tools needed to succeed.
    Moving forward to execute a comprehensive strategy to enhance 
combat effectiveness in the 21st Century, the Department is designing a 
force that is aligned, shaped and developed to current and future 
mission requirements. In order to reduce and reshape the force, 
incentives and tools are needed to identify personnel in obsolete or 
overmanned skill sets. The Perform-to-Serve and Early Release programs 
are two examples that have helped create a more experienced, better 
trained, and smaller force.

                               OPERATIONS

    Today, Sailors and Marines are postured worldwide, fighting the war 
on terror, deterring aggression by would-be foes, preserving freedom of 
the seas, and promoting peace and security. On February 15, 2006, 141 
ships (50 percent of the Battleforce) were underway of which 97 ships 
(35 percent) are forward deployed. Navy active strength totals 357,474 
of which 5,298 are mobilized Reserves. Marines are forward deployed 
worldwide, including the combat zones of Iraq and Afghanistan. Marine 
Corps strength totals 179,139 with 7,040 mobilized Reserves.
    Project Naval Power in the Global War on Terror.--Winning the GWOT 
is our number one strategic priority. Sailors and Marines are actively 
engaged in operations in both Iraq and Afghanistan, as well as in 
counter-terrorist operations in the Horn of Africa, the Philippines, 
the Persian Gulf, and elsewhere around the globe.
    Currently over 26,000 Marines are serving in the CENTCOM Area of 
Responsibility (AOR), together with both sea- and shore-based Navy 
personnel in support of Operations IRAQI FREEDOM and ENDURING FREEDOM. 
Marines continue to conduct operations in the Al Anbar province of Iraq 
with counter-insurgency operations in the Euphrates River valley and 
other locations in Iraq. Training of Iraq forces is of particular 
importance. In Afghanistan, Marines provide a reinforced infantry 
battalion to the multi-national forces, and three Embedded Training 
Teams within the Afghan National Army. These teams train, mentor, and 
operate with their Afghan counterparts. Building up the capacity of our 
partners is critical to the strategy of countering extremist influence 
in the war on terror.
    All together there are over 10,000 Sailors serving ashore 
throughout the CENTCOM AOR including more than 4,000 in Iraq, and an 
additional 2,600 in Kuwait that include SEALs, Seabees, MPs, EOD, 
medical, intelligence, legal, civil affairs, and other support 
personnel. Navy CSGs and ESGs continue to deploy in support of GWOT, 
conduct combat operations in Iraq and Afghanistan, execute counter-
piracy missions, and provide humanitarian assistance and disaster 
relief such as the tsunami relief, Pakistani earthquake, and on our own 
Gulf Coast after Hurricanes Katrina and Rita. Additionally, there are 
approximately 400 Sailors in Afghanistan and 700 Sailors at the 
Guantanamo Bay Naval Station, where the Navy is scheduled to assume 
responsibility for the Joint Task Force in the Spring of 2006.
    Improve Surge Capability.--The GWOT requires a naval force capable 
of surging to protect our interests throughout the world. The FRP is 
the operational framework that capitalizes on investments that have 
been made for higher readiness throughout a unit's operational cycle. 
By leveraging increased readiness under the framework of the FRP, the 
Navy has responded to support Combatant Commanders around the globe. 
The Navy today is meeting all commitments with trained and ready 
forces, and taking on new roles to address security challenges. The 
Marine Corps accounts for 4 percent of the DOD budget while providing 
23 percent of the nation's active-duty ground forces. Currently, over 
39,000 Marines are forward deployed conducting combat, peacekeeping, 
humanitarian assistance, and training missions worldwide. This 
investment in expeditionary combat power is more than just a good 
value; it is a product of focused, responsible stewardship.
    Enhance Homeland Security.--The Navy has established a strong 
cooperative working relationship with the U.S. Coast Guard in support 
of maritime defense operations. The existing DOD/DHS Memorandum of 
Agreement (MOA) enables rapid provision of Coast Guard forces to the 
Navy in the event of a national crisis. The Services are currently 
working the modalities of inter-service cooperation cited in the 
Maritime Operational Threat Response plan of the President's National 
Strategy for Maritime Security. Additionally, the Department will 
remain prepared for CONUS consequence management with capabilities that 
include maritime and aviation assets for logistics, Search and Rescue 
(SAR), EOD, headquarters and communication platforms, medical, salvage, 
and Seabee construction support.
    Increase Maritime Domain Awareness (MDA).--Protection of the U.S. 
homeland and critical interests around the world requires a strong 
commitment to enhancing MDA, a key component of an active layered 
maritime defense in depth. The U.S. Navy is a vital part of this 
initiative. The Presidential Directive for Maritime Security Policy 
calls for a national plan to achieve MDA. The Navy actively 
participates in the National MDA Implementation Team with U.S. Northern 
Command (NORTHCOM) and 19 other agencies to develop an investment 
strategy. The team is improving MDA through interagency cooperation, 
developing and strengthening relations with international partners, and 
accelerating investment in multinational coordination, such as the 
Automatic Identification System (AIS), and the Multinational 
Information Sharing System (MNIS). Proliferation Security Initiative 
(PSI) and the Container Security Initiative (CSI) are important tools 
in this effort. Additionally, the Navy and Coast Guard are exploring 
other focused technology areas including data fusion and anomaly 
detection capabilities to enable analysts and watchstanders to 
transform large quantities of data into actionable intelligence.
    Provide Humanitarian Assistance/Disaster Relief.--The Navy and 
Marine Corps Team can rapidly respond to crises around the globe to 
provide combat power projection or humanitarian assistance and disaster 
relief. After the tsunami struck South Asia late last year, forward-
deployed naval forces were the first on-scene providing life-saving 
assistance. Within a few days of the disaster, USS ABRAHAM LINCOLN (CVN 
72), USS BONHOMME RICHARD (LHD 6) and supporting ships arrived off the 
coast of Indonesia, and commenced ferrying supplies ashore and 
evacuating critical patients to sea-based medical facilities.
    During the relief operation, over 25 ships with embarked aircraft 
and landing craft, and the hospital ship USNS MERCY (T-AH 19), 
delivered more than 24 million pounds of relief supplies and treated 
over 6,500 patients. Recovery and relief in Pakistan following the 
devastating earthquake were led by on-station Navy and Marine Corps 
units. These kinds of missions show our nation's compassion and are 
just as important as showing our military strength.
    When Hurricanes Katrina and Rita left a swath of destruction across 
our southern Gulf Coast, the Navy and Marine Corps Team responded. 
Ships of all types sortied from their homeports to the Gulf of Mexico. 
Navy and Marine Corps helicopters from air stations around the country 
quickly flew into New Orleans in the critical first few days following 
the storm to rescue thousands of stranded citizens. USS BATAAN (LHD 5), 
conducting training exercises in the area, was first to respond. USS 
IWO JIMA (LHD 7), our newest amphibious assault ship, transited from 
Norfolk and docked pierside in New Orleans to serve as a joint, 
interagency command and control center, a landing strip for a multitude 
of helicopters, and a base for rescue workers. USS HARRY S TRUMAN (CVN 
75) sortied from Norfolk to act as an additional aviation platform for 
ferrying relief supplies. Navy and Marine Corps Reserve personnel used 
their amphibious training and equipment for rescue operations, and in 
many cases, were the first help to arrive on-scene. The hospital ship 
USNS COMFORT (T-AH 20) surged from reduced operating status in 
Baltimore to be on-scene in a few days. Bases at Gulfport and Meridian 
provided over 7,000 meals a day to evacuees, military personnel and 
relief workers. Marines flew 815 sorties and transported 1.1 million 
pounds of cargo and 5,248 passengers. A total of 446 rescue missions 
were flown, resulting in the recovery of 1,467 personnel. The Seabees 
built self-contained tent cities that housed 6,500 people each and 
included hot showers, hot meals and laundry facilities. Fleet and 
Family Support centers from unaffected Naval Stations moved into the 
area to set-up ``safe haven'' programs to help military families deal 
with the enormous stress that Katrina brought in her wake. All the 
efforts of the Sailors and Marines focused on helping others in time of 
need, regardless of geography or circumstance. Carrying on the proud 
tradition of naval service, they earned a particular sense of 
accomplishment in these noble missions.
    Expand Presence and Capabilities into Littoral and Riverine 
Environments.--The Navy and Marine Corps are expanding the Nation's 
ability to extend combat power from the sea to the littoral regions of 
the world. These regions encompass large portions of the world's 
populace and hold many vital centers for transportation, commerce, and 
government. One key initiative, the Naval Expeditionary Combat Command 
(NECC), will combine a riverine and small boat capability with 
expeditionary training, security, and logistics, maritime civil 
affairs, Seabees, EOD, and Mobile Diving and Salvage. This realignment 
of existing force structure with new warfare initiatives will enhance 
maritime boarding operations, port security, foreign military training, 
and crisis/disaster response to create influence and capacity for near-
shore and inland waterway operations.

                               EQUIPMENT

    The Department of the Navy is committed to enhancing procurement 
programs to improve capabilities, efficiency, and productivity. The 
Department's strategy is to establish consensus for procurement among 
the Administration, Congress, and contractors to forge a new commitment 
to building a force for the future, while establishing a stable 
industrial base.
    Simultaneously Reset, Recapitalize, and Modernize Equipment.--
Combat operations in Iraq and Afghanistan and the increased operational 
tempo in support of GWOT are stressing equipment and diminishing pre-
positioned stocks of hardware, munitions, and supplies.
    Harsh environments, unavoidable maintenance delays, and battle 
damage are all taking their toll on equipment. The cost associated with 
resetting the force is above the baseline budget and will be covered 
with appropriate Supplementals.
    Combat operations have subjected much USMC equipment to a lifetime 
worth of use in just a few years. Many systems are already at or beyond 
program service life. Examples include the M198 howitzer, HMMWV, EA-6B, 
CH-53D, CH-46E and UH-1N. Service life extension programs and 
innovative forward deployed maintenance programs are helping keep 
current equipment combat-ready.
    Enhance Procurement Programs: Improvements and Affordability.--The 
Sea Enterprise initiative is transforming naval business processes and 
driving efficiencies and effectiveness, essentially balancing the 
``Right Force, Right Readiness, and Right Cost.'' Sea Enterprise is 
changing the Department's business culture, improving productivity, 
streamlining processes, and harvesting savings to support higher 
priorities.
    The Department is developing leaders with a better understanding of 
business strategies, cost control, program risk and rapid flexible 
design. As stewards of the Department's acquisition and total ownership 
processes, the Systems Commands, Direct-Reporting Program Managers 
(DRPMs), and Program Executive Officers (PEOs) are responsible for 
furnishing high-quality yet affordable technologies, systems, 
platforms, training, and support to the operating forces.
    To help guard against the danger of procurement fraud, the 
Department established the Naval Acquisition Integrity Office in the 
Office of the General Counsel. This office coordinates all parts of the 
procurement fraud program and provides training and guidance on 
procurement fraud matters.
        . . . While Preparing for the Uncertainties of Tomorrow

                    SHAPE OUR 21ST CENTURY WORKFORCE

    Future combat effectiveness and employment are dependent upon 
obtaining a force with the right skills in the right place at the right 
time. The active and reserve military components, civil servants, and 
the Department's contractors must continue to adapt to different 
operating environments, develop new skills, and rebalance capabilities 
and people to remain prepared for the new challenges of an uncertain 
future. The Department of the Navy is working to increase efficiency by 
implementing force shaping tools to target manpower reductions, and by 
defining the skill-mix of the force to capitalize on new technologies 
and conduct new missions.
    Ensure the Correct Endstrength.--To facilitate transformation, the 
Navy strength will decrease by 12,000 in fiscal year 2007 to 340,700. 
The budgeted Navy endstrength reflects a commitment to proper sizing 
and includes the following initiatives:
  --``Sea Swap'' rotational crews for smaller ships.
  --Decommissioning of older, manpower intensive platforms.
  --Improved use of technology to reduce shipboard manning and shorten 
        training pipelines.
  --Conversion of military to civilian, as appropriate. This includes 
        the continued conversion of billets on selected Military 
        Sealift Command ships and in medical facilities in rear areas 
        or ashore.
    The Marine Corps is realigning within its endstrength to ensure 
continued readiness to sustain combat capabilities. The Marine Corps is 
utilizing selected Marine Corps Reserve units and individual augmentees 
as necessary to maintain essential wartime capability. Baseline funded 
Marine Corps manning levels for Active and Reserve forces remain the 
same in fiscal year 2007 at 175,000 and 39,600 respectively.
    Develop a Force with the Skills Required for the Future.--Future 
force attributes such as foreign language skills, cultural awareness, 
mastering technology and cyberspace, together with traditional 
warfighting skills will be critical to the Navy and Marine Corps. The 
Navy is expanding the Foreign Area Officer (FAO) program that will form 
a professional cadre of officers with regional expertise and language 
skills to provide support to Fleet Commanders, Combatant Commanders, 
and Joint staffs. The immediate mission for the community is to rapidly 
improve the Navy's ability to conduct theater security cooperation, 
improve partner capacity in GWOT, and generate actionable intelligence. 
These personnel will work in complex environments in remote locations 
and will forge personal relationships that could be useful during times 
of crisis.
    The Marine Corps Center for Advanced Operational Culture Learning 
(CAOC-L) is the Corps' ``one-stop'' clearing house for operational 
culture and language training. Through focused training for the 
operating forces, individual training and Professional Military 
Education, distance learning, and professional reading, it promotes a 
grasp of culture and language as regular, mainstream components of the 
operating environment--the human terrain--throughout the full spectrum 
of military operations.
    The Marine Corps is establishing a Marine Corps Special Operations 
Command (MARSOC) as a component of the U.S. Special Operations Command 
(USSOCOM). MARSOC will enhance Marine Corps and USSOCOM 
interoperability and provide greater flexibility with increased 
capability to fight non-traditional threats. The mission of MARSOC 
headquarters will be to organize, man, train, and equip Marine Special 
Operations Forces. The command's subordinate units will provide 
training to foreign military units and perform specific special 
operations missions such as: direct action, special reconnaissance, 
counterterrorism, and foreign internal defense. MARSOC will be 
organized into three subordinate elements with an authorized strength 
of 2,600 Marines and Sailors. The current plan calls for IOC during the 
fall of 2006 and a full operational capability by 2010.
    Active/Reserve Integration.--Active Reserve Integration (ARI) 
aligns Reserve Component (RC) and Active Component (AC) personnel, 
training, equipment, and policy to provide a more effective and 
efficient Total Force capable of meeting dynamic National Defense 
requirements.
    The Navy is currently aligning RC and AC units to better meet 
Operation Iraqi Freedom and Operation Enduring Freedom requirements and 
the Navy's vision for our future force structure. RC Helo-Combat 
Support (HCS) forces will be integrated into AC Helo, RC and AC 
Explosive Ordnance Disposal (EOD) units are being integrated and two RC 
Navy Coastal Warfare Units (NCW) are being converted to AC. The Navy 
established integrated Operation Vigilant Mariner units providing 
vessel security, as well as Expeditionary Training Teams improving 
multinational capabilities.
    The Navy is studying the role of the RC in future Navy mission 
areas of Riverine Warfare and Civil Affairs. Ongoing initiatives to 
meet Operation IRAQI FREEDOM and Operation ENDURING FREEDOM Provisional 
Unit requirements, AC and RC Sailors are working together to fill 
billets in Civil Affairs, Detainee Operations, Intelligence, and 
Reconstruction Team efforts.
    Implement the National Security Personnel System (NSPS).--NSPS is a 
new civilian personnel system, designed to meet the DOD national 
security challenges of the 21st Century. NSPS will strengthen the 
ability to accomplish the Department's mission in an ever-changing 
national security environment. NSPS accelerates efforts to create a 
total force (active military, Reserve, Guard, civilian, and 
contractors), operating as one cohesive unit, with each performing the 
work most suitable to their skills. NSPS will provide a human resources 
system that appropriately recognizes and rewards employees' performance 
and the contributions they make to the Department's mission.

                       CHANGING THE WAY WE FIGHT

    The Department of the Navy continues to transition to a force more 
capable of winning wars, deterring aggression, preserving the high 
seas, and securing the maritime domain, while ensuring access and 
sustainability of the Joint Warfighting Team in the blue, green, and 
brown water arenas. The Navy and Marine Corps team will continue to 
transform in response to a new force planning construct as articulated 
in the 2006 QDR. Naval forces will use the sovereignty of the sea and 
enhanced networked joint Sea Basing to operate without restrictions. 
The Department's Sailors, Marines, and Civilians will leverage 
innovative concepts, advanced technologies, and new business practices 
to increase warfighting effectiveness.
    Meeting Future Challenges.--Naval forces will engage potential 
adversaries as far from the United States and our interests as 
possible, and during times of crisis will form the leading edge of 
America's response. The ability of our forces to embrace and prevail in 
a future characterized by unrestricted warfare and uncertainty will be 
essential to mission success. The enduring role as our Nation's sea-
based force will require that the Navy and Marine Corps Team provide 
access, fight and win, and continually transform.
    Strengthening Joint Concepts and Operations.--The Navy and Marine 
Corps Team is committed to strengthening and refining concepts and 
operations as part of the Joint fight. From combat operations in Iraq, 
to stability operations in the Horn of Africa, to counter-drug 
operations in the Caribbean, naval forces are increasingly working in 
concert with other uniformed services and government agencies. Joint 
acquisition of weapon systems and C4ISR capabilities will increase 
interoperability and effectiveness while reducing costs. The vision for 
joint maritime forces, to include the Coast Guard, is a networked fleet 
that is more capable of projecting naval power in the brown and green 
waters of coastal areas.
    Enhancing Navy's Role in Ballistic Missile Defense (BMD).--National 
Security Presidential Directive 23 identifies the Navy's role in BMD. 
That role is to support and ultimately field the maritime elements of 
the BMD system to support detection, tracking, and engagement of 
ballistic missile threats in all phases of flight. The Aegis BMD system 
contributes to the overall plan by providing the capability for Navy 
surface combatants, on-station near any area of concern, to detect 
missile launches, as well as cue and provide fire-control quality 
tracking information to ground-based interceptors. Additional 
capabilities to provide area defense by intercepting short- and medium-
range ballistic missiles are being delivered to the fleet. USS LAKE 
ERIE (CG 70), the dedicated BMD test ship, has executed six successful 
flight tests of the SM-3 missile in seven attempts since 2002. The next 
test flight is scheduled for June 2006. The Aegis BMD capability has 
been installed on 12 ships: 2 cruisers (engagement capable), and 10 
destroyers (long-range surveillance and tracking capable). By 
demonstrating the ability to track long-range ballistic missiles, and 
developing plans to demonstrate a sea-based engagement capability, the 
Aegis fleet has paved the way for the Navy to play a significant role 
in the nation's missile defense.
    Define Future Force Structure/Capability.--The fiscal year 2007 
President's budget supports a larger, more capable naval force 
structure to meet joint warfighting requirements, presence missions, 
and GWOT demands. The budget provides for an increase in overall force 
structure, as well as a significant increase in capability. The annual 
investments in this budget support the growth of naval forces across 
the FYDP and lay the foundation for the force structure outlined in the 
Annual Long Range Plan for Construction of Naval Vessels for Fiscal 
Year 2007. The plan is to build to a target force structure based on 
our best estimate of the requirements. The number of ships and types of 
ships in this target force structure will evolve over time. The 
Department intends to maintain near term stability to allow proper 
workforce, process, and capital end product planning. Based on Navy 
analysis, the capability required to support the QDR Force Planning 
Construct is about 313 ships of a mix as defined in the long range 
shipbuilding plan, providing capabilities that will make the fleet even 
more agile, fast, persistent, and lethal.
    Surface Platforms.--The fiscal year 2007 shipbuilding plan supports 
the Navy's vision of a new generation of ships with higher speed, more 
persistence and precision, and reduced manpower and life cycle costs. 
The Navy's challenge is to build a fleet of the future that possesses 
the capability and capacity to meet joint demands for naval forces 
across the spectrum of operations from major combat operations to 
humanitarian assistance and disaster relief. The Department, through 
the Defense Planning Guidance, and QDR, has defined the required 
capabilities for the joint force through 2020. The fiscal year 2007 
President's budget provides for seven new ships. The total number of 
new ships across the FYDP is 51, an increase of 3 ships from last 
year's budget projection.
  --CVN 21.--Aircraft Carriers remain the premier asset for rapid 
        crisis response and early decisive striking power in major 
        combat operations. CVN 21 balances improved warfighting 
        capability and quality of life improvements for the crew, with 
        reduced acquisition and life cycle costs. Efficient nuclear 
        propulsion, electromagnetic aircraft launch system, advanced 
        arresting gear, and a three fold increase in electrical 
        generating capacity will enable CSGs to provide forward 
        presence, rapid response, endurance on station, and multi-
        mission capability. Construction of the lead ship (CVN 78) will 
        cost $10.5 billion, of which $2.4 billion is non-recurring. 
        Advanced procurement funding of $784 million is requested in 
        fiscal year 2007 for CVN 78 and CVN 79. New technology 
        development is on track and component testing is in progress. 
        Steel was cut on the first advanced construction hull unit on 
        April 2005, with the lead ship due to be delivered in fiscal 
        year 2015 to replace USS ENTERPRISE (CVN 65).
  --DD(X).--The DD(X) is the Navy's next generation destroyer. It is 
        designed as a multi-mission surface combatant tailored for land 
        attack and littoral dominance by providing persistent volume 
        fires with high survivability. Under the ``Dual Lead Ship'' 
        strategy, Northrop Grumman Ship Systems and General Dynamics-
        Bath Iron Works will each build a lead ship to the common 
        design. The funding for these ships will be split between the 
        fiscal year 2007 and fiscal year 2008 budgets.
  --Littoral Combat Ship (LCS).--The LCS will be a fast, agile and 
        networked surface combatant with capabilities optimized to 
        assure naval and joint force access into contested littoral 
        regions. Two ships are currently under construction with 
        delivery of the first LCS, designated USS FREEDOM, scheduled 
        for fiscal year 2007. A total of 23 LCS ships will be procured 
        between fiscal year 2007 and fiscal year 2011. LCS is designed 
        with a speed goal of over 40 knots at full displacement in sea 
        state 3 to help defeat anti-surface threats. It will possess 
        inherent capabilities to conduct missions supporting special 
        operations, maritime interception and homeland defense. The LCS 
        sea frame is designed to be outfitted with reconfigurable 
        payloads that can be changed out quickly. This modular design 
        feature will provide the flexibility required to adapt to the 
        uncertainty of the future.
  --San Antonio Class Amphibious Transport Dock Ship (LPD 17).--USS SAN 
        ANTONIO (LPD 17) was commissioned on January 14, 2006. LPDs 18 
        and 19 have been launched, and LPDs 20 and 21 keels have been 
        laid and are in full production. Contract awards for LPDs 22-24 
        are expected in the 2nd quarter of fiscal year 2006. LPD 17 is 
        an amphibious transport dock ship that functionally replaces 
        the LPD 4, LSD 36, LKA 113, and LST 1179 Classes of amphibious 
        ships for embarking, transporting and landing elements of a 
        Marine force by helicopters, landing craft, amphibious 
        vehicles, and by a combination of these methods. Its unique 
        design will facilitate expanded force coverage and decreased 
        reaction times of forward deployed Marine Expeditionary Units. 
        In forcible entry operations, LPD 17 will help maintain a 
        robust surface assault and rapid off-load capability for the 
        Marine Air-Ground Task Force (MAGTF) far into the future.
  --Maritime Preposition Force (Future) (MPF(F)).--MPF(F) will 
        transform the Maritime Prepositioned Ships-supported MEB from 
        an ashore fighting unit to one that can operate continuously 
        from a sea base without the need for support from land. The 
        MPF(F) family of ships will advance the capability of seabasing 
        to support a wide spectrum of Joint force operations.
  --The fiscal year 2007 budget provides for procurement of one Dry 
        Cargo and Ammunition Ship (T-AKE) in the National Defense 
        Sealift Fund (NDSF). This will be the tenth ship of the class. 
        The NDSF budget also includes funding for the development of 
        future seabasing ships. The MPF(F) squadron of ships, a central 
        part of the Sea Base operational concept, leverages current 
        designs and production lines where possible. MPF(F) new 
        construction commences in fiscal year 2009 and includes one T-
        AKE variant and one Mobile Landing Platform (MLP).
  --Amphibious Assault Ship (Replacement) (LHA(R)).--The President's 
        budget for fiscal year 2007 includes $1.1 billion for the 
        LHA(R) program. LHA(R) will replace four aging LHA Class ships 
        that will reach the end of their extended service life in 2011. 
        The LHA(R) will be a modified LHD 1 Class, Amphibious Assault 
        Ship variant designed to leverage capabilities inherent in the 
        JSF and MV-22. A four-ship LHA(R) shipbuilding program is 
        needed to maintain future power projection and forward deployed 
        combat capabilities of the Navy and Marine Corps. As noted in 
        the October 23, 2004 LHA(R) Report to Congress, the requirement 
        for four ships is based on the current force structure (four 
        LHAs being replaced by four LHA(R)s, with two of the four going 
        to the MPF(F) squadron). LHA(R)s will include a significant 
        increase in aviation lift, sustainment, and maintenance 
        capabilities, spaces for a Marine Expeditionary Brigade, 
        Amphibious Group, or small-scale Joint Task Force (JTF) staff, 
        a dramatic increase in service life allowances for new-
        generation Marine Corps systems, and substantial survivability 
        upgrades.
Submarines
    SSN: Virginia-Class Nuclear-Powered Attack Submarine.--Exceeding 
expectations and meeting all mission requirements, SSN 774 completed 
its first deployment in 2005, 14 months before its planned November 
2006 Initial Operating Capability (IOC). Fiscal year 2007 funds the 
fourth of five submarines under a multi-year procurement contract 
awarded in January 2004. A total of 10 ships have been ordered. Our 
intent is to increase the production rate to two attack submarines per 
year starting in fiscal year 2012.
    SSGN: Nuclear-Powered Guided-Missile Submarine.--The first of four 
OHIO class Trident fleet ballistic missile submarine, USS OHIO (SSGN 
726), completed the conversion process to launch Tomahawk missiles, 
completed sea trials, and returned to fleet service on February 7, 
2006. The other three are scheduled to return to fleet service by 
September 2007. These submarines can carry up to154 Tomahawk land-
attack missiles and have the ability to conduct large-volume strikes 
with the surprise inherent in submarine operations. The SSGN has the 
capability to support a SOF contingent for an extended period of time, 
providing clandestine insertion and retrieval via built-in lockout 
chambers and dry deck shelters.
Aviation Platforms
    The fiscal year 2007 budget sustains aviation superiority for the 
Navy and Marine Corps and emphasizes capability-based investment 
strategies, new warfighting concepts, and enabling technologies. The 
Navy and Marine Corps tactical air integration plan continues to reduce 
the total number of new aircraft needed to maintain naval air 
superiority. The fiscal year 2007 budget provides robust development 
funding for the F-35 JSF, MV-22, EA-18G, P-8A Multi-Mission Maritime 
aircraft (MMA), E-2D, CH-53K, VH-71 Presidential Support Helicopter, 
and JUCAV unmanned aircraft. The budget continues to maximize the 
return on investment, primarily through the use of multi-year 
procurement contracts for the F/A-18E/F, EA-18G, E-2C, MH-60S/MH-60R, 
and KC-130J. Additionally, the fiscal year 2007 budget demonstrates the 
Department's continuing commitment to developing, acquiring, and 
fielding transformational Unmanned Aerial Vehicle (UAV) technologies 
for intelligence, surveillance, reconnaissance, and tactical missions. 
The budget includes funding for the Fire Scout for deployment on LCS 
ships, and the Broad Area Maritime Surveillance (BAMS) UAV.
    F-35 Joint Strike Fighter (JSF).--The fiscal year 2007 President's 
budget requests $2.28 billion for the JSF. The first flight of the 
Conventional Takeoff and Landing (CTOL) variant is scheduled for August 
2006; the first operationally ready carrier-based JSF squadron enters 
the fleet in 2013. The JSF will provide the Navy and Marine Corps with 
long-range, stealthy striking power from CVNs, large deck Amphibious 
Assault Ships (LHA/LHD, LHA(R)), and airfields. JSF variants will 
provide Naval Aviation with a 21st Century multi-mission tactical 
strike fighter, replacing the AV-8B, F-14, and the older F-18A/B/C/D 
airframes. Jointly developed with the Air Force and 8 other countries, 
the JSF is in its 5th year of development. The Marine Corps is pursuing 
the STOVL (Short Take-Off/Vertical Landing) version, while the Navy 
will purchase a follow-on CV (Aircraft Carrier) variant. High 
commonality between the variants will reduce both acquisition and 
operating costs. It has been concluded that a single engine supplier 
provides the best balance of risk and cost. The maturity of technology 
as demonstrated with the engine development of the F/A-18E/F and F-22 
indicate that sole source risks are modest and acceptable. Canceling 
development of the alternate source engine program will save $1.8 
billion through fiscal year 2011.
    MV-22 Osprey.--The fiscal year 2007 President's budget contains 
$1.5 billion for 14 aircraft. The MV-22 completed OPEVAL in 2005 and 
will reach its Initial Operating Capability (IOC) in 2007. Block A and 
Block B aircraft have been procured to support developmental testing, 
OPEVAL, training and initial fleet fielding. In full rate production, 
the aircraft procurement rate will ramp up to 37 aircraft per year. The 
program of record includes 360 MV-22s for the Marine Corps and 48 for 
the Navy. The demands of GWOT and modernization of our Expeditionary 
Warfare capabilities have increased the urgency to rapidly field the 
MV-22 Osprey. Its design incorporates advanced technologies in 
composite materials, survivability, airfoil design, fly-by-wire 
controls, digital avionics and manufacturing. The MV-22 is capable of 
carrying 24 combat-equipped Marines or a 10,000-pound external load, 
and has a strategic self-deployment capability of 2,100 nautical miles 
with a single aerial refueling. It is vastly superior to the CH-46E it 
replaces, with twice the speed, three times the payload, and six times 
the range. The V-22 Osprey, as a joint platform for the Navy, Marine 
Corps, and Air Force is providing significant opportunities for joint 
training, tactics development, and mission execution.
    E/A-18G Growler.--The fiscal year 2007 budget includes $0.9 billion 
for 12 EA-18Gs. The critical design review for the EA-18G was 
successfully completed in April 2005. The aircraft has completed its 
second year of system development and demonstration, is on cost, on 
schedule, and meeting performance standards. The EA-18G Growler will 
replace the EA-6B Prowler, providing full-spectrum electronic attack to 
counter enemy air defenses and communication networks. Many of the 
systems provided with the EA-18G will fulfill the Navy role in the 
Joint force in providing advanced technology to strengthen electronic 
warfare capabilities. As a tactical aircraft, its expanded flight 
envelope offers much greater speed, altitude, and maneuverability. The 
EA-18G will maintain a high degree of commonality with the F/A-18F, 
retaining the strike fighter and self-protection capabilities, while 
providing air-to-air self-escort to free other assets for strike-
fighter tasking.
    P-8A Multi-Mission Maritime Aircraft (MMA).--President's budget for 
fiscal year 2007 requests $1.13 billion for continued development of 
the MMA program. The program has successfully completed the system 
requirements review, system functional review, preliminary design 
review, and has entered the detailed design phase. The MMA will replace 
the P-3C Orion aircraft, which has reached the end of its service life. 
The MMA's transformational architecture will integrate its onboard 
mission suite with UAVs, satellite systems, and other external sensors 
to assure maritime access.
    E-2D Advanced Hawkeye.--The President's budget for fiscal year 2007 
provides $498 million for the E-2D Advanced Hawkeye program that 
replaces the older E-2C. Utilizing new state-of-the-art radar, open 
architecture processing systems, and other critical surveillance 
systems, the E-2D provides a two-generation leap forward in capability. 
The Advanced Hawkeye also adds improved surface and air search, air 
traffic control and communications, search and rescue coordination, and 
battle management capabilities. The E-2D completed critical design 
review in October 2005. The first test aircraft's flight is on track 
for fiscal year 2007, with Initial Operating Capability (IOC) expected 
in fiscal year 2011.
    CH-53K Heavy Lift Helicopter Replacement.--The President's budget 
for fiscal year 2007 provides $363 million for the continued 
development of the CH-53K program. The current Marine Corps heavy-lift 
aircraft, the CH-53E, has experienced significant operational wear, 
interoperability, and maintenance supportability challenges. In order 
to support the Marine Air-Ground Task Force (MAGTF) and the Joint Task 
Force (JTF) in the 21st century joint environment, the CH-53K will 
maintain the Marine Corps' heavy-lift capability. Major systems 
improvements include larger and more capable engines, expanded gross 
weight airframe and drive train, advanced composite rotor blades, 
modern interoperable cockpit, external and internal cargo handling 
systems, and improved survivability. The CH-53K will be capable of 
externally lifting 27,000 pounds, more than double the current CH-53E 
ability under similar conditions. Additionally, the CH-53K will be 
capable of carrying 30 combat-loaded troops. Initial Operating 
Capability (IOC) is planned for fiscal year 2015.
    F/A-18E/F Super Hornet.--The President's budget for fiscal year 
2007 provides $2.3 billion for 30 aircraft. The F/A-18E/F Super Hornet 
continues to be the centerpiece of Navy combat aviation. Enhanced 
warfighting capability investments for the F/A-18E/F introduce a 
transformational radar, helmet-mounted sight, advanced targeting pod, 
and fully integrated weapons system. Significant improvements in combat 
range, payload, survivability, and growth capacity make the F/A-18E/F 
the dominant strike-fighter well into the 21st century. The F/A-18E/F 
is replacing the F-14 and early model F/A-18s. Lethality, flexibility, 
reliability, and survivability of the F/A-18E/F make it the right 
aircraft to fulfill a wide range of future missions.
    MH-60R/MH-60S Seahawk Multi-Mission Combat Helicopters.--The 
President's budget for fiscal year 2007 provides $915 million for 25 
MH-60R and $548 million for 18 MH-60S models. Successful OPEVAL of the 
MH-60R was completed in September 2005 and the first four helicopters 
were delivered to the fleet in December 2005. The MH-60S was approved 
for full-rate production in August 2002 and is currently undergoing 
scheduled block upgrades for combat and airborne mine countermeasure 
missions. The Navy plans to acquire 271 MH-60S models. MH-60R/S 
platforms are produced with 85 percent common components to simplify 
maintenance, logistics, and training.
    KC-130J Hercules Tactical Tanker and Transport.--The fiscal year 
2007 President's budget provides $299 million for the procurement of 4 
KC-130Js. The KC-130J is replacing the Marine Corps' aging fleet of KC-
130Fs and KC-130Rs. The KC-130J will include warfighter modifications 
such as the addition of aircraft armor, upgrading the aviation 
survivability equipment suite, and improved in-flight refueling pods. 
Twenty-one aircraft have been delivered to date, with Marines making 
the first combat deployment of six KC-130Js in February 2005. The 
Program of Record for the KC-130J is 51 aircraft.
    Unmanned Aerial Vehicles (UAV).--The Department is investing in a 
family of advanced UAVs. Systems such as the Fire Scout and the Broad 
Area Maritime Surveillance Unmanned Aircraft System (BAMS UAS) contain 
a variety of advanced sensors to give warfighters immediate actionable 
intelligence, and in the case of armed UAVs, the ability to strike 
targets that appear for a fleeting moment.
  --Fire Scout--The President's budget for fiscal year 2007 provides 
        $38 million for 4 Fire Scout UAVs and $105 million for Fire 
        Scout development. The Fire Scout Vertical Takeoff and Landing 
        Tactical UAV (VTUAV) is designed to carry modular mission 
        payloads and operate using the Tactical Control System (TCS) 
        and Tactical Common Data Link (TCDL). Fire Scout will provide 
        day/night real time intelligence, surveillance, reconnaissance, 
        and targeting as well as communications relay and battlefield 
        management capabilities to support LCS mission areas.
  --Broad Area Maritime Surveillance Unmanned Aircraft System.--The 
        fiscal year 2007 President's budget provides $26.4 million for 
        the development of the BAMS UAS program. BAMS UAS is integral 
        to the Navy's Intelligence, Surveillance, and Reconnaissance 
        (ISR) recapitalization strategy providing a persistent, 
        maritime, worldwide ISR capability. BAMS will consist of 
        unmanned aircraft, payloads and ground/shipboard systems. The 
        BAMS program will meet the Navy requirement for a persistent 
        ISR capability, and address the enhanced maritime surveillance 
        capability. Initial Operating Capability is expected in fiscal 
        year 2013.
Marine Corps Equipment
    Expeditionary Fighting Vehicle (EFV).--The fiscal year 2007 
President's budget includes $266 million for procuring 15 EFVs. The EFV 
will be the primary means of tactical mobility for the Marine rifle 
squad during combat operations. As a self-deploying, high speed, 
armored amphibious vehicle, the EFV is capable of transporting 17 
combat-loaded Marines from ships located beyond the horizon to inland 
objectives. The EFV program is in the Systems Development and 
Demonstration (SDD) phase of the acquisition process with IOC scheduled 
for 2010. The Milestone C Operational Assessment began on January 16, 
2006, and is being conducted with four SDD vehicles (three personnel 
(P) variants and one Command & Control (C) variant. An additional five 
SDD vehicles are undergoing extensive Reliability, Availability and 
Maintainability testing to grow vehicle reliability in support of LRIP. 
Certain operational assessment phases will occur three months later 
than planned to synchronize with the return from Iraq of the unit 
designated to participate. This will result in the Milestone C 
Operational Assessment being completed in August 2006, and the 
Milestone C decision in December 2006. This schedule change does not 
breach the program baseline, and will not affect the fiscal year 2007 
budget request.
    Lightweight Howitzer.--The fiscal year 2007 budget provides $94 
million to procure 34 M777A1 Lightweight Howitzers. The M777A1, through 
design innovation, navigation and positioning aides, and digital fire 
control, offers significant improvements in lethality, survivability, 
mobility, and durability over the M198 howitzer. The Marine Corps 
received the first of 356 new howitzers in April 2005.
    Internally Transportable Vehicle (ITV).--The ITV program is a 
Marine Corps-led joint program with the U.S. Special Operations Command 
to field an assault vehicle supporting expeditionary maneuver warfare 
and over-the-horizon amphibious operations. The ITV will provide MAGTF 
combat units with a vehicle that fits internally in the CH-53 and MV-22 
aircraft. IOC is scheduled for September 2006, when a selected infantry 
battalion receives eight ITVs.
    Light Armored Vehicle Product Improvement Program (LAV PIP).--The 
fiscal year 2007 budget includes $26 million for the LAV PIP program, 
which will extend the service life through 2015, improve the readiness, 
survivability, and sustainability of these vehicles, and reduce the LAV 
fleet's operations and support costs. The extension program includes a 
block of vehicle upgrades, incorporating a next generation improved 
thermal sight system, and thermal and visual signature-reduction kits.

                      IMPROVING BUSINESS PRACTICES

    Providing Sailors, Marines, and Department of the Navy civilians 
with high quality facilities, information technology, and an 
environment to achieve goals are fundamental to mission accomplishment. 
As the QDR states, this will demand a revolution in management, 
technology and business practices to reduce redundancies and ensure the 
efficient flow of businesses processes. The Navy and Marine Corps Team 
are implementing continuous improvement initiatives consistent with the 
goals of the President's Management Agenda. These improvements enable 
realignment of resources to increase our output and re-capitalize our 
force. The cornerstone of the continuous improvement effort is the 
implementation of industry proven Lean Six Sigma efficiency 
methodologies in day-to-day operations. The Department of the Navy will 
continually evaluate systems and processes to optimize their 
responsiveness.
    Efficiently Implement BRAC 2005 Decisions.--The BRAC process has 
been a major tool for reducing the domestic base structure and 
generating savings. Continuing to balance the Department's force and 
base structures by eliminating unnecessary infrastructure is critical 
to preserving future readiness. The fiscal year 2007 budget reflects a 
fully financed implementation program that completes all closures and 
realignments within the statutory six-year implementation period. In 
fiscal year 2010 and beyond, annual savings exceed annual costs, and 
the Department will see a positive return on investment.
    Actively Foster Department of the Navy Business Transformation.--
The Department is transforming people, processes and systems, and 
aggressively adopting proven best commercial practices to support 
business transformation objectives. Initiatives will complement each 
other, resulting in better-controlled, integrated and automated 
processes that deliver more accurate, reliable, and timely financial 
management information. The goal of the Department's business process 
transformation is to provide reliable, accurate, and timely business 
intelligence, supporting resource efficiency and sound business 
decisions. It will involve building a modern, integrated, automated 
environment within the DOD architecture. The Department's business 
transformation continues to evolve, providing the framework within 
which future business processes will operate.
    Since 2002, the Navy and Marine Corps have integrated their 
tactical aircraft to reduce excess capacity and provide equal or 
greater combat capability with fewer resources. Efficiencies gained 
through integration, and investing in more capable aircraft (F/A-18E/F 
Super Hornets and F-35 Joint Strike Fighters) allows the Navy and 
Marine Corps to reduce the number of active and Reserve squadrons while 
continuing to provide flexible, responsive, and interoperable forward 
deployed combat air power. It also allows for reduction in the 
sustainment, maintenance and training requirements, providing 
Operations & Maintenance savings to be invested in more pressing areas.
    The Department will continue to be aggressive in pursuing new 
business initiatives that will make the Navy and Marine Corps more 
efficient, effective and responsive.
Optimize Management of Naval Installations, including Environmental 
        Stewardship
    Building the Navy and Marine Corps' future shore infrastructure 
requires the ``right bases'' in the ``right places'' with the ``right 
capabilities'' at the ``right price.'' The Commander of Naval 
Installations is providing the mechanism for senior Navy leadership to 
guide planning ashore in support of operations afloat through Navy 
Ashore Vision (NAV) 2030. This document develops the first set of 
guiding principles to help leadership plan and execute basing and 
investment strategies. NAV 2030 provides an agile foundation to size 
and locate ashore infrastructure. It capitalizes on innovation and 
effectiveness to sustain fleet readiness and reduce cost. Success in 
realigning and revitalizing the shore infrastructure is vital to our 
future Navy. We must capitalize on joint basing opportunities with our 
sister services to consolidate support delivery, reduce duplication, 
and improve operational efficiency while enhancing combat 
effectiveness.
    Regionalization of Marine Corp installations will bring all Marine 
bases and stations, with the exception of recruit training depots, 
under the purview of five Marine Corps Installation Commands. This 
transformation will provide optimal warfighter support, improve 
alignment, enhance use of regional assets, return Marines to the 
Operating Forces, and reduce costs.
    Utilize Information Technology to Improve Efficiency and 
Effectiveness.--Information Technology (IT) is critical to providing 
secure, accessible, timely and accurate information needed for the 21st 
century Navy and Marine Corps Team. By integrating national security, 
business and war fighting systems, we will reduce redundancies, 
inefficiencies, and time-critical delays across the Department. The use 
of standardized, open architecture protocols and equipment reduces 
costs, enhances flexibility, and improves network security. Today, the 
Navy and Marine Corps Intranet (NMCI) is serving over 600,000 users and 
supporting critical business and combat support applications. During 
fiscal year 2006/2007 we will complete the deployment of NMCI seats, 
transition legacy systems and servers to NMCI, shutdown the vast 
majority of our legacy networks, and seamlessly integrate the sea and 
shore networks to provide one secure high performance environment for 
our next generation of combat, combat support and business operations.

                               CONCLUSION

    The Navy and Marine Corps Team is proudly serving our Nation, 
answering the call to protect America and her strategic interests. In 
preparing for the future we will not overlook the present. The fiscal 
year 2007 President's budget request is about both prevailing in 
today's wartime environment and bridging to a successful future. We are 
confident in our warfighting success and contribution to the joint 
force today and will improve it with the investments of this budget. As 
we commit to being responsible stewards of the American treasure, both 
in lives and in dollars, we set a course to do our share to win our 
Nation's wars and prepare to meet future challenges.
    Our Sailors and Marines are bearing the burden of today's war. More 
than just forward deployed, they are continuing to make sacrifices in 
defense of liberty. They are performing superbly, bringing honor and 
renown to the naval service. These proud warriors deserve not only the 
accolades and laurels of a grateful nation, but our full measure of 
support as they continue to serve in defense of the United States.
    In supporting the funding decisions outlined in the fiscal year 
2007 President's budget request, the Congress will continue to provide 
the Department of the Navy the right force for the Nation today, while 
preparing for the uncertainties of tomorrow. We are grateful for the 
unwavering support that Congress has given the Navy and Marine Corps in 
the past, and we appreciate its clear intent to ensure our strategic 
readiness for any future contingency. Its continued support is critical 
to our nation's security and to our ability to meet America's global 
responsibilities.
    On behalf of every Sailor and Marine in today's naval forces and 
the warriors who will serve tomorrow, I thank the Congress for its 
continued support of and confidence in the United States Navy and the 
United States Marine Corps.
                                 ______
                                 
           Biographical Sketch of Honorable Donald C. Winter

    Donald C. Winter is the 74th Secretary of the Navy, sworn into 
office on January 3, 2006. As Secretary of the Navy, Dr. Winter leads 
America's Navy and Marine Corps Team and is responsible for an annual 
budget in excess of $125 billion and almost 900,000 people.
    Prior to joining the administration of President George W. Bush, 
Dr. Winter served as a corporate vice president and president of 
Northrop Grumman's Mission Systems sector. In that position he oversaw 
operation of the business and its 18,000 employees, providing 
information technology systems and services; systems engineering and 
analysis; systems development and integration; scientific, engineering, 
and technical services; and enterprise management services. Dr. Winter 
also served on the company's corporate policy council.
    Previously, Dr. Winter served as president and CEO of TRW Systems; 
vice president and deputy general manager for group development of 
TRW's Space & Electronics business; and vice president and general 
manager of the defense systems division of TRW. From 1980 to 1982, he 
was with the Defense Advanced Research Projects Agency as program 
manager for space acquisition, tracking, and pointing programs.
    The Secretary of the Navy is responsible for all the affairs of the 
Department of the Navy, including recruiting, organizing, supplying, 
equipping, training, mobilizing, and demobilizing. The Secretary also 
oversees the construction, outfitting, and repair of naval ships, 
equipment and facilities. The office is also responsible for the 
formulation and implementation of naval policies and programs that are 
consistent with the national security policies and objectives 
established by the President and the Secretary of Defense. The 
Department of the Navy consists of two uniformed Services: the United 
States Navy and the United States Marine Corps.
    Dr. Winter earned a bachelor's degree (with highest distinction) in 
physics from the University of Rochester in 1969. He received a 
master's degree and a doctorate in physics from the University of 
Michigan in 1970 and 1972, respectively. He is a 1979 graduate of the 
USC Management Policy Institute, a 1987 graduate of the UCLA Executive 
Program, and a 1991 graduate of the Harvard University Program for 
Senior Executives in National and International Security. In 2002, he 
was elected a member of the National Academy of Engineering.

    Senator Stevens. Thank you. Admiral, do you have a 
statement?
    Admiral Mullen. Yes, sir. Mr. Chairman, Senator Inouye, 
Chairman Cochran, and distinguished members of this 
subcommittee, I thank you, as well, for the opportunity to 
appear before you today.
    Senator Inouye, if I may sir, on behalf of the United 
States Navy, allow me to extend to you my deepest and most 
heartfelt sympathies for the loss of your wife Maggie. Please 
know that Deborah and I, as well as all sailors everywhere, 
keep you and your family in our thoughts and prayers. Her loss 
is this Nation's loss.
    Mr. Chairman, I'm honored to appear here as a part of the 
Navy and Marine Corps leadership team, and it truly is a team.
    General Hagee and I have known each other a very long time, 
all the way back to our days together at the Naval Academy. 
He's a friend, a mentor, someone I would gladly call shipmate, 
and I feel honored to have this chance to serve so closely with 
him again.
    I'm also honored to be here alongside our new Secretary. 
Secretary Winter has certainly hit the deckplates running, as 
we like to say, and has already made a lasting impression on 
our Navy men and women. We are better for his leadership.
    Mr. Chairman, I'd like to leave you with three thoughts 
this morning. First, your Navy's actively engaged across the 
globe. More than 100 of your ships and submarines, and over 
36,000 sailors are forward deployed right now. More than half 
those men and women--some 22,000--are serving in the Central 
Command theatre, and half of that number are on the ground in 
combat and combat support roles.
    I too, have traveled much of these first 8 months as CNO, 
spending time with sailors at sea and ashore as well as their 
families. I've seen them take the fight to the enemies of 
freedom on the streets of Baghdad, the waters of the Arabian 
Gulf, and in the Horn of Africa, watched them build base camps 
in the vast open stretches of western Iraq, and stand watch 
over the sources of that country's burgeoning economy.
    I stood next to them at the demilitarized zone (DMZ) in 
Korea, listened to them encourage one another as they rebuild 
cities and towns devastated by natural disasters overseas, and 
here, on our own gulf coast, and pinned medals on the chests of 
doctors and corpsmen who risked life and limb to save the lives 
and limbs of others.
    Your sailors are chasing pirates, flying ground support 
missions from carriers and finding and apprehending terrorist 
leadership, while training our allies to do the same.
    They will be pitching in even more. A Navy admiral takes 
command of the detainee operation in Guantanamo Bay this month. 
We will soon take command of the Joint Task Force in the Horn 
of Africa. Naval officers will soon lead 6 of the 12 U.S. led 
Provincial Reconstruction Teams in Afghanistan.
    There's incredible talent in our Navy. Our sailors have 
character and resolve and hold themselves and their shipmates 
to high standards. I'm enormously proud of them and their 
families, and grateful for their service at this critical time 
in our history, and they are ready.
    Second, we know we must work hard to stay ready. During my 
confirmation hearing last April, I identified three challenges 
facing our Navy: I need to sustain combat readiness, the need 
to build the right force for the future, and the need to 
transform our manpower and personnel system.
    Everything I've seen these last 8 months has only convinced 
me further that sea power in this century is taking on a whole 
new meaning, and that these are exactly the right priorities.
    What I seek is balance. We must be able to win the big and 
the small wars. Two challenges, one fleet.
    Our fiscal year 2007 budget request, like the Quadrennial 
Defense Review (QDR) itself, helps provide that balance. It 
funds a continued increase in investment over the future years 
defense plan and boosts procurement by over $2 billion over the 
last year, supporting the development of more capable and more 
efficient technologies, funds our operation and maintenance 
accounts, and through pay raises and other incentives helps us 
to attract and retain that wonderful talent of which I spoke.
    Our long-range ship building plan submitted with this 
budget, likewise strikes a balance between near- and long-term 
requirements. The fleet today stands at 281 ships--not enough 
in my view to deliver the joint warfighting capabilities the 
combatant commanders will need over the course of this long 
war.
    Our plan, centered on 11 aircraft carriers with a fleet of 
about 313 ships, affordably meets these needs for the good of 
the Navy, for the good of the Nation and for the good of our 
allies and partners.
    We get a good start in 2007, building 7 new ships across 
five classes--3 of them new classes, I might add, while moving 
the count up to 285.
    And that brings me to point number three, Mr. Chairman. 
Only through your support and the continued, longstanding 
support of this subcommittee and the Congress can we really 
succeed.
    In this very month of March back in 1794 Congress 
authorized the construction of six new frigates. It was a risky 
vote. Longer and broader than traditional frigates, the ships 
design by Joshua Humphries featured an oddly angled hull 
curving inward from the waterline, unusually flush decks, and 
several feet of extra beam. Critics deemed them ungainly. And 
yet they shone against the French in 1799, the Barbary pirates 
in 1804, and the British in the war of 1812. They ushered in a 
new age of fighting sail.
    The greatest of them, the U.S.S. Constitution--moored today 
in Boston--remains our oldest commissioned warship and a symbol 
of both America's independence and her ingenuity.
    The new warships we intend to build with your support, 
DD(X), CVN-21, Virginia-class attack submarine, and the 
Freedom-class littoral combat ships, will likewise usher in a 
new era of sea power and advance America's heritage of 
ingenuity in defense of liberty.

                           PREPARED STATEMENT

    I thank you again for that support, for your time today, 
and for your commitment to the men and women of the United 
States Navy. They and their families are the best I've ever 
seen.
    On their behalf, I stand ready to answer your questions.
    [The statement follows:]

            Prepared Statement of Admiral Michael G. Mullen

    Mr. Chairman and members of the Committee, it is a privilege for me 
to appear before you today, and it is with pride and humility that I 
address you for the first time since becoming the Chief of Naval 
Operations in July of last year. In November of 2005 our service 
celebrated 230 years of honor, courage, and commitment to the ideals 
that make our country a beacon of freedom and democracy spanning the 
world's waterways. The greatest honor I will ever have is to serve and 
represent the Sailors and civilians--the people--who are your United 
States Navy.
    During my confirmation testimony last April, I identified three 
challenges facing our Navy: the need to sustain combat readiness at a 
high level; the need to build a Navy capable of meeting the most 
demanding future threats; and the need to transform our manpower and 
personnel system to better serve and to be more responsive to our 
people.
    Having now been in the job for a little more than six months, I 
have visited our Fleet, have observed numerous operations at home and 
overseas, participated in the comprehensive Quadrennial Defense Review, 
and met with the Chiefs of many foreign navies. This has helped shape 
my perspective of our Navy today and where I believe we need to go in 
the future. It has also validated the challenges I identified last 
April as the right priorities upon which we must focus. It is my belief 
that the QDR and our fiscal year 2007 budget are the first steps toward 
establishing this critical balance between maintaining current 
readiness, building a future Navy, and serving our people. Your Navy 
remains first and foremost a warfighting, seagoing service.
    This budget:
  --Sustains combat readiness--with the right combat capabilities--
        speed, agility, persistence, and dominance--for the right cost.
  --Builds a fleet for the future--balanced, rotational, forward 
        deployed and surge capable--the proper size and mix of 
        capabilities to empower our enduring and emerging partners, 
        deter our adversaries, and defeat our enemies.
  --Develops 21st Century leaders--inherent in a strategy which, 
        through a transformed manpower, personnel, training and 
        education organization, better competes for the talent our 
        country produces and creates the conditions in which the full 
        potential of every man and woman serving our Navy can be 
        achieved.
    Our future Navy will ensure access and sustainability of the Joint 
Force in blue, green, and brown waters through globally distributed and 
networked operations. It will do so in partnership with the Marine 
Corps, and will be symbiotic with the Coast Guard, as envisioned in the 
President's National Strategy for Maritime Security. It will be a 
larger and more lethal fleet of faster ships, with capacity to 
overmatch our most capable adversaries, including any future strategic 
competitors, and to further develop our emerging and enduring 
partnerships worldwide. It will rely on Joint seabasing that will 
provide for sustained, air and ground anti-access operations in access-
restricted environments. It will leverage both manned and unmanned 
capabilities. It will build upon the programmatic foundation of 
FORCEnet and Sea Power 21.
    Sea Power in this new century will require speed, agility, 
persistence, and dominance. To achieve this your Navy must deliver a 
balanced force of the right capabilities, the right mix, the right 
size, at the right cost.

                              INTRODUCTION

    During my recent tour in Europe, as Commander U.S. Naval Forces and 
Commander, Joint Force Command, Naples I gained an extraordinary 
appreciation of the partnership of nations--not only through NATO's 
engagement in the Global War on Terror, Operation ACTIVE ENDEAVOR in 
the Mediterranean, and NATO's training mission in Iraq--but through the 
multitude of operations conducted daily with our Allies and emerging 
partners throughout the European Command Area of Responsibility. I also 
learned, first hand, that staying the course in post-conflict Bosnia 
and Kosovo had paid rich dividends as military presence was eventually 
transitioned to civilian infrastructures and maturing rule of law. 
Here, too, partnerships were the key, including multi-national 
militaries, non-governmental organizations (NGO), and interagency and 
international community players. Interoperability and timely 
communication remain critical. Throughout Europe, the Caucasus, and 
Africa I witnessed the true value of our Navy's work with emerging and 
enduring partners through the Theater Security Cooperation program. We 
are building confidence, trust, and lasting relationships that will 
most assuredly prevent future crises and conflicts.
    In July of last year I took over a Navy in great shape, with 
Sailors and civilians at the peak of readiness and proud of their 
warfighting ethos. I set about defining the capabilities needed to 
remain strong and to prevail in this new century. It wasn't long, 
though, before hurricanes Katrina and Rita devastated our Gulf coast. I 
was reminded of the power of the sea, and was struck by the tremendous 
potential of ``Sea Power.'' Our Navy answered the call just as we had 
after the Indonesian tsunami, where no other institution in the world 
was better equipped or more ready to respond than your Navy. In a 
powerful demonstration of the flexibility provided by the Fleet 
Response Plan, 23 ships sailed to the Gulf. The hospital ship USNS 
COMFORT, sister ship to the MERCY that had opened the world's eyes to 
America's compassion following the tsunami, was underway within 72 
hours.
    USS BATAAN was the first Navy responder, arriving in the vicinity 
of New Orleans one day after Katrina's landfall, coordinating 
helicopter rescue efforts with the Coast Guard and providing medical 
care to some 800 evacuees. HSV-2 SWIFT's high speed and shallow draft 
combined to make it an ideal platform for the delivery of relief 
supplies and the support of other platforms operating in the Gulf area, 
just as it had during relief operations in Indonesia. In both cases, 
SWIFT was able to reach ports inaccessible to other ships in the 
logistics force and played a critical role in the early delivery of 
supplies. More than 3,300 Seabees paved the way to hurricane recovery 
by clearing 750 miles of roads, removing more than 20,000 tons of 
debris, restoring 60 schools serving 40,000 students, and completing 
453 utility projects.
    The crew of USS TORTUGA essentially conducted a non-combatant 
evacuation in the flooded parishes of New Orleans--taking their boats 
inland to pull people out of dilapidated houses. The HARRY S TRUMAN, 
uncharacteristically carrying no strike aircraft, anchored off shore 
with 19 helicopters embarked and provided a ready deck for rescue 
helicopters that saved lives through dramatically decreased response 
times. USS IWO JIMA, pier side in downtown New Orleans, served as the 
city's only functional airport, command center, hotel and hospital. I 
met with Vice Admiral Thad Allen of the Coast Guard aboard IWO JIMA 
shortly after he had taken command of FEMA's efforts--and he raved 
about the significant role the ship was playing in the crisis and the 
brilliant performance of her crew.
    And this reminded me of a comment I had heard in Europe following 
our tsunami relief effort from an individual representing an NGO. She 
said, ``Thank God for the U.S. Navy. No other institution in the world 
could have responded with that level of effort so quickly.'' And it 
struck me that our Navy really is like a ``city at sea,'' offering hope 
and relief in times of crisis. We have seen it again, in the wake of 
the Pakistani earthquake, where Navy ships, aircraft, Seabees and 
medical personnel lent a helping hand and made a difference in winning 
hearts and minds in the Global War on Terror.
    In September I addressed the International Sea Symposium--49 Chiefs 
of Navy and Coast Guard and representatives from 72 countries in 
Newport, Rhode Island. My topic was ``Establishing a Global Network of 
Maritime Nations for a Free and Secure Maritime Domain.'' And while I 
asked the participants to imagine an international maritime force of 
1,000 ships--the world's navies and coast guards working together to 
face the challenges of a new era--I realized this was becoming a 
reality before my very eyes. There were meaningful discussions taking 
place regarding regional cooperation in countering piracy, terror, and 
the proliferation of weapons of mass destruction. There were 
testimonials from NATO and ASEAN navies, and from South American and 
African navies. And it occurred to me that this is what Sea Power in 
the 21st Century is all about. The U.S. Navy has taken the lead as a 
global maritime force for good, and there are plenty of nations willing 
and eager to do their part.
    But the Navy's capabilities extend beyond traditional missions of 
sea borne shaping and stability operations, conventional and irregular 
warfare, freedom of navigation, homeland security, and deterrence. In 
fact, the Navy is tackling new missions every day that don't involve 
ships. More than 10,000 sailors are currently on the ground in the 
CENTCOM AOR, 4,000 of whom are in Iraq. In March of this year, the Navy 
will take command of the detainee mission in Guantanamo Bay, Cuba. We 
recently took command of a new high security prison in Iraq. In April, 
a Navy Admiral will take command of the Joint Task Force Horn of Africa 
in Djibouti.
    This is in addition to counter piracy operations off east Africa 
and a return visit to Southeast Asia and the South Pacific from Navy 
medical personnel aboard USNS MERCY. Soon, we will have a riverine 
capability that will extend the outreach of our newly established Navy 
Expeditionary Combat Command and Expeditionary Security Force into the 
world's shallow waterways. Whether extending a helping hand or fixing, 
finding and finishing our enemies, we are redefining the limits and 
meaning of Sea Power in the 21st Century.
    Over the past two months, I have visited our Sailors at Guantanamo 
and in the CENTCOM AOR, spending time in Iraq, Kuwait, Bahrain, 
Djibouti and at sea in the North Arabian Gulf. I have also recently 
been to Japan, Korea, Guam, and Hawaii. In every respect, these were 
terrific trips, eye-opening and encouraging. Our people are doing 
amazing things. Their morale is high, their sense of accomplishment 
firm. I didn't speak with a single Sailor who didn't know how, or to 
what degree, his or her job contributed to the overall effort in this 
war. In fact, you would be hard pressed to find one who didn't believe 
what he or she was doing was the most important thing that could be 
done.
    It was against this operational backdrop that we tackled the QDR, 
the most comprehensive review of its type since the first was produced 
more than a decade ago. For the first time, the QDR was conducted in a 
time of war. It represents an important step in a continuum of 
transformation that began more than five years ago. The Navy was an 
integral participant in the QDR process and I am confident in the 
course it sets for DOD and the Navy.
    QDR 2006 has helped shape a Naval force with increased capability 
and capacity. Specifically it:
  --Re-affirms the need for a forward deployed, rotational, and surge 
        capable force to provide persistent awareness and decisive 
        joint combat power when and where needed;
  --Supports a modern, fast, and lethal fleet of ships able to fight in 
        all waters around the globe;
  --Expands capability to conduct conventional and irregular warfare, 
        especially in littoral waters;
  --Expects the Navy and Marine Corps team to project its combined air, 
        land, and sea power from innovative ``sea bases'' of ships and 
        personnel, regardless of access to land bases. This will better 
        enable us to engage in missions ranging from traditional combat 
        and special operations to humanitarian assistance and disaster 
        relief.
  --Increases our ability to enhance the capabilities and capacity of 
        partner nations.
  --Improves DOD's contribution to the active, layered defense of our 
        homeland, working closely with the United States Coast Guard 
        and other agencies.
  --Provides 60 percent of our submarines and six operational aircraft 
        carriers to the Pacific.
    In summary, the QDR and my own recent experiences, further support 
my three priorities and have helped shape the following eight tenets 
that guide my Vision for the 21st Century Navy:
    1. America is and will remain a maritime nation.
    2. We live in a challenging new era.
    3. The Navy will remain rotational, forward deployed, and surge 
capable.
    4. The level of maritime cooperation will increase.
    5. New opportunities and security challenges require new skills.
    6. Calculating the size of the force demands balance between 
capabilities, capacity, and fiscal reality.
    7. The future fleet will be more capable, larger, and more lethal.
    8. Sea Power 21 will remain the framework for our Navy's ongoing 
transformation.

    ----------------------------------------------------------------

                             Navy's VISION
    Americans secure at home and abroad; sea and air lanes open and 
free for the peaceful, productive movement of international commerce; 
enduring national and international naval relationships that remain 
strong and true; steadily deepening cooperation among the maritime 
forces of emerging partner nations; and a combat-ready Navy--forward-
deployed, rotational and surge capable--large enough, agile enough, and 
lethal enough to deter any threat and defeat any foe in support of the 
Joint Force.

    ----------------------------------------------------------------

                          SUSTAINING READINESS

Taking a Fix
            Current Operations:
    We are a maritime nation, and we are at war. For the last 230 
years, our Navy has defended our shores, kept our sea-lanes free, and 
promoted our national interests around the globe. For generations, our 
Navy has been the world's premier maritime force for freedom, time and 
again proving its flexibility and unique adaptability in support of 
liberty, national security, and our economic viability.
    Your Navy today is in great shape. Readiness is high. Maintenance 
is being performed faster and more efficiently. Recruiting and 
retention remain strong. Our people are motivated, well trained and 
battle-tested. They understand the mission, their role in it, and the 
importance of the effects they are achieving. In addition to the 
critical strategic deterrence our forward presence and global strike 
capabilities represent, there are more than 10,000 of our shipmates on 
the ground in Kuwait, Afghanistan, Iraq and the Horn of Africa. Many 
thousands more are deployed aboard ships at sea in direct support of 
the Global War on Terror and regional deterrence, strengthening 
capabilities and relationships with our enduring and emerging partners, 
and dissuading potential adversaries from attempting to threaten our 
freedom at home or abroad. They are performing magnificently.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 1

    While numbers vary slightly with daily operations, on February 15, 
2006 we had 97 ships on deployment (35 percent of the Fleet) and 142 
ships underway (51 percent of the Fleet) serving our Combatant 
Commanders in every theater of operation; this includes six aircraft 
carriers, seven big deck amphibious ships (LHA/LHD), and 29 submarines 
(Figure 1). On that day there were 2,614 active and reserve Seabees 
working tirelessly overseas to provide our Joint force and many 
civilians with vital infrastructure such as roads, runways, schools, 
and hospitals. There were also 3,574 of our active and reserve medical 
corps serving in foreign and sometimes hostile environments. 
Additionally, 673 members of the Navy Special Warfare community were 
deployed overseas (of 3,633 deployable), as were 256 Explosive Ordnance 
Disposal personnel (of 1,321 available to deploy), and 838 security 
personnel (of 5,929 deployable).
    On February 15, 2006, there were 39,775 of our Sailors deployed in 
support of the nation's interests in the Persian Gulf, the 
Mediterranean, the Indian Ocean and the Western Pacific, continuing 
operations like strategic deterrence; intelligence, surveillance and 
reconnaissance missions; Extended Maritime Interdiction, counter piracy 
and counter-drug patrols. No less vital are the sailors and civilians--
the Total Navy--who serve the shore-based infrastructure that underpins 
our Fleet worldwide.
    The fiscal year 2007 budget provides funds necessary to support 36 
underway days per quarter of the active operational tempo (OPTEMPO) for 
deployed forces and 24 underway days per quarter for non-deployed 
forces (primarily used for training). Our fiscal year 2007 baseline 
budget estimates also include reductions to peacetime OPTEMPO levels. 
For aircraft carrier OPTEMPO, the fiscal year 2007 budget supports the 
``6+1'' surge readiness level. As in fiscal year 2006, it is 
anticipated that operational requirements will continue to exceed 
peacetime levels in fiscal year 2007.
    Oceans that once served as insulating barriers now provide open 
access to friends and enemies alike. The world's waterways are open 
highways that are becoming more congested with pirates and those 
trafficking in drugs, weapons of mass destruction, illegal immigrants, 
slaves, criminals, and terrorists. 95 percent of U.S. overseas trade 
travels by water and that volume is expected to double by 2020. Our 
nation's prosperity depends upon unimpeded maritime commerce just as 
our security demands continued maritime dominance. Sea Power in the 
21st Century must provide this assurance while serving as freedom's 
global lifeline.
    Whether spearheading Operation ENDURING FREEDOM (OEF) by providing 
sovereign deck space from which to launch the war in Afghanistan, 
continuing to support ground operations in Iraq from the sea, in the 
air and on the land as part of Operation IRAQI FREEDOM (OIF), 
conducting deterrence operations in the Persian Gulf, responding to 
humanitarian crisis in Indonesia or Pakistan, patrolling for pirates 
and interacting with developing navies in Africa, serving with the NATO 
Response Force in Europe, supporting counter-terrorism operations in 
the Philippines, exercising with the navies of Russia and India, or 
remaining keenly vigilant while expanding cooperative interaction with 
others, our Navy must work in non-traditional ways with our global 
partners to preclude or forestall conflict. Equally important is that 
our Navy maintain its strategic deterrence and global strike 
capabilities that remain vital to our nation's defense.
            Emerging Missions:
    In March of this year, the Navy will take command of Joint Task 
Force Guantanamo, relieving the U.S. Army of that mission. In May of 
this year, the Navy will take command of the Joint Task Force, Horn of 
Africa, relieving hundreds of Marines who have led that effort since 
October 2002. Almost 500 sailors have already begun performing security 
duties at Fort Suse Prison in Iraq.
    As the Navy develops shallow water and riverine capabilities, we 
will seek increasing synergies with the Coast Guard, at home and 
abroad, exploring complementary design, acquisition, operations and 
training initiatives. Working cooperatively with the Joint Services, 
inter-agency, allied, coalition, and non-governmental organizations, 
our Navy will expand our global Maritime Domain Awareness and provide 
unique operational options for the President of the United States and 
our Combatant Commanders.
Plotting the Course: Where we're heading in Sustaining Readiness
    The world has entered a ``new era'' in which our military is 
confronting a highly dynamic security environment far more complex, 
uncertain, and potentially threatening than any we have faced before. 
While this is a time of promise and developing partnerships, it is also 
an era of irregular and increasingly unrestricted warfare. Our 
adversaries, unable and unwilling in some cases to match our 
technological warfighting advantage, will increasingly resort to 
whatever means are available to wreak havoc and destruction--
physically, economically, and psychologically--unhindered and 
unconstrained by moral conscience or social norms. To be effective in 
this environment, our Combatant Commanders need tools that are not only 
instruments of war, but implements for stability, security, and 
reconstruction.
    To be successful as an interdependent part of the U.S. Joint Force, 
our Navy must be balanced. We must be balanced in our support of 
diplomatic, informational, military and economic efforts intended to 
positively influence the world's diverse people and cultures. We must 
be balanced in our global maritime presence: providing non-threatening 
outreach to emerging and enduring partners while demonstrating 
overwhelming military superiority and unflinching determination to our 
adversaries.
    We must at the same time represent hope and empowerment to our 
friends and convincing deterrence to our enemies. The United States 
Navy will need to be a highly visible, positive, engaged, and 
reassuring presence among the global maritime community of nations--
sometimes a ``cop on the beat,'' but always a respected and valued 
member of a global neighborhood watch. We must encourage nations to 
provide security within their territorial waters and to seal seams 
between neighbors, either by accepting assistance to improve their own 
capabilities, or through collective security and information sharing 
arrangements.
    We must adopt a more comprehensive and coordinated approach to 
regional engagement, synchronizing our efforts with other services, 
agencies, and allied nations through the Theater Security Cooperation 
program, shaping, and stability operations. Wherever the opportunity 
exists, we must develop and sustain relationships that will help 
improve the capacity of our emerging partners' maritime forces. We will 
do this through the deployment of expeditionary teams capable of 
addressing specific developmental deficiencies. From personnel 
specialists and base infrastructure advisors, to trainers afloat and 
network consultants, these tailored teams will foster the ability of 
partner nations to contribute to collective security and shared 
maritime domain awareness, and to fend off threats to their economic 
and regional stability.
    To enable our operations at home and away, our Navy, in partnership 
with the Coast Guard, must be supported by the right information at the 
right time--expanding Maritime Domain Awareness throughout the global 
commons and the world's shallow waterways. In pursuit of pervasive and 
persistent Intelligence, Surveillance, and Reconnaissance, however, we 
must ensure the ``unblinking eye'' does not become an ``unthinking'' 
eye. In a world of growing global connectivity, the volume of 
information we are able to collect matters less than our ability to 
identify and understand what is important. Our Sailors must learn to 
recognize what matters, to comprehend the implications of the complex 
information they gather, so that we can act upon it instantly, with the 
right capabilities, when required to do so.
    Naval Intelligence remains focused on addressing the multitude of 
intelligence requirements from the fleet, theater, and National 
decision makers, augmenting and transforming its intelligence 
capability to support the increasing range of Navy missions. The 
intelligence and cryptologic resources requested in the President's 
budget submission will allow the Navy to remain postured to support the 
war against terror, defend the homeland, shape the environment 
overseas, and counter the most capable potential adversaries.
    In concert with interagency and foreign partners, we are developing 
Global Maritime Intelligence Integration (GMII) as part of Global 
Maritime Domain Awareness (MDA) in support of Joint and Navy 
operations. It is no longer acceptable to focus intelligence only on 
the most obvious potential threats. We need, and are building, a 
capability that will lead us to a more complete understanding of the 
maritime environment--close to home and abroad. We are shaping our 
relatively small Naval Intelligence cadre to work more closely with 
Special Operations Forces, the interagency, the Coast Guard, Joint 
forces, and our international partners. The establishment of a National 
Maritime Intelligence Center will further enhance our Maritime Domain 
Awareness.
    Maritime Domain Awareness contributes to the Navy's ability to 
provide flexible forward presence such as that provided by the Fleet 
Response Plan (FRP).
    The Fleet Response Plan is the maintenance, training, and 
operational framework through which the Navy meets global Combatant 
Commander demand signals for traditional (e.g., GWOT, major combat 
operations, humanitarian assistance/disaster relief, shaping and 
stability operations, counter piracy, etc.) and emerging mission sets 
(e.g., riverine warfare, NECC, medical outreach). FRP is mission-
driven, capabilities-based, and provides the right readiness at the 
right time (within fiscal constraints). It enables responsive and 
dependable forward presence. With FRP we can deploy a more agile, 
flexible and scalable naval force capable of surging quickly to deal 
with unexpected threats, humanitarian disasters, and contingency 
operations.
    The Fleet Response Plan maximizes the Navy's ability to respond to 
emergent crises, changes the way ships are maintained, and keeps the 
Navy at a high state of readiness. FRP provides the capability of 
deploying numerous Carrier Strike Groups (CSGs), in whole or in part, 
immediately to wherever in the world the mission calls, with an 
additional CSG deploying within 90 days. This planning is currently 
structured to fulfill a 6 + 1 goal: six CSGs would be ready to deploy 
within 30 days of notification and another within 90 days.
    The ability to surge dramatically shortens response times to any 
contingency and enables the United States to increase global presence-
with-a-purpose as needed. Commander Fleet Forces Command, based in 
Norfolk, Virginia, is leading the implementation of the FRP across the 
Navy. Last fall, the FRP concept was vividly validated by the response 
to Hurricane Katrina, in which 23 ships were immediately made available 
for relief efforts. FRP will further help to facilitate Navy's 
establishment and defense of the Joint Sea Base, allowing for a reduced 
footprint ashore in anti-access operations.
    In the Pacific, response time is exacerbated by the tyranny of 
distance. Consistent with the global shift of trade and transport, the 
QDR has recognized the Navy's need to shift more strategic assets to 
this vital and rapidly developing theater. In the future, approximately 
60 percent of our submarines and six operational aircraft carriers will 
be based in the Pacific. The Fleet Response Plan and basing options 
will provide a rheostat to meet foreseeable forward presence 
requirements.
    As FRP bolsters fleet effectiveness and efficiency, so too does the 
aviation maintenance program called AIRSpeed.
    AIRSpeed is the Naval Aviation business model that has increased 
the combat effectiveness of Naval Aviation through more efficient 
business practices. The AIRSpeed program balances and aligns 
maintenance and supply activities to end-user demands by ensuring the 
right material is in the right place, at the right time and at the 
right cost. We are committed to implementing this throughout the Navy. 
AIRSpeed has moved Naval Aviation away from ``readiness at any cost'' 
to ``cost-wise readiness'' practices, enabling Naval Aviation to answer 
the call in every corner of the globe.
    Another initiative to improve global readiness addresses the 
expeditionary nature of emerging missions ashore and in coastal 
waterways. In January of this year, the Navy officially established the 
Navy Expeditionary Combat Command (NECC) to help meet some of the 
asymmetric challenges of the 21st Century. The NECC will serve as a 
functional command in control of manning, training, equipping, and 
organizing forces that will execute force protection, shore-based 
logistical support, and construction missions across the Joint 
operational spectrum.
    The Navy plays a vital role in direct and indirect support of Joint 
stability and shaping operations worldwide. To this end, NECC will re-
establish a riverine force to close gaps in very shallow-water littoral 
areas, ensuring access to the world's waterways. NECC will be the 
single advocate for the Expeditionary Security Force, to include 
existing forces/missions (Seabees, Explosive Ordnance Disposal, 
Expeditionary Security, Naval Coastal Warfare, Mobile Diving and 
Salvage, Port Handlers, etc) and key new navy capabilities (Riverine, 
Maritime Civil Affairs Group, Expeditionary Training Team, advanced 
Visit, Board, Search, and Seizure, etc.).
    Our Navy must stand ready to support the current critical and 
emerging requirements of the Combatant Commanders. Whether this is 
accomplished through grey hulls, white ships, hard hats, blue shirts, 
or red crosses, we need to complement the Fleet Response Plan with 
sustainable Sea Basing, intelligently and selectively applied Sea Swap, 
and a Forward Deployed Naval Force.
Getting Underway: Programs and Practices in Support of Sustaining 
        Readiness
    Through FRP, the deployment of adaptable force packages, and the 
strategic realignment of key assets, the Navy will increase its ability 
to aggregate and disaggregate the force as required to provide 
persistent forward presence and overwhelming combat power. This 
supports the nation's requirement for an immediate, credible response 
and sustainable naval forces necessary not only to fight the GWOT, but 
also to support a meaningful naval presence in key areas of concern to 
U.S. strategy and policy.
    Programs and practices of particular interest include:
    Fleet Response Plan.--As highlighted by the QDR, the Fleet Response 
Plan (FRP) is an on-going mission-driven means to provide the right 
readiness at the right time (within fiscal constraints). FRP enables 
responsive forward presence and drives our ability to answer the 
Combatant Commanders' demand signals. With FRP, Navy has deployed and 
developed a more agile, flexible and scalable naval force capable of 
surging quickly to deal with unexpected threats, humanitarian disasters 
and contingency operations.
    Sea Swap.--Sea Swap is an initiative designed to keep a single hull 
continuously deployed in a given theater, replacing the entire crew at 
six-months intervals. The primary objective is to effectively and 
efficiently increase forward Naval presence without increasing 
operating cost. Navy commenced its second Sea Swap experiment in March 
2005 with three East Coast destroyers--USS GONZALEZ (DDG 66), USS 
LABOON (DDG 58), and USS STOUT (DDG 55). The first of the three 
overseas swapping of the crews occurred in September 2005. While the 
results of these experiments are still being evaluated, it is clear 
that when selectively applied, Sea Swap will offer greater flexibility 
in the deployment of a variety of platforms.
    Forward Deployed Naval Forces (Japan).--The government of Japan has 
agreed to have USS GEORGE WASHINGTON (CVN 73) replace the USS KITTY 
HAWK (CV 63) as our forward deployed aircraft carrier at the Yokosuka 
naval base. The move represents a strong commitment to the security of 
the Asian Pacific region and our alliance. The GEORGE WASHINGTON will 
become the first nuclear aircraft carrier to join the Navy's 
permanently forward deployed naval forces (FDNF), replacing the 
conventionally powered the KITTY HAWK in 2008.
    Facilities Recapitalization.--Facilities Recapitalization is 
comprised of Modernization and Restoration. Modernization counters 
obsolescence by updating and renewing a facility to new standards or 
functions without changing the fundamental facility size. Restoration 
includes repairs necessary to restore degraded facilities to working 
condition beyond design service life (C3/C4 corrections) or to fix 
accidental damage from natural disaster, fire, accident, etc. Our goal 
is to modernize facilities at a rate of 67 years (Recap Rate). The 
restoration goal is to eliminate all C3/C4 deficiencies by 2013.
    Facilities Sustainment.--Facilities Sustainment includes those 
maintenance and repair activities necessary to keep facilities in 
working order through their design service life. It includes regularly 
scheduled maintenance and major repairs or replacement of facility 
components that are expected to occur periodically throughout the life 
cycle of facilities. The fiscal year 2007 Sustainment Rate is 91 
percent of the Facility Sustainment Model (FSM).
    Utilities Privatization (UP).--Navy had originally planned to 
complete all competitive UP evaluations by September 2005. However, 
delays for 159 utilities systems have extended the completion schedule. 
To date, Navy has completed Source Selection decisions for 486 of our 
645 systems.
    Environment and Marine Mammal Protection Act.--Effective 
Antisubmarine Warfare (ASW) is critical to ensuring the Navy's ability 
to defend national interests around the world. The Navy's ASW forces 
must be highly trained and capable in littoral-water operations in 
order to provide assured access for the Joint Force to strategic areas 
worldwide.
    The Navy takes seriously our responsibility to act as good stewards 
of our natural resources and incorporates protective measures into 
training to minimize effects on the environment. The Navy is committed 
to environmental compliance, and we are committed to working with those 
interested in protecting valuable environmental resources.
    The Navy's use of sonar, and the ability to test and train with it, 
is critical to operational readiness and our national defense. 
Effective use of active sonar is a perishable skill that demands 
realistic training. The Navy recognizes that such active sonar testing 
and training must be accomplished in an environmentally sound manner 
that is science-based and protective of marine life.
    The Navy has recently published a Draft Environmental Impact 
Statement (DEIS) for an Undersea Warfare Training Range (USWTR) to be 
located off of the East Coast of the United States. This DEIS marks the 
first time the Navy will apply for a permit under the Marine Mammal 
Protection Act for a permanent training range vice a one-time training 
authorization. The Navy's Fleet Forces Command and Regional Staffs are 
cooperating with federal and state agencies throughout the process to 
keep them informed and to coordinate for the appropriate permits.
    Intelligence Surveillance and Reconnaissance (ISR).--Navy Human 
Intelligence (HUMINT) initiatives remain consistent with those of 
USD(I) and, in cooperation with Defense HUMINT, we are creating Navy 
manned, maritime collection elements worldwide. These elements will 
provide maritime focused collection capability, postured to capitalize 
on regional opportunities, and prosecute the GWOT and other non-
traditional missions.
    Furthermore, the Navy has established Maritime Interception 
Operations (MIO) Intelligence Exploitation Teams to increase on-scene 
intelligence collection and exploitation during MIO boardings in 
support of OEF and OIF. This unique effort will significantly reduce 
time lags between MIO boardings and analysis of intelligence collected.
    Additionally, Navy is creating a cadre of trained and certified 
Navy interrogators to sustain operations at the Joint Interrogation 
Facility at Guantanamo Naval Base, Cuba and to support future Joint 
interrogation requirements.
    Advanced Deployable System (ADS) is a rapid, unobtrusively deployed 
undersea surveillance system and capability focused against enemy 
diesel-electric submarines, nuclear submarines, high-interest merchant 
shipping and the detection of sea-mine laying activities in the 
littorals.
    COBRA JUDY Replacement (CJR) is a deployed shipboard radar system 
designed to collect high fidelity radar data in support of treaty 
monitoring obligations and U.S. missile defense system testing. CJR is 
the functional and operational replacement for the current COBRA JUDY 
system and the USNS Observation Island hull, which has reached the end 
of its service life.
    Submarine Support Equipment Program (SSEP) develops Electronic 
Warfare Support (EWS) systems improvements to enhance operational 
effectiveness in the increasingly dense and sophisticated 
electromagnetic/electro-optic littoral environment. SSEP provides agile 
threat warning capability to respond to emerging threats.
    Distributed Common Ground/Surface Systems (DCGS) is a Joint family 
of interconnected C4I systems for posting, processing, exploiting, and 
updating ISR information. The Common Data Link (CDL) program ensures 
interoperability between the airborne ISR platforms and the family of 
ground systems.

                       BUILDING THE FUTURE FORCE

Taking a Fix
    The QDR included a rigorous evaluation of requirements and 
budgetary constraints that will shape how we confront the very 
uncertain and challenging security environment of this new century and 
the ``long war'' in which we are currently engaged. The fleet we are 
building today, and the leaders we are training, will be the Navy that 
confronts tomorrow's challenges. The environment in which that force 
operates will be very different from that in which we have come of age.
    Due to the fiscal and temporal realities associated with the design 
and development of modern, sophisticated weapons systems, the Navy is 
continuing to transform. As recognized in the QDR, the size and 
capabilities of our force are driven by the challenges we will face. 
The capacity of the force is determined by its global posture in 
peacetime and the requirement to respond from this posture, as well as 
to surge, in crisis. In the case of our Navy, it is based upon the need 
for a ubiquitous but carefully tailored maritime presence that can 
provide our President and our allies with strategic options in support 
of dynamic security requirements.
    The Navy recently submitted to Congress our 30-Year Shipbuilding 
Plan designed to replenish the fleet, while stabilizing workload and 
funding requirements. A stable plan will allow the shipbuilding 
industry to maintain critical skills and to make sound corporate 
decisions to best meet the Navy's projected shipbuilding requirements.
    A stable shipbuilding industry is essential to sustain optimum 
employment levels and retain critical skills to meet our requirements 
for an affordable and capable force structure. We must align the 
industrial base for long-term force development through advanced 
procurement and incentivized cost savings. We must have a robust enough 
industrial base to withstand natural disaster or catastrophic attack. 
We must build ships more efficiently, cost effectively, and quickly. To 
do this, we are committed to help provide stability in the shipbuilding 
plan and rigorously control requirements. Costs and production 
schedules must be kept within contractual limits. Industry must be 
viewed as a trusted partner while we provide a stable baseline upon 
which to plan.
    The 2007 Annual Long Range Plan for Construction of Naval Vessels 
is an investment plan that is both executable and affordable based on 
balancing several factors: naval force operational capability, risk, 
and the ability of the shipbuilding industrial base to execute the 
plan. The Navy continues to analyze operational requirements, ship 
designs, costs, acquisition plans, tools, and industrial base capacity 
to further improve its shipbuilding plan. Full funding and support for 
execution of this plan is crucial to transforming the Navy to a force 
tuned to the 21st Century and built upon the foundation of Sea Power 21 
and FORCEnet.
    Our Sea Strike capability will continue to revolve around Carrier 
and Expeditionary Strike Groups, with sufficient lift, sustainability, 
and TACAIR assets to meet irregular and conventional Joint warfighting 
requirements.
    Sea Basing provides assured access to the Joint force by keeping 
the logistics tail safely at sea while putting the teeth of the combat 
forces ashore. The iron mountain of equipment we staged on land in 
earlier operations, now will come from international waters at sea, 
minimizing our footprint ashore and the associated permissions required 
from host nations. Our Sea Basing will be facilitated by large deck, 
expeditionary warfare ships and connectors, by heavy lift and transport 
aircraft, by Maritime Prepositioning Forces, and by the combat 
logistics force.
    Our Sea Shield capabilities will be advantaged by advanced Anti-
Submarine Warfare, inter-netted Under Sea Warfare, and Theater 
Ballistic Missile Defense (TBMD) technologies, and our submarine fleet 
will need to maintain its technological edge over all adversaries in 
warfighting, ISR, detectability, and survivability.
    As a primary catalyst for naval transformation, FORCEnet has the 
potential to fundamentally transform operations themselves, generating 
greater effectiveness, efficiency, and adaptability. Further, through 
the transformation of systems related to training, administration, 
recruitment and acquisition, FORCEnet is expected to influence the 
entire naval enterprise.
    As highlighted by the QDR, achieving the full potential of net-
centric warfare requires viewing information as an enterprise asset to 
be shared and as a weapon system to be protected. The underlying power 
of FORCEnet derives from leveraging the network effect, which causes 
the value of a product or service in a network to increase 
exponentially as the number of those using it increases. FORCEnet will 
extend visibility of information and will support a more horizontal 
command, control and communications structure.
    To better fight the Global War on Terror and prevent piracy and the 
trafficking of weapons of mass destruction, humans, and narcotics we 
will need faster, multi-mission ships, and the right mix of 
helicopters, small boats, and combat capabilities. And to expand the 
number of maritime nations able to contribute to regional stability and 
join us in the fight against violent extremism, we will need shallow 
draft ships and more helicopters to better support a variety of 
training, outreach, and civil affairs operations.
Plotting the Course: Where we're heading in Building the Future Force
    In building the Navy of the future, access is as important as 
presence. Whether delivering training, humanitarian assistance, or 
lethal combat power our Navy cannot be restricted in its access to the 
world's navigable waterways. Conducting disbursed and networked 
operations, with the proper force mix, people, and tools, will enable 
us to simultaneously fight an irregular war, defend the homeland, and 
participate in pro-active, cooperative engagement on a day-to-day basis 
while retaining the capability to rapidly aggregate dominant combat 
power to deter or conduct Major Combat Operations should they arise.
            Two challenges, one Navy.

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
                                Figure 2

    As part of the QDR process, the Navy used a capability-based 
approach (shown above in Figure 2) to calculate the size and 
composition of the future force required to meet expected Joint force 
demands in peace and in the most stressing construct of the Defense 
Planning Guidance. Further, we evaluated detailed assessments of risk 
associated with affordability and instabilities in the industrial base. 
The analysis concluded that a fleet of about 313 ships is the force 
necessary to meet all of the demands, and to pace the most advanced 
technological challengers well into the future, with an acceptable 
level of risk. The Navy expects to achieve this force structure by 
fiscal year 2012.
    Through transformation, recapitalization and modernization, we seek 
a balanced force that delivers speed, agility, persistence, and 
dominance--characterized by disbursed and networked operations, 
comprehensive maritime domain awareness, cooperative engagement with 
Allies and partners, and lethal combat capabilities.
    Our Naval aviation capabilities are a vital part of this balanced 
force. Here, too, we must invest in the technology and platforms that 
will carry us into a future Joint environment of low observability, 
electronic attack, unmanned aerial vehicles, broad ocean surveillance 
and reconnaissance, complex command and control, and precision strike. 
We must outpace and overmatch the most capable technological 
competitors and overcome the most difficult and time-critical targeting 
challenges.
    Aircraft carrier-based strike capability is a concrete example of 
the Navy's ongoing transformation. During Operation Desert Storm it 
took, on average, more than one ``sortie'' or flight of strike aircraft 
to engage a single target. This trend was reversed during Operation 
IRAQI FREEDOM as technology and operations improved, allowing multiple 
targets to be engaged per single flight. For example, it took two 
divisions (eight aircraft) to attack and destroy a single bridge during 
Desert Storm, but two divisions of F/A-18C Hornets carrying GPS guided 
bombs attacked more than eight aim points with precision during 
Operation IRAQI FREEDOM.
    In 2020, our Carrier Air Wings with F/A-18E/F Super Hornets and F-
35C Joint Strike Fighters will attack targets at nearly twice the range 
currently possible. They will do this in the highest threat 
environments without the extensive tanker support required today, and 
they will destroy more targets with 24/7 persistence.
    As underscored by the response to the tsunami and hurricanes, we 
must also have a robust rotary wing capacity. This will be achieved 
primarily through recapitalization and modernization programs such as 
the CH-53X and the MH-60R/S. The flexibility and versatility of rotary 
winged aircraft have proven increasingly more valuable in support of 
the Global War on Terror, Anti-Submarine Warfare, humanitarian and 
disaster relief operations, Theater Security Cooperation programs, and 
logistics support. We must consider this in future acquisition 
planning.
    The Navy's challenge is to build an affordable fleet for the future 
with the capability and capacity to meet Joint demands for naval forces 
that range from Homeland Security and Humanitarian Assistance to Major 
Combat Operations.
Getting Underway: Programs in Support of Building the Future Force
    A balanced force of about 313 ships and about 3,800 aircraft meets 
the criteria we have established for the future. Within this force, 
eleven aircraft carriers and their associated air wings are sufficient 
to ensure our ability to provide coverage in any foreseeable 
contingency and do so with meaningful, persistent combat power. 
Although there is risk here, we believe the risk is both moderate and 
manageable.
    There is risk in other areas as well. Despite the fact the total 
SSN numbers drop below 48 between 2020 and 2034, our fast attack 
submarines will provide the Intelligence Surveillance and 
Reconnaissance (ISR) capability we need to support indications and 
warning of any impending threat throughout their areas of operations 
and will be sufficient to sustain minimum required deployed presence 
needed for major combat operations.
    Surface combatant capability is robust, but does not provide 
extended Theater Ballistic Missile Defense (TBMD) capacity--that just 
isn't affordable within the top line we have today. Navy is, however, 
expanding our currently limited short- and medium-range ballistic 
missile defense capabilities through the fielding of the Aegis BMD and 
SM-3 missiles. A future sea-based terminal (SBT) BMD capability will be 
addressed initially through upgrades to existing missile inventories 
and eventually through Navy Open Architecture initiatives in Aegis 
ships and CG(X).
    Our expeditionary capability provides the Joint Forcible Entry 
capacity necessary to support the sea base as a lodgment point for 
Joint operations but represents an acceptable decrease in Marine 
Expeditionary Brigade lift capacity. A myriad of tactical, surveillance 
and reconnaissance, heavy lift, and support aircraft, as well as a 
variety of support ships, provide the Navy with sufficient capacity in 
each mission area.
    To win the ``long war'' against terror we need a Navy that can be 
many places simultaneously. Engagement with allies and friends is the 
only effective way to deter this kind of aggression. We must operate 
with, and show commitment to, our friends around the world in order to 
ensure their assistance in active pursuit of terrorist organizations. 
In developing our capabilities and ship-count, we matched the demand 
signal to ship types and ensured we were not ``over-building'' our Navy 
based on this demand signal. Additional global reach is provided, in 
part, by our flexible Littoral Combat Ship (LCS) platform which 
leverages modular capability against cost. The planned build of fifty-
five FREEDOM Class LCS, augmented by the Navy Expeditionary Combat 
Command's riverine capabilities, will better serve our Combatant 
Commanders and complement the capability of our partners worldwide.
    Programs of particular interest include:
    CVN 77, CVN 21.--Navy plans to launch the aircraft carrier, USS 
GEORGE H.W. BUSH (CVN 77) in October 2006, and we expect it to enter 
the fleet in late 2008. Meanwhile, we continue to design the future 
aircraft carrier, CVN 21, which will serve as the replacement for USS 
ENTERPRISE and our NIMITZ Class aircraft carriers. CVN 21 balances 
significantly improved warfighting capability, quality of life 
improvements for our Sailors and reduced acquisition and life cycle 
costs. Highlights of these enhancements include: 25 percent increase in 
sortie generation rate, nearly three fold increase in electrical 
generating capacity, and increased operational availability. At the 
same time, CVN 21 will also achieve over $300 million reduction in 
procurement costs, $5 billion reduction in Life Cycle Costs, and up to 
1,000 billet reductions. These manpower reductions are expected in 
several key areas: Damage Control, Bridge/Navigation; Warfare System; 
Air Wing; Staffs; Supply chain Management; Weapons Handling; Pit Stop; 
and Automation.
    CVN 21 and the Carrier Strike Group will continue to provide 
forward presence, rapid response, endurance on station, and multi-
mission capability to serve our nation's needs for generations to come.
    DD(X).--DD(X), a multi-mission surface combatant tailored for land 
attack and littoral dominance, will provide independent forward 
presence and deterrence, and operate as an integral part of Joint and 
combined expeditionary forces. DD(X) will capitalize on reduced 
signatures and enhanced survivability to maintain persistent presence 
in the littoral. DD(X) program provides the baseline for spiral 
development to support future surface ships as part of Navy's ``Family 
of Ships'' strategy.
    With its Advanced Gun System (AGS) and associated Long Range Land 
Attack Projectile (LRLAP), DD(X) will provide volume and precision 
fires in support of Joint forces ashore. A GPS guided, 155 mm round, 
LRLAP will provide all- weather fires capability out to 83nm. The DD(X) 
Dual Band Radar represents a significant increase in air defense 
capability in the cluttered littoral environment. Investment in Open 
Architecture and reduced manning will provide the Navy life cycle cost 
savings and technology that can be retrofit to legacy ships.
    The Open Architecture environment in the DD(X) Total Ships 
Computing Environment will allow Navy to rapidly and cost effectively 
upgrade ships through software changes while avoiding costly hardware 
changes. This in turn will allow us to keep ships viable against 
emerging threats and avoid the high cost of supporting numerous 
baselines, a problem that we are paying for in the AEGIS program today.
    CG(X).--While DD(X) is a multi-mission destroyer tailored for land 
attack and littoral dominance, CG(X) will be focused on sea-based 
solutions to Theater Ballistic and Cruise missile gaps. CG(X) will 
provide airspace dominance and protection to all Joint forces operating 
with the Sea Base and will reach IOC in 2019. CG(X) will bring to sea 
significant warfighting capabilities.
    LCS.--Navy will commission the first Littoral Combat Ship, USS 
FREEDOM (LCS 1) in fiscal year 2007. The FREEDOM Class will be a fast, 
agile and networked surface combatant with capabilities optimized to 
assure naval and Joint force access to contested littoral regions. LCS 
operates with focused-mission packages that deploy manned and unmanned 
vehicles to execute a variety of missions, including littoral anti-
submarine warfare, anti-surface warfare and mine countermeasures. 
Innovations for the LCS include: Focused mission ship with 
interchangeable mission packages; reduced manning to reduce lifecycle 
cost; optimization for warfighting in the Littorals; inherent 
capabilities to increase utility in littorals beyond focused mission 
packages; extensive use of Unmanned Vehicles and off-board sensors for 
mission packages; Acquisition Strategy that provides two LCS variants 
designed to the same requirements; contracting for complete systems 
(less mission packages); and Seaframe and mission package acquisition 
strategies that provide for spiral design.
    LPD 17.--The lead ship of the class, USS SAN ANTONIO (LPD 17) was 
commissioned on January 14th, and will soon be joined by four other 
ships currently under construction. LPD 17 functionally replaces four 
classes of amphibious ships for embarking, transporting and landing 
elements of a Marine landing force in an assault by helicopters, 
landing craft, amphibious vehicles, and by a combination of these 
methods.
    LHA(R).--LHA(R) Flight 0 is a modified LHD 1 Class variant designed 
to accommodate aircraft in the future USMC Aviation Combat Element 
(ACE), including JSF/MV-22, and to provide adequate service life for 
future growth. LHA(R) will replace four aging LHA Class ships that 
reach their administrative extended service life between 2011-2019. 
This program maintains future power projection and the forward deployed 
combat capability of the Navy and Marine Corps. LHA(R) enables forward 
presence and power projection as an integral part of Joint, Inter-
Service and Multinational Maritime Expeditionary Forces.
    Modernization.--The Navy must ensure we achieve full service life 
from our fleet, something we have not done well in the past. 
Modernization of our existing force is a critical component of our 
ability to build the Navy of the future. Our platforms must remain 
tactically relevant and structurally sound for the entire duration of 
their expected service life.
    Naval Aviation modernization efforts continue with the F/A-18A/B/C/
D Hornet and the EA-6B Prowler as a bridge to a more capable air wing 
that will include the F-35 Joint Strike Fighter, the EA-18G Growler, 
and the F/A-18 E/F Super Hornet. Modernization also continues with the 
E-2D Advanced Hawkeye, the CH-53X, and the SH-60R/S.
    The surface force modernization program will help bridge the gap to 
DD(X) and CG(X) and mitigates the risk associated with transitioning 
from legacy combat systems to Open Architecture (OA) compliant 
commercial off the shelf (COTS) technologies. We expect modernization 
efforts on our AEGIS CGs and DDGs to enable these ships to realize an 
expected service life of 35 years. Historically, ships that were not 
modernized were decommissioned (on average) after 17-20 years of 
service due to obsolescence of sensors, C4I suites, and combat systems.
    Cruiser (Mod).--AEGIS Cruiser Modification improves war-fighting 
capability through enhanced self defense (CIWS Block 1B, Evolved Sea 
Sparrow Missile (ESSM)), expanded information sharing and collaborative 
engagement (Cooperative Engagement Capability--CEC), improved littoral 
ASW capability and significant land attack improvements (Tactical 
Tomahawk--TACTOM). A comprehensive Mission Life Extension (MLE) package 
includes the All Electric Modification, SmartShip, Hull Mechanical and 
Electrical system upgrades and a series of alterations designed to 
restore displacement and stability margins, correct hull and deck house 
cracking and improve quality of life and service onboard. This 
modernization will extend the service life of the AEGIS Cruisers to 
approximately 35 years.
    The SmartShip installation reduces enlisted crew manning on CGs by 
13 (297 vice 310). At its inception, the CG Mod Program was not 
established with a requirement for manning reductions; however, PEO 
SHIPS has commissioned a Total Ship Integration Team (TSIT) study in 
conjunction with DDG Mod efforts to determine additional areas for 
potential manning reductions in CG Mod. The TSIT works with the system 
program managers and NAVMAC to fully model CG Mod manning with respect 
to watchstanding, maintenance and fatigue analysis.
    Destroyer (Mod).--The DDG Modernization Program is likewise 
designed to reduce manning and total ownership costs while increasing 
warfighting capability. DDG modernization supports the transition to 
DD(X) and CG(X), and mitigates the risk associated with the transition 
from legacy combat systems to Open Architecture (OA) compliant, 
Commercial-off-the-Shelf (COTS) technologies. The intent is to provide 
a coherent strategy to keep each ship relevant and affordable through 
their entire 35-year hull life.
    VIRGINIA Class Fast Attack Nuclear Submarine (SSN).--Navy needs to 
maintain an SSN force structure sufficient to meet current operational 
requirements, the Global War on Terror, and any potential future threat 
from near peer competitors. The first 10 VIRGINIA Class (SSN 774) 
submarines are already under contract. Navy is pursuing a number of 
cost reduction initiatives intended to lower SSN 774 acquisition costs 
to $2 billion (in fiscal year 2005 dollars) at a stable build rate of 
two-per-year, currently planned for fiscal year 2012.
    The Navy intends to pursue design modifications to the VIRGINIA 
Class that will lower acquisition cost, while sustaining or improving 
warfighting capability. The Navy and our submarine shipbuilders are 
conducting a detailed study of design options that will dovetail with 
ongoing production and contracting initiatives and sustain the critical 
skills necessary for nuclear submarine design. A detailed report 
meeting the requirements of the National Defense Authorization Act 
statute and reflecting the outcome of the study will be available later 
this Spring.
    F-35 Joint Strike Fighter (JSF).--The JSF is an affordable multi-
mission strike fighter aircraft that incorporates matured and 
demonstrated 21st Century technology to meet the war fighting needs of 
the Navy, Marine Corps, Air Force and eight other countries. The JSF 
program pillars are range, lethality, survivability, supportability, 
and affordability. The United States, United Kingdom, Italy, 
Netherlands, Denmark, Turkey, Norway, Australia, and Canada comprise 
the JSF cooperative partnership. There are three JSF variants: 
Conventional Take Off and Landing (CTOL), Carrier Variant (CV), and 
Short Take Off and Landing (STOVL). Department of Navy procurement is 
expected to be 680 aircraft.
    The JSF aircraft carrier (CV) variant is projected to exceed its 
required 600NM combat radius, and the STOVL variant is projected to 
exceed its required 450NM combat radius.
    F/A-18E/F Super Hornet.--The Super Hornet is the Navy's next 
generation strike-fighter. The F/A-18E/F replaces the F-14, older model 
F/A-18, and S-3 carrier-based tankers. F/A-18E/F is five times more 
survivable than the F/A-18C. The Super Hornet provides a 40 percent 
increase in combat radius, a 50 percent increase in endurance, 25 
percent greater weapons payload, and three times more ordinance bring-
back than the F/A-18C. The F/A-18E/F will have the Active 
Electronically Scanned Array Radar System (AESA), Integrated Defensive 
Electronic Countermeasures System (IDECM), Joint Helmet Mounted Cueing 
System (JHMCS), Advanced Targeting FLIR (ATFLIR), Shared Reconnaissance 
Pod (SHARP), Multi-Function Information Distribution System (MIDS), and 
Advanced Crew Station (ACS). 246 Super Hornets have been delivered of a 
total procurement of 460.
    EA-18G Growler.--The EA-18G is a two-seat carrier-based replacement 
aircraft for the EA-6B Prowler electronic attack aircraft. The Growler 
is scheduled for initial operational capability (IOC) in 2009. The 
Growler shares a common airframe with the F/A-18F Super Hornet. A total 
inventory of 90 aircraft is planned for service in 11 squadrons. EA-18G 
upgrades include the destruction of enemy air defenses with Joint 
weapons, advanced RF receiver and jamming modes, integrated peer-to-
peer networking, integration with stand-in assets, and coordinated off-
board Electronic Support (ES).
    F/A-18A/B/C/D Hornet.--The F/A-18 Hornet is Naval Aviation's 
primary strike-fighter. The Hornet is the workhorse of Navy/Marine 
Corps tactical aircraft and is also flown by the armed forces of seven 
allied and friendly countries. Its reliability and precision weapons-
delivery capability highlight the Hornet's success. Improvements to the 
Hornet A/B/C/D variants provide state-of-the-art war fighting 
enhancements in precision strike, anti-air and C4I capabilities. The 
more than 680 Navy and Marine Corps Hornets will continue to comprise 
half of the carrier strike force until 2013, and the A/B/C/D Hornet 
variants are scheduled to remain in the Naval Aviation inventory 
through 2022.
    E-2D Advanced Hawkeye.--The E-2D Advanced Hawkeye (AHE) program 
will modernize the current fleet of aircraft carrier based airborne 
early warning E-2C aircraft. AHE will have a new radar and other 
aircraft system components that will improve nearly every facet of 
tactical air operations. The modernized weapons system will be designed 
to maintain open ocean capability while adding transformational 
littoral surveillance and Theater Air and Missile Defense capabilities 
against emerging air threats in the high clutter, electro-magnetic 
interference and jamming environment. The AHE will be one of the four 
pillars contributing to Naval Integrated Fire Control-Counter Air. The 
AHE program plans to build 75 new aircraft. The program is on track to 
meet the first flight milestone in fiscal year 2007.
    P-8A Multi-mission Maritime Aircraft (MMA).--The P-8A is the Navy's 
next generation MMA, replacing the P-3C. The P-8A missions will include 
broad area maritime and littoral surveillance, anti-submarine warfare, 
anti-surface warfare and ISR. The P-8A fulfills the Combatant 
Commander's requirements for major combat operations, forward presence 
and homeland defense. It will replace the P-3C on a less than one-for-
one basis, and trades 4,500 military billets for 900 contractor 
billets. IOC for the P-8A is fiscal year 2013.
    MV-22B Osprey.--The MV-22 Osprey is the Navy and Marine Corps' 
next-generation medium-lift assault support aircraft. It will replace 
the CH-46E and CH-53D. The Osprey will significantly improve the 
operational reach and capability of deployed forces: The MV-22 is twice 
as fast, has triple the payload, and six times the range of the 
airframes it will replace. The Navy and Marine Corps MV-22 requirement 
is 408 Osprey aircraft.
    MH-60R/S Multi-Mission Helicopter.--The MH-60R and MH-60S are the 
Navy's multi-role helicopters that incorporate advanced sensors and 
weapons systems to perform a multitude of missions that were previously 
performed by six different types of aircraft. The MH-60R Multi-Mission 
Helicopter will replace the SH-60B and SH-60F Seahawk helicopters 
entirely, and perform the anti-ship role of the fixed-wing S-3 Viking, 
which is currently being phased out of service. The MH-60R will perform 
anti-submarine, undersea, and surface warfare missions.
    The MH-60S is the Navy's primary Combat Support Helicopter designed 
to support the Carrier Strike Group and Expeditionary Strike Group in 
combat logistics, vertical replenishment, anti-surface warfare, 
airborne mine countermeasures, combat search and rescue, and naval 
special warfare mission areas.
    CH-53X.--The Ch-53X is the follow on to the Marine Corps CH-53E 
Heavy Lift Helicopter and will have double the lift capacity of the CH-
53E. The CH-53X will incorporate more powerful engines, an expanded 
gross weight airframe, composite rotor blades, an updated cockpit and 
cargo handling systems and will be more survivable. The CH-53X will 
serve the Navy's sea base and is an integral part of the Marine Corps 
2015 Ship-to-Objective Maneuver doctrine. IOC is planned for 2015.
    Broad Area Maritime Surveillance (BAMS) Unmanned Aircraft System 
(UAS).--BAMS UAS is an unmanned aircraft capable of carrying various 
mission payloads. BAMS UAS will incorporate radar, electro-optical, 
infrared, and electronic surveillance measures capabilities that will 
allow BAMS UAS to detect, classify, and identify targets using either 
active or passive methods. The BAMS UAS is also a key node in the 
Navy's FORCEnet C4I architecture. It will be capable of providing 
persistent worldwide maritime ISR capability, supporting maritime 
domain awareness, and providing information that enables commanders to 
achieve decision superiority.
    Global Hawk Maritime Demonstration (GMHD).--GHMD provides a high 
altitude, high endurance UAV capability seven years before the IOC of 
the BAMS UAS. Two Global Hawk UAVs are being procured on an Air Force 
production and modified with a radar and limited capability ESM suite 
that support ship detection. GHMD will be used to support testing of 
persistent maritime ISR technologies, and to help develop Concepts of 
Operation (CONOPS) and tactics, training, and procedures (TTP) for 
maritime UAVs.
    Joint Unmanned Combat Air System (JUCAS).--JUCAS is a Boeing 
industries project that will provide the Navy with a carrier-based UCAV 
capable of performing strike, suppression of enemy air defense (SEAD), 
and ISR missions in high threat environments against future air defense 
systems. JUCAS capabilities will help minimize the risk of loss or 
capture of friendly forces. JUCAS is anticipated to fulfill ISR 
missions by 2018, with follow-on strike and SEAD mission capabilities 
achieved by 2024. The Navy's primary initial objective is to complete 
aircraft carrier flight demonstration of a tailless UAV. Three land-
based vehicles are schedule for first flight in fiscal year 2007 and 
will demonstrate in-flight refueling capabilities and limited weapons 
and sensor integration. Two carrier suitable vehicles are scheduled for 
their first flights in fiscal year 2008. An aircraft carrier 
demonstration is scheduled for fiscal year 2011.
    MQ-8B Fire Scout Vertical Takeoff UAV (VTUAV).--The Navy VTUAV is 
designed to operate from all aircraft-capable ships. VTUAV will carry 
modular mission payloads and use the Tactical Control System (TCS) and 
Tactical Common Data Link (TCDL). VTUAV will provide day/night real 
time ISR and targeting, as well as C4I and battlefield management 
capabilities to support the Littoral Combat Ship (LCS) core mission 
areas of ASW, Mine Warfare (MIW), and anti-surface warfare (ASUW). Fire 
Scout is currently in Engineering and Manufacturing Development (EMD).
    Tactical Control System (TCS).--The Tactical Control System (TCS) 
provides a common interface for future tactical and medium altitude 
unmanned aerial sensors (UAS). TCS will enable different UAS to use a 
common system for mission planning, command and control, and C4I. TCS 
software will provide a full range of scaleable UAS capabilities, from 
passive receipt of air vehicle and payload data to full air vehicle and 
payload command and control from ground control stations both ashore 
and afloat. TCS gives the Littoral Combat Ship a UAV capability when 
fielded in conjunction with the Fire Scout VTUAV system. TCS will also 
be evaluated for use in future programs such as BAMS UAS, MMA, and 
DD(X).
    Pioneer Tactical Unmanned Aerial Sensor (UAS).--The Pioneer UAS 
System is a transportable ISR platform capable of providing tactical 
commanders with day and night, battlefield, and maritime ISR in support 
of Marine expeditionary warfare and maritime control operations. 
Currently eight air vehicles are deployed with Marine forces and have 
flown over 12,000 flight hours in support of Operation IRAQI FREEDOM. 
The Navy operates two air vehicles as test platforms for equipment and 
system upgrades, which will allow Pioneer sustainment until a follow-on 
system is fielded. The current USMC UAS plan calls for sustainment of 
the Pioneer UAS through at least fiscal year 2015, pending the fielding 
of a replacement system.

                    DEVELOPING 21ST CENTURY LEADERS

Taking a Fix
    The men and women of the United States Navy--active, reserve and 
civilian--are the lifeblood and heart of the Service. And today they 
are the best, most talented and capable team of professionals the 
nation has ever assembled. The Navy currently has an active force of 
357,474, of which 39,775 are now deployed. Our reserve community 
consists of 74,632 sailors, 4,281 of whom are now activated.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 3

    The Navy's ``Strategy for Our People'' provides overarching 
guidance for achieving a capabilities-based and competency-focused 
Total Navy workforce (active, reserve, civilian) in synch with Joint 
and Service-specific mission requirements. Capitalizing on the success 
of manpower and personnel reforms over the last several years, we will 
shape a more agile and operationally capable Navy. While we address our 
skill imbalances we will also focus and improve our efforts in the 
talent marketplace to achieve a more diverse workforce (see Figure 3). 
We will link and leverage SEA WARRIOR and National Security Personnel 
System (NSPS) processes to achieve an agile and robust Total Navy 
personnel architecture that rewards performance and can quickly respond 
to emerging competency demand signals.
    In fiscal year 2005 the Navy met 100 percent of its active enlisted 
accession goal, with 95 percent high school graduates and 70 percent in 
test score category I-IIIA. For reserve enlisted recruiting, Navy met 
85 percent of fiscal year 2005 accession goals, with shortfalls in 
ratings with insufficient numbers of Navy veterans (e.g. Seabees, 
Master at Arms). In officer programs, 84 percent of active component 
goals and 90 percent of reserve goals were attained in fiscal year 
2005. Shortfalls were mostly in Medical programs.
    Retaining the best and brightest Sailors has always been a Navy 
core objective and essential for our success. Navy retains the right 
people by offering rewarding opportunities for professional growth, 
development, and leadership directly tied to mission readiness. Navy 
has remained successful in filling enlisted operational billets around 
the world to sustain Fleet readiness objectives.
    Key to these successes has been Navy's aggressive program to 
enhance quality of service for our Total Navy (the combination of 
quality of work and quality of life). We continue to monitor the 
impacts of an improving economy and the War on Terror to ensure 
programs support Sailors and their families and contribute to making 
the Navy their career of choice. We remain focused on providing 
adequate pay, health care, housing, proper work environments, and 
career-long learning for our Sailors.
    But retention and the drive to attract and hold onto the best 
people, underscores the need to seek efficiencies in the force--
efficiencies that ultimately will translate into reduced end strength. 
By the end of fiscal year 2006, your Navy will have reduced its active 
end strength by almost 30,000 (7.7 percent of the active component) 
since 2003. Further reductions will result from efficiencies yet to be 
realized through technological advances that eliminate outdated, labor-
intensive jobs. As potential reductions in manpower are identified, the 
Navy will execute these reductions in a planned, controlled, and 
responsible manner that is consistent with the security interests of 
the country.
    Prior to considering Sailors for separation (and selective 
application of voluntary separation incentives), we employ a 
progressive approach to evaluate options for retaining Sailors by 
shifting personnel from overmanned to undermanned skills through 
retraining and conversion. This is accomplished through a variety of 
means, including the Perform to Serve, Lateral Conversion Bonus, 
transfer to fill valid reserve component requirements, or through 
inter-service transfer (e.g. Army's Blue-to-Green initiative).
    After exhausting all logical retention options, consideration is 
given to releasing Sailors whose service/skills are no longer required. 
Under no circumstances should we retain personnel in over-manned skills 
if it is not feasible and cost-effective to move them into undermanned 
skills. To do so would be poor stewardship of taxpayer dollars and 
would force Navy to endure gaps in undermanned skills to remain within 
authorized aggregate strength levels, thereby adversely impacting 
personnel readiness.
    In parallel with the Strategy for Our People, we are pursuing an 
Active-Reserve Integration (ARI) program that will support a more 
operational and flexible unit structure. The Navy Reserve is evolving 
into a flexible, adaptive, and responsive operational force needed to 
fight the asymmetric, non-traditional threats of our future. Active-
Reserve Integration has already enabled a Reserve Force that is ready, 
relevant, and fully integrated into our nation's defense both overseas 
and in the homeland. We recognize and value the diverse skills our 
Reservists possess, accrued in both military service and civilian life.
    Our vision for the future is to capture the skills of our 
outstanding citizen Sailors for life. In the ``Sailor for Life'' model, 
Reservists would seamlessly transition between reserve and active 
components, answering the nation's call to arms when needed. The 
Congress' continued support of financial incentives and bonuses will 
ensure the retention of these highly skilled Sailors.
    Navy Reserve Sailors have performed a pivotal role in the Global 
War on Terror. Mobilized Sailors provide a portion of this support--
4,281 Sailors are currently serving on involuntary mobilizations in 
such areas as Customs Inspection, Cargo Handlers, Navy Coastal Warfare, 
Naval Construction Battalions, Medical and Corpsmen, Helicopter Special 
Operations Forces Support and numerous others. But mobilization alone 
does not reflect the total contribution of the Navy's Reserve. On any 
given day, an additional 15,000 Reservists are providing operational 
support to the Fleet around the globe. During the past year, Reserve 
Sailors have provided over 15,000 man-years of support to the Fleet. 
This support is the equivalent of 18 Naval Construction Battalions or 
two Carrier Battle Groups.
    Finally, we must recognize another aspect of readiness that is 
equally as important as preparing and maintaining our ships and 
training and equipping our Sailors. ``Family readiness'' describes the 
support needed to ensure our Sailors and their families are as well 
prepared for operations as our ships and airframes. The Navy is working 
hard to implement the right support mechanisms, Ombudsman training, 
Family Advocacy programs, Spouse Education and Employment programs, 
mentorship, and family counseling. We can do little without the support 
of our families, and it is up to us to ensure they are well taken care 
of and ready and eager to support.
Plotting the Course: Where we're heading in Developing 21st Century 
        Leaders
    To better serve the men and women who are the United States Navy, 
and in turn, enable them to be as effective as possible in a 
challenging new global era, we must: improve diversity; encourage and 
reward continuing education and training that stresses critical 
thinking; institutionalize executive development; assign our best and 
brightest to critical Joint, interagency, and foreign exchange tours; 
increase access to foreign language and cultural awareness training; 
respond rapidly to significant changes in leading indicators for 
recruiting and retention; and, better recognize the important role 
families play in our readiness and quality of life. It is this 
commitment to our own that will best demonstrate our resolve and 
determination in a new era.
    New opportunities and security challenges require new skill sets. 
Brainpower is as important as firepower. Our Sailors must be empowered 
to operate and fight in a vast array of environments that range from 
failing states and ungoverned spaces to the most technologically 
advanced nations, virtual worlds and cyberspace. They will form the 
foundation of an expeditionary force when and where required. They will 
be expected to understand and foster cooperation in cultures far 
different from our own. They will be ambassadors, educators, health 
care providers, mentors, and friends to a diverse cross-section of the 
global community. They must be equipped with the tools and skills to 
meet these challenges, to excel as professionals, and to develop as 
individuals.
    We are increasingly leveraging technology to improve our 
warfighting advantage and to broaden the skill sets required to meet 
the multi-cultural, asymmetric challenges of this century. Advances in 
ships and system design allow us to shed some obsolete, labor-intensive 
functions while improving productivity and war fighting readiness. 
Economies are gained by eliminating redundant and non-essential skill 
sets. The optimal end-strength for our active and reserve components 
must reflect the economies derived from transforming the force to meet 
the challenges we face in this new century.
    The concept of Total Navy encompasses those serving the Department 
of the Navy in uniform and in a civilian capacity, active and reserve 
component alike. NSPS is a new personnel system that will create civil 
service rules for the 750,000 civilian workers in the Department of 
Defense. It strengthens our ability to accomplish the mission in an 
ever-changing national security environment. NSPS accelerates 
Department of Defense efforts to create a Total Force (military 
personnel, civilian personnel, Reserve, Guard, and contractors), 
operating as one cohesive unit, with each performing the work most 
suitable to their skills. The Navy's ``Strategy for our People'' needs 
a manpower and personnel system that appropriately recognizes and 
rewards our civilian employees' performance and the contributions they 
make to the Department of Defense mission. NSPS gives us better tools 
to attract and retain good employees.
    Throughout Total Navy, diversity is a fundamental building block 
upon which the Strategy for our People stands. The Navy's diversity 
objectives are aimed at improving our access to the full range of the 
nation's talent and improving our ability to harvest and represent the 
full strength of the nation. The ``Strategy for Our People'' views 
Total Navy as a team, whose people are treated with dignity and 
respect, are encouraged to lead, and feel empowered to reach their full 
potential. Total Navy diversity represents all the different 
characteristics and attributes of individual Sailors and civilians, 
which enhance our mission readiness.
    Training, education, mentoring, and leadership programs are aimed 
at increasing awareness of diversity and creating a culture that 
promotes growth and development opportunities for every member of the 
Navy. These programs are currently funded through Training and 
Education commands. Specific diversity-focused training for leadership 
is a newly funded initiative that seeks to create awareness and 
communication skill competencies for all levels of leadership and embed 
diversity values into the force.
    The Navy is a full partner and supporter of the Department's 
Training Transformation Program. We are better preparing units and 
staffs for joint operations through the Joint National Training 
Capability, and individuals for joint assignment through the Joint 
Knowledge Development and Distribution Capability.
    The cornerstone of Navy's ``Strategy for Our People'' is the SEA 
WARRIOR program. SEA WARRIOR comprises the Navy's training, education, 
and career-management systems that provide for the growth and 
development of our people. It provides them with greater individual 
career management and enables them to take a more active role in 
furthering their careers through education and training opportunities. 
SEA WARRIOR will include an automated, web-enabled system and processes 
which will increase overall mission effectiveness by efficiently 
developing and delivering an optimally matched, trained, educated, and 
motivated workforce.
Getting Underway: Programs and Practices in Support of Developing 21st 
        Century Leaders
    The Navy's ``Strategy for our People'' provides the guidance and 
tools to assess, train, distribute, and develop our manpower to become 
a mission-focused force that truly meets the warfighting requirements 
of the Navy. At the same time, we must improve the work-life balance 
and quality of service so our Sailors and civilians will enjoy 
meaningful job content, realize their important contributions, and have 
expanded opportunity for professional and personal growth. We will 
deliver all the above, while tackling head-on the pernicious challenges 
of sexual harassment, sexual assault, and substance abuse, and offering 
an environment that values and rewards diversity.
Programs and practices of particular interest include:
    Diversity.--The Navy diversity strategy is aimed at creating and 
maintaining our Navy as a team, whose people are treated with dignity 
and respect, are encouraged to lead and feel empowered to reach their 
full potential. Specific initiatives are aligned under the four focus 
areas of recruiting, growth and development, organizational alignment, 
and communications. Navy has increased advertising and marketing funds 
specifically targeted at diversity recruiting for the past five years. 
We have also chartered outreach programs aimed at minority and female 
engineering and technical organizations.
    Transforming training, education, mentoring, and leadership 
programs are aimed at increasing awareness of diversity and creating a 
culture that provides growth and development opportunities for every 
member of the U.S. Navy. The Navy is currently developing a Concept of 
Operations (CONOPS) for an aggressive program to increase the diversity 
of our Service.
    Some Examples of progress to date include:
  --Recruiting.--Coordination of national public awareness and 
        recruiting events. Increased diversity event sponsorship. More 
        visibility into ROTC application, recruiting, and board 
        processes.
  --Developing.--Diversity awareness and communication training has 
        been built into all levels of leadership development courses; 
        Navy-wide Equal Opportunity Advisor (EOA)/Diversity symposium 
        will become an annual event.
  --Alignment/Oversight.--Diversity Senior Advisory Group and Fleet 
        Diversity Councils will coordinate best practices with various 
        Navy Enterprises.
    Enlisted Retention (Selective Reenlistment Bonus).--Selective 
Reenlistment Bonus (SRB) continues to be our most effective retention 
and force-shaping tool, enabling us to retain the right number of high 
quality Sailors with the right skills and experience. More importantly, 
it affords Navy the ability to compete in a domestic labor market that 
increasingly demands more skilled, technically proficient, and 
adaptable personnel.
    The Navy is continuing to transform our workforce by recruiting 
fewer generalists and becoming a predominantly technical and more 
experienced force. To retain the critical skills we need, our SRB 
strategy has shifted from targeting general skill sets with less than 
ten years of service, to focusing on the specialized skills of Sailors 
across the career continuum (up through 14 years of service). Navy has 
applied increasing analytical rigor in predicting and monitoring 
reenlistment requirements. By monitoring actual reenlistment behavior 
down to the individual skill level, Navy personnel managers review 
clear and unambiguous data to ensure precious SRB dollars are applied 
only when and where needed, based on requirements and outcome.
    We are grateful to Congress for increasing the SRB cap from $60,000 
to $90,000 and will ensure the higher award cap is judiciously applied. 
A portion of this increased SRB may be used to reverse declining 
retention among our most skilled personnel in the Nuclear Propulsion 
specialties. Fiscal year 2005 culminated in achieving only half of our 
zone B nuclear rating reenlistment goal and left several nuclear 
specialties at less than 90 percent of required manning. Applying an 
increased SRB level to retain these highly trained, highly skilled, and 
highly sought after personnel makes sense, both financially and from a 
force readiness perspective. The Navy saves over $100,000 in training 
costs and 10 to 14 years of irreplaceable nuclear propulsion plant 
experience for each individual SRB enables us to reenlist. The 
additional flexibility provided by the SRB cap increase will allow Navy 
to incentivize experienced nuclear-trained personnel and to address 
other skill sets as retention trends emerge.
    Having a flexible and adequately resourced SRB program will help us 
continue to sustain high readiness with a top quality work force.
    Officer Retention.--Creating an environment conducive to 
professional growth that provides an attractive quality of service, 
including education, adequate pay, health care, and housing, will aid 
retention efforts. However, continued focus on increasing unrestricted 
line (URL) officer retention across all warfighting disciplines is 
required. Officer retention shows positive trends despite shortfalls in 
the ranks of Lieutenant Commander to Captain in the surface and 
submarine unrestricted line communities.
    National Security Personnel System (NSPS).--NSPS strengthens our 
ability to accomplish the mission in an ever-changing national security 
environment. NSPS accelerates the Department's efforts to create a 
Total Force (military personnel, civilian personnel, Reserve, Guard and 
contractors), operating as one cohesive unit, with each performing the 
work most suitable to their skills.
    Civilian Career Management.--The Navy supports efforts to develop a 
career management system for civilian employees. Our approach includes 
documenting and validating competencies for use in career planning and 
development. The validated competencies will be made available to the 
workforce as career roadmaps through both 5 Vector Models (Navy) and 
the Civilian Workforce Development Application (CWDA) (USMC). Also in 
process is the development of guidance directed toward supervisors and 
employees indicating how to use competency data to assist with the 
performance management process including career planning and 
development.
    Health Care.--A vital part of Navy and family readiness hinges on 
our commitment to provide top quality health care for our active and 
retired personnel and their dependants. Navy Medicine transformation 
initiatives link authority and accountability to facilitate 
performance-based management that maximizes efficiencies while 
maintaining quality. Increases in the cost of providing health services 
in Navy Medical Treatment Facilities (MTFs), for example, have been 
kept below the healthcare rate of inflation and that trend is expected 
to hold true in the out-years. As a priority, the Navy is also 
carefully monitoring the support offered to service members who were 
injured during OEF/OIF service, ensuring a seamless transition to the 
services available through the Veteran's Administration (VA).
    The Department of Defense and Congress have established TRICARE as 
the ``gold standard'' health care benefit. Health care costs have 
increased dramatically in recent years and are expected to grow at 
rates that exceed standard indices of inflation \1\. Far from being 
immune to these costs, the DOD must include this reality in the 
budgetary calculus of providing for the nation's security. DOD TRICARE 
costs have more than doubled in five years from $19 billion in fiscal 
year 2001 to $38 billion in fiscal year 2006, and analysts project 
these costs could reach $64 billion by 2015--more than 12 percent of 
DOD's anticipated budget (versus 8 percent today). On the other hand, 
TRICARE Premiums have not changed with inflation since the program 
began in 1995, so that total beneficiary cost shares have declined 
substantially--27 percent of total benefit cost in 1995 while 12 
percent in 2005.
---------------------------------------------------------------------------
    \1\ Total national health expenditures increased by 7.7 percent in 
2003 (over 2002), four times the rate of inflation in 2003. Smith, C.C. 
Cowan, A Sensenig and A. Catlin, ``Health Spending: Growth Slows in 
2003,'' Health Affairs 24:1 (2005): 185-194.
---------------------------------------------------------------------------
    When TRICARE for Life was developed for the 2001 National Defense 
Authorization Act, we could not have anticipated the growing number of 
retirees and their dependents, not yet Medicare eligible, who have 
chosen or have been driven to switch from private/commercial health 
care plans to TRICARE in order to better cope with rising health care 
costs. Indeed, the Services are increasingly picking up the tab for 
businesses, local and state governments unwilling or unable to provide 
adequate health care benefits to their retired Veteran employees.
    The Navy will continue to meet our security commitments to the 
American people while fully supporting the health care needs of our 
active and reserve members and their families and keeping the faith 
with those who stood the watch before us. This can be accomplished by 
working cooperatively with Congress to implement carefully crafted 
initiatives and administrative actions that will restore appropriate 
cost sharing relationships between beneficiaries and the Department of 
Defense.
    Family Advocacy.--Navy Family Advocacy Program (FAP) has led the 
way among the Services and the Department of Defense in domestic abuse 
policy and process by: providing victim advocacy at some Navy 
installations since the mid-1990s, and by (since 1997) responding to 
allegations of domestic abuse between unmarried intimate partners, 
providing a formal diversion process for low-risk cases, and providing 
limited discretionary reporting when a victim of domestic abuse seeks 
counseling voluntarily. Navy commands remain active partners in 
stopping family violence and responding to domestic abuse.
    Sexual Assault.--Navy now provides 24/7 response capability for 
sexual assaults on the installation and during deployment by activating 
watchbills for victim advocates and notifying the installation Sexual 
Assault Response Coordinators (SARC). Victims of restricted cases of 
sexual assault are offered advocacy, medical and counseling services 
without triggering an investigation through law enforcement or the 
command.
    Active-Reserve Integration.--Active Reserve Integration (ARI) 
aligns Reserve Component (RC) and Active Component (AC) personnel, 
training, equipment, and policy to provide a more effective and 
efficient Total Navy capable of meeting dynamic National Defense 
requirements.
    The Navy is currently aligning RC and AC units to better meet 
Operation IRAQI FREEDOM and Operation ENDURING FREEDOM requirements and 
the Navy's vision for our future force structure: RC Helicopter-Combat 
Support (HCS) missions will be integrated into AC Helicopter missions; 
RC and AC Explosive Ordnance Disposal (EOD) Units are being integrated 
and two RC Navy Coastal Warfare Units (NCW) are being converted to the 
AC. The Navy is also studying the role of the RC in future Navy mission 
areas of Riverine Warfare and Civil Affairs. In support of Operations 
Iraqi Freedom and Enduring Freedom, AC and RC Sailors are working 
together to fill billets in Civil Affairs, Detainee Operations, 
Intelligence, and Reconstruction Team efforts.
    The Navy Reserve has evolved from a strategic force of the Cold War 
to the flexible, adaptive and responsive operational force required to 
fight the asymmetric, irregular wars of the future. Change of this 
magnitude is not easy and challenges the senior leadership of both the 
AC and the RC. Support of the Congress is critical as we implement 
initiatives that will enable the effective and efficient use of both 
manpower and equipment, providing resources needed to recapitalize the 
Navy of the future. The total number of Navy Reservists, both Selected 
Reserves (SELRES) and Full Time Support (FTS), will be 73,100 at the 
end of fiscal year 2006.
    SEA WARRIOR.--SEA WARRIOR comprises the training, education, and 
career-management systems that provide for the growth and development 
of our people and enhance their contribution to our Joint warfighting 
ability. SEA WARRIOR leverages technology to provide Sailors the choice 
and opportunity for professional development and personal growth 
through Navy Knowledge Online (NKO), the Job Career Management System 
(JCMS), and the maturing of the 5 Vector Model--5VM (professional 
development, personal development, leadership, performance, 
certification and qualification). SEA WARRIOR will also provide 
commanders with a better manpower fit, matching the Sailor with exactly 
the right skills and training to the billet.
    Task Force Navy Family.--Task Force Navy Family (TFNF) was 
established to help our people who were affected by hurricanes Katrina, 
Rita, or Wilma. In all, the lives of more than 88,000 Navy personnel, 
retirees, and immediate family members were severely disrupted. TFNF 
leveraged existing agencies and local Community Support Centers to 
ensure that each Navy Family was contacted personally and, if desired, 
assigned an individual ``Family Case Manager.'' TFNF has resolved 
15,300 unique issues (76 percent of those reported). Housing and 
financial problems were, and remain, the most difficult to resolve, 
with over 1,000 severe issues yet to be resolved.
    TFNF has now completed its original task and has transitioned 
outstanding issues to Commander, Naval Installations Command and others 
for final resolution. In the process of serving our Navy family, TFNF 
has helped develop tools and structures that can be rapidly deployed in 
the event of future catastrophic events and render aid more efficiently 
and quickly.
    Key lessons learned by TFNF focused on communications, information 
sharing, and taking care of those affected by the devastation. These 
lessons learned, including the need for a more effective method of 
accounting for the whereabouts of ashore personnel and their families 
during crises, have been tasked to the appropriate organizations within 
the Navy for follow up and development of action plans.
    Foreign Area Officer Program.--Recognizing the need to build 
partner capacity, the QDR calls for the Navy to reinvigorate the 
Foreign Area Officer program. Navy has begun establishing a separate 
Restricted Line community of 300-400 officers that will compete 
discretely for statutory promotion through Flag rank. Navy's Foreign 
Area Officers (FAOs) will form a professional cadre with regional 
expertise and language skills who will provide support to Fleet, 
Component Commander, Combatant Commander and Joint Staffs. Their 
immediate mission will be to rapidly improve the Navy's ability to 
conduct Theater Security Cooperation (TSC), improve partner capacity in 
GWOT, and generate Maritime Domain Awareness while improving Navy's 
readiness and effectiveness in the conduct of conventional campaigns 
against increasingly sophisticated regional adversaries. The first FAO 
selection board was held December 14-15, 2005. 42 personnel were 
selected for lateral transfer and four of these officers already meet 
regional/cultural expertise and language skill requirements. They will 
be detailed to existing FAO billets in fiscal year 2006.
    Joint Professional Military Education (JPME).--As ongoing 
operations in Iraq, Afghanistan, and the Global War on Terror (GWOT) 
vividly illustrate, Navy must continue to adapt to growing Joint 
warfighting and interagency planning demands. Meeting such requirements 
will prepare our nation to defeat extremist groups and state 
adversaries who will challenge us in ways far different than in the 
past. We continue to develop a continuum of professional education and 
training to enhance the ability of Navy leaders to provide unique and 
complementary warfighting skills. Leaders who demonstrate the highest 
potential for service will be rewarded with in-residence Joint 
Professional Military Education (JPME), to prepare them to excel in 
naval, Joint, multi-national and interagency billets around the world. 
Non-resident courses are often facilitated through Advanced Distributed 
Learning. Navy personnel are also enrolled in Joint Knowledge 
Development and Distribution Capability courses to better prepare them 
for joint assignments.
    Navy Education.--Education is a key enabler in developing the 
competencies, professional knowledge and critical thinking skills to 
deliver adaptable, innovative combat-ready naval forces. The Navy will 
develop a continuum of capabilities-based and competency-focused life-
long learning to keep naval forces on the cutting edge for mission 
accomplishment as well as to provide for the professional and personal 
growth of our people. Navy education must be tied to requirements and 
capabilities. Central to our efforts are the Naval Reserve Officers 
Training Corps (NROTC), the Naval Academy, Naval Postgraduate School, 
and the Naval War College.
    The Naval Reserve Officers Training Corps (NROTC) Program comprises 
59 NROTC units at 71 host institutions of higher learning across the 
nation. In addition, Departments of Naval Science are located at the 
United States Merchant Marine Academy and 6 selected state maritime 
institutions, two of which also host NROTC units. NROTC is the key 
source of nuclear power candidates, nurses and increased officer corps 
diversity. NROTC is designed to educate and train qualified young men 
and women for service as commissioned officers in the Navy or Marine 
Corps. NROTC prepares mature young men and women morally, mentally, and 
physically for leadership and management positions in an increasingly 
technical military. In addition, participation in the naval science 
program instills in students the highest ideals of duty, honor and 
loyalty.
    The Naval Academy gives young men and women the up-to-date academic 
and professional training needed to be effective naval and marine 
officers in their assignments after graduation. Renowned for producing 
officers with solid technical and analytical foundations, the Naval 
Academy is expanding its capabilities in strategic languages and 
regional studies.
    The Naval Postgraduate School (NPS) is our cornerstone of graduate 
education providing relevant, defense-focused degree and non-degree 
programs in residence and at a distance. We are expanding resident 
opportunities at NPS where the distinctly Joint and international 
environment contributes to the resident academic experience by 
mirroring the nature of today's operating forces. Included in this 
expansion is the support of regional expertise development within our 
Foreign Area Officer program. We are also increasing access to NPS 
graduate education through a variety of non-resident, distance learning 
opportunities.
    NPS may be one of our best tools to ensure the alignment of 
advanced operational concepts and technologies among the Department of 
Defense, Homeland Security, Inter-agency, and international military 
partnerships. NPS provides specialized programs that support U.S. 
national security priorities and the Combatant Commanders, including 
counter-terrorism, homeland security, and security cooperation. Masters 
Degree programs and seminars have been developed on Homeland Defense 
and Security, as well as Counter-drug Strategy and Policy, for the 
Department of Homeland Security. NPS teaches a classified graduate 
education program for the National Security Agency, is a University of 
choice for the National Reconnaissance Office, and NASA sponsors the 
annual Michael J. Smith NASA Chair at NPS with focused areas of space 
research, education and training for future astronaut candidates. 
Additionally, NPS receives sizeable annual funding from the National 
Science Foundation for basic research in oceanography, meteorology, 
information sciences, engineering, and technology development, often 
partnering with other universities on interdisciplinary research 
projects.
    The Naval War College is the centerpiece of Navy Professional 
Military Education and maritime-focused Joint Professional Military 
Education that develop strategically minded critical thinkers and 
leaders who are skilled in naval and Joint warfare. The Naval War 
College is restructuring its programs to improve comprehensive 
development of operational warfighting competencies, and key cross-
functional and special competencies, including regional studies. We are 
increasing both War College resident and distance learning 
opportunities. Completion of non-resident courses and programs is 
facilitated through Advanced Distributed Learning.

                               CONCLUSION

    The Navy cannot meet the threats of tomorrow by simply maintaining 
today's readiness and capabilities. Our adversaries will not rest, our 
global neighbors will not wait. Neither will we. Building upon Sea 
Power 21, we must continue to transform and recapitalize for the future 
without jeopardizing our current readiness and the strides we have 
made--and continue to make--in personnel and manpower management. With 
our partners in industry, the acquisition community, OSD, and the 
interagency, and with the continuing support of the Congress, the Navy 
will build a force that is properly sized, balanced--and priced for 
tomorrow.
    We will build for our nation and its citizens the right Navy for a 
new era. American Sea Power in the 21st Century is the projection of 
power, and more: it extends beyond the sea; it is Joint and 
interagency; it requires awareness and understanding; it enables access 
and cooperation; it provides for presence and interaction; it is driven 
by compassion and collective security; and, it is decisive and lethal.
    Your Navy would not have remained, for 230 years, the world's 
premier maritime force without the constant support of the Congress and 
the people of the United States of America. I would therefore like to 
thank you once again, on behalf of the dedicated men and women who 
daily go in harm's way for our great nation, for all that you do to 
make the United States Navy a force for good today and for the future.
                                 ______
                                 
            Biographical Sketch of Admiral Michael G. Mullen

    A native of Los Angeles, Calif., Admiral Mullen graduated from the 
U.S. Naval Academy in 1968. He has served in Allied, Joint and Navy 
positions, overseas and in both the Atlantic and Pacific Fleets.
    As a junior officer, he served in various leadership positions 
aboard USS Collett (DD 730), USS Blandy (DD 943), USS Fox (CG 33) and 
USS Sterett (CG 31). Adm. Mullen commanded three ships: USS Noxubee 
(AOG 56), USS Goldsborough (DDG 20), and USS Yorktown (CG 48). As a 
Flag Officer, he commanded Cruiser-Destroyer Group Two and the George 
Washington Battle Group. Adm. Mullen's last command at sea was as 
Commander, U.S. Second Fleet/Commander, NATO Striking Fleet Atlantic.
    Ashore, Adm. Mullen served as Company Officer and Executive 
Assistant to the Commandant of Midshipmen at the U.S. Naval Academy. He 
also served in the Bureau of Naval Personnel as Director, Surface 
Officer Distribution and in the Office of the Secretary of Defense on 
the staff of the Director, Operational Test and Evaluation. On the 
Chief of Naval Operations' staff, Adm. Mullen served as Deputy Director 
and Director of Surface Warfare; Deputy Chief of Naval Operations for 
Resources, Requirements, and Assessments (N8); and as the 32nd Vice 
Chief of Naval Operations.
    Adm. Mullen graduated from the Naval Postgraduate School in 
Monterey, Calif., with a Master of Science degree in Operations 
Research. He is also a graduate of the Advanced Management Program at 
the Harvard Business School.
    Adm. Mullen's most recent operational assignment was Commander, 
Joint Force Command Naples/Commander, U.S. Naval Forces Europe. Based 
in Naples, Italy, he had operational responsibility for NATO missions 
in the Balkans, Iraq, and the Mediterranean as well as providing 
overall command, operational control, and coordination of U.S. naval 
forces in the European Command area of responsibility.
    Admiral Mullen became the 28th Chief of Naval Operations on July 
22, 2005.

    Senator Stevens. Thank you very much, Admiral. General 
Hagee, do you have a statement, sir?
    General Hagee. Sir, I do. Mr. Chairman, Senator Inouye, 
Chairman Cochran, others members of this distinguished 
subcommittee, good morning.
    Senator Inouye, like the Secretary of the Navy and the 
Chief of Naval Operations, on behalf of all marines I would 
like to extend our most heartfelt condolences and sympathies on 
the loss of your wife Maggie, and assure you that our thoughts 
and prayers are with you during this time.
    It's my privilege to be here with my shipmate and good 
friend, the CNO, Admiral Mike Mullen. As he mentioned, we've 
known each other for some time, since 1964, and we actually 
like each other--since 1964, and it does in fact make a 
difference.
    And I'm also happy to be here with our new Secretary of the 
Navy, to report on the state of your Marine Corps.
    Sixty-one years ago today, there was a slight pause in the 
battle for Iwo Jima. The flag raising on Mount Suribachi had 
occurred just a few days earlier, but had seemed a distant 
memory to the marines on the island. As Lieutenant General 
Howlin Mad Smith and the leadership of the 5th Amphibious Corps 
peered down from the Motoyama Plateau, they contemplated the 
scope of hardships they would endure in securing the remaining 
northern third of that island from a determined and lethal foe.
    Today we pause to report on the state of the Department of 
the Navy in our preparedness for the unknown battles which 
await us in this long war against yet, another determined and 
lethal foe.
    Marines executing this war today know they're well 
equipped, well trained, well led, and have the backing of the 
American people and their Congress. They and their families 
also know they are doing something important and they are 
making a difference.
    On behalf of all marines and our families, I would like to 
thank you for your strong and unwavering support.
    I would also like to extend my personal appreciation for 
the time you take to visit our wounded and console the families 
of our fallen warriors.
    Now in the fifth year of this conflict, the future remains 
uncertain. However, history teaches us that uncertainty is best 
met with flexibility and adaptability--two principles which 
have long characterized your Marine Corps.
    My written statement lays out some of the actions we've 
taken in training, education, and organization to increase our 
flexibility and adaptability in the fight against this ruthless 
and determined enemy.
    We have embraced culture and language as combat 
multipliers, we are institutionalizing this effort through our 
Center for Advanced Operational Cultural Learning. This center 
will help develop regional expertise in our career marines.
    Additionally, we have revamped our pre-deployment training 
at Twentynine Palms, Ridgeport, California and Yuma, Arizona to 
better prepare our units for the nontraditional environment.
    Finally on February 24, we activated the Marine Corps 
Forces Special Operations Command (SOCOM), which will add about 
2,600 marines to SOCOM, increasing its capacity and capability. 
With over one-third of our operating forces deployed, we retain 
the ability to rapidly respond to additional contingencies as 
they rise.
    This Nation invests tremendous capital in its naval forces 
and this past year, these forces responded across the spectrum 
of conflict, from Iraq to tsunami relief in the Indian Ocean, 
to earthquake relief in Pakistan, to aid for fellow Americans 
across Louisiana and Mississippi, and finally, in a mudslide 
engulfed a village in the Philippines. Maritime forces have 
demonstrated their readiness, relevance, and responsiveness as 
part of the joint force.
    In terms of recruiting and retention, this past year has 
been challenging, but successful. Thanks to the dedication of 
your marines and your continued support of our recruit 
advertising and re-enlistment bonuses we continue to make 
mission. Further, the quality of marines we recruit and retain 
remains high.
    We continue to modify our equipment, training, and tactics 
to the adaptive enemy of today and to be ready to face the 
warfighting challenges of the future.
    However, as I mentioned in previous testimony, the current 
operational tempo and environment are significantly degrading 
the service life of our equipment. We estimate the total cost 
to reset our force is about $11.7 billion. This amount is in 
addition to the annual cost of war needs, which we estimate to 
be approximately $5.3 billion in fiscal year 2006.
    We ask for your support of the supplemental request to 
reset our capabilities and ensure we remain prepared for the 
unforeseen challenges of tomorrow.
    However in the final analysis, it is not the equipment but 
our people who make the difference. Be they Active Reserve or 
civilian, your marines and their families are making the 
greatest sacrifices. I know that you share the conviction that 
we cannot do enough for these young Americans who so willingly 
go forward for the sake of our country.

                           PREPARED STATEMENT

    I firmly believe that the most dangerous weapons system on 
any battlefield is a well armed, well educated U.S. marine and 
with your continued support, this will not change.
    I look forward to answering your questions.
    [The statement follows:]

             Prepared Statement of General Michael W. Hagee

    Chairman Stevens, Senator Inouye, distinguished members of the 
Subcommittee, it is my honor to report to you on the state of your 
Marine Corps. Now entering the fifth year of what is a long war, your 
Marine Corps is wholly fixed on this challenge to the Nation. This 
conflict requires the uniformed services to provide a broader range of 
capabilities supporting extended global operations, ultimately 
delivering greater agility, adaptability, and duration of sustainment. 
While our armed forces continue to predominate in traditional warfare, 
our current enemy necessitates the adoption of unconventional and 
indirect approaches throughout the Joint Force.
    History reveals a pattern of Marines aggressively adapting to 
circumstances, and we consider ourselves in the vanguard of instituting 
the changes required to address the present challenge. The over 30,000 
Marines serving on the forward fronts in the Central Command Area of 
Operations today are a manifestation of transformational advances in 
manning, training, educating, and equipping to confront this latest 
threat to our way of life. From force structure revision, to urban 
training facilities, to cultural and language instruction, to 
leveraging emerging technologies, our efforts recognize the new 
character of conflict, and we are delivering both Marines and Marine 
units that thrive in the uncertainty which will likely define warfare 
throughout the coming decades.
    This war, like any other, is costly, and the essence of this 
statement outlines the challenges we share in sustaining the caliber of 
service the Nation has come to expect from its Corps of Marines. 
Readiness is the enduring hallmark of your Marine Corps, and if this 
war ended today, we would require continued supplemental budgetary 
support in order to ``reset the force.'' We also remain committed to 
providing for your Marines and their families in a manner befitting 
their dedication and selfless sacrifice.
    Marines are grateful for the unwavering support of Congress, 
welcome the opportunity to report on the present state of the Corps, 
and consider service to the Nation during this demanding period a 
distinct privilege.

                              INTRODUCTION

     Today, Marines are forward deployed in prosecution of the Global 
War on Terror, as they have been since that fateful day in September 
2001. The performance of Marines on the field of battle during these 
last four years has validated our commitment to warfighting excellence 
and to remaining the world's foremost expeditionary warfighting 
organization.
    Our bedrock is our warrior ethos and the philosophy that every 
Marine is first a rifleman. We recruit quality Americans whom we then 
infuse into a culture that requires individuals to think independently 
and act aggressively in chaotic and unpredictable environments where 
information is neither complete nor certain. We rigorously train these 
young Marines to perform under adverse circumstances, and to accept 
greater responsibility as part of a team. We educate these Marines and 
their leaders to prepare their minds for the intellectual component of 
the clash of wills and chaos inherent to combat. These past four years 
have further validated our forward deployed posture, our maneuver 
warfare doctrine, our adaptive logistics backbone, and the unique 
flexibility and scalability of the combined-arms Marine Air-Ground Task 
Force construct. Time and again, we have delivered to the Combatant 
Commander a solution tailored to their joint force requirements.
    In an uncertain world, readiness is the coin of the realm. In 
November 2001, at the direction of the Combatant Commander, we 
projected the combat power of two Marine Expeditionary Units some 350 
miles into the heart of Afghanistan during Operation ENDURING FREEDOM. 
Less than 18 months later, we deployed 70,000 Marines and Sailors in 
less than 60 days in support of Operation IRAQI FREEDOM. As part of the 
Joint Force, our 500-mile push from Kuwait, through Baghdad, and up to 
Saddam's hometown of Tikrit more than doubled our doctrinal expectation 
for force projection.
    After a short respite at home, we again demonstrated the readiness 
and responsiveness to the Joint Force Commander by deploying 25,000 
Marines back to Iraq in March 2004. We are now entering our third year 
in the Al Anbar province and the servicemen and women of the Multi-
National-Force-West have acquitted themselves in such locales as 
Fallujah, Ramadi, and throughout the Euphrates River valley with valor 
and distinction.
    In 2004, we also provided a combined-arms Marine Expeditionary Unit 
for the ``Spring Offensive'' in Afghanistan, significantly reducing the 
Taliban's influence and setting the stage for the national elections 
which followed. We continue to provide support in Afghanistan in the 
form of embedded training teams with the Afghan National Army.
    The Nation invests tremendous capital in its naval forces, and this 
past summer the Navy-Marine team had an opportunity to turn that 
capability homeward in support of our fellow Americans along the Gulf 
Coast ravaged by Hurricanes Katrina and Rita. Organized as a Special-
Purpose Marine Air-Ground Task Force, over 2,500 Marines from both the 
active and reserve forces came to the aid of communities across 
Louisiana and Mississippi. Marines and Sailors welcomed this direct 
involvement in a domestic humanitarian crisis that further highlighted 
the strategic flexibility of naval forces in meeting challenges to the 
Nation both around the world and at home.
    The Nation is receiving a superb return on its investment in the 
world's finest expeditionary force. Nearly one in three Marines of our 
operating forces is today forward deployed or forward based protecting 
America's interests.
       resetting the force and preparing for the next contingency
    The War on Terror has made extraordinary demands on the Marine 
Corps' tactical equipment. Extended operations in Iraq, Afghanistan, 
and elsewhere over the past several years have severely tested our 
materiel. The great majority of our equipment has passed the test of 
combat with flying colors. However, it has been subjected to a 
lifetimes' worth of wear stemming from vehicle mileage, operating 
hours, and harsh environmental conditions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 1

    We documented this situation last year in an Iraqi Theatre 
Assessment of Equipment Readiness Report. Figure 1 demonstrates the 
impact of the operating tempo on both ground and air vehicles. We have 
responded to enemy tactics and techniques, such as the employment of 
increasingly destructive improvised explosive devices (IED), by adding 
armor protection to vehicles--thereby increasing their weight and 
ultimately increasing the wear and tear on frames, axles, and 
suspension systems. In the case of the HMMWV, for example, its expected 
``peacetime'' service life is 14 years. Under current conditions, we 
will have to replace it after less than 5 years of service in Iraq.
    The significant distances in the Al Anbar Province, which is 
approximately the size of the state of Utah, exacerbates the demand on 
equipment. The extended distances, enemy tactics, and continuous nature 
of operations have placed extraordinary demands on Marine engineering 
equipment as well. We maintain roads and infrastructure across the Al 
Anbar province to accommodate the heavy logistics support demanded by 
coalition forces. Control points and compounds require round-the-clock 
power generation for vital communications, equipment repairs, and 
hospitals. These requirements place a heavy demand on the existing 
inventory of Marine Corps' engineering equipment such as power 
generators, tractors, forklifts, and road construction vehicles.
    Our expansive area also requires our headquarters' elements to 
perform the command and control functions normally held by the next 
higher command in traditional tactical and operational settings (e.g., 
battalion headquarters often function like a regimental headquarters). 
The Marine Expeditionary Force in Al Anbar has command and control 
requirements that far exceed the existing organizational tables of 
equipment.
    The Equipment Readiness Report also noted that the types of 
missions we are conducting in Iraq require in increase in the number of 
some weapons contained in the units' Table of Equipment allowance. For 
example, most infantry, logistics, and security battalions are 
employing twice the number of .50 caliber, M240G and MK19 machineguns 
they normally rate.
    Supplemental funding (Figure 2) is essential to address ``Reset the 
Force'' and wartime contingency costs since our annual baseline budget 
procurement averages approximately $1.5-$2.0 billion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 2

    Where there are equipment shortages, we equip units preparing to 
deploy at the expense of our non-deploying units. Maintaining the 
readiness of our forward deployed units remains our top priority, and 
their readiness remains high. The equipment shortages experienced by 
non-deploying forces are exacerbated by the requirement to source the 
Iraqi Transition Teams (advisors). Although the overall readiness of 
our remain-behind units is suffering, it will improve when sufficient 
quantities of equipment procured via supplemental funding becomes 
available. Until then, sustaining the Corps' readiness requires that 
our remain-behind units continue cross leveling equipment with each 
force rotation.
    Reset of Strategic Prepositioning Programs.--Equipment from the 
Marine Corps' two strategic prepositioning programs (the Maritime 
Prepositioning Force and Marine Corps Prepositioning Program--Norway) 
has been employed in support of the Global War on Terror. Maritime 
Prepositioning Ships Squadrons 1 and 3 are fully reconstituted. The 
majority of Maritime Prepositioning Ships Squadron 2's equipment was 
employed during Operation IRAQI FREEDOM II. This squadron will complete 
its initial reconstitution in April 2006, but will only be partially 
mission capable until all ground equipment is delivered. The Marine 
Corps Prepositioning Program--Norway currently possesses approximately 
35 percent of its ground equipment, and the other classes of supply are 
at 98 percent or better. The majority of the other Maritime 
Prepositioning Ships squadron capabilities range between 92-100 
percent.
                PREPARING FOR THE FUTURE: THE LAST YEAR

Recent Modernization and Transformation Initiatives
    Componency.--Over the last year, we have restructured our service 
components to meet the requirements of the Unified Command Plan, 
National Strategy, and Combatant Commanders. This effort has resulted 
in four major changes to our componency construct. First, we 
established Marine Forces Command as the Marine Corps component to the 
Joint Force Provider, U.S. Joint Forces Command. Secondly, U.S. Marine 
Corps Forces, Central Command is now a stand-alone component staff of 
approximately 100 active duty Marines. Third, the Commander of Marine 
Forces Reserve and his staff have assumed the Service Component 
responsibilities for U.S. Northern Command. Finally, on February 24, 
2006, we established a Marine Component within Special Operations 
Command (MARSOC). The new Marine Component will provide approximately 
2,600 USMC/Navy billets within U.S. Special Operations Command (SOCOM), 
lead by a Marine major general. The MARSOC will provide additional 
capability and capacity to SOCOM by adding forces that will conduct 
direct action, special reconnaissance, counterterrorism and foreign 
internal defense.
    Force Structure Review Group.--In 2004, we conducted an extensive 
Total Force Structure Review recommending approximately 15,000 
structure changes to improve the Marine Corps' ability to meet the 
long-term needs of the Global War on Terror and the emerging 
requirements of the 21st Century. This effort was end strength and 
structure neutral--offsets to balance these increases in capabilities 
come from military to civilian conversions and the disestablishment and 
reorganization of less critical capabilities.
    We are currently implementing these changes. Additionally, we will 
stand up a Capabilities Assessment Group in the first part of March 
2006 to take a focused look at our operating forces in order to ensure 
we have properly incorporated lessons learned on the battlefield, QDR 
guidance, and the MARSOC standup.
    The Marine Corps continues to examine other opportunities to 
augment needed capabilities. For example, we are assigning each 
artillery regiment a secondary mission to conduct civil military 
operations (CMO). To do this, each regiment will be augmented by a 
reserve civil affairs capability. By assigning a secondary CMO mission 
to artillery units, we have augmented our high-demand/low density civil 
affairs capability while retaining much needed artillery units. We will 
continue to look for additional innovative ways to maximize our 
capabilities within our existing force structure.
    Regionalization of Bases and Stations.--The Marine Corps is 
transforming its bases from singularly managed and resourced entities 
to ones strategically managed in geographic regions. With the exception 
of our recruit training depots, our bases and stations will fall under 
the purview of five Marine Corps Installation Commands with the 
majority of the installations under the oversight of Marine Corps 
Installation Command--East and Marine Corps Installation Command--West. 
Regionalization goals include providing optimal warfighter support, 
improving alignment, enhancing the use of regional assets, returning 
Marines to the Operating Forces, and reducing costs.
Programmatic and Organizational Developments
    MV-22.--VMX-22 completed Operational Evaluation in June 2005, and 
the Operational Test report was completed and released in August 2005. 
The report found the MV-22 Block A to be operationally effective and 
suitable. All Key Performance Parameters met or exceeded threshold 
requirements, and on September 28, 2005, the V-22 Program Defense 
Acquisition Board approved Milestone B and authorized the program to 
begin Full Rate Production. Twenty-nine Block A aircraft have been 
delivered and are supporting training at Marine Corps Air Station, New 
River, North Carolina. The first CH-46E squadron stood down in June 
2005 to begin transition to the MV-22 and is scheduled to deploy in the 
fall of 2007.
    KC-130J.--In February 2005, the KC-130J attained initial 
operational capability (IOC). The aircraft has been continuously 
deployed in support of Operation IRAQI FREEDOM since IOC and has 
provided the warfighter a state of the art, multi-mission, tactical 
aerial refueling, and fixed wing assault support asset that has 
exceeded expectations. The introduction of the MV-22, combined with the 
forced retirement of the legacy aircraft due to corrosion, fatigue 
life, and parts obsolescence, significantly increases the requirement 
for the accelerated procurement of the KC-130J. The Marine Corps is 
currently in a multi-year procurement program with the Air Force to 
procure a total of 34 aircraft by the end of fiscal year 2008. This 
number is 17 aircraft short of the inventory objective of 51 necessary 
to support the Marine, Joint, and Combined forces.
    M777A1 Lightweight Howitzer.--The new M777A1 lightweight howitzer 
replaces the M198 howitzers. The howitzer can be lifted by the MV-22 
tilt-rotor and CH-53E helicopter and is paired with the Medium Tactical 
Vehicle Replacement truck for improved cross-country mobility. The 
M777A1, through design innovation, navigation and positioning aides, 
and digital fire control, offers significant improvements in lethality, 
survivability, mobility, and durability over the M198 howitzer. The 
Marine Corps began fielding the first of 356 new howitzers to the 
operating forces in April 2005 and expects to complete fielding in 
calendar year 2009.
    High Mobility Artillery Rocket System.--The High Mobility Artillery 
Rocket System (HIMARS) fulfills a critical range and volume gap in 
Marine Corps fire support assets by providing 24-hour, all weather, 
ground-based, indirect precision and volume fires throughout all phases 
of combat operations ashore. We will field 40 HIMARS systems (18 to one 
artillery battalion of the active component, 18 to one battalion of the 
Reserve component, and 4 used for training/attrition). When paired with 
the acquisition of Guided Multiple Launch Rocket System rockets, HIMARS 
will provide a highly responsive, precision fire capability to our 
forces in conventional as well as unconventional operations.
    Expeditionary Fire Support System.--The Expeditionary Fire Support 
System (EFSS) will be the principal indirect fire support system for 
the vertical assault element of Marine Air-Ground Task force executing 
Ship-to-Objective Maneuver. The EFSS is a rifled-towed 120 mm mortar 
paired with an internally transportable vehicle, which permits the 
entire mortar/vehicle combination to be internally transported aboard 
MV-22 and CH-53E aircraft. EFSS-equipped units will provide the ground 
component of a vertical assault element with immediately responsive, 
organic indirect fires at ranges beyond current infantry battalion 
mortars. Initial operational capability is planned for fiscal year 2006 
and full operational capability is planned for fiscal year 2010.
    Explosive Ordnance Disposal Equipment Modernization.--Explosive 
Ordnance Disposal equipment is undergoing major configuration changes 
and modernization. Our current modernization focus is towards 
neutralization and render-safe of unexploded ordnance/improvised 
explosive devices. The following robotic systems were tested and 
approved for Joint Explosive Ordnance Disposal usage: Bombot, Manual 
Transport Robotic System, Remote Ordnance Neutralization System, and 
RC-50.
    Force Service Support Group Reorganization.--The Force Service 
Support Groups were re-designated as Marine Logistics Groups in August 
2005 as the initial step in the Logistics Modernization effort's 
reorganization initiative. The Marine Logistics Group will be 
reorganized/realigned with standing Direct and General Support 
subordinate units and include the Combat Logistics Regiment Forward, 
Direct Support Combat Logistics Regiment, and General Support Combat 
Logistics Regiment. Reorganization to the Marine Logistics Group 
facilitates rapid and seamless task organization and deployment 
operations, experienced logistics command and control, operations and 
planning support, and strong habitual relationships between supported 
and supporting units.
Equipping Marines
    Force Protection.--Unable to match our conventional force in like 
fashion, our enemies have resorted to asymmetric tactics such as the 
Improvised Explosive Device. Thanks to your support, we completed the 
installation of the Marine Armor Kits (MAK) on all A2 HMMWV last year. 
We will complete the transition to an all M-1114 fleet by July 2006. 
The Medium Tactical Vehicle Replacement Armor System for our 7-ton 
trucks is scheduled for completion in May 2006. Additionally, we 
continue to bolster our force protection capabilities through explosive 
device jammers, additional vehicle armoring efforts, personal extremity 
protective equipment, and a host of unmanned ground vehicles.
    Tactical Wheeled Vehicle Armor.--We have joined with the U.S. Army 
to look at the M-1151/2 as a mid-term replacement for our base HMMWV 
and A2 models that have reached the end of their service life. The M-
1151/2 is the bridge to the next generation of combat tactical vehicle. 
The Joint Light Tactical Vehicle Program will define this next 
generation vehicle. This program is a Joint Army-Marine effort to 
establish the requirement and way-ahead for the upcoming fiscal year 
2008 Program Objective Memorandum. The design of this vehicle will 
incorporate the recent lessons learned from Iraq and technical advances 
in survivability, energy management, and network operations to provide 
the survivability, mobility and tactical flexibility.
    Individual Marine Initiatives.--We have been able to address the 
highest priority capability gaps of our deploying forces associated 
with the individual Marine. The issue of protection, however, must be 
balanced with agility, weight and heat retention. An infantryman going 
into today battle carries nearly 100 pounds of equipment and 
ammunition--much of this for individual protection. This is too much. 
In combat lives can just as easily be lost due to an inability to move 
swiftly across a ``kill zone,'' or from mental and physical fatigue, as 
from bullets and shrapnel. We will never stop searching for ways to 
better protect the warrior of tomorrow by taking advantage of emerging 
technologies, but we must strike a balance between individual 
protection and mission accomplishment.
    The Lightweight Helmet provides improved ballistic protection 
capability over the existing helmet while reducing weight by one-half 
pound and introducing an improved suspension system to increase 
comfort. We have fielded over 74,000 Lightweight Helmets to date, and 
we plan to procure 43,145 more in fiscal year 2006. The Enhanced Small 
Arms Protective Insert (E-SAPI) provides increased ballistic protection 
over the existing SAPI plate. The plates weigh approximately 1.5 pounds 
more than the standard SAPI per plate depending on size. Delivery of E-
SAPI plates began in September 2005. In addition, the procurement of 
side SAPI plates further enhances the warfighters' protection, 
survivability and armor options. In April we will complete delivery of 
37,000 side SAPI plates.
    The QuadGard (QG) system was designed to provide ballistic 
protection for arms and legs in response to blast weapon threats and 
combat casualty trends in OIF. This system is an additive capability 
that integrates with existing armor systems. We procured 4,500 QG 
systems with initial delivery beginning in 1st Quarter, fiscal year 
2006. The Individual Load Bearing Equipment (ILBE) is a direct 
replacement for the Modular Lightweight Load Bearing Equipment system 
that integrates an assault pack and hydration system. We have fielded 
over 96,000 ILBE packs to date and this effort continues.
Transforming Training and Education
    One of our fundamental tenets--every Marine a rifleman--continues 
to prove its worth in the Global War on Terror. This serves as the 
solid foundation for all of our training, and provides the common core 
that defines every Marine. Over the past year, we have refined our 
training and education programs. Our goal remains the same, to prepare 
and sustain Marine Air-Ground Task Forces enabled by small-unit leaders 
directing small, enhanced units, which have a bias for action, are more 
lethal, and are better able to operate across the spectrum of conflict.
    Culture and Language.--An individual understanding of local culture 
and languages is a force multiplier in irregular operations, such as 
those we are conducting in Iraq, Afghanistan and Africa. Our cultural 
awareness and language training programs accomplished several 
milestones this past year. The Marine Corps graduated its first class 
of new lieutenants with formal training in the operational aspects of 
foreign cultures. During February 2005, we opened our new Center for 
Advanced Operational Culture Learning, and it is already proving its 
value. The Center has distributed its first basic tactical language 
training programs, preparing individuals to serve in Iraqi Arabic and 
Pan-Sahel French cultures (Pan-Sahel French is a predominant language 
in the former French colonies of Northwest Africa). The Center also 
provided training to our newly established Foreign Military Training 
Unit, as well as to Marines selected to serve as advisors to the Iraqi 
security forces and Afghan National Army. In the future, we look to 
build a permanent facility to house the Center as well as establishing 
satellite sites for sustaining language and culture training in our 
career force.
    Pre-deployment Training Today.--We have embarked on a concerted 
effort to improve our pre-deployment training. At the center of these 
efforts is our revised Pre-Deployment Training Program conducted at the 
Marine Air Ground Combat Center, at Twentynine Palms, California, at 
Marine Corps Air Station Yuma, Arizona, and at the Mountain Warfare 
Training Center, Bridgeport, California. The real-time and continuous 
connectively with forward forces enables our units in training to apply 
combat lessons learned directly into their pre-deployment training. 
During this past fiscal year over 21,000 Marines received combined arms 
and urban operations training at Twentynine Palms. In addition, over 
4,000 Marines and coalition partners trained in the mountain operations 
course at Bridgeport, and another 11,000 Marines participated in the 
adjacent Desert Talon exercise series at Yuma. The success of our 
Marines in Iraq and Afghanistan is due in large measure to the 
demanding training that they experience at these three sites.
    Modernization of Training Ranges.--In the past two years, and again 
taking advantage of combat lessons learned from Iraq and Afghanistan, 
we have initiated an unprecedented investment in our training range 
capabilities. We built a robust urban and convoy operations training 
program at our major desert training base at Twentynine Palms, 
California. Marine Corps battalions deploying to Iraq are provided a 
realistic training venue to hone their urban and convoy skills and to 
heighten their awareness of both improvised explosive devices and the 
complexities of stability operations.
    To better prepare your Marines for this ``graduate level'' training 
at Twentynine Palms, we are also providing essential building block 
capabilities in urban warfare at their home stations. Camp Lejeune, 
North Carolina has recently completed fielding a suite of urban and 
convoy training systems on their ranges and with your continued 
support, we hope to do the same at Camp Pendleton, California and the 
Marine Corps bases in Hawaii and Okinawa. We also intend to upgrade our 
aviation urban training facility at Marine Corps Air Station, Yuma and 
to provide an enhanced aviation urban training environment.
Infrastructure
    Encroachment Partnering.--In fiscal year 2005, the Marine Corps 
completed six projects to acquire development rights over 1,227 acres 
at a cost of $8 million, which was split between the Marine Corps and 
our partners.
    The Marine Corps continues to use legislation that allows the 
Secretary of the Interior to accept Integrated Natural Resources 
Management Plans as suitable substitutes for critical habitat 
designation to protect and enhance populations of these species while 
continuing to conduct essential training.
    Public Private Venture Family Housing.--Our efforts to improve 
housing for Marines and their families continue. Thanks to previous 
Congressional action that eliminated the budgetary authority cap on 
Public Private Venture investments in military family housing, the 
Marine Corps will have contracts in place by the end of fiscal year 
2007 to eliminate all inadequate family housing.
    Military Construction.--Our Military Construction plan now focuses 
on housing for our single Marines. Barracks are a significant critical 
quality of life element in taking care of single Marines. We are 
committed to providing adequate billeting for are all are unmarried 
Marines by 2012. We tripled the amount in bachelor housing from fiscal 
year 2006 to 2007. We will triple it again in fiscal year 2008. We are 
also committed to funding barracks' furnishings on a seven-year 
replacement cycle and prioritizing barracks repair projects to preempt 
a backlog of repairs.
    Energy Efficiency in Transportation.--The Marine Corps has exceeded 
the Energy Policy Act requirements for the past five years and has been 
a leader in the Department of Defense and among other Federal Agencies 
in the adoption of alternative fuels. Through use of biodiesel 
neighborhood electric vehicles, we have reduced petroleum use 20 
percent from a 1999 baseline, and are expanding the deployment of 
hybrid vehicles in our garrison fleet. We are also supporting future 
use of hydrogen-powered fuel cell vehicles with the establishment of a 
refueling station aboard Marine Corps Base Camp Pendleton, California.
Manning the Force and Quality of Life
    Though we embrace the advances of technology, we believe that the 
most important asset on any battlefield is a well-equipped, well-
trained, and well-led United States Marine--our people make the 
difference. We hold that today's Marines are unique and special 
individuals, and the character of their service throughout the Global 
War on Terror has rivaled that of any preceding generation. Recruiting 
and retaining a force of this quality requires the dedicated efforts of 
our recruiters, career retention specialists, manpower experts, and 
leaders throughout the Corps. Ours is a force of active duty, reserve, 
and civilian Marines, as well as thousands of Marine families who share 
in the sacrifices to our Nation. Though the mission must always come 
first, we continue to search for opportunities to improve the 
experience of serving as a Marine both during and after their active 
service--once a Marine, always a Marine.
    Retention.--Retaining the best and the brightest Marines is a top 
manpower priority. Our future officer and staff non-commissioned 
officer ranks are dependant on our successful accomplishment of this 
mission.
    We have two enlisted retention measures to ensure healthy service 
continuation rates. The First Term Alignment Plan (FTAP) involves the 
first reenlistment of Marines and we consistently achieved our goals 
over the past thirteen years. The Subsequent Term Alignment Plan (STAP) 
involves the subsequent reenlistments of Marines, those who likely 
remain in the Corps for a career, and we have consistently attained our 
goals since creating the STAP in 2002. In fiscal year 2005, we exceeded 
the FTAP requirement by achieving 103 percent of this retention 
mission, with notable success in the infantry community; we also 
exceeded the STAP retention mission. The substantial increase in the 
infantry reenlistment rate during fiscal year 2005 was influenced by 
higher Selective Reenlistment Bonuses (SRBs).
    Certain Military Occupational Specialties (MOS') perennially suffer 
high attrition, such as those involving highly technical skills or 
extensive security clearances. Contributing factors include lucrative 
civilian employment opportunities for those Marines who attain these 
specialized skills and qualifications. We address this challenge by 
targeting these military specialties with higher SRBs. Retaining high 
quality and the proper skills in our ranks necessitates military 
compensation that is competitive with the private sector. Sustainment 
of SRB funding remains a crucial element to our ongoing efforts to 
retain these valuable skills.
    The retention forecast for the officer corps in the near term is 
positive and consistent with our historic average of 90.8 percent. The 
close of fiscal year 2005 saw officer retention at 91.3 percent. The 
Marine Corps has active programs in place, both monetary and non-
monetary, to ensure that officer retention remains high. All of these 
programs provide incentives to officers for continued service even in 
the face of significant operational tempo, while allowing flexibility 
for Manpower planners to meet requirements across the Marine Corps 
Total Force.
    Selected Reserve enlisted retention for fiscal year 2005 continued 
to be strong at 79.5 percent, well above our historical norm. Reserve 
officer retention of 80.1 percent was also above the historical norm of 
75.3 percent
    Recruiting.--An equally important factor in sustaining a viable 
force is continuing to recruit tremendous young men and women with the 
right character, commitment, and drive to become Marines. In fiscal 
year 2005, the Marine Corps overcame unprecedented recruiting 
challenges and achieved over 100 percent of our active component 
accession goal with no degradation in quality.
    The Marine Corps Reserve achieved 101 percent of its enlisted 
recruiting goals. We achieved our officer accessions goals as well, but 
reserve officer numbers remain challenging, as our primary accession 
source is from officers that are leaving active duty. We appreciate the 
continued authorization for a Selected Reserve Officer Affiliation 
Bonus in the fiscal year 2006 National Defense Authorization Act. It 
continues to make a significant contribution in this critical area.
    We anticipate that both active and reserve recruiting will remain 
challenging in fiscal year 2006, and we welcome the continued support 
of Congress for a strong enlistment bonus and other recruiting 
programs, such as recruiting advertising, which will be essential to us 
in meeting these challenges.
    Reserve Marines.--To date, more than 37,500 Reserve Marines have 
served on active duty in the Global War on Terror. As part of an 
integrated Total Force, our Reserve Marines and units receive the same 
pre-deployment training and serve alongside their Active Component 
counterparts. Currently, over 7,000 reserve Marines are on active duty, 
and the Marine Corps Reserve expects to provide approximately 4,250 
Marines in support of operations in Iraq in 2006. Overall, our Reserves 
provide personnel for a wide-variety of operations and activities, 
including Iraq military transition, Afghan National Army embedded 
training, civil affairs, and personnel recovery and processing. They 
also perform anti-terrorist and humanitarian duties in the Horn of 
Africa, Afghanistan, Central America, and the Caribbean. The strength 
of integrating our Active and Reserve components into a Total Marine 
Corps Force epitomizes the warrior concept of ``one team, one fight.''
    Civilian Marines.--Civilian Marines continue to provide an 
invaluable service to the Corps as an integral component of our Total 
Force. Working in true partnership with Marines, Civilian Marines will 
continue to play in important role in supporting the mission of the 
Marine Corps and the Global War on Terror. Our commitment is to define 
for them what the Marine Corps will offer its Civilian Marines, and 
what the Corps expects from this select group who support our Marines.
    Military to Civilian Conversions.--The Marine Corps continues to 
pursue sensible military-to-civilian conversions in support of Marine 
Corps Warfighting initiatives. These conversions are important because 
they increase the number of Marines in the operating force and help 
reduce stress on the force. Funding remains a critical issue to the 
success of this initiative. Congressional cuts in both the fiscal year 
2005 Appropriations Bill ($35 million) and fiscal year 2006 
Appropriations Bill ($20 million) has impacted our ability to execute 
our planned fiscal year 2005 program and will reduce our planned fiscal 
year 2006 conversions.
    National Security Personnel System.--The Marine Corps is committed 
to successful implementation of the National Security Personnel System 
and creating and maintaining an innovative and distinctive Civilian 
Marine workforce capable of meeting the ever-changing requirements of 
today and the challenges of tomorrow. The Marine Corps is actively 
participating with the Department of Defense in the development and 
implementation of this new personnel system. Following an intensive 
training program for supervisors, managers, human resources 
specialists, employees, commanders and senior management, we will begin 
implementation.
Quality of Life for Our Marines and Their Families
    For Marines, success has always been measured first on the 
battlefield, but part and parcel to this is the health and welfare of 
Marines and the families who support them. As an expeditionary force, 
Marines are accustomed to frequent deployments, yet the current 
environment contains increased elements of personal danger and family 
risk that must be addressed with appropriate and timely support. We 
have been careful to monitor our programs to ensure our Marines and 
their families receive the necessary care to sustain them throughout 
the deployment cycle. In this regard, our Marine Corps Community 
Services (MCCS) organizations' combined structure of Family Services, 
Morale, Welfare and Recreation Programs, Voluntary Off Duty Education, 
and Exchange operations has positioned us to efficiently and 
effectively leverage and direct community services assets to help 
Marines and their families meet the challenges associated with the 
Marine Corps lifestyle and current operational tempo.
    For Marines in theater, few things are more important than staying 
in touch with their loved ones at home. To keep communication open 
between deployed Marines and their families, we provide phone service, 
mail service, and our Internet-based mail service, ``MotoMail,'' which 
has created more than half a million letters since its inception in 
December 2004.
    Combat and Operational Stress Control.--While our Marines and their 
families have proven to be resilient ``warriors,'' combat and 
operational stress is not an uncommon reaction. We closely interact 
with Marines and their families to reassure them; we provide many 
services and programs for help and urge service members and their 
families to seek the help they require.
    To integrate our combat and operational stress control (COSC) 
programs and capabilities properly, we have established a COSC Section 
within our Manpower and Reserve Affairs department. To gain clarity of 
mission, we instituted a tracking system that allows Commanders to 
monitor COSC training and decompression requirements. As a component of 
COSC, we created a web-based information and referral tool that leaders 
at all levels can readily access. The ``Leader's Guide for Managing 
Marines in Distress'' provides specific guidance on 40 distress areas.
    The Marine Reserves, through their Chaplain Corps, have developed 
Marine and Family Workshops (MFW), which are a post-deployment program 
designed to assist Marines and their family members with return and 
reunion stressors and adjustment difficulties. The goals and objectives 
of the workshop are to: (1) provide an opportunity for Marines and 
their family members to strengthen their coping skills; (2) mitigate 
the impact of traumatic events and war zone stressors; (3) accelerate 
the normal recovery process; and (4) identify those who might need 
additional help and provide resources.
    Casualty Support.--Our support and dedication to the families of 
our fallen Marines and their survivors is especially strong. Casualty 
support is a duty and honor. It is also a human process requiring a 
measured and thoughtful engagement by our Casualty Assistance Calls 
Officers (CACOs). As with our other deployment-related programs, our 
casualty process has evolved and improved significantly. Our CACOs 
monitor the survivor's transition through the grief process--from 
casualty notification, to burial, to ensuring survivors receive the 
appropriate benefits. CACOs connect families needing extended support 
to a Long-Term Survivor Case Manager who personally monitors and 
communicates with them to ensure they receive the support they need for 
as long as it is required.
    Critical Incident Stress Management Teams.--In cases of mass 
casualties experienced by a command or unit, whether combat, natural 
disasters, training, or missions, we use a Department of Defense 
sponsored Managed Health Network capability where trained Critical 
Incident Stress Management teams provide crisis management briefings to 
family members and friends of the unit. During the briefings, Marine 
Corps personnel, Chaplains, and Managed Health Network counselors 
provide information and answer questions concerning the casualties. 
These crisis response teams provide support at remote sites throughout 
the country, making them highly useful in situations where Reserves are 
involved. In particular, after Lima Company, 3rd Battalion, 25th 
Marines experienced mass casualties in Iraq last summer, crisis 
management briefings were conducted at various cities in Ohio where 
questions about the unit were answered, briefs were provided on helping 
children cope, individual counseling was offered to family members, and 
materials on support services were distributed.
    Marine for Life--Injured Support.--Built on the philosophy ``Once a 
Marine, Always a Marine'' and fulfilling our obligation to ``take care 
of our own,'' the Marine For Life program offers support to 
approximately 27,000 honorably discharged Marines transitioning from 
active service back to civilian life each year.
    Leveraging the organizational network and strengths of the Marine 
for Life program, we implemented an Injured Support program during 
January 2005 to assist combat injured Marines, Sailors serving with 
Marines, and their families. The program essentially seeks to bridge 
the gap that can exist between military medical care and the Department 
of Veterans Affairs, providing continuity of support through transition 
and assistance for several years afterwards.
    The program recently assigned two full-time Marine Corps liaison 
officers to the Seamless Transition Office at the Veterans Affairs. 
These liaison officers interface between the Veterans Health 
Administration, the Veterans Benefits Administration, and the Marine 
Corps on individual cases to facilitate cooperative solutions to 
transition issues.
    Additionally, the Injured Support program conducts direct outreach 
to injured Marines and Sailors via phone and site visits to the 
National Naval Medical Center, Walter Reed, and Brooke Army Medical 
Centers. On average, 30 percent of our seriously injured Marines 
requested and received some type of assistance.
    Lastly, the program continues to work closely with Office of the 
Secretary of Defense (OSD) on Marine Corps-related injury cases. 
Information sharing between the program and OSD contributes to 
developing capabilities for the Military Severely Injured Center 
(formerly known as The Military Severely Injured Joint Support 
Operations Call Center).
    Healthcare.--Marines receive high quality, state of the art care 
from a worldwide Military Health System. We enjoy the lowest disease, 
non-battle injury rates in history and our Marines know that if they 
are injured or wounded in action they have an unprecedented better than 
97 percent survival rate once they arrive at one of our Forward 
Resuscitative Surgical units. The Military Health System provides a 
superb care and health benefit program for our Marines, their families, 
and our retired population--services we must sustain. Unfortunately, at 
its current rate of cost growth, the program is unsustainable. We fully 
support changes in legislation that would allow the Department of 
Defense to ``renorm'' the cost of health care.
    Sexual Assault Prevention and Response.--The Marine Corps has 
maintained vigilance in engaging Marines to prevent sexual assault, to 
care for the victims, and to punish offenders. Our actions included 
establishing a Sexual Assault Prevention Office to serve as the single 
point of contact for all sexual assault matters, such as victim support 
and care, reporting, training, and protective measures. We have also 
instituted extensive sexual assault awareness training into all entry-
level officer and enlisted training, provided procedures to protect a 
victim's privacy, and trained hundreds of Uniformed Victim Advocates to 
support our deployed Marines. Lastly, to ensure victims receive 
appropriate and responsive care with timely access to services, we have 
appointed command level sexual assault response coordinators to serve 
as the single point of contact for sexual assault matters.

                        CAPABILITIES DEVELOPMENT

    For 230 years, the Marine Corps has answered the Nation's call to 
arms without fail, but we do not intend to rest on those laurels. To 
remain the world's foremost expeditionary warfighting organization and 
preserve our tradition of being most ready when the Nation is least 
ready, the Marine Corps is steadfastly focused on the fundamental 
tenants of our success--a maneuver warfare mindset and a warfighting 
construct built around combined-arms air-ground task forces. We are 
forwarding and expanding these capabilities through aggressive 
experimentation and implementation of our Seabasing and Distributed 
Operations concepts. These transforming concepts will increase our 
agility and tempo in operations, from cooperative security to major 
combat, and perpetuate the unrivaled asymmetric advantage our Nation 
enjoys in its ability to project and sustain power from the sea.
Warfighting Concepts
    Seabasing.--Seabasing is a national capability for projecting and 
sustaining power globally, using the operational maneuver of sovereign, 
distributed, and networked forces operating from the sea. Seabasing 
will provide unparalleled speed, access, persistence, and is recognized 
as the ``core of naval transformation'' (Naval Transformation Roadmap). 
Seabasing breaks down the traditional sea-land barrier, allowing us to 
use the sea as maneuver space. It enables us to rapidly deploy, 
assemble, and project joint and combined forces anywhere in the world, 
sustaining these forces during operations and reconstituting forces for 
employment elsewhere. Seabasing assures access by leveraging the 
operational maneuver of forces from the sea and by reducing dependence 
upon fixed and vulnerable land bases. This concept will provide our 
combatant commanders with unprecedented versatility in operations 
spanning from cooperative security to major combat. Seabasing also 
represents a present capability that can be tailored and scaled to meet 
a broad range of requirements.
    The Nation invests tremendous resources with the full understanding 
that the ability to project power from the sea is a prerequisite for 
defending our sovereignty. As demonstrated by the Navy/Marine Corps 
response to Hurricanes Katrina and Rita, Seabasing is a relevant and 
adaptive capability possessing the flexibility to meet our countrymen's 
needs around the world and at home. Marines and Sailors embarked from 
such platforms as the USS Iwo Jima (LHD 7) provided an asymmetric and 
sustainable solution to the storm ravaged Gulf Coast, and in several 
hundred instances saved the lives of their fellow Americans. In short, 
Seabasing is both a real-world capability and a transformational future 
concept. Realization of the future Seabasing potential is dependent 
upon an investment in ships and other Seabasing platforms.
    Distributed Operations.--The attributes of sea power are extremely 
useful to the Combatant Commanders. However, this operational 
capability must also be matched by increased tactical capabilities that 
enhance the effectiveness of our ``boots on ground'' to enable 
operational maneuver and to create stability, especially in irregular 
and counter-insurgency operations. After a quarter century of 
unwavering commitment to our maneuver warfare philosophy, we are 
harvesting a generation of junior officers and noncommissioned officers 
who are better prepared to assume much greater authority and 
responsibility than traditionally expected at the small-unit level. As 
a complementary capability to our Seabasing concept, Distributed 
Operations describes an operating approach that will create an 
advantage over an adversary through the deliberate use of separation 
and coordinated, interdependent, tactical actions enabled by increased 
access to functional support, as well as by enhanced combat 
capabilities at the small-unit level. The essence of this concept lies 
in enhanced small units gained through making advances on the untapped 
potential of our Marines and the incorporation of emerging technologies 
which will support them.
    Once implemented, a networked Marine Air-Ground Task Force 
operating in a Distributed Operations manner will disperse or mass to 
exploit opportunities the enemy offers. The integration of new 
doctrine, force structure, training, equipment, personnel policies and 
leader development initiatives will afford our tactical and operational 
commanders a significantly enhanced weapon in the increasingly 
sophisticated Global War on Terror.
    Experimentation, Technology and Concepts.--The Marine Corps 
Warfighting Laboratory develops innovative concepts and conducts 
concept-based experimentation in support of the Marine Corps Combat 
Development Command's mission. By examining future warfighting 
concepts, the Lab identifies capability shortfalls and matches them 
with potential solutions that can be effectively addressed by the 
experimentation process. In support of current operations and the 
global war on terrorism, the Lab rapidly identifies transformational 
solutions in the areas of training, equipment, organization and 
doctrine needed to resolve critical short falls and gaps. Experiments 
have resulted in modified and new tactics, training, and procedures for 
Marines operating in Iraq.
    The Marine Corps Warfighting Laboratory is specifically developing 
methods to defeat improvised explosive devices, provide superior body 
amour, improve vehicle armor, counter the urban sniper, and to counter 
attacks with rockets and mortars. The Marine Corps exploits the 
investment of the Defense Advanced Research Projects Agency (DARPA), 
other Services, and industry while focusing our Marine Corps unique 
investment to mature Marine Corps combat development and future 
materiel needs. This effort is highlighted by the Lab's interaction 
with DARPA in the successful testing and assessment of improved armor, 
small-unmanned aerial vehicles, and the deployment of extended user 
assessment in Iraq of small numbers of acoustic sniper location 
systems. These successful programs will result in early deployment of 
systems that will contribute to force protection and survivability.
    Sea Viking 06 Advanced Warfighting Experiment.--The Sea Viking 06 
Advanced Warfighting Experiment culminates years of planning, study, 
and experimentation. With a focus on Marine infantrymen, the experiment 
aims to revolutionize Marine Corps warfighting capabilities. By testing 
and examining our current training, organization and equipment against 
new warfighting initiatives (e.g., Distributed Operations), rooted in 
real-world lessons from Iraq and Afghanistan, we have adapted and 
overcome deficiencies, allowing the Marine Corps to actualize its 
experiment data and outcomes. Results have produced changes in, 
training, equipment and responsibilities of infantry small unit 
leaders. Such innovation has inspired the establishment of the 
Distributed Operations Implementation Working Group, which socializes 
the changes and implements the changes across the doctrine, 
organization, training, materiel, leadership and education, personnel 
and facilities pillars.
    Because of Sea Viking 06's first Limited Objective Experiment, 
Training and Education Command (TECOM) developed new courses and 
curriculum to formalize the training culture of Marine infantry non-
commissioned officers. TECOM and the Lab collaborated to establish 
``Mobile Training Cadres'' to institute a Train the Trainer Course and 
a Tactical Small Unit Leader Course to support company level leaders in 
the development of their small unit leaders, as they will always remain 
our most critical assets in the Global War on Terror. Concurrently, 
Marine Corps Systems Command, through its project managers and Marine 
Expeditionary Rifle Squad program at the forefront, remains acutely 
attuned to all equipment aspects of the Sea Viking experiments, 
ensuring that our Marines have the best equipment available. These same 
innovations, when applied Marine Corps wide, will ensure that Marine 
Forces remain the force of readiness in response to our Nation's future 
needs.
    Countering Irregular Threats.--Consistent with the emerging 
challenges laid out in the National Defense Strategy, we are developing 
new concepts and programs to address the rising salience of irregular 
threats to our security especially that posed by protracted, complex 
insurgencies and terrorism. The rise of irregular and catastrophic 
challenges to international order could potentially include the use of 
weapons of mass destruction by non-state actors seeking to blackmail 
U.S. leaders and foreign policy. Exploring this challenge is a major 
aspect of our annual Expeditionary Warrior wargame this year.
Enabling Programs
    Amphibious Warfare Ships.--Amphibious ships are the centerpiece of 
the Navy/Marine Corps' forcible entry and Seabasing capability, and 
have played an essential role in the Global War on Terror. Not only 
must our Naval forces maintain the ability to rapidly close, decisively 
employ, and effectively sustain Marines from the sea, they must also 
respond to emerging GWOT requirements, crisis response and humanitarian 
assistance missions on short notice. The Nation would be hard pressed 
to satisfy both requirements with separate forces. Fortunately, we 
possess the ability to conduct both forcible entry and persistent 
global engagement with the same naval force package.
    The current Defense Department force-sizing construct requires the 
capability to respond to two major ``swiftly defeat the efforts'' 
events--each of which could require a minimum of 15 capable amphibious 
ships. One of these crises may further necessitate the use of a Marine 
Expeditionary Force requiring 30 operationally available amphibious 
ships. Ten of these ships should be large-deck amphibious ship capable 
of supporting the operations of the air combat element of a Marine 
Expeditionary Force. Today's 35 amphibious warships can surge the 
required 30 operationally available warships and provide the peacetime 
rotation base for Marine Expeditionary Units in up to three regions.
    In part due to the recognized flexibility of these platforms, as 
well as the projected need to enhance their power projection 
capabilities to support stability operations and sustained counter-
terrorism efforts, many of our coalition partners are planning to 
acquire amphibious shipping with the capacity to support both surface 
and aviation maneuver elements. Such efforts acknowledge the great 
utility of a robust amphibious capability in the face of growing anti-
access threats.
    Amphibious Transport Dock (LPD).--The LPD 17 San Antonio class of 
amphibious ships represents the Department of the Navy's commitment to 
a modern expeditionary power projection fleet and will assist our naval 
forces across the spectrum of warfare. The lead ship was successfully 
delivered in January 2006. The LPD 17 class replaces four classes of 
older ships--the LKA, LST, LSD 36, and the LPD 4--and is being built 
with a forty year expected service life. The LPD 17 class ships will 
play a key role in supporting the ongoing Global War on Terror by 
forward deploying Marines and their equipment to respond to crises 
abroad. Its unique design will facilitate expanded force coverage and 
decreased reaction times of forward deployed Marine Expeditionary 
Units. In forcible entry operations, the LPD 17 will help maintain a 
robust surface assault and rapid off-load capability for the Marine 
Air-Ground Task Force far into the future.
    Amphibious Assault Ship (Replacement) (LHA(R)).--Our Tarawa-class 
amphibious assault ships reach the end of their service life during the 
next decade (2011-2015). An eighth Wasp-class amphibious assault ship 
is under construction and will replace one Tarawa-class ship during 
fiscal year 2007. In order to meet future warfighting requirements and 
fully capitalize on our investment in the MV-22 and Joint Strike 
Fighter, ships with enhanced aviation capabilities will replace the 
remaining LHA ships. These ships will provide increased jet fuel 
storage and aviation ordnance magazines, and an enhanced hanger to 
support aviation maintenance. The first ship, designated LHA 6, is a 
transitional ship to the succeeding ships in the class that will be 
transformational in capability and design. This lead ship is on track 
for a detailed design and construction contract award in fiscal year 
2007 with advanced procurement funds provided in the fiscal year 2005 
and 2006 budgets.
    Maritime Prepositioning Force.--Our proven maritime prepositioning 
force--capable of supporting the rapid deployment of three Marine 
Expeditionary Brigades (MEBs)--is an important complement to this 
amphibious capability. Combined, these capabilities enable the Marine 
Corps to rapidly react to a crisis in a number of potential theaters 
and the flexibility to employ forces across the battlespace.
    Maritime Prepositioning Force (Future).--In addition to the 30 
operationally available amphibious ships needed to employ a MEF during 
a forcible entry operation, the Maritime Prepositioning Force (Future) 
(MPF(F)) is the key enabler for Seabasing, providing support and 
sustainment for early entry Marine Expeditionary Brigades. MPF(F) 
enables four new capabilities: (1) at-sea arrival and assembly of the 
Sea Base echelon of the MEB; (2) projection of one surface and one 
vertically delivered battalion landing team in one 8-10 hour period of 
darkness; (3) long-term, sea-based sustainment; and (4) at-sea 
reconstitution and redeployment. These capabilities will be invaluable 
in supporting joint forcible entry operations, forward engagement, 
presence, and relationship building operations with allies and 
potential coalition partners by our forward deployed forces, as well as 
support of disaster relief and humanitarian operations. Additionally, 
this flexible asset can remain in support of post-conflict activities 
and forces ashore from a relatively secure location at sea. Each future 
Maritime Prepositioning Squadron will include one LHD, two LHA(R), 
three cargo and ammunition ships (T-AKE), three fast logistics ships 
(T-AKR), three Mobile Loading Platform ships, and two legacy maritime 
prepositioning ships. This mix of ships will be capable of 
prepositioning critical equipment and 20 days of supplies for our 
future MEB.
High Speed Connectors
    High-speed connectors will facilitate the conduct of sustained sea-
based operations by expediting force closure and allowing the 
persistence necessary for success in the littorals. Connectors are 
grouped into three categories: inter-theater, intra-theater, and sea 
base to shore. These platforms will link bases and stations around the 
world to the sea base and other advanced bases, as well as provide 
linkages between the sea base and forces operating ashore. High-speed 
connectors are critical to provide the force closure and operational 
flexibility to make Seabasing a reality.
    Joint High Speed Sealift.--The Joint High Speed Sealift (JHSS) is 
an inter-theater connector that provides strategic force closure for 
CONUS-based forces. The JHSS is envisioned to transport the Marine 
Corps' non self-deploying aircraft, personnel, and high demand-low 
density equipment, as well as the Army's non self-deploying aircraft 
and personnel, and Brigade Combat Team rolling stock and personnel, 
permitting rapid force closure of this equipment. Additionally, the 
JHSS will alleviate the need to compete for limited strategic airlift 
assets, and reduce closure timelines by deploying directly to the sea 
base rather than via an intermediate staging base or advanced base. The 
JHSS program is currently in the early states of capability development 
and has merged with the Army's Austere Access High Speed Ship program. 
Current fielding of the JHSS is projected in fiscal year 2017.
    Joint High Speed Vessel.--The Joint High Speed Vessel (JHSV) will 
address the Combatant Commanders' requirements for a forward deployed 
rapid force closure capability to support the Global War on Terror. The 
JHSV will enable the rapid force closure of fly-in Marine forces to the 
sea base from advanced bases, logistics from pre-positioned ships to 
assault shipping, ship-to-ship replenishment, and in appropriate threat 
environments, maneuver of assault forces to in-theater ports and 
austere ports. Army and Navy programs were recently merged into a Navy-
led program office with an acquisition strategy intended to leverage 
current commercial fast ferry technology, and acquisition of a modified 
non-developmental item (NDI). Contract award for new vessels is 
expected in fiscal year 2008, with delivery in 2010. To meet the 
current and near-term Combatant Commanders' requirements, the 
Department of the Navy continues to lease foreign built vessels until 
the JHSV is delivered.
    WESTPAC EXPRESS (WPE) is providing support to III MEF and other 
Okinawa-based forces, enabling III MEF to expand off-island training 
and engagement while reducing battalion-training days spent off island. 
Additionally, WPE played a key role supporting the Indian Ocean tsunami 
relief effort. HSC-2 ``SWIFT'' (picture below) provides a test bed for 
research and development prototypes as well as an operational platform 
in support of current real world requirements. Most recently, HSC-2 
played a key role in support of JTF Katrina, providing high-speed 
delivery of supplies, equipment, and personnel to ships and ports along 
the U.S. Gulf Coast.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                             HSV 2 (SWIFT)

    Joint Maritime Assault Connector.--The Joint Maritime Assault 
Connector (JMAC), previously known as the sea base to shore connector, 
will replace the venerable legacy landing craft air cushion (LCAC) as a 
critical tactical level platform supporting Marine Corps assault 
forces, as well as joint forces operating within the Sea Base. In 
comparison to the LCAC, the JMAC is envisioned to have many enhanced 
capabilities, such as the ability to operate in higher sea states, 
increased range, speed, and payload, increased obstacle clearance, and 
reduced operating and maintenance costs. The JMAC is planned for fleet 
introduction in fiscal year 2015.
Aviation Transformation
    Marine aviation will undergo significant transformation over the 
next ten years as we transition from 13 types of legacy aircraft to 
seven new platforms. We developed a new transition strategy to better 
balance numbers of assault support and TacAir aircraft based on 
operational requirements. This strategy supports our Seabasing concept 
and enables Ship-to-Objective Maneuver utilizing the Joint Strike 
Fighter, MV-22, and Heavy Lift Replacement, recently designated CH-53K. 
At a distance of 110 nautical miles, a squadron of MV-22s will lift a 
975 Marine battalion in four waves in under four hours. Similarly, the 
CH-53K will replace our aging, legacy CH-53E helicopter, lifting more 
than twice as much over the same range and serving as the only sea-
based air assault and logistics connector capable of transporting 
critical heavy vehicles and fire support assets. An Assault Support 
Capability Analysis is underway to determine the optimal mix of MV-22 
and CH-53K aircraft required to support Ship-to-Objective Maneuver and 
Distributed Operations. Similarly, the Short Takeoff and Vertical 
Landing variant of the Joint Strike Fighter represents a 
transformational platform that will generate 25 percent more sorties 
and provide a multi-spectral engagement capability for the 
Expeditionary Strike Force.
Ship-to-Shore Mobility
    CH-53K.--The CH-53K is our number one aviation acquisition 
priority. Consequently, the CH-53K received full funding in 2005 and 
has reached ``Milestone B'' status--initiation of system development 
and demonstrations. Our current fleet of CH-53E Super Stallion aircraft 
enters its fatigue life during this decade. The CH-53K will deliver 
increased range and payload, reduced operations and support costs, 
increased commonality with other assault support platforms, and digital 
interoperability for the next 25 years (Figure 3).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 3

    The CH-53K program will both improve operational capabilities and 
reduce life-cycle costs. Commonality between other Marine Corps 
aircraft in terms of engines and avionics will greatly enhance the 
maintainability and deployability of the aircraft within the Air Combat 
Element. The CH-53K will vastly improve the ability of the MAGTF and 
Joint force to project and sustain forces ashore from a sea-based 
center of operations in support of EMW, Ship-to-Objective Maneuver, and 
Distributed Operations.
    Expeditionary Fighting Vehicle.--The Expeditionary Fighting Vehicle 
(EFV) is our number one ground acquisition program, and it replaces the 
aging Assault Amphibious Vehicle (AAV) that has been in service since 
1972. It will provide Marine surface assault elements with better 
operational and tactical mobility both in the water and ashore, and 
will exploit fleeting opportunities in the fluid operational 
environment of the future. Designed to launch from amphibious ships 
stationed over the horizon, it will be capable of carrying a reinforced 
Marine rifle squad. The EFV will travel at speeds in excess of 20 
nautical miles per hour in a wave height of three feet. This capability 
will reduce the vulnerability of our naval forces to enemy threats at 
sea and ashore. Our surface assault forces mounted in EFVs will have 
the mobility to react and exploit gaps in enemy defenses ashore. Once 
ashore, EFV will provide Marines with an armored personnel carrier 
designed to meet the threats of the future. The EFV has high-speed land 
and water maneuverability, highly lethal day/night fighting ability, 
and enhanced communications capability. It has advanced armor and 
nuclear, biological, and chemical collective protection. These 
attributes will significantly enhance the lethality and survivability 
of Marine maneuver units.
Supporting Capabilities
    Logistics Modernization.--Logistics Modernization is the largest 
coordinated and cross-organizational transformation effort ever 
undertaken within Marine Corps logistics. It is a Marine Corps-wide, 
multi-year, three-pronged improvement and integration initiative 
focusing on Marine Corps people, processes and technology dimensions. 
This will produce a far more effective and efficient Logistics Chain 
Management process to include: supply, maintenance, and distribution 
processes, integration of emerging information technology, and the 
introduction of new occupational specialties to support these 
advancements.
    Global Combat Support System--Marine Corps.--Global Combat Support 
System--Marine Corps (GCSS--MC) is the Marine Corps' member of the 
overarching Global Combat Support System Family of Systems as 
designated by the Joint Requirements Oversight Council and the Global 
Combat Support System General Officer Steering Committee. GCSS--MC is 
designed to provide logistics information technology capabilities to 
satisfy the Marine Air Ground Task Force and Combatant Commander/Joint 
Task Force requirements, as well as support the Marine Corps Logistics 
Modernization strategy. The goal of GCSS--MC is to provide modern, 
deployable Information Technology tools for both supported and 
supporting units. Achieving this goal requires the establishment of a 
shared data environment so that GCSS--MC data and information may be 
shared across the Marine Corps enterprise and with other services and 
agencies. GCSS--MC is being implemented in phases, or ``blocks''. Block 
1 provides logistics chain management and basic planning tools, while 
Blocks 2 and 3 will see the expansion of Block 1 capabilities and 
provide major upgrades to the Oracle software. The focus will be on 
logistics planning, command and control, and asset visibility.

                               CONCLUSION

    Your Marines are fully dedicated to serving and protecting this 
Nation. Their bravery, sacrifice, and commitment to warfighting 
excellence have added new chapters to our Corps' rich legacy. We 
recognize we have an essential mission, and that we have the solid 
backing of the American people. The Marine Corps fully understands that 
our greatest contribution to the Nation is our high-level of readiness 
across the spectrum of conflict. That readiness is predicated upon your 
sustained support, for without it your Marines will not enter the 
coming battles as the well-equipped, well-led, and well-trained 
fighting force you have come to expect. We face the unprecedented 
reality of overlapping and competing fiscal priorities--resetting the 
force from an extended war while undertaking a comprehensive 
modernization plan to prepare for the challenges of tomorrow. Marines 
and their families greatly appreciate the unwavering support of 
Congress, which is material to achieving our high level of success and 
securing the Nation's interests.

                   NAVY EXPEDITIONARY COMBAT COMMAND

    Senator Stevens. Thank you very much, gentlemen. Let me 
start out with you Mr. Secretary. And unless there are 
objections, we'll have a 10 minute round for each Senator.
    There's funding requested for the Navy Expeditionary Combat 
Command in the 2006 supplemental, but there's no money in the 
2007 budget. Can you tell us why? What is the strategy? This is 
for you Mr. Secretary. I think it is a basic question of the 
Secretary and Admiral Mullen, too, this is a strange 
circumstance. Why should we put money in the supplemental if 
it's not going to be funded in the 2007 budget?
    Mr. Winter. Admiral, could you help on this one?
    Admiral Mullen. Mr. Chairman, I'll have to get back to you. 
I'm not aware that it is not funded in the 2007 budget.
    Senator Stevens. That's my information, I could be wrong.
    Admiral Mullen. My understanding was we had money in that. 
The idea in the 2006 supplemental was to get it moving as 
rapidly as possible and we started to fund it in 2007.
    Senator Stevens. All right. Thank you very much.
    [The information follows:]

    The Navy requested funding in the DON fiscal year 2006 Emergency 
Wartime Supplemental submission for the Riverine Force ($73.1 million); 
the Maritime Civil Affairs Group ($6.4 million); the Expeditionary 
Training Team ($2.5 million); the Maritime Security Force ($6.5 
million); Inshore Boat Units, which are components of the Naval Coastal 
Warfare community ($16.5 million); and the NECC Headquarters ($2.5 
million). The primary rationale for the funding requested in the fiscal 
year 2006 supplemental for the new components of the NECC is that the 
final decision to establish the NECC and the aforementioned components 
was not made until after the submission of the regular fiscal year 2007 
budget.
    The following summarizes all of the efforts currently in motion and 
planned to fund the Riverine Force (Riverine Group ONE [headquarters] 
and three deployable Riverine Squadrons) in the OPN, WPN, OMN and PANMC 
appropriations. The first Squadron-level operational deployment to the 
U.S. Central Command Area of Responsibility is scheduled for March 
2007. Principal rationale behind requesting procurement funding on an 
accelerated timeline is due to the relatively long delivery projections 
for much of the equipment required by the deploying Riverine Squadrons 
(in many cases delivery forecasts are 12 months or longer, subsequent 
to contract/contract option award).
  --Fiscal Year 2006 Below Threshold Reprogramming.--$7.47 million to 
        begin equipping Riverine Squadron ONE (RIVRON ONE). Fleet 
        Forces Command is also providing OMN funding from existing 
        resources in fiscal year 2006 to support the establishment of 
        RIVRON ONE and the Riverine Group ONE headquarters on an 
        accelerated timeline.
  --Fiscal Year 2006 Above Threshold Reprogramming.--$17.34 million to 
        continue equipping RIVRON ONE, less combatant craft, which the 
        Marine Corps will ``loan'' RIVRON ONE for initial training and 
        the March 2007 deployment. With one exception, funding will 
        ``pay back'' other Navy programs from which required equipment 
        for RIVRON ONE is being redirected.
  --Fiscal Year 2006 DON Emergency Wartime Supplemental Request.--$73.1 
        million to equip RIVRONs TWO and THREE, commands scheduled to 
        sustain the aforementioned initial operational deployment in 
        November 2007 and July 2008, respectively.
  --Fiscal Year 2007 President's Budget.--$22.31 million initially 
        intended to begin establishment of one modestly sized riverine 
        unit. This baseline concept was superceded by a more robust 
        Riverine Force concept subsequent to submission of the PRESBUD. 
        Currently, fiscal year 2007 funding would be used to sustain 
        the Force being stood up in fiscal year 2006.

                       SPECIAL OPERATIONS FORCES

    Senator Stevens. Secretary Winter, in the Quadrennial 
Defense Review there was significant emphasis on increasing the 
Special Forces Operations capabilities including Navy SEALs, 
and additional naval personnel to train foreign units, and a 
new Marine Corps Special Operations component. Will those 
activities require an increase in the Navy's end strength in 
2007?
    Mr. Winter. Sir, I believe that the end strength 
considerations associated with the Navy and the Navy SEALs have 
been factored into the proposed end strength into 2007 of 
340,700 for the active component and that includes, to my 
understanding, the factoring in of the additional SEALs that 
are required.
    Senator Stevens. General Hagee, this new Marine Corps 
Special Operations component, will it be under the control of 
the Special Operations Command or under your control?
    General Hagee. Sir, from an operational standpoint, of 
course it's under the control of the Combatant Commander or 
Special Operations Commander General Brown. I am responsible 
for the training, equipping of traditional types of equipment, 
not the Special Operations equipment and the training of those 
marines before they go down there, like we are for any 
Combatant Commander, sir.
    Senator Stevens. And Admiral Mullen, it is my information 
that this is going to require an increased level of Navy SEAL 
team force levels. Are you going to be able to do that type of 
specific recruiting to meet the Navy SEALs without sacrificing 
the level of training for the Command as a whole?
    I'm looking at this QDR and my staff has looked at it and 
compared it to the budgets. Have we got the funding in this 
budget to meet the goals of the Quadrennial Defense Review?
    Admiral Mullen. We initiated the funding in the 2007 
budget, but we clearly don't have it. I mean, we've got 
additional work to generate both the funding, and refine the 
steps, and the program builds from 2008 on out--2007 was the 
beginning.
    As far as the SEALs, Mr. Chairman, our concern they are--as 
the Secretary said--they are taking into consideration their 
end strength increase is taken into consideration in the 
overall decrease of the Navy's end strength.
    That said, last year for example, we graduated about 170 or 
175 SEALs from basic underwater demolition school (BUDS) and we 
need to generate the kind of numbers we're talking about in the 
future. We need to get that number up above 200.
    We have taken some steps both at the recruiting and in boot 
camp to ensure that those who are desirous of going are better 
prepared. We're working pretty hard in terms of making sure 
those who want to do this and are qualified can get through the 
training. But in no way, shape, or form is there any intent to 
decrease the quality.

                           MENTAL HEALTH CARE

    Senator Stevens. Let me ask two more questions. One is, we 
know there's going to be an amendment offered to the 
supplemental that Chairman Cochran is managing dealing with 
additional funds for the Veterans Administration and for the 
Department to meet the mental health concerns.
    Researchers at Walter Reed Army Medical Center surveying 
soldiers, sailors, airmen, and marines found that 19 percent 
reported mental health concerns. Now that's potentially a large 
problem not only for the Armed Forces, but for the veterans 
health care system.
    Are you adequately funded in the 2007 bill to meet that, or 
do we need to add money that we're going to be asked to add for 
the care of these veterans?
    Mr. Secretary, have you discussed this?
    Mr. Winter. Sir, I've not discussed this at this level of 
detail. CNO, do you have a view on this?
    Admiral Mullen. Mr. Chairman, I would really have to get 
back to you on whether we're adequately funded. I will say that 
from the Navy's perspective, this is an issue we are aware of 
and we are working literally from the field back into the 
hospitals and back into the support mechanisms, that we have--
not just in the hospitals, but also at our fleet and family 
support centers. That is something we are very much aware of.
    The adequacy of the funding to support that, I would just 
have to--I'm comfortable we can do that in the near term. 
Whether we've got it laid in for the long term, I just don't 
know. I would have to get back to you on it.
    [The information follows:]

    Navy Medicine can and will continue to meet the demand for 
mental health services required by our fighting Marines and 
Sailors. We have identified the need for an additional $11.4 
million in the 2006 GWOT supplemental to support the Post 
Deployment Health Re-Assessment (PDHRA) of returning Sailors 
and Marines, active and reserve component. If Congress passes 
this supplemental request and our current fiscal year 2007 
budget request we will have adequate funding for this 
initiative and for our mental health requirements throughout 
fiscal year 2007.

    Senator Stevens. Well I have to tell you, we don't have 
long term. We're going to have to face this very soon when we 
get back. Chairman Cochran can maybe tell us when.
    That's one of the issues that worries me a little--the 
amendment to add substantial monies to the supplement for the 
mental health care. So I hope you can get back to us as soon as 
possible.

                                 MV-22

    General Hagee, about the problems of additional funds for 
V-22 aircraft as replacement for the CH-46. That money is not 
in the supplemental that was forwarded to us. And it's my 
understanding that this is really a problem. I sent you a 
letter, and you responded to it, and I thank you for that. Have 
you discussed this with the Department and should we consider 
increasing the 2006 level--I mean the 2007 level, to meet these 
V-22 requirements?
    General Hagee. Sir, we have. As you know, we've identified 
the MV-22 to replace those four 46s we have lost. We put that 
in the supplemental. It was deferred to next year--to 2007, if 
in fact we have those funds. We could have executed in 2006, 
but if we get the funds in 2007 we can execute in 2007.
    If you ask me, what I would prefer to do? I would prefer to 
execute it in 2006, but I also understand the fiscal 
environment in which we are in.
    Senator Stevens. You didn't get any money out of the so-
called bridge funds for 2006 for the V-22?
    General Hagee. Not for aircraft replacement. No, sir.
    Senator Stevens. What's the timing as far as the rate of 
production now? Is it declining?
    General Hagee. No, sir. In fact, as you know, it went 
through a successful Defense Acquisition Board. The rate that 
we had planned a couple of years ago, has in fact been reduced. 
But we're going to produce 9 this year and the plan is to 
produce 14 next year.
    Senator Stevens. These are actually going to be used to 
replace equipment that was lost or destroyed in the war zones 
of Iraq and Afghanistan, right?
    General Hagee. Yes, sir. Any 46--and we have lost four of 
those so far, or any CH-53 Delta will be replaced by a MV-22.
    Senator Stevens. Thank you very much. Senator Inouye.

                             STEAMING DAYS

    Senator Inouye. Mr. Secretary, traditionally for the past 
several years, the Navy has had about 51 steaming days per 
quarter. Add to this the fact that announcements have been made 
indicating your intention to increase Navy presence in the 
Pacific, which would increase steaming days.
    Taking these two things into consideration, don't you think 
that a budget request, requesting 36 steaming days in a quarter 
is taking a huge risk?
    Mr. Winter. Sir, there clearly is a risk assumption 
associated with that. I will note however, that we have 
ensured, taking the proper steps to be sure that the pre-
deployment, the readiness part of the steaming, the operations 
and maintenance are funded at the full level to ensure that 
we're able to maintain the readiness of the fleet, relative to 
the operational deployment. This is a matter we're going to 
have to track very carefully in terms of the ongoing 
activities, as well as the conduct of phase zero activities 
that may be dealt with outside of the area of responsibility 
(AOR). It is a matter we're going to continue to track and we 
will watch very closely.
    CNO, if you want to add to that.
    Admiral Mullen. Senator, clearly it's a calculated risk. We 
have funded the surge capability from both a training and a 
readiness standpoint in order to be able to deploy and meet 
requirements.
    These are deployed steaming days which would move from 51 
to 36 and we have been at 51 steaming days for a significantly 
long period of time. It is something I have no desire to return 
to, what I call the readiness bathtub, that we've filled in 
recent years, and that we will watch this very carefully. And 
if we have to, we'll have to move money around in order to fund 
it to meet the need for the steaming days deployed.
    The deployed days are going to be the same. In other words, 
the ships will still be overseas deployed. It's a question of 
managing that risk. I actually expect to get some of that 
returned. Some of those steaming days have, over the last 
couple of years, been tied to supplemental funds. I'm not 
looking for that, but that has happened in the last couple of 
years. So it is an account we just have to manage very, very 
carefully.
    Senator Inouye. So as far as you're concerned, it is a risk 
that you can live with?
    Admiral Mullen. Yes, sir. At this point in time, it is.
    Senator Inouye. What about the 2 percent increase in 
deferred maintenance?
    Admiral Mullen. Again, that is relatively small at this 
particular point in time. I'm anxious to not return to a large 
amount of deferred maintenance and we'll watch this. I actually 
have some deferred in 2006, as well as in 2007 and I have no 
desire to return to where we were before and have to watch it 
literally maintenance availability by maintenance availability 
to ensure that we don't return to that. And I may have to move 
resources around to do that, but we are.
    The other thing we've done, Senator, is we've worked hard 
to do maintenance differently than we have in the past and to 
operate much more efficiently than we have in the past, and 
we've put an extraordinary amount of money in readiness in the 
last several years, and I'm anxious to keep pressure on those 
accounts to make sure we're spending effectively, as well as 
efficiently.

                       MARINE CORPS END STRENGTH

    Senator Inouye. General Hagee, you're now operating at an 
end strength of 179,000 marines, with the hope of reaching 
181,000 by the end of this fiscal year. In addition, as the 
chairman noted, you're going to have 2,600 assigned to special 
operations.
    In your professional military judgment, what level of end 
strength is required to fulfill the current and future missions 
of your Corps? And I say this because, recently in a statement 
you said 180,000 is about right.
    General Hagee. Sir, thank you for that question. You are 
right. We are currently authorized today 179,000. The program 
budget pays for 175,000. The additional marines authorized by 
the Congress are funded by the supplemental. In addition as you 
know, the title 10 allows us to go about 3 percent above our 
authorized level during times of war. And so, we're at about 
180,000 marines right now.
    I believe based on the current operational tempo and 
training tempo that that is about right for us right now. The 
last review that we had on structuring the Marine Corps was in 
2003 and several things have changed since that time.
    You've mentioned that we have stood up the Marine Special 
Operations Command. There's a significant review of our major 
war plans that are undergoing, as I said, review. And we're 
also--the QDR report came out, which is shifting it from--re-
balancing probably is a better word--from traditional to 
irregular and so, in order to look at all of that, I have stood 
up a capabilities assessment group.
    It's been going for just over about 1\1/2\ weeks. It is 
headed by Major General Steve Johnson who just returned from 
Iraq, and they're going to report out late spring--early summer 
on what the Marine Corps should look like from a structure 
standpoint and the end strength to support that both now and 
into the future.
    I would like to comment, if I could, just a little bit on 
Marine Special Operations Command (MARSOC). There are 2,600 
marines that will ultimately end up underneath SOCOM. Three 
major muscle movements. One of them is a foreign military 
training unit which we stood up last year in the Marine Corps 
and we're going to move that to SOCOM.
    It's where it should be. It's for an internal defense. We 
will not reconstitute that inside the Marine Corps. We're going 
to take our Maritime Special Purpose Force which currently 
trains up with the Marine Expeditionary Unit, goes out with the 
Marine Expeditionary Unit, and operates with them. We're going 
to take that force and transfer that to SOCOM. They are still 
going to train up with and deploy with the Marine Expeditionary 
Unit.
    However in theatre, they will be under the operational 
control of the Theatre Special Operations Commander. We will 
not reconstitute that force. We're going and the final 
capability set, we're going to give to SOCOM, are some signals 
intelligence (SIGINT) capability, fire support coordination 
capability, intelligence (INTEL) capability. Those capabilities 
we will have to reconstitute inside the Marine Corps.

                        RECRUITING AND RETENTION

    Senator Inouye. Thank you very much. Admiral, although you 
seem to be meeting overall recruitment goals, we note with some 
concern your problems with recruiting women and minorities. And 
second, doctors and nurses, the SEALs, and lower re-enlistments 
in the first quarter of the fiscal year.
    If there is anything that you feel that this subcommittee 
can do to help you in this matter, because I think we've got to 
meet our goals, I hope you will let us know.
    Admiral Mullen. Yes, sir. Overall from a recruiting 
standpoint and both the recruiting and a retention level, we 
are meeting our goals. We've had extraordinary retention for 
the last--since really--since 2000 and the retention numbers 
even this year are very good. As is our recruiting, there are 
some aches on the Reserve side for Seabees and medical where we 
have not met our goals for a significant period of time and 
we're anxious to get that incentivized correctly.
    And we're working on that as well from the diversity aspect 
of it. It's a priority for me as a chief to make sure we have 
this right. Our overall balance in the force is really pretty 
good, with the exception of senior flag officers in both women 
and minorities in terms of percentages.
    That's a priority for me to get right in the future and to 
do that, I need to certainly do that at the base so that we 
have, many years from now, an opportunity. There are 
opportunities to make sure that we reflect this country. It is 
a very important issue for me and one that I pay a lot of 
personal attention to. And so I appreciate your offer. And if 
there is, I certainly will let you know.
    Senator Inouye. Thank you very much, Admiral. Thank you, 
Mr. Chairman. Chairman Cochran.

                          SUPPLEMENTAL REQUEST

    Senator Cochran. Mr. Chairman, thank you very much. Thank 
you for being here, Mr. Secretary, General Hagee, Admiral 
Mullen, to discuss the budget request for the Navy and Marine 
Corps for the next fiscal year. The supplemental has provided 
part of the request that the Navy and Marine Corps says it 
needs to repair and replace equipment and other items in your 
inventory.
    I wonder, taking the supplemental request and looking at 
the request for this next fiscal year, do you think, Mr. 
Secretary, that you have enough funds to carry out the missions 
you expect the Navy and Marine Corps to be required to carry 
out?
    Mr. Winter. Senator, within the ground rules we've been 
given, which is to say that the incremental cost of operations 
associated with the conflict to be included in the supplemental 
and not into the base budget, we do believe that we have 
adequately provided for the needs of the Navy and Marine Corps 
for the next year.
    Senator Cochran. General Hagee, the Marine Corps is asking 
in the supplemental for approximately $3.2 billion to repair or 
replace ground vehicles, Humvees, and other equipment that has 
been damaged or lost in Iraq and Afghanistan. How will you deal 
with the remaining unfunded requirements in ground equipment to 
complete for example, resetting the aviation assets that have 
been depleted.
    General Hagee. Sir, thank you for that question. What we 
did is, last year we drew a line and we looked at October 1, 
2005, and we said, what will it cost to reset the Marine Corps 
as of October 1, 2005? And we came up with $11.7 billion.
    If we had that and the industrial base could execute it, we 
would be just where we should be as far as capabilities and 
capacities in the Marine Corps. And that's what we have called 
our reset and we submitted that as part of the supplemental. We 
got a portion of that for 2006. The rest that's over here is a 
recommendation for 2006. The rest is then deferred to 2007.
    We could not, even if we got the $11.7 billion, we couldn't 
execute it in 2006. Industry could not execute it in 2006. We 
believe we could execute about $6 billion of that. I think $5.1 
billion in 2006 and the balance is in 2007.
    Then there's a cost of war. And the cost of war for 2006, 
as I mentioned in my opening statement, is about $5.3 billion. 
And as long as the war goes on that will continue if we get 
that funding, then there will not be another requirement for a 
reset once we obligate and execute those $11.7 billion.

                           SHIPBUILDING PLAN

    Senator Cochran. Thank you very much. Admiral Mullen, 
looking at the long-range ship building plan for the Navy, we 
had the tragedy of Hurricane Katrina, as you know, that struck 
the gulf coast of our State and we have a major ship building 
firm located in the Pascagoula area. What impact is that going 
to have on your requirements, or the budget submission that you 
have presented for Navy ship building?
    Admiral Mullen. The long-range ship building plan in great 
part depends on the shipyard. Actually all of our shipyards, 
but certainly the shipyard in Mississippi as well. And so 
clearly as I've structured the long-range ship building plan, 
put the plan, submitted it to you this year. My goal is to 
create a strategic alliance between the Hill, the Navy, the 
Department, and industry. And a viable industry is a very 
important aspect of this.
    What I'm trying to do is submit a plan that is stabilized, 
doesn't change year to year, so that industry can make 
investments to deliver ships which we can control their cost. 
And all of us have work to do in that area.
    So the viability of that shipyard is very key in terms of 
the future of building the ship plan for the Navy and for the 
Nation.

                         LPD-17 AMPHIBIOUS SHIP

    Senator Cochran. One of the responsibilities there at that 
yard, I understand includes the LPD-17 amphibious ship. We 
appreciate the fact that that's an important part of our 
State's economy and we're very proud of the good work that has 
been done there. Particularly, in mobilizing a workforce that 
have been dispersed and preoccupied with just trying to stay 
alive and keep families together in the aftermath of that 
hurricane. But I think they seem to be back working. I think I 
heard 12,000 employees available and dependable for work every 
day there.
    I noticed the fiscal year 2006 submissions, Mr. Secretary, 
shows that the ship plan for fiscal year 2007 has been pushed 
into 2008. But it is also listed as part of the Navy's unfunded 
requirements list.
    So I'm wondering, it would seem that it would be 
appropriate to fund something that is on the unfunded 
requirements list, rather than push it into the next fiscal 
year. What is the problem?
    Mr. Winter. Well sir, that was a move that was made 
recognizing that by dealing with the advanced procurement, we 
were able to actually buy the last of those Amphibious 
Transport Docks (LPD), in I believe the 2008 time period, 
without impacting the actual delivery of that particular ship.
    At the same time obviously, if we could pay for that 
earlier, it would provide additional headroom in the out-years. 
This is something we clearly want to do. It is a matter of 
providing an appropriate allocation of the resources in the 
time period we're discussing.
    Senator Cochran. General Hagee, I remember last year we 
talked about how many amphibious ships the Marine Corps needed 
and how many would you like to have to support Marine Corps 
operations. I believe you said you would like to have 10 LPD-
17s. Is this still something that you think would be helpful 
and satisfy the Marine Corp's strategic lift requirements?
    General Hagee. Sir, you know I'm an infantry man, you never 
have enough information and I'm a marine, you never have enough 
amphibious shipping. I would love to have 10 LPDs. I understand 
the fiscal environment that we are in. I think there's--as I 
testified last year, there's a risk with nine. But that's a 
risk that I believe that we can take.
    Senator Cochran. Thank you very much, Mr. Chairman. Thank 
you all for your cooperation and your great performance of 
duty.
    Senator Stevens. Thank you, Senator. Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman and 
welcome all of you to this hearing this morning.

                   MARINE CORPS EQUIPMENT REPLACEMENT

    General Hagee, could you give me an assessment right now on 
replacement equipment and modernization of equipment? I know it 
changes everyday and our losses, could you give me kind of 
assessment of how we're replacing, and how we're modernizing?
    General Hagee. Yes, sir. Probably the best example is with 
our maritime pre-positioning squadrons. As you know, we have 
three of those squadrons. Each one of the squadrons has the 
ground equipment and the sustainment for a brigade of 15,000 
marines--a lot of equipment.
    Last year at this time, two of those squadrons were down 
below 35 percent availability of equipment because it was gone 
and it was in Iraq. Because of the support that we have 
received on supplemental funding, today two of those squadrons 
are just about at 100 percent and the one remaining squadron is 
up around 90 percent. The equipment is actually on order. The 
money has been obligated, we're just waiting for it to come in. 
So the supplemental funding has improved our readiness 
significantly.
    The CNO talked about the bathtub. We used a lot of 
equipment. As you know, the rules said in the first 2 years of 
supplementals, we could not use it or at least, not very much 
of it for procurement. Last year we were able to do that and 
we're starting to fill that bathtub up.

                          MARINE CORPS RESERVE

    Senator Burns. Tell me about your Reserves and the 
equipping of the Reserves, and are they ready for deployment 
should they be needed?
    General Hagee. I've been in the Marine Corps for 38 years. 
I've never seen a more ready, battle hardened Marine Corps than 
we have today, both regular and Reserve. Ninety-seven percent 
of our selected Marine Corps Reserve units have been activated. 
And over 70 percent of those individuals who have been 
activated have in fact, served in either Iraq and Afghanistan. 
They are ready to deploy.
    Now we have taken equipment and we have pushed it to Iraq, 
and we have pushed it to Afghanistan--exactly where it is 
needed. They have sufficient equipment back here to train. If 
we had to mobilize all of them, we would have to draw down our 
preposition stocks again.
    Senator Burns. When you deploy your Reserves, when you call 
your Reserves up, are they blended into regular units or are 
they a unit unto themselves?
    General Hagee. They are a unit unto themselves, sir. If 
they're called up as an infantry battalion or an artillery 
battalion, in some cases if we call a debt or a detachment, it 
could in fact blend into another unit.
    Senator Burns. That's the reason I asked those questions, 
is because of I can see a depletion of those Reserve units not 
having the necessary equipment to actually be combat ready 
whenever they are called up.
    In other words, do they have to be retooled or does new 
equipment have to be issued? Because I know there's been a draw 
down in the equipment at the Reserve level.
    General Hagee. Yes, sir. That is correct and I say, 
especially for the major end items for the personal gear we're 
fine. On the major end items, we would have to take some of 
those out of pre-positioned stocks, if in fact we called up 
everyone.

                        MARINE CORPS RECRUITMENT

    Senator Burns. Your recruitment--tell me how your 
recruiting is going. Now I know you're going to send some of 
your personnel into Special Ops, do you plan to replace those 
numbers back into your regular ranks?
    General Hagee. We won't replace all of the capabilities in 
the regular ranks. The classic example is the Foreign Military 
Training Unit which we stood up in the Marine Corps last year. 
It's about 400 marines. It's a capability that the Nation will 
continue to have, but it will be under SOCOM. We will not 
reconstitute that under the Marine Corps.

                         MARINE CORPS TRAINING

    Senator Burns. I appreciate that because I'm mostly 
concerned you know, from my background. I'm concerned about the 
people on the ground and in your training. I don't think the 
American people really understand how 9/11 changed our lives 
and how we look at the world now at a different kind of an 
enemy than we did, say in the cold war era, or in the past.
    You're training, especially boot camp. Now I know at one 
time that Marine Corps Recruiting Depot (MCRD) San Diego was 
talked about to go on the base realignment and closure (BRAC) 
and move all boot camp and primary training to boot training to 
Parris Island. I understand now, that you need both units in 
your operation now, is that correct?
    General Hagee. That is correct, sir.
    Senator Burns. And when I talk about training now, it takes 
on a different kind of training. In other words, the psychology 
of training has not changed in the Marine Corps. I congratulate 
you for that, but also, to deal with an enemy that we've never 
been able, or never ever seen before. And I'm wondering if the 
wing of the hearts and minds of wherever we travel is now a 
part of your boot camp training, or is a part of your Infantry 
Training Regiment (ITR).
    General Hagee. It's a part of our--what we call now, our 
school of infantry which was the old ITR. It is absolutely a 
part of that, sir, and as I mentioned in my opening statement--
--
    Senator Burns. I hated to date myself.
    General Hagee [continuing]. The same thing, the same tough 
hard training. Where we have made the most significant change 
is in Twentynine Palms. As you know, we use to do the combined 
arms exercise out there, which is an industrial war type of 
exercise, coordinating artillery, and aircraft fires. We have 
changed that to where it is in a regular battlefield now.
    We have a couple of mock Arab villages--really quite large. 
We have role players that are actually Iraqi's speaking Arabic, 
that populate these villages when we're doing training out 
there. The marines learn how to interact with them, how to deal 
with IEDs. So we have significantly changed the training that a 
unit experiences before it goes over.
    Senator Burns. Well I'm one of these and due to the 
leadership of our chairman and ranking member on this 
subcommittee for their vision and insight, because I still 
believe our success around the world, the best Ambassadors we 
have is the warrior that is on the ground and their ability to 
deal with the people that they run into, new cultures, new 
languages, new everything.
    And being able and having the versatility as a person, as 
an individual, to deal with those changes. And so I 
congratulate you on that and I just know that the young people 
that we encounter when we're in the service and we're abroad, 
the effect that we have on them is the future of this country. 
Because the impressions our warriors make on them, will last 
them for a lifetime and that is winning the hearts of the 
future and I congratulate you on that also and I yield back my 
time.

                    SERVICE MEMBERS' ABSENTEE VOTES

    Oh, there's one other question. We're concerned a little 
bit about it's an election year and I'm up. But new ways of 
making sure that our men and women can vote absentee, we've 
been looking at different systems in our office and have been 
in contact with your offices.
    I wish you would take a look at that for us, and to make 
sure that our men and women who serve in uniform, especially 
abroad, do not lose their voice in Government. And we've been 
working on that and I would hope that you would visit with us 
just a little bit in our offices, because there's a couple of 
plans out there that we think could facilitate and to make sure 
that they do not lose their voice in their government. Because 
I think it is very important and I thank the chairman and I 
yield my time.
    Senator Stevens. Thank you very much. Pardon us, we're 
discussing another subcommittee's ability to meet this 
afternoon. We have a series of votes.

                   UNMANNED COMBAT AIR VEHICLE (UCAV)

    Admiral, during the coming recess we're going to go out and 
take a look at the predator development ground out in Nevada 
and we understand you're thinking about developing unmanned 
combat aircraft now, and the Defense Advance Research Projects 
Agency (DARPA) has been involved in the whole subject in the 
past.
    You're requesting $239 million in fiscal 2007 and tell us, 
between 2007 and 2011 that this unmanned combat air vehicle 
will request funds in excess of $1.8 billion. Now are you 
satisfied that this is right for the Navy to separate off from 
the joint program that's been going on in the past?
    We've had a joint program for unmanned combat aircraft for 
all the services and now, it looks like you're going to go it 
alone, tell us why?
    Admiral Mullen. Sir, the intention is not to go it alone. 
It was really to take what was the joint program, move this 
$1.8 billion to focus on the unmanned carrier suitability piece 
of this which was also part of that joint program. But it was 
not as clean a part per se.
    Both General Mosley and I are very committed to the joint 
outcome of this--of what was going on in this joint program. 
General Mosley and his--also has a significant portion of that 
money. I believe the other half of what was almost a $4 billion 
program across the time line you described and we have pledged 
to each other, to ensure that as this evolves we share the 
technologies and the developments, and down the road come back 
together.
    So I have great confidence in that for us, the unmanned 
piece, as I've said, is the carrier piece. As I come in as 
Service Chief, I'm anxious to do more unmanned work, not just 
on the carrier side but other unmanned developments which are 
all ongoing. I just have not had a chance to get at those 
myself and intend to spend a fair amount of time on that in the 
2008 program.
    Senator Stevens. Well respectfully, Admiral, I don't think 
anyone in any group has been more supportive of the unmanned 
research program than this subcommittee. As a matter of fact, 
we initiated it as an add-on one year.
    Even the Air Force wasn't interested in it. But now, 
everybody's interested in it. But we have an ongoing program. 
It is a joint program at a time when money is so tight. Why 
should we split off $1.8 billion and give it to you to 
duplicate what's being done in a joint program?
    The joint program will still be going on and I understand 
some of the problems we've had in the past about the structure 
of the landing gear and everything else for carrier landings, 
but this should not be that much different for an unmanned 
combat aircraft.
    I seriously questioned--this whole thing is just going up 
like this--I questioned whether we need to duplicate another 
program and split this off and have different personnel, 
different costs. Why can't you keep up with the joint program?
    Admiral Mullen. We believe that the outcome of this 
decision was a better outcome than that, which was coming from 
the joint program at the time. The combined output, and it also 
included where we were. Not just with the Air Force, but 
obviously where we were with DARPA.
    Senator Stevens. But if you get a separate program, why 
doesn't the marines, or why doesn't the Army? The Air Force 
already has the major program. I asked the Coast Guard to look 
at unmanned aircraft for the purpose of exploring the maritime 
boundary. We asked Intelligence, the immigration people to look 
at unmanned aircraft for the purpose of exploring or 
maintaining our surveillance of our borders.
    Why don't we just add a national program, instead of all of 
these separate offices that cost money? And I will tell you we 
are losing support up here because of redundancy of programs. 
And I urge you to go back and think that one over. I think the 
whole budget has to be thought over from the point of view of 
what's necessary now?
    We went over and saw the movement of bases from Germany 
into Italy--wonderful plan. But why does it have to be done 
now? A half million dollars for one base, three-quarters of a 
million dollars for another--excuse me, half a billion dollars 
for one base, three-quarters for another one. Now, moving them 
now, at time when we're at war, why should you separate to a 
different program now?
    I'm being too hard on you, I know. But that unmanned combat 
air vehicle for you, won't enter the fleet until 2018. These 
gentleman and I won't be here in 2018.
    We are anxious in making sure that the budgets for the next 
4 or 5--10 years, we hope to be here maybe that long--will meet 
the needs of the people in the services. I think we're causing 
expenses out into the future that are unnecessary and we ought 
to have one program for the Department of Defense on unmanned 
aircraft and I urge you to consider it.
    Do you have anything further, Senator?

                             WAR DEFINITION

    Senator Inouye. One short question. In recent times, in 
many discussions and debates, we hear two phrases, big war, 
small war. Can any one of you tell me what you consider a big 
war, and what is considered a small war?
    For example, more specifically, is Iraq a big war? Is 
Afghanistan a big war? Was the Battle of Panama considered a 
small war? I would like to know what we're discussing.
    General Hagee. I think from a little bit, obviously it 
depends upon who you are. Lance Corporal Hagee, it's a big war, 
regardless of what it is, because he's up there, he's out 
front.
    I think regardless of whether it's the Battle of Falluja or 
whether it's World War II, as you know very well, I think at a 
higher level it's the impact throughout the world and it's the 
amount of resources.
    I would suggest that Iraq and Afghanistan--really Iraq 
right now, are a subset of the long war, which is a war against 
radical fundamentalism throughout the world. The focus right 
now is in Iraq and we're expending, as you know very well, 
Senator, quite a bit of resources over there. And so, I would 
call that a big conflict. Yes, sir.
    Admiral Mullen. Sir, I would chime in basically the same 
way. I think it is tied to sustainment, it is tied to 
resources, it's tied to the kind of combat capability you have 
to deliver over that extended period of time.
    We've certainly got war plans for major conflicts. So in 
that context, at least I think about a big war along those 
lines. I think, at least as I listen to your example, what 
happened in Panama, I would certainly put it in the small 
category.
    We probably have a tendency to think more along the lines 
of both time, capabilities, sustainment, and risk in other 
parts of the world when you are involved in a big way, 
somewhere else. And so I'm consistent with what Mike is saying 
here. I'm comfortable with that description.
    Senator Inouye. Thank you.
    Senator Stevens. Senator Cochran, do you have anything 
further?
    Senator Cochran. I have no further questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Gentlemen, thank you for your testimony. 
We appreciate you being here today and we thank you all for 
your distinguished service to the Nation and the work that all 
of the armed services people under your command do. We're proud 
of them and want to support them as much as possible.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to David C. Winter
               Questions Submitted by Senator Ted Stevens

         NAVY EXPEDITIONARY COMBAT COMMAND GLOBAL WAR ON TERROR

    Question. In January 2006, the Navy stood up a Navy Expeditionary 
Combat Command designed to provide forces that operate in an 
expeditionary environment, and to relieve other forces in the Global 
War on Terror.
    The Command plans to establish three Riverine Squadrons. The first 
Squadron will deploy to Iraq in March 2007 to relieve a company of 
Marines.
    Funding to equip two Riverine Squadrons was requested in the fiscal 
year 2006 Supplemental. The House denied the requested funding citing 
an incomplete concept of operations and the lack of validated equipment 
requirements. As a result, the Navy is considering reducing the number 
of Riverine Squadrons in the near term.
    The 2006 Quadrennial Defense Review (QDR) endorsed the concept of 
the Navy Expeditionary Combat Command.
    In accordance with the Quadrennial Defense Review, the Navy is 
standing up a new Expeditionary Combat Command. What role will this 
Command and its components play in the Global War on Terror (GWOT)?
    Answer. The mission of Navy Expeditionary Combat Command (NECC) is 
to man, train and equip Navy forces to operate in an expeditionary 
environment and to provide the full spectrum of capabilities within its 
assigned forces to extend the Joint Force Maritime Component 
Commander's (JFMCC) tactical and operational reach near coastlines, 
inshore and the riparian environment. NECC will become a force 
multiplier to GWOT by:
  --Aligning current force structure under a single command;
  --Creating a process for irregular warfare development;
  --Capitalizing on synergies of current expeditionary forces; and
  --Task organizing force packages and reducing force closure time.
    When fully implemented, NECC will merge the following existing and 
developing capabilities: Explosive Ordnance Disposal, Cargo Handling, 
Coastal Warfare, Mobile Diving and Salvage, Navy Construction Force, 
Expeditionary Logistics Support Group, Riverine Force, Maritime Civil 
Affairs Group, Expeditionary Combat Readiness Center, Expeditionary 
Training Team, and Expeditionary Security Force.

          NAVY EXPEDITIONARY COMBAT COMMAND EQUIPPING STRATEGY

    Question. Funding for the Navy Expeditionary Combat Command (NECC) 
has been requested in the fiscal year 2006 Supplemental, but not in the 
regular fiscal year 2007 budget. What is the equipping strategy for the 
Navy Expeditionary Combat Command?
    Answer. The Navy requested funding in the DON fiscal year 2006 
Emergency Wartime Supplemental submission for the Riverine Force ($73.1 
million); the Maritime Civil Affairs Group ($6.4 million); the 
Expeditionary Training Team ($2.5 million); the Maritime Security Force 
($6.5 million); Inshore Boat Units, which are components of the Naval 
Coastal Warfare community ($16.5 million); and the NECC Headquarters 
($2.5 million). The primary rationale for the funding requested in the 
fiscal year 2006 Supplemental for the new components of the NECC is 
that the final decision to establish the NECC and the aforementioned 
components was not made until after the submission of the regular 
fiscal year 2007 budget.
    The following summarizes all of the efforts currently in motion and 
planned to fund the Riverine Force (Riverine Group ONE [headquarters] 
and three deployable Riverine Squadrons) in the OPN, WPN, OMN and PANMC 
appropriations. The first Squadron-level operational deployment to the 
U.S. Central Command Area of Responsibility is scheduled for March 
2007. Principal rationale behind requesting procurement funding on an 
accelerated timeline is due to the relatively long delivery projections 
for much of the equipment required by the deploying Riverine Squadrons 
(in many cases delivery forecasts are 12 months or longer, subsequent 
to contract/contract option award).
  --Fiscal Year 2006 Below Threshold Reprogramming.--$7.47 million to 
        begin equipping Riverine Squadron ONE (RIVRON ONE). Fleet 
        Forces Command is also providing OMN funding from existing 
        resources in fiscal year 2006 to support the establishment of 
        RIVRON ONE and the Riverine Group ONE headquarters on an 
        accelerated timeline.
  --Fiscal Year 2006 Above Threshold Reprogramming.--$17.34 million to 
        continue equipping RIVRON ONE, less combatant craft, which the 
        Marine Corps will ``loan'' RIVRON ONE for initial training and 
        the March 2007 deployment. With one exception, funding will 
        ``pay back'' other Navy programs from which required equipment 
        for RIVRON ONE is being redirected.
  --Fiscal Year 2006 DON Emergency Wartime Supplemental Request.--$73.1 
        million to equip RIVRONs TWO and THREE, commands scheduled to 
        sustain the aforementioned initial operational deployment in 
        November 2007 and July 2008, respectively.
  --Fiscal Year 2007 President's Budget.--$22.31 million initially 
        intended to begin establishment of one modestly sized riverine 
        unit. This baseline concept was superceded by a more robust 
        Riverine Force concept subsequent to submission of the PRESBUD. 
        Currently, fiscal year 2007 funding would be used to sustain 
        the Force being stood up in fiscal year 2006.

                      SEALS EFFECT ON END STRENGTH

    Question. The 2006 Quadrennial Defense Review (QDR) addresses a 
significant increase to our nation's Special Operations Forces' (SOF) 
capabilities which will include additional Navy SEALS and additional 
Navy personnel to train foreign military units, and a new Marine Corps 
Special Operations Component.
    Will the Department of the Navy increase its end strength to stand 
up these additional units?
    Answer. The Department of the Navy will not need to increase 
overall end strength to meet the growth of SOF. While aggregate Navy 
strength may be decreasing, Navy's overall force shaping provides for 
growth in certain manpower specialties, including SOF. The Navy has 
already established a specific plan that will add over 650 personnel 
(above a fiscal year 2004 baseline) to the Navy's SOF communities 
through fiscal year 2008, and is developing plans to rapidly, but 
prudently, implement QDR-directed growth increases in SOF and SOF 
supporting communities. This growth is based upon combatant commander 
requirements (U.S. Special Operations Command), as well as the ability 
to fully train, equip, and deliver SEALs and Special Warfare Combat 
Craft crewmen to the fleet.
    The establishment of the Marine Special Operations Command (MARSOC) 
will be accomplished within the current 175,000 Marine Corps end 
strength funded in the fiscal year 2007 President's budget. It should 
be noted that several of the functions performed by the Marines 
assigned to MARSOC (e.g., Foreign Military Training) will, in the 
future, continue to be performed by those Marines, as a component of 
SOCOM, without affecting the end strength requirements of the Marine 
Corps. Furthermore, the Commandant of the Marine Corps has directed the 
creation of a Capabilities Assessment Group (CAG) to ensure the proper 
incorporation of QDR guidance and will look for efficiencies and 
changes within the Marine Corps to enable end strength to be stabilized 
at the QDR level of 175,000. The Group will report its recommendations 
this summer.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                       WATER PURIFICATION PROGRAM

    Question. Mr. Secretary, the Office of Naval Research (ONR) is 
working on a water desalination program in southern New Mexico. The 
goal of this program is to study techniques in reverse osmosis that 
will lead to the production of a transportable water purification unit. 
In turn, these units would be used by Marines engaged in humanitarian 
and disaster relief efforts. They would also help meet the water 
demands of our expeditionary war fighters.
    As a long-time supporter of this program, I was proud to hear of 
ONR's success in this area, with one water purification system being 
transported to Alaska last year to provide fresh water for the Coast 
Guard, and two units being deployed to Mississippi in the aftermath of 
Hurricane Katrina to provide pure water for relief workers.
    Can you tell us a little about these missions and the value of the 
Expeditionary Unit Water Purification (EUWP) program?
    Answer. While the project has no formally designated phases, the 
following activities will be supported during the fourth year that 
congressional enhancements were received. The two EUWP Generation I 
(GEN I) systems, 100,000 gallon per day technology demonstrators, are 
currently located at the U.S. Navy Facilities Engineering Support 
Center, Pt. Hueneme, California, and the Tularosa Basin National 
Desalination Research Facility, Alamogordo, New Mexico. While under 
going testing and data collection, both GEN I systems were requested to 
support Hurricane Katrina relief efforts. The first GEN I was 
positioned near the Biloxi Regional Medical Center to provide potable 
water using water from the Gulf of Mexico as source water. The second 
GEN I was positioned at the Pascagoula Port to provide a Carnival 
Cruise ship a source of potable water. Mission Assignment#DOD-23, 
assigned by NORTHCOM was supported from September 9, 2005 through 
October 19, 2005.
    Question. What are the next goals of this program?
    Answer. A critical effort in the fiscal year 2006 plan is to put 
the Generation I systems through a third party validation program. The 
two selected programs both reside within the Environmental Protection 
Agency (EPA) and are called Environmental Technology Verification (ETV) 
program and Technology Testing and Evaluation Program (TTEP). TTEP is 
an outgrowth of the EPA's successful and internationally recognized ETV 
program. TTEP rigorously tests technologies against a wide range of 
performance characteristics, requirements or specifications. ETV test 
plans are used after being modified to meet homeland security 
requirements.
    The current plan also includes the effort of extending the 
development of science and technology in areas that will increase the 
output of water purification facilities while holding costs constant or 
at a reduced cost. While enhancing ``through-put'' is one of the 
principal objectives, no specific plans have been made to demonstrate 
this technology on a 500,000 gallon per day (gpd) demonstration model. 
Existing plans are to integrate and evaluate promising technology 
achieved, by conceptually designing them into a 300,000 gpd engineering 
prototype model. This effort, designated as Generation II (GEN II) is 
on schedule. On March 8, 2006, a kickoff meeting (Contract Award) was 
held at Pt. Hueneme, California to start the fabrication of the Naval 
Sea Systems Feasibility Demonstrator. The preliminary design of the GEN 
II is suitable for consideration as a replacement for large amphibious 
ship water purification system(s).
    Another part of the fiscal year 2006 plan is to award second year 
options to the promising performers who were selected last year in 
response to Office of Naval Research's, (joint with NASA), Broad Agency 
Announcement (BAA) 05-005 titled, ``Science and Technology in Water 
Desalination and Purification''. Also the EUWP program plans to 
initiate the commercialization (scaling up) of selected technologies 
from BAA 03-011; same title as mentioned above.
    Question. What further successes do you foresee with fiscal year 
2007 funding for this program?
    Answer. All efforts initiated to date will be completed with the 
fiscal year 2006 funding provided.
    Question. Does the Department of Defense have the authority it 
needs to transfer this technology to the public sector?
    Answer. The Expeditionary Unit Water Purification program brought 
together the expertise of many organizations, to include other 
Department of Defense (DOD) Services, Federal Agencies, International 
Partners, and private contractors to ensure the success of this effort. 
The participation of the Bureau of Reclamation (BOR) with their 
extensive background in water use and reclamation is expected to assist 
in the smooth transfer of beneficial desalination technology to the 
civilian desalination market through the direction of test and 
evaluation activities, and the coordination of test results with 
industry. The BOR is a recognized leader in desalination and water 
purification research, both domestically and internationally, and is a 
principle conduit to both the consumer and most suppliers. It is 
expected that the promising technology(s) provided by the EUWP program 
will be utilized by the BOR and the DOD Services.
    Question. What can Congress do to help the Office of Naval Research 
(ONR) make this research and technology more readily available 
commercially?
    Answer. Through the foresight of the Congress in funding this 
effort, ONR has had the opportunity to develop the Expeditionary Unit 
Water Purification program to be useful in a variety of situations, 
such as the disaster of Hurricane Katrina. However, at this time 
additional resources are not required for this program.

                     NAVY HIGH ENERGY LASER TESTING

    Question. The High Energy Laser Systems Test Facility at White 
Sands Missile Range has allowed for much development and demonstration 
of High Energy Laser Weapon programs. It is my understanding that the 
high energy laser testing by the Navy at this facility has met with a 
number of recent successes.
    Can you describe some of these successes for us?
    Answer. The High Energy Laser--Low Aspect Target Tracking (HEL-
LATT) program was created to determine requirements and develop tools 
to support tracking and laser aim point maintenance for the shipboard 
high-energy laser weapon system.
    In fiscal year 2005, ONR funded the completion of the integration 
of new hardware and evaluation of the optical tracking system to 
perform laser aim point maintenance. The objectives of HEL-LATT have 
been to adapt a well-proven AIM-algorithm aided by an appropriate set 
of modern sensors on the Sea Lite Beam Director (SLBD) for precision 
aim point tracking. The potential tracking and aim point solution is 
based on Advanced Tactical Anti-Air technology. SLBD is employing the 
adapted algorithm and its new sensors for a sub-sonic shoot down. SLBD 
is to acquire and track maneuvering targets against the sky, against a 
transitional sky to mountain and finally against the mountain 
backgrounds.
    In an initial series of dynamic tests using the software and track 
processors, high G maneuvering targets against the sky background have 
been tracked in nine out of ten passes, and the laser quality aim point 
was maintained for impressive durations.
    During the past two years, the HEL-LATT program has added three 
passive IR sensors for precision tracking to support the Sea Lite Beam 
Director (SLBD). These are:
  --Mid-Wave Infrared (MWIR) sensor to Automatic Aimpoint Selection and 
        Maintenance (AuASAM) telescope for target acquisition from a 
        Radar handover. This sensor has twice the field-of-view of the 
        Forward-Looking Infrared (FLIR) and has greatly improved 
        sensitivity (Noise equivalent delta Temperature that is 250 
        times lower). This sensor allows the SLBD to acquire a target 
        between 15 to 20 kilometers against a mountain background; the 
        FLIR requires a range of less than 5km to perform this mission.
  --Long-Wave Infrared (LWIR) sensor in the Hot Spot Tracker (HST) port 
        to provide fine tracking during a Mid-Infrared Advanced 
        Chemical Laser (MIRACL) with jitter of a few micro-radians.
  --MWIR sensor in the HST port to improve target lethality during a 
        MIRACL.
    Question. What would fiscal year 2007 funding for High Energy Laser 
Testing allow you to achieve?
    Answer. The PB07 request did not include any funds for this 
purpose. Additional resources could be used for additional tracking 
tests in the presence of a high energy laser beam, and pursuit of 
upgrades to improve tracking algorithms.
    Question. What do you need from White Sands Missile Range and/or 
New Mexico in order to achieve these goals?
    Answer. Missile range time and personnel at WSMR to perform and 
finish the testing.

                      MAGDALENA RIDGE OBSERVATORY

    Question. The Magdalena Ridge Observatory project is an 
international scientific collaboration that involves the Office of 
Naval Research. The observatory will house a 2.4 meter diameter 
telescope and an array of optical/infrared telescopes.
    What is the value of these telescopes to the Navy and the 
Department of Defense as a whole?
    Answer. The military value derives from development of new 
technologies for implementation of the Navy's Prototype Optical 
Interferometer (NPOI), currently providing operational data to the 
United States Naval Observatory. These technologies, such as the 
coupling of adaptive optics with optical interferometry, will increase 
the sensitivity of ground-based interferometers to improve their use 
for accurate star catalogs for navigation and precise timekeeping, and 
for space object monitoring and identification.
    The 2.4 meter telescope will have rapid tracking capability that 
will allow it to slew to any target and acquire data within one minute 
of receipt of notice. The telescope is situated to enable tracking of 
missiles launched from White Sands Missile Range.
    Question. When is this project scheduled to be complete?
    Answer. The single 2.4 meter telescope delivery is on schedule and 
first light is projected in early fiscal year 2007. The delivery of the 
first of the unit telescopes for the interferometer array is scheduled 
for late fiscal year 2007 with the final unit telescope delivery in 
fiscal year 2009.

                         LONG WAVELENGTH ARRAY

    Question. The Long Wavelength Array project includes the Naval 
Research Laboratory and will build a very large aperture radio 
astronomy telescope designed to study the electromagnetic spectrum in 
the areas of astrophysics and space physics. Such an instrument would 
keep the United States on track with instruments being built in Europe, 
Australia, and China.
    What is fiscal year 2006 funding for this project being used for?
    Answer. Initially, fiscal year 2006 funding will be used to define 
the system requirements for the array including dipole array antennas 
and detectors and overall array dimensions. Development of a prototype 
dipole antenna will be carried out and funds will be used to begin site 
preparation for the ultimate long wavelength array.
    Question. What will the project accomplish in the scope of national 
defense and security efforts?
    Answer. The Long Wavelength Array (LWA) will provide unprecedented 
spatial and temporal ionospheric imaging; it will provide unique data 
on the structure of Solar Coronal Mass Ejections (CMEs) for an improved 
understanding of space weather effects including geomagnetic storm 
prediction. This research will help provide improved ionospheric models 
which can affect GPS, communications and targeting systems, geolocation 
of tactical emitters, imaging by space-based radars, satellite 
communications, and over-the-horizon radars.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                           C-130 CANCELLATION

    Question. Secretary Winter, you are undoubtedly aware of the 
controversy over last year's C-130 cancellation and restoration. As a 
former businessman, can you assure the Committee that the new approach 
makes sense and will meet the Marine's requirements for KC-130s?
    Answer. The Marine Corps is currently in a multi-year procurement 
program with the Air Force to procure a total of 34 aircraft by the end 
of fiscal year 2008. A study has just been initiated by OSD (PA&E) to 
examine alternative business cases: refurbishment of F and R model KC-
130 aircraft versus additional new buys of KC-130Js. The Department of 
the Navy will work with PA&E while monitoring KC-130 OPTEMPO and 
availability of F and R model aircraft for refurbishment while being 
mindful of the value of avoiding a production break in the KC-130J 
line. The Department of the Navy views this as a likely fiscal year 
2009 budget issue.

                   SHIPBUILDING AND OPERATIONS COSTS

    Question. Secretary Winter, the Navy is under significant fiscal 
constraints given the high cost of shipbuilding, yet its operating cost 
requirements are not decreasing. How are you planning on alleviating 
some of this pressure?
    Answer. Management of the cost of Navy's shipbuilding program is a 
priority to me. In this context I use the term shipbuilding in a 
holistic way--the hull, mechanical, and electrical (HME) systems plus 
the weapons, C4ISR, and other systems that give the ship its combat 
power.
    The Department of the Navy is actively working with our partners in 
industry and with the Congress to alleviate the cost pressure on 
shipbuilding. We must recognize the need to build a Fleet with the 
capabilities our nation needs at a cost that is sustainable across 
time.
    The Department is responsible for recommending to Congress 
shipbuilding requirements and capabilities such that stable funding can 
be planned and provided for industry across the FYDP. The Department is 
off to a good start with the analysis that underpins the recently 
submitted 30 Year Shipbuilding Plan, a plan that identifies a Navy of 
313 ships at an average cost of $13.4 billion (in fiscal year 2005 
dollars) each year to achieve that plan. The Department is also 
responsible for controlling shipbuilding requirements/capabilities: 
both in new programs and in programs already in production. This is an 
area where, clearly, we must do better--and it will take strong 
leadership on the part of both the senior civilian and uniformed 
leadership to curb the Department's appetite for increased 
requirements/capabilities. Within the Department, our civilian and 
uniformed leadership will need to work side-by-side in this endeavor, 
at all levels of program management and execution, to ensure the 
Department gets the maximum combat value for every dollar invested.
    The Department will also work alongside industry to identify a 
model that supports a viable business base through construction and 
integration of highly capable ships at low rates of production. The 
Department will work with industry to motivate and implement rigorous 
process improvements such as Lean Six Sigma, investments in capital 
improvements that support low rates of production of high capability 
systems, and workforce investments which will ensure the composition of 
skill sets within the industry. Finally, the Department will tailor 
contracts and business arrangements with industry to motivate these 
desired behaviors that are in the national interests.
    The Department will also work closely with Congress to ensure 
funding and a funding profile that supports execution of the 30 Year 
Shipbuilding Plan. Stability in funding at an average of $13.4 billion 
per year (in fiscal year 2005 dollars) is the sine quo non of achieving 
the plan, as it provides the stabilized business base necessary for 
industry to confidently plan for the future and it provides industry 
acceptable risk to implement the changes discussed above.
    In addition to their contribution to shipbuilding, the Navy is 
working several additional initiatives to reduce cost in the areas of 
operations and maintenance. These measures include a ship maintenance 
process called SHIPMAIN, used for maintenance process improvement, a 
revitalized Energy Conservation Program (ENCON), and implementation of 
continuous process improvement at Naval Sea Systems Command (NAVSEA) 
and Naval Air Systems Command (NAVAIR).
  --SHIPMAIN aligns the modernization of surface ships and aircraft 
        carriers into a cohesive, single process. The process combines 
        all modernization information into a single database, Navy Data 
        Environment (NDE). Initial baselining of the modernization 
        database in support of SHIPMAIN avoided nearly $200 million in 
        costs across the FYDP. The SHIPMAIN process also administers 
        Multi-Ship Multi-Option (MSMO) contracts allowing longer terms 
        for the execution agent. MSMO contracts create a stabilized 
        workload for Private Industry, which allows a more stabilized 
        workforce, thus reducing cost.
  --The Energy Conservation Program includes a centralized ENCON 
        website that provides training, guidance, and historical data 
        that Ship Commanding Officers and Engineering Department 
        personnel use to assist in reducing energy costs. The ENCON 
        program includes on-site and VTC training for ship and squadron 
        personnel, and a compilation of the Navy Energy Usage Reporting 
        System (NEURS) data. Operational target incentives are paid by 
        Type Commanders to ships and aircraft squadrons who use less 
        fuel during operations. Another part of ENCON develops and 
        validates shipboard performance of mature energy saving 
        systems/components. This program reduces energy costs for a 
        relatively minor investment.
  --Navy must transform the way it does business within its systems 
        commands to dramatically cut costs. This means improving 
        throughput, reducing new product development cycles, enhancing 
        personnel development, and preserving fundamental values. Both 
        NAVAIR and NAVSEA are aggressively adopting a culture of 
        continuous process improvement with a standardized, disciplined 
        approach that includes industry-recognized best practices of 
        Lean, Six Sigma, and Theory of Constraints; with prioritized 
        application of these methodologies to the right value streams.

     FUNDING FOR RECRUITING AND RETENTION INCENTIVES, BONUSES AND 
                              ADVERTISING

    Question. Secretary Winter, both the Navy and Marine Corps rely on 
supplemental funding to augment recruiting and retention incentives, 
bonuses, and advertising.
    Knowing that the recruiting and retention challenges will continue, 
what is your plan to fund these programs?
    Answer. Funding for recruiting, retention, bonuses and advertising 
requirements to include new missions such as the Marine Corps Special 
Operations Command and the Navy Riverine Force, will be included in the 
baseline budget requests to Congress. However, variations in the 
manpower environment and extraordinary demands for critical skills make 
it impossible to anticipate these costs with complete accuracy. Given 
the uncertainty of the impact of the Global War on Terror (GWOT) on 
recruiting new Servicemembers and retaining existing Servicemembers, 
costs for recruiting and retention incentives, bonuses, and additional 
advertising may be submitted for consideration in future GWOT 
Supplemental Budgets, if circumstances warrant.
    There are unique challenges and stresses on recruitment and 
retention precipitated by the GWOT, particularly with respect to SEALs 
and Medical personnel whose communities are very heavily utilized to 
support the Global War on Terror. To address these challenges, we have 
intensified our efforts to recruit and retain SEALS and Medical 
personnel. Examples of these efforts include raising the enlistment and 
reenlistment bonus and restoring active component recruiters along with 
funding the associated O&MN support costs.

           BASIC ALLOWANCE FOR HOUSING (BAH) BUDGET SHORTFALL

    Question. Secretary Winter, the Navy is facing a $150 million 
shortfall in fiscal year 2006 as a result of the increased rates for 
the basic allowance for housing.
    How is the Navy planning on addressing this shortfall and how can 
they be prevented in the future?
    Answer. There is a shortfall in the Military Personnel, Navy (MPN) 
account attributable to higher than expected BAH rates, which became 
effective in January of this year. The Department of the Navy has 
experienced higher than CONUS wide average BAH increases, due to higher 
costs in our fleet concentration areas compared to other Service 
locations. This shortfall was exacerbated by inclusion of military 
personnel accounts in the across-the-board rescission and other funding 
reductions. To offset these reductions, Navy is considering 
reprogramming from other appropriations as well as reducing certain 
expenditures within the MPN account. For example, Navy is delaying 
shore-to-shore moves of 3,788 Sailors and accepting early voluntary 
separations among some enlisted personnel, consistent with force 
shaping plans.
    To prevent similar shortfalls in future budgets, the Departments of 
the Navy and Defense are working closely on more accurate predictions 
and budgeting. Navy has developed, and is using, more sophisticated 
modeling scenarios to track the changing demographics of our force. The 
Department of Defense, in conjunction with the Runzheimer survey team, 
is making progress on instituting Service-specific rates for projecting 
and budgeting BAH, rather than using a single average rate-of-increase 
for all Services.
                                 ______
                                 
            Questions Submitted to Admiral Michael G. Mullen
               Questions Submitted by Senator Ted Stevens

                 DECLINING BUDGET AND THE 313 SHIP NAVY

    Question. Admiral Mullen has proposed a shipbuilding strategy to 
increase the size of the fleet from 281 ships to 313 ships during the 
next five years.
    The Navy estimates that executing the 313-ship proposal would 
require an annual average of $13.4 billion for new ship construction. 
The current request for ship construction is $11.5 billion.
    However, the Congressional Budget Office (CBO) and the 
Congressional Research Service (CRS) both estimate that the 
shipbuilding strategy will require $18 to $20 billion per year, or 
about 37 percent more. This is primarily due to rising ship costs and 
poor Navy cost estimates.
    We cannot sustain the current level of Defense spending. I 
anticipate flattening or declining budgets over the next few years. 
Under these budget conditions, how likely is it that the Navy will be 
able to increase funding for construction of new ships to achieve your 
new 313-ship plan?
    Answer. It is my intention to invest the funds, within the Navy's 
topline budget, needed to support the 30 year shipbuilding plan 
presented to Congress.
    The Navy is making internal resource allocation decisions necessary 
to quickly increase the shipbuilding account to approximately $13.4 
billion and to maintain that level of funding annually (adjusted for 
inflation). We believe that by strictly controlling requirements and 
holding ourselves to a stable ship construction plan, our shipbuilding, 
current personnel and readiness requirements can be balanced and 
sustained in the face of flattening budgets. This strategy becomes more 
difficult in the face of declining budgets.

                             313 SHIP PLAN

    Question. To fund the 313-ship plan, does the Navy plan to reduce 
other procurement programs?
    Answer. We believe the shipbuilding plan is affordable and 
executable, but it is going to take discipline and a commitment to 
controlling requirements and costs. Navy will look carefully at all 
other procurement accounts and I expect some to be reduced or moved to 
the right. The SCN budget is balanced with all other Navy procurement 
accounts so that all are adequately funded to sustain near-term 
operational readiness and prepare for an uncertain but potentially 
dangerous future.
    The 30-year shipbuilding plan and the requested resources to 
procure it reflect the Navy's commitment to stabilize the industrial 
base while still achieving the appropriate balance of affordability and 
capability in all ship classes.
    Question. What assumptions does the Navy make about its ability to 
control personnel and operation and maintenance spending?
    Answer. We recognize the pressures that personnel expenditures and 
operation and maintenance spending place on the Navy's procurement 
accounts. The Navy has made the assumptions that Operations and 
Maintenance accounts will remain flat for the foreseeable future and 
Military Personnel accounts will show zero net growth in light of 
rising health care costs and anticipated reductions in end strength. We 
are working diligently to balance near-term readiness, personnel 
requirements, and our procurement accounts.

                  UNMANNED COMBAT AIR VEHICLES (UCAV)

    Question. The Department of Defense (DOD) has been thinking about 
developing an unmanned combat aircraft for years. In 1999, the Air 
Force and the Defense Advanced Research Project Agency (DARPA) awarded 
contracts to begin research for capability.
    In December 2004, the DOD decided to move the program from DARPA to 
a joint Air Force and Navy program office. However, in January 2006 the 
decision was changed and now the Navy and Air Force are pursuing 
separate programs to develop unmanned air vehicles.
    The Navy is requesting $239 million for fiscal year 2007. 
Investment over the fiscal year 2007 through fiscal year 2011 period 
will exceed $1.8 billion.
    Are you satisfied that separating the Navy and Air Force programs 
is the best way to proceed in developing unmanned combat aircraft known 
as UCAV?
    Answer. I believe there is enormous value in joint programs but in 
this particular case the Navy requirements are unique enough to warrant 
a separate program from the Air Force. The 2005 Quadrennial Defense 
Review (QDR) recommended restructuring the Joint Unmanned Combat Air 
System (J-UCAS) program to better focus limited resources on developing 
and fielding future unmanned warfighting capabilities.
    Initial Navy Unmanned Combat Aircraft System (Navy UCAS) program 
efforts will be specifically tailored to develop the technologies 
required for carrier-based operations, leading to a carrier 
demonstration in fiscal year 2011. The results of this demonstration 
will inform a decision to develop a low-observable, carrier-based, 
penetrating surveillance/strike platform capable of operating in a high 
threat environment.
    The Navy UCAS program will leverage the technology developed in the 
J-UCAS program to date, and future advancements developed in other DOD 
programs.
    Question. What was the problem with the joint program?
    Answer. The joint program wasn't able to address the unique 
requirements of a carrier-based, Navy Unmanned Combat Aircraft System 
(Navy UCAS). The 2005 Quadrennial Defense Review (QDR) recommended 
restructuring the Joint Unmanned Combat Air System (J-UCAS) program to 
better focus limited resources on developing and fielding future 
unmanned warfighting capabilities, not because of a problem with the 
Joint program.
    Navy is committed to sharing technology developments from the UCAS 
program with the Air Force and other DOD entities to facilitate 
efficient development of complementary unmanned capabilities that meet 
Naval and Joint requirements.
    Question. The current plan won't see Unmanned Combat Air Vehicles 
entering the fleet until 2018. Does this schedule meet the needs of the 
Navy for persistent intelligence, surveillance and reconnaissance?
    Answer. Campaign analysis has shown a need for persistent, 
penetrating ISR capability in the 2015 timeframe. The Navy will 
continue to rely on our stand-off ISR capability and accept some 
warfighting risk until Navy UCAS reaches IOC. At IOC, Navy UCAS will 
provide a carrier-based, low-observable platform able to penetrate the 
battle space and provide persistent intelligence, surveillance and 
reconnaissance.
    Question. What equipment will the UCAV replace?
    Answer. The Navy Unmanned Combat Air System (Navy UCAS) will not 
replace, but rather complement the capabilities of current and future 
Naval aircraft. It will fill gaps identified in the JROC validated 
Joint Strike Enabler Initial Capabilities Document.

                            SEAL RECRUITING

    Question. Does the Navy believe that it can increase its recruiting 
for the additional Navy SEALS without sacrificing quality standards or 
sacrificing the quality of the training?
    Answer. The Navy believes it can maintain the high training 
standards and caliber of its SEAL forces in this time of growth.
    To this end, the Navy will ensure recruiting and accession efforts 
target only those individuals most capable of completing the rigorous 
Basic Underwater Demolition/SEAL (BUD/s) training and contributing to 
the most challenging combat operations.
    BUD/s has the capacity to train over 900 enlisted SEAL candidates 
per year. BUD/s maintains definable and objective standards of 
performance for SEAL selection and training. These combat-proven 
standards will not be compromised as the Navy increases its SEAL 
operator inventory.
    Through a collaborative effort between Navy Recruiting Command and 
Naval Special Warfare Command, we have implemented several new 
initiatives to enhance our selection, monitoring and mentoring of SEAL 
candidates. These initiatives include:
  --Increasing the yearly goal for enlisted SEAL recruits by 27 
        percent;
  --Increasing financial incentives for successful SEAL recruits by 
        over 100 percent;
  --Hiring former SEALs to focus recruiting efforts on the proper 
        candidate pool, and to test, educate and mentor SEAL recruits 
        for success in the Basic Underwater Demolition School (BUD/s).
  --Establishing a specific SEAL monthly recruiting goal for each Navy 
        Recruiting District (NRD) in addition to the aggregated 
        national goal.
  --Designating a SEAL coordinator at each NRD to mentor all SEAL 
        recruits in the Delayed Entry Program (DEP). This is expected 
        to reduce attrition from the DEP and to help motivate 
        prospective SEALS to physically and mentally condition 
        themselves for the challenges they will face when they come on 
        active duty.
  --Establishing a requirement for NRD Commanders to report weekly to 
        Commander, Navy Recruiting Command, on the status of SEAL DEP 
        personnel.
    These measures are intended to increase the number of men who 
successfully complete SEAL selection and training without sacrificing 
the Navy's high standards.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                       SEA-BASED MISSILE DEFENSE

    Question. Admiral Mullen, one of the most successful aspects of our 
nation's missile defense program has been the Navy's sea-based missile 
defense program. I am told that six of the seven tests of this system 
have been successful. In the Pacific, we face several potential missile 
threats. Can you update the Committee on your plans to deploy the sea-
based missile defense program and the role you see for its use in both 
Western Pacific and Hawaii.
    Answer. The Navy is collaborating with the Missile Defense Agency 
(MDA) to develop and field a sea-based missile defense program.
    By the end of calendar year 2007 we will have modified seven 
destroyers to track ballistic missiles and seven destroyers and three 
cruisers to both track ballistic missiles and engage them with SM-3 
missiles. All of these ships are based in the Pacific. Two Pearl 
Harbor-based AEGIS cruisers are capable of firing this new missile--
Lake Erie (CG 70) and Port Royal (CG 73). The San Diego-based AEGIS 
cruiser, U.S.S. Shiloh (CG 67), is currently being so modified and will 
be shifting homeports to the Western Pacific later this year. As the 
Navy continues to develop enhanced missile defense capabilities, we 
will work closely with MDA to develop the most effective operational 
concepts for their use in support of Combatant Commanders and national 
security objectives.

           PACIFIC MISSILE RANGE FACILITY (PMRF) PERFORMANCE

    Question. Admiral Mullen, as you know testing of the AEGIS system 
is done in Hawaii at the Pacific Missile Range Facility. Are you 
pleased with the way these tests have been conducted?
    Answer. We are very pleased with the test and evaluation (T&E) 
capabilities PMRF provides to the AEGIS ballistic missile defense 
program and the RDT&E community. We remain committed to using PMRF as 
our primary test range for AEGIS BMD and the future testing of SM-6.
    We conducted four key T&E events at PMRF during fiscal year 2005, 
including one successful AEGIS Ballistic Missile Defense (BMD) test 
critical to the Navy's development and fielding of a ship-based BMD 
system. Three additional tests have been planned for fiscal year 2006 
at PMRF.

                       RESTORE PRIVATE SHIPYARDS

    Question. Admiral Mullen, the supplemental request includes more 
than $1 billion to restore private shipyards damaged by Hurricane 
Katrina. I have been advised that there may be a problem because 
insurance claims are in dispute. In the meantime, damages aren't being 
repaired. The longer the shipyards aren't fixed, the more it will cost 
the Navy to build its ships.
    Could the Navy pay to fix the infrastructure today and be 
reimbursed from the shipyards after the claims were adjudicated?
    Answer. The Supplemental Section of the fiscal year 2006 DOD 
Appropriations Act appropriated money to pay portions of the 
shipbuilding costs related to Hurricane Katrina. There is no current 
legal or regulatory authority for the Navy to pay costs that are 
actually or potentially covered by a shipyard's private insurance 
policies. However, the Navy believes such payment would set a very 
dangerous precedent for the future. The Navy's position is that it is 
not liable for any costs covered by private insurance. The Navy would 
therefore incur only those costs that were already allocable, allowable 
and reasonable under existing cost accounting principles and contract 
terms and would return as much of the Supplemental funds as possible to 
the Treasury. Consistent with this Navy position, the Conference Report 
language accompanying the Hurricane Katrina funding (Defense 
Appropriations Conference Report 109-359) specifies that the Navy will 
submit a report to Congress certifying that the increased costs to 
contractor funded programs are ``. . . not subject to reimbursement by 
any third party (e.g., FEMA or private insurer) . . .'' The Navy 
provided this certification to the Defense Committees on February 28, 
2006. The costs to fix shipyard infrastructure are subject to 
reimbursement by private insurance, even though the amount is likely to 
be a subject of litigation. Therefore, absent specific statutory 
authority to do so, the Navy is prohibited from using appropriated 
funds to reimburse a shipyard for these private costs.

                          HEALTH BENEFIT COSTS

    Question. Admiral Mullen, the health benefits provided to our 
military and their families have proven to be a useful recruiting and 
retention tool. The Department of Defense is proposing new enrollment 
fees and pharmacy co-pays to address the rising costs of providing 
these benefits. While the majority of these increases affect retired 
personnel, all service members and their families will have new 
pharmacy co-pays.
    Do you foresee this having a negative effect on your service 
members and their families?
    Answer. I am committed to maintaining the quality of our health 
care for our service members and their families, but I also think it is 
reasonable to assume that any rise in out-of-pocket expenses--in any 
Navy program or benefit--will be negatively perceived by some members 
and their families.
    The effect this perception has on recruiting or retention behavior 
is difficult to predict, as such behavior hinges on many factors. 
However, I expect the impact of increasing the cost of pharmacy co-pay 
to be small on our Sailors and their families. Active duty members and 
their families may continue to obtain prescriptions at military 
treatment facilities at no personal expense. Family members may also 
use the TRICARE Mail Order Program with reduced co-pays for generic 
drugs. If, however, the family member chooses to use a retail pharmacy, 
there would be an increase in the co-pay charge.

          HEALTH BENEFIT COST--AFFECT ON RECRUITING/RETENTION

    Question. Admiral Mullen, do you believe these benefits will have a 
substantial affect on recruiting and retention?
    Answer. Recruiting and retention behavior depends upon a great many 
factors and is often difficult to predict, but I do not believe that 
increasing the pharmacy co-pay share for active members and their 
families will have a significant negative impact on recruiting or 
retention.
    The health benefits we deliver will not diminish. Indeed, the 
proposed increase in co-pay fees only serve to ensure that our health 
care system remains the gold standard that it is today. Active duty 
members and their families may continue to obtain prescriptions at 
military treatment facilities at no personal expense. Family members 
may also use the TRICARE Mail Order Program with reduced co-pays for 
generic drugs. If, however, the family member chooses to use a retail 
pharmacy, there would be an increase in the co-pay.
    Historical responses to Navy surveys indicate that our medical and 
dental benefits are one of the primary reasons for staying in the Navy 
among junior and senior Sailors alike. I am committed to making sure 
they remain such an incentive. I do not believe that restoring TRICARE 
enrollment cost sharing proportions, for retirees, to their 1995 levels 
will have a significant negative impact on retention when considered in 
the broader context of the excellent medical and dental benefits 
offered.
                                 ______
                                 
            Questions Submitted to General Michael W. Hagee
               Questions Submitted by Senator Ted Stevens

                    COST ESTIMATE TO RESET THE FORCE

    Question. Continuing operations in Iraq and Afghanistan have taken 
their toll on Marine Corps equipment.
    As a result, Supplemental requests include significant funding for 
equipment reset. Funding for Marine Corps procurement in Supplementals 
is typically two to three times higher than in the regular budget.
    For example, in fiscal year 2005, Congress provided $3.7 billion to 
reset Marine Corps equipment. In fiscal year 2006, Congress provided 
$2.1 billion in a ``bridge fund'' attached to the regular Defense 
Appropriations bill for that purpose. The fiscal year 2006 Supplemental 
requests $3.3 billion for Marine Corps reset.
    The Marine Corps estimates that after approval of the fiscal year 
2006 Supplemental request, it will have a remaining reset bill of $6.5 
billion.
    Resetting equipment is a major challenge for the Marine Corps.
    What is the Marine Corps' strategy for reconstituting equipment 
over the long-term? Is there a cost estimate for reset over the next 
few years?
    Answer. Last summer we evaluated the impact or Operations Iraqi 
Freedom and Enduring Freedom on the entire Marine Corps inventory. 
Using October 1, 2005 as a cut off date, we assessed what would be 
required to ``reset the force'', i.e., restore the Marine Corps to the 
readiness it enjoyed before Operations Iraqi Freedom and Enduring 
Freedom. We took a comprehensive approach that accounted for the 
material condition of equipment in use in the theater of operations, 
the need to restock our prepositioning sites (afloat and ashore), the 
need to replace equipment that had been ``borrowed'' from home 
stations/CONUS-based forces and the requirement to support Iraqi 
Training Teams. The resultant reset cost is the amount of money 
required to reset the force as of October 1, 2005.
    We estimate this total cost to be $11.7 billion. We believe that we 
could execute this funding in two years and have phased our 
supplemental requests accordingly. We cannot execute the entire amount 
in one year due to industrial base limitations. When the resultant 
equipment is delivered, the readiness ``bathtub'' caused by the war 
would be filled.
    We will identify all costs (fuel, personnel, ammunition, spares, 
attrition losses, etc.) incurred after October 1, 2005 in our annual 
Cost-of-War request.
    The Title IX Bridge Supplemental provided $4.4 billion: $2.8 
billion for cost of war and $1.6 billion to reset the force. The 
current Supplemental request before the Congress is for $6 billion: 
$2.5 billion for cost of war and $3.5 billion to reset the force. Our 
total fiscal year 2006 Supplemental request is thus $10.4 billion: $5.3 
billion for the cost of war, which includes $3.6 billion for 
operational costs and $1.7 billion to replace destroyed equipment, and 
$5.1 billion to reset the force.
    Given approval of the current Supplemental request, the Marine 
Corps will need an additional $6.6 billion to complete resetting the 
force, which we will continue to seek through supplemental funding.

             SUPPLEMENTAL FUNDING AND USMC EQUIPMENT RESET

    Question. How long do you plan to pursue Supplemental funding to 
reset Marine Corps equipment? When will you transition the costs for 
reset into the regular defense budget?
    Answer. The Marine Corps requirement to reset the force is $11.7 
billion. We believe that we could execute this funding in two years and 
have phased our supplemental requests accordingly. We cannot execute 
the entire amount in one year due to industrial base limitations. The 
Title IX Bridge Supplemental provided $4.4 billion: $2.8 billion for 
cost of war and $1.6 billion to reset the force. The current 
Supplemental request before the Congress is for $6 billion: $2.5 
billion for cost of war and $3.5 billion to reset the force. Our total 
fiscal year 2006 Supplemental request is thus $10.4 billion: $5.3 
billion for the cost of war, which includes $3.6 billion for 
operational costs and $1.7 billion to replace destroyed equipment, and 
$5.1 billion to reset the force.
    Given approval of the current Supplemental request, the Marine 
Corps will need an additional $6.6 billion to complete resetting the 
force. Since we plan to pursue supplemental funding for the remainder 
of our $11.7 billion total reset requirement, reset costs will not 
transition into the regular defense budget.

                              MV-22 OSPREY

    Question. The V-22 Osprey program has completed final operational 
testing and is authorized to enter full rate production.
    The fiscal year 2007 budget request includes $1.3 billion for 
procurement of V-22 Ospreys. The request funds the purchase of 14 
aircraft.
    The current supplemental request does not include funding for V-
22s. However, General Hagee advocated for funding in the supplemental 
to replace Marine Corps helicopters destroyed and damaged in Iraq and 
Afghanistan. His request was denied by OMB. In the attached letter, 
General Hagee asked for your support for this program in the 
supplemental.
    The V-22 Osprey will replace CH-46E and CH-53D helicopters. Both 
legacy assets are no longer in production and are experiencing 
significant wear and tear in support of the war.
    The V-22 Osprey program has completed final operational testing and 
is authorized to enter full rate production. As you know, I have long 
supported this cutting-edge aircraft.
    Could you provide us a program update and describe how the aircraft 
is performing?
    Answer. The MV-22 Osprey is performing very well; the program has 
flown over 15,000 flight hours since May 2002. The first CH-46 squadron 
(HMM-263) stood down on June 3, 2005 to begin transitioning from the 
Sea Knight to the Osprey. VMM-263 was re-designated as a MV-22 squadron 
on March 3, 2006 at a ceremony at MCAS New River, North Carolina.
    To date 29 Block A aircraft have been delivered and are being used 
to conduct training at VMMT-204 and fleet operational testing at VMX-22 
at MCAS New River. Additionally, 3 Block B aircraft, the deployable 
configuration, have been delivered to VMX-22 for operational evaluation 
and subsequent transfer to VMM-263. VMM-263 will deploy to combat next 
year. The MV-22 will provide the Marines and Sailors who ride in them 
the most capable and survivable assault aircraft available.

                     SUPPLEMENTAL FUNDING FOR V-22

    Question. Why is no funding included in supplemental for V-22s? 
Considering the declining inventory of helicopters the V-22 replaces 
and the wear and tear they are experiencing after four year of combat, 
should V-22s be included in the supplemental?
    Answer. The Marine Corps top unfunded aviation supplemental 
requirement is the MV-22. The Marine Corps has lost a total of 23 
helicopters in support of the war, to include four CH-46s. The only 
active Marine Corps helicopter production line capable of replacing the 
40-year-old CH-46 is the MV-22.
    While it is our intent to field two 12-plane MV-22 squadrons per 
year with the first deployment to Iraq in 2007, budgetary restrictions 
have limited the rate of buy to less than what is needed to smoothly 
transition the force and replace combat losses. Although 15 aircraft 
were originally planned for fiscal year-06, funds were only made 
available for 9 aircraft in the Presidents budget. The MV-22 
operational inventory will not meet the required number of aircraft to 
fulfill our transition plan until fiscal year 2012 with the current 
program of record. Only additional aircraft procurement in fiscal year 
2006-2008 can sufficiently address this shortfall.
    Based upon near-term industrial production constraints, the Marine 
Corps requested $230 million in fiscal year 2006 Supplemental funding 
for the MV-22 Program: $215 million to fully fund three new MV-22 Block 
B aircraft, and $15 million in non-recurring engineering to determine 
the requirements needed to modify eight existing Low-Rate Initial 
Production aircraft into an operational configuration. This request was 
deferred until 2007. Funding of this request is crucial to the success 
of our Marines in both the near and long term.

                MARINE CORPS SPECIAL OPERATIONS COMMAND

    Question. Will the Marine Corps maintain any control over the new 
Marine Corps Special Operations Component, or will this new unit be 
under the exclusive control of the Special Operations Command?
    Answer. Marine Corps Forces Special Operations Command (MARSOC) is 
assigned to and will be under the operational control of USSOCOM. 
USSOCOM will execute its title 10 service authorities over Special 
Operations Forces, relating to MARSOC.
    The Marine Corps will continue to be responsible for the 
traditional training and equipping of Marines before they attach to 
SOCOM.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                       KC-130 INVENTORY OBJECTIVE

    Question. General Hagee, last year in a move related to the 
termination of the C-130 line, the Marine Corps purchase in 2006 was 
first increased to 12, then reduced by DOD when it decided to continue 
production into the future. This year, the request would purchase only 
4 KC-130s.
    Does this new plan make sense and will it allow you to meet your 
inventory objective?
    Answer. The Marine Corps is currently in a multi-year procurement 
program with the Air Force to procure a total of 34 aircraft by the end 
of fiscal year 2008. This number is 17 aircraft short of the inventory 
objective of 51 necessary to support the Marine Corps requirement. Our 
Unfunded Programs List includes a request for $678.7 million to provide 
funding for an additional 8 aircraft in fiscal year 2007 and advance 
procurement for 9 additional aircraft in fiscal year 2008, which would 
allow us to meet our inventory objective.

                     SELECTIVE REENLISTMENT BONUSES

    Question. General Hagee, like other Services, the Marine Corps 
relies heavily on bonuses and other incentives to meet recruiting and 
retention goals. As of January 2006, the Marines have obligated more 
than the appropriated level for selective reenlistment bonuses, and are 
relying on supplemental funds to carry it through the year.
    Could you explain why the fiscal year 2007 budget request also 
underfunds this program from its anticipated expenditures by $30 
million?
    Answer. The Marine Corps' Selective Reenlistment Bonus (SRB) 
expenditures have increased as a result of the Global War on Terrorism 
(GWOT). The fiscal year 2007 budget request for the SRB program is 
based on peacetime requirements supporting an end strength of 175,000. 
SRB requirements above the peace time level in fiscal year 2007 will 
continue to be paid out of supplemental funding as a result of the 
Global War on Terror.

                        RESERVE HEALTH BENEFITS

    Question. General Hagee, many of our colleagues continue advocating 
for increased health benefits for our reservists and their families.
    Is it your impression that there is an unmet need for increased 
benefits?
    Answer. The Marine Corps greatly appreciates the efforts of 
Congress to expand health benefits for our Reserve Marines. However, at 
this time, we do not see a requirement for any additional increases. We 
are currently working with DOD on the development of the implementation 
policy to support the increases offered to TRICARE Reserve Select in 
the fiscal year 2006 NDAA. As I'm sure you are aware, the mechanics of 
implementing and administering the various rules and regulations 
associated with all health benefit programs are very complex. 
Therefore, it is our belief that we should give these programs some 
time to develop and allow us to obtain some data on their impact before 
adding any new benefits or provisions.

                          SUBCOMMITTEE RECESS

    Senator Stevens. This subcommittee will reconvene on 
Tuesday, March 28 to hear from the Department of the Army. The 
subcommittee will stand in recess until that time. Thank you 
very much.
    [Whereupon, at 11:15 a.m., Wednesday, March 15, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Tuesday, 
March 28.]


      DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        TUESDAY, MARCH 28, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:38 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Bond, Shelby, Inouye, and 
Dorgan.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENTS OF:
        HON. FRANCIS J. HARVEY, SECRETARY OF THE ARMY
        GENERAL PETER J. SCHOOMAKER, CHIEF OF STAFF, UNITED STATES ARMY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good afternoon, Mr. Secretary, General. We 
appreciate you bringing these young heroes to meet with us. 
We're happy to see them back, and pleased to see all of you 
here today.
    Our subcommittee today will receive testimony from the 
Secretary of the Army and the Army Chief of Staff. Secretary 
Harvey and General Schoomaker, we do welcome you back to our 
subcommittee, and I look forward to your testimony.
    As we meet today, we're still a Nation at war. Over 110,000 
Army soldiers are serving in harm's way in Afghanistan and 
Iraq. Our men and women in uniform are performing superbly 
under your challenging circumstances. And we're proud of our 
Army and are grateful for their service to the country, as I'm 
sure you are, Mr. Secretary and Commanding General.
    This appropriations cycle poses a number of important 
budgetary issues that will receive considerable debate and 
attention over the next few months. The budgetary challenges 
facing the Army include sustaining current operations, 
recruiting and retaining an All Volunteer Force, recapitalizing 
damaged and destroyed equipment, restructuring into a modular 
force, reposturing our forces around the globe, and fielding 
new technologies to the warfighter. I am told we have men and 
women in uniform in 146 nations as we speak today.
    A critical tool for addressing these issues is the Army's 
fiscal year 2007 budget proposal, which totals $111.8 billion. 
This represents a $12.7 billion increase over last year's 
enacted level. In addition, supplementals continue to increase 
Army spending accounts to pay for operations in Iraq and 
Afghanistan, as well as emerging equipment and soldier 
protection needs. The bridge supplement enacted just 3 months 
ago provided $31.1 billion for the Army. The current 
supplemental under consideration includes $34.5 billion for the 
service, and we're anticipating another supplemental request in 
the near future to help pay for operations during the first few 
months of fiscal year 2007.
    The large question is, Can we sustain this level of 
spending? History tells us we may not be able to do so.
    Mr. Secretary, General Schoomaker, the Army's going to be 
faced with many difficult choices in the near future. This 
afternoon, we're looking forward to hearing about your budget 
priorities and how you're positioning our forces for success 
today, as well as tomorrow.
    Let me turn to our co-chairman for his statement. We're 
proud and honored to have you with us.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman. And I 
join you in welcoming our Secretary, as well as the Chief of 
Staff, General Schoomaker. And I wish to join my chairman in 
welcoming our heroes. Thank you very much for your service.
    Last year, we noted that the Army was in the midst of a 
period of dramatic change while simultaneously sustaining a 
high level of combat operations. We continue on this path as 
you transform the Army with new brigades, including the 
Stryker, while maintaining a large force in Iraq and 
Afghanistan. And as the chairman noted, the cost of these 
efforts, both in stress on the force and monetary resources, is 
understandably higher. One might even question whether it 
remains affordable.
    There is great concern that the pace of overseas 
operations, coupled with the upheaval of transforming the Army, 
is placing a very heavy burden on our volunteer force. We are 
concerned how these two changes will impact recruiting and 
retention, and impact the cost of maintaining this force.
    In the supplemental request presently before the 
subcommittee, we find a request for $3.4 billion to support the 
modular brigades, and an additional $5 billion requested for 
fiscal year 2007. And we have been advised that there are 
shortfalls in your fiscal year 2007 request for recruiting and 
retention activities. At the same time, there has been much 
discussion about how the National Guard fits into the Army 
plans, and whether changes in the force structure or force 
totals are advisable. So, I believe it is obvious that the 
request before the subcommittee contains controversial matters 
which require our attention.
    I'm equally positive that this subcommittee will maintain 
its strong support of the Army and the men and women in 
uniform, especially during these trying times. So, Mr. 
Chairman, I look forward to listening to our witnesses discuss 
the many challenges facing the Army.
    Thank you very much, sir.
    Senator Stevens. Well, thank you.
    Senator Bond, you have a statement?

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Mr. Chairman, I have a lengthy statement that 
I will not give. I'll give a few highlights of it, and anybody 
who wants to, we'll have it in the record, where it can be 
read.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    Secretary Harvey, General Schoomaker, I join with Chairman Stevens 
and Senator Inouye in recognizing the tremendous responsibilities you 
have been given in leading our soldiers in a time of intense conflict 
where the stakes could not be higher for our troops or our Nation.
    I want to comment briefly on three issues that impact Army 
readiness.
    It is my understanding that the Army procurement account currently 
stands at 16 percent of the Pentagon's overall budget which is the 
lowest amount among your sister services. Resources are always scarce 
and especially so in today's environment--so tough choices remain for 
you and this committee as we sort through the Army's and the Pentagon's 
overall budget. I mention this because the Guard and reserve accounts 
are sometimes adjusted in an effort to identify savings. The problem 
arises when accounts are impacted without the full and substantive 
input of Guard and reserve leaders--your Total Force partners. I 
believe you ran into this head-on with the issue of National Guard 
force structure before the ink was even dry on the Administration's 
fiscal year 2007 budget.
    I join with my National Guard Caucus co-chair, Senator Leahy, in 
applauding you for committing to fund fully the Army National Guard at 
an end-strength of 350,000 personnel. If we learned one important 
lesson, it is that the National Guard Bureau is not the only member of 
the Total Force team. The Nation's Governors and their Adjutant's 
General also have a vital role to play in the defense of the Nation, 
both at home and abroad. If we fail to give our Guard leaders a 
substantive role in the decision making process you can rest assured 
that the Congress will hear about it and is prepared to act decisively 
when core programs are threatened.
    This morning I was advised by Lieutenant General's Blum and Vaughn 
that Army National Guard end-strength will reach 337,000 by the end of 
the month and will reach the authorized end-strength of 350,000 by this 
Christmas at the earliest and a year from now at the latest. Betting 
against the Guard's ability to achieve its fully authorized end-
strength might be akin to betting against the George Mason University 
Patriots in this year's NCAA tournament so I'd advise you to watch the 
Guard's recruiting numbers closely so that you can ensure their 
accounts are funded in a manner commensurate with their end-strength.
    Late in December, Senator Leahy and I were successful in convincing 
our Chairman and Ranking Member to add $900 million to Guard accounts 
for homeland response related equipment. You will recall that the Guard 
was in some cases hindered from responding to all the calls it received 
for assistance--not because our Guard forces were not willing but 
because they did not have the necessary equipment. I hope, and trust, 
that the $900 million in funds the Congress added specifically for 
Guard equipment will eventually reach the right Guard accounts and ask 
that you provide my staff with an update on the status of those funds 
at your earliest convenience.
    On the topic of Army Transformation and Modernization, I am 
encouraged by the Army's insistence on sustaining the funding profile 
for Future Combat Systems. As the Congress reviews the relevance of 
specific programs and defense accounts it is imperative that Army and 
its industry partners continue to provide the Congress with updates on 
the overall status of the program to include both successes, challenges 
and failures. The level of sophistication and technology challenges 
resident within Future Combat Systems development is not without 
inherent risk. Yet failure to succeed in this endeavor is not an option 
because as we ask more from our soldiers it is imperative that we 
provide them with the most relevant, reliable and efficient materials 
for waging war on our enemies as possible. Future Combat Systems will 
translate into the decisive defeat of enemies and ensure that more of 
our soldiers return home. That is a goal worth pursuing.
    Finally, I have a question about Airlift and Logistical Support. 
The reason this is an area of concern for me is because portions of the 
C-17 are made in my home state of Missouri which is why I know 
firsthand about the issue.
    As you are fully aware, the Army is heavily dependent upon Air 
Force and the C-17 for its strategic lift. I am told that on Monday of 
last week in Iraq, C-17s achieved the millionth flying hour in 
service--which is equal to a cargo jet flying every minute of every day 
nonstop for more than 114 years. Assets like the C-17 are being used at 
170 percent of what was anticipated and they are carrying 80 percent of 
the cargo in support of the war on terror. Since September 11, 2001, 
the C-17 has flown 358,000 hours, or 59 percent more than originally 
scheduled, partly because of the wars in Afghanistan and Iraq, the Air 
Force said in an article published March 6 2006.
    With the reliance upon the C-17 so apparent I am concerned that the 
Pentagon's decision to limit the size of the C-17 fleet is premature. 
Once we close the line, Army's options for airlift will be severely 
constrained because the costs for reopening the line are prohibitive. I 
cite a Commerce Department report that projects the cost for closing 
and then reopening the line at $4.46 billion. With national security 
policy, and particularly Army and Marines forces, dependant upon the 
principles of rapid deployment and force projection we cannot afford to 
cut corners and pursue logistical airlift capabilities on the cheap.
    It was reported in the November 2005 edition of National Defense 
that ``The Army did away with the C-130 transportability requirement 
and, instead, stipulated that three FCS vehicles must fit in a C-17 
heavy lift cargo aircraft. This would allow for a 24-ton FCS.''
    The article further explains that concerns over the weight of FCS 
vehicles under development precludes them from being transported 
realistically by the smaller C-130 family of aircraft because of the 
need to ``strip down'' these vehicles so they will fit into the smaller 
C-130 aircraft. I can site other articles that mirror the concern that 
the Pentagon's plan to close down C-17 production may be woefully 
premature.
    This leads me to my first question.
    Based on the Army's dependance upon airlift for rapid mobility, the 
high usage rate of the C-17, and the ability this platform has over 
other logistical aircraft to transport the FCS family of vehicles to 
remote areas not accessible by other aircraft--are you confident that 
the Army has sufficient C-17 assets to meet its future logistical 
support needs?
    I have one additional question that regards what I understand is 
the Army's desire to outsource its lodging activities but in the 
interest of time I will submit the question for the record and ask that 
you get back to me.

    Senator Bond. Mr. Secretary and General, I join with the 
chairman and Senator Inouye and recognize the tremendous 
responsibilities you've been giving, leading our soldiers. And 
we welcome those brave men and women back who have been 
overseas. I'm proud to say that my son also has just returned, 
last month, from a year in Fallujah.
    It's my understanding that the Army procurement account 
currently stands at 16 percent of the Pentagon's overall 
budget, the lowest amount among your sister services. As 
resources are scarce, especially so in today's environment, you 
have tough choices facing you, and facing this subcommittee. I 
mention this, because the Guard and Reserve accounts are 
sometimes adjusted in an effort to identify savings. And this 
causes some problems. It causes some problems with Governors, 
with adjutants general, and with, oh, about 80 of us in the 
Senate. And I was pleased to be able to join with Senator Leahy 
and applaud you for committing to full funding of the Army 
National Guard at an end strength of 350,000 personnel. And we 
look forward to working with you on Guard issues.
    On a topic of Army transformation and modernization, I am 
encouraged by the Army's insistence on sustaining the funding 
profile for future combat systems (FCS). And it's imperative 
that the Army's industry partners continue to provide Congress 
with updates, but it is certainly a very appealing and possibly 
lifesaving effect-enhancing effort.
    Finally, about the C-17, you know--we all know how heavily 
dependent the Army is upon the Air Force and the C-17 for 
strategic lift. I'm told that, on Monday of last week in Iraq, 
C-17s achieved the millionth flying hour in service, equal to a 
cargo jet flying every minute of every day nonstop for more 
than 114 years. They're being used at about 170 percent of what 
was anticipated. They are carrying 80 percent of the cargo in 
support of the war on terror.
    With the reliance upon the C-17 so apparent, and I--as an 
amateur, as an outsider, I'm very impressed with what the C-17 
can do, but I'm concerned that the Pentagon's decision to limit 
the size of the C-17 fleet is premature. If we were to close 
the line, the Army's options for airlift would be severely 
constrained, because the costs for reopening the line are 
prohibitive, and there is no other airlift that I believe gives 
you the capacity that you have there. And I will look forward 
to asking a question about that at the appropriate time.
    Thank you.
    Senator Stevens. Thank you.
    Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much. Let me 
thank those who are here to testify, Secretary Harvey, General 
Schoomaker, and others.
    I do want to just mention--I don't know that I'll be able 
to stay for the entire hearing, but I do want to mention one 
issue with respect to Guard and Reserves and the length of 
deployment. I think that, you know, a substantial number of 
Guard and Reserve have been deployed in and out of the Iraq/
Afghanistan theater. And it appears to me now that when active 
duty folks are deployed, it's generally a 12-month period. I 
think the marines, it's 7 months. But the Guard in our State, 
when they are deployed, in--generally speaking, they are gone 
16 months--by the time they leave, go through the original base 
they're going to be assigned to and then get some training, 
then sent overseas, it's about a 16-month deployment. And these 
are citizen soldiers who have jobs, homes, and families. And 
it's sort of a paradox that they would have the longest 
deployment, because the Guard and Reserve, you would expect, 
would have the shorter deployments. So, I think my expectation 
is, that's going to have, and has had, a significant impact on 
retention. And my hope is that you might address some of that.
    I want to thank you, who represent America's soldiers. I 
think all of us on this subcommittee are determined that 
whatever is necessary for them to carry out their mission and 
to meet their responsibilities, we want to provide. We in this 
country, do not ever want to be in a circumstance where we 
would ask soldiers to go abroad and then not provide them 
everything that is absolutely necessary for them to do what we 
ask them to do for our country.
    So, let me thank you and hope, on behalf of this 
subcommittee, you will thank the troops, as well.
    Mr. Chairman, thank you very much.
    Senator Stevens. Thank you.
    Mr. Secretary, we'd be pleased to have your statement. Both 
of your statements, we'll print in the record as though read. 
We leave it to you how long--how much time you take.
    Mr. Harvey. Mr. Chairman, Senator Inouye, and distinguished 
members of the subcommittee, General Schoomaker and I 
appreciate the opportunity to be here today and to offer 
testimony on the posture of the United States Army.
    America's Army is the world's preeminent land power with a 
quality force of over 1 million soldiers supported by nearly 
240,000 Department of the Army civilians. An Army of Active, 
Guard, and Reserve soldiers deployed, forward stationed 
overseas, are securing the homeland, soldiers from every State, 
soldiers from every corner of this country serving the people 
of the United States with incredible honor and distinction.
    We provided the subcommittee the 2006 Army posture 
statement as our written statement, and I would like to take 
this opportunity to briefly highlight some of the Army's key 
initiatives and programs.
    General Schoomaker will also make an oral statement at the 
conclusion of my remarks. I know that this subcommittee, like 
me, appreciates the insight and unique perspective that General 
Schoomaker provides from his distinguished career of service to 
the Nation as a soldier.
    The soldier remains the centerpiece of America's Army. 
General Schoomaker will introduce to you three of those 
soldiers, here with us today, during his remarks.
    The 2006 Army posture statement is a succinct summary of 
the Army plan, which addresses the challenges of today, while 
preparing us for those we will face tomorrow. The Army plan is 
a comprehensive, fully integrated, strategic and operational 
plan which provides the roadmap to, first, build a more capable 
and relevant Army for the 21st century through transformation 
and modernization, and, second, sustain the full range of the 
Army's current commitments, particularly fighting and winning 
the global war on terror (GWOT).

                           ARMY MODULAR FORCE

    On 9/11, the Army's operational capabilities lacked the 
breadth and depth for the long war. We appreciate the 
continuing support of the Congress as the Army shifts its 
center of gravity to provide a broader portfolio of operational 
capabilities to meet the complex challenges of the 21st century 
security environment, particularly irregular, asymmetric 
warfare. For example, we have already completed the first 2 
years of converting the operational Army to a modular brigade-
based combat force. Our objective is 70 brigade combat teams 
(BCTs), or, as we like to call them, BCTs, and 211 support 
brigades. This is an increase of 46 percent in the number of 
BCTs over the current force. To date, we have completed the 
conversion or activation of 19 BCTs to the modular design, or 
approximately 27 percent toward the objective of 70 BCTs. In 
addition, we started the conversion or activation of another 
18.
    Even though the modular force is not complete, it has 
already increased our operational capabilities and established 
the foundation for a rotational force generation model that is 
structured, predictable, and provides more combat-ready units, 
while reducing stress on the force.
    In order to sustain the current mission and continue to 
posture for future commitments, the Army needs the full support 
of the Congress for the Army plan and the Army's request in the 
2007 Presidential budget.

                         FUTURE COMBAT SYSTEMS

    Additionally, beyond the importance of maintaining full 
funding for the modular force transformation, we also want to 
emphasize the importance of full funding for the future combat 
systems program. This is a key modernization program for the 
Army, and is really the first major ground force modernization 
effort in over four decades. Although the word ``future'' is in 
the program title, this is not a program that only exists on 
PowerPoint slides. FCS is becoming a reality today, and 
spinouts of FCS technology to the current modular forces will 
begin in 2008.
    Simply put, the FCS program is the fastest and surest way 
to modernize the Army. Furthermore, it is the only way to 
effectively modernize the Army in an integrated manner.
    The FCS program and the modular force initiative (MFI), in 
conjunction with the full spectrum of other programs in the 
area of research and development (R&D), acquisition, training, 
leadership development, advanced tactics, techniques, and 
procedures, business transformation, as well as the growth of 
the operational Army, will ensure that our overall capability 
to conduct both traditional and nontraditional operations, 
including the global war on terrorism, will continuously and 
methodically increase and improve as we go forward in the 
uncertain and unpredictable 21st century.

                          ALL VOLUNTEER FORCE

    We also need to draw your attention to the importance of 
our efforts, with your support, to sustain an All Volunteer 
Force, including recruiting, retention, and providing a quality 
of life for our soldiers that matches the quality of their 
service. This is the first time in our modern history that the 
Nation has tested the concept of an All Volunteer Force in a 
prolonged war. Full funding and support of Army programs in 
this way is critical to sustain the finest Army in the world.
    Finally, I want to emphasize that the Army plan is a total 
plan to transform the entire Army--Active, Guard, and Reserve. 
2005 reaffirmed to the people of the United States that we are 
truly an Army of one. Simply put, the Army could not perform 
full-spectrum operations without the tremendous contributions 
of the Guard and Reserve. For example, last year the Army 
National Guard had 10 brigade combat teams and a division 
headquarters serving in Iraq, Afghanistan, and the Balkans for 
at least a portion of the year. Despite this overseas 
commitment, the National Guard was still capable of responding 
with 42,000 soldiers in a little over a week to support 
Hurricane Katrina relief operations. And, I might add, there 
were still tens of thousands more Guard and Army Reserve 
soldiers available, if needed.
    Based on the insights of 9/11, homeland defense operations, 
hurricane recovery operations, and lessons learned from the 
global war on terror, the Army plan shifts the focus of the 
Reserve component from a strategic Reserve to an operational 
force and rebalances the Reserve component's force structure to 
the operational skills they need for the 21st century security 
environment. For example, in the current plan the Army National 
Guard will continue to maintain a total of 106 brigades, which 
are beginning to be transformed to the same modular design as 
the Active Army. However, we are changing the organizational 
mix of brigade combat teams and support brigades based on the 
capabilities needed to conduct both their national defense, as 
well as their State, missions. In essence, the Army National 
Guard and the Army Reserve are transforming and modernizing 
from an underresourced standby force to fully equipped, manned, 
and trained operational-ready units.
    Let me close, and give General Schoomaker an opportunity to 
address the subcommittee, by saying that I remain confident 
that with the continued strong support of the Congress, 
America's Army can accomplish its mission and reach our 
strategic goal of being relevant and ready both today and 
tomorrow.
    Thank you.
    Senator Stevens. Thank you, sir.
    [The statement follows:]
Prepared Statement of Francis J. Harvey and General Peter J. Schoomaker
                                                 February 10, 2006.

    We have the confidence of the Nation as we continue to engage in a 
long struggle against global terrorism and the conditions that give it 
life and sustain it. Over a half-million active and reserve Soldiers 
have served overseas in the war on terrorism. More than 600,000 
Soldiers are on active duty today. Almost half of them are deployed, 
serving in 120 countries worldwide in defense of United States 
interests.
    While fighting, we are preparing Soldiers and leaders for the 
challenges that they will face. We continue to transform, to modernize, 
and to realign our global force posture. Our Army continues to evolve 
from a force dependent on divisions to deter and to wage war against 
traditional adversaries, to a force dependent on modular brigades, 
specially designed for the full range of non-traditional adversaries 
and challenges it will face.
    With the support of the President, the Congress, and the Secretary 
of Defense, we have developed and resourced a fully integrated plan to 
best serve the Nation, to deal with the challenges we will face today 
and tomorrow, and to sustain our volunteer Soldiers in this time of 
war.
    To execute this plan, we are depending upon continued Congressional 
leadership in three areas:
  --Obtaining legislative authorities to assure predictable access to 
        our Army National Guard and Army Reserve Soldiers who have 
        become, by necessity, our operational rather than our strategic 
        reserve;
  --Expediting wartime acquisition processes needed to equip and 
        protect our Soldiers; and
  --Of greatest importance, maintaining the support of the American 
        people whom we serve.
    To continue to meet the needs of the Combatant Commanders and the 
Nation, the Army will require the full support of the resources 
requested in the base budget and in supplemental appropriations.
                                         Francis J. Harvey,
                                             Secretary of the Army.
                                       Peter J. Schoomaker,
                       General, United States Army, Chief of Staff.

      PURPOSE AND ORGANIZATION OF THE 2006 ARMY POSTURE STATEMENT

    The 2006 Army Posture Statement describes how the Army is executing 
The Army Plan to meet the challenges of today and to be better prepared 
for those we will face tomorrow. Focusing on the Soldier, our 
centerpiece, the Posture Statement summarizes key implications of the 
21st century security environment. This discussion provides the context 
to examine the Army Vision to accomplish our enduring, 
constitutionally-derived mission.
    The Army Plan consists of four overarching, interrelated 
strategies, focusing on people, forces, training and infrastructure. We 
explain our initiatives, accomplishments, and compelling needs as they 
relate to each of these strategies. We describe transformation, not as 
an end in itself; but rather, how it has helped us to accomplish our 
mission and to realize our vision.
    We conclude with a discussion of risk to underscore our compelling 
needs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This Posture Statement is designed to serve as a primary portal to 
learn about the Army. A listing of helpful Army-related websites and a 
glossary of acronyms are also provided.

             2006 ARMY POSTURE STATEMENT EXECUTIVE SUMMARY

    Soldiers are making enormous contributions and sacrifices while 
serving at the forefront of a long struggle of continuous, evolving 
conflict. Their presence has enabled historic elections in Afghanistan 
and Iraq, and is setting the conditions for democratic institutions to 
take hold. Our Soldiers are also preventing attacks on our Nation and 
responding to natural disasters at home and abroad, while sustaining 
the full range of America's global commitments. At the same time, to be 
ready for the challenges we face today and tomorrow, we are 
accelerating our plan to transform and modernize.
    We are executing The Army Plan to accomplish our mission and to 
realize our vision: to remain the preeminent landpower on Earth--the 
ultimate instrument of national resolve--that is both ready to meet and 
relevant to the challenges of the dangerous and complex 21st century 
security environment. Our plan consists of four overarching, 
interrelated strategies (Figure 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This fully integrated plan is driving change at an unprecedented 
pace. We are becoming a more powerful, more flexible, and more 
deployable force with a broad set of capabilities to deal with the full 
spectrum of challenges we will face. Our improvements will enable our 
Soldiers to sustain the full range of global commitments which extend 
beyond today's current theaters of war. We are improving our ability to 
operate with joint and coalition partners and to perform nontraditional 
operations. We are also developing better ways to manage increasing 
demands for forces and relieve stress on Soldiers, their families, and 
civilian workers to sustain our All-Volunteer force.
    Four key ideas underpin our planning:
  --First, we remain committed to producing units that are ready for 
        the challenges they will face and to overcoming years of 
        underfunding prior to the events of 9/11. We have received 
        unprecedented support to ``buy back'' much needed capability. 
        We cannot, however, fool ourselves by maintaining large numbers 
        of forces on paper that, in reality, lack the people, 
        equipment, training, and support needed to accomplish the 
        missions that they will be assigned. We are determined to 
        support our Soldiers and their families with an improved 
        quality of life that matches the high quality of service they 
        perform for America.
  --Second, we recognize that intellectual change precedes physical 
        change. For this reason, we are developing qualities in our 
        leaders, our people, and our forces to enable them to respond 
        effectively to what they will face. We describe the leaders we 
        are creating as ``pentathletes,'' whose versatility and 
        athleticism--qualities that reflect the essence of our Army--
        will enable them to learn and adapt in ambiguous situations in 
        a constantly evolving environment. We have undertaken a major 
        review of how we train, educate, assign, and develop our 
        military and civilian leaders to ensure that our Soldiers are 
        well-led and well-supported as they deal with complexity and 
        uncertainty for the foreseeable future.
  --Third, reinforced by the American military experience of the 20th 
        century, we believe that our Soldiers' effectiveness depends 
        upon a national commitment to recruit, train, and support them 
        properly. This commitment must be underwritten by consistent 
        investment in their equipment and infrastructure. We remain 
        acutely aware of fiscal constraints; however, our duty to do 
        what is right for our Soldiers, their families, and the Nation 
        remains firm and unwavering.
  --Fourth, we remember our position at the start of the long struggle 
        in which we are engaged. After years of insufficient 
        modernization investments, many of our units were underequipped 
        and not immediately ready for deployment, especially in our 
        reserve units. To meet Combatant Commanders' wartime needs, we 
        pooled equipment from across the force to equip those Soldiers 
        deploying into harm's way. This increased risk in other 
        capabilities, as seen in the Army National Guard during our 
        national response to Hurricanes Katrina and Rita. With help 
        from the President, the Congress, and the Department of Defense 
        through supplemental appropriations, we have addressed many of 
        our equipment shortfalls. We still have much to accomplish to 
        ensure force readiness and to mitigate risk.
    To sustain the current mission, posture for future commitments, and 
maintain risk at acceptable wartime levels, the Army needs:
  --Full funding of the Army request in the 2007 President's Budget and 
        special consideration, in light of wartime demands, for 
        avoiding any reductions to the Army's budget and program. In 
        addition, supplemental funding is required for combat and 
        contingency operations and to continue to reset, repair, 
        recapitalize, and replace battle losses of equipment for 
        several years beyond major deployments. Supplemental funding is 
        needed to overcome the stress on equipment resulting from 
        sustained combat operations in harsh environments. These 
        resources will ensure that the Army is fully manned, trained, 
        and equipped to achieve victory in the war on terrorism. These 
        resources will also enable the Army to maintain the momentum of 
        key programs, while accelerating transformation.
  --Funding to increase Army capabilities and overall capacity as well 
        as support for the legislative authorities and programs needed 
        to assure access to our reserve components--who, by necessity, 
        have become an operational vice a strategic reserve. We must 
        achieve a proper balance of capabilities and skills among our 
        active and reserve forces and continue to build high-quality 
        units to increase capability and ease the strain on our 
        deployed Soldiers.
  --Support and funding to achieve critical recruiting and retention 
        goals needed to grow operational forces. Meeting these goals 
        for our active and reserve Soldiers sustains the quality and 
        effectiveness of our All-Volunteer force.
  --Funding for the Future Combat Systems (FCS) program--to enhance 
        current force capabilities today with ``spin outs'' of 
        available technology--and accelerate more than 300 other 
        modernization programs. Our most critical investment program, 
        FCS will be the Army's first major modernization in over 30 
        years and will better prepare and protect Soldiers for current 
        and future threats. These capabilities will directly benefit 
        our active and reserve components, all United Statesground 
        forces, and our allies that support ground campaigns.
  --Full funding to maintain momentum in building a rotational pool of 
        70 Brigade Combat Teams (BCTs) and more than 200 modular 
        Support Brigades and headquarters. Already well under way, our 
        transformation to become a fully modular force is preparing our 
        Soldiers to conduct sustained operations of the type we see 
        today. In addition, our transformation is increasing the depth 
        and breadth of our capabilities to prepare our Soldiers for 
        tomorrow's challenges, particularly as we evolve to maintain 
        overseas presence with rotational units.
  --Full funding for Army installations and support to execute a 
        carefully synchronized plan to achieve a new global basing 
        posture, while fulfilling the requirements of the National 
        Military Strategy. This plan will make full use of the 
        resources currently apportioned and projected to be recouped 
        through consolidation and closings. Unanticipated costs 
        associated with environmental remediation, renovation, 
        construction, and other areas, may require additional resources 
        in future years (a situation that will require continuous 
        reevaluation). Full funding and continued support for Army 
        installations and quality-of-life programs is required to 
        sustain the All-Volunteer force, now being tested for the first 
        time in a prolonged war.
  --Support for funding and authorities for Army Business 
        Transformation initiatives to achieve targeted efficiencies 
        through management reform, Institutional Army adaptation, and 
        reengineered business practices. These initiatives will free 
        human and financial resources for more compelling operational 
        needs and accelerate other aspects of our transformation.
    A complete, detailed list of our Compelling Needs for 2007 is 
provided in Figure 2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    2007 will be a pivotal year for the Army. We will continue to 
conduct operations while transforming the force, its global 
infrastructure, and all of our supporting business processes. The 
resources provided to the Army in 2007 and beyond will enable the Army 
to maintain the momentum of key programs, while accelerating aspects of 
our transformation.Moreover, this funding will determine our ability to 
continue to accomplish our mission and to be postured to meet future 
commitments.

     21ST CENTURY SECURITY ENVIRONMENT: AN ERA OF UNCERTAINTY AND 
                            UNPREDICTABILITY

    In the four years since the terrorist attacks on the Nation, the 
international security environment has changed dramatically. As a 
result, military commitments and especially the demand for Soldiers 
have increased both at home and abroad. With the support of the 
President, the Congress, and the Secretary of Defense, we have 
increased our capabilities to deal with the challenges we are facing 
today and accelerated our preparation for those we will face tomorrow.
Complex Security Challenges
    The National Defense Strategy identifies an array of traditional, 
irregular, catastrophic, and disruptive challenges that pose threats to 
the Nation (Figure 3). These threats are becoming increasingly complex. 
We no longer face only conventional armies who operate within clearly 
established political boundaries. In addition, we will face enemies 
that employ irregular tactics, terror, and asymmetric warfare. These 
enemies will be increasingly transnational and dispersed.
    Fueled by ideologies that oppose our Nation's bedrock values, al-
Qaeda and other enemies are committed to reducing American global 
presence and to destroying our society. They have publicly stated their 
goal: to gain control in the Islamic world by establishing a unified 
caliphate, stretching from North Africa to Indonesia.
    We are engaged in a long struggle against adversaries who are 
ruthless and unconstrained in achieving their ends. Our previous 
conceptions of security, deterrence, intelligence, and warning do not 
adequately address the threats we now face. To defeat our adversaries, 
who will be neither deterred by nuclear or conventional weapons nor 
defeated in battles with decisive outcomes, we must remain vigilant in 
employing all forms of national and international power--diplomatic, 
informational, military, and economic--in a concerted, integrated 
manner.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Increasing Complexity
    The security environment in which our Soldiers will operate is 
characterized by challenges and uncertainties, including:
  --Progress in the war on terrorism;
  --The pace of democratic reform in the Middle East and elsewhere, 
        especially in fledgling democracies such as Iraq, Afghanistan 
        and the emerging Palestinian State;
  --The ability of existing governments to perform traditional state 
        functions and deny safe haven to terrorist groups;
  --Progress in controlling the proliferation of weapons of mass 
        destruction to state and nonstate actors; and
  --Decisions in four major areas:
    --Defense priorities amidst growing fiscal pressures;
    --Roles and missions of the Armed Forces as defined in the 
            Quadrennial Defense Review;
    --Role of the Armed Forces in defense support to civil authorities; 
            and
    --Pace of implementation of Base Realignment and Closure (BRAC) 
            legislation and Integrated Global Presence and Basing 
            Strategy (IGPBS) plans.
Competing Fiscal Priorities
    The Army will remain engaged around the globe, while operating in a 
constrained fiscal environment. This will continue to limit the 
resources available to accomplish our missions.
            National Budget Trends
    The Office of the Secretary of Defense, Comptroller, projects 2007 
Defense spending will be 3.9 percent of Gross Domestic Product (GDP), 
continuing a downward trend (Figure 4). Defense resources have not kept 
pace with growth in GDP.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Defense Budget Trends
    The allocation of Defense resources has changed over time (Figure 
5) in response to the focus and demands of the National Military 
Strategy. Today, despite providing the bulk of the forces for the war 
on terrorism, the Army receives the smallest share of programmed 
resources. Increasing pressure to reduce the federal deficit, coupled 
with rising fuel, health care, and other costs, may impact the 
resources appropriated to accomplish Army missions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Army Investment Trends
    The bulk of the Army's funds are committed to sustaining people, 
maintaining vital infrastructure, and preparing equipment for combat 
deployment. As a result, our ability to fund investment accounts is 
extremely limited (Figure 6). This creates a perennial tension between 
current and future demands.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Investment Trends
    Since 1990, the Army's share of investment dollars has been 
considerably smaller than that of the other Departments (Figure 7). 
Consequently, the Army has been unable to invest in the capabilities to 
sustain a rising operational tempo and to prepare for emerging threats. 
Supplemental authority has enabled the Army to ``buy back'' crucial 
capability to meet the operational demands of the war on terrorism and 
to improve our ability to sustain the full scope of our global 
commitments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Implications for the Army
    The implications of the evolving security environment are clear.
  --The Nation will continue to be engaged in a long struggle of 
        continuous, evolving conflict that, as in Afghanistan and Iraq 
        today, will manifest itself in complex, traditional, and 
        irregular challenges to include cyberspace attack. These 
        struggles will be waged by Soldiers who will be expected to 
        perform difficult tasks and create decisive outcomes to 
        accomplish the objectives of the National Military Strategy.
  --Our Soldiers must be prepared to deal with the full spectrum of 
        threats. As described in the Army's capstone concept for the 
        future force, they must be able to operate effectively as part 
        of joint, interagency, and coalition teams.
      Therefore, we must continue to improve the strategic 
        responsiveness of our forces and our generating base through 
        improvements in:
    --strategic agility;
    --joint interdependence;
    --speed;
    --survivability;
    --lethality;
    --sustainability;
    --networks to improve situational awareness and command of forces; 
            and
    --information assurance and network security
  --Our Soldiers and units must be prepared to operate with little to 
        no warning. We will no longer have the luxury of partially 
        manning, equipping, or training a unit and relying on 
        significant warning time to mobilize, train, and prepare to 
        deploy. Rather, the units we have designated to be available 
        for deployment will need their full complement of Soldiers, 
        equipment, and training to be ready for immediate deployment 
        from our power projection infrastructure.
    Failure to invest in Soldiers to build the right capabilities--by 
improving our doctrine, organizations, training, materiel, leaders, 
people, and facilities--will increase risk for the Army, the Joint 
Team, and our Nation. Building the capabilities required to hedge 
against the uncertainty of tomorrow will require prudent investments 
today. These investments must be sustained at predictable, consistent 
levels over time. Investing in defense capabilities in this manner 
would reflect a significant departure from historic patterns of 
spending, which have increased America's vulnerability prior to each of 
the major conflicts of the 20th century.

 THE ARMY VISION: RELEVANT AND READY LANDPOWER IN SERVICE TO THE NATION

    The challenges posed by the 21st century security environment drive 
our vision of the force we must become to continue to accomplish our 
mission. The Nation has entrusted us to preserve peace, maintain 
freedom, and defend democracy. We have performed this role for more 
than 230 years. Today, because of the actions of our Soldiers and our 
record of accomplishment, the American people regard the Army as one of 
the Nation's most respected institutions. We will maintain this trust.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               MISSION: PROVIDING FORCES AND CAPABILITIES

    The Army exists to serve the American people, to protect vital 
national interests, and to fulfill national military responsibilities. 
Our mission is enduring: to provide necessary forces and capabilities 
to the Combatant Commanders in support of the National Security and 
Defense Strategies. The Army is also charged with providing logistics 
and support to enable the other Services to accomplish their missions. 
The Army organizes, trains, and equips Soldiers who, as vital members 
of their units, conduct prompt, sustained combat on land as well as 
stability operations, when required.

Accomplishing the Mission Today: Sustaining Global Commitments
    The Army continues to provide Combatant Commanders with a wide 
range of capabilities to prevail in the war on terrorism and to sustain 
our global commitments. These capabilities include support to civil 
authorities in response to threats and crises at home. Our worldwide 
commitments extend far beyond Iraq and Afghanistan. Today, 
approximately 600,000 Soldiers are on active duty (currently 487,000 
active component, 72,000 Army National Guard and 41,000 Army Reserve), 
with 245,000 Soldiers serving worldwide in 120 countries (Figure 8). 
More than 1,700 Army civilians serve side-by-side with them in the 
field. Our Soldiers and civilians perform a variety of missions vital 
to America's national defense. Here at home, more than 13,000 Soldiers 
are on duty specifically fulfilling critical missions to support the 
Global War on Terrorism.
    The Army's operational pace remains high, sustaining obligations 
and continuing trends established during the post-Cold War era. In 
addition to Iraq and Afghanistan, our forward presence continues to 
preserve peace on the Korean Peninsula, the Sinai, the Balkans, and 
numerous other places of strategic importance.
    Whenever and wherever needed, Soldiers continue to answer the Call 
to Duty. During this past year, Soldiers supported civil authorities 
during a variety of disaster relief and recovery missions. More than 
42,000 National Guard Soldiers; 7,300 active component Soldiers; and 
3,500 Army civilians assisted citizens in Louisiana, Mississippi, 
Texas, and Florida after Hurricanes Katrina and Rita. Active and 
reserve aviation units flew thousands of helicopter sorties. These 
pilots and crews saved countless lives while distributing food, water, 
and other supplies. Working closely with state and federal agencies, 
the Army Corps of Engineers provided emergency support and is now 
executing more than $4 billion worth of projects to support recovery. 
Soldiers also provided relief for earthquake survivors in Pakistan. At 
home and abroad, on a daily basis, our Soldiers and civilians are doing 
critical work in service to our country.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the four years since September 11, our National Guard has 
mobilized more than 329,000 Soldiers for both state and federal 
missions. On any given day, the Army National Guard provides vital 
capabilities in virtually every mission area. As of January 2006, more 
than 72,000 Soldiers from the National Guard are mobilized. Besides 
their commitments in Iraq and Afghanistan, National Guard Soldiers are 
protecting the homeland by securing borders, protecting key 
infrastructure, and securing special events such as the Super Bowl. 
They also support other missions of U.S. Northern Command. They are 
preserving peace in the Sinai and in the Balkans. They are also 
establishing the conditions for continued progress in Iraq and 
Afghanistan.
    Since September 11, the Army Reserve has mobilized over 143,000 
Soldiers who, together with their fellow active and National Guard 
Soldiers, have enabled the Army to accomplish its mission at home and 
abroad. The Army Reserve provides vital capabilities across a diverse 
range of mission areas. As of January 2006, more than 41,000 Army 
Reserve Soldiers serve on active duty. The Army Reserve's 98th and 80th 
Divisions (Institutional Training) deployed to Iraq and Afghanistan to 
support U.S. Central Command's training of security forces.

Major Decisions in 2005
    During 2005, the Army made four key decisions to accelerate change 
needed to win today and to continue to prepare for tomorrow's 
challenges.
  --Accelerated the Fielding of the Future Force.--In April 2005, the 
        Army announced refinements of its plan--The Army Plan--to 
        transition continuously from the current force to the future 
        force to realize the Army Vision. This plan guides our efforts 
        to transform the Army into a modular force, while continuing to 
        modernize by fielding Future Combat Systems (FCS) and other 
        technologies. We are leveraging recent combat experiences to 
        train and educate our Soldiers and leaders and provide the 
        campaign and expeditionary capabilities needed to deal with 
        future challenges.
  --Restructured the FCS Program.--In April 2005, the Army restructured 
        the FCS program for two reasons: (1) to improve contractual 
        arrangements with industry and provide a better framework to 
        manage the cost and schedule aspects of this vital program; and 
        (2) to further leverage FCS technologies as quickly as feasible 
        to improve our Soldiers' ability to fight and to protect 
        themselves. By improving control and oversight, these new 
        arrangements are paying dividends now.
  --Established the Business Transformation Initiatives.--In February 
        2005, the Army decided to implement an Army-wide Business 
        Transformation initiative. (We are reviewing all of our 
        business, resourcing, management, and acquisition processes to 
        become more effective, improve quality, reduce cycle time, and 
        achieve cost reductions.) To do so, we are applying the Lean 
        Six Sigma methodology. Just as we are leveraging the lessons of 
        war to improve fighting effectiveness, we are applying relevant 
        corporate best practices to improve our business processes and 
        make best use of our financial, human, and materiel resources. 
        Other key aspects of Business Transformation include: 
        Information Management Systems Portfolio Management, 
        Institutional Army Adaptation, and Business Initiative 
        Councils.
  --Adopted the Army Force Generation (ARFORGEN) Model.--The Army began 
        to implement the ARFORGEN model to ensure all units are fully 
        ready for deployment. This model will establish and coordinate 
        cycles of readiness and training for all active and reserve 
        units. To sustain our ability to execute the National Military 
        Strategy, this model schedules deployment windows for our units 
        while balancing the requirements associated with transforming, 
        modernizing, implementing a new global stationing plan, and 
        other mission demands.

             THE ARMY PLAN TO ENABLE MISSION ACCOMPLISHMENT

    We are executing The Army Plan, consisting of four overarching, 
interrelated strategies, to enable mission accomplishment and to 
achieve the Army Vision over time. This plan accelerates the redesign 
of the forces, support structures, and headquarters that are 
accomplishing our mission today. This plan also guides our initiatives 
to provide the Combatant Commanders the assets to protect the Nation 
today and tomorrow.
    The Army is:
  --Providing relevant and ready landpower for the 21st century 
        security environment;
  --Training and equipping Soldiers to serve as warriors and growing 
        adaptive leaders;
  --Sustaining an All-Volunteer force composed of highly competent 
        Soldiers that are provided an equally high quality of life; and
  --Providing infrastructure and support to enable the force to fulfill 
        its strategic roles and missions.
    We are transforming to create a future force with a broad set of 
capabilities to enable our Soldiers to address strategic problems the 
Nation will face (See Figure 9).
    The benefits of our approach are clearly evident in the attitudes 
and levels of commitment we see in our Soldiers, as well as the 
attributes of our combat formations, the forces that sustain them, and 
the facilities and business processes that generate them from their 
home stations. The combined effects of transformation, modernization, 
innovation, and improvement--reinforced by positive change in the 
attitudes and behaviors that create the culture of our service--are 
helping us to become the force the Nation will need to safeguard its 
peace and freedom in the 21st century.

    ----------------------------------------------------------------

 Examples of Unique Army Capabilities to Support Joint, Combined, and 
                         Interagency Operations
Countering Terrorism
    Assist friends, allies, or partners to conduct military operations 
by providing logistics, command and control, intelligence, protection, 
and other support to the Joint Force.
    Train military and security forces to counter extremist, radical, 
or insurgent elements.
    Provide ground forces (conventional and special operations) to 
sustain large-scale counter-terror and counter-insurgency operations.
    Rapidly deploy substantial numbers of ground forces from strategic 
distances to meet Combatant Commanders' requirements for counter-terror 
or combat operations.
    Conduct extended stability operations.
Defending the Homeland
    Detect and prevent hostile actions against the homeland through the 
presence of the National Guard and the Army Reserve within states and 
communities.
    Support civil authorities in consequence management, disaster 
relief, and other roles including: reinforcing public safety and 
providing logistics, transportation, communications, utilities 
management, engineering, and other services.
Shaping Choices of Countries at Crossroads
    In support of Combatant Commanders, establish relationships with 
foreign leaders, forces, and people through: security cooperation, 
training, humanitarian and civil assistance, medical, engineering, 
exercises, and other national and international programs.
    Seize control and defend key facilities or terrain to preclude 
actions by potential adversaries.
    Conduct expeditionary operations to deter, destroy, or defeat 
potential adversaries.
    Conduct extended campaigns to deter or prevent potential 
adversaries from engaging in protracted conflict with joint or U.S.-led 
coalitions of forces.
Preventing Acquisition of Weapons of Mass Destruction by State and Non-
        State Actors
    Conduct irregular or unconventional warfare in support of the Joint 
Force.
    Deny sanctuary and safe haven for terrorist groups.
    Assist the forces of other nations to conduct operations against 
adversaries seeking to possess or transfer control of weapons of mass 
destruction.

    While the problems we face will evolve, Soldiers' ``boots on the 
ground'' will remain vital to our solutions.

    Source: Strategic Problems drawn from 2006 Quadrennial Defense 
Review, Office of the Secretary of Defense, February 2006.

                                Figure 9

    ----------------------------------------------------------------

    The Army Plan is continuously improving our ability to operate as 
part of the Joint Team, while ensuring our ability to dominate in any 
environment against current, emerging, and unforeseen threats. We 
believe that every dollar spent to build capability for our current 
force is an investment in our future force. Our initiatives are guiding 
our efforts to:
  --Grow innovative, adaptive Soldiers and leaders through training and 
        education programs that build on recent combat experiences and 
        leverage the Training Transformation Program;
  --Adapt the doctrine which guides how we fight, how we sustain our 
        forces, and how we train Soldiers;
  --Create far more capable, strategically deployable brigades that are 
        designed to receive new technologies and equipment as soon as 
        they become available;
  --Increase Soldier and unit effectiveness and protection; and
  --Apply better business practices to free resources to use for our 
        most pressing operational requirements.
    Our ongoing intellectual and cultural transformation is 
dramatically improving how our leaders, Soldiers, civilian workforce, 
and families are adapting to the reality of protracted conflict. This 
transformation is reinforcing the commitment to continuous improvement 
that has taken hold across the Army.

  PROVIDE RELEVANT AND READY LANDPOWER FOR THE 21ST CENTURY SECURITY 
                              ENVIRONMENT

    To support current global operations and prevail in the war on 
terrorism, we are increasing the quality and the effectiveness of our 
essential fighting units, the Brigade Combat Teams (BCTs). We are 
forming a rotational pool of 70 BCTs that will allow us to sustain 
global commitments, surge forces for unforeseen contingencies, and 
reduce stress on Soldiers and equipment. We are also creating the right 
mix of Support Brigades to ensure that our Soldiers receive the 
logistical, engineering, intelligence, protection, aviation, and 
communications capabilities they will need to support the Combatant 
Commanders.
    We are rebalancing the force by placing the right Soldiers with the 
right skills into our jobs and organizations in greatest demand. At the 
same time, we are stabilizing Soldiers, to keep them with their units 
longer, to improve teamwork and reduce stress on families caused by 
frequent moves between posts. We are maintaining momentum in 
transforming and modernizing our formations--through modular 
conversion, pursuit of future combat systems, and fielding other 
advanced technologies. These complementary initiatives will ensure that 
our Soldiers are well prepared to operate in campaign and expeditionary 
settings with our joint and coalition partners.
Support Current Global Operations with Relevant and Ready Landpower
    To sustain a steadily increasing demand for military forces, we are 
building a modular force centered on BCTs. Our modular conversion 
across the active and reserve components is designed to meet the 
demands of the current war, sustain other global commitments, establish 
the organizational structure needed to accelerate modernization, and 
support a new global basing posture that will rely more heavily on 
rotational presence.
    Our plan will create a rotational pool of 70 BCTs: 42 in the active 
component and 28 in the Army National Guard. These BCTs will be 
organized into one of three standard designs: Infantry, Heavy, or 
Stryker. We will support these BCTs with more than 200 active and 
reserve Support Brigades. These Support Brigades will enable the BCTs 
to accomplish a broad range of missions. They will also provide 
essential capabilities to support civil authorities in homeland defense 
missions, including consequence management and disaster relief.
    Our Support Brigades are organized into two categories: Multi-
functional Support Brigades and Functional Support Brigades. The 
multifunctional brigades will perform operational roles including: 
Combat Aviation, Combat Support (Maneuver Enhancement), Sustainment, 
Fires, and Battlefield Surveillance. The functional brigades will 
perform broad support roles on a theater-wide basis including: Air 
Defense, Engineer, Explosive Ordnance Disposal, Military Police, 
Signal, and others.

    ----------------------------------------------------------------

                            Accomplishments
Since 9-11
    Soldiers helped to overthrow two terrorist regimes, rescue two 
nations from oppression, and to liberate over 50 million people.
    More than 144,000 Army Reserve Soldiers, 329,000 National Guard 
Soldiers, and 498,000 active component Soldiers supported Combatant 
Commanders in Iraq, Afghanistan, Guantanamo Bay, the Balkans, the 
Sinai, and elsewhere.
    120,000 National Guard Soldiers and 31,000 Army Reserve Soldiers, 
along with active component Soldiers, helped secure the homeland 
through key asset security, special events security such as the Super 
Bowl, airport security, and Air Force Base security augmentation.
    Began 37 of the 70 planned Brigade Combat Team modular conversions; 
18 of these 37 conversions completed.
    Doubled depot output in just three years to refurbish and reset 
vehicles and equipment for future deployments.
    Extended the life of more than 4,000 HMMWVs and 1,200 aircraft 
through the reset program.
2005
    Soldiers and coalition forces secured vital elections in Iraq and 
Afghanistan where millions voted.
    Two training divisions plus 4th Brigade Combat Teams worth of 
officer and noncommissioned officer leadership trained Iraqi and Afghan 
security forces.
    Soldiers trained and equipped 88,000 Iraqi Security Forces during 
2005, increasing their ranks to 224,000 in 136 battalions.
    Soldiers deployed to South Asia and Southwest Asia to provide 
tsunami and earthquake relief.
    More than 42,000 National Guard Soldiers; 7,300 active component 
Soldiers; and 3,500 Army civilians; complemented with Army Reserve 
aviation and transportation units, provided hurricane relief support 
(including Katrina and Rita).
    Deployed advanced systems to share information and improve 
situational understanding and command of forces for four divisions and 
three Brigade Combat Teams in Iraq and Afghanistan.
    Equipped most deploying units with the Joint Network Node to 
enhance command of forces.
    Advanced $2.2 billion contract for production of 368 Armed 
Reconnaissance Helicopters--the Army's first new manned helicopter 
acquisition since 1983.

    ----------------------------------------------------------------

    Like our theater commands, our corps and division level operational 
command posts and headquarters, Support Brigades will also be converted 
to modular designs. They will be trained, manned, and equipped to work 
directly for each of these headquarters without augmentation of people 
or equipment.
    We are also improving the readiness of our reserve forces that are 
making vital contributions on a daily basis--and have transitioned from 
a strategic to an operational reserve as our global commitments have 
increased. We are working to improve our access to these forces to 
support our strategic requirements. Access will be enabled by reducing 
reserve component overstructure and managing reserve Soldiers in ways 
that will improve assigned strength in each of our units, while 
increasing opportunities for education and special skills training. 
These improvements, coupled with modular conversion, will improve the 
Army's overall ability to provide ready forces and capabilities to the 
Combatant Commanders and to civil authorities in a timely manner.
    In addition, to make best use of our resources, we are both 
rebalancing and redistributing our forces. We are rebalancing to create 
the right mix of units in high demand, and Soldiers with critical and 
high demand skills in each of our active and reserve components. At the 
same time, we are redistributing Soldiers to create the right mix 
between our operational forces and our institutional structures.
  --To assure timely access to the right types of units and Soldiers, 
        we are rebalancing skills within our three components. We have 
        determined the types of units and skills that are in greatest 
        demand in today's environment--including infantry, engineer, 
        military police, military intelligence, Special Forces, 
        chemical, civil affairs, and psychological operations units--
        and have identified over 100,000 positions to rebalance. We 
        have accomplished more than half of this rebalancing and 
        project to be completed by 2011.
  --To sustain increased global commitments, we are also increasing, or 
        ``growing,'' the Operational Army in the active component. Our 
        goal is to grow the Operational Army by 40,000 Soldiers by 2008 
        (from the 2004 baseline of 315,000) to bring our active 
        component operational force total to 355,000 Soldiers. This 
        change will be enabled by military-to-civilian conversions and 
        better management of our Individuals Account.
    The combined effect of rebalancing, redistributing, and growing the 
Operational Army is increasing our overall effectiveness. We are 
improving our ability to provide trained Soldiers in cohesive 
formations to the Combatant Commanders and to support civil 
authorities, while reducing stress on Soldiers and families.
    To support global operations while transforming, we are preparing 
our forces for war--or resetting them--as quickly and efficiently as we 
can. Our reset program is restoring units returning from war to 
required levels of readiness to prepare them for future missions. As we 
reset our units, we are simultaneously converting them to their new 
modular designs. We have reset more than 20 major units. Many of these 
units have already returned to theaters of war in their new 
configurations.
    The Army Plan introduces a new readiness model, ARFORGEN, to manage 
the force and ensure the ability to support demands for Army forces. 
ARFORGEN sequences activities for all active and reserve Army units to 
include: Reset; Modular conversion; Modernization; Manning adjustments; 
Soldier and leader training and education programs; Unit training; 
Employment; and Stationing decisions.
    To sustain global commitments, we will transition units through a 
progression of three sequential readiness pools: Reset and Train, Ready 
(eligible for deployment and exercises), and Available (immediately 
available for world-wide employment). This model establishes a plan for 
scheduled deployment on an Army-wide basis. Through semi-annual 
synchronization conferences, we will organize our forces into three 
Expeditionary Force Packages: Ready Expeditionary Forces that are 
training and preparing for potential future missions; Contingency 
Expeditionary Forces that are ready for employment or exercises but not 
yet deployed; and Deployment Expeditionary Forces executing assigned 
missions.
    Our goal is to be able to generate a continuous output of trained 
and ready forces that will support one operational deployment in three 
years for the active component, and one operational deployment in six 
years for the reserve component. At lower levels of demand, this model 
may allow the Army to support one operational deployment in four years 
for active forces. This new model establishes the basis to bring all 
units to a full state of readiness--with people, equipment, and 
training--before they are scheduled to deploy. It allows the Army to 
accomplish the following critical objectives: Reduce uncertainty for 
Soldiers, families, and the communities that support installations; 
Improve availability of forces for Combatant Commanders; Generate a 
continuous force of 18-19 BCTs, along with all required Support 
Brigades; and Surge up to an additional 15-19 BCTs in response to 
crises.

Build a Campaign-Quality Modular Force with Joint and Expeditionary 
        Capabilities for Today and Tomorrow
    The war on terrorism and the changing paradigm for maintaining 
forward presence have created both the necessity and the opportunity to 
accelerate change from the current to the future force. Our conversion 
to a modular force--one that is carefully balanced between active and 
reserve component BCTs, Support Brigades, and division and corps level 
operational command posts--is well under way. This conversion is 
transforming the Army into a more lethal, flexible, deployable, and 
sustainable force. It is enabling us to shift the center of gravity of 
our capabilities (previously focused primarily on traditional 
challenges) to better address the full spectrum of traditional, 
irregular, disruptive, and catastrophic challenges.
    The combination of transformation to build a modular Army and 
continuous modernization, to field Future Combat Systems (FCS) and 
other advanced technologies, is methodically producing the future 
force.
    FCS is our primary modernization program and most critical 
investment. This program will pioneer the next generation of 
warfighting capabilities which will improve Soldiers' ability to find 
and fight their enemies. FCS includes a new class of manned and 
unmanned air and ground vehicles, interconnected by a modern network to 
better support and sustain Soldiers.
    The program is currently in the developmental phase. The first unit 
fully equipped with manned ground vehicles is projected to achieve 
initial capability by 2014 (and will be able to fight by 2017). When we 
complete our intended fielding plan in 2025, new manned ground vehicles 
will replace 40 to 50-year old tactical vehicles designed in the 1970s 
to defeat Cold War enemies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A significant contribution of FCS is that it will immediately place 
advanced technologies into the hands of our Soldiers that will increase 
their capability and provide greater protection. By integrating 
advanced technologies into our formations in four ``spin outs'' that 
will occur in roughly two-year increments, we will strengthen our 
current forces in distinct ways:
  --The first ``spin out,'' on track for delivery in 2008, will 
        introduce Unattended Ground Sensors, Non-Line-of-Sight Launch 
        Systems, the Intelligent Munitions System, and the Network. 
        These capabilities will enhance Soldiers' understanding of 
        their situation in dynamic, battlefield conditions by promoting 
        a common perspective of enemy and friendly locations on digital 
        maps. This improvement will greatly increase the area that 
        Soldiers can influence and control. The Network will also 
        provide Soldiers with more timely Actionable Intelligence.
  --The second and third ``spin outs,'' are currently on track for 2010 
        and 2012 respectively and will introduce new types of unmanned 
        aircraft systems and ground vehicles for our Soldiers. These 
        technologies will enable Soldiers to employ greater numbers of 
        sensors to see and find their enemies first. These ``spin 
        outs'' will also enable robotic reconnaissance of dangerous 
        areas, mines, and booby traps. Together, they will increase 
        Soldier protection and enhance the precision of their weapons.
  --The fourth ``spin out'' will complete the Network, currently on 
        track for 2014. When completed, this improvement will reinforce 
        the comprehensive efforts now under way to improve the accuracy 
        and responsiveness of the joint weapons systems designed to 
        support Soldiers.
    When whole BCTs are fielded with the full complement of FCS 
systems, these units will be able to generate significantly more 
capability. These FCS-equipped BCTs will contain more fighting vehicles 
and more infantry squads than the units we field today. They will be 
able to generate more capability and control more area with 
significantly fewer Soldiers than today. They will require less fuel, 
supplies, and other logistical support.
    These new capabilities will directly benefit all U.S. ground 
forces, including the Marine Corps and the Special Operations Forces 
from all Services. They will fundamentally alter how we deploy, employ, 
and sustain our ground forces. These capabilities will improve our 
capability to put ``boots on the ground,'' to stabilize contested 
zones, and to support joint and interagency teams.
    The future force comprises more than just FCS-equipped, modular 
BCTs. It includes all of the improvements in strategic agility and 
efficiencies that will result from implementing BRAC and IGPBS 
decisions. These decisions will enable the repositioning of forces to 
better respond to emerging challenges. We will also be able to execute 
much of our enduring overseas presence mission with units that deploy 
from the United States for overseas duty, during rotational windows 
scheduled and managed as part of the ARFORGEN model.
    For both rotational duties and for contingencies, our units will 
rely on pre-positioned equipment. To increase both strategic agility 
and efficiency, we are modernizing our pre-positioned equipment sets. 
We are also reducing the number of variants of our heavy combat vehicle 
fleet from four to two. This initiative will promote standardization, 
reduce the number of systems that we must train active and reserve 
Soldiers to operate, and reduce maintenance costs.

    ----------------------------------------------------------------

                            Compelling Needs

    Full funding of the Army request in the 2007 President's Budget, 
plus the requisite supplemental funding for combat operations to ensure 
Soldiers are fully trained and equipped in the most expeditious manner 
to enhance current force readiness and to achieve victory in the long 
war.
    Resource the Army's requirements for resetting over 50 brigades 
consisting of over 350,000 pieces of equipment including: 615 aircraft; 
7,000 combat vehicles; and 30,000 wheeled vehicles.
    Support the Army's effort in 2007 to grow our operational forces to 
355,000 Soldiers (increase of 40,000 Soldiers), and restructure both 
the Institutional and Operational Army across the active and reserve 
components to meet global commitments now and in the future.
    Fully fund continuous modernization of the current force through 
the Future Combat Systems Program and key supporting programs, 
including increasing Soldier protection, sustaining development of 
advanced technologies, developing the Joint Network Node, LandWarNet, 
and rebalancing active and reserve component units and skills to ensure 
the Army remains the preeminent landpower on earth.
    Sustain momentum in force transformation through modular 
conversions planned in 2007--three active component and seven reserve 
component Brigade Combat Teams, 13 active component and five reserve 
component supporting brigades, headquarters and support units--to 
ensure the Operational Army has relevant combat power for the 21st 
century.

    ----------------------------------------------------------------

    Our commitment to being a learning, adaptive organization is 
evident in our efforts to apply lessons learned from our operations 
both at home and abroad. We are working to develop a future force that 
is better able to fight as part of joint and coalition formations in 
either protracted campaigns or in expeditionary operations and to serve 
the Nation--by examining how to best accomplish traditional and 
nontraditional missions through five major areas of focus:
  --Sustain the Force enables modular Army logistics units to better 
        anticipate requirements and provide rapid and precise 
        capability to Army, joint, and multinational partners. We are 
        improving theater-wide distribution systems and visibility of 
        all of the assets and resources, both deployed and in-transit, 
        needed to support military operations.
  --Actionable Intelligence is providing Soldiers and leaders with 
        expanded situational understanding by distributing intelligence 
        with more speed and accuracy, while providing the means to 
        improve understanding of different languages and cultures.
  --Improve Capabilities for Stability Operations is improving our 
        understanding of how to stabilize areas of operation and 
        support security, transition, and reconstruction operations 
        while continuing to conduct combat operations.
  --Improve Contributions to Homeland Defense is focusing on balancing 
        capabilities in the Active and Reserve Components to ensure the 
        right capabilities are available to address expanded homeland 
        defense requirements and broadening the options available to 
        civil authorities.
  --Increase Army Capabilities to Dominate in Complex Environments is 
        focusing on finding innovative solutions to challenges posed by 
        operations in urban, mountainous, cavernous, and jungle 
        environments while expanding Soldier ability and protection, 
        and enhancing cultural awareness, regional familiarity, and 
        language skills.
    The combination of transformation and modernization, reinforced by 
initiatives of this type, and continued improvements in training 
Soldiers, developing leaders, and improving facilities is producing 
relevant and ready landpower for the 21st century.
    Supporting Initiatives (Addendum C): The areas of focus discussed 
above are reinforced by six initiatives: Develop Operational 
Capabilities in LandWarNet; Execute Major Acquisition Programs; 
Restructure Army Aviation; Enhance Joint Interdependence; Stabilize 
Soldiers and Units to Enhance Cohesion and Predictability; and Leverage 
Science and Technology.
train and equip soldiers to serve as warriors and grow adaptive leaders
    The Army Vision centers on producing Soldiers armed with the 
values, combat skills, and mindset that enable them to serve as 
competent, disciplined warriors who reflect our shared ethos. Our 
training programs, at our home stations, our Combat Training Centers, 
and across our institutional training base are leveraging our combat 
experiences to grow adaptive leaders who are highly skilled, resilient, 
able to thrive in rapidly changing environments, and ready to operate 
with our joint, interagency, and multinational partners. We are 
committed to continuing to equip our Soldiers with the best 
capabilities, weapons, and protection our Nation can provide--
leveraging our national strength to reduce risk to our Soldiers.
Reinforce our Centerpiece: Soldiers as Warriors
    Our Soldiers continue to serve magnificently as we enter the fourth 
year of the war on terrorism. They believe in their mission, the 
Soldier's Creed, and the Warrior Ethos. As evidenced by their service, 
they remain committed to something far bigger than themselves.
    In Iraq and Afghanistan, our Soldiers are consistently defeating 
the enemies of freedom.

    ----------------------------------------------------------------

                            Accomplishments
Since 9-11
    Adapted Combat Training Center training scenarios to match expected 
threats and provided enhanced training challenges to develop adaptive 
leaders.
    More than half of the observer/controllers at our Combat Training 
Centers have experience in Iraq or Afghanistan.
    Greatly improved individual Soldier protection. Today every Soldier 
in Iraq and Afghanistan is issued improved body armor.
    Continued to meet Combatant Commander requirements to up-armor the 
vehicle fleet. To date, over 37,000 light, medium and heavy tactical 
wheeled vehicles have been fielded.
    Equipped 49 Brigade Combat Teams and nearly 500,000 Soldiers with 
state-of-the-art equipment through the Rapid Fielding Initiative.
2005
    Instituted the Combat Action Badge to recognize those Soldiers who 
directly engage or who are engaged by the enemy.
    Implemented standard 39 Warrior Tasks and Nine Battle Drills to 
initial military training for Soldiers of all military occupational 
specialties.
    Expanded training base capacity from 405,000 to 454,000 seats to 
enable growth in combat forces.
    Began implementation of new Officer Education System, including 
Basic Officer Leader Course and Intermediate Level Education.
    Used our experience gained in Iraq and Afghanistan to adapt our 
training bases and Combat Training Centers to provide enhanced training 
on marksmanship, fighting in urban areas, live fire convoy training, 
IED awareness, and working with non-English speaking allies.
    Increased ammunition production more than 400 percent to 1.5 
billion small arms rounds per year to adequately train Soldiers and 
meet operational needs.
    Participated in the Joint Task Force that developed technical 
solutions and provided critical training for ground forces to detect 
and defeat Improvised Explosive Devices.
    Began development of a new Civilian Education System.

    ----------------------------------------------------------------

    They have created the conditions to permit free, democratic 
elections and to reconstruct vital infrastructure and institutions. 
Like the American Soldiers of generations past, today's warriors are 
distinguishing themselves with tremendous acts of courage and valor in 
places such as Baghdad, Samarra, An Najaf, Fallujah, Tal Afar, Mosul, 
and Khandahar.
    Our Soldiers understand the Army's values and personify our ethos, 
demonstrated most poignantly by their willingness to sacrifice all so 
that others may live in peace and freedom. Our Nation must remain 
equally committed to them by providing the capabilities and support 
they need to succeed in their mission.
Train Soldiers
    Our continued commitment to innovative training and education led 
us to enhance the rigor and relevance of Initial Military Training for 
new enlisted Soldiers and officers. Today, every Soldier, regardless of 
specialty, becomes a warrior first. To be better prepared for combat, 
all recruits receive advanced training in marksmanship and livefire 
convoy procedures. Current training draws from recent combat experience 
and emphasizes 39 Warrior Tasks and Nine Battle Drills previously 
required only of infantry Soldiers.
    Our commitment to medical training and readiness has resulted in 
the highest survivability rate in military history. Every Soldier in 
combat carries a new blood-clotting bandage and a new onehanded 
tourniquet. Many are certified as combat lifesavers through extensive 
training. These capabilities combine with highly-trained combat medics, 
tremendous improvements in medical evacuation, and world-class field 
medicine to save lives every day.
    We are strong believers in life-long learning. We are using 
information technology to enhance Soldier and leader education in a 
time of war. Soldiers participate in more than 1,500 online courses to 
improve job proficiency and to work toward civilian degrees. Our Army 
Knowledge Online websites average more than one million visits per day, 
allowing Soldiers and leaders to collaborate and to share information 
regarding the lessons learned from combat and from training.
Enhance the Combat Training Centers
    Just as we have transformed individual Soldier training, our unit 
training has evolved to better reflect the complexity of modern 
battlefields. We have invested in our Combat Training Centers to 
replicate the complex environments--terrain, social, language, and 
culture--in which our Soldiers are fighting. Using these world-class 
training facilities, every unit conducts a Mission Rehearsal Exercise 
before deploying to combat. These exercises feature nongovernmental 
organizations, contractors, media, coalition role players, and hundreds 
of civilians on the battlefield. Similarly, our Battle Command Training 
Program uses state-of-the-art simulation techniques to replicate the 
realities of combat. This program trains deploying division, corps, and 
task force staffs who will serve as joint or coalition task force 
operational headquarters and includes information operations and other 
joint missions they might support or execute in the future.
    We are continuously improving training by providing a mix of live, 
virtual, and constructive training events. This cost-effective 
approach, which uses state-of-the-art simulation tools, improves 
Soldier and unit capabilities and links home station training to the 
joint team. The rigor that we are adding to our Soldier, unit, and 
joint-level training, is reducing risk for our Soldiers by improving 
our predeployment preparation.

Grow Adaptive Leaders
    The complexity of the 21st century security environment requires 
more of Army leaders at all levels. As we have seen in Iraq, 
Afghanistan, Korea, Europe, across the Americas, and in peace 
enforcement operations around the world, the actions of individual 
Soldiers and leaders can have strategic consequences. To be effective 
today and tomorrow, we are growing a new breed of leader--one more akin 
to a pentathlete who is able to rapidly transition between complex 
tasks with relative ease.
    The future environment will demand that Army leaders at all levels 
be multi-skilled, innovative, agile, and versatile. Therefore, we are 
continuing to evolve our training and education systems to grow 
adaptive civilian and military leaders who are comfortable in leading 
during times of change and uncertainty.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recognizing that intellectual change precedes physical change, we 
chartered a task force to Review Education, Training and Assignments 
for Leaders. This task force, now six months under way, is drawing upon 
the ideas and experiences of the finest leaders inside and outside of 
the Army. The task force will recommend changes to assess and improve 
all Army education, training, and assignment processes to produce 
pentathletes.
    Unlike World War I and World War II, when the Army closed the Army 
War College, we have improved our leader education programs while at 
war. At the Army War College and in all of our schools, training 
centers, and doctrine development positions, we are placing recently 
returned veterans into key positions to enhance the relevance of the 
education and training we provide. We are also moving to fully 
implement a new Basic Officer Leader Course (BOLC). Consistent with our 
warrior first approach, this tough, standardized, small-unit leadership 
experience is ensuring that all junior officers, in all of our 
branches, master the skills they will need to lead in combat. We are 
executing similar improvements in all of our officer and 
noncommissioned officer education programs. Our civilian development 
program is enhanced through our Civilian Education System.
Equip Our Soldiers
    Protecting our Soldiers continues to be our highest priority. With 
great support from the Congress, the Department of Defense, and the 
President, we have delivered more than 37,000 up-armored vehicles to 
meet Combatant Commander requirements. Additionally, we continue to 
contribute to the Joint Organization established to defeat our 
adversaries' use of improvised explosive devices. (Figure 10)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We are also exploiting the value of the Rapid Equipping Force (REF) 
to better protect our Soldiers. REF works in partnership with industry, 
academic, and military leaders to support Soldier needs as quickly as 
possible. It provides field commanders with readily employable 
solutions to enhance lethality and survivability. Often using off-the-
shelf and developmental technologies, REF is enabling us to remain 
ahead of an adaptive enemy and to save Soldiers' lives. Examples of 
last year's successes include the deployment of digital translators, 
vehicle scanning systems, and robots able to inspect possible 
improvised explosive devices.
    A similar program to increase Soldier capabilities is the Rapid 
Fielding Initiative (RFI). RFI has equipped nearly 500,000 Soldiers 
since its inception. RFI accelerates the fielding of commercial, off-
the-shelf systems to produce state-of-the-art capabilities. RFI 
provides a specific set of equipment to every Soldier, and a set of 
additional items to Soldiers assigned to BCTs. The Training and 
Doctrine Command is using combat lessons learned to maintain the 
currency of the items we supply. We plan to complete fielding these 
items to all operational forces by September 2007.

    ----------------------------------------------------------------

                            Compelling Needs

    Support and funding to implement the findings of the Review of 
Education, Training, and Assignments for Leaders, examining all 
pertinent policies and programs with a view to creating military and 
civilian ``pentathletes'' able to lead effectively amidst the 
complexity and uncertainty of the 21st century security environment.
    Continue to support Army initiatives to sustain Soldier, leader, 
and unit training development and provide stability for Soldiers and 
their families.
    Continue to support the Rapid Fielding Initiative to complete the 
goal of equipping all operational forces (active and reserve component) 
by September 2007.
    Maintain funding support for equipment modernization programs that 
speed state-of-the-art force protection systems and weapons to our 
Soldiers in the field.

    ----------------------------------------------------------------

    Supporting Initiatives (Addendum C): The areas of focus described 
above are reinforced by three supporting initiatives: Support Joint 
Improvised Explosive Device Defeat Organization (JIEDDO); Expand 
Cultural Awareness and Language Capabilities; and Develop Joint 
Training Capabilities.

 SUSTAIN AN ALL-VOLUNTEER FORCE COMPOSED OF HIGHLY COMPETENT SOLDIERS 
           THAT ARE PROVIDED AN EQUALLY HIGH QUALITY OF LIFE

    We owe our success to the versatile young Americans who answer the 
Call to Duty. This is the first time in our modern history that the 
Nation has tested the concept of an All-Volunteer force during a 
prolonged war. We are executing a full range of initiatives and 
incentives to recruit and retain high caliber citizens to man our 
active, reserve and civilian ranks. Caring for Soldiers and Army 
families through tangible quality of life programs provides a sense of 
belonging and sustains motivation for continued service. Improving 
Soldier and family housing reflects our commitment to providing a 
quality of life that matches the quality of our Soldiers' service to 
the Nation.

Recruit and Retain the All-Volunteer Force
    We have maintained our All-Volunteer Army by recruiting dedicated, 
high-quality Soldiers and then retaining them well beyond their initial 
obligations. While the recruiting environment for America's young men 
and women is competitive, we will not compromise standards as we 
temporarily increase the size of the Army by 30,000 Soldiers. Our 
recruiting goal this year exceeds 186,000 Soldiers for all three 
components. This annual goal compares to about 140,000 recruits for all 
of the other Services combined.

    ----------------------------------------------------------------

                            Accomplishments
Since 9-11
    Exceeded combined active and reserve retention goal each year.
    Built over 24,000 barracks spaces and modernized over 9,000 
existing spaces through the Barracks Modernization Program.
    Privatized 59,500 sets of quarters at 26 different installations 
through the Residential Communities Initiative to improve family 
housing.
    Continued to state-of-the-art health care as they return from 
theater.
    Established a Well-Being framework to integrate, resource, and 
measure quality-of-life programs for Soldiers and families.
2005
    Achieved 106 percent of the combined active and reserve retention 
goal.
    Increased recruiting and retention incentives programs.
    Assisted Family Support and Readiness Groups from company to 
division-level. Developed Virtual Family Readiness Groups.
    Implemented the U.S. Army Wounded Warrior Program (formerly 
Disabled Soldier Support System) to synchronize Army programs that care 
for severely disabled Soldiers.
    Established a community-based Child and Youth Services Program for 
child care, youth development, and school transition to support 160,000 
Army Reserve youths.
    Implemented a $250 million Barracks Improvement Program to upgrade 
substandard Soldier barracks.

    ----------------------------------------------------------------

    Last year was a challenging recruiting year. However, we finished 
strongly, exceeding the monthly goals for the last four months by more 
than 400 Soldiers per month in the active component. This trend 
continued into the new recruiting year in all three components. To 
achieve success this year, we have expanded advertising, increased the 
number of recruiters, and augmented numerous incentive programs. We 
recently initiated a new program, Unity of Effort, to recruit former 
members of the Armed Forces. This program features enlistment bonuses 
and, in many cases, reinstatement of previous rank. We are optimistic 
that our efforts, reinforced by Congress and the Nation's support, will 
result in meeting our recruiting goals for this year.
    The Army is retaining Soldiers at tremendously high levels. Since 
2002, while fighting the war on terrorism, we have surpassed our 
combined Army retention goals each year. In 2005, we exceeded our goal 
by more than six percent. We reenlist two out of every three eligible 
Soldiers who reach the end of their term of service during a given 
year. We are particularly proud that one out of every two first-term 
Soldiers decide to reenlist. In a time of war and a high operational 
pace, we believe this achievement is indicative of the high quality of 
leadership that our Soldiers experience in their units. Our Soldiers 
value the tradition of service to the Nation and appreciate the 
opportunity to contribute in a meaningful way.
    The continued support of spouses, parents, veterans, and the 
employers of our reserve component Soldiers plays a huge role in 
recruiting and retaining the All-Volunteer force. This support has a 
direct effect on the pride and morale of each of our Soldiers. In May 
2005, to recognize the role and contributions of key influencers in our 
society, we established the Freedom Team Salute Program. To date, we 
have received requests to commend almost one million spouses, parents, 
veterans, and civilian employers.

Care for Soldiers and Army Families
    We continue to work to assure Soldiers and their families that they 
will be taken care of and all their needs will be met. Caring for 
families plays a vital role in sustaining a national commitment to 
serve and requires both the attention of leaders and the application of 
resources.
    Army Well-Being programs provide leaders a variety of ways to care 
for Soldiers and their families. We have integrated numerous quality-
of-life functions into a comprehensive well-being framework that 
enables us to focus resources, measure success, and address the needs 
of an Army at war. Our objective is to sustain the fighting strength of 
our Army while providing for the individual needs of Soldiers and 
families.
    To assist Family Support and Readiness Groups at all levels, we 
have developed Virtual Family Readiness Groups. We have expanded child 
care programs on installations and in communities that have deployed 
Army National Guard and Army Reserve units. The Army Reserve 
established a Child and Youth Services Program to facilitate access to 
child care, youth development, and student support. The new Deployment 
Cycle Support Program helps families to understand and cope with the 
stress of deployments. Our Army Spouse Employment Partnership program 
has placed over 11,000 spouses in positions with major corporations and 
State and Federal agencies. We are currently working on a school 
transition program to help families and communities affected by BRAC 
decisions. These are just a few of the many ways that we care for 
Soldiers and families.
    Health care is another critical aspect of caring for our Soldiers 
and their families. The Army provides world-class health care for 3.5 
million beneficiaries, on the battlefield and at hospitals and clinics 
worldwide. To honor our obligation to care for Soldiers and families, 
we continually look for ways to improve health and well-being. The U.S. 
Army Wounded Warrior Program, formerly known as the Disabled Soldier 
Support System, provides sustained care for our severely wounded 
Soldiers. This program provides continuous and comprehensive transition 
and support services for our Soldiers until they are returned to duty 
or for up to five years after medical retirement. This program 
exemplifies our commitment to honor the Soldier's Creed by ``never 
leaving a fallen comrade.''

Improve Soldier and Family Housing
    We are committed to providing quality housing for our Soldiers. 
Housing for single and married Soldiers has been improved significantly 
as a result of the Barracks Modernization Program and Residential 
Communities Initiative (RCI).
    To improve substandard living conditions across our installations, 
we committed $250 million to an immediate Barracks Improvement Program. 
As part of a longer-term Barracks Modernization Program, we will have 
funded 85 percent of our barracks modernization by the end of this 
year. We have programmed funding through 2009 to modernize our 
remaining barracks spaces. In addition, 45 percent of barracks for our 
recruits at our training centers will be modernized by 2011. Using 
vital supplemental funding, we also initiated a program to modernize 
the barracks used by Army Reserve and Army National Guard Soldiers 
during their annual training.
    Through RCI, we are providing better family housing for our 
Soldiers by privatizing 82,000 homes at 42 installations. This program 
leverages private investment capital to improve housing at a much 
faster rate than traditional methods of financing and contracting for 
military construction. When completed in 2010, over 90 percent of Army 
housing in the United States will have been privatized. We have also 
constructed more than 3,600 family homes and renovated 6,300 existing 
homes using traditional military construction.
    Improved housing, in barracks and quarters, provides Soldiers and 
families with a quality of life that recognizes their service to the 
Nation. These programs have a positive, enduring effect on Soldiers' 
morale, and contribute immeasurably to our ability to sustain our 
volunteer force.
    Supporting Initiatives (Addendum C): The above areas of focus are 
reinforced by the following three supporting initiatives: Continue Army 
One Source; Establish Multi-Component Family Network; and Execute Child 
and Youth Services School Transition Support.

    ----------------------------------------------------------------

                            Compelling Needs

    Support and funding to achieve critical recruiting and retention 
goals. Meeting these goals for all components will ensure the quality 
of our All-Volunteer force.
  --Achieve an active component recruiting goal of 80,000 and retention 
        goal of 64,200; an Army National Guard recruiting goal of 
        70,000 and retention goal of 34,900; and an Army Reserve 
        recruiting goal of 36,500 and retention goal of 16,900.
  --Continue support of Army initiatives to provide predictability and 
        stability for Soldiers and their families in both the active 
        and reserve components.
  --Full funding and support for quality-of-life programs to sustain 
        the All-Volunteer force, now being tested for the first time in 
        a prolonged war.
  --Support housing initiatives to provide quality housing for Soldiers 
        and families at installations impacted by Base Realignment and 
        Closure and the Integrated Global Presence and Basing Strategy.

    ----------------------------------------------------------------

 PROVIDE INFRASTRUCTURE AND SUPPORT TO ENABLE THE FORCE TO FULFILL ITS 
                      STRATEGIC ROLES AND MISSIONS

    The infrastructure that the Army maintains plays a vital role in 
supporting the Joint Force. We are adjusting our global footprint to 
improve readiness at each of our installations. To free resources for 
more compelling operational needs, we are reengineering every one of 
our business processes. At the same time, we are completely 
transforming our infrastructure, consisting of installations, depots, 
and arsenals--and the information network that connects them--to 
reflect the deployment requirements and global commitments of the 21st 
century security environment, while becoming dramatically more 
efficient.

    ----------------------------------------------------------------

                            Accomplishments
Since 9-11
    Created the Installation Management Agency to unify the business 
structure of Army installations and to create uniformly high standards 
of quality for Soldiers and their families.
    Developed a strategic stationing plan that synchronizes decisions 
of Base Realignment and Closure, Integrated Global Presence and Basing 
Strategy, Army Modular Force initiative, and the demands and realities 
of the Global War on Terrorism.
    Optimized Power Projection Platforms to mobilize and deploy over 
500,000 Soldiers to support the Global War on Terrorism.
2005 \1\
    Awarded the General Fund Enterprise Business System contract to 
enhance the management of financial resources.
    Planned and implemented an Army-wide Business Transformation 
initiative based on the Lean Six Sigma methodology to reduce the cost 
of the business side of the Army.
    Identified and began initial implementation of substantial 
structural changes to the institutional base of the Army.
    Implemented a strategic management system to measure Army 
performance and ensure optimum allocation of resources.

    \1\ Several continue into 2006.

    ----------------------------------------------------------------

Adjust Global Footprint to Create ``Flagships of Readiness''
    The Army is moving units and transforming posts through an effort 
that we call ``Stationing.'' In 2007, we will reposition major elements 
of our operational force (Figure 11). At the same time, we will 
establish the environmental foundation and initiate the renovation and 
construction needed to reposition schoolhouses, headquarters, and other 
support activities. Our stationing effort will posture our forces, 
logistics activities, and power projection infrastructure to respond to 
the demands of a complex, uncertain future as efficiently and 
effectively as possible.
    We have produced a plan that integrates BRAC decisions, the IGPBS 
plan, and the Modular Force initiative. This plan allows us to divest 
Cold War era infrastructure and create the infrastructure required for 
the foreseeable future. We are consolidating activities by leveraging 
information technology and advances in supply chain management. We are 
also completely reengineering our business processes to eliminate 
waste.
    This consolidation will yield tremendous savings over time. Our 
plan reduces overhead costs by streamlining the installation staffs, 
contract support, and infrastructure that will support units and 
activities at their new locations. We are exploiting this opportunity 
to become more efficient and more effective as we implement our 
stationing plan.
    Stationing involves more than merely opening, closing, or 
realigning functions. It requires balancing military, economic, and 
strategic necessities to determine the scope and timing of closures, 
consolidations, construction, renovation, unit activations, and unit 
deactivations. We have scheduled all of these activities to occur in 
ways that will enhance the flow of forces to and from current global 
commitments.

    ----------------------------------------------------------------

                     Major Stationing Moves in 2007
    1st Brigade, 1st Armored Division moves from Germany to Fort Bliss.
    212th Fires Brigade moves from Fort Sill to Fort Bliss.
    17th Fires Brigade moves from Fort Sill to Fort Lewis.
    Stryker Brigade Combat Team 7 activates at Fort Lewis.
    Battlefield Surveillance Brigades activate at Fort Hood and at Fort 
Bragg.
    Support Brigades (Maneuver Enhancement) activate at Fort Irwin and 
Fort Polk.

                               Figure 11

    ----------------------------------------------------------------

    Our stationing plan and requirements for funding, construction, 
renovation, and environmental remediation are guided by a set of key 
goals: Use existing infrastructure to reduce cost and excess capacity; 
Minimize use of temporary facilities; and Place priority on barracks, 
housing, motor pools, ranges, and training facilities to ensure that 
our Soldiers are properly prepared for the challenges they will face.
    While positioning the Army to better respond to the 21st century 
security environment, we are simultaneously working to ensure that our 
Soldiers and families enjoy the benefits of installations that are 
truly ``Flagships of Readiness.''
    The quality of our installations remains critical to accomplishing 
our mission. Our depots, training bases, and home stations enable the 
Army to: Build, train, deploy, and sustain our operational forces; 
Reset and regenerate combat power of returning forces for future 
missions; Provide homes, health care, essential support, and much of 
the quality of life that our Soldiers and families enjoy; and Provide 
the workplace for our civilian workforce of more than 230,000 people 
that is performing an increasingly important role in accomplishing the 
Army's wartime mission.
    Since 2001, the Army has made tremendous progress in enhancing 
training and generating combat power in time of war. Despite 
improvements, the Army still requires significant resources to overcome 
years of insufficient investments in its installations and 
infrastructure. We are committed to reducing our facilities 
recapitalization rate to meet the Department of Defense 67-year goal. 
If resourced, our stationing plan will produce installations better 
able to train and prepare our forces for future missions. Our plan will 
also provide a quality of life that our Soldiers and families deserve, 
and help to sustain the All-Volunteer force.
Implement Business Transformation Initiatives
    We are fundamentally changing how the Army conducts business. Our 
goal is to streamline or eliminate redundant operations to free 
financial and human resources to redirect to our core warfighting 
missions. We are: Improving our processes to repair equipment and reset 
our forces; Reengineering our manufacturing and administrative 
processes; Outsourcing, where it makes sense; Seeking to make best use 
of economies of scale in all of our contracted services; Applying 
information technology to improve support and eliminate functions where 
possible; and Achieving cost savings in software and hardware while 
pursuing enterprise-level solutions in our networking practices.

    ----------------------------------------------------------------

                            Compelling Needs
    Support to execute a carefully synchronized plan to achieve a new 
global basing posture while fulfilling the requirements of the National 
Military Strategy. The requirements of this plan (for renovation, 
construction, environmental remediation and other costs) will exceed 
the resources currently apportioned for base realignment and projected 
to be recouped through consolidation and closure.
  --Support Army efforts to synchronize Integrated Global Presence and 
        Basing Strategy, Base Realignment and Closure, and stationing 
        of modular units.
  --Support funding to achieve a 67-year facilities recapitalization 
        rate.
  --Maintain support for 2007 military construction requirements in 
        accordance with the Army Modular Force initiative, Base 
        Realignment and Closure, Integrated Global Presence and Basing 
        Strategy, and other Department of Defense guidance.
    Support for funding and authorities for Army Business 
Transformation initiatives to achieve targeted efficiencies through 
management reform, Institutional Army adaptation, and reengineered 
business practices. These initiatives will free human and financial 
resources for more compelling operational needs.

    ----------------------------------------------------------------

    Across the Army, we are reengineering all of our business processes 
to achieve greater efficiency, improve quality, decrease cycle time, 
and reduce cost. The method we are using, Lean Six Sigma, has already 
produced a marked improvement in manufacturing and repair processes at 
all of our depots within the Army Materiel Command. Once fully 
implemented across the Army, with full adherence to labor laws and 
other administrative requirements, we will replicate these successes 
across the Army in all our activities.
Develop the LandWarNet Institutional Infrastructure
    We are investing in information technology at our installations and 
reserve component facilities to lay the foundation for fielding 
LandWarNet. The Army's portion of the Global Information Grid, 
LandWarNet compromises both infrastructure and services. It moves 
information through a seamless network to better support our combat 
forces and the institutional structures that generate them. Our 
information technology infrastructure will enable operational forces to 
``reach back'' for data, such as repair part visibility, intelligence 
and other support, and innovations such as telemedicine. This same 
technology is improving our ability to manage business.
    Supporting Initiatives (Addendum C): The areas of focus discussed 
above are reinforced by three supporting initiatives: Execute Base 
Realignment and Closure; Improve Global Force Posture; and Improve 
Medical Infrastructure.
     balancing risk: the tension between current and future demands
    The Army has always experienced a tension between current and 
future demands, perhaps more now than ever before. Consistent 
investment in current and future readiness is needed to: Ensure that 
the size and mix of our components and capabilities are in balance; 
Enhance our global posture, agility, and readiness to conduct 
expeditionary operations on short-notice; and Organize, man, train, and 
equip our Soldiers to win today and tomorrow.
Meeting Today's Demands While Preparing for Tomorrow
    The Army has adapted to fight the war on terrorism following a 
decade of insufficient modernization investments. At the start of 
combat operations, many of our units were under-equipped and not 
immediately ready for deployment, especially in our reserve components.
    To meet Combatant Commander requirements, we had to aggregate 
equipment from across the force to fully equip those Soldiers deploying 
into harm's way. As a result, we significantly reduced the readiness of 
many units to prepare others for combat.
    This readiness decision was especially evident in the Army National 
Guard during our national response to hurricanes Katrina and Rita. With 
help from the President, the Congress, and the Department of Defense 
via supplemental appropriations, we have been provided the means to 
address many of our equipment shortfalls and readiness requirements, 
yet we still have much to accomplish.

    ----------------------------------------------------------------

                 Army Actions to Mitigate Risk in 2005
Operational Risk
    Funded our reset program to repair over 7,000 tracked and wheeled 
vehicles and over 550 helicopters;
    Completed the modular conversion of 11 Brigade Combat Teams, 
including one Stryker brigade that will deploy this year; and
    Implemented the ARFORGEN model to allow the Army to sustain a 
commitment of up to 18-19 Brigade Combat Teams with the ability to 
surge an additional 15-19 Brigade Combat Teams on short notice.
Future Challenges Risk
    All tactical vehicles in Iraq and Afghanistan that operate away 
from forward operating bases have up-armored or add-on armor 
protection. Nearly 2,400 tactical wheeled vehicles do not have missions 
off of forward operating bases and are not armored; and
    Restructured the Future Combat Systems program to ``spin out'' 
advanced technologies to Soldiers as they become available, rather than 
waiting for total system fielding.
Force Management Risk
    Continued modular force conversions, enlarging the pool of 
available units to reduce the stress on the force;
    Continued military-to-civilian conversion to free up Soldier 
positions from the Institutional Army to the Operational Army;
    As a component of the ARFORGEN, initiated lifecycle management of 
11 Brigade Combat Teams to keep Soldiers in units longer, improve unit 
readiness and cohesion, and provide greater predictability for Soldiers 
and their families; and
    Created a stationing plan to better posture the force for 
deployments and other global commitments.
Institutional Risk
    Implemented business transformation initiatives to improve how the 
Army does business and consequently reduce cost;
    Awarded the General Fund Enterprise Business System contract to 
allow better financial management;
    Created a stationing plan to improve strategic responsiveness and 
invest in our most critical installations; and
    Invested in LandWarNet to improve each installation's ability to 
manage information and better support operational forces.

    ----------------------------------------------------------------

    To manage risk within acceptable levels during wartime, the Army 
requires:
  --Full funding of the Army request in the 2007 President's Budget and 
        special consideration, in light of wartime demands, for 
        avoiding any reductions to the Army's budget and program. In 
        addition, supplemental funding is required for combat and 
        contingency operations and to continue to reset, repair, 
        recapitalize, and replace battle losses of equipment for 
        several years beyond major deployments. Supplemental funding is 
        needed to overcome the stress on equipment resulting from 
        sustained combat operations in harsh environments. These 
        resources will ensure that the Army is fully manned, trained, 
        and equipped to achieve victory in the war on terrorism. These 
        resources will also enable the Army to maintain the momentum of 
        key programs, while accelerating transformation.
  --Funding to increase Army capabilities and overall capacity as well 
        as support for the legislative authorities and programs needed 
        to assure access to our reserve components--who, by necessity, 
        have become an operational vice a strategic reserve. We must 
        achieve a proper balance of capabilities and skills among our 
        active and reserve forces and continue to build high-quality 
        units to increase capability and ease the strain on our 
        deployed Soldiers.
  --Support and funding to achieve critical recruiting and retention 
        goals needed to grow our operational forces. Meeting these 
        goals for our active and reserve Soldiers sustains the quality 
        and effectiveness of our All-Volunteer force.
  --Funding for the FCS program--to enhance current force capabilities 
        today with ``spin outs'' of available technology--and 
        accelerate more than 300 other modernization programs. Our most 
        critical investment program, FCS will be the Army's first major 
        modernization in over 30 years and will better prepare and 
        protect Soldiers for current and future threats. These 
        capabilities will directly benefit our active and reserve 
        components, all U.S. ground forces, and our allies that support 
        ground campaigns.
  --Full funding to maintain momentum in building a rotational pool of 
        70 BCTs and more than 200 modular Support Brigades and 
        headquarters. Already well under way, our transformation to 
        become a fully modular force is preparing our Soldiers to 
        conduct sustained operations of the type we see today. In 
        addition, our transformation is increasing the depth and 
        breadth of our capabilities to prepare our Soldiers for 
        tomorrow's challenges, particularly as we evolve to maintain 
        overseas presence with rotational units.
  --Full funding for Army installations and support to execute a 
        carefully synchronized plan to achieve a new global basing 
        posture, while fulfilling the requirements of the National 
        Military Strategy. This plan will make full use of the 
        resources currently apportioned and projected to be recouped 
        through consolidation and closings. Unanticipated costs 
        associated with environmental remediation, renovation, 
        construction, and other areas, may require additional resources 
        in future years (a situation that will require continuous 
        reevaluation). Full funding and continued support for Army 
        installations and quality-of-life programs is required to 
        sustain the All-Volunteer force, now being tested for the first 
        time in a prolonged war.
  --Support for funding and authorities for Army Business 
        Transformation initiatives to achieve targeted efficiencies 
        through management reform, Institutional Army adaptation and 
        reengineered business practices. These initiatives will free 
        human and financial resources for more compelling operational 
        needs and accelerate other aspects of our transformation.
    The Army is committed to producing units that are ready for the 
challenges they will face tomorrow and to overcoming years of 
underfunding prior to the events of 9-11. We have received 
unprecedented support to ``buy back'' much needed capability. We 
cannot, however, fool ourselves by maintaining large numbers of forces 
on paper that, in reality, lack the people, equipment, training, and 
support needed to accomplish the missions they will be assigned. We are 
determined to support our Soldiers and their families with an improved 
quality of life that matches the quality of the service they perform 
for America.
    Building the capabilities required to hedge against the uncertainty 
of tomorrow will require prudent investments today. These investments 
must be sustained at predictable, consistent levels over time--a 
departure from historic patterns of spending which have increased our 
Nation's vulnerability at the outset of each of the major conflicts of 
the 20th century. As George Washington stated, ``To be prepared for war 
is one of the most effective means of preserving peace.'' Consistency 
in funding, even as the war on terrorism ebbs and flows, is absolutely 
essential to the Army's ability to preserve peace and freedom for the 
Nation.
              preserving peace and freedom for the nation
    Guided by the Army Vision, we are accomplishing our mission today 
while building the future force--of Soldiers, leaders, modular forces 
and institutional support structures--to do so tomorrow.
    We remain resolute in our determination to preserve peace and 
freedom for America. To identify, learn, and adapt to new challenges, 
we continue to focus on tough questions that will remain at the center 
of the defense debate:
  --What are the strategic requirements of the 21st century? What 
        decisions must we make now to fulfill our Title 10 obligation 
        to ensure the Army, as part of the Nation's Armed Forces, is 
        best prepared to defend U.S. interests in the face of 
        traditional, irregular, catastrophic and disruptive challenges?
  --How can we best prepare our leaders to become multi-skilled 
        ``pentathletes'' able to operate confidently and successfully 
        amidst the challenges and uncertainties we will face?
  --Are joint land forces (Army, Marines, and Special Operations 
        Forces) properly sized, structured, trained, and oriented to 
        provide the capabilities needed to perform the missions that 
        the Nation will require?
  --What additional actions are required to ensure that our forces are 
        organized, trained, manned, and equipped to be relevant to, and 
        ready for, the challenges they will face?
  --How do we ensure that our physical infrastructure (installations, 
        depots, arsenals, and the network that connects them) best 
        support our mission? How do we balance our resources to: 
        Provide quality of life to sustain our volunteer force; 
        maintain deployment facilities (air, ground, sea, rail, cargo, 
        and other facilities) to support Combatant Commanders' 
        timelines; and establish a training base to prepare our 
        Soldiers and units for the challenges they will face?
  --How can we best leverage the human and financial resources we have 
        been provided to ensure that we remain the world's preeminent 
        landpower--ready to meet and relevant to, in capabilities and 
        mindset, the challenges we will face?
  --What will be the impact of protracted conflict on the All-Volunteer 
        force? What combination of quality of life, compensation, 
        incentives, service options, and other tools will be required 
        to recruit, retain, and sustain the concept of the All-
        Volunteer force for the future?
    With the support of the President, the Congress, and the Department 
of Defense, we are developing the capabilities and the capacity to 
sustain our global commitments and to prevail in the war on terrorism. 
We need your continued support to meet the needs of the Combatant 
Commanders and our Soldiers, who answer the Call to Duty by 
volunteering to serve the Nation in this time of war.
                                Acronyms
    AC--Active Component
    ARFORGEN--Army Force Generation
    ARNG--Army National Guard
    ASEP--Army Spouse Employment Partnership
    AW2--U.S. Army Wounded Warrior Program
    BCT--Brigade Combat Team
    BOLC--Basic Officer Leader Course
    BRAC--Base Realignment and Closure
    CBRNE--Chemical, Biological, Radiological, Nuclear and High Yield 
Explosives
    CTC--Combat Training Center
    DOD--Department of Defense
    FCS--Future Combat Systems
    FTS--Full Time Support
    FY--Fiscal Year
    GBIAD--Ground Based Integrated Air Defense
    GDP--Gross Domestic Product
    HMMWV--High Mobility Multipurpose Wheeled Vehicle
    IED--Improvised Explosive Device
    IGPBS--Integrated Global Presence and Basing Strategy
    JIEDDO--Joint Improvised Explosive Device Defeat Organization
    JTF--Joint Task Force
    MFO--Multinational Force and Observers
    NDAA--National Defense Authorization Act
    OEF--Operation Enduring Freedom
    OIF--Operation Iraqi Freedom
    O&M--Operations and Maintenance
    QDR--Quadrennial Defense Review
    RC--Reserve Component
    RCI--Residential Communities Initiative
    RDA--Research, Development, and Acquisition
    REF--Rapid Equipping Force
    RFI--Rapid Fielding Initiative
    SAPI--Small Arms Protective Inserts
    SBCT--Stryker Brigade Combat Team
    TOA--Total Obligation Authority
    UAS--Unmanned Aerial Systems
    USAR--United States Army Reserve
    WMD--Weapons of Mass Destruction
                   Addendum I (Helpful Army Websites)
    The following websites provide greater information on various 
topics:
    The Army Website: This site is the most visited military website in 
the world, averaging about 7 million visitors per month or 250 hits per 
second. It provides news, features, imagery, and references.
        http://www.army.mil
    The Army National Guard: Provides information about the Army 
National Guard.
        http://www.arng.army.mil
    The United States Army Reserve: Provides information about the Army 
Reserve.
        http://www.armyreserve.army.mil/usar/home
    Army Families Online: This site provides information and links to 
other support programs that support our Soldiers and their families.
        http://www.armyfamiliesonline.org
    Wounded Warrior Program: This site provides information on the 
Army's Wounded Warrior Program which provides support for severely 
wounded Soldiers and their families. It can be found through the Army 
Families Online website at
        http://www.armyfamiliesonline.org
    Deputy Chief of Staff for Personnel, G-1: For information on 
personnel issues.
        http://www.armyg1.army.mil
    Deputy Chief of Staff for Logistics, G-4: For information on Army 
logistics.
        http://www.hqda.army.mil/logweb
    Chief Information Officer, G-6: For information on Army Information 
Management.
        http://www.army.mil/ciog6
    Deputy Chief of Staff for Programs, G-8: For information on 
materiel integration.
        http://www.g8.army.mil
    Future Combat Systems: For information on the Future Combat Systems 
program.
        http://www.army.mil/fcs
    Army Logistics Transformation Agency: For information on Army 
logistics transformation.
        http://www.lta.army.mil
    Army Medicine: For information on Army medical programs.
        http://www.armymedicine.army.mil
    Army Posture Statement: For the web-based version of this year's 
Army Posture Statement and previous years versions.
        http://www.army.mil/aps
    Army Modernization Plan: Provides a detailed overview of the Army's 
organizational and materiel modernization efforts.
        http://www.army.mil/features/MODPlan/2005
       Addendum J: Additional Information on Army Related Topics
    We have provided additional information on the following topics in 
the CD-ROM and web-based versions of the 2006 Army Posture Statement. 
They are available as in-text links and may be accessed through this 
addendum either on the CD-ROM or the Web.

    Actionable Intelligence
    Active Component/Reserve Component Rebalance
    Adapting the Major Army Command Structure
    Add-on Armor for Tactical Wheeled Vehicles
    Army Barracks Modernization Program
    Army Capabilities to Dominate in Complex Environments
    Army Career Intern Program
    Army Community Service
    Army Energy Strategy for Installations
    Army Environmental Programs
    Army One Source
    Army Prepositioned Stocks
    Army Reserve
  --All-Volunteer Force and the Army Reserve
  --Army Reserve Child and Youth Services Program
  --Army Reserve Education Services
  --Army Reserve Employer Relations
  --Army Reserve Facility Management Transformation
  --Full-Time Support Revalidation
  --Regional Personnel Service Centers
  --Reserve Components Separate Competitive Categories for Officer 
        Promotions
  --Selected Reserve Incentive Program
  --Sexual Assault Prevention and Response Program
  --Trainees, Transients, Holdees and Students Account
  --Voluntary Selective Continuation of Alerted and Mobilized Selected 
        Reserve Lieutenant Colonels and Colonels
    Army Retention Program
    Army Spouse Employment Partnership
    Army Well-Being
    Army's Capstone Concept for the Future Force
    Base Realignment and Closure Decisions for the Army in 2005
    Basic Officer Leader Course
    Battle Command
    Business Transformation
    Campaign Quality Force
    Child and Youth Services School Transition Support
    Civilian Aides to the Secretary of the Army Program
    Combating Weapons of Mass Destruction
    Combined Force Interoperability through Security Cooperation
    Concept Development and Experimentation
    Cultural Awareness and Language Capabilities
    Defense Integrated Military Human Resources System
    Defense Support to Civil Authorities
  --Avian Flu Pandemic Preparation
  --Establishment of Army Forces North
  --Hurricane Katrina Response
  --Special Events for 2005
    Deployment Cycle Support Program
    Expeditionary Capabilities
    Freedom Team Salute
    Future Combat Systems
    Future Combat Systems Manned Ground Vehicle Development
    Global Force Posture
    Information Assurance and Network Security
    Installation Design Standards
    Integrated Global Presence and Basing Strategy
    Interceptor Body Armor
    Joint Improvised Explosive Device Defeat Organization
    Joint Interdependency
    Joint National Training Capabilities
    Joint Tactical Radio System
    LandWarNet and the Global Information Grid
    Life Cycle Management Initiative
    Live, Virtual, Constructive Training Environment Integration
    Major Acquisition Programs
  --Future Combat Systems
  --Black Hawk Utility Helicopter
  --Medium Extended Air Defense System
  --Chinook Cargo Helicopter
  --Longbow Apache Attack Helicopter
    Medical and Dental Readiness
    Medical Infrastructure Requirements for Army Transformation
    Military-to-Civilian Conversions
    Modular Conversion
    Modular Force
    Multi-Component Family Network
    Naming Convention Decisions
    National Security Personnel System
    Rapid Equipping Force
    Rapid Fielding Initiative
    Recruiting an All-Volunteer Force
    Red Team Education and Training
    Reset
    Residential Communities Initiative
    Restructuring Army Aviation
    Review of Education, Training, and Assignments for Leaders
    Science and Technology
    Soldier's Creed
    Spiraling Technology into the Current Force
    Stability Operations Capabilities
    Stabilizing Soldiers and Units to Enhance Cohesion and 
Predictability
    Sustainable Range Program
    Sustaining the Force
    U.S. Army Combat Training Center Program
    U.S. Army Wounded Warrior Program
    Unity of Effort
    Up-Armored Vehicle Program
    Utilities Privatization
    Virtual Family Readiness Group
    Warfighter Information Network--Tactical
    Warrior Tasks and Battle Drills

    Senator Stevens. General Schoomaker, we'd be happy to have 
your statement.

                STATEMENT OF GENERAL PETER J. SCHOOMAKER

    General Schoomaker. Chairman Stevens and Senator Inouye and 
other distinguished members of the subcommittee, it's a 
pleasure to be with you today.
    I'm going to limit my opening statements to some 
introductions, if I might. But I would like to start out by 
telling you, again, how proud I am to be able to serve with 
these great soldiers and their family members that we have 
today.
    And, in direct answer to Senator Dorgan, which I'd be glad 
to expound upon later, if you want, we now, after 4 years at 
war, which is, by the way, longer than World War II--we now 
have deployed approximately 52 percent of our regular force. 
And we are doing a study to look at the Reserve forces, as 
well, to figure it out.

                               RETENTION

    Of those soldiers that we have deployed overseas on either 
Operation Iraqi Freedom (OIF) or Operation Enduring Freedom 
(OEF), 75 percent--in excess of 75 percent of those soldiers 
that have deployed have re-enlisted and are remaining in the 
current Army. As you look at the deployments increasing--yeah, 
this sounds counterintuitive, but as they increase, so does the 
percentage of those that remain, all the way up to--I have 
charts here that--from the study that indicates that we have 
soldiers--for instance, soldiers on their fifth deployment, 93 
percent of them have remained in the Army. So, there is a 
dynamic taking place here that's extraordinary, in my view, 
that speaks very well to the dedication of these soldiers and 
their professionalism.
    I also believe it talks to the effect of our 
transformational efforts to balance the Army and to achieve 
some predictability and increased readiness in the force as we 
go forward. So, I'd be glad to talk more to that later.
    I would like to introduce those that are present with us 
today that I think we should recognize for your situational 
awareness. First of all, we have Lieutenant General Clyde 
Vaughn, all the way to the right, who is the Director of the 
Army National Guard, and Lieutenant General Steve Blum, who is 
the Chief of the National Guard Bureau. Next to Steve is 
Lieutenant General Ron Helmly, who is the Chief of the Army 
Reserve. You all recognize yourself there, so that--then 
directly behind me--I know they're posted all over all the post 
offices around the country, so you probably recognize them--
somebody not in the post office, but they should be, is 
Lieutenant General Jerry Sinn, who is directly behind me. He is 
the military deputy for the Army Budget, who is very, very 
important to us.
    I would--it's with a great deal of pleasure that I now 
introduce three soldiers, one Active, one Guard, one Reserve. 
And these soldiers are typical and representative of those 
soldiers that we've got serving in our great Army. And I'd like 
to start with Sergeant Billie Grimes, who is sitting here. Some 
of you may have seen her on the cover of Time magazine. She's 
the center soldier. She is a combat medic. And she served, 
previously, 4 years in the Army Reserve. She's now on active 
duty, serving at the Army--U.S. Army Medical Research Institute 
of Infectious Diseases (USAMRIID) up at Fort Detrick, up where 
we have USAMRIID.
    Now, Sergeant Grimes was serving on OIF with the 1st Armor 
Division, and is the young combat medic that saved the life of 
the Time reporter who lost a portion of his arm and his hand to 
a grenade attack, where she responded very quickly. She was 
part of the 501st Forward Support Battalion who was supporting 
a field artillery unit there that was doing duties in Baghdad. 
And as Senator Inouye pointed out, not only is she the proud 
recipient and wearer of the Combat Medical Badge, which is like 
the Combat Infantry Badge. I mean, it's a very, very highly 
respected badge. She also has three Army commendation medals 
(ARCOMs). And you'll notice, as Senator Inouye pointed out, she 
also has a Good Conduct Medal, which most of us don't get to 
earn, because we're not enlisted solders--but, anyway, we're 
very proud of Sergeant Grimes and her service.
    Next to her is Staff Sergeant Sean M. Boiko. And Sergeant 
Boiko is from Van Nuys, California, a member of the Army 
Reserve. And he is an MP, a 31 Bravo, one of the most deployed 
Military Occupational Specialty (MOS), just like Sergeant 
Grimes' MOS, 91 Whiskey. Currently, he is in the community-
based healthcare system program at Fort Meade, Maryland, where 
he is working to overcome his wounds so that he can remain in 
the Army.
    You'll notice he wears the Purple Heart, the ARCOM, and the 
Combat Action Badge. Sergeant Boiko was a member of an eight-
man Military Transition Team (MiTT), which is our military 
transition teams that are training the Iraqi army. And he was 
stationed between Fallujah and Ramadi in some tough country in 
al Anbar Province, where he came under attack by an improvised 
explosive device (IED) and ended up being evacuated for his 
injuries. He had injuries to his left arm, hearing loss, and 
very severely herniated disks in his back. And he's now been 
through about 6 months of rehabilitation, and they feel that, 
within the next several months, that he will be able to achieve 
the standards to remain in the Army, which is his desire to do. 
We're very proud of him, as well.
    You'll notice he wears a 2nd Marine Division patch on his 
right shoulder because that's who he was supporting out there.
    Thank you, Sergeant Boiko.
    Now, this last fellow is Specialist Jason Mike, and he's 
from Radcliff, Kentucky. He's in the Kentucky Army National 
Guard. He also is a medic. Notice he's wearing the Combat 
Action Badge. And he was with a Military Police (MP) Company 
that was on Route Tampa during OIF3, where he ended up in an 
action that has become well known. This was a convoy of about 
30 trucks that was ambushed by over 50 insurgents. And his MP 
platoon responded, and they got into about a 45-minute 
firefight.
    Now, what's interesting is, you'll notice he's kind of 
built like a football player, and that's because he was. He was 
a fullback. And so, in the middle of this action, Specialist 
Mike ends up with a squad automatic weapon in one arm, and a M-
4 carbine in the other hand, fighting in both directions at the 
same time in his trench line, where, after having killed 27 
anti-Iraqi-force insurgents, wounding six, capturing one, and 
after firing an anti-tank weapon at one of the strongholds that 
they had, he then turned to treating the wounded there, and, as 
a result, was awarded the Silver Star for his actions.
    So, again, we're very, very proud of him and what he 
represents.
    I will wrap up, saying that we have submitted a posture 
statement for the record, which is our formal statement. I 
stand behind the Secretary and his statement, and, again, stand 
prepared to answer your questions.
    Thank you.
    Senator Stevens. Well, thank you very much, General.
    Without objection, we'll set our time limit at about 7 
minutes.
    Mr. Secretary and General, I'm going to have to go back and 
make a statement on the floor here before the hour is out, so 
the co-chairman will conduct the hearing.

                  ARMY NATIONAL GUARD FORCE STRUCTURE

    Mr. Secretary, the budget for the Army now reflects an Army 
National Guard strength at 333,000 soldiers. We were told, the 
press reported, that we're going to be 350,000 soldiers. And 
then there was reduction. And 75 Senators, including ourselves, 
signed a letter to Secretary Rumsfeld about the importance of 
the National Guard. And I understand there's now been a 
decision to keep the 350,000. But we haven't had a budget 
amendment to cover them. How are we going to pay for them?
    Mr. Harvey. Our original plan, as you noted, Senator, was 
to fund the National Guard at whatever level they could recruit 
and retain. So, for the last 14 or 15 months, that's been on 
the average of 333,000, with the proviso that if they recruited 
and retained to a higher number, we would fund to that number. 
Now, in order to go--the basic soldier cost to go from 333,000 
to 350,000 is approximately $300 million, including the basic 
complement of soldier, equipment, and--their pay, and their 
benefits, and their training. So, we would submit a--if 
required, a change to the budget in order to fund that.
    Senator Stevens. You're not now over the 333,000.
    Mr. Harvey. We're slightly over it. I believe we're between 
335,000 and 336,000 right now. So, the Guard, for the last 5 
months, unlike the preceding 13 or 14, is meeting their 
recruitment goals. So, it's all good news right now. They are 
starting to turn the corner. They had leveled off in the high 
20s. They were down to 328,000 to 329,000, and stabilized about 
333,000. And now they're growing--again growing. So, whatever 
number that they can recruit and retain, we will fund to that 
number. And if reprogramming is necessary, we'll submit the 
request to the appropriate committees to do that. For fiscal 
year 2006 they are funded at 350,000.
    Senator Stevens. General, what changes have been made in 
the Army National Guard that are structural? And can you really 
tell us, is your concept still the total force Army--Active, 
Guard, and Reserve? Is that still the concept we're working on?

                 ARMY FORCE GENERATION MODEL (ARFORGEN)

    General Schoomaker. Sir, that is still the concept. We're 
talking about a single force. Where the Guard and Reserve in 
the past have been considered a strategic reserve to be called 
up, for instance, in the cold war sense, with an awful lot of 
forewarning, what we are now doing is organizing, training, and 
equipping a total force--Active, Guard, and Reserve--on a 
common modular basis, where all of the brigades, by type, are 
the same. And our intent is to man and equip all of the 
brigades at 100 percent of requirement, placing them in a force 
rotation model that gives all of the forces predictability, in 
terms of when they are susceptible for deployment--
fundamentally, the Active Force, on a one-and-three rotation; 
the Guard, on a one-and-six rotation--in other words, at about 
half the speed; and the Army Reserve, on a one-and-five 
rotation.
    Senator Stevens. This modularity concept, then, the Active 
and Guard are equipped and trained the same, right?
    General Schoomaker. Exactly the same, sir.
    Senator Stevens. Are they interchangeable, the brigades?
    General Schoomaker. Totally. I might also add that if you 
take a look at the 2005 to 2011 program for the Army, there is 
approximately $21 billion worth of equipment investment in 
there, which is more than four times the previous program's 
investment in the National Guard. And that does not count the 
approximately $2 billion worth of investment in new aviation 
going into the Guard and Reserve.
    Senator Stevens. Well, Mr. Secretary, last year we were 
talking about converting to 34 brigade combat teams. Now our 
staff tells us recent briefings have indicated there's 28 
units. Is that the top number now, 28?
    Mr. Harvey. The fundamental change from last year, which, I 
might note, was driven by the Army's best estimate of what the 
steady-state deployment requirements would be. And based on the 
Department of the Army's best estimate in anticipation that the 
Quadrennial Defense Review (QDR) would give us a better number, 
we chose 20 brigade combat teams, which then, if you put that 
into the rotational models that the chief talked about, you 
would come up with 43 brigades in the Active, and 34 in the 
Guard. And that's how we got to those numbers.

                       QUADRENNIAL DEFENSE REVIEW

    Coming out of the QDR, the QDR said the strategic window 
for steady-state deployment coming out of operational 
assessments and other judgments was--between 18 and 19 was 
sufficient strategically to meet the needs of the 21st century 
security environment.
    Using that as a steady-state, we decided that we could do 
that with 42 in the Active and 28 in the Guard. So, that's 
where those two numbers came from. That was demand-driven, 
where the previous numbers were really an estimate, a supply-
driven estimate, in anticipation of the QDR.
    We have a number that is determined by a strategic 
assessment. We feel good about that number.
    In conjunction with the 28, however, we also looked at the 
Guard structure and decided we did not have enough support 
brigades for their State mission. So, we increased the number 
of support brigades by six. When you add it all up, they 
started out with 106. They ended up with 106. And, as I 
mentioned in my opening remarks, the mix is different. And we 
believe that mix is consistent with their dual mission, their 
State mission, as well as their national defense mission.
    Senator Stevens. Well, this is going to have to be my last 
question, but we've got the future combat system now, costs are 
up from $92 billion, as estimated, to now $160 billion. We're 
having modularity, the global posture review, future combat 
systems. These are all budgetary challenges. And are they all 
financed within the amount that's been requested here?
    Mr. Harvey. Yes, the Army modular force and the future 
combat system are in the base budget for fiscal year 2007.
    Senator Stevens. Thank you very much.
    Gentlemen, I hope you'll excuse me. There's--I've got to 
debate an amendment on the floor.
    Senator Inouye [presiding]. Thank you very much.

                                TRICARE

    General Schoomaker, when I had the privilege of serving in 
the military, only 4 percent of the personnel in my regimental 
combat team had dependents--they were married and had children; 
96 percent had no dependents whatsoever. Today, I believe, in 
the United States Army, it's somewhere between 70 and 75 with 
dependents. Whenever I visit an Army base, I ask for the 
privilege and opportunity to chat with enlisted personnel. No 
officers around. It never fails, the first question asked is on 
health benefits for the dependents. And now, the DOD is talking 
about copayments for benefits, for pharmaceutical items. My 
question to you, will this have any impact on recruiting, and 
especially retention?
    General Schoomaker. Sir, I don't believe so, because the 
copayment issue does not affect the Active Force. The Active 
Force is covered totally. And I'm talking about those soldiers 
that are serving. The issue that you're describing affects 
those that have retired from Active duty----
    Senator Inouye. But not for pharmacy. The copayment affects 
Active personnel also, in the hospital.
    General Schoomaker. Sir, I'd have to check on that.
    Mr. Harvey. We'd have to check on that. But they do have--
the option is that you don't have to pay anything if you use 
the national service.
    General Schoomaker. I don't believe there's any change in 
the current----
    Mr. Harvey. No.
    General Schoomaker [continuing]. Practice of--what we are 
trying to encourage people to do is use the mail pharmacy 
program.
    Mr. Harvey. Yes.
    General Schoomaker. I will check and provide it for the 
record.
    [The information follows:]

    The proposed changes do not increase pharmaceutical costs 
for Active duty Soldiers and do not increase costs for active 
duty families or retirees if the prescription is filled at a 
military treatment facility or through the TRICASE mail-order 
system. However, the proposal would increase prescription drug 
co-payments for dependents and retirees who use a retail 
pharmacy. I have attached a slide outlining these proposed co-
payment changes for fiscal year 2007.

                                                TRICARE PHARMACY
----------------------------------------------------------------------------------------------------------------
                                                     Active Duty      Active Duty Families        Retirees
                                               -----------------------------------------------------------------
                                                            Proposed              Proposed              Proposed
                                                            (fiscal               (fiscal               (fiscal
                                                 Current      year     Current      year     Current      year
                                                             2007)                 2007)                 2007)
----------------------------------------------------------------------------------------------------------------
MTF:
    Generic...................................  .........  .........  .........  .........  .........  .........
    Brand Name................................  .........  .........  .........  .........  .........  .........
    Non-formulary.............................  .........  .........  .........  .........  .........  .........
Mail Order:
    Generic...................................  .........  .........         $3  .........         $3  .........
    Brand Name................................  .........  .........          9         $9          9         $9
    Non-formulary.............................  .........  .........         22         22         22         22
Retail:
    Generic...................................  .........  .........          3          5          3          5
    Brand Name................................  .........  .........          9         15          9         15
    Non-formulary.............................  .........  .........         22         22         22         22
----------------------------------------------------------------------------------------------------------------

    General Schoomaker. But the main emphasis of the 
recommendation that we've made is to capture or to help control 
the costs of those--of retired persons, up to the age of 65, 
before Medicare kicks in. So, what we are trying to do is 
arrest this excessive growth, and to normalize the copays back 
to the time in which they were started. There's never been an 
adjustment to this.

                        EQUIPMENT MODERNIZATION

    Senator Inouye. Twenty-five years ago, when Chairman 
Stevens and I began our service on this subcommittee, the Army 
had so-called big five systems, the M1 tank, the Bradley, the 
Blackhawk, Apache, and the Patriot missiles. Today, you're 
still buying these systems. Do we have any new ones?
    Mr. Harvey. Yes, we do, Senator. The future combat systems 
is that ground-based modernization that will provide the next-
generation man-ground systems, as well as a number of other 
supporting systems that will make both the current force and 
that future force more effective. In terms of--we also have, in 
parallel with that, a very large aviation modernization 
program, which consists of two new helicopters, the light 
utility helicopter, which is mainly for the National Guard, and 
the armed reconnaissance helicopter, which is a replacement for 
the OH58 Kiowa Warrior. We're also modernizing the fleet, in 
terms of the next model of the Blackhawk, conversion of the 
Apaches from the A to D model, and the upgrade of the Chinook. 
We have a very broad-based helicopter program and a very broad-
based program to upgrade the ground based, and also developing 
the next-generation theater air defense, the PAC3 MEAD system. 
So, across the board, we're modernizing.
    General Schoomaker. Sir, if I could add to that. If we do 
not pursue the future combat system, we will not have a new 
start in over 40 years of a major system like the Bradley tank, 
the things that you mentioned. We are not building new tanks, 
and we're not building new Bradleys. We are refurbishing them 
with the reset money and the rebuild money that we have asked 
for. The power of the future combat system is in the spinouts, 
the four technology spinouts that we are taking to put over the 
top of the existing reset force. And the manned ground 
vehicles, which are the final piece of this, that bring in the 
new systems that are beyond 2014. I think it's important to 
recognize that the restructuring we did on flight control 
systems (FCS) last year--or the year before, is an important 
piece of how we're modernizing the force. And the business 
transformation of FCS the Secretary brought in is working on 
the affordability.

                      STRYKER BRIGADE COMBAT TEAMS

    Senator Inouye. I note that we were very enthusiastic about 
the Stryker. But now, in the fiscal year 2007 budget, you're 
asking for less. I think you've cut it in half.
    Mr. Harvey. Well, Senator, in the mix of the 42 brigade 
combat teams and of the 28 I talked about, 7 are Stryker 
brigade combat teams. And we're very high on the Stryker 
system, and we view that as a bridge between the heavy units 
that we have today and the future combat system of the future. 
The eight manned ground vehicles that the Chief mentioned. It's 
an excellent force. There are going to six in the Active, and 
one in the Guard. But I think what you saw, the decrease, is 
because we're getting to the end of that program. We've fielded 
three to four already. We're going to complete the remaining 
three.

                  RECRUITING AND RETENTION INCENTIVES

    Senator Inouye. I have one last question, Mr. Secretary. 
The Army faces a $1 billion shortfall in bonuses and incentives 
for recruiting and retention; the Reserve, $360 million; and 
the National Guard, $250 million. My question is, Why doesn't 
your fiscal year 2007 fully fund these requirements?
    Mr. Harvey. Senator, the numbers I'm looking at, in terms 
of recruiting and retention incentives, show increases in the 
base budget between all the years. We'll submit these for the 
record.
    But I'm looking, for example, that last year recruiting and 
retention incentives are about $300 million. This year, 2006, 
we requested $341 million, and then, 2007, an increase. But 
we'll get you those numbers for the record.
    And the other thing is that we also include incentives and 
advertising in the supplemental. Unfortunately, this is just 
the way it's proposed. We'll provide, for the record, the total 
between base budget and supplemental fiscal year 2006 to 2007 
so you can see the total package.
    Senator Inouye. Well----
    Mr. Harvey. And I think you're going to see that there's an 
increase.
    Senator Inouye. I ask the question, because we want to be 
helpful to you.
    Mr. Harvey. I know you do. And we appreciate the past 
support. And you've been very, very generous. And, by the way, 
I think that is a key ingredient in the fact that for the last 
9 months we have made our recruiting goals in the Active. And 
we're kicking in some additional incentives because of what you 
passed in the 2006 budget. And I think they're having a very 
beneficial effect.
    For the record, we'll get you the entire package, because 
you've got to look at the two components together.
    Senator Inouye. Thank you, sir.
    [The information follows:]

          Recruiting and Retention Budget for Fiscal Year 2007

    Fiscal year 2007 recruiting and retention budget request 
support a peacetime base force of 482,400 Army. Our current 
planning assumes continued recruiting and retention challenges. 
We continue to evaluate the Army's recruiting and retention 
requirements, and to work with OSD and the Administration to 
refine our total requirements during our nation's time at war.

                ENLISTED RECRUITING AND RETENTION BUDGET
                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year--
                             -------------------------------------------
                                 2004       2005       2006       2007
------------------------------------------------------------------------
AC:
    PB/Appropriated.........        322        305        305        392
    Title IX/Supplemental...  .........        257        575  .........
    Reprogramming...........         24        190  .........  .........
    Executed................        346        752        505  .........
USAR:
    PB/Appropriated.........        129        135        189        178
    Title IX/Supplemental...  .........          9        217  .........
    Reprogramming...........  .........  .........  .........  .........
    Executed................        112        130        133  .........
ARNG:
    PB/Appropriated.........        216        244        376        383
    Title IX/Supplemental...  .........         54        195  .........
    Reprogramming...........  .........        196  .........  .........
    Executed................        215        494        353  .........
------------------------------------------------------------------------

    Senator Inouye. Senator Shelby.
    Senator Shelby. Thank you.

                             DEPOT FUNDING

    Secretary Harvey, it's my understanding--and you correct me 
if I'm wrong--that the Army's intent is to, what you call, 
``pure fleet'' its active duty armor brigades with M1A2 SEP 
tanks by procuring at least one brigade, or 60 tanks, at every 
budget opportunity. Would it not make sense--assuming that's 
true, would it make sense to ensure that both the 2006 
supplemental and the 2007 appropriations bill fund these 60 SEP 
tanks?
    Mr. Harvey. As you know--you may be referring to the 
supplemental that we proposed and the supplemental that was----
    Senator Shelby. Right.
    Mr. Harvey [continuing]. That made it through the system. 
Our position is that, provided that the supplemental request 
that was not included in the 2006 supplemental, it will be 
included in the 2007. So, we have a master plan to, as you say, 
``pure fleet'' both the Active and the Guard, and we've got, of 
course, the industrial organic capability to do that at our 
depots. And so, we view, over the next 2 years, if those are 
funded per our request--so, what wasn't funded in 2006 is 
funded in 2007 bridge, we're okay. We've got detailed plans of 
loading the depots. And, provided that's timely, I think we 
feel like we have sufficient funding to do that. And it's very 
important that we do that, because that's all part of having a 
fully resourced Army.
    Senator Shelby. Got to have it, hadn't you?
    Mr. Harvey. Got to have it.

                    UNMANNED AERIAL VEHICLES (UAVS)

    Senator Shelby. General, unmanned aerial vehicles, some of 
us are concerned that the Air Force is considering options 
which would effectively give them procurement authority and 
operational control of the extended-range multiple-purpose 
unmanned aerial vehicle program. What steps has the Army taken 
to ensure that this does not happen, if that's going down that 
road? I mean, the Army's got a big role to play here, I 
believe. And you're playing it.
    General Schoomaker. Well, I would agree. And I do not 
foresee the situation that you described.
    Senator Shelby. I hope not.
    General Schoomaker. Because we are working hand-in-glove 
with the Air Force, as you know, on a Center of Excellence----
    Senator Shelby. Absolutely.
    General Schoomaker [continuing]. At Indian Springs, which 
primarily has to do with the whole notion of how we have common 
tactics, techniques, and procedures, and how we maintain 
command and control, so that we can share the----
    Senator Shelby. Absolutely.
    General Schoomaker [continuing]. The take from these. But 
the extended range multi-purpose (ERMP) UAV program is a purely 
Army program that is tied to our force structure and is 
organic----
    Senator Shelby. And your needs, right?
    General Schoomaker. Excuse me?
    Senator Shelby. Your needs in the Army.
    General Schoomaker. Exactly. I do not see this as an issue 
at all. And it certainly has never risen as an issue between 
the Chief of Staff of the Air Force and myself. We have a very 
good----
    Mr. Harvey. Let me say, Senator, also, that----
    Senator Shelby. Okay.
    Mr. Harvey [continuing]. That we continue to explore ways 
that we can jointly develop----
    Senator Shelby. Absolutely.
    Mr. Harvey [continuing]. Components so that we can minimize 
the cost. I think a good example of----
    Senator Shelby. Well, we've encouraged you to do this in a 
lot of areas.
    Mr. Harvey. Yes. A good example of our close cooperation 
with the Air Force is the joint cargo aircraft----
    Senator Shelby. Right.
    Mr. Harvey [continuing]. Which we are now developing 
together. So, we continue to explore that, but, at the same 
time, we have unique needs that we need to develop on our own.
    General Schoomaker. I'd like to add, too----
    Senator Shelby. Yes, sir.
    General Schoomaker [continuing]. Before we leave this. If 
you remember, when we restructured and canceled Comanche----
    Senator Shelby. Absolutely.
    General Schoomaker [continuing]. And we restructured Army 
aviation, we gave up the buy of a considerable amount of manned 
rotary-wing aircraft----
    Senator Shelby. Yes.
    General Schoomaker [continuing]. For the ERMP capability. 
This is inherent to our Army aviation structure, to our 
intelligence, surveillance, reconnaissance (ISR) structure in 
the Army, and it is not something that, in my view, can be 
farmed out. This is a level below what it is that the Air Force 
brings in on----
    Senator Shelby. Thank you.
    General Schoomaker [continuing]. Their systems.

                       JOINT CARGO AIRCRAFT (JCA)

    Senator Shelby. Secretary Harvey, if I can go back, you 
mentioned the joint cargo aircraft. And when you develop 
something jointly, there are costs involved. If the Air Force 
is going to use it as a single platform, the Army's going to 
use it, is it more than you need for the Army, or will the 
jointness take care of everything?
    Mr. Harvey. You mean the basic----
    Senator Shelby. Sometimes we'll--are the needs for the Air 
Force more than you need in the joint cargo aircraft?
    Mr. Harvey. This----
    Senator Shelby. Would it cost----
    Mr. Harvey. The least--the design is----
    Senator Shelby. Do you see what I'm getting at?
    Mr. Harvey. Yes, I do. The basic design of the aircraft, I 
think, is a convergence of the needs of both services.
    Senator Shelby. Right.
    Mr. Harvey. Then you get a common platform, and then you 
make modifications to that platform, depending on what specific 
needs you have. If you added up A plus B, which is we go our 
way, they go their way, but we go together, C is less than A 
plus B. So, I think, overall, it's a savings. And both services 
know that to be successful, both needs----
    Senator Shelby. Sure.
    Mr. Harvey [continuing]. Have to be met. So, I'm very 
optimistic that we'll do it, and we'll also save the taxpayers 
money.
    Senator Shelby. That's what we want to do. But, first, the 
mission.
    Mr. Harvey. That's right.

                       JOINT COMMON MISSILE (JCM)

    Senator Shelby. The joint common missile, I bring that up 
again. You know, it was terminated in December 2004 in the 
budget decision 753, even though a lot of us thought it had a 
healthy low-risk program. It was on schedule, it was on budget, 
and successfully demonstrating important new capability for the 
warfighter.
    In 2006, Congress appropriated $30 million, General, you 
will recall, for the JCM. What's the plan for 2007? And why was 
funding not included for the JCM in the 2007's--President's 
budget? Mr. Secretary, you want to----
    Mr. Harvey. There's a joint study ongoing----
    Senator Shelby. It is.
    Mr. Harvey [continuing]. In the joint staff, an analysis of 
alternatives. And my understanding is, there's going to be a 
decision made by the Joint Chiefs of Staff Requirement 
Oversight Council (JROC) in April----
    Senator Shelby. Yes.
    Mr. Harvey [continuing]. And a recommendation made to the 
Deputy Secretary in May, and a decision. So, the decisionmaking 
process is fully engaged right now. Depending on what course of 
action they decide, then we will certainly request funding for 
that program, either by reprogramming or--internally--or 
externally, ask the committee to reprogram.
    So, I think a thoughtful program is going on. I think it's 
been established that there is a capability gap in both Navy 
and Army. And so, it's not ``if,'' it's ``how'' to best meet 
that gap. We may----
    Senator Shelby. Thank you.
    Mr. Harvey [continuing]. Be back for some reprogramming 
action.
    Senator Shelby. Mr. Secretary, General, we thank you--I 
do--for serving. Again, we are proud of these soldiers you 
brought us here. We all are. And we should all acknowledge 
that.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    One last question, sir. Your 2007 budget request calls for 
$111 billion.
    Mr. Harvey. Right.

                         UNFUNDED REQUIREMENTS

    Senator Inouye. Your supplemental is $35 billion. And 
there's another item, called the ``Unfunded List,'' of $7.4 
billion. Some of my colleagues have been asking me, ``Are these 
requirements?''
    Mr. Harvey. I think the Chief is best prepared to answer 
that.
    General Schoomaker. I'm not sure which unfunded list you're 
asking for. We traditionally have been asked, from the House, 
for an unfunded requirements list. In general, with more 
dollars, what we would do is accelerate our plan. That's what 
we want to do, is accelerate the plan that we're on. It's a 
very tightly knit plan, the Army campaign plan that pulls all 
this together. My view is, the faster we can execute it, the 
cheaper it will be and the smarter we will be by getting it 
accomplished in anticipation of budgetary pressures in the out-
years. That would be my answer to you.
    Senator Inouye. In other words, in order to make your 
fiscal year 2007 budget request really work, the unfunded list 
is necessary.
    Mr. Harvey. Let me just state as follows. The end state, 
Senator, in terms of force structure, in terms of our 
modernization programs that we've talked about, the end state 
being the 70 brigade combat teams, the 211 support--that will 
not change. We believe that that force structure and our 
modernization programs and the other funding that you provide 
in--for recruiting and retention, it's just a matter if we want 
to accelerate that and reduce institutional risks or--not 
operational risks. This would be running the factories, running 
the depots. You know, if you got the big momentum going, we 
want to keep it going. So, it just--it would accelerate us 
getting to the end state that we--the Chief and I--which is a 
fully resourced--that is, a fully equipped, trained, and manned 
Army across all components--to the numbers we talked about. 
That's what we would do.
    General Schoomaker. Sir, if I could just add. I just want 
to make sure I'm very clear in the answer that I gave to you. 
In the past, you might have seen an unfinanced requirement list 
that would have said, ``Look, we had to make decisions, and we 
had to leave things out.''
    Mr. Harvey. Yes.
    General Schoomaker. In this case, we are funding our plan 
totally at the speed at which we get funding. If we were to 
achieve more funding, we would go faster on exactly the same 
program.
    Mr. Harvey. Right.
    General Schoomaker. And that was what I was trying to say 
there. And I think----
    Mr. Harvey. Right. We're not----
    General Schoomaker [continuing]. It supports what----
    Mr. Harvey [continuing]. Leaving anything out.
    General Schoomaker. Right.
    Mr. Harvey. It's a matter of timing. The quicker, the 
better, I think, because of the risk involved. And so, I think 
we would reduce risk if we get there faster. But, this is very 
acceptable.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Mr. Secretary, General Schoomaker, on 
behalf of the chairman, I thank you for your service and for 
your testimony today. And I'd like to thank the three heroes 
here with us, and their comrades who are now serving us. Thank 
you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted to General Peter J. Schoomaker
              Questions Submitted by Senator Thad Cochran
                          hyperbaric treatment
    Question. General Schoomaker, I have been informed that hyperbaric 
treatment helps reduce tissue loss from wounds and could mean the 
difference between amputation above or below the knee, elbow or other 
major joint. Funds were appropriated in the fiscal year 2006 budget for 
the Army to purchase and emplace a hyperbaric chamber for the Walter 
Reed Army Medical Center to help treat wounded veterans returning from 
Iraq and Afghanistan. Would you agree we should provide these veterans 
with quality care and the best chance for recovery? Could you provide 
this Subcommittee with an update on the status of this project?
    Answer. The Army is committed to providing the best possible 
healthcare to wounded Soldiers. The medical benefit of hyperbaric 
treatment for most of the Soldiers treated at Walter Reed Army Medical 
Center is very limited. Most of these patients had amputations 
performed prior to reaching Walter Reed, so hyperbaric capability at 
Walter Reed would not have prevented these amputations. In fiscal year 
2005, 10 patients from Walter Reed, including six retirees, three 
Soldiers, and one family member, were provided hyperbaric therapy at 
local civilian hospitals at a total cost of $73,049. Additionally, 
funds were appropriated for the Navy to purchase and emplace a 
hyperbaric chamber for the National Naval Medical Center at Bethesda. 
For the very small number of patients at WRAMC who would benefit from 
this therapy, it is much more cost effective to buy hyperbaric therapy 
from civilian hospitals. The Army does not have a clinical need for a 
chamber at Walter Reed and does not have the necessary staff to use a 
chamber as intended. Given the Base Realignment and Closure decision to 
close the existing Walter Reed campus, it is not in the Army's best 
interest to put a chamber at Walter Reed that will not generate a 
return on investment in terms of purchased care savings or research 
capabilities. The Army has asked the Subcommittee to reconsider this 
project and to allow us to use the appropriated funds to upgrade the 
Magnetic Resonance Imaging machine which will benefit many of the 
combat casualties, Soldiers, families, and retirees cared for at Walter 
Reed.

                         INTRA-THEATER AIRLIFT

    Question. General Schoomaker, I know the Army has budgeted to 
procure a new intra-theater light cargo aircraft to replace the C-23 
Sherpa aircraft and the CH-47 Chinook heavy-lift helicopters. Under 
Secretary Kenneth Krieg directed the Army and the Air Force to complete 
an acquisition strategy for a new Joint Cargo Aircraft program, and I 
have been informed that earlier this month a joint program office 
charter, with the Army as lead agency, was announced. General, will the 
Army's intra-theater cargo lift requirements be fully met by the joint 
cargo aircraft procurement?
    Answer. The Joint Cargo Aircraft (JCA) program will meet the Army's 
organic intra-theater fixed wing cargo aircraft lift requirements by 
providing the capability to transport time-sensitive, mission-critical 
resupply, and key personnel transport at the tactical level. The Army's 
approved Aviation modernization plan and fixed wing Organization & 
Operations (O&O) plan calls for the replacement of the existing Army 
utility and cargo fixed wing aircraft with two aircraft variants; the 
Future Cargo Aircraft (FCA) and the Future Utility Aircraft (FUA). The 
Army initiated the fixed wing modernization with the FCA program. The 
FCA is scheduled to replace the Army's aging and less capable C-23 
(Sherpa) fleet, its C-26 (Metroliner) fleet, and a portion of the C-12 
(King Air) fleet. The FCA is not a replacement for the CH-47 (Chinook); 
the FCA system provides a complementary capability to the CH-47 
helicopter. The Army plans to begin development of the FUA Critical 
Capabilities Document (CDD) in fiscal year 2009.
    On December 20, 2005, the Office of the Secretary of Defense (OSD) 
issued a Program Decision Memorandum (PDM) that directed the Services 
to develop and brief a FCA/Light Cargo Aircraft (LCA) Joint Program 
Office Plan to the Defense Acquisition Executive (DAE), Mr. Krieg, no 
later than February 28, 2006. The Services initiated the process of 
folding the Air Force's LCA emerging capabilities into the Army's FCA 
program in January 2006. Between January 12 and March 17, 2006, the 
Services developed a Joint FCA Acquisition Strategy Report (ASR), a 
draft Joint Program Office Charter, and a draft Memorandum of 
Agreement, which together detail the way ahead for convergence of the 
two programs into a single JCA program. These agreements state that the 
Army will be the initial lead for the JCA program and that the JCA 
Program Office will be located in Huntsville, Alabama. On March 17, 
2006, Mr. Krieg approved the Joint FCA ASR and the JCA request for 
proposal was subsequently released.
    Question. General Schoomaker, can you update the committee on the 
timeline making the selection for the new Joint Future Cargo Aircraft?
    Answer. The JCA request for proposal was released on March 17, 2006 
and are due no later than May 17, 2006. The Services' JCA source 
selection process will begin in May 2006 and proceed through December 
2006. The Services anticipate Milestone C and contract award in January 
2007.
    Question. General Schoomaker, has the merging of the Air Force's 
requirements with the Army's on this program affected the Army's target 
date for deployment of the aircraft?
    Answer. The Army's FCA ASR was forwarded for the DAE's approval on 
November 15, 2005. At that time, the Army anticipated releasing the FCA 
request for proposal on December 15, 2005. On December 20, 2005, the 
Office of the Secretary of Defense issued a PDM that provided initial 
funding to the Air Force to initiate development of a LCA program. The 
same PDM directed the Services to develop and brief a FCA/LCA Joint 
Program Office plan to the DAE, Mr. Krieg, no later than February 28, 
2006. On December 22, 2005, Mr. Krieg withheld his approval of the 
Army's FCA ASR pending completion of a Joint (Army/Air Force) FCA ASR. 
The joint Future Cargo Aircraft ASR was subsequently approved by the 
DAE on March 17, 2006 resulting in a three month slip in the Army 
portion of the JCA program. The Army still anticipates the first unit 
being equipped in fiscal year 2009.
    Question. General Schoomaker, will the Army explore having U.S. 
allies join the program in the developmental phase--as a number have 
done with the Joint Strike Fighter program--or do you know if coalition 
nations have expressed an interest to purchase this new cargo aircraft?
    Answer. The JCA is a commercially available aircraft, currently 
offered on the open market, and to date no U.S. coalition partners have 
requested to participate in the JCA program. While it is possible for 
coalition nations or NATO partners to procure JCA directly from the 
original equipment manufacturer, once the vendor is selected some 
coalition partners may seek to participate in the U.S. sponsored 
program.

                           ARMY MODULAR FORCE

    Question. General Schoomaker, I continue to watch the Army's 
transformation efforts with interest. As I understand it, instead of 
divisions being the centerpiece of the Army, brigade combat teams will 
be a strategically agile force that can ``plug into'' joint and 
coalition forces in an expeditionary manner. Could you describe what 
the Army will look like at the end of fiscal year 2007 and the rate at 
which the remainder of the Army to include the National Guard will 
become a modular force?
    Answer. Modular transformation is the most dramatic restructuring 
of forces since World War II. The centerpiece is the building of 
brigade combat teams (BCT) and associated multi-functional and 
functional support brigades. The Army also is rebalancing our forces to 
create the right mix of units, develop critical Soldier skills, and 
build effective operational and institutional forces across all three 
components. The Army is building toward 70 BCTs and 211 multi-
functional and functional support brigades. By the end of fiscal year 
2007, the active component will have converted 29 modular BCTs and 
activated nine new modular BCTs. Additionally, the active component 
will have built 32 multi-functional and functional support brigades. 
Active component modular transformation will be completed by fiscal 
year 2010. The Army National Guard is building toward 28 BCTs in a 
total of 106 brigades by the end of fiscal year 2011. By the end of 
fiscal year 2007, the Army National Guard will have converted 25 BCTs 
and built 50 multi-functional and functional support brigades. However, 
the BCT conversion primarily addresses changes in unit designs and 
manning to facilitate recruiting and individual training. The equipping 
upgrades to complete the conversions of these brigades will extend 
through fiscal year 2011. The Army Reserve will have 65 support 
brigades by fiscal year 2007. However, with completion of modular 
transformation in fiscal year 2011, the Army Reserve will re-size to a 
total of 58 multi-functional and functional support brigades. The Army 
is currently conducting a collaborative effort with the Army National 
Guard Adjutants General to address warfighting requirements, current 
operational demands and potential Homeland Defense missions. The 
results of this effort may change the number and type of BCTs and 
support brigades in the Army National Guard beginning in fiscal year 
2008.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                   TRAINING OF IRAQI SECURITY FORCES

    Question. The Administration and the Pentagon continue to repeat 
the mantra, ``When the Iraqis standup, we will stand down.'' However, 
here in the Congress, we continue to receive mixed reports on the 
progress of training a capable Iraqi Army. While it is my understanding 
that the number of Iraqi battalions able to function ``in the lead'' 
(or at Level 2) has increased to over 50 today, I have also heard that 
the number of Iraqi battalions at Level 1, or able to operate fully 
independently, has recently dropped from one to zero.
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. Will you please explain why we have had such difficulty 
transitioning Iraqi forces from Level 2 to Level 1? How is it that not 
one Iraqi battalion is able to function independently of coalition 
forces?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. Are you confident the U.S. military in Iraq has enough 
qualified trainers to adequately train the Iraqi forces? Should U.S. 
commanders on the ground shift additional forces from security duties 
to training?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. What percentage of the Iraqi Army controlled by the 
Ministry of Defense is Sunni? To what extent are former officers and 
soldiers--disbanded through our ``Debaathification'' policy--returning 
to serve in the Army? What incentives are being provided to lure Sunni 
recruits?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. What is the ethnic makeup of the Iraqi battalions in an 
advanced state of readiness? What percentage of these battalions are 
made up of Kurdish and Shiite recruits?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. What steps are being taken to integrate units to create 
an ethnically and religiously diverse Iraqi force? From a security 
standpoint, is diversity even desirable?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. Will the emerging Iraqi forces have enough independent 
technical capabilities (communication networks, air power, heavy armor, 
weaponry, and intelligence logistics) to operate on their own without 
U.S. assistance in the near future?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. What is the timeframe for creating an Iraqi Army which is 
superior in force and skill to the Sunni insurgency or any of the 
Shiite or Kurdish militias?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. This year was labeled the ``Year of the Police'' by the 
Pentagon--a phrase clearly intending to indicate a renewed effort to 
train Iraqi security forces under the control of the Iraqi Interior 
Ministry. Please describe current U.S. oversight activities vis-a-vis 
the Iraqi police forces, particularly the paramilitary units under 
control of the Interior Ministry? How can the United States and Iraq 
further prevent Shiite militias from dominating local police forces?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. How would you assess the progress over the past 3 months 
in the training of Iraqi police units?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. To what degree do you remain concerned about the 
infiltration of police forces by: the insurgency? local militias? Iran?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
    Question. What are the greatest barriers that coalition troops 
currently face in their efforts to train an effective police force in 
Iraq?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.

           ARMY TRANSFORMATION AND THE C-17 AIRCRAFT PROGRAM

    Question. Reports suggest that the Mobility Capabilities Study 
(MCS)--which was supposed to provide the Pentagon an accurate 
projection of future strategic airlift requirements--neither takes into 
account (1) the Army's transition to a modular brigade force structure 
nor (2) the Future Combat Systems (FCS) program. Consequently it is my 
understanding that DOD has commissioned a new study (MCS-06) to address 
these and other areas that the previous MCS study failed to account for 
in considering the military's future air mobility needs. With this 
being the case, has the Army ever articulated or estimated the airlift 
requirements that will be connected to the mobilization of the 15 
Future Combat Systems (FCS) brigade combat teams (BCTs)?
    Answer. The Army is in the process of establishing the airlift 
options available to Joint Forces Commanders to support the deployment 
of Future Combat Systems (FCS) Brigade Combat Teams (BCTs). The 2005 
Mobility Capability Study (MCS 05) focused on the strategic lift 
requirements for the 2012 timeframe. The study did not consider 
deployment of FCS equipped forces. MCS 05 examined the strategic 
mobility capabilities provided by the current pre-positioning, sealift 
and airlift programs of record and found them to provide sufficient 
lift. The strategic airlift modeled in the MCS 05 study consisted of 
current programmed fleet of 180 C-17s, 112 C-5s and the Civil Reserve 
Air Fleet (CRAF), and found it to sufficient to meet lift requirements. 
We realize that now and in the future, deployment and sustainment of 
heavy Army forces in support of the combatant commanders (COCOMs) will 
employ a mix of airlift, sealift, and pre-positioned stocks. 
Maintaining this balance provides multiple options for deployment and 
employment of force. The Army requested a Joint analysis of 
requirements for global airlift, sealift, and pre-positioned stocks 
extending through 2024 and will support the MCS-06 study.
    Question. If not, when does the Army anticipate it will be able to 
provide the Air Force a realistic projection of its airlift 
requirements based on its transition from a division-centric to 
brigade-centric force?
    Answer. Developing strategic lift requirements is a Joint process 
which has to consider the type, amount, and location of forces to be 
moved. MCS 06 will capture the modular mobility requirements for 
sealift, airlift and associated pre-positioning. COCOMs dictate the 
timing and location for the delivery of Army forces within the context 
of a Joint Force flow. Personnel and equipment required during the 
first 30 days of a conflict will be given the highest priority for 
movement by airlift. The heavy units that are needed in less than 30 
days may be pre-positioned rather than have them compete for strategic 
airlift. Finally, the equipment and sustainment items not required in 
the first 30-45 days will likely be delivered by sealift. The Army 
provides input to the development of these requirements by providing 
Joint Staff and COCOM planners with Army Future Force concepts of 
employment and capabilities. COCOM and Joint planners will then develop 
the Joint Force flow requirements that will be used to development 
total Joint lift (sea and air) requirements. Pre-positioned stocks will 
also be used to fill shortfalls in either sealift or airlift due to 
wither speed of delivery of sealift or physical capacity (amount of 
lift) of the aircraft.
    Question. Under the Global Posture Review, 38 of the Army's 42 
active-duty brigade combat teams (BCTs) will eventually be stationed in 
the Continental United States, Alaska, and Hawaii. At any one time, the 
Army hopes to have up to 19 of these BCTs (14 active and 4-5 reserve) 
PLUS associated operational headquarters and support brigades--ready 
for operations world-wide. Given this force reconfiguration--based on 
operational requirements--are you confident there will be sufficient 
military airlift to transport up to 15 of these brigade combat teams 
(BCTs), along with the associated headquarters and support units, from 
bases in the United States to a crisis area?
    Answer. Airlift is only one portion of strategic lift capability to 
deploy Army forces. The bulk of Army combat power will be projected by 
sea. Airlift, coupled with sealift and globally pre-positioned stocks, 
provides for both rapid employment and long-term sustainment of Army 
forces. The 2005 Mobility Capability Study (MCS 05) which modeled 
strategic airlift requirements based on the current programmed fleet of 
180 C-17s, 112 C-5s and the Civil Reserve Air Fleet (CRAF) indicates 
that DOD has sufficient strategic airlift available through the 2012 
timeframe. Both the Army transformation to modular brigades and 
restationing in response to the Global Posture Review will be completed 
within the timeframe considered.

                           CIVIL WAR IN IRAQ

    Question. We have seen a significant increase in the number of 
Iraqis killed in sectarian violence over the past 3 months. Reports 
suggest that over 1,000 have died since the February 22nd bombing of 
the Golden Mosque in Samarra and over the weekend we discovered more 
evidence of revenge killings in a mass grave that included 30 beheaded 
bodies. Former Iraqi Prime Minister Ayad Allawi has stated his belief 
that Iraq is already experiencing a civil war. However, Pentagon 
officials and the Administration have taken great pains to dispute the 
idea that we have entered into a period of civil war in Iraq.
    For the record, do you believe Iraq is now enmeshed in a ``civil 
war?''
    If not, how would you define a ``civil war?''
    Finally, assuming that Iraq is now (or does) face a full-blown 
civil war, how does this affect U.S. military strategy and the status 
of U.S. troops deployed in the region?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.

                            TROOP REDUCTIONS

    Question. Does the Army plan to reduce its endstrength in Iraq this 
year? Next year?
    Answer. In accordance with title 10, U.S. Code, the Army is charged 
with organizing, manning, training and equipping a force capable of 
fulfilling current and future Secretary of Defense-approved 
requirements of combatant commanders. Thus, the Army force scheduled to 
deploy in future rotations to Iraq is conditional upon periodic 
strategic and operational assessments from the Commander, U.S. Central 
Command (CENTCOM). The number and type of forces requested by the 
CENTCOM commander may fluctuate as the political, economic and security 
conditions in Iraq and Afghanistan evolve over time.

           TROOP REDUCTIONS/TRAINING OF IRAQI SECURITY FORCES

    Question. Do you agree with General Casey that a drawdown in U.S. 
troops might ease some of the enthusiasm for the ongoing insurgency in 
Iraq?
    Answer. The President's National Strategy for Victory in Iraq is 
very clear in that we will help the Iraqi people build a new Iraq with 
a constitutional, representative government that respects civil rights 
and has security forces sufficient to maintain domestic order and keep 
Iraq from becoming a safe haven for terrorists. To this end, the Army 
is committed to providing General Casey with the required Army 
capabilities for success on the ground in Iraq.

                            TROOP REDUCTIONS

    Question. Secretary of State Rice and Chairman of the Joint Chiefs 
of Staff General Pace have both suggested in recent days that it is 
likely that the military will drawdown troop levels sometime this year. 
Last fall General Casey, the top commander in Iraq, stated that a 
reduction in American troops would take ``away an element that fuels 
the insurgency.''
    How do you think that a reduction in the number of American forces 
would affect the rise in sectarian violence in Iraq?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.

                        IRAQ'S INFLUENCE IN IRAQ

    Question. Earlier this month, Secretary Rumsfeld said in a press 
conference that Iran is ``currently putting people into Iraq to do 
things that are harmful to the future of Iraq. They're putting Iranian 
Qods Force-type people into the country.''
    Can you provide more information on this statement--how many 
Iranian nationals have you found in Iraq, what are they doing, and are 
they collaborating with the Iraqi SCIRI party?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.
                                 ______
                                 
                Questions Submitted to Francis J. Harvey
               Questions Submitted by Senator Ted Stevens

                               MODULARITY

    Question. What is the estimated total cost of the Army's modularity 
initiative? How much funding has been provided to date to implement the 
modularity initiative? What is the estimated amount of future funding 
needed to complete the modularity initiative?
    Answer. The Army estimates the total cost of the modularity 
initiative at $52.5 billion through fiscal year 2011. To date, the Army 
has received $6.5 billion: $5 billion in the fiscal year 2005 
supplemental and $1.5 billion programmed in the base budget in fiscal 
year 2006. The estimated amount needed to complete the Army modularity 
initiative is $46 billion.

                       FUTURE COMBAT SYSTEM (FCS)

    Question. What is the estimated total cost of the FCS program? How 
much funding has been provided to date for the FCS program? What is the 
estimated amount of future funding needed to complete the FCS program?
    Answer. As reported in the Program Manager, Future Combat Systems 
(Brigade Combat Team) (PM FCS (BCT)) Selected Acquisition Report, dated 
December 31, 2005, the estimated total cost is $119.9 billion (fiscal 
year 2003 Base Year dollars) or $164.6 billion (then year dollars). 
From fiscal year 2003 through fiscal year 2006, the FCS program has 
been appropriated in the amount of $8 billion (then year dollars) while 
only receiving actual funds of $7.6 billion. With the current funding 
schedule, the estimated funding requirement is approximately $157 
billion (then year dollars).

                          RESETTING THE FORCE

    Question. To date, how many units has the Army reset? How much 
funding has been provided to date to reset Army units? Based on current 
information, how much future funding is needed to reset Army units?
    Answer. The Army has reset or will have reset a total of 95 
brigade-sized or brigade combat team elements from fiscal years 2004-
2006. The break-out of brigade-size elements by year is shown below:

                            TOTAL ARMY BCT'S
------------------------------------------------------------------------
                                                              No. BCT's
                       Component/Unit                          or units
------------------------------------------------------------------------
Active:
    3ID....................................................            5
    4ID....................................................            5
    2/82...................................................            1
    3/1 ID.................................................            1
    3ACR...................................................            2
    101st..................................................            6
    2ACR...................................................            1
    1/10...................................................            1
    2/10...................................................            1
    Various................................................            3
NG:
    45th Inf...............................................            1
    Various (no BDE sized elements all various (CS/CSS)....            4
USAR: Various (no BDE sized elements all various CS/CSS)...            5
                                                            ------------
      Total Army BCT's Supported in Fiscal Year 2004.......           36
                                                            ============
Active:
    101 ID.................................................            6
    4 ID...................................................            6
    172 ID.................................................            1
    1 AD...................................................            1
    10 MNT.................................................            3
    Various (no BDE sized elements all various CS/CSS).....            3
NG: Various................................................            4
USAR: Various..............................................            2
                                                            ------------
      Total Army BCT's Supported in Fiscal Year 2005.......           26
                                                            ============
Active:
    3ID....................................................            5
    1/82d..................................................            2
    1/25th.................................................            1
    2/2ID..................................................            1
    3/1 AD.................................................            1
    3 ACR..................................................            2
    2/10th 2 (1 BCT, plus DISCOM slice)....................            2
    1st COSCOM.............................................            1
    Various (no BDE sized elements all various CS/CSS).....            3
NG: Various................................................           12
USAR: Various..............................................            3
                                                            ------------
      Total Army BCT's Being Reset in Fiscal Year 2006.....           33
------------------------------------------------------------------------

                        BUSINESS TRANSFORMATION

    Question. Please describe how the Army is accelerating Business 
Transformation efforts in the fiscal year 2007 budget request. What is 
the estimated total cost to implement Army Business Transformation 
efforts? What is the estimated total savings the Army expects to 
achieve as a result of Business Transformation efforts?
    Answer. To explain how the Army is accelerating Business 
Transformation efforts in the fiscal year 2007 budget request, the 
scope of Army Business Transformation needs to be understood, then how 
specific budget requests accelerate this transformation and associated 
total cost and savings can be explored.
    Our business transformation initiatives include Continuous Process 
Improvement (CPI) using the Lean Six Sigma (LSS) methodology, Business 
Situational Awareness, Organizational Analysis and Design (OAD), and 
Professional Development.
    We have started the largest deployment of Lean Six Sigma ever 
attempted. This effort is underway with training, education, and 
project selection. Projects will be both centrally sponsored for 
crosscutting initiatives as well as command specific; a combined top-
down and bottom-up approach to accelerate the transformational effect. 
The result will be reduced cost and cycle time while increasing 
quality, production, reliability, and safety.
    Business situational awareness is the product of timely and 
accurate information to support policy and resource allocation systems. 
These enterprise information solutions will provide Army leaders 
clarity on systems and processes where today it is difficult to 
observe.
    Organizational Analysis and Design examines functions and structure 
of organizations, then redesigns and realigns organizational elements 
as necessary to accomplish the mission/work assigned. This analysis, 
design, and alignment will reduce redundancies and ensure organizations 
can effectively and efficiently fulfill the needs of our warfighters.
    Professional Development of Army Leaders is critical to successful 
business transformation and the Army is examining ways to broaden the 
education, training, and experience of our officers and civilians to 
meet the complex challenges of leading the Army business enterprise. 
This initiative area will help educate and develop leaders of Army 
enterprises so that they are fully prepared for the challenges of 
leading the Army's complex business organizations.
    To ensure these efforts are successful and to highlight their 
importance, we created the Office of the Deputy Under Secretary of the 
Army for Business Transformation, headed by Mr. Michael Kirby.
    The scope of the efforts just reviewed is immense, literally 
touching or impacting every facet of the Army. The fiscal year 2007 
budget request accelerates these efforts by: funding the initial wave 
of projects and certification for lean six sigma (LSS) deployment ($7.8 
million in fiscal year 2007); with opportunities to all subordinate 
organizations to reallocate their training budgets to invest in this 
primary effort.
    The answer to the question of total cost is elusive for several 
reasons. Since business transformation includes efforts that will 
become embedded in the fabric of the Army, these efforts will not end; 
instead, they will become a self-sustaining Army capability, changing 
the way we do business. For example, the LSS deployment is using 
industry experts, where the Army lacks them, to train, create, and 
certify Army experts who will soon be able to do the training, and 
certification of future Army experts. Thus a better understanding of 
the relevant cost for the Continuous Process Improvement and 
Organizational Analysis and Design efforts is likely startup costs--the 
lean six sigma certification and initial project costs identified 
above.
    The cost of providing business situational awareness in most cases 
will be embedded within the technology that we are obtaining to help 
manage the Army enterprise. The transformational aspect is how we use 
the data that enterprise resource planning (ERP) programs provide not 
necessarily the program itself. While it might be technically correct 
to include the cost of all ERPs in the total cost of business 
transformation, I think it is more appropriate to attribute these costs 
to the functions each ERP is being designed to produce and that is the 
way they are shown in the fiscal year 2007 budget request.
    No cost estimate currently exists for professional development 
since it is still under intense study and no specific course of action 
has been determined.
    The answer to the question of total savings is as elusive as total 
costs not only in an accounting perspective but also due to replication 
and economies of scale. The benefits generated from business 
transformation in many cases are not directly pecuniary--LSS and OAD 
will increase responsiveness and quality; SA will increase the quality 
of decision making; and professional development will help create more 
capable leaders. Likewise some of the savings are impossible to 
estimate at this point--LSS and OAD projects are still being scoped; SA 
will identify redundancies that are currently unknown; and professional 
development impacts cannot be estimated until the path forward is 
decided.
    The answer to this set of questions may lack the specificity 
desired. This highlights one of compelling reasons that we need to 
transform the way we do business. As we move forward to the Army will 
share the results of these initiatives with you.

                RESTRUCTURING THE FORCE--AC/RC REBALANCE

    Question. When does the Army expect to complete the AC/RC 
rebalancing effort? What costs are associated with implementing the AC/
RC rebalancing initiative? How is the AC/RC rebalancing effort 
synchronized with the Army modular force effort?
    Answer. Active component/Reserve Component (AC/RC) rebalance is 
always an on-going part of force re-structuring as the Army addresses 
the right mix of capabilities to meet strategic and operational 
requirements. Beginning with the Program Objective Memorandum (POM) for 
2004-2009, the Army formally identified restructuring initiatives 
affecting the mix of capabilities across all three components. 
Subsequent initiatives were generated by the Secretary of Defense 
guidance in July 2003, concerning the reduction of involuntary 
mobilization of the RC in the first 15 days of a rapid response 
operation, and limiting involuntary mobilization to not more than one 
year every six years. Additionally, the Chief of Staff, Army, focus 
area in early 2004, addressed manning issues, high demand/low density 
capabilities and the establishment of training overhead accounts 
(Transient, Trainees, Holdees and Students--TTHS) for the RC. Under 
these three phases of force re-structuring, the Army program identified 
over 125,000 spaces of change between fiscal years 2004-2009. At the 
end of 2005, the Army had completed re-structuring efforts affecting 
over 30,000 spaces--approximately 21,000 in the rebalance of 
capabilities across the three components and over 9,000 affecting the 
elimination of over structure and the establishment of TTHS accounts in 
the RC. Costs for phase one and phase two initiatives were reflected as 
offsets across existing programs to capture the changes in equipment, 
facilities, and operational tempo as force capabilities were rebalanced 
across the components. The costs for phase three have been reflected in 
the re-investment of existing programs and improved readiness as RC 
overstructure is eliminated. With implementation of modular 
transformation beginning in fiscal year 2004, additional re-structuring 
initiatives will occur through fiscal year 2011. Based on the results 
of Total Army Analysis (TAA) 2008-2013, and the efforts underway with 
POM 2008-2013, the Army will update its AC/RC rebalancing program in a 
report to the Office of the Secretary of Defense in June 2006. The 
update will synchronize AC/RC rebalance initiatives with the Army 
Campaign Plan and will ensure all re-structure and rebalance efforts 
are linked to modular transformation.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    Question. What is the Army total cost estimate for implementing the 
BRAC recommendations?
    Answer. The current Army BRAC estimates are in the range of $15 to 
$18 billion. The fiscal year 2007 President's budget request funded 
$9.5 billion for Army BRAC through the BRAC implementation period 
(fiscal year 2006-2011). For fiscal years 2006 and 2007, the 
requirements of $4.4 billion fully fund the program. The Army continues 
to refine the remaining BRAC implementation requirements to be 
resourced and these will be documented in the 2008/2009 BRAC 
President's budget request.

         INTEGRATED GLOBAL PRESENCE AND BASING STRATEGY (IGPBS)

    Question. What is the Army's estimated total cost to implement 
IGPBS decisions? How much funding has been provided to date to 
implement IGPBS decisions? What is the estimated amount of future 
funding needed to implement IGPBS decisions?
    Answer. The Army estimates the total cost of IGPBS at $2.9 billion 
through fiscal year 2013. This includes Base Realignment and Closure 
IGPBS stationing actions included in the 2005 BRAC Commission Report. 
In fiscal year 2006 the Army has funded $460.8 million; $337.6 million 
for BRAC and $123.2 million base budget (MCA--$12 million; MPA--$33 
million; OMA--$66.7 million and OPA--$11.5 million). The remaining 
estimated amount needed to complete IGPBS is $2.4 billion.

            WARFIGHTER INFORMATION NETWORK--TACTICAL (WIN-T)

    Question. What is the Army plan for transitioning from Joint 
Network Node to WIN-T? Please explain how the WIN-T program has been 
rebaselined to support the FCS program? What is the estimated total 
cost of the WIN-T program? How much funding has been provided to date 
for the WIN-T program? What is the estimated amount of future funding 
needed to complete the WIN-T program?
    Answer. Currently, the Army is assessing how to optimize transition 
from the procurement and fielding of the Joint Network Node to 
Warfighter Information Network--Tactical (WIN-T). The WIN-T program's 
re-baselining supports Future Combat Systems (FCS) by aligning the 
availability of configuration items to support FCS integration and lab 
testing. Afterward, WIN-T will provide form fit and function products 
that meet prescribed space, weight, and power dimensions and liquid-
cooling technology for integration into FCS platforms. The total 
acquisition cost for the WIN-T program per the December 2005 Selected 
Acquisition Report (SAR) is estimated in fiscal year 2003 constant 
(base year) dollars at $10.6 million for Research, Development, Testing 
and Evaluation (RDTE) and procurement costs. The total acquisition cost 
in then year dollars is $14.2 million. The total amount of funding 
provided to date in fiscal year 2003 constant (base year) dollars 
(2002-2006) for WIN-T is $322.6 million. Adjusted for inflation, this 
amount is $335.7 million (then year dollars). The estimated amount of 
future funding needed to complete the WIN-T program estimated in fiscal 
year 2003 constant (base year) dollars is $10.2 million. Adjusted for 
inflation, this amount is $13.8 million (then year dollars) for RDT&E 
and procurement.

                   JOINT TACTICAL RADIO SYSTEM (JTRS)

    Question. Prior to the JTRS program restructure, what was the Army 
total cost estimate to develop and field JTRS Cluster 1 and JTRS 
Cluster 5 radios? What is the Army's current total cost estimate to 
develop and field JTRS radios? How has the Army JTRS fielding plan 
changed as a result of the program restructuring?
    Answer. The JTRS Program had programmed approximately $3 billion in 
the Future Years Defense Plan (FYDP) prior to the restructuring. After 
the restructuring, the current estimate to develop the total JTRS 
Increment 1 program, which includes the air, ground, and maritime 
domains is now approximately $4 billion in the FYDP. The Army portion 
of this DOD enterprise-wide estimate is approximately one-third of the 
$4 billion. This estimate was approved by the Department in November 
2005 at the Defense Acquisition Board (DAB). The Increment 1 
development is designed to deliver critical networking capabilities to 
the warfighter. Future incremental developments will add additional 
capabilities as technology matures and funding becomes available.
    Since the program has been restructured, the Army's fielding plan 
has changed to accommodate the revised funding and program timelines 
approved by the DAB. In general, the JTRS program restructuring delayed 
the fielding of JTRS capabilities about two years. The FCS program, as 
well as other Army fielding plans, has been synchronized to achieve 
JTRS capabilities as soon as the JTRS begins to field its systems 
(fiscal year 2009/10).

           ARMY TRANSFORMATION AND THE C-17 AIRCRAFT PROGRAM

    Question. What is the estimated total cost to implement the 
recommendations of the Army Aviation Task Force? How much funding has 
been provided to date to implement Army Aviation Task Force 
recommendations? What is the estimated amount of future funding needed 
to complete implementations of Army Aviation Task Force 
recommendations? Please describe how Army Aviation Modernization 
efforts have changed since completion of the Army Aviation Task Force 
review?
    Answer. In 2003, the Chief of the Staff, Army (CSA) directed Army 
aviation to become a ``capabilities based maneuver arm optimized for 
the joint fight with a shortened logistics tail.'' The desired outcome 
is aviation units in modular configuration that are agile, flexible, 
deployable, and sustainable.
    The Acting Secretary of the Army and CSA recommendation to 
terminate the Comanche program was supported by the Secretary of 
Defense and approved by the President on February 20, 2004. It was 
subsequently briefed to Congress the week of February 23-27, 2004.
    In order to implement the aviation focus group recommendations and 
CSA-approved decisions, all funding resulting from the termination of 
the Comanche program and all funding within aviation programs will 
remain with the Aviation Battlefield Operating System for the 
resourcing of aviation programs.
    Army aviation funding, from both the aviation base budget and 
Comanche reprogramming, totals $12.2 billion (fiscal year 2005-2007) 
and is applied in accordance with the aviation investment strategy. 
Retention of funding within Army aviation, combined with the commitment 
from senior Army leadership, the Secretary of Defense, Congress, and 
the President, creates the opportunity to ``fix'' Army aviation. The 
challenge is in maintaining the long term fiscal discipline necessary 
to fully implement the strategy.
    The aviation investment strategy supports the Army Aviation 
Modernization Plan, included in the Army Modernization Plan, which 
describes the changes intended to improve Army capabilities to meet 
current and future full-spectrum aviation requirements. The Aviation 
Modernization Plan was developed based on a full Doctrine, 
Organization, Training, Leadership and Education, Materiel, Personnel, 
and Facilities analysis that included the integration of lessons 
learned from recent operations.
    Army aviation is moving aggressively to (1) Satisfy current and 
future operational capabilities; (2) Modernize the entire fleet while 
supporting current deployments; (3) Rapidly acquire best materiel 
solutions by facilitating correct and comprehensive policies; and (4) 
Achieve Joint interoperability, modularity and deployability through 
transformation.

                     RECEIPT OF SUPPLEMENTAL FUNDS

    Question. Secretary Harvey, it would be helpful if you could 
explain how soon you will need the Supplemental funds requested for the 
Global War on Terror which were requested in mid-February. Also, could 
you share with the committee what impact there would be from any delay 
in receipt of the requested funds?
    Answer. We will need the Supplemental enacted in May in order to 
receive the funding by early June. After this date we risk exhausting 
all funds from both Title IX and base programs and could face 
insolvency in some appropriations.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                    ARMY NATIONAL GUARD END STRENGTH

    Question. Secretary Harvey, the fiscal year 2007 budget funds the 
Army National Guard at 333,000 and not the congressionally mandated 
350,000. I understand this is part of the Army's plan to transform and 
to modernize.
    A positive aspect of your plan is that National Guards units would, 
for the first time, be resourced equivalent to active forces. I also 
understand there is a commitment from the Department to fund the Army 
National Guard to the strength they are able to recruit, up to 350,000.
    Based on current indicators, the National Guard will exceed 
retention goals. In Mississippi for example, the Guard achieved 101 
percent of their retention mission during a very difficult time that 
they were supporting the Global War on Terror and trying to deal with 
the terrible effects of Hurricane Katrina.
    My question to you is how will the Department fund the increase in 
personnel when Guard recruiting and retention goals are achieved?
    Answer. The Army is committed to funding the Army National Guard to 
350,000 in fiscal year 2007. Cost per 1,000 National Guard Soldiers is 
difficult to capture based on each Soldier's varied status in the 
National Guard. For example, Soldiers mobilized for Operation Iraqi 
Freedom costs differ dramatically from a Soldier performing weekend 
drill on inactive duty for training. Efforts are ongoing regarding the 
equipment/investment (procurement) restoral, and the total amount 
depends on the final outcome of force structure adjustments.

                          EQUIPMENT READINESS

    Question. Secretary Harvey, I understand that high utilization 
rates and extreme conditions in Iraq and Afghanistan continue to take a 
toll on military equipment. I have also been informed that 
traditionally, units returning from combat operations bring their 
equipment back with them. However, in order to minimize transportation 
costs and keep key items in the combat zone, this has not been the case 
relative to Iraq and Afghanistan. For example, the 155th Separate Armor 
Brigade from Mississippi left 370 trucks, 14 wreckers, and 20 
ambulances in Iraq which impacts readiness and its ability to conduct 
training and homeland security missions along with responding to the 
Governor's call.
    Are funds requested in this budget request and in the fiscal year 
2006 Supplemental adequate to finance the repair and replacement of 
equipment damaged or destroyed during combat operations in Iraq and 
Afghanistan?
    And do they ensure the Guard, Reserve and active units have the 
equipment at their home stations necessary to maintain readiness 
ratings, conduct training and respond to homeland security missions or 
natural disasters?
    Answer. The key to our ability to sustain our long-term commitments 
at home and abroad is to reset our equipment and make near and long-
term investments in a better equipped, more capable force. To achieve 
this, we need Congress to support our reset and investment strategies 
specified in our program and supplemental requests for fiscal years 
2006 and 2007.
    As you know, years of under-funding for the Army prior to 9/11 
resulted in a $56 billion ``hole'' in readiness across all three 
components due to insufficient modernization to fill existing 
shortfalls and emerging needs. That ``hole'' deepens due to battle 
damage and operational wear and tear. We maintain sustainment stocks in 
theater to rapidly replace battle losses in the short-term to mitigate 
risk to Soldiers and operations. We also prioritize dollars and 
equipment to deployed units, sustainment stocks, and next-deployers to 
ensure deployed Soldiers have what they need to accomplish assigned 
missions. All of this results in lower resource levels among units 
across the Army that are resetting and training for homeland or global 
operations.
    Resetting equipment through repair, recapitalization, and 
replacement is a wise and critical investment that provides Soldiers 
the equipment they need and enables the Army to accelerate its 
transformation to more capable units. However, reset requirement costs 
are over and above the normal costs to sustain the Army, and we expect 
the total reset bill for fiscal year 2006 to be nearly $13.5 billion. 
In accordance with DOD policy and intent, we rely on Supplemental 
funding to pay for our reset program.
    With previous Congressional help, we increased our depot production 
capacity for repair and recapitalization by 250 percent from where it 
was before the war, and we reset 37 brigade combat teams in the last 
two years. Many of those brigades have already returned to theater in 
their more capable, modular configuration. We have also increased and 
fenced our investment accounts for the Reserve Component to more than 
$24 billion in fiscal year 2005-11.
    Fiscal year 2007 will be pivotal for the Army. While the Office of 
the Secretary of Defense has not yet submitted a request for 
supplemental funding in fiscal year 2007, the anticipated funding in 
fiscal year 2006 and fiscal year 2007 will enable us to address reset 
while protecting our investment accounts. Resetting and investing will 
enable us to transform and provide better manned, trained, and equipped 
Army units for full spectrum operations in defense of the nation at 
home and abroad.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    Question. Secretary Harvey, included in last year's BRAC was the 
decision to close the Mississippi Army Ammunition Plant (MSAAP) on 
Stennis Space Center. Since the facility was located on land leased 
from NASA, I understand the facility will be turned over to NASA. I 
understand NASA and the Army are in discussion concerning this 
transfer; however, it seems the two parties are at an impasse. I am 
hopeful the Ammunition Plant can be the first property transferred off 
the Army's rolls. Could you provide the subcommittee with an update on 
where the Army is in the BRAC process, to include the status of the 
Mississippi Army Ammunition Plant?
    Answer The Army is in discussions with NASA and plans are 
continuing to move the Mississippi Army Ammunition Plant back to NASA 
by the end of calendar year 2006.

                     LIGHT UTILITY HELICOPTER (LUH)

    Question. Secretary Harvey, I understand the Army is in the process 
of selecting a commercial helicopter to fill the role of your Light 
Utility Helicopter to be used for non-combat missions. I congratulate 
you for deciding to use a helicopter that is already in production and 
which does not require any research and design funding. It would seem 
to me that this approach will save the taxpayers money and provide the 
Army with the needed platform in a very short period of time. Can you 
please highlight how that process is going?
    Answer. Given that the Army chose to fulfill the LUH requirements 
through the acquisition of an existing commercial available FAA 
certified aircraft the Army was able to reduce the timeline from 
concept development/refinement to acquisition to less than 36 months. 
This enables us to fulfill our commitment to modernizing the Army 
National Guard with a new light utility helicopter within the next five 
to seven years. The LUH request for proposal was released on July 26, 
2005, and the source selection activity began October 20, 2005. The 
competitive source selection is currently underway and the Army 
anticipates Milestone C and a contract award in early summer 2006.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter

                   ARMY HERITAGE AND EDUCATION CENTER

    Question. In 2001, the Army decided to incorporate a facility at 
Carlisle that would support the Army Heritage and Education Center. The 
facility would serve as both as a storage and conservation facility for 
the Army Heritage Museum collection and would serve as a conservation 
facility for the collection of historic documents and photographs Army-
wide. This facility was initially programmed for funding in fiscal year 
2006 and according to my information is now programmed in fiscal year 
2009. Could you update me on the status of the project and explain why 
the project keeps slipping though the design of the facility is 
complete and the need for the facility remains?
    Answer. The Museum Support Facility was initially programmed for 
funding in the fiscal year 2005 Future Years Defense Program (FYDP) for 
fiscal year 2009 and remains in fiscal year 2009 in the current FYDP. 
The design is currently 95 percent complete and could be ready to 
advertise in approximately three months.

 NATIONAL MUSEUM OF THE UNITED STATES ARMY/ARMY HERITAGE AND EDUCATION 
                     CENTER--COMPLEMENTARY PROJECTS

    Question. In November 2001, Assistant Secretary Fiori indicated 
that the National Museum of the United States Army and the United 
States Army Heritage and Education Center (AHEC) were complementary 
projects, not competitive and that they have different, but equally 
important missions. Since then, the Army has provide $5 million to 
contract with the Army Historical Foundation to raise funds for the 
National Museum of the United States Army facility while the Army 
Heritage Center Foundation which is raising funds for the AHEC has 
received no Army funding support. In supporting the Army Historical 
Foundation's fundraising effort, it appears that the Army does not 
consider that the AHEC is equally important. You have legislative 
authority to enter into agreements with the Army Heritage Center 
foundation to support the design, construction and operation of the 
AHEC. The Army Heritage Center Foundation has $10 million in matching 
funds from the Commonwealth of Pennsylvania to continue this project 
and the Foundation is ready to begin construction of the next phase of 
their project later this year subject to obtaining additional funds and 
grants. Does the Army support the mission of the Army Heritage and 
Education Center? Are the two facilities complimentary? What level of 
funding does the Army plan provide to contract with the Army Heritage 
Center Foundation for the continued development and expansion of the 
AHEC?
    Answer. The Army remains totally committed to both the National 
Museum of the United States Army (NMUSA) at Fort Belvoir, Virginia, and 
the United States Army Heritage and Education Center (AHEC) at Carlisle 
Barracks, Pennsylvania, as equally invaluable complimentary 
institutions. The first round of construction on the AHEC, building an 
expansive, superbly designed state of the art archive, was altogether 
funded by the Army, ample testimony to the importance of the project to 
the Army. Federal funds have been identified for other aspects of the 
overall AHEC project, although much that remains to be built is to be 
built with private funds--as is also the case with the NMUSA. It is not 
true that the Army unilaterally distributed funds to the Army 
Historical Foundation to help them raise money for the Fort Belvoir 
site. Congress identified money for the Army Historical Foundation, and 
directed the Army to administer its distribution on the behalf of the 
federal government. We are happy to do so and would like to see a 
similar arrangement made for the Army Heritage Center Foundation. The 
Army is by law limited in the help it can offer private foundations 
without Congressional intervention. Both the NMUSA at Fort Belvoir and 
the AHEC at Carlisle Barracks are complex projects with multiple 
facilities to be built over time, with various mixes of federal and 
private funding. Those facilities to be built with federal funding are 
on track and reflect the Army's unwavering commitment to both the NMUSA 
and the AHEC. We would welcome whatever support Congress extends to 
both the Army Historical Foundation and the Army Heritage Center 
Foundation--or whatever direct support Congress allows the Army to 
extend.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                      IMPROVISED EXPLOSIVE DEVICES

    Question. One of the biggest dangers facing our troops in Iraq has 
been roadside explosives known as IEDs. They have disrupted our convoys 
and patrols, and they will likely continue to threaten the on-going 
rotation of troops in Iraq. The Army leads the Joint IED Defeat Task 
Force, which is working to find and destroy these home-made bombs.
    Does the Army have the authorities it needs to get existing 
technologies in the hands of our troops to better detect these bombs?
    If not, what authorities do you need?
    What successes have you had with this task force?
    How is the task force finding, testing, and deploying new 
technologies?
    Answer. Mr. Chairman, I have asked the Director, Joint IED Defeat 
Organization (JIEDDO) to respond to your concerns.

                SCIENCE AND TECHNOLOGY (S&T) INVESTMENTS

    Question. Would you please comment on the importance of basic S&T 
investments for transformation?
    Answer. The goal of the Army Science and Technology (S&T) program 
is to achieve transformational capabilities that will enable the future 
force while pursuing opportunities to enhance current force 
capabilities. The U.S. Army's single largest S&T investment focuses on 
enabling technologies to field the initial Future Combat Systems 
Brigade Combat Team and follow-on technology insertions.
    Question. Does the Army have the funding it needs to invest in 
basic science and technology?
    Answer. With the Army fully engaged in the Global War on Terror, we 
are challenged to satisfy the resource demands to sustain current 
operations while simultaneously maintaining our S&T investments in the 
most important technologies to enable capabilities for the future 
modular force. However, the Army S&T program is funded consistent with 
the ability to mature technologies synchronized with funding resources 
we are provided to execute our acquisition programs.

                       FUTURE COMBAT SYSTEM (FCS)

    Question. Can you comment on what types of project will be tested 
at White Sands?
    Answer. The currently approved FCS test and evaluation master plan 
details the categories of testing currently planned to be conducted at 
the U.S. Army White Sands Missile Range (WSMR). All categories of 
equipment and systems in the FCS program will be tested at White Sands, 
to include manned combat and support vehicles, unmanned ground and 
aerial vehicles, sensors, and networking components. Within these 
categories, all of the FCS Platforms/systems will be tested as 
individual systems and in a system of systems environment. There are 
also 52 complimentary programs which will also participate in FCS 
system of system level testing at WSMR. These include weapon systems, 
vehicles, sensors, and communication systems. The specific categories 
of testing includes: component level specialty testing utilizing WSMR 
unique test capabilities; field experiments, which serve as program 
risk reduction efforts; Spin-Out Capability Testing for the Current 
Forces, which will begin to integrate FCS technologies into the current 
force; System of System Testing for the FCS BCT; and finally, system 
level Integrated Qualification Testing.
    Question. Do you know how much FCS testing will be conducted at 
White Sands?
    Answer. Due to the unique size and location of White Sands, the 
Army envisions conducting almost all of the system-of-systems or unit 
level testing at White Sands ranges and the adjacent Fort Bliss ranges. 
This allows experimentation and testing in an environment that provides 
an operational setting close to that envisioned for some key 
employments of the FCS Brigade Combat Team (BCT). The FCS systems, 
system-of-systems, and BCT will be experimented with, and tested at all 
unit levels up to the brigade level at White Sands. Technical component 
system level testing will be conducted at White Sands within the 
construct of their capabilities, to include electromagnetics, software, 
and unmanned systems. This technical testing will be augmented by that 
conducted throughout the Army major range and test facility base 
infrastructure as appropriate, based on unique expertise and 
facilities. This testing will be conducted on a two-year integration 
phase cycle with increasing complexity as the FCS program matures.
    Question. What does the Army need to coordinate work between Fort 
Bliss and White Sands Missile Range?
    Answer. The development, training and testing of a FCS-equipped 
force is a significant task, but from a test/training event 
coordination perspective, it is one that is not dissimilar from other 
major Army exercises such as Roving Sands. These large-scale events 
were successful only as a result of the close communication and 
coordination between Fort Bliss and WSMR. With the large area of 
operations and its doctrinal employment, it is anticipated the fully 
capable FCS-equipped brigade in the SO4/initial operational test and 
evaluation timeframe will require the use of essentially 100 percent of 
the WSMR and Fort Bliss airspace and approximately 80 percent of the 
Fort Bliss land-space and 75 percent of the WSMR land space (in area 
and 100 percent in distance). Of course these are a function of the 
scenarios and development objectives, including disparately operating 
the FCS System of Systems across the required area of operations. 
Additionally, the FCS development will require integrated frequency 
management, scheduling, and ranges across WSMR and Fort Bliss, as well 
as portability of instrumentation test assets from WSMR and 
Developmental Test Center (DTC). The WSMR and Fort Bliss have conducted 
regular interchanges in the past and continue to coordinate on emerging 
detailed requirements with an objective of establishing processes for 
integrated asset and operations support to the Army and the FCS 
development. This is simply an expansion of historical and on-going 
coordination and use of the combined capabilities. As an example, plans 
are being formulated to integrate airspace management and scheduling 
into the tri-service air traffic control center at WSMR to provide a 
regional airspace utilization operations capability for the Army 
(inducing FCS), Navy and Air Force RDT&E and training. Given all of 
this information and the associated coordination required, much work 
has already occurred between the two installations and the PM FCS (BCT) 
leadership. At this time, the Army does not anticipate any assistance 
required with coordination between the two installations and their 
respective organizations.
    Question. What can White Sands Missile Range, Holloman Air Force 
Base, and New Mexico do to help the Army with FCS testing?
    Answer. White Sands Missile Range can continue to support the 
Program Manager, FCS in the planning process and the execution of the 
FCS Testing in accordance with the current test and evaluation master 
plan. As the detailed test plans are developed, a more complete request 
for assistance may be provided.
    Question. On a related note, what will the Army's decision to 
expand its presence at Fort Bliss mean in terms of growth and increased 
activity in New Mexico?
    Answer. From a test perspective there will be a permanent presence 
established to support planning and resource development and 
coordination. The exact numbers of personnel are yet to be determined, 
but as indicated above, there will be personnel at WSMR by the summer 
of 2006. As each program test event is executed there will be a surge 
of effort to support, namely in personnel. These events will take place 
as discussed in the preceding paragraphs. Lastly, given the complexity 
of the FCS program and the magnitude of the test events, the surge in 
personnel supporting the test events will number in the 100s. With the 
central test control residing on WSMR and an aggressive test schedule 
over the next three years, it is likely this increase in personnel will 
provide a positive economic impact/growth to New Mexico.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns

                             NATIONAL GUARD

    Question. I fully support your goal of having a fully equipped and 
fully manned National Guard that is every bit as capable as its active 
component. Can you highlight your plan to transform the National Guard?
    Answer. The Army National Guard (ARNG) is simultaneously 
transforming with the active component into the modular force design. 
This is important as it is the first step along the way to ensuring 
that all three components, active, Guard, and Reserve, are 
interoperable on the battlefield. It started with the acceleration of 
the ARNG's modular force conversion as approved by the Vice Chief of 
Staff of the Army on June 9, 2005. As approved, all brigade combat 
teams will complete organizational conversion by fiscal year 2008. But 
this action only addresses unit design and manning; it does not 
complete the equipping for those brigades. To make the ARNG as capable 
as the active component, a serious investment into its equipment 
modernization is required. To address longstanding equipment shortages, 
the Army has programmed $21 billion from fiscal year 2005 through 
fiscal year 2011 for ARNG procurement to ensure that the ARNG is 
properly equipped to perform effectively as the Army's operational 
reserve. Additionally, the Army will leverage the Army Force Generation 
model to provide ARNG units a predictable time sequence for potential 
mobilization. This initiative has the benefit of focusing resources and 
training to ensure the readiness of those units that are scheduled for 
mobilization. Lastly, the restructuring of the ARNG is an important 
step to ensuring that the ARNG is properly manned. In the last couple 
of years, the Army, working with the ARNG, has eliminated its 
historical over-structure in order to align structure and manning 
within its authorized end strength of 350,000. These significant force 
structure adjustments and resource investments advance the Army's 
intent of ensuring every ARNG unit is fully equipped, fully trained, 
and fully manned.
                                SOLDIERS

    Question. As I already mentioned, our troops on the ground are our 
focus. Can you discuss how your spiral development and fielding plan is 
getting new equipment and technologies to our soldiers as quickly as 
possible?
    Answer. Nothing is more important than ensuring our Soldiers have 
the best equipment to accomplish their mission. The Army is adapting 
processes to rapidly enhance the capabilities of our units and Soldiers 
in the complex operational environments of Operations Iraqi Freedom and 
Enduring Freedom. This has the emphasis of all senior leaders and is an 
Army-wide, enterprise level effort.
    We rapidly respond to capability requirements from the field and 
constantly assess and improve fielded equipment. Effective capability 
development is more than just inserting materiel solutions, and 
requires a holistic approach that includes the integration of training, 
sustainment, organizational, and doctrinal changes.
    Army organizations have partnered to rapidly develop, assess and 
field capability to the force. Organizations such as the Army G3's 
Rapid Equipping Force, U.S. Army Training and Doctrine Command's Spiral 
Developments Division, U.S. Army Army Materiel Command's Research, 
Development and Engineering Command and the U.S. Army Test and 
Evaluation Command, have developed processes that support accelerated 
capability development. Other partners in this effort are the Assistant 
Secretary of the Army for Acquisition, Logistics and Technology; the 
Joint community; and Industry.
    We have had successes in a number of areas particularly in the area 
of force protection. This has been done through the development and 
fielding of systems through route clearance companies consisting of 
vehicles such as the Buffalo and RG31, Counter-Remote-Controlled-IED 
Electronic Warfare systems (CREW), small robots such as PACKBOT, an 
Improved First Aid Kit (IFAK), an unmanned aerial vehicles and other 
Intelligence, Surveillance and Reconnaissance and command and control 
systems.
    The efforts of these organizations have also produced a Counter 
Rocket, Artillery, Mortar (C-RAM) capability currently in use in 
theater, and training enhancements that ensure our Soldiers are better 
prepared for the asymmetric challenges in the current operational 
environment.
    To better address the asymmetric challenges, the Army recently 
organized the Asymmetric Warfare Office, under the Army G3, to lead the 
effort in developing the necessary policy, programs, and resources to 
stay in front of these types of threats.
    Our organizational and process changes are paying off. We are 
better able to quickly react to the changing battlefield, ensuring our 
Soldiers have the best equipment our nation can provide.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                               WAR COSTS

    Question. Prior to the U.S. invasion of Iraq, Pentagon officials, 
including Secretary Rumsfeld, estimated that the total cost of the Iraq 
War would not surpass $50 to $60 billion. As you know, to date, the 
cost of combat operations in Iraq has reached about $250 billion, and 
that number could well surpass $300 billion by the end of the year. 
Unfortunately, the Pentagon has not provided Congress any war funding 
estimates past fiscal year 2007.
    First, in this age of rising budget deficits, can you provide this 
Committee any type of estimate of what level of future funding will be 
necessary from the Congress to appropriately pay for the costs of this 
ongoing war?
    Answer. In the short term, we anticipate the costs of this ongoing 
war to remain at current levels. I cannot estimate future costs, which 
will be driven by the size of the coalition force in Iraq and the level 
and duration of the conflict. As the Iraqi forces accept increasing 
responsibility for the security of their country, our forces will 
withdraw and costs for military operations will decline accordingly. 
However, the Army will require funding to reset our force for an 
estimated two years beyond that timeframe.
    Question. Why does the Administration continue to rely almost 
entirely on emergency supplementals to fund the war?
    Answer. From the Army perspective, base budgeting requires a 
generally stable operational environment with predictable costs. That 
is not the case with our operations in Iraq. In addition, we anticipate 
significant changes in future funding requirements as we shift from an 
operational presence to resetting the force.
    Question. Wouldn't you agree that the American taxpayers deserve to 
know upfront--through the regular base budget--the amount of money that 
is going to the war effort? Or do you believe it is fair to continue 
the reliance on this budget gimmickry?
    Answer. The regular base budget provides comprehensive information 
on the costs to sustain America's Army across a generally stable 
period. The war effort is not part of that base, but represents the 
added costs to fulfill our role in supporting the combatant commanders.

                   TRAINING OF IRAQI SECURITY FORCES

    Question. Secretary of State Rice and Chairman of the Joint Chief 
of Joint Chiefs of Staff, General Pace, have both suggested in recent 
days that it is likely that the military will drawdown troop levels 
sometime this year. Last fall General Casey, the top commander in Iraq, 
stated that a reduction in American troops would take ``away an element 
that fuels the insurgency.'' Does the Army plan to reduce its 
endstrength in Iraq this year? Next year?
    Answer. In accordance with title 10 U.S. Code, the Army is charged 
with organizing, manning, training, and equipping a force capable of 
fulfilling current and future Secretary of Defense approved 
requirements of combatant commanders. Thus, the Army force scheduled to 
deploy in future rotations to Iraq is conditional upon periodic 
strategic and operational assessments from the Commander, U.S. Central 
Command (CENTCOM). The number and type of forces requested by the 
CENTCOM commander may fluctuate as the political, economic, and 
security conditions in Iraq and Afghanistan evolve over time.
    Question. How do you think that a reduction in the number of 
American forces would affect the rise in sectarian violence in Iraq?
    Answer. Senator, this question should be referred to the Commander, 
U.S. Central Command for response.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The subcommittee will reconvene tomorrow at 
10 o'clock in the morning, when we will hear from the 
Department of the Air Force. And, until then, we'll stand in 
recess. And I thank you very much.
    [Whereupon, at 3:33 p.m., Tuesday, March 28, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 29.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, MARCH 29, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senator Stevens, Domenici, Shelby, Burns, Inouye, 
Dorgan, and Feinstein.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENTS OF:
        HON. MICHAEL W. WYNNE, SECRETARY
        GENERAL T. MICHAEL MOSELEY, CHIEF OF STAFF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Well, thank you, Mr. Secretary and 
General, for bringing along some of the young men and women who 
have returned from service in the war zone. We appreciate the 
opportunity to have photographs taken so we can put them on the 
committee's web site. We're delighted to have an opportunity to 
listen to the Secretary of the Air Force and the Air Force 
Chief of Staff. I believe this is the first time you've 
appeared before our subcommittee.
    Senator Inouye, our co-chair, is at another markup on the 
Indian Affairs Committee, so he will be late today.
    The Air Force continues to support our Nation's forces in 
Iraq and Afghanistan and throughout the world, as well as 
remain vigilant to protect the United States in the airspace 
and cyberspace. The Air Force currently has more than 200,000 
airmen deployed worldwide in support of the combatant 
commanders. In Afghanistan and Iraq, the Air Force is flying 
more than 200 sorties a day, providing close air support, 
theater airlift, intelligence support, refueling, and 
aeromedical evacuation of our wounded people. At the same time, 
you're confronted with the difficult tasks of modernization and 
recapitalizing the Air Force.
    We note in your posture statement that the Air Force is 
maintaining the oldest aircraft in its history. The average age 
now of an aircraft in the Air Force is 23 years. The 
subcommittee has begun its review of the fiscal year 2007 
defense budget. In your posture statement, you state that your 
priorities for the Air Force are to win the global war on 
terror, to develop and care for our airmen, and to modernize 
and recapitalize the aircraft and equipment.
    The budget before us requests a total now of $105.9 
billion. This is $4.8 billion, or 4.7 percent, greater than the 
amount that was enacted for the current year. That's a lot of 
money. It's a large increase in fiscal year 2007, in this 
period of high deficits. However we recognize your challenges 
are not small, and the country is fortunate to be able to call 
upon your leadership for our Air Force.
    Secretary Wynne, General Moseley, we're looking forward to 
hearing about your budget priorities and how you are 
positioning the Air Force for tomorrow. I want to thank you, 
personally, for your visit to us, telling us of some of your 
problems and some of your goals and how we should work together 
to achieve them.
    We'll leave room in our record, at this point, for the 
statement of our co-chairman, when he arrives.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I join you in welcoming our Air Force 
leaders. General Mosley, Secretary Wynne we thank you for being 
here today.
    In your budget submission last year, the recommendations to 
truncate plans for the F-22 and C-130 were controversial 
matters that eventually were overturned.
    This year you are proposing to terminate the C-17 and the 
second source engine for the Joint Strike Fighter. Again, 
gentlemen, your request is not without controversy.
    We will need to understand the rationale for these 
proposals and your candid views on how we in the Congress 
should respond. We would expect that today's hearing would 
provide a forum to address these issues.
    Mr. Secretary, I want to take this opportunity to remind 
everyone of the great support the Air Force is providing for 
Operation Noble Eagle here at home, and Operations Enduring 
Freedom and Iraqi Freedom overseas. As is to be expected, the 
media and my colleagues focus on the role played by the Army 
and marines on the ground, but without your support they would 
be a lot worse off.
    Gentlemen, we appreciate all the men and women in the Air 
Force are doing for our Nation. We cannot be more grateful for 
the sacrifices that you make every day.
    Mr. Chairman, I thank you for calling this hearing and I 
await the testimony of our witnesses.

    Senator Stevens. And I'll turn to Senator Burns for any 
statement he may wish to make.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you, Mr. Chairman. And thanks for the 
hearing. And welcome, Secretary Wynne and General Moseley. It's 
good to see you this morning.
    Mr. Secretary, I applaud your efforts to redirect the Air 
Force to address some of the challenges that we face today. 
We're facing different challenges, as you well know. And, 
unfortunately, I believe that you've got more than a tough job 
ahead of you. I've looked at it every now and again, and I've 
said, ``I certainly don't--wouldn't have your job right now,'' 
because you're trying to do a lot of things.
    Many of us in Congress have seen the Air Force struggling, 
in these past 4 or 5 years, to find a core mission and 
direction. Your mission statement talks of ``sovereign 
options.'' I will tell you how that term hit me. My eyes glazed 
over, and then I went home and shampooed, trying to make some 
sense of it. Now, I don't know what a ``sovereign option'' is 
right now.
    We're presently engaged in a global war. And it's a long 
war. It isn't a war of air dominance. And, frankly, we've never 
had a war of air dominance. Wars are won on the ground, as you 
well know. And this one has taken on a completely different 
character than anything we've ever faced before. Our success in 
Iraq and Afghanistan will be solely based on the success of 
those boots-on-the-ground kind of operation.
    In practice, I see that--our airmen in today's Air Force 
are leaning forward to accomplish that mission. In contrast, 
the senior leadership of the Air Force seems to be detached 
from the reality of what this operation is all about.
    The measure of every branch of the Armed Forces in this war 
is its ability to support the efforts on the ground. This is 
where I, and many others, part ways from the direction the Air 
Force seems to be going. The future of the Air Force is in the 
service to the mission on the ground. It is in support of our 
young corporals and sergeants engaged in the real fight. 
Unfortunately, it seems many of the senior leaders are 
reluctant to recognize that waves of Russian fighters will not 
be coming over the horizon anytime soon. The future of the Air 
Force is not the main effort of the fight, but it is that of a 
supporting arm.
    Transporting much-needed supplies to the troops, providing 
air support for convoys on the ground, and getting ground 
commanders the imagery they need in realtime are all critical 
missions. And I'm concerned that the future years' budgets of 
the Air Force continue to shortchange those missions, which 
is--by their very nature, are support missions for the more 
glamorous missions of air dominance.
    The Quadrennial Defense Review (QDR), talks of irregular, 
catastrophic, and disruptive threats. These are the threats we 
face today. These are the threats we need the focus of our 
Nation's treasure on addressing the future. And probably, from 
that statement, you said I'm concerned about several elements 
in the direction of which we are going.
    Mr. Chairman, thank you very much. And I have a couple of 
very pointed questions, and then I'll put my saber back in the 
scabbard and move on.
    Thank you.
    Senator Stevens. Thank you very much, Senator.
    Mr. Secretary and General, we appreciate your statements. 
They'll print in the record in full, as though read, but 
we'll--take as much time as you wish.
    I want to congratulate you on this posture statement. I've 
gone over that, and it's really a very good one. We appreciate 
the work you've put into that statement. I hope the Senate and 
the House will pay attention to it.
    Thank you very much.
    Mr. Wynne. Thank you, Mr. Chairman, Senator Inouye.
    Mr. Chairman, Senator Inouye, and members of the 
subcommittee, especially Senator Burns, thank you for having 
General Moseley and me here today to testify on behalf of 
America's Air Force. We are grateful for this subcommittee's 
steadfast support our Nation's airmen and their families.
    I've seen our innovative and adaptable airmen--Active, 
Guard, and Reserve--firsthand, and I am inspired by their 
commitment and their patriotism. Nevertheless, as I told you 
back in October, our Air Force is challenged with trying to get 
6 pounds into a 5-pound sack.
    I have broken these challenges down into three critical 
components. First, personnel costs of an All Volunteer Force 
are accelerating because of the expanding benefits and the 
rising healthcare costs. Next, operations and maintenance costs 
continue to rise. We are experiencing unyielding second-order 
effects that continue to drain our top line. Simply stated, we 
are exhausting all of our assets at a much higher rate than we 
had forecast, and absorbing costs to organize, train, and equip 
for evolving new missions. Last, our investment accounts of 
acquisition and research and development face severe pressure 
as a result of the foregoing must-pay bills. Nevertheless, we 
continue to mobilize fast and creative responses to achieve the 
technology and interdependence required to dominate in the 
global war on terrorism and threats beyond.
    So, where does our solution lie? With your assistance, we 
will responsibly attack all three challenges. To rein in 
personnel costs, we're using total force integration. Started 
in the mid-1990s, it has exposed redundancies to capitalize on 
what we continue to operationalize the Guard and the Reserve. 
``Mission first'' continues to be our beacon while partnering 
with them. In fact, we have recently delivered the post-base 
realignment and closure (BRAC) phase II mission laydown, which 
has been cosigned by the Active, the National Guard Bureau, and 
the Reserve commanders.
    In addition to using our people more efficiently through 
total force integration, we instituted Air Force Smart 
Operations 21, smarter and leaner operations. No process or 
organizational construct is immune from this Air Force-wide 
critical review. Efficiencies from Air Force Smart Operations 
21, total force integration, and lessons learned from 15 years 
under fire permit an end-strength reduction of 40,000 full-time 
equivalents across the future years defense plan (FYDP). Using 
our manpower smarter is the key to retention and the key to 
force management.
    Air Force Smart Operations 21 will also help us with our 
second challenge, operations and maintenance price increases. 
But smarter operations cannot overcome the elephant in the 
room. Fuel and upkeep for aircraft with decreasing military 
utility, aircraft with 1950s-era engines and design expose us 
to soaring fuel-cost prices, increased maintenance, and 
obsolete spares suppliers. Many planes are simply not 
deployable due to declining military utility.
    We can harvest savings from cutting requirements, 
redundancies, and excess capacity in our aircraft and missile 
fleets. This lets me keep the force robust, while shifting 
resources to new missions, like Predator, Global Hawk, and Long 
Range Strike. I need this type of flexibility. And this is 
where I ask for your help. I need your help in lifting the 
legislative restrictions on retirements that prevent me from 
being the air-fleet manager that you expect me to be.
    I think we have some illustrations here on the charts to 
our side.
    Right now, these restrictions apply to nearly 15 percent of 
our air fleet. Continued restrictive language will not only 
impede the shift to new missions now, but will lead to 
exhausting resources on aircraft with declining military 
utility, and ultimately impact our technological edge for the 
future.
    The final part of this 6-pound problem is within our 
investment accounts, acquisition and research and development. 
I reiterate my commitment to restore the Air Force to its 
premier status in acquisition and governance. And we continue 
to concentrate in this area.
    The F-22A program illustrates the pressure our acquisition 
budget faces in the best way. Having been convinced of the 
goodness of maintaining a fifth-generation fighter production 
line until the F-35 is a proven commodity, the result called 
for a 2-year extension, but only four additional aircraft in 
the 3-year multiyear, to recover the cost of the lower volume 
and with the funding laid out as you see it. We recognize that 
this is an excursion from established procedure, and ask your 
support in working through this issue.
    Similarly, we can't ignore our research and investment--the 
research and development investment stream, even while at war. 
Along with air dominance, space, and cyberspace, research and 
development investment is key to the future independent--
interdependent warfight. Investment today provides the gateway 
to tomorrow's dominance.
    In summary, personnel, operations and maintenance, and our 
investment accounts of acquisition and research and development 
are our targets. Despite 15 years of continuous combat since 
Operation Desert Storm, we have transformed our force like no 
other. With total force integration, Air Force Smart Operations 
21, and your help, we will keep the title of the world's most 
agile and lethal air force. Our commitment is to increase the 
aggregate military utility across the total spectrum of 
operations for the joint force commander. This means 
modernizing, recapitalizing, and recognizing efficiencies as we 
manage this total force.

                           PREPARED STATEMENT

    Thank you for your strong commitment to our Air Force and 
to the common defense. I look forward to your questions.
    Senator Stevens. Thank you, Mr. Secretary.
    [The statement follows:]
                 Prepared Statement of Michael W. Wynne

    Mr. Chairman and distinguished members of the Committee, the Air 
Force has a rich heritage and a boundless future. The Service continues 
its transformation to meet the emerging challenges of a dynamic world, 
and to ensure the nation's security by dominating the global commons of 
air, space and cyberspace. The fiscal year 2007 budget takes a 
significant step toward that future.
    We are America's Airmen. Our mission is to deliver sovereign 
options for the defense of the United States of America and its global 
interests--we fly and we fight--in air, space and cyberspace. For the 
past 15 years, our Air Force team has proven its mettle and skill every 
day. Since the days of DESERT STORM, we have been globally and 
continuously engaged in combat. We will continue to show the same 
ingenuity, courage and resolve and achieve success in our three most 
important challenges: winning the Global War on Terror (GWOT); 
developing and caring for our Airmen; and maintaining, modernizing and 
recapitalizing our aircraft and equipment.
    In the GWOT we face vile enemies--enemies devoid of any positive 
vision of the future, who seek only to destroy the United States and 
the ideals and freedoms upon which America is built. We will win this 
fight. We will maintain our focus on winning this fight. While 
maintaining focus on winning the GWOT we will also maintain vigilance--
vigilance in defense of our homeland and vigilance against emerging 
threats in an uncertain world.
    Our expeditionary fighting forces and culture, centered on the Air 
and Space Expeditionary Force, provide the foundation for our 
operations. We will more closely align our Regular Air Force, Air 
National Guard and Air Force Reserve units with Total Force initiatives 
to enhance our overall capability. We will continue transforming to 
meet the challenges of a dynamic world.
    We will remain focused on caring for and developing our Airmen--our 
most valuable resource. We will continue to look for ways to maintain 
and improve their training, their personal and professional development 
and their quality of life, so they may continue to meet the commitments 
of today while preparing for the challenges of tomorrow.
    We are operating the oldest inventory of aircraft in our history, 
while maintaining the intense Operations Tempo required by the GWOT, 
humanitarian crises, and routine requirements. Meanwhile, competitor 
states are developing air and air defense systems that could threaten 
our ability to maintain air and space dominance. These factors drive 
the urgent need to modernize and recapitalize our aircraft. We must act 
now to preserve our Nation's freedom of action in the future. The 
Secretary of Defense described future threats in terms of four 
quadrants--traditional, irregular, catastrophic and disruptive. We must 
develop, acquire and maintain systems that can counter threats in any 
of these quadrants. We will do so by incorporating lean principles that 
eliminate waste while providing transparency in our processes.
    Our 2006 Posture Statement outlines our plan to accomplish these 
goals regarding GWOT, our Airmen, and our aircraft and equipment. It 
reflects our commitment to good stewardship of the resources entrusted 
to us, and our dedication to protecting our Nation in air, space and 
cyberspace.

                   INTRODUCTION--HERITAGE TO HORIZON

    Over a century ago, America crossed the threshold of powered flight 
and gave wings to the world. Soon military leaders realized the 
implications of this development, and warfare was changed forever. 
America was fortunate to have ``Great Captains'' with the vision to 
imagine the possibilities of air and space power--Airmen like Billy 
Mitchell, Frank Andrews, Hap Arnold, Ira Eaker, Jimmy Doolittle and 
Bennie Schriever. They have given us a proud heritage of courage, 
excellence and innovation. In so doing, they also give us a sense of 
perspective and a way to understand the Air Force's future.
    They have shown us an unlimited horizon. Each of them lived in 
dangerous times and faced many demanding challenges. Today, we also 
find ourselves as a Nation and an Air Force facing similarly dangerous 
and demanding challenges. Some are global or national in scope; others 
are specific to the Air Force.
    During the last decade the United States Air Force transformed to a 
modular expeditionary force of ten Air and Space Expeditionary Force 
(AEF) packages providing agile air and space power. Our Airmen have 
proven tremendously successful across the spectrum of operations from 
humanitarian efforts to Homeland Defense operations and the Global War 
on Terrorism. We will continue transforming to meet the challenges of a 
dynamic world by rebalancing the force and realigning our structure 
into a Total Force that meets increased demands for persistent 
intelligence, rapid mobility and precision strike capabilities. The AEF 
construct provides the ideal toolbox from which we can provide 
tailored, efficient and lethal air and space forces to deal with future 
challenges.
    The Air Force faces the broadest set of mission requirements across 
the entire spectrum of warfare. We will bolster our Nation's ability to 
respond swiftly, flexibly and decisively to asymmetric, irregular and 
emerging threats. We have embarked on a bold, new initiative known as 
Air Force Smart Operations for the 21st Century (AFSO21) as a means to 
best allocate our resources to meet this increasing set of challenges. 
All of these challenges will require the very best efforts of our 
Airmen throughout the Total Force.
Winning the Global War on Terror (GWOT)
    Our first priority is to maintain focus on winning the GWOT. We 
will continue to operate as part of a true Joint and Coalition team, 
multiplying the effectiveness of our partners to win this war. We fly 
and we fight--whether we're flying A-10s over Afghanistan; flying F-16s 
over Iraq; operating and maneuvering communications satellites in 
geosynchronous orbit; remotely piloting Unmanned Aerial Vehicles (UAVs) 
patrolling over Baghdad; or maintaining vigilance over our Nation's 
homeland in an E-3 Airborne Warning and Control System (AWACS) 
aircraft. All Airmen, no matter what their specialty, contribute to 
this mission.
    We must keep in mind that the GWOT is not defined by today's 
headlines or locations. It will be a long war, with shifting venues and 
constantly evolving threats. The character and capabilities of 
potential U.S. adversaries are increasingly uncertain, veiled, growing 
and changing, as both state and non-state actors acquire advanced 
technology and the means to either acquire or develop weapons of mass 
destruction (WMDs).
    We can foresee serious threats posed by increasing numbers and 
sophistication of ballistic and cruise missiles; chemical, biological, 
radiological and nuclear weapons; advanced surface-to-air missiles 
(SAMs); and sophisticated combat aircraft. We also anticipate the real 
threat of potentially crippling attacks on our Nation's critical 
infrastructure, including space networks. Not only must we be prepared 
to confront known threats, but we also must be ready for unexpected, 
disruptive breakthroughs in technology that may undercut traditional 
U.S. advantages.
    Maintaining a strong defense able to overcome and defeat these 
threats remains an imperative for our Nation. Currently, the Air Force 
can command the global commons of air and space and significantly 
influence the global commons of the sea and cyberspace; however, we 
cannot indefinitely maintain this advantage using the current 
technology of the air and space systems and equipment comprising our 
existing force structure.
Developing and Caring for Our Airmen
    Our Regular Air Force Airmen, Air National Guardsmen, Air Force 
Reservists and civilians, who together form our Total Force, are 
building on their inheritance of courage, excellence and innovation. 
They are highly educated and resourceful, and have created the most 
lethal Air Force that has ever existed. We must continue to look for 
ways to maintain and improve their training, their personal and 
professional development and their quality of life, so that they may 
continue to meet the commitments of today while preparing for the 
challenges of tomorrow.
    Airmen today are contributing to combat operations in ways never 
before envisioned--as convoy drivers and escorts, detainee guards and 
translators to give a few examples. Other Airmen routinely serve 
``outside the wire'' as Special Tactics operators, Joint Terminal 
Attack Controllers and Special Operations Weather personnel. All of 
these Airmen must receive the proper training to survive, fight and 
win. We are working within the Air Force, as well as with our Joint 
warfighting partners, to ensure that all Airmen are fully prepared when 
they arrive in the combat zone.
    Developing Airmen involves more than combat skills. It is a career-
long process that maximizes the potential of each member of the Total 
Force team. We will look at every Airman as an individual and provide 
them with specialized training, relevant educational opportunities and 
appropriate assignments in order to capitalize on the talent these 
brave Airmen offer for this country's defense.
    Every Airman is a vital national resource and must be cared for as 
such. In addition to providing professional opportunities for our 
Airmen and fostering an environment of mutual respect, the Air Force is 
committed to investing in health and fitness programs and facilities, 
world class medical access and care, and housing and morale programs 
for our Airmen. Our Airmen have proven themselves to be the best 
America has to offer--they deserve the best support available.
    By ensuring that our Airmen are prepared for combat, effectively 
developed and properly supported, we will continue to provide our 
Nation with the best Air Force in the world.
Maintenance, Modernization and Recapitalization
    One of our most daunting challenges is maintaining the military 
utility of our aircraft as reflected in mission readiness, maintenance 
costs and other factors. We have been actively engaged in combat for 
the past 15 years. We currently maintain an Air Bridge to Southwest 
Asia. Our state of alert for GWOT requires us to operate at an elevated 
and sustained operations tempo (OPSTEMPO). Increased investment and 
increased maintenance tempo can keep our older aircraft flying and slow 
their decaying military utility, but equipment age and use are 
unrelenting factors.
    Presently, we have the oldest aircraft inventory in our history. 
Our aircraft are an average of over 23 years old--older in many cases 
than those who fly and maintain them. In particular, our inventory of 
tanker aircraft averages over 41 years old, and our C-130 tactical 
airlifters average over 25 years old. As our equipment ages, it 
requires more frequent maintenance and replacement of parts; meanwhile, 
increased OPSTEMPO accelerates wear and tear on our equipment and 
operational infrastructure, exposes our equipment to extreme conditions 
and, in some cases, delays routine maintenance.
    We must recapitalize our aircraft and operational infrastructure, 
as well as modernize our processes for services, support and 
information delivery in order to maintain the grueling pace required 
into the foreseeable future. We must do so in a fiscally prudent 
manner. This means retiring and replacing our oldest, least capable and 
most expensive aircraft and equipment, as well as accepting a 
manageable level of risk in order to selectively maintain some older 
systems until newer systems are on the ramp.
    These newer systems will cost far less to operate and maintain and 
are designed to defeat emerging threats. The United States no longer 
enjoys a monopoly on advanced technology, and we are already witnessing 
the emergence of highly sophisticated systems that threaten our 
capability to achieve Joint Air and Space Dominance. Along with ongoing 
robust science and technology (S&T) programs, transformational systems 
such as the F-22A Raptor, F-35 Joint Strike Fighter (JSF), Space Radar 
(SR) and Transformational Communications Satellite (TSAT) will ensure 
that we maintain the ability to provide overwhelming air and space 
power for our Combatant Commanders.
    Concurrently, the Air Force is also focusing on reforming, 
modernizing, and improving processes for acquisition of new systems and 
equipment. We will achieve greater efficiencies and higher productivity 
by reforming our business practices. By incorporating lean processes 
and transparent accounting, and reinforcing a culture of continuous 
improvement, the Air Force will maintain the high standards of our 
heritage. We will continue our tradition of transformation, realize 
both lethality and efficiency in our capabilities in this new century, 
and stand ready for the challenges of the future.
    The future is what you bring with you when tomorrow comes. Our 2006 
Air Force Posture Statement outlines our flight plan into the future. 
By focusing on winning the GWOT, maintaining the excellence and 
maximizing the potential of the America's Airmen, and maintaining, 
modernizing and recapitalizing our aircraft and equipment, we will 
provide Air and Space Dominance for U.S. forces well into the future.

          AIR AND SPACE POWER TODAY--BUILDING ON OUR HERITAGE

Current Security Environment
    The current security environment is marked by seemingly constant 
change and uncertainty. Our security environment is also marked by the 
threats posed by terrorist organizations and rogue states around the 
world bearing ill will toward our Nation. In times of uncertainty and 
heightened threat, our citizens turn to the military to defend this 
great Nation at home and abroad. Our Airmen stand alongside Soldiers, 
Sailors, Marines and Coast Guardsmen--a Joint team poised and ready to 
defend the Nation.
    Throughout the history of American air and space power, Airmen have 
often faced complex challenges during times of change and uncertainty--
times when our Nation's survival was at stake. In early 1945, General 
``Hap'' Arnold reported to the Secretary of War, ``our Air Force must 
be flexible in its basic structure and capable of successfully adapting 
itself to the vast changes which are bound to come in the future. 
Whatever its numerical size may be, it must be second to none in range 
and striking power.'' In retrospect, Hap Arnold's words were amazingly 
prescient.
    Today our force is still second to none in range and striking 
power. Potential adversaries, well aware of the strength of our Air 
Force, seek to limit our range and striking power through development 
of new and emerging threat systems. These systems, coupled with the 
proliferation of weapons of mass destruction, form a formidable threat 
to the Joint Force and to our Nation.
    In order to achieve victory in the GWOT and meet the challenges of 
emerging threats, the Air Force looks to build on the great heritage 
established by decades of Airmen--Airmen who have confronted daunting 
challenges and succeeded as vital members of the Joint warfighting 
team.
            Global War on Terror (GWOT)
    Several key elements--ideologies of hatred, vast resources, mutual 
support structures, as well as veiled state and private sponsorship--
provide linkages across the array of enemies confronting us in the 
GWOT. The general terrorist threat also spans several regions of the 
world, often acting on a global scale. While the strategy to prosecute 
and win the GWOT is an enterprise necessarily involving many agencies 
and actions in addition to military forces, the Air Force, in 
particular, serves a vital role in our Nation's battle against 
terrorist networks.
    America's Airmen have become seasoned veterans of Post-Cold War 
conflicts and are postured to answer any contingency or challenge on a 
moments' notice. The Air Force has been taking the war to America's 
enemies for 15 consecutive years. Our constant presence in Southwest 
Asia since Operation DESERT SHIELD and DESERT STORM kept regional 
instability in check. Airpower effectively controlled two-thirds of 
Iraq for over a decade, setting the conditions for Iraq's stunning 
military collapse in Operation IRAQI FREEDOM.
    Recognizing the new reality of rapidly emerging global threats in 
the Post-Cold War environment, the Air Force has significantly reduced 
its force structure and transitioned from a Cold War legacy paradigm to 
a vastly more agile, responsive and scalable force structure built 
around the AEF concept. The AEF construct provides the Combatant 
Commanders and the Joint Force with the agility and lethality required 
to engage U.S. adversaries anywhere in the world with correctly 
tailored forces--all in a matter of hours to single-digit days. The AEF 
construct presents air and space forces in a continuous rotation 
cycle--currently a 20-month cycle with nominal 4-month deployments--and 
provides the Combatant Commands with greater capability and stability 
of forces in theater while providing more predictability for our 
Airmen.
    As defined by our national leadership, the GWOT strategy seeks to 
reduce both the scope and capability of terrorist networks globally, 
regionally and locally. This strategy requires global perspective and 
regional focus. It also demands an ability to simultaneously conduct 
long-range strikes and humanitarian relief on opposite sides of the 
world. In order to execute effectively, the strategy requires 
unparalleled command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C4ISR). These are all activities our 
Air Force conducts for the Joint Force on a daily basis--activities 
critical to successfully prosecuting the GWOT.
    As an essential part of the Joint team, the Air Force contributed 
to defeating the Taliban and eliminating Afghanistan as a safe haven 
for al Qaeda. While the Air Force remains actively engaged in 
operations in Afghanistan, our national strategy is simultaneously 
focused on Iraq as the central front for the war on terror. While the 
United States and its partners have defeated Saddam Hussein's regime of 
terror, the enemies of freedom--both members of the old regime and 
foreign terrorists who have come to Iraq--are making a desperate 
attempt in the name of tyranny and fascism to terrorize, destabilize 
and reclaim this newly-liberated nation and aspiring democracy.
    The Air Force continues to lead the fight in defending the home 
front as well. The Air Force recently conducted an Air Force-Navy 
strategy conference addressing the GWOT and counterinsurgencies. The 
conference report forms the basis for an ongoing Air Force study to 
further improve the Air Force's posture for Homeland Defense. The Air 
Force has also taken a leadership role in developing a Concept of 
Operations for Joint Maritime Interdiction to defend our shores and 
those of our allies. In addition, Air Force aircraft maintain a 24/7 
alert status in defense of the United States and its approaches, 
against both airborne and maritime threats.
    From a global perspective, we are continually bolstering Airman-to-
Airman relationships with our allies and partners to build 
interoperable and complementary capabilities as well as to ensure 
access to foreign airspace and support infrastructure. We are using 
training, exercises, personnel exchanges, cooperative armaments 
development and foreign military sales to expand and cement these vital 
coalitions that are essential to prosecuting the GWOT and to our future 
Joint air operations.
    In addition, from local, regional and global perspectives, foreign 
internal defense is an indispensable component of successful 
counterinsurgency strategies. The Air Force is partnering with Special 
Operations Command to rapidly expand Air Force Foreign Internal Defense 
forces to bolster partner nations on the front lines of the GWOT.
    From direct support of Special Forces, to maritime interdiction, to 
Global Strike, the Air Force remains prepared to engage those who would 
threaten our friends, our interests, or our way of life.
            Emerging Threats
    The threats Airmen will encounter in the coming years are changing 
dramatically. Adversaries are developing and fielding new ground-based 
air defenses, improved sensor capabilities and advanced fighter 
aircraft. These capabilities will increasingly challenge our legacy 
aircraft, sensors and weapons systems.
    Advances in integrated air defense systems, to include advanced 
sensors, data processing and SAMs continue trends noted in the 1990s. 
SAM systems are incorporating faster, more accurate missiles, with 
multi-target capability, greater mobility and increased immunity to 
electronic jamming. Currently possessing ranges of over 100 nautical 
miles (NM), these anti-access weapons will likely achieve ranges of 
over 200 NM by the end of the decade. These advanced SAMs can and will 
compel non-stealthy platforms to standoff beyond useful sensor and 
weapons ranges. Proliferation of these long-range SAMs is on the rise, 
with projections for 2004-2007 indicating a twofold increase over the 
number of advanced SAM system exports during the mid to late 1990s.
    Another trend is the development and proliferation of upgrades to 
older, 1960/70's-era SAMs. At a fraction of the cost of a new advanced, 
long-range SAM, many African, Asian and Mid-East nations are looking to 
upgrade older SAMs to revitalize their aging air defense forces. By 
bringing in modern technologies, improved missile propellants and 
increased mobility, older SAM systems are becoming more reliable and 
more credible threats.
    Finally, the threat from Man Portable Air Defense Systems (MANPADS) 
continues to grow. Large, poorly secured stockpiles of these weapons 
increase the chances of highly capable MANPADS ending up in the hands 
of an insurgent or terrorist group.
    The threats from advanced fighter aircraft also continue to grow. 
Currently there exist 31 nations already fielding 2,500 or more 
airframes. Increased use of state-of-the-art radar jammers, avionics, 
weapons and reduced signature airframes/engines are becoming the norm 
in fighter design. Additionally, countries like India and China are now 
able to produce their own advanced fighters, thereby increasing the 
quantity and quality of adversary aircraft the Air Force may face in 
the future. By 2012, China will more than double its advanced fighter 
inventory to over 500 airframes, most with advanced precision-guided 
munitions and air-to-air weapons. Similarly, self-protection jamming 
suites are growing in complexity and proliferation, potentially eroding 
our ability to target adversary aircraft.
    The threat from the development, fielding and proliferation of 
standoff weapons such as long-range cruise missiles will also provide 
potential adversaries with offensive capabilities of ever-increasing 
accuracy and range which, when combined with their relatively small 
size, presents an increasing challenge to detection and tracking.
    Many nations are enhancing the utility of advanced fighters by 
pursuing, procuring and integrating support aircraft as force 
multipliers. They acquire aerial refueling tankers to extend the range 
of strike operations and increase on-station time for fighters. 
Furthermore, airborne early warning aircraft are extending the reach of 
many nations through datalink capabilities that provide control of 
fighter operations well beyond the reach of land-based radars. Several 
nations are also purchasing standoff jamming assets in both manned and 
unmanned platforms to attempt to deny our traditional sensor 
advantages. Unmanned Aerial Vehicles (UAVs) of all varieties are in 
high demand and are becoming increasingly available on today's market, 
providing low-cost, but highly effective reconnaissance capabilities. 
This situation represents a new and increasingly prolific and complex 
challenge on the battlefield.
    Additionally, the combination of improved C4ISR with improved 
ballistic and cruise missile capabilities will increasingly threaten 
regional and expeditionary Air Force basing. China, in particular, has 
a growing over-the-horizon intelligence, surveillance and 
reconnaissance (ISR) capability from a combination of ground, air and 
space-based systems. Coupled with its large and growing inventory of 
conventionally armed theater ballistic missiles, China's increasing 
capabilities and reach collectively present a serious potential to 
adversely impact allied and Joint air and space operations across the 
Asian theater.
    Worldwide advancements in the development, deployment and 
employment of foreign space and counterspace systems are challenges to 
U.S. Space Superiority. Adversaries, including terrorists, are more and 
more easily obtaining a number of increasingly sophisticated space 
services. Furthermore, they are developing the means to degrade U.S. 
space capabilities, freedom of action and access. The intent of U.S. 
adversaries combined with the capabilities of foreign space and 
counterspace systems will increasingly threaten U.S. military forces 
and interests worldwide.
            Threat of WMD Proliferation
    The threat of proliferation of WMD to countries with advanced 
military capabilities has changed dramatically since the end of the 
Cold War. India and Pakistan became overt nuclear powers in 1998, 
adding to their formidable conventional capabilities. North Korea 
claims and is assessed to have built nuclear weapons, while Iran is 
suspected of pursuing them; both countries face intense international 
pressure to halt their efforts.
    Less catastrophic, but of equal concern, are chemical and 
biological weapons (CBW). Chem-bio WMDs can range in sophistication 
from World War I-vintage gases or traditional agents like anthrax, to 
highly advanced ``fourth-generation'' chemical agents or genetically 
modified bacterial or viral weapons that challenge state-of-the-art 
defenses and countermeasures. It is much less expensive and more 
technologically feasible to produce CBW than it is to obtain nuclear 
weapons or fissile materials. Furthermore, CBW can be concealed very 
effectively and inexpensively, veiled under a veneer of legitimate 
civilian industry or ``dual-use'' activities.
    Future adversaries, deterred from challenging the United States 
openly, may seek to offset U.S. warfighting advantages by developing, 
using or threatening to use these weapons. As such, the acquisition of 
WMD capabilities by terrorists/non-state actors is a grave concern. 
Many groups have declared their desire to pursue such a goal, and 
evidence is growing they are attempting to obtain the necessary 
financial means, weapons knowledge and necessary materials.
Air Force Contributions to OIF, OEF and ONE
            Air and Space Operations in OIF and OEF
    Over 26,000 Airmen are currently forward deployed in support of 
Combatant Commanders throughout the world. These Airmen continue to 
deliver key Air Force capabilities of precision engagement, rapid 
global mobility and information superiority to OEF and OIF missions.
    Pulling from 89,000 tailored deployment teams built around specific 
capabilities, the Air Force has flown the preponderance of Coalition 
sorties in support of OIF and OEF. In Iraq, the Air Force has flown 
over 188,000 sorties, while in Afghanistan, Airmen have flown over 
130,000. Overall, the Air Force has flown a total of over 318,000 
sorties, or approximately 78 percent of the total Coalition air effort. 
Counted among these sorties are missions ranging from airlift and 
aeromedical evacuation, to close air support (CAS) missions to protect 
ground troops as well as provide them with precise fire support and 
sensor capabilities.
    In 2005, Air Force fighters and bombers supporting OIF and OEF 
expended over 294 munitions (bombs), 90 percent of which were 
precision-guided, including the Joint Direct Attack Munition (JDAM). 
These trends represent a 10 percent increase over 2004 totals in the 
use of precision-guided munitions (PGMs). Our Airmen have also provided 
nearly all of the in-flight refueling for Joint and Coalition forces.
    Leading the way in reconnaissance and imagery, the Air Force is 
currently flying Predator UAV missions 24 hours a day, 7 days a week. 
This capability will grow from 8 to 12 total orbits in 2006 to meet 
increased demand. Predator aircraft are able to transmit live video 
pictures to ground-based targeting teams equipped with the Remote 
Operations Video Enhanced Receiver (ROVER) system. Linking precision 
engagement and persistent C4ISR capabilities to forces on the ground, 
ROVER has been used repeatedly to detect, target and destroy improvised 
explosive devices (IEDs) and disrupt insurgent activities across the 
region. Bolstering these capabilities are Tactical Airborne 
Reconnaissance System (TARS) equipped F-16s flown by Air National Guard 
units. In recent testing, TARS has demonstrated the ability to aid in 
the location and destruction of IEDs.
    Air Force operations in Iraq and Afghanistan also highlight the 
importance of space-based C4ISR capabilities to U.S. and Coalition 
forces. These capabilities have become integral to effective 
warfighting operations and include secure communications, global 
weather, persistent worldwide missile warning and intelligence 
gathering. Commanders continue to rely extensively on the all-weather 
precise position, navigation and timing capability provided by the Air 
Force's Global Positioning System (GPS) constellation, satellite 
communications (SATCOM) and timely observations of weather and enemy 
activity to conduct operations in Iraq and Afghanistan. In strikes 
against time-sensitive targets, nearly 40 percent of all munitions used 
in OIF were GPS-guided, which made them unaffected by sand storms and 
inclement weather. Additionally, at the senior leadership level of 
warfighting, the Joint Force Air and Space Component Commander's duties 
as the Space Coordination Authority have become critical to successful 
Joint planning and execution of space capabilities for Joint Forces. 
Holding the ultimate high ground, Air Force space professionals keep a 
constant vigil over a global battle space--planning, acquiring, 
maintaining and operating the systems that sustain our Nation's 
advantages in space.
    Sister-services and U.S. government agencies continue to heavily 
rely on Air Force capabilities. Running the spectrum from logistics 
expertise to medical care, the Air Force is fully partnered with the 
Army and Marine Corps units running convoys throughout Iraq with more 
than 1,000 transportation, security forces and medical Airmen trained 
to support convoy missions.
    Moreover, Air Force capabilities are saving Soldiers' lives and 
simultaneously reducing our required footprint in Southwest Asia. 
Increased use of Air Force airlift capabilities--notably the 
unconventional yet highly effective use of workhorse C-17s as well as 
C-5 aircraft to increase our intra-theater airlift capabilities in 
Iraq--has dramatically reduced the need, number and frequency of ground 
convoys along the most dangerous roads and routes in Iraq. These 
capabilities and optimized theater airlift mission planning methods 
have also contributed to a planned reduction of the number C-130s 
required for OIF support.
    Additionally, Air Force support personnel are taking a more active 
role in the direct protection of personnel and resources. In early 
2005, Air Force Security Forces at Balad Air Base, Iraq, in conjunction 
with the Army, were assigned a sector outside the base to patrol and 
clear of insurgent operations. This aspect of the air base defense 
mission has not been seen since the Vietnam War, yet Task Force 1041 
was successful in reducing attacks on Balad Air Base by 95 percent.
    Airmen also worked to strengthen relationships, develop 
capabilities and enhance the self-reliance of Afghanistan, Iraq, and 
other regional GWOT partners. For example, Air Force Air Traffic 
Controllers helped return safety and commercial viability to Afghan 
airspace. At Ali Airbase, Iraq, a cadre of Air Force instructors taught 
Iraqi airmen how to fly and maintain their newly acquired C-130 
aircraft. In Kyrgyzstan, Air Force C-130s air-dropped U.S. Army and 
Kyrgyz National Guard troops over a drop zone in the capital of Bishkek 
during a joint training exercise. Additionally, United Arab Emirates 
(UAE) recently acquired American-made F-16 Block-60 aircraft. This 
acquisition provides them with cutting edge aviation technology and a 
capability complementary to the UAE's new Gulf Air Warfare Center, 
which has become a tremendously successful training venue for our 
regional and global Coalition partners.
    Finally, Air Force innovations in C2 technologies have allowed 
Airmen to seamlessly automate and integrate efforts of critical air 
assets. The systems baseline in use in the Falconer Air and Space 
Operations Center (AOC) at Al Udeid has improved automated support for 
the daily air tasking orders, while the capabilities of the Battle 
Control System-Mobile communications module reduces the number of 
Airmen needed at forward locations in Iraq, resulting in fewer Airmen 
exposed to hostile fire.
            Air and Space Operations in ONE
    While engaged in OEF and OIF, the Air Force simultaneously 
contributes to Operation NOBLE EAGLE--the defense of the homeland. 
Through a variety of efforts, the Air Force continues to guard the 
skies of our Nation from coast to coast. The Air Force's principal 
Homeland Defense mission is Air Defense and preserving the air 
sovereignty of the United States and its territories.
    Since 9/11, over 41,000 fighter, aerial refueling and airborne 
early warning sorties have been flown in defense of the United States, 
while over 2,000 air patrols have responded to actual incidents and 
suspicious flight operations. This is a true Total Force mission, 
leveraging the combined capabilities of the Air Force Reserve, Air 
National Guard and Regular Air Force components to provide seamlessly 
orchestrated C2 and refueling support for fighter aircraft operating 
from alert sites throughout the United States.
    The range, flexibility, persistence and precision inherent in U.S. 
air and space power provide Joint warfighters with a unique tool set 
for creating war-winning results with a relatively small footprint. Air 
and Space operations stand ready to continue providing these important 
resources to OIF, OEF and ONE, as well as exploring new ways to lead 
the way in the GWOT.
            Air and Space Power--An Essential Element of the Joint 
                    Fight
    Innovation is a central theme in Air Force heritage. It is a 
strength the Air Force lends to the overall effort to transform Joint 
operations into a more seamless, integrated and interdependent team 
effort. U.S. military performance during ongoing operations in Iraq and 
Afghanistan demonstrates unprecedented Joint interdependence. We've 
gone from struggling with C2 and coordination of air and ground forces 
on the battlefields of Operation DESERT STORM to demonstrating a high 
degree of integration among Joint and Coalition forces engaged in OIF.
    Overall success of future interdependent Joint Force efforts will 
place greater demands on Air Force capabilities. As ground forces seek 
to increase their agility and speed, they will rely increasingly on air 
and space power to move them throughout the battlespace; provide the 
information needed to outmaneuver numerically superior or elusive 
adversaries; and deliver precise, rapid strikes across multiple, 
distributed operations areas. The future Joint Force concept of 
Seabasing, as yet another means to project power and support ground 
forces, further underscores the requirements for land-based air and 
space power. Clearly, the need for rapid mobility, persistent C4ISR and 
precision engagement will only increase in the future.
    Concurrently, as we reduce prepared, garrisoned overseas bases in 
the out-years, the Air Force will increasingly operate from 
expeditionary air bases. The Air Force, having transformed over the 
past fifteen years to an AEF construct and culture, continues to 
innovate and evolve with new expeditionary concepts. AEF contingency 
response groups (CRGs) are organized, trained and equipped to provide 
an initial ``Open the Base'' capability to Combatant Commanders. The 
theater CRG provides a rapid response team to assess operating location 
suitability and defines combat support capabilities needed to AEF 
operating locations. In addition, Basic Expeditionary Airfield 
Resources (BEAR) will provide the scalable capability necessary to open 
and operate any austere airbase across the spectrum of AEF contingency 
or humanitarian operations. BEAR will provide vital equipment, 
facilities and supplies necessary to beddown, support and operate AEF 
assets at expeditionary airbases with limited infrastructure and 
support facilities.
            Battlefield Airmen
    Airmen are increasingly engaged beyond the airbase and ``outside 
the wire,'' bringing ingenuity and technology to Joint warfighting on 
the ground by using advanced systems to designate targets, control 
aircraft, rescue personnel and gather vital meteorological data. The 
Air Force is optimizing this family of specialties, known as 
Battlefield Airmen. So far, we have identified program management, 
acquisition and sustainment synergies across the Combat Rescue, Combat 
Control, Terminal Attack Control and Special Operations Weather 
functional areas. Air Force personnel are an integral part of the 
battlespace, and we are continuously identifying and updating common 
training requirements for these Airmen.
    We are organizing Battlefield Airmen for maximum effectiveness in 
the modern battlespace. In addition, we will train Battlefield Airmen 
in the skills required to maximize airpower and standardize that 
training across those Battlefield Airmen. Finally, we must equip our 
Battlefield Airmen with improved, standardized equipment for missions 
in the forward and deep battlespace. This will expand the commander's 
ability to employ battlefield airpower professionals able to integrate 
unequaled accuracy, responsiveness, flexibility and persistence into 
air operations supporting Joint ground forces.
    From forward positions, Joint Terminal Attack Controllers (JTACs), 
a subset of Battlefield Airmen, direct the action of combat aircraft 
engaged in CAS and other offensive air operations. Recently JTACs have 
become recognized across the Department of Defense (DOD) as fully 
qualified and authorized to perform terminal attack control in 
accordance with a Joint standard.
    In addition to night vision equipment, JTACs carry a hardened 
laptop computer and multi-channel radio. We've significantly reduced 
the weight these Battlefield Airmen must carry while simultaneously 
providing them with greater ability to perform critical tasks such as 
designate targets ranging up to several kilometers away. We are 
striving to further decrease the weight of their gear while increasing 
the capabilities and interoperability of their equipment with other 
air, space and ground assets. This combination of technology 
facilitates the direct transfer of information to combat aircraft, 
minimizing errors in data transfer. This equipment will increase 
situational awareness, assist in combat identification, maximize first-
attack success, shorten the kill-chain and provide better support to 
ground forces.
            Innovative Uses of Technology
    Innovation--our Air Force heritage and strength--is critical to 
success in defeating enemies on the battlefield as well as in defending 
our homeland. Each day, Airmen across the world produce military 
effects for the Joint team through ingenuity or with advancements in 
technology.
    To meet U.S. Central Command's (CENTCOM's) urgent operational 
needs, the Air Force is accelerating the modification of our Sniper and 
LITENING Advanced Targeting Pods (ATPs) with video datalink 
transmitters to share information more rapidly. The high resolution 
images from our targeting pod TV and infrared video is generations 
better than the Low Altitude Navigation and Targeting Infrared for 
Night (LANTIRN) pods used during previous conflicts, and they provide 
tactical information in greater volume and relevance than ever before.
    The Air Force is quickly adapting new tactics, techniques and 
procedures for integrating the ROVER III and ATPs into Non-Traditional 
Intelligence Surveillance and Reconnaissance (NTISR) missions. These 
include convoy escort, raid support and infrastructure protection 
missions in addition to traditional CAS missions. Equipped with air-
ground weapons, our ATP-equipped aircraft have the flexibility to 
provide responsive firepower and unprecedented tactical reconnaissance, 
making our fighters and bombers more effective and versatile than ever.
    Furthermore, some ROVER IIIs were diverted to support Disaster 
Relief and Humanitarian Assistance in the aftermath of Hurricanes 
Katrina and Rita. Instead of flying ATPs on fighter or bomber aircraft, 
we located video transmitters on rooftops or attached them to 
helicopters to provide overhead video streams to the recovery teams 
equipped with ROVER III.
    Predator UAV systems continue to demonstrate the Air Force penchant 
for innovative application of technology for fighting the GWOT. Current 
operations allow Airmen in Nevada to pilot and control Predators 
operating in the Iraq and Afghanistan theaters of operations. 
Increasing experience in these novel approaches to flight and mission 
control operations have led to revolutionary advances in the execution 
of military capability.
    Equipped with an electro-optical, infrared, and laser designator 
sensor, and armed with Hellfire missiles, Predator has not only 
shortened the sensor-to-shooter timeline--it has allowed the sensor to 
become the shooter. Since 1995 Predator has amassed over 120,000 total 
flying hours. From January through September of 2005, Predators logged 
more than 30,000 flight hours, over 80 percent of which were in direct 
support of combat operations. In August 2005, the Predator program flew 
4 aircraft controlled by a single pilot and ground control station, 
successfully demonstrating the Multiple Aircraft Control concept.
    Complementing the Predator's capabilities, the Global Hawk is a 
high altitude, long endurance, Remotely Piloted Aircraft (RPA). Through 
the innovative use of synthetic aperture radar as well as electro-
optical and infrared sensors, Global Hawk provides the Joint warfighter 
persistent observation of targets through night, day and adverse 
weather. Global Hawk collects against spot targets and surveys large 
geographic areas with pinpoint accuracy, providing Combatant Commanders 
with the most current information about enemy location, resources and 
personnel. The Global Hawk program is delivering production systems to 
the warfighter now and is in constant demand by Combatant Commanders.
    Since its first flight in 1998, Global Hawk has flown over 8,000 
hours--including over 4,900 combat hours and over 230 combat missions 
with prototype systems deployed in support of GWOT. In OIF and OEF the 
prototype systems have produced over 57,000 images.
    The long-established ISR stalwart, the RC-135 RIVET JOINT continues 
to demonstrate its adaptability to a changing and evolving threat 
environment with the application of progressive technologies and 
upgrade programs.
    The RC-135 RIVET JOINT continues to field improvements in tactical 
SIGINT capabilities and platform performance, including re-engining and 
avionics modernization, to support the full spectrum of combat 
operations and national information needs. Additionally, RIVET JOINT 
has become the cornerstone for airborne net-centric development. RIVET 
JOINT plays a key role in the Network-Centric Collaborative Targeting 
Advanced Concept Technology Demonstration and serves as the platform of 
choice for implementation of new reachback technologies to enhance 
national and tactical integration. Adding yet another chapter to RIVET 
JOINT's continuous record of support to CENTCOM since 1990, the 
platform flew over 550 airborne reconnaissance missions in support of 
OEF and OIF.
            Aeromedical Evacuations
    As early as 1918, the military has used aircraft to move the 
wounded. The Air Force continued this proud tradition with the 
aeromedical evacuation of over 11,000 wounded personnel from 
Afghanistan and Iraq. The aeromedical evacuation system has transformed 
to ensure the Air Force can conduct rapid and precise operations in an 
expeditionary environment. The placement of aeromedical crews in 
forward locations continues the chain of survival that starts on the 
battlefield with self-aid and buddy care. The chain continues through 
Expeditionary Medical Support hospitals, to aeromedical in-flight care 
and finally to stateside medical centers within as little as 72 hours. 
Expeditionary aeromedical operations reduce the necessity and large 
footprint of theater medical assets and conserve valuable health care 
resources.
    The force mix of aeromedical evacuation crewmembers consists of 12 
percent Regular Air Force and 88 percent Air Reserve Component. This 
use of the Total Force was best demonstrated in the fall of 2005 during 
the swift aeromedical evacuation of over 3,800 sick and elderly people 
threatened by Hurricanes Katrina and Rita.
    As modern medicine evolves, the aeromedical system continues to 
adapt to meet future challenges. The Air Force continues to lean 
forward by looking at future threats such as biological warfare. We are 
leading the way in the development of a litter transportable patient 
isolation unit for the movement of contaminated patients. The 
aeromedical evacuation system demonstrates the Air Force's commitment 
to providing the best capabilities to the Joint team and our Coalition 
partners.
            Adaptive Airmen: Airmen Filling Non-traditional Roles
    Presently, Airmen are meeting the challenges of filling CENTCOM 
shortfalls in several critical roles which are non-traditional for 
Airmen, including Convoy Support, Detainee Operations, Protective 
Service details, Law and Order Detachments, Military Transition Teams 
and Provincial Reconstitution Teams.
    Detainee Operations and Convoy Support are our most heavily 
supported missions. Airmen attend training at Fort Lewis, WA or Fort 
Dix, NJ where they learn the fundamentals of detainee security, 
handling and interaction. At the conclusion of this training, Airmen 
move forward to a detainee facility in theater and receive additional 
on site training. Airmen provide Convoy Support in the form of heavy 
weapons teams supporting long haul convoy operations. These Airmen 
attend heavy weapons training followed by a convoy-training course. 
From that training platform, Airmen deploy forward to support theater 
operations.
    Air Force intelligence personnel are also fulfilling non-standard, 
unconventional roles as members of the Joint team. Air Force 
intelligence analysts attend the Enhanced Analyst and Interrogation 
Training Course at Fort Huachuca, AZ, where they learn to provide 
analytical support for interrogations. At the conclusion of this 
training, intelligence personnel deploy forward as part of the 
interrogator teams to Joint Interrogation Detention Centers in 
Southwest Asia.
    Law and Order Detachments provide vital Joint support missions 
throughout the Area of Operations. In this capacity, Air Force security 
forces personnel provide garrison law enforcement and security. Never 
routine, these missions occasionally support operations outside the 
confines of an installation.
    Military Transition Teams are comprised of specially trained 
personnel who work within the organizations of indigenous forces. They 
are responsible for training these forces to support and sustain 
themselves without the assistance of advisors. Provincial 
Reconstruction Teams are organizations that move into a different 
region within the Area of Operations and provide additional support, 
training and sustainment.
    With the exception of the Law and Order Detachments, none of these 
missions fall within the traditional skill mix of Air Force Security 
Forces. Additional training varies from one to five months, and 
deployments are normally longer than the standard 120-day deployment. 
We are understandably proud of the outstanding adaptability and 
professionalism with which our Airmen have filled the shortfalls in 
required skillsets on the Joint roster and accomplished these non-
traditional yet critical missions on behalf of the Joint team.
Other Operations
    In addition to our major contingencies and defense of the homeland, 
the Air Force remains engaged in numerous other operations around the 
world ranging from humanitarian relief and disaster response to 
maintaining our strategic nuclear forces and space assets. The presence 
of forward deployed forces is just the leading edge of a greater effort 
representing the totality of Air Force daily support to the Combatant 
Commanders.
            Humanitarian and Disaster Relief Operations
    In December 2004, nearly sixty years after the great Berlin Airlift 
of 1948-1949, the Air Force, while fully engaged in operations in 
Afghanistan and Iraq, once again answered the call for help in the wake 
of the tsunami that devastated Indonesia and South Asia--one of the 
worst natural disasters in history. Our Airmen responded immediately, 
and in the course of the first 47 days following the disaster led an 
allied effort that airlifted over 24 million pounds of relief supplies 
and over 8,000 people. The entire world witnessed the absolute best of 
America at work--agility, strength, resolve and compassion--just as it 
had witnessed nearly 60 years before.
    At home, the Air Force leveraged the agility, scalability and 
responsiveness inherent in our AEF structure and culture to speed 
support to civil authorities for Hurricanes Katrina and Rita. Hurricane 
Katrina devastated an entire region of the southern United States. 
While destruction of infrastructure stifled ground transportation, 
Airmen continued to reach flooded areas and bring relief. The Air Force 
flew over 5,000 sorties, airlifting more than 30,000 passengers and 
16,000 tons of cargo and accomplishing 5,500 search and rescue saves. 
Additionally, Air Force operations were a Total Force effort, 
incorporating Guard and Reserve capabilities into airlift and rescue 
operations as well as into the establishment of state-of-the-art 
medical facilities that treated over 17,000 patients.
    Air Force support during Hurricane Katrina and Rita recovery 
operations illustrated how persistent C4ISR can integrate with other 
agencies and proved critical to supporting U.S. Northern Command 
(NORTHCOM) and the Department of Homeland Security during civil support 
operations. Our airborne reconnaissance platforms, ranging from C-130s 
to U-2s, combined with military satellite communications (MILSATCOM) 
capabilities like the Global Broadcast Service (GBS), provided detailed 
imagery critical for decision makers and aided in directing relief 
efforts to the worst hit areas.
    Additionally, our civilian auxiliary, the Civil Air Patrol (CAP) 
provided capability to NORTHCOM, federal agencies and state and local 
governments during all phases of the hurricane rescue and relief 
efforts. The CAP provided nearly 2,000 hours of air and ground search 
and rescue, airborne reconnaissance and air transport of key personnel. 
The CAP leveraged the skills and vigilance of 60,000 non-paid 
volunteers in over 1,700 units to bolster the Nation's defense during 
these national crises.
    Future natural disasters and relief operations will likely be 
similar to those faced by the United States over the past year. Major 
populations requiring immense support are often isolated from the 
infrastructure that is their lifeline. Airpower provides the capability 
to overcome terrestrial obstacles and deliver aid directly to those in 
need. Always seeking new ways to innovate and improve, the Air Force 
will continue its ongoing transition to a force with unprecedented 
capability for civil support and Homeland Defense.
            Maintaining Our Nuclear Deterrent
    The DOD's new strategy of employing a capability-based approach vs. 
threat-based approach to planning led to the ongoing transformation of 
the existing triad of U.S. strategic nuclear forces, consisting of 
intercontinental and sea-launched ballistic missiles and bomber 
aircraft armed with cruise missiles and gravity weapons, into a New 
Triad composed of a diverse portfolio of systems. Elements of the New 
Triad will include nuclear and non-nuclear strike capabilities, active 
and passive defenses, and robust research and development programs and 
industrial infrastructure for developing, building, and maintaining 
offensive and defensive weapon systems. Maintaining our traditional 
nuclear strategic forces is a key capability in an effective New Triad.
    National Security Presidential Directives outline the future force 
structure and requirements for U.S. nuclear forces. To meet National 
Military Strategy, Nuclear Posture Review and the Moscow Treaty 
requirements, near-term capability and sustainment improvements must be 
made to the legacy forces while development and procurement of follow-
on systems proceed. These efforts will enable Air Force nuclear forces 
to continue to provide critical capabilities to policy makers. The 
nuclear forces will dissuade current and potential adversaries from 
pursuing policies or military initiatives that are unfavorable to our 
interests or those of our allies.
    Our Intercontinental Ballistic Missiles (ICBMs) and cruise missiles 
are poised to decisively defeat an adversary if deterrence fails. The 
cruise missile inventory, both Air Launched Cruise Missile and Advanced 
Cruise Missile, is being upgraded through a Service Life Extension 
Program (SLEP) to maintain a viable and flexible bomber-delivered 
weapon. Additionally, the Department of Energy is conducting a SLEP on 
the cruise missile warhead.
    The Air Force is committed to the New Triad and the associated 
nuclear C2 systems. To provide survivable strategic communications, the 
Air Force fielded and currently operates the Milstar SATCOM system. We 
are preparing to field the next generation Advanced EHF SATCOM system 
to replace it, as well as a single terminal to provide reliable, 
redundant and secure radio and satellite communication links with 
Minuteman ICBM forces. The Air Force recognizes the importance of the 
Nation's nuclear C2 resources and will continue to pursue the New Triad 
strategy for our strategic systems to ensure they are always ready to 
respond to the direction of our national leaders.
            Space Support for Operations
    The United States depends upon the Air Force to supply critical 
space capabilities to meet the needs of Joint operations worldwide, and 
also the needs of national missions across the instruments of 
diplomatic, informational, military and economic power. The National 
Security Strategy commits us to assuring allies, dissuading military 
competition, deterring threats and decisively defeating adversaries. 
The robust space capabilities our Airmen provide and maintain will 
continue to ensure our Nation's goals are met.
    As the DOD Executive Agent for Space, the Under Secretary of the 
Air Force released a coordinated National Protection Framework in 2005. 
This framework will aid senior decision makers by stating how space 
systems will be expected to operate during and following an intentional 
attack. The framework supports senior leaders in creating a Total Force 
solution across the national security space community. Air Force 
satellite communications will ensure our Nation's leaders can 
communicate globally through times of crisis while providing 
warfighters instant access to information. As evidenced by the 
hurricanes in the Gulf of Mexico, space environmental monitoring has 
become essential in saving lives and property as well as ensuring 
ground, sea and air forces prepare effectively for weather impacts.
    In support of worldwide military operations, the Air Force launched 
eight DOD and National satellite systems in 2005 from Air Force-managed 
and maintained launch ranges at Cape Canaveral Air Force Station, 
Florida and Vandenberg Air Force Base, California. That number is 
expected to increase to 13 in 2006 as the Evolved Expendable Launch 
Vehicle (EELV) program takes over as the foundation for U.S. assured 
access to space.
    We have seen the first challenges to U.S. advantages gained from 
space assets. During OIF, the Iraqis employed GPS jammers in an attempt 
to reduce the precision of U.S. and allied strikes. We defeated this 
threat through a variety of methods including space system design, 
munitions design and tactics development to operate in a GPS-hostile 
environment. As technology develops and becomes available to more 
countries, organizations and individuals, new types of threats to space 
capabilities will emerge. Preparation now using non-materiel and 
materiel solutions to address the variety of potential realistic 
threats will lead to continued success in the battlespace.
    Comprehensive space situation awareness (SSA) and defensive and 
offensive counterspace capabilities are the foundational elements of 
our Space Superiority efforts. Enhanced ground-based and new space-
based SSA assets will provide the necessary information to gain and 
maintain space superiority. With respect to defensive counterspace, we 
maintain a diversified ground-based C2 network, and we are developing 
increased protection for our satellites and space-based services to 
ensure the vital capabilities they provide are available when needed. 
We also recently fielded the Counter-Communications System to deny 
these same services to our adversaries. A well-balanced, multi-tiered 
architecture enables execution of a robust, effective space superiority 
strategy.
    Even as the first challenges to our Space Superiority have arisen, 
the Air Force is already working toward responses to the next set of 
potential challenges. First, the United States would like to deter 
potential adversaries from attacking or exploiting our space 
capabilities. To accomplish this objective, worldwide space operations 
must be monitored, assessed and understood. SSA involves those 
capabilities that allow the interagency and Joint communities to find, 
fix, track, characterize and assess space operations on orbit and 
inside the various Combatant Commanders' areas of responsibility. SSA 
capabilities will allow the Air Force or other members of the Joint 
community to target, if necessary, our adversaries' space capabilities. 
As part of the C2 process, we will evaluate options ranging from 
diplomatic to economic to military actions to determine the best 
flexible option to achieve the desired outcome. By understanding how 
friendly and hostile actors are leveraging these space capabilities in 
their operations, senior decision makers can deter potential 
adversaries while preventing unnecessary escalation and allowing for a 
range of response options to meet national objectives.
    The Air Force will protect space capabilities vital to the success 
of the Joint Force and the defense and prosperity of our great Nation. 
Some defensive measures will be integrated into new satellite designs. 
Other space systems, such as the Rapid Attack Identification Detection 
and Reporting System (RAIDRS) will be specifically designed to conduct 
defensive operations. We are also leaning forward on the development of 
new tactics, techniques and procedures to mitigate potential threats to 
Air Force space systems. Furthermore, experimentation has aided us 
immensely by facilitating risk reduction and providing interim 
defensive capabilities today--RAIDRS is an excellent example. The Air 
Force developed a prototype RAIDRS and demonstrated the capabilities of 
the system during Joint Expeditionary Force Experiment 2004 (JEFX 04). 
The inclusion of this prototype laid the groundwork for both tactics 
development and for design improvements for future development 
programs. As a result of JEFX 04, CENTCOM requested this prototype to 
support real-time Joint operations in theater. The results and lessons 
of this operational employment will certainly shape future capabilities 
by improving our understanding and providing further opportunities for 
innovation.
   air and space power for tomorrow--aiming for the unlimited horizon
Priorities
            Developing and Caring for Our Airmen
    Force Shaping.--For the past 18 months, the Air Force has reduced 
our active duty end strength to Congressionally authorized levels 
taking action to relieve some of our most stressed career fields. The 
2004-2005 Force Shaping Program allowed officers and enlisted personnel 
to separate from active duty service earlier than they would otherwise 
have been eligible. In addition to voluntary force shaping measures, 
the Air Force significantly reduced enlisted accessions in 2005 to help 
meet our Congressional mandate.
    While the Air Force met our 2005 end strength requirement, we began 
2006 with a force imbalance: a shortage of enlisted personnel and an 
excess of officer personnel, principally among those officers 
commissioned from 2000 to 2004. This imbalance created several 
unacceptable operational and budgetary impacts. Consequently, the Air 
Force took several actions to ensure our force is correctly sized and 
shaped to meet future challenges and to reduce unprogrammed military 
pay costs. First, we increased our enlisted accession target for 2006 
to address the enlisted imbalance. Second, we continued to encourage 
qualified officers, especially those commissioned in 2000 and later, to 
consider voluntary options to accept service in the Air National Guard, 
Air Force Reserve, civil service, or as an inter-service transfer to 
the Army.
    Additionally, we are institutionalizing the force shaping authority 
granted in the 2005 National Defense Authorization Act to restructure 
our junior officer force. Only after exhausting all efforts to reduce 
officer end strength by voluntary means, the Air Force will convene a 
Force Shaping Board in 2006 to consider the performance and potential 
of all eligible officers commissioned in 2002 and 2003. This board will 
be held annually thereafter, as required, to properly shape and manage 
the officer corps to meet the emerging needs of the Air Force. 
Essentially, the Force Shaping Board will select officers for continued 
service in our Air Force. Current projections indicate that we need 
about 7,800 of these eligible officers (2002 and 2003 year groups) to 
continue on active duty. Approximately 1,900 officers will be subject 
to the force reduction. Exercising this authority is difficult, but our 
guiding principle is simple--we must manage our force to ensure the Air 
Force is properly sized, shaped and organized to meet the global 
challenges of today and tomorrow.
    Balancing the Total Force.--In addition to maintaining and shaping 
the active duty force, we must continue to focus on the balance of 
forces and specialties between Regular, Air National Guard and Reserve 
components--the Total Force. We are diligently examining the 
capabilities we need to provide to the warfighter and to operate and 
train at home. We continue to realign manpower to our most stressed 
areas and are watchful for any new areas that show signs of strain.
    As we look to the future in implementing Base Realignment and 
Closure (BRAC) and Quadrennial Defense Review (QDR) decisions, we must 
ensure a seamless transition to new structures and missions while 
preserving the unique capabilities resident in our Regular Air Force, 
Air National Guard and Reserve communities. Examining functions for 
Competitive Sourcing opportunities or conversion to civilian 
performance will continue to be one of our many tools for striking the 
correct balance of missions across the Total Force.
    Force Development.--The Air Force's Force Development construct is 
a Total Force initiative that develops officers, enlisted and civilians 
from the Regular Air Force, the Air National Guard and the Air Force 
Reserve. The fundamental purpose of force development is to produce 
leaders at all levels with the right capabilities to meet the Air 
Force's operational needs by leveraging deliberate training, education 
and experience opportunities.
    The Air Force Personnel Center created a division dedicated to 
supporting corporate and career field development team needs. 
Development teams have now been incorporated into the officer 
assignment process and they now guide assignment of all officer career 
fields. Additionally, development teams recommend officers for special 
selection boards and developmental education opportunities.
    The Air Force is also deliberately developing our enlisted Airmen 
through a combined series of educational and training opportunities. We 
are exploring new and exciting avenues to expand our process beyond the 
current system in place today. Each tier of the enlisted force will see 
changes to enlisted development. Airmen (E-1 to E-4) will be introduced 
to the enlisted development plan, increasing their knowledge and 
solidifying future tactical leadership roles. The noncommissioned 
officer (NCO) tier will be encouraged and identified to explore career-
broadening experiences and continuing with developmental education. Our 
Senior NCO tier will see the most dramatic changes as we explore the 
use of development teams in conjunction with assignment teams to give 
career vectoring and strategic level assignments. Institutionalizing 
the practice of development as a part of enlisted Air Force culture is 
paramount for supervisors, commanders and senior leaders.
    On the civilian side, the Air Force is making significant progress 
in civilian force development as we align policy, processes and systems 
to deliberately develop and manage our civilian workforce. We have 
identified and mapped over 97 percent of all Air Force civilian 
positions to career fields and have 15 Career Field Management Teams in 
place with three additional management teams forming this year. 
Additionally, we manage various civilian developmental opportunities 
and programs, with our career-broadening program providing several 
centrally funded positions, specifically tailored to provide career-
broadening opportunities and professionally enriching experiences.
    Recruiting/Retention.--After intentionally reducing total 
accessions in 2005, the Air Force is working to get the right mix of 
officer and enlisted Airmen as we move to a leaner, more lethal and 
more agile force. We will align the respective ranks to get the right 
person, in the right job, at the right time to meet the Air Force 
mission requirements in support of the GWOT, the Joint Force and the 
Air Force's expeditionary posture.
    A key element for success is our ability to continue to offer 
bonuses and incentives where we have traditionally experienced 
shortfalls. Congressional support for these programs, along with 
increases in pay and benefits and quality-of-life initiatives, has 
greatly helped us retain the skilled Airmen we need to defend our 
Nation.
    Personnel Services Delivery.--To achieve the Secretary of Defense's 
objective to shift resources ``from bureaucracy to battlefield,'' we 
are overhauling Air Force personnel services. Our Personnel Services 
Delivery initiative dramatically modernizes the processes, 
organizations and technologies through which the Air Force supports our 
Airmen and their commanders.
    Our goal is to deliver higher-quality personnel services with 
greater access, speed, accuracy, reliability and efficiency. The Air 
Force has been able to program the resulting manpower savings to other 
compelling needs over the next six years. This initiative enhances our 
ability to acquire, train, educate, deliver, employ and empower Airmen 
with the needed skills, knowledge and experience to accomplish Air 
Force missions.
    National Security Personnel System (NSPS).--Our civilian workforce 
will undergo a significant transformation with implementation of the 
DOD NSPS. NSPS is a simplified and more flexible civilian personnel 
management system that will improve the way we hire, assign, compensate 
and reward our civilian employees. This modern and agile management 
system will be responsive to the national security environment, 
preserve employee protections and benefits, and maintain the core 
values of the civil service.
    NSPS design and development has been a broad-based, participative 
process to include employees, supervisors and managers, unions, 
employee advocacy groups and various public interest groups. We plan to 
implement these human resource and performance management provisions in 
three phases called ``spirals.'' The first spiral will include 
approximately 89,000 General Schedule and Acquisition Demonstration 
Project civilian employees in the Air Force. NSPS is the most 
comprehensive new federal personnel management system in more than 50 
years, and it's a key component in the DOD's achievement of a 
performance-based, results-oriented Total Force.
    Caring for Airmen.--Combat capability begins and ends with healthy, 
motivated, trained and equipped Airmen. We must remain committed to 
providing our entire Air Force team with world class programs, 
facilities and morale-enhancing activities. Our ``Fit to Fight'' 
program ensures Airmen remain ready to execute our expeditionary 
mission at a moment's notice, and our food service operations further 
complement an Air Force healthy lifestyle.
    Through various investment strategies in both dormitories and 
military family housing, we are providing superior living spaces for 
our single Airmen and quality, affordable homes for our Airmen who 
support families. Our focus on providing quality childcare facilities 
and programs, on and off installations, enables our people to stay 
focused on the mission, confident that their children are receiving 
affordable, quality care. The Air Force is a family, and our clubs and 
recreation programs foster and strengthen those community bonds, 
promoting high morale and an esprit de corps vital to all our 
endeavors.
    Additionally, we are equally committed to ensuring that all Airmen 
in every mission area operate with infrastructure that is modern, safe 
and efficient, no matter what the mission entails--from Depot 
Recapitalization to the bed down of new weapon systems. Moreover, we 
must ensure Airmen worldwide have the world class training, tools and 
developmental opportunities that best posture them to perform with 
excellence. We also continually strive to provide opportunities and 
support services that further enable them to serve their Nation in a 
way that leaves them personally fulfilled, contributes to family 
health, and provides America with a more stable, retained and capable 
fighting force.
    Housing and Military Construction [MILCON].--One of the highlights 
in our emphasis on developing Airmen is our focus on housing 
investment. Through military construction and housing privatization, we 
are providing quality homes faster than ever before. Over the next two 
years, the Air Force will renovate or replace more than 49,000 homes 
through privatization. At the same time, we will renovate or replace an 
additional 10,000 homes through military construction.
    Investment in dormitories continues to accelerate in order to 
provide superior housing to our unaccompanied members--evidenced by 
nearly 8,600 dormitory rooms programmed for funding over the next six 
years. Approximately 75 percent of these initiatives will rectify 
currently inadequate dormitory conditions for permanent party members. 
Our new ``Dorms-4-Airmen'' standard is a concept designed to increase 
camaraderie, social interaction and accountability by providing four 
single occupancy bedroom/bathrooms with a common kitchen and living 
area in each module. Finally, the remaining dormitory program initiates 
modernization of inadequate ``pipeline'' dormitories--those dormitories 
that house young enlisted students during their initial technical 
training.
    The Air Force has taken risk in facility and MILCON funding in 
order to support modernization and transformation. However, we continue 
to fund our most critical requirements to include new mission projects, 
depot transformation, dormitories, fitness centers and child care 
centers. The Air Force is committed to improving its infrastructure 
investment by meeting the DOD's recapitalization goal through the 
Future Year's Defense Plan [FYDP].
    Sustain, Restore, And Modernize Our Infrastructure.--In order to 
maintain readiness, your Air Force remains committed to sustaining, 
restoring, and modernizing our infrastructure. Central to that 
commitment is our focus on both preserving our existing investment in 
facilities and infrastructure as well as optimizing our limited 
Restoration and Modernization (R&M) funding to fix critical facility 
deficiencies that impact our readiness. With the increased OPTEMPO of 
GWOT, these efforts are more important than ever.
    Our sustainment program maximizes the life of our infrastructure 
and preserves our existing investment. With proper sustainment, we will 
prevent our infrastructure from wearing out under the strain of 
increased operations and activities. In addition, Commanders in the 
field use O&M accounts to address facility requirements that directly 
impact mission capabilities.
    When facilities require restoration or modernization, we use a 
balanced program of O&M and MILCON funding to make them ``mission 
ready.'' Unfortunately, restoration and modernization requirements in 
past years have exceeded available O&M funding, forcing us to defer 
much-needed work. It is critical for us to steadily increase our R&M 
investment in order to halt the growth of this backlog. Simultaneously, 
it is important that we fully fund our sustainment efforts in order to 
maximize the life of our good infrastructure. The Air Force Total Force 
sustainment funding for fiscal year 2007 carefully balances 
infrastructure sustainment, R&M and MILCON programs to make the most 
effective use of available funding in support of the Air Force mission.
    We must avoid separating the Sustainment, Restoration and 
Modernization (SRM) account from the Operations and Maintenance (O&M) 
appropriation. In past years, all O&M was funded from the Defense 
Appropriation. Commanders are afforded the necessary flexibility to 
effectively manage budget shortfalls and unexpected requirements such 
as utility rate increases, natural disasters, infrastructure failures, 
or mission-driven requirements. Without legislation that would permit 
the movement of funds between all O&M accounts, Commanders would face 
serious challenges addressing these emergent requirements.
    Basic Allowance For Housing [BAH].--We must also avoid migration of 
BAH out of the Defense Appropriation Bill. Should emergent requirements 
create shortfalls during the year of execution, commanders will be 
unable to address them. Our hands will be tied. The Services will no 
longer have the ability to flexibly use the Military Personnel account. 
Furthermore, the Committee will have to create a new mechanism to 
ensure our Airmen are paid the housing allowance to which they are 
entitled.
    Common Airman Culture.--An Airman Culture manifests the totality of 
our commonly transmitted behaviors, patterns and beliefs. Our Air Force 
clearly recognizes the relationship between mission capabilities and 
our Air Force Core Values. Integrity, Excellence and Service, remain 
critical guideposts to every Airman's personal and professional flight 
path. Principles of dignity, self-worth, respect and diversity are 
firmly embedded elements of these values. Together, our Core Values are 
reflected in every Airman's pride, dedication to mission, subordination 
of their own needs for those of their wingman, and devotion to duty and 
this great Nation. In this past year, we have made significant strides 
in our efforts to promote, reinforce and inculcate our Core Values 
across the Air Force and throughout the Total Force team--including our 
Regular, Guard, Reserve, Civilian and Contractor teammates. We expect 
and accept no less from everyone on the Air Force team.
    Certain behaviors are absolutely incongruous with the Common Airman 
Culture and our Core Values. Among these is sexual assault. The Air 
Force has created the Sexual Assault Prevention and Response Program to 
ensure every Airman is provided the respect and dignity they deserve as 
their Nation's Air and Space warfighters. We have trained and fielded 
Sexual Assault Response Coordinators and Victim Advocates to ensure 
every Airman has access to immediate assistance, should it be required. 
We are rewriting our education and training curricula at every level to 
ensure Airmen understand how these crimes occur, how they are often 
unwittingly facilitated by bystanders and third-party witnesses and how 
we can better take care of our people by preventing sexual assault 
crimes from occurring to them, their wingmen, friends and family 
members.
    Reflecting our belief that diversity adds strength to our 
organization, the Air Force has accepted the challenge to ``create a 
diverse and an inclusive Total Force which reflects and leverages the 
talents of the American people to maximize the Air Force's combat 
capabilities.'' We created The Office of Air Force Strategic Diversity 
Integration in the summer of 2005 to lead the Air Force's Diversity 
efforts. This office provides leadership guidance and strategic support 
for the understanding, furtherance and advantage of diversity within 
the ranks of the Air Force.
    Inherent in our Common Airman Culture is a belief in professional 
and personal dignity and a deep respect for individual religious 
beliefs. The protection of every Airman's freedom of religion, while 
also defending the Constitutional prohibition on official establishment 
of religion, is an area of significant emphasis. As Airmen, we take an 
oath to support and defend the Constitution. In that endeavor, we are 
striving to assist Air Force personnel, in the course of their official 
duties, to meet and balance their multiple Constitutional obligations 
and personal freedoms, regarding the free exercise of religion, 
avoidance of government establishment of religion, and defense of the 
Nation. This is an area of national debate. The balancing of these 
foundational American principles demands common sense, good judgment 
and respect for each Airman's right to hold to their own individual 
personal beliefs.
    We also recognize our Airmen must have the ability to interact with 
coalition partners and local communities at home and abroad, and the 
Air Force is transforming how it engages friends and partners in the 
expeditionary environment. Operations in this dynamic setting 
necessitate extensive international insight to work effectively with 
existing and emerging coalition partners in a wide variety of 
activities. Through the AF International Affairs Specialist program, we 
are developing leaders who are regional experts with foreign language 
proficiency. Our focus is on building a cadre of officers with the 
skills needed to foster effective relationships with global partners in 
support of the Combatant Commanders and U.S. global interests.
    Over the next year, the Air Force will continue to vigorously 
reinforce our Common Airmen Culture, our belief in professional and 
personal dignity and most importantly our enduring Core Values of 
Integrity First, Service Before Self and Excellence in All We Do.
    Training at Keesler AFB Following Hurricane Katrina.--In August 
2005, Hurricane Katrina struck the Gulf Coast of the United States. 
Keesler Air Force Base (AFB), Mississippi lay in its direct path. The 
Air Force is attempting to rapidly reestablish Keesler's critical 
training missions. Of 56 enlisted initial skills training 
``pipelines,'' 90 percent have already resumed operation. Additional 
pipelines have been temporarily reestablished at other locations. 
Significant challenges remain ahead, but training and developing our 
expeditionary Airmen remains one of our highest priorities. We take 
exceptional pride in the work our Airmen have done, and continue to do, 
in restoring Keesler AFB's training capability.
            Maintenance, Modernization and Recapitalization
    Our Airmen are the best in the world. However, they can only be as 
effective as the tools we give them. Within today's fiscal constraints, 
we must fight the GWOT and protect the homeland while transforming the 
force and maintaining an appropriate level of risk. The Air Force is 
committed to the modernization and recapitalization necessary to 
maintain the health of the force and bridge our current capabilities to 
systems and capabilities required in the future.
    Aircraft.--Our primary fighter modernization and recapitalization 
program is the F-22A Raptor. The F-22A is a 5th generation fighter 
aircraft that delivers Joint Air Dominance to counter persistent and 
emerging national security challenges. Given its vast improvements in 
every aspect--air-to-air, air-to-ground, all-aspect stealth, and an 
open, adaptable architecture--the F-22A is an insurance policy against 
future threats to Joint Air Dominance and represents the absolute best 
value for the American taxpayer. The F-22A is the only fighter 
currently produced that will defeat conceivable threats to Joint Air 
Dominance in anti-access environments over the next 20-30 years.
    The F-22A is flying today and is in full rate production. Its 
performance continues to meet or exceed key performance parameters and 
spiral modernization will enhance its air-to-air and air-to-ground 
target engagement capability.
    The F-35 Joint Strike Fighter (JSF), also a 5th generation fighter, 
will complement the tremendous capabilities of the F-22A. The JSF will 
recapitalize combat capabilities currently provided by the F-16 and A-
10. Optimized for all-weather performance, JSF will specifically 
provide affordable precision engagement and global attack capabilities. 
In 2005, the JSF program continued to address design challenges to 
develop three aircraft variants and coordinate the requirements of the 
Air Force, Navy and Marines, along with our international partners.
    The C-17 continues to be a success story for the Joint warfighter, 
deploying troops and cargo to Iraq and Afghanistan, as well as numerous 
locations around the world. The Air Force is on schedule for delivery 
of the next 40 aircraft through 2008--for a total of 180. During the 
past year, C-17s flew over 63,000 sorties, bringing the total number of 
OEF and OIF missions to over 109,000. Additionally, the C-17 flew over 
100 humanitarian and disaster relief missions following Hurricanes 
Katrina and Rita, as well as the October 2005 earthquake in Pakistan. 
The C-17, in concert with C-5 modernization programs, is critical to 
meeting our U.S. inter-theater airlift requirements.
    To meet continuing intra-theater airlift demands, we have a two-
pronged approach to modernize our C-130s. First, but most problematic, 
we are striving to replace our oldest aircraft with new C-130Js. 
Second, the remaining C-130s are being standardized and modernized via 
the C-130 Avionics Modernization Program and center-wing box 
replacement programs. C-130s have been the workhorse for intra-theater 
airlift during numerous contingencies. C-130Js have supported GWOT and 
humanitarian operations since December 2004 and have proven to be a 
force enhancer as they deliver more cargo in a shorter time than older 
C-130s. C-130 modernization, coupled with the wing-box modification, 
reduces operation and sustainment costs and improves combat capability.
    The Air Force is developing the next generation combat search and 
rescue (CSAR) recovery vehicle, called CSAR-X. We are planning to 
replace the current and aging CSAR inventory of ``low-density, high-
demand'' (LD/HD) HH-60G Pave Hawk helicopters with 141 CSAR-X aircraft. 
The CSAR-X will address deficiencies of the current HH-60G by providing 
increased capabilities in speed, range, survivability, cabin size and 
high altitude hover operations. The CSAR-X will provide personnel 
recovery forces with a medium-lift vertical take-off and landing 
aircraft that is quickly deployable and capable of main base and 
austere location operations for worldwide recovery missions. The CSAR-X 
will be capable of operating day or night, during adverse weather 
conditions, and in all environments including Nuclear, Biological and 
Chemical conditions. On-board defensive capabilities will permit the 
CSAR-X to operate in an increased threat environment, and in-flight 
refueling capability will provide an airborne alert capability and 
extend its combat mission range.
    UAVs.--UAVs are demonstrating their combat value in the GWOT. The 
Air Force rapidly delivered operational UAV capabilities to the Joint 
warfighter and is continuing to mature and enhance those capabilities.
    Predator is transforming the way we fight, providing a persistent 
ISR, target acquisition and strike capability against critical time 
sensitive targets (TSTs) in direct response to warfighters' needs. 
Today, by controlling combat operations remotely from the United 
States, Predator provides a truly revolutionary leap in how we provide 
persistent military capability to the warfighter.
    The Air Force will continue to enhance Predator's ability to 
support the Joint warfighter. We are developing the ability to operate 
multiple aircraft by a single pilot, which will increase our overall 
combat effectiveness. We demonstrated this capability in August 2005. 
We are also developing and deploying the Predator B, a larger, more 
capable, more lethal variant. In its role as a ``hunter-killer,'' 
Predator B will be capable of automatically finding, fixing, tracking 
and rapidly prosecuting critical emerging TSTs.
    Global Hawk is a high-altitude, long endurance RPA providing robust 
surveillance and reconnaissance capabilities. Despite being a 
developmental prototype system, Global Hawk has flown over 4,900 combat 
hours. This year the Air Force moved beyond the proven capability of 
the Global Hawk prototypes by deploying two production aircraft to 
support GWOT operations.
    Airborne ISR.--E-8C Joint Surveillance Target Attack Radar System 
(J-STARS) continues to be a high-demand asset. J-STARS aircraft provide 
wide theater surveillance of ground moving targets. Crews from the 
116th Air Control Wing at Robins AFB, Georgia, the first-ever ``blended 
wing'' of Regular Air Force, Air National Guard and Army, operate these 
aircraft. Modernizing these aircraft while maintaining the current high 
OPSTEMPO in combat theaters will be ongoing challenges. The recent 
installation of the Force XXI Battle Command Brigade and Below module, 
the reduced vertical separation minima module, and the Airborne 
Battlefield Command and Control Center are some of the latest 
capability upgrades. The most urgent modernization needs for J-STARS 
include re-engining, radar upgrades, installation of the Traffic Alert 
Collision Avoidance System and integration of a self-protection suite.
    The E-10A program will highlight the advanced capabilities of the 
Multi-Platform Radar Technology Insertion Program (MP-RTIP) sensor by 
demonstrating advanced cruise missile defense, interleaved ground 
tracking, and ground imaging capabilities in 2010 and 2011. A smaller 
variant of the MP-RTIP sensor, developed within the E-10A program, will 
be integrated into the Global Hawk in 2008 to begin developmental and 
operational testing. These demonstrations will advance critical sensor 
technology and provide vital warfighting capabilities.
    Space and Nuclear Forces.--Air Force modernization and 
recapitalization efforts also continue for space systems. The Air Force 
is modernizing critical capabilities across the spectrum of global 
strike, navigation, weather, communication, missile warning, launch, 
surveillance, counterspace and ground-based space systems.
    The Minuteman Intercontinental Ballistic Missile (ICBM) was 
originally designed in the late 1950s and deployed operationally in 
October 1962. Modernization programs have been crucial to this system 
originally designed to last just ten years. Service life extension 
programs are underway to ensure the Minuteman III remains mission 
capable through 2020. These programs, nine in all, will replace 
obsolete, failing and environmentally unsound materials while 
maintaining missile reliability, survivability, security and 
sustainability. These efforts are critical in sustaining the ICBM force 
until a follow-on system can be fielded.
    The Air Force is also addressing the need for a follow-on ICBM 
system. This system will address future warfighter needs, reduce 
ownership costs and continue to provide policy makers the critical 
capabilities provided by the ICBM. The effort to modernize the ICBM 
force is vital to the United States for the foreseeable future.
    Continued, unhindered access to space is vital to U.S. interests. 
As the Air Force continues programs to upgrade and modernize America's 
launch ranges, the EELV program will continue to provide the United 
States with assured access to space for both DOD and National space 
assets. The EELV program includes two launch vehicle designs--Delta-IV 
and Atlas-V--with each design comprising a family of scalable, 
tailorable launch vehicle variants.
    The TSAT program will employ Internet Protocol networks, on-board 
routing and high-bandwidth laser communications relays in space to 
dramatically increase warfighter communications connectivity. TSAT 
capability enables the realization and success of all DOD and Joint 
visions of future network-centric operations, such as the Army's 
Communications-on-the-Move (COTM) and Future Combat System (FCS) 
concepts and the Navy's Sea Power 21 vision and Fleet FORCEnet/
FORCEview concepts.
    Global Positioning System (GPS) modernization and development of 
the next-generation GPS-III will enhance navigation capability and 
improve resistance to jamming.
    In partnership with NASA and the Department of Commerce, the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) will accurately calculate surface winds over the oceans and 
gather meteorological data for our forces deployed overseas.
    The Space Based Infrared System (SBIRS) will provide a 
transformational leap in capability over our aging Defense Support 
Program satellites. Complementing the space-based system are ground-
based missile warning radars, being upgraded to support the missile 
defense mission.
    Another future transformational space-based ISR program is the 
Space Radar (SR) system. SR's day-night and all-weather capabilities 
will include Synthetic Aperture Radar (SAR) imagery, High-Resolution 
Terrain Information (HRTI), Surface Moving Target Indication (SMTI), 
Geospatial Intelligence (GEOINT) and Open Ocean Surveillance (OOS), and 
rapid revisit. It will support a broad range of missions for the Joint 
warfighter, the Intelligence Community, and domestic users. SR will be 
integrated with other surface, air and space ISR capabilities to 
improve overall collection persistence and architecture effectiveness.
    Modernization of our ground-based space systems will provide new 
capabilities to keep pace with the satellites they support and will 
continue to provide assured C2 for our satellites and space-based 
capabilities. This effort includes the modernization of ground-based 
radars, some of which are over 25 years old. Through programs like the 
Family of Advanced Beyond Line of Sight Terminals (FAB-T) and the 
Ground Multi-band Terminal, the Air Force is modernizing its ground-
based space capabilities with satellite communications terminals that 
consolidate logistics support, provide increased satellite throughput 
and laser communications and ensure seamless command and control. 
Additionally, enhanced ground-based and new space-based SSA assets will 
provide the necessary information to gain and maintain Space 
Superiority.
    As part of the broader Space Control mission, the ground-based, 
theater-deployable Counter Communications System (CCS) has achieved 
Initial Operational Capability (IOC) and provides the Combatant 
Commander with a non-destructive, reversible capability to deny space-
based communication services to our adversaries. Incremental upgrades 
to the CCS will continue to enhance our Offensive Counterspace 
capabilities. Overall counterspace enhancements also include ongoing 
RAIDRS development, which is a Defensive Counterspace system designed 
to assist in the protection of our space assets. RAIDRS will provide a 
capability to detect and geolocate satellite communications 
interference via fixed and deployable ground systems. Future 
developments will automate data access analysis and data fusion and 
provide decision support tools.
    Operational Infrastructure and Support Modernization (OSM).--
Finally, the Air force is pursuing to modernize its operational 
infrastructure and the tools we use to manage operational support to 
our Airmen and Joint warfighters. The Air Force's ongoing Operational 
Support Modernization (OSM) program will improve operational support 
processes, consolidate personnel and financial service centers, and 
eliminate inefficiencies in the delivery of services, support and 
information to our Airmen and the Combatant Commanders. Realizing these 
economies, OSM will improve Air Force-wide enterprise efficiency and 
provide a resources shift from business and combat support systems, 
thereby returning resources to Air Force operations, equipment 
modernization and long-term investments.
    Air Force efforts also continue in the development of an effective, 
holistic asset management strategy for the restoration and 
modernization of operational infrastructure--facilities, utilities and 
natural resource assets--throughout their useful life cycles. 
Operational infrastructure is critical to the development and testing 
of new weapon systems, the training and development of our Airmen, and 
the conduct of Joint military exercises.
            Acquisition Reform
    The Air Force will meet the challenges of the 21st century, 
including asymmetric threats, through continued exploitation of our 
technological leadership and with our ability to respond quickly to the 
demands of a rapidly changing world. Effective leadership in research 
and development, procurement and sustainment of current and future 
weapons systems depends upon the integrated actions of professionals in 
the acquisition, as well as the requirements generation, resource and 
oversight processes. Everything we do in Air Force acquisition drives 
toward the goal of getting an operationally safe, suitable and 
effective product of best value to the warfighter in the least amount 
of time.
    Program cost and schedule growth have drawn widespread criticism 
and undermined confidence in the defense acquisition process. A recent 
Government Accounting Office (GAO) study of 26 DOD weapon systems 
reports average unit costs have grown by 50 percent and schedules have 
stretched an average of 20 percent, to nearly 15 years, despite 
numerous attempts at reform.
    In an effort to address these concerns, the Air Force formed the 
Acquisition Transformation Action Council in December 2004. This group 
is comprised of general officer and senior executive service 
representatives from the Air Force product centers, labs, air logistics 
centers and headquarters. The group continues to lead the 
transformation of Air Force acquisition from its present state into 
that of an Agile Acquisition Enterprise. The goals of Agile Acquisition 
include shortened acquisition process time and improved credibility 
with both internal and external stakeholders. Achieving these goals 
will be critical to making the delivery of war-winning capabilities 
faster, more efficient and more responsive.
    The Acquisition Transformation Action Council's short-term focus is 
on incremental improvements and eliminating non-value-added processes 
in areas such as conducting Acquisition Strategy Panels, meeting 
immediate warfighter needs and effectively incentivizing contractors. A 
more comprehensive strategic plan for acquisition transformation, due 
later this year, will detail not only where the near-term changes fit 
into the big picture of acquisition reform, but also the longer-term 
actions needed to achieve the goals of Agile Acquisition.
    The Air Force is also pursuing initiatives aimed at improving the 
Air Force's cost analysis capability. Among these initiatives are 
efforts to strengthen the Air Force Cost Analyst career field, improve 
the quality, quantity and utilization of program cost and technical 
data and estimating methods, and establish new policy requiring robust 
independent cost estimates for programs--earlier and more often. These 
improvements will promote realistic program cost and technical 
baselines as well as strengthen the Air Force's capacity to produce 
accurate, unbiased cost information for Air Force, DOD and 
Congressional decision-makers.
    The Air Force is on a bold, ambitious, yet necessary journey to 
provide our Commanders and decisions-makers with accurate, reliable 
real-time business and financial management information that is 
validated by a ``clean audit'' opinion. Basic building blocks for this 
effort include a revitalized emphasis on transparency in our business 
processes and an enterprise-wide financial management capability that 
is modern, comprehensive and responsive to the warfighter. Sound 
financial management and improved accountability are at the core of our 
financial management transformation.
    Initiatives in Air Force contracting include development and 
implementation of the Enterprise Architecture for Procurement, 
consolidation of Major Command (MAJCOM) Federal Acquisition Regulation 
Supplements, standardization of the strategic sourcing process and 
assessment of current contracting organizational alignments.
    The Air Force will continue to promote small business participation 
in our acquisitions. Partnering with small businesses--including 
Historically Underutilized Business Zones; Women Owned Small 
Businesses; Service Disabled Veteran Owned Small Businesses; Small 
Disadvantaged Businesses; and Historically Black Colleges, Universities 
and Minority Institutions--helps ensure we maintain a strong defense 
industrial base and have the widest range of products and services 
available to support the Joint warfighter.
    The Air Force is also working with OSD to understand the demand on 
our acquisition personnel and to appropriately size our workforce. Our 
objective is to have the right mix of military and civil service 
acquisition professionals with the appropriate education, experience 
and training.
Focus Areas
            Total Force Integration
    The Chairman of the Joint Chiefs of Staff, General Pace stated, 
``We must transform if we are to meet future challenges.'' One of the 
Air Force's more significant commitments to long-term transformation is 
the creation of the Total Force Integration Directorate. This new 
directorate is responsible for future force structure, emerging-mission 
beddown and development of Total Force organizational constructs. 
Working with our partners in the Air National Guard and Air Force 
Reserve, the Air Force is maximizing our overall Joint combat 
capability. Our efforts will enable the Air Force to meet the 
challenges of a shrinking budget, an aging aircraft inventory and new 
and emerging missions.
    The Air Force plans to shift investment from ``traditional'' combat 
forces, with single-mission capabilities, to multi-role forces by 
aggressively divesting itself of older systems. The result will be a 
force structure with expanded capability to combat conventional threats 
while continuing to wage the GWOT. Simply stated, the Air Force will 
become a smaller, yet more capable force through modernization and 
recapitalization of selected weapon systems with a commitment to 
networked and integrated Joint systems.
    Our Total Force initiatives will maximize efficiencies and enhance 
combat capability through innovative organizational constructs. We have 
developed an organizational construct based on the success of an 
associate model in use by the Regular Air Force and Air Force Reserve 
since 1968. Associate units are comprised of two or more components 
operationally integrated, but whose chains of command remain separate. 
This model capitalizes on inherent strengths of the Air Force's three 
components, ensuring partnership in virtually every facet of Air Force 
operations, while preserving each component's unique heraldry and 
history. Increased integration allows Regular Air Force personnel to 
capitalize on experience levels inherent in the Guard and Reserve, 
while building vital relationships necessary to sustain successful 
combat operations.
    Air National Guard and Air Force Reserve members will continue to 
support the Air Force's global commitments and conduct vital Homeland 
Defense and Security missions. Total Force initiatives will integrate 
Air Force components into missions critical to future warfighting: ISR, 
UAV operations and space operations. These missions are ideally suited 
for the Guard and Reserve since many provide direct support to the 
Joint warfighter from U.S. locations. Using this approach will improve 
our operational effectiveness, reduce our overseas footprint, reduce 
reliance on involuntary mobilization and provide more stability for our 
Airmen and their civilian employers.
    Ongoing Total Force transformation benefits from a robust, dynamic, 
cross-functional coordination process, involving the headquarters, all 
regular component MAJCOMs, the National Guard Bureau and Air Force 
Reserve Command.
    The Air Force continues to make significant progress on Total Force 
initiatives such as the Richmond-Langley F-22A integration in Virginia; 
community basing in Vermont; F-16 Integration at Hill AFB, Utah; new 
Predator missions in Texas, Arizona, New York, North Dakota, California 
and at the Air Force Warfare Center in Nevada; and C-17 associate units 
in Alaska and Hawaii. We are also working additional initiatives such 
as C-130 Active Associate units in Colorado and Wyoming; a C-5 Flight 
Training Unit in Texas; C-40 Integration in Illinois; and Centralized 
Intermediate Repair Facilities in Illinois, Connecticut, Louisiana, 
Utah, South Carolina, Georgia, North Carolina and Florida.
    The Air Force, through its Total Force Integration Directorate, is 
continuing a broad effort to ensure that new Total Force concepts are 
embedded in our doctrine, policy directives, instructions and training. 
We are creating procedures to ensure resource and other decisions 
related to Total Force initiatives become routine parts of the planning 
and programming processes. The goal is clear, albeit ambitious: take 
greater advantage of Total Force elements and capabilities in the way 
the Air Force does business.
    The Air Force is transforming from a Cold War force posture to a 
structure that supports expeditionary warfare and leverages Total Force 
capabilities. More efficient use of our Regular Air Force, Air National 
Guard and Air Force Reserve assets increases our flexibility and 
capacity to be a more agile and lethal combat force and a more vigilant 
homeland defender.
            Science and Technology (S&T)
    The Air Force develops and exploits new technologies to meet a wide 
range of conventional and asymmetric threats. To achieve required 
future capabilities, we continue to support S&T investments for the 
major tasks the Air Force must accomplish to support the Combatant 
Commanders.
    Air Force S&T is focused on high payoff technologies that could 
provide current and future warfighting capabilities to address not only 
conventional threats, but also those threats encountered in the GWOT. 
The Air Force has embraced a new technology vision to guide our S&T 
Program--``Anticipate, Find, Fix, Track, Target, Engage, Assess . . . 
Anytime, Anywhere.'' We are integrating this vision into our annual 
planning activities to ensure we develop and transition relevant 
technology to the Joint warfighter.
    Air Force technological advantages and superior warfighting 
capabilities are the direct result of decades of Air Force investment 
in S&T. Similarly, today's investment in S&T will produce future 
warfighting capabilities as we adapt to continually changing threats. 
The Air Force continues to seek ways to create a significantly greater 
advantage over these threats. Investment in technologies such as 
nanotechnology could provide stronger and lighter air vehicle 
structures, while investment in hypersonic research could provide on-
demand access to space and reduced time-to-target for conventional 
weapons. New information assurance technologies should allow real-time 
automatic detection and reaction to network attacks, enabling us to 
automatically isolate the attack and collect forensic evidence, all 
while continuing uninterrupted network operations. Research in sensor 
and information technologies should provide increased battlefield 
situational awareness, which will provide unprecedented insight and 
understanding of events in the battlespace. These are but a few 
examples of developing technologies that could lead to operational 
systems that are smaller, lighter, smarter, faster, stronger and more 
effective, affordable and maintainable than they are today.
    The Air Force Directed Energy (DE) Master Plan is on track and some 
DE applications are already being fielded, especially for defensive 
purposes. For example, the Large Aircraft Infrared Counter Measures has 
now been used extensively and successfully in OIF and OEF on C-17s. 
Also, the Airborne Laser program continues to move DE technology 
forward. The capabilities possible through DE hold the potential to 
profoundly transform how we fly, fight and defend ourselves.
    Impressive as our technological advances have been, maintaining an 
advantage relies, in part, on our commitment to future S&T investments. 
These investments also clearly highlight that air and space power is an 
asymmetric advantage for the Joint warfighter and the Nation.
            Air Force Smart Operations for the 21st Century [AFSO21]
    To meet the challenges of the road ahead, we have embarked on an 
Air Force-wide journey embracing Continuous Process Improvement, Lean 
Thinking and Six Sigma Quality. This major initiative is called AFSO21. 
Achieving excellence in all that we do requires us to institutionalize 
the precepts of AFSO21 throughout all of our operations, across the 
Total Force, and in our daily lives as Airmen. The Air Force is 
stepping up to the challenge and making the commitment necessary to 
achieve true process excellence. AFSO21 focuses on the identification 
and elimination of activities, actions and policies that do not 
contribute to the efficient and effective operation of the Air Force. 
We will seek out and discontinue any activity not ultimately 
contributing to creating military utility and mission capability. 
Continuous identification and systematic elimination of so-called 
``non-value added'' activities are the keys to improving service, 
reducing costs and enriching the lives of our Airmen.
    We are seeking three outcomes from this approach. First, we want 
Airmen who are fully aware of the importance of their work and how it 
contributes to the mission; Airmen must look to improve what they do 
every day. We want Airmen to see their role in a fundamentally 
different way: by focusing on increasing value and eliminating waste. 
Second, we want to make the most of our existing budgets and free 
resources for future modernization by systematically identifying and 
eliminating the waste in our day-to-day processes. Finally, we want to 
enhance our ability to accomplish our mission and provide greater 
agility in response to rapidly changing demands.
    Institutionalizing this new way of thinking and operating will 
allow the Air Force to meet the enormous challenges of the next decade 
and ultimately to sustain and modernize the world's best air and space 
force.
            Fuel Conservation and Efficiency
    The Air Force is the largest renewable energy power purchaser in 
the United States and is set to continue making large buys that will 
not only greatly reduce reliance on petroleum-based fuels but, over 
time, will reduce utility costs.
    The Air Force is pursuing an aggressive energy conservation 
strategy and is committed to meeting and surpassing the energy goals 
mandated by the Energy Policy Act of 2005 and other overarching 
policies and mandates. We have been successful at reducing our energy 
consumption in accordance with past legislation and will continue to 
use a variety of programs aimed at reducing our use of petroleum-based 
fuels.
    Our overall ground fuel conservation efforts in accordance with 
mandates and guidance have yielded some notable reductions. 
Specifically, Air Force motor vehicle gas and diesel consumption has 
fallen significantly alongside a corresponding increase in Air Force 
use of alternative fuels. Air Force progress in these areas will be 
driven largely by commercial research and funding, since we do not 
substantially drive alternative fuels technology and infrastructure 
changes. The Air Force is partnering with the Army to develop and use a 
hybrid electric-diesel engine for the High Mobility Multi-purpose 
Wheeled Vehicle (HMMWV) with a planned delivery starting in 2008. Other 
alternative fuel-technology is still in the development stage.
    Michigan's Selfridge Air National Guard Base (ANGB) will become the 
demonstration center for the latest fuel-efficient and environmentally 
compliant technologies for use in Air Force support equipment to 
include Basic Expeditionary Airfield Resources (BEAR) and ground 
vehicle inventories. Tests at Selfridge ANGB, Michigan will look at 
fuel cell powered vehicles, hydrogen fuel infrastructure requirements 
and will ultimately provide models for future Air Force/DOD 
procurement.
    Our use of energy from renewable sources and construction and 
infrastructure improvement programs are designed to create cost 
effective energy efficiencies in new and existing facilities. In 
addition, our aggressive pursuit of on-base renewable power generation 
is rapidly increasing. We have bases where power is being produced from 
wind, solar, geothermal and biomass, and we have projects planned, in 
design or under construction to greatly expand this capability. Some of 
our bases are already using 100 percent renewable power from purchases 
and on-site production. With our combined purchase/production strategy, 
the Air Force is poised to surpass the renewable goals set by the 
Energy Policy Act.
    We realize our reliance on petroleum-based fuels must be curtailed 
and it will take a concerted and coordinated effort to meet the energy 
reduction needs of the Air Force. We use the tools available to improve 
infrastructure while we continue to strive to instill an energy 
conservation mindset in our Airmen.
            C4ISR
    Future transformational C4ISR capabilities will provide all-
weather, persistent surveillance to the Joint warfighter and the 
Intelligence Community, and they will be tightly integrated with space, 
air and land assets to deliver even more precise and responsive 
situational awareness in support of national security objectives.
    The Air Force's biggest challenge with its world-class C4ISR 
systems remains the proper integration of these systems. The goal of 
our technology improvements is to integrate intelligence and operations 
capabilities. An integrated enterprise solution will enhance Joint, 
multi-agency and multi-national C4ISR collection and dissemination 
capabilities and will eliminate information seams among air, ground and 
space based assets. It will also expand information superiority and 
accelerate decision-making. This integration allows us to achieve 
decision dominance, leading to knowledge-enabled operations and 
supporting the development and execution of sovereign options using 
air, space and cyberspace capabilities.
    Knowledge-based operations are critical to closing the seams 
between Joint Forces. We anticipate a future in which each force 
element, no matter how small, is constantly collecting data and 
``publishing'' it to a Joint warfighter network. Information will flow 
from every corner and element of the Joint Force, from ISR collectors 
to the warfighters. A key aspect of future C4ISR capabilities will 
involve replacing time-consuming human interfaces with machine-to-
machine digital integration to ensure commanders have ready access to 
the information they need to execute their missions.
    The concepts of intelligence fusion and streamlined sensor-to-
shooter processes imply a high level of system interoperability at many 
levels. Information technology increases the ability to send ISR 
information to any point on the globe in near-real time. The Air Force 
is adapting doctrine, tactics, techniques and procedures to manage this 
ever-changing growth in C4ISR capabilities.
    To maximize our C4ISR capabilities, the Air Force is eliminating 
organizational restrictions that inhibit the flow of information 
between these systems. Advances in information technology are removing 
historical limitations inherent in legacy systems, such as line-of-
sight data links, incompatible C2 systems and manual collection-
management processes. Our goal is to increasingly ``share'' rather than 
``own'' information.
    Overcoming past shortfalls through improvements in the timeliness, 
accuracy and completeness of battlespace knowledge will also bring 
tactical-level information to command functions that previously had 
access to only the operational or strategic levels of war. The AOC is 
the focal point for operational C2 of air and space assets delivering 
combat effects to the warfighter. To make this capability more 
effective, we made it a weapon system--the Air Force provides manpower 
and training as it does for every other weapons system--standardized, 
certified and lethal. We injected the technology necessary to increase 
machine-to-machine connectivity. Through both technical and procedural 
improvements, we have increased the system's capacity for information 
fusion and accelerated the decision-to-shooter loop. All five of our 
full-function AOC weapon systems (Falconers) should be fully 
operational in 2006.
    In support of DOD and the Joint community's broader efforts to 
adopt and transition to network centric warfare, the Air Force is 
aggressively integrating existing C4ISR platforms across a distributed 
processing environment. The Network Centric Collaborative Targeting 
Program (NCCTP) will initially integrate capabilities that include 
airborne C2, ground surveillance, signals intelligence and operational 
C2 at the AOC. The Air Force will expand NCCTP into a broader Airborne 
Networking capability that will support the full and expanding range of 
future Joint air and space operations.
    The Air Force is actively pursuing the extension of Global 
Information Grid (GIG) networked capabilities out to the extreme edge 
of tactical air operations. Programs like Family of Advanced Beyond-
Line-of-Sight Terminals (FAB-T), the Joint Tactical Radio System 
(JTRS), Tactical Targeting Network Technology (TTNT), the Battlefield 
Airborne Communications Node (BACN), and, eventually, the TSAT 
constellation will provide rich connectivity and interoperability for 
Joint air operations as well as tactical users and warfighters.
    The Air Force is working closely with the other Services and 
Agencies to define new doctrine and organizational structures to 
optimize Joint warfighting operations. Consequently, we are developing 
the necessary technical capabilities, refined processes and trained 
personnel to achieve desired effects.
            Warfighting Headquarters (WFHQs)
    The Air Force is transforming our C2 structure by establishing new 
WFHQs. These will be positioned globally, replacing our old Cold War 
structures and providing the Joint Force Commander (JFC) with the most 
effective means to lead air and space forces in support of National 
Security objectives. These forces will be organized and resourced to 
plan and deliver air and space power in support of Combatant 
Commanders, enabling a seamless transition from peacetime to wartime 
operations. WFHQs will maximize usage of C4ISR technology and reachback 
to minimize required manpower. The WFHQs are also designed to act as 
the Combined/Joint Force Air Component Commander Headquarters, or Joint 
Task Force Headquarters.
            Joint Warfighting Space (JWS)
    The JWS concept is an outgrowth of Air Force efforts to develop 
Operationally Responsive Space (ORS) capabilities. JWS and ORS will 
enable rapid deployment and employment of communication, ISR and other 
vital space capabilities and services. JWS will emphasize agility, 
decisiveness and integration to provide dedicated, responsive space and 
near-space capabilities and effects to the JFC.
    In 2005, the Air Force successfully conducted the first JWS 
demonstration. By capitalizing on an existing commercial communications 
capability using free-floating platforms, the Air Force was able to 
extend line-of-sight communications for ground forces from 5-7 miles to 
over 300 miles. This demonstration was the initial step in exploiting 
existing off-the-shelf technologies in a long loiter environment.
    In 2006, the Air Force will team with our sister Services to 
conduct the first in a series of small (1,000 pounds or less) satellite 
experiments. These demonstrations are designed to enhance and 
incorporate space capabilities in Joint training and exercises, 
increase space integration and allow the Joint Force to take advantage 
of the many synergies multi-service space professionals provide. 
Lessons learned from these activities have the potential to further 
evolve and improve space doctrine and help the Joint community in 
developing innovative space-derived effects.
    JWS and ORS demonstrations will continue to explore ways of 
achieving new, more effective ways of providing space capabilities to 
the Joint warfighter. As technologies mature, JWS will bring the Joint 
Force more persistent, responsive and dedicated capabilities.
            Long Range Strike
    To further refine its rapid strike capabilities, the Air Force is 
transitioning its Long-Range Strike strategy to focus on effects 
instead of platforms. We view long-range strike as the capability to 
achieve desired effects rapidly and persistently on any target set in 
any operational environment.
    Our forces must be simultaneously responsive to multiple Combatant 
Commanders and be able to strike any point on the planet. Today, we 
provide deep strike capabilities through a variety of platforms and 
weapons. Future capabilities must continue to enhance the effectiveness 
of the system. Responsive capabilities will combine speed, stealth and 
payload to strike hardened, deeply buried, or mobile targets, deep in 
enemy territory, in adverse weather and with survivable persistence.
            Improving CAS
    Detailed integration of each air mission with the fire and movement 
of supported Joint Forces is the trademark of CAS. In the past, 
aircrews and ground forces shared information through lengthy voice 
descriptions. When providing CAS or time-critical-targeting, this 
dialogue often took several minutes and occasionally resulted in missed 
opportunities. To increase integration and lethality, the Air Force has 
developed new equipment and training to increase situational awareness 
in CAS operations. We also continue to sustain and modernize the A-10, 
the only Air Force aircraft dedicated to the CAS mission.
    With video downlinks, Battlefield Airmen can share time-sensitive 
information instantaneously and complete target coordination in mere 
seconds. Most JTACs are already equipped with ROVER III receivers to 
display video feeds from most UAVs and ATPs.
    In 2006, the Air Force will begin operational fielding of the 
Precision Engagement modification that integrates ATPs and data links 
and enhances employment of GPS-aided munitions. This modification will 
greatly enhance the pilot's situational awareness and improve both the 
responsiveness and accuracy of A-10 targeting. This will increase the 
A-10's lethality while reducing the probability of fratricide 
incidents. The Air Force will also improve the sustainability of its A-
10s by continuing a SLEP that doubles the flight hour life of the A-10, 
helping to ensure the A-10 can remain in service for as long as the 
warfighter requires.
    In 2006, the A-10 Propulsion Upgrade Program will enter the system 
design and demonstration phase. This program will upgrade the A-10's 
current TF34-100A engines to provide approximately 30 percent more 
thrust. This will help overcome some limitations that the A-10 faces 
when operating from expeditionary airfields at high field elevations 
and temperatures. It will also improve the A-10 performance at medium 
altitudes and increase its weapon load, thus improving survivability 
and more fully leveraging the capabilities of the Precision Engagement 
modification and ATPs.
            Special Operations Forces (SOF)
    Air Force Special Operations Command (AFSOC) offers Combatant 
Commanders specialized airpower and ground forces to conduct and 
support special operations and personnel recovery missions. These 
forces offer a unique combination of capabilities and personnel that 
the United States can call upon for the GWOT, Homeland Defense and 
disaster response missions.
    To meet operational requirements, we will add four AC-130U Gunships 
to the force structure in 2006, followed by ten MC-130H Combat Talon 
IIs by 2010. The first CV-22 Osprey combat unit anticipates IOC in 
2009. The Osprey will add a long-range, self-deployable, vertical lift 
mobility aircraft to sustain SOF in remote environments.
    We will support expanding our SOF Combat Aviation Advisory forces 
so they can assess, train, advise, assist and integrate more nations' 
Air Forces into the GWOT and other combined operations and 
contingencies. We have begun the CSAR-X program in an effort to provide 
a fast, long-range, all-weather aircraft to achieve IOC in 2010 and 
replace the HH-60 CSAR aircraft.
    The Air Force is also developing the Persistent Surface Attack 
System of Systems as the follow-on to the current AC-130 Gunship. This 
gunship follow-on will provide responsive, survivable, persistent and 
precise fire support in the low-threat to selected high-threat 
engagements in the 2015 timeframe.
            BRAC
    BRAC 2005 will transform the Air Force for the next 20 years to 
meet new challenges as a Total Force. The BRAC results improve Air 
Force warfighting effectiveness, realign Cold War era infrastructure to 
meet future defense strategy, maximize operational capability by 
eliminating excess physical infrastructure, and capitalize on 
opportunities for Joint teaming with our sister Services. We will 
continue the excellent record established in prior BRAC rounds by 
closing bases as quickly as possible so savings are realized and 
properties expeditiously turned over for viable reuse, in concert with 
community plans for development and economic revitalization.
                      summary--heritage to horizon
    We have received a proud heritage forged through the ingenuity, 
courage and strength of the Airmen who preceded us. Our duty today is 
to deliver their Air Force to the limitless horizon ahead of us. The 
mission of the Air Force remains to fly, fight and win whether we are 
delivering lethal effects against insurgents in Iraq, protecting the 
skies of the United States against terrorist attacks, providing a 
Global Positioning System that is essential to our modern military and 
the global economy, or providing relief to victims of natural disasters 
both at home and abroad.
    The Air Force of today and of the future will strengthen the entire 
Joint and Coalition team. Dominance of air, space and cyberspace paves 
the way to overall success. In keeping with the current emphasis on 
innovation and transformation, our future Air Force will be a more 
capable yet smaller force. As such, the future Air Force will increase 
the capability and flexibility of the Joint Force and, subsequently, 
will increase the depth and breadth of options available to the 
President and the Secretary of Defense. These military options will be 
crucial to the defense of the Nation as the United States continues to 
wage the GWOT while transforming and strengthening the Joint Force for 
any future contingency.
    The Air Force offers an unparalleled set of combat capabilities to 
directly influence any Joint, Coalition or interagency operation, as 
well as the enabling capabilities to improve Joint warfighting in 
conjunction with our partners on the ground, on or under the sea and 
through the air, space and cyberspace. Recognizing that no Service, or 
even DOD, can achieve success by itself, the Air Force has focused on 
increasing the integration and effectiveness of the Joint Force and 
interagency team.
    To achieve new levels of integration and effectiveness, the Air 
Force will take advantage of our Nation's long-held command of the 
global commons--air, space, sea and cyberspace. The Air Force will 
extend its current air and space power advantage. As part of the Joint 
Force, the Air Force is positioned to leverage its persistent C4ISR, 
global mobility and rapid strike capabilities to help win the GWOT, 
strengthen Joint warfighting capabilities and transform the Joint 
Force--while maintaining good stewardship of public resources.
    The Air Force faces the broadest set of mission requirements across 
the entire spectrum of warfare. We will bolster our Nation's ability to 
respond swiftly, flexibly and decisively to asymmetric, irregular and 
emerging threats. We have embarked on AFSO21 as a means to best 
allocate our resources to meet this increasing set of challenges.
    To accomplish this requires continued focused investment in our 
people, science and technology and the maintenance, sustainment, 
modernization and recapitalization, and, where it makes sense, 
retirement of our aging aircraft and weapon systems.
    We are America's Airmen. Our heritage is innovation. Our culture is 
Expeditionary. Our attitude is Joint. Our mission is clear. As threats 
change and America's interests evolve, we will continue to adapt, 
evolve and remain the world's premier air and space force. Together 
with our fellow Services, we stand resolute, committed to defending the 
United States and defeating our enemies.

    Senator Stevens. General Moseley, do you have a statement?
    General Moseley. Mr. Chairman, thank you, sir. If you would 
allow me to put my statement in the record, I would like to 
take my time and introduce four American heroes and great 
airmen to you, sir, and the distinguished members of the 
subcommittee.
    When I call their name, if they would please stand up.
    Let me start with Senior Airman Polly-Jan Bobseine. She's 
had three deployments to Iraq so far. She's due to rotate back 
in June. Senator Burns, this is one of these airmen that are on 
the ground in close combat alongside our joint partners, the 
Coast Guard, Navy, Marines, and Army. She's a fire team member 
with the 820th Security Forces Group. She's participated in 
numerous offensive operations and offensive ground operations 
in Iraq, to include 100 combat patrols and 45 offensive 
missions. She's participated in 30 ambushes and five direct 
action missions against Iraqi insurgents herself. She's earned 
U.S. Jump Wings and the Army's Big Red One has given her a 
combat patch for sustained combat operations alongside the 1st 
Infantry Division. Again, she's going back in June.
    Our second American hero is Technical Sergeant Brad Reilly. 
He goes back in July. He's had four deployments. He's wearing a 
Silver Star and a Purple Heart that he earned while assigned to 
forces in Afghanistan. This particular mission, he was part of 
a quick-reaction force that was moving to reinforce an ambushed 
Afghan security force. Upon their arrival, the helicopter 
received heavy fire. His detachment, upon landing, overran the 
enemy position and then began to receive hostile fire from 
three different directions. Technical Sergeant Reilly was 
wounded in this action, as was another member of his team, 
Master Sergeant Cooper, who was critically wounded in the upper 
thigh. Technical Sergeant Reilly provided life-saving skills to 
save Master Sergeant Cooper's life, controlled close air 
support fires, provided continual suppressive fire himself with 
close combat against Afghan hostiles for over 2 hours, while 
wounded. Sir, again, he goes back in July. This will be his 
fifth deployment when he goes back.
    Lieutenant Colonel Ann Konnath, she is an expert in Air 
Force space operations. She commands our Weapons School 
squadron at Nellis Air Force Base. She is the expert teaching 
experts about space operations. She is a distinguished Reserve 
Officer Training Corps (ROTC) graduate. She's a graduate of the 
Air Force Weapons School. She is an expert orbital analyst with 
operations in Cheyenne Mountain. She has, herself, operated 
several space control systems. She's been a space weapons 
officer both at 8th Air Force in the Operations Center and in 
U.S. Pacific Command, alongside our other joint partners. She 
is the expert in doing this business of space operations.
    Finally, Lieutenant Colonel Trey Turner. He's had three 
combat deployments. He commands the 17th Reconnaissance 
Squadron, which is our--one of our Unmanned Aerial Vehicle 
Squadrons. And, Mr. Chairman, I think you had a chance to visit 
with them last week out at Nellis Air Force Base. He was a 
naval officer in a previous life, Top Gun graduate of the Navy 
Weapons School in 1992, and an interservice transfer to the Air 
Force in 2003. He's a command pilot with over 4,000 hours in 
the Predator, the F-18, the F-14, the A-4, and has 376 carrier 
landings. He's been deployed to Iraq and Afghanistan three 
times. And he is involved in our reachback operations, flying 
combat missions now out of Indian Springs and out of Nellis, 
over Afghanistan and Iraq. He is the leading expert in unmanned 
aerial vehicle (UAV) combat operations in the U.S. Central 
Command Area of Operations. Last night, he delivered ordnance 
against hostiles in Afghanistan.
    Mr. Chairman, thank you for the time and for allowing me to 
be a proud chief and bring four great Americans and four great 
airmen before this subcommittee, and allowing me to introduce 
them to you.
    Senator Stevens. Well, thank you very much, General. I 
really did enjoy the visit to Nellis. I wish the whole 
subcommittee had been along, because this--the unfolding of the 
manpower and timing requirements of unmanned aircraft, and how 
they're being utilized in combat--in a 24 hour/7 day/365 days a 
year basis is--really, a very interesting scenario to learn 
about and to witness. So, I thank you very much for the visit 
there. And we're delighted to have these young heroes join us 
here today. There's no question about that.
    General Moseley. Thank you, sir. You can see why I'm a 
proud chief, with folks like this in America's Air Force.
    Senator Stevens. They are the coming greatest generation, 
no question about it.
    We have been considering--now if there's no objection, 
we'll go on a 7-minute basis for questions now. I assume there 
will be other members to join us here. We are in session, 
gentlemen, and the problem is, we expect votes within about 40 
minutes.
    We've been told there's an Air Force structure change 
that'll change command relationships. The net result would be 
to eliminate the three-star commands in the various areas now. 
Is this a definite plan now, Mr. Secretary? Is it underway?
    Mr. Wynne. What I would say, sir, is that we are intending 
to reduce our force by about 40,000 people--full-time 
equivalents--over the next 6 years, fiscal year 2006 to fiscal 
year 2011. As a part of that, General Moseley has determined 
that the Active Air Force should not only lead from, but should 
lead from the top, and has determined that he can excise 
approximately 30 general officer slots, of which some of those 
are, in fact, three star slots. We are actually organizing more 
around warfighting headquarters to support combatant commanders 
and relieving ourselves of some of the administrative 
headquarters that these slots would occupy.
    We think that this will actually streamline the Air Force 
from top to bottom. And I have congratulated him on this 
action, because it would make sure that we do not have, if you 
will, all of the 40,000 coming from the bottom of the pyramid, 
but from along the sides of the pyramid.
    Senator Stevens. Well, let me tell you a little history, 
and then--I'll probably take too much of my time right now, 
but--when I was a very young Senator, the Senator in charge of 
this subcommittee, Senator Stennis, and I had some 
conversations with the then-President, President Nixon. 
President Nixon decided to eliminate some of the command 
structures. And one of them was the Alaska Command. I was 
visited by a whole series of former--retired officers, former 
chiefs, who said, you know, ``You must remember World War II.'' 
When World War II happened, there was only a one-star general 
in the whole of Alaska, and people came up--had never served in 
Alaska, and there were a few snafus, because the people didn't 
understand the distance or the climate or the terrain, the 
whole problem. So, we negotiated an agreement with the 
President that the Alaska Command would be disestablished, but 
there would always be a three star in that area who would be in 
charge of the task force. There was presidential order 
somewhere that says immediately upon such an emergency, there 
is reestablished a task force for Alaska, and that person is in 
charge.
    Now, that three star has been there since that time. If I 
understand what you're doing, you're going to take it away, and 
take the one away from Hawaii, too. If that happens, you're 
going to have war up here.
    Mr. Wynne. I would only ask for General Moseley's sage 
words on that, because I've left the organization of the 
combatant commands to his wisdom.
    Senator Stevens. General Moseley.
    General Moseley. Senator, there is no intent in this to 
take down 11th Air Force of the lieutenant general in Alaska or 
the lieutenant general on the peninsula. And we've stood up a 
warfighting headquarters in Hawaii, with a lieutenant general 
there, to be the combined force air component commander for 
U.S. Pacific Command. So, we'll have three numbered Air Force 
equivalents and three lieutenant generals to fight those 
fights. And the Alaska commander, as you know, is also the 
North American Air Defense guy.
    Senator Stevens. Right.
    General Moseley. He is triple hatted as Alaska Command 
under U.S. Pacific Command, and in his North American Air 
Defense hat, under Admiral Tim Keating, at U.S. Northern 
Command. And he's the 11th Air Force commander. So, he is that 
task force commander that you are talking about.
    Senator Stevens. That will not be changed, will it?
    General Moseley. No, sir.
    Senator Stevens. Well, I thank you for that.
    It now appears that--and we discussed this, before--the F-
22 is to be incrementally funded. I think the subcommittee here 
should understand, that is financing in increments rather than 
on a total basis. Now, in general, the subcommittees have 
opposed incremental funding for long-term procurement programs 
such as fighters, bombers, ships. And it is--the changes, I 
think, require an explanation on the record. I've got to tell 
the subcommittee, I don't oppose the proposal, but I think it's 
going to be hard to sell. So I'd like you to explain it to the 
subcommittee, if you would.
    Mr. Wynne. Yes, sir. Thank you for that opportunity.
    We successfully, if you will, negotiated with the Office of 
the Secretary of Defense under the theme that we needed to make 
sure that we had a hot fighter line as an option for the 
President until we got--especially for a fifth generation 
fighter--until we got another fifth generation forward fighter. 
The F-22 is that fifth generation fighter. It was started in 
the 1980s and finalized as a quest of stealth, speed, and 
precision, all wrapped up in one airplane. The successor 
airplane, the next fifth generation fighter airplane is the F-
35, which is currently under development. We felt that the 2-
year extension to the program would, in fact, benefit America, 
giving us that option to make sure we had a hot fighter line.
    This came wrapped in a package that decreased the quantity 
that we had asked for, from 27 airplanes to 20, each year, but 
it did extend the program by 2 years. It did add four airplanes 
to it. But it came wrapped, also, in a package of funding that, 
in fact, bought piece parts in the first advanced procurement, 
and then subsystems in the second advanced procurement, which 
to, I think, budgeting purists, looks a lot like incremental 
funding. It can be wrapped in several packages, but it 
certainly is peculiar, relative to the program.
    The program is mature enough to do a multiyear. We 
absolutely need to have a multiyear in order to cope with the 
increased costs due to the lower volume. The question, to my 
basis, is whether or not we have hedged it full enough, if you 
will, to allow the F-35 to truly mature.
    This leads me to a dilemma, the dilemma that you, the 
subcommittee here, can help me resolve. One is, I either need a 
waiver for the program against this relatively peculiar 
approach to funding the aircraft, so that when I get--and I 
want to add, if you will, another year, if that is deemed 
prudent--I don't have, essentially, a double obligation in an 
out-year, in fiscal year 2010. Either that, or I humbly ask the 
subcommittee to work with us to fix, if you will, the fiscal 
year 2007 submittal, so we can offset what is now a shortfall 
in funding and represented by the zero that you see in fiscal 
year 2007, which essentially defers, on a one-time basis, the 
obligation flow.
    So, those are the two alternatives that I would ask you to 
help me with.
    Senator Stevens. Well, that will be a difficult thing to 
resolve. And I think we're going to have to have a subcommittee 
session on that so our members will understand it.
    I would prefer the latter result, but I'm not sure we can 
do it, budgetwise. If we can't, then I think we'll have to do 
it in the basic bill, in the law, set forth a waiver so it's 
not--that cannot be changed in the future without congressional 
approval. It can't be just a 1-year waiver, in other words; it 
has to be a long-term waiver to be effective, as I understand 
it. Is that correct?
    Mr. Wynne. Yes, sir, that is correct.
    Senator Stevens. Thank you.
    Senator Burns.
    Senator Burns. My questions this morning are more along the 
line of deterrence and strategic posture. And the QDR has 
changed the focus of our strategy toward these irregular 
threats that were mentioned in your report. These are the same 
threats that caused us to rethink our nuclear posture in 2002. 
The Nuclear Posture Review (NPR) was released in the wake of 9/
11, when our forces were engaged on the ground in Afghanistan. 
The irregular threats that we faced in the war on terror had 
become very real for the American people during the winter of 
2001 and 2002, and perhaps many have already forgotten how real 
those threats are.
    In face of the changing reality, the Nuclear Posture Review 
was a complete change in strategic doctrine. And, I might add, 
the NPR was a policy document that was mandated by Congress. We 
told you to do it. That policy document did two major things. 
It reduced the number of operationally deployed nuclear 
warheads from 6,000 to 2,000, it expanded the role of nuclear 
deterrent to consider it an effective countermeasure against 
possible use of weapons of mass destruction by a rogue state.
    Now, the NPR both expanded the role of nuclear deterrence 
and decreased the number of warheads, setting the 
intercontinental ballistic missile (ICBM) number at 500. I 
would ask--you might remark to this--what has changed since 
2000--since January 2002 to necessitate a further reduction in 
our ICBM force? And am I correct in concluding that this simply 
is a budget decision that is driving this strategy?
    Mr. Wynne. Thank you very much, Senator.
    This goes back to the ``sovereign options'' comment that 
you had made in the mission of the Air Force.
    Senator Burns. I'm still trying to figure that one out.
    Mr. Wynne. The aim is to hold hostage other governments' 
intentions and to allow for humanitarian relief and nonkinetic 
action, as well as kinetic action. It's to make sure that the 
President is made aware, fully, through our information and 
surveillance and reconnaissance activity, of his options, and 
then allowing the National Command Authority to use the Air 
Force to fly and fight, if that is, in fact, the determined 
option they want to examine.
    This is also an option that the President has, in the sense 
of responding in a nuclear fashion and talking about the 
Nuclear Posture Review that we're all discussing about here. 
The U.S. Strategic Command commander, which is based in 
Nebraska, has made a determination that he can have a lower 
reduced target set for hostile response. That is a requirement 
that he then lays upon the U.S. Air Force as to how to cope 
with this reduced response. We have done an analysis and 
determined that we can accommodate that with, if you will, 
fewer ballistic missiles, and, frankly, fewer B-52 aircraft. He 
is endorsing this approach.
    As to whether or not it changes the actual determination of 
the number of nuclear warheads, has not been adjudicated; as to 
where the reduction in missiles will be taken, has not been 
adjudicated. Those things are, in fact, all under study. So 
far, the only thing I know is that the requirements we have 
been issued have been reduced.
    Senator Burns. Well, let's further investigate the B-52 
situation. As you know, we're taking another reduction, from 94 
to 56. I think that's the correct number. And that's the only 
long-distance horse that we've got. And when I made mention, a 
while ago, of our support of the ground troops on the ground, 
it has always been our carrier to reduce some of the challenges 
that we face on the ground. It's always been a very--very 
effective, with the addition of the global positioning system 
(GPS). And, also, it's been, sort of, our Iowa-class 
battleship, so to speak, whenever we go into an area.
    Now, that being said, if there is no long-range strike 
capability on the drawing board until 2016, why would we cut 
the most versatile long-range bomber from our fleet now, 
without anything on the drawing board, now, or, it seems like, 
in the near future?
    Mr. Wynne. In fact, we are very, very pleased that the QDR 
has endorsed, if you will, the long-range strike option and 
allowed us to proceed. We intend to come forward, in the fiscal 
year 2008 President's budget, with a hard plan to essentially 
offer a fly-before-buy option, so that we can, in fact, lock in 
a 2018 initial operational capability and try to make sure that 
is accurate.
    While looking at those requirements that we need, I 
appreciate the fact that the B-52 has been a very versatile 
weapons system--in fact, when I was out to look at it, I looked 
into the airplane and asked the commander, ``Is this the way it 
goes into combat?'' He said, ``No sir.'' He said, ``We''--as 
you correctly said--``We add a GPS antennae, we add a ground 
communications antennae, we add two laptops and a central cable 
right down the middle of the airplane, and turn it into a 
fairly versatile war machine.'' Having examined that, we think 
that we have an adequate supply of B-52s, with the reduced 
number. I think we're talking about reducing 38 of these over 
the course of the next 6 years.
    This is also, by the way, adjuncted by the B-1 and 
adjuncted by the B-2, which are also more modern weapons 
systems that we have. We feel like that we can go through the 
B-52 fleet and essentially pick out the best of the rest and 
use those well into the future. There's no intention to 
essentially stop using them.
    General Moseley. Sir, if I could add on, the B-1 is also 
the Iowa-class battleship. They're imperceptive in our 
employment difference. We operate them out of Diego Garcia. 
We've operated them--each of them out of expeditionary 
airfields. The B-52 is a valuable airplane. Last night, we 
dropped eight satellite-guided weapons off of it against 
hostiles in Afghanistan. But it could have been a B-1, 
depending on the rotation of the bombers at Diego Garcia.
    We've got, over the future years defense plan (FYDP), we've 
got $6.37 billion in bomber modifications and bomber 
improvements. We have a phase I, which we put about $4.5 
billion into the B-1, the B-2, and the B-52 for upgrades and 
modernization. We have about $1.6 billion in for the new 
bomber, with a 2018 initial operating capability (IOC), as 
mandated by the QDR. And then, we have a phase III, with about 
$275,000, that's looking at technologies beyond 2025 or 2035.
    Senator Burns, we take long-range strike very serious. The 
soul of an air force is range and payload and ability to access 
targets on a global scale. That's what we do different than an 
army or a navy. And so, a bomber is a very important tool in a 
combatant commander or a President's quiver, relative to those 
sovereign options.
    We have to be able to penetrate airspace. We have to be 
able to survive the penetrated airspace and maintain 
persistence coverage. And so, our desire to field a new 
striking bomber by 2018 is to leverage on the existing 
technologies that we have out of the joint unmanned combat air 
systems (JUCAS) program, and out of the things that we've 
learned with the unmanned aerial vehicles and the things we've 
learned in 15 years of combat, to be able to look at this new 
bomber.

                          BOMBER MODERNIZATION

    But, sir, we've got $1.13 billion in the B-52 for upgrade, 
$1.3 billion in the B-1 for upgrade, and $2.05 billion in the 
B-2 for upgrade, just in the future years defense plan alone.
    Senator Burns. Well, I would--just looking at--just looking 
at our threats and what we have to--and the capability of 
meeting some of those challenges, I look at the B-52 with great 
marvel and curiosity. One could say, about your fleet, you look 
at that airplane and says, ``They just don't make them like 
that anymore,'' because it has been a workhorse, and it 
continues to be a workhorse, and probably has outlived 
anybody's estimate of its longevity. So, I'm just sort of 
concerned along those areas.
    I've got a couple of other questions, Mr. Chairman. We've 
added more people to the subcommittee, and I know they have 
important questions. I've got a couple more. But thank you very 
much.
    Senator Stevens. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary and General. And I want to thank 
you, General, for bringing your stellar people here, and 
introducing them. And I can't resist saying, I was delighted to 
see two women as part of four people acknowledged for very 
special service to our country, and surprised one is so very 
young. But----
    General Moseley. Senator, that very young one has had 
multiple combat tours.
    Senator Feinstein. That's what I understand. Is this her 
fifth deployment?
    General Moseley. It will be----
    Sergeant Bobseine. It will be my fourth.
    General Moseley It will be her fourth. She's had three.
    Senator Feinstein. Fourth----
    General Moseley. She goes back in June.
    Senator Feinstein. That's amazing. Would it embarrass you 
if I asked how old you are?
    Sergeant Bobseine. I just turned 21, ma'am.
    Senator Feinstein. You just turned?
    Sergeant Bobseine. Twenty-one.
    Senator Feinstein. Twenty-one, oh. Well, now that you've 
finally reached maturity, let me----
    Senator Stevens. Why don't you ask her how she can carry 
that pack? Have you seen that pack they take with them, when 
they go out in those combat activities?
    Senator Feinstein. No.
    Senator Stevens. Tell her. Tell her how heavy your pack is.
    Sergeant Bobseine. It's about 90 pounds, ma'am, when it's 
fully loaded.
    Senator Feinstein. How long can you carry it before you get 
tired?
    Sergeant Bobseine. It depends, ma'am. As long as I have to.
    Senator Feinstein. Yeah, I guess you do pretty well.
    As long as you have to. Okay. All right.
    I wanted to, if I can, ask my questions on the C-17, 
General. Obviously, the C-17 is a very important program for 
California. It employs 6,500 people in Long Beach. It's got 400 
suppliers. It's a $3.7 billion asset to the State. But you have 
termed it a ``Golden Plane.'' And it certainly has provided its 
service in many different ways.
    It's my understanding that the Air Force requests funding 
for both advanced procurement of additional C-17s, along with 
money for shutting down the line in 2008. However, recently, 
it's my understanding, the position has changed slightly, 
requesting funding for seven additional C-17s as part of your 
number one priority on the unfunded list. Now, this request has 
had an impact on the high rate of attribution, as it continues 
to fly, I gather, 70 percent of the missions in anticipated use 
in both Iraq and Afghanistan. Some Air Force officials have 
suggested publicly that there might be a need to procure up to 
20 additional C-17s.
    I'd like to receive your very candid assessment of the 
capabilities of the C-17, and the Secretary's, as well, along 
with an explanation of why you chose to make the procurement of 
seven additional C-17s your top priority on the unfunded list.
    General Moseley. Senator, thank you for the opportunity to 
talk about the C-17.
    It is worth its weight in gold. It's a great design, and 
it's proven itself useful as an intertheater airlifter, as well 
as an intratheater airlifter. We've been able to use this 
airplane in areas that we've never used a strategic airlifter 
before, because it is reliable, and it is very capable to get 
in and out of shorter airfields. In fact, we were able to fly 
it directly from Charleston Air Force Base, North Carolina and 
McChord Air Force Base, Washington, to places in the United 
States and Europe, or fly it straight into Baghdad or straight 
into Balad or straight into Bagram in Afghanistan, without 
having to stop somewhere and transfer the cargo or the people 
to a smaller airplane. So, its been worth its weight in gold. 
And we have been flying it in rates in excess of what we 
programmed.
    The good news about this airplane is, we have the airplane 
instrumented, so we understand where the stresses are on the 
wings, in the fuselage, and on the structure. And as we look at 
that analysis, we see that we are stressing the airplane with 
multiple takeoffs and landings, and multiple operations in 
these shorter fields.
    Now, we have, out of the mobility capability study, 112 C-
5s that is the bookend of the strategic airlifters. And, as the 
Secretary mentioned, we have congressional language that 
precludes retirement of the C-5A's. So, we have 112 C-5's. Out 
of the mobility capability study, the program of record of 180 
C-17s matched with 112 C-5s gives us sufficient airlift.
    But, ma'am, remember, in the mobility capability study, it 
also addresses even rail shipment, fast sealift, sealift pre-
positioning ships, wartime reserve material pre-positioning. 
So, it's a bigger picture than just airlift.
    So, 180 is the program of record. But now that we have the 
ability to look at the data, we see that we are burning the 
airplanes up at a higher rate. So, our analysis tells us that 
the seven that we asked for in the unfunded priority list, 
along with the combat losses in the C-130 and our center wing-
box issues with C-130s, will be sufficient.
    Now, we also have partnered with the Australians, and we 
understand that they have asked to buy four C-17s. The British 
are looking at an additional buy. General Jones--and his world 
is U.S. Supreme Allied Commander, Europe (SACEUR), and North 
Atlantic Treaty Organization (NATO)--have expressed in 
additional C-17s. The world, I think, understands how valuable 
this airplane really is.
    Mr. Wynne. I can add to that, Senator, that, on page 1 
yesterday in the USA Today, you saw another illustration of the 
utility of the C-17, which was essentially a flying intensive 
care unit (ICU), made up for the medical evacuation of our 
soldiers and airmen and marines out of Balad into Landstuhl, 
Germany. This is a scheduled run using the versatility of this 
airplane. And we recognize that it is essentially being used at 
a little higher rate than we had anticipated it would be used 
at all in this war effort to support, as Senator Burns said, 
the ground warfare.
    The miracle of Iraq is actually in medical evacuation, and 
the fact that we can get people from the front lines into Balad 
and into Landstuhl and then back to Walter Reed Army Medical 
Center in very short order. And that is saving lives in a 
dramatic way.
    The C-17 is the workhorse of this engagement, without a 
doubt. The C-130 also works very hard during this time. Our 
assets are essentially wearing out, and we would like to make 
sure we have enough in reserve, if you will, to recapitalize.
    I would tell you that the next tanker is actually more 
valuable than the next C-17, because while the soul of the Air 
Force is, in fact, delivering power at long range, long-range 
strike, our expeditionary and agility forces require tanker 
operations, without a doubt.
    That having been said, we see that right now, because of 
the wear that they're getting--to get an equivalent of 180 
units, we may have to buy up to an additional 7 units to 
essentially meet the capacity requirements laid down in the 
mobility capability study. You asked, why did it show up as our 
number one unfunded priority? And that was the reason it showed 
up as our number one unfunded priority. We just see that wear 
and tear on this fleet, meeting the capacity requirements of 
the Mobility Capability Study would actually require up to 
seven additional airplanes.
    The addition to the international sales, I think, is very 
fulfilling. It almost ratifies, if you will, our look at the C-
17 as an excellent airplane. Were NATO and the United Kingdom 
and Australia to buy this airplane, it would further relieve us 
of some of the missions we, in fact, are accomplishing today.
    General Moseley. Ma'am, two other----
    Senator Feinstein. Yes, General?
    General Moseley. Two other bits for you. When I was blessed 
to be the U.S. Central Command air component commander for 
Afghanistan and Iraq, we used the C-17 to make the largest 
humanitarian airdrop in the history of combat aviation. Those 
early drops were made to Afghanistan and flown out of Germany.
    We also used the C-17 for the largest airdrop of soldiers 
since the Korean War carrying the 173d to northern Iraq. So, 
the airplane is not only the finest flying hospital, it is also 
the finest deliverer of humanitarian assistance, as well as 
paratroopers. And you can fly it in and out of small airfields. 
So, that's how I've assessed this as being worth its weight in 
gold.
    Senator Feinstein. I thank you both for that.
    I'd like to just add one other thing. Some of us have 
really fought the reopening of the nuclear door, and the 
development of new nuclear weapons, for a number of reasons I 
won't go into here. So far, we have won. We won on the low-
yield nuclear weapons. We won on the robust nuclear earth 
penetrator. The fiscal year 2006 authorized $4 million to 
conduct sled tests and to better understand the physics of 
penetrating geologic media. The 2006 appropriations conference 
report provided $4 million for this. And I've been in 
communication with the Secretary of Energy. I want to just read 
his response to a letter I wrote. His--well, the response came 
from Linton Brooks----
    Senator Stevens. Senator, could we make it a little short, 
please----
    Senator Feinstein. Yeah, I'll make it as----
    Senator Stevens [continuing]. If you will?
    Senator Feinstein [continuing]. Short as I can, Mr. 
Chairman.
    Senator Stevens. Well, the time has expired.
    Senator Feinstein. Could I just----
    Senator Stevens. Yes.
    Senator Feinstein [continuing]. Finish?--saying that no 
sled test would be conducted at Sandia or any other facility. 
He says that if the Department of Defense (DOD) chose to 
conduct a test at a DOD facility, he believed that would be 
fully consistent.
    My question was going to be, what kind of sled tests can 
you inform the subcommittee are being conducted, and what 
guarantee is there that this will not be a nuclear subterfuge?
    Mr. Wynne. I guess, very quickly, we need the statistics 
and the physics just to make sure that we, in fact, have the 
right kind of arguments for the use of conventional warheads at 
that kind of speed. We really don't even know whether or not 
any projectile will penetrate at those kinds of velocities. It 
may actually always become a surface issue. So, this is really 
about determination of physics. But I think the agreement is 
actually that the concept of the robust nuclear Earth 
penetrator (RNEP) is not at issue any longer. We're talking 
about just penetrators and penetrator tests.
    Senator Feinstein. Thank you, Mr. Secretary.
    Senator Stevens. Thank you, Senator.
    Senator Feinstein. I appreciate it. Thank you.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary, General Moseley, I want to get into the area 
of fleet--a fleet of aging refueling tankers, that we're 
experiencing problems and have great challenges. I don't 
believe, Mr. Secretary, that we can wait 35 years to replace 
our tankers. The President's budget, as I understand it, calls 
for retiring 114 KC-135Es in fiscal year 2007 and 2008. 
Clearly, we will not have replacements available, even by the 
end of the fiscal year, 2008, General Moseley. What assurances 
can you give us, if any, that a replacement aircraft will be 
identified and in production before the risk of retiring the 
KC-135s becomes untenable?
    General Moseley. Senator, thanks for that question because 
this is an important issue. And let me echo my boss and say 
that the first tanker is more important to me right now than 
the 181st C-17. Even with the seven that we've included in the 
unfunded priority list, the tanker program is exceptionally 
important to us, because it provides those airlift legs.
    Senator Shelby. Without them, you have no legs, do you?
    General Moseley. Sir, not just us, this is for the joint 
team. The Navy has no legs, the marines operate at much shorter 
distances. But there is no range without the American tanker.
    The 114 KC-135Es that we're talking about, there is still 
congressional language that precludes us from retiring any of 
those airplanes. Our preference would be to retire the KC-
135Es----
    Senator Shelby. Yeah.
    General Moseley [continuing]. The 114 aircraft have crews 
across the total force--Guard, Active, and Reserve. We want to 
bring the KC-135R model crews up, so we can generate sorties 
with the more reliable R model.
    General Handy, before he left U.S. Transportation Command, 
and General Schwartz and General McNabb, out at Scott Air Force 
Base, now believe there's only going to be a 9 percent decrease 
in total offload by retiring the E models sooner and increasing 
the crew ratios on the R models so we can fly those aircraft.
    Senator, the other reality is, we don't deploy the E models 
into the U.S. Central Command Area of Operations. When I was 
the air component commander, I wouldn't take them. They're less 
reliable. You carry less of a load. The engines are such that 
you can't lift the weight. You have to download the fuel on 
them. You're much better off with the----
    Senator Shelby. We've got to retire them, haven't we?
    General Moseley. What's that, sir?
    Senator Shelby. We have to retire them.
    General Moseley. Sir, our proposal would be to retire 
those----
    Senator Shelby. Sure.
    General Moseley. We need to take them off the books, take 
the crews, put them in the R model, and let's get on with the 
new program. And we have all that in play now.
    Senator Shelby. I know you don't have an exact date--if you 
do, you keep it to yourself, which you should--do you have any 
ballpark idea when we would start?--first, you've got to 
identify, you know, the aircraft, and then start procuring the 
aircraft. I know this is down the road, but you've got--you 
think down the road.
    Mr. Secretary.
    Mr. Wynne. We do try to think down the road. Thank you, 
Senator, for that. We hope to get release from the Deputy 
Secretary to start this procurement in the very, very near 
future. I have tried to hold the team, if you will, to a 
September release of a request for proposal, a near-term 
release of a request for information, to turn that information 
into a request for proposal in September, which would lead to a 
mid-year next-year potential award. These are our targets right 
now. They are looking forward. If that happens, then you've 
probably got 24 to 36 months beyond that before you begin to 
receive the tanker fleet.
    Since the basic platform we have seen right now is becoming 
available across the world, we are hopeful that these companies 
can accelerate their deliveries to us.
    Senator Shelby. That would help.
    Mr. Secretary, we hear a lot of stuff, and sometimes you've 
got to throw it away, but we've been hearing that some senior 
leaders in the Air Force are on record stating that the next-
generation tanker we're talking about must do more than just 
air refueling. In other words, it could have multiple--
multipurposes, such as air transportation capability for 
passengers, cargo, aeromedical evacuation, and so forth. Could 
you elaborate on that?
    Mr. Wynne. Yes, sir, I can. Even our current fleet of KC-
135s, in fact, performs medical evacuations from the Pacific, 
because of the legs that we get out of those tanker aircraft. 
We can also carry a limited amount of cargo on KC-10s, because 
they have floors in them, and adequate doors to get things in 
and out of that airplane.
    General Moseley and I are very concerned about people 
piling on excess requirements, driving the cost of this tanker 
up. We are committed----
    Senator Shelby. We certainly don't need that, do we?
    Mr. Wynne. We are committed, throughout our acquisition 
program, to try to get baseline utility, instead of having 
people pile on excess requirements. Modern technology and 
modern manufacturing techniques can, if you will, square the 
circle by giving us something we might not have specifically 
specified. But our desire is to keep things to a minimum; 
hence, the F-22A; hence, in the transformational satellite 
(TSAT), we are trying to keep that to a technically mature 
product; the space-based radar, all of our programs, we are 
committed to taking a very hard line to essentially piling on 
requirements.
    Senator Shelby. Yeah, you don't need to buy something you 
don't need, or foresee that you need, do you?
    Mr. Wynne. Well, I would say that I hate to forego options, 
but, at the same time, I have a very severe cost constraint in 
the future. It is not going away. I think, as Senator Stevens 
has indicated, this is something we're going to have to be very 
careful with in the future.
    Senator Shelby. Thank you.
    General Moseley.
    General Moseley. Senator, let me add on to that, also. In 
the request for information (RFI), when we get that out--and 
hopefully that'll come out soon--it puts everything on the 
table, as far as options for the airplane.
    Senator Shelby. Okay.
    General Moseley. It's a good piece of work, and it opens 
the door for anybody with good ideas.
    At the end of the day, when we build this thing, it has to 
be an A model. We have to be able to get the lowest cost, most 
basic airplane, and get it to the field to address these 
deficiencies that we've got. And, sir, I think you would 
appreciate that we won't be able to buy these airplanes a 
hundred a year. I suspect we'll buy these airplanes at the same 
rate that we bought the other big airplanes, which will be $15 
to $20 billion, which--you take the 417 R models, divide that 
into $15 to $20 billion, and you've come close to a 30-year 
program to buy this airplane out, which means the R model will 
be around that long. So, this has to be an A model. We can 
reduce any turbulence in the system and build the most simple 
airplane and keep the cost down.
    Senator Shelby. But you've got to do it, haven't you?
    Mr. Wynne. Well, sir, we have to do it, absolutely. And 
what I want to do is make sure that we use a Microsoft-like 
model, where we can plug-and-play----
    Senator Shelby. Sure.
    Mr. Wynne [continuing]. Into the future. We hope that our 
contractors are very aware of the impact on modularity.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    General and Mr. Secretary, thank you very much. We--here in 
the Senate and over in the Pentagon, we've got some people 
that, at times, get pretty puffed up and wear starched shirts. 
We all understand that. But I've dealt a lot with both of you, 
and you, I think, do great credit to this country and are 
terrific in the jobs that you hold. I appreciate your work.
    I want to make a couple of comments about the B-52s, 
following on Senator Burns' comments, and then have you respond 
to it. And then I want to ask you about the Happy Hooligans, if 
you----
    First of all, the B-52s, my understanding is that the 
official estimates of the Air Force is, that 21-year-old airman 
behind you will be 55 years old by the time you estimate that 
the B-52s will have no life left. So, think about that, 35 
additional years of life, according to the official estimates 
of the Air Force. She'd be 55 years of age at the time we say 
the Air Force has now flown the B-52s beyond its time.
    Number two, you mentioned that there were precision-guided 
weapons dropped last evening by B-52s. I assume, in 
Afghanistan, there's no antiaircraft batteries, or very few, so 
it was probably not standoff, you could fly into the theater. 
But if it were standoff, a precision-guided weapon dropped on a 
standoff capability, then you would--you used a bomb truck. The 
B-52 is a bomb truck. You could have used a different truck. 
You could have used a B-1, B-2. The B-52, as a bomb truck, is 
one-third the cost of operation of a B-2, and one-half the cost 
of operation of a B-1. When you are desperately short of 
funding--and I don't see the Air Force budget growing the way 
some of the other areas grow--when you're desperately short of 
funding, I wonder about the advisability of going from 93 down 
to 56 of the least expensive bomber we have, especially when we 
are moving more and more towards precision-guided weapons. And 
so, I think we should talk a bit about that.
    My understanding is, General, that there were 42 B-52s 
deployed during the Afghanistan and Iraq War, but it took 80 
airplanes--82 to 84 B-52s, really, to move in and out, in a 
rotational capability, to satisfy that requirement. In the 
future, we couldn't do that. I believe we used 140 B-52s in the 
first gulf war. I think we've now used 80 to--82 to 84 B-52s to 
circle in and out of the second. And we're proposing that we go 
down to 56 B-52s, which is the least-cost operation of a bomber 
fleet, by one-third or one-half. And, once again--I didn't mean 
to single you out, young lady, but, by the time you reach 55, 
they say we can keep using that B-52 all of these years. I 
think it's a bargain for the taxpayers.
    So, let me ask you to respond to that. And then, if you 
can, let me also have just a moment to respond to the B-52s--or 
to the Happy Hooligans, rather.
    General Moseley. Sir, the range that we're operating these 
airplanes, from Diego Garcia to targets in Afghanistan, are the 
same distance--and this gets at Senator Burns' question--it's 
the same distance from Tampa, Florida, to Juneau, Alaska. So, 
our crews are flying the same distances on these missions from 
Florida to Alaska every day, and delivering ordnance. So, 
that's the benefit of the tanker, and that's the benefit of the 
bomber.
    Sir, in the future, in this unknown future, we have to be 
able to operate in opposed airspace, and we have to be able to 
deliver these effects. With the F-22, we can maintain the 
dominance to get the bomber to the target. Some of the worst 
lessons learned in Air Force history were the lessons of 1942 
and 1943, where we lost 30 to 40 to 50 percent of the bomber 
fleets on missions at Schweinfurt and Ploesti and Regensburg, 
et cetera. The bomber has to survive to be able to deliver that 
ordnance. When you have no air defenses, then the truck will 
do. When you have air defenses, you have to beat them down, 
suppress them, so you can get the heavy lifter to the targets. 
And so, that's the dilemma that we face against fifth 
generation surface-to-air missiles and fifth generation 
fighters, which is why the F-22 is important to us.
    But, sir, we used every bomber that we could get once we 
got them in theater. But, sir, remember, we also redeployed 
them back to home station to minimize the time away on the 
people. So, there were a lot of the bombers that we did not 
just park at Thumrait or at places--other expeditionary 
airfields. We rotated the aircraft and the crews out to try to 
maintain some rotation time-away-from-home normalcy for the 
crews.
    Sir, another way to do that would be to have all of the 50-
plus bombers combat-capable with the $1.3 billion spent on all 
of the upgrades, and you could deploy the airplanes, and then 
rotate the crews, instead of the other way around.
    So, sir, if you're asking me, do I love the B-52? I do. 
Have I used it a lot in combat? I have. Have I dropped a lot of 
bombs off of it? I have. Have I shot a lot of cruise missiles 
off of it? I have.
    Senator Dorgan. If you had your druthers, would you like 
more than 56--if you had your druthers and had the money to----
    General Moseley. Sir, I know your attachment to the B-52, 
but, let me say, if I had my druthers, I would build a new 
bomber. I would build new bombers so I could penetrate airspace 
and maintain persistence, and I can deliver this effect, 
whether it's opposed or unopposed airspace. And that's the 
cruncher, and with the money.
    Senator Dorgan. I understand, yeah.
    Let me just quickly--thank you for your answer, General.
    General Moseley. Yes, sir.
    Senator Dorgan. There's obviously room for a lot of 
discussion in that answer. But I appreciate your work on these 
issues.
    Let me ask you about the Happy Hooligans, in Fargo. We're 
now scheduled for unmanned aerial vehicles and some discussion 
about some interim C-130s and the light cargo plan. Can you 
tell me what the approach is for that unit?
    General Moseley. Sir, we're working hard to get the UAV 
presence right. We have North Dakota, New York, California, 
Nevada, Arizona, Texas, and we're working hard to get the 21 
orbits, which is a euphemism for 21 separate customers, to be 
able to deliver the effect, whether it's surveillance or 
whether it's strike. And so, to get the airplanes to North 
Dakota which is our desire, we have to get crews trained and 
operations up and going to conduct combat operations.
    The National Guard Bureau--having talked to Lieutenant 
General Steve Blum a bit, the National Guard Bureau has talked 
to the Adjutant General in North Dakota about four or more C-
130s as an interim bridge until we can get some fidelity on the 
joint cargo aircraft. We've had no opposition to that, for 
sure. I don't know many of the details, other than there's been 
some discussion. And, sir, we're not opposed to that. That's 
not a bad way to go.
    We're working the joint cargo aircraft issue with the Army, 
to determine the number of these aircraft, how best to employ 
them in theater, conduct homeland security and homeland defense 
with them, and upgrade some of these systems.
    An aircraft of that type would have been very useful in the 
early stages of Afghanistan and in the early stages of Iraq. 
And it would be very useful today, to be able to move things in 
and out of those smaller airfields.
    And so, we're focused on that, sir, and we're working that 
with the Army.
    Senator Dorgan. Going back, just briefly, to the bomber 
issue, I understand the 2017 timeframe and so on. I have also 
watched the tanker, the new tanker issue languish. And, you 
know, I don't know when we'll have a new bomber. I understand 
the need for it, but I still think we need to rethink the cost 
of deploying these bombers. And I might say that with--
particularly with standoff precision weapons, these bombers all 
become trucks when you're using standoff precision weapons, 
because they're not part of the battlefield, at that point. But 
I just--I hope we can continue the discussion about B-52s.
    General Moseley. Yes, sir.
    Senator Dorgan. I thank you very much for your stewardship 
of the Air Force, Mr. Secretary and General Moseley.
    General Moseley. Thank you, sir.
    Senator Stevens. Thank you very much, Senator. I think the 
two co-chairmen remember when President Truman tried to stop 
the B-52. It was built during President Truman's day. It's been 
around a long time. We'll have to discuss that.
    Senator Inouye, if you have--your opening statement, space 
in the record has been reserved for you, my friend. You're up.
    Senator Inouye. First, my apologies for being late. We had 
another function.
    Mr. Secretary, General, I'd like to take this opportunity 
to remind some of my colleagues of the great work you've done 
in Enduring Freedom, in Iraqi Freedom, and Noble Eagle. I find 
that the media and my colleagues at times focus too much on the 
land forces, the marines and the Army. There's much 
justification for that, but I'm certain those men and women on 
the ground would be the first to tell all of us that without 
the Air Force, they're really in a fix. And so, I wish to thank 
you and the members of your command, and men and women who have 
done so much for us with all their sacrifices.
    Mr. Chairman, I'd like to have my full statement made part 
of the record.
    Senator Stevens. Yes, sir.
    Senator Inouye. I just have one question, sir. This is on 
your transformation. And I would like to just touch on one 
aspect of transformation. You speak of efficiency and 
consolidating redundant activities. While I think all of us 
support efficiencies, I do not want to be part of a group that 
would send a signal to certain geographic regions suggesting 
that maybe they're not that important. I think it is critical 
that a major command retain the ability to manage its people 
and its resources.
    Now, for example, the Air Force is exploring the alteration 
of chain of command for operational units. And units that are 
currently reporting to Pacific Air Forces (PACAF) would 
communicate directly with the Air Combat Command. Now, that 
would seem to me--I'm not an Air Force general, but it would 
seem to me that you would make a four-star general a 
figurehead. He has the troops, but somebody else has command 
and control over them. So, I would hope that our forces in 
Europe and our forces in the Pacific are provided the 
importance that I think they deserve.
    What are your comments, sir?
    Mr. Wynne. Well, one of the things is that I'm very proud 
to have a partner like General Moseley to work with. And when 
we talked about trying to husband our resources and 
understanding the increasing costs of our personnel, and 
concluded that we would take a 40,000 full-time equivalent 
reduction in our service, he stepped right up and said that the 
active should lead from the front, and the active should lead 
from the top, and has looked into ways to economize on 30 
general officer slots, which really gets at your question, I 
think, in a very direct way.
    That having been said, I have left all of the command 
relationships, if you will, to my partner in his regard to the 
military operation, as I think I should, and I'd like for him 
to take on that question very well.
    General Moseley. Senator Inouye, thank you for the chance 
to answer that, because there are some misunderstandings out 
there.
    Our desire is not for PACAF, for the U.S. Air Forces in 
Europe (USAFE), to become subordinate to Air Combat Command or 
Air Mobility Command or Air Force Space Command or Air Force 
Materiel Command or Air Education and Training Command. They 
are major commands, with representational responsibilities and 
command responsibilities to U.S. Pacific Command and U.S. 
European Command. And we take that very seriously, as a part of 
the joint team.
    What we have looked at, though, is using the numbered air 
forces in the Pacific, 11th in Alaska, 5th in Japan, 7th on the 
Korean peninsula, in the new Kinney Warfighting Center, on 
Hickam Air Force Base, which may or may not become 13th Air 
Force, as the fighting forces for the Pacific, which they have 
historically been, and to look, if there are not management 
oversight things within all of the major commands, the 
functional areas of personnel, civil engineering, 
communications, that we can streamline to look at saving 
management oversight, not command oversight.
    General Paul Hester still has command of Pacific Air 
Forces, and he is responsible to Admiral Fox Fallon as his 
senior airman in theater--same with 11th, 5th, 7th, and what 
may become 13th on Hickam Air Force Base, which is now the 
Kinney Warfighting Headquarters.
    So, sir, we intend, in no way, to break the command 
structure down, and we are looking for efficiencies in those 
functional areas where it makes sense such as personnel 
activities or civil engineering or communications. And I think 
you would want us to look at that to see if there's not some 
inefficiencies there. But there is no intent to have the 
Continental United States major command headquarters having 
anything to do with the command prerogatives or 
responsibilities of Europe and the Pacific.
    Senator Inouye. Well, I thank you very much.
    In closing, I'd just like to reiterate what my chairman has 
said time and again. The two aircrafts that are most important 
at this moment in our history, F-22 and the C-17, take good 
care of them, please.
    The other matter that concerns me is the fact that our 
bomber fleet seems to get smaller and smaller. And I believe 
the time should come when serious consideration should be made 
in developing a new bomber, penetration bomber. I would assume 
that that is in your minds or your planning.
    I thank you, sir.
    General Moseley. Sir, it is in our minds, and out of the 
QDR, we have a date on the wall of 2018 for the initial 
operational capability of a long-range strike platform, which I 
believe is a bomber. And we're working hard to begin to set the 
stage for that acquisition program, and to go through all of 
the right processes to be able to get at something that we 
could field by 2018.
    The bomber is a critical tool. And, sir, I think you would 
agree, the soul of an air force is just that, range and 
payload. And in today's uncertain world, to be able to range 
those targets with that B-52 at those distances, which are from 
Tampa, Florida, to Juneau, Alaska, every day with those crews, 
that's a powerful tool for General John Abizaid and the air 
forces in the Central Command region.
    Senator Inouye. That's a good answer.
    General Moseley. Yes, sir.
    Senator Inouye. Thank you very much.
    Senator Stevens. Senator Domenici, do you have questions?
    Senator Domenici. Do you have somebody else, so that I 
could have a minute?
    Senator Stevens. I have some questions I'd like to ask.
    Senator Domenici. Please do.
    Senator Stevens. Senator Dorgan has talked about the aging 
fleet of bombers. Matter of fact, it's my understanding that 
our total aircraft inventory is the oldest in history now. We 
have--the average age of aircraft is--all aircraft--is 23 
years. Tanker fleet's over 41 years, in average. C-130's 
average is over 25 years. I don't know what the average age of 
the B-52 is. It's got to be 50.
    General Moseley. Forty-four.
    Senator Stevens. Forty-four? And you're now making 
reductions in your end strength. And we understand that. You 
have to capitalize your aircraft. But I think people are 
inclined to look at the number of Air Force personnel that are 
in the war zone. They're not as high as the others, the Army. 
But if you look at the overall activity of the air bridge, the 
maintaining of, you know, the constant air patrol over other 
areas of the world, it's still got enormous demands on your end 
strength. Now, last year, when the Air Force appeared, the Air 
Force was over its end strength. Now it looks like, in terms of 
applying your end-strength reductions, you're going to have an 
imbalance between officers and enlisted men. Is that right?
    General Moseley. Sir, if I could try the context of the 
question, which is, one of the things about our aging fleet 
that I think you and Senator Inouye have highlighted back to us 
on occasion is that if we get everything that we want in our 
future years defense program which is debatable--and, of 
course, we propose, and you dispose--the age of our fleet will 
go from 23 years to almost 25 years. We are right on the 
tipping point of being behind the investment bow wave, instead 
of in front of it. And the U.S. Air Force has never in its life 
stood down an airplane because of age. And we are now on the 
cusp of trying to set up an Air Fleet Viability Board, because 
we now are on the fourth step of our 12-step program, realizing 
we are going to be operating an aging fleet. So, we need to 
understand better how our airplanes age.
    We have to get ahead of this investment curve at some point 
into the future. We cannot keep pushing this bow wave out, and 
every 5 years we lose 5 years of our life, which is why we 
really want to start to invest in our long-range strike 
aircraft and begin to divest ourselves of some of our aging air 
fleet.
    That having been said, we are looking at better ways of 
employing our manpower, and we find ourselves with almost an 
iceberg, where we have a presence very similar to the Navy. We 
must maintain the presence in the Pacific, in the area of North 
Korea, the Korean Peninsula, in Japan, and yet, yes, some of 
the people at Kadena. For example, when I was there, just last 
week, I found that 500 of those folks are, in fact, cross-
deployed into supporting Iraq. So, we are managing our force 
deployment across the world, trying to maintain, if you will, 
both presence and activity within the context of the theater.
    We have a little bit of a problem, because our C-17 pilots 
are, in fact, not in the theater long enough to be recognized 
as combatants, although they get shot at quite a bit, and they 
would, of course, argue about that. Many times, our B-52 
pilots, who do not get based, if you will, into a theater, are, 
in fact, flying out of Diego Garcia or Guam, do not get credit 
for being participants in the war. Nonetheless, we know that 
they have dropped ordnance--in fact, just last night--and yet, 
they are not seen as performing combatant activities. Nor do 
our reachback activities--people flying the Predator out of 
Nellis Air Force Base, or if we do get UAV squadrons 
distributed through the National Guard, we haven't quite come 
culturally to what to call those folks. In a very similar way, 
we do have several people tied down in the missile fields, 
using and guiding our space assets.
    And so, you are right, sir, we have about 179,000 people 
that are right now reporting to combatant commanders.
    Senator Stevens. I have, several times, suggested to this 
administration and past administrations that we have some 
defense bonds. We have to bind some way to finance a follow-on 
bomber, and we have to have some way to get to the Joint Strike 
Fighter. And part of us--I think I speak for my co-chairman--as 
far as our watch is concerned, we don't want to leave without 
knowing that there will be a follow-on bomber, there will be a 
follow-on joint fighter like the Joint Strike Fighter. I don't 
see it right now. We're putting those off. Joint Strike Fighter 
seems to be slipping and any concept of a new bomber is 
slipping. And my friend from North Dakota and I had a little 
discussion about it. I think we've got to stop supporting some 
of these ancient planes and start putting that money into 
getting us into another generation, as far as Joint Strike 
Fighter and the bomber, or we have to go to some defense bonds 
and get the money now--I think the public would buy them--for 
the defense force of the third decade of this century. You 
can't get there without money now. And we can't keep up the old 
ones and ever hope to start getting the replacements that are 
necessary.
    So, I hope we can have a dialogue with the administration 
and with you about finding some way to finance it. It's not 
dissimilar from the other committee that Senator Inouye and I 
serve on, in terms of the airways. We have to have a new airway 
system. We've got an analog system out there, but we're flying 
digital airplanes, and we've got to have a new system. But the 
only way to do it is to find some way to fund it now and have 
that money paid back over a period of years. Same thing here. 
We have to fund these things now. Within this next decade, we 
have to start a follow-on bomber, and we have to be assured 
that the Joint Strike Fighter is coming. But I don't see it 
yet.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    And, General, a pleasure to be with you again. And----
    General Moseley. Yes, sir.
    Senator Domenici [continuing]. Secretary, it's good to see 
you.
    I only have three or four questions. We talk a lot about 
these, you and I and others. We have the two bases in New 
Mexico that have come into focus now, by coincidence--Cannon, 
one located at Clovis--is on your radar screen, because it fell 
upon that base to get a very special denomination in the BRAC 
inclusions when it was set up as a--what was the word used, the 
favored word to describe it, what would it be?
    Mr. Wynne. Well, they asked us to go for a follow-on 
mission, I believe, to try to ensure the continuity of the 
base.
    Senator Domenici. But it was called an ``enclave.''
    Mr. Wynne. An enclave, I think is the unique term of art. 
Yes, sir.
    Senator Domenici. And it remains an enclave for a 
substantial period of time, by definition of the BRAC 
Commission. It's now in--only had that status for months, but 
it can remain that way for years. It has been everybody's 
desire that that not remain an enclave for a long time--is that 
correct?--that it be done--the enclave be determined----
    Mr. Wynne. I think it's a little bit unfair to leave a 
community on edge.
    Senator Domenici. Correct.
    Mr. Wynne. I want to resolve this within the context of 
this year, if it's possible. I have kind of set targets out 
there for a June or July resolution.
    Senator Domenici. Now, much has been going on, by way of 
background determinations, following certain practices and 
procedures, to make sure everybody knows what's going on. And--
--
    Mr. Wynne. Yes, sir.
    Senator Domenici. And just recently----
    Mr. Wynne [continuing]. We have worked very hard with the 
local community.
    Senator Domenici. Correct.
    Mr. Wynne. We are working other agencies to try to identify 
the maximum number of opportunities for that base.
    Senator Domenici. And, in the meantime, things are in a 
status quo.
    Mr. Wynne. Yes, sir. In the meantime, things are in a 
status quo. We hope to bring this to a resolution by mid-year.
    Senator Domenici. For which we are very grateful to all 
concerned, including Congress for putting it in that status 
following the BRAC determination. Now, as you know, just 
recently there has been a workshop regarding Cannon to provide 
Federal agencies with opportunities to consider potential uses. 
Can either of you, or both of you, describe, in whatever way is 
appropriate, how the workshops went? And can you update us on 
the Department's long-term plan, if there is one, or if it is 
shaping up, however you might describe it?
    Mr. Wynne. I guess I would describe it in the latter 
condition. It is shaping up. We have had, I thought, a positive 
workshop, but we have had a relatively few respondents, some of 
whom have been very positive, however. And so, we are hoping to 
continue this, if you will, missionary work, together with the 
community, describing the positive attributes that are 
available at Cannon Air Force Base. As you know, we have a lot 
of our Air Force officers who, in fact, have been there. We 
were very sad to hear of the death of one of the leading town 
citizens and sponsors, and recognize that we, in his legacy, 
need to continue this work to resolve this issue.
    Senator Domenici. Well, this won't go on for long--you 
know, indefinitely, will it, Mr. Secretary or General?
    Mr. Wynne. No, sir. We are trying to draw this to a 
conclusion. I would, on the outside, because every process 
we've ever done seems to slow down, say it's this year, but I 
am trying to get it done this summer.
    Senator Domenici. Thank you very much.
    General Moseley, do you have anything to add on that? And 
I'll move over to Holloman for a moment.
    General Moseley. No, sir. I would just add that the 
community has been great to work with. It has been very open 
about the varieties of teams that have come out and looked, and 
the variety of opportunities. Doc is going to be missed by all 
of us. Randy is doing a great job, and the community has been 
very supportive of those folks that are out there to look at 
options. We, along with the Secretary, we get weekly progress 
reports. The staff understands that there is a motivation to do 
this sooner, versus later.
    Senator Domenici. What does the Air Force need from moving 
over there, now, to the other side of the State--White Sands 
Missile Range, Alamogordo, and New Mexico--to make sure that 
joint training becomes a reality? Fort Bliss is becoming a 
training area of major proportions. And so, the question is, 
clearly, how will White Sands Missile Range and--Holloman fit 
into that, if you know?
    General Moseley. Sir, let me address that one, because it 
gets into ranges and training space. It would be no surprise 
for you to hear an Air Force chief say, ``Big ranges, 
supersonic airspace, ranges that we can drop bombs on are 
premium commodities for us these days.'' The ranges that we 
have in New Mexico, the ranges that we have in Alaska, the 
ranges that we have in Utah, Arizona, and Nevada, cannot be 
replicated anywhere. We have to hang onto those ranges and 
avoid encroachment.
    The footprint of the weapons that we have now require 
larger airspace. The speed of the aircraft require bigger 
spaces. And the ability to instrument these ranges, and the 
ability to do this jointly, is critical to all of us.
    Senator Domenici. All right.
    General Moseley. You know very well what Red Flag is. Red 
Flag is now in two parts, one in Alaska and one in Nevada. But 
the size of the ranges and the airspace are critical for us. 
Having spent a tour or so in Alamogordo, the White Sands 
Missile Range, the McGregor airspace, and the ability to 
partner with operations out of Fort Bliss are very important 
for us in the future as we look at marrying systems, airborne 
UAVs and weapons with our Army brothers and sisters. So, sir, 
that range is important to us.
    Senator Domenici. Well, I want to thank both of you for 
your continued cooperation. And I think I speak for the entire 
community, I don't think there is a more cooperative community 
in all of the United States than that one. And it has been 
reciprocal on the part of the Defense Department. It's obvious 
that the mission at Cannon is changing. It is clearly not going 
to be the same kind of Air Force base it was before, a single 
purpose. Clearly, it's being looked at at a much--in a much 
broader way. And I think that's good for the country, in terms 
of what I see as this joint operation concept, which it may end 
up taking the lead in. And, for that, we're grateful.
    Mr. Chairman and co-chairman, you have helped us get to 
where we are, and we're very appreciative. We will always be 
appreciative for it. Thank you.
    Senator Stevens. Thank you.
    Senator Dorgan, you said you had another question?
    Senator Dorgan. Mr. Chairman, I didn't want the term 
``ancient'' to hang out there until the next hearing. ``Ancient 
aircraft.'' I wanted to make a point, if I can.
    I think your comments and the comments by Senator Inouye 
about modernization are really important. There's no question 
that we have to move to a new bomber at some point, support the 
C-17, support the F-22, and so on. But I do want to point out, 
with respect to the F-52 flight--or B-52 airplanes, these are 
not ancient planes. It is true the airframe has some time on 
them. But they are low-hour airplanes. When you get on an 
airplane at the airport out here, you're probably, in most 
cases, going to fly a commercial airliner that has three and 
four times the hours the average B-52 has on it.
    Number two, most of that B-52 is new, and we've spent a 
great deal of money to modernize it.
    And, number three, finally and importantly, it costs one-
third the cost to fly that, versus a B-2, and one-half the cost 
to fly it, versus a B-1.
    We will need a new penetrating bomber, but we're also going 
to need bomb trucks. The least expensive bomb truck, and one 
that is still modern inside, in my judgment, is the B-52. And 
we always ought to look for the least-cost opportunity. And, as 
I said, it'll last 35 years, until that young lady's 55 years 
old.
    Mr. Chairman, thank you.
    Senator Stevens. That's a discussion for another time.
    I'd like to ask one question about satellites. We have 
really emphasized, in this subcommittee, the development, 
deployment, and protection of the military satellites. They're 
very important, not only for the GPS system, but we have lots 
of other involvement--some, highly classified. But in the last 
few years, there's been significant cost overruns, in terms of 
the satellite programs. And that includes the space-based 
infrared system (SBIRS) high and the national polar orbiting 
operational environmental satellite system. We are really 
looking now at trying to find some way to improve the program 
management and to really ensure that these technologies are 
matured.
    Can you tell us, what are you doing to follow on that 
process?
    Mr. Wynne. Well, thank you very much, Senator, for that.
    We are really taking this to heart. We have, I think, 
reduced our acquisition force in the space area way too much. 
It is now showing and telling, as a result, in cost overruns, 
due to requirements growth and/or, frankly, just bad 
engineering quality has affected us on a couple of occasions.
    We think that the first opportunity we have is to increase 
our talent pool, and manage it better, so we get the best 
talent on all these hard problems. The second thing we are 
doing is to make sure that we go with a baseline technology-
mature craft. It is a part of our configuration freeze routine 
that we are trying to make sure that we have the right level of 
technology, not more, going up on our rockets. We have 
successfully gotten our rockets to the point where they are 
very efficient launch vehicles. However, we now have to work on 
our satellites so they, if you will, can fly on a schedule.
    We are committed to bringing to your attention the reduced 
technology risk for the transformational satellite, for space-
based radar, as well as what we have done to mitigate the 
space-based infrared and the national polar orbiting 
operational environmental satellite system (NPOES) satellites.
    This is a very difficult area. I think it's one that merits 
your attention. And we are giving it that.
    Senator Stevens. General Moseley, our conference report 
last year highlighted this and asked the Air Force to really 
monitor the space radar and transformational satellite 
communications program. Can you tell us what steps have been 
taken to follow up on that urgency?
    General Moseley. Sir, as we've talked about the F-22 and 
the tanker, to build an A model, or to build an initial block 
satellite is what Secretary Wynne and I have pressed on the 
staff. Instead of attempting to upgrade this thing as it is 
being built, our desire is to freeze the configuration, whether 
it is TSAT or whether it is space radar or whether it is any of 
our new satellites, so that we don't continue to add things to 
it and increase cost and risk to the program. Because by doing 
that, the contractor, the user, and the end result is, it takes 
longer, it costs more money, and there's more risk.
    We have also focused on the known technologies. Space radar 
is a good example of what's out there, as far as the modules 
and the sensors to build the plan or array that exists today, 
instead of trying to leap out 10 or 15 or 20 years into the new 
technology.
    So, sir, the two of us have been taking this very seriously 
since our assumption of these jobs to try to get the cost down 
on the satellites, the cost down on space operation, and a lot 
more visibility into the acquisition process and the 
contracting process, to be able to deliver these things on time 
and on schedule.
    Senator Stevens. Well, thank you very much.
    For the benefit of Senator Domenici and our co-chairman, I 
want to make sure they have met these young men and women 
you've brought to this--to the hearing today. Senators, let me 
introduce to you Polly-Jan Bobseine--is that right?
    Sergeant Bobseine. That's right, thank you.
    Senator Stevens And Tec Sergeant Brad Reilly----
    Sergeant Reilly. Yes, sir.
    Senator Stevens [continuing]. And Lieutenant Colonel Ann 
Konnath--is that right, Colonel?--and Lieutenant Colonel Trey 
Turner. We're delighted to have you with us today. They've all 
had repeated assignments to the war zone, and deployments, and 
I guess that Polly-Jan is going back again soon. She's just 
turned 21.
    General Moseley. Sir, Sergeant Reilly is going back in 
July. Senior Airman Bobseine is going back in June. So, this'll 
be five deployments for him, after July, and four for her, 
after June.
    Senator Stevens. We appreciate your commitment to our 
country. We're proud to have you here with us.

                     ADDITIONAL COMMITTEE QUESTIONS

    We thank the General and the Secretary for appearing here 
today. And we also, obviously, thank those who have accompanied 
you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted to Michael W. Wynne
               Questions Submitted by Senator Ted Stevens

                          JOINT STRIKE FIGHTER

    Question. The Joint Strike Fighter will incorporate advanced 
technologies in a number of areas. How can you be assured that JSF is 
ready for production when so little of the test program has been 
completed?
    Answer. The Joint Strike Fighter (JSF) acquisition strategy 
includes clear entry and exit criteria for critical milestones to 
ensure that technologies are mature, and required incremental test 
objectives are achieved before obligating funds for production. The 
Department conducts acquisition reviews via Integrating Integrated 
Product Teams and Overarching Integrated Product Teams, which support 
Defense Acquisition Board Reviews. Configuration Steering Boards and 
Service Acquisition Executive reviews are conducted quarterly to assess 
program performance, including test objectives, ensuring associated 
program risks are understood and appropriately mitigated. The JSF 
acquisition strategy provides the most effective balance of technical 
risk, financial resources, and the Services' operational needs.

                        ALTERNATE ENGINE PROGRAM

    Question. The Department had supported the cost-benefit advantages 
of the alternate engine program until this budget submission. What has 
changed leading the Air Force to drop this program? Are you concerned 
about the potential loss of competition in the engine program?
    Answer. During the fiscal year 2007 budget deliberations, the 
Department of Defense considered the investment cost of developing a 
second engine, the maturity of the F-135 primary engine, and the 
findings of past engine assessments. The Department of Defense 
concluded that while there are benefits to having a second engine 
source, a single engine source provides the best balance of risk and 
cost. The Air Force supports this difficult choice and remains 
committed to an F-35 that is lethal, supportable, survivable, and 
affordable.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                          SUPPLEMENTAL FUNDING

    Question. It would be helpful if you could explain how soon you 
need the Supplemental funds requested for the Global War on Terrorism, 
which were requested in mid-February. Also, could you share with the 
committee what impact there would be from any delay in receipt of the 
requested funds?
    Answer. To date, we have received $2.5 billion in Operations and 
Maintenance Bridge funding to support our day-to-day requirements in 
the Global War on Terrorism. This bridge funding lasted four months and 
we began to cash flow the war from our peacetime program in February 
2006. Any extended delay in receipt of fiscal year 2006 Supplemental 
funding jeopardizes Air Force readiness, taxes our peacetime programs 
to cash flow the war, and further exacerbates what already promises to 
be a challenging year. Without additional fiscal year 2006 Operations 
and Maintenance supplemental funding, we will exhaust currently 
available funding in August 2006.

                       KEESLER TRAINING PIPELINE

    Question. I would like to thank you for your support in helping 
with hurricane recovery efforts to include reestablishing Keesler's 
critical training mission. As I understand it, of the 56 enlisted 
initial skills training ``pipelines,'' 90 percent are now operational. 
Can you please give us an update on the status of Keesler Air Force 
Base?
    Answer. Senator Cochran, it gives us great pleasure to share with 
you the good news concerning the on-going reconstitution endeavors at 
Keesler Air Force Base. The diligent and dedicated efforts of the men 
and women of Air Education and Training Command, 2nd Air Force, and the 
81st Training Wing partnered together to ensure critical training would 
resume in an expedient timeframe at Keesler Air Force Base in the 
aftermath of Hurricane Katrina.
    All of the enlisted and officer initial skills taught at Keesler 
Air Force Base are 100 percent fully operational. In addition, 86 
percent (74 of 85) of the additional courses taught at Keesler are 
fully operational. These courses are currently conducted at alternate 
locations; however, they will be returned to Keesler Air Force Base by 
July 2006.
    We are proud of our Airmen who tirelessly reflect the strength, 
tenacity, and dedication necessary to recover our training due to one 
of the worst natural disasters in the history of the United States.
    Thank you and the great citizens of Mississippi for their continued 
support in rebuilding Keesler Air Force Base.

                      JSF COMPETITIVE PROCUREMENT

    Question. As I understand it, because of fiscal reasons, the 
Department intends to pursue a sole source contract for the Joint 
Strike Fighter aircraft. Secretary Wynne, it would appear there would 
be far greater benefits, such as improved performance, reduced risk, 
increased readiness, and lower costs, resulting from contract 
competition. As long as there is no delay in fielding the Joint Strike 
Fighter, are you supportive of using a competitive procurement process?
    Answer. There are currently three primary F-35 (JSF) program 
contracts. Lockheed Martin is the sole source provider for the Air 
Vehicle and Air Systems component piece of the aircraft. Pratt and 
Whitney (P&W) F135 and General Electric (GE)/Rolls Royce (RR) Fighter 
Engine Team (FET) F136 are the two contracted engine suppliers.
    During the fiscal year 2007 budget deliberations, the Department of 
Defense considered the investment cost of developing a second engine, 
the maturity of the P&W F135 primary engine, and the findings of past 
engine assessments. The Department of Defense concluded that while 
there are benefits to having a second engine source [F136 alternate 
engine], a single engine source [P&W F135] provides the best balance of 
risk and cost. The Air Force supports the difficult choice to cancel 
the F136 alternate engine and remains committed to an F-35 that is 
lethal, supportable, survivable, and affordable.

               SPACED-BASED INFRARED SYSTEMS HIGH PROGRAM

    Question. We have been monitoring the progress on the Space-based 
Infrared Systems High program to ensure the Nation maintains its early 
warning capability. I understand the Air Force had to seek 
recertification of the Space-based Infrared Systems program in December 
after the latest Nunn-McCurdy breach for the program. Mr. Secretary, 
what is the status of this program, and when will it be completed?
    Answer. The Defense Acquisition Executive (DAE) certified a 
restructured Space-based Infrared System (SBIRS) program to the 
Congress on December 12, 2005. The restructured program will include 
completion of the development program (two Geosynchronous Earth Orbit 
(GEO) satellites, two Highly Elliptical Orbit payloads, and associated 
ground system) and procurement of one geosynchronous satellite. The 
contract for the procurement satellite shall not be awarded until there 
is confidence in the first developmental GEO satellite. An Acquisition 
Decision Memorandum restructuring the SBIRS program and providing 
specific tasking was signed by the DAE on December 15, 2005.
    GEO payload/spacecraft bus mate is scheduled for July 2007, leading 
to a GEO 1 launch date of October 2008.
    GEO Early On-orbit Test (GEOT) software has made significant 
progress. Prior planning combined the first three software releases 
into a single block, GEOT-C. This software block is being used for the 
initial GEO Systems Integration Tests. When complete, the GEOT-D 
software block will serve as the initial launch baseline. The 
restructured SBIRS program should be completed by fiscal year 2013.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns

                              500 MISSILES

    Question. The QDR has changed the focus of our strategy toward 
these irregular threats. These are the same threats that caused us to 
re-think our Nuclear Posture in 2002. The Nuclear Posture Review was 
released in the wake of 9/11 when our forces were engaged on the ground 
in Afghanistan. The irregular threats that we face in the war on terror 
had become very real for the American people during the winter of 2001 
and 2002; perhaps many have already forgotten how real those threats 
are. In the face of that changing reality the Nuclear Posture Review 
was a complete change in strategic doctrine. If I might add, the NPR 
was a policy document that was mandated by Congress. That policy 
document did two major things:
  --It reduced the number of operationally deployed nuclear warheads 
        from over 6,000 to around 2,000.
  --It expanded the role of nuclear deterrent to consider it as an 
        effective countermeasure against the possible use of Weapons of 
        Mass Destruction by a rogue state.
  --The Nuclear Posture review both expanded the role of nuclear 
        deterrence, and decreased the number of warheads, setting the 
        number of ICBMs around 500.
    What has changed since January 2006, to necessitate a further 
reduction in our ICBM force? Am I correct in concluding that this is 
simply a budget decision that is driving strategy?
    Answer. The Quadrennial Defense Review (QDR) allowed us to test our 
assumptions about the continuously changing nature of the world. The 
QDR reevaluated our strategic nuclear force posture and determined that 
with minimal and acceptable risk we can make further modest reductions 
and retire 50 Minuteman IIIs. This represents a 10 percent reduction in 
the size of the Minuteman III force as envisioned by the NPR from 2001. 
The ICBM reduction maintains an effective, balanced nuclear force for 
worldwide deterrence.
    This reduction also provides us with additional test assets to 
ensure the viability of the system for years to come.

                          ICBM FORCE REDUCTION

    Question. Nuclear weapons technology continues to proliferate. 
Right now we are seeing great advances in missile technology in Iran 
and North Korea, and we are seeing a concerted effort to acquire 
nuclear weapons from both of these states which are openly hostile to 
the civilized world.
    Considering this proliferation, why would we consider reducing our 
ICBM fleet further when the NPR numbers were based on ``having the 
smallest nuclear fleet possible?'' In other words, the target set of 
nuclear capable, WMD capable, and rogue states seems to have remained 
constant, so why the change?
    Answer. The Quadrennial Defense Review (QDR) allowed us to test our 
assumptions about the continuously changing nature of the world. The 
QDR reevaluated our strategic nuclear force posture and determined that 
with minimal and acceptable risk we can make further modest reductions 
and retire 50 Minuteman IIIs. This represents a 10 percent reduction in 
the size of the Minuteman III force as envisioned by the NPR from 2001. 
The ICBM reduction maintains an effective, balanced nuclear force for 
worldwide deterrence.

                               B-52 CUTS

    Question. Another example of questionable budget driven decisions 
is your decision to cut the B-52 fleet in half (from 94 to 56). The B-
52 has proven itself time and time again as a work horse and a force 
multiplier over the battlefield. With the addition of GPS guided bombs, 
the B-52s over Iraq have become the modern day ``Iowa class 
battleship''. They were able to stay on station for five hours or 
longer, while tactical attack aircraft had less than an hour. They 
carried more than ten times the bomb load of fighters, and provided 
precision strike every bit as good.
    If there is no new long-range strike capability on the drawing 
board until at least 2016, why would you cut the most versatile long-
range bomber in the fleet without anything on the drawing board any 
time in the near future?
    Answer. The proposed reduction in B-52 aircraft is from the Air 
Force program of record, 76 total aircraft, down to 56 total aircraft 
resulting in a 27 percent reduction. The 94 total aircraft in testimony 
includes the Congressionally-restricted 18 excess attrition reserve 
jets kept in the inventory since 1995.
    The imperatives for transformation, recapitalization and 
modernization levy requirements on the Air Force in excess of available 
resources. The fiscal year 2007 President's budget request successfully 
balances the imperatives of transformation and recapitalization against 
the sustainment and modernization of the legacy Air Force fleet. A 
reduction in the number of B-52H aircraft is possible given the 
enhanced conventional capabilities across the Air Force since 2003. The 
B-1, B-2 and B-52 bombers all carry similar satellite-guided 
conventional weapons though each offers unique capabilities. The Air 
Force assessed the operational risk associated with the drawdown and 
concluded the proposed bomber force meets any Combatant Commander 
operational war plan or major contingency operation plan. The 
modernized bomber fleet will be more lethal, responsive and survivable 
as a result of planned investments in advanced weapons, increased 
accuracy, integrated data links, improved connectivity, improved threat 
awareness systems, low observability upgrades and improved electronic 
protection.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                    ROBUST NUCLEAR EARTH PENETRATOR

    Question. What assurances can you give us that RNEP is dead? Are 
you aware of plans to re-start the RNEP program at a future date?
    Many, including myself, who fought to eliminate funding for RNEP, 
urged the Administration to consider conventional bunker buster 
alternatives. The fiscal year 2006 Defense Appropriations Conference 
report provided $4 million for such a purpose.
    Answer. The Nuclear Weapons Council officially terminated the joint 
Air Force-National Nuclear Security Administration (AF-NNSA) Robust 
Nuclear Earth Penetrator (RNEP) Concept Feasibility Study on 25 January 
2006. The Air Force terminated all RNEP-related activities at the start 
of fiscal year 2006. The Air Force has not requested any funding for 
RNEP in the fiscal year 2007 President's budget request and does not 
plan to ask for funding in the future.

                            SLED TEST STATUS

    Question. What is the status of the sled test? I understand the 
sled test will take place at Holloman Air Force Base in New Mexico. 
True? What assurances can you give us that the test is not a back door 
to resume the Robust Nuclear Earth Penetrator study?
    Answer. The Secretary of Defense has elected to have the Defense 
Threat Reduction Agency (DTRA) plan and conduct the penetrator sled 
test. Further, the $4 million appropriated in fiscal year 2006 to the 
Air Force for the sled test has been transferred to DTRA for execution. 
The Air Force has not committed any additional funds other than those 
appropriated to the sled test. The Air Force is participating in the 
test planning process at DTRA's request, but has only a limited role. 
Questions concerning penetrator sled test specifics should respectfully 
be addressed to DTRA.

                    SLED TEST ASSISTANCE FROM SANDIA

    Question. In response to December 21, 2005 letter to the Secretary 
of Energy Samuel Bodman expressing concern that the sled test would 
imply continued research on RNEP, Ambassador Linton Brooks of the 
National Nuclear Security Administration responded that no sled test 
would be conducted at Sandia or any other facility. However, he did say 
that ``[i]f DOD chooses to conduct the test at a DOD facility, we 
believe it is fully consistent with the intent of Congress for Sandia 
to provide equipment and technical expertise in support of a DOD study 
of conventional earth penetrators.''
    Has the Air Force requested assistance and technical expertise from 
Sandia? What specifically has been requested? Could any of the 
assistance provided be useful for a nuclear bunker buster study?
    Answer. The Air Force has not requested any assistance or technical 
expertise from the Department of Energy national laboratories. The 
Secretary of Defense has elected to have the Defense Threat Reduction 
Agency (DTRA) plan and conduct the penetrator sled test. The Air Force 
is participating in the test planning process at DTRA's request, but 
has only a limited role. Questions concerning penetrator sled test 
specifics should respectfully be addressed to DTRA.
                                 ______
                                 
           Questions Submitted to General T. Michael Moseley
              Questions Submitted by Senator Thad Cochran

                   PERSONNEL END STRENGTH REDUCTIONS

    Question. General Moseley, in reviewing the Air Force 
transformation efforts, I noticed your proposal to reduce personnel end 
strength by approximately 40,000 over the next five years. General, 
what functions are we giving up with these reductions and are we 
balancing needed capabilities with this transformation?
    Answer. The Air Force is committed to developing and caring for our 
Airmen in order to maintain their competitive advantage in both war and 
peace. We must balance the needs of our current force to fight today's 
wars with the need to prepare our future force to meet the challenges 
of the future. We must transform our Airmen as we transform our force 
structure, organizations, and processes. Through the savings generated 
by transformation, we will recapitalize our force to prepare for the 
future.
    Although we are reducing in number our most valuable resource, we 
are carefully shaping the future force by identifying capabilities our 
force will need in addition to the training and professional 
development our Airmen will need to prevail in any environment. We have 
established Air Force Smart Operations 21, an organization dedicated to 
inculcating, organizing and training our Airmen to identify process 
efficiency improvements in accomplishing their mission. By achieving an 
operating style of continuous improvement in the Air Force--focused on 
our core mission--the Air Force will better prepare for and participate 
in the joint fight, develop, maintain and sustain the warfighter edge, 
prepare motivated and accountable warriors and improve our ability to 
meet the ever-changing demands of the world, our enemies and fiscal 
constraints. This approach has already yielded results across the Air 
Force and will continue well beyond the timeframe of the manpower 
reductions. Although we recognize that much efficiencies may not be 
realized for a few years, the value of installing this approach now 
will yield some early benefits and savings.

           JOINT CARGO AIRCRAFT AND MULTINATIONAL OPERATIONS

    Question. General Moseley, I understand the Air Force and the Army 
recently completed the acquisition strategy for the new Joint Cargo 
Aircraft and a joint program office charter, with the Army as the lead 
agency. I commend the Air Force and Army for the cooperative spirit 
exemplified in the Joint Cargo Aircraft program. General, you have 
stated publicly that the Joint Cargo Aircraft would make it easier to 
operate with coalition partners during multinational operations. 
General, can you expound on the reasoning behind this statement and 
also provide this subcommittee with an update on the status of the 
program?
    Answer. The Joint Cargo Aircraft (JCA) provides valuable niche 
capabilities to nations with advanced Air Forces, and lower cost 
airlift options for nations that cannot afford larger airlift 
platforms. In addition, future JCA security cooperation efforts would 
support the Quadrennial Defense Review objectives of building 
partnership capacity and enabling partners to do more for themselves. 
These airlift capabilities are essential across the range of combat, 
stability, and humanitarian operations.
    The Acquisition Strategy Report has been signed by Under Secretary 
of Defense for Acquisition, Technology and Logistics and the Request 
for Proposal was released on March 17, 2006. We expect the source 
selection process to be completed and a contract to be awarded in 
January 2007. Additionally, we are drafting a Memorandum of Agreement 
between the Army and Air Force to clarify the roles and 
responsibilities on this joint program. We are also pressing forward on 
establishing a Joint Program Office (JPO). The JPO Charter providing 
guidance for the operation of the JPO should be completed in May and 
the JPO is still scheduled to standup on October 1, 2006.

           JOINT CARGO AIRCRAFT PROGRAM ALLIED PARTICIPATION

    Question. General Moseley, will the Joint Cargo Aircraft program 
office explore having U.S. allies join the program in the developmental 
phase--as a number of allies have done with the Joint Strike Fighter 
program?
    Answer. There are no plans to have our allies join the program at 
this time. The Joint Cargo Aircraft is being procured as a non-
developmental item; therefore, the Army does not envision a 
developmental phase. The Air Force, however, may pursue a small 
developmental period to address any potential mission unique 
requirements after source selection.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns

                        AIR FORCE PERSONNEL CUTS

    Question. Another budget decision that doesn't make sense is your 
decision to cut as many as 57,000 Active, Guard and Reserve Airmen from 
the force. The Air Force posture statement is right on target when it 
states our Airmen are the Air Force's most valuable resource. These 
young men and women are all heroes. They are heroes because they have 
volunteered to serve in a time of war. They have come forward because 
they believe in what this country stands for, and we in the Senate will 
stop at nothing to ensure that their needs are taken care of.
    Pushing these Airmen out of the Service on their return from combat 
deployments just isn't right. Sacrificing you people on the altar of 
future weapons systems is not the way we want our Nation's Armed Forces 
to be managed. This seems to be a budget driven decision that makes 
cuts based on ``efficiencies'' which have yet to be realized.
    How has the Air Force already achieved the efficiency gains 
necessary to allow these cuts?
    Answer. The Air Force is committed to developing and caring for our 
Airmen in order to maintain their competitive advantage in both war and 
peace. We must balance the needs of our current force to fight today's 
war with the need to prepare our future force to meet the challenges of 
the future. We must transform our Airmen as we transform our force 
structure, organizations, and processes. Through the savings generated 
by transformation, we will recapitalize our force to prepare for the 
future.
    Although we are reducing in number our most valuable resource, we 
are carefully shaping the future force by identifying capabilities our 
force will need in addition to the training and professional 
development our Airmen will need to prevail in any environment. We have 
established Air Force Smart Operations 21, an organization dedicated to 
inculcating, organizing and training our Airmen to identify process 
efficiency improvements in accomplishing their mission. By achieving an 
operating style of continuous improvement in the Air Force--focused on 
our core mission--the Air Force will better prepare for and participate 
in the joint fight, develop, maintain and sustain the warfighter edge, 
prepare motivated and accountable warriors and improve our ability to 
meet the ever-changing demands of the world, our enemies and fiscal 
constraints. This approach has already yielded results across the Air 
Force and will continue well beyond the timeframe of the manpower 
reductions. Although we recognize that many efficiencies may not be 
realized for a few years, the value of installing this approach now 
will yield some early benefits and savings.

                           COMPETITOR STATES

    Question. In your posture statement you refer to ``competitor 
states, that are developing air and air defense systems that could 
threaten our ability to maintain Air and Space Dominance.''
    What ``competitor states'' are you talking about that are hostile 
to the foreign policy objectives of the United States?
    As a follow-up: Are you telling us that the United States Air Force 
cannot hold its own with China? Or are you saying that we should be 
prepared to face a military threat from India? If so, why are we 
considering selling top of the line military hardware to India, and why 
are joining then in a landmark nuclear agreement?
    Answer. Specifically, we were referring to China and Russia which 
are developing air and air defense systems that could threaten our 
ability to maintain Air and Space dominance, especially when exported 
to nations of concern. In addition, several nations build advanced 
subcomponents or upgrade older systems to modern standards, increasing 
the capability of so-called legacy weapon systems. Although several of 
these technological competitor states are not hostile to the foreign 
policy objectives of the United States, they often export to nations 
that can threaten American interests or are politically unstable.
    We are not trying to imply that we are unable to hold our own 
against China or any other nation nor are we saying India represents a 
military threat. We used India as an example of a nation that is 
producing advanced fighters, adding to the already sizable fleet across 
the globe.

                             AGING AIRCRAFT

    Question. You've talked quite a lot about the age of your aircraft, 
and that the average age of your fleet is 23 years. I am concerned that 
in the drive to retire old aircraft we risk short changing our efforts 
to maintain those aircraft for the long term. Last June I sent a letter 
to your office in regard to this effort. I was given a response last 
week. I have three questions that where not answered in a long delayed 
response letter.
    Is the Air Force canceling and delaying Aging Aircraft Structures 
technology programs and if so, why, when the USAF is currently 
grounding aircraft due to excessive cracking and corrosion?
    Answer. The Air Force is not canceling its aging aircraft 
structures technology efforts and is committed to ensuring the 
viability of aircraft weapon systems throughout their life cycles to 
encompass the full spectrum of aging aircraft issues including, but not 
limited to, aircraft structures, wiring, aerospace electronics, 
airborne subsystems, aircraft coatings, depot technologies, etc. The 
Air Force aircraft structural integrity program works to reduce the 
risk of structural failures, while individual inventory assessments by 
the Air Force Fleet Viability Board focus on identifying technical 
issues and the cost of continued ownership.
    Question. Are other weapons systems and avionics upgrade programs 
continuing for aircraft which have had their aging aircraft structures 
programs cut? Why are we modernizing aircraft that are not being 
maintained?
    Answer. While it was necessary for the Air Force to reduce core 
aging aircraft funding to support higher Air Force priorities, the 
shift in focus resulting from this action does put increased emphasis 
on avionics upgrades in an effort to best position our aging aircraft 
fleet to support current Air Force mission objectives. The Air Force 
strives to maximize military utility from our legacy systems, while 
working to better and more efficiently meet warfighter requirements 
through recapitalization and modernization. The Air Force remains 
committed to ensuring the viability of aircraft weapon systems 
throughout their life cycles and continues to invest the resources 
necessary to maintain these aircraft.
    Question. With the clear recognition that corrosion related costs 
are continuing to escalate, why would the Air Force's aging aircraft 
office drop virtually all work in this area?
    Answer. Aging aircraft funding augments ongoing corrosion efforts, 
but is not the primary source of funding for these efforts. While it 
was necessary to reduce core aging aircraft funding to support higher 
Air Force priorities, the Warner Robins Air Logistics Center continues 
to lead the way in corrosion-related efforts for the Air Force. 
Further, as the Air Force has shifted the focus of its aging aircraft 
program to those efforts that will best position its aging aircraft 
fleet to support current Air Force mission objectives, this is not at 
the expense of aircraft structures. The Air Force will continue to 
manage the structural viability of our fleet today and in the future to 
include corrosion-related efforts.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                     C-17 TRANSPORT--GENERAL ISSUES

    Question. I understand that the C-17 is performing remarkable well 
in Iraq and Afghanistan as a medevac, personnel, and cargo transport.
    Could you describe the current intra-theater utilization rate of 
the C-17 in support of contingency operations?
    Answer. We currently have approximately 20 C-17s supporting U.S. 
Central Command's intra-theater airlift requirement. The intra-theater 
lift supports cargo and passenger movements within the U.S. Central 
Command's area of responsibility (AOR). Over the past three months, 
Mobility Air Forces (MAF) C-17s have flown an average of 2,385 hours 
per month in this role. The C-17 also continues to support U.S. Central 
Command's inter-theater airlift requirements as well, moving passengers 
and cargo between combatant commander AORs. An example of this mission 
is the deployment of an Army unit from Fort Bragg, NC, to an operating 
location in Iraq or Afghanistan. Additionally, MAF C-17s play a 
critical role in the airlift, both intra- and inter-theater, of our 
wounded service men and women from Central Command's AOR to the United 
States. The most recent 3-month average for C-17 flying hours in this 
role is 1,712 hours. All in all, the C-17s have proven to be an 
absolutely critical warfighting resource servicing both inter- and 
intra-theater airlift requirements. As the land forces Concept of 
Operations continue to evolve, we believe the intra-theater airlift 
role of the C-17 will only continue to grow.
    Question. Assuming these rates remain generally consistent over the 
next several years, what affect do you believe attrition could have on 
the Air Force's projected strategic airlift requirements?
    Answer. The C-17 has been accumulating flying hours beyond service 
life projections during the Global War on Terrorism; in other words, we 
have been ``over-consuming'' our C-17 fleet. If these rates continue, 
C-17s will reach the end of their service life more quickly, 
necessitating the need to recapitalize sooner. Any reduction, either by 
use in secondary role or non-availability due to over-consumption, 
results in increased risk as outlined in the Mobility Capabilities 
Study.

           C-17 TRANSPORT AND STRATEGIC AIRLIFT REQUIREMENTS

    Question. Up until November 2005, the Air Force had consistently 
stated its requirement for a total of 222 C-17s, but following a budget 
rescission directive from the Secretary, announced that it would end 
its procurement of C-17s after purchasing just 180, and terminate the 
line after 2008.
    To support the change in its position from a requirement of 222 C-
17s to 180 C-17s, the Air Force cited an internal Mobility Capabilities 
Study (MCS) that concurred with the view that 180 C-17s could meet the 
Air Force's airlift requirements.
    However, this pre-9/11 commissioned MSC analysis failed to consider 
the increased use of the C-17, particularly intra-theater needs in Iraq 
and Afghanistan. The study also did not take into account the shifting 
of a number of heavy brigade combat teams back to the United States 
from overseas stations, along with the Army's requirements for 
additional aircraft as it transitions to a modular, rapid deploying 
force.
    Could you explain to the Committee why, over a matter of just a few 
months, your airlift requirement changed so dramatically?
    Answer. The MCS study began in the Spring of 2004 and completed its 
analysis in the Summer of 2005 with formal release of the study results 
by the Deputy Defense Secretary in December 2005. The MCS found that 
the current inter-theater airlift program--180 C-17s and 112 modernized 
C-5s--would support DOD war-fighting demands with acceptable risk. The 
Quadrennial Defense Review echoed and supported those findings. ``The 
analysis conducted within the MCS analysis was based on current, 
approved Defense Planning Scenarios and recent (post 9/11) operational 
experience.'' (MCS Executive Summary)
    The MCS study solicited inputs from the Services describing their 
projected force structure and Concepts of Operation for the 2012 
timeframe modeled in the study. The MCS assumptions included the most 
current version (July 2004) of the Integrated Global Presence and 
Basing Strategy position.
    The Air Force program of record reflected in the fiscal year 2007 
President's budget request is 180 C-17s. Although advocates have 
pressed for 222 C-17s, the Air Force has never requested greater than 
180 C-17s in budget submissions. We are, however, reviewing the impact 
of increased C-17 utilization to support the Global War on Terrorism. 
The C-17 has been increasingly used in the intra-theater role in 
Southwest Asia to backfill demobilizing ARC (Air Reserve Component) C-
130s. This has increased the wear and tear on the C-17 fleet due to 
increased operations in an austere tactical environment and a higher 
than planned use rate. Because of this, the Air Force's number one 
unfunded priority list item is National Defense Airlift Fund Capability 
Upgrades to reset forces due to combat losses and increased 
utilization. This item includes a request for 7 additional C-17s to 
maintain capacity as C-17s are used up in the Global War on Terrorism. 
Additionally, the impact of the recent C-5 mishap is being reviewed, 
although no determination has been made yet on how to replace the lost 
capacity.
    Question. As you know, General Handy--the U.S. TRANSCOM Combatant 
Commander until mid-2005--repeatedly and publicly stated that a minimum 
of 42 additional C-17s were necessary to meet the Air Force's mobility 
needs.
    Outside of the findings of the Mobility Capabilities Study (MCS)--a 
study that many believe fails to consider a number of critical factors 
related to airlift requirements post-9/11--what evidence do you have 
that 180 C-17s will be sufficient to meet our military's future airlift 
requirements?
    Answer. The MCS study released in December 2005 by the Deputy 
Secretary of Defense is the most authoritative and current document 
describing our mobility capabilities. The MCS looked at the full range 
of the Defense Strategy to determine the demands placed on the defense 
mobility system to include the strategic airlift fleet. The study 
analyzed the 2012 force structures and Concepts of Operation provided 
by each of the Services and completed a detailed look at future 
mobility requirements.
    The MCS concluded that the programmed fleet of 292 strategic 
airlift aircraft (180 C-17s and 112 modernized C-5s) provided a 
capability sufficient to meet the warfighting demands of the defense 
strategy with acceptable risk. While recognizing the programmed fleet 
as sufficient, it caveated this finding by identifying the need for 
continued investment in the mobility system, in line with current 
priorities, in order to maintain that sufficiency.
    The C-17 has been increasingly used in the intra-theater role in 
Southwest Asia to backfill demobilizing Air Reserve Component C-130s. 
This has increased the wear and tear on the C-17 fleet due to increased 
operations in an austere tactical environment and a higher than planned 
use rate. Because of this, the Air Force's number one Unfunded Priority 
List item is National Defense Airlift Fund Capability Upgrades to reset 
forces due to combat losses and increased utilization. This item 
includes a request for 7 additional C-17s to maintain capacity. 
Additionally, the impact of the recent C-5 mishap is being reviewed, 
although no determination has been made yet on how to replace the lost 
capacity.
    Question. Based on what you know today--considering the changes 
over the past few years in operational requirements and airlift 
missions--are you able to confidently tell the Committee that the 
Mobility Capabilities Study (MCS) projections will adequately meet our 
military's airlift requirements for the so-called ``long war.''
    Answer. The MCS looked at the full range of the Defense Strategy to 
determine the demands placed on the entire defense mobility system to 
include our airlift fleet. The study analyzed the 2012 force structures 
and Concepts of Operation provided by each of the Services. This 
methodology provided an analysis of capabilities required out to 2012 
using the approved Defense Planning Scenarios for that timeframe.
    The study was completed with the participation of all of the 
Services, the Joint Chiefs of Staff, and the Office of the Secretary of 
Defense and provides the most complete assessment of future mobility 
requirements currently available to Department of Defense decision 
makers.
    The MCS concluded that the programmed fleet of 292 strategic 
airlift aircraft (180 C-17s and 112 modernized C-5s) provided a 
capability sufficient to meet the warfighting demands of the defense 
strategy with acceptable risk. The study considered the impact of 
current operations and a protracted Global War on Terrorism campaign 
along with other issues affecting demands on the mobility system in 
determining its findings. While recognizing the programmed fleet as 
sufficient, it caveated this finding by identifying the need for 
continued investment in the mobility system, in line with current 
priorities, in order to maintain that sufficiency.
    The C-17 has been increasingly used in the intra-theater role in 
Southwest Asia to backfill demobilizing Air Reserve Component C-130s. 
This has increased the wear and tear on the C-17 fleet due to increased 
operations in an austere tactical environment and a higher than planned 
use rate. Because of this, the Air Force's number one Unfunded Priority 
List item is National Defense Airlift Fund Capability Upgrades to reset 
forces due to combat losses and increased utilization. This item 
includes a request for seven additional C-17s to maintain capability. 
Additionally, the impact of the recent C-5 mishap is being reviewed 
although no determination has been made yet on how to replace the lost 
capacity.
    Question. The Mobility Capabilities Study (MCS) validated a program 
of record to procure 180 C-17s. However, the MCS assumed that 112 of 
the older C-5 transports would remain in the fleet, due to 
Congressional restrictions barring the retirement of those aircraft.
    If Congress eased the retirement restrictions placed on the 112 C-
5s, how might you manage the strategic airlift fleet differently?
    Answer. The Department of Defense (DOD) is committed through the 
Quadrennial Defense Review (QDR) to modernize the C-5 fleet and 
complete the C-17 multiyear contract. The QDR, informed by the MCS, 
confirmed the current inter-theater airlift program--180 C-17s and 112 
modernized C-5s--will support DOD warfighting demands with acceptable 
risk. A fleet of 180 C-17s and 112 modernized C-5s provides lowest life 
cycle cost (LCC) through 2025 to maintain same total airlift capacity. 
For example, there is a $28 billion LCC increase if the C-5As are 
retired and the capacity replaced with C-17s. C-5 modernization is also 
more cost effective than purchasing additional C-17s to achieve same 
capability--and it pays for itself by 2029. Even with the recent C-5 
flight mishap, a modernized C-5 fleet of 111 aircraft enables the Air 
Force to leverage the full range of both inter-theater airlifters to 
support the Combatant Commanders.
    Question. Additionally, to what extent are you concerned about the 
estimated two-year gap between the proposed termination of the C-17 
line, and the completion of the C-5 modernization program?
    Answer. The C-5 Reliability Enhancement and Re-Engining Program, 
whose reliability improvements are predominately based on a commercial 
engine (CF6) with a well-established track record, is considered to be 
a low technical risk program. We have relatively high confidence that 
it will meet our expectations for overall reliability improvements.
    Question. What if the C-5 modernization program is unsuccessful and 
you've already proceeded with closing the C-17 line? What would the Air 
Force do at that point?
    Answer. Based on low technical risk associated with the C-5 
Reliability Enhancement and Re-Engining Program, we expect the 
modernization program to succeed.
    Question. Doesn't it make the most sense to preserve the C-17 line 
until you can unequivocally confirm that upgrading the C-5 is a viable 
option?
    Answer. Keeping the C-17 line open until C-5 modernization 
improvements are unequivocally confirmed would be an expensive option. 
Given the low technical risk associated with C-5 Reliability 
Enhancement and Re-Engining Program, the Air Force is applying our 
limited resources to higher priority recapitalization efforts, 
including replacing an aging tanker fleet.

                    C-17 TRANSPORT AND ARMY MOBILITY

    Question. Reports suggest that the Mobility Capabilities Study 
(MCS)--which was supposed to provide the Pentagon an accurate 
projection of future strategic airlift requirements--neither takes into 
account (1) the Army's transition to a modular brigade force structure 
nor (2) the Future Combat Systems (FCS) program.
    Consequently it is my understanding that the Pentagon has 
commissioned a new study (MCS-06) to address these and other areas that 
the previous MCS study failed to consider in regard to the military's 
future air mobility needs.
    With this being the case, has the Army ever articulated to you or 
provided some estimate of the airlift requirements that will be 
connected to the mobilization of the 15 FCS brigade combat teams?
    Answer. The U.S. Army will be able to provide the Air Force a 
realistic projection of its future airlift requirements when the Future 
Combat System program is more mature. Both the Air Force and the Army 
are engaged in a series of functional analysis studies that may help 
provide additional insight into the airlift requirements of the Army's 
brigade-centric force.
    Question. If not, when do you anticipate that the Army will be able 
to provide the Air Force a Realistic projection of its airlift 
requirements based on its transition from a division-centric to 
brigade-centric force?
    Answer. The U.S. Army will be able to provide the Air Force a 
realistic projection of its future airlift requirements when the Future 
Combat System program is more mature. Both the Air Force and the Army 
are engaged in a series of functional analysis studies that may help 
provide additional insight into the airlift requirements of the Army's 
brigade-centric force.
    Question. To the best of your knowledge, do you believe that the 
Army's transformation efforts centered around the Future Combat System 
brigade combat teams will increase the need for flexible and versatile 
cargo aircraft like the C-17, which according to the Army's own 
projections, has the capacity to transport 3 of its next-generation 
tactical ground vehicles?
    Answer. There will be an increased requirement for more flexible 
and versatile cargo aircraft if the U.S. Army transformation employs 
the Future Combat Systems (FCS) Brigade Combat Teams using their 
``vertical maneuver'' concept. The Army concept of ``vertical 
maneuver'' is essentially the operational and tactical movement of 
multiple FCS manned ground vehicle units by air to unimproved locations 
where they can immediately fight. A possible solution would be use of 
C-17s or the Advanced Mobility Capability Concept.

                          SUBCOMMITTEE RECESS

    Senator Stevens. And then, our next hearing will be a 
closed session, in our closed session room, S-407, to discuss 
the budget request for intelligence, on April 5.
    And the subcommittee will stand recessed until that time. 
Thank you very much.
    [Whereupon, at 11:32 a.m., Wednesday, April 29, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, APRIL 26, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:06 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Domenici, Bond, Burns, Inouye, 
Leahy, Mikulski, and Dorgan.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, CHIEF, 
            NATIONAL GUARD BUREAU

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning and welcome to all of you. 
Sorry to be a little late. We want to welcome you to today's 
hearing on National Guard and Reserve programs. There are two 
panels scheduled today. First we want to hear from the National 
Guard leadership and then from the leaders of the four Reserve 
forces.
    This first panel consists of: Lieutenant General Steven 
Blum, Chief of the National Guard Bureau; Lieutenant General 
Clyde Vaughn, Director of the Army National Guard; and Major 
General Charles Ickes, Acting Director of the Air National 
Guard. We thank you very much for coming, for your service, and 
we do welcome General Vaughn and General Ickes to their first 
hearing before this subcommittee. We are pleased to have you 
here.
    We know that in the past year Guard and Reserves have 
continued to provide support for their active duty forces 
overseas. The total force is a reality now, there is no 
question about it. In addition to augmenting the military 
effort in Iraq and Afghanistan, the Reserves have also stepped 
up to meet challenges such as securing our homeland, responding 
to national disasters such as Hurricane Katrina. You had 
several sizable missions to fulfill and have accomplished all 
of them with a great deal of success, and we thank all of your 
citizen-soldiers for their dedication and sacrifices at home 
and abroad.
    We want to hear about several challenges we are told that 
face our Guard and Reserves, including the continued 
deployments, modernization of equipment, and recruiting and 
retention of personnel. We would like to have you discuss the 
future plans to remain relevant and ready to support our total 
domestic security. We look forward to hearing from each of you 
how the fiscal year 2007 budget request will help you address 
these issues.
    Let me yield to my good friend, the co-chairman from 
Hawaii, Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman. I 
would like to join you in welcoming our witnesses.
    The utilization and dependency on our Reserve and Guard 
forces have changed dramatically. Now you are all over the 
world. There is an unprecedented demand for the Reserves. Today 
your forces are spread around the globe and serving here at 
home by the thousands. As this subcommittee has noted in past 
hearings, your troops have responded magnificently. The 
integration of Reserve forces by combatant commanders in 
Afghanistan and Iraq have been seamless. The bravery is 
impressive.
    Again, we congratulate you for having your forces prepared 
for the challenges they are now facing. But as I say this, I 
know that the challenges facing us are many and growing. For 
example, many States are concerned about the plans the Army has 
to reorganize several Guard units. We are aware of the concerns 
that our returning reservists may have difficulty being 
retained. We know about your shortfalls of equipment for those 
returning from service overseas. We understand that some 
Reserve units have been called to deploy overseas more than 
once since 9/11, straining relationships with employers and 
their families.
    So today we are here to hear your recommendations, to 
ensure that our Guard and Reserve forces remain strong and 
ready to meet the future.
    So I thank you, Mr. Chairman, for calling this hearing.
    Senator Stevens. Senator Burns.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you very much, Mr. Chairman.
    I want to thank the distinguished folks who are at the 
table this morning. I want to say on these past couple of weeks 
I had an opportunity to meet a group of young men from Nellis 
Air Force Base in Montana. They are rescue and recovery people, 
training in a rough topography and weather conditions, and they 
had them both up there, I think. And now, after a couple of 
weeks in Montana, why, they said, well, as tough as it was, we 
are reluctant to go back to Nellis. They just want to stay in 
Montana.
    But I thank you for coming this morning on something that 
is very dear to all of our hearts, because not only of the 
obligations that some of you have in our respective States, but 
also had it not been for your troops in recent operations I 
think we would have been hard-pressed to really complete a 
mission. So I appreciate that. You have proven yourselves to be 
flexible. We have tried as Congress to put the infrastructure 
in place that would facilitate not only your recruiting but 
also your training and the morale of the troops, because, as 
you know, most are citizen-soldiers and have obligations to 
their communities and to their families and do this out of 
their real deep commitment to the security of this country. I 
commend you on that and your leadership.
    We are here now--I think a couple of primary concerns is 
ensuring that you have the funding to reset the force now, 
because we have been deployed around the world, as Senator 
Inouye indicated, now to revitalize not only from a human 
resource but also our equipment and our ability to train and to 
bring new people into our force. We are making sure that the 
funding is not shortchanged with the area of your concerns, 
that we maintain that ability to be ready when called, and also 
taking care of these great Americans, their families and their 
support system that really makes us a different kind of a 
society, so to speak.
    So I commend you on your leadership. Also, how do we deal 
with employers who all at once look down the line one day and 
they have some holes in their own operation at home, and when 
the troops come home do they have jobs and do they have the 
support system that puts them back into society before it was 
disrupted? Not that their level of patriotism has lowered any, 
but they have other obligations also, and we want to make sure 
that those support services are there.
    So thank you, Mr. Chairman. I look forward to their 
testimony.
    Senator Stevens. Thank you, Senator.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you, Mr. Chairman.
    To the people at the head table, a very enthusiastic 
welcome. General Blum, it is great to see you again. They 
really enjoyed your speech at the University of Baltimore 
graduation, where you were inspirational, motivational, and 
really admired, and my family certainly enjoyed meeting you 
that day.
    I think that is characteristic here. You know, your job is 
to inspire and to motivate the Guards and our job is to make 
sure you have the right resources to do that.
    I just wanted to say very briefly, number one, thank you 
and please thank every single soldier, Air Force member of the 
National Guard that you represent. They really are appreciated, 
and we are going to show that appreciation today, not with 
words but with deeds.
    We want to hear what are the resources that are needed to 
support the Guard in their current mission and operations. 
Number two, what can we do to retain the best of the best in 
terms of whether it is family support, employer support, et 
cetera? Number three, how do we recruit new members of the 
National Guard, because they see that what it takes to be a 
citizen-soldier is a significant commitment of time, duty, and 
even personal expense.
    So thank you and God bless you for what you do and many 
thanks to all those who serve.
    General Blum. Thank you, Senator.
    Senator Stevens. Are you finished, Senator?
    Senator Mikulski. Yes.
    Senator Stevens. Thank you very much.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    Lieutenant General Blum, Lieutenant General Vaughn, Major 
General Ickes, welcome back to the subcommittee. Thank you very 
much for the service. The Guard as participants in the first 
gulf war, responders to 9/11, Hurricane Katrina, service in 
Operations Iraqi and Enduring Freedom, just to name a few, 
provided tremendous service to this country.
    I have been around a while working with Guard issues. In 
1991 I led a charge to preserve Guard units, including 3,100 
guardsmen in Missouri and more than 100,000 across the Nation, 
who were proposed for cuts by the Pentagon. In 2001 the Air 
Force eliminated the B-1 mission from the Air National Guard. 
During the 2005 base realignment and closure (BRAC) process we 
learned from testimony of adjutants general that the Air 
National Guard was not substantively involved and as a result 
they made one of the worst decisions I have seen, to shut down 
the 131st Fighter Wing with the F-15s at St. Louis, providing 
homeland security protection in the most efficient force, F-15 
force, in the air assets.
    Earlier this year, we heard proposals coming out of the 
Pentagon to reduce end strength of the Army Guard by 17,000 and 
14,000 from the Air Guard. We sent a little letter with 75 or 
80 signatures that got some rethinking of it.
    But on issue after issue, the Guard has had to rely on 
Congress, not its total force partners in the active duty, to 
equip and provide fully the resources and benefits it needs, 
not only to support our active duty warfighters in the away 
game as they serve right alongside with those men and women on 
active duty, but also to fulfil the Guard's paramount home game 
mission of defending the homeland and providing support to 
civil authorities.
    Why? It is obvious that the Guard is not provided with the 
bureaucratic muscle commensurate with its contributions to the 
total force. That is why Senator Leahy and I, who are co-chairs 
of the Senate National Guard Caucus, are introducing 
legislation today aimed at redressing the uphill battles the 
Guard must fight every year to ensure full training, equipping, 
and readiness to meet the missions.
    Mr. Chairman, I have a very long-winded statement that I 
will submit for the record, but I will spare you that and just 
wait for the questions. I thank the chair.
    Senator Stevens. We thank you for your generosity, Senator.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    Thank you Mr. Chairman.
    Lieutenant General Blum, Lt. General Vaughn and Major 
General Ickes (pronounced like ick-iss) welcome back to this 
committee and thank you first and foremost for your service to 
our nation.
    As participants in the first Gulf War, responders to 9/11 
and Hurricane Katrina, service in Operation Iraqi and Enduring 
Freedom, just to name a few operations, all of us are familiar 
with the tremendous service the National Guard has rendered to 
our Nation and the 50 states and four protectorates.
    In 1991, I lead a charge to preserve National Guard Units, 
including 3,100 guardsmen in Missouri and more than 100,000 
across the nation, from proposed cuts by the Pentagon. In 2001, 
the Air Force eliminated the B-1 mission from the Air National 
Guard, consolidating units into the active duty. During the 
2005 BRAC process, we learned and heard testimony from Adjutant 
Generals from numerous states that the Air National Guard was 
not substantively involved in that process or in the 
formulation of the Future Total Force initiative.
    Earlier this year, DOD, the Army and the Air Force proposed 
to reduce end-strength by 17,000 and 14,000 respectively and 
again, Congress had to step in and prevent such cuts. This 
decision, in addition to the aforementioned ones and the litany 
of others that I have not mentioned, was made without the 
substantive input from National Guard leaders.
    Year after year, issue after issue, the National Guard has 
had to rely on the Congress--not its total force partners in 
the Active duty--to equip and provide fully the resources and 
benefits it needs--not only to support our active duty 
warfighters in the away game as they serve right alongside with 
our brave men and women in the active duty, but to also fulfill 
the Guard's paramount home-game mission of defending the 
homeland and providing support to civil authorities.
    Why? Well, it is obvious to me that the National Guard is 
not provided with the bureaucratic muscle commensurate with its 
contributions to the total force. Senator Pat Leahy and I as 
co-Chairs of the Senate National Guard Caucus are introducing 
legislation today aimed at redressing these uphill battles that 
the Guard must fight every year to ensure they are trained, 
equipped and ready to meet their missions.
    Hurricane Katrina was one of the worst natural disasters in 
our nation's history.
    Our nation was reminded during the response to Hurricane 
Katrina of the Guard's other paramount mission: homeland 
defense and civil support. The National Guard's contributions 
to Hurricane Katrina were stellar.
    The magnitude, quality, and timeliness of the Guard's 
response remains one of the less publicized successes of the 
Katrina disaster.
    The Guard's successful response was attributable to the 
fact that the Guard is best organized and trained to initiate 
and coordinate a civil responses on the scale of Katrina.
    With equipment availability levels currently at a perilous 
35 percent, just think of the capability a fully equipped 
National Guard could provide a Governor and localities in the 
event of another terrorist attack or natural disaster.
    This is why I lead the charge along with my co-chair of the 
Senate National Guard Caucus Sen. Patrick Leahy, to provide 
over $900 million in last year's Defense Appropriations Bill 
for the shortages in equipment the Guard is experiencing.
    Time and time again the National Guard has been a 
tremendous value for the capabilities it provides our nation, 
providing 40 percent of the Total Force for around 7-8 percent 
of the budget.
    Now more than ever, as budgets are constrained and 
entitlements continue to grow at alarming rates, we should not 
be looking to reduce the Guard, but rather fully man and fully 
equip it.
    The growing significance of the operational role of the 
National Guard in matters of national security and homeland 
defense and homeland security, beyond that strictly deriving 
from its role as a reserve component of the Army and the Air 
Force, demands that the position of the Chief of the National 
Guard Bureau be raised to an authorized grade of General.
    It is a fundamental practice within the Pentagon that the 
most strategic decisions are made at the Secretarial level with 
the advice of the four-star Service Chiefs, the four-star 
Combatant Commanders and the other four-stars within the active 
duty force. The legislation introduced by Sen. Leahy and I will 
ensure that the vital interests of the National Guard which 
impacts military readiness, support to civilian authorities 
within the fifty states and four protectorates, and the 450,000 
civilian-soldiers and airmen, will be adequately represented.

    Senator Stevens. General Blum, we would be happy to have 
your statement. All your statements will appear in the record 
in full as though read, but we want to hear what you want us to 
hear.

                   OPENING STATEMENT OF GENERAL BLUM

    General Blum. Well, thank you, Chairman Stevens, Senator 
Inouye, and distinguished members of the subcommittee. Thank 
you for the opportunity to appear today and discuss the 
National Guard's budget submission for fiscal year 2007. I am 
proud to be here today with General Vaughn, the Director of the 
Army National Guard, and Major General Chuck Ickes, who is the 
Acting Director of the Air National Guard. Each of you--we will 
all discuss the funding issues that you asked us about, so you 
can better understand what we need to deliver the capabilities 
that you have so well articulated, so well that I am going to 
dispense with most of my opening statement because, frankly, 
you have delivered it for me, which is even better because it 
means you completely understand the issues and you understand 
the challenges that the National Guard is facing as we move 
from a strategic reserve to an operational force.
    I would be remiss, however, if I did not speak for the 
460,000 citizen-soldiers and citizen-airmen and express their 
appreciation to this subcommittee for the magnificent support 
that you have displayed for us, particularly in this last year. 
You helped us take care of personnel, training, and equipment 
needs in a very, very measured and effective manner. In fact, 
the robust appropriations of this particular subcommittee to 
the National Guard and Reserve account helped us purchase 
needed capabilities that we will probably use, unfortunately, 
very soon here in our country in the upcoming hurricane season, 
so that we are even more prepared than we were last year, when 
we responded with 80,000 soldiers deployed overseas and at the 
same time generated 50,000 citizen-soldiers from every State 
and every territory in this great Nation to Louisiana and 
Mississippi to help out in the aftermath of Hurricanes Katrina, 
Rita, and Wilma.
    The National Guard, as you have mentioned, is entering a 
new era in our Nation's history and it must adapt to these new 
challenges. To keep this type of force as effective as you have 
described and as important and as essential to the Department 
of Defense as the National Guard has become, we must ensure 
that the National Guard receives adequate funds and equipment 
to do the job.
    The National Guard is absolutely proud to serve and deliver 
the strong military capabilities both here at home and abroad 
in a most cost-effective manner. The funds that you appropriate 
I assure you will be well spent and highly leveraged both here 
at home in domestic operations as well as overseas in the 
global war on terrorism.
    When a guardsman is not mobilized, the Government does not 
incur any of the expenses that we routinely pay for our active 
duty force. We have an on-call capability for a fraction of the 
cost. For those of you that do not know it, the National Guard 
is and remains unique in the Department of Defense. It is the 
only uniformed force that can be called upon by the Governors 
of our Nation on a day-to-day basis. It is clearly the American 
taxpayers' best defense bargain.
    The Army National Guard is only on a normal day 12 percent 
of the Army's budget and it provides 32 percent of the Army's 
overall capabilities. It presently is providing about 40 
percent of the Army deployed on the ground fighting today in 
Iraq and Afghanistan. The Air National Guard only on a normal 
day gets 8 percent of the Air Force's budget and provides 34 
percent of the total Air Force's capability.
    There is an added benefit of the National Guard where the 
Federal and the State dual use dividend pays huge, huge 
dividends every day in every zip code of our Nation. There has 
never been a day in my tenure as the Chief of the National 
Guard Bureau for the last 3 years where national guardsmen were 
not called out by their Governors to either help save lives, or 
help prevent suffering, or help restore order, or help bring 
aid and assistance that the local and state governments were 
unable to do, and had to leverage the military capabilities of 
the Department of Defense.
    Before I thank you and finish my comment, I would like to 
introduce three American heroes. One is Command Sergeant Major 
John Leonard. Sergeant Leonard, please stand. This soldier will 
be completing 41 years in uniform next month and he will 
finally retire because he reaches the mandatory retirement age. 
That is the only reason that he is leaving. Otherwise he would 
stay probably for another 20.
    He served in three wars. He has been a national guardsmen, 
he has been a marine. He has been mobilized three times. He 
represents every citizen-soldier and citizen-airman in this 
great Nation, he has been my enlisted advisor for the last 3 
years, and he will be a huge loss. This Nation owes a great 
debt of gratitude to citizen-soldiers like John Leonard.
    Senator Stevens. Thank you very much.
    Sergeant, if you would like to have a waiver on that, look 
us up.
    General Blum. You can think about that, John.
    Command Sergeant Major Leonard leaves feeling pretty good, 
because there are two other soldiers, a soldier and airman, a 
citizen-soldier and an airman, here that I would like to 
introduce at this time. I have Specialist Mike Acquaviva from 
the United States Army National Guard. He comes out of the 
State of Alabama. He has been--he was prior service Air Force 
and he joined the National Guard 3 years ago. He is a heavy 
equipment operator in Alabama for Cullman County.
    He was mobilized for Iraq. He spent 18 months on active 
duty through the mobilization process, 1 year boots on the 
ground. He's a signal soldier, so he went over there to provide 
communications to the coalition forces, the State Department, 
Special Operations Forces, and some of our multinational 
partners in Iraq up in the area of Kirkuk.
    He was wearing a lot of battle armor and equipment and 
ammunition for several months that he thought he did not need 
because he thought he was there to be a radio operator, until 
he woke up one morning in Kirkuk and found 1,800 insurgents 
from one of the militias attacking and trying to overrun his 
position.
    Specialist Fourth Class Mike Acquaviva, although he is 
married, although he has a 14-year-old daughter, and although 
he is a signal soldier, climbed to the roof of a building, 
employed a squad automatic weapon, and was instrumental in the 
defeat of this attack. A captain fighting right beside him was 
hit with a sniper round through the arm, through his chest, and 
out his back. Specialist Acquaviva stopped what he was doing, 
rendered first aid, and saved the life of that captain, and 
then went back to firing his weapon for the next 9 hours 
continuous combat, until he ran out of ammunition, and then 
picked up the weapon of the wounded captain until all of his 
ammunition was expended.
    For his heroic deeds, he was awarded the Bronze Star with a 
V Device. We are extremely proud of this individual and he will 
be awarded the Combat Action Badge before he leaves Washington, 
because his actions have earned that. You will get that award 
before you leave town. Mike Acquaviva, American hero from 
Alabama Guard.
    Also, Staff Sergeant Carl Gurmsheid is from the Arizona 
National Guard. The reason that I have selected to bring him is 
that he has done every mission in the National Guard and has 
participated in the last 4 years. He was working in the Arizona 
National Guard as an engineer, a firefighter. He has shown his 
flexibility to retrain three times in the last 4 years to do 
what this Nation needed him to do. He worked in the 
counternarcotics, counterterrorism piece. He responded in 
Operation Noble Eagle right after 9/11, and ultimately he has 
just come back from his tour of combat in Iraq.
    So at home, overseas, civilian support to law enforcement, 
whatever the Guard does day to day, this is the kind of 
involvement that Carl Gurmsheid has been willing to stand up 
and do whatever his State or Nation needed him to do when they 
needed him to do it.
    He is also married. His wife Melissa and he have two 
children, Grace, 5, and Jacob, 3. The necessity to address not 
only the soldiers but their families is a priority at keeping 
the readiness of the force at combat level the next time we 
need them.
    So I am pleased to be the chief of 460,000 young men and 
women like I introduced to you here today.

                           PREPARED STATEMENT

    Thank you. I would be interested to answer any questions 
you may have. Thank you.
    Senator Stevens. Does that complete your statement, 
General?
    General Blum. Yes, sir. Yes, Mr. Chairman.
    [The statement follows:]

         Prepared Statement of Lieutenant General H Steven Blum

                              IN MEMORIAM

    A special dedication to the men and women of the Army and the Air 
National Guard who made the ultimate sacrifice while serving the United 
States of America.
     america's 21st century minutemen--always ready, always there!
    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom and Operation Iraqi 
Freedom as of January 1, 2006
PVT Algernon Adams, SC
SGT Leonard Wade Adams, NC
SPC Segun F. Akintade, NY
SPC Azhar Ali, NY
SGT Howard Paul Allen, AZ
1LT Louis E. Allen, NY
SSG William Alvin Allers III, KY
SFC Victor Antonio Anderson, GA
SPC Michael Andrade, RI
SGT Travis Mark Arndt, MT
SSG Daniel Laverne Arnold, PA
SSG Larry Richard Arnold, MS
SGT Christopher James Babin, LA
SSG Nathan J. Bailey, TN
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
1LT Gerald Baptiste, NY
SGT Michael C. Barkey, OH
1LT Christopher W. Barnett, LA
SPC Bryan Edward Barron, MS
SGT Michael Barry, MO
SPC Todd M. Bates, OH
SGT Tane Travis Baum, OR
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, VA
CPL Joseph Otto Behnke, NY
SGT Aubrey D. Bell, AL
SPC Bradley John Bergeron, LA
SSG Sean B. Berry, TX
SSG Harold D. Best, NC
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
SSG Jerry L. Bonifacio Jr, CA
COL Canfield ``Bud'' Boone, IN
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box, Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Cory W. Brooks, SD
PFC Nathan P. Brown, NY
PFC Oliver J. Brown, PA
SPC Philip D. Brown, ND
SPC Jacques Earl Brunson, GA
PFC Paul J. Bueche, AL
CPL Jimmy Dale Buie, AR
SPC Alan J. Burgess, NH
SPC Casey Byers, IA
SGT Charles T. Caldwell, RI
SSG Joseph Camara, RI
SGT Deyson Ken Cariaga, HI
SPC Jocelyn L. Carrasquillo, NC
SGT James Dustin Carroll, TN
SGT Frank T. Carvill, NJ
SFC Virgil Ray Case, ID
CAPT Christopher S. Cash, NC
SPC Jessica L. Cawvey, Il
SPC James A. Chance III, MS
SSG William D. Chaney, IL
MSG Chris Shayne Chapin, VT
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SPC Brian Clemens, IN
SGT Russell L. Collier, AR
SFC Kurt Joseph Comeaux, LA
SPC Anthony Steven Cometa, NV
SFC Sean M. Cooley, MS
SSG Travis Sentell Cooper, MS
SGT Alex J. Cox, TX
SPC Carl F Curran, PA
SPC Daryl Anthony Davis, FL
SSG Kevin Dewayne Davis, OR
SPC Raphael S. Davis, MS
SSG David Fredrick Day, MN
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
PFC Nathaniel Edward Detample, PA
SPC Joshua Paul Dingler, GA
SPC Ryan E. Doltz, NJ
1LT Mark Harold Dooley, VT
SPC Thomas John Dostie, ME
SSG George Ray Draughn Jr., GA
SPC Christopher M. Duffy, NJ
SGT Arnold Duplantier,II, CA
SSG Mark Oscar Edwards, TN
SGT Michael Egan, PA
SGT Christian Philip Engeldrum, NY
CPT Phillip T. Esposito, NY
SPC William Lee Evans , PA
SPC Michael Scott Evans II, LA
SSG Christopher Lee Everett, TX
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
CPT Arthur L. Felder, AR
SGT Robin Vincent Fell, LA
SPC William Valentin Fernandez, PA
SPC Jon P. Fettig, ND
SGT Damien Thai Ficek, WA
SGT Jeremy J. Fischer, NE
CPT Michael Todd Fiscus, IN
SPC David Michael Fisher, NY
SGT Paul F. Fisher, IA
CW2 John Michael Flynn, NV
SSG Tommy I. Folks, Jr., TX
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, NC
SSG Jacob Frazier, IL
SPC Carrie Lee French, ID
SPC Armand L. Frickey, LA
SSG Carl Ray Fuller, GA
SGT Jerry Lewis Ganey Jr., GA
SGT Seth Kristian Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
SPC Mathew Vincent Gibbs, GA
2LT Richard Brian Gienau, IA
SSG Charles Crum Gillican III, GA
SPC Lee Myles Godbolt, LA
SPC Richard A. Goward, MI
SSG Shawn Alexander Graham, TX
SGT Jamie A. Gray, VT
SPC James T Grijalva, IL
SGT Jonathon C Haggin, GA
SFC Peter James Hahn, LA
SSG Asbury Fred Hawn II, TN
SPC Michael Ray Hayes, KY
SPC Paul Martin Heltzel, LA
SPC Kyle Matthew Hemauer, VA
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SPC Brett Michael Hershey, IN
MSG Michael Thomas Hiester, IN
SGT Stephen Correll High, SC
SGT Jeremy M. Hodge, OH
SFC Robert Lee Hollar Jr., GA
SPC James J. Holmes, ND
SPC Jeremiah J. Holmes, NH
SGT Manny Hornedo, NY
SGT Jessica Marie Housby, IL
SPC Robert William Hoyt, CT
SPC Jonathan Adam Hughes, KY
SGT Joseph Daniel Hunt, TN
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SFC Tricia Lynn Jameson, NE
SGT Brahim Jamal Jeffcoat, PA
SPC William Jeffries, IN
SPC David W. Johnson, OR
SSG David Randall Jones, GA
SFC Michael Dean Jones, ME
SGT Anthony Nelson Kalladeen, NY
SPC Alain Louis Kamolvathin, NY
SPC Mark J. Kasecky, PA
SPC Charles Anthony Kaufman, WI
SPC James C. Kearney, IA
SGT Michael Jason Kelley, MA
SSG Stephen Curtis Kennedy, TN
SSG Ricky Allan Kieffer, MI
SGT James Ondra Kinlow, GA
PFC David M. Kirchoff, IA
SGT Timothy C. Kiser, CA
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SSG Lance J. Koenig, ND
CW3 Patrick W. Kordsmeier, AR
SPC Kurt Eric Krout, PA
SPC John Kulick, PA
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SPC Charles R. Lamb, II
CW4 Patrick Daniel Leach, SC
SGT Terrance Delan Lee, Sr., MS
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Tiothy J. Lewis, DC
SGT Jesse Marvin Lhotka, MN
SSG Victoir Patric Lieurance, TN
SPC Justin W. Linden, OR
SSG Tommy Seary Little, MS
SPC Jeremy Loveless, AL
SSG David L Loyd, TN
CPT Robert Lucero, WY
SPC Audrey Daron Lunsford, MS
SPC Derrick Joseph Lutters, KS
SPC Wai Phyo Lwin, NY
SSG William Francis Manuel, LA
SPC Joshua Samuel Marcum, AR
PFC Ryan A. Martin, OH
SGT Nicholas Conan Mason, VA
SPC Patrick R. McCaffrey, Sr., CA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, WA
SGT John Edward McGee, AL
SPC Jeremy Wayne McHalffey, AR
SPC Eric S. McKinley, OR
SPC Scott Paul McLaughlin, VT
SSG Heath A. McMillan, NY
SPC Robert Allen McNail, MS
MSG Robbie Dean McNary, MT
SPC Kenneth A. Melton, AR
SGT Chad Michael Mercer, GA
SSG Dennis P Merck, GA
SPC Michael G. Mihalakis, CA
SGT John Wayne Miller, IA
CPT Lowell Thomas Miller II, MS
SFC Troy L. Miranda, AR
SGT Ryan Jay Montgomery, KY
SGT Carl James Morgain, PA
SPC Dennis B. Morgan, SD
SGT Steve Morin Jr., TX
SGT Shawna M. Morrison, II
SPC Clifford L. Moxley, PA
SPC Warren Anthony Murphy, LA
SGT David Joseph Murray, LA
SPC Nathan W. Nakis, OR
SPC Creig Lewis Nelson, LA
SSG Paul Christian Neubauer, CA
SPC Joshua M. Neusche, MO
SPC Paul Anthony Nicholas, CA
SGT William J. Normandy, VT
PFC Francis Chinomso Obaji, NY
SGT John Banks Ogburn, OR
SGT Nicholas Joseph Olivier, LA
SSG Todd Donald Olson, WI
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy Ryndale Osbey, MS
SSG Ryan Scott Ostrom, PA
SSG Michael C. Ottolini, CA
PFC Kristian E. Parker, LA
SSG Saburant Parker, MS
SPC Gennaro Pellegrini Jr., PA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob Loren Pfingsten, MN
SGT Ivory L. Phipps, IL
CW2 Paul J. Pillen, SD
SGT Foster Pinkston, GA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn Robert Poulin, SR, ME
SPC Robert Shane Pugh, MS
SSG George Anthony Pugliese, PA
SPC Joseph Andrew Rahaim, MS
SPC Eric U. Ramirez, CA
PFC Brandon Ramsey, IL
SPC Christopher J. Ramsey, LA
SSG Jose Carlos Rangel, CA
SSG Johnathan Ray Reed, LA
SSG Aaron T. Reese, OH
SGT Gary Lee Reese Jr., TN
SPC Jeremy L. Ridlen, IL
CPL John T. Rivero, FL
SSG William Terry Robbins, AR
CPL Jeremiah W. Robinson, AZ
SSG Alan Lee Rogers, UT
PFC Hernando Rois, NY
SFC Daniel Romero, CO
SGT Brian Matthew Romines, IL
SFC Robert E. Rooney, MA
SPC David L. Roustrum, NY
SGT Roger D. Rowe, TN
SGT David Alan Ruhren, VA
CW4 William Ruth, MD
SPC Lyle Wyman Rymer II, AR
SGT Paul Anthony Saylor, GA
SFC Daniel Ronald Scheile, CA
SPC Jeremiah W. Schmunk, WA
SPC Bernard Leon Sembly, LA
SPC Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
SGT Ronnie Lee Shelley, GA
SGT James Alexander Sherrill, KY
1LT Andrew Carl Shields, SC
SGT Alfredo Barajas Silva, CA
SGT Alfred Barton Silver, TN
SGT Isiah Joseph Sinclair, LA
SPC Roshan ``Sean'' R. Singh, NY
SPC Aaron J. Sissel, IA
1LT Brian D. Slavenas, IL
SGT Eric Wentworth Slebodnik, PA
SGT Keith Smette, ND
CW4 Bruce A. Smith, IA
CPL Darrell L. Smith, IN
SGT Michael Antonio Smith, AR
SPC Norman Kyle Snyder, IN
SGT Mike Takeshi Sonoda Jr., CA
SGT Patrick Dana Stewart, NV
SGT Michael James Stokely, GA
Maj Gregory Stone, ID
SPC Chrystal Gale Stout, SC
2LT Matthew R. Stoval, MS
SGT Francis Joseph Straub Jr., PA
SGT Thomas James Strickland, GA
WO1 Adrian Bovee Stump, OR
SSG Michael Sutter, MI
SGT Robert Wesley Sweeney III, LA
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango-Griess, NE
SPC Christopher M. Taylor, AL
SGT Shannon D. Taylor, TN
MSG Thomas R. Thigpen, Sr., SC
SGT John Frank Thomas, GA
SGT Paul William Thomason, TN
1LT Jason Gray Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Eric Lee Toth, KY
SPC Seth Randell Trahan, LA
SPC Quoc Binh Tran, CA
SGT Robert W. Tucker, TN
2LT Andre D. Tyson, CA
SPC Daniel P. Unger, CA
PFC Wilfredo Fernando Urbina, NY
SGT Michael A. Uvanni, NY
SGT Gene Vance Jr., WV
SGT Daniel Ryan Varnado, MS
1LT Michael W. Vega, CA
PFC Kenneth Gri Vonronn, NY
SSG Michael Scott Voss, NC
PFC Brandon J. Wadman, FL
SGT Andrew Peter Wallace, WI
SFC Charles Houghton Warren, GA
SFC Mark C. Warren, OR
SPC Glenn James Watkins, WA
SPC Michael J. Wedling, WI
SSG David J. Weisenburg, OR
SPC Cody Lee Wentz, ND
SPC Jeffrey M. Wershow, FL
SGT Marshall Westbrook, NM
SPC Lee Alan Wiegand, PA
1LT Charles L. Wilkins III, OH
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, GA
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SGT Elijah Tai Wah Wong, AZ
SFC Ronald Tanner Wood, UT
SGT Roy A. Wood, FL

     LIEUTENANT GENERAL H STEVEN BLUM, CHIEF, NATIONAL GUARD BUREAU
             CHIEF, NATIONAL GUARD BUREAU EXECUTIVE SUMMARY

    This past year the National Guard demonstrated how superbly it 
simultaneously performs our dual missions, state and federal.
    In August 2005, with more than 80,000 troops already mobilized for 
the global war on terror and faced with Katrina, a catastrophic 
hurricane, the Gulf Coast governors called upon the Guard. The Guard, 
the nation's preeminent military domestic response force, fulfilled our 
commitment to the governors and our neighbors. In spite of a massive 
wartime mobilization, the Guard mobilized and deployed the largest 
domestic response force in history. Soldiers and Airmen from all 50 
states, the territories of Guam and the U.S. Virgin Islands, the 
Commonwealth of Puerto Rico and the District of Columbia deployed in 
record time in support of their Gulf Coast neighbors. Never before had 
every corner of America answered the desperate cry of our neighbors in 
such unison. Truly, when you call out the Guard, you call out America!
    Guard forces were in hurricane affected neighborhoods rescuing 
people within four hours of Katrina's landfall. More than 11,000 
Soldiers and Airmen were involved in rescue operations on August 31. 
The Guard mobilized and deployed, in support of rescue and recovery, an 
additional 19,000 troops in the following 96 hours. Guard participation 
peaked at over 50,000 personnel on September 7. More than 6,500 Guard 
men and women were in New Orleans alone by September 2, 2005. The 
National Guard responded in spite of massive overseas deployment of 
personnel and equipment in support of our federal mission.
    No state, regardless of its size, can handle a natural or man-made 
catastrophe of the magnitude of a Katrina. Emergency Management 
Assistance Compacts allowed governors of affected states to immediately 
call upon another state's National Guard as reinforcements for recovery 
efforts. In 23 states, the Adjutant General also serves as the State 
Director of Emergency Management, State Director of Homeland Security, 
or both. This is an important aid in the coordination of the civil and 
military response.
    The National Guard has undergone a total transformation in the past 
few years. The once ponderous Cold War strategic reserve transformed 
itself into an agile, lethal operational force capable of joint and 
expeditionary warfare--a uniquely flexible force simultaneously capable 
of responding to a broad range of civil and humanitarian crises.
    The Guard serves our nation and communities across the full 
spectrum of domestic and warfighting missions. We fight narco-terrorism 
through our counterdrug programs. We work with our nation's youth 
through programs like StarBase and ChalleNGe to ensure they have a 
brighter future. We stand guard over America's critical physical and 
cyber infrastructure. Our Airmen fly the vast majority of air 
sovereignty missions over America's cities, while our Soldiers man air 
defense batteries in the nation's capital and the nation's sole 
ballistic missile interceptor site in Alaska. We conduct peacekeeping 
operations in Kosovo and the Sinai, stand watch aboard military cargo 
ships as they transit the Persian Gulf, guard prisoners in Guantanamo 
Bay, and train the Iraqi and Afghan national armies. Joint and 
multinational training, exercises, humanitarian support and a variety 
of other missions have taken the Guard overseas to more than 40 nations 
on five continents last year alone.
    The Guard stands more ready, reliable, essential and accessible 
today than at anytime in its near-four hundred years of existence. 
Since 9/11, we have been employed around the world and here at home as 
an operational force in a variety of contingencies. It is a role that 
the Guard was not structured to perform before 9/11. The Guard--with 
the exception of those units mobilized for war--is still under-
resourced for many of the missions it now performs. Army Guard units in 
particular remain manned at Cold War levels, lack a robust cadre of 
full-time support personnel, and are equipped well below wartime 
requirements. Other vestiges of this Cold War construct, such as a 
needlessly-long mobilization process, continue to hamper the most 
efficient use of the Guard.
    Our nation's reliance on the Guard is unprecedented at this stage 
in a major war. At one point in 2005, the Army National Guard 
contributed half of the combat brigades on the ground in Iraq. The 
Army's leadership has acknowledged that the Army could not sustain its 
presence in Iraq without the Guard. As of January 1, 2006, over 350 
Guard men and women have given their lives while engaged in this global 
struggle.
    Guard units bring more to the warfight than just Soldiers and 
Airmen. There is ample anecdotal evidence that the civilian skills 
Guard members possess make them exceptionally well suited for 
peacekeeping and nation building. An Iraqi policeman may have limited 
respect for an American Soldier who attempts to train him in the 
methods of civilian law enforcement. But, when that Soldier is a 
National Guardsman with 20 years of civilian experience as a police 
officer, that Soldier's credibility and impact as a trainer is vastly 
enhanced.
    Guard support to the warfight is not limited to our role on the 
battlefield. The Guard's unique State Partnership Program continues to 
support Combatant Commander's Security Cooperation Plans and strengthen 
alliances with 50 allied nations around the world. This immensely 
successful program has grown from direct military-to-military exchanges 
to encompass military-to-civilian and ultimately civilian-to-civilian 
exchanges. Once again, the citizen Soldiers and Airmen of the National 
Guard are the bridge that allows this to happen, with their combination 
of military and civilian backgrounds providing a sterling example of 
how America has peacefully balanced military and civilian interests for 
well over 300 years.
    National Guard units deployed to combat since September 11th have 
been the best-trained and equipped force in American history. The U.S. 
Army invested $4.3 billion to provide those units with the very best, 
state-of-the-art equipment.
    This is an unprecedented demonstration of the Army's commitment to 
ensure that no Soldier, regardless of component (Active, Guard, or 
Reserve), goes to war ill equipped or untrained. With the help of the 
U.S. Congress, this was accomplished over a two-year period. It is now 
a reality for National Guard overseas combat deployments.
    The Guard, since September 11th, has been well equipped for its 
overseas missions, and has demonstrated its Citizen-Soldier expertise 
across the full-spectrum of warfighting, peacekeeping, and security 
engagement with our allies. The response to Katrina, however, revealed 
serious shortcomings in the equipping of Guard units for Homeland 
Security and Defense. Guard units returned from the overseas warfight 
with a fraction of the equipment with which they deployed, leaving them 
far less capable of meeting training requirements, or more importantly, 
fulfilling their missions here at home.
    The senior leadership of the U.S. Army has committed to re-
equipping the Guard, the nation's first domestic military responders. 
The Army has a comprehensive reset plan that recognizes the Army 
National Guard's critical role in Homeland Defense (HLD) and support to 
Homeland Security (HLS) operations. This will take time and resources. 
I am confident that a real sense of urgency exists to make this a 
reality for America. The Guard currently has less than 35 percent of 
the equipment it requires to perform its wartime mission. We gratefully 
acknowledge the $900 million down-payment Congress made on resourcing 
our needs as an operational force for HLD/HLS and the overseas 
warfight, and recognize the full cost of restoring readiness will 
require continuing long-term Congressional attention.
    Satellite and tactical communications equipment, medical equipment, 
utility helicopters, military trucks and engineer equipment are the 
Army Guard's highest equipment priorities. We must ensure that this 
equipment is identical to that required for wartime use, so that Guard 
units remain interoperable with their active component counterparts for 
both HLD/HLS and warfight operations. We also need to invest in an 
extensive non-lethal weapons capability for use in both domestic and 
overseas contingencies.
    Two years ago, I committed to the governors, our state Commanders-
in-Chief that the National Guard Bureau would provide each of them with 
sufficient capabilities under state control, and an appropriate mix of 
forces, to allow them to respond to domestic emergencies. I also 
promised to provide a more predictable rotation model for the 
deployment of their Army Guard Soldiers, along the lines already in 
place for Air Guard units participating in the Air and Space 
Expeditionary Force deployments.
    The National Guard Bureau is committed to the fundamental principle 
that each and every state and territory must possess ten core 
capabilities for homeland readiness. Amidst the most extensive 
transformation of our Army and Air Forces in decades, we want to ensure 
that every governor has each of these ``essential 10'' capabilities: a 
Joint Force Headquarters for command and control; a Civil Support Team 
for chemical, biological, and radiological detection; engineering 
assets; communications; ground transportation; aviation; medical 
capability; security forces; logistics and maintenance capability.
    The final 11 Civil Support Teams were organized this past year, 
giving every state and territory the capability of rapidly assisting 
civil authorities in detecting and responding to a Weapons of Mass 
Destruction attack. These are joint units, consisting of both Army and 
Air National Guard personnel.
    Air Guard personnel in the Civil Support Teams are part of a larger 
trend. The National Guard has leveraged homeland defense capabilities 
from the Air Guard far beyond the now-routine mission of combat air 
patrols over our cities. Every state fields rapid reaction forces 
capable of quickly responding to a governor's summons, and in many 
cases these forces consist of Air Guard security police. The Air Guard 
also provides extensive HLS capabilities with its communications, 
ground transportation, and chemical-biological-radiological detection 
units.
    The civil engineering capabilities of Air Guard RED HORSE (Rapid 
Engineer Deployable Heavy Operational Repair Squadron Engineer) teams 
and the medical capabilities of Air Guard Expeditionary Medical Support 
(EMEDS) systems proved extremely valuable in responding to Katrina. We 
are examining fielding these capabilities on a regional basis for more 
rapid response to future disasters.
    Our 12 regional Chemical, Biological, Radiological, Nuclear and 
high-yield Explosive (CBRNE) Enhanced Response Force Packages (CERFP) 
provide mass casualty decontamination, medical treatment, security and 
urban search and extraction in contaminated environment capabilities in 
addition to the special skills of the Civil Support Teams. These units 
are not dedicated solely to Homeland Defense, but are existing 
warfighting units that have been given a powerful new HLD capability by 
virtue of modest amounts of additional equipment and training. This 
program, a concept only two years ago, has already placed 12 certified 
force packages on the ground, with Congress authorizing an additional 
five in the fiscal year 2006 Defense Appropriation. It is now an 
important part of the Guard's increasingly sophisticated Homeland 
Defense capability.
    The Guard has fielded six regional Critical Infrastructure 
Program--Mission Assurance Assessment (MAA) teams to conduct 
vulnerability assessments of Department of Defense critical 
infrastructure. These teams conduct force protection training and plan 
for emergency response to a terrorist attack or natural disaster 
striking our critical infrastructure. Four more teams will be fielded 
in fiscal year 2006. These specialized capabilities are available to 
any state or region, along with traditional Guard forces should they be 
needed.
    The most critical transformation the National Guard has undergone 
since 2001 has been in the Joint Forces Headquarters in each state, 
territory, and the District of Columbia (JFHQ-State). What used to be 
the State Area Command (STARC) and Air Guard State Headquarters, 
administrative organizations for peacetime control of units, has 
developed into a sophisticated headquarters and communications node 
capable of assuming command and control of units from all services and 
components when responding to a domestic emergency. Tested and proven 
during multiple National Special Security Events in 2004, these 
headquarters were further validated this past year by hurricanes 
Katrina and Rita.
    These headquarters, now operated on a continual 24/7/365 basis, 
must be linked together to provide robust capabilities to share secure 
and non-secure information within the State or Territory, to deployed 
incident site(s), and to other DOD and inter-governmental partners 
engaged in support of Homeland Defense and Defense Support to Civil 
Authorities missions. To support these needs in the near-term, NGB has 
fielded 13 rapid response communications packages--the Interim 
Satellite Incident Site Communications Set (ISISCS)--that are 
regionally-based, and which proved absolutely vital when the entire 
domestic communications infrastructure in the Gulf Coast region of the 
United States went down during Hurricane Katrina. To satisfy the full 
range of required Command and Control, Communications, and Computer 
(C4) capabilities, NGB and U.S. Northern Command have collaborated on 
the Joint Continental U.S. Communications Support Environment (JCCSE) 
construct. When fully implemented, the JCCSE will provide U.S. Northern 
Command, U.S. Pacific Command, the National Guard Bureau, each Joint 
Force Headquarters-State, and our inter-governmental partners with the 
vital C4 capabilities and services to support continuous and accurate 
situational awareness of operational capabilities at the State or 
Territory and incident levels; enhanced information sharing and 
collaboration capabilities to facilitate mission planning, resourcing, 
and execution; and a fully integrated trusted information sharing and 
collaboration environment to facilitate coordination and unity of 
effort.
    Today we are taking on the challenge of responding to a potential 
flu pandemic that could challenge domestic tranquility like no other 
event since the Civil War. The forward deployed JFHQ-State are the only 
existing organization with the intrinsic capabilities, knowledge of 
local conditions and realities, geographic dispersion, resources and 
experience to coordinate the massive state-federal response that would 
be required in a pandemic of the predicted magnitude. Aided by the 
JCCSE communications backbone, the headquarters can assist civil 
authorities as they share a common operating picture, request and 
coordinate specialized regionally-based response forces, and receive 
follow-on forces from other states, federal reserve forces, or active 
duty forces.
    The Guard must continue to transform in order to maintain our 
status as a fully operational reserve of the Army and the Air Force, 
while at the same time increasing our ability to respond to terrorist 
attack or natural disaster at home. We must also continue to commit 
ourselves to recruiting and retaining a quality force capable of 
meeting these challenges for decades to come.
    Seventy-four percent of the Army National Guard's units are 
impacted by the U.S. Army's conversion to a modular force structure. 
The Army National Guard contribution to the modular total force 
includes 34 Brigade Combat Teams, six Fires Brigades, 10 Combat Support 
Brigades (Maneuver Enhancement), 11 Sustainment Brigades, 12 Aviation 
Brigades, an Aviation Command and three Sustainment Commands. These 
units are identical in structure to those in the active component, and, 
when resourced like their active counterparts, will allow a seamless 
transition between active and reserve forces in combat with minimal 
time required for train up.
    However, to make the Guard's units truly interchangeable, we must 
man them like the active Army, with an overhead allotment for trainees, 
transients, holdees, and students. Otherwise, we are forced to continue 
the debilitating practice of stripping other units of personnel 
whenever we mobilize a unit for war. In the same way, our full-time 
manning levels are also based on a Cold War construct, and assume that 
our units will have ample time to make up for a lack of readiness after 
mobilization. Cold War era manning levels limit the Guard's ability to 
perform as a modern, operational force.
    The National Guard continues to engage with Joint Forces Command 
and the Army to transform the lengthy and redundant mobilization 
process for Army Guard units, one of the last vestiges of our Cold War 
military construct. The no-notice deployment of 50,000 Guard members to 
the Gulf Coast for Hurricane Katrina, as well as the fact that over 
half of all current Army Guard members had been previously mobilized, 
makes the argument for streamlining mobilization more powerful than 
ever before in our 369 year history.
    The Air National Guard will continue to leverage its existing 
capabilities as it evolves to remain a full partner in the Future Total 
Air Force plan. The response to Hurricane Katrina reaffirmed the 
critical need for intra-theater airlift. The unprecedented, timely 
response would have been impossible without the Air Guard's airlift.
    The Base Realignment and Closure process removed the last flying 
unit from some states. Though the Air National Guard is expanding in 
such non-flying missions as intelligence, security police, and unmanned 
aerial vehicles, it is impossible to maintain a healthy, balanced Air 
National Guard structure in any state without some manned aircraft. The 
National Guard Bureau is entrusted to allocate Guard units among the 
states, and working together with the Air Force and Air Force Reserve, 
I will attempt to maintain manned aircraft in every state, territory, 
and the District of Columbia.
    The Air National Guard is at full strength, with retention and 
recruiting programs to fill the ranks. The Army National Guard has 
turned the corner and has begun to increase in strength due to the 
increases in bonuses and the funding of new recruiters authorized by 
Congress in 2004. However, we can do more to strengthen recruiting. 
Historically, Guard units enjoy close camaraderie because they are 
built around a network of Soldiers and Airmen who actively recruit 
their friends and family into their units. We acknowledge and encourage 
this powerful source of strength by promoting both the Guard Recruiting 
Assistance Program (G-RAP) and the ``Every Soldier a Recruiter'' (ESAR) 
initiatives, rewarding Guard members who make the extra effort to bring 
new enlistees into their units and sponsor them through the initial 
entry process.
    Retention of current Guard members, particularly those in units 
returning from overseas, is well above pre-September 11th levels. 
Nevertheless, we must remain aware of the negative impact that our most 
critical need--lack of equipment--has on our ability to recruit and 
retain Soldiers. Morale suffers when Soldiers cannot train for their 
wartime or domestic missions for lack of equipment.
    Our priorities this year to maintain a vibrant, capable and agile 
National Guard are recruiting and retention bonuses and initiatives, 
equipment reset and modernization and obtaining critical domestic 
mission resources. Our nation's future security mandates that the Guard 
continues to transform to meet challenges both at home and abroad.
    Critics maintain that more than four years of continuous service at 
home and abroad have stressed the National Guard to the breaking point. 
I emphatically disagree. Morale in the National Guard is superb. We 
fight a fanatical enemy overseas that has already demonstrated his 
desire to destroy our families and our nation. At home, the gratitude 
our nation displayed to its Army and Air National Guard in the wake of 
hurricanes Katrina and Rita has been invigorating. We understand the 
mission and purpose for which we have been called.
    We have been, and we remain, America's minutemen--Always Ready, 
Always There!

 LIEUTENANT GENERAL CLYDE A. VAUGHN, VICE CHIEF, NATIONAL GUARD BUREAU 
                   AND DIRECTOR, ARMY NATIONAL GUARD
            ``SERVING A NATION AT WAR: AT HOME AND ABROAD''
                       MESSAGE FROM THE DIRECTOR

    During fiscal year 2005, the nation saw Army National Guard 
Soldiers at their best and busiest: fulfilling dual roles as citizens 
and Soldiers and responding frequently to the ``call to duty.'' Our 
Soldiers have been noticeably involved in operations both at home and 
around the world. In Iraq and Afghanistan, they continue to aid in the 
transition and struggle for a healthy democracy. Along the Gulf Coast 
after Hurricanes Katrina and Rita, Soldiers performed thousands of 
rescue and recovery operations. Across the nation, they continue to 
support communities and citizens in need. In fiscal year 2005, the 
National Interagency Fire Center responded to over 54,000 wild land 
fires that threatened over 8 million acres; the National Guard 
participated in a large proportion of these alerts. Citizen-Soldiers 
continued to guard key assets and responded to Governors' requests in 
support of state emergencies.
    Use of Army National Guard units in domestic and foreign 
contingencies continued in record-setting numbers throughout fiscal 
year 2005 with increased participation in areas of military support to 
civilian authorities, state active duty, counterdrug operations, and 
force protection. During Operation Winter Freeze (November 2004 through 
January 2005), the National Guard and active component Title 10 forces, 
in support of the U.S. Border Patrol, prevented illegal alien access 
along a 295-mile stretch of the U.S.-Canadian border. During the 
mission, the National Guard exposed three terrorist smuggling 
organizations.
    Following the best traditions of the Army National Guard, all 54 
states and territories engaged in one or more of the following 
operations: Operation Iraqi Freedom, Operation Enduring Freedom, 
Operation Noble Eagle, Operation Winter Freeze, Operation Unified 
Assistance (Tsunami Relief), Hurricane Recovery Operations for Katrina, 
Rita and Wilma, Stabilization Force Bosnia, Kosovo Force, Horn of 
Africa, Multi-National Force Observers, Guantanamo Bay Operations, 
Force Protection Europe, and numerous other missions. As we enter the 
fifth year of the Global War on Terrorism, we anticipate a slight 
downward trend in Overseas Continental United States (OCONUS) 
operations. We face some critical shortages that must be addressed over 
the coming year to ensure we continue to accomplish our missions.
    This Posture Statement presents an opportunity to detail Army 
National Guard plans to ensure our nation's defense, meet our strategic 
and legislative goals and transform to meet tomorrow's challenges. The 
Chief of the National Guard Bureau established our fiscal year 2006 
priorities to Defend the Homeland, Support the Warfight and 
Transformation for the Future.
    The Army National Guard balances its status as an integral element 
of the United States Army with its duty to serve the Governors and the 
people of our communities. Citizen-Soldiers represent thousands of 
communities across America. These Soldiers bring with them real world 
experience and provide capabilities to address both Homeland Security/
Defense and overseas conflicts.
    The Army National Guard remains committed to completing the 
transformation from strategic reserve to operational force capable of 
both supporting the warfight and serving the Governors. We are able to 
maintain this commitment because of the continued dedication of our 
Soldiers, support from our families and the resources provided by 
Congress.

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 369 YEARS

Prepared and Ready
    The Army National Guard continued to provide forces for domestic 
missions throughout fiscal year 2005, particularly in the areas of 
disaster relief, state active duty, counterdrug operations, and force 
protection. In a major contribution to the Global War on Terrorism, the 
Army National Guard provided key asset protection for much of the 
nation. Readiness concerns such as full-time manning, recruiting, 
retention, and modernizing our ground and air fleets are the top 
priorities for the Army Guard in today's geostrategic environment.
    As the Global War on Terrorism continues, the Army National Guard 
will continue to meet the Army's requirements to protect our national 
interests, prevent future acts of terrorism, and meet Governors' 
requests to respond to state emergencies. However, some critical 
shortages still exist in the Guard structure and impose challenges to 
meet these requirements such as the accurate reporting of readiness.
    The Department of Defense has mandated the use of the Defense 
Readiness Reporting System. This action will impose readiness reporting 
challenges on the Army National Guard as it transitions to meet this 
requirement. This reporting system is a web-based readiness program 
that can provide a real time assessment of a unit's capability to 
execute its wartime or assigned missions. This allows the Office of the 
Secretary of Defense, Combatant Commands, and the Services direct 
access to unit readiness assessments.
Full-Time Support
    Fighting the Global War on Terrorism underscores the vital role 
Full-Time Support personnel hold in preparing Army National Guard units 
for a multitude of missions both at home and abroad. Full-Time Support 
is a critical component for achieving soldier and unit-level readiness. 
Full-time Army National Guard Soldiers maintain responsibility for 
organizing, administering, instructing, training, and recruiting new 
personnel, and maintenance of supplies, equipment, and aircraft. Full-
Time Support personnel are key to a successful transition from 
peacetime to wartime, as well as a critical link to the integration of 
the Army's components: Active, Guard, and Reserve. To meet the 
heightened readiness requirements of an operational force, the Chief, 
National Guard Bureau, in concert with the State Adjutants General, 
placed increasing Full-Time Support authorizations as the number one 
priority for the Army National Guard.
    The current Full-Time Support ramp received approval before 9/11. 
Although this ramp up was a step in the right direction it proved only 
marginally acceptable while the Army National Guard served as a 
strategic reserve. Following 9/11, the Army National Guard converted to 
an operational force mobilizing more than 240,000 Soldiers in support 
of the Global War on Terrorism. At the height of our mobilizations, the 
Army Guard deployed over 9,000 full-time support personnel. With fiscal 
resources only capable of backfilling the Active Guard Reserve at a 1:3 
ratio and the Military Technicians at a 1:5 ratio, the burden on our 
Full-Time Soldiers reached an all time high. As a result, the Army 
National Guard witnessed an increase in the attrition of our full-time 
force by over 40 percent.
    While we made progress in recent years to increase Full-Time 
Support, obstacles remain in obtaining acceptable full-time levels. 
Emerging and expanding Army National Guard missions must receive 
resources above those identified in the Full-Time Support ramp. 
Increased full-time resources are necessary to achieve acceptable unit 
readiness. It is critical we increase Full-Time Support in the near 
term to a minimum of 90 percent of the total validated requirement. 
This increase will ensure the highest levels of Combat Readiness (C1) 
and Personnel Readiness (P1) for Army National Guard units in the 
future.
Protecting the Homeland
    National Guard Soldiers assisted civil authorities, established law 
and order, conducted disaster relief operations, and provided 
humanitarian assistance and force protection after two major hurricanes 
struck the Gulf Coast and flooded the city of New Orleans. The National 
Guard responded by surging more than 50,000 Soldiers and Airmen into 
the areas devastated by the successive impacts of Hurricanes Katrina 
and Rita. These Citizen-Soldiers provided much needed relief to the 
citizens and support to the local authorities. The operation was the 
largest domestic support mission in the nation's history.
Training for the Future
    The Army Guard continued to provide battle focused and mission 
essential training to units preparing to defend the nation. Units 
preparing to deploy to Operations Iraqi Freedom and Enduring Freedom 
and other theaters rotated through the National Training Center, the 
Joint Readiness Training Center, and the Battle Command Training 
Center. Army Guard units also participated in major United States and 
overseas Joint Chiefs of Staff sponsored exercises, domestic support 
operations, conducted overseas deployments for training and operational 
support, as well as performing numerous small unit training exercises.
    The Army National Guard worked with U.S. Army Forces Command and 
Headquarters, Department of the Army in the development of an Army 
Force Generation Model. This model provides predictability of forces 
available and ready for operational deployments. It is also a paradigm 
shift, as it changes unit resourcing from a tiered approach to a time 
sequenced approach based on when a unit is expected to deploy. The Army 
National Guard developed improved training models that increase 
resources and training events to produce readiness leading up to a 
unit's expected deployment availability. This new paradigm also makes 
deployments more predictable for Guard Soldiers, their families and 
employers.
    The training priority for the Army National Guard is preparation of 
combat-ready Soldiers so that lengthy post-mobilization training can be 
avoided. As a result of the increased emphasis on ensuring our Soldiers 
are combat ready, the Army National Guard Duty Military Occupational 
Specialty Qualification rate for fiscal year 2005 was 92.29 percent 
(excluding those Soldiers on their Initial Entry Training). This high 
qualification rate was achieved through the implementation of the 
phased mobilization process. This allowed Army National Guard Soldiers 
who lacked the requisite training to complete their individual training 
while in the early stages of mobilization before they were deployed.
Keeping the Force Strong: Recruiting and Retention
    Recruiting and retention goals have proven to be challenging during 
wartime. The Army Guard increased the numbers of recruiting and 
retention NCOs from 2,700 in fiscal year 2004 to 4,600 by the end of 
fiscal year 2005, an increase of 1,900. The Army Guard plans to add an 
additional 500 in the first quarter of fiscal year 2006 for a total of 
5,100 recruiters. Many steps were taken in 2005 to assist in meeting 
our end strength missions. The Army Guard increased enlistment bonuses 
to $10,000, increased the reenlistment bonus to $15,000, and increased 
the prior service enlistment bonus to $15,000. We also increased 
retention bonuses from $5,000 to $15,000. These steps, as well as an 
increased recruiting and retention force, had positive effects and will 
posture the Army Guard for continued success in the future.
    The Guard Recruiting Assistance Program has produced remarkable 
gains in recruiting for the Army National Guard since its inception as 
a pilot program in late 2005. In its first 60 days, operating in 22 
states, the program has trained more than 19,000 Active Recruiting 
Assistants and is processing more than 6,000 potential soldiers. Over 
1,000 new accessions have already been produced, and the program will 
be expanded to every state by March, 2006. The program is an adaptation 
of our civilian contract recruiting programs that allows the contractor 
to train local recruiting assistants--currently primarily traditional 
Guardsmen--who often serve in the same units and act as sponsors for 
the new recruits.
    The Every Soldier a Recruiter program is a separate brand-new 
congressionally authorized referral program that will reward soldiers, 
including soldiers on active duty and military Technicians, who provide 
quality leads of non-prior service recruits who join the active Army, 
Guard or Army Reserve.
    Congressionally directed end strength for fiscal year 2005 was 
350,000 Soldiers for the Army National Guard. The actual end of year 
strength was 333,177 Soldiers (296,623 enlisted and 36,554 officers). 
Although below the target, we experienced three consecutive months of 
net gains in end strength to finish the year, the first time in 24 
months, and we have thus-far exceeded our goals for fiscal year 2006 in 
each month since the year started. The accession program's goal was 
67,000 Soldiers (63,000 enlisted and 4,000 officers) for fiscal year 
2005. The programmed attrition rate was 18.0 percent, and the non-prior 
service/prior service accession ratio was 60:40. At the end of fiscal 
year 2005, we exceeded our goal for prior service accessions by 104 
percent, but fell short in the non-prior service category by 67 
percent, thus making the actual fiscal year 2005 accession ratio 55:45 
non-prior service/prior service. Command emphasis in the areas of 
attrition and retention kept the loss rate for fiscal year 2005 at 19.1 
percent, slightly above the program goal of 18 percent. Considering the 
unprecedented Army Guard mobilizations and deployments, this was an 
admirable achievement.
    Retention of those already in the Army National Guard was superb. 
The first term Soldier reenlistment goal was 8,945 Soldiers, but 
reenlistments were 9,107 for 101.8 percent of the goal. The Careerist 
Reenlistment goal was 23,626 Soldiers and the actual reenlistments were 
24,697 Soldiers for 104.5 percent of the goal. The overall retention 
achievement for the Army National Guard in fiscal year 2005 was 103.8 
percent.
    The No Validated (No-Val) Pay rate for 2005 was only 1.8 percent. A 
Soldier's name will appear on the non-validated pay report when that 
Soldier fails to attend training and has not been paid within the last 
90 days. The fact that the No-Val rate is at an all-time low 
demonstrates that Soldiers who stay in the Army National Guard value 
their membership and want to remain active participants.
Environmental Programs
    The Army National Guard Environmental Program manages resources to 
foster environmental quality and maintain compliance with all 
applicable federal, state, and local environmental requirements. The 
fiscal year 2005 Environmental, Operations, and Maintenance 
Appropriation was adequate to fully fund all critical environmental 
compliance, conservation, and pollution prevention projects. Fiscal 
year 2005 environmental restoration funding provided to the Army Guard 
was adequate to accomplish minimum essential cleanup requirements.
    Army National Guard training lands are the cornerstone of trained 
and ready Soldiers. Evolving transformation actions require that we 
maximize our maneuver and firing range capabilities over the existing 2 
million acres of Army National Guard training lands and mitigate the 
effects of encroachment from suburban sprawl. Through coordination with 
surrounding communities and the use of legislative authority, the Army 
National Guard was able to partner with private, local and state 
organizations for acquisition of easements to limit incompatible 
development in the vicinity of its installations.

                SUPPORT THE WARFIGHTER ANYTIME, ANYWHERE

The Citizen-Soldier: Defending the Nation
    From July 2002 through September 2005, overall unit readiness 
decreased by 41 percent in order to provide personnel and equipment to 
deploying units. Personnel, training, and on hand equipment decreased 
between 18 and 36 percent while equipment readiness declined by 10.1 
percent during the same period. Despite declines in the areas of 
personnel and equipment due to increased mobilizations, deployments, 
and funding, the Army National Guard met all mission requirements and 
continued to support the Global War on Terrorism. From September 11, 
2001 through September 2005, the Army National Guard deployed over 69 
percent (325,000) of its personnel in support of the Global War on 
Terrorism, homeland defense, and state missions.
Equipping the Force
    The Army National Guard established funding priorities based on the 
Army Chief of Staff's vision for modernizing the total force core 
competencies. The Army National Guard's focus is to organize and equip 
current and new modularized units with the most modern equipment 
available. This modernization ensures our ability to continue support 
of deployments, homeland security and defense efforts while maintaining 
our highest war fighting readiness. Although all shortages are 
important, the Army National Guard is placing special emphasis on 
``dual use'' equipment such as the Family of Medium Tactical Vehicles, 
channel hopping Single Channel Ground and Airborne Radio System 
(SINCGARS), Joint Network Node, and Movement Tracking System. Filling 
these shortages ensures interoperability with the active force and 
increases the Army National Guard's ability to respond to natural 
disasters or in a homeland defense role.
    This requires the Rapid Fielding Initiative to equip our Soldiers 
with the latest gear, such as body armor, night vision devices and 
small arms. Additionally, it requires a steady flow of resources to the 
Army National Guard to mitigate shortages caused by lack of past 
resourcing, force structure changes, and the heightened importance of 
homeland security.
Intelligence Operations
    Army National Guard Military Intelligence units and personnel 
continue to play a vital role in the Global War on Terrorism, and are 
deployed worldwide to support critical tactical, operational, and 
strategic intelligence operations. Army Guard personnel are supporting 
mission critical areas in Human Intelligence, Signal Intelligence, 
Measurement and Signatures Intelligence, Imagery Intelligence and Open 
Source Intelligence. Army National Guard linguists are engaged in 
document exploitation, translation and interpretation within the 
Department of Defense, such as the National Security Agency, as well as 
other federal agencies. More importantly, Army National Guard Military 
Intelligence units are deployed at the tactical level with each Army 
National Guard combat division and brigade providing critical and 
timely intelligence on the battlefield.
Information Operations
    The Army National Guard continues to provide a number of Full 
Spectrum Information Operation Teams in support of a broad range of 
Army missions and contingency operations. Army National Guard 
Information Operations Field Support Teams provide tactical, 
operational and strategic planning capabilities at all echelons of the 
Army. Army Guard Brigade Combat Teams deploy to all theaters with 
organic information operations cells that provide support and 
coordination at all levels of military planning and execution. Army 
Guard Computer Emergency Response Teams and Vulnerability Assessment 
Teams provide technical expertise, information assurance assessments 
and certification compliance inspections of critical Wide Area and 
Local Area networks for Army installations worldwide.
Innovative Readiness Training
    The Innovative Readiness Training program highlights the Citizen-
Soldier's role in support of eligible civilian organizations. This 
program provides real-world, joint training opportunities for Army 
National Guard Soldiers within the United States. The projects provide 
ancillary benefits to the local communities in the form of construction 
projects or medical services to underserved populations.
    More than 7,000 Soldiers and Airmen from across the United States 
and its territories participate annually in Innovative Readiness 
Training sponsored projects. Army National Guard projects include:
  --Operation Alaskan Road, a joint, multi-year fifteen mile road 
        construction project on Annette Island, Alaska
  --Expansion and improvement of the Benedum Airport infrastructure in 
        Clarksburg, West Virginia
  --Task Force Grizzly, Task Force Diamondback and Task Force Lobo 
        continue to improve existing road networks and build barrier 
        fencing in support of the U.S. Border Patrol in California, 
        Arizona and New Mexico
  --The South Carolina Guard's REEFEX project. REEFEX uses 
        decommissioned Army vehicles to create artificial reefs in the 
        Atlantic Ocean off the coast of New England and South Carolina.
Training the Nation's Warfighter
    The Army National Guard's unique condition of limited training 
time, dollars and, in some cases, difficult access to training ranges, 
demands an increased reliance on low cost, small footprint training 
technologies. Quick response by the Army National Guard to our nation's 
missions requires a training strategy that reduces post mobilization 
training time. New virtual technologies and simulators therefore become 
critical tools to help the Army National Guard maintain a ready 
operational force. Some of these training systems are:
  --The Virtual Convoy Operations Trainer. This is a simulation aid 
        specifically adapted for current operations in Iraq and 
        Afghanistan. It is funded with a combination of Congressional 
        add-ons and National Guard Reserve Equipment Appropriation 
        funds. The Army Guard placed 14 trainers under contract and 
        fielded eight in fiscal 2005; the remaining six will be fielded 
        in fiscal year 2006.
  --The Advanced Bradley Full Crew Interactive Skills Trainer virtual 
        gunnery system. This is a low cost, deployable training system 
        that appends directly to the Bradley Fighting Vehicle and 
        enhances home station training in advance of a live fire event.
  --The Engagement Skills Trainer 2000. This system simulates weapons-
        training events. These trainers provide initial and sustainment 
        marksmanship training, static unit collective gunnery tactical 
        training and shoot/don't shoot training. Soldiers use this 
        trainer primarily for multipurpose, multi-lane, small arms, 
        crew-served and individual anti-tank training simulation. The 
        trainer simulates day and night, as well as Nuclear, Biological 
        and Chemical marksmanship and tactical environments.
  --The Laser Marksmanship Training System simulates weapons training 
        events that lead to live fire qualifications for individual and 
        crew served weapons. This system allows the Soldier to use 
        their own personal weapons to conduct individual and 
        sustainment marksmanship training using Nuclear, Biological and 
        Chemical equipment.
  --The eXportable Combat Training Capability. This capability allows 
        us to take the Maneuver Combat Training Center environment to 
        the unit. We are able to tailor this training to meet any 
        operational focus from the conventional warfight to the 
        contemporary operational environment in Iraq and Afghanistan. 
        The eXportable Combat Training Capability, along with 
        traditional Maneuver Combat Training Center rotations, will 
        provide units with ``final exam'' certification as required by 
        the Army Force Generation model prior to deployments.
Information Technology
    The Army National Guard successfully increased the bandwidth and 
provided a secure data link to the Joint Force Headquarters in each of 
the 50 states, Commonwealth of Puerto Rico, two U.S. Territories, and 
the District of Columbia. The Army Guard's modern wide-area network 
provides improved redundancy and increased network security.

  TRANSFORMATION FOR THE 21ST CENTURY: READY, RELIABLE, ESSENTIAL AND 
                               ACCESSIBLE

Ground-based Midcourse Defense
    Defending against ballistic missile attack is a key component of 
the National Security Strategy for Homeland Defense. In the initial 
defensive operations phase, the Army National Guard plays a major role 
in this mission as the force provider for the Ground-based Midcourse 
Defense system. We have assigned Active Guard-Reserve manpower to 
support this new role. The Ballistic Missile Defense program is 
dynamic--undergoing constant refinement and change.
    Soldiers assigned to Ground-based Midcourse Defense perform two 
missions:
  --Federal Military Mission.--The federal military mission is to plan, 
        train, certify, secure, inspect, coordinate, and execute the 
        defense of the United States against strategic ballistic 
        missile attacks by employing this system; and
  --State Military Mission.--In accordance with Title 32, the state 
        military mission is to provide trained and ready units, 
        assigned personnel, and administrative and logistic support.
Logistics and Equipment
    The Army National Guard continues modernization to the digital 
force with the emerging technologies that will dramatically improve 
logistical support for these systems, substantially reduce repair 
times, increase operational readiness rates and eliminate obsolete and 
unsustainable test equipment. Use of these technologies allows the Army 
Guard to operate heavy equipment at a higher operational rate while 
reducing the overall costs for these systems.
    The Army National Guard currently has a significant portion of the 
Army's maintenance infrastructure. This Cold War infrastructure is 
expensive and redundant. Under the Army's new maintenance strategy, the 
Army Guard and other Army elements are consolidating maintenance 
systems. This enhances maintenance and improves efficiency. Army 
maintenance personnel now effectively diagnose and maintain equipment 
at two maintenance levels instead of four.
Personnel Transformation
    The human dimension of Army National Guard transformation is the 
crucial link to the realization of future capabilities and to the 
enhanced effectiveness of current capabilities. Transformation of human 
resource policies, organizations, and systems will enhance Army 
National Guard ability to provide force packages and individuals at the 
right place and time. Future web-based systems will integrate personnel 
and pay, provide accurate human resource information for commanders, 
and give Soldiers direct access to their records. Evolving current 
systems such as Standard Installation Defense Personnel System and the 
Reserve Component Automation System applications extend current 
capabilities and enhance readiness, providing support for development 
of an electronic record brief and automated selection board support.
Aviation Transformation and Modernization
    Army National Guard aviation completed 109 percent of the flying 
hours projected for fiscal year 2005, an average of 9.9 aircrew flying 
hours per month--the highest level since 1996. During fiscal year 2005, 
an average of 307 aircrews were deployed each month in support of 
Operations Noble Eagle, Enduring Freedom, the Balkans (Kosovo Force and 
Stabilization Force Bosnia), and Operation Iraqi Freedom.
    Army National Guard aircrews flew more than 94,000 hours this past 
year in support of the Global War on Terrorism. This is a 58 percent 
increase over fiscal year 2004. More than 245,000 hours were flown in 
support of the Army Guard missions for homeland security, training, 
counterdrug, and combat operations. Despite the fact that 30 percent of 
the Army National Guard aviation force structure was deployed, the Army 
aviation transformation process continued. As aircraft were 
redistributed to modernize units, aircrew qualification and proficiency 
training was accelerated to meet emerging deployments.
    On the home front, the Army National Guard aviation community 
continued to support domestic contingencies by flying over 7,485 
missions, transporting nearly 62,117 civilians to safe havens, and 
transporting Army National Guard Soldiers to hurricane-ravaged zones. 
Support aircraft were flying recovery and relief missions in Louisiana 
within four hours of Katrina's passage. In addition to moving 
approximately 7,300 tons of equipment, food, sandbags, and life saving 
supplies, we rescued almost 16,000 of our citizens during Hurricane 
Katrina and Rita relief and recovery efforts. At the peak of the relief 
and recovery efforts, the Army National Guard had 151 aircraft on 
station supporting Louisiana and Mississippi.
    In Texas after Hurricane Rita, the Army National Guard flew 185 
missions, transported 117 civilian and military personnel, moved 31 
tons of supplies, and conducted 19 rescue or life-saving missions. 
Aviation assets from 28 states rallied to support Louisiana, 
Mississippi, and Texas in their relief and recovery efforts after 
Katrina and Rita. A total of 5,341 flight hours have been flown since 
August 2005.
    The Army National Guard aviation force continues modernizing, but 
at a pace much slower than originally planned by the Army prior to the 
onset of combat operations in Afghanistan and Iraq. Associated aircraft 
losses and the continuing need for more operational aircraft in theater 
slowed aircraft transfers from the active Army. This is especially true 
for the critically needed UH-60-Blackhawk helicopter (the bulk of the 
Army Guard's aviation force). An expanded summation of Army National 
Guard aviation assets and requirements are listed below:
Training in ``One Army''
    Training centers support our ability to conduct performance-
oriented training under real world conditions. The Army National Guard 
modernizes and restructures to effectively meet evolving warfighting 
requirements. We face a number of continuing challenges in sustaining 
power support platforms and modernizing Army National Guard live fire 
ranges and range operations for the Pennsylvania Guard's Stryker 
Brigade Combat Team. The Army National Guard will consolidate range and 
training land investment documentation under the Sustainable Range 
Program.
    The Army National Guard achieves training excellence by leveraging 
Distributed Learning. Distributed Learning improves unit and Soldier 
readiness by increasing access to training resources and reducing 
unnecessary time away from the home station. Interactive Multimedia 
Instruction courseware, satellite programming and distance learning 
offer needed instruction in such areas as Military Occupational Skill 
Qualification reclassification for Soldiers and units.

                                SUMMARY

    The Army National Guard engages in a full spectrum of civil-
military operations. Our Soldiers represent every state, territory, and 
sector of society. Today, they represent their nation serving honorably 
throughout the world. In these critical times, the Army National Guard 
must maintain readiness. A vital part of the Army's force structure, 
the Army Guard remains a community based force committed to engage in 
overseas missions while protecting and serving our cities and towns. 
The Army National Guard proves itself capable of carrying out its goals 
of supporting the Warfight, defending the Homeland and transforming 
into a ready, reliable, essential and accessible force for the 21st 
century.
    The National Guard is foremost a family. This year we remember the 
spirit and sacrifice of Guard families who lost homes and loved ones 
during the Gulf Coast hurricane season. For his selfless service 
responding to Hurricane Katrina, we honor the memory of: Sergeant 
Joshua E. Russell, Detachment 1, Company A, 890th Engineer Battalion.
lieutenant general daniel james iii, vice chief, national guard bureau 

                    AND DIRECTOR, AIR NATIONAL GUARD
                       MESSAGE FROM THE DIRECTOR

    What an incredible year this has been for the nation and the Air 
National Guard! The Air Guard continues to serve with distinction at 
home and abroad. At home, the Hurricane Katrina relief effort brought 
into sharp focus our role as America's Hometown Air Force. We flew over 
3,000 sorties, moved over 30,000 passengers, and hauled over 11,000 
tons of desperately needed supplies. Air Guardsmen saved 1,443 lives--
heroically pulling stranded Americans off rooftops to safety. Air 
National Guard medical units treated over 15,000 patients at eight 
sites along the Gulf Coast, combining expert medical care with 
compassion for our fellow Americans.
    Abroad, the Air Guard brings the will of the American people to the 
Global War on Terrorism. The Air Guard fulfills 34 percent of the Air 
Force's missions on 7 percent of the Air Force's budget, a definite 
bargain in fiscally constrained times. Our contributions over the past 
four years have been tremendous. Since September 11, 2001, we've 
mobilized over 36,000 members and have flown over 206,000 sorties 
accumulating over 620,000 flying hours. One-third of the Air Force 
aircraft in Operation Iraqi Freedom were from the Air Guard. We flew 
100 percent of the Operation Enduring Freedom A-10 missions and 66 
percent of the Iraqi Freedom A-10 taskings. We accomplished 45 percent 
of the F-16 sorties. The A-10s flew more combat missions in the Iraqi 
war than any other weapon system.
    We flew 86 percent of the Operation Iraqi Freedom tanker sorties. 
We accomplished this primarily through the Northeast Tanker Task Force. 
In keeping with our militia spirit, that task force was initially 
manned through volunteerism. A total of 18 units supported it; 15 were 
from the Air National Guard.
    Air National Guard Security Forces were the first security forces 
on the ground in Iraq. Intelligence personnel have been providing 
unique capabilities for Central Command and organizational support for 
the U-2, Predator, and Global Hawk. Medical personnel have been using 
the new Expeditionary Medical Support system capability, providing 
critical care to the warfighter. Civil Engineers have built bare bases 
in the desert and trained Iraqi firefighters while Weather personnel 
worldwide provided over 50 percent of the Army's weather support. 
Financial Management personnel have been diligently working to keep 
benefits moving to our members despite challenging pay, allowance and 
benefit entitlements and complex administration systems. Air National 
Guard Command, Control, Communications and Computer personnel have kept 
vital information flowing on one end of the spectrum and provided 
Ground Theater Air Control System Personnel on the other. And our 
tireless chaplains have been providing outstanding spiritual aid out in 
the field. We have been able to participate at these levels because we 
provide Expeditionary and Homeland Defense capabilities that are 
relevant to the nation.
    Today as we look toward our future relevancy, having proven 
ourselves as indispensable and equal Total Force partners, we have to 
be prepared to transform with the Total Force. We are now in a position 
to make the decisions that will influence our next evolution . . . 
transforming the Air National Guard.
    Some of today's capabilities may not be required in the future. The 
future Air Force will rely heavily on technological advances in space, 
command and control, intelligence and reconnaissance systems, 
information warfare, unmanned aerial vehicles, and the ability to 
conduct high volume and highly accurate attacks with significantly 
fewer platforms. For the Air Guard to remain Total Force partners, we 
have carved out our strategy in those areas and will explore new 
organizational constructs. Among those constructs are various forms of 
integrated units where we can combine individual units with other Air 
Guard units or with another service component. We have to expand our 
capabilities as joint warfighters and make the necessary changes to 
integrate seamlessly into the joint warfighting force. To remain 
relevant we must continue to listen to the messages that are being sent 
today.
    Now is the time for us to lead the way by considering, selecting 
and implementing new concepts and missions that leverage our unique 
strengths to improve Total Force capabilities in support of 
expeditionary roles and homeland defense. This can only be accomplished 
by involving all Air National Guard stakeholders, working toward a 
common goal . . . enhanced capabilities to assure future relevance for 
the Air National Guard.
    By addressing together the complex issues that face us, we will 
keep the Air National Guard ``Ready, Reliable, Essential and 
Accessible--Needed Now and in the Future.''

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 90 YEARS

Air Sovereignty Alert
    Since September 11, 2001, thousands of Air National guardsmen have 
been mobilized to operate alert sites and alert support sites for 
Operation Noble Eagle in support of Homeland Defense. Our Air National 
Guard has partnered with active duty and reserve forces to provide 
Combat Air Patrol, random patrols, and aircraft intercept protection 
for large cities and high-valued assets in response to the increased 
terrorist threat. The Air National Guard has assumed the responsibility 
of all ground alert sites and some irregular Combat Air Patrols 
periods. This partnering agreement maximizes our nation's current 
basing locations and capitalizes on the high experience levels within 
the Air Guard and its professional history in Air Defense operations.
    To continue operations at this indefinite pace has posed some 
unique funding and manning challenges for both the field and 
headquarters staffs. As we move into the fiscal year 2006 Program 
Objective Memoranda exercise, the active Air Force and Air National 
Guard will continue to work towards a permanent solution for our alert 
force and seek ways to incorporate these temporary Continuum of Service 
tours into permanent programs.
Space Operations: Using the Stars to Serve the Community
    For the Air Guard, space operations provide a critical 
communications link to communities throughout the nation in the form of 
satellite support for everyday uses, television, computers, and 
wireless phones, but also serve as an important military deterrence 
from external threats. Colorado's 137th Space Warning Squadron provides 
mobile survivable and endurable missile warning capability to U.S. 
Strategic Command. Recently, Air National Guard units in Wyoming and 
California have come out of conversion to provide operational command 
and control support to Northern Command and to provide round-the-clock 
support to the Milstar satellite constellation. Alaska's 213th Space 
Warning Squadron ensures America's defense against nuclear threat by 
operating one of our nation's Solid State Phased Array Radar that 
provides missile warning and space surveillance.
    The Air Force has approved space missions for the 119th Command and 
Control Squadron in Tennessee to support the U.S. Strategic Command, 
and the 114th Range Flight in Florida is partnered with an active Air 
Force unit performing the Launch Range safety mission. There are future 
plans by the Air Force to transition additional space program missions 
and assets in Alaska and other states to Air National Guard control.

                SUPPORT THE WARFIGHTER ANYTIME, ANYWHERE

    The Air National Guard has been contributing to the Global War on 
Terrorism across the full spectrum of operations. During the peak of 
Operation Iraqi Freedom, we had over 22,000 members mobilized or on 
volunteer status to support the Global War on Terrorism worldwide. In 
Operation Iraqi Freedom we flew 43 percent of the fighter sorties, 86 
percent of the tanker sorties, 66 percent of the A-10s close air 
support sorties and 39 percent of the airlift sorties. At the same time 
we were flying almost 25 percent of the Operation Enduring Freedom 
fighter sorties and over 20 percent of the tanker sorties.
    However, our capabilities do not reside only in aircraft: 15 
percent of our expeditionary combat support was engaged during this 
same period. This includes 60 percent of security forces, many of whom 
were mobilized for the longest duration. Additionally, about 25 percent 
of our intelligence, services and weather personnel were mobilized. 
Logistics and transportation capabilities are vital to homeland defense 
as well as our expeditionary mission.
    Air National Guard men and women are proud to defend and protect 
our nation at home and abroad. Often, however, support equipment 
requirements overseas necessitate that equipment remain in place, 
causing a shortage of equipment for training at home. We are working 
with Air Force and Defense Department leaders to develop a solution.
Medical Service Transformation--Expeditionary Combat Support, Homeland 
        Defense, and Wing Support
    The Air National Guard's Surgeon General led the Air National Guard 
Medical Service through its most revolutionary transformation in 
history by reconfiguring its medical capabilities into Expeditionary 
Medical Support systems. These systems provide highly mobile, 
integrated and multifunctional medical response capabilities. They are 
the lightest, leanest and most rapidly deployable medical platforms 
available to the Air National Guard today. This system is capable of 
simultaneously providing Expeditionary Combat Support to the warfighter 
for Air and Space Expeditionary Force missions, Homeland Defense 
emergency response capabilities to the states and support to the Air 
National Guard Wings.
    The Expeditionary Medical Support capability allowed ten percent of 
Air National Guard medical unit personnel to deploy for Operation Iraqi 
Freedom, compared to only three percent in the early 1990s for 
deployments for Operations Desert Shield and Desert Storm. The U.S. 
Central Command has validated that the Expeditionary Medical Support 
system is a perfect fit for the Chief of Staff, U.S. Air Force Global 
Strike Task Force and Concept of Operations.
    The Expeditionary Medical Support system also plays a critical role 
in Homeland Defense. The Air National Guard Medical Service plays a 
vital role in the development and implementation of the National 
Guard's Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosive Enhanced Response Force Package. This package will provide 
support to state and local emergency responders and improve Weapons of 
Mass Destruction response capabilities in support of the Civil Support 
Teams. The Air National Guard has contributed to the 12 trained CERFP 
teams and will build towards 76 Expeditionary Medical Support teams by 
2011.
    The Guard's short-term objective is to obtain 20 Small Portable 
Expeditionary Aerospace Rapid Response equipment sets, two for each 
Federal Emergency Management Agency region. This would allow for 
additional reachback capability for the Civil Support Teams and the 
states. This has been a prelude to the next step in the Air National 
Guard Medical Service Transformation.
    At Readiness Frontiers, over 100 medical planners received Federal 
Emergency Management Agency training to enhance Air National Guard 
Medical Service responsiveness to homeland disasters. This is the first 
time the medical service has taken on an endeavor of this magnitude and 
allows for future training opportunities in building routine 
relationships with military, federal and civilian response personnel.
    The Air National Guard medical service's new force structure 
provided by the Expeditionary Medical Support system delivers 
standardized and much-improved force health protection, public health, 
agent detection, and health surveillance capabilities to better support 
all Air Guard Wings. This will enhance the protection of the wings' 
resources and improve the medical readiness of its personnel.
Eyes and Ears in the Sky--Air National Guard Intelligence, 
        Surveillance, and Reconnaissance Systems and Support
    The Air National Guard's Intelligence, Surveillance, and 
Reconnaissance personnel and systems play an increasingly important 
role in the defense of our nation. Air Guard men and women are 
essential to support Global Hawk, Predator, and U-2 collection 
missions.
    Due to a significant increase in Air Force mission requirements, 
the Air Guard continues to expand its intelligence collection and 
production capability. The Air Guard has also expanded its imagery 
intelligence capability through the use of Eagle Vision, which is a 
deployable commercial imagery downlink and exploitation system. This 
system provides valuable support to aircrew mission planning and 
targeting, as well as imagery support to natural disasters and 
terrorism.
    Other developing Air Force capabilities entrusted to the Air 
National Guard include the F-16 Theater Airborne Reconnaissance System 
and the C-130 SCATHE VIEW tactical imagery collection system. The 
Theater Airborne Reconnaissance System will be improved to provide 
near-real-time support to warfighter ``kill-chain'' operations in day-
night, all weather conditions. SCATHE VIEW provides a near-real-time 
imaging capability to support humanitarian relief and non-combatant 
evacuation operations. To support signal intelligence collection 
requirements, the Air Guard continues to aggressively upgrade the 
SENIOR SCOUT platform. SENIOR SCOUT remains the primary collection 
asset to support the nation's war on drugs and the Global War on 
Terrorism in the southern hemisphere.
Comprehensive and Realistic Combat Training--An Asymmetric Advantage
    The National Guard Bureau has a fundamental responsibility to 
ensure that the men and women of the Air Guard are properly trained to 
meet the challenges they will face to protect and defend this country. 
This can be done through the effective development and management of 
special use airspace and ranges. To support this training requirement, 
the Air Guard is responsible for 14 air-to-ground bombing ranges, four 
Combat Readiness Training Centers, and the Air Guard Special Use 
Airspace infrastructure.
    To ensure that our units remain ready and relevant, they must have 
access to adequate training airspace and ranges that meet the demands 
of evolving operational requirements. The National and Regional 
Airspace and Range Councils, co-chaired by both the Air Guard and the 
Air Force, continue to identify and resolve airspace and range issues 
that affect combat capability and are engaged with the Federal Aviation 
Administration in the redesign of the National Airspace System.
    The four Combat Readiness Training Centers provide an integrated, 
year-round, realistic training environment (airspace, ranges, systems, 
facilities, and equipment), which enables military units to enhance 
their combat capability at a deployed, combat-oriented operating base 
and provide training opportunities that cannot be effectively 
accomplished at the home station. As such, these centers are ideal 
assets for the Joint National Training Capability. The centers offer an 
effective mix of live, virtual and constructive simulation training. 
The Air National Guard continues to pursue National Training Capability 
certification for these centers and ranges.
    It is imperative to the warfighter that the Air Guard maintains its 
training superiority. As the warfighting transformation and joint 
operational requirements evolve, it is essential that the airspace and 
range infrastructure be available to support that training. There are 
challenges. The Air National Guard has a shortfall in electronic 
warfare training. To keep our Citizen-Airmen trained to the razor's 
edge, we must have the Joint Threat Emitter to simulate the various 
surface to air missile and anti-aircraft artillery threats that any 
future conflict might present.

  TRANSFORMATION FOR THE 21ST CENTURY: RELEVANT NOW . . . AND IN THE 
                                 FUTURE

Supporting a ``Capabilities Based'' Military Force
    The Air National Guard is a solid partner with the Air Force, the 
Air Force Reserve, and the Department of Defense. The Defense 
Department's priority is Transformation . . . and therefore it is the 
priority of the active services and the reserve components.
    The Air Force is pursuing innovative organizational constructs and 
personnel policies to meld the various components into a single, 
unified force. Ongoing shifts in global conflict and U.S. strategy 
suggest an increasing attention to activities such as homeland defense, 
nation-building, and others that may require different mixes of 
capability that are not necessarily resident at sufficient levels in 
the active component. This ``Future Total Force'' integration will 
create efficiencies, cut costs, ensure stability, retain invaluable 
human capital, and, above all, increase our combat capabilities.
    One example of this transformational initiative is the proposed 
movement of Air National Guard manpower to Langley AFB, an active duty 
base, from Richmond, an Air National Guard base, with the intent of 
leveraging the high experience of Guard personnel to improve the combat 
capability for the active force.
    Another transformation effort is to ``integrate,'' where sensible, 
units from two or more components into a single wing with a single 
commander. Active, Guard, and Reserve personnel share the same 
facilities and equipment, and together, execute the same mission. This 
is a level of integration unmatched in any of the Services.
Emerging Missions
    The Air National Guard is working to embed new and innovative 
capabilities into the force. These include: Predator unit equipped and 
associate, Global Hawk, Deployable Ground Stations/Distributed Common 
Ground System, F-15 Aggressor, C-130 Flying Training, Cryptological and 
Linguist Training, Expeditionary Combat Support, as well as support to 
Joint Forces with Battlefield Airmen, Air Operations Centers, 
Warfighting Headquarters, Space Control and Operations.
    On November 25, 2004, the Secretary of the Air Force and Chief of 
Staff of the Air Force outlined a Total Force vision for Air Guard 
Intelligence, Surveillance and Reconnaissance by calling for the 
standup of two MQ-1 Predator flying units in Texas and Arizona by June 
2006 to help fill worldwide Reconnaissance, Surveillance, and Target 
Acquisition requirements. Air Guard Predator operations will first fill 
worldwide theater requirements, but will also likely evolve into 
providing direct defense for the Homeland in conjunction with the 
Department of Homeland Security and U.S. Northern Command.
    Adoption of emerging missions by Air National Guard units promotes 
all three National Guard priorities for the future. The addition of new 
weapons systems to the Air Guard provides essential capabilities that 
enable homeland defense and homeland security missions. New systems 
including RQ/MQ-1 Predator, and RQ-4 Global Hawk, provide intelligence, 
surveillance, and reconnaissance capabilities to Air National Guard 
forces. Other capabilities, such as air operations center support, will 
provide ready experience in planning, command and control, and mission 
leadership that will be invaluable in federal/state mission capable 
units.
Modernizing for the Future
    The Air National Guard modernization program is a capabilities-
based effort to keep the forces in the field relevant, reliable and 
ready for any missions tasked by the state or federal authorities. As a 
framework for prioritization, the modernization program is segmented 
into three time frames: short-term, the current and next year's Defense 
budget; medium-term, out to fiscal year 2015; and long-term, out to 
fiscal year 2025 and beyond.
    The Air National Guard remains an equal partner with the Air and 
Space Expeditionary Forces that are tasked to meet the future 
challenges and missions. Budget constraints require the Air Guard to 
maximize combat capability for every dollar spent. The Air National 
Guard includes all aircraft, ground command and control systems, and 
training and simulation systems in this modernization effort. The 
requirements necessary to focus this effort must be grounded in clearly 
defined combat capabilities and missions.
    The following summarizes the Air National Guard's force posture by 
weapons system:
    The E-8C Joint Surveillance Target Attack Radar System remains a 
highly coveted asset by all combatant commanders. It provides wide 
theater surveillance of ground moving targets operated by the first-
ever blended wing of Air National Guard, Air Force and Army, the 116th 
Air Control Wing, at Robins AFB, Ga. Keeping the system modernized 
while maintaining the current high Operations Tempo in combat theaters 
will be a continuing challenge in the future. The most urgent 
modernization needs for the Joint Surveillance Target Attack Radar 
System include re-engining, radar upgrades, installation of the Traffic 
Alert Collision Avoidance System, and integration of a self-protection 
suite.
    The A-10 remains the only Air Force fighter/attack aircraft 
operating out of Afghanistan today. Six Air Guard squadrons account for 
38 percent of combat-coded A-10s in the Combat Air Force. The A-10 is 
undergoing modification to modernize the cockpit, provide a data link, 
improve targeting pod integration, and add Joint Direct Attack 
Munitions capability. Future improvements to the A-10 include a SATCOM 
radio, an updated Lightweight Airborne Recovery System for combat 
search and rescue missions, and improved threat detection. Recent 
conflicts highlighted a thrust performance deficiency making upgrading 
the TF-34-100A engine a priority.
    Air National Guard F-16s continued to provide crucial combat 
capabilities during 2005 in Operation Iraqi Freedom, Operation Enduring 
Freedom and Operation Noble Eagle. The Block 25/30/32 F-16 continued 
its modernization program by fielding the Commercial Central Interface 
Unit, Color Multi-Function Displays and AIM-9X while pursuing future 
integration of the Radar Modernized Programmable Signal Processor, 
Advanced Identification Friend or Foe, Joint Helmet Mounted Cueing 
System and the smart triple ejector rack. The Block 52 F-16s are nearly 
finished with their Common Configuration Implementation Program that 
brought these systems and LINK16 capabilities to their fleet. Air Guard 
Block 42 F-16s will begin their common configuration upgrades later 
this year.
    The F-15 modernization includes the continued installation of the 
BOL Infrared countermeasures improvements system, continued delivery of 
upgraded engine kits and installation of the Multifunctional 
Information Distribution System Fighter Data Link. The next upgrades 
include the retrofit of a permanent night vision cockpit lighting 
system, continued integration and purchase of the Joint Helmet Mounted 
Cueing System, and the delivery of the replacement Identify Friend or 
Foe system.
    The HC-130 is completing installation of the Forward Looking 
Infrared system, an essential capability during combat rescue 
operations. The HC-130 starts integration and installation of the Large 
Aircraft Infrared Counter Measure system, increasing survivability in 
face of the ever-increasing threat from hand-held missiles.
    The HH-60 program started installation of the new M3M .50 caliber 
door gun, replaced personal equipment for the pararescue jumpers with 
state-of-the-art weapons and technologies. The initiation of the HH-60 
replacement program will begin to slow any further modernization.
    C-130 enhancements included the multi-command Avionics 
Modernization Program which upgraded nearly 500 aircraft to a modern, 
more sustainable cockpit. Additionally, the Air National Guard 
continued acquisition of the AN/APN-241 Low Power Color Radar, 
continued installation of the Night Vision Imaging System, and the Air 
National Guard-driven development of Scathe View to include various 
technological spin-offs having application in a myriad of civilian and 
military efforts. Other Air Guard programs include the AN/AAQ-24 (V) 
Directional Infrared Countermeasures System, propeller upgrades like 
the Electronic Propeller Control System and NP2000 eight-bladed 
propeller, and a second generation, upgraded Modular Airborne Fire 
Fighting System. Additionally, the Air National Guard partnered with 
the Air Force for the first multiyear buy of the new C-130J aircraft to 
replace the aging C-130E fleet.
    The KC-135 weapons system completed the installation of the cockpit 
upgrade and continued the engine upgrades to the R-model. The KC-135 
continued to be the air bridge for the multiple combat deployments 
across the globe. Keeping the aging fleet modernized will continue to 
challenge the Air National Guard as the refueling operations evolve to 
meet the next mission.
    The Air National Guard Modernization Program is key in continuing 
to field a relevant combat capability, ensuring dominance of American 
air power for the next 15 to 20 years. We must sustain an open and 
honest dialogue from the warfighter through Congress, in order to 
maximize the investment of precious and limited resources.
Force Development
    Our personnel are our greatest asset and force multiplier. To 
capitalize on their talents, the Air National Guard has implemented a 
new force development structure to get the right people in the right 
job, at the right time, with the right skills, knowledge and 
experience. We are taking a deliberate approach to develop officers, 
enlisted, and civilians by combining focused assignments with education 
and training opportunities to prepare our people to meet the Air 
National Guard needs. Through targeted education, training, and 
mission-related experience, we will develop professional Airmen into 
joint force warriors with the skills needed across all levels of 
conflict. This is at the ``heart'' of our Officer and Enlisted Force 
Development plans. These plans are a critical communication tool to 
capture the member's ``career'' development ideas, desired career path 
choices, assignment, and developmental education preferences. The 
bottom-line of our Force Development efforts is to provide an effects- 
and competency-based development process by connecting the depth of 
expertise in the individual's primary career field with the appropriate 
education, training, and experience. The desired effect is to produce 
more capable and diversified leaders.
    Recruiting quality applicants and taking care of our people will be 
key in maintaining the end strength numbers needed to accomplish our 
HLD missions, our successful transformation, and our support to the war 
fighter. Air National Guard retention remains at an all-time high. 
However, recruiting is a challenge, as the parents, teachers, and 
counselors now play a larger role in their child's decision to join the 
military. Therefore, the Air National Guard expanded funding of thirty 
eight storefront recruiting offices. These offices offer a less 
imposing sales environment than the traditional flying wing location.
    As part of the Total Force, the Air National Guard realizes it is 
essential that we transform into an effects-based, efficient provider 
of human combat capability for our warfighters, partners, and our 
Nation. Our Vision and Strategic Plan sets the transformational flight-
path for the personnel community in support of the Air Expeditionary 
Force, security for the homeland, our states' missions, and roles in 
the community. Furthermore, we will advance our continued commitment to 
a diverse Air National Guard, not just in gender and ethnicity, but in 
thought, creativity, education, culture, and problem-solving 
capabilities.
Information Networking for the Total Force
    The Air National Guard Enterprise Network is critical to the 
successful transmission of information within a unit, between units, 
and among the various states. We are making progress towards 
modernizing our nationwide information technology network that serves a 
vital role in homeland security and national defense. A healthy and 
robust network for reliable, available and secure information 
technology is essential to federal and state authorities in their 
ability to exercise command and control of information resources that 
potentially could impact their various constituencies.
    Greater emphasis must be placed on maturing the Air National Guard 
Enterprise Network. The rapidly changing hardware and software 
requirements of our warfighting and combat support functions come with 
a significant cost to upgrade and maintain a fully capable Information 
Technology network. The Air Guard network has typically been supported 
at the same level it was during the 1990s. Without a significant 
infusion of resources to acquire new technology, our ability to 
accomplish other missions will suffer. Modernization of the Air 
National Guard Enterprise Network will enhance interoperability with 
other federal and state agencies.

                                SUMMARY

    The Air National Guard will continue to defend the nation in the 
War on Terrorism while transforming for the future. We will do this 
across the full spectrum of operations in both the Expeditionary and 
Homeland Defense missions. The Air National Guard will also continue to 
draw upon our militia culture and linkage to the community as we 
execute our multiple missions and roles. The men and women of the Air 
Guard are currently serving proudly in the far corners of the globe--
and here at home--and will continue to do so with distinction.
    Today's guardsmen and women are your doctors, lawyers, police 
officers, cooks, teachers, and factory workers, white and blue-collar 
workers. They are your civilians in peace; Airmen in war--we guard 
America's skies.

MAJOR GENERAL TERRY L. SCHERLING, DIRECTOR OF THE JOINT STAFF NATIONAL 
                              GUARD BUREAU

                          JOINT STAFF OVERVIEW

    During 2005, the National Guard's pursuit of mission objectives 
once again proved to be a remarkable accomplishment. Support for 
Homeland Defense, the Warfighter, and Transformation guided our 
ambitious initiatives to serve our nation and our communities over the 
entire spectrum of domestic and overseas operations.
    Although the National Guard continued to be essential to our 
nation's success in Operations Enduring Freedom and Iraqi Freedom, 
Guard support to the warfight is not limited to our role on the 
battlefield. We demonstrate our ability to support the warfight 
anytime, anywhere, through dynamic evolutions to our State Partnership 
Program, Family Programs, and Employer Support of the Guard and Reserve 
Program. Our State Partnership Program supports homeland security by 
helping to develop dependable collaborative partners for the United 
States. Since our last posture statement, we accomplished 425 events 
between partner states and foreign nations, and added two new 
partnerships: Rhode Island with the Bahamas and Ohio with Serbia and 
Montenegro. We expect to add another six partnerships in fiscal year 
2007. Not since World War II have so many Guard members been deployed 
to so many places for such extended periods. Our Family and Employer 
Support programs continue to serve as a foundation to provide relevant 
and consistent support to our Soldiers, Airmen, families, employers, 
and communities during all phases of the deployment process.
    Our progress in homeland defense may be even more remarkable. More 
than 2,500 National Guard members provided consistent and reliable 
counterdrug support to the nation's law enforcement agencies. 
Initiatives are underway to leverage our 16 years of counterdrug 
experience and apply it to overseas drug trafficking problems in the 
Middle East. In addition to noted successes in our counterdrug program, 
we have continued to enhance all of our homeland defense capabilities. 
The Department of Defense acknowledged our Mission Assurance Assessment 
as essential to protect the nation's critical infrastructure. Our 
Weapons of Mass Destruction Civil Support Teams, recognized for their 
specialized expertise and rapid response times, have been expanded to 
55 full-time teams across the nation. We are now focusing on our 12 
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
Enhanced Response Force Packages as critical assets to the national 
response for the Global War on Terrorism.
    These and other National Guard capabilities were brought to bear 
frequently in 2005 in support of civil authorities by responding to 
national events, floods, wildfires, hurricanes and more. During the 
record 2005-hurricane season, the National Guard deployed over 50,000 
members in response to Hurricane Katrina alone, saving over 17,000 
lives, providing millions of meals and liters of water, and ensuring 
safety and security to numerous communities. Some regarded our response 
as one of our ``finest hours.''
    Yet, we have never rested on our laurels. We continue to transform. 
The Joint Combined State Strategic Plan is aiding our ability to plan 
for domestic operations, helping the National Guard, state governors, 
and U.S. Combatant Commanders assess force capabilities for HLS and 
HLD. The Department of Defense National Security Personnel System will 
apply to the 50,000-member National Guard Military Technician 
workforce, transforming the way our civilian personnel system works. We 
implemented the Joint Continental United States Communication Support 
Environment to address requirements for collaborative information 
sharing and other Command, Control, Communications, and Computer 
capabilities that can support HLS and HLD stakeholders. Our Joint 
Training Centers continue to evolve through continuous and in-depth 
analysis of lessons learned and homeland security training 
requirements.
    This past year the National Guard provided a remarkable 
demonstration of how effectively we can and do execute our state and 
federal missions simultaneously. The National Guard is always ready, 
always there.

                   HOMELAND DEFENSE: HERE AND ABROAD

    ``In times of crisis, our nation depends on the courage and 
determination of the Guard.''    President Bush, August 2005.
National Guard Reaction Force
    The National Guard has over 369 years of experience in responding 
to both the federal government's warfighting requirements, and the 
needs of the states to protect critical infrastructure and ensure the 
safety of our local communities. To improve the capability of the 
states to rapidly respond to threats against the critical 
infrastructure within our borders, the Chief of the National Guard 
Bureau has asked the Adjutants General of the states, territories and 
Commanding General, District of Columbia to identify and develop a 
Rapid Reaction Force capability. The goal is a trained and ready 
National Guard force available to the governor on short notice, capable 
of responding in support of local and state governments and, when 
required, the Department of Defense. The National Guard Bureau is 
working with both Northern and Pacific commands to ensure that National 
Guard capabilities are understood and incorporated into their response 
plans.
Critical Infrastructure Program--Mission Assurance Assessment (MAA)
    During the past year, the National Guard provided support to the 
country by responding to severe weather, wild fires, several National 
Special Security Events and Hurricanes Katrina and Rita. The year's 
events also guided the National Guard's preparations to implement MAA. 
This is a National Guard Homeland Defense prototype program in which 
teams of National Guard Soldiers or Airmen are trained to conduct 
vulnerability assessments of Department of Defense critical 
infrastructure in order to prevent or deter attacks and plan emergency 
response in case of a terrorist attack or natural disaster. The program 
is designed to educate civilian agencies in basic force protection and 
emergency response; develop relationships between first responders, 
owners of critical infrastructure, and National Guard planners in the 
states; and to deploy traditional National Guard forces in a timely 
fashion to protect the nation's critical infrastructure. In developing 
this concept, National Guard Bureau has worked with the Office of the 
Assistant Secretary of Defense for Homeland Defense and the Joint Staff 
to establish policies and standards. During 2005, the National Guard 
trained six Critical Infrastructure Program--Mission Assurance 
Assessment Detachments to conduct vulnerability assessments. The 
National Guard plans to train four additional detachments in 2006 to 
cover the four remaining Federal Emergency Management Agency Regions. 
The MAA teams' pre-crisis preparatory work facilitates the National 
Guard in continuing its time-honored tradition of preventing attacks, 
protecting and responding when necessary in defense of America at a 
moment's notice.
Support to Civil Authorities
    In 2005, the National Guard provided unprecedented support to 
federal, state, and local authorities, providing assistance during 
natural and manmade disasters, and supporting HLS and HLD operations. 
National Guard forces performed HLS missions protecting airports, 
nuclear power plants, domestic water supplies, bridges, tunnels, 
military assets and more. By the end of the year, the Guard expended 
over one million man-days of support in assistance to civilian 
authorities at the local, state and federal level.
    Hurricanes Katrina and Rita and, to a lesser degree, Wilma, 
affected states across the South. The National Guard provided 
assistance in the form of humanitarian relief operations that included 
construction, security, communications, aviation, medical, 
transportation, law enforcement support, lodging, search and rescue, 
debris removal, and relief supply distribution. Liaison officers sent 
to the affected areas assisted with coordination of air and ground 
transportation ensuring expeditious delivery of desperately needed 
equipment and supplies. Working closely with the governors of the 
affected states and the Federal Emergency Management Agency, the Guard 
proved instrumental in providing support to the beleaguered citizens 
and in reestablishing security of the affected areas.
Weapons of Mass Destruction Civil Support Teams
    Eleven additional National Guard Weapons of Mass Destruction Civil 
Support Teams (CST) were authorized in 2005, enhancing our ability to 
respond to chemical, biological, radiological, nuclear, and high-yield 
explosive events. There are now 55 authorized teams. Since September 
11, 2001 the 34 existing certified teams have been fully engaged in 
planning, training, and operations in support of local and state 
emergency responders. The remaining 21 teams are progressing rapidly 
toward certification. These are highly trained and skilled, full-time 
teams, established to provide specialized expertise and technical 
assistance to an incident commander.
    Their role in support of the incident commander is to ``assess, 
assist, advise, and facilitate follow-on forces.'' State governors, 
through their respective Adjutant General, have operational command and 
control of the teams. The National Guard Bureau provides logistical 
support, standardized operational procedures, and operational 
coordination to facilitate the employment of the teams and ensure back-
up capability to states currently without a certified team.
    2005 was a busy operational year for our teams. They assisted 
emergency responders throughout the country. 18 CSTs provided personnel 
and equipment that were vital to the National Guard response to 
Hurricanes Katrina and Rita. These teams conducted assessments of 
contamination levels remaining after the floodwaters receded. They 
provided critical communications and consequence management support to 
local, state, and federal agencies. Most importantly, they provided 
advice and assistance to the local incident commanders that 
dramatically impacted the recovery effort.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        Enhanced Response Force Package
    To enhance the chemical, biological, radiological, nuclear, and 
high-yield explosive response capability of the National Guard, 12 
States were selected to establish a task force comprised of existing 
Army and Air National Guard units, with Congress authorizing an 
additional five in the fiscal year 2006 Defense Appropriation. The task 
force is designed to provide a regional capability to locate and 
extract victims from a contaminated environment, perform medical triage 
and treatment, and conduct personnel decontamination in response to a 
weapon of mass destruction event. The units that form these task forces 
are provided additional equipment and specialized training, which allow 
the Soldiers and Airmen to operate in a weapon of mass destruction 
environment. Known as a chemical, biological, radiological, nuclear, 
and high-yield explosive Enhanced Response Force Package (CERFP), each 
task force operates within the Incident Command System and provides 
support when requested through the Emergency Management System. Each 
task force works in coordination with U.S. Northern Command, U.S. 
Pacific Command and other military forces and commands as part of the 
overall national response of local, state, and federal assets. Each 
CERFP has a regional responsibility as well as the capability to 
respond to major chemical, biological, radiological, nuclear, and high-
yield explosive incidents anywhere within the United States or 
worldwide as directed by national command authorities. This capability 
augments the CST and provides a task force-oriented structure that will 
respond to an incident on short notice. While the exact numbers are not 
known, it is estimated that the Texas National Guard CERFP medical 
element treated over 14,000 patients from Hurricanes Katrina and Rita 
through late September.
    During 2005, 11 of the 12 teams completed National Fire Protection 
Association certified specialized training in confined space/collapsed 
structure operations. The twelfth is projected to complete search and 
extraction training during 2006.
National Special Security Events
    The Department of Homeland Security designates certain high-
visibility events that require an increased security presence as 
National Security Special Events. In 2004 and 2005, the G8 Summit, the 
Democratic National Convention, the Republican National Convention, 
President Ronald Reagan's funeral, and the Presidential Inauguration 
received such designation.
    The National Guard Bureau Joint Intelligence Division, in 
coordination with the Joint Force Headquarters--State intelligence 
offices, provided support to each event. Support missions included 
traffic control-point operations, a civil disturbance reaction force, 
aviation and medical evacuation support, a chemical support team, and 
support to the District of Columbia Metropolitan Police Department and 
the U.S. Secret Service for crowd screening. Army and Air National 
Guard personnel from several surrounding States were employed for these 
missions.
Intelligence for Homeland Security
    The National Guard Bureau has honed partnerships with U.S. Northern 
Command, Department of Homeland Security, Joint Force Headquarters--
State, and national agencies to enhance information sharing. We are 
aggressively engaged in seeking creative ways for the National Guard's 
joint structure's capabilities to support U.S. Northern Command's 
requirements for situational awareness of homeland security activities 
within the 54 states, territories, and District of Columbia. As part of 
the homeland security effort, the National Guard Bureau is exploring 
working relationships with federal agencies such as the Defense 
Intelligence Agency, National Reconnaissance Office, National Security 
Agency, Federal Bureau of Investigation, and National Geospatial 
Intelligence Agency.

                SUPPORT THE WARFIGHTER ANYTIME, ANYWHERE

State Partnership Program
    The State Partnership Program is the National Guard's preeminent 
activity supporting Regional Combatant Commanders' Theater Security 
Cooperation. This program demonstrates the distinct role and capability 
a citizen-militia can provide a country's civilian leadership to 
transform their military and society. The program partners U.S. states 
with foreign nations to promote and enhance bilateral relations. It 
supports Homeland Defense by nurturing dependable collaborative 
partners for coalition operations in support of Secretary Rumsfeld's 
Concepts of Global Engagement and the Global War on Terrorism.
    The program reflects an evolving international affairs mission for 
the National Guard. It promotes regional stability and civil-military 
relationships in support of U.S. policy objectives. State partners 
actively participate in many and varied engagement activities including 
bilateral familiarization and training events, exercises, fellowship-
style internships and civic leader visits. All activities are 
coordinated through the theater Combatant Commanders and the U.S. 
ambassadors' country teams, and other agencies as appropriate, to 
ensure that National Guard support meets both U.S. and country 
objectives. Since our last Posture Statement, there have been over 425 
events involving U.S. states and their foreign partners.
    Since the last Posture Statement, two new partnerships were 
formed--Rhode Island/Bahamas and Ohio/Serbia and Montenegro. Nigeria 
has formally requested a partnership. Identification of a partner state 
is in progress. Several countries have initiated the formal process of 
requesting a partnership.
    This program is challenged to adapt to rapidly changing 
international conditions and events. Mature partnerships demand careful 
consideration of the appropriate partnership role and mission. The 
program's expansion in emerging geographic regions will require 
insightful selection of partner states, roles and missions and the 
appropriate path to promote political, military and social stability in 
partner countries while making the best use of National Guard 
resources. Expansion and integration in the Horn of Africa and the 
Pacific Rim are areas of challenge for our program. An ongoing 
challenge is to ensure states receive optimal support and the partner 
countries reap the greatest benefit.
    NGB is working to establish and formalize Foreign Affairs and 
Bilateral Affairs Officer positions and training with the services and 
the combatant commanders, Ambassadors and partner countries. These are 
vital initiatives to support expansion of the roles and missions of the 
program.
    In fiscal year 2007 and beyond, working with the geographic 
combatant commanders, we expect to take the program to the next level 
of security cooperation. We look for increased interaction at the 
action officer/troop level. The partner countries are looking for more 
hands on engagement events, unit exchanges, and exercises as well as 
working with their partner states during actual operations. A prime 
example is the liaison support given by Alaska to their partner state, 
Mongolia, when they deployed troops to Iraq. The National Guard seeks 
to satisfy this desire for deeper relationships while increasing the 
number of partnerships. In 2007, we can potentially add six 
partnerships.
National Guard Family Program
    The National Guard Bureau Family Program is a Joint Force 
initiative that serves as the foundation for support to Army and Air 
National Guard family members. As the Guard faces an unprecedented 
increase in military activity and extended deployments, the highest 
priority of the National Guard Family Program is to provide families 
with the assistance to cope with mobilization, deployment, reunion, and 
reintegration.
    Not since World War II have so many Guard members been deployed to 
so many places for such extended periods. The role and support of the 
family is critical to success with these missions. The National Guard 
Family Program developed an extensive infrastructure to support and 
assist families during all phases of the deployment process. There are 
more than 400 National Guard Family Assistance Centers located 
throughout the 54 states, territories and the District of Columbia. 
These centers provide information, referral, and assistance with 
anything that families need during a deployment. Most importantly, 
these centers and these services are also available to any military 
family member from any branch or component of the Armed Forces.
    The State Family Program Directors and Air Guard Wing Family 
Program coordinators are the program's primary resources for providing 
on-the-ground family readiness support to commanders, Soldiers, Airmen, 
and their families. The National Guard Bureau Family Program office 
provides support to program directors and coordinators through 
information-sharing, training, volunteer management, workshops, 
newsletters, family events, and youth development programs, among other 
services. To enhance this support, the National Guard Family Program, 
through the Outreach and Partnership program, is leveraging federal, 
state, and local government agency resources and forming strategic 
partnerships with veteran, volunteer, and private organizations.
    The greatest challenge lies in awareness and communication. The 
feedback we receive indicates that many family members are unaware of 
the many resources available to them during a period of active duty or 
deployment. Our primary goals are to increase the level of awareness 
and participation with existing family resources, and to improve 
overall mission readiness and retention by giving our warfighters the 
peace of mind of knowing that their families are well cared for.
Veterans' Affairs
    Sustained mobilization of the National Guard since 9/11 has 
resulted in a larger number of Guard members eligible for entitlements 
available through the Department of Veterans Affairs. Last year, the 
Chief of the National Guard Bureau, the Department of Veterans Affairs 
Under Secretary for Health and Under Secretary for Benefits signed a 
memorandum of agreement to establish a Veterans Affairs program to 
improve the delivery of benefits to returning Soldiers and ensure a 
seamless transition to veteran status. The agreement resulted in the 
appointment of a permanent liaison at the National Guard Bureau and at 
the Department of Veterans Affairs, and assignment of a state benefits 
advisor in each of the 54 Joint Force Headquarters--State. The benefits 
advisors coordinate the entitlement needs of members at the state level 
with the Department of Veterans Affairs, other veterans' service 
organizations and community representatives. This new program builds 
upon the strength and success of the National Guard Family Program and 
capitalizes on the services already provided by the Department of 
Defense.
Employer Support of the Guard and Reserve
    The National Guard and Reserve continue to be full partners in a 
fully integrated Total Force. This means our National Guard and Reserve 
service members will spend more time away from the workplace defending 
and preserving our nation. Employers have become inextricably linked to 
a strong national defense as they share this precious manpower 
resource. The basic mission of the Employer Support of the Guard and 
Reserve (ESGR) program is to gain and maintain support from all public 
and private employers for the men and women of the National Guard and 
Reserve.
    A nationwide network of local employer support volunteers is 
organized into ESGR committees within each state, the District of 
Columbia, Guam, Puerto Rico and the Virgin Islands. In this way, 
employer support programs are available to all employers, large and 
small, in cities and towns throughout our country. Today, nearly 3,000 
volunteers serve on local ESGR committees. With resources and support 
provided by the national office and the National Guard Bureau, the 54 
ESGR committees conduct Employer Support and Outreach programs, 
including information opportunities for employers, ombudsman services, 
and recognition of employers whose human resource policies support and 
encourage participation in the National Guard and Reserve. In view of 
the importance of employer support to the retention of quality men and 
women in the National Guard and Reserve, and in recognition of the 
critical contributions from local committees, the National Guard Bureau 
provides full time assistance and liaison support to the Joint Forces 
Headquarters--State and the 54 ESGR committees.
    The National Guard Bureau remains committed to the development of 
strategic partnerships with government agencies, veterans service 
organizations and public sector employers to ensure employment 
opportunities for our redeploying service members with an emphasis on 
our disabled veterans. One of the most important tasks our country 
faces is ensuring that our men and women in uniform are fully 
integrated into the civilian workforce when they return from service to 
our country.
Youth ChalleNGe Program
    The award-winning National Guard Youth ChalleNGe Program is a 
community-based program that leads trains and mentors at-risk youth at 
30 program sites throughout the country to become productive citizens 
in America's future. As the second largest mentoring program in the 
nation, the ChalleNGe program is coeducational and consists of a five-
month ``quasi-military'' residential phase and a one-year post-
residential mentoring phase. A cadet must be a volunteer, between 16 
and 18 years of age, drug free, not in trouble with the law, unemployed 
or a high school dropout.
    The program has served as a national model since 1993 and the 25 
states and the Commonwealth of Puerto Rico that offer the program 
graduated more than 55,800 young men and women. Participants graduate 
from the program equipped with the values, skills, education, and self-
discipline necessary to succeed as adults in society. Significantly, 
although many ChalleNGe candidates are from at-risk populations, over 
70 percent of ChalleNGe graduates have attained either a General 
Equivalency Diploma or a high school diploma. Furthermore, 
approximately 20 percent of all graduates choose to enter military 
service upon graduation.
The National Guard Counterdrug Program
    For over 16 years, the National Guard Counterdrug program has 
assisted more than 5,000 law enforcement agencies in protecting the 
American homeland from significant national security threats. The 
Guard's operations assist these agencies in obstructing the 
importation, manufacture, and distribution of illegal drugs; and by 
supporting community based drug demand reduction programs. The program 
also supports the U.S. Northern and Southern Command combatant 
commanders. Given the growing link between drugs and terrorism, the 
National Guard's program continues to complement America's homeland 
security efforts. Although primarily a domestic program, initiatives 
are underway to leverage the National Guard's years of domestic 
counterdrug experience and apply it to overseas drug trafficking 
problems in the Middle East.
    This National Guard Bureau program, as executed by the 54 states 
and territories, through their respective governors' Counterdrug plan, 
supports the Office of National Drug Control Policy strategies. Support 
for these strategies is embedded within six general mission categories 
including: program management; technical support; general support; 
counterdrug related training; reconnaissance and observation; and drug 
demand reduction support. In 2005, approximately 2,475 National Guard 
personnel provided counterdrug support to law enforcement agencies and 
continued to remain ready, reliable, and relevant for their wartime 
mission by actively participating in their unit of assignment through 
weekend drill, annual training, and individual Soldier and Airman 
professional development.
    In fiscal year 2005, National Guard support efforts led to 61,125 
arrests and assisted law enforcement agencies in seizing nearly 2.4 
million pounds of illegal drugs, eradicating over two million marijuana 
plants, and confiscating over 4.5 million pills. Also, as a result of 
this joint effort, 11,490 weapons, 4,357 vehicles and more than $213 
million in cash were seized.
    In addition to counterdrug support operations, Air and Army 
National Guard aviation assets supported HLD and HLS operations as part 
of a joint task force along the northern border during Operation Winter 
Freeze. The success of that operation was to a great degree directly 
related to the program personnel's long-standing experience with law 
enforcement agencies.
    During rescue and recovery operations in support of Hurricane 
Katrina, our program played a major role. Thirty-five aircraft deployed 
to the Gulf Coast from 25 different states. These aircraft performed 
search and rescue operations and providing valuable photographic and 
infrared reconnaissance to assist officials in determining damage 
levels of the levees and the surrounding communities. In addition, the 
program organized Task Force Counterdrug Light Assault Vehicle, a task 
force comprised National Guard Soldiers and Airmen with Light Assault 
Vehicles from Nebraska, Oregon, California, Tennessee, and Michigan. 
These vehicles, which have an amphibious capability not commonly found 
in Guard units but critically needed in the flooding following Katrina, 
logged more than 800 hours and 6,000 miles and performed over 600 
rescues.

                  TRANSFORMATION FOR THE 21ST CENTURY

Transformation to a Joint National Guard Bureau
    The National Guard Bureau crafts the strategies that will result in 
the implementation of the Secretary of Defense's guidance to improve 
National Guard relevancy and support to the War on Terrorism, Homeland 
Defense and Homeland Security. The National Guard Bureau has presented 
an updated concept and implementation plan to achieve formal 
recognition as a joint activity of the Department of Defense to the 
services, a step that would formally establish the National Guard 
Bureau as the Joint National Guard Bureau.
Joint Force Headquarters--State
    The Joint Force Headquarters--State were established 
(provisionally) in October, 2003 in each of the 50 states, the 
Commonwealth of Puerto Rico, two U.S. Territories and the District of 
Columbia, to reorganize the previously separate Army National Guard and 
Air National Guard headquarters into a joint activity that exercises 
command and control over all assigned, attached or operationally 
aligned forces. These were formed in compliance with guidance from the 
Secretary of Defense to forge new relationships that are more relevant 
to the current environment between National Guard Bureau, the Office of 
the Secretary of Defense and the Joint Staff with a primary focus on 
improving Department of Defense access to National Guard capabilities. 
The Services and the Director of the Joint Chiefs of Staff have 
formerly approved the mission statement, and a Joint Operations Center 
is now operating 24 hours a day, 365 days a year, in each Joint Force 
Headquarters--State.
    All Joint Force Headquarters--State were directly involved in 
coordinating support for various disasters and emergencies this year to 
include the recovery efforts following the 2005 Gulf Coast hurricanes. 
Progress continues toward the goal of 54 fully operational Joint Force 
Headquarters--State by September of 2006. ``Core'' Joint Mission 
Essential Task Lists were customized to the task conditions and 
standards necessary for each particular state, approved by the 
respective Adjutant General, and loaded into the Joint Force 
Headquarters--State Joint Training Plan. Draft Joint Training Plans are 
complete for all Joint Force Headquarters--State to plan for, and 
capture, joint training during exercises and real-world events. Many of 
these headquarters' have already participated in Vigilant Shield and 
Vigilant Guard homeland defense exercises. The remaining states are 
scheduled for these exercises in 2006-2007.
Joint Combined State Strategic Plan
    The Joint Combined State Strategic Plan is designed to categorize, 
assess, and forecast future capabilities to support Joint Domestic 
National Guard operations by providing the ability to track and assess 
ten joint core capabilities needed to support Homeland Defense and 
Homeland Security. They are: command and control, Civil Support Teams, 
maintenance, aviation/airlift, engineer, medical, communications, 
transportation, security, and logistics. This plan serves as both a 
strategic tool and as an operational planning tool for the governor and 
U.S. combatant commands. This program's potential for future 
development coupled with its ability to track these vital competencies 
makes the plan a decisive tool for continuing transformation of the 
National Guard.
    Recent Hurricane Katrina relief efforts highlight the importance of 
having this information readily available. The National Guard was able 
to identify and mobilize units based on current availability and 
specific functional capability. In addition, individual states have 
used the state based joint combined strategic plan to render support to 
civil authorities during life threatening snowstorms and severe 
flooding this past winter. As a dynamic program, the plan is undergoing 
initiative enhancements to enable identification of additional, 
individual state-specific capabilities. This will allow for tracking 
specific situational response capabilities to hurricanes, tornadoes, 
floods, mass casualties, and fires among others at the state and 
regional level.
Joint Continental United States (CONUS) Communications Support 
        Environment (JCCSE)
    U.S. Northern Command and the National Guard Bureau jointly 
developed the JCCSE construct to address requirements for collaborative 
information sharing and other command, control, communications, and 
computer (C4) systems capabilities in the post 9/11 Homeland Defense 
and Defense Support to Civil mission environment. The detailed, long-
term vision for the JCCSE is outlined in the joint U.S. Northern 
Command and National Guard Bureau document, Joint CONUS Communications 
Support Environment (JCCSE) Concept for Joint C4, October 15, 2005, 
which defines JCCSE as, ``. . . the vital organizations and net-centric 
information technology capabilities required by the National Guard to 
support U.S. Northern Command, U.S. Pacific Command, U.S. Strategic 
Command, U.S. Joint Forces Command, and other DOD and non-DOD partners 
by extending interagency and intergovernmental trusted information 
sharing and collaboration capabilities from the national level to the 
state and territory and local levels, and to any incident site 
throughout the United States and its territories.''
    JCCSE is an umbrella construct that involves organizational and 
process development as well as requisite supporting enhancements to 
existing National Guard information technology capabilities. Due to the 
ongoing threats to the U.S. homeland in the post 9/11 environment, NGB 
took preemptive action to establish initial capabilities--the Interim 
Satellite Incident Site Communications Set (ISISCS)--that are 
geographically dispersed throughout the CONUS, as well as Hawaii, and 
have proven invaluable in real world operations in support of 
Department of Defense security missions and for disaster response 
operations related to Hurricanes Ivan, Katrina, and Rita. When fully 
implemented, JCCSE will provide robust state-federal net work 
connectivity as well as national level management and integration of 
long haul, tactical, and other DOD capabilities related to C4 systems. 
JCCSE will provide U.S. Northern and U.S. Pacific Commands, NGB, and 
the 54 Joint Force Headquarters--State with connectivity to any task 
force headquarters location, staging area, or incident site. JCCSE will 
be a major step forward in sharing information among federal, state, 
local, tribal, private sector, and non-governmental entities for 
incidents occurring in the states and territories related to HLD/DSCA 
mission taskings, major disasters or emergencies, and catastrophic 
incidents.
Open Source Information System
    The Open Source Information System is a Virtual Private Network 
used for open source research and sharing of unclassified, but 
sensitive, information between the National Guard Bureau and all 54 
Joint Force Headquarters--State, as well as other federal and DOD 
agencies. This system provides sensitive community-based, law-
enforcement information at the lowest possible cost. The project is 
demonstrating the significant value-added concept of sharing installed 
technology with communities.
    The National Guard Bureau, in partnership with the Army's Foreign 
Military Studies Office at Fort Leavenworth, Kansas, has developed 
training on the use of the Open Source Information System as well as 
open source information research skills and methodologies. This effort 
will provide the necessary tools for research and information sharing 
at the unclassified level to ensure interoperability, reliability, 
efficiency, operations security and economies of scale.
Homeland Security Joint Interagency Training Centers
    The Joint Force Headquarters of each state must possess the ability 
to establish one or more Joint Task Forces to support homeland defense. 
Additionally, as a result of legislation enacted in 2004, the legal 
authority exists to establish a Joint Task Force within each state 
composed of both National Guard members in non-federal status and 
active component military personnel. In order to better prepare 
National Guard leaders for the challenges of ``dual-status'' Joint Task 
Force command, the National Guard Bureau developed and implemented a 
formal training program for senior leaders from every state and 
territory. The dual-status Joint Task Force commander is a 
transformational concept that leverages the unique capabilities 
resident in the total force and strengthens unity of command in support 
of the homeland defense mission.
    National Guard Joint Interagency Training Centers were established 
in October 2004 at Camp Dawson, West Virginia and in San Diego, 
California. During fiscal year 2005, over 5,000 students from the 
National Guard and its interagency partners attended training at the 
centers. These training facilities conduct individual or collective 
training and educate Department of Defense entities and federal, state, 
and local authorities. The centers teach specialized courses in 
Incident Management, Continuity of Government/Continuity of Operations 
and Vulnerability Assessment. Areas of emphasis included protecting the 
domestic population, U.S. territory, and critical infrastructure 
against threats and aggression.
    These centers provide homeland security training development and 
delivery, and work to ensure training availability, quality, and 
standardization. They serve the homeland security training needs of 
National Guard units, specifically those with Homeland Defense, Civil 
Support, and Emergency Preparedness missions. The centers will continue 
to evolve through continuous and in-depth analysis of homeland security 
training requirements. The training centers continue to be a critical 
capability that achieves the homeland defense priorities of the 
National Guard Bureau.

                        STATE ADJUTANTS GENERAL

    Alabama--Major General (Ret) Crayton M. Bowen
    Alaska--Major General Craig E. Campbell
    Arizona--Major General David P. Rataczak
    Arkansas--Major General Don C. Morrow
    California --Major General William H. Wade, II
    Colorado--Major General Mason C. Whitney
    Connecticut--Brigadier General Thaddeus J. Martin
    Delaware--Major General Francis D. Vavala
    District of Columbia--Major General David F. Wherley, Jr., 
Commanding General
    Florida--Major General Douglas Burnett
    Georgia--Major General David B. Poythress
    Guam--Major General Donald J. Goldhorn
    Hawaii--Major General Robert G. F. Lee
    Idaho--Major General Lawrence F. Lafrenz
    Illinois--Major General (IL) Randal E. Thomas
    Indiana--Major General R. Martin Umbarger
    Iowa--Major General G. Ron Dardis
    Kansas--Major General Tod M. Bunting
    Kentucky--Major General Donald C. Storm
    Louisiana--Major General Bennett C. Landreneau
    Maine--Major General John W. Libby
    Maryland--Major General Bruce F. Tuxill
    Massachusetts--Brigadier General (MA) Oliver J. Mason, Jr.
    Michigan--Major General Thomas G. Cutler
    Minnesota--Major General Larry W. Shellito
    Mississippi--Major General Harold A. Cross
    Missouri--Major General (MO) King E. Sidwell
    Montana--Major General Randall D. Mosley
    Nebraska--Major General Roger P. Lempke
    Nevada--Brigadier General (NV) Cynthia N. Kirkland
    New Hampshire--Major General Kenneth R. Clark
    New Jersey--Major General Glenn K. Rieth
    New Mexico--Brigadier General (NM) Kenny C. Montoya
    New York--Major General Joseph J. Taluto (Acting)
    North Carolina--Major General William E. Ingram, Jr.
    North Dakota--Major General Michael J. Haugen
    Ohio--Major General Gregory L. Wayt
    Oklahoma--Major General Harry M. Wyatt, III
    Oregon--Major General Raymond F. Rees
    Pennsylvania--Major General Jessica L. Wright
    Puerto Rico--Colonel (Ret) Benjamin Guzman
    Rhode Island--Brigadier General John L. Enright, Acting
    South Carolina--Major General (Ret) Stanhope S. Spears
    South Dakota--Major General Michael A. Gorman
    Tennessee--Major General Gus L. Hargett, Jr.
    Texas--Major General Charles G. Rodriguez
    Utah--Major General Brian L. Tarbet
    Vermont--Major General Martha T. Rainville
    Virginia--Brigadier General Robert B. Newman, Jr.
    Virgin Islands--Brigadier General (VI) Eddy G. L. Charles, Sr.
    Washington--Major General Timothy J. Lowenberg
    West Virginia--Major General Allen E. Tackett
    Wisconsin--Major General Albert H. Wilkening
    Wyoming--Major General Edward L. Wright

    Senator Stevens. General Vaughn, we would be happy to have 
your statement.

STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, ARMY NATIONAL GUARD, DEPARTMENT 
            OF THE ARMY
    General Vaughn. Chairman Stevens, Senator Inouye, 
distinguished members of the subcommittee: General Blum has 
adequately captured my statement. I will ask that it be read 
into the record and I will just hit a couple points.
    The States, territories, and the District of Columbia 
continue to measure up and meet every mission as called by the 
President or the Governors. We still today have over 50,000 
mobilized on duty. A success story that is brewing up--and if I 
could have that chart real quick so we can see this. We have 
got a black line, I think that is big enough for all to see. 
That is where our end strength is going.
    We are on track to make 350,000. That end strength, as you 
can see on there, turned down in late 2003, in October. Where 
it stabilized and turned back up at the low point was June 
2005, which is the point in time where we had the most people 
that we have ever had, the most soldiers that we have ever had, 
deployed. Now, that speaks to something. That speaks to a lot 
of appreciation when these soldiers return home to their 
communities. You have had a lot to do with that and we thank 
you very much for your great and strong support. We are going 
to make this end strength at the end of this year.
    I look forward to your questions. Thank you very much.
    Senator Stevens. Thank you very much, General. 
Congratulations. That is good news.
    General Ickes, we would be happy to have your comments.

STATEMENT OF MAJOR GENERAL CHARLES ICKES II, ACTING 
            DIRECTOR, AIR NATIONAL GUARD, DEPARTMENT OF 
            THE AIR FORCE
    General Ickes. Thank you, sir. Mr. Chairman, members of the 
subcommittee: I really appreciate this opportunity to address 
you today.
    By the way, with me today, one of our chiefs. Chief Arnold, 
if you would stand up for a minute. He works for us at the 
Guard Bureau. In June he will retire with nearly 41 years of 
dedicated service to the Nation. He runs one of our strategic 
initiatives divisions and he has been instrumental to me 
personally in helping us set a path for the Air National Guard 
into the future. This is typical of what the Air Guard brings 
every day to the fight.
    Chief, thank you for being with us.
    Senator Stevens. Thank you very much.
    General Ickes. I would certainly like to start by thanking 
the subcommittee for not only your fantastic support, but to 
tell you how important National Guard and Reserve equipment 
appropriation (NGREA) is to us as we move forward in the Air 
National Guard. The support that you give us in that area is 
vital. It is vital because it allows us to do those 
modernization and upgrading issues that we so vitally need. It 
allows us to address those, and you have been so helpful in 
that area and I cannot tell you how big of a positive impact 
that has for us.
    The Air National Guard is engaged in every mission set that 
the United States Air Force has today. We are truly part of the 
total force. We are involved whether it be airlift, alert, and 
Hurricane Katrina-like operations, both outside the Continental 
United States (OCONUS) and at home. We are totally engaged, 
excited, and supportive of these mission areas.
    During Hurricane Katrina and Rita last year, the vast 
majority of the aircraft you would have seen flying during 
those operations were Air National Guard units in support of 
the Governors and the emergency management assistance compact 
(EMAC) agreements and the compacts that are established. During 
Katrina operations we flew 389 separate sorties in 1 day. We 
flew nearly 3,000 sorties during that operation, supporting 
General Vaughn, General Blum, and the Governors to meet the 
needs of the Nation. I could not be prouder of those folks, and 
all they have done.
    Your assistance with the Air National Guard has been able 
to help us with unique business practices to field precision 
targeting pods, data links, and upgrade our numerous engine 
requirements. Our currently deployed forces now possess the 
ability to provide the combatant commanders (COCOMs) with 
previously unseen and vital urban close air support (CAS), a 
mission that a few years ago none of us were really that 
prepared to do, but thanks to your support, we have been able 
to make great strides in those mission areas.
    In the future we seek modernization of our precision strike 
capabilities, 24-hour combat ID, and enhanced survivability of 
our large aircraft as we put large aircraft infrared 
countermeasures (LAIRCOM) systems on them.
    Last year's achievements underscore the critical needs to 
maintain our ability to act as an operational force, but yet 
still remain and maintain a strategic capability. We provide 
surge for wartime needs, or for national emergencies, while 
being operational at the same time. We maintain capability when 
we are properly resourced, and we work that constantly with 
everybody.
    We fully support the President's budget, and we understand 
that budgets are always tight. There are areas, though, that we 
continue to look to address to make sure that we adequately 
meet the needs of our 106,800 guardsmen. We have to be able to 
continue to attract, recruit, and retain these individuals. 
This year we will highlight recruiting and retention bonuses, 
and the things that go with it, to allow us to be competitive 
in a very competitive recruiting market.
    We have already reallocated some funds this year to address 
those needs. We are focusing on increased advertising, 
storefront recruiting offices, administrative assistance to our 
recruiters, and to capitalize on those programs that we have 
already begun.
    Some other things that are impacting us. In the 2005 
National Defense Authorization Act, we were approved enhanced 
authority for bonus programs, but we did not--we were not, able 
to source adequately the funds. We are working to do that now.
    Training is vital to both the current and future 
capabilities of the Air National Guard. It is what makes us 
special and unique. We need your help with this shortfall in 
our training budgets.
    We need to continue to focus on, as we transform the 
National Guard along with the Air Force as part of the total 
force team, those total force initiatives (TFI) are properly 
funded and adequately resourced, so that we have new mission 
sets for those organizations, much like Senator Bond addressed.
    We are bringing on new capability as we speak, such as 
Predator in Nevada, Arizona, California, Texas, and shortly in 
North Dakota.
    Those of us in the Air National Guard responsible for 
keeping our traditional guardsmen trained and ready, our full-
time technicians, are concerned that they have been under 
considerable strain. We are concerned about that force, but we 
are addressing that, and are keeping our eye on it.
    Another issue that has cropped up for us is contract 
logistics support for some of the new weapon systems we are 
bringing on board. We are finding more and more that we are 
finding shortfalls in those areas for the C-130J, for C-17s, 
and for the joint surveillance and target radar system (STARS) 
unit down in Georgia.
    Our depot maintenance program is only funded at about 75 
percent, and that will continue to be a challenge because we 
tend to fly legacy aircraft in the Air National Guard. We need 
to maintain those. Older aircraft need a little bit more care 
and feeding.
    I just want to thank you once again for all your great 
support. I want to thank you for all you have done in 
recognizing the contributions of our guardsmen, and I stand 
ready to answer any questions you may have. Thank you.
    Senator Stevens. Thank you very much, General.
    Senator Dorgan, each of us had an opening statement. Before 
we start our 7 minutes each, would you like to have any opening 
statement?

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, I am sorry I was delayed. I 
will defer. I would only say, I am sure as all of you have, how 
much all of us appreciate the work that the Guard has done and 
thank you for bringing some soldiers here to share their 
stories with us. They are inspiring stories and talk once again 
of service and commitment, duty, and honor. So thank you very 
much.
    And I will await my chance to ask questions.
    Senator Stevens. Thank you, Senator.

              NATIONAL GUARD AND RESERVES OPERATION TEMPO

    General Blum, we have some statistics on the tempo of 
operations for the Guard and Reserve. Are you planning any 
special initiatives to try to deal with and manage the high 
operations tempo?
    General Blum. Yes, Mr. Chairman, we are. We are working 
very closely with the Department of the Army and the Air Force 
to give our citizen-soldiers and airmen a predictable model of 
when they, their families, and their employers can expect to be 
called to extended active duty. I am not talking about for 
local disasters. They could get called out tonight; they 
understand that.
    For extended deployments in the air expeditionary force or 
in the army force generation model, we are moving every day 
closer to a predictable model that will allow an Army National 
Guardsman to know that once he has done an extended tour in 
Iraq, Afghanistan, somewhere else overseas, or here at home 
necessary and required for the defense of the Nation, he would 
probably be reasonably guaranteed a dwell time between 5 and 6 
years before he was called again from the States to go 
overseas.
    I think the employers will tolerate that. We think the 
families will tolerate that, and indications are from our 
service members that they find that is an acceptable model that 
they can live with. It also meets our regeneration model is 
practicable because we generally replenish our units at a rate 
of about 18 percent a year, which over 5 years means that you 
would not put an undue or unfair burden on a family, an 
employer, or a single guardsmen that they would not be 
otherwise willing, ready, and able to bear.
    Senator Stevens. I am not going to mention the individual, 
but I was contacted by an individual, a member of the Reserve, 
I think it was, who I was told the person had served in Iraq, 
returned home, and thought that was it, and entered a special 
program for advancement that was really not employment, it was 
more like an internship, the paid type of upgrading process, 
then was served another notice to go back to Iraq. If he does 
that he loses his promotional capability and he does not have a 
job now, like he did when he went over before.
    Now, are you set up so these individual circumstances can 
be examined on request of individual members if they are called 
up as quickly as that?
    General Blum. Mr. Chairman, in the National Guard of the 
United States Army and Air Force the adjutants general in each 
State are empowered to make those type of decisions.
    Senator Stevens. This is Reserve now. That is you, is it 
not?
    General Blum. Well, sir, I only have the National Guard 
under me. The second panel could probably address that better, 
but we recognize that as an issue. None of us--I do not want to 
speak for any of the Reserve chiefs that come behind me, but 
none of us want any of our reservists, whether the Guard or 
Reserve, to be punished because of their service, or to be 
unduly called to the service of their Nation repeatedly and 
unnecessarily.
    In the Guard we have empowered the Adjutants General to 
ensure that any soldier that did not want to willingly re-serve 
again sooner than 5 years would. In fact, soldiers have the 
ability to cross-level and get some other person with the same 
specialty or skill set to take their place, so that we do not 
put an unfair burden on any of our citizen-soldiers.
    I think the other Reserve chiefs will tell you how they do 
it in theirs, but that is how we do it in the Guard. I push 
that down to the State and local level.

            NATIONAL GUARD END STRENGTH AND FORCE STRUCTURE

    Senator Stevens. Have you had any negotiations with the 
service secretaries, the chiefs of staff, concerning end 
strengths and force structure changes that you have not 
discussed here now?
    General Blum. That we have not discussed here, Mr. 
Chairman? No. We have had very candid--what I share with this 
subcommittee I share with the service secretaries. I do not 
change my story. We have told Secretary Harvey and Secretary 
Wynne, the Secretary of the Army and the Air Force, that the 
Army and Air National Guard will meet their end strength and 
they will do it in the next calendar year. I am absolutely 
confident that the trend that General Vaughn showed you on that 
chart is a very healthy and real trend.
    We also, I might add, have the highest percentage of 
deployable forces within the Army and Air National Guard we 
have ever had in the history of the Army and Air National 
Guard. These are not hollow numbers. These are real deployable 
citizen-soldiers. By the end of this year we will have 350,000 
of those in the Army and about 106,700 of those in the Air 
Force, in the Air Guard.
    Senator Stevens. The President's budget said 333,000. The 
Army Secretary testified that he thought you would go up to 
350,000. Is that the agreement now?
    General Blum. The agreement is that they will fund us to 
350,000. The agreement was that they would restore all of the 
money that was taken out as a result of program decisions 
memorandum (PDM), which was--and I do not want to get this to 
the penny, but it is roughly $189 million in personnel, $219 
million in operation and maintenance (O&M), and about $63 
million in the defense health program that they absolutely are 
committed to restore to our coffers.
    Senator Stevens. What about the Air Force? We have got an 
overall reduction in strength of 40,000 in the future years 
defense plan (FYDP), I am told.
    General Blum. That is correct, sir. That is supposed to 
take effect in 2008 and we are under very serious 
negotiations--and that is the word, negotiations, 
collaboration--with the Department of the Air Force, because I 
cannot understand, nor can they adequately describe to me how 
that manpower bill was determined. They realize that there is a 
flaw in the calculation, and they are working with us to 
determine exactly what that manpower build really needs to be.
    It may be that the Air National Guard needs to be smaller. 
It may be that the Air National Guard needs to remain the same 
or it actually may need--we may actually need to grow. An 
informal manpower study that we have run--and we have asked the 
Air Force to validate it and run their own for us--actually 
shows us being a growth of 12,000 to 19,000 to do all of the 
missions that the Air Force wants the Air Guard to do.
    We are not saying they are right, we are not saying they 
are wrong. We are saying we are going to work together with 
them. We have the time before 2008 to get the numbers right and 
to get the size of the Air Guard right for this Nation and for 
the United States Air Force. Secretary Wynne and General Mosely 
have pledged their commitment to work with the Air National 
Guard leadership on this.
    Senator Stevens. Thank you very much.
    Senator Inouye.

                           EQUIPMENT FUNDING

    Senator Inouye. General Blum, last September a report was 
issued indicating that there was a need for $20 billion for the 
Army National Guard and $5 billion for the Air National Guard 
for equipment. The Congress responded by providing $1 billion. 
Can you tell us what your long-term plans are?
    General Blum. Senator Inouye, we will work with the 
leadership of the United States Army. The United States Army is 
challenged in this area as well. It is not unique to the Guard. 
It is worse for us in the Guard because we started at a lower 
level of equipping to begin with, so we are further in the 
hole, so to speak. They understand that.
    General Schoomaker and Secretary Harvey have appeared and 
testified to other subcommittees of Congress and the Senate and 
they have repeatedly assured us that there is $21 billion in 
the planning and operational maintenance (POM), in the future 
year defense plan (FYDP), in the budget, to address these 
issues for the Army National Guard. Frankly, they understate 
their contribution because there is about another $2 billion in 
there in aviation modernization. When you put it together there 
is almost $23 billion of good faith in the budget that the Army 
has in place to improve the equipment situation that exists in 
the Army National Guard.
    It is right now about as dire as I have seen it here at 
home in modern history but the other side of the coin is that 
we have the best equipped, best led, best trained force 
overseas right now that this Nation has ever fielded. That 
includes Active, Guard, and Reserve. It is truly seamless when 
you get overseas.
    The problem is that we have cross-leveled what we did not 
have now for 4\1/2\ years to ensure that the soldiers that go 
overseas have exactly what they need to do their job and that 
has depleted our stocks here at home. We are seriously looking 
at strategies to replenish those stocks of supplies and 
equipment. The United States Army leadership, particularly 
General Schoomaker and Secretary Harvey, have expressed their 
absolute commitment to making that a reality.

                          EQUIPMENT READINESS

    Senator Inouye. General Blum, there seems to be a common 
practice that when your troops, the Air and the Army National 
Guard, leave Afghanistan and Iraq they leave back their 
equipment. Obviously, from my standpoint it would affect 
readiness and I would think that it would make them unable to 
meet their State needs. But it is a common practice.
    I am just wondering, what do you think about that?
    General Blum. Senator Inouye, you are absolutely correct. 
The National Guard is often asked to leave the equipment that 
we cross-leveled and ensured that the soldiers would have when 
they left the United States. We are often asked to leave that 
in theater, in place, in Iraq and Afghanistan. That is a good 
thing to do, in my judgment, because it saves lots of time and 
millions and millions of dollars in moving equipment back and 
forth.
    I fully support leaving the equipment in theater. What I 
think needs to be addressed is the unintended consequence of 
leaving us uncovered with equipment back here at home to train. 
We have the most experienced force that we have ever had; 60 
percent of our force now is combat veterans. They are used to 
having equipment in their hands that is modern and capable, and 
if they are going to stay with us, if we are going to be able 
to retain these skilled, experienced people, we are going to 
have to have equipment to train and keep them--keep the edge on 
their capabilities.
    We are also going to need that equipment to train the new 
people that we are recruiting. We need the nonlethal equipment, 
the trucks, the medical sets, the communications, aviation, the 
engineer equipment, that are absolutely vital if we are going 
to be able to do our homeland defense and homeland support 
missions when we are called upon to support agencies such as 
the Federal Emergency Management Agency (FEMA) or the 
Department of Homeland Security (DHS). Whether we are called 
out by the Governor or we are called out by the President, we 
are going to need that equipment.
    The problem has been we have not paid sufficient attention 
to re-equipping or resetting the force back here at home fast 
enough for that domestic mission to have equipment to train 
with and to have equipment to respond to natural disasters or 
terrorist events here in the United States.
    Senator Inouye. You are not getting it?
    General Blum. Sir?
    Senator Inouye. You are not getting it?
    General Blum. We are starting to get it now. I think that 
the senior leadership of the Army and the Air Force understand 
the urgency to do this now. They are, I think, genuinely 
committed to helping us remedy this problem. It will not get 
fixed overnight, however, Senator. It is going to take--it is 
going to take, frankly, years. My issue is that I do not know 
if we have years. Sooner is better for me, because this is not 
equipment that it is nice to have; it is essential to have. We 
may need it as soon as the next 60 days in the southeastern 
part of our Nation for the hurricane season that is beginning.

         NATIONAL GUARD ROLE IN THE QUADRENNIAL DEFENSE REVIEW

    Senator Inouye. The recent Quadrennial Defense Review (QDR) 
came forth with a new force structure plan which drastically 
changes your force structure. Did you have any role to play in 
this or was it just imposed upon the Guard?
    General Blum. We did not play a very effective role in it, 
let us put it that way, Senator. General Schoomaker and 
Secretary Harvey have both testified that it could have been 
done better. They are committed to making sure that it is done 
better in the future and that we are not as surprised as we 
were last time.
    Senator Inouye. Time does not permit it, but can you 
provide this subcommittee how you would do it better?
    General Blum. Well, sir, I will try to simplify it. If I am 
going to play football on a football team, it is nice to get 
called to the huddle if you are going to know what play you are 
supposed to run. They are committed to making sure that we get 
called to all of the huddles, not just some of them.
    Senator Inouye. So you did not have a huddle?
    General Blum. I am sure there was a huddle. I am not sure 
that we were in the huddle.
    Senator Inouye. Thank you very much, sir.
    Senator Stevens. Well put, General. I think we are going to 
try to deal with that.
    Senator Burns.
    Senator Burns. How does it feel like to be General 
Carpenter and be the lonesome end, if you remember those days.
    General Blum. Yes, sir, I do.

                 AIR NATIONAL GUARD F-15 MODERNIZATION

    Senator Burns. We have already covered--Senator Inouye 
already covered some--one of my questions, and that was the 
equipment, and we understand that our 163d is coming back, 
about 35 percent of their equipment, and there being a real 
bind in replacing some of that equipment. I am certainly glad 
you are taking care of that.
    General Ickes, I am kind of concerned about, you said a 
while ago on your budget that the President has set down--as 
you know, we are converting in Montana from 16's to 15's, and I 
did not see any real strong funding for modernizing the new F-
15C's that we are getting up there. To be more specific, there 
is a piece of equipment called the active electronically 
scanned array radar (AESAR). Is that being addressed or are we 
going to have to--are we going to have to take care of that?
    Senator Bond. Yes.
    Senator Burns. You and me are going to do that? Me and you, 
huh? Okay. We killed a bear; paw shot him.
    But I would still like for you to address that situation.
    General Ickes. Yes, sir. I believe the Air Force does 
believe that it is a--the AESAR radar, as it is addressed, is a 
major enhancement to the capability of the F-15. Our concern 
remains if the Air Guard, which has 100 percent of the fixed 
alert facilities in the United States and is given that 
responsibility to protect the sovereign skies of the United 
States, we ought to probably have the best equipment on our 
aircraft to meet that mission set.
    As there are certain potential threats that come down the 
road in the future, we want to make sure that we can adequately 
address that. Congress did appropriate some money and we are in 
the process right now of addressing $50 million some across the 
F-15 fleet within the Air National Guard. That certainly will 
not address anywhere near enough of the aircraft, the F-15's 
within the Air National Guard. So as we address a modernization 
road map, that is certainly one of the things that our F-15 
community has spoken to as something they think would be vital 
to be relevant into the future.
    So yes, sir, there is money out there now.
    Senator Burns. Well, I thank you for that response and we 
will be following this very closely. I would also say that the 
northern border unit that we have now going in up there of 
course we are going to be looking at. It is getting itself in 
place up there right now. I will not be here for the second 
panel, but I want the subcommittee to know that our Red Horse 
Brigade that operates out of Montham is a hybrid force. It has 
both Reserves and regulars in it. In fact, the first commander, 
commanding officer of that brigade, was a Reserve officer.
    This kind of a blend of people has helped us in our force 
and it works. There are some folks that say that they are a 
little skeptical about the cooperation and how each one of us 
is looked at. So that has worked up there, and of course I 
think we will see probably more of that both probably as far as 
the Army, the boots on the ground, and kind of people will also 
be a hybrid type of organization.
    But I am still concerned about the equipment, the 
replacement of that equipment for our folks to train. We are 
moving into a fire season in Montana. I do not think we will 
have a huge fire season this year. We have got more than 
adequate moisture, which we thank the Lord for, and we will 
move on. But we will be monitoring these kind of situations. 
General, maybe we should sit down and talk about those kind of 
things as far as the Air Guard is concerned and your concerns 
there.
    I appreciate your good leadership on this. With that, that 
is the only question that I have and I would yield the floor, 
and thank you very much for coming and your testimony.
    Senator Stevens. Thank you very much, Senator.
    Senator Mikulski.

              EMERGENCY PREPAREDNESS FOR NATURAL DISASTERS

    Senator Mikulski. Many of my questions have been covered, 
about equipment and some other issues. I want to get to the 
question of, were you in the huddle, General Blum, not about 
the QDR, but about emergency planning in terms of our response 
to natural disasters.
    Let me get to my point. Both panelists and you have said 
that hurricane season starts June 1, fire season. Each State 
has its own natural disaster propensities. The Guard, both Army 
and Air Force, were valiant during Katrina and worked at an 
incredible tempo. Your testimony, General Ickes, just speaks 
for itself. Behind every number is a person and a family.
    So my question is this. I am worried that we are not 
prepared again. We keep moving people around. We keep moving 
boxes around. But the question is: Are we prepared? In getting 
ready for both hurricane season and natural disasters, has 
there been a real plan established where there would be a 
disaster of such horrific proportion, like Katrina was, for the 
way the National Guard will be organized, mobilized, the 
prepositioned materials, et cetera?
    I am worried about hurricanes. I am worried if avian flu 
does come to America it will be the National Guard that will 
have to maintain civic order, perhaps even the quarantine of 
our own people. Could you tell me, are you in the huddle? Are 
we being prepared? Because I think you have the right stuff. I 
am just concerned that we do not have the right organizational 
mechanism to mobilize our response the way we need to be 
mobilized.
    General Blum. Senator Mikulski, let me assure you that our 
excellent response last year, which was historic in its scope 
and speed, unprecedented in military history of the world to a 
natural disaster, will be better this year if needed because, 
frankly, you have given us $800 million, your subcommittee has 
given us $800 million. We have spent that on equipment on 
exactly what we told you we needed to respond better this year.
    Last year we had three deployable command and control 
satellite communications systems deployed. This year we will 
have 19----
    Senator Mikulski. General, it is not only about equipment. 
You know, the response to Katrina was late, uneven, disjointed. 
There was a lack of a national command and control structure. 
When a State's own responses are so overwhelmed by the nature 
of the disaster, only a national response can come in. As you 
know as guardsmen and someone under the doctrine of mutual 
assistance, has that been rectified?
    General Blum. I cannot with absolute certainty say it has 
been rectified. I can tell you that we have had avian flu 
exercises this year. We have had multiple hurricane exercises 
this year. I am gratified by the fact that more people are 
coming to the huddle that you describe than we used to see 
coming to the huddle, including FEMA. We have a big one coming 
up on May 17 with all of the National Guard leadership in FEMA.
    Senator Mikulski. Who would be in charge?
    General Blum. Well, absolutely it would be the Governor of 
the State where the hurricane occurs initially, and then if 
they request Federal assistance who will be in charge will be 
designated by the administration and the Department of Homeland 
Security. It could very well be FEMA. It would be very likely 
that it would be----
    Senator Mikulski. Then how would you be mobilized for a 
national response? What the Air Force did is beyond a local 
National Guard and they themselves might have been killed. The 
base might have been destroyed. Their families will be in 
disarray or evacuating.
    General Blum. From the uniformed side, we will--I will 
absolutely tell you that the situational awareness or the 
information sharing between the United States Northern Command 
and the National Guard has improved and will be better this 
year than it was last year. You will also see an improved 
communication and sharing of information with the Joint Staff 
of the Department of Defense this year. Better than it was in 
the early stages last year. You will even see better 
communication between the adjutants general and the supporting 
States with one another than they did, even as compared to how 
extraordinarily well they did last year.
    We have learned a lot of things the hard way last hurricane 
season. We hope to do better on many of those things this year. 
I will never say that we are absolutely prepared because you 
never know exactly what we are going to be facing, but we are 
better prepared than we were last year as an inter-agency 
coordinated effort.
    I do not know if that adequately answers your question.
    Senator Mikulski. Well, it does, but you need to know I 
worry about it.
    General Blum. Well, you should, you should.
    Senator Mikulski. We can talk more about it or even 
privately about it, because I think both the Army and the Air 
Force, and then coupled with our Coast Guard, were fantastic. 
But you need to be able to have the response at the right time.

                  RETENTION IN THE ARMY NATIONAL GUARD

    Army retention. One of the issues I think, is the retention 
of the noncommissioned officers (NCO's) or at the sergeant 
level a significant challenge? Because no matter how well we 
recruit, you need an officer corps, and it's the NCO that seems 
to play such a part in both training and even the social glue 
of individual units in our States. Am I right in that analysis, 
and how are we doing on retaining them?
    General Vaughn. I think you are exactly right, Senator. We 
are very proud of our retention inside the Army Guard. It goes 
back to those units that have been deployed and done very 
meaningful things. You know what we are faced with with our 
recruiting situation. We are going to have the youngest 
National Guard that we have ever had, but we are also going to 
have the most combat veterans we have ever had.
    Every place we go, we see folks that would have--we see 
soldiers really that would have left the force except for one 
thing: They wanted to go with their unit on a deployment. When 
you were talking about folks that went back the second time a 
while ago, there are 1,000 soldiers out of Minnesota that went 
with the 1st of the 34th that did not have to go.
    Now, what we are seeing is those soldiers when they come 
back--normally they would not have been in anyway, but they 
extended, and what they are telling us is they will stay with 
us to groom that next level of leadership in the NCO corps 
before they leave. That is all we are asking them to do, 
because we are going to have a very young force.
    I think we are doing real well in retention. We thank this 
subcommittee for all of that help. Across the Army we are doing 
well. Thank you.
    Senator Mikulski. Thank you.
    Mr. Chairman, I have other questions. I know others will be 
asked. My time is up. I would just like to comment to the Air 
Force. I have a very keen interest in military medicine that 
the leadership of the subcommittee is aware of. I think the 
advances we have made in Iraq at limiting both mortality and 
morbidity has been fantastic. It is because of not only the new 
battlefield techniques, but because of what the Air Force does, 
from lifting the soldier from the battlefield to the hospital 
in Iraq or Afghanistan and to Germany.
    I think it has been a story that has not been told, and 
every physician, including the civilian community, is amazed at 
the brilliance of it and the medical ingenuity. But it could 
not be done without the Air Force doing the heavy lifting. So a 
very, very, very special thanks.
    Senator Stevens. Thank you, Senator.
    Let me remind Senators we have another panel and we have a 
vote starting at, two votes starting at 12 noon.
    Senator Bond.
    Senator Bond. Mr. Chairman, I have agreed to yield to 
Senator Domenici for one quick question.

               HOLLARAN AIR FORCE BASE: F-22 CONSTRUCTION

    Senator Domenici. One question. My question has to do with 
Holloman Air Force Base and the fact that the F-22's are 
scheduled to be assigned there. As you know, at the other 
assignments the Air National Guard flies the F-22's in 
conjunction with the regular Air Force. My question is how will 
the New Mexico National Guard be used for operating the F-22 
squadrons at Holloman?
    General Ickes. Yes, sir, Senator. As a matter of fact, 2 
weeks ago I was in discussions with The Adjutant General (TAG) 
and his staff down in New Mexico to how we best leverage those 
great Air Guardsmen down there to move into the F-22 mission. 
Much like we are going to be and we are in Virginia and Hawaii.
    We have great opportunities in the F-22. What we are 
looking at is how we can come up with a concept that will allow 
the unit to be able to recruit and retain down at Holloman and 
be a vital part of that mission. We have found at Langley with 
the folks that we have put in the F-22. The Air Force is 
ecstatic about the skill sets that we are bringing the 
experience in both our air crew and our maintainers. We are 
looking for the best way to do that.
    I would tell you that it will be something like a 
detachment-type (DET) of construct probably initially. It 
probably will not be a full-up robust unit down there 
initially, just because of how we will sustain a full-up unit 
down there. The TAG is very eager to look at organizational 
constructs that would work to get the New Mexico Guard into 
that.
    Senator Bond. Thank you very much, General Ickes.

            NATIONAL GUARD SEAT ON THE JOINT CHIEFS OF STAFF

    General Blum, what does the National Guard represent now in 
terms of percentage of the total force?
    General Blum. About 32 percent of the total capability of 
the United States Army and about 34 percent of the total 
capability of the United States Air Force.
    Senator Bond. Can you tell me how many hold the rank of 
general and lieutenant general respectively in the active duty 
Army and in the Air Force?
    General Blum. No, sir, I am not prepared to give you that 
number right now.
    Senator Bond. I think in the Army there are 12 generals and 
49 lieutenant generals, the Air Force 13 generals and 37 
lieutenant generals.
    The National Guard has how many generals and how many 
lieutenant generals?
    General Blum. We do not have any generals and, as far as 
lieutenant generals, we have----
    Senator Bond. Three.
    General Blum [continuing]. Three.
    Senator Bond. So that is zero percent of the full generals, 
3 percent of the lieutenant generals, although you comprise 
over 30 percent of the force. Should we increase the grade 
authorization of the Chief National Guard Bureau (CNGB) to four 
star in order to provide him or her a seat at the Joint Chiefs 
of Staff (JCS), thus giving the Guard a stronger voice?
    General Blum. Is that a direct question to me, sir?
    Senator Bond. Is that a--yes. Should we?
    General Blum. It would be probably inappropriate for me to 
comment and my feelings on that really do not matter. Those 
decisions really need to be decided in other places. What I 
have got to do is decide how to do the job with the tools I 
have in front of me.
    Senator Bond. I understand the Department of Defense 
position. Do you have a personal opinion on which you can give 
me some guidance?
    General Blum. Well, sir, if you are asking me would it aid 
a future chief in their ability to do the job, I think that is 
certainly worthy of very serious consideration. However, it 
would be inappropriate for me to discuss that because I am 
currently in that position.
    Senator Bond. We understand that and we take that into 
account.
    But let me just, a couple points and I want to see if I 
have got these correct. Since 9/11 the role of the Guard has 
become more important to the security of the Nation. In 
response to 9/11, Congress created an Assistant Secretary of 
Defense and the Department of Homeland Security, but did not 
establish any formal connection between those entities and the 
National Guard Bureau (NGB), and under the current law the NGB 
is still limited to serving as a channel of communication 
between the services and it has no formal connection to the 
Joint Chiefs of Staff, no voice of its own inside the Joint 
Chiefs of Staff.
    Is that a correct statement of the structure?
    General Blum. Sir, if you look at--this question I am more 
comfortable to address, frankly, because it is not tied to an 
incumbent or anything like that. The U.S. Code right now 
establishes in law the job of the Chief of the National Guard 
Bureau. It is restricted to a channel of communication between 
the States and the Chief of Staff of the Army and the Air Force 
and the Secretary of the Army and the Air Force. It does not 
recognize any direct connection to the Department of Defense. 
It does not establish any connection to the Joint Staff. It 
does not reflect any that Goldwater-Nichols changes.
    We were completely excluded from that and obviated from 
those reforms. We are still left in the 1947 construct. We are 
a unique organization that is still viewed through policy, 
regulation, authorities, and resources largely as a strategic 
reserve. Yet we are an operational force today and will be a 
more and more essential operational force in the future.
    So I would say the policies, the regulations, the 
authorities, and the resources need to seriously be looked at 
to bring them into line with an operational force that is 
unique, in all of DOD; and that has shared responsibilities 
with the dual mission for both the governors and the President.
    Senator Bond. As we have discussed, this year the Army 
through the Pentagon sent Congress a budget proposal which 
reduced the size, proposed reducing the size of the Army Guard 
force structure, holding back some of the manpower funding 
based on recruiting downturns. I believe that senior Army 
leadership has acknowledged the fact in congressional testimony 
these decisions were made without full and complete 
consultation with the States or the adjutants general. Is that 
a fair statement?
    General Blum. Yes, sir, and that has been the testimony of 
the Secretary of the Army and the Chief of Staff of the Army.
    Senator Bond. We have also heard from the subcommittee 
previously in BRAC consultations the Air Guard was left out of 
making what I consider, I have already stated, is a very bad 
decision. When hurricane--well, when you have four-star 
generals making decisions like this, from what little I know 
about military discipline, a three-star general listens to a 
four-star general, the four-star general gives the orders to 
three-star generals. Is that a fair account of the structure?
    General Blum. Yes, sir, that is the way it is set up to 
work and it works very well.
    Senator Bond. That is why we want to change it.
    When Hurricane Katrina struck, the biggest military 
deployment response effort was conducted, not by the Department 
of Defense, but States sending National Guards under the 
emergency management assistance compact and set up specialized 
informed dialogue between the States and the Federal 
Government.
    Even though the National Guard Bureau had no formal 
connection to the Department of Defense or the White House, you 
were in fact called upon to give advice and provide 
coordination, were you not?
    General Blum. Absolutely, particularly after the first 24 
to 36 hours.
    Senator Bond. I understand the National Guard Bureau has 
been in the forefront of cutting edge ideas, like the joint 
force headquarters, State chem-bio response, National Guard 
quick reaction. You have pioneered these capabilities as 
America needs them. But I understand it has been slow to get 
DOD funding, at least in part because the National Guard Bureau 
does not have a formal mandate to develop unique capabilities 
such as this. Is that correct?
    General Blum. That is fair, sir. That is a fair statement. 
That is accurate.
    Senator Bond. I will say that I will make a statement that 
adding a four-star general will not endanger national security.
    Thank you, General Ickes. Following up on the comment made 
by Senator Mikulski, our congressional delegation (CODEL) to 
Iraq and Afghanistan, we were flying a National Guard C-130, 
supposedly going directly to Kabul. We detoured to Kandahar, 
picked up a severely injured Afghan officer. They established a 
field hospital on the C-130, dropped him at Bagram Air Base, 
and we saw how magnificent the work of the National Guard, 
Wyoming Guard flying in Rhode Island aircraft.
    Thank you.
    Senator Stevens. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.

                TOTAL FORCE INTEGRATION AND NORTH DAKOTA

    General Ickes, I wonder if you could update me on the plans 
for the 119th, the Happy Hooligans in Fargo?
    General Ickes. Well, sir, right now what we are trying to 
figure out in the Air Guard, working with the Air Force, is--
and General Blum has alluded to it--there is a myriad of 
requirements that we are looking to fill, capability that we 
want to bring. That drives us to somewhere to around 112,000 to 
119,000 guardsmen.
    But yet we understand when we start matching resources to 
requirements there will be some adjustments made. So now what 
we are trying to figure out in this total force initiative is 
what are we going to be able to do.
    For North Dakota specifically, Predator is, the unmanned 
air vehicle (UAV) systems are on their way to North Dakota. We 
will be standing that up shortly. I was in discussion with the 
TAG this morning about the bridge missions for the State to 
make sure that we have a bridge capability. General Blum has 
committed to them being our first joint cargo aircraft 
organization. So we are working for a way that we do not lose 
that flying capability in the organization, and we will be 
discussing that more today.
    But we are trying to figure out, are we going to have 
adequate resources to stand up this new total force integration 
capability as we go into the future? We have the people, we 
have the missions. We have just got to make sure resources 
match that, and training.
    Senator Dorgan. Well, the administration's budget proposal 
to cut the Air Guard by roughly 14,000 over 5 years, how will 
that affect the total force integration? How might it affect 
the total force integration?
    General Ickes. It will have a big impact, sir, if we have 
to meet that requirement. General Blum has been working close--
we work close with General Wood, the head programmer of the Air 
Force. We are trying to figure out how to move into new 
transformational organizations so that we can find some 
efficiencies.
    But our concern is that, as we have done some preliminary 
studies, the Guard--there is enough capability and requirement 
for more than we have today. Now we have to prioritize and then 
figure out, what are we going to be able to do? It is going to 
be a challenge for us as we move into the future.
    We understand the Air Force's needs to modernize the fleet. 
We want to be part of that. We will be part of that. But there 
are some challenges.
    Senator Dorgan. The flying mission, the Happy Hooligans, 
the 119th, the bridge you are talking about there might be some 
C-130's, is that correct?
    General Blum. Yes, it might, Senator. But we may even have 
a better solution that we are going to discuss on that with the 
Governor today. Actually, later today we will meet with the 
Governor. We have been able to come up with another option that 
we would like North Dakota to consider that may be even, 
frankly, better than that.
    But if nothing better than that develops, then we will 
probably do what we have discussed and that would be the C-130 
bridge.

                          LENGTH OF DEPLOYMENT

    Senator Dorgan. Let me ask, General Blum. One of the issues 
with respect to the National Guard in my State and others when 
they are deployed is that generally speaking, while they are 
citizen-soldiers, have jobs, homes, families they are leaving 
to go, in many cases now to deployment in Iraq, they are taken 
on their deployment and gone in many cases 14, 16, in some 
cases 18 months. Active duty soldiers when deployed in most 
cases leave their base station here in the United States and 
are gone 12 months and back.
    So the fact is the citizen-soldiers here are gone from home 
the longest. Tell me, are you working through--I know that you 
addressed some of that earlier this morning. Are you working 
through ways to reduce that time away from home for the 
deployments for the Guard?
    General Blum. The short answer is yes, sir, we are. If you 
want more detail, I will tell you how we are doing it.
    Senator Dorgan. If you would, yes.
    General Blum. There are several factors there that are 
involved. One is the mobilization piece. When they are called 
up they have to be given the equipment they did not have, they 
have to be given the training that they did not receive, they 
have to get processed for all of the dental and medical issues 
that were not resourced or covered previously because they were 
a strategic reserve.
    As you bring them in to make them an operational force, it 
takes time and resources to do that. That extends the time.
    All soldiers in the United States Army spend 1 year boots 
on the ground right now. General Schoomaker and the Army 
leadership is committed to shortening that as fast as they 
possibly can, but right now they are unable to do that. We do 
not want to look unaccessible or unreliable. We want to remain 
an essential, integral part of the United States Army and Air 
Force. We serve overseas the same length of time as the active 
duty people.
    The additional time you are talking about is the time that 
could be shortened if equipment were in the hands and training 
were in the hands of the reservists or the national guardsmen 
before they were called. That would dramatically shorten the 
time. The active duty people still do training before they 
deploy as well and I do not take any quarrel with that at all. 
There is always specialized training required. But this time 
could be shortened through process and resource.

                     EQUIPMENT, WEAR AND DEPLETION

    Senator Dorgan. In my remaining minute and a half, let me 
ask about equipment. There has been a lot of stories and a lot 
of evaluation about just plain wearing out of equipment. We 
have a very large emergency supplemental bill on the floor of 
the Senate now. Much of that is to try to replace equipment 
that is wearing out. We are using that equipment much more 
heavily than was anticipated.
    Tell me what you are facing with that equipment situation?
    General Blum. Exactly the same issues, except it is 
exacerbated because we started with less than all of the 
equipment we were supposed to have to begin with. As I said 
earlier, the entire United States Army has this problem. It is 
not unique to the Guard or the Reserves, but the Guard and the 
Reserves have a more significant problem because they were 
underresourced at the beginning and as the resources are 
depleted that pushes you further and further in the hole.
    I do not know if that is adequate for your answer, but that 
is the overall big picture.
    Senator Dorgan. It is a pretty serious problem, I think.
    General Blum. Oh, it is an incredible problem for the 
United States Army over the total Army, not just the Guard, but 
the Guard suffers disproportionately because we started lower 
on our inventory to begin with.
    Senator Dorgan. General Vaughn, General Blum, General 
Ickes, thank you very much for being here.
    Senator Stevens. Thank you, Senator.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

            NATIONAL GUARD SEAT ON THE JOINT CHIEFS OF STAFF

    I am pleased all the witnesses are here. I have read the 
testimony. Unfortunately, we are at Judiciary at the same time. 
I know much of my questions have already been asked.
    We look over the past year and we have seen troops from our 
National Guard providing upward of 50 percent of the troops in 
Iraq. We know the National Guard provided perhaps the best 
response of the Government to Hurricane Katrina, and General 
Blum and I have talked about these matters before.
    A lot of us were very disappointed to see the Army and the 
Air Force attempt to cut the end strength of the National Guard 
on purely budget grounds without considering they have broad 
responsibilities. Senator Bond has already discussed this, but 
he and I are co-chairs of the Guard Caucus and we fought these 
cuts very hard. We have actually 73 members in a time when, 
unfortunately, the Senate has become far more partisan than 
what the three of us are used to as more senior members here. 
This was a strong showing of bipartisanship, 73 Senators 
joining the letter to the Secretary opposing this.
    I kind of look at the National Guard as a 21st century 
fighting force with a kind of 19th century organizational chart 
or flow chart. I think the interesting thing is how well you 
have worked around some of those obstacles. That is why Senator 
Bond and I are introducing the National Defense Enhancement and 
Guard Empowerment Act of 2006, which has been discussed.
    General Blum, you were circumspect in your answers to 
Senator Bond on that. I do not want to pressure, but tell me 
this. Would your successor be in a better position to address 
the needs of the Guard if the chief sat on the Joint Chiefs of 
Staff?
    General Blum. I would have to say that that would be a more 
advantageous position to have your points, your agenda, and 
your voice heard. I would think, I would think that it could 
not be anything other than an advantage for someone to be in 
that position. I can see no disadvantage for a future chief. 
You could not provide him a better platform to have his voice 
heard, let me at least put it to you that way.
    You are asking me a very awkward question.
    Senator Leahy. I understand. I had a follow-up on that, 
which I will not ask because that would be even more awkward.
    I have not heard anybody on this panel try to dissuade 
Senator Bond and me from going forward. I had an interesting 
discussion with the Secretary of Defense where he disagrees 
with us and in fact made his position very clear. I however 
made mine very clear. And he and I have known each other for 
well over 30 years and we sometimes agree and when we disagree 
we are never so shy that we refrain from letting each other 
know where we disagree.
    Let me ask you this. The Army and the Air Force when they 
were putting forward the request for cutting the Guard's force 
structure by 17,000 and 14,000 respectively, were you or your 
two chief deputies involved in the deliberations and 
decisionmaking?
    General Blum. I think it has been testified before by 
myself, Secretary Harvey, General Schoomaker, the Chief of 
Staff of the Army, that that entire episode could have been 
done and handled much better. There is a definite commitment 
amongst the senior leadership of the United States Army and the 
Guard Bureau to make sure that we speak with one voice and that 
we move forward, from what has been a very ugly and consistent 
past history that is well known by all the members of this 
subcommittee. This is not a new development. This is a pattern, 
a historical pattern, that we are trying to get away from. We 
are trying to move forward in a new, more positive direction 
with the current leadership.
    But the history is replete with examples where the Guard 
and Reserve leadership were informed more than they were 
involved.

                           MISSION READINESS

    Senator Leahy. Well, what bothers me is that also it comes 
down almost like you are doing it with a slide rule on money 
and ignoring mission. I am more interested in looking first at 
what the mission is and then determining whether we can fulfill 
the mission. I think it sort of goes the other way around, and 
I think that is unfortunate.
    We have seen a broadly expanded mission in Iraq and 
Afghanistan. I certainly see it from my little State of 
Vermont, that we have had on a per capita basis one of the 
highest, if not the highest, number of casualties in the 
country. We certainly have not found anybody who has refused to 
go. They are there. They salute and off they go. And I am told 
by those who have visited from outside our State that 
Vermonters have handled themselves extremely well.
    General Blum. Yes, sir, they have.
    Senator Leahy. But I think that could be said of a whole 
lot of States. And I also know that our regular Army and Air 
Force have done an extremely good job over there, but they 
could not do the job that they have been tasked to do, or our 
marines, without the backup of the Guard. Then we have, of 
course, the homeland things. Katrina, we saw that, when you 
guys responded so well. But we also saw an enormous amount of 
equipment used up.
    My time is up. I think you know where I stand on this. We 
will keep trying to replace the equipment you need for Katrina, 
from Katrina, and Iraq and Afghanistan, because, much as we 
would like to say the need will never occur again, we know it 
will.
    Thank you, Mr. Chairman.
    General Blum. Thank you, Senator.
    Senator Stevens. Thank you very much.

                       ROLE OF THE NATIONAL GUARD

    Thank you very much, Generals. I was just sitting here 
talking to Senator Inouye and we are reminded about the fact 
that about 27, 28 years ago Senator Stennis decided on the 
recommendation of Senator Hollings and myself to ask the Guard 
to have their people who had duty time 2 weeks a year to 
perform that over in Europe, and that led to the whole concept 
of trying to think about how we could use the Guard and Reserve 
forces in terms of augmenting the commitments we had at that 
time to maintain forces in Europe.
    We have come a long way now. We also were the ones that put 
in the first bill to make your rank four star, General. When 
that failed, everyone moved up to three stars, but we had two 
people assigned to be advisers to the Chairman of the Joint 
Chiefs to represent Guard and Reserve interests on the 
immediate staff.
    Now we are going back again to the four-star level and 
obviously questions here from the Guard Caucus indicate that, 
and Senator Inouye and I will once again join them in trying to 
bring about a restructuring. In the final analysis, that will 
be a decision by the Armed Services Committee, but we think we 
have a role in this also, so we are going to be advisers, but 
certainly rely on your judgment as to how this might work out.
    It is not going to be too convenient to have a fifth member 
of the Joint Chiefs who really has a role that intercedes with 
two other chiefs. We have to find some way with the Armed 
Services Committee to reconcile that problem. But I certainly 
do agree it is time now that the forces that you represent, you 
and the generals who follow you represent, are part of the 
total force and they should not--that force should be at the 
table. It should be in the huddle, General, and we look forward 
to helping to do that.
    General Blum. Mr. Chairman, if I might, for the record I 
would like to state my position on one thing. I do not support 
the National Guard being a separate service. I hope no one 
takes any of the testimony or draws conclusions. First of all, 
I have not really seen the details of what is being proposed 
here today, and it is very awkward for me to comment.
    Senator Stevens. We are not asking you to and I do not 
think we should.
    General Blum. And I certainly want to go on record as 
saying that the role of the Army National Guard and the Air 
National Guard as Federal reserve components of the Army and 
the Air Force should be maintained and probably strengthened, 
and that the unique dual role mission of the National Guard, 
which is really probably the core of what is misunderstood most 
or not well understood or well known throughout the halls of 
the Pentagon, is the root of a lot of the problems.
    I would say that you want to maintain that unique dual 
role, and I would say that you want to maintain the Army and 
Air National Guard of the United States as Federal Reserves of 
the Army and the Air Force, but clearly, clearly the 
legislation that exists today does not recognize the Department 
of Defense, it does not recognize the Joint Staff, it does not 
recognize Northern Command's existence, it does not recognize 
the Assistant Secretary of Defense for Homeland Defense. Those 
things are absolutely in need of serious addressing. There is 
no question.
    The National Guard needs to be, as well as the other 
Reserve components need to be, brought up and caught up with 
the Goldwater-Nichols Act. We were left out of that.
    Senator Stevens. Well, the experience you are going through 
now and we have been through in terms of this involvement for 
Afghanistan and then Iraq certainly demonstrates the need for 
rethinking of the organizational structure that utilizes the 
Guard and Reserve. That is what we are saying. I think we are 
trying to bring about that really recognition of what this 
experience has demonstrated. I hope we are successful.
    General Blum. Senator Leahy, I will not get into your 
discussions with the Secretary of Defense, but I do know that 
he recognizes what I just described as an issue that needs to 
be resolved, and he has a very keen interest in resolving. 
There is no question about it. This is definitely on his radar 
screen to be addressed.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Thank you very much.
    General Blum. Thank you, sir.
    Senator Stevens. We thank the three of you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General H Steven Blum
               Questions Submitted by Senator Ted Stevens

    Question. The National Guard has deployed a substantial amount of 
equipment overseas. How has the loss of that equipment affected 
readiness levels nationwide? How do you plan on replenishing that 
equipment?
    Answer. As one would expect, the readiness levels of the Army 
National Guard (ARNG) units have declined substantially. The ARNG has 
contributed approximately 86,000 pieces of equipment valued at over 
$2.8 billion as ``theater provided equipment'' (TPE). While the Army 
has the role and responsibility of equipping the ARNG, the ARNG and 
Army have been working closely together to develop a strategy that will 
transform our formations into modular units. In the 2005-2011 Program 
Objective Memorandum (POM) Army has ``firewalled'' over $21 billion of 
equipment dedicated to the ARNG. In addition, Army has requested $2.2 
billion in the fiscal year 2007 supplemental to repay the ARNG for 
equipment contributed to TPE. The ARNG is currently working with the 
Army on the 2008-2013 POM to further modernize and transform the ARNG. 
The ARNG also has developed an Unfinanced Request for an additional $33 
billion that, if funded, would fill the ARNG to 100 percent of 
Objective Table of Organization and Equipment requirements, thus 
fulfilling the Army's ultimate goal.
    Question. I am concerned with the President's fiscal year 2007 
budget request for National Guard Counter-Drug programs. Each year the 
administration does not request sufficient funds for State Plans 
Programs, and this year is no different. Why is it important that the 
National Guard continue to support our nation's counter-drug program?
    Answer. National Guard Counterdrug (NG CD) Program personnel in 
every state and territory work to: provide specialized military support 
of the drug related homeland security activities of federal, state, and 
local law enforcement, in the form of criminal activity analysis, law 
enforcement officer training, aviation support, criminal activity 
observation and reporting, linguist support, and engineering support; 
educate America's youth about the dangers of drug abuse and addiction, 
to reduce the demand for drugs; and lend specialized drug fighting 
skills to the military Combatant Commanders abroad in their fight 
against terrorism and drugs.
    The National Guard is an effective force multiplier for law 
enforcement's drug interdiction efforts. In fiscal year 2005 National 
Guard Counterdrug personnel assisted law enforcement in seizing the 
following: cocaine (353,225 pounds); crack cocaine (11,950 pounds); 
marijuana plants (2,043,734 plants); marijuana, processed (1,986,178 
pounds); methamphetamine (6,137 pounds); heroin (2,139 pounds); ecstasy 
(560,971 pills); other/designer drugs (4,621,339 pills); weapons 
(11,490); vehicles (4,357); and currency ($241,988,784).
    The National Guard Counterdrug program faces serious financial 
challenges. Approximately 90 percent of the CD Budget is used to fund 
personnel Pay and Allowances. Budget increases have not kept pace with 
the inflation in manpower costs. As the buying power of the budget 
shrinks, the Counterdrug program loses capability each year.
    Presidential Budget Directive (PBD-95) directed a recommended 
minimum level of National Guard Counterdrug capability, measured in 
terms of end strength, to be 2,763 Guardsmen. In fiscal year 2007, the 
National Guard Counterdrug Program would require an additional $61 
million above the President's budget to achieve this personnel level. 
The five Counterdrug schools for law enforcement officers have 
identified requirements for $20 million above the President's budget. 
Updating the sensors on the RC-26 surveillance aircraft to preserve 
viability will cost $38 million above the President's budget. These 
sensors also provide real time downlinks during crisis operations.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. General Blum, can you provide the committee your thoughts 
on the implications of the Guard becoming our nation's operational 
force instead of the strategic force of the past, and how we balance 
that with their state's missions?
    Answer. The National Guard has transformed itself from the Cold War 
strategic reserve into an operational force with a focus on joint and 
expeditionary warfare that is capable of responding to a broad range of 
civil and humanitarian crises. Whether supporting a variety of state 
missions in a domestic scenario or deploying to over 40 nations on five 
continents in the past year alone, the Guard is more ready, reliable, 
essential and accessible today than at anytime in its nearly 400 years 
of existence. Since the terrorist attacks of September 2001, the Guard 
has been employed around the world and here at home as an operational 
force in a variety of contingencies and, with the exception of those 
units mobilized for war, is still under-resourced for many of the 
missions it now performs. Army Guard units in particular remain manned 
at Cold War levels, lack a robust cadre of full-time support personnel, 
and are equipped well-below wartime requirements. Since September 11, 
2001, Guard units deploying to the warfight have been well-equipped, 
but the response to Hurricane Katrina revealed serious shortcomings in 
the equipping of Guard units for Homeland Security and Defense. Guard 
units returning from overseas came back with an average of only about 
35 percent of the equipment with which they deployed, leaving them far 
less capable of meeting training requirements and, most importantly, 
fulfilling their missions here at home. To fulfill these missions, the 
Guard's highest priorities for re-setting and re-equipping continue to 
be satellite and tactical communications equipment, medical equipment, 
utility helicopters, military trucks and engineer equipment. We must 
also ensure that this equipment is identical to the equipment required 
for wartime use so that Guard units remain interoperable with their 
active component counterparts for both Homeland Defense and Homeland 
Security operations. Additionally, we must invest in an extensive non-
lethal weapons capability for use in both domestic and overseas 
contingencies. By re-equipping with these priorities, the Guard will be 
able to effectively and ably continue its service to the American 
people, both at home and abroad.
    Question. General Blum, as I understand it, instead of divisions 
being the centerpiece of the Army, modular brigade combat teams will be 
a strategically agile force that can ``plug into'' joint and coalition 
forces in an expeditionary manner. Could you describe what the Army 
National Guard will look like at the end of fiscal year 2007 and the 
rate at which the Army National Guard will become a modular force?
    Answer. The Army is involved in the most dramatic restructuring of 
forces since World War II. The centerpiece is modular transformation 
and an increase in the Army's operational force with the building of 
brigade combat teams (BCTs) and associated multi-functional and 
functional support brigades. The Army National Guard is building toward 
28 BCTs and 48 multi-functional and functional support brigades. The 
Army is currently conducting Force Management Review 2009-2012 to 
assess the optimum balance of force capabilities across all three 
components. A key element of this review is the collaborative effort 
with the Army National Guard Adjutants General to address warfighting 
requirements, current operational demands and potential Homeland 
Defense missions. The results of this effort may change the number and 
type of BCTs and support brigades in the Army National Guard beginning 
in fiscal year 2008.
                                 ______
                                 
              Question Submitted by Senator Arlen Specter

    Question. I understand that the National Guard and the Active 
Components (AC) are working together to ensure the Guard and the AC use 
as many of the same analytical and reporting systems as possible to 
ensure they are compatible in combat. Will this effort, however, 
provide all of the functionality the Guard needs for normal peacetime 
operations and to rapidly and effectively respond to domestic 
emergencies?
    Answer. While DOD and the Army provide analytical and reporting 
tools our soldiers can use to operate as a cohesive enterprise, none 
have the ability to work outside of the federal force. Therefore, we 
are working on the requirements for a program, dubbed the ``National 
Guard Enterprise,'' to encompass all the National Guard requirements 
for all purposes. The program will work with all the DOD systems and 
will have the capabilities to work with state and local systems, 
provide management for all the state National Guard requirements, and 
provide the National Guard with good incident management capability. 
The North Carolina National Guard has already funded interoperable 
communications systems for themselves, and we're going to try it in our 
Joint Operations Centers at the National Guard Bureau and in several of 
the Gulf states initially and see where we can go from there. We'll 
move carefully and cautiously because I want it to work correctly, and 
I don't want any of our airmen or soldiers using a system that doesn't 
work the same as the systems used in the combat theater.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

           KIRTLAND NATIONAL GUARD'S ROLE WITH F-16 SQUADRONS

    Question. What is the long range plan for National Guard F-16 
squadrons like the New Mexico National Guard at Kirtland Air Force 
Base?
    Answer. The F-22 mission is an ideal follow-on flying mission for 
the New Mexico Air National Guard. The current F-16 block 30 platform 
is scheduled for retirement in fiscal year 2012-2017. The Air Force 
needs the high experience inherent in Air National Guard units to 
maximize the potential of the F-22. A likely organizational structure 
for Holloman Air Force Base is the ``Classic Associate'' model.

                NATIONAL GUARD'S ROLE IN BORDER SECURITY

    Question. Existing Federal law allows the National Guard to work on 
counter drug initiatives such as building fences and barriers along the 
border. As a border state senator, I know first-hand the success these 
initiatives have had in our war on drugs.
    Last year I introduced border security legislation that would 
expand the ability of States to use the National Guard in additional 
border efforts, including building roads, participating in search and 
rescue operations, and monitoring the international border. Under my 
legislation, the National Guard would not participate in any law 
enforcement activities and would be coordinated through the Departments 
of Defense and Homeland Security.
    I believe such legislation could expand on current border security 
efforts, like an operation recently conducted in New Mexico that 
involved the U.S. Army assisting border patrol agents by surveying the 
border and notifying border patrol agents of illegal crossers. 
Additionally, I think such legislation could save lives, as the 
National Guard could participate in search and rescues operations for 
the many individuals who try to cross the border in the desert 
Southwest and suffer dehydration or worse.
    Can you tell us a little bit about the National Guard's current 
role on the international border?
    Do you believe allowing the National Guard to participate in 
surveillance efforts, search and rescue operations, and construction 
projects could be a valuable source of training for our Guardsmen?
    Answer. The National Guard has for years provided support to 
security along the Nation's borders. Some of this has been in the form 
of support to law enforcement agencies performed as part of the 
National Guard counter-drug activities in border states. Additionally, 
National Guard engineer units have participated in innovative readiness 
training in which they hone their engineering, construction, planning 
and logistics skills by building fencing along the border. Our 
experience has been that this has indeed been good training.

             EMERGENCY POWER SOURCES FOR THE NATIONAL GUARD

    Question. I believe that as a key part of our nation's defense, the 
National Guard must have the tools it needs to protect Americans, 
including energy security that can be achieved through energy 
diversity.
    Do any of our National Guard Armories currently have alternative 
energy sources that they can utilize in emergencies?
    Have you considered what alternative energy sources might best be 
suited for our Armories?
    Answer. Some readiness centers constructed in the past several 
years have included diesel-powered emergency generators. This item 
became an official item of construction criteria in 2003 but was 
permitted as an exception to criteria on a case by case basis before 
that year.
    We have not yet been able to come up with viable alternatives to 
diesel-powered emergency generators. True alternative energy sources 
are, at this time, cost prohibitive and often technically unfeasible.

                       NATIONAL GUARD AND PLAYAS

    Question. New Mexico Tech operates a training, research, 
development, test and evaluation complex in the town of Playas, New 
Mexico. First responders, homeland security personnel, defense 
personnel and others may utilize the unique training capabilities 
offered in the remote, desert southwest town of Playas.
    I understand that you have visited Playas and seen some of its 
capabilities.
    Does the Playas training center offer special training 
opportunities to the National Guard?
    Answer. The Playas, New Mexico, facility offers National Guard 
units the opportunity to train with other government agency and 
Department of Defense first responders using interagency procedures, 
thus improving cooperation and coordination between these entities. The 
facility's unique capabilities--including use of explosives, sufficient 
airspace for unmanned aerial vehicle (UAV) and air operations, and use 
of urban settings for military operations--provides settings and 
training opportunities that are unavailable at most training 
facilities.

          NATIONAL GUARD AND THE ARMY'S AIR DEFENSE ARTILLERY

    Question. Thirty percent of the Army's Air Defense Artillery (ADA) 
is being assigned to the National Guard. Defense against rocket-
artillery-mortar, cruise missiles, and tactical ballistic missiles are 
now required of the ADA along with their traditional mission against 
manned aircraft. Additionally, these greatly expanded capabilities must 
be very mobile for integration into the Future Combat System.
    Which ADA capabilities does the National Guard feel it can best 
support?
    How will the National Guard ADA units be able to integrate their 
training into the net-centric, mobile units of the Future Combat 
System?
    Answer. The Army National Guard (ARNG) can be successful in all 
mission areas of Air Defense Artillery (ADA), except for the theater 
missile defense mission of the Patriot system, if properly resourced. 
The key to success for the ARNG's integration into net-centric warfare 
is for proper resourcing, especially in new equipment and full-time 
manning.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

    Question. The National Guard has played a critical role in our 
national security over the past several years. In light of their major 
role in Iraq and Afghanistan, as well as their critical role 
domestically in the hurricane response this past year, General Blum, 
what role do you see the National Guard taking in order to meet the 
security requirements of the United States, now and in the future?
    How do you see the National Guard's role and mission changing in 
the next several years?
    Answer. The National Guard's role in meeting the security 
requirements of the United States will continue to evolve as the 
nation's requirements evolve, but the National Guard will continue to 
remain a hallmark of performance to the nation as it has for nearly 
four hundred years. As a transformed force capable of joint and 
expeditionary warfare, the Guard also remains capable of responding to 
a broad range of civil and humanitarian crises. The Guard fights narco-
terrorism through our counterdrug programs. We stand guard over 
America's critical physical and cyber infrastructure. Our Airmen fly 
the vast majority of air sovereignty missions over America's cities, 
while our Soldiers man air and missile defense systems in the nation's 
capital and Alaska. We conduct peacekeeping operations in Kosovo and 
the Sinai, stand watch aboard military cargo ships as they transit the 
Persian Gulf, guard prisoners in Guantanamo Bay, and train the Iraqi 
and Afghan national armies. As recently as 2005, the Army National 
Guard contributed half of the combat brigades on the ground in Iraq. As 
much as the Guard does overseas, however, we must not lose sight of our 
responsibility at home. Our commitment to the nation's Governors is to 
not only provide each of them with sufficient capabilities under state 
control, but to also provide the appropriate mix of forces to allow 
them to respond to domestic emergencies. To meet this, the National 
Guard Bureau is committed to the fundamental principle that each and 
every state and territory must possess ten core capabilities for 
homeland readiness: a Joint Force Headquarters for command and control; 
a Civil Support Team for chemical, biological, and radiological 
detection; engineering assets; communications; ground transportation; 
aviation; medical capability; security forces; logistics; and 
maintenance capability. By focusing the Guard's priorities on 
recruiting and retention bonuses and initiatives, equipment reset and 
modernization, and obtaining critical domestic mission resources, our 
nation's future security will remain closely aligned with the 
transformation of the Guard as it continues to meet these challenges 
both at home and abroad.
                                 ______
                                 
        Question Submitted to Lieutenant General Clyde A. Vaughn
               Question Submitted by Senator Ted Stevens

    Question. The Committee provided the Army National Guard an 
additional $60 million for equipment in the National Guard and Reserve 
Equipment account in the fiscal year 2006 Defense Appropriations Act, 
and $700 million in title IX. Can you tell us what requirements these 
funds will fill?
    Answer. The National Guard and Equipment Account helps meet the 
equipment and system requirements identified by the Chief of the 
National Guard Bureau in the document entitled ``National Guard 
Equipment Requirements, Protecting America at Home and Abroad,'' which 
was sent to members of the House and Senate last September. These 
requirements fall into ten areas: Joint Force Headquarters and Command 
and Control; Civil Support Teams and Force Protection; Maintenance; 
Aviation; Engineer; Medical; Communications; Transportation; Security; 
and Logistics. One major area of focus for the Guard is improving 
Interoperable Communications in Disaster Response.
                                 ______
                                 
          Question Submitted to Major General Charles Ickes II
               Questions Submitted by Senator Ted Stevens

    Question. The Committee provided the Air National Guard an 
additional $60 million for equipment in the National Guard and Reserve 
Equipment account in the fiscal year 2006 Defense Appropriations Act, 
and $200 million in title IX. Can you tell us what requirements these 
funds will fill?
    Answer. For fiscal year 2006 the Air National Guard was approved 
$30 million in the National Guard and Reserve Equipment Account (NGREA) 
to fund equipment purchases versus the $60 million addressed in your 
question. The $30 million in fiscal year 2006 NGREA will fund equipment 
purchases to fulfill requirements in Precision Strike, Data Link/Combat 
Identification, 24 Hour Operations, Enhanced Survivability, Propulsion 
Modernization, Simulation Systems and Training. $200 million in fiscal 
year 2006 Title IX NGREA will help the Air National Guard fund 
equipment requirements identified by the Chief of the National Guard 
Bureau in the September 22, 2005, document entitled ``National Guard 
Equipment Requirements, Protecting America at Home and Abroad.'' These 
requirements include urgent needs to replace damaged and destroyed 
equipment used in support of hurricanes Katrina and Wilma, improve 
current capabilities, and modernize future capabilities. The equipment 
will enable the Air National Guard to better to respond to natural 
disasters, emerging homeland defense/homeland security needs, and 
leverage organic capabilities in support of the Global War on 
Terrorism.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JAMES R. HELMLY, CHIEF, 
            ARMY RESERVE, DEPARTMENT OF THE ARMY
    Senator Stevens. We will now hear from the leadership of 
the Reserve components: Lieutenant General James Helmly, Chief 
and Commander of the Army Reserve; Vice Admiral John Cotton, 
Chief of the Naval Reserve; Lieutenant General Jack Bergman, 
Commander of the Marine Corps Reserve; Lieutenant General John 
Bradley, Chief of the Air Force Reserve.
    General Helmly, I understand this is your final appearance 
before our subcommittee. We want to thank you for your 
appearances in the past and your cooperation with this 
subcommittee and wish you well in your next assignment.
    We welcome General Bergman, who is making his first 
appearance before us as Commander of the Marine Corps Reserve. 
It is a pleasure to have you before us, sir, and we look 
forward to working with you.
    It really is a pleasure to have you all here. We are sorry 
that the previous round has taken a little bit longer than we 
thought, but we wanted to hear your statements. Your statements 
are printed in full in the record and we would like to hear 
your comments.
    General Helmly.
    General Helmly. Senator Stevens, Senator Inouye, 
distinguished members of the subcommittee: Thank you for your 
time today. My name is Ron Helmly, as you noted, and I am an 
American soldier.
    I am privileged today to be accompanied by two other 
soldiers of your Army Reserve: Captain--and I would ask them to 
stand as I call their names--Captain Matthew R. Brown and 
Sergeant Brianne C. Dix. Both of these distinguished members of 
our force have served in combat in Iraq. Their presence reminds 
us all of why we are here, to support the men and women who 
have answered our Nation's call to duty.
    Captain Brown and Sergeant Dix are both representative of 
all of our members and I know I speak for my fellow chiefs, 
sailors, airmen, marines, coast guardsmen as well. They remind 
us of why we lead and why we are appearing before this 
subcommittee today.
    Thank you very much, Captain Brown, Sergeant Dix.
    Senator Stevens. Captain Brown, Sergeant Dix, we thank you 
very much for being here. We appreciate it. Thank you.
    General Helmly. Senator, I hope to convey to you clearly 
today what the Army Reserve is doing to address the many issues 
involved in changing our force from an industrial age force in 
reserve to a more modern, skill-rich, complementary force that, 
when brought to duty, capitalizes on the intrinsic value of 
civilian-based skills, trains and prepares warrior-citizens who 
can compliment our Army and joint forces.

                           PREPARED STATEMENT

    I ask that our prepared statement, which consists of our 
Army Reserve posture statement, be entered into the record as 
our prepared statement. I thank you the subcommittee for your 
time and for all you have done in the past and continue to do 
for our soldiers, sailors, airmen, marines, and their families, 
and I look forward to your questions. Thank you very much.
    Senator Stevens. Thank you very much. We appreciate that.
    [The statement follows:]

        Prepared Statement of Lieutenant General James R. Helmly

           PURPOSE AND ORGANIZATION OF THE POSTURE STATEMENT

    The 2006 Army Reserve Posture Statement (ARPS) provides an overview 
of the Army Reserve. It details accomplishments of the past year, as 
the Army Reserve continued to implement profound changes while 
simultaneously fighting the Global War on Terrorism. The Army Reserve 
understands its vital role in The Army Plan. This plan, endorsed by the 
Secretary of the Army in the 2005 and 2006 Army Posture Statements, 
centers around four overarching, interrelated strategies. The Army 
Reserve best supports The Army Plan by complementing the joint force 
with skill-rich capabilities. The Army Reserve programs, initiatives 
and requirements are designed to provide this additional support and 
are best described in the following strategies: (1) managing change; 
(2) providing trained and ready units; (3) equipping the force; and (4) 
manning the force. These strategies ensure that the Army Reserve, as an 
integral component of the Army, continues to meet its non-negotiable 
contract with the American public: to fight and win our Nation's wars.

                          TODAY'S ARMY RESERVE

    America remains a nation at war, fighting a Global War on Terrorism 
that demands the skill, commitment, dedication and readiness of all its 
armed services. Our adversary is intelligent, tenacious, elusive and 
adaptive--a viable threat to the United States' national security and 
freedom.
    By law, the purpose of the Army Reserve--to ``provide trained units 
and qualified persons available for active duty in the armed forces, in 
time of war or national emergency, and at such other times as the 
national security may require''--is a reminder that while the methods, 
tactics and adversaries we face in the Global War on Terrorism are 
drastically changed from that which we prepared for in the past, our 
Nation's dependence on the Army Reserve has not changed.
    Today's Army Reserve is no longer a strategic reserve, it is a 
complementary, operational force, an inactive-duty force that uses the 
energy and urgency of Army transformation and the operational demands 
of the Global War on Terrorism to change from a technically focused, 
force-in-reserve to a learning, adaptive organization that provides 
trained, ready, ``inactive-duty'' Soldiers poised and available for 
active service, as if they knew the hour and day they would be called. 
This fundamental shift provides significant challenges to our 
institution. Managing critical but limited resources to achieve higher 
readiness and continuing to recruit high-quality Soldiers, and 
sustaining a high tempo of operations are among the most essential of 
these challenges.
    As a fully integrated member of our nation's defense establishment, 
the Army Reserve depends on the resources requested in the President's 
budget. These funds allow the Army Reserve to recruit, train, maintain 
and equip forces to prepare for present and future missions. As 
detailed later in this document, the Army Reserve is simultaneously 
undergoing deep and profound change in how it organizes, trains, mans, 
manages, and mobilizes Soldiers and maintains its forces. We are 
reshaping the force to provide relevant and ready assets with a 
streamlined command and control structure. We are committed to 
examining every process, policy and program, and changing them to meet 
the needs of the 21st century as opposed to continuing them from the 
past. We will remain good stewards of the trust of the American public.
    The Army Reserve's future--an integral component of the world's 
best Army, complementing the joint force with skill-rich capabilities, 
skills and professional talents derived from our Soldiers' civilian 
employment and perfected by daily use--is truly more a current reality 
than a future one. Every initiative, change and request is geared to 
one end--to make the United States Army Reserve a value added, integral 
part of the Army: the preeminent land power on earth--the ultimate 
instrument of national resolve--that is both ready to meet and relevant 
to the challenges of the dangerous and complex 21st century security 
environment.
    The Army Reserve Soldier has always answered our country's call to 
duty--and we always will!

                                  Lt. Gen. James R. Helmly,
                                               Chief, Army Reserve.

                          ARMY RESERVE HISTORY
                    HISTORICAL BACKGROUND AND TODAY

    The Army Reserve is an institution with a long tradition of 
adapting to the changing security needs of the Nation. The profound 
changes currently underway today, with more than 40,000 Army Reserve 
Soldiers mobilized in support of the Global War on Terrorism, are an 
accelerated continuation of that tradition.
    1908: The official predecessor of the Army Reserve was created in 
1908 as the Medical Reserve Corps and subsequently titled the Organized 
Reserve Corps. It was a peacetime pool of trained officers and enlisted 
men that the Army mobilized as individual replacements for units in the 
world wars of the 20th century. Today, the Army Reserve makes up 67 
percent of the Army's total medical force with physicians, dentists, 
nurses and veterinarians bringing their civilian skills and experience 
to Soldiers on the battlefield.
    1916: Using its constitutional authority to ``raise and support 
armies,'' Congress passed the National Defense Act in 1916 that created 
the Officers' Reserve Corps, Enlisted Reserve Corps and Reserve 
Officers' Training Corps. The Army mobilized 89,500 Reserve officers 
for World War I (1917-1919), one-third of whom were physicians. 
Currently, more than 25,000 students at 1,100 colleges and universities 
are enrolled in Army ROTC.
    1920: After the war, the separate Reserve corps for officers and 
enlisted men were combined into the Organized Reserve Corps, a name 
that lasted into the 1950s. Today, the Army's Title 10 force is known 
as the Army Reserve.
    1940: In preparation for World War II, the Army began calling Army 
Reserve officers to active duty in June 1940. In the year that 
followed, the number of Reserve officers on active duty rose from less 
than 3,000 to more than 57,000.
    1941-1945: During World War II (1941-1945), the Army mobilized 26 
Reserve (designated) infantry divisions. Approximately a quarter of all 
Army officers who served were from the Reserve, including more than 
100,000 Reserve Officers' Training Corps graduates. More than 200,000 
Reserve Soldiers served in the war.
    1950-1953: The Korean War (1950-1953) saw more than 70 units and 
240,000 Army Reserve Soldiers called to active duty. While the Korean 
conflict was still underway, Congress began making significant changes 
in the structure and role of the Reserve. These changes transformed the 
Organized Reserve into the United States Army Reserve.
    1970s: By the 1970s, the Army Reserve was increasingly structured 
for combat support and combat service support. The end of the draft 
coincided with announcement of the Total Force Policy in 1973. The 
effect of an all-volunteer force and the Total Force Policy was a shift 
of some responsibilities and resources to the Army Reserve. Today, in 
the spirit of the Total Force policy, when America's Army goes to war, 
the Army Reserve goes to war.
    1991: Army Reserve Soldiers were among the first reserve component 
personnel called to active duty for operations Desert Shield/Desert 
Storm and were among the last to leave the desert. More than 84,000 
Army Reserve Soldiers provided combat support and combat service 
support to the United Nations forces fighting Iraq in the Persian Gulf 
and site support to United States forces elsewhere in the world.
    1993: In the post-Cold War era, the Army restructured its reserve 
components. Reduction in active-component end strength made the Army 
even more reliant on the Army Reserve and the Army National Guard. A 
1993 agreement among all three components called for rebalancing the 
preponderance of reserve component combat formations in the Army 
National Guard, while the Army Reserve would principally focus on 
combat support and combat service support. Today, the Army Reserve 
provides 30 percent of the Army's combat support and 45 percent of its 
combat service support capabilities.
    1995: Since 1995, Army Reserve Soldiers have been mobilized 
continuously. For Bosnia and Kosovo, 20,000 Army Reserve Soldiers were 
mobilized.
    2006: As of February 2006, more than 147,000 Army Reserve Soldiers 
have been mobilized in support of the Global War on Terrorism, with 
more than 40,000 still serving on active duty.

                           STRATEGIC OVERVIEW

    Today's security environment is volatile, uncertain, complex and 
ambiguous. The elements of that environment often interact randomly and 
without sufficient lead time to develop a deliberate response. The need 
for Army Reserve Soldiers and units to be fully prepared to respond, 
prior to mobilization, is paramount.
    World conditions reveal a variety of emerging challenges to our 
national security interests: Wider range of adversaries; Weapons of 
mass destruction; Rogue state armies; Cyber network attacks; Worldwide 
terrorism; and The global economy.
    National conditions present additional challenges: Protracted war; 
Homeland defense; Budget pressures; Public focus; Global War on 
Terrorism (GWOT); Disaster response/relief; Declining manufacturing 
base; and Propensity for military service.
    Within such an environment, the Army Reserve is changing from a 
strategic reserve to an inactive-duty force of skill-rich capabilities 
with enhanced responsiveness to complement the Army's transformation to 
a more lethal, agile and capabilities-based modular force. The Army 
Reserve's force structure is no longer planned as a force in reserve--a 
``supplementary force;'' rather, it is a force that complements the 
Army and joint forces. Today's units are to be prepared and available 
to deploy with their full complement of trained Soldiers and equipment 
when the Nation calls.
    This transformation will progress as the Army Reserve continues to 
meet the ongoing operational challenges of the Global War on Terrorism, 
while simultaneously supporting other missions around the globe.

                            MANAGING CHANGE

Accomplishments
    Since the beginning of 2005, the Army Reserve has:
  --Developed and applied a cyclic readiness and force management 
        model, currently called Army Force Generation (ARFORGEN). 
        Applied the ARFORGEN logic to how Army Reserve units are 
        scheduled and resourced for deployment. In 2005, about 75 
        percent of the Army Reserve mobilized units were from the Army 
        Reserve Expeditionary Force packages using the ARFORGEN model.
  --Programmed inactivation of 18 general officer non-war-fighting 
        headquarters.
  --Awarded 11 military construction contracts in 2005 to construct 
        nine new Army Reserve training centers that will support more 
        than 3,500 Army Reserve Soldiers in Kansas, Florida, Utah, 
        Pennsylvania, Maryland, New Jersey and Colorado.
  --Awarded two major range improvement project contracts for Fort 
        McCoy, WI.
  --Activated two functional commands, the Military Intelligence 
        Readiness Command and Army Reserve Medical Command, providing 
        focused training and force management for medical and military 
        intelligence Army Reserve forces.
  --Began realignment of command and control of U.S. Army Civil Affairs 
        and Psychological Operations forces from Special Operations 
        Command to the U.S. Army Reserve Command to improve training 
        and force management.
  --Initiated action to close or realign 176 Army Reserve facilities 
        under BRAC, a higher percentage than any other component of any 
        service, moving Army Reserve Soldiers into 125 more modern 
        facilities.
  --Began applying Lean Six Sigma business management techniques to 
        improve supporting business processes and methods.
    Transforming to meet today's demand for Army Reserve forces has led 
to the development of a host of initiatives. When implemented, these 
initiatives will accomplish the following:
  --Ensure more focused and efficient management, increasing units' and 
        Soldiers' readiness.
  --Increase the number of Army Reserve Soldiers in deployable units.
  --Provide improved facilities and more effective training to Army 
        Reserve Soldiers.
  --Streamline the command and control of Army Reserve forces.
  --Increase the number of Soldiers in specialties needed to support 
        the GWOT.
  --Improve Army Reserve business, resourcing and acquisition 
        processes.
Focused, Efficient Management: Army Reserve Expeditionary Force
    The foundation for Army Reserve support to future contingencies is 
the Army Reserve Expeditionary Force (AREF). Incorporating a strategy 
for cyclically managing Army Reserve force readiness, AREF directly 
supports the Army's Force Generation model. AREF applies Army 
rotational force doctrine to decisions regarding training, equipping 
and leader deployment. The management system applies packaged and 
cyclic resourcing of capabilities instead of the outmoded, tiered 
resourcing model, which supported a now obsolete, time-phased force 
deployment list against prescriptive operational plans. AREF provides 
more focused, efficient support to units about to deploy by developing 
packages that can be called to duty as needed. The system also 
capitalizes on constrained resources to best utilize equipping and 
readiness dollars.
    Under AREF, most Army Reserve units are assigned to one of the 
expeditionary force packages. The packages move through a rotational 
cycle of readiness levels, ranging from reconstitution to validation 
and employment. The units in each package will have a one-year 
``availability'' period during which they will be ``on call'' or 
deployed. AREF enables the Army Reserve to achieve a high level of 
readiness in planned, deliberate time periods and provides a means to 
program and manage resources in advance. This resourcing strategy also 
ensures that deploying units be trained individually and collectively 
on the most modern equipment and have that equipment available when 
needed.
    When fully implemented, the AREF strategy will add rotational depth 
to the force, spread the operational tempo more evenly throughout the 
Army Reserve, and add predictability to the processes that support 
combatant commanders, Soldiers, families and employers.
Increasing the Operational Force
    In 2005, the Army Reserve began divesting itself of force structure 
that exceeded its congressionally authorized end strength of 205,000. 
The Army Reserve also began reducing the number of spaces in non-
deploying units. These actions allow more Soldiers to be assigned to 
deployable units and to be fully prepared for mobilization. This 
process requires a substantial ``leaning out'' of our training base and 
support headquarters, while carefully maintaining high quality training 
and support services. As an example of training base efficiencies, in 
fiscal year 2005, the Army Reserve continued to develop the new 84th 
U.S. Army Reserve Readiness Training Command that resulted from the 
merger of the Army Reserve Readiness Training Center and the 
Headquarters of the 84th Division (Institutional Training). This 
consolidation improved the Army Reserve's individual training and 
leader education capabilities while creating leaner training support 
command and control structures. Reducing the number of units and 
focusing efforts to get more Soldiers into deployable units will allow 
more effective and cost-efficient management.
Improved Facilities and Training Support: Realignment and Closure
    Base Realignment and Closure (BRAC) 2005 enables the Army Reserve 
to reshape its force and command, control and management headquarters, 
improving readiness while realizing significant cost reductions.
    The BRAC 2005 recommendations became law in November 2005. BRAC 
provides the Army Reserve the opportunity to station forces in the most 
modern, up-to-date facilities possible and to redesign a Cold-War 
structure that no longer reflects current requirements. Under BRAC, the 
Army Reserve will close or realign 176 of its current facilities. This 
is a higher percentage than any other military component. Army Reserve 
units from these older centers and facilities will move into 125 new 
Armed Forces Reserve centers (AFRCs) that are shared with at least one 
other reserve component, helping support ``jointness'' and efficiency. 
This construction will eliminate duplication of facilities within the 
same geographical areas serviced by different components of our Armed 
Forces. Some of these moves have already begun. The new AFRCs will have 
high-tech, distance learning, and video teleconferencing capabilities, 
fitness centers, family readiness centers, and enhanced maintenance and 
equipment storage facilities. These dramatic changes, closely 
coordinated among Army Reserve planners and the BRAC agencies, were 
synchronized with the Army Reserve's overall effort to reduce its 
organizational structure and allow more deployable forces.
Streamline Command and Control
    Assisted by BRAC, the executive restructuring of Army Reserve 
forces creates a more streamlined command, control, and support 
structure, develops future force units and reinvests non-deploying 
force structure into deploying units. The Army Reserve will 
disestablish the current 10 regional readiness commands (RRCs) that 
provide command and control, training, and readiness oversight to most 
of the Army Reserve units in the continental United States, and will 
reduce the number of general-officer commands.
    Simultaneously, four regional readiness sustainment commands 
(RRSCs) will be established. These RRSCs, which will be fully 
operational by the end of fiscal year 2009, will provide base 
operations and administrative support to units and Army Reserve 
Soldiers within geographic regions. For the first time, all of the Army 
Reserve operational, deployable forces will be commanded by 
operational, deployable command headquarters.
    Some of the future force brigade-level units will include support 
brigades (e.g., maneuver enhancement brigades, sustainment brigades, 
engineer, combat support, chemical and military police brigades).
    Two functional, deployable commands were converted in 2005. The 
Army Reserve activated the Military Intelligence Readiness Command 
(MIRC) at Fort Belvoir, VA, and the Army Reserve Medical Command (AR-
MEDCOM) at Pinellas Park, FL. The MIRC is integrated with the Army 
Intelligence and Security Command, and the AR-MEDCOM is integrated with 
the Army Medical Command. The AR-MEDCOM will eventually be further 
converted to a medical deployment support command and will be 
deployable. Aviation and military police commands are two additional 
functional commands being activated.
    The result of the reshaping of the Army Reserve forces will be a 
more streamlined command and control structure and an increase in 
ready, deployable assets to support the Global War on Terrorism.
Increasing Civil Affairs and Psychological Operations Assets
    The skills required today to assist civil governments gain their 
footing are not inherently military. It is in the ranks of the Army 
Reserve where city managers, bankers, public health directors and other 
such specialists vital to stability and support operations are found. 
For example, 96 percent of the Army's current civil affairs Soldiers 
are Army Reserve Soldiers; two of the three psychological operations 
groups--with their valued skills--are in the Army Reserve.
    Over the next five years, the Army Reserve will add 904 Civil 
Affairs Soldiers and 1,228 Psychological Operations Soldiers to its 
inventory. The addition of these critical skills to the Army Reserve 
comes without additional Congressional funding; the positions will be 
transferred from the existing force.
    Additionally, the Chief of Staff of the Army has approved the 
transfer of Army Reserve Civil Affairs and Psychological Operations 
forces from the U.S. Special Operations Command to the U.S. Army 
Reserve Command. This will fully integrate Army Reserve Civil Affairs 
and Psychological Operations elements into the conventional force, 
providing dedicated support to conventional operations.
Improving Business Practices
    The Army Reserve is aggressively incorporating Lean Six Sigma 
concepts and practices into its business processes. Six Sigma is a 
problem-solving methodology that uses data and statistical analysis to 
create break-through performance within organizations.
    The Army Reserve is embracing this program not only as an 
efficiency tool, but also as the very foundation for change. To 
demonstrate this commitment, the Army Reserve has stepped forward as a 
front-runner in Lean Six Sigma implementation within the Army. The 
Chief, Army Reserve has mandated Army Reserve leaders to constantly 
question and review current business processes within the Army Reserve 
to assess their value to readiness and to seek ways to improve 
responsiveness.
    In conjunction with the Secretary of the Army's business 
transformation order, the Army Reserve began development of its 
deployment plan and completed classroom training of five Six Sigma 
``green belts'' (coach-facilitators), who are currently working their 
first projects. In addition, 40 senior leaders received two-day 
executive level business transformation training.
    The continuation of training is planned with a goal of 
institutionalizing the Army Reserve program fully by achieving the 
highest level Six Sigma certification within the Army staff. The 
organizational structure to support the program is being defined and 
established to ensure top-level support.
Compelling Needs
    Continued support of Army Reserve Expeditionary Force and other 
programs associated with Army Force Generation.
    Steady funding line for BRAC-generated changes to Army Reserve 
facilities.

                   PROVIDING TRAINED AND READY UNITS

Accomplishments
            Since 9/11:
    As of February 2006, the Army Reserve has mobilized more than 
147,000 Soldiers' more than 25,000 of those Soldiers served on multiple 
deployments.
    98 percent of Army Reserve units have provided support to current 
operations.
            Fiscal Year 2005 and beyond:
    Performed over 1,900 unit mobilizations in fiscal year 2005.
    Provided a CH-47 Chinook aviation company to support Pakistan 
earthquake relief efforts, transporting victims, relocating refugees 
and delivering supplies.
    Provided relief support in response to Indiana tornado damage, 
locating victims, draining lakes and retaining pond areas.
    Supported Gulf Coast hurricane relief efforts by flying CH-47 
Chinook helicopters and providing two truck companies to transport 
supplies, Soldiers and flood victims.
    Scheduled Army Reserve units in 2006 and 2007 to align with the 
Army Reserve Training Strategy (ARTS) to produce a trained and ready 
force using a cyclic force readiness model.
    Developed and implemented the Exercise WARRIOR to challenge units' 
collective responsiveness under stressful, contemporary operating 
environment conditions.
    Refined existing functional exercises (targeted to a specific 
branch) to LEGACY exercises to train technical skills in a tactical 
environment.
Operations
    In December of 2005, more than 40,000 Army Reserve Soldiers were 
serving on active duty in 18 countries around the world. This is a much 
changed world from the one the Army Reserve operated in less than a 
decade ago.
    The Army Reserve is on the leading edge in training Iraqi forces. 
More than 750 Soldiers from the Army Reserve's 98th Division 
(Institutional Training), Rochester, NY, and other Army Reserve units 
returned from Iraq after spending a year training Iraqi military and 
security forces. Soldiers from the 80th Division (Institutional 
Training), Richmond, VA, replaced the 98th and continue this critical 
mission today. Their continuing efforts, in conjunction with other 
coalition forces, will enable the Iraqis to increasingly provide their 
own security, thus hastening the eventual maturing of Iraq's fledgling 
democracy. From supporting all military branches, running truck convoys 
of food, ammunition, fuel and various other items, to responding to 
ambushes and directly engaging the enemy, the Army Reserve has been an 
integral element of the U.S. military and coalition efforts in Iraq, 
Afghanistan and elsewhere throughout the CENTCOM area of 
responsibility.
Civil Support
    In September 2005, the Army Reserve deployed emergency preparedness 
liaison officers, CH-47 heavy-lift helicopters, military history 
detachments and truck companies to assist in the federal disaster 
response to hurricanes Katrina and Rita.
    During the mission, the Army Reserve made available three Army 
Reserve centers to house National Guard Soldiers responding from other 
states. Additionally, the centers provided operating space for the 
Federal Emergency Management Agency and first responder 
representatives.
    The Army Reserve also provided desperately needed fuel for the 
American Red Cross in order to sustain refrigeration of perishable food 
for the evacuees.
    As recent missions make clear, the Army Reserve has significant 
numbers of potentially critical capabilities that may be needed in 
future homeland defense and security missions. These capabilities 
include skilled medical professionals who can practice anywhere in the 
United States, hazardous materials reconnaissance, casualty extraction 
from inside a combat zone, mass casualty decontamination, critical 
medical care, engineering support and water purification.
    As of September 2005, the Army Reserve, in conjunction with the 
Pennsylvania State Fire Academy, had trained and certified more than 
350 Army Reserve chemical Soldiers to the federal standard, and trained 
more than 2,400 chemical and medical Soldiers to perform mass casualty 
decontamination.
    Twenty-five Army Reserve chemical defense units are fielded with 
specialized weapons of mass destruction-response equipment for 
hazardous material and mass casualty decontamination operations. 
However, sustaining and upgrading these robust capabilities is not 
achievable under current funding levels.
Army Reserve Training Strategy
    As the world and its threats have changed, so have the ways the 
Army Reserve approaches preparing and training its members to fight the 
nation's battles and protect its vital interests. The Army Reserve 
Training Strategy (ARTS) is the strategic training vision, establishing 
the fundamental concepts to implement the train-alert-deploy model for 
Army Reserve Soldiers. ARTS creates progressive training and readiness 
cycles, which provides priorities for resources, managed readiness 
levels and predictable training. Today's environment does not 
accommodate yesterday's ``mobilize-train-deploy'' model. Today's Army 
Reserve Soldiers must be trained and ready prior to mobilization as if 
they knew the day and hour they would be called. ARTS is a critical 
element of the Army Reserve Expeditionary Force, which supports the 
Army Force Generation (ARFORGEN) model. As units advance through a 
series of cumulative and progressively complex training events, each 
training phase improves the level of unit readiness.
  --During the reset/train phase of ARFORGEN, Army Reserve units begin 
        reconstitution as Soldiers complete needed professional 
        education and other skill-related training. The focus and 
        priority is on individual training. The culminating event for 
        the reset/train phase of ARFORGEN is the WARRIOR exercise; a 
        multi-functional, multi-echelon, multi-component, joint and 
        coalition event that improves unit proficiency at the company/
        platoon level.
  --Units in the second year of the Reset/Train force pool will 
        concentrate on perfecting their collective mission tasks by 
        participating in functional exercises at the squad/crew level. 
        The Army Reserve conducts a wide range of functional exercises 
        throughout the United States providing skill specific training 
        for Soldiers and units under field conditions. For example, the 
        Quartermaster Liquid Logistics Exercise provides a challenging 
        collective training venue for water purification, water 
        production, and petroleum, oil and lubricants (POL) units. 
        Other functional exercises are conducted for military police, 
        transportation, maintenance and medical units.
    The readiness and training goals for Army Reserve forces are the 
same as those for the Active component and in every instance the Army 
Reserve has provided trained and ready Soldiers. While the standards 
are the same, the conditions under which the Army Reserve prepares for 
its missions are significantly different. The limited training time for 
Army Reserve Soldiers competes with numerous civilian career priorities 
and must be used effectively and efficiently.
Premier Training: Warrior Exercise (WAREX)
    Warrior exercises are combined arms ``combat training center-like'' 
exercises. These exercises include opposing forces, observer-
controllers and structured after-action reviews. They provide branch/
functional training for combat support/combat service support units in 
a field environment. Future warrior exercises will also serve as the 
capstone, externally evaluated, collective training event to move Army 
Reserve units from the Reset/Train Pool of AREF into the Ready Pool. 
The 90th Regional Readiness Command conducted the first Warrior 
Exercise in June 2005 at Fort Bliss, Texas, training more than 3,500 
Soldiers.
Experience-Based Training
    Capitalizing on recent experiences in the Global War on Terrorism 
and lessons learned, Army Reserve training continues to adapt to meet 
changing battlefield conditions and an agile, thinking enemy.
            Counter Improvised Explosive Device Train-the-Trainer (T3) 
                    Course
    Initially unsophisticated and relatively easy to detect as a 
roadside bomb, improvised explosive devices (IEDs) have become more 
complex in design and increasingly lethal over time. The purpose of the 
Counter Improvised Explosive Device (CIED) Train-the-Trainer (T3) 
Course is to train trainers in countering IED threats, with the first 
priority being those troops mobilizing and deploying to Iraq and 
Afghanistan. The goal is to close the tactical performance gap between 
unit pre-mobilization training tasks, conditions, standards, and the 
actual tactical environment and mission expectations in theater.
    The 84th U.S. Army Reserve Readiness Training Command at Fort 
McCoy, WI, trained 360 Soldiers during several five-day CIED T3 courses 
in fiscal year 2005. These trainers have returned to their home 
stations to integrate CIED training into their training programs. CIED 
training provides graduates the knowledge, skills and ability to 
provide expert advice to their unit commanders as they develop a 
training strategy that incorporates CIED tactics into multi-echelon, 
pre-mobilization training.
            Convoy Training
    Convoys are now combat patrols. Recognizing the dangers of convoy 
operations, the Army Reserve has developed and implemented a convoy 
training program. In addition to counter attack methods, the training 
familiarizes Soldiers with the driving characteristics of armored 
vehicles. The program focuses on three specific areas:
  --Counter Improvised Explosive Device train-the-trainer skills
  --Integration of live fire into convoy operations training
  --Development of a combat driver training program that will 
        progressively develop individual driver skills and unit convoy 
        capabilities as units migrate through the ARFORGEN/AREF cycle. 
        An initial, individual skills development program employing 
        High Mobility Multi-purpose Wheeled Vehicles (HMMWVs) with kits 
        installed to replicate the driving characteristics of up-
        armored HMMWVs was initiated in 2005.
    The priority of training is to units that are scheduled for 
deployment.
            Combat Support Training Centers
    The Army Reserve plans, after BRAC implementation, to establish two 
combat support training centers (CSTCs)--the CSTC at Fort Hunter 
Liggett, CA, and the Joint Mobilization Training Center at Fort Dix, 
NJ. These will provide much-needed training and maneuver space for 
technical and field training in austere environments, more rigorous and 
realistic weapons qualification, classroom training, and capability to 
conduct Army Reserve unit collective training as well as support the 
Warrior Exercise program described earlier. Both training centers will 
also support joint, multi-component, interagency, and convoy training; 
up to brigade level at Fort Hunter-Liggett, and up to battalion level 
at Fort Dix.
    Units in the Army Reserve must experience a combat training center 
(CTC) or combat training center-like event to validate training and 
readiness levels prior to mobilization. The Army Reserve continues to 
partner with Forces Command to incorporate its combat support and 
combat service support in the combat training center rotations. 
Additionally, the Army Reserve will assist in the development of the 
concept for exportable CTC capability for reserve component units 
unable to access training at the National Training Center or Joint 
Readiness Training Center. CTC and/or exportable training are 
essential, not only for unit preparation for mobilization and 
deployment, but also for the longer term leader development impacts 
such training experiences provide.
            Center for Lessons Learned Mobile Training Team Seminar
    The Army Reserve collaborated with the Army's Center for Lessons 
Learned (CALL) in 2005, dispatching mobile training teams (MTTs) which 
conducted four regional seminars to unit leadership teams, with a 
specific focus on those units identified for mobilization in 2006. 
These CALL MTTs provided orientations on the Islamic and Iraqi culture, 
the most recent lessons-learned emerging from theater, highlights of 
unit after action reports, and the most effective combat tactics, 
techniques and procedures. The MTT discussion topics also include a 
current Operation Iraqi Freedom/Operation Enduring Freedom operations 
overview highlighting challenges units can expect during the 
mobilization and deployment process.
            The Army Reserve Leadership Development Campaign Plan
    The Army Reserve Leadership Development Campaign Plan, updated and 
operationalized in 2005, establishes requirements and integrates 
programs unique to the Army Reserve. Two of the more significant 
components are:
    The Senior Leader Training Program focuses on general officer and 
colonel-level leaders with seminars focused on organizational change, 
Army transformation and ethics-based leadership. All major subordinate 
commands of the Army Reserve Command as well as the 7th Army Reserve 
Command (Europe), 9th Regional Readiness Command (Hawaii), and the Army 
Reserve Staff have undergone this training.
    The Army Reserve Brigade and Battalion Pre-Command Course has been 
upgraded to better prepare field grade commanders and command sergeants 
major to lead Army Reserve Soldiers. In addition to a company pre-
command course for commanders, Army Reserve company command teams 
(commanders, first sergeants and unit administrators) participate in a 
new company team leader development course to better prepare unit 
command teams for the challenges of leadership at the crucial company 
level.
Enhancing Mobilization
    In order to enhance the readiness of mobilizing units, the Army 
Reserve is successfully using a process called phased mobilization. The 
goal of phased mobilization is to minimize unit personnel 
reassignments, enhance Soldier medical and dental readiness and skill 
training, improve unit leadership, and enhance individual skill and 
unit collective training prior to unit deployments.
    Under the phased mobilization concept, selected unit personnel 
mobilize in intervals prior to the entire unit's mobilization so that 
they may perform Soldier leader training, Soldier skill training and 
unit collective training. Phased mobilization allows selected Soldiers 
to receive individual training according to a planned and phased 
schedule that ensures they are fully trained and mission ready for 
timely mission execution. Additional funding will be required to 
support this crucial program.
Compelling Needs
    Increase fiscal year 2007 Reserve Personnel, Army Reserve funding 
levels.
  --To resource Army Force Generation-phased training requirements 
        including new equipment training, improved collective training, 
        Warrior Exercises, leader education and mission environment 
        familiarization training.
    Increase fiscal year 2007 Operations and Maintenance, Army Reserve 
funding levels.
  --For increased emphasis and additional operating tempo for warrior 
        task and drill training; skill reclassification training, 
        convoy live fire training and additional support.
  --Training equipment sets to support Army Reserve Training Centers.
  --For dedicated equipment training sets at centralized locations and 
        training equipment sets for schools and deployable units.
  --To replace Army Reserve-owned Stay-Behind-Equipment left in 
        Southwest Asia.
  --For Modular Force equipment needed for unit level collective 
        training in a field environment and to support designated 
        individual and collective training locations.
    Establishment of Combat Support Training Centers.
  --To establish and resource combat support training centers at a 
        minimum of two of the Army Reserve's four primary 
        installations.

                          EQUIPPING THE FORCE

Accomplishments
            Since 9/11:
    Mobilized virtually entire Army Reserve deployable strength without 
a single unit being rejected for logistics readiness--more than 250,000 
items (50,000 transactions) cross-leveled among Army Reserve units.
    Developed and fielded a variety of logistics information management 
programs to improve situational awareness and support decision making.
    Developed and implemented innovative, effective, and economical 
methods to improve logistics readiness--500 medium tactical trucks were 
withdrawn from prepositioned stocks; used depot maintenance to upgrade 
older medium tractors; rebuilt HMMWVs withdrawn from direct reporting 
maintenance organizations.
            Fiscal Year 2005:
    All Army Reserve units in Operation Iraqi Freedom rotation in 
fiscal year 2005 mobilized at deployment criteria.
    Developed Army Reserve equipping strategy to make most effective 
and efficient use of available equipment.
    Delivered more than 3,000 M4s and 1,000 Squad Automatic Weapons 
Replacing M16A1 rifles and M60 machine guns.
    Reduced Army Reserve logistics reconstitution backlog from a daily 
average of nearly 15,000 items in fiscal year 2004 to just over 7,500 
in fiscal year 2005.
New Equipment Strategy--How it Works
    The Army Reserve has developed a new strategy to make the most 
effective and efficient use of its equipment. The strategy includes 
maintaining equipment at four main areas: home station, strategic 
deployment sites, individual training sites and collective training 
sites. The new strategy supports the Army Force Generation and the Army 
Reserve Expeditionary Force (AREF) management systems. It ensures the 
best available equipment is provided to Army Reserve Soldiers where and 
when they need it, as they move through the pre-mobilization training 
phase of the AREF cycle to mobilization and deployment.
    While individual equipment, such as weapons and masks, will 
continue to be maintained at unit home stations, only enough of a 
unit's major items--trucks, forklifts, etc.--to allow for effective 
training and to support homeland defense requirements will also be 
there. The system allows remaining major items to be positioned at 
various other key training and positioning sites.
    In the new model, units will be moved to the equipment located at 
the training sites, rather than moving equipment to the units. Creating 
centrally located equipment pools to support directed and focused 
training will enable the Army Reserve to harvest efficiencies in 
resourcing and maintaining its equipment.
Individual Training Sites
    Some of the equipment will be consolidated in individual training 
sites. In a site established for individual training, Soldiers qualify 
on their individual skills--specified, job-related skills (e.g., nurses 
are tested in medication procedures; lawyers, in international law). 
This is the first phase of the training cycle, followed by training at 
unit home stations.
Collective Training Sites
    Another pool of consolidated equipment will be kept at collective 
training sites. Following home station unit training, units progress to 
collective training. Successful participation in exercises at these 
sites validates units as ready to conduct their wartime mission.
Strategic Deployment Sites
    Some of the major end items are consolidated at Strategic 
Deployment Sites (SDSs). After inspection and assembly into unit sets, 
major equipment items are placed in controlled humidity storage at the 
SDSs. After units are validated through individual and collective 
training cycles and called to deploy, equipment at these sites will be 
shipped directly to theater.
    Progressing through individual training, home station training and 
then participating in larger exercise-driven collective training is the 
normal training cycle to prepare for a deployment. Pre-positioning 
equipment at these sites is a cost-efficient system of support.
Compelling Needs
            Procurement of equipment to support modularity
    Night vision systems.
    Chemical/biological/radiological detection/alarm systems.
    Medical equipment.
    Light-medium trucks (75 percent do not support single-fleet policy, 
integral to training and operational efficiency).
    Medium tractors (50 percent do not support single-fleet policy, 
integral to training and operational efficiency.
            Sustainment
    Sustainment of depot maintenance levels.
    Recapitalization of tactical truck inventory.
    Army Reserve tactical maintenance contract labor to reduce 
mobilization and training equipment backlogs.

                           MANNING THE FORCE

    The Soldier has always been and remains the centerpiece of the 
Army. The Army Reserve is committed to making the best use of our most 
precious resource and is intent that those programs that affect 
Soldiers and families will be our top priority. First, Soldiers and 
their families need to know what to expect up front. The expectation of 
service in the Reserve is much changed from a decade ago. Army Reserve 
Soldiers and incoming recruits need to know that. Today's advertising 
and communications reflect the reality of the contemporary operating 
environment and the culture that surrounds this proud institution. The 
Army Reserve will not lower its standards, but will instead use a host 
of incentives and changed policies to access the best candidates for 
Army Reserve service.
    Additionally, the Army Reserve will strive to ensure that the best 
quality of care for our Soldiers and their families is provided while 
constantly working to improve the quality of life for Soldiers, 
civilians and their families. Future personnel plans will assure we can 
maintain both personnel strength and readiness. The Army Reserve 
leadership will manage personnel through accession and assignment, 
reassignment, training and retraining or reclassification. 
Additionally, leadership will manage relocation in adherence to the 
AREF and its integration into the ARFORGEN model.
Accomplishments
            Since 9/11:
    As of February, 2006, 147,000 Army Reserve Soldiers had mobilized 
in support of GWOT, some more than once.
    Developed and refined several information technology/management 
systems streamlining accountability and business processes.
    Reduced attrition from 24.7 percent in 2001 to 22.5 percent in 
fiscal year 2005.
    Established an Army Reserve casualty affairs program and office to 
care for Soldiers and their grieving families
            Fiscal Year 2005:
    Fully implemented the Trainees, Transients, Holdees and Students 
(TTHS) Account--a personnel accounting practice that enhances the 
readiness of Army Reserve units.
    Initiated a family programs Web portal to provide information: 
www.arfp.org/cys.
    Created and fully staffed 63 mobilization/deployment assistant 
positions in communities throughout the country.
    Recognized Soldiers' sacrifices by presenting nearly 26,000 awards 
in the Welcome Home Warrior-Citizen Program.
    Realigned and enhanced incentives and benefits for Army Reserve 
Soldiers and families.
    Established an employer relations program that is building positive 
and enduring relationships with employers.
    Revised several personnel policies under the Chief, Army Reserve, 
to better lead and manage Army Reserve assets.
Culture Change
    A critical element to support profound change in the Army Reserve 
is the cultural shift now occurring. Continuous reinforcement of Army 
Values, the expectation of deployment, the ability to think 
innovatively and leader development are all part of that cultural 
shift. While past Army Reserve advertising messages focused on 
benefits, downplaying the effort required for service, ``Honor is never 
off duty'' is now our touchstone. The Soldiers Creed and the Warrior 
Ethos are the bedrock of our force.

                ARMY RESERVE ACCESSIONS--FISCAL YEAR 2005
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Mission................................................          28,485
Actual.................................................          23,859
Delta..................................................          (4,626)
Mission percent........................................            83.8
------------------------------------------------------------------------

Recruiting
    While accessioning fell short by 16.2 percent of its goal in 2005, 
a variety of initiatives and improvements, such as those listed below, 
are underway to achieve our recruiting goals in 2006 to meet the needs 
of both personnel strength and readiness. Leaders can now access, 
assign or reassign, train, re-train or reclassify Soldiers into the 
Army Reserve more efficiently, responsively and effectively.
Selected Reserve Incentive Program
    The Selected Reserve Incentive Program (SRIP) was crucial in 2005. 
It enhanced the recruiting of Soldiers in critical specialties to meet 
the Army Reserve readiness needs. Continued Congressional support 
listed below will be just as crucial in the upcoming years:
  --Increased bonus incentives to Soldiers reenlisting and joining the 
        Army Reserve.
  --Expanding eligibility years for Reenlistment Bonuses.
  --Officer Accession, Affiliation, and the Specialty Conversion 
        bonuses added to the SRIP.
  --Lump sum payment options for reenlistment bonuses with tax-free 
        payments to Soldiers in the combat zone.
Other initiatives
    Increased Enlisted Affiliation Bonuses.
    Addition of the ``High Grad'' Bonus, used to attract those 
candidates with at least 30 or more semester hours of college credit.
    Establishment of the Active Guard and Reserve Selective 
Reenlistment Bonus.
Retention
    By taking care of Soldiers during the current pace of operations 
and war, retention goals in the Army Reserve were met. In fiscal year 
2005, the Army Reserve achieved 101.5 percent of its annual 
reenlistment goal.
Full Time Support
    The Army Reserve's highest priority continues to be dedicated 
support to our war-fighting Soldiers. The Global War on Terrorism 
continues to place a high demand on the Army Reserve's war fighting 
formations and their ability to mobilize in a highly trained state. 
Among the most important resources that we have in ensuring 
mobilization readiness of the 21st Century Army Reserve are our Full 
Time Support (FTS) personnel: Active Guard and Reserve Soldiers (AGR), 
Department of the Army civilians and our military technicians 
(MilTechs). Congress has historically recognized the paramount 
importance of adequate FTS levels for unit mobilization readiness.
    The Army Reserve continues to maintain the maximum effective use of 
our FTS personnel to meet unit readiness requirements prior to arrival 
at the mobilization station.
    Historically, the Army Reserve has had the lowest FTS percentage of 
any DOD Reserve component.
  --In fiscal year 2005, DOD average FTS manning level was 21 percent 
        of end strength, while the fiscal year 2005 total for the Army 
        Reserve was 11.3 percent.
  --The projected increase for Army Reserve FTS in fiscal year 2006 
        takes the level only to 11.6 percent.
  --Congress and the Army continue to support the goal of 12 percent 
        FTS by fiscal year 2010 in order for the Army Reserve to meet 
        minimum essential readiness levels as proposed by Headquarters, 
        Department of the Army, in fiscal year 2000.
    In fiscal year 2005, the Army Reserve was tasked with FTS mission 
requirements above and beyond programmed requirements, including:
  --Replacing 78 Active component training advisers to the Reserve 
        components who will be reassigned to support Active component 
        missions.
  --Providing U.S. Army Recruiting Command 734 additional recruiters 
        for fiscal years 2005 and 2006.
    These un-programmed requirements placed an additional demand on our 
already burdened FTS resources.
Quality of Life and Well Being of Soldiers and Family Members
    Quality of life issues continue to be high on the list of things 
that directly affect retention of Soldiers in the Army Reserve. The 
Secretary of the Army has stated:

    ``My top priority will be the well-being of Soldiers and their 
families. There is no more important aspect of our effort to win the 
Global War on Terrorism than taking care of our people.''

    The Army Reserve continues to improve its well-being efforts in the 
myriad of programs, policies and initiatives in its purview. Family 
programs remain a top priority.
            Welcome Home Warrior Citizen Award Program
    With congressional support, the Army Reserve was able to recognize 
nearly 26,000 Army Reserve Soldiers with the Army Reserve Welcome Home 
Warrior-Citizen Award in fiscal year 2005. The program ensures that 
returning Warrior-Citizens understand that their contributions to the 
mission and making our homeland more secure for all our citizens are 
recognized and appreciated by the Nation and the Army. The response to 
the program has been overwhelmingly positive in supporting efforts to 
retain Soldiers, thus increasing unit readiness. With continued 
congressional support, the Army Reserve will continue this program into 
the ongoing fiscal year and beyond.
            Well-Being Advisory Council
    This new and very dynamic structure supports all five Army Reserve 
constituent groups: Soldiers, families, civilians, retirees and 
veterans. The needs of each of these constituencies are growing; our 
programs continue to expand to meet these needs. The membership of the 
council will include a variety of individuals from the commands and 
organizations throughout the Army Reserve, including family member 
volunteers. The council will meet twice each year to consider and 
recommend disposition of well-being issues to the Chief, Army Reserve. 
The council is our integral link to the Army Family Action Plan.
            Army Reserve Child and Youth Services Program
    The Army Reserve now has a Child and Youth Services (CYS) 
Directorate staff to provide services that support the readiness and 
well being of families, including those families that are 
geographically dispersed. CYS programs and initiatives are designed to 
reduce the conflict between parental responsibilities and Soldier 
mission requirements. The Army Reserve CYS homepage is at www.arfp.org/
cys.
            Educational Benefits
    The Army Reserve Voluntary Education Services Program is a priority 
of the Chief, Army Reserve. Continuance of these services is necessary 
as an essential incentive we provide the Soldiers of the Army Reserve. 
Army Reserve Voluntary Education Services is a DOD-mandated commanders 
program that promotes lifelong opportunities for Selected Reserve 
Soldiers through voluntary education services that enhance recruiting, 
retention and readiness of Army Reserve Soldiers.
    The Army Reserve Voluntary Education Services have continuously 
provided an array of education programs since their inception. Recent 
changes have decentralized the execution of the tuition assistance 
program to allow for management decisions to be made closer to where 
the Soldiers live and work. This also allows for tighter fiscal 
controls and better coordination between Soldiers and colleges.
    Other educational programs are listed below:
  --Montgomery GI Bill;
  --Defense Activity for Non-Traditional Education Support Testing 
        Program (DANTES);
  --Student Guide to Success;
  --Credit for Military Experience;
  --Army/American Council on Education Registry Transcript System 
        (AARTS);
  --Troops to Teachers Program; and
  --Spouse to Teachers Program.
            Support to Wounded Soldiers
    The Army Reserve is dedicated to treating its Soldiers with the 
care and respect they have earned. Supporting Soldiers wounded in 
service to the country is one example of that commitment. The Disabled 
Soldier Support System was renamed the U.S. Army Wounded Warrior 
Program (Army W2) in November 2005. It continues to provide personal 
support, advocacy and follow-up for these heroes. The Army W2 
facilitates assistance from initial casualty notification through the 
Soldier's assimilation into civilian communities' services (for up to 
five years after medical retirement). Assistance includes:
  --Information about family travel to the Soldiers' bedsides;
  --Invitational travel orders for family members of seriously ill 
        patients;
  --Pay issues;
  --Options for continuing on active duty; and
  --Assistance with Medical Evaluation and Physical Evaluation Board 
        processes.
    Soldiers with 30 percent or greater disability ratings and in a 
special category of injuries or illness--amputees, severe burns, head 
injuries or loss of eyesight--are assessed for enrollment in the 
program. Army W2 brings the wounded Soldiers and the organizations that 
stand ready to assist these Soldiers and families together. The 
Veterans' Administration and other similar veterans' service 
organizations participate in the program.
    Some of these Soldiers may be in the process of medical 
retirements, pending other dispositions, such as being extended on 
active duty, or enrollment in the Community Based Healthcare 
Initiative, which allows selected reserve component Soldiers to return 
to their homes and receive medical care in their community.
            Base Operations Support
    The Army Reserve is committed to providing better quality of life 
services and critical support to Soldiers, their families and the 
civilian work force. The increase in base operations support for fiscal 
years 2006 and 2007 will greatly assist this effort, allowing for 
better engineering support, safety programs, law enforcement, and force 
protection, to name only a few areas.
            More Efficient Management of Officer Promotions
    Specific policy changes that were effected by the Chief, Army 
Reserve, improved our personnel management capability. By creating 
three separate reserve component competitive promotion categories, the 
Army Reserve can retain and better manage its officers. Another change 
enabled the Army Reserve to select officers based upon unique force 
structure requirements. That change will provide business efficiencies 
to better meet the manning requirements in all categories of the 
Selected Reserve, producing greater predictability and equity among all 
considered officers. The revised competitive categories meet the intent 
of Congress to match the number of officers selected for promotion by a 
mandatory promotion board to officers needed in the related categories.
            Enhanced Care for Professional Development
    Regional Personnel Service Centers (RPSCs), the Army Reserve 
military personnel management offices, will provide active personnel 
management for all Army Reserve Soldiers. Implementation of four RPSCs, 
in support of the Army Reserve Expeditionary Forces model, will provide 
standardized life-cycle management support to Army Reserve Soldiers 
regardless of where they may be in the command. This initiative relies 
on increased communication, interaction and involvement by commanders 
and their Soldiers to assure trained and ready Soldiers.
Compelling Needs
    Continued funding for enlistment, accession, affiliation, 
conversion, and retention incentives and bonuses to meet readiness 
requirements.
    Attain minimum essential full time support level of 12 percent of 
end strength by fiscal year 2010.
    Strengthened medical and health services for Army Reserve Soldiers.
    Continued funding for Army Reserve Soldier educational services and 
opportunities (e.g., tuition assistance and scholarships).
    Continuance of the Army Reserve Welcome Home Warrior-Citizen Award 
Program.

                             THE WAY AHEAD

    The changed conditions of warfare have greatly affected our armed 
services, including and especially, the reserve components. We are now 
engaged in a global war that will last a long time. We are on an 
asymmetrical rather than a linear battlefield. We are in a protracted 
war, not one with a defined beginning and end. The constant threat of 
attacks on our homeland, including the use of weapons of mass 
destruction, places a premium on readiness and responsiveness. Because 
of these changing conditions, the Army Reserve has implemented a host 
of initiatives that are creating deep, lasting and profound change.
    Today, the deployment of our Army and Army Reserve, is no longer 
the exception, rather it is the rule. The Army Reserve is using the 
energy and urgency of Army transformation and the demands of the Global 
War on Terrorism to change. We are changing our organization in deep 
and profound ways, from a technically focused force-in-reserve to a 
learning organization that provides trained, ready ``inactive duty'' 
Citizen-Soldiers, poised and available for active service, now as ready 
as if they knew the hour and day they would be called.
    To that end, the Army Reserve will require:
  --Continued funding to support changes in personnel incentives;
  --Adequate funding to support Army Reserve Expeditionary Force 
        training, equipping and maintenance strategies; and
  --Support for legislative and policy changes to support recruiting 
        efforts, personnel management and mobilization.

    Senator Stevens. Admiral Cotton.

STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVAL 
            RESERVE, DEPARTMENT OF THE NAVY
    Admiral Cotton. Good morning, Mr. Chairman, Senator Inouye. 
Thank you very much for listening here today.
    The Navy Reserve continues its full integration with the 
Navy. In terms we have used this morning, we are in the huddle. 
We are full participants on every play. Over 23,000 Navy 
reservists are on orders at this moment, providing integrated 
support to the fleet and combatant commanders in the away game; 
2,100 Navy reservists are ashore in central command, providing 
integrated combat service support.

                           PREPARED STATEMENT

    I request that the statement is put in the record and, in 
the interest of time, like to move on. We are standing by to 
answer any questions you have, sir.
    Senator Stevens. Thank you for your courtesies.
    [The statement follows:]

           Prepared Statement of Vice Admiral John G. Cotton

                              INTRODUCTION

    Chairman Stevens, Senator Inouye, distinguished members of the 
subcommittee, thank you for the opportunity to speak today about the 
Navy and its Navy Reserve.
    Our Navy Reserve continues its transformation to better support 
combat and combat service support missions throughout the world. Navy 
Reservists are no longer solely a strategic force waiting for the call 
to mobilize in a war between nation-states. They are operational and 
forward, fighting the Global War on Terror (GWOT) as Seabees in Iraq, 
civil affairs Sailors in Afghanistan, customs inspectors in Kuwait, 
logistical aircrew and Joint Task Force staff in the Horn of Africa, 
and as relief workers in disaster recovery operations in the United 
States and around the world.
    Your support in this transformation from a strategic reserve to an 
operational reserve is greatly appreciated. Congress passed legislation 
in the 2006 National Defense Authorization Act that provided force-
shaping tools allowing the Navy to best distribute Sailors within the 
Total Force. You authorized the flexibility to transfer funds from 
Reserve Annual Training (AT) accounts to Reserve Active Duty (AD) 
accounts. You supported adding an additional $10 million for the Non-
Prior Service Boot Camp program (Full Accession Program). This 
additional funding allowed us to kick-start the program in fiscal year 
2006. Navy is increasing funding for this program in fiscal year 2007.
    Reserve Component (RC) Sailors are serving selflessly and are fully 
integrated throughout the Department of Defense, with our coalition 
partners and with every civil support agency. Our Sailors and their 
families continue to earn our respect and gratitude for their service 
and their many sacrifices. As part of the All Volunteer Force, they 
REserve again and again, freely giving of their skills and capabilities 
to enhance the Total Force team. On behalf of these brave men and women 
and their families, thank you for your continued support through 
legislation that improves benefits for their health and welfare.
    Single Manpower Resource Sponsor.--Navy is taking a Total Force 
approach to delivering the workforce of the 21st century. The Total 
Navy consists of active and reserve military, civil service, and 
contractors. The Total Navy will deliver a more responsive workforce 
with new skills, improved integrated training and will be better 
prepared to meet the challenges of the Long War. As the Chief of Naval 
Personnel testified, the Navy is concentrating this effort in a single 
resource sponsor: the Manpower, Personnel, Training and Education 
(MPT&E) enterprise. Our Navy Reserve is an integral part of the MPT&E 
and is working closely with the Chief of Naval Personnel to best 
leverage all Navy resources to produce the greatest warfighting 
capabilities possible.
    Our ``One Navy'' goal is to be better aligned to determine the 
future force (capabilities, number, size and mix) based on Department 
of Defense and Department of Navy strategic guidance and operational 
needs. Specifically, the new MPT&E domain will deliver:
  --A Workforce Responsive to The Joint Mission: Derived from the needs 
        of Joint Warfighters.
  --A Total Force: Providing a flexible mix of manpower options to meet 
        warfighting needs while managing risk.
  --Cost Effectiveness: Delivering the best Navy workforce value within 
        fiscal constraints and realities.
    Strategy for Our People.--To accomplish the optimal distribution of 
trained Sailors throughout the Total Force, the MPT&E is developing a 
``Strategy for Our People.'' This strategy will provide the guidance to 
assess, train, distribute and develop our manpower to become a mission-
focused Total Force that meets the warfighting requirements of the 
Navy.
    Each Navy Reservist fills a crucial role in the Total Navy, 
providing skill sets and capabilities gained in both military service 
and civilian life. For example, a Sailor who learned to operate heavy 
equipment on active duty, and who is currently employed as a foreman in 
the construction industry, brings both military and civilian skill sets 
to his unit or individual augmentee assignment.
    Additionally, RC Sailors can perform the same mission while 
training at home as they do when deployed. For instance, harbor patrol 
Sailors use the same core skill sets training in Portland, Boston, 
Charleston and Jacksonville harbors as they use in Ash Shuaybah, 
Kuwait. Sailors also use these skill sets when acting as first 
responders within the United States. While Hurricane Katrina was still 
crossing Louisiana and Mississippi, Navy Reserve Seabees were driving 
their personal vehicles in the eye of the hurricane to provide search 
and rescue capabilities followed by their traditional ``can do'' 
reconstruction efforts. After a tornado hit Evansville, Indiana, at 
night, the local Navy Operational Support Center served as a 
communications and emergency triage headquarters, and Sailors 
immediately responded with search and rescue teams, saving lives.
    Continuum of Service.--Our Active Component (AC) and RC Sailors 
receive valuable experience and training throughout their careers, and 
our vision for the future is to create a ``Continuum of Service'' 
system that enables an easy transition between statuses. We are 
building a personnel system in which Sailors can move between AC and RC 
based on the needs of the service and availability of the member to 
support existing requirements. To make these transitions seamless, the 
Navy will develop smooth ``on ramp'' and ``off ramp'' opportunities. 
Sailors will serve on active duty for a period of time, then train and 
work in the Reserve Force and, with minimal administrative effort, 
return to active duty. The Navy will offer experienced Sailors the 
ability to transition between statuses when convenient, while 
incentivizing rate changes and service assignments at the right time 
and place, all in a ``Continuum of Service'' throughout their careers. 
All Reservists, Full Time Support (FTS), Selected Reserve (SELRES) and 
even our important Individual Ready Reserve (IRR) members, will benefit 
from increased opportunities to serve and REserve.

       CHANGING DEMAND SIGNALS--NEW AND NON-TRADITIONAL MISSIONS

    Navy Sailors continue to support the GWOT in Southwest Asia, around 
the world and at home. Over 5,000 RC Sailors are currently mobilized 
and serving in various capability areas such as Navy Coastal Warfare, 
Seabees, Intelligence, cargo airlift, cargo handlers, customs 
inspectors, civil affairs, port security, medical (including doctors, 
nurses and hospital corpsmen), and on the staff of every Combatant 
Commander (COCOM).
    Operational Support.--Mobilization alone does not reflect the total 
contribution of the Navy's Reserve. On any given day, an additional 
15,000 RC Sailors are providing support to the Fleet, serving in a 
variety of capabilities, from flight instructor duties to counter 
narcotics operations, from standing watch with the Chief of Naval 
Operations staff to relief support for Hurricane's Katrina, Rita and 
Wilma. Sailors have provided over 15,000 man-years of support to the 
Fleet during the past year. This operational support is the equivalent 
of 18 Naval Construction Battalions or two Carrier Strike Groups.
    To define the Total Force requirements and maximize operational 
support, Commander, Fleet Forces Command (CFFC) commenced a continuous 
Reserve Zero-Based Review (RZBR) process in 2004. Navy and joint 
mission requirements were prioritized, followed by a thorough analysis 
of RC manpower available to meet those requirements. The ZBR continues 
to facilitate Active Reserve Integration (ARI), placing RC billets in 
various AC units where the requirement for surge capabilities and 
operational support is predictable and periodic. This capabilities-
based review also enabled the Fleet to develop mission requirements 
that were inclusive and dependent upon skill sets and capabilities 
resident within its aligned RC.
    The Navy supports 21 joint capability areas, built on the 
foundations of Sea Strike, Sea Shield, Sea Basing and FORCEnet, and the 
Navy RC is fully integrated in all enterprises. Excellent examples of 
ARI are highlighted in CENTCOM, where 50 percent of the Navy individual 
augmentee (IA) requirement is being met by RC Sailors. Operational 
Health Support Unit (OHSU) Dallas deployed with 460 medical and dental 
specialists for 11 months, during which the unit maintained health 
clinics in Iraq and hospitals in Kuwait. These Sailors relieved an Army 
unit, set up their medical capabilities in the Army Camp, and provided 
integrated joint health care to all services.
    Navy's newly established Navy Expeditionary Combat Command (NECC) 
integrates the RC expeditionary and combat service support capabilities 
into one Total Force command. The Naval Construction Force has 139 
units comprised of AC and RC Sailors, and Naval Coastal Warfare 
continues to rebalance active and reserve personnel to meet COCOM 
requirements.
    Fleet Response Units (FRU) are directly integrated with AC aviation 
units. FRU Sailors maintain and operate the same equipment as Fleet 
personnel, supporting the Fleet Response Plan (FRP) by providing 
experienced personnel who are qualified and ready to rapidly surge to 
deployed Fleet units. This ARI initiative reduces training costs by 
having all Sailors maintain and operate the same equipment. No longer 
are the Active and Reserve Components using different configurations 
for different missions.
    Another ARI initiative is the Squadron Augmentation Unit (SAU), 
which provides experienced maintenance personnel and qualified flight 
instructors to Fleet Replacement Squadrons (FRS) and Training Commands. 
Experienced RC technicians and aviators instruct both AC and RC Sailors 
to maintain and fly current Fleet aircraft at every FRS.
    The Reserve Order Process.--One constraint to these initiatives is 
the reserve order processes. The current system has multiple types of 
Reserve orders: Inactive Duty for Training (IDT), Inactive Duty for 
Training-Travel (IDTT), Annual Training (AT), Active Duty for Training 
(ADT), and Active Duty for Special Work (ADSW).
    In addition to multiple types of orders, the funding process for 
these various types of orders can be equally complex. Navy is currently 
evaluating process options that will streamline the system and make 
support to the fleet more seamless. In fact, efforts such as the August 
2005 conversion of Navy Reserve Order Writing System to ADSW order 
writing have already improved the situation for Sailors and the fleet 
by allowing the same order writing system to be used for both ADT/AT 
and ADSW. Additionally, the Navy Reserve is also addressing these 
issues by emphasizing and increasing ADSW usage, which is simply 
``work'' funding for operational support to the Fleet, rather than the 
previous way of doing business with training orders for work. The 
baseline data call of required work was initiated in 2005 with an 
implementation goal of accurately funded ADSW accounting lines in 
fiscal year 2008. COCOMs continue to review operational support 
requirements and the appropriate level of funding for the GWOT and 
surge operations. Emphasizing ADSW will be a significant evolution in 
the Navy's effort to integrate its Reserve Force capabilities by 
aligning funding sources and accurately resourcing the accounts 
responsible for Navy Reserve operational support.

                      SIZE AND SHAPE OF THE FORCE

    The total number of Navy Reservists, both SELRES and FTS, is 
requested to be 71,300 for fiscal year 2007. The ongoing ZBR and 
effective ARI continue to optimally integrate the capabilities of the 
Total Force, which optimizes the force mix of AC and RC Sailors needed 
to support the Fleet while still providing effective surge operational 
support.
    Common AC/RC Pay System.--A common pay and personnel system that 
provides for a seamless transition from AC to RC is essential to the 
success of our ``Continuum of Service'' and ``Sailor for Life'' 
programs. Ideally, manpower transactions will someday be accomplished 
on a laptop with a mouse click, and data will be shared through a 
common data repository with all DOD enterprises. Navy fully supports 
the vision of an integrated set of processes and tools to manage all 
pay and personnel needs for the individual, and provide necessary 
levels of personnel visibility to support joint warfighter 
requirements. The processes and tools should provide the ability for a 
clean financial audit of personnel costs and support accurate, agile 
decision making at all levels of the Department of Defense through a 
common system and standardized data structure.
    The Defense Integrated Manpower and Human Resource System (DIMHRS) 
is expected to be that system. A Deputy Secretary of Defense assessment 
is currently underway to determine the best course of action for the 
Department. The assessment will conclude in early summer.

                               RECRUITING

    Accessions.--Navy Reserve accessions are drawn from multiple 
sources, but we are increasingly focused on the trained and experienced 
Navy veteran. Our leadership is constantly emphasizing a ``Continuum of 
Service'' and ``Sailor for Life'' themes that enable Sailors to more 
easily transition between components. The entire Total Force chain of 
command is committed to changing the culture of service and REservice 
by continually educating AC Sailors about the benefits of continued 
service as members of any of the Reserve Components.
    National Call to Service--A relatively new accession source is the 
National Call to Service (NCS), with contracts that include both AC and 
RC service as part of a recruit's initial military obligation. Congress 
first authorized this program in the NDAA 2003. The NCS program is 
enjoying considerable success, and is helping to mitigate some of the 
prior-service shortages in ratings that are critical to the prosecution 
of the GWOT. Under this program, a recruit enlists for an active duty 
commitment of 15 months after training. At the end of the commitment, 
the individual can either extend on active duty or commit to two years 
of drilling in the Selected Reserve. Navy has been particularly 
aggressive in recruiting Masters at Arms and Hospital Corpsmen for this 
program, and the first recruits are completing their AC service and 
will begin drilling in the Navy Reserve this year. Navy's success in 
attracting recruits for this program is steadily growing. We assessed 
998 recruits in 13 ratings in fiscal year 2004, and 1,866 recruits in 
23 ratings in fiscal year 2005. Navy has a goal of 2,340 NCS recruits 
in 44 different ratings this year, and will continue this successful 
program in fiscal year 2007.
    Attrition.--Attrition and recruiting are a crucial part of 
maintaining the Total Force. Fortunately, the GWOT is not having an 
appreciable affect on attrition. Yearly Navy Reserve attrition is 
currently 27 percent and has remained at approximately the same level 
for the past five years.
    Enlisted Recruiting.--Fiscal year 2006 Navy Reserve enlisted 
recruiting continues to be challenging, with 4,172 recruits attained 
out of a year-to-date goal of 4,891 as of March 31, 2006. In fiscal 
year 2005, although by the end of the year the Navy Recruiting Command 
focused on the RC mission, it only accessed 85 percent of the fiscal 
year 2005 RC enlisted goal, recruiting 9,788 against a target of 
11,491. Navy attributes the recruiting shortfalls to several causes, 
including the continued strong retention of AC Sailors. The GWOT has 
caused an increase in the number of recruits needed by the Army and 
Marine Corps, with competitive bonuses offered by all services.
    To address Navy Reserve recruiting challenges and to promote 
continued success in recruiting the active force, Navy is increasing 
the amount of enlistment bonuses for both prior service and non-prior 
service Reserve accessions. Congress combined the non-prior service 
enlistment and prior service affiliation bonus into a single accession 
authority payable as a lump sum with a maximum cap of $20,000. The 
Reserve re-enlistment of $15,000 has also been authorized as a lump sum 
payment. These programs will enhance the attractiveness of service in 
the Reserve for those currently in our targeted ratings.
  --Officer Recruiting.--Reserve Officer recruiting continues to fall 
        short. The primary market for RC officers is Navy veterans and, 
        as in enlisted recruiting, high retention of AC officers 
        reduces the pool of available candidates.
    Other measures being taken to address the Reserve recruiting 
shortfall include implementation of expanded authorities provided by 
Congress in the fiscal year 2006 NDAA. These include: authority to pay 
Reserve Affiliation Bonuses in lump sum, enhanced high-priority unit 
assignment pay, and increases in the amount of the Reserve Montgomery 
G.I. Bill. Navy is also applying force-shaping tools to attract non-
rated Reserve Sailors to undermanned ratings.

                               READINESS

    In addition to having the right Sailor assigned to the right 
billet, all Sailors must be ready to answer the call to serve. They 
must be medically, physically, and administratively ready to deploy.
    Medical Readiness.--Navy Reserve is a leader in medical readiness. 
In 2002, the Navy Reserve developed the Medical Readiness Reporting 
System (MRRS) as a comprehensive tracking system for Individual Medical 
Readiness (IMR). MRRS, a web-based application with a central 
aggregating database, links with existing authoritative data systems to 
reduce data input requirements and improve data accuracy. MRRS gives 
headquarters staffs and leadership a real-time view of force medical 
readiness, and received the 2005 DON CIO IM/IT Excellence Award for 
Innovation. It is being adopted throughout the Department of the Navy 
to give Commanders the web-based tool they need to more effectively and 
efficiently measure and predict IMR.
    Navy Reserve continues to be a DOD leader in percent of personnel 
who are Fully Medically Ready (FMR). In October 2004, Navy Reserve 
reported 44 percent FMR personnel and, with an ongoing emphasis on MRRS 
utilization by all commands, showed a dramatic improvement in January 
2006 to 73 percent FMR per DOD IMR standards.
    Physical Readiness.--Navy Reserve is actively participating in 
Total Force solutions to address physical readiness. The CNO's 
``Fitness Board of Advisors'' is exploring methodologies for changing 
the culture of fitness in the Navy to ensure a ready, fighting force. 
The Secretary of the Navy's ``Health and Productivity Management'' 
group is addressing the impact of a fit force on work productivity. 
Many participants are members of both groups in order to facilitate the 
exchange of good ideas. Further, Navy Reserve is working with BUPERS to 
revise the Physical Readiness Information Management System (PRIMS) to 
more accurately capture fitness testing data.
    Administrative Readiness.--Navy Reserve tracks administrative 
readiness with the ``Type Commander (TYCOM) Readiness Management 
System--Navy Reserve Readiness Module'' (TRMS-NRRM), which provides a 
scalable view of readiness for the entire Force. This Navy Reserve 
developed system has served as the prototype for the ``Defense 
Readiness Reporting System'' (DRRS), and links to many DOD systems. 
Navy Reserve leaders have utilized accurate data for all categories and 
elements since the first data call in 2003, and can quickly determine 
readiness information for individuals, units, activities, regions, and 
any other desired capability breakouts.

                             TRANSFORMATION

    Navy Reserve continues to lead DOD RC transformation. Through the 
Base Realignment and Closure (BRAC) process, Navy Reserve Centers (NRC) 
are consolidating into larger, more centralized Navy Operational 
Support Centers (NOSC) on military bases, while maintaining presence in 
all 50 states and reducing excess capacity by 99 percent. Consolidation 
of smaller facilities provides a better return on investment (ROI) of 
precious RPN and OM&NR funding, with better utilization of 
administration and staff support for SELRES, while aligning with Navy 
Regional Commanders instead of separate RC Regions. Whenever possible, 
our RC Sailors have indicated a strong desire to ``flex drill'' at 
their AC supported commands, which achieves a greater level of 
readiness and operational support, as well as Total Force integration.

                                SUMMARY

    Navy Reserve is evolving from a dispersed strategic force of the 
Cold War to an adaptive and responsive operational force that will be 
required to meet the surge requirements for future asymmetric threats. 
Change of this magnitude is not easy and challenges both AC and RC 
leadership to rapidly become more integrated while thoroughly 
communicating the vision to the Total Force. We greatly appreciate the 
full support of Congress as we implement initiatives that will better 
align AC and RC personnel and equipment, providing additional resources 
to recapitalize the Navy of the future.
    Our dedicated RC Sailors continue to volunteer to serve and 
REserve, and we are developing a ``Continuum of Service'' program to 
ensure that they can quickly support operational missions, with easy 
transitions on and off active duty. We are simplifying the order 
writing and funding processes, while allowing the customers, the Fleet 
and COCOMs, to control the resources through their Operational Support 
Officers. These initiatives will greatly reduce the administrative 
burden on both the ready Sailor and the chain of command, ensuring the 
right Sailor is in the right place at the right time with the right 
skill sets. Navy will continue to improve readiness tracking and 
reporting systems so that the Sailor will be ready to deploy when 
called, physically, medically and administratively.
    The future success of our Navy and the Nation requires dominance of 
the maritime domain, and will be dependent upon a Reserve Force that is 
ready, relevant and fully integrated. Our Navy Reserve is busy 
transforming its processes, becoming more integrated with both Navy and 
joint forces, and is more ready than ever for any tasking. We are 
providing global operational support, and our RC Sailors have and will 
continue to answer the call to ``be ready'' to support the Combatant 
Commanders and prevail in the Long War.

    Senator Stevens. General Bergman.
STATEMENT OF LIEUTENANT GENERAL JACK W. BERGMAN, 
            COMMANDER, MARINE CORPS RESERVE, UNITED 
            STATES MARINE CORPS, DEPARTMENT OF THE NAVY
    General Bergman. Good morning, sir, Mr. Chairman, Senator 
Inouye.
    As a first-timer here, brevity I guess is very good on all 
of our parts because time is of the essence. As the Marine 
Corps, the Marine Corps Reserve, we are still focused on 
getting that individual marine ready to go, after that to fight 
the fight, focus on the family, and focus on the funding for 
allowing our participation in the long war.
    Thank you for the opportunity to be here. I look forward to 
your questions.
    Senator Stevens. Thank you, sir.
    [The statement follows:]

        Prepared Statement of Lieutenant General Jack W. Bergman

                              INTRODUCTION

    Chairman Stevens, Senator Inouye and distinguished Members of the 
subcommittee, it is my honor to report to you on the state of your 
Marine Corps Reserve as a partner in the Navy-Marine Corps team. Your 
Marine Corps Reserve remains firmly committed to warfighting 
excellence. The support of Congress and the American people has been 
indispensable in attaining that level of excellence and our success in 
the Global War on Terror. Your sustained commitment to care for and 
improve our Nation's armed forces in order to meet today's challenges, 
as well as those of tomorrow, is vital to our continued battlefield 
success. On behalf of all marines and their families, I would like to 
take this opportunity to thank Congress and this committee for your 
ongoing support.

                    YOUR MARINE CORPS RESERVE TODAY

    The last 5 years have demonstrated the Marine Corps Reserve is 
truly a full partner in the Total Force Marine Corps. I assumed the 
responsibility as the commander of Marine Forces Reserve on the 10th of 
June 2005, and I can assure you the Marine Corps Reserve remains 
totally committed to continuing the rapid and efficient activation of 
combat-ready ground, air and logistics units, and individuals to 
augment and reinforce the active component in the Global War on Terror 
(GWOT). Marine Corps Reserve units, Individual Ready Reserve (IRR) 
Marines, Individual Mobilization Augmentees (IMAs), and retired marines 
fill critical requirements in our Nation's defense and are deployed 
worldwide in Iraq, Afghanistan, Georgian Republic, Djibouti, Kuwait, 
and the United States, supporting all aspects of the Global War on 
Terror. At home, our Reserve Marines are pre-positioned throughout the 
country, ready to defend the homeland or assist with civil-military 
missions such as the type of disaster relief conducted recently in the 
wake of Hurricanes Katrina and Rita.
    Reserve Marines understand the price of protecting our 
constitutional rights to freedom, and even though some have paid the 
ultimate price in Operations Enduring Freedom and Iraqi Freedom, they 
continue to step forward and volunteer to serve their fellow Americans. 
The Marine Reserve Force remains strong and constant due to the 
committed marines in our ranks, our high retention and recruiting 
rates, and the ever-increasing benefits that Reserve Marines and their 
families enjoy.
    As tactics and warfighting equipment continues to change and 
evolve, our level of readiness for future challenges must be 
maintained. Reserve ground combat units, aviation squadrons and combat 
service support elements are able to seamlessly integrate with their 
active component comrades in any Marine Air Ground Task Force (MAGTF) 
environment because they are held to identical training standards. A 
strong Inspector-Instructor (I&I) system and a demanding Mobilization 
and Operational Readiness Deployment Test (MORDT) program ensure Marine 
Corps Reserve units achieve a high level of pre-mobilization readiness. 
Marine Reserve units continue to train to challenging, improved 
readiness standards, reducing the need for post-mobilization 
certification. This ensures that these combat capable units undergo a 
seamless transition to the Gaining Force Commander.
    As we progress into the 21st century, we have seen historic and 
tragic events that have impacted our country and Marine Forces Reserve 
in ways that will reverberate for years to come. When Hurricanes 
Katrina and Rita battered the Gulf Coast, Marine Forces Reserve was 
part of both the evacuation and the relief efforts in the area. Due to 
the storms, Marine Forces Reserve Headquarters, along with our 
subordinate headquarters, were forced to evacuate the New Orleans area 
and set up temporary commands in Texas and Georgia. It was from these 
locations that we managed the mobilization and deployment of units to 
the affected areas to support relief efforts. In some cases marines 
were serving in their own communities that were devastated by the 
storms.
    As of this month, over 5,300 Reserve Marines are activated in 
support of Operation Enduring Freedom, Operation Iraqi Freedom, and 
Horn of Africa operations. Of these marines, approximately 4,000 are 
serving in combat-proven ground, aviation and service support units led 
by Reserve Marine officers and non-commissioned officers. The remaining 
1,300+ Reserve Marines are serving as individual augments in support of 
Combatant Commanders, the Joint Staff and the Marine Corps. Since 
September 11, 2001, the Marine Corps has activated over 39,000 Reserve 
Marines, and more than 97 percent of all Marine Forces Reserve units.
    Since the beginning of the Global War on Terror, it has become 
necessary for the Marine Corps Reserve to increase support required for 
operations against the backdrop of a rapidly changing world environment 
accented by asymmetrical warfare and continuing hostilities. As new 
warfighting requirements have emerged, we have adapted our capabilities 
by creating anti-terrorism battalions from existing units, as well as 
provisional civil affairs groups in support of our efforts in Iraq. We 
continue to refine our reserve capabilities. Through assessment, 
projection and careful planning, we shift valuable resources to enhance 
our ability to provide required war fighting, intelligence gathering, 
Homeland security, and civil affairs capabilities.

                          RETURN ON INVESTMENT

    The Marine Corps is committed to the Total Force Concept as 
evidenced by the overwhelming success of Marine Reserve units serving 
in support of the Global War on Terror. Activated Marine Reserve units 
and individuals are seamlessly integrating into forward deployed Marine 
Expeditionary Forces and regularly demonstrate their combat 
effectiveness. Since March 2005, approximately 8,500 Reserve Marines 
have deployed in support of two troop rotations to Iraq. The combat 
effectiveness of all Reserve Marines deployed in support of Operation 
Iraqi Freedom is best illustrated by the following examples.
Force Units
    Marine Forces Reserve has provided provisional civil affairs 
groups, air-naval gunfire liaison detachments and counter intelligence 
teams in support of Operation Iraqi Freedom.
    The Marine Corps has two permanent civil affairs groups and, in 
2005, formed two additional provisional civil affairs groups. The 
decision was made to expand the Corps' civil affairs capability for the 
Iraqi conflict by creating a provisional 5th and 6th Civil Affairs 
Group (CAG) of nearly 200 marines each. The 5th and 6th CAGs were 
created to ease the deployment cycles of the 3rd and 4th CAGs and to 
create additional civil affairs assets. Fourth Combat Engineer 
Battalion from Baltimore provided the nucleus for the 5th CAG, which 
was established in late 2004. The unit was rounded out by marines from 
across the country, to include two previously retired marines.
    The 5th CAG began its tour of duty in Iraq at a transfer of 
authority ceremony with the 4th CAG at Camp Fallujah on March 10, 2005. 
Led by Col. Steve McKinley and Sgt. Maj. John Ellis, the 5th CAG 
assumed 4th CAG's area of responsibility and operated throughout Al-
Anbar Province coordinating civil affairs projects with the goal of 
restoring critical infrastructure and facilitating the transition into 
a self-governing people. The 6th CAG, led by Col. Paul Brier and SgtMaj 
Ronnie McClung, relieved 5th CAG in September 2005. After a successful 
7 month tour, they are redeploying to the United States this month.
    In addition to the contribution of the civil affairs groups, Marine 
Forces Reserve has provided detachments from both 3d and 4th Air Naval 
Gunfire Liaison Company (ANGLICO)--based in Long Beach, California and 
West Palm Beach, Florida respectively--in support of Operation Iraqi 
Freedom. The last detachment returned mid-December 2005. During its 
tour, the unit supported the multinational division headed by the 
Polish Army and consisting of troops from 14 countries. The unit was 
involved in various missions in the three provinces south of Baghdad. 
Duties ranged from calling in fire support for the coalition partners 
to providing protection for convoys. The marines were credited with 
rounding up 390 insurgents and criminals, in addition to recovering 
50,000 pounds of ordnance.
Fourth Marine Division
    The 3rd Battalion, 25th Marines, led by LtCol Lionel B. Urquhart, a 
manager for Roadway Transportation Services, and his senior enlisted 
advisor SgtMaj Edward C. Wagner, supported Regimental Combat Team 2 
(RCT-2) during Operation Iraqi Freedom 04-06.1. During this time, the 
battalion cleared the city of Hit, establishing two permanent firm 
bases there and introduced Iraqi armed forces into the city to begin 
the process of independent Iraqi control. Hit was the only city to be 
liberated from anti-Iraqi forces control by the 2d Marine Division. In 
all, the battalion acted as the regimental main effort in 15 named 
combat operations and provided support to five more named operations in 
an area covering 4,200 square kilometers. The scheme of maneuver for 
entry into the town of Kubaysah employed the first heliborne and 
mechanized combined assault in Area of Operation ``Denver.'' The 
battalion's efforts resulted in 46 detainees being convicted to 
confinement at Abu Grahb Prison, 160 confirmed enemy killed in action, 
and 25 confirmed enemy wounded in action. This battalion, which 
coalesced from Reserve Marines spread across more than seven States, 
acted as a center of gravity for RCT-2 during Operation Iraqi Freedom 
04-06.1, enabling the regiment to achieve its greatest successes.
    Fifth Battalion, 14th Marines (-) Reinforced, commanded by John C. 
Hemmerling, an attorney for the City of San Diego, with Sergeant Major 
Jose Freire, a U.S. postal carrier, as his senior enlisted advisor, was 
assigned the mission as a provisional military police battalion in the 
Al Anbar Province of Iraq. The marines of 5/14 exemplified the total 
force concept as they transitioned from a reserve artillery battalion 
into a composite battalion. The 1,000-strong battalion was comprised of 
15 active and reserve units and detachments, and integrated active and 
Reserve Marines down to the fire team level. Furthermore, drawing from 
its ranks of reservists in civilian law enforcement and active duty 
military policemen at its core, the battalion was task organized to 
conduct military police missions including convoy security operations; 
law and order at forward operating bases; operate five regional 
detention facilities; provide force protection of Camp Fallujah; 
conduct criminal investigations; recruit Iraqi Security Forces through 
the Police Partnership Program; and control 57 military working dog 
teams. The battalion is credited with processing over 6,000 detainees 
consisting of suspected insurgents, terrorists and criminals--without 
incident; safely escorted over 300 convoys throughout the Multinational 
Force West area of operations; occupying and defending Camp Fallujah 
and approximately 100 square kilometers of battle space surrounding it; 
and recruiting over 1,000 Iraqi police candidates.
    The 4th Marine Division also provided a significant presence during 
Hurricane Katrina relief efforts on the Gulf Coast. From the Commanding 
General, MajGen Douglas O'Dell--who was appointed to lead the entire 
Marine Corps relief effort--to a multitude of units from Alabama, 
Texas, Florida, Oklahoma, Tennessee, Virginia, Missouri and other 
States, elements of the 4th Marine Division converged on the 
beleaguered area to form the marine nucleus of support. Worthy of 
particular note are the marines of the 4th Assault Amphibian Battalion 
in Gulfport, Mississippi. Immediately after the storm passed, these 
intrepid marines began combing their community in their amtracs in 
search of victims, as well as rendering assistance to local 
authorities. The last of these Marine Reserve units returned to their 
home stations on October 1.
Fourth Marine Logistics Group
    Fourth Marine Logistics Group (MLG) continued to provide the active 
duty component and combatant commanders tactical logistics support 
throughout the six functional areas of Combat Service Support (CSS) and 
the personnel necessary to sustain all elements of the operating force 
in multiple theaters and at various levels of war. Fourth MLG has a 
well-established reputation for providing professional, dedicated and 
highly skilled marines and sailors to augment and reinforce the active 
components in support of Operations Iraqi Freedom (OIF) and Enduring 
Freedom (OEF). During the past year's semi-annual relief of forces, 4th 
MLG deployed approximately 1,000 Reserve Marines and sailors to conduct 
tactical level logistics missions.
    Additionally, 4th MLG provided the following support to the 
operating forces as requested by combatant commanders:
  --During January of 2005, 4th MLG deployed approximately 130 marines 
        and sailors to support Marine Forces Central Command's 
        Logistics Command Element (LCE) located aboard Camp Lemonier, 
        Djibouti. These marines and sailors from various 4th MLG 
        battalions provided vital logistical and operational support to 
        a mission focused on detecting, disrupting, and ultimately 
        defeating transnational terrorist groups operating in the Horn 
        of Africa region.
  --In April 2005, on short notice, 4th MLG deployed 13 maintenance 
        personnel in support of Marine Corps Systems Command 
        (MARCORSYSCOM) to a forward operating base in Iraq to assist 
        with the installation of armor kits on tactical vehicles. Their 
        mission proved invaluable in mitigating the personnel and 
        equipment loss attributed to an emergent IED threat.
  --During May of 2005, 4th MLG provided health services support 
        consisting of 20 sailors from 4th Medical Battalion to II 
        Marine Expeditionary Force (II MEF) for detainee operations in 
        Iraq that included medical services for personnel in temporary 
        detainee facilities; maintenance of medical supplies and 
        equipment; health and sanitation inspections, pre and post 
        interrogation health assessments; and coordination of medical 
        evacuations in accordance with the Geneva Convention.
  --June 2005 saw 4th MLG provide the nucleus staff for the provisional 
        6th Civil Affairs Group.
Fourth Marine Aircraft Wing
    Fourth Marine Aircraft Wing (MAW) units participated in a wide 
variety of operations in locations across the country and around the 
world in support of the Global War on Terror.
    Operation Iraqi Freedom activations consisted of units in their 
entirety, detachments, as well as individual augments providing 
invaluable support to the active component in the conduct of these 
operations. Marine Fighter/Attack Squadron 142 deployed 12 F/A-18 A+ 
Hornet aircraft in support of OIF, where they accomplished 100 percent 
of their tasked sortie requirements. These assets were the first 4th 
MAW F/A-18s to deploy in support of OIF and the first Marine F/A-18 A+ 
to deploy the Advanced Targeting Pod (LITENING) in a combat 
environment. Marine Medium Helicopter Squadron (HMM) 764 and HMM 774 
deployed to Iraq in support of OIF for their second tour. The 
deployment of these units required the transfer of 19 aircraft from 
east to west coast to facilitate training of the unit that was CONUS 
based while the other deployed. This monumental task was accomplished 
safely and efficiently. Marine Light Attack Squadron (HMLA) 775 
returned from Iraq and immediately went to work accepting 16 AH-1W and 
9 UH-1N aircraft from 3rd MAW. Immediately upon acceptance, they 
transferred six of the AH-1Ws and four of the UH-1Ns to HMLA-775 
Detachment A, which then repositioned all aircraft to Johnstown, 
Pennsylvania. Additionally, Heavy Marine Helicopter Squadron (HMH) 772 
was chosen to conduct the initial Night Vision Goggle (NVG) flight 
training evolution designed for Navy MH-53E aircrew, in preparation for 
their deployment in support of Operation Iraqi Freedom. This marked the 
first time Navy MH-53 pilots were trained on NVGs in a desert 
environment. Marine Air Control Group (MACG) 48 provided numerous 
detachments, including air traffic controllers, to support the OIF. 
Marine Wing Support Group (MWSG) 47 provided continual ground refueling 
support to OEF, and ongoing detachments of engineers, refuelers, and 
firefighters to OIF.
    Hurricane Katrina made landfall on August 29, 2005 east of New 
Orleans. As a result of the ensuing devastation to the gulf coast 
region, HMH-772 was the first marine squadron to participate in rescue 
efforts in New Orleans on August 31, 2005. The unit deployed four 
aircraft, which transported 348,000 lbs of cargo, 1,053 passengers, and 
720 evacuees. Marine Aerial Refueler Transport Squadrons (VMGR) 234 and 
452 and their KC-130 aircraft provided direct support to Special 
Purpose Marine Air/Ground Task Force (SPMAGTF) Katrina in the form of 
troop, cargo lift and humanitarian assistance to the gulf coast region: 
1,562 passengers and 1.5 million pounds of cargo were transported 
during 263 sorties totaling 535 hours. They also performed the same 
mission during the aftermath of Hurricanes Rita and Wilma. In addition 
to HMH-772, HMLA-773 provided direct support to SMAGTF Katrina in the 
form of civilian evacuation and humanitarian relief, operating out of 
Eglin AFB and NAS JRB New Orleans. MACG-48 and MWSG-47 brought their 
own specialized assistance in the form of aircraft controllers and 
logistical support. Fourth MAW continued to support Katrina relief 
efforts until October 2005.

                         ACTIVATION PHILOSOPHY

    Reserve forces have been sustained consistent with Total Force 
Marine Corps planning guidance. This guidance continues to be based on 
a 12-month involuntary activation with a 7 month deployment, followed 
by a period of dwell time and, if required and approved, a second 12-
month involuntary reactivation and subsequent 7 month deployment. This 
force management practice has provided well balanced and cohesive units 
within Marine Forces Reserve, ready for sustained employment and 
warfighting. This activation philosophy has proved to be an efficient 
and effective use of our Reserve Marines' 24-month cumulative 
activation time limit.

                           ACTIVATION IMPACT

    As of December 2005, the Marine Corps Reserve began activating 
approximately 2,200 Selected Marine Corps Reserve (SMCR) Marines in 
support of the next Operation Iraqi Freedom rotation and 290 SMCR 
Marines in support of Operation Enduring Freedom. Even with judicious 
use of our assets and coordinated planning, the personnel tempo has 
increased. As the Members of this committee know, Reserve Marines are 
students or have civilian occupations that are also very demanding, and 
are their primary careers. In total, approximately 5,464 Reserve 
Marines have been activated more than once; about 1,875 of whom are 
currently activated. As of April 2006, approximately 61 percent of the 
current SMCR unit population and 72 percent of the current Individual 
Mobilization Augmentee (IMA) population have been activated at least 
once. About 2.8 percent of our current Individual Ready Reserve (IRR) 
population is deployed in support of OIF/OEF. If you include the number 
of marines who previously deployed in an active status who have since 
transferred to the IRR, the number reaches 57 percent. This is worth 
particular note as the IRR provides needed depth and capability. 
Volunteers from the IRR and from other Military Occupational 
Specialties, such as artillery, have been cross-trained to reinforce 
identified critical specialties such as civil affairs and linguists.
    Although supporting the GWOT is the primary focus of the Marine 
Corps Reserve, other functions, such as pre-deployment preparation and 
maintenance, recruiting, training, facilities management and long term 
planning continue. The wise use of the Active Duty Special Work (ADSW) 
program allows the Marine Corps to fill these short-term requirements 
with Reserve Marines. For example, as of this month almost 4,600 
marines are on active duty under this program. Continued support and 
funding for this critical program will enhance flexibility, thereby 
ensuring our total force requirements are met.

                   MARINE CORPS RESERVE CAPABILITIES

    The Marine Corps Reserve recognizes the fiscal and security 
environment of today and the future demands required to remain 
effective, relevant and capable in support of the Total Force and 
Combatant Commanders. To this end, we have been active participants in 
the 2004 Force Structure Review Group and presently, the Capabilities 
Assessment Group. Both initiatives, discussed in the ensuring 
paragraphs, will better posture Marine Forces Reserve with a lethal 
spectrum of capabilites to support irregular and traditional warfare.
Force Structure Review Group 2004 (FSRG 04)
    FSRG 04 convened in April-May 2004 to rebalance Marine Corps total 
force capabilities for sustained support to OIF and OEF. The effort was 
end-strength and structure neutral--with proposed new capabilities 
offset by reductions in lower priority, underused capabilities. A key 
rationale for the effort included the necessity to build more 
sustainable capabilities in job skill areas experiencing high demand 
and high personnel tempo rates. In last year's testimony we reported 
the results of FSRG 04, which called for decreasing Reserve Component 
anti-aircraft, artillery, tank, and tactical aviation capability while 
increasing anti-terrorism, civil affairs, intelligence, light armored 
reconnaissance, and mortuary affairs capabilities within the reserve 
component over a 3 year period (fiscal year 2005-07). Executing these 
actions while simulaneously supporting OEF and OIF commitments is 
challenging, and involves close collaboration among force structure, 
manpower, training, operations, logistics, facility, and fiscal 
planners. fiscal year 2006 contains the preponderance of actions which 
are well underway and by the end of fiscal year 2007, will better 
posture the reserve component to sustain the Long War.
Base Realignment And Closure 2005 (BRAC 05)
    BRAC 05 moves us toward our long-range strategic infrastructure 
goals through efficient joint ventures and increased training center 
utilization without jeopardizing our community presence. In cooperation 
with other reserve components, notably the Army Reserve and the Army 
National Guard, we developed Reserve basing solutions that further 
reduce restoration and modernization backlogs and AT/FP vulnerability. 
Twenty-three of the 25 BRAC recommendations affecting the Marine Corps 
Reserve result in joint basing of our units. Implementation of these 
recommendations will be a challenge across the Future Years Defense 
Program. Of the other two, the Federal City in New Orleans appears both 
promising and challenging and we look forward to working with the State 
and local governments in this unique venture. The final BRAC-
recommended move is from a Navy-hosted facility in Encino, California, 
to a Marine Corps Reserve-owned facility in Pasadena, California.

                               EQUIPMENT

    The Marine Corps Reserve, like the active component, faces two 
primary equipping challenges: supporting and sustaining our forward 
deployed forces in the GWOT while simultaneously resetting and 
modernizing the Force to prepare for future challenges. Our priorities 
in support of the first challenge are to provide every deploying 
Reserve Marine with the latest generation individual combat and 
protective equipment; second, to procure essential communications 
equipment; third, to procure simulation devices that provide our 
marines with essential training and enhance survivability in hostile 
environments; and fourth, to provide adequate funding to O&M accounts. 
Our priorities in support of resetting and modernizing the Force 
include the procurement and fielding of light armored vehicles to 
outfit two new Light Armored Reconnaissance Companies, filling our 
remaining communications equipment shortfalls, and adequately funding 
upgrades to our legacy aircraft.
Training Allowance
    The total wartime equipment requirement for Marine Corps units is 
called the Table of Equipment (T/E). For Marine Forces Reserve, the T/E 
consists of two parts: a Training Allowance (T/A) and In-Stores assets. 
The T/A is the equipment our units maintain at their training sites. 
Our units have established training allowances that is, on average, 
approximately 80 percent of the established T/E. This equipment 
represents the minimum needed by the unit to maintain the training 
readiness necessary to deploy, while at the same time is within their 
ability to maintain under routine conditions. The establishment of 
training allowances allows Marine Forces Reserve to better cross-level 
equipment to support CONUS training requirements of all units of the 
Force with a minimal overall equipment requirement. The amount of T/A 
each unit has is determined by training requirements, space 
limitations, and staffing levels at the unit training sites. This 
construct requires the support of the Service to ensure that the 
``delta'' between a unit's T/A and T/E is available in the event of 
mobilization and deployment. The current Headquarters Marine Corps 
policy of retaining needed equipment in theater for use by deploying 
forces ensures that mobilized Marine Forces Reserve units will have the 
primary end items necessary to conduct their mission.
    The types of equipment held by Reserve Training Centers are the 
same as those held within the active component. However, as a result of 
the aforementioned movement of equipment into theater as well as the 
Marine Corps' efforts to cross-level equipment inventories to support 
home station shortfalls (both active and reserve), Marine Forces 
Reserve will experience selected equipment shortfalls, particularly 
communications and electronic equipment. This shortfall will be 
approximately 10 percent across the Force in most areas, and somewhat 
greater for certain low density ``big-box'' type equipment sets. The 
shortfall will not preclude essential sustainment training within the 
Force. Shortfalls are being mitigated over time by equipment procured 
through the fiscal year 2005 Emergency Supplemental as well as fiscal 
year 2005 and fiscal year 2006 National Guard and Reserve Equipment 
Appropriations.
Individual Marine Equipment
    As with all we do, our top focus is the individual marine and 
sailor. Our efforts to equip and train this most valued resource have 
resulted in obtaining the latest generation individual combat and 
protective equipment: M4 rifles, Advanced Combat Optic Gunsight (ACOG) 
rifle scopes, lower body armor, and night vision goggles, to name a 
few. I am pleased to report that every member of Marine Forces Reserve 
deployed over the past year in support of the Global War on Terror, as 
well as those currently deployed in harm's way, were fully equipped 
with the most current individual combat clothing and equipment and 
individual protective equipment. Your continued support of current 
budget initiatives will ensure we are able to properly equip our most 
precious assets--our individual marines.
Ground Equipment
    The ground equipment readiness (mission capable) rates of our 
deployed forces average above 95 percent. This has been accomplished by 
tapping into pre-positioned stocks in Norway and Maritime Prepositioned 
Shipping, through organic maintenance capabilities, contractor support, 
leveraging the Army ground depot capability, an established principal 
end item rotation plan, and the established pool of ground equipment 
(Forward In-Stores) which expedites the replacement of damaged major 
end items. The corresponding ground equipment readiness (mission 
capable) rates for non-deployed units average 85 percent, although we 
do have shortages in home station equipment available for training due 
to ``cross-leveling'' equipment in support of GWOT. Equipment that has 
been cross-leveled to OIF includes communications equipment, crew-
served weapons, optics, and a reserve infantry battalion's equipment 
set.
    The harsh operating environments found in Afghanistan and Iraq, 
coupled with the weight of added armor and unavoidable delays of 
scheduled maintenance due to combat, is degrading the Corps' equipment 
at an accelerated rate. With GWOT equipment usage rates ranging from 
four to nine times normal peacetime usage depending on the end item, 
hours/miles, and operational conditions, maintaining current readiness 
levels will require extensive maintenance efforts, particularly for any 
major end items returned to CONUS.
Aviation Equipment
    The Marine Corps Reserve operates and maintains a diverse but aging 
inventory of aircraft including: AH-1W Cobras, CH-46E Sea Nights, CH-
53E Super Stallions, F-5 Tiger Sharks, KC-130T Hercules, F/A-18A 
Hornets, UH-1N Hueys, and Operational Support Airlift aircraft 
consisting of UC-12 King Airs and UC-35 Citations. The average age of 
our tactical aircraft is: CH-46E: 38 years; UH-1N: 34 years; F-5: 29 
years; F/A-18A: 21 years; KC-130T: 19 years; CH-53E: 17 years; AH-1W: 
12 years.
    The harsh operating environments in Afghanistan and Iraq--extreme 
temperatures, high altitudes, corrosive desert environment--have 
created maintenance challenges, negatively affected the normal expected 
service life of our rotary wing fleet, and accelerated the aging of the 
inventory. The CH-46, for example, has been utilized in support of OIF 
at 200 percent of its peacetime usage rate. With no active production 
lines for our rotary wing aircraft, maintaining our inventory in a 
mission capable status has been accomplished through an ever increasing 
workload on our enlisted maintainers, yet despite difficult 
circumstances they continue to excel. The aviation equipment readiness 
(mission capable) rates of our deployed forces averaged 82 percent over 
the past 12 months. The corresponding rate of units remaining in 
garrison averaged 74 percent over the same period.
    The President's budget request provides limited modernization 
dollars for Marine Corps Reserve (and Navy Reserve) aircraft: $2.6 
million for Adversary Aircraft (F-5 & USN F-16), $7.1 million for H-53 
series aircraft, and $30.3 million for cargo/transport aircraft (e.g., 
KC-130T, UC-12, UC-35). Selective aircraft modernization needs 
identified in the fiscal year 2007 National Guard and Reserve Equipment 
Report and elsewhere include: AH-1W critical cockpit upgrade, CH-46 
crashworthy crew chief seats, KC-130T Defensive Electronic 
Countermeasures (DECM) and Night Vision Lighting (NVL) upgrade. With no 
new aircraft slated for delivery to the Marine Corps Reserve, it is 
essential that procurement funding continue for selective upgrade and 
modernization of legacy aircraft, as well as adequately funding the O&M 
account.
    We have mitigated aircraft reset requirements as much as possible 
through specific aircraft modifications, proactive inspections and 
corrective maintenance; however, significant reset efforts exist. 
Additional requirements for depot level maintenance on airframes, 
engines, weapons, and support equipment will continue well after 
hostilities end and our aircraft have returned to their home stations. 
Assuming no top-line increase, the magnitude of the aviation reset 
requirement cannot be accomplished within the procurement account of 
the President's budget without having detrimental impacts elsewhere 
within the Marine Corps. We greatly appreciate the support of Congress 
in providing past supplemental appropriations.
    Marine aviation is poised to undergo significant transformation 
over the next 10 years. The initial impact to the Marine Corps Reserve 
is slated to occur during fiscal year 2007 when one Reserve F/A-18A 
squadron is programmed to deactivate. Coupled with the fiscal year 2005 
deactivation of another Reserve F/A-18A squadron stemming from the 
Department of the Navy's Tactical Aviation (TACAIR) integration 
initiative, two Reserve F/A-18A squadrons will remain after fiscal year 
2007.
National Guard And Reserve Equipment Appropriation (NGREA)
    NGREA continues to provide invaluable support in providing 
interoperable, state-of-the-art equipment to our Reserve Marines, the 
Total Force and the ultimate customer--the Combatant Commanders. In 
fiscal year 2005, NGREA provided $50 million ($40 million for Title III 
and $10 million under Title IX) which is presently being obligated to 
procure high priority aviation and ground needs such as: Aviation 
Survivability Equipment (ASE) for AH-1W aircraft, Helicopter Night 
Vision Systems (HNVS) for CH-53E aircraft, light weight troop seats for 
CH-46 aircraft, SATCOM radios for KC-130T aircraft; significant 
quantities of communication equipment including: Integrated Intra-Squad 
Radios (IISR); PRC-117s, PRC-148s, PRC-150s; simulation devices 
including: Indoor Simulated Marksmanship Trainer-Enhanced, Virtual 
Combat Convoy Trainer, MTVR Training Simulator; and other miscellaneous 
equipment including: Night Vision Systems, Laser Target Designators; 
Counterintelligence HUMINT Equipment Suite (CIHEP) and power 
distribution systems.
    Fiscal year 2006 NGREA provided $30 million, which was released to 
the Marine Corps for obligation in March 2006. Again focused on 
supporting current warfighter needs, this funding will procure 
communications equipment including PRC-148s and Improved Intra-Squad 
Radios, multiple simulation devices including: Virtual Combat Convoy 
Trainers, LAV Combat Vehicle Training Simulators, a Medium Tactical 
Vehicle Replacement--Training System (MTVR-TS), and other miscellaneous 
equipment including: Ground Laser Target Designators, In-Transit 
Visibility Management Package/RFID Tags, Defense Advanced GPS 
Receivers, Marine Expeditious Power Distribution Systems, CIHEP and 
alternate power supplies.
    Given the urgency of fielding this equipment to our mobilizing and 
deploying marines, we coordinate with Marine Corps Systems Command and 
other executing agencies to ensure NGREA is placed on contract and 
delivered as soon as possible.

                        RECRUITING AND RETENTION

    Like the active component, Marine Corps Reserve units primarily 
rely upon a first term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and the Corps. Recruiting and retention goals were 
met in fiscal year 2005, but the long-term impact of recent activations 
is not yet known. Despite the high operational tempo, the morale and 
patriotic spirit of Reserve Marines, their families and employers 
remains extraordinarily high.
    At the end of fiscal year 2005, the Marine Corps' Selected Reserve 
was over 39,600 strong. Part of this population is comprised of Active 
Reserve Marines, Individual Mobilization Augmentees, and Reserve 
Marines in the training pipeline. Additionally, nearly 60,000 marines 
serve as part of the Individual Ready Reserve, representing a 
significant pool of trained and experienced prior service manpower. 
Reserve Marines bring to the table not only their Marine Corps skills 
but also their civilian training and experience as well. The presence 
of police officers, engineers, lawyers, skilled craftsmen, business 
executives, and the college students who fill our Reserve ranks serves 
to enrich the Total Force. The Marine Corps appreciates the recognition 
given by Congress to employer relations, insurance benefits, and family 
support. Such programs should not be seen as ``rewards'' or 
``bonuses,'' but as investment tools that will sustain the Force in the 
years ahead.
    Support to the GWOT has reached the point where 70 percent of the 
current Marine Corps Reserve officer leadership has deployed at least 
once. Nevertheless, the Marine Corps Reserve is currently achieving 
higher retention rates than the benchmark average from the prior 3 
fiscal years. As of January 2006 the OSD attrition statistic for Marine 
Corps Selected Reserve officers is 8.4 percent compared to the current 
benchmark average of 11.7 percent. For the same time period, Reserve 
unit enlisted attrition is 6.2 percent compared to an 8.5 percent 
benchmark average.
    In fiscal year 2005, the Marine Corps Reserve achieved 100 percent 
of its recruiting goal for non-prior service recruiting (5,921) and 
exceeded its goal for prior service recruiting (3,132). For our Reserve 
component, junior officer recruiting remains the most challenging area. 
We are expanding Reserve commissioning opportunities for our prior-
enlisted marines in order to grow some of our own officers from Marine 
Forces Reserve units and are exploring other methods to increase the 
participation of company grade officers in the Selective Marine Corps 
Reserve. We are also developing some bold new changes in our junior 
officer accession programs and expect to incorporate some of the 
changes during fiscal year 2007 and plan to fill 90 percent of our 
company grade officer billets by fiscal year 2011. We thank Congress 
for the continued support of legislation to allow bonuses for officers 
in the Selective Marine Corps Reserve who fill a critical skill or 
shortage. We are aggressively implementing the Selected Reserve Officer 
Affiliation Bonus program and expect it to fill fifty vacant billets 
this year, with plans to expand the program in the coming years.

                            QUALITY OF LIFE

    Our future success will rely on the Marine Corps' most valuable 
asset--our marines and their families. We believe it is our obligation 
to arm our marines and their families with as much information as 
possible on the programs and resources available to them. Providing 
information on education benefits, available childcare programs, family 
readiness resources and health care benefits enhances their quality of 
life and readiness.
Education
    Last year, you heard testimony from my predecessor that there were 
no laws offering academic and financial protections for Reserve 
military members who are college students. I am glad to see that there 
is movement in Congress to protect our college students and offer 
greater incentives for all service members to attend colleges. I 
appreciate Congress's efforts in protecting a military member's college 
education investments and status when called to duty.
    More than 1,300 Marine Forces Reserve Marines and sailors chose to 
use tuition assistance in fiscal year 2005 in order to help finance 
their education. This tuition assistance came to more than $3 million 
in fiscal year 2005 for more than 4,200 courses. Many of these marines 
were deployed to Afghanistan and Iraq and participated in their courses 
via distance learning. In this way, tuition assistance helped to 
mitigate the financial burden of education and facilitated progress in 
the marine's planned education goals. We support continued funding of 
tuition assistance as currently authorized for activated Reserves. I 
fully support initiatives that will increase G.I. Bill benefits for 
Reserve and National Guard service members, as they are key retention 
and recruiting tools and an important part of our commandant's guidance 
to enhance the education of all marines. The 2005 National Defense 
Authorization Act included a new education assistance program for 
certain Reserve and National Guard Service members. I heartily thank 
you for this initiative and its implementation by the Department of 
Veterans Affairs, as it has positively impacted the quality of life for 
Marine Reservists and other service members.
Child Care Programs
    Marines and their families are often forced to make difficult 
choices in selecting childcare before, during and after a marine's 
deployment in support of the Global War on Terror. We are deeply 
grateful for ``Operation Military Child Care,'' a joint initiative 
funded by the Department of Defense and operated through cooperative 
agreements with the Boys and Girls Clubs of America, and the National 
Association of Child Care Resource and Referral Agencies. Without the 
fiscal authorization provided by the Senate and House, these programs 
could not have been initiated or funded. These combined resources have 
immeasurably contributed to the quality of life of our marines' and 
their families. I thank you all for your support in the past and the 
future in providing sufficient funds for these key initiatives.
Family Readiness
    Everyone in Marine Forces Reserve recognizes the strategic role our 
families have in our mission readiness, particularly in our 
mobilization preparedness. We help our families to prepare for day-to-
day military life and the deployment cycle (Pre-Deployment, Deployment, 
Post-Deployment, and Follow-On) by providing educational opportunities 
at unit Family Days, Pre-Deployment Briefs, Return and Reunions, Post-
Deployment Briefs and through programs such as the Key Volunteer 
Network (KVN) and Lifestyle Insights, Networking, Knowledge and Skills 
(L.I.N.K.S.). We also envision the creation of Regional Quality of Life 
Coordinators, similar to the Marine Corps Recruiting Command program, 
for our Reserve Marines and their families.
    At each of our Reserve Training Centers, the KVN program serves as 
the link between the command and the family members, providing them 
with official communication, information and referrals. The key 
volunteers, many of whom are parents of young, un-married marines, 
provide a means of proactively educating families on the military 
lifestyle and benefits, provide answers for individual questions and 
areas of concerns and, perhaps most importantly, enhance the sense of 
community within the unit. The L.I.N.K.S. program is a spouse-to-spouse 
orientation service offered to family members to acquaint them with the 
military lifestyle and the Marine Corps, including the challenges 
brought about by deployments. Online and CD-ROM versions of L.I.N.K.S 
makes this valuable tool more readily accessible to families of Reserve 
Marines not located near Marine Corps installations.
    Military One Source is another important tool that provides marines 
and their families with around-the-clock information and referral 
service for subjects such as parenting, childcare, education, finances, 
elder care, health, wellness, deployment, crisis support and relocation 
via toll-free telephone and Internet access.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector and Instructor staff use all these tools to provide 
families of activated or deployed marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System. All of these programs 
depend on adequate funding of our manpower and O&M accounts.
Managed Health Network
    Managed Health Network, through a contract with the Department of 
Defense, is providing specialized mental health support services to 
military personnel and their families. This unique program is designed 
to bring counselors on-site at Reserve Training Centers to support all 
phases of the deployment cycle. Marine Forces Reserve is incorporating 
this resource into Family Days, Pre-Deployment Briefs and Return & 
Reunion Briefs and further incorporating them in the unfortunate event 
of significant casualty situations. Follow-up services are further 
scheduled after marines return from combat at various intervals to 
facilitate on-site individual and group counseling.
Tricare
    Since 9/11, Congress has gone to great lengths to improve TRICARE 
benefits available to the Guard and Reserve and we are very 
appreciative to Congress for all the recent changes to the program. 
Since April 2005, TRICARE Reserve Select has been providing eligible 
Guard and Reserve veterans with comprehensive health care. This new 
option, similar to TRICARE Standard, is designed specifically for 
Reserve members activated on or after September 11, 2001 who enter into 
an agreement to serve continuously in the Selected Reserve for a period 
of 1 or more years. Participation in the program has greatly benefited 
those Reserve Marines who have served and who continue to serve. This 
provides optional coverage for Selected Reserves after activation, at 
the rate of 1 year of coverage while in non-active duty status for 
every 90 days of consecutive active duty. The member must agree to 
remain in the Selected Reserve for 1 or more whole years. Also, a 
permanent earlier eligibility date for coverage due to activation has 
been established at up to 90 days before an active duty reporting date 
for members and their families.
    The new legislation also waives certain deductibles for activated 
members' families. This reduces the potential double payment of health 
care deductibles by members' civilian coverage. Another provision 
allows the DOD to protect the beneficiary by paying providers for 
charges above the maximum allowable charge. Transitional health care 
benefits have been established, regulating the requirements and 
benefits for members separating. We are thankful for these permanent 
changes that extend healthcare benefits to family members and extend 
benefits up to 90 days prior to their activation date and up to 180 
days after de-activation.
    Reserve members are also eligible for dental care under the Tri-
Service Dental Plan for a moderate monthly fee. In an effort to 
increase awareness of the new benefits, Reserve members are now 
receiving more information regarding the changes through an aggressive 
education and marketing plan. These initiatives will further improve 
the healthcare benefits for our Reserves and National Guard members and 
families.
Casualty Assistance
    One of the most significant responsibilities of the site support 
staff is that of casualty assistance. Currently, Marine Forces Reserve 
conducts approximately 93 percent of all notifications and follow-on 
assistance for the families of our fallen Marine Corps brethren. In 
recognition of this greatest of sacrifices, there is no duty that we 
treat with more importance. However, the duties of our casualty 
assistance officers go well beyond notification. We ensure they are 
adequately trained, equipped, and supported by all levels of command. 
Once an officer or staff noncommissioned officer is designated as a 
casualty assistance officer, he or she assists the family members in 
every possible way, from planning the return and final rest of their 
marine, counseling them on benefits and entitlements, to providing a 
strong shoulder when needed. The casualty officer is the family's 
central point of contact, serving as a representative or liaison with 
the media, funeral home, government agencies or any other agency that 
may be involved. Every available asset is directed to our marine 
families to ensure they receive the utmost support. This support 
remains in place as long after the funeral and is maintained regardless 
of personnel turnover. The Marine Corps Reserve also provides support 
for military funerals for veterans of all services. The marines at our 
reserve sites performed more than 7,500 funerals in calendar year 2005.
Marine For Life
    Our commitment to take care of our own includes a marine's 
transition from honorable military service back to civilian life. 
Initiated in fiscal year 2002, the Marine For Life program is available 
to provide support for the approximately 27,000 marines transitioning 
from active service back to civilian life each year. Built on the 
philosophy, ``Once a Marine, Always a Marine,'' Reserve Marines in over 
80 cities help transitioning marines and their families to get settled 
in their new communities. Sponsorship includes assistance with 
employment, education, housing, childcare, veterans' benefits and other 
support services needed to make a smooth transition. To provide this 
support, the Marine For Life program taps into a network of former 
marines and marine-friendly businesses, organizations, and individuals 
willing to lend a hand to a marine who has served honorably. 
Approximately 2,000 marines are logging onto the web-based electronic 
network for assistance each month, and more than 30,000 marines have 
been assisted since January 2004. Assistance from career retention 
specialists and transitional recruiters helps transitioning marines by 
getting the word out about the program.
Employer Support
    Members of the Guard and Reserve who choose to make a career must 
expect to be subject to multiple activations. Employer support of this 
fact is essential to a successful activation and directly effects 
retention and recruiting. With continuous rotation of Reserve Marines, 
we recognize that the rapid deactivation process is a high priority to 
reintegrate marines back into their civilian lives quickly and properly 
in order to preserve the Reserve force for the future. To that end we 
enthusiastically support the efforts of the National Committee of the 
Employer Support of the Guard and Reserve (ESGR) and have joined with 
them in Operation Pinnacle Advance, which seeks to further develop 
personal relationships with our marines' employers.

                               CONCLUSION

    As I have stated in the beginning of my testimony, your consistent 
and steadfast support of our marines and their families has directly 
contributed to our successes, both past and present, and I thank you 
for that support. As we push on into the future, your continued concern 
and efforts will play a vital role in the success of Marine Forces 
Reserve. Due to the dynamics of the era we live in, there is still much 
to be done.
    The Marine Corps Reserve continues to be a vital part of the Marine 
Corps Total Force Concept. Supporting your Reserve Marines at the 185 
sites throughout the United States, by ensuring they have the proper 
facilities, equipment and training areas, enables their selfless 
dedication to our country. Since 9/11, your Marine Corps Reserve has 
met every challenge and has fought side by side with our active 
counterparts. No one can tell the difference between the active and 
reserve--we are all marines.
    The consistent support from Congress for upgrades to our 
warfighting equipment has directly affected the American lives saved on 
the battlefield. However, as I stated earlier, much of the same 
equipment throughout the force has deteriorated rapidly due to our 
current operational tempo.
    As I have stated earlier, NGREA continues to be extremely vital to 
the health of the Marine Corps Reserve, assisting us in staying on par 
with our active component. We have seen how the NGREA directly improved 
our readiness in recent operations, and we look forward to your 
continued support of this key program.
    My final concerns are for Reserve and Guard members, their families 
and employers who are sacrificing so much in support of our Nation. 
Despite strong morale and good planning, we understand that activations 
and deployments place great stress on these praiseworthy Americans. 
Your continued backing of ``quality of life'' initiatives will help 
sustain Reserve Marines in areas such as education benefits, medical 
care and family care.
    My time thus far leading Marine Forces Reserve has been 
tremendously rewarding. Testifying before congressional committees and 
subcommittees is a great pleasure, as it allows me the opportunity to 
let the American people know what an outstanding patriotic group of 
citizens we have in the Marine Corps Reserve. Thank you for your 
continued support.
                                 ______
                                 
       Biographical Sketch of Lieutenant General Jack W. Bergman

    Lieutenant General Bergman was commissioned a second lieutenant in 
the Marine Corps Reserve under the Platoon Leader School program after 
graduation from Gustavus Adolphus College in 1969. In addition to 
attaining an M.B.A. degree from the University of West Florida, his 
formal military education includes Naval Aviation Flight Training, 
Amphibious Warfare, Command and Staff, Landing Force Staff Planning 
(MEB & ACE), Reserve Component National Security, Naval War College 
Strategy & Policy, Syracuse University National Security Seminar, 
Combined Forces Air Component Command, LOGTECH, and CAPSTONE.
    He flew CH-46 helicopters with HMM-261 at Marine Corps Air Station, 
New River, North Carolina, and with HMM-164 in Okinawa/Republic of 
Vietnam. Assigned as a flight instructor, he flew the T-28 with VT-6, 
NAS Whiting Field, Florida. He left active duty in 1975 and flew UH-1 
helicopters with the Rhode Island National Guard, Quonset Point, Rhode 
Island. Following a 1978 civilian employment transfer to Chicago, 
Illinois, he served in several 4th Marine Aircraft Wing units at NAS 
Glenview, Illinois (HML-776, flying the UH-1; VMGR-234, flying the KC-
130; and Mobilization Training Unit IL-1). He was selected to stand up 
the second KC-130 squadron in 4th MAW and, in 1988, became the first 
Commanding Officer, VMGR-452, Stewart ANGB, Newburgh, New York, 1992-
1994 he commanded Mobilization Station, Chicago, Illinois, the largest 
of the 47 Marine Corps Mobilization Stations.
    During 1995 he served as a Special Staff Officer at Marine Corps 
Reserve Support Command, Overland Park, Kansas. In 1996, he became 
Chief of Staff/Deputy Commander, I Marine Expeditionary Force 
Augmentation Command Element, Camp Pendleton, California. Late 1997, he 
transferred to 4th Marine Aircraft Wing Headquarters, New Orleans, 
Louisiana to serve as Assistant Chief of Staff/G-1. Promoted to 
Brigadier General, he became Deputy Commander, 4th Marine Aircraft 
Wing.
    Transferred in June 1998 to Headquarters, Marine Forces Europe, 
Stuttgart, Germany he served as Deputy Commander. Recalled to active 
duty from April to July 1999, he was dual-hatted as EUCOM, Deputy J-3A. 
He then commanded II Marine Expeditionary Force Augmentation Command 
Element, Camp Lejeune, North Carolina until assuming command of 4th 
Marine Aircraft Wing, New Orleans, Louisiana in August 2000. In 
September 2002 he assumed command of the 4th Force Service Support 
Group, New Orleans, Louisiana. He, also, served as Chairman, Secretary 
of the Navy' Marine Corps Reserve Policy Board, 2001-2003.
    Returning to active duty in October 2003, he served as Director, 
Reserve Affairs, Quantico, Virginia. He assumed command of Marine 
Forces Reserve/Marine Forces North on June 10, 2005.
    Lieutenant General Bergman's personal decorations include the 
Defense Meritorious Service Medal, Single Mission Air Medal with Combat 
``V'' and Air Medal with numeral ``1''.

    Senator Stevens. General Bradley.

STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE, DEPARTMENT OF THE AIR 
            FORCE
    General Bradley. Senator Stevens, it is a pleasure to be 
here with you today, sir. I am very proud of our Air Force 
Reserve airmen who are serving this Nation. Many have served, 
thousands have served in Iraq and Afghanistan. Hundreds of them 
helped with Hurricane Katrina relief saving over 1,000 lives.
    Many have been responsible for what Senator Mikulski 
mentioned earlier about evacuating severely wounded soldiers 
and marines. In fact, most of the aeromedical evaculation 
capability of the United States Air Force is in the Air Force 
Reserve, and it was only in the last month that we lost the 
first soldier in flight. So for over 4 years we have kept all 
of those soldiers alive in flight, and that is a challenge, but 
the great medical progress we have made has allowed that, and 
it is the dedication of our wonderful aeromedical crews that 
has helped bring that about.
    I want to thank you and Senator Inouye and the other 
members of the subcommittee for the great support that we get 
for our Air Force Reserve. The National Guard and Reserve 
equipment account has allowed us to bring great combat 
capability to the skies of Iraq and Afghanistan to support 
soldiers and marines on the ground with great systems that 
provide for close air support. I want to thank you for that 
great support. It has been key, as General Ickes said earlier, 
to modernizing and enhancing our aircraft to keep us relevant 
and useful to our Nation.
    Thank you, sir.
    Senator Stevens. Thank you. I see you were deputy chief at 
Bergstrom. That is the last place I served in the continental 
limits before I went to China.
    General Bradley. Yes, sir.
    [The statement follows:]

        Prepared Statement of Lieutenant General John A. Bradley

    Mr. Chairman, and distinguished Members of the committee, I 
appreciate the opportunity to appear before you today. I want to thank 
you for the support you have continued to show us these past few years 
and I am happy to report it's making a difference for our forces and 
our Nation. Recently, at a Reserve Chiefs' hearing, we were asked how 
Guard and Reserve members compare to active duty when they are 
mobilized. Because of your committee's continued legislative support, 
we unanimously replied that when a Guard or Reserve member is activated 
they are indistinguishable from the Regular Air Force.
    We anticipate last year's provision to expand Selected Reserve 
member eligibility under TRICARE standard will increase medical 
readiness for mobilization. With so much attention on mobilization we 
appreciate the committee's interest in initiatives that encourage 
volunteerism because the Air Force Reserve relies heavily upon this 
means of support to meet contingency and operational requirements. In 
particular, eliminating Basic Allowance for Housing (BAH) rate 
difference for orders greater than 30 days addresses a long standing 
issue that Reserve members have identified as a deterrent to 
volunteerism. Another barrier was eliminated with support of authorized 
absences of members for which lodging expenses at temporary duty 
location must be paid. This change applied the active duty standard to 
Guard and Reserve members when they are on active duty orders. In the 
coming year we will continue to seek ways to facilitate volunteerism as 
the primary means of providing the unrivaled support on which the Air 
Force has come to rely.

                       MISSION CONTRIBUTIONS 2005

    Air Force Reserve accomplishments since September 11, 2001, and 
more specifically in the last fiscal year, clearly demonstrate that the 
Air Force Reserve is a critical component in the security of our 
Nation. The Air Force Reserve has made major contributions to the 
Global War on Terror (GWOT) with more than 80,000 sorties (360,000 
flying hours) flown in support of Operations Noble Eagle, Enduring 
Freedom and Iraqi Freedom. The Air Force Reserve has flown almost 
52,000 sorties in support of Operation Iraqi Freedom since 2003, with 
14,658 of those (55,781 flying hours) in fiscal year 2005. Our Air 
Force Reserve members have flown more than 28,000 sorties in support of 
Operation Enduring Freedom since 2002, contributing 5,328 sorties 
(25,409 flying hours) in fiscal year 2005. Here at home, the Air Force 
Reserve has flown more than 10,000 sorties supporting the vital Noble 
Eagle mission since 2002; 150 sorties (906 flying hours) in fiscal year 
2005. These contingency support missions include fighter support, 
Combat Search and Rescue, Special Operations, Aerial Refueling and 
Tactical and Strategic Airlift--mirroring and in conjunction with Total 
Force operations. This past year, C-130 and C-17 aircraft flew the 
majority of Air Force Reserve missions in the AOR. As you may know, 61 
percent of the Air Force's C-130 aircraft are assigned to the Air 
Reserve Components. On a recent trip, Senator Lindsey Graham witnessed 
the preponderance of Reserve Component airlift first hand and mentioned 
it at the Guard and Reserve Commission hearing on March 8, 2006. 
Senator Graham stated of the 20 sorties he flew in the OEF and OIF area 
of responsibility, only one sortie was flown by an active duty crew!

                      HOMELAND CONTINGENCY SUPPORT

    Our humanitarian efforts are equally as impressive as our wartime 
operations. The onslaught of hurricane strikes to the coastal United 
States in 2005 required a response unlike anything seen in our modern 
history. The Air Force Reserve was fully engaged in emergency efforts; 
from collecting weather intelligence on the storms, to search and 
rescue, and aeromedical and evacuation airlift. Hurricanes Katrina, 
Ophelia, Rita and Wilma drew heavily on the expert resources of our 
component to assist in relief efforts. Almost 1,500 Air Force Reserve 
personnel responded to these efforts within 24 hours, including members 
from the 926th Fighter Wing at NAS New Orleans, Louisiana and the 403rd 
Wing at Keesler Air Force Base, Mississippi who were struggling to 
protect their own unit's resources from storm damage.
    Two units that stood especially tall amongst our Reservists were 
the 53rd Weather Reconnaissance Squadron, also known as the Hurricane 
Hunters, based at Keesler Air Force Base and the 920th Rescue Wing 
based at Patrick Air Force Base in Florida. The Hurricane Hunters flew 
59 sorties with their new WC-130J aircraft into the eye of hurricanes 
and tropical storms to determine the strength and path of the weather 
systems even while their homes were being destroyed. Even after they 
had lost everything, they continued to perform their mission flawlessly 
from Dobbins Air Reserve Base, Georgia. The 920th Rescue Wing, the 
first unit on the scene, flew more than 100 sorties in their HH-60G 
helicopters, recovering 1,044 people who were threatened by the rising 
water.
    At the same time, other Reserve airlift units from around the 
country were responding with medical and evacuation teams that assisted 
in the transfer of more than 5,414 passengers and patients within and 
from affected areas. In fact, the Air Force Reserve accounted for more 
than 80 percent of aeromedical evacuations. Combined rescue and airlift 
missions over the 60-day period of these storms surpassed 500 sorties 
and transported 3,321 tons of relief cargo. Additionally, to combat 
insect-borne illnesses such as malaria, West Nile virus and 
encephalitis that often gain footholds during natural disasters, our 
910th Airlift Wing from Youngstown ARS, Ohio utilized their C-130's to 
spray 10,746 gallons of insecticide across 2.9 million acres. This 
equates to an area roughly the size of Connecticut and spanned 
locations from Texas to Florida. Interagency coordination with State 
and Federal organizations also resulted in the Air Force Reserve 
assisting in the areas of communications, civil engineering, security 
forces, food services, public affairs and chaplaincy support to aid in 
overall relief efforts.

               OUR PEOPLE: MOBILIZATION VS. VOLUNTEERISM

    As these tremendous efforts clearly demonstrate, the backbone of 
the Air Force Reserve is our people because they enable our mission 
accomplishment. These patriots, comprised of traditional unit 
reservists, Individual Mobilization Augmentees (IMAs), Air Reserve 
Technicians (ARTs), Active Guard and Reserve (AGRs), and civilians, 
continue to dedicate themselves to protecting the freedoms and security 
of the American people. The operations tempo to meet the combatant 
commanders' requirements since September 11, 2001 remains high, and is 
not expected to decline significantly in the near future. A key metric 
that reflects this reality is the number of days our Reserve aircrew 
members are performing military duty. In calendar year 2005, each of 
our aircrew members served an average of 91 days of military duty. This 
is a significant increase compared to an average 43 days of military 
duty per aircrew member in calendar year 2000, the last full calendar 
year before the start of the GWOT, and more than double the minimum 
number of participation days required.
    Having maximized the use of the President's Partial Mobilization 
Authority, the Air Force Reserve has begun to rely more heavily on 
volunteerism versus significant additional mobilization to meet the 
continuing Air Force requirements since September 11, 2001. There are 
several critical operational units and military functional areas that 
must have volunteers to meet ongoing mission requirements because they 
are near the 24-month mobilization authority. These include C-130, MC-
130, B-52, HH-60, HC-130, E-3 AWACS, and Security Forces. During 
CY2005, the Air Force Reserve had 6,453 members mobilized and another 
3,296 volunteers who served in lieu of mobilization to support GWOT. As 
the 2005 calendar year closed, the Air Force Reserve had 2,770 
volunteers serving full-time to meet GWOT requirements and 2,553 
Reservists mobilized for contingency operations. We expect this mix to 
become increasingly volunteer-based as this ``Long War'' continues.
    The key to increasing volunteerism, and enabling us to bring more 
to the fight, is flexibility. To eliminate barriers to volunteerism, 
the Air Force Reserve has several on-going initiatives to better match 
volunteers' desires and skill sets to the combatant commanders' mission 
requirements. For example, the Integrated Process Team we chartered to 
improve our volunteer process recently developed a prototype web-based 
tool. It gives the reservist the ability to see all the positions 
validated for combatant commanders and allows the Air Force Reserve to 
see all qualified volunteers for placement. We must have the core 
capability to always match the right person to the right job at the 
right time. We also expect volunteerism will be positively affected as 
a result of the National Defense Authorization Act of 2005. This act 
fosters more continuity in volunteerism because it adds flexibility to 
end-strength accounting rules and provides equal benefits for activated 
personnel. Facilitating the reservists' ability to volunteer provides 
more control for the military member, their family, employer and 
commander. In turn, this predictability allows more advanced planning, 
lessens disruptions, and ultimately, enables more volunteer 
opportunities.

                       SHAPING THE RESERVE FORCE

    As an equal partner in the Air Force Transformation Flight Plan 
(PBD720), the Air Force Reserve plans to realign resources to transform 
to a more lethal, more agile, streamlined force with an increased 
emphasis on the warfighter. In this process, we plan to eliminate 
redundancies and streamline organizations, which will create a more 
capable force of military, civilians, and contractors while freeing up 
resources for Total Force recapitalization. No personnel reductions 
exist as a result of the Air Force Transformation Flight Plan in fiscal 
year 2007. Our reductions begin in fiscal year 2008. Over the FYDP the 
Air Force Reserve is planning for a reduction from 74,900 authorized 
personnel in fiscal year 2006 to an end strength of 67,800 personnel at 
the end of fiscal year 2011.

                        RECRUITING AND RETENTION

    The Air Force Reserve has experienced satisfactory retention, while 
simultaneously meeting our recruiting goals for a fifth consecutive 
year. I am proud of the fact that our Reservists contribute directly to 
the warfighting effort every day. When our Reserve Airmen are engaged 
in operations that employ their skills and training, there is a sense 
of reward and satisfaction that is not quantifiable. I attribute much 
of the success of our recruiting and retention to the meaningful 
participation of our airmen.
    That being said, the 10 percent reduction in personnel planned over 
the FYDP, coupled with the impact of BRAC initiatives, presents 
significant future recruiting and retention challenges for the Air 
Force Reserve. With the personnel reductions beginning in fiscal year 
2008 and the realignment and closure of Reserve installations due to 
BRAC, approximately 20 percent of our force will be directly impacted 
by the planned changes through new and emerging missions, and mission 
adjustments to satisfy Air Force requirements. In light of all these 
changes, we expect the recruiting and retention environment will be 
turbulent, dynamic and challenging.
    Unlike the Regular Air Force, the Air Force Reserve does not have 
an assignment capability with command-leveling mechanisms that assist 
in the smooth transition of forces from drawdown organizations into 
expanding organizations. In drawdown organizations, the focus will be 
on maintaining mission capability until the last day of operations, 
while also trying to retain as much of the force as possible and 
placing them in other Air Force Reserve organizations. To accomplish 
this, we need to employ force management initiatives that will provide 
our affected units with options to retain our highly trained personnel.
    This contrasts greatly with the organizations gaining new missions 
and/or authorizations. It's important to remember that the Air Force 
Reserve is a local force and that growing units will face significant 
recruiting challenges when considering the availability of adequately 
qualified and trained personnel. As has always been the case, we will 
focus on maximizing prior service accessions. Regular Air Force 
reductions over the FYDP may prove beneficial to our recruiting efforts 
but will not be the complete answer since the Regular Air Force 
critical skills closely match those in the Reserve. ``Other prior 
service'' individuals accessed by the Reserve will inevitably require 
extensive retraining which is costly. The bottom line is that retaining 
highly trained individuals is paramount. Retention must be considered 
from a total force perspective, and any force drawdown incentives 
should include Selected Reserve participation as a viable option. It is 
imperative legislation does not include any language that would provide 
a disincentive to Reserve Component affiliation. Recruiting and 
retaining our experienced members is the best investment the country 
can make because it ensures a force that is ready, and able to go to 
war at any time.

                      BASE REALIGNMENT AND CLOSURE

    Recruiting and retention are particularly important when 
considering the significant impact of the 2005 BRAC recommendations. 
The Air Force Reserve had seven bases realigned and one, General Billy 
Mitchell Field in Milwaukee, Wisconsin closed. To our Reserve Airmen, a 
base realignment, in many cases, is essentially a closure. When BRAC 
recommended the realignment of our wing at Naval Air Station New 
Orleans, our airplanes were distributed to Barksdale AFB, Louisiana and 
Whiteman AFB, Missouri, while the remaining Expeditionary Combat 
Support was sent to Buckley AFB, Colorado. In another example, BRAC 
recommended the realignment of our wing at Selfridge ANGB, Michigan and 
directed the manpower be moved to MacDill AFB, Florida to associate 
with the Regular Air Force. New Orleans, Louisiana to Denver, Colorado 
and Selfridge, Michigan to Tampa, Florida are challenging commutes for 
even the most dedicated reservist. These are just a few examples of the 
impact base realignments have on our reservists. In the majority of 
realignments, ability to serve is hindered due to the distances they 
must travel to participate. In the post-BRAC environment, we continue 
to strive to retain the experience of our highly trained personnel. We 
are working closely with the Air Force and the Office of the Secretary 
of Defense, on initiatives that will encourage those who were impacted 
by BRAC decisions to continue to serve.

                             FAMILY SUPPORT

    The military commitment that reservists make has a profound effect 
on their families. The stresses of the military lifestyle; the 
possibility of unexpected deployments, often into areas of unrest, can 
play havoc on a family unit. Family Readiness offers a variety of 
services to support military families during these stressful times. 
Family Readiness offices provide the following services for the 
families of deployed Reservists:
  --Family readiness data card completed by member at deployment for 
        special needs
  --Video telephones available at deployed site and unit site
  --FAMNET (Family Support Global Communication Network) available at 
        63 countries (Internet access not required)
  --Joint inter-service family assistance services
  --Crisis intervention assistance
  --Volunteer opportunities
  --Reunion activities
  --Information and referral services to appropriate support agencies
  --Assistance with financial questions and concerns
  --Telephone tree roster for communication to the families from the 
        unit
  --Family support groups
  --Morale calls
  --Letter writing kits for children
  --E-mail
    Amazingly, there are only 21 full-time positions throughout the Air 
Force Reserve to handle all these responsibilities. Family Readiness 
offices support Reserve Component members during times of mobilization 
and also with operational missions. In May 2005, Dobbins Air Reserve 
Base, Georgia held a recognition event for family members and brought 
agencies from across the spectrum to answer questions. A few months 
later they found themselves playing host to displaced Reserve Component 
members and their families from Hurricane Katrina.
    According to the Family Readiness Office at Headquarters Air Force 
Reserve Command (AFRC), family members are displaying the effects of 
mobilization and seeking assistance from readiness offices and 
organizations like One Source. In 2005 there was a 12 percent increase 
in usage of Air Force Reserve Family Readiness support. The top issues 
follow:
AFRC Top Issues
  --Emotional well-being
  --Stress from repeated deployments and length.
One Source Top Issues
  --Emotional well-being
  --Financial
  --Personal and family readiness issues
  --Parenting and everyday issues
  --Education (suddenly being military).
    The command has seen a 38 percent usage of face-to-face counseling 
service through free developmental counseling of 6 sessions offered per 
issue at no cost. A provider is found within 30 miles of residence 
rather than just at the closest military installation. In these 
sessions there is a focus on grief and loss, reintegrating couples in 
their relationship and achieving work/life balance.
    Improving family readiness programs by strengthening connections 
with the family, helping them be better prepared, and having a 
proactive outreach program to ensure unit, individual and family 
readiness are a few of the necessary developments.
    Just as Reserve Component members are participating at far greater 
rates, our Family Readiness is a 365-day a year program. Although we 
now have demobilization training, it is more difficult to 
institutionalize because members want to get home. When they finally 
recognize they need help, we are left scrambling to provide assistance. 
This is even more difficult at units like Peterson Air Force Base, 
Colorado and Maxwell Air Force Base, Alabama where Family Readiness is 
an additional duty. The command is working on how to best meet these 
growing requirements. One thing that hasn't changed is that families 
are proud of the military member's role in fighting the war on terror.

                         ONE TIER OF READINESS

    We in the Air Force Reserve pride ourselves on our ability to 
respond to any global crisis within 72 hours. In many cases, including 
our response to the devastation during the hurricane season, we are 
able to respond within 24 hours. We train to the same standards as the 
active duty for a reason. We are one Air Force in the same fight. With 
a single level of readiness, we are able to seamlessly operate side-by-
side with the Regular Air Force and Air National Guard in the full 
spectrum of combat operations. As an equal partner in day-to-day combat 
operations, it is critical we remain ready, resourced and relevant.
New Mission Areas
    The Air Force Reserve will continue to transform into a full 
spectrum force for the 21st Century by integrating across all roles and 
missions throughout the Air, Space and Cyberspace domains. Our roles 
and missions are mirror images of the Regular Component. Bringing Air 
Force front line weapon systems to the Reserve allows force unification 
at both the strategic and tactical levels. Indeed, we are a unified, 
total force.
    Sharing the tip of the spear, our focus is on maximizing warfighter 
effects by taking on new and emerging missions that are consistent with 
Reserve participation. Reachback capabilities enable Reserve forces to 
train for and execute operational missions supporting the Combatant 
Commander from home station. In many cases, this eliminates the need 
for deployments. The Associate Unit construct will see growth in 
emerging operational missions such as: Unmanned Aerial Systems, Space 
and Information Operations, Air Operations Centers, Battlefield Airmen 
and Contingency Response Groups. The Active/Air Reserve Components mix 
must keep pace with emerging missions to allow the Air Force to 
continue operating seamlessly as a Total Force. This concurrent 
development will provide greater efficiency in peacetime and increased 
capability in wartime.
Transforming and Modernizing the AFR
    Equipment modernization is our lifeline to readiness. As the Air 
Force transitions to a capabilities-based force structure, the 
combination of aging and heavily used equipment requires across-the-
board recapitalization. The United States military has become 
increasingly dependent on the Reserve to conduct operational and 
support missions around the globe. Effective modernization of Reserve 
assets is vital to remaining a relevant and capable combat ready force. 
While the Air Force recognizes this fact and has made significant 
improvement in modernizing and equipping the Reserve, the reality of 
fiscal constraints still results in shortfalls in our modernization and 
equipage Funding our modernization enhances availability, reliability, 
maintainability, and sustainability of aircraft weapon systems; 
strengthening our ability to ensure the success of our warfighting 
commanders and laying the foundation for tomorrow's readiness.

                         FISCAL YEAR 2006 NGREA

    The National Guard and Reserve Equipment Account (NGREA) resolves 
some of these AFR equipment deficiencies. We appreciate the support 
provided in the 2006 NGREA. The money you provide is making a 
difference; increasing the capability and safety of our airmen, and the 
security of our Nation. The fact is AFR NGREA procurement strategy 
fulfills shortfall equipment requirements. The items we purchase with 
NGREA are prioritized from the airmen in the field up to the Air Force 
Reserve Command Headquarters and vetted through the Air Staff. The 
cornerstone is innovation and the foundation is capabilities-based and 
has been for many years. In fiscal year 2006 the Air Force Reserve is 
spending $30 million on critical aircraft modernization and 
miscellaneous equipment to help fulfill our Nation's air, space, and 
cyberspace peacetime and wartime requirements. These items run the 
gamut from multi-function aircraft displays, security forces night 
vision devices, defensive systems, aircraft radar upgrades and enhanced 
strike capabilities.
    The Air Force Reserve is spending $3.21 million on modernizing the 
A-10 aircraft Litening AT POD interface. Use of a Multi-Function Color 
Display (MFCD) provides additional capability, including data link 
integration, machine-to-machine image transfer, moving map, cursor-on-
target and ARC-210 integration. We are also completing our buy of 23 
additional Situational Awareness Data Link radios for the A-10 at a 
cost of $920,000. We are continuing our support for the radar test 
stand modification and the Joint Helmet Mounted Cueing System (JHMCS) 
with $1.3 million. We continue to purchase Litening AT Pods; this year 
we have added $9.688 million of NGREA to the conference line item 
appropriation of $12.4 million for a total of $22.088 million. This 15-
pod procurement completes the current total validated command pod 
requirement. Additionally this procures spares, support equipment and 
required warranties.
    Upgrading the C-130 fleet with all-weather color radar has been an 
Air Force Reserve priority for the last several years. This year we 
continue our dedication to the program by adding $4.75 million to the 
conference appropriated $7.5 million for a total of $12.25 million to 
purchase 14 radars. This means 60 percent of the Air Force Reserve C-
130 fleet will have the APN-241 radar. We are also spending $1.8 
million to begin installing the capability for both C-130 pilots to 
dispense chaff and flares to enhance survivability in a combat 
environment. Previously, aircrews had to rely on crew positions other 
than the pilots to react to threats. Adding this capability doubles the 
number of crewmembers who can effectively counter threats in a timely 
manner.
    The Air Force Reserve also has a need for Defensive Systems 
testers, specifically, an end-to-end ground-based tester for the AAR-47 
missile detection system and an ALE-47 IR countermeasures dispensing 
system. The desired capability will allow testing of the complete 
system while it is in normal operation mode by transmitting 
independent, external signals to the AAR-47, rather than using built in 
testing routines that are not comprehensive.
    On our B-52's we are installing Smart Multi-Function Color Display 
and Digital/Analog Integrated Track Handle which will provide the most 
cost effective solution to resolve a critical shortage with B-52 
Targeting Pod controllers. Along those same lines we are also 
installing a Multi-Function Color Display to enhance our search and 
rescue capabilities on the HH-60 helicopter. The combat rescue mission 
requires increased computer processing capability and color displays to 
enhance target identification and moving map capability.
    Night vision operations continue to be at the forefront in the Air 
Force Reserve. We rely on our Security Forces in all aspects of the 
battle and depend on our Pararescue personnel, PJs, for personnel 
recovery. To that end we are spending $330,000 to outfit our Security 
Forces personnel with night vision devices and laser sights. Since our 
PJs have long operated with outdated night vision goggles, $2.1 million 
is being spent this year to upgrade the PJs capabilities, both in the 
air and on the ground via acquisition of advanced night vision devices.

                        FISCAL YEAR 2007 FUNDING

    The President's Budget as forwarded to Congress is vital to our 
relevance and participation in the long war. It is balanced and what we 
need to remain relevant in the future and fulfill the immediate needs 
of the Combatant Commander.
    We support the President's Budget decision to retire our aging 
equipment. Divesting force structure is an essential piece in enabling 
the Air Force Reserve to recapitalize our fleet, modernize our force 
and increase associations. Depot maintenance costs affect us across the 
board--training, readiness and operations, sapping resources and 
preventing us from transforming to the force we need. We simply can't 
afford to defer these retirements any longer. In an age of competing 
priorities and scarce resources, accepting retirement of our oldest 
legacy aircraft will reduce depot maintenance costs and free resources 
to properly shape the force and increase combat capability to the 
warfighter.

                             RECONSTITUTION

    With a much higher operations tempo over the past 4 years, our 
equipment is aging and wearing out at much higher than projected rates. 
Reconstitution is a planning process with the purpose of restoring 
``units back to their full combat capability in a short period of 
time.'' The Long War is having a significant and long-term impact on 
the readiness of our Air Force Reserve units to train personnel and 
conduct missions. The goal must be to bring our people and equipment 
back up to full warfighting capability.
    The rotational nature of our units precludes shipping equipment and 
vehicles back and forth due to cost and time constraints, therefore, 
equipment is left in the AOR to allow quick transition of personnel and 
mission effectiveness. However, the additional impacts are potential 
AFR equipment disconnects and decreased readiness. The number one 
contributing factor to poor readiness is equipment shortfalls. After 
September 11, 2001 and during Operations Iraqi Freedom and Enduring 
Freedom, units returning back to CONUS returned without the same level 
of equipment as when they deployed. While leaving equipment and 
vehicles in the AOR supports rotations and mission requirements, it has 
a negative impact on readiness for the Total Force.
    To preclude mission degradation, reconstitution plays a vitally 
important role for the returning unit. Air Force Reserve Command, 
working with the Air Staff, has put together a Memorandum of Agreement 
to replace approximately $2.2 million of the $5.4 million in GWOT 
equipment that is unavailable due to being transferred, withdrawn, or 
diverted in support of OIF/OEF. Equipment left behind includes 
generators, test sets, fork lifts, cargo trucks, HMMWVs, M-16 rifles, 
9MM pistols, night vision scopes, laptops, body armor, etc. 
Reconstituting our equipment is critical for our airmen to train, 
perform their mission and maintain readiness.

                                CLOSING

    I would like to close by offering my sincere thanks to each Member 
of this committee for their continued support and interest in the men 
and women of your Air Force Reserve. Thank you for keeping the National 
Guard and Reserve Equipment Account (NGREA) alive and vibrant. Money 
contributed by your committee through NGREA, has been essential to 
keeping the Reserve relevant to the fight and at the leading edge of 
employed technology in the field. While we maintain our heritage of 
providing a strategic reserve capability, today and into the future, we 
are your operational warfighting Reserve, bringing a lethal, agile, 
combat hardened and ready force to the Combatant Commander in the daily 
execution of the long war. Our vision is to provide the world's best 
mutual support to the Air Force and our joint partners. We gratefully 
appreciate your continued support in helping us defend this Nation in 
our role as an Unrivaled Wingman.

    Senator Stevens. Let me do this, and we do appreciate the 
brevity that you have all expressed. The time is a problem this 
morning because of the votes that are coming. But we do have 
real concerns about the Reserve. We have currently, as I 
understand it, 109,000 of the Guard and Reserve are on active 
duty now, I am informed. And the Guard and Reserve comprise 
more than 81 percent of the total of the mobilized Guard and 
reservists. There are more than 40,000 of your people on active 
duty now in the Army and 5,300 marines and the Navy has more 
than 500 soldiers as I understand, plus 1,500 Reserve sailors 
that provide support for the fleet, and the Air Force Reserve 
flew 20,000 sorties in the last fiscal year alone.
    Now, that is an increasing tempo that we really have got to 
learn more about and what it means in terms of costs and the 
impact on your structure. This operational tempo really brings 
about the question of readiness. We would like to have you each 
describe what you are doing to change your processes so that it 
takes into account this readiness requirement now that is 
involved in the Reserve.
    Ms. Ashworth tells me that we have people in uniform now in 
146 different countries of the world. As you listen to the 
daily news, we all know this is a continuing struggle now 
against terrorism that is going to go on. Are we going to see 
any reformation in the Reserve structures in each one of your 
services now to take into account this? How are you going to 
prepare people for the fact that they are going to be the next 
to be called up in the Reserve, and how are we going to deal 
with them when they come out of the Reserve and go back into 
their daily lives?
    Will there be a guarantee, as mentioned here by Senator 
Leahy, of how long before you can be recalled up, except for a 
real world calamity? I think we would like to have you tell us 
if there is anything we can do to help you in terms of these 
changes, or at least reviews that have to be made to see what 
changes should be made.
    General Helmly.
    General Helmly. Senator, I will lead off and I will be 
brief to leave adequate time for my peers. First of all, I 
would point to this chart which you see in front of you, which 
is called and addresses the issue of readiness. Regardless of 
the size of the force, in the past, on the left--and I will 
point to it here--we have had a force structure----
    Senator Stevens. This is the Army alone, right?
    General Helmly. This is the Army Reserve, yes, sir.
    We have had a force structure allowance above our end 
strength. That force structure allowance is the cumulative 
number of people that it would take to fill if we filled all of 
our units, regardless of where they are, to 100 percent. So we 
overstructured the force. That was an industrial age model for 
a strategic reserve that we planned to fill over time from the 
Individual Ready Reserve (IRR) or from new recruits.
    What we are doing to address that, frankly, is very painful 
and what it in some people's minds is counterintuitive, because 
we are inactivating units in the midst of a war. But the units 
that we are inactivating are nondeploying formations, first. 
They are headquarters formations, they are garrison support 
units, they are units that were not structured or built to 
deploy.
    So our intent, on the right, is to over the program 
objective management (POM) years lower our structure allowance 
to about 180,000 soldiers, using about 10 percent of our end 
strength to man a trainees, transient, holdies and student 
(TTHS) account. That is where we account for soldiers who are 
in the training base or who are otherwise unready for temporary 
periods of time, profiles, going through board actions, et 
cetera. Then we have already implemented a delayed entry 
program, a 21st century modern manpower tool used by the 
regular Army, that accounts for recruits who have not yet 
shipped to basic training.
    So that is how we are addressing the readiness issue. The 
second point I will address is the rotational. I would avoid 
the word ``certainty.'' Certainly I know you will agree there 
is no certainty in a very dangerous, uncertain world today. 
That is why this readiness challenge is so important, because 
none of us can predict when our forces will be required with 
certainty.
    But we are now implementing in the Army, and I am proud to 
say we in the Army Reserve pioneered, an Army Reserve 
expeditionary force, which has now morphed into the Army force 
generation model. Frankly, we went to school on how Navy and 
marine forces, both Reserve and Active, had operated in the 
past and the Air Force, Air Reserve air expeditionary force 
model. In fact, we visited Air Force Reserve Command 
headquarters, General Bradley's headquarters, and asked their 
staff--they were very cooperative--to explain to us how they 
managed that in the Air Force Reserve.
    So we are implementing that in rotational force pools, not 
to provide certainty, but to provide greater predictability 
over a 5-year pool period when my force is more apt to be 
called, when I am expected to be in a higher state of 
readiness, if you will.
    I would add one last thing. These measures are in my 
professional judgment very necessary. We must change ourselves 
from within to meet the demands of this century. But similarly, 
it is my judgment that the policies, practices, and procedures 
by which we are governed, that relate to personnel management, 
recruiting, retention, training, mobilization, and in fact 
funding, are in similar need of deep change.
    Thank you very much for your time.
    Senator Stevens. Senator Inouye, do you have any comments 
along that line?
    Senator Inouye. According to the most recent QDR, a policy 
decision was made that the Pacific area may be the area of 
concern, much greater than the Atlantic area. As such, for 
example, they are going to have five carriers in the Pacific 
and five in the Atlantic. It used to be six in the Atlantic and 
four in the Pacific.
    With that in mind, why did the Quadrennial Defense Review 
come out and transform your Army Reserve 9th Regional Readiness 
Command to the 9th Regional Support Group, downgraded it, 
reduced the strength? Do you not think it would have an impact 
upon command and control in the Pacific area?
    General Helmly. Senator, we do not intend to reduce our 
Army Reserve strength numbers in the Pacific region. We will 
change the headquarters of the 9th Regional Readiness Command, 
that is accurate, to a Regional Support Group. We will retain 
there a brigadier general. We are moving the 311th Signal 
Command, Network Operations Command, a two-star command, over 
time from CONUS to Hawaii. It will be the daily, 24/7/365 
network operations for Army and joint forces in the Pacific, 
the combatant commander.
    In addition, as the Army establishes a regular Army-
commanded 8th Theater Sustainment Command headquartered in 
Hawaii to provide logistics support throughout the region, the 
deputy commander of that organization will be an Army Reserve 
brigadier general.
    Our forces in the Pacific have sustained us very well, 
valiantly. The most recent example is the 1442d ``Go for 
Broke'' Battalion, but throughout that region from Hawaii and 
the territories in the Pacific we have recruited very well. The 
soldiers and their families are courageous, strong. We have no 
intention of reducing whatsoever our strength. We are simply 
restructuring to make the headquarters of the 9th Reserve 
Readiness Command (RRC) a deployable formation.
    Senator Inouye. Thank you very much. It is reassuring.

                               EQUIPMENT

    General Bergman, there is a tremendous amount of wear and 
tear, we have been told, on Army equipment, and I presume it 
must be the same with yours. How do you feel that this will 
impact upon readiness of your units?
    General Bergman. Well, sir, the increased use of the 
equipment is by no means a secret to anyone. The cyclic rate is 
in some cases 5 to 10 times what it was programmed for original 
usage. Across the total force Marine Corps, we have cross-
leveled through a strategic ground equipment working group all 
of those equipment pieces that are in, whether they be in the 
prepositioned force, the caves, Albany storage, wherever it 
happens to be, and actually over the last year increased the 
supply readiness by about 5 percent.
    However, at the same time, because of that increased cyclic 
rate usage, we see that we will continue to need more equipment 
just in the Reserve component to maintain the 80 percent 
training allowance that we use.

                        RECRUITING AND RETENTION

    Senator Inouye. I have been told that the Marine Reserves 
have longer deployment to the Middle East than other units. If 
that is so, how does it affect recruiting and retention?
    General Bergman. Well, sir, if you will, the Marine Corps 
business model for rotations, whether it is Active or Reserve, 
is basically a 6- to 7-month rotation, whether it be deployed 
as part of a marine expeditionary unit or deployed to Iraq or 
Afghanistan. With that model applied across the total force, it 
has allowed us to plan for activation, let us say, of 
battalions, reserve battalions, that within a 1-year business 
activation, 1-year business model activation, ample 
predeployment training, 7-month deployment, and ample time for 
demobilization.
    Retention is above normal about 3 percent. So I guess what 
that says in the long term is that the people are voting with 
their feet and they are staying. So it is a good news story. 
Recruiting, we are right on track to make our 39,600 for this 
year, sir.
    Senator Inouye. General Bradley, many of your units were 
realigned by BRAC and as a result many of your personnel would 
have to make up their minds, do they travel long distances or 
quit. How are you addressing this problem?
    General Bradley. Sir, what we are doing is we are working 
very hard to try to place every single person who wants to stay 
with us in a new unit. That will not work for everyone. Not 
everyone can pick up and move their families. As you know, we 
are not allowed to pay for moves of reservists or guardsmen 
when their base or unit is closed.
    There is a huge amount of realignment going on. We are 
affecting about 13,000 people. We have a lot of innovative 
programs that we are using to assist them in finding jobs. We 
want to keep them in the Air Force Reserve if we can. If we can 
assist them in getting in the Air National Guard or the Marine 
Corps Reserve or the Army Reserve, we will do that as well, 
because we want them to continue serving our Nation if 
possible.
    We also, though, would ask for and have been working on 
Capitol Hill to try to get authorities that we had in the 1990s 
during the base closure rounds for Reserve transition 
assistance programs for those people who have served our Nation 
for 15 years or more, to allow them to have some reduced type 
of retirement. And they would receive that retirement pay at 
age 60, but it would be reduced from what someone who had a 20- 
or 25-year retirement would be. The Reserve transition 
assistance program has been pretty well received by the members 
with whom we have talked.
    We are trying hard to keep those people in our units. We 
are getting more efficient through this base closure process. 
It up-ends lives, but ultimately we will save a lot of money by 
having the right numbers of airplanes on our bases and the 
right numbers of bases.

                               RECRUITING

    Senator Inouye. Admiral Cotton, I gather that the Navy, 
like all other components, must rely on bonuses and incentives 
to address recruiting challenges. How have you carried out this 
program? Because I have been told that you are a little 
different from the rest of them.
    Admiral Cotton. Yes, sir, we are. Two and one-half years 
ago we integrated Navy and Navy Reserve recruiting. We have 
changed expectations of a sailor so that we no longer leave the 
Navy, end an obligation, quit the Navy. You transition to the 
Reserve component once you complete your initial obligation, 
either full-time selected reservist or Individual Ready 
Reserve. So everyone will go to the Reserve component. We will 
keep track of you.
    So this is a continuum of service, a culture of a sailor 
for life, and then transitions or on-ramps and off-ramps 
throughout service back to active duty, according to skill sets 
and capabilities. Age does not really matter right now, 
particularly in a global war on terror, with the skill sets 
that we are sending ashore in Central Command in particular.
    One thing I would like to ask your consideration for is I 
personally think the Army Guard has got it. If you look at 
their numbers increasing right now, they have a finder's fee. 
They pay $1,000 for someone to recommend a friend to join and 
another $1,000 when they complete training, and this has proven 
to be extremely effective for the title 32 guardsmen.
    I think we should look at the authority for us to do the 
same thing, where every sailor, every soldier, every airman, 
every marine is also a recruiter. This would give us an ability 
to go out into the community and recruit our friends. I also 
think you can pay for it in the top line by reducing full-time 
recruiters, because every single person in uniform who has ever 
served could turn into a recruiter.

                        RECRUITING AND RETENTION

    Senator Inouye. I know that recruiting and retention go up 
and down, but one thing seems certain, that the present 
situation in the world is not going to be changing drastically 
in the next 10 years. We will be at war, at least for the next 
decade. What are the best methods of recruiting and retaining? 
Are we doing the right thing?
    General Helmly. Senator, in my own judgment, I believe 
Admiral Cotton's point to the National Guard's success in the 
way that it has been done. The Army received an authorization 
to use $1,000 bonus in the 2006 authorization act, but the 
language which went with it reduces our flexibility. It is my 
judgment we are proposing that we be allowed to expand the pool 
so that retirees could also, by virtue of referring someone--
that is a tremendous tool of very talented, rich people out 
there--and then similarly when you referred someone you would 
get the $1,000 bonus, similar to the National Guard, for the 
referral, not the way we have tied it today, which is to my 
completion of initial military training.
    The second part I will note is that I agree completely with 
the Navy's move toward a continuum of service. I have proposed 
to the Army that we abolish the word ``discharge,'' that we do 
away with that, that one is not discharged until one has 
completed their mandatory service obligation.
    Third, I place a premium on retention. In our case, in 
business terms, it costs us an average of $117,000 burden of 
cost to recruit an 18- to 22-year-old man or woman off the 
street, and out of that certainly there is an attrition rate 
that accrues as you go through physicals and initial military 
training.
    The retained soldier is experienced, they are mature. That 
is the kind of skill set we need in today's armed forces, a 
more mature, a more language, culturally aware soldier, a more 
technically competent soldier. Thus I believe that we should 
look harder at retention bonuses for longer periods of time.
    Last, that is why I have favored in the past for Reserve 
component members and continue to favor an age 55 receipt of 
nonregular retired pay, but tying that to the completion of 30 
years service, not 20 years service. It is my judgment that if 
we costed that out we would see in fact a possible savings, 
rather than what everyone expects, which is a huge bill. That 
is because I favor tying it to the completion of 30 years 
service, to keep people longer, and then draw retired pay at 
age 55, as opposed to encourage them to leave at 20 and then 
wait until age 60 to draw it.
    That is my answer.
    Admiral Cotton. Senator, I would agree with you, we are 
increasingly challenged to recruit, particularly because we are 
resistant to change the way we do it. We still go to the 18- 
and 19-year-old high school graduate. If you look at a major 
publication last week, the cover of the magazine talked about 
30 percent dropouts in our high schools. We have done research 
to determine that 70 percent of our Nation's youth today is 
ineligible for military service. So we are all going after the 
same 30 percent segment, trying to bring them in the front 
door, and I think ignoring at our own peril those that have 
served before, particularly individual ready reserve.
    If we went after them, bonused their behavior, treasured 
them for a whole career, with an on-ramp back to service, I 
think we could go after the skill sets in a better way than we 
are doing right now.
    Senator Inouye. General Bergman.
    General Bergman. Sir, up until about 4 years ago the 
average number of hours that a marine recruiter spent with a 
potential new marine was about 4 hours. Over the past 4 years, 
that has increased to about 12 hours of recruiting time, 
largely due to the expanded hours spent with the influencers--
parents, coaches, uncles, aunts, et cetera.
    The best thing that we can do when we look these young men 
and women in the eye or their influencers in the eye is to be 
honest about what it really means to go into the military, the 
challenges that await them, but back that honesty up with the 
absolute best training and preparation possible to prepare them 
to succeed, because deep down we all want to succeed and can be 
successful somewhere. We just need to have the confidence that 
our institution provides that preparation.
    Senator Inouye. General.
    General Bradley. Senator, I agree with what all of my 
colleagues have said. I will tell you, the people that we are 
recruiting today are better than those that we recruited when I 
joined the Air Force many, many years ago. I have seen a great 
qualitative improvement in our force, and I think one of the 
reasons is in our Air Force we have given our Air Force 
reservists and our Air National guardsmen real day to day 
operational missions. The morale is better, our retention is 
better than it used to be in the 1970s and 1980s. It is a great 
improvement.
    Now, we are using our people at a great rate. We are going 
to keep doing that because, as you say, this war will go on for 
a long time. But our retention is better than it has ever been, 
and I am proud of that. What our people tell us is they are 
proud to be part of our units, they like doing real work for 
America, and they believe it is very important work.
    The incentives and bonuses and authorities that the 
Congress has provided us over the last few years has helped us 
immensely. But I think, as General Bergman says, we have to 
look every one of these new people we are recruiting in the eye 
and tell them exactly what they are getting into.
    They are continuing to join us. We are not having any 
trouble in the Air Force Reserve recruiting people, and I would 
not equate our recruiting challenges with the Army or the 
Marine Corps. I think they have a tougher job. But we are 
working hard at it. We get good recruits because we have good 
programs to incentivize people to join. But once they get in, 
they are proud to be part of it and they think they are 
contributing something important and they are. I think that 
keeps them.
    Thank you, sir.
    Senator Inouye. Thank you, gentlemen.
    Thank you, Mr. Chairman.

                          EQUIPMENT SHORTFALLS

    Senator Stevens. Gentlemen, we provided $30 million to each 
of you to address ongoing equipment shortfalls. Could each of 
you tell us, have you gotten that money and have you used it 
well? General Helmly.
    General Helmly. Senator, we have.
    Senator Stevens. It has been released to you, right?
    General Helmly. Yes, sir, that is correct.
    Senator Stevens. Do you see a need for further money now?
    General Helmly. Senator, certainly there is a need for 
money. I sort of echo the comments of my colleague General Blum 
on the first panel that the Army's equipping challenges are 
deep. Army equipment is purchased by Army dollars and we input 
to that. The Army POM addresses that. I would urge this 
subcommittee and its colleagues in the other subcommittee to 
sustain the requested level of funding in the Army POM and 
equipping. The Army equipping--and we have addressed that for 
the Army and its colleagues in the Marine Corps. We are wearing 
that heart.
    Senator Stevens. Well, we specifically gave you, General 
Helmly, the $100 million for title 9 in the 2006 act. Did you 
receive that money?
    General Helmly. Yes, sir, we did.
    Senator Stevens. And is it committed?
    General Helmly. Sir, I cannot say that we have committed it 
in financial management terms today. I owe you an answer on 
that. There is a ``committed'' and an ``obligation'' terms that 
have a formal definition.
    [The information follows:]

    The Army Reserve has obligated or committed the $150.3 
million of Title IX funding received from Congress.
    The Army Reserve received $138.8 million in Title IX for 
the Reserve Personnel, Army appropriation. As of April 26, we 
have obligated $68.8 million, and we have also committed $33.5 
million. These funds are being used to recruit, retain and 
train soldiers in support of the global war on terror. The 
remaining funds will be used for pre-mobilization training for 
units deploying in the third and fourth quarter.
    The Army Reserve received $48.2 million in Title IX for the 
Operation and Maintenance, Army Reserve appropriation. As of 
April 26, we have committed and obligated over $48 million in 
support of the global war on terror. This funding was used for 
family support, recruiting and advertising, and medical 
readiness.
    The Army Reserve greatly appreciates the support of 
Congress, and we are using these resources in the most 
efficient manner to execute GWOT.

    Senator Stevens. Admiral Cotton.
    Admiral Cotton. Yes, sir, we received the $30 million. It 
was most appreciated. Thank you for your support, and we are 
taking the taxpayer dollar and giving it straight to where it 
can do the most good for the global war on terror and that is 
to the units. We are using most in theater combat service 
support. So we are using the money very well.
    I can also say that the Navy Reserve is a full participant 
in all Navy supplementals. So throughout the year our needs are 
looked at by the Navy for funding.
    Senator Stevens. General Bergman, did you get your money?
    General Bergman. Yes, sir, we did get our money, and we 
have put it right where the rubber meets the road, with those 
marines and the equipment, especially in the personal 
protective equipment. When you think about people as we look at 
manning, literally dressing a marine for combat, we think about 
kevlar, we think about small arms protective inserts (SAPI) 
plates. Now we are adding everything from Nomex gloves to 
Wiley-X glasses to balaclavas to combat those challenges that 
we have with the explosive fire nature, if you will, of the 
improvised explosive devices. So the need is changing.
    Senator Stevens. General Bradley.
    General Bradley. Yes, sir, we received our $30 million. I 
want to thank you very much. It was much needed. The funds have 
been released and we have spent the funds. We have bought 
targeting pods for our fighter planes and our bombers, A-10's, 
F-16's, and B-52's, so that we can drop laser-guided bombs to 
do close air support for marines and soldiers on the ground in 
Iraq and Afghanistan. We have bought multifunction displays for 
cockpits to improve the capabilities of pilots in those 
airplanes to know what they are looking at for targets, where 
the friendlies are, and where the enemy is. We have bought 
datalink systems for the fighters with this funding this year, 
to improve our A-10's close air support capability, so that 
they can talk without using voice radios, datalink information 
between a forward air controller on the ground and a fighter 
pilot in a cockpit. These datalink systems are critical to 
providing quick close air support in that very important 
environment.
    So all of the funding that you have given us has gone to 
combat capability for our airplanes, mostly to support those 
soldiers and marines on the ground. Thank you very much for the 
continued support, sir.
    Senator Stevens. Thank you.
    We have got the supplemental on the floor now and it has a 
sizable amount for defense. Some of it is allocated to each of 
your organizations, I believe. We will be going into the 
regular bill for 2007 and we hope you will let us know if there 
are any special needs that you have, because I think we are in 
a period of transition. There is no question about this. This 
current war on terror is an ongoing war, a global war. I think 
soon they will call it the world war on terror. I hope people 
understand it is a world war.
    But we have got to react to your needs and make certain 
that you have the capability to bring your people into these 
engagements and have them be well equipped. It particularly is 
the equipment need that we tried to address last year, and we 
would like to work with you to make sure we address this year.
    General Bradley. Thank you, sir, for that offer. I will 
tell you, we have provided Ms. Farrell with our list of things 
that we could use equipment wise for the coming year. So thank 
you for your offer.
    Senator Stevens. Senator Inouye, do you have any further 
comment?
    Senator Inouye. I want to thank you all for your service.
    Senator Stevens. Yes. We are particularly concerned that on 
our watch this transition is taking place and we do not want it 
to lag. We want to be sure that we stay with you and we are 
able to assist you to make the transition as smooth as 
possible.
    Senator Inouye. As you can note, our support is bipartisan.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. One or the other of us has been chairman 
now since 1981 and I cannot remember a partisan word between 
us.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Question Submitted to General Jack W. Bergman
               Question Submitted by Senator Thad Cochran

                         ACTIVATION TIME LIMITS

    Question. General Bergman, as I understand it, you have efficiently 
managed the Reserve Marines' activation time limit in the face of 
growing demands in support of the Global War on Terrorism. Can you 
please explain how you've minimized the impact of increased activations 
and your thoughts on the way ahead.
    Answer. Post 9/11, Marine Forces Reserve planned to minimize the 
impact of increased activations by activating units for 12 months 
(seven months actual ``boots on the ground'' and five months for 
mobilization, advanced training and demobilization) followed by a set 
period of dwell time, followed by a second 12 month activation cycle if 
required. This plan provided our Marines and Sailors with a predictable 
activation cycle for which they could plan with less time away from 
their civilian jobs for any given activation cycle while still 
maximizing the 24 months of cumulative activation time available under 
the current mobilization authority. This plan was instituted assuming 
every available Marine or unit could be activated a full 24 cumulative 
months in support of the Global War on Terrorism.
    Because current policy does not allow us to involuntarily activate 
Marines for the second 12 month cycle described above, Marine Forces 
Reserve has had to meet requirements in support of the Global War on 
Terrorism through the one-time activation of Selected Marine Corps 
Reservists and the Individual Ready Reserve pool of Marines. As our 
units continue to be replenished with first-term junior Marines who are 
ready, willing, and able to support the Global War on Terrorism, we 
have been able to use that new pool of first time activation personnel 
and cross level seasoned Marine volunteers from one unit to another to 
meet mobilization demands. Ideally, we would like to be able to 
involuntarily activate our Marines for the second 12 month cycle as was 
originally planned which would reduce our dependency on cross leveling 
from one unit to another and thereby enhance unit cohesion. This would 
also address the leadership issue we currently face. The inability to 
involuntarily re-activate previously activated Marines or extend 
Individual Ready Reservists on Active duty under 10 U.S.C. 12302 and 
utilize the full 24 cumulative months of activation authority as 
granted, has created somewhat of a deployable leadership vacuum in 
Marine Forces Reserve. Marine Forces Reserve does not currently have a 
large cadre of leaders who have not been activated at least once. As a 
result Marine Forces Reserve has aggressively implemented sourcing 
solutions that require the solicitation of volunteers from throughout 
Marine Forces Reserve. In addition, we have gone to the active 
component (to staff Company Grade Officer billets) to staff deploying 
units to 90 percent of their Table of Organization. The fact that the 
Active Component continues to come to Marine Forces Reserve to provide 
sourcing solutions for their shortfalls should be a compelling argument 
in itself for reconsidering the current policy. Without the ability to 
extend Ready Reservists on Active Duty under 10 U.S.C. 12302, or 
involuntarily activate them for a second 12 month cycle, Marine Forces 
Reserve will continue to face the challenge of sourcing deploying units 
through first-time activation and voluntary re-activation. This policy 
increases our dependence on cross leveling between units. We feel that 
the current policy provides a short term solution to sourcing the next 
force rotation but does not allow Marine Forces Reserve to set the 
conditions to reconstitute the Force for the long war in support of 
GWOT.
                                 ______
                                 
        Question Submitted to Lieutenant General John A. Bradley
            Question Submitted by Senator Richard C. Shelby

                          PERSONNEL REDUCTIONS

    Question. General Bradley, the Air Force Chief of Staff recently 
announced that the Air Force Reserve and Air Guard should consider 
force reductions. Specifically, he cited the elimination of some layers 
of command and staffing similar to what the Active Air Force is doing. 
Taking into account that the cost to run an Air Force Reserve or Air 
Guard unit is one-half to one-third of the cost to run an Active Duty 
unit, do you believe that the Reserves need to take this type of 
personnel reduction?
    And if so, how large of a personnel cut do you foresee?
    Answer. As our part in the recapitalization and modernization of 
the Air Force, the Air Force Reserve has already planned to take the 
manpower reduction you refer to in your question. Our Citizen Airmen do 
indeed offer cost-effective combat power to the American taxpayer 
through the use of our predominantly part-time force. Perhaps more 
important than cutting and becoming more cost effective, we have worked 
with the Active Component to divest a significant number of legacy 
mission areas and re-role those manpower authorizations to the current 
priority missions that will help us remain relevant as both an 
operational and strategic reserve as we fight the Global War on 
Terrorism. While there will be some elimination of layers of command as 
General Moseley stated, our overall reduction plan is even more 
comprehensive.
    For example, in shifting strategy we will invest less in Individual 
Mobilization Augmentees (IMAs) as a strategic reserve and devote more 
resource to the operational reserve or traditional reservists. This 
means we will re-role many IMAs to the Individual Ready Reserve. 
Additionally, our Air Force Reserve Component Surgeon General is 
coordinating with the Air Force Surgeon General to refocus the Air 
Force Reserve on our core specialty of Aeromedical Evacuation as 
opposed to expeditionary medical support, leaving this mission to the 
Active Component. This will then allow the Air Force Reserve to take 
reductions across units that would provide the expeditionary medical 
mission.
    We will continue to work in concert with the Regular Air Force to 
exploit process and organizational efficiencies through Air Force Smart 
Operations 21. This will also allow us to restructure headquarters 
organizations, which have a larger proportion of full-time personnel 
than operational units. We will provide deployable support to the 
combatant commanders while still handling their ``organize, train and 
equip'' roles. This is an important step in designing a smaller, more 
capable Air Force.
    Acting as partners with the Active Component in this effort will 
allow our command structures to seamlessly work together, in both peace 
and war, and ensure the resources of the Total Force are utilized to 
preserve critically needed skills. The size of the cut we are taking as 
an Air Force Reserve is 7,744 positions or about 10.5 percent of 
today's end-strength.
                                 ______
                                 
        Question Submitted to Lieutenant General James R. Helmly
               Question Submitted by Senator Thad Cochran

                        MODULAR SUPPORT BRIGADES

    Question. Can you explain to the committee how the Reserves will 
transform to modular support brigades?
    Answer. At the completion of the Army's transformation in 2009, the 
Army Reserve will have 58 deployable combat support and combat service 
support brigades. This restructuring will transition the Army Reserve 
to a Joint and federal modular force capable of providing increased 
combat power to complement the active component with skill rich units 
and Soldiers. The Army Reserve, with its unique Title 10 mission, has 
the maximum of flexibility, agility, and adaptability to meet 
transformational requirements.
    For the first time, all of the Army Reserve operational, deployable 
forces will be commanded by an operational, deployable command 
headquarters. The transformation enhances the ability of the Army 
Reserve to provide the capabilities and units that demand technical 
skills more easily maintained at acceptable cost in the Army Reserve 
than in active military service.
    Some of the modular support brigades are currently within the Army 
Reserve. The Army Reserve will transform other existing commands to the 
modular support brigades according to the schedule outlined below:
  --Expeditionary Sustainment Commands--September 2007
  --Combat Support Brigades (Maneuver Enhancement)--September 2008
  --Sustainment Brigades--September 2008
  --Military Police Command--September 2007
  --Regional Readiness Sustainment Commands--September 2008
  --Aviation Command--September 2008
    The result of the reshaping of the Army Reserve forces will be a 
more streamlined command and control structure and will provide an 
increase in ready, deployable assets to support the Global War on 
Terror. The goal for this larger pool of available forces is to enable 
the Army to generate forces in a rotational manner.

                          SUBCOMMITTEE RECESS

    Senator Stevens. We thank you for your testimony today and 
we look forward to another hearing on May 3, when we will hear 
testimony on military health programs. Until then, we will 
stand in recess. Thank you very much, gentlemen.
    [Whereupon, at 12:08 p.m., Wednesday, April 26, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 3.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                         WEDNESDAY, MAY 3, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senator Stevens, Inouye, and Mikulski.

                         DEPARTMENT OF DEFENSE

                        Medical Health Programs

STATEMENT OF LIEUTENANT GENERAL KEVIN C. KILEY, M.D., 
            SURGEON GENERAL, DEPARTMENT OF THE ARMY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much for your appearance.
    We want to welcome you to this hearing as we seek to review 
the Department of Defense medical programs. There are two 
panels scheduled today. First we will hear from the surgeon 
generals, followed by the chiefs of the nursing corps. Today, 
joining us from the Army, we have Lieutenant General Kevin 
Kiley, Vice Admiral Donald Arthur, from the Navy, and 
Lieutenant General Peach Taylor, representing the Air Force. 
It's nice to have you all back with us again.
    The President's fiscal year 2007 request for the defense 
health program is $21 billion, an increase over the fiscal year 
2006 request. The request provides for healthcare for 9.2 
million beneficiaries and for the maintenance and operation of 
70 inpatient facilities and 1,085 clinics.
    Our subcommittee recognizes that the continuing efforts 
overseas in support of the global war on terror and the 
national disaster relief, along with rising costs for 
prescription drugs and related medical costs, will continue to 
strain the financial resources that are contained in the 
request of this year's budget, will place an increased demand 
on our medical service providers, both here and those deployed 
in combat. The subcommittee also understands that the 
Department of Defense request to implement several initiatives 
to help mitigate this growing cost are here before us, and we 
plan to work with the Department to find the best means 
possible to medicate this rapid growth in regard to the 
financial burdens that you face.
    Senator Inouye and I are personally familiar with the value 
of military medicine. We're committed to working with you to 
address the many challenges you face. We certainly applaud your 
efforts, military medical people and the nurses that are 
deployed in harm's way. These men and women in uniform risk 
their lives in support of our Nation in the global war on 
terror, and also here at home, through the devastations such as 
Hurricane Katrina. They support the warfighter and this country 
in all aspects of the fight, and we certainly commend them for 
their leadership, compassion, and bravery.
    I'm pleased to yield to my co-chairman.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Well, thank you very much, Mr. Chairman. I 
want to join you in welcoming our witnesses. They're all 
veterans here, and it's always reassuring to have them back.
    Our military healthcare system has been transforming in a 
wide array of areas during the past few years. These changes 
not only affect the military treatment facilities and private-
sector care, but extend to the battlefield, as well. And we 
have seen considerable growth in the benefits provided to our 
servicemembers and their families. At the same time, the 
private sector and the military treatment facilities are 
altering their management practices and patient resources due 
to new TRICARE contracts. We continue to see high patient 
volume, which requires seamless coordination between in-theater 
treatment, military treatment facilities, private-sector care, 
family support and counseling. And let's not forget the 
Veterans Administration.
    Continued improvement in battlefield protection and combat 
casualty care have enabled us to save thousands of lives.
    We're also transforming our approach to treatment at home. 
The direction of care is changing from focusing on individual 
servicemembers to focusing on the individual and his or her 
family from the moment orders are received to the time 
treatment is no longer needed. While we are engaged in this 
transformation, the Department has also initiated budget cuts 
and personnel changes that could have longstanding implications 
in our ability to care for our servicemembers and their 
families. These changes and fiscal constraints are compounded 
by the chronic recruiting and retention challenges faced by 
each service. Shortfalls reside in various specialties, but of 
most concern are those critically important to our 
servicemembers serving in harm's way, and their families, who 
rely upon the quality of homecare.
    We look forward to discussing these and many issues crucial 
to the military medical system.
    Once again, I'd like to thank the chairman for continuing 
to hold these hearings on issues which are so important to our 
military and their families. And I thank you very much.
    Senator Stevens. Thank you very much.
    Our first witness will be Lieutenant General Kiley. We're 
going to place your full statements in the record as though 
read, and we'd like to hear the comments you wish us to hear.
    General Kiley. Mr. Chairman, Senator Inouye, and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss the current posture of the Army Medical 
Department with you today.
    During combat operations in Afghanistan and Iraq, we've 
recorded the highest casualty survivability rate in modern 
history. More than 90 percent of those wounded survive, and 
many return to the Army fully fit for continued service. Our 
investments in medical training, equipment, facilities, and 
research, which you have strongly supported, have paid 
tremendous dividends in terms of safeguarding soldiers from the 
medical threats of the modern battlefield, restoring their 
health and functionality to the maximum extent possible, and 
reassuring them that the health of their families is also 
secure. Military medicine is essential to Army readiness and an 
important quality-of-life program.
    On any given day, more than 12,000 Army medics are deployed 
around the world supporting our Army in combat, participating 
in humanitarian assistance missions, and training not only at 
our centers throughout the world, but in Africa, South and 
Central America, and Eastern Europe.
    In the past year, Army medics have cared for more than 
6,000 soldiers evacuated from Iraq and Afghanistan, deployed in 
support of gulf coast hurricane relief operations, and deployed 
the Army's last mobile surgical hospital, the 212th, to support 
earthquake relief operations in Pakistan.
    Over the past 3 years, more than half the Army medical, 
dental, and nurse corps officers have deployed at least once to 
Iraq or Afghanistan. Many of our critical wartime specialists 
have deployed multiple times. Every active component field 
hospital and forward surgical team has deployed multiple times. 
Our Reserve components, which comprise more than half the 
Army's medical force structure, have experienced similar 
operational tempo.
    All of this is happening while we transform and reset the 
Army. 2005 base realignment and closure decisions, Army modular 
force decisions, and the integrated global positioning base 
strategy--basing strategy have presented us with a significant 
challenge and a significant opportunity to improve the way we 
care for patients in the battlefield and at our camps, posts, 
and stations around the world. This process is complicated by 
the long lead time necessary to plan and execute military 
construction and by the low thresholds for military 
construction projects.
    In the short term, we continue to maintain high states of 
medical readiness and high service levels to families and 
retirees by increasing internal efficiencies, leveraging 
modular building technology, and relying on TRICARE networks, 
where necessary. Lean Six Sigma techniques are used throughout 
our planning process to develop expeditious, affordable 
solutions that ensure no decline in the accessibility or 
quality of the care provided to Army beneficiaries.
    Much of the healthcare we provide to wounded soldiers is 
funded through supplemental appropriations. The military 
amputee care programs, centered at Walter Reed Army Medical 
Center and Brooke Army Medical Center, has cared for nearly 
4,000--400--excuse me--amputees over the past 3 years. I want 
to thank Congress and the subcommittee for your continued 
support of this program. We're leading the Nation in improving 
amputee care and improving the field of prosthetics technology. 
Working jointly with the Department of Veterans Affairs and the 
civilian industry, we're sharing lessons learned and raising 
the standards of amputee care across our country. Due to your 
support and advances in the care of amputees, many of these 
soldiers will be able to remain on active duty, and many will 
return to combat units fully capable of performing their 
duties.
    Medical research, development, testing, and evaluation are 
critical to our ongoing success both on the battlefield and in 
our hospitals around the country. Over the past year, we've 
pulled 12 medical products out of the research, development, 
test and evaluation (RDT&E) process and fielded them to 
deploying forces because of their demonstrated efficacy and 
safety in improving patient care and force protection on the 
battlefield.
    Despite all of our advances in battlefield medicine, 
hemorrhage continues to be the major cause of death on the 
battlefield, and we continue to develop and test blood 
substitutes and hemostatic agents to mitigate blood loss in our 
combat casualties.
    Today, every soldier in Iraq and Afghanistan deploys with a 
hemostatic bandage and a tourniquet. Evacuation assets quickly 
move casualties from the battlefield to the forward surgical 
teams and combat support hospital within minutes of injury. 
These advances in equipment, training, and doctoring are saving 
lives every day in Iraq and Afghanistan.
    To support homeland security, Fort Detrick, Maryland, is 
working to become the home of the National Interagency 
Biodefense Campus. This interagency initiative co-locates 
researchers from the Department of Defense, the Centers for 
Disease Control and Prevention (CDC), Department of 
Agriculture, Department of Homeland Security, and the National 
Institute of Allergy and Infectious Diseases to achieve 
productive, efficient, interagency cooperation in support of 
our Nation's biodefense.
    Military health benefit has gained critical attention this 
year due to the Department's proposal to initiate control over 
the long-term costs and sustain this important benefit for our 
current and future retirees. This truly outstanding health 
benefit is important for accessions, retentions, and military 
readiness. Each service has taken action over the past few 
years to improve efficiencies and control healthcare costs. 
However, these actions alone will not stem the rising costs in 
the military health benefit.
    I am concerned that delaying action will put even greater 
financial pressure on our hospitals and clinics, when we are 
still trying to care for combat casualties and continue to 
deploy Active and Reserve component soldiers.
    The President's budget request adequately funds the defense 
health program to meet our military medical readiness 
requirements if the sustaining benefits proposals are enacted. 
However, the medical budgets of the three services have little 
flexibility to absorb additional efficiencies to sustain our 
medical readiness mission if no action is taken in this 
important issue.
    In closing, let me emphasize that the service and sacrifice 
of our soldiers and their families cannot be measured with 
dollars and cents. The truth is, we owe far more than we can 
ever pay to those who have been wounded and to those who have 
suffered loss. Thanks to your support, we've been very 
successful in developing a healthcare delivery system that 
honors the commitment of our soldiers, retirees, and their 
families that have been made to our Nation by providing them 
with world-class medical care and peerless military force 
protection.

                           PREPARED STATEMENT

    Thank you, again, for inviting me to participate in the 
discussions today, and I look forward to answering your 
questions.
    Senator Stevens. Thank you, General.
    [The statement follows:]

     Prepared Statement of Lieutenant General Kevin C. Kiley, M.D.

    Mr. Chairman, Senator Inouye, and distinguished members of the 
subcommittee, thank you for the opportunity to discuss the current 
posture of the Army Medical Department and our requirements for fiscal 
year 2007. During the past five years, military medicine has constantly 
exceeded any measure of success we could establish. During combat 
operations in Afghanistan and Iraq, we have recorded the highest 
casualty survivability rate in modern history. More than 90 percent of 
those wounded survive and many return to the Army fully fit for 
continued service. Our investments in medical training, equipment, 
facilities, and research, which you have strongly supported, have paid 
tremendous dividends in terms of safeguarding Soldiers from the medical 
threats of the modern battlefield, restoring their health and 
functionality to the maximum extent possible, reassuring them that the 
health of their families is also secure. Military medicine is essential 
to Army readiness and an important quality of life program.
    On any given day more than 11,000 Army medics--physicians, 
dentists, veterinarians, nurses, allied health professionals, 
administrators, and combat medics--are deployed around the world 
supporting our Army in combat, participating in humanitarian assistance 
missions, and training not only at our training centers throughout the 
world but in Africa, South and Central America, and Eastern Europe. In 
the past year, Army medics have cared for more than 6,000 Soldiers 
evacuated from Iraq and Afghanistan; deployed a combat support 
hospital, a medical logistics company, and several preventive medicine 
and veterinary teams in support of Gulf Coast hurricane relief 
operations; and deployed the Army's 212th Mobile Army Surgical Hospital 
(MASH) to support earthquake relief operations in Pakistan.
    The story of the 212th MASH illustrates the dedication, 
flexibility, and adaptability of Army Medicine. On September 23, 2005, 
the 212th returned to Germany after a 3-week training and humanitarian 
assistance mission in Angola. Within days of the devastating earthquake 
that struck Pakistan on October 8, the 212th MASH was on its way to 
provide surgical and medical care to survivors. When the Pakistani 
mission became apparent, the 212th was the only Department of Defense 
unit that could fill the requirement. It was close to Pakistan, mobile 
enough that it could be put in position quickly, and completely self-
contained with the capability to house and feed its staff without 
additional assistance from support units or the host nation. The 212th 
returned to Germany in late-February and has begun training with new 
equipment for an upcoming deployment to Iraq.
    It is this dedication, flexibility, and adaptability that has 
allowed us to provide superb medical care for more than 24,000 sick or 
injured Soldiers from Iraq and Afghanistan over the past three years. 
Army Medicine is an integrated system of healthcare designed, first and 
foremost, to protect and treat the warfighter. Let me explain how we 
accomplish this and several new initiatives underway to improve how we 
work.

                        RECRUITING AND RETENTION

    Success begins with recruiting, training, and retaining quality 
healthcare professionals. Fiscal year 2005 presented recruitment 
challenges for healthcare providers. We made 99 percent of our goal for 
Medical Corps recruitment (goal of 419 with 416 achieved) and 84 
percent of our Dental Corps goal (goal of 125 with 105 achieved). 
However, the Army fell short of its goals for awarding Health 
Professions Scholarships in both the Medical Corps (77 percent of 
available scholarships awarded) and Dental Corps (89 percent of 
scholarships awarded). These scholarships are by far the major source 
of accessions for physicians and dentists. This presents a long-term 
recruiting challenge beginning in fiscal year 2009. It is too early to 
tell if this is a one-year anomaly or the beginning of a long-term 
trend, but we are working hard to ensure every available scholarship is 
awarded this year. In conjunction with United States Army Recruiting 
Command (USAREC) we have initiated several new outreach programs to 
improve awareness of these programs and to increase interest in a 
career in Army Medicine. I also ask for your support of legislation 
just submitted by DOD establishing a 2-year pilot program for an 
increased recruitment incentive bonus in up to five critical medical 
specialties. We hope this will attract more interest in our critical 
medical specialties.
    In January I sent letters to the Deans of every U.S. medical 
school, asking for opportunities for Army physicians and Army 
recruiters to meet with medical students and discuss opportunities to 
serve in the Army. Response to date has been strong and positive. We 
will use the same tactic with dental and nursing schools this year.
    I am encouraged by a recent analysis of retention among active duty 
Medical Corps officers in fiscal year 2005. More than 50 percent of 
physicians who completed their initial active duty service obligation 
last year agreed to stay for at least one more year. This analysis 
challenges the myth that increased operations tempo leads to lower 
retention. We continue to monitor this trend carefully and will be 
expanding the analysis to include dentists and nurses in the next year.
    The Reserve Officer Training Corps (ROTC) is a primary source for 
our Nurse Corps Force. In recent years, ROTC has had challenges in 
meeting the required number of Nurse Corps accessions and as a 
consequence, USAREC has been asked to recruit a larger number of direct 
accession nurses to fill the gap. This has been difficult in an 
extremely competitive market. In fiscal year 2005, USAREC achieved 83 
percent of its Nurse Corps mission. We have recently raised the dollar 
amount that we offer individuals who enter our Army Nurse Candidate 
Program to $5,000 per year for max of two years with a $1,000 per month 
stipend. Last year we increased the multi-year bonuses we offer to 
Certified Registered Nurse Anesthetists with emphasis on incentives for 
multi-year agreements. A year's worth of experience indicates that this 
increased bonus, 180-day deployments, and a revamped Professional 
Filler system to improve deployment equity is helping to retain CRNAs.
    Reserve Component Accessions and Retention continue to be a 
challenge. In fiscal year 2005 we expanded accessions bonuses to field 
surgeons, social workers, clinical psychologists, all company grade 
nurses and veterinarians in the Army National Guard and Army Reserve. 
We also expanded the Health Professions Loan Repayment Program and the 
Specialized Training Assistance Program for these specialties. In 
February 2006, we introduced a Baccalaureate of Science in Nursing 
(BSN) stipend program to assist non-BSN nurses complete their four-year 
degree in nursing. This will be an effective accessions and retention 
tool for Reserve Component Nurses who have only completed a two-year 
associates degree in nursing. Working with the Chief of the Army 
Reserve and the Director of the Army National Guard, we continue to 
explore ways to improve Reserve Component accessions and retention for 
this important group. The Reserve Components provide over fifty percent 
of Army Medicine's force structure and we have relied heavily on these 
citizen Soldiers during the last three years. They have performed 
superbly.

                     INSTALLATIONS AS OUR FLAGSHIPS

    Army healthcare providers train and maintain their clinical skills 
in hospitals and clinics at Army installations around the world 
everyday. Our medical treatment facilities are the centerpiece of 
medical readiness. These facilities provide day-to-day healthcare for 
Soldiers to ensure they are ready to deploy; allow providers to train 
and maintain clinical competency with a diverse patient population that 
includes Soldiers, retirees, and families; serve as medical force 
projection platforms, and provide resuscitative and recuperative 
healthcare for ill or injured Soldiers. In order to do this 
successfully, we must sustain appropriate workload and patient case-mix 
in our facilities and have a supportive network of civilian providers 
for the healthcare services we cannot effectively or efficiently 
provide.
    The combination of Base Realignment and Closure (BRAC) decisions, 
Army Modular Force decisions, and the Integrated Global Positioning and 
Basing Strategy have presented us with a significant challenge and a 
significant opportunity to improve the way we care for patients at 
affected installations. This is complicated by the long-lead time 
necessary to plan and execute military construction and by low 
thresholds for military construction projects.
    Two important proposals coming forward from the Quadrennial Defense 
Review will enhance our flexibility to rapidly implement military 
construction projects in response to the challenges of Army 
restationing initiatives. One increases the Operations & Maintenance 
threshold for military construction from the current cap of $750,000 to 
$3,000,000. The second proposal increases the unspecified minor 
military construction threshold from $1,500,000 to $7,000,000--the same 
authority the Department of Veterans Affairs has. The Army fully 
supports these proposals. We need to have authority comparable to the 
Department of Veterans Affairs in order to reset our medical force in 
support of these restationing decisions.
    Much of the healthcare we provide to wounded Soldiers is funded 
through supplemental appropriations. The Military Amputee Care Program, 
centered at Walter Reed Army Medical Center and Brooke Army Medical 
Center, has cared for nearly 400 amputees over the past three years. I 
want to thank the Congress and the subcommittee for your continued 
support. This program is leading the nation in improving amputee care 
and improving the field of prosthetics technology. They are working 
jointly with the Department of Veterans Affairs and civilian industry 
to share lessons learned and raise the standard of amputee care across 
our country. Due to your support and advances in the care of amputees, 
many of these Soldiers will be able to remain on active duty and many 
will return to combat units fully capable of performing their duties.

                        RESEARCH AND DEVELOPMENT

    Medical Research, Development, Testing, and Evaluation are critical 
to our ongoing success both on the battlefield and in our hospitals 
around the country. Over the past year we have pulled 12 medical 
products out of the RDT&E process and fielded them to deployed forces 
because their demonstrated efficacy and safety in improving patient 
care and force protection on the battlefield. Despite all of our 
advances in battlefield medicine, hemorrhage continues to be the major 
cause of death on the battlefield. We continue to develop and test 
blood substitutes and hemostatic agents to mitigate blood loss in our 
combat casualties. Today, every Soldier in Iraq and Afghanistan deploys 
with a hemostatic bandage and a tourniquet. Evacuation assets quickly 
move casualties from the battlefield to Forward Surgical Teams and 
Combat Support Hospitals within minutes of injury. These advances in 
equipment, training, and doctrine are saving lives every day in Iraq 
and Afghanistan.
    Army scientists continue their work in research and development of 
new vaccines, including adenovirus vaccine, malaria vaccine, and plague 
vaccine. These vaccines are needed to protect against microbes that 
threaten Soldiers in basic training, in tropical locations, or as 
bioweapons. To support Homeland Security, Fort Detrick, Maryland has 
become the home for a National Interagency Biodefense Campus (NIBC). 
This interagency initiative collocates researchers from Department of 
Defense, Centers for Disease Control, Department of Agriculture, 
Department of Homeland Security and the National Institutes for Allergy 
and Infectious Diseases to achieve productive and efficient interagency 
cooperation in support of our Nation's biodefense.
    A key component of protecting Soldiers on the battlefield and 
citizens at home from the threat of chemical and biological agents is 
research and development of medical countermeasures against such 
agents. The infrastructure and expertise to do this resides within the 
U.S. Army Medical Research and Materiel Command (USAMRMC) at Fort 
Detrick, Maryland. The U.S. Army Medical Research Institute for 
Infectious Diseases (USAMRIID) at Fort Detrick, and the U.S. Army 
Medical Research Institute for Chemical Defense (USAMRICD) at Aberdeen 
Proving Ground, Maryland, represent critical national capabilities 
that, in addition to National Defense, support the entire spectrum of 
Homeland Security.
    USAMRIID provides basic and applied research on biological threats 
resulting in medical solutions to protect the War Fighter and offers a 
comprehensive ability to respond to biological threats. USAMRIID 
scientists have more than 34 years of experience safely handling the 
world's deadliest pathogens in biocontainment. USAMRICD is charged with 
the development, testing, and evaluation of medical treatments and 
materiel to prevent and treat casualties of chemical warfare agents. In 
addition to research, USMRICD, in partnership with USAMRIID, educates 
health care providers in the medical management of chemical and 
biological agent casualties. Simply put the Nation's experts in 
chemical and biological weapons work at USAMRIID and USAMRICD.

                          SUSTAIN THE BENEFIT

    The Army requires a robust military medical system to meet the 
medical readiness needs of active duty service members in both war and 
peace, and to train and sustain the skills of our uniformed physicians, 
nurses, and combat medics as they care for family members, retirees, 
and retiree family members. Therefore we share the Department of 
Defense's (DOD) concern that the explosive growth in our healthcare 
costs jeopardizes our resources, not only to the military health system 
but in other operational areas as well.
    Expansion of TRICARE to the Selected Reserve in the fiscal year 
2005 and fiscal year 2006 National Defense Authorization Act highlights 
the challenge presented to DOD by expanding benefits with limited 
resources. We are very concerned by the projections of cost growth in 
the Defense Health Program over the next ten years. Without addressing 
the issues, our healthcare costs will total approximately 12 percent of 
the DOD budget by 2015. This growth forces us to look for additional 
efficiencies in our direct care system and threatens quality of life, 
readiness, and modernization programs.
    The Army and Army Medical Command fully support the Sustaining the 
Benefit proposals for working age retirees, as it represents a 
reasonable approach to meeting the challenge of providing for our 
Soldiers and the future of our force. After the proposal is fully 
implemented, TRICARE will still remain a very affordable option for our 
military retirees under the age of 65, with out-of-pocket costs for 
retirees still projected to be little more than half of the costs for 
members of the Federal Employee Health Benefits Program. The change 
merely begins to bring the cost share for working age military retirees 
in line with the same proportion it was when Congress created TRICARE.
    The Department of Defense continues to explore other opportunities 
to help control costs within the Defense Health Program and in many of 
initiatives the Army leads the Department in implementation and 
innovation. This year, I implemented a performance-based budget 
adjustment model throughout the Army Medical Command. This model 
accounts for provider availability, proper coding of medical records, 
and use of Clinical Practice Guidelines to adjust hospital and clinic 
funding levels to reflect the cost of actual healthcare delivered. The 
Southeast Regional Medical Command implemented this system in 2005 
where it increased staff awareness on properly documenting workload and 
staff availability. This model increases command attention to the 
business of delivering healthcare. It is an Internet-based model so 
commanders at all levels receive fast feedback on their organization's 
performance. Finally, use of Clinical Practice Guidelines encourages 
efficiency by using nationally accepted models for disease management. 
These adjustments provide my regional commanders the flexibility needed 
to move funds within their region to the facilities that are 
demonstrating improved performance and the ability to absorb more care 
from TRICARE networks.
    The Army is also leading the Department's implementation of an 
electronic medical record. The armed forces health longitudinal 
technology application (AHLTA) will help to significantly reduce the 
number of negative medical outcomes and errors compared to paper 
methods of documenting treatment and ordering drugs. Eighty-three 
percent of Army hospitals are using AHLTA today and every Army hospital 
will be using AHLTA by the end of August 2006. Nearly two-thirds of 
Army hospitals have fully implemented AHLTA and the Army leads DOD in 
the number of healthcare providers using AHLTA. For the past 3 years, 
Army providers deployed in Iraq and Afghanistan have been using the 
Theater Medical Information Program so each Soldier's treatment data is 
available to providers at Landstuhl, Walter Reed, or other Army medical 
treatment facilities when that Soldier-patient comes home. The Army 
Medical Department now captures over 200,000 patient encounters a week 
in this 21st century medical record.
    The 2005 Base Realignment and Closure decisions demonstrate actions 
to improve the joint delivery of healthcare in both the National 
Capital Area and San Antonio, Texas. Recommendations to collocate 
medical training for all three Services at Fort Sam Houston, Texas and 
to collocate a number of medical research and development activities at 
Fort Detrick allows for enhanced synergy, collaboration and cost 
effectiveness. The next step is to move beyond a collocation of these 
activities to implementation of a business plan that realizes a true 
integration of DOD's medical training and research activities.
    The Army continues to support the development of a Unified Medical 
Command and is working closely with our sister Services and the Joint 
Staff to realize the full potential of this initiative. A fully 
functional unified command represents an opportunity to reduce multiple 
management layers within DOD's medical structure, inspire collaboration 
in medical training and research, and gain true efficiencies in 
healthcare delivery. These changes need to be made in conjunction with 
actions to Sustain the Benefit.
    In closing let me emphasize that the service and sacrifice of our 
Soldiers--and their families--cannot be measured with dollars and 
cents. The truth is that we owe far more than we can ever pay to those 
who have been wounded and to those who have suffered loss. Thanks to 
your support, we have been very successful in developing a healthcare 
delivery system that honors the commitment of our Soldiers, retirees, 
and their families made to our Nation by providing them with world-
class medical care and peerless military force protection.
    Thank you again for inviting me to participate in this discussion 
today. I look forward to answering your questions.

    Senator Stevens. Admiral Arthur.

STATEMENT OF VICE ADMIRAL DONALD C. ARTHUR, M.D., 
            SURGEON GENERAL, DEPARTMENT OF THE NAVY
    Admiral Arthur. Good morning, Chairman Stevens and Ranking 
Member Inouye. Thank you very much for the opportunity to 
address the subcommittee.
    In this age of interoperability of the three services, I 
dare say that each of the surgeons could have given the same 
opening comments. And, in that spirit, I echo what General 
Kiley has said in his opening remarks, they equally apply to 
Navy medicine.
    We also have thousands of people deployed to Operation 
Iraqi Freedom and Operation Enduring Freedom (OIF/OEF), where 
we're very proud of the greater than 90 percent survival rate 
for combat injuries, the lowest disease and nonbattle injury 
rate in history, and the rapid rate at which combat casualties 
can be taken from the field, resuscitated, brought to Landstuhl 
and then for further care at Walter Reed, Bethesda, Malcolm 
Grow, and other great facilities throughout the country.
    We believe in family-centered care for these casualties, 
and we've continued the policy of having family members meet 
the casualties as they are received in our continental United 
States (CONUS) facilities. Most of the casualty care that we 
have delivered has been on the east coast, and we're proud to 
announce that this summer we'll open up a Comprehensive Combat 
Casualty Care Center in San Diego, where we will offer the full 
spectrum of rehabilitative services. I have asked that each 
member of the rehabilitate team have specific training in 
combat stress and the psychological effects of combat. I've 
also asked that this center be staffed by as many combat 
veterans, and especially combat-wounded sailors as possible to 
provide that degree of empathy for the combat-wounded.
    We are also reshaping our force for future events, 
especially humanitarian assistance, stability operations, 
homeland defense, and disaster relief, which is not currently 
part of our planning for combat casualty care injuries. I think 
the important thing is that we need to have the flexibility to 
accomplish all of the missions that we might be tasked to join. 
A good example of our flexibility is the U.S.N.S. Mercy, which 
launched recently on a humanitarian assistance mission to 
Southeast Asia, where it will, in collaboration with 
nongovernmental organizations (NGO), deliver humanitarian 
services to many people who have been unreached by the United 
States in any other way. And I think that that will provide us 
with a great deal of diplomacy in those areas.
    We are having challenges in recruiting and retention. I 
know that Senator Mikulski is interested in how we have used 
the loan repayment program. We are very proud that we have made 
some inroads in our recruiting efforts with these programs.
    One of the issues which is most challenging for us is the 
operational tempo, as General Kiley talked about. We have some 
specialities, especially those that are combat intensive--
surgeons, nurse anesthetists, operating room (OR) technicians--
who have deployed at least once, and sometimes two times, per 
year over the last 3 years.
    The administration's proposals to manage cost growth and 
sustain this valuable TRICARE benefit encourages beneficiaries 
to elect medically appropriate, cost-effective healthcare 
options. The Navy supports the words of the Joint Chiefs, 
Chairman Pace and Secretary Rumsfeld, and wants to work closely 
with the distinguished members of this subcommittee and all of 
Congress to sustain this great health benefit.
    I would like to mention one guest that we have with us 
today. That is Captain Catherine Wilson, who just returned from 
Kuwait as the commanding officer of the expeditionary medical 
force, so she's a nurse corps officer who is en route to Naval 
Hospital Bremerton, where she will be the commanding officer. 
And she's our officer with the most recent combat support 
experience. And she's with us today. I'm glad to have her here.
    Senator Stevens. Catherine, why don't you stand up so we 
can recognize you?
    Admiral Arthur. Cathy.
    Senator Stevens. Thank you very much.
    Admiral Arthur. One of the things that we have decided to 
do recently is to re-code all of our leadership billets to be 
corps-nonspecific, so that it could be--all leadership billets 
can be occupied by any corps in the Navy. And Captain Wilson is 
a good example, as a nurse corps officer, who went there and 
did an outstanding job in combat support.

                           PREPARED STATEMENT

    Mr. Chairman, thank you very much for allowing me to give 
you some opening comments. And I look forward to all of your 
questions.
    Thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]

          Prepared Statement of Vice Admiral Donald C. Arthur

                              INTRODUCTION

    Chairman Stevens, Ranking Member Inouye, thank you for the 
opportunity to testify before you today about the state of Navy 
Medicine and our plans for the upcoming year.
    Navy Medicine is an integral part of the Navy and Marine Corps team 
and plays a key role in our ever expanding and more diverse missions 
that continue to evolve as we fight the global war on terrorism. 
Against new enemies whose arsenals include catastrophic medical 
threats, Navy Medicine is a critical defensive weapon for the Navy and 
Marine Corps team. Consider just a few of these efforts: Navy Medicine 
provides surveillance for biological attacks, immunizes personnel to 
reduce the impact of bioterrorism events, assesses potential health 
threats in the operational environment, and provides expert clinical 
consultation to operational commanders, all while providing combat 
casualty care far-forward and exceptional care for our heroes and their 
families here at home.

                        FORCE HEALTH PROTECTION

    The primary focus of Navy Medicine is Force Health Protection. Navy 
Medicine is preparing a healthy and fit force that can go anywhere and 
accomplish any mission that the defense of the nation requires. 
Further, Navy Medicine goes with them, to protect the men and women in 
uniform from the hazards of the battlefield. But as hard as we try, all 
this preparation does not fully prevent the physical and psychological 
impact of combat service.

                          COMBAT CASUALTY CARE

    As you know, more seriously injured warfighters are surviving their 
wounds--more than in any other conflict in history. These low mortality 
rates can be attributed to improved trauma and combat casualty care of 
our medical personnel, advances in medical technology, better body 
armor, and improved training of our medical personnel; however, one of 
the most important contributors to saving lives on the battlefield has 
always been, and remains Navy corpsmen--Navy Medicine's first 
responders on the battlefield. The platoon corpsmen are supported by a 
team of field surgeons, nurses, medical technicians and support 
personnel in theater, who are supported by medical evacuation teams and 
overseas Military Treatment Facilities (MTF) working together with MTFs 
in the United States--this is the Navy Medicine continuum of care.
    Navy Medicine's commitment to the warfighter is clearly seen in the 
combat casualty care provided to injured and ill Marines and Sailors 
engaged in Operations IRAQI FREEDOM and ENDURING FREEDOM since the 
beginning of the Global War on Terror. Combat casualty care is a 
``continuum-of-care,'' which begins with corpsmen in the field with the 
Marines; progresses to forward resuscitative care; on to theater level 
care; and culminates in care provided in route during patient 
evacuation to a military hospital. Medical care is being provided in 
Iraq and Afghanistan by organic Marine Corps health services units 
which include battalion aid stations, shock trauma platoons, surgical 
companies, and Forward Resuscitative Surgical Systems.
    During current operations, Navy Medicine has made significant 
advances in the health care provided by first responders and in access 
to resuscitative surgical care during the critical ``golden hour.'' A 
badly injured Marine who receives advanced medical care within an hour 
of injury is highly likely to be saved.
    Navy Medicine is also deployed worldwide with Naval air, surface 
and subsurface forces, providing daily health service support, force 
health protection, and medical intelligence and planning for the Navy's 
many traditional and nontraditional missions.
    Our operationally-focused research efforts in areas such as disease 
surveillance, bioweapon detection, protection and countermeasures, 
emerging illnesses, field medical gear, and advanced aviation and 
diving physiology facilitates the warfighter's efforts to do his or her 
job more safely and effectively.
    As our engagement in Iraq and Afghanistan continues, the number of 
injured service members who return in need of critical medical services 
will increase. As a result, and due to the severity and complexity of 
their injuries, increased cooperation and collaboration with our 
federal health care partners is essential to providing quality care. As 
an extension of Navy Medicine's ability to care for patients, 
partnerships with Veterans Affairs (VA) medical facilities continue to 
grow and develop into a mutually beneficial association. In 2003, the 
VA created the Seamless Transition Program to address the logistic and 
administrative barriers for active duty service members transitioning 
from military to VA-centered care. This program is working well and 
continues to improve as new lessons are learned. Recently-wounded 
Sailors and Marines differ from the VA's traditional rehabilitation 
patient in age, extent and complexity of injury, and family 
involvement; therefore, we are actively engaged at all levels to ensure 
that quality care is being provided throughout both systems.

          PARTNERSHIP WITH THE DEPARTMENT OF VETERANS AFFAIRS

    Navy Medicine and the Department of Veterans Affairs continue to 
pursue enhancements to information management and technology 
initiatives to significantly improve the secure sharing of appropriate 
health information. Several efforts are underway that will enable us to 
share real-time patient information and to improve system 
interoperability. We also continue to support the pursuit of increased 
sharing and are currently managing medical and dental agreements across 
the country.
    In addition, our joint effort to create a hybrid organization based 
on new paradigms and practices continues to move forward. The Federal 
Health Care Facility at the site of Naval Hospital Great Lakes and the 
North Chicago Veterans Affairs Medical Center will operate under a 
single line of authority, overseen by a Board of Directors. All 
services currently being offered at both facilities will remain 
available, but will be delivered more efficiently within a seamless 
patient care and support environment.
    Finally, in the area of military construction Navy Medicine is 
pursuing a variety of joint ventures that include a Consolidated 
Medical Clinic aboard the Naval Weapons Station in Charleston, SC; a VA 
clinic to be built to replace the Naval Clinic at Corry Station in 
Pensacola, FL; and planned replacement hospitals at Beaufort and Guam, 
each of which will include a VA presence. We are also pursuing Joint 
Incentive Fund Projects, as directed by the fiscal year 2003 National 
Defense Authorization Act, across the enterprise.

                             MENTAL HEALTH

    The issue of mental health has been receiving much deserved 
attention since the beginning of OEF/OIF. I would like to take this 
opportunity to share with you some of the things that the Department of 
the Navy is doing to help the Navy and Marine Corps team cope with the 
stresses of combat.
    Anyone exposed to the extremely stressful environment of combat is 
affected by those events, with the effects varying with each individual 
service members. Although most cope with no significant or lasting 
impact, a small percentage will need assistance in dealing with their 
experiences, and some of them may ultimately be diagnosed and treated 
for Post Traumatic Stress Disease or other mental health conditions.
    Marines and Sailors are prepared for the psychological rigors of 
combat by being run through a realistic recreation of combat during 
pre-deployment training. Health screenings are conduced via the multi-
tiered deployment health assessment process, prior to deployment, 
immediately upon return from theater, and most recently at the 3-6 
month post deployment mark. In theater, Sailors and Marines have prompt 
access to chaplains, medical officers, and other mental health 
providers embedded with the operation forces through the Operational 
Stress Control and Readiness (OSCAR) Program. All aircraft carriers 
have a psychologist attached to the medical department aboard ship, and 
many of our new expeditionary strike groups also deploy with 
psychologists or psychiatrists onboard. In addition, since 
reunifications can sometimes be difficult, Sailors and Marines 
returning home are prepared to reunite with their families and 
communities through the ``Warrior Transition'' and ``Return and 
Reunion'' programs.

                    DEPLOYMENTS AND QUALITY OF CARE

    On an average day in 2005, Navy Medicine had over 3,500 medical 
personnel from the active and reserve components deployed in support of 
Operations, Exercises or Training around the world. Our missions vary 
and include humanitarian assistance abroad and at home; environmental 
risk assessments around the world; and combat casualty care.
    Navy Medicine is continuously monitoring the impact deployments of 
medical personnel have on our ability to provide quality health care at 
home. Together with the network of TRICARE providers who support local 
Military Treatment Facilities (MTFs), beneficiaries have been able to 
continue accessing primary and specialty care providers. We closely 
monitor the access standards at our facilities using tools like the 
peer review process, to evaluate primary and specialty care access 
relative to the Department of Defense's standard.
    Another means used to ensure quality is our robust quality 
assurance and risk management programs that promote, identify, and 
correct process or system issues and address provider and system 
competency issues in real time. Our program promotes a patient safety 
culture that complies with nationally established patient safety goals. 
These goals include training in the area of medical team management to 
improve communication processes as well as implementation of the Bureau 
of Medicine and Surgery (BUMED) advisory boards' recommendations in 
critical patient safety and quality areas, such as perinatal care.
    We have established evidence-based medicine initiatives and 
currently measure diabetes, asthma and women's breast health. Soon, we 
will add dental health and obesity.
    Navy Medicine also promotes healthy lifestyles through a variety of 
programs. These programs include: alcohol and drug abuse prevention, 
hypertension identification and control, tobacco use prevention and 
cessation, and nutrition and weight management. Partnering with other 
community services and line leadership enhances their effectiveness and 
avoids duplication.

                        CHANGES IN NAVY MEDICINE

    Since I testified before you nearly a year ago, Navy Medicine has 
gone through several changes to meet the evolving needs of the Navy and 
Marine Corps team. Last summer, we implemented a focused enterprise 
wide realignment effort to better direct our assets to maintain 
readiness and deliver the highest quality care in the most cost 
effective manner. This effort included standing up four regional 
commands--Navy Medicine West, Navy Medicine East, Navy Medicine 
National Capital Area and Navy Medicine Support Command--to provide a 
centralized and standardized structure of command and control. The 
regional commands have flexibility in supporting operational 
requirements while improving health care access and logistic support 
for all beneficiaries. Also, Navy Medicine's ten reserve medical units, 
Operational Health Support Units (OHSU), are aligned with the regional 
commands to gain operating efficiencies and maximizes the utilization 
of reserve assets. Furthermore, Reserve dental units have also been 
consolidated into the OHSUs to mirror changes implemented by Navy 
Medicine's active component.

                           EMERGING MISSIONS

    Pandemics of influenza have occurred in the past and will likely 
occur again in the future. For the first time, however, the United 
States along with the global community have an opportunity to 
cooperatively plan and prepare for a potential influenza pandemic. The 
operational and medical leaders of the Navy are working together to 
develop operational tactics, public health techniques, and clinical 
capabilities to protect our active duty members, their families and our 
civilian workforce against this threat. Navy Medicine's efforts will be 
a key component of the larger plan being developed by the Defense 
Department.
    Navy Medicine has proven to be an asset in providing humanitarian 
relief overseas and at home. Two significant examples are Operation 
Unified Assistance in the Indian Ocean and Hurricane Katrina relief in 
the Gulf of Mexico. Our most visible support in these disasters was the 
deployment of both hospital ships, USNS MERCY (T-AH 19) and USNS 
COMFORT (T-AH 20). The hospital ships have inpatient capabilities 
comparable to major medical facilities ashore. They each have fully-
equipped operating rooms, inpatient beds, radiological services, a 
medical laboratory, a pharmacy, an optometry laboratory, a CT-scanner 
and two oxygen producing plants. Both have flight decks capable of 
landing large military helicopters evacuating casualties.
    For six months after the December 2004 Indonesian earthquake and 
tsunami, teams of Navy medical personnel and health care providers from 
the nongovernmental organization (NGO) Project HOPE conducted daily 
humanitarian assistance operations on board USNS MERCY. Operating off 
the coast of Banda Aceh, MERCY's medical staff treated more than 9,500 
patients ashore and afloat, and performed nearly 20,000 medical 
procedures, including more than 285 surgical and operating room cases. 
During a stop in Alor, Indonesia, MERCY's team cared for more than 
6,200 patients, and during a visit to East Timor, they saw more than 
8,000 residents.
    On August 29, 2005, Hurricane Katrina struck the coastal areas of 
Louisiana, Alabama and Mississippi, causing many deaths, displacing a 
large civilian population, damaging infrastructure including health 
care and public health systems, disrupting communications, and 
generating devastating flooding. Navy Medicine deployed over 800 health 
care professionals in support of Hurricane Katrina relief efforts and, 
with the help of Project Hope volunteers, treated over 14,500 people. 
Our personnel deployed with USS BATAAN, USS IWO JIMA, USNS COMFORT, the 
Joint Task Force Katrina Surgeon's cell, Forward Deployed Preventive 
Medicine Units, mental health response teams, Navy Construction 
Battalion Units, as well as in direct support of Navy clinics in 
Mississippi and Louisiana. Navy Medicine coordinated supporting relief 
efforts with medical staff and supplies from Navy medical facilities 
across the country.
    Earlier this year, U.S. military field hospitals in Shinkiari and 
Muzaffarabad provided the earthquake-stricken people of Pakistan with 
medical assistance. Navy Medicine's Forward Deployed Preventive 
Medicine Units and the Marine Corps' Combined Medical Relief Team 3 
were located in Shinkiari while the U.S. Army's hospital was set up in 
the city of Muzaffarabad. Between these units, U.S. forces brought to 
bear medical capabilities including operating rooms, x-ray equipment, 
pharmacies, laboratories, and many other assets all in an effort to 
supplement organic Pakistani medical facilities which were hit hardest 
by the earthquake. Surgeons, general medical officers, nurses, and 
dentists were joined by other support Marines and Sailors in treating 
victims of this natural disaster.

                           MEDICAL RECRUITING

    Although our missions continue to evolve, we, like the other 
services and the private sector, are struggling to meet all of our 
recruitment, retention and end strength goals in health care 
professions. The need for skilled doctors and nurses has been 
demonstrated time and again throughout the global war on terror; 
however, the number of medical school applicants and graduates in this 
country is declining. The Navy, together with Navy Medicine, is working 
to improve recruiting and retention of doctors and nurses so we can 
meet our deployment requirements. Some of the efforts being considered 
include: improving compensation parity with the private sector; 
studying incentive programs that better meet the needs of the current 
student population; and offering an accession bonus and medical 
insurance coverage for student programs.

                SUSTAINING THE BENEFIT/HEALTH CARE COSTS

    Navy Medicine has a dual mission. While meeting the operational 
medical needs of our warfighters as illustrated above, Navy Medicine 
continues to provide the finest, cost-effective health care to 
America's heroes and their families at home and overseas.
    The Navy is proud of the exceptional health benefit and health care 
delivery system that Congress and the Defense Department have built, 
expanded upon and improved over the years. In the last ten years, both 
congressional and departmental initiatives have addressed gaps in 
program coverage and improved access to care for millions of military 
beneficiaries. These new benefits have made a positive contribution to 
our recruitment and retention efforts, and we wish to sustain them for 
the long-term.
    In order for the Department to sustain the benefits that so many 
have come to expect, the long-term costs of the program must be 
contained for the program to remain viable in the future. TRICARE 
benefits have been expanded and implemented; however, there have been 
no changes in beneficiary cost shares since 1995. The Department 
proposes to restructure beneficiary contributions to proportions 
similar to when TRICARE was established in 1995. These changes will 
ensure we will be able to continue providing the same high level of 
access and quality care enjoyed by our beneficiaries today. As Chairman 
Pace testified before you earlier this year, the Joint Chiefs have 
unanimously recommended that we renorm the cost sharing for the health 
care benefit.
    As overall health care costs have grown for both the Department and 
the private sector, the expanding disparity in out-of-pocket costs 
between TRICARE and civilian health plans has led to a significant 
increase in the number of retired beneficiaries under the age of 65 who 
are now using TRICARE as their primary health insurance. This has 
resulted in an increase in the costs borne by the Department of 
Defense. The increased utilization, especially among this group of 
retirees, together with the expansion of benefits and healthcare 
inflation, have created a perfect storm. Costs have doubled in five 
years from $19 billion in fiscal year 2001 to $38 billion in fiscal 
year 2006. Analysts at Health Affairs project these costs will reach 
$64 billion by 2015, about 12 percent of the Department's budget (vs. 
4.5 percent in 1990). This current rate of medical cost growth is 
unsustainable and internal efficiencies are not, and will not, be 
sufficient to stem the tide of rising health care costs.
    The Navy honors the service and sacrifice of our active duty and 
reserve members and retirees, as well as their families. Because of 
their service and sacrifice the Navy continually strives to provide a 
truly outstanding health benefit for them. The Administration's 
proposals to manage cost growth and sustain this valuable benefit 
encourage beneficiaries to elect medically appropriate cost-effective 
healthcare options. A very important point of the proposals is that the 
changes in cost sharing will not impact active duty troops or retirees 
over age 65. In addition, catastrophic protections would remain intact 
for retiree families--at $3,000 per year.
    The Navy strongly supports the words of Joint Chiefs' Chairman Pace 
and Secretary Rumsfeld and wants to work closely with the distinguished 
members of this committee and all of Congress to sustain this great 
health benefit for the men and women of our Armed Forces and their 
families. Together, we will sustain the vital needs of the military to 
recruit, train, equip and protect our Service members who daily support 
our National Security responsibilities throughout the world, keeping 
our nation strong.

                               CONCLUSION

    Mr. Chairman, Navy Medicine has risen to the challenge of providing 
a comprehensive range of services to manage the physical and mental 
health challenges of our brave Sailors and Marines, and their families 
who have given so much in the service of our nation. We have 
opportunities for continued excellence and improvement, both in the 
business of preserving health and in the mission of supporting our 
deployed forces.
    I thank you for your tremendous support to Navy Medicine and look 
forward to our continued shared mission of providing the finest health 
services in the world to America's heroes and their families--those who 
currently serve, those who have served and the family members who 
support them.

    Senator Stevens. General Taylor.

STATEMENT OF LIEUTENANT GENERAL GEORGE PEACH TAYLOR, 
            JR., M.D., SURGEON GENERAL, DEPARTMENT OF 
            THE AIR FORCE
    General Taylor. Mr. Chairman, Senator Inouye, and members 
of the subcommittee, it's a pleasure and privilege to be here 
today. Your Air Force Medical Service continues to serve 
America proudly, whether in caring for our wounded in the Balad 
theater hospital, in flying them safely home, in treating 
thousands of Hurricane Katrina victims or in providing quality 
healthcare to our home-station troops and their families.
    During the gulf coast disaster, a Federal Emergency 
Management Agency (FEMA) physician told me that one of the most 
impressive things about our people is that they treated every 
patient during that chaotic, crowded, and terrible time, as if 
they were family, as if the person on the stretcher was their 
own father, mother, sister, brother, or child pulled from 
harm's way. I would add that this is true, from my experience, 
for all patients treated by Air Force medics, to include 
coalition forces, the Iraqis, and even the occasional 
insurgent.
    To maintain this level of quality, ability, and esprit de 
corps throughout our Air Force, we are focusing on the three 
major challenges our Chief of Staff, General Moseley, has 
outlined--fighting the global war on terrorism, taking care of 
our people, and recapitalizing our valuable assets.
    What we are accomplishing in Operations Enduring Freedom 
and Iraqi Freedom is phenomenal. If you had the opportunity to 
see the USA Today article and video published on March 27, you 
saw firsthand what incredible work our medics are doing across 
the services. The reporter, Greg Zororya said, quote, ``To save 
lives in the battlefield, medical innovations are born in days 
rather than in years. And as with wars past, the new ways of 
treating the injured and sick in Iraq and Afghanistan have 
benefits beyond the battlefield,'' close quotes. He was 
absolutely correct. Through our in-theater experience, we are 
exploring uncharted territory in blood products and medical 
surveillance, telehealth, trauma response, and many more areas 
of cutting-edge medicine.
    Our commitment to joint operations cannot be 
overemphasized. As part of the joint team, we have more than 
600 ground medics in 10 deployed locations. In 2005, we treated 
more than 12,000 patients in Balad alone. Our Balad chief of 
intensive care, Colonel Ty Putnam, said, ``The caseload rivals 
any major trauma center in the USA.'' That level of experience 
has resulted in unsurpassed survival rates. As a former Balad 
medical group commander said, ``If you arrive here alive, you 
have about a 95-96 percent chance of leaving here alive.''
    The other crucial piece of our ability is to aeromedical 
evacuate our patients out quickly, getting them from point of 
injury to the States usually within 72 hours. The Air Force 
Medical Service was honored by the USO recently for the lives 
we've saved through our ``critical care in the air'' 
capability.
    The value of the care we provide in theater with our sister 
services has been recognized in recent months by many grateful 
patients, among them Members of the U.S. Congress. The same 
capability to stabilize patients and quickly move them to 
higher levels of care was on clear display last summer on the 
gulf coast. I'm very proud of the role the Air Force total 
force team played in working with other Federal, State, and 
local agencies in moving over 3,000 sick or infirmed Americans 
from the devastated coast to shelters throughout the country, 
in addition to treating 7,600 people on the ground. But taking 
care of our people, General Moseley's second challenge is, and 
always has been, critical to the Air Force Medical Service. We 
continue to put great emphasis on deployment health 
surveillance of our troops. You know we are particularly 
concerned about them--you are particularly concerned about 
their mental health, as are we. Currently, Air Force post-
deployment health assessments show only 1 to 2 percent of our 
redeploying airmen are experiencing--or expressing mental 
health concerns.
    We recently rolled out the post-deployment health 
reassessment program, and we've received over 2,000 so far. Of 
those, 38 percent report some health concern, and about 5 
percent report at least one mental health concern. While this 
may indicate that we are identifying additional problems, it's 
a little too early in the data collection to draw conclusions. 
We are watching this very carefully.
    We are excited about the composite occupational health 
operational risk tracking, or COHORT, initiative which will 
assist us in tracking the health of our personnel, as it will 
provide occupational and medical surveillance data on every 
member, from the time an airman joins the Air Force until 
retirement or separation, opening up enormous fields of data 
never before available to us.
    Our third challenge of recapitalizing our assets has become 
increasingly significant for the Air Force Medical Service. Six 
percent of our current facility inventory is more than 50 years 
old. By 2025, that could grow to 35 percent. With an annual 
military construction budget of $60 million, we find we have to 
phase any major construction out over several years. In fact, 
this $60 million, relatively flat for the past decade, now buys 
one-sixth the amount of construction it did 10 years ago.

                      BASE REALIGNMENT AND CLOSURE

    We believe the BRAC process will help us relieve this 
situation as we combine facilities, close small, underutilized 
hospitals, or convert them to ambulatory surgery clinics. We 
also continue to seek ways to strengthen our partnerships in 
the civilian sector and with the Department of Veterans 
Affairs.
    Finally, on behalf of our military families, I pledge my 
support to you and my fellow surgeons to work together to 
preserve the superb healthcare benefit that we offer. It is 
second to none, and so greatly earned and deserved by our 
military heroes and their families.
    Finally, as this hearing began, the Chief of Staff 
announced my retirement, effective this year. I'd like to say 
what a privilege it is to have served the Nation for the last 
27\1/2\ years, half of that serving an Air Force that's been in 
combat. The Air Force has been flying combat operations since 
1991.
    I've been part of an Air Force Medical Service that's made 
a difference. We've re-engineered our field hospitals, we've 
re-engineered our mirror medical evacuation system to allow 
people to move from foxhole to Bethesda in 36 hours. We've 
integrated into ground operations. A large portion of the 
ground-force support is done by airmen today.
    A few things to think about. One is, I ask for us all to 
watch the BRAC implementation. There--as the head of the 
Medical Joint Cross-Service Group, working with the Base 
Realignment and Closure Commission, there are fairly innovative 
recommendations that need to be implemented, in terms of 
facility structure and combining facilities, and we just need 
to make sure that as we do this, it's not just the finances, 
but it is the change in the way we practice medicine, and 
changing the infrastructure, that the BRAC recommendations 
gives us a chance to rebalance. And so, we all need to pay 
attention over the next 5 years as we implement the 
recommendations that came through BRAC.
    Second, I think we need to continue in areas where we're 
challenged with funds to watch for centralization. There is a 
lure of saving money with centralizing assets. The Air Force 
Medical Service is a highly decentralized operation, and that 
drives innovation very close to mission, innovation in field 
medicine, innovation in aeromedical evacuation, innovation in 
local healthcare. And I'd just say that we need to watch very 
carefully about centralization.

                           PREPARED STATEMENT

    Finally, it's been my privilege to serve with a team of 
healthcare professionals throughout my career that I can only 
describe with one word, and that word is ``magnificent,'' a 
magnificent group of people in a magnificent mission in a 
magnificent service, part of a magnificent Department, in the 
best country on the planet.
    Thank you very much.
    [The statement follows:]

Prepared Statement of Lieutenant General (Dr.) George Peach Taylor, Jr.

    Mr. Chairman and members of the committee, it is a pleasure to be 
here today to share with you stories of the Air Force Medical Service's 
success both on the battlefront and the home front.
    The Air Force Medical Service (AFMS) continues to provide world-
class health care and health service support anywhere in the world at 
anytime. This includes ensuring that active duty and Reserve component 
personnel of all Services are healthy and fit before they deploy, while 
deployed, and when they return home. It also includes providing the 
same quality of care--and access to care--for our 1.2 million TRICARE 
enrollees.
    This year, our well-honed capabilities were important national 
assets in the medical response and evacuation of thousands of fellow 
Americans who were victims of Hurricanes Katrina and Rita. Our Total 
Force Airmen medics converged on the ravaged region twice in one month 
to work with Federal Emergency Management Agency (FEMA) medical teams 
to care for and transport thousands of ill patients. Overall, our Total 
Force medics provided health care for 7,600 people. Another 3,000, many 
of whom were critically ill, were safely aeromedically evacuated from 
the region.
    During our response to these natural disasters, a senior physician 
in FEMA's disaster medical assistance team told me that one of the most 
impressive things about our people is that they treated every patient 
during that chaotic, crowded, and terrible time as if they were family, 
as if the person on the stretcher were their own father, mother, 
sister, brother, or child pulled from harm's way.
    This catastrophic event, though, is something for which we are 
uniquely trained and equipped to perform. Obviously, the positive 
attitudes of our people and their collective competence go a long way 
toward ensuring that the AFMS successfully responds to and overcomes 
any disaster--natural, domestic or foreign.
    To ensure we maintain these abilities and attitudes, Air Force 
Chief of Staff, General T. Michael Moseley, has outlined three major 
challenges for leadership to focus upon: fighting the Global War on 
Terrorism; preserving our culture of excellence through the training 
and development of our people, and breaking the vicious cycle of 
operating the oldest inventory in the history of the United States Air 
Force through recapitalization.

                        GLOBAL WAR ON TERRORISM

    The Global War on Terrorism will be with us for years to come. 
Among the Air Force's most critical components in successfully fighting 
this war both overseas and here at home is considering how we plan for 
our long-term requirements.
    Key in accomplishing this is reinforcing that the Air Force is one 
organization--not active-duty, Guard and Reserve ``tribes.'' This 
philosophy necessarily extends to interoperating with all of our sister 
Services, a method of warfighting that has taken--and will continue to 
take--growing importance unmatched at any other time in our nation's 
history.
    Most certainly, our light, lean and mobile expeditionary medical 
support--or EMEDS--is the linchpin of our ground mission. As 
importantly, the Air Force Medical Service makes its unique 
contribution to the Total Force and joint operational environment 
through our aeromedical evacuation and en route care mission.
    Significant as these two components are, we must also continually 
refine the Air Expeditionary Force deployment system; ensure the pre- 
and post-deployment health and fitness of our troops; and diligently 
work to maintain the technological edge over our enemies--overseas and 
in the United States--through the development of bio-surveillance and 
medical treatment capabilities.

                                 EMEDS

    EMEDS, especially at the Air Force Theater Hospital at Balad Air 
Base in Iraq, has validated the ``golden hour'' concept--the importance 
of delivering care in first 60 minutes after injury. This life-saving 
capability has proved its effectiveness, and no one illustrates the 
importance of its capability better than the joint troops who make it 
happen.
    ``If a patient requires surgery to survive, it will be done here,'' 
said Staff Sergeant Jalkennen Joseph, an emergency room medic. The 
reality and benefit of having a robust surgical capability forward has 
been key to the lowest casualty rate in the history of combat. Colonel 
(Dr.) Elisha Powell, former 332nd Expeditionary Medical Group (EMDG) 
Commander in Balad, supports this fact that ``If you arrive here alive, 
you have about a 96 percent chance of leaving here alive.''
    We are proud of the teamwork between Air Force flight medics and 
the Army and Air Force medics on the ground in the patient 
administration office of our theater hospital as they prepare for the 
arrival of casualties. ``I give all the credit in the world to flight 
medics . . . they do things you only see in movies or read about in 
books. They do it on a daily basis and they do it well.'' said Staff 
Sergeant Joseph. Moreover, although the Theater Hospital at Balad is 
largely staffed by the Air Force, the symphony of teamwork is its 
cornerstone. Joseph continues, ``We have all really clicked together . 
. . we run this place smooth, doing the same mission. We live by the 
hospital motto `One team. One mission.' ''
    In this light, we foresee a continued need for this important 
capability to provide health care anywhere, and we will continue to 
refine this to meet joint warfighting medical requirements.
    Our commitment to Joint operations cannot be overemphasized. As 
part of a joint team, we now have more than 600 ground medics in 10 
deployed locations. In addition to Balad, we also operate two smaller 
hospitals in Iraq--one in Kirkuk and another at the Baghdad 
International Airport. Every day, Air Force medics in these theater 
hospitals are saving the lives of Soldiers, Sailors, Marines, Airmen, 
civilians, coalition and Iraqi forces, friend and foe alike. We treated 
over 12,000 patients in 2005 at Balad alone. These included U.S. 
forces, Iraqi Security Forces, U.S. and Iraqi civilians, as well as a 
combination of coalition forces, third country nationals and detainees.
    Because our medical teams are operating closer to the front lines 
than ever before, patients are getting advanced medical care within 
hours, not days or weeks as they had in the past. However, as our 
experience in the past four years has shown us, as important as beds 
and forward deployed health care is, equally important is the ability 
to quickly move patients from the field to higher levels of care.

                         AEROMEDICAL EVACUATION

    Aeromedical Evacuation (AE) crewmembers perform many of the same 
life-saving activities their peers accomplish in hospitals, but in the 
back of an aircraft at over 30,000 feet. The conditions are sometimes 
challenging as crewmembers work under the noise of the engines or when 
flying through turbulence--but there is no place else they would rather 
be.
    ``It is a great feeling of responsibility and a privilege to care 
for these patients,'' says Colonel (Dr.) Peter Muskat, director of 
clinical training at the Cincinnati Center for Sustainment and Trauma 
Readiness Skills (C-STARS), who has flown 15 missions from Balad. 
Without a shadow of doubt, casualties aboard AE flights are entrusted 
to warrior medics well trained to effectively perform under these 
conditions. Colonel Muskat: ``From the point of injury in theater to 
the time the injured person is medevac'd to the states, most times 
within 72 hours, they receive care from medics who have been exposed to 
every potential problem a trauma patient may face on the ground and 
during that flight.''
    It is crucial to emphasize that of our approximately 400 AE 
personnel deployed today, the majority of them--almost 90 percent--are 
Guard and Reserve. A better example of fighting together in the Global 
War on Terrorism simply escapes me--the Reserve Component contribution 
to AE operations represents an undeniable hallmark of Total Force.
    Occasionally, our AE crews transport patients who are so ill or 
injured that they require constant and intensive care. When that 
happens, our AE medical capability is supplemented by Critical Care Air 
Transport Teams, or CCATTs. These are like medical SWAT teams that fly 
anywhere on a moment's notice to treat and extract the most seriously 
injured troops.
    Team members carry special gear that can turn almost any airframe 
into a flying intensive care unit within minutes. An in-theater EMEDS 
commander told me that CCATTs are a good news/bad news entity. He said, 
``The bad news is, if you see the CCATT team jumping on a plane, you 
know someone out there is hurt bad. The good news is, if you see the 
CCATT jumping on a plane, you know that someone will soon be in the 
miraculous hands of some of the best trained medics in existence.''
    No where in recent AE operations was this capability highlighted 
better than when three members of a CCATT, Major (Dr.) Linda Boyd, an 
emergency medicine physician, Major Denise Irizarry, a nurse, and 
Master Sergeant Jeffrey Wahler, a respiratory therapist, were aboard a 
C-17 Globemaster III from Ramstein Air Base, Germany, to Andrews Air 
Force Base, Maryland. They treated 30 casualties including ABC 
anchorman Bob Woodruff and cameraman Doug Vogt. Major Boyd said, ``It 
was awesome--we did intubations and ventriculostomies--a procedure 
where a device is place into the ventricles of the brain when needed to 
drain spinal fluid and relieve pressure.'' On a regular basis, our AE 
warrior medics leverage superior training, commitment to excellence, 
and talent to uphold our requirements to support America's heroes who 
defend our great nation.
    Overall, partnering with our critical care air transport teams, our 
aeromedical evacuation system has made it possible to move seriously 
injured patients in an astonishingly quick time, as short as 72 hours 
from the battleground to stateside medical care--unheard of even a 
decade ago.

                              DEPLOYMENTS

    When I joined the Air Force in the 1970s, we planned, trained, and 
equipped our medics on the basis of the threats faced in two major 
operational plans of short duration. That construct is no longer valid, 
as can clearly be seen with the Global War on Terrorism.
    Today's Air Expeditionary Force structure was created, in part, in 
response to this new construct. The AFMS needed to restructure itself, 
too, so that it could face multiple commitments overseas of both short 
and long duration. Our nation requires that medics field combat support 
capabilities that are very capable, rapidly deployable, and sustainable 
over long periods.
    Medics must be placed at locations where they can maintain the 
skills they need for their combat medicine mission. It is also vital 
that these locations allow the medics to deploy easily without 
significantly interrupting the care they provide the base or TRICARE 
beneficiaries, especially at those locations with sustained medical 
education training programs.
    This challenge is straightforward: create expeditionary medics who 
are focused on developing the skills for the field and eager to deploy 
for four of every twenty months. Currently, we assign medics at large 
facilities into groups of five so that one team can be deployed at any 
one time while the other four remain to work and train at home station. 
We also actively work the ratio of active-to-Reserve component medics 
to determine the proper mix of active duty and Reserve component to 
ensure the best balance between the ability to deploy quickly and the 
capability to surge forces when necessary.
    We are also actively reviewing the total size of the AFMS to make 
sure that over the next few decades we can successfully fulfill our 
wartime mission while still providing the peacetime benefit to our 
members, retirees, and their families.
    Finally, a vital part of our preparation is state-of-the-art 
training, such as our Coalition for Sustainment of Trauma and Readiness 
Skills, or C-STARS, where we partner with renowned civilian medical 
centers in Baltimore, St. Louis, and Cincinnati to allow our medics to 
receive trauma training. While our medics--300 in 2005--receive 
training that is unavailable in most of our stateside hospitals, we 
provide a service to the people of those cities--a mutually beneficial 
relationship that enhances preparedness both at home and abroad. Many 
students laud C-STARS as the best medical training they have received 
to prepare them for deployment.

                           DEPLOYMENT HEALTH

    Collaborative arrangements among the medical, chaplain and family 
support communities support our claim the Air Force has personnel and 
processes in place to monitor and address health concerns before, 
during and after deployments.
    Deployment Health Surveillance is a continuous process of Force 
Health Protection. From accession, through service, and into separation 
and retirement, the Air Force Medical Service is dedicated to ensuring 
the health of our Airmen. We maintain a robust Individual Medical 
Readiness program to ensure each Airman, active and reserve component, 
is assessed for deployability and mission capability. At the point of 
deployment, we conduct a tailored deployment health assessment to 
include appropriate immunizations, medications, and health 
communication of known threats in the deployment area. In OIF/OEF, 
these activities combined with continuous health support in theater 
have resulted in the lowest disease/non battle injury rate ever 
experienced in combat operations.
    Although some of these efforts are strictly medical in nature, 
others focus on specific and increasing needs such as mental health. To 
address the mental health needs of deployed airmen, the Air Force 
deploys two types of mental health teams: a rapid response team and an 
augmentation team. Mental health rapid response teams consist of one 
psychologist, one social worker and one mental health technician. Our 
mental health augmentation teams are staffed with one psychiatrist, 
three psychiatric nurses and two mental health technicians. Deployed 
mental health teams use combat stress control principles to provide 
consultation to leaders and prevention and intervention to deployed 
airmen.
    I was involved in the medical combat service support laydown for 
Operations ENDURING FREEDOM and IRAQI FREEDOM, and one of my highest 
priorities was to ensure that the Air Force fielded mental health 
professionals early and as far forward as possible to not only treat 
casualties, but to put in place strong prevention and outreach 
programs. Today, the Air Force has 49 mental health personnel deployed 
for current operations, 36 of whom are supporting joint service 
requirements. We also position psychiatric nurses at our aeromedical 
staging facilities to better address emerging psychological issues for 
all troops being medically evacuated out of the combat theater.
    The Air Force and the Department of Defense have enhanced efforts 
to monitor and address the health concerns of deploying service 
members. Airmen complete the post-deployment health assessment (PDHA) 
at the end of a deployment, and are now being assessed again 90-180 
days after return from deployment via the post-deployment health 
reassessment (PDHRA). These instruments provide an overall health 
assessment of our Airmen, with an emphasis on mental health.
    A recent study published in the Journal of the American Medical 
Association examined the mental health problems reported by Army and 
Marine combat troops following deployments. We have examined the same 
data sets for Air Force personnel, and found that Airmen report 
significantly less mental health concerns following deployments than 
Army and Marine combat units. According to the report, while over 19 
percent of Army and Marine personnel reported at least one mental 
health symptom after an OIF deployment, only 4.7 percent of Air Force 
OIF deployers reported at least one mental health symptom. Only about 1 
percent of Air Force deployers were referred for mental health care 
following a post-deployment health assessment. The lower incidences of 
mental health problems for our Airmen are most likely attributable to 
both the type and length of Air Force missions. That said, we are 
closely scrutinizing deploying Airmen who may be at greater risk for 
mental health concerns, such as convoy personnel and medics.
    The Air Force is also standardizing existing redeployment and 
reintegration programs to help Airmen and family members readjust 
following deployments. These programs are collaborative among the 
medical, chaplain and family support communities. Airmen and their 
families can also take advantage of The Air Force Readiness Edge, a 
comprehensive guide to deployment-related programs and services, as 
well as Air Force OneSource, a contractor-operated program that 
provides personal consultation via the web, telephone or in-person 
contacts, on matters that range from severely injured service member 
family impact to dealing with grief and loss to a myriad of other 
family related matters. Air Force OneSource is available 24 hours a 
day, and can be accessed from any location.

                           TECHNOLOGICAL EDGE

    Terrorism confronts us all with the prospect of chemical, 
biological, and radiological attacks. Of those, one of the most 
disconcerting to me are the biological weapons. Nightmare scenarios 
include rapidly spreading illnesses so vicious that if we cannot detect 
and treat the afflicted quickly, there would be an exponential 
onslaught of casualties.
    Medics have the capability to find, track, target, engage and 
defeat such biological threats, whether they are naturally occurring, 
like Severe Acute Respiratory Syndrome (SARS) and influenza, or man-
made, like weaponized smallpox.
    The rapidly advancing biogenetics field may provide the technology 
that allows us to identify and defeat these threats. Many consider the 
coupling of gene chip technology with advanced informatics and alerting 
systems as the most critical new health surveillance technology to 
explore--and we are doing it now in the Air Force.
    In 2005, an Epidemic Outbreak Surveillance project, an Air Force 
initiative, was successfully tested during a real-world exercise in 
Washington, DC, that began shortly before the 2005 inauguration and 
ended after the State of the Union Address.
    During the exercise, medical teams around the National Capital 
Region collected samples from patients who had fever and flu-like 
illnesses. The samples were transported to a central lab equipped with 
small, advanced biological identification units--a ``gene chip''--that 
tested for common or dangerous bacteria and viruses. These results were 
known within 24 hours, not the days or weeks normally required. A web-
based program then tracked outbreak patterns, providing an additional 
mechanism to automatically alert medics and officials of potential 
epidemics or biological attacks. We continue to work with this 
technology to create better diagnostics for our normal clinical work as 
well as for early detection of a new disease, whether it be avian flu 
or a biological attack.
    We are seeking techniques to convert common tap or surface water 
into safe intravenous solutions in the field. We are also developing 
the ability to generate medical oxygen in the field rather than 
shipping oxygen in its heavy containers into the field.
    Telehealth is another fascinating technology that enhances the 
capabilities of our medics. It allows providers in Iraq to send 
diagnostic images such as X-rays through the Internet back to 
specialists located anywhere in the world for a near real-time consult. 
This ensures that each Soldier, Sailor, Airman or Marine in the field 
has access to one of our outstanding specialists almost anytime and 
anywhere.
    In 2006, we expect to start transitioning another advancement--our 
ability to create an unlimited number of cohorts of our beneficiaries 
using the Composite Occupational Health and Operational Risk Tracking 
(COHORT) initiative. This will provide occupational and medical 
surveillance from the time they join the Air Force until retirement or 
separation, regardless of where they serve or what job they perform. We 
will finally be able to tie together medical conditions, exposure data, 
duty locations, control groups, and demographic databases to globally 
provide individual and force protection and intervention, reducing 
disease and disability. These tools will work in near real time, and 
eventually will be automated to work continuously in the background, 
always searching for key sentinel events.
    We are also proud of our collaborative efforts and pursuit of 
technological advances that extend beyond threats of biological or 
epidemic concerns, to also include advancements in more common diseases 
such as diabetes.
    In collaboration with the University of Pittsburgh Medical Center, 
the USAF is actively engaged in diabetes research. The emphasis of this 
research is on primary prevention, education, and lifestyle 
modifications. The ``test bed'' includes both urban and rural western 
Pennsylvania, the USAF's Wilford Hall Medical Center in San Antonio, 
Texas, and rural Texas. The ultimate goal is to develop a template for 
the development of Diabetes Centers of Excellence that can be utilized 
across America to include the military community and civilian resources 
for poor under-privileged regions. This research continuum and 
partnership will also add significantly to the development of a 
Diabetes Outreach Clinic at the Wilford Hall Medical Center that will 
ultimately serve the over 65-year old civilian community as well.
    The program utilizes state-of-the-art educational principles and 
tools as well as groundbreaking technology. Telemedicine applications, 
videos, specialized retinal cameras (to demonstrate pathology) are some 
of the high-tech educational tools. A computerized Comprehensive 
Diabetes Management Program designed to promote self-management will be 
tested as well. These educational efforts target both adults with Type 
II diabetes as well as at-risk children. Biochemical research involving 
platelet derived growth factors as related to wound healing (for 
diabetes related wounds) are also under study.
    Diabetes has become a major healthcare crisis in the United States. 
Currently, over 20 million Americans have diabetes and that number is 
growing at 8 percent a year. In an effort to halt this unhealthy trend, 
this program will develop the Premier National Model for diabetes 
education and treatment. The program is well underway and remarkably, 
beneficiaries are seeing fruits of this labor already.

                                 PEOPLE

    Almost half the people currently serving in the United States Air 
Force joined after September 11, 2001. They knew what they were getting 
into, and there's no question that the military's medical personnel are 
a critical component of the Global War On Terrorism. As such, one of 
the Chief of Staff Air Force's (CSAF) key priorities--get the right 
number of Airmen into the right jobs--takes on added significance.
    The Air Force must have a balanced force of officer and enlisted 
Airmen. Force shaping is necessary to maintain the effectiveness of the 
Air Force and to maximize career opportunity for all Airmen.
    Even so, the Air Force Medical Service (AFMS) continues to face 
significant challenges in recruiting and retaining physicians, 
dentists, and nurses--the people whom we depend upon to provide care to 
our beneficiaries. The special pays, loan repayment programs, and 
bonuses to our active and Reserve component medics are helpful in 
retaining people. In fact, nearly 85 percent of nurses entering the Air 
Force say they joined in large part because of these incentives.
    The need to retain and recruit health care providers and 
specialists will grow as the military remains involved in the Global 
War on Terrorism for years to come.
    As Assistant Secretary of Defense for Health Affairs Dr. William 
Winkenwerder, Jr., has said that the military medical community today 
is engaged ``in a mission that, perhaps, has never before been so 
complex, challenging, or far-reaching as we find today.''
    Still, I am heartened by the caliber of the folks we continue to 
attract. One such person is Capt. (Dr.) An Duong, who, gave up her 
family medicine practice in Florida and came on active duty at Keesler 
Air Force Base, Mississippi, this year.
    Doctor Duong was born in Saigon, South Vietnam, in 1971 and 
emigrated to the United States from the communist-held country at age 
14 with her mother and two siblings. Now an American citizen, she said 
that part of the reason she joined was because of her early upbringing 
in a communist country. She said: ``America adopted me and raised me. I 
owe her a lot.''
    She also said she was not fearful--but willing--to serve in a war 
zone. ``I'm not intimidated about war. I was born into war--a child of 
war.''
    As we work to balance the force with the right combination of 
active duty, reserve component, civilian and contract staff, we must 
keep in mind that we deploy people, not our hospitals and clinics. We 
take care of the nation's heroes, past and present, and it takes the 
finest of medical staffs to care for this country's finest.

                            RECAPITALIZATION

    We recognize the importance of maintaining a modern and effective 
infrastructure in our military treatment facilities, from clinics to 
medical centers. This is essential as we consider how the Air Force 
plans for its long-term requirements. The atmosphere in which our 
medics work is as important as any other retention factor. Our patients 
deserve not only the most brilliant medical and dental minds, but also 
first class equipment and facilities.
    Though the TRICARE contracts create a strong civilian support 
system to augment the care we provide in our direct care medical 
treatment facilities. We continue to work to improve the quality of 
military health care with to investments and modernization of key 
medical facilities, replacing aging infrastructure, and to improvements 
in health care delivery efficiency.
    When General Moseley recently stated that the Air Force is 
operating with the oldest inventory in the history of the Air Force, he 
was largely referring to our aircraft inventory. But that assessment 
also applies to medical facilities with the AFMS.
    As an example, six percent of our current inventory is more than 50 
years old; by 2025, it could grow to 35 percent. We've spent $30 
million in less than two years to fix structure failure at our 46-year-
old facility at Tinker AFB, Oklahoma. We've fixed safety code 
violations in five facilities, which ranged in age from 30 to 48 years.
    This kind of budgetary pressure has changed the way we think about 
healthcare facilities. One initiative we are proud of is our clinic 
replacement at MacDill AFB, Florida. This 236,000 square foot new 
clinic will include a drive-through satellite pharmacy, which will 
consolidate 20 buildings and reduce our medical footprint by 25,000 
square feet. Phase one of this project will cost $55 million in fiscal 
year 2007. When completed, we will have replaced the oldest AFMS 
hospital in the United States; and we will provide $4 million annual 
savings to the Military Health System. But what is important to 
understand is that the specialists at MacDill will actually perform 
their inpatient work at the civilian medical center in Tampa.
    As part of the recent Base Realignment and Closure (BRAC) process, 
DOD will operate on a more rational, modernized footprint. Through the 
combination of facilities, the closure of small hospitals, and the 
combination of similar educational and research activities, we will be 
able to take advantage of new partnerships, both inter-service and with 
our civilian and Department of Veterans Affairs partners. These BRAC 
decisions support strategies of reducing excess capacity and locating 
military personnel in activities where the workload is more diverse, 
providing them with enhanced opportunities to maintain their medical 
currency to meet combatant commander requirements. I strongly support 
the BRAC law and am fully committed to its complete implementation. It 
is right for military medicine and, as importantly, it is right for our 
patients and our staff.
    We strive every day to ensure that the Military Health System is 
the best health care system for the dedicated men and women in uniform 
who sacrifice so much.

                                TRICARE

    Across the services, we believe TRICARE is great health benefit and 
a superior program that supports the warfighter and the family at home. 
On behalf of the Department, General Granger, deputy director and 
program executive officer of the TRICARE Management Activity says, ``We 
know we have a nation that is at war, and were going to continue to 
make sure that we maintain those superb benefits that we need to 
support this long and drawn out global war on terrorism.''
    The military health benefit has gained critical attention recently 
due to the Department's proposed initiative to sustain this important 
benefit for the future. Understand that we honor the service and 
sacrifice of our active duty members and retirees as well as their 
families. Because of their service and sacrifice the Department 
continually strives to provide a truly outstanding health benefit for 
them.
    We must sustain this health benefit into the future; to do so, we 
have implemented management actions over the past few years and these 
continue. However, and this is critically important, these actions 
alone will not stem the rising costs of the military health benefit. 
Costs have doubled in five years from $19 billion in fiscal year 2001 
to $38 billion in fiscal year 2006. Our analysts project these costs 
will reach $64 billion by 2015, over 12 percent of the Department's 
budget (vs. 4.5 percent in 1990).
    Several factors contribute to this cost spiral: expansion of 
benefits, increased beneficiary usage, especially among retirees, 
healthcare inflation, and no increase in beneficiary cost-sharing since 
the TRICARE program began eleven years ago.
    Our proposals to manage cost growth and sustain this valuable 
benefit encourage beneficiaries to elect medically appropriate cost-
effective healthcare options. Significantly, our proposals, which seek 
to, as the Chairman of the Joint Chiefs of Staff put it, ``re-norm'' 
contributions to approach those when TRICARE was established in 1995, 
will continue the high level of access to care and quality enjoyed by 
our beneficiaries today. We are also recognizing differences in cost-
sharing to be expected from retired officers versus enlisted personnel.
    We fully support these proposed changes and believe together we 
will be able to sustain this great health benefit for the men and women 
of our Armed Forces. It is critically important to place the health 
benefit program on a sound fiscal foundation for the long term.
    In so doing, together, we will also sustain the vital needs of the 
military to recruit, train, equip and protect our Service members who 
daily support our National Security responsibilities throughout the 
world, and keep our nation strong.

                                SUMMARY

    As we enter the fifth year of the Global War on Terrorism, we are 
engaged in combat and in humanitarian operations overseas and at home. 
From the Gulf of Mexico to the Persian Gulf, well-trained, dedicated, 
and compassionate medics from every service are making a difference in 
the lives of thousands of warriors and civilians. This blending of 
increasingly interoperable talent and equipment has made the miracles 
of today's battlefield medicine possible.
    In conclusion, a recent comment by General Moseley, perfectly 
describes our future and the challenges we face. ``When someone asks 
you what the Air Force will be doing in the future, tell them this: We 
will do what we have always done. We will stand on the shoulders of 
giants. We will take care of each other and every member of this great 
fighting force. We will innovate. And . . . we will fly . . . we will 
fight . . . and we will win.''

    Senator Stevens. Thank you all very much.
    You know, as we go to visit the hospitals at Walter Reed or 
Bethesda, we note the extremely high morale of your forces in 
the medical-care area. It's just astounding, and it's reflected 
in the type of care that these wounded service people are 
getting, and their attitudes. I have said before--I think 
Senator Inouye has experienced it, too--I have yet to talk to 
one of those wounded people that didn't ask me to sort of bend 
down and listen to them. And the comment's been, ``They're 
treating me fine, but when can I get back to my unit?'' The 
morale of this generation is just staggering for us. So, we 
thank you all for your service and what you're doing.
    We are a little worried. For instance, I am worried, when I 
hear that the health professional scholarship program (HPSP)--
that the Army and Navy were unable to fill the slots that were 
allocated to young people who are seeking those scholarships. 
There weren't enough seeking the scholarships. What's the 
reason for that? Is there not enough publicity or lack of 
interest of the new--coming generation in such education? What 
do you think, Admiral?
    Admiral Arthur. Well, I think there is a combination of 
factors. Certainly, there is less interest in military service. 
And a lot of those people coming into medical schools don't 
know about the health professional scholarship program. And I 
think it would behoove us to do a better job of publicizing the 
scholarship, but also publicizing the kind of experience that 
they get in the military health system. If they knew that we 
never asked any of our patients how sick they can afford to be, 
I think that would change their opinion of whether to practice 
medicine in the military. If they knew that all of our patients 
are patriots, and they're all insured, and we don't have to 
worry about those kinds of issues, it would change their 
opinion. I think if they were given an opportunity to come into 
any of the services hospitals and see the camaraderie, the 
morale, and the quality of care that's given, they would be 
more apt to come in.
    What we have done is work with our recruiting command, and 
we're now going to have physicians recruiting physicians, 
nurses recruiting nurses, instead of leaving that to the 
recruiting professionals. I think it's much better to have a 
young physician or a young nurse recruiting people who would 
want to come into the profession. We will select people who 
have been out in the operational theater, who have had some 
experience in the Navy, either in the Navy or the Marine Corps, 
and can tell the young people in medical school that this is a 
truly rich, professional atmosphere, as well as one that has 
other elements of service that are not found in the civilian 
sector. We're also increasing the amount of pay that we will 
give them. And you know that Senator Mikulski has supported 
legislation that has given us the ability to do health 
professions loan repayments. And we are doing that for nurses, 
podiatrists, psychologists, and other health professionals.
    So, I think it's going to get better. We are also going to 
be sending more physicians to meetings where part of their 
meeting obligation is not just to attend and get education, but 
also to be part of the recruiting booth, and to just be there 
to talk with people who would come up and ask them about their 
professions.
    Senator Stevens. Do you have any comment about that, 
General Kiley?
    General Kiley. Yes, sir. Yes, Senator. I actually agree 
completely with Admiral Arthur. I'd say there are some other 
forces at work in our schools--medical and dental schools. I 
think there are other opportunities for students to get 
scholarships and to have stipends. The military is not the only 
way that students get through school.
    I think there is a perception that they get of the 
military, particularly military medicine, based on what they 
see on the television and hear in the reports. And, as Admiral 
Arthur articulated, they don't understand the full depth and 
breadth of opportunities for all doctors, dentists, nurses, 
physicians assistants (PAs). We're doing exactly the same thing 
as the Navy. We recognize this. Army has been recruiting HPSP 
through recruiting command, but it's much more effective to 
have doctors recruiting doctors and nurses recruiting nurses.
    We've developed a new DVD. I've personally communicated 
with the deans of every medical school and osteopathy school in 
the Nation and asked for access, and have been very pleasantly 
surprised and pleased with the very positive responses. We've 
actually identified a group of physicians who have stepped up 
and said, ``I'd like to help with recruiting.'' Just like with 
the Navy, we're sending them to professional conferences, the 
American College of Obstetricians and Gynecologists meets next 
week, and we're going to have a booth there, with doctors in 
uniform, to talk to people that might be interested in it.
    And, of course, it's not just about the students, it's 
about their parents, it's about spouses, and the perceptions.
    So, I think we're paying a lot more attention than we were. 
I am concerned that we've--we have fallen short with dental and 
medical HPSP. We may not see the impact of that for another 4 
to 7 years down the road, but we're getting very aggressive, in 
terms of offering these scholarships, both for the Active and 
Reserve. And I think we'll see that turn around. And I--we've 
had some very good data and information on retention that goes 
with this--with the sessions. Started a new process where we 
look at our doctors who were finishing their obligation in 
2005, at the end of the fiscal year. And we looked at what they 
did. There were about 283, I think is the number.
    My fear was, 15 to 20 percent of them would sign up for 
further obligation, either through training or bonuses. Close 
to 55 percent signed up for more obligation, which is very 
heartening. And we're going to do this for our nurses and 
dental officers, so that we have the data to track this in the 
Active. Our Reserve forces are more of a concern for us, and 
we're getting more aggressive with recruiting in the Reserve 
forces, also.
    Senator Stevens. Thank you. We'd be pleased to work with 
the Ad Council with your services to try to get them to 
emphasize the availability of these scholarships and advantages 
to young high school graduates and to college students.
    General Taylor, you remarked about your service's care, 
particularly the critical care in the evacuation process. Are 
you concerned about the level of funding that you have 
available for 2007 as we continue this process now?
    General Taylor. I think the President's budget allocates 
money to the direct-care system that appears to be adequate for 
fiscal year 2007 to cover our needs for peacetime work, as well 
as what's in the supplemental request, to cover the warfighting 
request. I think we have the right staff right now. We have 
some areas of shortage, in terms of personnel; less so in the 
warfighting specialties, except in the nursing area. And I 
think General Rank will talk about that. The budget for 2007, 
appears to be a well-balanced budget for the direct-care 
system.
    Senator Stevens. Well, staff tells me that, overall, you've 
got a 10-year low in retention of professionals in the Air 
Force. Do you have any suggestions what we might be able to do 
to help you on that?
    General Taylor. Sir, I think there are a couple of things 
that we've been working with the staffs, in terms of changing 
the environment of care. And one of the things I've talked 
about is making the practice attractive for folks to stay in. 
And part of that is making sure that we have facilities and 
equipment and supplies and a range of practice that appears 
adequate for them.
    In terms of pay and fees and those sort of things, we need 
to make sure that we're exploiting, as best we can, all of the 
availability of pay options and loan repayments for our folks, 
for them to be able to stay in longer.
    The near-term problem we have is in recruiting 
replacements. We filled our health professions scholarship 
program last year, plus 21; we appear to be filling the program 
fine today. We've been working with the Uniformed Services 
University of the Health Sciences (USUHS) to expand their 
medical student throughput. The problem with all of this is, 
those pay off 8 to 10 years in the future.
    In the near term, we have holes in certain specialty types 
across physicians and dentists and nurses and other types that 
we need to make sure we have the right authorities that we can 
attract people into the system. One of our toughest problems is 
to get people into the system, particularly the fully trained 
providers.
    Senator Stevens. I don't have much time----
    Admiral Arthur. With regard to----
    Senator Stevens. Pardon me.
    Admiral Arthur. Yes, sir. Yes, sir.
    Senator Stevens. I don't have much time left, but I've been 
concerned about the articles and the conversations I've had 
about the monitoring and treatment of those who are at risk for 
post-traumatic stress disorder. And I wonder if we're doing 
enough to interview and to deal with military people as they 
come out of the theater immediately. It seems that the longer 
that that is ignored, the more it increases. Am I wrong? 
Admiral Arthur?
    Admiral Arthur. Yes, sir. We're doing quite a bit. We are 
embedding psychologists and other healthcare professionals into 
the units so that they don't have to go somewhere else to get 
the counseling or to get some kind of a social service referral 
service. So, the counselors and trained professionals are in 
the units. And as they come back, they work with them. They 
work with them, both in the combat theater, in transit, and 
when they get back home.
    It is really the Reserve component and those who get out of 
the military right after they come back from combat with which 
I am most concerned. And we've worked with the Veterans 
Administration (VA) and extended the TRICARE benefits to be 
able to take care of them.
    Now, these signs are very subtle. And so, we want to be 
sure that we detect them in the units and have people there who 
can talk with them and get to know the individuals. I think 
that's the best way to do it. It's worse if you let it go, and 
you see it in the families or in the employment venue. I think 
we've got a lot of energy into this, because we realize that 
everyone who goes into combat is significantly affected by it.
    Senator Stevens. Well, thank you very much.
    Senator Inouye.
    Senator Inouye. Thank you very much.
    I'd like to continue the line of questioning. Whenever I've 
had the pleasure of visiting troops on a carrier or on an 
airbase or an Army training post, I always set aside an hour to 
meet with enlisted personnel without the presence of officers. 
And it never fails, the first subject brought up is healthcare, 
about their dependents.
    Using that as a background, I've been advised that the Army 
is below its required end strength. For example, psychologists 
are staffed at 88 percent of its required end strength; family 
practice physicians, 81 percent; surgeons, at 65 percent; 
emergency medicine specialists, 70 percent; pediatricians, 65 
percent; social workers, 75 percent. And these are just some of 
the shortages.
    When one considers that we've been operating with these 
shortages, and yet we are able to maintain the morale we have, 
as our chairman described, and the efficiency and the quality 
of service, your effort is almost heroic, but you can't keep it 
up that way. Now, what is the Army going to do to address this 
retention and recruiting problem?
    General Kiley. Senator, as you know, that's a critical 
question for us. You've articulated some of the very worst 
data. I've alluded to some of the things we've started, with 
our peer-to-peer program, where we're going out to talk to 
pediatricians, to talk to psychologists, to talk to 
neurosurgeons, to talk to general surgeons, about service in 
the Army. In some cases, for example, with certified nurse 
anesthetists, we were able to begin to give them a retention 
bonus, which has helped. And we have just recently been 
approved, although we haven't funded, a retention bonus for our 
physicians assistants, who are critical providers, particularly 
on the battlefield.
    We've been able to maintain a high quality of healthcare 
for our soldiers and their families, and particularly manage 
casualty receiving and, frankly, mobilization and deployment, 
because our commanders have had the support of Congress and the 
support of the Department in allowing the local commander to 
not only use uniformed providers, but to have the flexibility 
to hire civilian and contract providers. It's a more expensive 
way to do business, in some respects, but it does help us in 
areas where we've got a fairly robust healthcare system.
    I'm confident that with some of the scholarship and loan 
repayment programs that we've got in place, plus the focus that 
we've been placing, and not only for physicians, but for 
doctors, and particularly for the nurse corps, led by General 
Pollock, I think we're going to turn this thing around. I don't 
know that I'm going to have absolutely as many neurosurgeons as 
I need.
    I think we've also got to address retention, because the 
more physicians and others that we can retain--and, frankly, 
many of these providers have articulated that their service in 
combat--in the combat zone, and their service in caring for 
soldiers, and the families of soldiers that have been in 
combat, has actually given them a new vision as to why they're 
in military medicine. It really comes home to them. And, as I 
alluded to, when I thought we were only going to retain 15 to 
20 percent of our physicians in fiscal year 2005, we retained 
over 50 percent.
    I think we're--I'd like to think we're at a nadir in some 
of these issues. But I think we need to continue to work at 
looking again at bonus levels. We've just now started to feel 
the impact of the increased bonuses that you all provided us in 
the 2003-2004 timeframe. So, I think we probably--with God's 
help, we'll be back here next year telling you that we've 
started to turn this around.
    Senator Inouye. Well, is there anything we can do, here? Is 
it money?
    General Kiley. Sir, I don't--from my perspective, I don't 
think it's money. I think we've got a package of bonuses and 
opportunities for loan repayment. We've just started some of 
these new things in the last 3 to 4 months. I, frankly, have, 
in the future, a couple of other strategies, if these don't 
work. I might consider taking Army Medical Department (AMEDD) 
recruiting and asking the chief to pass that back to me, as the 
surgeon general, where it was back in the 1970s and 1980s, 
before U.S. Army Recruiting Command did it. But I think right 
now our best strategy is to work with them. And, frankly, 
recruiting command has been absolutely superb, even from a 
financial perspective, in assisting us in our efforts to get to 
medical schools, to get doctors to medical schools, nurses to 
nursing schools. I think General Pollock may talk to you a 
little bit about her efforts coming up this weekend.
    So, for right now, the Congress has been so good to us on 
these that I'm not ready to come back and ask. I do think 
there's a financial issue. I mean, dentists are living in 
private practice, fairly robust salaries. We compete with that. 
Despite the fact that physicians in some areas of the country 
are working hard, or having trouble with--or issues with 
medical malpractice premiums, et cetera, there's a perception 
in some that, you know, it's better on the outside. I think we 
have shifted that a little bit with the care that our providers 
are providing to injured soldiers and their families. So, I 
think we're on the cusp of that right now. I think how things 
go in current operations over the next 12 to 18 months may also 
give us an indicator of our retention.
    Senator Inouye. Admiral, in fiscal year 2005 the Navy was 
required to convert 1,772 medical professionals from military 
to civilian.
    Admiral Arthur. Yes, sir.
    Senator Inouye. And you are 74 percent successful. Now, 
you're discussing the possibility of converting 10,000 medical 
professionals into civilians?
    Admiral Arthur. Well, sir, actually, we were asked to 
convert those 1,700. We have decided only to convert 1,100 of 
those. And the balance are people that we've saved as we 
consolidated some functions, some medical and dental functions. 
So, the 74 percent is actually 74 percent of 1,100. We've found 
it very challenging to get the quality of healthcare 
professional--whether it's doctor, nurse, physician assistant, 
or podiatrist, social worker--that would meet the Navy's high 
standards for the salary that we're able to pay. So, we're 
finding it a challenge, especially in some isolated locations, 
to find healthcare providers who will come and work there full 
time. We can get locum tenens, people who come in for 2 weeks 
or 1 month at a time, but that's not the kind of continuity 
that we really want for our beneficiaries.
    The additional conversions are conversations that we're 
having within the Pentagon as part of the Quadrennial Defense 
Review and its derivative, the Medical Readiness Requirements 
Review. And we're looking at the requirements for all kinds of 
combat service support, stability operations, humanitarian 
assistance, the full spectrum of military mission. There is 
thought that we should only staff for the combat casualty care 
portion of that, and to staff many of our overseas and isolated 
continental U.S. facilities with civilians, rather than U.S. 
military.
    We are participating in those discussions, and I think that 
the number will be far less than 10,000, but it will still 
present a significant challenge to us, especially overseas, 
where the education may be good, but the interface with our 
American servicemembers may not be the best. And we have 
promised American-standard care for all of our soldiers, 
sailors, airmen, and marines, wherever they are, overseas or in 
the continental United States.
    Senator Inouye. General, you have served us well, and 
you're just about ready to retire. And so, maybe you can speak 
with a little more objectivity. There's been a lot of 
discussion on a joint medical service command. What do you 
think about that?
    General Taylor. This is a work in progress within the 
Department to look at the joint activities. If you look at a 
marine who goes down in Fallujah, he can arrive in Bethesda 36 
to 48 hours later, going through eight care teams, pretty 
remarkable bit of work, with a high survival rate. We focus on 
that. We also focus on the unique missions that each of the 
services have.
    So, as we look to build some sort of joint or unified 
command, we have to be very careful that we retain not only the 
capability to make joint activities, like moving that marine 
from Fallujah to Bethesda, work well, but also the unique 
missions that the services have.
    So, I think it's a work in progress. The Department's 
looking at various options in a more jointly run medical set of 
services. And I think we need to let that play out. The Air 
Force Chief of Staff's position on that has been, ``Let us see 
what the alternatives are, and see what the impact is,'' 
particularly on the Air Force. As I said, we don't run an Air 
Force medical command. We run a decentralized system. And so, 
it's a much larger leap for us to move to some sort of unified 
command than it would be for the other services.
    Senator Inouye. I've got 7 seconds. Do you agree that it 
should be a joint command?
    Admiral Arthur. Yes, sir. I think there's great advantage 
to doing single common training, acquisition of supplies and 
equipment, have a single mission, singly financed, singly 
measured, but I also agree with General Taylor that every 
service has specific missions--care in the air; we have 
submarine medicine; the Army has other types of medical support 
to their combat forces. And we need to ensure that we meet the 
service's needs. And this is not to meet the medical system's 
needs, but to meet the service's needs for combat service 
support.
    General Kiley. Yes, sir. We have ``care in the dirt.'' They 
have ``care in the air.'' We have ``care in the dirt''--I very 
strongly support unified medical command.
    Senator Inouye. Thank you very much, Mr. Chairman.
    Senator Stevens. Senator Mikulski.
    Senator Mikulski. Well, good morning, Admiral, Generals.
    First of all, know that it's really an honor to be the 
Senator from Maryland, because we, in many ways, feel we're the 
home of military medicine, from the Bethesda Naval Hospital, to 
having the Uniformed Services University of the Health Sciences 
(USUHS), to having Fort Detrick, and even the hospital ship 
Comfort is in our State.
    I also just want to say to you, and to our nurse corps 
leadership and to all of the people who serve, just how proud 
we are of you. What you all are sustaining is enormous, and in 
the midst of a war. Amidst these tremendous battlefield 
casualties and taking care of dependents, along comes something 
called Katrina that you had to respond to, along comes a 
pandemic that we have to be getting ready for. And I know 
you're planning for that. So, we just want you to know, we're 
very proud of you. And, as my two colleagues have said, you 
can't talk to a soldier that's come back who just wasn't proud 
to serve his country, but expresses the gratitude to the 
medical care, even for the infections. You know, we hear about 
the battlefield trauma, but it's the urinary tract infection 
that the young female soldier has, and it's the fungus 
infection, the foot infection that the young marine or 
infantryman has. So, it's all that usual and customary. So, 
we're just very impressed.
    Let me go to the battlefield aspects of medicine, just for 
a minute, and to General Taylor. I understand that these 
evacuations, the golden hour from battlefield to Walter Reed, 
are an amazing and stunning accomplishment with, obviously, 
lower morbidity and mortality. Can you sustain that on the 
basis of the National Guard and Reserve? Because I understand 
that the majority of how that occurs comes from the National 
Guard and the Reserve. They provide the air infrastructure, and 
then you provide the staff, shall we say, in the hospital room 
in the sky. Am I correct in that?
    General Taylor. It's a little bit of both. We have teams 
that are in the air, in the back of the airplane, and they are 
a mixture of Guard and Reserve and Active. The most impressive 
part is, by and large, we do this with volunteers. The people 
that are in the air--the thousands of men and women that are in 
the aeromedical evacuation community, both Active, Guard, and 
Reserves, are a highly motivated, well-trained group with a 
fairly substantial depth, because we had to plan to move as 
many as 300 or 400 casualties a day, in the opening days of the 
war. And so, moving 10s and 20s a day is well within the realm 
of our aeromedical evacuation capability.
    Senator Mikulski. Yes, but are you able to sustain this?
    General Taylor. Yes, ma'am. We're doing it with volunteers 
today, and very little mobilization, and we see that we're able 
to do that for the foreseeable future.
    If I could just add one thing to your list of----
    Senator Mikulski. Yes.
    General Taylor. In addition to Bethesda Naval Hospital and 
other places, I'm also very proud of the Baltimore Shock Trauma 
Center. As you know, we have military surgeons and nurses and 
technicians working in the Baltimore Shock Trauma Center every 
day. We rotate surgeons and nurses and technicians and other 
folks through there for training, and large numbers of people 
that you see working in the air or on the ground in Balad are 
graduates, recent graduates, of the shock trauma orientation 
course, where they go and take care of people.
    Senator Mikulski. Yes, well, in my time, in 10 minutes----
    General Taylor. Yes, ma'am.
    Senator Mikulski. I'm aware of that.
    General Taylor. I just wanted to add one more comment.
    Senator Mikulski. Yes, I'm aware of that. And we're proud 
of that--which takes me to the recruitment issue. I'll be 
talking a lot with the nurse corps about their particular 
issues, but when we talk about the medical corps and the 
variety of very sophisticated specialties, General, are you 
looking at how you can get to the medical students while 
they're medical students with these kinds of partnerships 
between military medicine and perhaps a local civilian medical 
school? In other words, where you have a big military presence, 
like we have in Maryland--it could be Oklahoma, it could be 
South Carolina--where there you are, there's the military, and 
there's the civilian medical system, where there is exposure, a 
lot of these kids don't know about the military. Their fathers 
don't know about the military, or their moms, because, again, 
we don't have a draft. They just don't know. And decisions are 
made at the medical student level, not where they're going to 
do their residency and find it enormously exciting to be, for 
example, what General Taylor talked about.
    General Kiley. Yes, ma'am. We are--we're very interested. 
In fact, part of this thrust for the digital video disc (DVD), 
which we've developed, which is part of a presentation by Army 
physicians who go to medical schools, to the large classes, 
particularly freshman and sophomore, and show them the DVD and 
give them an opportunity to talk about all the options, 
possibilities, either research, clinical care, academics and 
teaching, and then operational medicine. What we've changed, in 
an effort to address your concern, is to focus recruiting 
efforts and the tools that we use, focusing them on physicians, 
specifically. I think, in the past, one of our shortfalls has 
been, we've had this Army Medical Department recruiting effort, 
writ large. And if you're a doctor, you don't see enough in 
there to identify with. If you're a nurse, you don't see enough 
in there to identify, to help you understand. So, that's one 
thing.
    We've also began to look at pre-med classes, the 
universities where the medical students are, before they go to 
medical school, because we'd like to get to them while they're 
still juniors and seniors in college, thinking about going to 
medical school.
    Senator Mikulski. Well, is one of these obstacles to 
recruitment the money? Or is it the lack of knowledge and 
awareness about these career opportunities?
    General Kiley. Off the top of my head, ma'am, I think the 
answer would be captured in an article that was in Military 
Medicine a few years ago, ``Canvassing Medical Students in 
Medical School: Don't Know, Don't Care.'' I'm not so sure they 
don't care anymore, because of our global war on terror 
efforts, but they still don't know. I think it's less about 
that than it is about money. There are, as I alluded to a 
little bit earlier--as I understand it, there are potentially 
other competing interests for repaying loans and giving 
individual stipends in medical school. I think, mostly, it's 
education. And, frankly, we've got a tremendous cadre of young 
enlisted recruiters. But when the doctor--when a medical 
student wants to know, you know, can they be a pediatrician, or 
are they going to have to be a this----
    Senator Mikulski. They don't have the answers. Well, this 
is why I think, through, again, the pre-med level is excellent, 
but I think it requires creative outreach. And I think, you're 
exactly right, where you think you're going to be is who you 
want to talk to----
    General Kiley. Right.
    Senator Mikulski [continuing]. Whether it's in allied 
health, not only are we going to talk about nurses, I know 
there is a shortage of pharmacists, x-ray technicians. We could 
go the cadre, because of what we see in the civilian 
population. So, we want to be able to help you be able to do 
that. So, that's one thing.
    General Kiley. Right.
    Senator Mikulski. Second thing is, while we're talking 
about the battlefield, I'm also concerned about some other 
threats, like the Katrina-like natural disaster, to be ready in 
our own country, should there be a predatory attack and local 
government collapses, or if a pandemic hits and your doctors 
and your nurses and your own institutions could go down, just 
like in Katrina, where you had nurses and doctors carrying 
people eight flights of stairs to get them out. What is the 
thought and the planning there? And are we stretched so thin 
now that we would have limited resources to deal with a 
catastrophe within the homeland, regardless of whether it's 
natural or predatory? For any of our panelists.
    General Taylor. I'll be glad to--I'll say a few things, and 
then maybe Kevin can kick in afterward.
    The medical services within the Air National Guard have 
been tasked by General Blum to begin moving toward a homeland 
security defense. So, they are organizing their capabilities, 
along with the FEMA regions. They're building response 
capabilities, and they're organizing and practicing for a 
national disaster, not only because the Guard's immediately 
available, but with State-to-State agreements, there is also 
rapidly available without having to wait for the Do loop 
through the Federal Government.
    And so, I'm very excited about that. There was a recent 
exercise last week, called Coyote Express, in Scottsdale, 
Arizona, where they practiced. How would you respond to a major 
casualty event? I think you have it right, that people think 
about first responders in any sort of national disaster, 
without thinking about----
    Senator Mikulski. They, themselves----
    General Taylor [continuing]. First----
    Senator Mikulski [continuing]. Could go down.
    General Taylor [continuing]. The first receivers. Is there 
going----
    Senator Mikulski. What about the----
    General Taylor [continuing]. To be anybody at the end of 
the----
    Senator Mikulski. What about the pandemic? My time is----
    General Kiley. Yes, ma'am. Actually, U.S. Army Medical 
Command just finished a three-part CPX/headquarters exercise 
with all of my regional commands, walking through a what-if 
scenario. If the Army was asked, in this case, to help the 
local civilian communities--you've identified an area that 
concerns us. I mean, it has the potential to be a very 
significant impact on the Nation. I think all three services 
are concerned about that. I think we would be simply waiting 
for direction from the Department to begin to execute that. And 
I know that my commanders, at places from Fort Lewis to Walter 
Reed, are talking with----
    Senator Mikulski. You're waiting for the direction from 
who, General?
    General Kiley. Well, I mean, in the event of a pandemic, 
we--you know, we would--we would expect the Department or the 
President to give us direction to begin to execute mission 
support outside the fences of our camps, posts, and stations. 
What we're not waiting for is getting to know who in the 
communities, both medical and civilian leadership in the 
communities, has accountability and responsibility in a 
Seattle/Tacoma or in Fairfax, Virginia, as it relates to how a 
community would react to and support the medical demands for a 
pandemic in an area. And they would be very significant. And 
our analysis, as we've worked our way through this, the last 
couple of months, is, it would be a very significant problem, 
everything from the health of our providers to the logistics of 
taking care of a community.
    So, we share your concern. We are training now, as I 
guess----
    Senator Mikulski. Well, again, I think this is just 
something that we'll be talking about, because it really has a 
real national security impact. In the event of an emergency 
like a pandemic, it's very likely that the very people who have 
to treat could, themselves, be sick, in the local community. 
The second thing is, the massive treatment, the massive 
inoculation, and then the need to maintain civil order and 
possibly even a quarantine, and the only place that we can turn 
to with the backup reserves, even under the doctrine of mutual 
aid with first responders, is our United States military. And 
you're stretched--and you are--you're doing a fantastic job, 
but I believe you're stretched. And so----
    General Kiley. I----
    Senator Mikulski [continuing]. We'll look forward to 
further discussion on this.
    General Kiley. Yes, ma'am.
    Senator Mikulski. Thank you.
    General Kiley. We agree with you.
    Senator Stevens. Well, thank you very much.
    We thank you, General Taylor, for your service, and wish 
you well.
    Senator Mikulski. Yes, I wanted to say that, too.
    Senator Stevens. Admiral, I'm interested in your answers to 
Senator Inouye's question about integration. I think we'd be 
very pleased to see if some of you would take the initiative to 
get your groups together and some of your predecessors, see if 
we could have a meeting with the eight Members of Congress who 
really lead the four defense committees. It may be time for a 
defense military corps with some type of training that would 
be--would specialize in the necessities for the marines, the 
Army, the Air Force, the Navy, whatever it might be. But, very 
clearly, it appears that the integration of the medical 
services could have a substantial benefit, and could raise the 
level of awareness of the corps and what it means to the 
country. So, I think that the two of us would be very pleased 
to work with you on that, if--when some of these current 
travails are over here, sometime this fall.
    Admiral Arthur. Yes, sir.
    Senator Stevens. We'll give you a call.
    Admiral Arthur. Yes, sir.
    Senator Stevens. Let me thank you all for your service, 
and----
    Senator Inouye. May I also----
    Senator Stevens. Yes, Senator.
    Senator Inouye. Before we dismiss the panel, I just wanted 
to make a footnote. According to my studies, a military 
radiologist receives $150,000 a year. One on the outside, a 
civilian radiologist, with similar skills and experience, would 
get at least $450,000.
    Admiral Arthur. Yes, sir.
    Senator Inouye. You've got a job ahead of you.
    Admiral Arthur. And if we asked them to work side by side 
in military/civilian conversion, it's an incredibly 
demoralizing situation. When one works nights, weekends, and 
deploys, and the other does not, but gets three times the 
salary--yes, sir.
    Senator Inouye. I hope Americans realize the bargain 
they're getting on our military personnel.
    Admiral Arthur. Yes, sir.
    General Kiley. Yes, sir.
    Senator Stevens. Some of my former assistants here in town 
are making $1 million right now. We don't want to do some 
comparisons.
    Thank you all very much for your service.
    Senator Stevens. We look forward to working with you on 
this subject. We'll turn to the next panel.
    We're going to hear now from the chiefs of the service 
nursing corps. This subcommittee has always believed in the 
value of the nursing corps. It is vital to the success of our 
military medical system, and absolutely necessary in periods 
such as we're going through right now.
    We want to thank all of you involved in the leadership of 
the nursing corps for your service, and look forward to your 
statement of your accomplishments and the challenges you face. 
We will be hearing today now from General Gale Pollock, the 
Chief of the Army Nursing Corps; Admiral Christine Bruzek-
Kohler of the Navy Nurse Corps; and General Melissa Rank, the 
Assistant Surgeon General for Nursing Services for the Air 
Force.
    We welcome you here, want to hear your testimony, and we do 
have some question.
    I turn to my friend, Senator Inouye, to see if he has any 
opening comment.
    Senator Inouye. Well, I'd like to join you in welcoming 
these chiefs, but I'd also like to congratulate General 
Pollock. She did a great job at Tripler. And now you're going 
to be chief of staff of the Army Medical Command. That's quite 
an accomplishment. Is this the first time a lady has been in 
charge?
    General Pollock. Yes, sir. And the actual job title is--
I'll be the deputy surgeon general, sir, not the chief of 
staff.
    Senator Inouye. That means we're ready for three stars now.
    General Pollock. I'm not sure the rest of the world's ready 
for that, sir.
    Senator Inouye. Thank you, Mr. Chairman.
    Senator Stevens. Senator Mikulski, do you have any open 
comment for the nurses?
    Senator Mikulski. Well, we're just glad to see you. You 
know, in every war that America's fought, you've been there, in 
one way or the other, and we want to make sure that we continue 
to provide that service. So, we look forward to hearing from 
you and your ideas and recommendations.
    Senator Stevens. Yes, thank you very much.
    General Pollock, we'll hear from you first.

STATEMENT OF MAJOR GENERAL GALE POLLOCK, CHIEF, ARMY 
            NURSE CORPS, DEPARTMENT OF THE ARMY
    General Pollock. Thank you.
    Mr. Chairman and distinguished members of the subcommittee, 
it's indeed, an honor and great privilege to speak before you 
on behalf of the nearly 10,000 officers of the Army Nurse 
Corps.
    Army nurses continue making impressive contributions 
throughout the world. In addition to excellent nursing care of 
combat casualties, we've provided training for physician and 
nursing leaders in Afghanistan, served as advisors to the Iraqi 
armed forces surgeon general, and led discussions to raise the 
quality of military and civilian nursing in the Republic of 
Vietnam.
    Here at home, Army Nurse Corps officers are key to the 
medical holdover program. Soldiers report high satisfaction and 
prefer to have Army nurses manage their healthcare. I'm 
committed to developing a world-class nurse case-management 
model within the framework of the AMEDD. We expanded the scope 
of practice for operating room nurses through registered nurse 
first assist training. This change optimizes the utilization of 
surgeons, enhancing capabilities in theater and in fixed 
facilities. Psychiatric advanced-practice nurses are proven 
force multipliers. I directed that these nurses enroll in 
psychiatric nurse practitioner programs to clarify the issue of 
prescriptive authority and provide the Army Medical Department 
(U.S. Army) (AMEDD) additional flexibility to better support 
the mental health mission.
    Caring for our combat wounded is one of the most demanding 
services we provide, and we consistently do it well. However, I 
remain concerned about the toll that caring for these trauma 
patients exacts over time. The effects of post-traumatic stress 
disorder and compassion fatigue on our clinicians cannot be 
underestimated. If left unchecked, it leads to a variety of 
long-lasting personal and professional problems. It must remain 
a high-priority issue.
    We continue staffing the theater trauma system. Nursing 
documentation of serious outcomes due to hypothermia resulted 
in a major change to care on the battlefield and is saving 
lives.
    Army nurse researchers and our doctoral students focus 
their efforts on military-relevant issues. Recently they 
examined the physical effects of body armor and loadbearing 
personal protective equipment, and methods to improve walking 
performance in amputees. Due to your generous support of the 
tri-service nursing research program, there is both monetary 
and educational support for these studies which encourage 
collaboration and advance the science of nursing practice.
    The use of simulators improves the critical thinking and 
technical skills required of healthcare personnel. The Nursing 
Science Division of the Army Medical Department (AMEDD) Center 
and School uses adult and pediatric simulators to augment the 
training of anesthesia students. The U.S. Army graduate program 
in anesthesia nursing is the second-ranked program in our 
Nation, but I remain concerned about the retention of our 
certified registered nurse anesthetists (CNA).
    The need for nurses outpaces the number of new graduates. 
Baccalaureate programs turn away qualified applicants each year 
due to faculty shortages. We are encouraging our retiring 
officers to select faculty positions as a second career.
    We learned from Recruiting Command that results were much 
improved when candidates spoke directly with Army nurses. In 
response, we launched the every nurse is a recruiter program. 
Now all nurses are actively engaged in identifying 
opportunities to recruit and advocate for the highest quality 
of nursing personnel.
    We've received inquiries each year from line officers 
interested in becoming Army nurses. We're developing a program 
similar to the Judge Advocate General's funded legal education 
program to allow them to complete their baccalaureate 
educations and join us.
    In all Army medical treatment facilities, we face 
significant shortages of civilian nurses, particularly in 
critical care, postoperative, perioperative, and obstetrics and 
gynecology (OB/GYN) nursing. The delay of National Student 
Personnel System (NSPS) renewed our concerns that Office of 
Personnel Management (OPM) regulations insisting that new 
college graduates begin their Government service as a GS-5 
thwarts our ability to recruit a civilian nursing workforce.
    We must be the employer of choice for all professional 
nurses. Diversified accession and retention incentives for both 
military and civilian nurses are essential. We will sustain our 
focus on readiness, clinical competency, and sound educational 
preparation to serve those who defend our Nation.

                           PREPARED STATEMENT

    I appreciate this opportunity to highlight our 
accomplishments, and look forward to your questions.
    Senator Stevens. Thank you very much.
    [The statement follows:]

          Prepared Statement of Major General Gale S. Pollock

    Mr. Chairman and distinguished members of the committee, it 
is indeed an honor and great privilege to speak before you on 
behalf of the nearly 10,000 officers of the Army Nurse Corps. 
Your unwavering support has enabled Army Nurses, as part of the 
larger Army Medical Department (AMEDD) team, to provide the 
highest quality care for our Soldiers and their family members.
    I regret that I was unable to be here last year. It was 
during this time that I co-hosted the 15th Annual Asia Pacific 
Military Medicine Conference in Hanoi, Vietnam as the U.S. Army 
Pacific Surgeon, the first international military conference 
held in Vietnam since the Reunification of Vietnam in the 70's. 
This forum provides an important cultural exchange for military 
medical professionals from 27 nations to develop relationships 
critical to ensuring cooperation and security in the Asia-
Pacific region. Several Army Nurse Corps officers from Tripler 
Army Medical Center also attended, participating in a cultural 
exchange with Vietnamese military nurses. It is commonly 
asserted that the unprecedented regional cooperation and 
response to the devastating tsunami that hit in December 2004 
occurred as a result of the relationships previously built at 
these conferences.
    The Army Nurse Corps remains fully engaged in our Nation's 
defense and in support of its strategic goals. Our vision of 
advancing professional nursing and maintaining leadership in 
research, education, and the innovative delivery of healthcare 
is at the forefront of all we do. Army Nurses provide expert 
healthcare in every setting in support of the AMEDD mission and 
the military health system at home and abroad. There are 
currently almost 400 Army Nurse Corps officers from all three 
Components deployed in support of operations in 16 countries 
around the world. From April 2005 to March 2006, we deployed 
over 500 Army Nurses and mobilized an additional 779 Army 
Reserve Nurses in support of the total AMEDD mission. They 
serve in clinical and leadership roles in medical treatment 
facilities in the United States and abroad, in combat 
divisions, forward surgical teams, combat stress teams, civil 
affairs teams, combat support hospitals (CSHs), and coalition 
headquarters. Today, the 10th CSH from Fort Carson, CO; the 
47th CSH from Fort Lewis, WA; and the Army Reserve's 344th CSH 
from New York are deployed to Iraq. The 14th CSH from Fort 
Benning, GA is deployed to Afghanistan. The 21st CSH from Fort 
Hood, TX is expected to arrive in theater by early May to 
replace the 344th CSH.
    The AMEDD team provides the same outstanding care to all, 
U.S. service members, Iraqi security forces, and civilians of 
all nationalities. The statistics are astonishing. For example, 
since November, the 10th CSH has had over 3,500 emergency room 
visits. Over a quarter were multi-trauma resulting in almost 
1,900 admissions, but only one in five were U.S. forces. On the 
eve of parliamentary elections in Iraq, nurses from the 10th 
CSH helped deliver the first ``democracy baby,'' a little girl, 
by cesarean section. LTC Steven Drennan, Chief Nurse of the 
10th CSH, recounted several stories of caring for severely 
wounded Iraqi children as if they were their own. In summation, 
he said, ``Imagine one of your children in similar 
circumstances. You'd be overjoyed to know that he was cared for 
by a staff as concerned, competent, and caring as the Soldiers 
of the 10th CSH.'' This is but one unit, one example of our 
AMEDD team's consistently outstanding performance.
    In the wake of Hurricane Katrina, 97 Army Nurses deployed 
in support of relief operations. The 14th CSH and the 756th 
Medical Detachment arrived in New Orleans on September 5, 2005. 
Their initial mission was providing medical relief for those 
displaced by the storm, but after arrival it changed to 
providing care for personnel assigned to Joint Task Force (JTF) 
Katrina. Two of the Army Nurses assigned to the 14th CSH, 1LT 
Warren Gambino and 1LT Manual Galaviz, had family living in the 
New Orleans area, making the mission more personal not only for 
them, but for the entire unit as well. During the deployment, 
Lieutenant Gambino was promoted from second to first lieutenant 
in the New Orleans Convention Center. Wearing the only clothes 
they had, his family was there to witness the event. In mid-
October, in preparation for their follow-on deployment to 
Afghanistan, the 14th CSH transferred authority to the 21st 
CSH.
    The 2005 hurricane season had a huge impact on military 
installations and personnel across the Gulf Region. Nurses and 
medics from the 4010th Field Hospital from New Orleans who were 
serving as backfill at Fort Polk lost family members, homes, 
and civilian jobs. As part of the Federal Coordinating Center 
of the National Defense Medical System, William Beaumont Army 
Medical Center received 65 evacuees from hospitals and nursing 
homes in Beaumont, TX. At Walter Reed Army Medical Center, the 
Uniformed Services University of the Health Sciences (USUHS) 
nurse anesthesia program welcomed Air Force Capt James Goode 
into their program. Capt Goode, a second year nurse anesthesia 
student stationed at Keesler Air Force Base, was only months 
from graduation when the storm hit and he already had orders 
for Andrews Air Force Base. We worked with the Air Force to get 
him to Walter Reed where he was able to finish his requirements 
and graduate on time.
    On October 8, 2005, a massive earthquake struck in northern 
Pakistan. The 212th Mobile Army Surgical Hospital (MASH) was 
just completing a multinational humanitarian operation in 
Angola where they treated more than 3,700 patients, performed 
191 surgeries, and completed mass casualty, humanitarian 
assistance, and national disaster response training. By October 
25th, the 160th Forward Surgical Team and the 212th MASH, 
augmented with 11 Army Nurses from the 67th CSH arrived in 
Pakistan to provide medical relief in the stricken region. 
During its four months in Pakistan, the 212th MASH, which 
included 31 Army Nurse Corps officers and 39 enlisted medics, 
treated over 20,000 outpatients and 838 inpatients, performed 
426 surgeries, and responded to 105 life-threatening 
emergencies--many of which were infants and children. Nurses 
also accompanied patients on over 250 medical evacuation 
missions. In February, the 212th, the last remaining MASH in 
the Army's inventory, turned over the hospital to the Pakistani 
government. The 212th MASH will be redesignated a combat 
support hospital in October.
    Army Nurses continue making contributions toward building 
sustainable medical infrastructure throughout the world. Army 
Nurses assigned to the 14th CSH worked with Afghan officials to 
spearhead an education outreach program with Afghan nurses. A 
team, including LTC Susan Anderson and MAJ Brian Benham, 
provided training for senior Afghan military medical leaders. 
As part of an effort to improve emergency healthcare in 
Lebanon, another team led by LTC Kimberly Armstrong conducted 
basic emergency medical technical training for members of the 
Lebanese Armed Forces. Eleven Army Reserve Nurses led by COL 
Cheryl Adams and then COL Gloria Maser were deployed to serve 
as advisors to the Iraqi Armed Forces Surgeon General. Their 
efforts resulted in a compendium of basic medical training 
materials and courses in Arabic, a standardized policy and 
procedures manual for Iraqi Army medical clinics, and a medical 
logistics distribution system. They also validated sites and 
monitored the building progress of 11 medical clinics and a 
medical supply warehouse. In addition, we sent a team of Army 
and Air Force nurses to Vietnam to exchange information about 
military and civilian nursing with representatives from the 
Republic of Vietnam.
    Since 2003, over 20,000 mobilized Army Reserve Soldiers 
have entered the Army's Medical Holdover Program with injuries 
and illness due to deployment. With so many Soldiers returning 
home from theater requiring intensive medical management, there 
is a tremendous need to assist veterans and their families as 
they navigate the healthcare system. There are currently 229 
mobilized Reserve Army Nurses assigned as case managers 
throughout the country serving at military medical treatment 
facilities, mobilization sites, and at eight regional 
Community-Based Healthcare Organizations. Reports indicated 
that case managers are effectively and efficiently coordinating 
appropriate and quality healthcare for this population of ill 
and injured Soldiers. Soldiers report high satisfaction 
regarding their case managers and prefer to have Army Nurses 
manage their healthcare. I am committed to developing a world-
class nurse case management model within the framework of the 
AMEDD managed care system. Through the efforts of COL Rebecca 
Baker, we have established authorizations for nurse case 
managers within Army Reserve medical support units along with 
the curriculum and qualifications to ensure Reserve nurses who 
are placed in the case management positions obtain the 
necessary skills and competencies to manage the healthcare of 
medical holdover Soldiers.
    I am proud of the Army Nurses and our colleagues who have 
cared for our combat-wounded along the entire medical 
evacuation pipeline. This is some of the most demanding 
healthcare anywhere in the world and these wonderful 
professionals do it consistently well. However, I remain 
steadfast in my concern about the toll that caring for the 
traumatically wounded exacts over long periods of time. The 
effects of post-traumatic stress disorder (PTSD) on clinicians 
cannot be underestimated. If left unchecked, they can lead to a 
variety of long-lasting personal and professional problems. The 
transition to home for healthcare personnel must be as 
supportive and successful as possible. Facilities have 
established support groups to assist returning veterans during 
this critical reintegration time. They have also established 
programs specifically for clinical staff caring for the combat-
wounded to address the issue. These are high-priority issues 
for us all. We continue searching for new ways to improve the 
mental health care we provide not only to our returning combat 
veterans, but also the clinical staff caring for them.
    Military medical ethics continues to be a subject of 
interest for Army Nurses. All professional nurses in the United 
States abide by the ANA's code of Ethics for Nurses, which 
clearly states, ``The nurse's primary commitment is to the 
health, well-being, and safety of patients across the life-span 
and in all settings in which health care needs are addressed.'' 
Army Nurses everywhere provide ethical, compassionate, expert 
nursing care. They receive training in the Geneva Conventions, 
the Laws of Armed Conflict, and Army Regulations related to the 
care of detainees. I included deployment ethics in continuing 
education programs sponsored by the Army Nurse Corps.
    As the Army works to rebalance its forces, we are also 
working to adapt to the circumstances of this long global war 
on terrorism. We are rapidly applying lessons learned to ensure 
the best care is provided on the battlefield and across the 
healthcare spectrum. At the AMEDD Center and School, the 
Department of Nursing Science has incorporated those lessons 
into all courses offered to Army Nurses, LPNs, and combat 
medics. We have had a number of other successes in both ongoing 
and new initiatives that I would like to share with you.
    In wars past, nursing personnel received trauma training 
on-the-job. Today, we know that the ability to train as 
interdisciplinary teams under real-world conditions improves 
patient outcomes. The U.S. Army Trauma Training Center (ATTC) 
in association with the Ryder Trauma Center, University of 
Miami/Jackson Memorial Hospital provides our forward surgical 
teams and slices of CSHs an invaluable opportunity to 
experience realistic best-practice total team trauma training 
prior to deployment. We have four Army Nurses and three LPNs on 
faculty at ATTC. This past year, they trained seven units, 
including 33 Army Nurses and 19 LPNs to provide state-of-the-
art trauma care on the battlefield.
    In the absence of real-world training, simulators improve 
the critical thinking and technical skills required for 
healthcare personnel. Today, we are not only caring for more 
patients with lower extremity injuries, but also large numbers 
of children. To meet that demand, the AMEDD Center and School 
purchased adult lower body and pediatric simulators to augment 
the training of nurse anesthesia students learning to employ 
regional block anesthetics. They also purchased simulators that 
have true-to-life intravenous access, vital signs, and other 
capabilities to improve the training medics receive. At the 
Joint Readiness Training Center, LTC Richard Evans led the 
effort to incorporate combat trauma simulators into mission 
rehearsal exercises for CSHs. Using realistic simulators 
increases the fidelity of pre-deployment training and allows 
healthcare teams to expertly respond to a combination of live, 
virtual, and constructive scenarios over time, mirroring 
military healthcare on the battlefield.
    From the beginning of combat operations in Iraq, nurses 
transported severely wounded patients by air within theater. 
They performed superbly, but most had no training in aviation 
medicine. To address this, the U.S. Army School of Aviation 
Medicine developed the Joint Enroute Care Course to improve 
medical evacuation care, policy, and coordination. In 2005, the 
228th CSH hosted the first iteration in Iraq. Today, with over 
40 nurses from all three Services trained, there are fewer 
issues with patient transports, including accidental line 
removal and equipment malfunctions. This collaborative joint 
effort has improved patient care.
    The first year of nursing practice sets the foundation for 
a successful career. We are committed to ensuring that our 
nurses receive the training and maintain clinical competencies 
essential in all operational environments. Feedback indicated a 
need to assist our new nurses in building a firm foundation of 
clinical competency in critical wartime skills. To address this 
need, we added the Trauma Nursing Core Course (TNCC) to the 
Officer Basic Leaders Course in May 2005. Completion of TNCC 
helps develop core trauma knowledge and critical thinking 
skills while also establishing a firm foundation in the 
stabilization of trauma patients. One hundred and thirty three 
nursing officers successfully completed TNCC in December. This 
course was coordinated by MAJ Anthony Bohlin with the 
assistance of Ms. Susan Douglas of the San Antonio Chapter of 
the Emergency Nurses Association. This was the largest class 
ever to complete TNCC at one time.
    Once new nurses arrive at their first duty station, their 
initial orientation is critical to proper skill development. We 
are working towards the creation of an enhanced new graduate 
internship program. In the meantime, some facilities have re-
looked at how they orient new graduates. An example is from 
Tripler Army Medical Center where they provide new nurses 
opportunities to develop basic competencies in the variety of 
clinical areas they will experience in a deployed environment 
rather than focusing on a single competency area.
    The Department of Nursing Science at the AMEDD Center and 
School broke ground for a new general instruction building this 
past November. The building will be named in honor of Brigadier 
General Lillian Dunlap, 14th Chief of the Army Nurse Corps, 
will house all Department of Nursing Science offices, 
classrooms, and practical exercise areas. We expect it to open 
in 2007.
    The Registered Nurse First Assist (RNFA) is a subspecialty 
of perioperative nursing offering an expanded scope of practice 
in the operating room setting. The RNFA practice model expands 
the scope of practice for perioperative RNs to function as 
first assists to the surgeons in the operating room and 
optimizes the utilization of general surgeons. It is also 
enhances the capabilities of the forward surgical team, the 
CSH, and fixed facilities. A pilot project at Fort Drum yielded 
a cost savings of $190,000 by eliminating a costly contract and 
provided Army Nurses practical experience enhancing wartime 
capability. Incorporating RNFAs into our structure also 
enhances our ability to recruit and retain perioperative 
nurses. Historically, these nurses otherwise looked for 
advanced training and education in roles unrelated to 
perioperative nursing within or outside of the Army. In concert 
with our perioperative nursing consultant, COL Linda Wanzer, 
USUHS is working to incorporate this training into the 
curriculum for perioperative clinical nurse specialists. To 
date, we have trained eight RNFAs and deployed five in support 
of contingency operations.
    Clinical competency is another key concern. We completed a 
major revision of how our officers who specialize in critical 
care, emergency, and OB/GYN nursing demonstrate clinical 
competency. Our goal is to standardize the way in which we 
confirm and maintain competency for all of our nurses. These 
revisions clarify guidance on how to achieve this and are 
particularly important for Army Reserve Nurses who may not 
practice their military clinical specialty in their civilian 
employment.
    Facilities located on installations with a large number of 
medical personnel assigned to field units are reestablishing 
programs to help them maintain clinical competency. We have 
also begun a number of initiatives in this area with our sister 
Services. William Beaumont Army Medical Center established a 
partnership with the medical clinic at Holloman Air Force Base 
to provide inpatient refresher training for its medical 
personnel. In the first iteration of a joint critical care 
nursing course at Fort Sam Houston, we trained eight Air Force 
critical care nurses. We expect five more to graduate this 
summer and hope to have five Air Force nurses in the next 
Emergency Nursing Course. During their deployment in support of 
JTF-Katrina, members of the 21st CSH completed TNCC, the Combat 
Lifesaver Course, and the Advanced Cardiac Life Support Course. 
In Afghanistan, Army Nurses spearheaded an effort that resulted 
in the 14th CSH's designation as an official provider for the 
Emergency Medical Technician-Basic (EMT-B) Refresher Course, as 
well as the Combat Medic Advanced Skills Training Course. Their 
efforts have helped dozens of combat medics deployed in support 
of Operation Enduring Freedom sustain critical skills.
    Our collaborative efforts also include our colleagues at 
the Department of Veterans Affairs (VA) and surrounding 
civilian facilities. Dwight David Eisehower Army Medical Center 
and the Augusta VA Medical Center established a joint training 
and staffing initiative which includes a critical care nursing 
internship program and a staffing pool. Eisenhower, as our lead 
facility in the Southeast Medical Region, also coordinated with 
Augusta's Doctors Hospital to provide burn training for 
deploying staff and those caring for wounded patients. To date, 
50 military and civilian nurses have completed this training.
    Many of our smaller facilities serve as clinical training 
sites for our enlisted medics, such as those in the surgical 
technologist program. At some of these sites, the caseload was 
too limited to provide the appropriate clinical experience for 
our Soldiers. In 2005, we closed 10 sites and shifted our 
training mission to facilities with larger volumes of diverse 
surgical cases. This improved the quality of the training 
students received and better prepared them for deployment.
    In June 2005, the family nurse practitioner (FNP) was 
approved as an authorized substitution for a family physician 
in CSHs and for physician assistants in division-level units. 
Deploying FNPs now complete advanced trauma training at the 
AMEDD Center and School to ensure they are prepared for 
deployment. We are also collecting lessons learned and actively 
working with the AMEDD Center and School and USUHS to determine 
potential opportunities for curriculum changes at each site.
    Psychiatric advanced practice nurses are proven force 
multipliers as authorized substitutions for psychologists on 
combat stress teams. I am directing officers pursuing graduate 
education in psychiatric nursing to enroll in psychiatric nurse 
practitioner (PNP) programs to clarify the issue of 
prescriptive authority and provide the AMEDD additional 
flexibility to better support the mental health mission.
    Army public health nurses are perfectly suited to meet 
essential public health demands at home and abroad. As experts 
in wellness promotion and in building healthy communities, they 
provide valuable services in a deployed environment and play a 
key role in the pre- and post-deployment health assessment 
process. In 2005, we redirected our services toward public 
health in response to the needs of Soldiers and their families. 
We realigned the practice of our public health nurses and 
broadened their roles to include homeland defense, 
epidemiology, occupational health, and support for national 
disasters and detainee operations. These changes better 
position us to meet public health demands in support of our 
Nation's defense.
    The AMEDD's Theater Trauma System Initiative standardizes 
treatment, evaluates processes, and provides training for 
clinicians to improve patient survivability in theater. As part 
of this system, the Joint Theater Trauma Registry 
systematically collects, stores, and analyzes medical data. We 
have deployed 12 Army Nurses since 2004 in support of this 
initiative. The work they do directly improves patient 
outcomes. For instance, the rate of hypothermia and resulting 
mortality decreased thanks to the education these nurses 
provided to first responders and the hypothermia prevention 
kits they distributed.
    Evidenced-based nursing is the process by which nurses 
utilize research to make clinical decisions and provide state-
of-the-art patient care. Army Nurse researchers, in 
collaboration with their Navy and Air Force colleagues, are 
heavily vested in the TriService Nursing Research Programs' 
Center of Excellence in Evidenced-Based Nursing Practice. 
Projects to bring research findings to the bedside are underway 
at Walter Reed, Brooke, Madigan, and Tripler Army Medical 
Centers. These projects are part of a larger effort to improve 
patient outcomes and reduce costs by standardizing care. They 
teach nurses how to critique research and incorporate the 
relevant findings into patient care. Nurses involved in these 
projects increase their knowledge, become motivated to further 
their education, and are becoming involved in research 
projects, much earlier in their careers.
    Army Nurse Researchers and our doctoral students focus 
their efforts on military relevant issues. They are conducting 
a number of studies that foster excellence and improve the 
nursing care we provide. They are researching issues including 
recruit health; clinical knowledge development; the provision 
of care for the traumatically injured; objectively measuring 
nursing workload; and the impact of deployments on service 
members and their families. At USUHS, COL Richard Riccairdi is 
completing his doctoral dissertation on mitigating the physical 
effects of body armor and other load-bearing personal 
protective equipment and LTC Lisa Latendresse is examining how 
to improve gait and walking performance in amputees.
    The Military Nursing Outcomes Database (MilNOD) program of 
research provides military nurse managers the ability to 
analyze the effects of staffing patterns on patient safety and 
outcomes to improve all levels of nursing care. This work 
builds upon that done by the California Nursing Outcomes 
Coalition and the Veteran's Administration. Using this 
framework, nurse managers at the 14 military sites are 
analyzing workload and staffing data as it relates to patient 
events and make more informed management decisions. Through 
your generous support of the TriService Nursing Research 
Program, there is both monetary and educational support for 
these studies, which encourage collaboration and advance the 
science of nursing practice. On behalf of the Army Nurse Corps 
and the patients whom we serve, thank you.
    The U.S. Army Graduate Program in Anesthesia Nursing once 
again ranks second in the nation. We are equally proud of the 
USUHS Registered Nurse Anesthesia Program. Our students are 
actively involved in research studying airway management, 
hypothermia, herbal remedies, and nurse retention, thus 
furthering the science of nursing. At Walter Reed, anesthesia 
students have the additional opportunity to deploy on a two-
week humanitarian mission with experienced faculty to obtain 
field anesthesia experience. Our students are consistently 
battle ready upon graduation, beginning with board 
certification. We are proud to say that again this year they 
had a 100 percent pass rate. Both anesthesia programs produce 
exceptional graduates who serve our Army and sister Services 
extremely well.
    We acknowledge and appreciate the faculty and staff of the 
USUHS Graduate School of Nursing for all they do to prepare 
advanced practice nurses to serve America's Army. They train 
advanced practice nurses in a multidisciplinary military-unique 
curriculum that is especially relevant given the current 
operational environment. Our students are actively engaged in 
research and the dissemination of nursing knowledge through the 
publication of journal articles, scientific posters, and 
national presentations. Of special note, I wish to acknowledge 
our perioperative clinical nurse specialist students for their 
contributions to a national white paper on medication errors.
    Despite an upswing in enrollments in baccalaureate nursing 
programs for the fifth straight year, the need for nurses 
continues to outpace the number of new graduates. Baccalaureate 
programs continue to turn away tens of thousands of qualified 
applicants each year, many due to faculty shortages. We remain 
committed to partnering with the civilian sector to address 
this and other issues contributing to the worldwide shortage of 
professional nurses. We are currently researching ways to 
encourage our retired officers to consider faculty positions as 
viable second career choices.
    The Virtual Clinical Practicum is another example of our 
efforts to combat the nursing shortage. We first told you about 
this last year when nurses at Walter Reed Army Medical Center 
partnered with a rural nursing school to provide their students 
an effective clinical experience through telehealth technology. 
Last fall, approximately 180 students from this school 
participated in the second phase of this study with staff and 
one enthusiastic patient from the U.S. Army Burn Center in San 
Antonio. Planning is ongoing for a third practicum. This 
innovative research initiative is providing tertiary level 
learning opportunities for students who otherwise would not 
have that experience.
    We have been successful in establishing working 
relationships with local communities. In Korea, the 18th 
Medical Command established an exchange for professional 
nursing with the Korean Ministry of Health. Under this program, 
four Army Nurses, MAJ Michael Hawkins, MAJ Thomas Cahill, MAJ 
Dana Munari, and LTC (Ret) Priscilla Quackenbush, were 
appointed Clinical Professors at Yonsei University where so far 
they have precepted 26 Korean advanced practice nursing 
students. At West Point, LTC Diane Scherr is serving as adjunct 
faculty at Mount Saint Mary's College. Efforts such as these 
are contributing to a steady supply of basic and advanced 
practice nurses for the future.
    The nursing shortage and current operational conditions 
continue to make recruitment and retention challenging for all. 
It is projected that the need for nurses will continue to 
outpace the supply. The Active Component Army Nurse Corps is 
short 320 officers. This results in under-filled year groups. 
Every year since 1999, we have accessed an average of 16 
percent fewer officers than required and the projected 
shortfall for this year is 27 percent. We are also seeing a 
decline in our retention rates for the first time in many 
years.
    While the Army Reserve is at 100 percent of its 
authorizations for nurses, each year since 2003, we have 
accessed an average of 21 percent fewer Army Reserve nurses 
than required and half of those who were accessed possessed an 
Associate Degree in Nursing (ADN) or a Diploma in Nursing. 
However, we still cannot fill crucial company-grade ranks, 
despite concentrated efforts at recruiting ADN-prepared nurses. 
This is evidence that simply recruiting more nurses with ADNs 
is not the answer to solving our shortages in the Reserve 
Component.
    In order to mitigate the current situation, ensure 
competitive advantage, and build an Army Nurse Corps for the 
future, we must be the employer of choice for professional 
nurses. Diversified accession and retention incentives that are 
attractive to nurses in each sector of the available market are 
essential. For those sectors which we currently have no 
recruitment programs, we are collaborating with the U.S. Army 
Accessions Command to develop relevant recruitment programs 
that will attract Bachelor of Science prepared nurses to serve 
in either the Active or Reserve Component. Army Nurses at all 
levels are actively engaged in the several nurse recruitment 
and retention programs at our disposal.
    We have 47 Army Nurses assigned to recruiting duty. While 
their efforts are invaluable, we consistently hear that 
applicants want to talk to Army Nurses directly involved in 
patient care. In response to this need, we have launched the 
``Every Nurse is a Recruiter Program'' to provide 
encouragement, opportunities, and recognition for nurses at all 
levels to become actively engaged in not only the recruitment 
of Army Nurses, but also the sustainment of professional 
nursing.
    To attract nursing students into the Reserve Officer 
Training Corps (ROTC), there has to be sufficient financial 
benefit. We thank the U.S. Army Cadet Command for providing 
full scholarships and a variety of tools and improved processes 
to ensure cadets successfully access into the Army Nurse Corps. 
We also thank Congress for ratifying a limited bonus for ROTC 
nurse cadets and increasing the cap on ROTC scholarships 
offered to cadets interested in Reserve Forces duty.
    Our AMEDD Enlisted Commissioning Program continues to be 
extremely successful. This provides Active Component Soldiers 
$10,000 per year for up to 24 months to complete their BSN 
while remaining on active duty. We currently start 65 Soldiers 
per year and hope to expand that in 2007.
    We appreciate the efforts of the U.S. Army Recruiting 
Command (USAREC) to provide the balance of professional nurses 
we require for the Active Component and all of the nurses for 
the Army Reserve. They are on the front lines competing with 
organizations that can often offer more flexible and attractive 
compensation packages. To help meet our requirements, they have 
a variety of tools available to help them attract the best-
qualified nurses.
    For the Active Component, we offer an accession bonus of up 
to $20,000 and the Health Professional Loan Repayment Program 
(HPLRP) for up to $30,651. USAREC is able to utilize these 
tools in various combinations with service obligations to 
tailor packages to suit individual applicants. This flexibility 
has proven to be invaluable in today's highly competitive 
market. Last year, 19 percent of eligible applicants chose the 
bonus, 27 percent chose loan repayment, and 52 percent opted 
for a reduced bonus of $8,000 in combination with loan 
repayment for a six-year obligation. USAREC estimates that 
without loan repayment, we would have recruited 69 fewer new 
officers.
    In 2005, we reinstated the Army Nurse Candidate Program 
(ANCP) to target nursing students ineligible to participate in 
ROTC. ANCP provides a $10,000 bonus and a monthly stipend of 
$1,000 per month for up to 24 months to full-time students 
pursing a BSN. To date, we have 12 students enrolled in the 
program and expect two to access onto active duty this summer.
    We receive numerous inquiries from the field each year from 
Army officers interested in becoming nurses and looking for a 
program to assist them. In response, we are collaborating with 
the Office of the Surgeon General and U.S. Army Accessions 
Command to develop a program that allows them to complete their 
BSN and convert to Army Nurses, similar to the Judge Advocate 
General's Funded Legal Education Program for Army lawyers.
    For the Army Reserve, USAREC offers an accession bonus up 
to $30,000 and HPLRP up to $50,000 for selected specialties. 
Critical care, operating room, psychiatric, and medical-
surgical nurses without a BSN can receive an accession bonus of 
up to $15,000. All Army Reserve accession incentives require a 
three-year service obligation in the Selected Reserve.
    The Specialized Training and Assistance Program for BSN 
completion (BSN-STRAP) is also now available for both new 
accessions and existing Army Reserve nurses without a BSN. This 
stipend program is for those who can complete their BSN in 24 
months or less. This is a good start, and I am hopeful that 
programs to attract BSN-prepared nurses to serve in the Army 
Reserve will be expanded in the years ahead.
    Retention of nurses is of utmost importance. Initial 
research shows that nurses stay on active duty for the 
educational opportunities, job satisfaction and retirement 
benefits. We are proud of the educational benefits we offer our 
officers. Our graduate-level specialty courses, fully-funded 
graduate and doctoral education programs, and post-graduate 
courses are second to none. However, we have five years of data 
from departing officers that consistently indicates that middle 
management, lengths of deployment, and the absence of specialty 
pay are the main reasons they leave. To address this, we are 
working to refine our retention strategy. In one research 
effort, we looked at the effect middle managers have on junior 
staff. The results of this study are being incorporated into 
our Head Nurse Leadership Course to better educate middle 
managers on the development of strong and healthy teams.
    I am particularly concerned about the retention of our 
certified registered nurse anesthetists (CRNAs). Our inventory 
of CRNAs is currently at 73 percent. The restructuring of the 
incentive special pay program for CRNAs last year, as well as 
the 180-day deployment rotation policy were good first steps in 
stemming the loss of these highly trained providers. We are 
working closely with the Surgeon General's staff to closely 
evaluate and adjust rates and policies where needed.
    We face significant shortages of civilian RNs and LPNs, 
particularly in critical care, perioperative, and OB/GYN 
nursing. We increased utilization of contract support and are 
currently working on a civilian nurse recruitment and retention 
program for Walter Reed Army Medical Center and Fort Hood. The 
AMEDD also recently approved the limited application of a 
student loan repayment program for current and new civilian 
nurse recruits.
    One promise of the National Security Personnel System 
(NSPS) is to attract and retain talented and motivated 
employees. I remain optimistic that NSPS will address the 
issues that make civil service a disincentive for new and 
practicing nurses. We have worked with the Navy and Air Force 
to standardize duty titles throughout the system. This will 
ease local marketing and facilitate the development of tiers 
for advanced practice nurses, similar to those for physicians 
and dentists. However, the delay in implementation of NSPS 
because of legal challenges by Unions renews our concerns.
    The Sustaining Base Leadership and Management Program is a 
centrally funded leader development program in support of the 
Army Civilian Training, Education, and Development System 
(ACTEDS) preparing Army civilian and military members for 
leadership positions. We actively encourage our civilian staff 
to take advantage of this training.
    The positive impact Army Nurses make on patient care is 
found throughout the military health system. At Landstuhl 
Regional Medical Center, CPT Travis Hawksley improved the 
overall management of burn patients by developing a tool to 
accurately track fluid resuscitation throughout the evacuation 
system. Others, such as LTC Sharon Steele and LTC Kris 
Palaschak provide clinical expertise in the design and 
construction of new facilities. Our nurse informatacists work 
to deploy and upgrade electronic clinical systems used to 
document the delivery of inpatient care, provide objective data 
related to patient workload, and electronically capture, 
automate, and analyze patient safety data.
    Each year, the Daughters of the American Revolution honor 
one Active Component Army Nurse who epitomizes professional and 
military nursing excellence with the presentation of the Dr. 
Anita Newcomb McGee Award. Last year's recipient was COL Norma 
Garrett. COL Garret also received the Clinical Nursing 
Excellence Award from the Association of Military Surgeons of 
the United States for recognition of her many research 
accomplishments and contributions to clinical education.
    More than ever, the Army Nurse Corps is focused on 
providing service members and their families the absolute 
highest quality care they need and deserve. We continue 
adapting to the new realities of this long war, but remain firm 
on providing the leadership and scholarship required to advance 
the practice of professional nursing. We will maintain our 
focus on sustaining readiness, clinical competency, and sound 
educational preparation with the same commitment to serve those 
Service members who defend our Nation that we have demonstrated 
for the past 105 years. I appreciate this opportunity to 
highlight our accomplishments and discuss the issues we face. 
Thank you for your support of the Army Nurse Corps.
                                ------                                


          Biographical Sketch of Major General Gale S. Pollock

    MG Gale S. Pollock was born in Kearny, New Jersey, but 
calls Texas home. She holds a Bachelor of Science degree in 
nursing from the University of Maryland and is a 1979 graduate 
of the U.S. Army Nurse Anesthesia Program. She earned a Master 
of Business Administration from Boston University; a Master in 
Healthcare Administration from Baylor University; and a Master 
in National Security and Strategy from the National Defense 
University. Her military education includes completion of the 
General Officer Joint CAPSTONE program; Senior Service College 
at the Industrial College of the Armed Forces; the U.S. Air 
Force War College; the Interagency Institute for Federal Health 
Care Executives; the Military Health System CAPSTONE program; 
the Principles of Advanced Nurse Administrators; and the NATO 
Staff Officer Course.
    In addition to her responsibilities as the 22nd Chief of 
the Army Nurse Corps, MG Pollock is currently the Commander of 
Tripler Army Medical Center and the Pacific Region, U.S. Army 
Pacific Surgeon and the Multi Market manager under the regional 
TRICARE program. Her past military assignments include Special 
Assistant to the Surgeon General for Information Management and 
Health Policy; Commander, Martin Army Community Hospital, Fort 
Benning, GA; Commander, U.S. Army Medical Department Activity, 
Fort Drum, NY; Staff Officer, Strategic Initiatives Command 
Group for the Army Surgeon General; Department of Defense (DOD) 
Healthcare Advisor to the Congressional Commission on Service 
Members and Veterans Transition Assistance; Health Fitness 
Advisor at the National Defense University; Senior Policy 
Analyst in DOD Health Affairs; and Chief, Anesthesia Nursing 
Service at Walter Reed Army Medical Center, Washington, DC.
    MG Pollock's awards and decorations include the Legion of 
Merit (with two Oak Leaf Clusters), the Defense Meritorious 
Service Medal, the Meritorious Service Medal (with three Oak 
Leaf Clusters), the Joint Service Commendation Medal, the Army 
Commendation Medal, and the Army Achievement Medal. She proudly 
earned the Expert Field Medic Badge and the Parachutist Badge. 
She received the Army Staff Identification Badge for her work 
at the Pentagon. In addition, she earned the German Armed 
Forces Military Efficiency Badge, ``Leistungsabzeichen'', in 
gold.

    Senator Stevens. Admiral, we'd be pleased to have your 
statement.

STATEMENT OF REAR ADMIRAL CHRISTINE M. BRUZEK-KOHLER, 
            DIRECTOR, NAVY NURSE CORPS, DEPARTMENT OF 
            THE NAVY
    Admiral Bruzek-Kohler. Thank you.
    Good morning, Chairman Stevens, Senator Inouye, and 
distinguished members of the subcommittee.
    I am Rear Admiral Christine Bruzek-Kohler, the 21st 
Director of the Navy Nurse Corps and the Navy Medical Inspector 
General. It is an honor and a privilege to speak before you 
about our outstanding 4,500 Active and Reserve Navy nurses and 
their contributions in operational, humanitarian, and 
traditional missions at the home front and abroad.
    My written statement has already been submitted for the 
record, and I would like to highlight a few key issues.
    In this time of increased deployments, our Navy nurses are 
utilizing their specialized training in critical wartime 
specialties everywhere in the continuum of care, from the 
battlefield, with our forward-deployed troops, to our military 
treatment facilities, for restorative and rehabilitative care.
    In the last year, they have served with distinction in a 
variety of locations--Kuwait, Iraq, Djibouti, Afghanistan, 
Bahrain, Qatar, Thailand, Indonesia, Sri Lanka, New Guinea, 
Pakistan, Guantanamo Bay, Cuba, and along our own gulf coast to 
provide assistance to Hurricanes Katrina and Rita victims. As 
part of the Marine Corps team, our perioperative critical care 
and anesthesia nurses in the forward resuscitative surgical 
system, shock trauma platoons, and en route care system are 
influencing the survivability of our battlefield casualties. 
With the prevalence of combat and operational stress, mental 
health nurses are part of the collaborative treatment team 
providing immediate interventions at the front and post-
deployment.
    At Naval Medical Center San Diego, one of our nurse leaders 
is spearheading a multidisciplinary team to establish the 
Comprehensive Combat Casualty Care Center. This is a patient- 
and family-centered cooperative program with the San Diego VA 
Medical Center to provide the full spectrum of care to our 
returning casualties and their families.
    During 2005, our hospital ships, U.S.N.S. Mercy and 
U.S.N.S. Comfort, were providing care for natural disaster 
victims overseas and along the gulf coast. Both of our hospital 
ships recently deployed, last week. While the U.S.N.S. Comfort 
is involved in a joint exercise with the Canadian Government, 
our nurses are optimizing this training opportunity to enhance 
their clinical skills in response to regional and domestic 
emergencies. Simultaneously, the U.S.N.S. Mercy is partnering 
with volunteer nurses from nongovernmental organizations and 
host nations in a transcultural nursing effort to share 
clinical skills while providing quality care during 
humanitarian missions in Southeast Asia.
    This increased operating tempo (OPTEMPO) underscores the 
necessity for clinical skills sustainment through operational 
and joint training programs such as the Defense Medical 
Readiness Training Institute for burn and trauma care and the 
Army enroute care course at Fort Rucker, Alabama, for medical 
evacuation. Through written agreements, we have also 
collaborated with civilian medical communities for training in 
intensive care, emergency, and other specialty areas.
    In the face of a national nursing shortage and the 
challenges we have had in recruiting over the past 2 years, we 
have implemented several initiatives to attain our recruiting 
goal this year. We have seen more applications as a result of 
the tiered-rate increase of our nurse corps accession bonus at 
$15,000 for a 3-year and $20,000 for a 4-year obligation. For 
the first time, we offered the health professions loan 
repayment program, up to $30,000 for school loans, with all 
positions filled. We have also increased the accession bonus 
from $5,000 to $10,000, and stipend from $500 to $1,000, for 
the nurse corps candidate program, as well as increasing our 
recruitment goals for this program by 20 nursing students, for 
a total of 75.
    Retention of Active duty nurse corps officers has posed a 
greater challenge. Our present manning end strength is at 92 
percent in the Active component. As a retention tool, the 
health professions loan repayment program was also offered for 
all eligible Navy nurses. The certified register nurse 
anesthesia incentive special pay was increased along tiered 
levels from $20,000 to $40,000, with a 1-to-4-year obligation. 
In addition, we are exploring other incentives to retain our 
junior nurse corps officers after 4 years of service.
    In the Reserve component, our critical wartime specialties 
in mental health nursing, perioperative nursing, and nurse 
anesthesia pose recruitment challenges. For that reason, fiscal 
year 2006 nurse accession bonuses are targeted toward these 
specialties. With our increased rate of mobilization to Kuwait 
and to our military treatment facilities, it is imperative that 
we meet our nursing specialty requirements and explore all 
options to support our recruitment and retention efforts.
    Civil Service nurses are the backbone of professional 
nursing practice in our military treatment facilities. To 
remain competitive during this national nursing shortage, we 
implemented the special salary pay rates granted under title 38 
at five military treatment facilities. We also implemented the 
accelerated promotion program at Naval Medical Center San Diego 
to recruit recent nursing school graduates. Our robust 
graduation--our graduate education program is one of our top 
retention initiatives. On an annual basis, we select our most 
talented nurse leaders to attend accredited universities around 
the country. They attain their master's and doctorate degrees 
in our required specialties to meet our mission.
    Our focus on military nursing research is key to successful 
patient outcomes and quality care, and we do appreciate the 
support of the tri-service nursing research program in this 
effort. As a result, we have been able to incorporate 
evidenced-based clinical-practice guidelines and multisite 
protocols. Some examples are programs in pain and wound 
management, falls precaution, and prevention of nosocomial 
infections. Our innovative practices and research findings 
involving care from the battlefield to our military treatment 
facilities are cited in numerous professional publications and 
textbooks. Navy nurses have also shared their expertise, their 
presentations at national and international healthcare forums.

                           PREPARED STATEMENT

    In summary, from World War I to the present global war on 
terrorism, Active and Reserve Navy nurses have answered the 
call of a grateful Nation and created a legacy for all of us. 
In the tradition of nursing excellence, our nurses are 
providing the finest care worldwide, making a positive and 
meaningful difference in the lives of our sailors, marines, 
their dependents, and our retired heroes. I appreciate the 
opportunity of sharing the accomplishments and issues that face 
Navy nursing. I look forward very much to working with you 
during my tenure as director of the Navy Nurse Corps.
    Thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]

     Prepared Statement of Rear Admiral Christine M. Bruzek-Kohler

    Good morning, Chairman Stevens, Senator Inouye and distinguished 
members of the Committee. I am Rear Admiral Christine Bruzek-Kohler, 
the 21st Director of the Navy Nurse Corps and the Naval Medical 
Inspector General. It is an honor and privilege to speak before you 
about our outstanding 4,500 Active and Reserve Navy Nurses and their 
contributions in operational, humanitarian and traditional missions at 
the home front and abroad. We have had many challenges facing us over 
the past year including the continuing War in Iraq, the Global War on 
Terrorism and the recent devastation of Hurricanes Katrina and Rita. 
Based on the magnificent performance of our Navy Nurses answering the 
call to duty at a moment's notice and the support of our outstanding 
Civil Service and contract nurses, I am confident that we successfully 
meet all challenges with commitment and dedication while providing hope 
and comfort to all those in need.
    The future success of the Navy Nurse Corps depends on our ability 
to clearly articulate our military relevance and alignment with the 
goals of the Navy and Navy Medicine. To accomplish this, our nurse 
leaders recently met to review our strategic goals and objectives in 
2005 and determine where we need to be in 2006 and beyond. The outcome 
of this meeting resulted in the establishment of five priorities for 
Navy Nursing, specifically aligned with the vision and goals of the 
Chief of Naval Operations and our Surgeon General. To chart our course 
and navigate our achievements into the future, these five priorities 
include: emphasis on clinical proficiency to sustain our readiness; 
validation of Nurse Corps requirements and force shaping; review of the 
processes to match educational opportunities to requirements; improved 
management and leadership development for mid-level Nurse Corps 
officers; and a formalized leadership continuum for senior Nurse Corps 
officers entering executive level positions. Addressing each category, 
I will highlight our achievements and issues of concern.

                   READINESS AND CLINICAL PROFICIENCY

    Throughout the career continuum, all Navy Nurses must be 
responsive, capable and continually ready to maintain mission 
essentiality. We must be clinically proficient to quickly deploy, 
arrive on the scene whether it is New Orleans or Baghdad, and deliver 
the finest nursing care. Solid clinical competencies ranging from the 
fundamentals to specific wartime specialties serve as the foundation to 
enhance the depth and quality of nursing care in all environments. To 
meet these challenges, we remain on the cutting edge of clinical 
nursing to provide the finest care to our Sailors and Marines, while 
welcoming opportunities to participate in a joint service environment.
    During the past year, Navy Nurses from both active and reserve 
components were deployed throughout the world as members of joint, 
multi-national, Marine Corps and Navy missions, recording over 60,000 
days in support of and training for our missions. Operational units 
were located in Kuwait, Iraq, Djibouti, Afghanistan, Bahrain, Qatar, 
Thailand, Indonesia, Sri Lanka, New Guinea, Pakistan, Guantanamo Bay, 
Cuba and along our own Gulf Coast to provide assistance to Hurricanes 
Katrina and Rita victims. Nursing care services for both operational 
and humanitarian missions were delivered by Surgical Teams, U.S. Marine 
Corps Surgical Companies, Shock Trauma Platoons, and the Forward 
Resuscitative Surgical Systems, including the Enroute Care System Teams 
for casualty evacuation. In addition, care was provided in 
Expeditionary Medical Facilities; on Navy and Hospital ships including 
aircraft carriers; and at our military treatment facilities.
    Ultimately supporting warfighting capability, Navy Nurses are at 
the front, developing and implementing numerous health care programs to 
assist active duty personnel and their families. With the prevalence of 
combat and operational stress, mental health nurses are providing 
immediate interventions at the front, assisting our troops to cope; 
through humanitarian missions, providing aid to natural disaster 
victims; and to our military treatment facilities, enhancing access to 
care for our military personnel and their families. Through the Medical 
Rehabilitation Platoon Program at Camp Geiger, North Carolina, nurses 
have closely coordinated the medical care of our Marines, decreasing 
their length of stay in the program and increasing their timely return 
to full duty for training. As active participants in Operation Special 
Delivery at Twenty-Nine Palms, California, nurses received Honorable 
Mention through the Admiral Thompson Awards Program for Community 
Relations. As trained doulas, they provide physical, emotional and 
information support to women with deployed spouses before, during and 
after childbirth. Partnering with volunteer Project Hope nurses, our 
Navy Nurses of all specialties assisted devastated Americans along the 
Gulf Coast and onboard the Hospital Ship Comfort, providing the best 
quality of care with pride. The most noteworthy accomplishments 
included providing emergency trauma care, completing over 900 
screenings for trauma indicators and crisis management; implementing 
preventive mental health interventions for local relief workers; and 
establishing a Mother Baby Unit.
    Our nurses continuously seek specialized training to enhance their 
critical wartime nursing specialties to safely administer immediate and 
emergent care in any situation. To provide comprehensive care for our 
trauma casualties, Navy Nurses have maximized available training 
opportunities through the Navy Trauma Training Course at the Los 
Angeles County/University of Southern California Medical Center with 
their operational platform team members; the Tri-service Combat 
Casualty Course in San Antonio, Texas for all nurses; and the Military 
Contingency Medicine/Bushmaster Course for our students at the 
Uniformed Services University Graduate School of Nursing in Bethesda, 
Maryland.
    Joint training opportunities in critical wartime nursing 
specialties in both military and civilian medical communities are 
essential to enhance our mission-ready capabilities. Navy Nurses in 
Guam, Marianas Island have rendered assistance to Air Force nurses in 
maintaining their critical readiness skills. In return, our nurses have 
attended the Air Force Critical Care Air Transport Team Training in San 
Antonio, Texas to optimize medical evacuation efforts. Coordinating 
with Landstuhl Regional Medical Center in Germany, our nurses from 
Naples, Italy have been able to enhance their clinical skills in 
emergency room, critical care, advanced medical-surgical and 
complicated obstetrics. Our nurses in Yokosuka, Japan have invited the 
Japanese Self Defense Force nurses to their Trauma Nurse Core Courses, 
fostering goodwill relationships. Supporting the concept of 
interoperability, Navy Nurses in the reserve component have worked 
seamlessly with the Defense Medical Readiness Training Institute, 
sponsoring and teaching three professional programs pertaining to 
trauma. A total of 50 courses in Advanced Burn Life Support, Combat 
Trauma Nurse Curriculum and Pre-Hospital Trauma Life Support were 
conducted on-site at San Antonio, Texas and exported to several 
regional training sites to maximize participation, such as in Camp 
Pendleton, California; Great Lakes, Illinois; Dallas, Texas; and Fort 
Gordon, Georgia.
    Within and across our military treatment facilities, we optimize 
all cross-training opportunities to maintain clinical proficiency for 
our operational assignments. We continue with robust Nurse Internship 
Programs at our three Medical Centers at Bethesda, Maryland; 
Portsmouth, Virginia; and San Diego, California. With the return of 
Sailors and Marines from Iraq with complicated trauma wounds, we have 
focused more intensive training to become certified wound care 
specialists. Aligned with professional standards of practice, we have 
adopted the Essentials of Critical Care Orientation by the American 
Association of Critical Care Nurses as our primary didactic critical 
care training curriculum, augmented with on-site clinical rotations at 
our larger military treatment facilities. The successful Post 
Anesthesia Care Course at Bethesda, Maryland has included a total of 30 
Army and Air Force nurses and medics in addition to Navy personnel in 
the past year, and has been exported to other Navy military treatment 
facilities due to its strong clinical content and application.
    Collaborating with our civilian medical communities, our nurses in 
Jacksonville, Florida maintain an agreement with Shands Medical Center 
to train in their intensive care unit, emergency room and neonatal 
ward. In addition, at the Medical University of South Carolina, our 
nurses in Charleston participate in a two-week trauma orientation to 
sustain their clinical readiness. In our outreach support of community 
education, we have provided clinical experiences and preceptors to 
nursing programs throughout the United States. We have also 
participated in collaborative training groups, such as the Greater 
Washington Area Consortium for Critical Care Nursing Education. These 
examples are only a few of the many courses and training sessions 
taking place on a regular basis to maintain clinical proficiency and 
optimize operational readiness.

                     REQUIREMENTS AND FORCE SHAPING

    Maintaining the right force structure is essential in meeting Navy 
Medicine's overall mission through validated nursing specialty 
requirements, utilizing the talent and clinical expertise of our 
uniformed and civilian nurses. Focused on our operational missions, our 
wartime specialties include nurse anesthesia, critical care, emergency, 
mental health, medical-surgical and perioperative nursing.
    The national nursing shortage, compounded by competition with 
civilian institutions as well as other federal sectors, has resulted in 
direct accession recruiting shortfalls over the last two years. For 
that reason, we continue to closely monitor the status of our pipeline 
scholarship programs, which include the Nurse Candidate Program, the 
Medical Enlisted Commission Program, the Naval Reserve Officer Training 
Corps Program, and the Seaman to Admiral Program. Rate increases were 
applied this fiscal year to our Nurse Corps Accession Bonus to attract 
new applicants to the naval service. In addition to increasing the 
accession bonus and stipend for the Nurse Candidate Program, we have 
recently increased our recruitment goals for this program by 20 nursing 
students.
    Retention of active duty Nurse Corps officers has posed a bigger 
challenge, with retention rates after the first four years of 
commissioned service ranging from 54 to 72 percent for all accession 
categories and decreasing further beyond 4 to 7 years of service. At 
the end of calendar year 2005, our manning end strength decreased to 94 
percent in the active component, with a deficit of 175 Navy Nurses. 
Within our wartime specialties, shortfalls have been identified in 
critical care with an end strength of 57 percent, nurse anesthesia at 
84 percent and perioperative nursing at 90 percent. To counter these 
deficiencies, the Health Professions Loan Repayment Program was 
recently implemented for recruitment and retention purposes. In 
addition, the Certified Registered Nurse Anesthesia Incentive Special 
Pay was increased. We will continue to closely monitor our end strength 
through the year, evaluate newly initiated programs and explore other 
options to retain our talent at the 4 to 10 years of service level.
    In the reserve component, our critical wartime specialties also 
pose a recruitment and retention challenge in mental health nursing, 
perioperative nursing and nurse anesthesia. For that reason, fiscal 
year 2006 Nurse Accession Bonuses are focused on these specialties. We 
had a record of success during the past fiscal year with the Nurse 
Accession Bonus when it was offered for the first time to professional 
nurses with less than one year of experience. Since there is a national 
nursing shortage of perioperative nurses, our six-week perioperative 
nursing training programs in Jacksonville, Florida and Camp Pendleton, 
California now include our reserve nurses. As a pipeline program, our 
Hospital Corpsman to Bachelor of Science in Nursing Program has 
resulted in three Nurse Corps Officers entering the reserves since its 
inception two years ago, with twenty-three participants who will 
graduate within the next one to two years. With our increased rate of 
mobilization to Kuwait and to our military treatment facilities, it is 
imperative that we meet our nursing specialty requirements and explore 
all options to support our recruitment and retention efforts.
    Civil Service nurses are the backbone of professional nursing 
practice in our military treatment facilities as the frequency of 
deployment schedules increases for our uniformed personnel. We continue 
to encourage the use of authorized compensation packages to retain our 
talented nurses through recruitment, retention and/or relocation 
bonuses to meet staffing requirements. Last year, we implemented 
Special Salary Pay rates granted under Title 38 at five military 
treatment facilities in San Diego, California; Camp Pendleton, 
California; Twenty-Nine Palms, California; Great Lakes, Illinois; and 
Bethesda, Maryland to compensate for on-call, weekend, holiday, and 
shift differential duty, resulting in satisfaction to staff members and 
leadership. In addition, we have recently implemented the Accelerated 
Promotion Program in San Diego, California to recruit novice nurses 
with less than one year of experience, who have been integrated into 
their Nurse Internship Program to develop solid clinical skills.
    Our success in meeting the mission in all care environments 
requires that we continuously reassess our measures of effectiveness, 
adjust personnel assignments, transfer authorized billets, and revise 
training plans. To maximize our performance, it is imperative that we 
pursue funding to recruit and retain our exceptionally talented nurses 
to meet our staffing requirements. We will also closely monitor the 
national nursing shortage projections and the civilian and federal 
compensation packages to determine the best course for us to take in 
this competitive market.

                    EDUCATION PROGRAMS AND POLICIES

    The Navy Nurse Corps provides state-of-the-art nursing care around 
the world, 365 days a year by continually adapting to the ever-changing 
healthcare environment. We accomplish this by maintaining our 
competitive edge beyond the status quo through a variety of 
initiatives. On an annual basis, we shape our graduate education 
training plan based on our health care and operational support 
requirements. We select our most talented nurse leaders to attend 
accredited universities around the country to attain their masters and 
doctorate degrees, which has also proven to be an invaluable retention 
tool. In addition, a plethora of continuing education courses and 
specialized training opportunities are available to further enhance 
solid clinical skills.
    The success of our graduate education and specialized training is 
exemplified through the remarkable impact of our professional 
achievements in Navy Medicine and across the Department of Defense. Our 
advance practice nurses lead the way in building upon our reputation of 
outstanding patient care by incorporating evidence-based clinical 
practice guidelines and multi-site protocols to improve patient 
outcomes. Through the Evidence-Based Consortium developed by nurses 
from Bethesda, Maryland, and Portsmouth, Virginia with Walter Reed Army 
Medical Center, team training has resulted in a focus on primary 
surgical wound dressings, alcohol withdrawal assessment and peripheral 
intravenous therapy. In collaboration with the Washington State 
Hospital Association as part of Institute for Health Care Improvement 
initiatives, our nurses in Bremerton, Washington have participated in 
the implementation of three clinical practice guideline protocols: 
elimination of nosocomial infections, prevention of ventilator 
associated pneumonia and prevention of central line infections. Each 
protocol consists of a group of interventions resulting in better 
outcomes, a reduction in mortality, and cost containment. Nurses at 
Bethesda, Maryland are involved in a TRI-STATE initiative implementing 
similar protocols, in addition to the Critical Care clinical practice 
guideline. Through the Pain Management Clinic at Jacksonville, Florida, 
civilian referrals have been reduced and patient satisfaction 
increased, resulting in significant cost avoidance.
    The focus on military nursing research is essential to successful 
patient outcomes and quality care. Sponsored by the TriService Nursing 
Research Program, the collaborative multi-phase Evidence Based Practice 
Improvement Project between National Naval Medical Center and Walter 
Reed Army Medical Center plans to implement six nursing practice 
guidelines at each site. Our Navy Nurses have developed guidelines for 
pain management, falls prevention and neonatal tactile stimulation and 
thermoregulation. A sample of funded research studies includes: 
Retention of Recalled Navy Nurse Reservists Following Operation Iraqi 
Freedom; Oxidative Stress and Pulmonary Injury in U.S. Navy Divers; 
Coping Interventions for Children of Deployed Parents; and Focused 
Integrative Coping Strategies for Sailors, a Follow-Up Intervention 
Study.
    There have been numerous publications attesting to the expertise of 
our Navy Nurses, such as in Advances of Neonatal Care, Archives of 
Psychiatric Nursing, Association of Operating Room Nurses Magazine, 
Journal of Cardiac Failure and professional textbooks. In addition, 
Navy Nurses have been invited to present innovative practice and 
research findings at Sigma Theta Tau Nursing Honor Society's 
International Nursing Research Congress; the Annual Meeting of the 
Association of Military Surgeons of the United States; the 18th Annual 
Pacific Research Conference, and many more. Of prestigious note, two of 
our Navy Nurses were invited to coordinate and present a symposium 
entitled ``Military Nursing Care: Land, on the Sea and in the Air'' 
with Army and Air Force colleagues at the Biennium Conference for Sigma 
Theta Tau International focusing on burn care, quality of life and 
nursing care delivered in austere environments.
    It is this personal dedication to the highest clinical proficiency 
and continuing education that makes us proud members of the military 
healthcare system today and tomorrow. As the scope and practice of 
nursing continues to grow, we must make sure that we continue to be 
closely aligned with Navy Medicine and the Line community.

           MID-LEVEL LEADERSHIP/SENIOR LEADERSHIP DEVELOPMENT

    The last two priorities consist of improving management and 
leadership development for mid-level Nurse Corps officers and 
formalizing the leadership continuum for senior Nurse Corps officers 
entering executive level positions. Leadership development begins the 
day our nurses take the commissioning oath as Naval Officers and is 
continuously refined throughout an individual's career with increased 
scope of responsibilities, upward mobility, and pivotal leadership 
roles within the field of nursing and health care in general. Our Navy 
Nurses are proven strategic leaders in the field of education, 
research, clinical performance, and health care executive management. 
To insure we continue this legacy of nursing excellence, it is critical 
that we identify those leadership characteristics and associated 
knowledge, skills and abilities that are directly linked to successful 
executives in Navy Medicine. This information will provide the basis 
for ongoing leadership development of our mid-grade officers as they 
advance in their leadership and management positions and experiences.
    To meet today's challenges, nurse leaders must be visionary, 
innovative and actively engaged across joint service and interagency 
levels to maximize our medical capabilities and achieve new heights of 
excellence. As one of many examples, a Navy Nurse recently assumed 
command of the Expeditionary Military Facility at Kuwait, which is 
comprised of personnel from 22 Navy Medical Commands. Navy Medicine 
Emergency Management Program nurses are developing a comprehensive 
strategy to guide our efforts to prevent or deter health consequences 
of natural or international attacks. Navy Nurses are involved in the 
multi-faceted development of a Federal Health Care Facility as part of 
the Veterans Affairs/Department of Defense partnering project. Within 
the Reserve Component, our dedicated Navy Nurses are in key leadership 
positions in their units, as well as in their civilian organizations, 
professional associations and local communities. Of particular note, 
our nurse leaders in the Navy Reserve Operational Health Support Unit 
at Jacksonville, Florida attended training at the Air National Guard's 
Mentoring Conference, prior to developing and coordinating the Navy's 
Mentoring Initiative. Effective partnerships have resulted in positive 
mentoring experiences between junior and senior officers, promotions, 
advancement to leadership positions, and professional development.

                            CLOSING REMARKS

    From World War I to the present War on Terrorism, active and 
reserve Navy Nurses have answered the call of a grateful nation and 
created a legacy for all of us. As we near the 100th anniversary of the 
Navy Nurse Corps, we are most proud of being integral members of the 
One Navy Medicine Team through an outstanding record of partnering with 
civilian and military health care teams, ensuring a better tomorrow for 
all. Our nurses provide the finest care worldwide and make a positive 
and meaningful difference in the lives of our Sailors, Marines, their 
dependents and our retired heroes. The basis of our future requires 
that we align with the mission of our armed forces while adapting to 
the advances in professional nursing practice. The uniqueness of 
military nursing is our dynamic ability to seamlessly integrate the 
critical nursing specialties into the personal needs of the troops on 
the field and at sea. Indeed, we will continue the exemplary tradition 
of Navy Nursing Excellence by focusing on interoperability and working 
side by side with colleagues from each service with personal pride.
    I appreciate the opportunity of sharing the accomplishments and 
issues that face Navy Nursing. I look forward to working with you 
during my tenure as Director of the Navy Nurse Corps.

    Senator Stevens. General Rank.

STATEMENT OF MAJOR GENERAL MELISSA A. RANK, ASSISTANT 
            SURGEON GENERAL FOR NURSING SERVICES, 
            DEPARTMENT OF THE AIR FORCE
    General Rank. Mr. Chairman and distinguished Members of the 
subcommittee, it is truly my honor to represent the Active 
duty, Guard, Reserve, and civilian nurses and medical 
technicians of the United States Air Force total nursing force. 
This diverse group of professionals partner with the Air Force 
Medical Service to ensure a fit and healthy force, prevent 
casualties, restore health, and enhance human performance.
    I have personally contacted every Active duty chief nurse 
and senior medical technician and asked them, ``What keeps you 
up at night?'' Their predominant concerns validated my vision 
to strengthen operational currency and clinical expertise. 
Today, I will share with you our successes and challenges in 
expeditionary nursing, clinical skills sustainment, recruiting 
and retention, research, and future initiatives.
    Over the past year, our responsiveness was put to the test 
and was highly successful in the U.S. Central Command's Area of 
Responsibility and at home station. We are trained, current, 
and mobile. Our primary contributions to expeditionary 
operations are lifesaving medical/surgery and critical-care 
skills, and aeromedical evacuation. Even greater strides have 
been made ramping up from home station to war front. We credit 
this to our current inpatient experiences and continuous 
improvements in predeployment training. We deploy 2,369 total 
force nursing service personnel to five aeromedical evacuation 
locations, 10 expeditionary medical support units, and two 
contingency aeromedical staging facilities (CASF). Total 
patients evacuated from theater in support of Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) were 
33,615 from October 10, 2001 to April 14, 2006. Of that total, 
over 6,200 were due to battle injuries. Key in the clinical 
transformation of our aeromedical evacuation system was the 
shift from transporting stable patients to rapidly moving 
patients requiring continuous in-flight stabilization, putting 
critical care nurses in very high demand. Our highly 
specialized critical care air-transport teams moved 711 
critically ill patients last year.
    The expeditionary medical group at Balad is currently home 
to 69 nurses and 97 medical technicians from our total force, 
the Army, and multinational forces. Nine different surgical 
specialties are on hand to provide state-of-the-art treatment, 
including care of massive trauma.
    The CASF at Ramstein Air Base safely moved over 15,000 
patients to Landstuhl Regional Medical Center. Time and again, 
the heroic efforts of the integrated healthcare team at 
Landstuhl came together to save the lives of wounded Americans, 
coalition forces, DOD contractors, and members of the press 
corps.
    The best way for nurses to maintain currency and be 
effective in deployed settings is to have recent hands-on 
experience as inpatient nurses. Recently, I released a policy 
mandating that nurses working in outpatient and nonclinical 
roles will complete a minimum of 168 hours on inpatient units 
annually. Bringing seasoned clinicians back to the bedside will 
provide a robust, technically ready force and mentorship to the 
less experienced.
    Due to unique deployment missions, we are increasingly 
using the Center for Sustainment of Trauma and Readiness Skills 
Training Platform (C-STARS). C-STARS produces medics ready to 
respond to peacetime or wartime contingencies through intense 
clinical immersion. The USUHS Graduate School of Nursing 
incorporated ``go to war'' skillsets into the curriculum for 
advanced practice nurses.
    At home, Hurricanes Katrina and Rita uniquely challenged 
our total force. Aeromedical evacuation crews and Expeditionary 
Medical Support (EMEDS) teams from Active duty, Guard, and 
Reserve safely moved over 2,600 patients after Katrina, and 
over 1,200 patients before Rita made landfall. Keesler Medical 
Center was greatly impacted by Katrina. Their staff saved 
130,000 medical records, erected an EMEDs, accounted for 
personnel, built new staffing requirements, and reopened 
limited primary care services in less than 1 month after the 
hurricane.
    Nursing is globally engaged, at stateside and overseas 
locations. Independent-duty medical technicians, Technical 
Sergeant Steven Yates and Technical Sergeant John Strothenke, 
from Alaska, deployed in support of the Joint Prisoners of War/
Missing in Action (POW/MIA) Account Command Mission, which 
recovered the remains of 19 service members in last calendar 
year.
    Through the international health specialist program, we 
gained access to countries that are otherwise inaccessible. 
Major Stephanie Buffet, currently working for the U.S. Central 
Command (CENTCOM) surgeon, played a pivotal role in the Air 
Force's response to medical issues in the ongoing Pakistan 
earthquake relief efforts.
    Continuous global engagement is making recruiting and 
retaining nurses one of our top priorities, especially with the 
national nursing shortage. Our accession sources include direct 
accession, Reserve Officers' Training Corps (ROTC) scholarship, 
health profession scholarship program, and enlisted to Bachelor 
of Science in Nursing (BSN) programs. In fiscal year 2005, we 
assessed 69 percent of our total recruiting goal of 357. Direct 
accessions, accounting for 82 percent took advantage of the 
recruiting bonus or the loan repayment program, and will 
increase for fiscal year 2006. And we thank you.
    We are investigating a robust nurse enlisted commissioning 
program, mirroring the Navy's success, to produce 50 officers 
from our enlisted force, allowing them to attend accredited 
bachelor's or entry-level master's programs. In fiscal year 
2005, our nurse corps inventory was at 90 percent of authorized 
positions. Currently, our inventory is a concerning 87 percent.
    We continue to monitor our attrition rates, particularly 
those at the first decision point at the completion of initial 
obligated service--4 years of commissioned service. To ensure 
we retain those experienced nurses, we plan to offer a critical 
skills retention bonus near the end of their initial 
commitment. We are also partnering with our sister services and 
Veterans Administration (VA) counterparts to expand training 
platforms.
    In addition to financial and training incentives, the 
quality of our medical treatment facilities is clearly of 
importance to recruiting and retaining top professionals. 
Sustaining state-of-the-art infrastructure is a top priority 
for maximizing clinical and operational effectiveness and 
promoting a safe environment for both staff and patients.
    Air Force nurses continue to remain at the forefront of 
operational research. Crucial areas being examined include 
deployment health, sustaining competencies, military practice 
outcomes, recruitment, and retention. None of this would be 
possible without the enormous support from the tri-service 
nursing research program, that will have far-reaching 
implications for our military forces.
    Several major events continue to shape our future. The Air 
Force transitioned to an expeditionary mission, and now 
deliberately prepares airmen through aggressive force 
development policies and programs. Through a comprehensive 
review of the medical group structure, we developed a new 
flight path to guide our organizational structure and the 
development of our clinical discipline. The flight path guides 
more deliberate development, placing the member in the right 
job at the right time, setting them up for career success and 
personal satisfaction, while maintaining expertise at the front 
lines of patient care.
    Nursing is already preparing for the many BRAC-related 
challenges by finding alternative inpatient platforms to train 
and sustain personnel, and by determining the right composition 
of Active duty ``blue suit'', requirements. We continue to 
evaluate our deployment-drive requirements and use market 
availability, along with cost data, to recommend appropriate 
civilian conversions. We plan to target company-grade 
outpatient and maternal childcare positions, while maintaining 
Active duty nurses for inpatient platforms. Along these lines, 
the results of the 2001 Air Force Surgeon General directed 
Nurse Corps Topdown Grade Review continues to guide our 
actions, and we strive to balance our company- and field-grade 
authorizations. We remain optimistic that our course of action 
will help improve overall promotion opportunity; therefore, 
increasing retention of experienced nurses. We've successfully 
increased field-grade requirements for deployment positions and 
are taking steps to lay in more senior clinicians at home 
station.
    Mr. Chairman and distinguished members of the subcommittee, 
it is an honor and a privilege to lead the men and women of our 
Active, Reserve, and Guard nursing services. My objective for 
this presentation was to provide you a glimpse of the 
extraordinary men and women that make up nursing services and 
the exceptional work they are doing daily in the service of 
their country. I look to the future optimistically and desire 
your continued support during these exciting times ahead for 
nursing and our Air Force.

                           PREPARED STATEMENT

    Thank you for inviting me and allowing me to tell our 
story.
    [The statement follows:]

          Prepared Statement of Major General Melissa A. Rank

    Mr. Chairman and distinguished members of the committee, it is 
truly an honor for me to be here for the first time representing Air 
Force Nursing Services. We employ a diverse group of professionals to 
ensure a fit and healthy force, prevent casualties, restore health, and 
enhance human performance.
    The vision for my tenure is to strengthen operational nursing 
currency and clinical expertise. The Air Force Nurse Corps will focus 
on our continued development as a clinical discipline to sustain nurses 
and aerospace medical technicians in an ever-changing, joint 
interoperable environment.

                         EXPEDITIONARY NURSING

    Our expeditionary medical capability has been proven and Air Force 
Nursing Services remains in the forefront supporting the war fighter. 
Globally since the year 2000, we supported 202 worldwide missions and 
exercises, treated 1.47 million patients, assisted with 2,700 
surgeries, and helped train 4,200 foreign medics. Just this past year, 
we deployed 2,369 nursing service personnel in support of Operations 
ENDURING FREEDOM and IRAQI FREEDOM (OEF/OIF). These Total Nursing Force 
members from the Active Duty (AD), Air National Guard (ANG), and Air 
Force Reserve Command (AFRC) deployed in support of 5 Aeromedical 
Evacuation (AE) locations, 10 Expeditionary Medical Support Units 
(EMEDS), and 2 Contingency Aeromedical Staging Facilities (CASF). We 
are trained, current and mobile.
    Survival rates have improved from 75 percent during Vietnam, DESERT 
SHIELD and DESERT STORM to 90 percent in OEF/OIF in large part due to 
forward deployed surgical teams and rapid AE. Total patients evacuated 
from theater in support of OIF and OEF were 33,615 (October 10, 2001 to 
April 14, 2006). Of that total, 6,243 were due to battle injuries. Key 
in the clinical transformation of our AE system is the shift from 
transporting stable patients to rapidly moving patients requiring 
continuous in-flight stabilization, putting critical care nurses in 
high demand. Our highly specialized Critical Care Air Transport Teams 
(CCATT) moved 711 critically ill patients last year.
    The 332nd Expeditionary Medical Group in Balad is currently home to 
69 nurses and 97 aerospace medical technicians from the Air Force Total 
Nursing Force, the Army, and multinational auxiliaries. Nine different 
surgical specialties are on hand to rapidly provide state-of-the-art 
treatment including care of massive trauma. These teams have responded 
to numerous mass casualty surges and have many incredible stories to 
tell.
    One story comes from Senior Airman Timothy Woodall, a reservist 
from the 349th Medical Squadron at Travis AFB California, serving at 
Balad. One of his most memorable patients is a three-year-old boy who 
was part of a tragedy that took his mother's life and left him with 30 
percent burns to the right side of his body. SrA Woodall, as one of his 
primary caregivers, delivered some of his medications, assisted with 
his routine tube feedings, and had the arduous task of changing his 
bandages. For SrA Woodall, being at Balad has been an enlightening 
experience, using more of his clinical skills in two months than he has 
in the past two years. We are delighted to report that the boy has 
healed very well and gone home.
    Gathering wounded service members and transporting them to higher 
echelons of care are scheduled missions like the ones flown by a Royal 
Australian Air Force C-130 aircrew with a U.S. Air Force medical team. 
``The patients we carry on these missions were injured in some way, 
down range,'' reports Captain Kristie Harlow, 379th Expeditionary 
Aeromedical Evacuation Squadron flight nurse. ``Our job is to get them 
where they need to go for treatment, while providing them the care they 
need.'' Litters are stacked, bunk-bed style, in the cargo aircraft. The 
crew and medics wear body armor and Kevlar helmets for most of the 15-
hour mission days, even while tending to patients. All on board agree 
that the Australian hosts, part of the Australian Defense Force's Joint 
Task Force 633, provide first class accommodations for the patients and 
the Airmen who care for them.
    Some of our personnel have also risked their own lives to save 
others. Capt. Kevin Polk received the Bronze Star for saving an injured 
Airman while deployed as a CCATT nurse with the 379th Expeditionary 
Aeromedical Evacuation Squadron. He had only been in Iraq a couple of 
days, when the base came under direct mortar attack. Despite being 
exposed to enemy fire, Captain Polk searched the living quarters for 
potential victims, where he found an Airman with life-threatening 
injuries. He stabilized the Airman's condition and assisted with the 
medical transport of the Airman to a hospital for emergency surgery. 
The Airman sustained permanent disabilities, but Captain Polk's heroic 
response was credited with saving his life.
    A typical day at the CASF in Balad consists of recovering two to 
three aerovac missions from the AOR with patients ranging from routine 
to critical. In addition, approximately 125 patients are prepared 
weekly for aerovac missions that transport patients from the CASF to 
Ramstein Air Base Germany, and then back to the United States. Patient 
support pallets and additional C-17 litter stanchions have increased 
the number of planes available for AE. The CASF at the 435th Medical 
Group, Ramstein Air Base, Germany, continued its high operational 
tempo, safely moving 15,093 patients between January 1, 2005 and 
December 31, 2005 to Landstuhl Regional Medical Center (LRMC) for 
admission and treatment until they are scheduled to travel stateside. 
Time and again the heroic efforts of the integrated healthcare team at 
LRMC come together to save the lives of the wounded Soldiers, Marines, 
Sailors, Airmen, coalition forces, DOD contractors, and members of the 
Press Corps. In fact, one Marine said, ``I knew that if I got to 
Landstuhl, I would make it.'' Countless others share this sentiment.
    A talented, multiservice nursing leadership team keeps this smooth 
running engine moving forward, always poised for the next potential 
wartime patient surge. Senior Air Force nurses are in leadership roles 
at LRMC. Col Sherry Cox is the imbedded Air Force Chief Nurse, 
providing guidance and direction to a team of outstanding nurses in 
various roles in both inpatient and outpatient roles. Her team found 
that there is a compelling impact on those who care for wounded 
Americans, allies, and even the enemy. As a consequence of prolonged 
exposure to caring for those traumatically injured, healthcare workers 
are at risk for burnout including feelings of detachment, loss of 
compassion, significant physiological stress symptoms and reduced 
morale. LRMC has established a formal program to support the staff and 
encourage the use of healthy stress coping methods. The major aim of 
the program is to increase awareness at all levels to the potential 
risk posed by repeated exposure to combat trauma with early 
identification and intervention.
    The Theater Patient Movement Requirements Center (TPMRC) is the 
pivotal ``behind the scenes'' agency facilitating the AE of combat 
injured troops. As part of the TPMRC team, the Senior Flight Nurse 
Clinical Coordinator, expedited the transfer of six critically burned 
service members after an Improvised Explosive Devise (IED) struck their 
Bradley Fighting Vehicle. Working around-the-clock with the Joint 
Patient Movement Requirements Center (JPMRC) and multiple European 
agencies, the TPMRC expeditiously synchronized the transport of these 
severely wounded troops by a specialized burn team from Brooke Army 
Medical Center (BAMC), Texas. In less than 48 hours from the time our 
heroes landed at Ramstein AB Germany, they were receiving definitive 
treatment at the Military's ``Center of Excellence'' for burns, BAMC in 
San Antonio, Texas.

                      HURRICANES KATRINA AND RITA

    The hurricane evacuations of 2005 uniquely challenged our 
aeromedical evacuation crewmembers (AECMs). AE units and EMEDS from Air 
Force Total Nursing Force supported the evacuations from Hurricanes 
Katrina and Rita while MAJCOM-level staff worked around the clock to 
coordinate and execute the missions. The ANG represented 25 percent of 
all military medical personnel deployed to the disaster areas with 901 
medics for both hurricanes. Despite complex challenges, the teams 
ensured the safe evacuation of 2,609 Hurricane Katrina patients. On 
September 3, 2005, the teams moved 580 litters and 300 ambulatory 
patients, the largest single day of transports since WWII. Over 1,200 
patients were moved in 24 hours before Hurricane Rita made landfall. A 
tremendous amount of orchestration was required between our AE mission 
coordinators and civilian counterparts to ensure the needs of a massive 
number of displaced people were met. AECMs worked extraordinarily long 
hours and loaded patients until they could practically no longer 
physically carry a litter.
    There are many heroes from Hurricane Katrina and the staff of the 
81st Medical Group, Keesler AFB is among them. Lt Col Maureen Koch, 
Flight Commander of the ICU, and her family were among the thousand or 
so military, family members, and patients who sheltered in the 81 MDG 
during Hurricane Katrina. Lt Col Koch's focus was on caring for two 
ICU's ventilator patients and a pregnant woman requiring an emergency 
caesarean section. Personnel quickly converted one ICU room into a 
makeshift operating room and the baby was delivered safely. In 
addition, the medics accomplished many other unprecedented actions. 
They saved 130,000 medical records, erected a portable bedded facility, 
accounted for thousands of personnel after the disaster, built new 
staffing requirements, and re-opened limited primary care services in 
less than one month after the hurricane.
    ANG personnel assisted with the setup of an EMEDS at Charity 
Hospital in New Orleans and training of the civilian staff. 
Additionally, medical professionals from the Mississippi, Alabama, 
Kansas and Delaware Air National Guards erected an EMEDS in Hancock 
County, MS. Forty-nine percent of the patients treated were from 
military organizations (AD, Reserve, Guard) and 56 percent were Non-DOD 
personnel. The ANG provided 68 percent of all immunizations given in 
the surrounding area.
    Hurricane Rita operations, staged out of Beaumont, Texas were 
confronted with preparing and transporting a large number of elderly 
patients with a Category five storm scheduled to make land-fall in less 
than 24 hours. Chief Master Sergeant Rodney Christa, a reservist, from 
the 433 AES, Lackland AFB TX, was appointed to the on-scene Command 
Element for both hurricane evacuations. Chief Christa stated, 
``Although the number of patients we had to transport was greater for 
Hurricane Katrina, Hurricane Rita was more stressful because the storm 
was bearing down upon us. Time was critical. Hospitals, nursing homes 
and private citizens were literally driving up by the busload to our 
doorstep. We had no idea what to expect; we received patients on 
ventilators, those needing dialysis and newborns. All needed medical 
care. At one point, I thought we were going to have to leave medics 
behind to remain with patients and ride out the hurricane. The patients 
were arriving faster than we could airlift them to safety. With 
teamwork, we were able to get everyone on the last aircraft available 
before the winds were too strong to allow us to take-off.''
    On September 22, 2005, an ANG crew from the 167th AES led by flight 
nurse, Major Jay Sandy, from Andrews AFB, MD, launched a C-5 Galaxy to 
Beaumont, Texas, to evacuate 117 incapacitated nursing home and 
hospitalized patients. During the flight to Dobbins AFB, they 
experienced several medical emergencies that were rapidly stabilized 
in-flight due to the highly experienced medical team. The Georgia Civil 
Defense Team of 100 volunteer physicians, nurses, and other personnel 
assisted with the offload and management of the evacuees. This mission 
was successful due to the superior leadership, professionalism, 
teamwork, and medical expertise of all involved.

                           CLINICAL SUCCESSES

    Air Force Nursing Services is globally engaged, at stateside and 
overseas locations, in the enhancement of patient care outcomes through 
outstanding initiatives. In fiscal year 2005, we supported 1.2 million 
TRICARE Prime enrollees and over 66,000 TRICARE Plus enrollees 
throughout the world. Currently, we have 19 Air Force hospitals and 
medical centers and 56 clinics. We would like to share some of our home 
station clinical successes.
    As you well know, the Family Advocacy Program's purpose is to 
prevent and treat family maltreatment. Mrs. Mary Fran Williamson, a 
civilian Family Advocacy Nurse at Offutt AFB, led the development of 
nursing practice guidelines to use for the care of family maltreatment 
cases and in the prevention of abuse. These guidelines recommend 
appropriate nursing interventions and were incorporated into the Air 
Force Parent Support Program, accessible via the internet-based Family 
Advocacy website.
    Our partners in the Reserves spearheaded the first-ever DOD-wide 
video teleconference on Sexual Assault Answer. Lt Col Susan Hanshaw, a 
Reserve nurse assigned to the Armed Forces Institute of Pathology 
(AFIP), serves as the consultant to the Assistant Secretary of Defense 
for Health Affairs. In this role, she co-authored the DOD policy for 
sexual assault and directed the AFIP-sponsored Sexual Assault Response 
Team (SART) Training Program.
    In one of our overseas locations, at Kaiserslautern Military 
Community (KMC), Germany, they are overhauling their primary care 
services. A unique feature of this endeavor is the establishment of a 
Women's Health Center, spearheaded by a Women's Health Nurse 
Practitioner, Major Elizabeth Decker. The goal of the Center is to 
improve access to care for women throughout the KMC, including active 
duty, dependents, DOD's teachers and civilian contractors. One 
highlight will be a specially designed ``Comfort Room'', specifically 
to support sexually assaulted victims. It will provide a soothing 
environment away from the emergency room for privacy and counseling.
    On another continent, Independent Duty Medical Technicians (IDMTs), 
TSgt Steven Yates and TSgt John Strothenke from Eielson AFB, Alaska 
deployed in support of the Joint POW/MIA Account Command (JPAC) 
mission, which recovered the remains of 19 service members in the last 
calendar year. In addition, IDMTs supported forward-stationed 
detachments in Laos, Vietnam, Thailand and Cambodia by providing 
influenza vaccines, conducting Self Aid and Buddy Care classes, and 
giving Avian Flu awareness briefings. JPAC IDMTs assisted active duty 
physicians in Laos and Cambodia in conducting Medical Civic Action 
Programs (MEDCAP) for local villagers assessing and treating a wide 
variety of jungle ailments.
    As the Department of Defense expanded its global reach, it became 
evident that understanding other cultures and languages is paramount. 
For several years, the Air Force Nurse Corps supported the development 
of cultural awareness and linguistic expertise through various 
humanitarian relief and military operations. Through the International 
Health Specialist (IHS) Program we gained access to countries that are 
otherwise somewhat inaccessible. Major Stephanie Buffet, an IHS nurse, 
currently working for the CENTCOM Surgeon General, played a pivotal 
role in the Air Force's response to medical issues in the ongoing 
Pakistan earthquake relief efforts. She advised the Task Force 
commanders on building healthcare capacity with the Pakistan medical 
system and served as a liaison with the civilian and host nation 
response agencies.
    A1C Stella Bernard, a medical technician in the Pediatric Clinic, 
from the 9th Medical Operations Squadron, Beale AFB CA, was a member of 
a 13-person medical team sent to Asuncion, Paraguay. She served as a 
Spanish interpreter as well as a medic. During their 10-day mission 
over 7,800 Paraguayans were treated with medical, dental, and 
preventive health services. A1C Bernard described this experience as 
``priceless''.
    Lt Col Diep Duong, a graduate of an AF-sponsored doctorate degree, 
directly supported multiple international medical missions. She 
established personal and professional relationships with senior medical 
leaders and U.S. defense attaches in Vietnam, Cambodia, and Laos. She 
led a 5-member multi-service medical team to Phnom Penh, Cambodia. Team 
members screened and treated 1,205 patients, delivered six babies, 
completed 263 prenatal visits, filled 2,378 prescriptions and 
distributed over 2,000 bed nets. An important component of this mission 
was collaboration between the United States, Cambodian and Cham Muslim 
health care providers to ensure appropriate and culturally sensitive 
delivery of health services to local women and children.
    Air Force Nursing Services made an impact at the national-level as 
well. In May 2005, the American Association of Critical Care Nurses 
(AACN) recognized the CCATT nurses at the 59th Medical Wing for 
Excellence in Clinical Practice, Non-Traditional Setting. This award 
reflects the contributions of the entire team from the field medic to 
the tertiary care centers. In March 2006, the American Academy of 
Ambulatory Care Nurses presented national level awards to two AF nurses 
at their annual conference. Major Christine Taylor, from Dyess AFB won 
the Outstanding Nurse/Clinical Excellence Award and Lt Col Carol 
Andrews, from Randolph AFB won the Outstanding Nurse/Administrative 
Excellence Award. The Air Force Affiliate of the National Nursing Staff 
Development Organization (NNSDO) was awarded the prestigious NNSDO 2005 
Affiliate Excellence in Quality Program and competed as a finalist for 
the Chief of Staff Team Excellence Award.
    Our influence is also evident at the state level. A clinical nurse, 
Captain James Gabriel, received the Governor's Alaska Council on 
Emergency Medical Service (EMS) Award/Melissa Ann Peters Memorial 
Award. He orchestrated a benchmark Emergency Medical Technician (EMT) 
training program, which is now a model for the Interior Alaska Region 
Emergency Medical Council. Lt Col Roseanne Warner, a Family Nurse 
Practitioner from Cannon AFB, was the recipient of the American Academy 
of Nurse Practitioners New Mexico State Award for Excellence.

                        RECRUITING AND RETENTION

    As you can see, Air Force Nursing Services is globally engaged, 
making recruiting and retaining nurses one of our top priorities 
especially with the national nursing shortage. On the civilian-nursing 
front, the Bureau of Labor Statistics reports that jobs for registered 
nurses will grow 23 percent by 2008. Nurses are entering the workforce 
at an older age with new graduates averaging 31 years old.

                           SKILL SUSTAINMENT

    Col Florence Valley, Chief Nurse at the 332nd Expeditionary Medical 
Group, Balad AB, Iraq, stated, ``when the Air Force Nurse Corps goes to 
war it brings inpatient nursing and aeromedical evacuation skills. 
These are our primary contributions to the war fighter.'' Great strides 
have been made to ease the transition from home station to warfront 
nursing care. For example, Wilford Hall Medical Center (WHMC) and the 
Air Force Theater Hospital (AFTH) in Balad have similar nursing 
requirements, which minimizes spin-up time. We credit this to the 
nurses' current inpatient care experience and to the continuous 
improvement of pre-deployment training.
    I agree that the best way for nurses to maintain currency and to be 
effective in deployed settings is to have recent hands-on experience as 
inpatient clinical nurses. Maintaining our basic technical skills while 
working in areas where the skills are not used regularly, led to an 
updated policy on nurse utilization. Recently, I released a policy 
mandating that nurses working in outpatient and non-clinical roles will 
be required to complete a minimum of 168 hours annually on the 
inpatient units annually to maintain their skills. We believe that 
bringing seasoned clinicians back to the bedside will not only provide 
a more robust technically-ready force, but will also provide a setting 
of mentorship for our less experienced nurses.
    Our senior leaders are already engaged, emphasizing clinical 
operational currency and expertise. Numerous VA Training Affiliation 
Agreements (TAAs) allow nurses to rotate to inpatient wards, 
maintaining their clinical skills. According to Lt Col Martha Johnston, 
Chief Nurse at the 377 MDG at Kirtland AFB, ``The nurses love it!'' The 
377 MDG plans to expand the program to include the aerospace medical 
technicians.
    Due to the unique missions at Balad, WHMC added the Defense Medical 
Readiness Training Institute's (DMRTI) Emergency War Surgery Course to 
their pre-deployment training to familiarize nurses with Balad-specific 
surgical procedures and care. Additionally, the nursing staff attends 
the Emergency Nurse's Association's Trauma Nurse Core Course (TNCC), 
which standardizes the approach to patient assessments. Finally, WHMC 
nurses attend a burn management course at BAMC.
    The criticality of patients seen in deployed areas significantly 
changed our definition of skills sustainment training requirements. To 
meet the needs of our deploying nurses, we are increasingly using the 
Center for Sustainment of Trauma and Readiness Skills (C-STARS) 
training platform. The goal of C-STARS is to produce medics ready to 
respond to any peacetime or wartime contingency through intense 
clinical immersion. Training is augmented by participation in trauma 
scenarios based on actual wartime medical missions using high-tech 
human patient simulators programmed to respond realistically to medical 
care. Not surprisingly, nurses who attend advanced training platforms 
such as C-STARS report an easier transition to the deployed 
environment. One of our deployed nurse anesthetists, Major Brent 
Mitchell believed that without C-STARS training, he wouldn't have been 
nearly as effective.
    The Uniformed Services University of the Health Sciences (USUHS) 
Graduate School of Nursing (GSN) Master Programs developed academic 
initiatives for the enhancement of ``Go-to-War'' Skill Sets of Advanced 
Practice Nurse. Some of these courses include Advanced Trauma Care for 
Nurses (ATCN), preparing students to function in operational 
environments and a Registered Nurse Surgical First Assistant, 
optimizing surgical outcomes.
    The GSN Masters Program 2005 fall enrollment was at an all time 
high of 140 students. Over the past twelve years, Air Force nurses 
comprised 41 percent of the overall enrollment and specifically 
contributed to 43 percent of the Peri-Operative Clinical Nurse 
Specialist track. Since 1996, 62 percent of the CRNAs were Air Force 
graduates and we are proud that our Nurse Anesthetists once again had a 
100 percent pass rate on the National Certification Exam. The three Air 
Force Doctoral Studies students are currently preparing for qualifying 
exams and grant proposals. Colonel Lela Holden, a part time doctoral 
student, is also moving into the dissertation phase of her program.

                                RESEARCH

    Air Force nurses continue to remain at the forefront of operational 
research. Their work expands the state of nursing science for military 
clinical practice and infuses research into evidence-based practice. Lt 
Col Laurie McMullan, a nurse anesthetist forward deployed with the 447 
EMEDS, employed the findings of a Navy research article on the ``Effect 
of Needle Size on Success of Transarterial Block''. She performed this 
short-needle regional anesthetic block on five Army soldiers requiring 
upper extremity surgical procedures, offering alternative anesthesia 
with a successful post-operative pain relief. We thank the Navy for 
their research, which allowed this Air Force nurse anesthetist to 
provide outstanding combat anesthesia to Army soldiers.
    Other crucial areas of research being examined by Air Force nurses 
include Deployment Health, Sustaining Competencies, Military Practice 
Outcomes and Recruitment & Retention. Lieutenant Colonel Theresa 
Dremsa, a nurse at WHMC, is one of the Air Force's leading operational 
researchers and her current focus is to measure CCATT nurses' 
preparation for deployment. Her study examines the experiential 
knowledge of CCATT nurses in the care of critically ill or injured 
patients in a high-risk deployed setting. The results will be used to 
guide clinical practice in the future.
    As large numbers of deployed members return home we must remain 
adequately prepared to help these veterans and their families with 
reintegration. Though return from deployment can be a happy occasion, 
homecoming can turn into a stressful event for troops and their 
families who are not alert to the impact of changes that occurred 
during separation. Unidentified and untreated PTSD puts them at higher 
danger for maladaptive responses to stress such as alcoholism and 
domestic violence. Colonel Deborah Messecar, from the Portland ANG, is 
conducting a study to explore the experiences of ANG military families 
with reintegration and identify resources and strategies to assist 
them.
    Disasters around the world over the past year have also emphasized 
the need to find ways to help affected military families. Research by 
Colonel John Murray, Consultant to the Air Force Surgeon General for 
Nursing Research, helped explain the consequences of disasters on 
children and provided the field with a framework to guide further 
research and clinical practice.

                             OUR WAY AHEAD

    Several major events continue to shape our future. The Air Force 
transitioned to an expeditionary mission and now deliberately prepares 
our Airmen through aggressive Force Development policies and programs. 
In his 2004 letter ``Developing Expeditionary Medics--A Flight Path,'' 
former CSAF, Gen John Jumper tasked the AF SG to ``complete a 
comprehensive review of the medical group structure for our garrisoned 
and expeditionary medical groups.'' We have since developed a new 
Flight Path to guide our organizational structure and the development 
of our clinical discipline. The Flight Path guides more deliberate 
development for Nursing Services, placing the member in the right job 
at the right time, setting them up for career success and personal 
satisfaction while maintaining expertise at the frontlines of patient 
care.
    The results of the BRAC mark a dramatic shift in DOD and Air Force 
healthcare capitalizing on multi-service markets, joint and interagency 
facility use, and civilian healthcare agreements. Air Force Nursing 
Services is already preparing for the many BRAC-related challenges by 
finding alternate inpatient platforms to train and sustain nursing 
personnel and by determining the right composition of active duty 
``blue suit'' nursing requirements. We continue to evaluate our bottom-
line deployment-driven Critical Operational Readiness Requirements 
(CORR) and use market availability along with cost data to recommend 
appropriate civilian conversions. The Nurse Corps plans to target 
company grade outpatient and maternal-child care positions for 
potential conversion while maintaining active duty nurses for inpatient 
platforms and other key career development positions.
    Along these lines, the results of the 2001 Air Force Surgeon 
General-directed Nurse Corps Top Down Grade Review (TDGR) continue to 
guide our actions as we strive to balance our company grade and field 
grade authorizations. We remain optimistic that our course of action 
will help improve overall promotion opportunity therefore increasing 
the retention of our experienced nurses. We've successfully increased 
field grade requirements for deploying nurses and are taking steps to 
lay-in more senior clinicians at home station.
    Mister Chairman and distinguished members of the Committee, it is 
an honor and a privilege to lead the men and women of our active, 
reserve and guard Nursing Services. My objective for this presentation 
was to provide you with a glimpse of the extraordinary men and women 
that make up Nursing Services and the exceptional work they are doing 
daily in the service of their country. I look to the future 
optimistically and desire your continued support during the exciting 
times ahead for nursing and our Air Force. Thank you for inviting me to 
tell our story.

    Senator Stevens. I thank you very much for your statements. 
I'm a little bit hesitant to ask questions, in view that I'm 
sitting here with the father and mother of the nursing corps of 
the Department of Defense. So they really have put in a lot of 
time, and, I must admit, a great deal more than I have. I do 
want to ask a couple of questions, though. I'm told the Army is 
short about 320 nurses. And you've heard, I believe, the 
conversation we had with the prior panel about the possibility 
that we might consider unification. Would unification help your 
corps at all? Would you tell me, General, and then Admiral and 
General?
    General Pollock. Yes, I think that a joint unified command 
would help us. It provides more opportunities for the nurse 
corps officers because of the different platforms that we do 
have across the services. And it will also, I believe, be a 
retention tool, because there are times during our career that 
there are issues with our other families, our nonmilitary 
families, our families of origin, our siblings, where we feel a 
need to be closer to those families. By expanding the 
assignment locations, we would be able to offer them more 
variety across the Nation for locations, and then also retain 
them.
    Senator Stevens. I know some women that I've talked to in 
the past don't like to fly. Others would not want to serve on a 
ship. Would unification give you problems with regard to the 
platforms that they might have to work on?
    General Pollock. If I were in charge of planning it? No, 
sir. Because I think that we've chosen a particular uniform. 
And that would be our first emotional obligation, was to the 
organization that we had started with. But by giving people 
some flexibility, our younger staff are often very curious, and 
they're looking for new experiences in new locations. And 
having that as an option, not a mandate, would help us.
    Senator Stevens. Admiral.
    Admiral Bruzek-Kohler. Thank you, sir. Yes, I think nurses, 
historically, have been able to informally make sure that the 
kinds of training and the kinds of experiences they need across 
the services and with our other agencies--in particular, with 
the VA and the public health--have always helped us to sustain, 
maintain, and grow. Having a unified medical command brings 
down the walls that help us to do that in a more effective and 
efficient way. I often say that the best retention tool I could 
have would be offering orders to Tripler to my Navy nurses.
    I'm the first one in line to get a set of those orders.
    So, absolutely, I think the possibilities for us, as corps 
chiefs and for all of our nurses, would be greatly enhanced by 
a unified medical command.
    Senator Stevens. General Rank.
    General Rank. Sir, I mentioned in my testimony that there 
are already opportunities where we are side by side together. 
We are at Landstuhl with the Army. They are in Balad with us. 
And we have continued to offer, where they are short; and they 
have offered to us, where we are short, to work side by side in 
our inpatient platforms where we are critically manned.
    We are on an Air Expeditionary Force (AEF) cycle of 120 
days, where we go to the U.S. Central Command Area of 
Responsibility. I, like my sister from the Navy, would love to 
be able to keep our unit type code (UTC) together, but find 
platforms in the Army and the Navy that keep us current. I 
would love to lay nurses into places like Balboa and into 
Tripler. We are working, already, on that endeavor, with Walter 
Reed. And, as I mentioned before, we already have laid in staff 
for Landstuhl, with an Air Force chief nurse working side by 
side with the Army.
    We are doctrinally different, and we train for care in the 
air, and we train for contingency air medical staging flight 
support. The Navy and the Army also are doctrinally different. 
But I think that we can work through all of our clinical 
platforms side by side, green, black, and blue together, and 
know what our heritage was, and work together with our heritage 
still blue, black, and green.
    Senator Stevens. I hesitate to ask this--I'm the father of 
three sons and three daughters, so I would ask it advisedly--
has there been any reluctance on the part of nurses to be 
deployed into the war zone?
    General.
    General Pollock. I think there's reluctance always to have 
new experience. And certainly that is one that they know is 
very intense. I think that they're more concerned about the 
length of time that they're deployed, sir, because what they do 
is different than what the infantry and the armor and the other 
military members do, because each day that the nurses and 
medics and physicians are serving in those combat hospitals, 
every day they're dealing with an injured soldier or marine or 
airman or sailor. They don't have any relief from that. And as 
they express it to me, ``Ma'am, we're willing to go. We know 
they need our help, and we want to be there. But a year is just 
wearing us down.'' So, I don't think that it's their--that 
they're afraid to go, because once they're there, they 
understand how valued they are by that community and how their 
loving and touching hands make a huge difference, but the 
duration of time that we're asking them to go now is really 
very, very hard on them.
    Senator Stevens. Have there been more deployments from any 
one of the services, as opposed to the other, into the war 
zone? Which of your services have sent more nurses into the war 
zone?
    General Pollock. Sir, I would say that the Army has--we--
we're the primary ground force. It's been a ground operation. 
We have had some support from both the Air Force and the Navy, 
but the majority of work is being done by the Army nurses.
    Senator Stevens. Here again, unification might give you a 
larger reservoir of people to rotate, correct?
    General Pollock. I would be very grateful if we were able 
to balance the rotations among all of the specialists that are 
required, so that people did not need to deploy a second time, 
until they knew that their colleagues that had the same 
competency and same skills had also deployed.
    Senator Stevens. Admiral----
    General Pollock. That would be a huge morale booster.
    Senator Stevens. Pardon me. Admiral, what's your feeling?
    Admiral Bruzek-Kohler. Well, I'd like to agree that the 
Army has given us the largest volume of nurses in the 
battlefield. Navy nurses have--however, if you recall, are with 
the marines, as well as with our fleet, so our--although not 
always in war, they are with our sailors and marines throughout 
the year in many short-term deployments, as well. I'd like to 
illustrate it simply with a phone call that I made about 2 
weeks ago. I was told that one of our Navy nurses is in Iraq 
and was injured by some shrapnel, not seriously, thank the 
Lord. When I talked to her, via telephone in Iraq, she was able 
to convey to me how important it was that she be where she was. 
She's the mother of five children, and a husband who's Active 
duty, as well. She had been offered, immediately after her 
treatment, and was offered by myself, to come home, and she 
said, without quivering, ``Absolutely not.''
    I will tell you that everywhere I go, our Navy nurses want 
desperately to serve with our marines and with our sailors. 
That's why we put the uniform on, that's why we are here. Do we 
like being away from our families for a year? Absolutely not. 
Do we understand why that is an important thing that we do? 
Absolutely.
    Senator Stevens. General.
    General Rank. As our personnel get ready to deploy, there 
is trepidation. It's trepidation about leaving the known, 
trepidation about what--how safe they'll be while they're 
there, trepidation about leaving their family behind. But there 
hasn't been a single nurse or medical technician that hasn't 
returned and provided an account to me in our Nightingale News 
every week when we put out our updates to what's happening in 
the nursing services that when we ask anyone, ``What was the 
highlight of your career?'' they tell us, ``It was when we 
deployed. It was when we were far forward. It was taking care 
of the injured.'' So, they do return rejuvenated and--with what 
they've just done, and it is their most memorable experience.
    In 2003, 407 of our nurses deployed; in 2004, 261; and in 
2005, it was 394. Our inventory is 3,675. Only 11 percent of 
our nurses have been able to go to the U.S. Central Command 
Area of Responsibility. Granted, some of these skills are high-
demand, low-density, but there is not a nurse, as I move 
through the Medical Treatment Facility (MTF), that doesn't say 
to me, ``I want to deploy, and I'm ready to deploy.'' And we 
have laid in, in our UTCs, as I mentioned in the testimony, 
more seniority, so that it's not just our captains going, over 
and over again; now our majors can go, and now our lieutenant 
colonels can go.
    And I would say of our relationship together, give us a 
mission, give us one of your missions, like we are doing in 
Balad, and we will do that mission, and stand proud to do that 
total mission.
    Senator Stevens. Well, thank you all very much. I have 
another appointment. I'm going to ask the co-chairman if he 
will continue this hearing.
    Thank you very much.
    Senator Inouye [presiding]. Thank you very much.
    All of the services have not been able to meet their 
recruiting goals. And I think that's understandable, because 
the nursing shortage is a national problem. I just read the 
report of the American Association of Colleges and Nursing that 
reported last year there was an increase in enrollment for 
entry-level baccalaureate programs in nursing, by 14 percent; 
however, at the same time, they turned away 32,000 qualified 
applicants. With that, we won't be able to solve the problem. 
Do you have any suggestions as to anything we, in the Congress, 
can do to work on this national shortage?
    General Pollock.
    Admiral Bruzek-Kohler. I think that one of the most 
important things that we all need to recognize is the 
importance of the role of the nurse. We need to market the 
expertise, the care at the bedside, the care of family that is 
unique to the profession of nursing. You do not see that in 
other types of care. I think they need to be incentivized to be 
able to make that a profession, as well as a part of a 
lifestyle for those wanting to raise a family or to get an 
education and further their careers.
    This year, in the Navy, we have instituted as many of the 
opportunities afforded to us with our loan repayment programs, 
but, most importantly, we have pipeline programs within the 
Navy, so that we give an opportunity to our enlisted staff to 
become nurses, and we are depending more and more on that 
population for the health and the breadth of the Navy Nurse 
Corps. I believe that our direct accessions in the future need 
to be more pointed toward those with specialties, as opposed to 
our new graduates. Again, when you look at the wartime skill 
sets, we don't train enough critical care nurses, we don't 
train enough perioperative nurses. I need to bring them in, I 
need to get them hitting the deck, and I need to get them 
providing that kind of care as quickly as possible. So, we need 
to be able to incentivize bringing in nurses with more 
seniority in the civilian practice, rather than those who are 
looking at this as a future, as a new graduate.
    Senator Inouye. General Pollock.
    General Pollock. Thank you, sir.
    I think that the profession of nursing continues to 
struggle, because they've not completed a transition that was 
started in the early 1970s. Other professions are recognized 
for their college entry into that profession. And until nursing 
across the Nation completes that transition, which it started 
then, we will continue to not be well recognized as 
professionals. And with the opportunity that men and women have 
now, they're selecting professions that will provide a better 
lifestyle and a better income for their families. So, dealing 
with the lack of respect that nurses have in the Nation is an 
integral step to solving the nursing shortage.
    Another piece is the low salary and high demands that are 
placed on the faculty members at the universities, because when 
people have an option of being a faculty member or working in 
another facility as a nursing executive, because they're 
master's or Ph.D. prepared, very few are opting to take that 
lower salary, that lower respect afford in the academic 
community. They're selecting where they can lead and mentor 
nurses in other areas.
    Those issues must be addressed nationwide in order for us 
to be successful in the future as nurses.
    Senator Inouye. General Rank.
    General Rank. General Pollock and Admiral Bruzek-Kohler 
just said everything I was about to say. I would ask, Senator, 
if there is any way for us to establish more publicity for 
healthcare careers at the health affairs and congressional 
levels. That would certainly help, beyond a recruiting effort, 
to bring some of the nurses to us. But I ditto what my 
colleagues have said about the nursing shortage, in that it's 
pervasive and carries over into our services.
    General Pollock. Sir, I'd like to make one more comment 
about that and the need that we will have for those educated 
nurses with entry at a baccalaureate and proceeding on for a 
master's and Ph.D. work. The research over the last 5 years 
strongly indicates that patient safety and patient outcomes are 
far better the higher the education level of that nurse that's 
caring for them. So, as we look at the needs and the complexity 
of the patients that are presenting now, it becomes even more 
critical that we address the failure of the universities to be 
able to bring in the faculty that they need so that we can care 
for the citizens of our country.
    Senator Inouye. I've always contended that pay plays an 
important role in recruiting. It's a fact of life. And there's 
another factor, in this case, where the nursing profession 
appears to be female-dominated. And this is a man's world, 
unfortunately. And the male gets a better pay scale than the 
woman. Now, in the civilian nursing community, there are not 
too many men working as nurses. What is the proportion, in the 
Army, of men?
    General Pollock. Sir, the Army Nurse Corps is 32 percent 
male, compared to less than 5 percent in the civilian 
community.
    Senator Inouye. And for the Navy?
    Admiral Bruzek-Kohler. Thirty-seven percent, sir.
    General Rank. Twenty-five percent male, sir.
    Senator Inouye. What can we do to encourage more male 
participants in the nursing programs? Because then the pay 
scale will go up?
    Those are the facts.
    General Pollock. I think that some of the public-service 
announcements that have been done by Johnson&Johnson in their 
nursing advertisements across the Nation have been focusing on 
males. It's been relatively easy inside our organizations, 
because our enlisted soldiers, again, are primarily male. They 
see what military nurses do, and they make that commitment to 
then complete their education and be a member of one of our 
corps. So, getting more of the men out, which all of us are 
doing through our recruiting efforts, helps to let the other 
men in the communities know that may have been concerned, 
``Gee, I'll only be such a small portion of the percentage of 
nurses,'' that there really are organizations in which they 
have a large place.
    Senator Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman--or Mr. Acting 
Chairman. I don't know if that's a battlefield promotion you 
just got here today.
    You can see, from Senator Inouye's questions, why we just 
so admire him and the chair who's serving with him.
    Senator Inouye, you should know that not only is Maryland 
the home of medical medicine, but two of our generals graduated 
from the University of Maryland School of Nursing. And----
    Senator Inouye. Oh, really?
    Senator Mikulski. General Kohler, I guess we have to give 
you an honorary something-or-other.
    And General Rank actually was born in Frostburg, Maryland, 
Garrett County, the Switzerland of Maryland. So, there is 
something----
    General Rank. Allegheny.
    Senator Mikulski [continuing]. Excuse me--Allegheny--there 
is something that's a magnet here.
    I'd like to pick up on the nurse education issue that 
Senator Inouye raised. And the point that he made, all of the 
issues about attracting people to the career of nursing are 
right--respect, pay, et cetera. But I have a little advisory 
board of the nine deans of nursing of the 4-year programs in 
Maryland, the dean of the University of Maryland and Johns 
Hopkins, and then other 4-year programs. And what they, of 
course, tell me is, they are now turning away--the issue of not 
being interested is no longer so--they're now turning away 
people who want to come to nursing. They identify the lack of 
graduate faculty and the lack of clinical training 
opportunities, the hands-on that, of course, is the hallmark of 
the field.
    And I think this is a national crisis. We have the civilian 
crisis, which would transfer to your ability, because you're in 
a war for talent, in addition to the global war on terrorism, 
so you're going to the same pool, so it's magnified for all of 
the stresses that you've just said. So, my question is: What is 
the role of the military? Because when we want to do an intense 
program, we tend to do it. What is it we could do? Do you think 
we could be looking at focusing on training, getting ready for 
some special accelerated or expanded program to get people to 
go to graduate school, with the understanding that they would 
go into nursing education? Should we use USUHS? Should that be 
the military academy for nursing educators to then train 
nurses? Should we expand the USUHS model? Should--you know, we 
graduate about 1,000 midshipmen; how do we graduate 300 to 500 
nurses a year? And is USUHS one of the ways of doing this? And 
also to take out of, as you said, the pipeline, some of your 
really talented people who want to make not only military a 
career, but as they transit, say, from battlefield or TRICARE, 
they would love to be nursing educators. What's your thoughts 
on that? Is USUHS something, or are there other linkages that 
the military could have with our civilian sector for nursing 
education? And should our military bases and military medicine 
be the source of clinical opportunities for people? So--you 
tend to go with what you know--so, if your clinical is at 
Maryland or Mercy Hospital, you tend to stay there, almost like 
the so-called 3-year girls. You remember that. And--but if they 
were in the military, that would also be part of your 
attraction, the way General Taylor and others talked about 
recruiting. What do you think? Or am I off the wall here?
    General Pollock. In the past, ma'am, the Army Nurse Corps 
had run a full baccalaureate program. That program was closed 
in 1978. That was the Walter Reed Army Institute of Nursing 
Program. At current strengths, I would not be able to manage 
that mission and do the other missions that we have, both at 
home and around the world.
    Until we're able to figure out where we can draw the 
faculty from, even if USUHS was willing----
    Senator Mikulski. What I'm asking you----
    General Pollock [continuing]. We wouldn't be able----
    Senator Mikulski [continuing]. Where could we play a role 
in developing the faculty to then expand it, where we keep--
unless we crack the faculty problem, both in the civilian and 
in the military sector--and I'm looking at cracking it from the 
military standpoint, that the military would have its own 
faculty cadre----
    General Pollock. Ma'am, I've had a Strategic Issues Working 
Group working on the education piece for me. What I'd like to 
do is provide you a written response of----
    Senator Mikulski. Good, why don't we do that.
    General Pollock [continuing]. Recommendation----
    [The information follows:]

    Each year, thousands are denied entry into baccalaureate nursing 
programs due to faculty shortages. The fiscal year 2005 National 
Defense Authorization Act recommended the creation of a Nurse Officers 
to Educators Program to address this issue. A complicating factor 
related to this issue is a concomitant national shortage of nursing 
faculty. A 2005 American Association of Colleges of Nursing survey 
reported 817 faculty vacancies nationwide, with 77 percent of those 
positions requiring both classroom and clinical teaching. The study 
also reported that many schools are not hiring against these vacancies 
due to budget problems. The Army recommends that the three military 
Nurse Corps serve as members of a working group to identify solutions 
to this national crisis.

    Senator Mikulski. Do the other Generals have a comment on 
this? And I'm trying to think out of the box, but I don't want 
to get myself into a new box----
    Admiral Bruzek-Kohler. Yes, ma'am.
    Senator Mikulski [continuing]. You know.
    Admiral Bruzek-Kohler. I think there are--there are many 
innovative ways to approach exactly what you're asking for. And 
I agree with General Pollock that we need an opportunity to sit 
together and provide you some background on the pros and cons 
to many of those. But you did mention the clinical rotations, 
and that is one of the major factors. I've spoken with the dean 
of Marymount not too long ago, and that was one of her biggest 
concerns, that she was not able to get enough faculty--clinical 
faculty working in an institution to train her graduate 
students. So, I think one of the things that we need to work 
more on, along with our sister service and the VA, is to 
determine ways that we can better link up our clinical 
institutions with the surrounding schools of nursing to make 
sure that we're giving them enough opportunity. Because 
sometimes it's just a matter of not knowing the need. We have 
nurse practitioners in most of our ambulatory care clinics. I 
know for a fact that my nurse practitioners would love to be a 
mentor to a graduate student who was going on to become a nurse 
practitioner.
    So, I think if we have the opportunity to provide you with 
some more information, we may come up with some good activities 
for you.
    [The information follows:]

    On an annual basis, the Navy Nurse Corps shapes our 
graduate education training plan based on our health care and 
operational mission support requirements. Approximately 50 
Nurse Corps officers graduate with a Master of Science degree 
in Nursing from accredited universities each year. On average, 
one to two Nurse Corps Officers graduates each year with 
Doctoral Degrees. These Nurse Corps Officers are eligible to 
serve as faculty in our universities and Schools of Nursing 
while on Active Duty, and upon retirement. Eighty-eight percent 
of our Active Duty Nurse Corps Officers with Doctoral degrees 
serve as faculty after normal working hours. Currently 100 
percent of our most recently retired Nurse Corps Officers with 
Doctoral degrees fill faculty positions in national 
universities. The majority of Nurse Corps officers with a 
Master of Science degree in Nursing do not pursue faculty roles 
in Nursing Education for a variety of reasons. These reasons 
are in alignment with current literature related to nursing 
faculty shortages. Navy Medicine currently has a Nurse Corps 
Leader who serves as the military liaison to the Maryland 
Statewide Commission on the Crisis in Nursing.
    Other opportunities to promote and encourage our nurses to 
become involved in faculty roles are available in our Military 
Treatment Facilities (MTF). The Nursing Internship Programs 
utilize our Bachelor's and Master's degree Nurse Corps Officers 
as clinical instructors to orient recent graduates and 
Registered Nurses with minimal clinical experience to the 
profession of nursing. A large percentage of our MTFs and staff 
are involved with undergraduate and graduate Schools of Nursing 
as preceptors and clinical consultants to grow the next 
generation of nurses.
    Many of our Nurse Corps Officers are members and elected 
officials of Sigma Theta Tau International Honor Society of 
Nursing in affiliation with their local chapters in support of 
leadership and scholarship practice. Members are provided 
resources which encourage advanced practice, academia, 
administration and research.
    At the Uniformed Services University of Health Sciences 
(USU) in Bethesda, Maryland, several of our Navy Nurse Corps 
Officers serve as faculty in the graduate programs for 
perioperative nursing, family nurse practitioner and certified 
registered nurse anesthetists. USU is experiencing faculty 
shortages in light of meeting our primary mission involving the 
Global War on Terrorism. Presently, the civilian schools of 
nursing meet our quotas for undergraduate accessions and 
graduate and post graduate programs. Navy Medicine recommends 
expanding the Army's Strategic Issues Working Group into a Tri-
Service working group as a subcommittee of the Federal Nursing 
Services Council. It's mission would include opportunities for 
the services to collaborate with civilian schools of nursing to 
positively impact the issue of the national nursing faculty 
shortage.
    The issues involving the national nursing faculty shortage 
are very complex and multi-layered such as aging faculty, 
faculty salaries and mentoring programs for new faculty. The 
Navy Nurse Corps is committed to continuing to explore 
opportunities that would maximize the use of existing resources 
along with our sister Services and Federal agencies to map the 
future for the nursing profession.

    Senator Mikulski. And one of the things that sometimes 
happens in a clinical situation is, the person who is the 
clinical supervisor, in addition, say, you know, at Mercy 
Hospital with Marymount, or Mercy Hospital with Maryland, they 
can have an adjunct faculty status.
    Admiral Bruzek-Kohler. Yes.
    Senator Mikulski. They like that.
    Admiral Bruzek-Kohler. Absolutely.
    Senator Mikulski. They just like it. It's part of the 
attraction, as you said, and it's part of that family, ``Well, 
you know, we're military nurses,'' and, ``Mom does this,'' and, 
``Mom's on the faculty,'' or, ``Dad's on the faculty.''
    The other is the promotion within--not the promotion, but 
the recruitment within, the corpsman who might want to go to 
nursing school. Like Senator Inouye said, the guys getting into 
nursing. Are there ways that we could enhance it? In other 
words, they've signed up for the military. They've signed up 
for the military lifestyle, and so has their family. So, 
there's nothing new here. But the opportunity to move within, 
is this something that we should look at, enhance, expand, help 
you have other tools----
    Admiral Bruzek-Kohler. Yes, to----
    Senator Mikulski [continuing]. Financial resources?
    Admiral Bruzek-Kohler [continuing]. All the above. Yes, to 
all the above. It is the lifeblood of our nursing services for 
the Navy. We have the Reserve Officer Training Corps (ROTC)--
Navy ROTC program, the STA-21, which is seaman to admiral 
program, the Medical Enlisted Commissioning Program (MECP) 
enlisted program. And without those programs, we would never 
meet our accession goals. They really give us the strength and 
breadth of our nurses for the future. And these are people who 
are committed to the Navy. They are not always our corpsmen, 
they are, across the board, our best and brightest, who want to 
become a nurse, and go through these programs, and then commit 
to a long term in the corps. So, we are looking at increasing, 
in all of those programs, the number of available seats for 
next year. We hope that we can continue to increase those 
numbers.
    Senator Mikulski. You mean, somebody right now who might be 
working as a medical librarian or in another area in the 
military wants to come into nursing.
    Admiral Bruzek-Kohler. Someone maybe on a ship right as a 
cyto----
    Senator Mikulski. Cytologist?
    Admiral Bruzek-Kohler [continuing]. A cryptotech--a 
cryptotech, nonmedically related at all, but had a desire all 
along to be a Navy nurse, applies to the program, meets the 
requirements, and is selected, and will become a Navy nurse.
    Senator Mikulski. General Rank, did you want to say 
anything?
    General Rank. Ma'am, in preparing for testimony, I found an 
interesting fact about our enlisted corps: 24 percent of our 
nurses in the Air Force were prior enlisted; 8 percent came 
from the Air Force and 16 percent from the Army and the Navy.
    Senator Mikulski. See? They're there. They're there in the 
military, and they've embraced it. You know, there is a saying, 
``Mine where there is gold,'' ``Drill where there is oil, as 
long as it's not off the coast of Ocean City.''
    And----
    General Pollock. Ma'am?
    Senator Mikulski. I just think that this offers 
opportunities, but they still have to go somewhere to school. 
And see what we can do about that. I'd like to have further 
conversations or written materials on it.
    The last thing is, has the debt repayment programs made a 
difference? The reason I like debt repayment is, it means 
you've already got yourself through school--you know, you start 
nursing, it might not be for you. So, it means you've not only 
finished it, but you've passed the boards, you know, you're 
ready to go. Has this worked?
    General Pollock. Yes, ma'am.
    Admiral Bruzek-Kohler. Yes.
    Senator Mikulski. Do you like it better than scholarships, 
or you need a mix?
    General Pollock. I'd like both. We have a population that 
likes options and wants alternatives. So, knowing that we can 
offer some--it's almost a cafeteria plan, some of this and some 
of this--is really helpful.
    Ma'am, I'd like to provide one other piece of information 
about our enlisted commissioning program. This year, we funded 
75 soldiers to complete their baccalaureate degree. So, in 2 
years, they'll be available for us. We had 125 applicants, and 
122 of them met all criteria. So, as----
    Senator Mikulski. And why did you only do 75? Is that all 
the money you had?
    General Pollock. Yes, sir--yes, ma'am.
    Senator Mikulski. Well, Senator Inouye, this might be where 
our biggest pool is for recruitment. And we should look at what 
the levels are there and welcome thoughts about how maybe----
    General Pollock. General Kiley----
    Senator Mikulski [continuing]. This is----
    General Pollock [continuing]. Has been assisting us----
    Senator Mikulski [continuing]. An existing pipeline.
    General Pollock [continuing]. In that----
    Senator Mikulski. Excuse me?
    General Pollock. Sorry. General Kiley has been assisting us 
to obtain more money for that, because he knew that we had 
those additional candidates ready to go.
    Senator Mikulski. But I bet we could go to each service, 
and that would be the case. Am I right, that you have now more 
than you can fund? But if we fund them, it's a pretty good bet 
that they'll finish----
    General Pollock. Oh, yes, ma'am.
    Senator Mikulski [continuing]. And stay.
    General Pollock. Yes, ma'am.
    Admiral Bruzek-Kohler. Uh-huh.
    Senator Mikulski. Just one last thing. If, then, after they 
do that, are they still treated like a GS-5, or would they get 
an accelerated promotion?
    General Pollock. No, they're treated like officers, and 
they begin as second lieutenants, the way that the other new 
graduate nurses are begun.
    Admiral Bruzek-Kohler. And it's very interesting, when you 
talk with them. The transition is there, clearly. And the 
longer you've been an enlisted person, the more of a 
transition. But once you become a nurse and you're practicing 
in the field that you've wanted to practice for a very long 
time, they are a Navy nurse. What is important is that 
experience as an enlisted--previously enlisted person is what 
we use then to help teach our other enlisted people, ``This is 
where I came from. This is what you can become.'' So, they 
become, again, a very good recruiting tool, as well as educator 
and mentor for our organization.
    General Rank. Ma'am, the other things I would add is the 
debt repayment program. We love it in the Air Force Nurse 
Corps, because it's a graduated nurse who has a license in her 
hand, and she can go right to work immediately. So, we really 
love that program. And I'm looking at my statistic, that we 
have 25 percent males, and 24 percent of our enlisted corps is 
enlisted. So, I'll have to look at those two to see if it's 
predominantly a male force that came up through the enlisted 
ranks and now is in our nurse corps.
    Senator Mikulski. Well, and, of course, then I hope that 
out of those that are already military nurses, we can think 
about how to help them become faculty, either in the academic 
sense of that word or in some way offer the clinical 
opportunities. And I'll bet it's going to be a bonanza for 
everybody.
    So, let's work together on it, but I think we can make a 
difference. You already are making a difference. And thank you 
very much.
    Senator Inouye. This has been a very interesting 
discussion. And while listening to all of you, I couldn't help 
but recall that a few years ago we decided that cancer was a 
major scourge. And, as a result, the Government and the 
Congress established special subsidy programs for medical 
schools to set up cancer centers for special studies. Now, I 
think the time has come to declare that the nursing shortage is 
a national crisis. And, if that's the case, we can do a lot of 
things that you have suggested, with proper funding from the 
Congress of the United States. It's just as much an emergency 
as we find in anything else. So, I thank you very much for your 
contribution.
    And, if I may, I'll use this for a personal note. Since 
April 1945, nurses have played important roles in my life. And 
I thank them for giving me the hope and the picture of the 
future, the good life. And I'm certain there are thousands, if 
not millions, of others who have spent time in hospitals who 
feel the same way.
    Admiral Bruzek-Kohler. Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Well, thank you all for your testimony.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General Kevin C. Kiley
               Questions Submitted by Senator Ted Stevens

    Question. Have you modified the training you provide your Army 
medics and Navy Corpsmen and other military emergency care providers 
since hostilities began? What is your assessment of emergency care on 
the battlefield?
    Answer. The Army Medical Department has changed the training of 
Army medics based on lessons learned from Operation Enduring Freedom 
and Operation Iraqi Freedom. We have incorporated these changes into 
the Army's Initial Combat Medic training at Fort Sam Houston, Texas and 
at new Medical Simulation Training Centers at major Army installations. 
We have also used these lessons to train deploying physicians, 
physician assistants and nurses.
    Some examples of these changes including improving the medic's 
training in managing patients with hypothermia; the use of tourniquets 
and hemostatic agents as the primary means of controlling bleeding; the 
use of endotracheal intubation and nasopharyngeal airway for airway 
management; and training in medical support to detainee operations.
    Feedback on the quality and effectiveness of battlefield emergency 
care from returning units is very positive. The statistics of 
battlefield mortality are the lowest in any previous conflict in which 
our country has been involved. The major causes of death on the 
battlefield have remained unchanged since the Civil War. These are: 
penetrating head trauma, massive torso trauma, blast trauma, hemorrhage 
from extremity wounds, tension pneumothorax, and airway difficulty. Of 
these injuries, Combat Medics significantly impact extremity 
hemorrhage, tension pneumothorax, and airway difficulty. Based on data 
from Vietnam and trauma data from Operation Iraqi Freedom/Operation 
Enduring Freedom, we employed new training methods that encompass the 
types of wounds and the danger of the combat environment.
    In addition to Soldier Medic training, the Army's Self-Aid/Buddy-
Aid skills training for every Soldier has also been revised, also 
focusing on the preventable causes of death on the battlefield. A new 
Combat Lifesaver Course incorporates many of the principles used in 
training Combat Medics. The combination of these training programs 
allows more medical skills to be available on the battlefield to save 
Soldiers' lives.
    Question. How successful were you in meeting your mission 
recruiting goals for this past year? Are there any specialties that 
have seen a drastic decline in retention?
    Answer. The Army Medical Department and United States Army 
Recruiting Command (USAREC) had varying degrees of success in meeting 
our recruiting goals for fiscal year 2005. We achieved 99 percent of 
our Medical Corps goal, 84 percent of our Dental Corps goal, 100 
percent of our Medical Service Corps goal, 83 percent of our Army Nurse 
Corps goal, 110 percent of our Veterinary Corps and 151 percent of the 
Specialist Corps goal for individuals entering on to active duty. For 
the first time, we experienced difficulty in recruiting to 100 percent 
of our Health Professions Scholarship Program (HPSP) allocations. 
USAREC is working hard to ensure that this is not the start of a trend.
    Retention of our fully trained force is a priority. While increases 
in incentives have helped, we still have retention challenges. 
Specifically, we are closely monitoring Anesthesiology, Pediatrics, 
Family Practice and Emergency Medicine. We have also seen a decline in 
Physician Assistants and all Nurse specialties.
    Question. What are you as a service doing to try and address these 
critical shortfalls? How do you carry out the medical mission at home 
and abroad with a decline in recruiting and retention of specialty 
medical personnel?
    Answer. The National Defense Authorization Act for Fiscal Year 2006 
granted temporary Recruiting Incentives Authority for up to four new 
programs that should assist with the Army recruiting mission. One of 
these programs, the Recruiter Incentive Pay (RIP), will provide 
monetary incentives for AMEDD recruiters to exceed their missions. RIP 
has been approved and is expected to begin in June 2006, after the 
mandated 45-day waiting period.
    Another new program under review is the Officer Accession Bonus, 
which includes an additional monetary incentive for AMEDD applicants. 
This bonus would offer an immediate show of good faith and expedite the 
acceptance process. This program is expected to begin this summer or at 
the beginning of fiscal year 2007.
    Additionally, we are pursuing a critical skills retention bonus for 
the physician assistants. We are pursuing incentive special pay for 
certain nurse specialties. We increased the incentive special pay for 
nurse anesthetists. We are increasing the nurse accession bonus for 
fiscal year 2007. We are exploring the increase of special pays for 
dentists. We utilize professional officer filler information system 
(PROFIS) personnel to fill shortages/vacancies within deploying units. 
The TRICARE network as well as temporary contracts are then used to 
meet the beneficiary mission.
    Question. There is growing concern with how the Department monitors 
and addresses the emotional and mental health of each returning 
soldier, sailor, airman and Marine from combat. Can you each tell us 
how you are monitoring and treating those that are at risk for Post 
Traumatic Stress Disorder?
    Answer. The Army Deputy Chief of Staff for Personnel (DCSPER) and 
the Army Surgeon General (TSG) share responsibility for the prevention 
and screening for Post Traumatic Stress Disorder (PTSD) for both active 
and reserve component Soldiers serving in the Global War on Terrorism 
(GWOT). The DCSPER is responsible for the Deployment Cycle Support 
Program (DCSP) aimed at Soldiers and family members and TSG has 
oversight of the Combat and Operational Stress Control (COSC) program 
aimed at Soldiers serving in GWOT. TSG also exercises command and 
control over behavioral health services at Army medical centers around 
the world providing treatment for Soldiers with PTSD.
    During pre-deployment, the DCSP provides extensive training to 
Soldiers and family members on the operational and combat stressors and 
ways and means to lessen the impact of deployment and traumatic events. 
DCSP resources available to Soldiers include buddy aid, leadership 
support, chaplaincy services, primary care and behavioral health 
services. Family members are instructed on their roles, 
responsibilities and ways and means by which they may cope more 
effectively, support their deploying Soldier and seek and receive 
support and professional assistance. Soldiers are also introduced to 
COSC concepts and resources to prepare for combat and operational 
stress. Medical and behavioral health personnel are positioned in 
theater for forward prevention and care, to do assessments of unit and 
Soldiers' behavioral health needs, to teach techniques for prevention 
or reduction of acute stress reactions and to help conserve the 
fighting strength of the force by providing short term problem focused 
behavioral healthcare.
    Prior to deployment Soldiers receive a pre-deployment assessment 
which includes a question about mental health. If Soldiers have a 
positive response to the mental health question, they receive a further 
evaluation by a clinician. The final recommendation is based on 
clinical judgment and commander input, which considers the geographical 
area in which the Soldier will be assigned and the potential 
environmental/austere conditions.
    A face-to-face post-deployment health assessment (PDHA) by trained 
healthcare provider during the re-deployment process has been in place 
for several years aimed at identifying and referring Soldiers with PTSD 
symptoms needing professional assistance. Referrals of these Soldiers 
for behavioral healthcare have routinely taken place and early 
intervention to lessen the impact of traumatic experiences has been 
emphasized.
    Beginning in 2006, all active and reserve component Soldiers are 
receiving a face-to-face post-deployment total health re-assessment 
(PDHRA) at three to six months post-redeployment. Specific questions on 
the PDHRA screening aim at measuring the presence and impact of PTSD 
symptoms. Behavioral healthcare providers will be utilized to further 
assess the needs of Soldiers and ensure care is offered. If following 
the re-assessment there are identified healthcare needs, Soldiers will 
be offered care through by military medical treatment facilities, by 
Department of Veterans Affairs' medical centers or VET centers, by 
private healthcare providers through TRICARE, or through community-
based healthcare organizations established by the Army.
    If a Soldier has post-traumatic stress disorder or other 
psychological difficulties, they will be further evaluated and treated 
using well-recognized treatment guidelines. These include psychotherapy 
and pharmacotherapy. They may be delivered in a variety of venues, to 
include in theater and garrison, an outpatient or inpatient setting, 
and individually or in a group.
    Question. How do you determine when a service member who has been 
receiving treatment for PTSD is ready for deployment again? Are once-
deployed soldiers, sailors, airmen and Marines being sent back too 
early?
    Answer. The Army uses multiple screening processes to ensure all 
Soldiers who deploy are capable of performing their duties and do not 
pose a risk to themselves or other members of their unit.
    Prior to deployment Soldiers receive a pre-deployment assessment 
which includes questions about mental health. If Soldiers have a 
positive response to the mental health questions they receive further 
evaluation by a clinician. If the Soldier has symptoms of PTSD on the 
pre-deployment assessment, the symptoms are evaluated and treated by a 
mental health practitioner. A fitness for duty assessment is ordered if 
necessary. The final recommendation on deployment is based on clinical 
judgment of the treating provider and input from the unit commander.
    Research shows that all Soldiers are affected by combat experiences 
and the most seriously affected are those exposed to frequent direct 
combat or the injuries sustained in combat. It is likely that multiple 
deployments will lead to increased symptoms of PTSD. Soldiers with PTSD 
are identified in multiple ways. They may self-identify, be identified 
by the post-deployment health assessment, the post-deployment health 
re-assessment, or be referred by a family member or command. If a 
Soldier has PTSD or other psychological difficulties, they are further 
evaluated and treated using well-recognized treatment guidelines. These 
include psychotherapy and pharmacotherapy. They are delivered in a 
variety of venues, in theater and garrison, an outpatient or inpatient 
setting, and individually or in a group.
                                 ______
                                 
          Questions Submitted to Vice Admiral Donald C. Arthur
               Questions Submitted by Senator Ted Stevens

    Question. Have you modified the training you provide your Army 
medics and Navy Corpsmen and other military emergency care providers 
since hostilities began?
    Answer. Yes, the Navy has integrated emergency/trauma training 
throughout the educational continuum and in a variety of training 
centers. Please note the examples below:
    Naval Hospital Corps School, Great Lakes, IL (NHCS).--This is the 
first school in the career of a Corpsman. Since 2002, many changes have 
been made in response to regular communication between Field Medical 
Service School (FMSS) and NHCS. A variety of lessons and content have 
been added to the Tactical Combat Casualty Care and Care of the Patient 
with exposure to Nuclear Explosives courses. The courses have 
transitioned from group-paced lectures into a 100 percent blended 
learning environment.
    Independent Duty Corpsmen (IDC) Training at Naval School of Health 
Sciences (NSHS) San Diego, CA.--The IDC program has adjusted its 
curriculum to enhance the training for medical personnel who perform in 
an operational/remote environment, often without a medical officer. In 
the last two years students now attend the Operational and Emergency 
Medical Skills (OEMS) course which provides training to care for 
casualties using the principles taught in Advanced Trauma Life Support 
(ATLS) and addresses the mission of special medical care: prolonged 
transport times, unique military wounds and the pre-hospital 
environment. Additionally, the IDC program trauma unit has been revised 
to incorporate the principles/curriculum of TCCC.
    Tactical Combat Casualty Care (TCCC).--Corpsmen and Medics are 
trained in TCCC in response to evidence based practice used on the 
battlefield. The USMC has published a Marine Corps Order that all 8404s 
will now receive TCCC training. The Naval Expeditionary Combat Command 
(NECC) has adopted the same requirements for their Corpsmen. To help 
support the NECC and USMC Individual Augmentee (IA) deployment TCCC 
training, the Naval Medical Education and Training Command (NMETC) has 
instructed the Naval Operational Medicine Institute (NOMI) to institute 
a TCCC ``Train the Trainer'' program. The first training sessions will 
take place the first week of June 2006 with multiple courses to follow.
    Naval Expeditionary Medical Training Institute located at Camp 
Pendleton, CA (NEMTI).--NEMTI is instructing and updating Fleet 
Hospital (FH), Expeditionary Medical Facility (EMF) and Battle Skills 
standards based on requirement-driven training. These training 
standards are built upon several items: Subject Matter Expert Review, 
current AOR After Action Reports, Medical Lessons Learned and 
requirements based upon specific COCOMs, OPLANS, and AOR's. This is 
also aligned with the Naval Audit Report (2003).
    Joint Special Operations Medical Training Center in Fort Bragg, NC 
(JSOMTC).--Curriculum changes were made to move the Combat Trauma 
Management module to the Special Operations Combat Medic (SOCM) course 
to provide the Army Rangers, 96th Civil Affairs Medics, SEAL Corpsman, 
Recon Corpsman, and Special Warfare Combat Crewman additional trauma 
training before going to their units. The total curriculum remains the 
same with minor changes to curriculum information and updates to 
support feedback and after action reports from the field. The length 
has remained the same; the frequency of the training has increased from 
four classes per year to eight beginning this fiscal year.
    Marine Aircraft Wings (MAW) Training.--MAWs have instituted 
training of organic, Medical Augmentation Program (MAP) personnel and 
Individual Augmentees to serve as Casualty Evacuation Corpsmen. The 
training which includes trauma care, aviation physiology and aircraft 
orientation varies from 1-4 weeks. In addition Navy squadrons are 
augmenting the Army Air Ambulance Mission and have procured Search and 
Rescue (SAR) Corpsmen and provided them with 4 weeks of Army Flight 
Medic Training under the auspices of NAVAIRFOR.
    Navy Trauma Training Course located at Los Angeles County-USC 
Medical Center, Los Angeles, CA (NTTC).--This entire program for 
Corpsmen, Nurses and Physicians was started in the summer of 2002 in 
support of the increased operational tempo and the need for trauma 
training. Traditionally Naval Medical Facilities did not treat a 
sufficient number of trauma cases to provide adequate initial and 
sustainment training to achieve proficiency. NTTC incorporates a 
military specific Pre Hospital Trauma Life Support (PHTLS) training for 
Corpsmen as part of their curriculum.
    Question. What is your assessment of emergency care on the 
battlefield?
    Answer. ``Emergency care on the battlefield is much improved, so 
much so that the survival of our combat casualties is vastly better 
than it was in Viet Nam.'' This quote is from the Journal of Trauma, 
February 2006. (Holcomb JB, Stansbury LG, Champion HR, Wade C, Bellamy 
RF. Understanding combat casualty care statistics. J Trauma. 2006 
Feb;60(2):397-401.)

        COMPARISON OF STATISTICS FOR BATTLE CASUALTIES, 1941-2005
------------------------------------------------------------------------
                                         World War
                                             II      Vietnam    OIF/OEF
------------------------------------------------------------------------
Percent KIA............................       23.7       21.3       12.5
------------------------------------------------------------------------

    Question. How successful were you in meeting your mission 
recruiting goals for this past year? Are there any specialties that 
have seen a drastic decline in retention?
    Answer. The Navy's Medical Department Recruiting did not meet 
recruiting goals in fiscal year 2005 for either the Active Component 
(AC) or Reserve Component (RC) and has had limited success this year to 
date. The Nurse Corps has been much more successful this year with its 
student programs and Direct Accessions thanks to the initiatives 
mentioned below. The Direct Accessions for the Medical Corps, Dental 
Corps and Medical Service Corps are falling short of the mission 
recruiting goal this year.
    The following specialties have had an increased loss rate over the 
past few years:
    Medical Corps--Preventive Medicine, Psychiatry, Family Medicine, 
and Occupational Medicine.
    Dental Corps--Endodontics, Orthodontics, and Periodontics.
    Medical Service Corps--Clinical Psychologists, Pharmacists, and 
Physician Assistants.
    Nurse Corps--Family Nurse Practitioners.
    Question. What are you as a service doing to try and address these 
critical shortfalls?
    Answer. Efforts to increase recruitment and retention of qualified 
health care professionals in Navy Medicine are underway in several 
directions. This year, the compensation for Health Services Collegiate 
Program (HSCP) students (used by Dental Corps and Medical Service 
Corps) increased from E3 to E6 pay, greatly improving the success of 
that program. Increases in the Dental Officer Multiyear Retention 
Bonuses were also realized for fiscal year 2005.
    The fiscal year 2006 NDAA recently authorized Incentive Special Pay 
(ISP) for Oral and Maxillofacial Surgeons.
    Funding has recently been increased for the Health Professions Loan 
Repayment Program (HPLRP) which was authorized in 1998. This offers 
over $30,000 per year to be paid directly toward loans incurred for 
healthcare training. This is used for both retention and recruitment 
across all medical communities.
    Nurse Corps recruiting continues to be impacted by the national 
shortage of nurses, resulting in strong competition for a finite pool 
of work force nurses and nursing school students. The primary 
strategies chosen to recruit and retain our Nurse Corps officers 
include the following:
  --The Nurse Corps Direct Accession Bonus was increased at two levels: 
        $15,000 (incurring a 3 year obligation) and $20,000 (with a 4 
        year obligation).
  --HPLRP was offered for the first time this year as both a recruiting 
        and retention tool.
  --The Nurse Candidate Program (NCP) accession bonus was increased 
        from $5,000 to $10,000, and the monthly stipend increased from 
        $500 to $1,000. In addition, NCP has been expanded by twenty 
        openings this year.
    Medical Service Corps' increases in HSCP compensation have improved 
interest. HPLRP awards were offered to an expanded number of clinical 
psychologists and podiatrists this year and are being used for 
accessions for the first time. One-year HSCP scholarships are being 
successfully used to recruit candidates already in training for some of 
the specialties.
    Question. How do you carry out the medical mission at home and 
abroad with a decline in recruiting and retention of specialty medical 
personnel?
    Answer. We have adopted several measures to respond to this 
challenging issue. One, we make every attempt to maximize the 
efficiency of our existing staff. This includes ensuring that our 
providers are focused on clinical rather than administrative services. 
Two, we focus the use of support and ancillary staff on the clinical 
mission. Third, where indicated, clinic hours have been adjusted to 
meet demand. Fourth, to address shortfalls and meet access standards, 
we engage in greater use of contract services and network referrals, 
while at the same time attempting to maintain training programs vital 
to operational medical readiness.
    Question. How do you determine when a service member who has been 
receiving treatment for PTSD is ready for deployment again? Are once-
deployed soldiers, sailors, airmen and Marines being sent back too 
early?
    Answer. We employ numerous methods for screening those at risk for 
development of PTSD and related conditions. Service members are 
screened prior to deployment, upon redeployment, and again periodically 
after returning from deployment. At any point if a service member 
presents symptoms that indicate the potential need for treatment, he or 
she is referred to an appropriate mental health or medical provider for 
complete evaluation and any treatment deemed necessary.
    Navy Medicine actively encourages Sailors and Marines to seek care 
for behavioral healthcare concerns from a variety of sources. 
Behavioral healthcare services are included on all deployment and 
redeployment briefs. Navy chaplains provide information on availability 
of counseling from pastoral and medical sources in Warrior Transition 
Briefs. Fleet and Family Service Centers and Marine Corps Community 
Services publish availability of non-medical counseling for behavioral 
issues.
    If after treatment a service member's condition is not judged to 
have improved such that he or she can be returned to full duty, they 
are placed in a limited duty status to ensure that they get whatever 
further treatment is necessary. At this time, we have no evidence that 
service members are, in general, being returned to a deployed 
environment too early.
                                 ______
                                 
   Questions Submitted to Lieutenant General George Peach Taylor, Jr.
               Questions Submitted by Senator Ted Stevens

                           MEDICAL RECRUITING

    Question. The Air Force plays a critical role in the medical 
evacuation of troops overseas. With recruiting and retention 
challenges, are you concerned that the Air Force will be unable to 
continue meeting the high optempo of meeting the needs of this mission 
overseas?
    Answer. The Air Force Personnel Center (AFPC) places high priority 
on ensuring critical authorizations for aeromedical evacuation (AE) 
assignments are filled. Information from AFPC shows all AE 
authorizations are currently filled and they continually plan ahead to 
fill projected vacancies. At this time, AE is a voluntary career 
option. Multiple avenues exist to showcase AE as a positive career 
broadening opportunity for AF medics. Many AE forces reside in the 
Reserve Component, and they are actively engaged in recruiting and 
retention initiatives to ensure continued success in this vital Total 
Air Force mission.

                     POST TRAUMATIC STRESS DISORDER

    Question. There is growing concern with how the Department monitors 
and addresses the emotional and mental health of each returning 
soldier, sailor, airman and Marine from combat. Can you each tell us 
how you are monitoring and treating those that are at risk for Post 
Traumatic Stress Disorder?
    Answer. The Air Force views the monitoring and addressing of Post 
Traumatic Stress Disorder (PTSD) and all deployment related issues as a 
shared community responsibility not just a medical issue. In August 
2005, the Air Force standardized this support by adding Chapter 8 
Redeployment Support Process to Air Force Instruction 10-403, 
Deployment Planning and Execution. This instruction outlines the 
responsibilities of both commanders and helping agencies in supporting 
deployment members and their families.
    Monitoring for PTSD begins with the post-deployment process. Thirty 
days before returning home, Airmen are given reintegration education by 
chaplain and mental health staff where reunion/reintegration issues are 
addressed, as well as mental health concerns that might occur and 
resources Airmen could pursue to address those concerns. Prior to 
returning home, the Area of Responsibility (AOR) commander is 
responsible for contacting the home station command for Airmen who 
could benefit from support due to personal loss, exposure to danger, or 
witnessing traumatic events.
    As our troops re-deploy, post-deployment assessments are conducted 
for all Airmen, mainly in-theater, just before they return home, or 
within five days of re-deploying. Commanders ensure all re-deploying 
Airmen have completed their post-deployment medical processing 
immediately upon return from deployment, prior to release for downtime, 
leave, or demobilization. These are stored in electronic fashion and 
are available through TRICARE Online to our provider staffs worldwide.
    During the post-deployment assessment, each Airman has a face-to-
face assessment with a health care provider. This discussion includes 
discussion of any health concerns raised in the Post-Deployment Health 
Assessment questionnaire, mental health or psychosocial issues, special 
medications taken during the deployment, and concerns about possible 
environmental and occupational exposures. Concerns are addressed using 
the appropriate Department of Defense (DOD) guidelines such as the 
Veterans Administration (VA)/DOD Post-Deployment Health Clinical 
Practice Guidelines and the VA/DOD Clinical Practice Guidelines for 
Post-Traumatic Stress.
    Within seven days of return to their home station, Airmen receive 
reintegration education by the installation helping agencies where 
issues that may develop are discussed and resources are identified. 
These briefings are mandatory for military members while family members 
are highly encouraged to attend.
    To better ensure early identification and treatment of emerging 
deployment related concerns, at every medical appointment Airmen are 
asked if their appointment is deployment related.
    Airmen complete another screening assessment, the Post-Deployment 
Health Re-Assessment (PDHRA), within three to six months of return from 
deployment. Appropriate referrals for care are made as indicated by 
their responses to the PDHRA questions.
    In addition, on an annual basis, every military member receives a 
Preventive Health Assessment to ensure the required clinical preventive 
services are received and they meet their individual medical readiness 
requirements.
    As evidenced above, early identification of PTSD and other 
deployment related concerns is accomplished by the active involvement 
of commanders and helping agencies who not only train themselves, but 
also the average Airman on how to recognize distress and match that 
distress with the appropriate resource. In 2004, the Air Force began to 
emphasize the concept of being a good Wingman, a person who actively 
assesses and responds to the needs of his or her fellow Airmen.
    Air Force psychologists, psychiatrists, and social workers treat 
Airmen for PTSD at our Life Skills Support Centers (LSSC). Every 
installation in the Air Force has a LSSC and military members have 
first priority for treatment. The frequency and length of treatment is 
extremely variable, depending upon the symptom intensity, impact on 
functionality, and a host of other clinical issues.

                            RECRUITING GOALS

    Question. How successful were you in meeting your mission 
recruiting goals for this past year? Are there any specialties that 
have seen a drastic decline in retention?
    Answer. For fiscal year 2005, the Air Force Medical Service 
experienced limited success in recruitment of health professionals. The 
overall recruiting of fully qualified health professionals was 46.12 
percent of goal (see chart 1). A fully qualified health professional is 
a trained practitioner, fully ready to begin work and with no prior 
obligation to the Air Force.

                                 CHART 1
------------------------------------------------------------------------
                                    Fiscal Year 2005 September 30, 2005
         Fully Qualified          --------------------------------------
                                       Req       Recruited   Req Percent
------------------------------------------------------------------------
MC...............................          204           29        14.22
DC...............................          104           23        22.12
NC...............................          350  ...........        57.14
BSC..............................           81           70        86.42
MSC..............................           35           35       100.00
                                  --------------------------------------
      FQ Total...................          774          357        46.12
------------------------------------------------------------------------

    The Air Force Medical Service has been quite successful in 
recruiting of health care professionals through the Health Professions 
Scholarship Program (see chart 2). The Health Professions Scholarship 
and Financial Assistance Programs (HPSP/FAP) are valuable training and 
force sustainment pipelines, particularly for the Medical Corps and 
Dental Corps. The overall recruiting success for HPSP was 108.28 
percent of goal while the resident Financial Assistance Program (FAP) 
met 56.41 percent of goal (see chart 3).

                                 CHART 2
------------------------------------------------------------------------
       HPSP (Scholarships)             Req       Recruited   Req Percent
------------------------------------------------------------------------
MC...............................          191          220       115.18
DC...............................          105          107       101.90
NC...............................            7            3        42.86
BSC..............................           23           23       100.00
MSC..............................  ...........  ...........  ...........
                                  --------------------------------------
      HPSP Total.................          326          353       108.28
------------------------------------------------------------------------


                                 CHART 3
------------------------------------------------------------------------
         FAP (Residents)               Req       Recruited   Req Percent
------------------------------------------------------------------------
MC...............................           35           21        60.00
DC...............................            4            1        25.00
NC...............................  ...........  ...........  ...........
BSC..............................  ...........  ...........  ...........
MSC..............................  ...........  ...........  ...........
                                  --------------------------------------
      FAP Total..................           39           22        56.41
------------------------------------------------------------------------

    The Air Force Medical Service continues to struggle with retention 
and staffing of multiple required specialties. While retention rates 
have not declined dramatically in recent years, retention after 
completion of the initial active duty obligation remains low for many 
specialties.

                        RECRUITING AND RETENTION

    Question. What are you as a service doing to try and address these 
critical shortfalls? How do you carry out the medical mission at home 
and abroad with a decline in recruiting and retention of specialty 
medical personnel?
    Answer. The Air Force Medical Service (AFMS) continues to 
experience challenges in recruiting and retaining physicians, dentists 
and nurses. Our current monetary incentive strategy includes the Health 
Professions Scholarship Program (HPSP), accession bonuses, loan 
repayments, and special pays or bonuses for retention of required 
specialties. We are also addressing top non-monetary concerns affecting 
recruiting and retention, such as tour length, deployments, working 
conditions, and educational opportunities. The AFMS is working closely 
with Recruiting Service, the personnel community and the Secretary of 
the Air Force for Manpower and Reserve Affairs to improve our 
accessions processes and secure the funding needed to retain health 
care professionals.
    The AFMS optimizes the effectiveness of healthcare delivery via 
efficient management of well trained members and teams operating 
smaller, faster, mobile, and modular platforms. The AFMS carries out 
its medical mission by utilizing personnel resources based on their 
multiple skill sets and diverse training. Additionally, we develop 
mutually beneficial working relationships with our Sister Services, 
TRICARE affiliates and networks, and civilian contract providers.

                     POST TRAUMATIC STRESS DISORDER

    Question. How do you determine when a service member who has been 
receiving treatment for PTSD is ready for deployment again? Are once-
deployed soldiers, sailors, airmen and Marines being sent back too 
early?
    Answer. The decision as to when an Airman who has been receiving 
treatment for Post-Traumatic Stress Disorder (PTSD) is ready for 
deployment is a medical decision made between the Airman and their 
medical provider based on medical expertise and the clinical 
circumstances. Command and mission constraints do not interfere with 
this medical decision making process. Airmen are not returned to 
deployable status before their medical provider has determined they are 
ready to deploy. Air Force psychiatrists, psychologists, and social 
workers are highly trained in the assessment and treatment of PTSD, as 
well as military fitness for duty determinations. These providers are 
trained in world-class residency and internship programs at medical 
centers across the United States.
    Medical providers communicate medical fitness for duty to the 
personnel system through the use of medical profiles. Airmen receiving 
treatment for PTSD who the medical provider determines should not 
deploy are given a psychiatric S4 profile (nondeployable). Commanders 
cannot override the profile and Airmen cannot deploy until their 
medical provider changes this profile. Thus, the military cannot 
redeploy Airmen until their medical provider determines they are ready.
    Factors that influence medical determinations of deployability 
include the resolution of the member's symptoms, the likelihood of 
relapse, the risk of recurrence if the member were re-exposed to 
trauma, the presence or absence of ongoing functional impairment due to 
the disorder, and the provider's estimation of the member's ability to 
psychologically tolerate the rigors of deploying to austere and hostile 
environments. If and when the provider determines the member is again 
ready for worldwide duty, the profile is changed from S4 to S1, S2, or 
S3 (all deployable profiles), depending on the clinical circumstances.
                                 ______
                                 
          Questions Submitted to Major General Melissa A. Rank
               Questions Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. How successful were you in meeting your mission 
recruiting goals for this past year? Are there any specialties that 
have seen a drastic decline in retention?
    Answer. For fiscal year 2005, the Air Force Medical Service 
experienced limited success in recruitment of health professionals. The 
overall recruiting of fully qualified health professionals was 46.12 
percent of goal (see chart 1). A fully qualified health professional is 
a trained practitioner, fully ready to begin work and with no prior 
obligation to the Air Force.

                                 CHART 1
------------------------------------------------------------------------
                                    Fiscal Year 2005 September 30, 2005
         Fully Qualified          --------------------------------------
                                       Req       Recruited   Req Percent
------------------------------------------------------------------------
MC...............................          204           29        14.22
DC...............................          104           23        22.12
NC...............................          350  ...........        57.14
BSC..............................           81           70        86.42
MSC..............................           35           35       100.00
                                  --------------------------------------
      FQ Total...................          774          357        46.12
------------------------------------------------------------------------

    The Air Force Medical Service has been quite successful in 
recruiting of healthcare professionals through the Health Professions 
Scholarship Program (see chart 2). The Health Professions Scholarship 
and Financial Assistance Programs (HPSP/FAP) are valuable training and 
force sustainment pipelines, particularly for the Medical Corps and 
Dental Corps. The overall recruiting success for HPSP was 108.28 
percent of goal while the resident Financial Assistance Program (FAP) 
met 56.41 percent of goal (see chart 3).

                                 CHART 2
------------------------------------------------------------------------
       HPSP (Scholarships)             Req       Recruited   Req Percent
------------------------------------------------------------------------
MC...............................          191          220       115.18
DC...............................          105          107       101.90
NC...............................            7            3        42.86
BSC..............................           23           23       100.00
MSC..............................  ...........  ...........  ...........
                                  --------------------------------------
      HPSP Total.................          326          353       108.28
------------------------------------------------------------------------


                                 CHART 3
------------------------------------------------------------------------
         FAP (Residents)               Req       Recruited   Req Percent
------------------------------------------------------------------------
MC...............................           35           21        60.00
DC...............................            4            1        25.00
NC...............................  ...........  ...........  ...........
BSC..............................  ...........  ...........  ...........
MSC..............................  ...........  ...........  ...........
                                  --------------------------------------
      FAP Total..................           39           22        56.41
------------------------------------------------------------------------

    The Air Force Medical Service continues to struggle with retention 
and staffing of multiple required specialties. While retention rates 
have not declined dramatically in recent years, retention after 
completion of the initial active duty obligation remains low for many 
specialties.
    Question. What are you as a service doing to try and address these 
critical shortfalls? How do you to carry out the medical mission at 
home and abroad with a decline in recruiting and retention of specialty 
medical personnel?
    Answer. The Air Force Medical Service (AFMS) continues to 
experience challenges in recruiting and retaining physicians, dentists 
and nurses. Our current monetary incentive strategy includes the Health 
Professions Scholarship Program (HPSP), accession bonuses, loan 
repayments, and special pays or bonuses for retention of required 
specialties. We are also addressing top non-monetary concerns affecting 
recruiting and retention, such as tour length, deployments, working 
conditions, and educational opportunities. The AFMS is working closely 
with Recruiting Service, the personnel community and our Secretary of 
the Air Force for Manpower and Reserve Affairs to improve our 
accessions processes and secure the funding needed to retain health 
care professionals.
    The AFMS optimizes the effectiveness of healthcare delivery via 
efficient management of well trained members and teams operating 
smaller, faster, mobile, and modular platforms. The AFMS carries out 
its medical mission by utilizing personnel resources based on their 
multiple skill sets and diverse training. Additionally, we develop 
mutually beneficial working relationships with our Sister Services, 
TRICARE affiliates and networks, and civilian contract providers.
    Question. How do you determine when a service member who has been 
receiving treatment for PTSD is ready for deployment again? Are once-
deployed soldiers, sailors, airmen and Marines being sent back too 
early?
    Answer. The decision as to when an Airman who has been receiving 
treatment for Post-Traumatic Stress Disorder (PTSD) is ready for 
deployment is a medical decision made between the Airman and their 
medical provider based on medical expertise and the clinical 
circumstances. Command and mission constraints do not interfere with 
this medical decision making process. Airmen are not returned to 
deployable status before their medical provider has determined they are 
ready to deploy. Air Force psychiatrists, psychologists, and social 
workers are highly trained in the assessment and treatment of PTSD, as 
well as military fitness for duty determinations. These providers are 
trained in world-class residency and internship programs at medical 
centers across the United States.
    Medical providers communicate medical fitness for duty to the 
personnel system through the use of medical profiles. Airmen receiving 
treatment for PTSD who the medical provider determines should not 
deploy are given a psychiatric S4 profile (nondeployable). Commanders 
cannot override the profile and Airmen cannot deploy until their 
medical provider changes this profile. Thus, the military cannot 
redeploy Airmen until their medical provider determines they are ready.
    Factors that influence medical determinations of deployability 
include the resolution of the member's symptoms, the likelihood of 
relapse, the risk of recurrence if the member were re-exposed to 
trauma, the presence or absence of ongoing functional impairment due to 
the disorder, and the provider's estimation of the member's ability to 
psychologically tolerate the rigors of deploying to austere and hostile 
environments. If and when the provider determines the member is again 
ready for worldwide duty, the profile is changed from S4 to S1, S2, or 
S3 (all deployable profiles), depending on the clinical circumstances.
                                 ______
                                 
          Questions Submitted to Major General Gale S. Pollock
               Questions Submitted by Senator Ted Stevens

    Question. How successful were you in meeting your mission 
recruiting goals for this past year? Are there any specialties that 
have seen a drastic decline in retention?
    Answer. Our efforts to achieve the Active Component nurse mission 
have not been successful since 1999. The U.S. Army Accessions Command 
(USAAC) achieved 83 percent of the required mission in fiscal year 
2005. Unfortunately, USAAC projects that they will only complete 73 
percent of mission in fiscal year 2006. As of April 30, 2006, the 
Active Component is 304 officers below authorized strength. Recruiting 
is essential as it is through new medical surgical nurse accessions 
that we then educate into specialties such as anesthesia, critical 
care, preoperative and OB/GYN nursing.
    In fiscal year 2005, the recruiting mission for the Reserve 
component was 485, only 66 percent of this goal was achieved. Since 
2003, accession into the Reserve is an average of 21 percent below 
mission. In addition, 50 percent of those nurses accessed are not 
baccalaureate prepared, and are not eligible to remain in the Reserves 
long-term.
    Our active duty retention rate has declined overall to 91 percent 
in fiscal year 2005. Unfortunately, when we look at the number of 
specialty nurses, retention failure has lowered their numbers such that 
operational tempo is significantly increased and data indicates this 
increased deployment rate is contributing to their exit from the 
military. This is a problem for preoperative, critical care and 
emergency room nursing staff as well as the nurse anesthetists.
    The Reserve Component retention rate is adversely affected by the 
failure to recruit BSN nurses and the mandatory release of those who 
are unwilling to complete their educational requirements to serve as a 
military officer.
    Question. What are you as a service doing to try and address these 
critical shortfalls? How do you to carry out the medical mission at 
home and abroad with a decline in recruiting and retention of specialty 
medical personnel?
    Answer. We are actively addressing both recruiting and retention to 
assess critical shortfalls. We recently implemented the ``Every Nurse 
is a Recruiter'' initiative to increase participation by all Army 
Nurses in nurse recruiting. Our AMEDD Enlisted Commissioning Program 
provides active duty Soldiers the opportunity to complete their BSN and 
receive an appointment as an Army Nurse. The Health Professions Loan 
Repayment Program is also available to our officers as both a 
recruiting and a retention incentive. Data suggests that retention of 
our officers is largely dependent on three main factors: job 
satisfaction, education and training, and retirement benefits. To 
better prepare our new graduates, we are developing an enhanced Nurse 
Internship Program. We also offer intense entry-level courses in a 
variety of nursing specialties and our nurse anesthesia program, ranked 
second in the nation, continues to serve us well. We fully fund many of 
our nurses to complete graduate or doctoral degrees in nursing or 
closely related fields. We recently implemented a pilot program to 
train Registered Nurse First Assistants. Finally, the U.S. Army Medical 
Command (MEDCOM) utilizes a system called the PROFIS Deployment System 
(PDS). The PDS helps to ensure equitability of deployments within each 
specialty of nursing by tracking both who has deployed and the duration 
of that deployment. All MEDCOM Soldiers are able to volunteer online 
for deployments, this ongoing opportunity provides an element of 
predictability for our officers. All of these programs are crucial to 
our accession and retention efforts.
    We utilize a combination of Reserve Component, civilian and 
contract nurses to augment our deploying staff, but they are often not 
available. Our retention rate is negatively affected by the increased 
demand at home station for the nurses who are not deployed in support 
of OEF/OIF. Whenever we are unable to hire civilian nurses in part due 
to the hiring constraints of OPM on college graduate nurses or are 
unable to fill contract positions, our military nurses must serve in 
their stead in addition to normal work demands. This constant pressure 
on our junior nurses contributes to their decision to leave the 
military. Finally, data suggest that increased lengths of deployment 
negatively impact retention rates. In addition to increasing their 
incentive pay in fiscal year 2005, implementation of a 180-day 
deployment rotation policy was a good initial step in stemming the loss 
of our certified registered nurse anesthetists.
    Question. How do you determine when a service member who has been 
receiving treatment for PTSD is ready for deployment again? Are once-
deployed soldiers, sailors, airmen and Marines being sent back too 
early?
    Answer. The Army uses multiple screening processes to ensure all 
Soldiers who deploy are capable of performing their duties and do not 
pose a risk to themselves or other members of their unit.
    Prior to deployment Soldiers receive a pre-deployment assessment 
which includes questions about mental health. If Soldiers have a 
positive response to the mental health questions they receive further 
evaluation by a clinician. If the Soldier has symptoms of PTSD on the 
pre-deployment assessment, the symptoms are evaluated and treated by a 
mental health practitioner. A fitness for duty assessment is ordered if 
necessary. The final recommendation on deployment is based on clinical 
judgment of the treating provider and input from the unit commander.
    Research shows that all Soldiers are affected by combat experiences 
and the most seriously affected are those exposed to frequent direct 
combat or the injuries sustained in combat. It is likely that multiple 
deployments will lead to increased symptoms of PTSD. Soldiers with PTSD 
are identified in multiple ways. They may self-identify, be identified 
by the post-deployment health assessment, the post-deployment health 
re-assessment, or be referred by a family member or command. If a 
Soldier has PTSD or other psychological difficulties, they are further 
evaluated and treated using well-recognized treatment guidelines. These 
include psychotherapy and pharmacotherapy. They are delivered in a 
variety of venues, in theater and garrison, an outpatient or inpatient 
setting, and individually or in a group.
                                 ______
                                 
     Questions Submitted to Rear Admiral Christine M. Bruzek-Kohler
               Questions Submitted by Senator Ted Stevens

                        MEDICAL RECRUITING GOALS

    Question. How successful were you in meeting your mission 
recruiting goals for this past year?
    Answer. Navy did not meet recruiting goals in medical programs in 
fiscal year 2005 for either the Active Component (AC) or Reserve 
Component (RC). Navy attainment by program was: Medical Corps--58 
percent AC, 60 percent RC; Dental Corps--76 percent AC, 39 percent RC; 
Medical Service Corps--82 percent AC, 60 percent RC; and Nurse Corps--
73 percent AC, 97 percent RC.
    Question. Are there any specialties that have seen a drastic 
decline in retention?
    Answer. Within our wartime specialties, shortfalls have been 
identified in critical care--64 percent manned, peri-operative 
nursing--89 percent manned, and nurse anesthesia--90 percent manned.

            ADDRESSING BILLET SHORTFALLS AND MEETING MISSION

    Question. What are you as a service doing to try and address these 
critical shortfalls?
    Answer. Navy is executing a Total Force plan to correct medical 
personnel shortages through a coordinated effort by the Chief of Naval 
Personnel, the Surgeon General of the Navy, Commander Navy Recruiting 
Command and Chief of the Navy Reserve.
    We have reemphasized recruiting in critical medical specialties 
through an expanded bonus program, education loan relief programs, and 
medical specialty pays. Specific measures we have implemented since 
fiscal year 2005 include increasing capacity in our most popular 
accession programs, implementing the Health Profession Loan Repayment 
Program, diversifying our accession sources, and increasing the 
following financial incentives: Nurse Corps Direct Accession Bonus, 
Nurse Candidate Program Accession Bonus, Nurse Candidate Program 
Monthly Stipend, and the Certified Registered Nurse Anesthesia 
Incentive Special Pay. We are continuously evaluating these newly 
initiated efforts while exploring other options to retain our talent at 
the 4-10 years of service level.
    To combat reserve shortfalls, we have implemented a mobilization 
deferment process whereby an Active Component (AC) officer 
transitioning to the Reserve Component (RC) may apply for deferment 
from mobilization for up to one year. This initiative is aimed at those 
separating AC officers who have recently deployed and may be hesitant 
to transition to the RC for fear of immediate re-deployment. 
Additionally, we are considering an option for Medical Professionals 
that would permit shorter, predictable mobilization periods to limit 
``time away from practice,'' a common reason for both medical attrition 
and shortages in accession.
    Question. How do you carry out the medical mission at home and 
abroad with a decline in recruiting and retention of specialty medical 
personnel?
    Answer. Our facilities abroad have priority status and are not 
affected by medical manning shortfalls.
    At home, we have a broad range of options, including contracting 
for care or referring care to the TRICARE Managed Care Support Contract 
Network. The TRICARE network is designed to support the military direct 
care system in times of sudden or major deployment of Military 
Treatment Facility staff. In addition, Reserve personnel in designated 
key specialties are utilized when required by Military Treatment 
Facilities at home.

                  POST TRAUMATIC STRESS RETURN TO DUTY

    Question. How do you determine when a service member who has been 
receiving treatment for PTSD is ready for deployment again? Are once-
deployed soldiers, sailors, airmen and Marines being sent back too 
early?
    Answer. Anyone exposed to the extremely stressful environment of 
combat is affected by those events. The majority of service members are 
able to cope with and integrate these events over time and experience 
no significant or lasting impact. However, a small percentage will need 
assistance in dealing with their experiences and may ultimately be 
diagnosed and treated for PTSD or other mental health conditions.
    Navy Medicine is committed to providing appropriate mental health 
care to our Sailors and Marines and to their families. In order to 
accomplish this mission several continuous programs of education, 
training, assessment, referral, and professional care have been 
implemented. These services are provided to service members and their 
families before, during, and after deployment to an operational 
theater.
    For Sailors and Marines preparing for a deployment, the Department 
of the Navy (DON) provides a comprehensive program of stress education, 
health surveillance, and forward identification and management of 
stress symptoms, including psychiatric conditions such as PTSD. A broad 
range of services are available to our Sailors and Marines while 
underway and while in port via our MTFs, psychologists aboard ships, 
and other non-medical assets such as Fleet and Family Service Centers 
and chaplains. The Marine Corps' Combat Operational Stress Control 
(COSC) Office, headed by a Navy psychiatrist with combat experience, is 
actively engaged in heightening awareness of combat and operation 
stress, ensuring quick access to care, and strengthening the coping 
skills of Marines and their families. In theater, members with stress 
problems receive prompt support from chaplains, medical officers, and 
mental health providers embedded with the operating forces through the 
Operational Stress Control and Readiness (OSCAR) program. Upon 
returning, service members are prepared for reintegration with their 
communities through the ``Warrior Transition'' and ``Return & Reunion'' 
programs.
    Navy Medicine actively encourages our Sailors and Marines to seek 
care for behavioral health concerns from a variety of sources. We 
include information on the availability of behavioral health care 
services on all deployment and redeployment briefs. Our Navy chaplains 
provide information on availability of counseling from pastoral and 
medical sources in Warrior Transition Briefs. Our Fleet and Family 
Services Centers and Marine Corps Community Services assets publish 
availability of non-medical counseling for behavioral issues.
    The stigma associated with seeking mental health care remains a 
significant issue, both in the military and in society in general. To 
overcome that barrier, the Navy and Marine Corps team realizes that to 
overcome that barrier time and education are essential; however, at 
heart it is a leadership issue. As a result, we educate and 
indoctrinate our leaders to be aware of potential behavioral health 
care concerns and of the availability of medical and non-medical assets 
to manage these concerns. Two new programs we offer are the ``Leader's 
Guide to Personnel in Distress'' with versions for both Navy and Marine 
Corps.
    We continually evaluate service members prior to and immediately 
following their deployments to determine whether they've suffered any 
adverse psychological or physical consequences of that deployment using 
the Pre and Post Deployment Assessment (PDHA) process. Three to six 
months following deployment, we are instituting screening of each 
service member with the Post Deployment Health Reassessment (PDHRA). 
Any service member who identifies emotional or physical concerns 
related to their deployment is referred for further evaluation and 
treatment as indicated. If a service member is deemed to have a 
deployment limiting condition in need of treatment, we would not 
redeploy that member until appropriate treatment had been rendered and 
the service member restored to a duty status.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The subcommittee will reconvene on May 10 
at 10 a.m., in this room, SD-192, to review the missile defense 
program for fiscal year 2007.
    The subcommittee will now stand in recess. Thank you very 
much.
    [Whereupon, at 12:03 p.m., Wednesday, May 3, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 10.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MAY 10, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senator Stevens, Cochran, Shelby, Burns, and 
Inouye.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL HENRY A. ``TREY'' 
            OBERING III, UNITED STATES AIR FORCE, 
            DIRECTOR

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. We're pleased to have Lieutenant General 
Henry Obering, Director of the Missile Defense Agency (MDA), 
and Lieutenant General Larry Dodgen, Commander of the U.S. Army 
Space and Missile Defense Command, U.S. Army Forces Strategic 
Command, and the Joint Functional Component of the Command 
Integrated Missile Defense (IMD).
    General Obering, given your service at the Missile Defense 
Agency for the last 2 years, we have been acquainted with you 
and your role, and appreciate your service as Director of the 
Missile Defense Agency.
    General Dodgen, we thank you, again, for coming to appear 
before the subcommittee, and recognize your multiple command 
roles and responsibilities.
    Since I am late, I am going to put the balance of my 
statement in the record. I would also like to include the 
statement for Senator Cochran in the record as well.
    [The statements follow:]

               Prepared Statement of Senator Ted Stevens

    The committee is pleased to welcome Lieutenant General 
Henry Obering, Director of the Missile Defense Agency and 
Lieutenant General Larry Dodgen, Commander, U.S. Army Space and 
Missile Defense Command, U.S. Army Forces Strategic Command, 
and Joint Functional Component Command--Integrated Missile 
Defense.
    General Obering, given your service at the Missile Defense 
Agency for almost two years, we are acquainted with you and 
your role as Director of the Missile Defense Agency.
    General Dodgen, thank you for testifying again before this 
committee and we recognize your multiple command roles and 
responsibilities and look forward to hearing your statement 
today.
    We thank the both of you for being here today.
    In the face of a growing threat, ballistic missile defense 
is one of the most challenging missions in the Department of 
Defense. Recognizing the strategic importance of this mission 
to the United States, this committee has consistently provided 
resources for missile defense programs. Unfortunately, we as a 
nation face multiple threats with limited resources, forcing 
this committee to make tough choices with respect to our 
defense priorities. This committee seeks to ensure that our 
nations limited resources are tightly focused, on countering 
the most important threats.
    General Dodgen and General Obering, we look forward to 
hearing about the current status of our missile defense 
capabilities and how the program is proceeding. We will make 
your full statement a part of the committee's record. Before we 
begin, let me turn to Senator Inouye, my vice chairman, for his 
opening remark.
                                ------                                


               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I join you in welcoming our witnesses today. 
Given the development of missile programs around the world and 
the nuclear development efforts by North Korea and Iran, the 
importance of maintaining a strong missile defense program 
cannot be overstated. Our nation needs to continue to develop 
and deploy a missile defense capability.
    I look forward to your testimony about the capabilities on 
which you are working. I appreciate your service, and offer you 
my support toward achieving a layered system capable of 
defending our nation, our deployed forces, and our allies 
against the full range of missile threats.

    Senator Stevens. But I do want to tell you, we do look 
forward to hearing from you about the status of our missile 
defense capabilities. I enjoyed very much the event out at 
Vandenberg, where we did commit part of that base to the 
National Missile Defense Command. And I look forward to hearing 
more from you about the future of that command.
    Senator Inouye.
    Senator Inouye. Well, I thank you very much, Mr. Chairman. 
I'll follow your leadership, and may I ask that my statement be 
made part of the record.
    Senator Stevens. Without objection, we'll put your full 
statement in the record.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today I am pleased to join our Chairman in welcoming to the 
committee Lieutenant General Obering and Lieutenant General 
Dodgen to discuss the fiscal year 2007 budget request for 
missile defense.
    Gentlemen, it has been nearly two years since the President 
directed the Department of Defense to field an initial missile 
defense capability. We have been investing close to $10 billion 
annually on missile defense to reach that goal, and while there 
have been multiple successes for the system, we still do not 
have any of the ``shoot-down'' systems on alert.
    We have placed significant resources and time in the 
ground-based missile defense system, the Aegis system, and in 
programs such as Airborne Laser and Theater High Altitude Area 
Defense. This Committee wants to see these programs succeed. 
However, each year as we review the budget request, it seems 
that the Missile Defense Agency is investing more of its 
resources on new research activities, instead of focusing on 
getting an operational capability out of the core programs I 
just mentioned.
    Gentlemen, I know that you are committed to proving that 
the missile defense system works and that it is fielded and 
fully operational. I am confident that you have the best 
intentions when you invest in new research programs. However, I 
am concerned that we might not be able to continue the current 
rate of spending on missile defense into the future. As such, I 
want to be sure that the systems we have been investing in so 
heavily are deployed and that their funding is not curtailed to 
pay for new programs.
    I thank you both for appearing before the Committee. I hope 
you will address this concern today during our discussions, and 
I look forward to hearing your remarks.

    Senator Stevens. And we'll put the statement of each of you 
in the record in full, as though read.
    Senator Shelby, do you have any comments?
    Senator Shelby. Mr. Chairman, I look forward to both 
generals' testimony here today.
    Thank you.
    Senator Stevens. Senator Burns, do you have a comment?
    Senator Burns. I have a statement, and I'd put that in the 
record, looking forward to their testimony today. And it's a 
short one, so I think we get on with the business at hand.
    Senator Stevens. Yes, sir.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Mr. Chairman, Lieutenant General Obering, Lieutenant 
General Dodgen. I would like to welcome you and let you know 
that we appreciate your professional service to our nation.
    We also appreciate your efforts to field a ballistic 
missile defense system. Your labors are the continuation of 
years of research and development that began with the Strategic 
Defense Initiative under President Reagan. When SDI was 
introduced over 20 years ago there were many doubters who 
dubbed the program ``Star Wars''. In the due course of time 
those doubters were proven to be on the wrong side of history. 
As it turned out SDI was a definitive factor in breaking the 
back of our Soviet enemies. As we have seen, many of the 
technologies that resulted from this effort have seen uses that 
no one could have predicted. The development and fielding of 
the Patriot missile is one example of how missile defense 
technology is critical to our Armed Forces. The Patriot PAC-3 
is now the most mature and effective system in our missile 
defense arsenal.
    Today we have a new enemy, and our efforts need to be 
geared toward facing that enemy in the war that we are now 
engaged in. Missile defense is an important element of 
protecting our forces that are forward deployed. The spiral 
development of Patriot PAC-3 on the land, and the Navy Standard 
SM-3 missile paired with new long range radars are two examples 
of technology that can be used in any theater around the world, 
or re-deployed back to the United States for homeland defense. 
These tactical systems now have strategic capabilities.
    Although, I understand the importance of developing missile 
defense technology I have concerns that your agency is juggling 
too many programs; and the result is that we are paying for 
parallel programs with some redundancies. I look forward to 
hearing your views about the integration of your programs, and 
your plan for making the most of our tight budget while we are 
fighting the global war on terror.

    Senator Stevens. Generals, we put a high value on your 
activities. And I must say that the progress that's being made 
is very enlightening, very welcome. So, we look forward to your 
statement.
    General Obering.
    General Obering. Well, thank you. Good morning, Mr. 
Chairman, Senator Inouye, and distinguished members of the 
subcommittee. It's an honor to be here today.
    This morning, I'll review the progress that we've made in 
fielding and developing a missile defense capability, our plans 
for 2007, and our test program.
    We structured the Missile Defense Program to meet the 
current and evolving ballistic missile threats by balancing 
early fielding with steady system improvements over time. We're 
requesting $9.3 billion to support our very intense program of 
work in 2007. About $2.4 billion will cover the fielding and 
sustainment of the system components. And about $6.9 billion 
will be invested in further development and continued testing.
    Since I last addressed you, we've made good progress in 
developing and fielding an integrated layered defense for the 
United States, our deployed forces, allies, and friends, 
against ballistic missiles of all ranges and all phases of 
flight. This is especially true in our long-range defense 
component.
    Last year, following the two test aborts, I chartered an 
independent review of the Ground-based Midcourse Defense (GMD) 
Program. The independent review team concluded that we were on 
the right track, but needed to make adjustments in our quality 
control, system engineering, and test readiness. I established 
a mission readiness task force to follow through on these 
adjustments, and delayed the interceptor deployment in 2005 
until we were satisfied with that progress. We are finishing 
the additional recommended qualification tests and have 
implemented much stronger engineering accountability, 
configuration management, and mission assurance processes.
    We've had a very successful flight test of our 
operationally configured long-range interceptor in December, 
and a very successful flight test generating intercept 
solutions from our Cobra Dane and Beale radars and their 
operational configurations, as well. These comprehensive 
reviews and our recent successes indicate that we should 
continue interceptor deployment. But I will pause again, if 
necessary.
    We recently emplaced three more ground-based interceptors 
in Alaska, and plan to have a total of 16 at sites in Alaska 
and California by December. Current plans support emplacement 
of 22 interceptors by the end of 2007, and the fielding of 10 
interceptors to a European missile field by 2011, which will 
expand our total available long-range inventory to over 50.
    Sensors are the eyes of this system. They detect, track, 
and discriminate threatening objects and provide critical cuing 
information to the system. In addition to the Cobra Dane and 
the Beale radars that I mentioned earlier, this year we 
completed construction of the very powerful sea-based X-band 
radar and began integrating it into the system. It is now 
undergoing tests near Hawaii and will depart this summer for 
Alaska. We are also deploying the first transportable forward-
based X-band radar to our very important ally, Japan, where it 
will support both regional and homeland defense. In the United 
Kingdom, we expect the upgraded Fylingdales radar to achieve 
its initial capability this year, and in 2007 we will deliver a 
second forward-based X-band radar and initiate a major upgrade 
of the Thule radar in Greenland.
    By placing a third long-range interceptor field in Europe 
along with forward-based sensors in the region, we will meet 
two major objectives laid out by the President: Improved 
coverage of the United States and greatly improved protection 
of our allies and friends in Europe against a Middle East 
threat.
    The command, control, battle management, and communications 
infrastructure is the heart, soul and brain of our defensive 
capability. Without it, we simply couldn't execute the mission. 
It is a true force multiplier for missile defense. The global 
command and control foundation that we've established is 
unmatched in the world. We need to expand this effort to enable 
the integrated fire control which will allow us to mix and 
match sensors and weapons, greatly increasing our capability.
    Our aegis ships provide a flexible intercept capability 
against the shorter range ballistic missiles, as well as the 
long-range surveillance and track support to the system. This 
past year, we added 6 more surveillance and track destroyers, 
for a total of 11, and another engagement cruiser, for a total 
of two. By the end of 2007, we expect to have 10 engagement 
ships available, with 33 interceptors delivered.
    We also have an aggressive development program of work. In 
our terminal high altitude area defense, or THAAD, component, 
we are coming off a very successful test flight last November 
and are on track to field an initial capability against the 
short- to medium-range threats in 2008. To lay the foundation 
for global capability to meet future emerging threats, we plan 
to launch two space-tracking and surveillance system 
demonstration satellites in 2007, as well.
    And in our very challenging boost-phase defense area, the 
airborne laser reached all of its knowledge points last year 
when it achieved a full-duration laser at operational power and 
completed the initial beam-control/fire-control flight tests. 
Currently, we're installing the tracking and atmospheric 
compensation lasers and preparing the aircraft to accept the 
high-power laser modules in 2007.
    In our other boost-phase development activity, the kinetic 
energy interceptor (KEI), we are focused on demonstrating a 
mobile, very high acceleration booster that could give us 
improved capabilities to engage targets in the boost, 
midcourse, and terminal phases of flight. We've had a number of 
test successes and project the first flight of this interceptor 
in 2008. And with our multiple kill vehicle (MKV) system 
development, we will bolster long-range defenses by improving 
our abilities to engage multiple targets with a single 
interceptor.
    Now let me quickly turn to testing. The test schedule for 
this year and next continues at a rigorous pace. We will 
conduct 38 major system tests in 2006 and 37 major system tests 
in 2007. We plan two to three more long-range flight tests this 
year, including intercepts, two intercept flight tests of our 
aegis standard missile-3, and four flight tests of the terminal 
high altitude area defense interceptor.

                           PREPARED STATEMENT

    Mr. Chairman, we certainly have our challenges, but I 
believe the program is on track. The successes that we've had 
over the past year bear this out. I greatly appreciate this 
subcommittee's continued support and patience, and I want to 
thank the thousands of Americans and our allies, both in 
Government and industry, who are working hard to make missile 
defense a success.
    Thank you, and I look forward to your questions.
    Senator Stevens. Thank you, General.
    [The statement follows:]

     Prepared Statement of Lieutenant General Henry A. Obering III

    Good morning, Chairman Stevens, Senator Inouye, distinguished 
Members of the Committee. It is an honor to be here today to present 
the Department of Defense's fiscal year 2007 Missile Defense program 
and budget. The Missile Defense Agency mission remains one of 
developing and progressively fielding a joint, integrated, and 
multilayered Ballistic Missile Defense (BMD) system to defend the 
United States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges by engaging them in all phases of 
flight. I believe we are on the right track to deliver the 
multilayered, integrated capabilities that are necessary to counter 
current and emerging threats.
    As was the case last year, our program is structured to balance the 
initial fielding of system elements with steady improvements using 
evolutionary development and a test approach that continuously 
increases our confidence in the effectiveness of the BMD system. This 
budget balances our capabilities across an evolving threat spectrum 
that includes rogue nations with increasing ballistic missile 
expertise.
    We are requesting $9.3 billion to support our program of work in 
fiscal year 2007. The $1.6 billion increase from 2006 reflects a return 
to the annual investment level targeted by the Department for ballistic 
missile defense and is indicative of the robust phase we are entering 
in the development and fielding of the integrated layered capability. 
Approximately $1 billion of this increase will be applied to fielding 
and sustainment, and $600 million to continued development of the 
Ballistic Missile Defense System. $2.4 billion of the fiscal year 2007 
request covers the continued incremental fielding and sustainment of 
long-range ground-based midcourse defense components; our short- to 
intermediate-range defense involving Aegis ships with their 
interceptors; and the supporting sensors, command, control, battle 
management and communication capabilities. This increase in funding for 
fielding and sustainment of nearly a billion dollars from last year 
reflects the success we have had across the program. About $6.9 billion 
will be invested in continued component improvements, system capability 
development, and testing.
    I would like to review our accomplishments, as well as our 
shortfalls, over the past year, explain our testing and fielding 
strategies, and address the next steps in our evolutionary ballistic 
missile defense program.

                     EVOLVING SECURITY ENVIRONMENT

    Proliferating and evolving ballistic missile systems and associated 
technologies continue to pose dangers to our national security. In 2005 
there were nearly eighty foreign ballistic missile launches around the 
world. Nearly sixty launches last year involved short-range ballistic 
missiles, approximately ten involved medium- and intermediate-range 
missiles, and about ten involved long-range ballistic missiles.
    North Korea and Iran have not relented in their pursuit of longer-
range ballistic missiles. Our current and near-term missile defense 
fielding activities are a direct response to these dangers. There are 
also other ballistic missile threats today for which we must be 
prepared, and there will be others in the mid- to far-term. We must be 
ready to operate the ballistic missile defense system against new and 
unexpected threats.
    Our potential adversaries continue efforts to acquire ballistic 
missile systems and technology. Ballistic missiles were used against 
our forces, our allies and friends during the 1991 and 2003 Gulf Wars. 
When combined with weapons of mass destruction, they could offer our 
enemies an attractive counterbalance to the overwhelming conventional 
superiority exhibited by U.S. and coalition forces during those wars. 
We can expect that in the future our adversaries could use them to 
threaten our foreign policy objectives or pursue a policy of terrorism 
by holding our cities and other high value assets hostage. After all, 
those who support global terrorism can hide behind the threats posed by 
offensive missiles carrying highly destructive or lethal payloads. They 
will use them to try to deny our forces access to a theater of conflict 
or to coerce a withdrawal of our forces from that theater. Ballistic 
missiles provide a way for our adversaries to attempt to achieve some 
degree of strategic equality with us, especially at a time when 
ballistic missile defense is still striving to catch up with the 
progress made by ballistic missile offense over the past four decades.

               MISSILE DEFENSE APPROACH--LAYERED DEFENSE

    We believe that layered defenses integrated by a robust command and 
control system, will improve the chances of engaging and destroying a 
ballistic missile and its payload in-flight. This approach to missile 
defense also makes the effectiveness of countermeasures much more 
difficult, since countermeasures designed to work in one phase of 
flight are not likely to work in another. It is much harder to overcome 
a complex, multilayered defense. Layered defenses, a time-honored U.S. 
approach to military operations, provide defense in depth and create 
synergistic effects designed to frustrate an attack.
    With the initial fielding in 2004 of the Ground-based Midcourse 
Defense components, the Aegis long range surveillance and track ships, 
and the first integrated command, control, battle management and 
communications (C2BMC) suites, we made history by establishing a 
limited defensive capability for the United States against a possible 
long-range ballistic missile attack from North Korea and the Middle 
East. With the cooperation of our allies and friends, we plan to evolve 
this defensive capability to make it more effective against all ranges 
of threats in all phases of flight and expand the system over time with 
additional interceptors, sensors, and layers.
    Since we cannot be certain which specific ballistic missile threats 
we will face in the future, or from where those threats will originate, 
our long-term strategy is to strengthen and maximize the flexibility of 
our missile defense capabilities. As we proceed with this program into 
the next decade, we will move towards a missile defense force structure 
that features greater sensor redundancy and sensitivity, interceptor 
capability and mobility, and increasingly robust C2BMC capabilities. In 
line with our multilayer approach, we will expand terminal defense 
protection and place increasing emphasis on boost phase defenses.
    We are effectively employing an evolutionary acquisition strategy 
to field multiple system capabilities while maintaining an aggressive 
test and development program. The Missile Defense Agency continues to 
evolve and refine desired capabilities, based on warfighter need and 
technology maturity, through sound risk management. Our goal continues 
to be one of fielding the best capabilities possible, on schedule, on 
time, and within cost, in order to address current and emerging 
threats.

                 COMPLETING THE FIELDING OF BLOCK 2004

    Since I last appeared before this committee, we have made a number 
of significant accomplishments to complete initial fielding of the 
Block 2004 capability. We have also fallen short in some areas. When we 
rolled this program out in 2002, we set out to deploy 10 Ground Based 
Interceptors in 2004 and another 10 in 2005. A booster motor plant 
explosion in 2003, which had a major impact across the missile defense 
program, and the need to step back and undertake a mission readiness 
review of the Ground-based Midcourse Defense program following two test 
failures caused us to miss our fielding mark. I delayed the Ground-
Based Interceptor deployment in 2005 and made changes based on the 
recommendations of the mission readiness review. I believe we are now 
back on track, but I will pause again if necessary. We recently 
emplaced three more Ground-Based Interceptors in silos at Fort Greely, 
Alaska, for a total of nine, and two at Vandenberg Air Force Base in 
California. This progress is critical because we expect the Ground-
based Midcourse Defense element to be the backbone of our national 
missile defense capability for years to come. Today we continue with 
interceptor fielding and plan to emplace additional Ground-Based 
Interceptors, for a total of sixteen by December of this year.
    This past year we also added a second Aegis engagement cruiser and 
delivered additional Standard Missile-3 interceptors to our evolving 
sea-based architecture to address short- and medium-range threats in 
the midcourse phase of flight. We did not advance as rapidly as we 
hoped. We needed to resolve technical issues associated with the third 
stage rocket motor and the solid divert and attitude control system to 
take full advantage of interceptor performance designed to pace the 
threat. However, we are close to the 10 to 20 sea-based interceptors we 
projected for delivery in our initial program. Right now, I am 
comfortable with where we stand in our sea-based interceptor deployment 
plans. We will continue to grow our inventory of Standard Missile-3 
interceptors for deployment aboard Aegis ships and, by the end of 2006, 
outfit three Aegis destroyers and one additional cruiser with this 
engagement capability. So, in addition to providing surveillance and 
tracking support to the integrated ballistic missile defense system, 
Aegis provides a flexible sea-mobile capability to defeat short- to 
intermediate-range ballistic missiles in the midcourse phase.
    In our sensors program, we upgraded the Beale Early Warning Radar 
in California. The Beale radar complements and works synergistically 
with the surveillance and tracking capabilities of the fully 
operational Cobra Dane radar in Alaska, and together they will help us 
defend against the longer-range threats coming out of East Asia. The 
Beale radar will play an instrumental role in tests this year to 
demonstrate the system's ability to intercept intercontinental-range 
missiles using operationally configured assets.
    This past year we added six more Aegis Long-Range Surveillance and 
Track destroyers to our force, for a total of eleven. These ships 
provide much sought-after flexibility in our architecture, giving us 
more time to engage enemy missiles and improving the performance of the 
entire system.
    We are making good progress in integrating the Sea-Based X-band 
radar into the system. It is the most powerful radar of its kind in the 
world and will provide the system a highly advanced detection and 
discrimination capability. This past January the radar completed its 
long journey from Texas, where it underwent extensive sea trials and 
high-power radiation testing in the Gulf of Mexico, to Hawaii. This 
spring its voyage continues to Adak, Alaska, where it will be home-
ported and put on station.
    This past year the Forward-Based Radar, our transportable X-band 
radar, successfully acquired and tracked intercontinental ballistic 
missiles in tests conducted at Vandenberg Air Force Base. We are now 
preparing to deploy the radar to provide precision track and 
discrimination capabilities, which will improve regional and homeland 
missile defense capabilities.
    We also completed subsystem checkout of the Fylingdales radar in 
the United Kingdom and achieved high-power radiation. We conducted the 
necessary operator training at that site and are now in the middle of 
completing an important series of ground tests that are necessary to 
verify this system's capability, tests that had been deferred on the 
recommendations of the Mission Readiness Task Force. We expect to 
complete testing at Fylingdales later this year.
    We have an extensive command, control, battle management and 
communications infrastructure to support all these elements, and we are 
ready to provide complete operations and maintenance support to the 
warfighter. We have taken the first step in integrating the BMD system, 
which is necessary to establish an affordable and effective global, 
layered defense. We have installed hardware and software at the United 
States Northern Command (NORTHCOM), United States Strategic Command 
(USSTRATCOM), and United States Pacific Command (PACOM). C2BMC 
capabilities include basic deliberative crisis planning and common 
situational awareness at these Combatant Commands. In addition, we now 
provide common situational awareness directly to the President of the 
United States and the Secretary of Defense to aid in decision-making. 
In addition to fielding these suites, we also completed five major 
software release upgrades this past year, each improving the capability 
of the command, control, battle management and communications system.
    It is this global connective capability that allows us to combine 
different sensors with different weapons. For example, we are 
developing the Aegis BMD system so that it can support a ground-based 
interceptor launch by sending tracking information to the fire control 
system. A forward-deployed radar can cue and pass tracking information 
on to, for example, a Patriot Advanced Capability-3 unit, or a 
regionally deployed Terminal High Altitude Area Defense battery, or a 
Ground-based Midcourse Defense or Aegis BMD engagement ships. In other 
words, we want to be able to mix and match sensor and interceptor 
resources to give the system more capability by expanding the detection 
and engagement zones. Our ability to integrate all of the weapons and 
sensors into a single package that will use interceptors in the best 
location to make the kill gives us a critical multiplier effect.
    We work closely with U.S. Strategic Command and the Combatant 
Commanders to certify missile defense crews at all echelons to ensure 
that they can operate the ballistic missile defense system. We have 
exercised the command, fire control, battle management and 
communication capabilities critical to the operation of the system.
    We also are continuing to exercise the system to learn how best to 
operate it, and we have demonstrated our ability to transition smoothly 
from test to operations and back. In our exercises and tests, we have 
worked through a number of operational capability demonstrations in 
order to increase operational realism and complexity, certify crews and 
safety procedures, and demonstrate the operational viability of the 
system. The Missile Defense Agency will continue to coordinate with the 
warfighter to implement developmental upgrades and improvements in the 
system to maximize system capability. This is very important since we 
will continue to improve the capabilities of the system over time, even 
as we remain ready in the near-term to take advantage of its inherent 
defensive capability should the need arise.

               BUILDING CONFIDENCE THROUGH SPIRAL TESTING

    We have consistently pursued a comprehensive and integrated 
approach to missile defense testing and are gradually making our tests 
more complex. Missile defense testing has evolved, and will continue to 
evolve, based on results. We are not in a traditional development, 
test, and production mode where we test a system, then produce hundreds 
of units without further testing. We will always be testing and 
improving this system, using a testing approach that cycles results 
into our spiral development activities. This approach also means 
fielding test assets in operational configurations. This dramatically 
reduces time from development to operations in a mission area where, 
until now, this nation has been defenseless.
    Last year, following the two launch aborts of the interceptor for 
the Ground-based Midcourse Defense element, I explained that we had 
several concerns with quality control and reliability; but we did not 
view the failures as major technical setbacks. In response to those 
failures, I chartered an independent team to review our test processes, 
procedures and management. The team concluded that the Ground-based 
Midcourse Defense program met the challenge of providing an initial 
defensive capability but found deficiencies in systems engineering, 
ground qualification testing, flight test readiness certification, 
contractor process control and program scheduling. The independent 
review team recommended that the Missile Defense Agency reorient the 
missile defense program to strengthen its emphasis on mission 
assurance.
    I established a Mission Readiness Task Force under Admiral Kate 
Paige to implement the corrective actions needed to ensure a return to 
a successful flight test program. The task force identified steps to 
strengthen our systems engineering and quality assurance processes and 
provide the reliability and repeatability necessary for operational 
success. As a result, we undertook a comprehensive review of these 
system processes at each step along the way. We are also undertaking 
the necessary ground and flight qualification tests to retire the risks 
uncovered by the independent review team and the Mission Readiness Task 
Force. To strengthen our test program, I diverted four long-range 
interceptors slated for operational use into testing, with the intent 
to replace them in 2007 if our test program was successful. Last year, 
I asked the committee to have patience, knowing that the system's basic 
functionality was not at risk. As a result of our aggressive actions, I 
believe that mission assurance and system reliability are now on track.
    We finished the year strongly with a string of test successes 
across the board. These successes continue to build confidence in our 
spiral development approach. In a major step forward, in September 
2005, we flew a threat representative target across the operational 
Cobra Dane radar and generated an intercept solution using the long-
range fire control system. We then flew the operational configuration 
of the long-range interceptor in December 2005 and put the kill vehicle 
through its paces. We not only achieved all of the test objectives for 
that flight, but we also accomplished many of those objectives we 
identified for the next flight test scheduled for this spring. Last 
February, we exercised an engagement sequence that used the Upgraded 
Early Warning Radar at Beale Air Force Base in California to provide 
tracking information to a simulated long-range interceptor from an 
operational site at Vandenberg. Based on the many tests we have 
conducted to date, including three successful flight tests of the 
operational long-range booster now emplaced in Alaska and California, 
we maintain our confidence in the system's basic design, its hit-to-
kill effectiveness, and its inherent operational capability. We will 
continue to test this system to ensure it will remain mission ready.
    We continue to work closely with the Director, Operational Test & 
Evaluation, Operational Test Agencies, and Combatant Commanders to 
characterize the effectiveness and readiness of the system at every 
stage in its development and fielding. This year the fielded BMD system 
will undergo ever more challenging and operationally realistic testing.
    We will begin the important next step of testing our long-range 
ground-based defense with more operationally robust flight tests as a 
part of the integrated ballistic missile defense system. With the next 
tests involving the Ground-Based Interceptor, we will step up testing 
complexity and involve operational crews, operational interceptor 
launch sites, and operational sensors. These tests will involve an 
operationally configured interceptor launched from Vandenberg that will 
attempt to acquire and intercept a target missile launched out of the 
Kodiak Launch Complex in Alaska. With the last two tests in this 
series, we will demonstrate the ability of the system to perform more 
refined acquisition and discrimination functions and the ability of the 
exo-atmospheric kill vehicle to divert toward the target and intercept 
it. We also plan to use tracking data from the Sea-Based X-band radar 
when it is available to feed its data into system tests and operations. 
In 2007, as we return our focus to fielding long-range interceptors, we 
plan one system intercept test and one flight test, both of which will 
further demonstrate the operationally configured interceptor.
    In our sea-based midcourse defense element, we have continued to 
ratchet up the degree of realism and reduce testing limitations. This 
past November, for the first time, we successfully used a U.S. Navy 
Aegis cruiser to engage a separating target carried on a threat-
representative medium-range ballistic missile. A separating target is 
more challenging to engage because it can fly faster and farther than 
the boosting missile. In order to increase operational realism, we did 
not notify the operational ship's crew of the target launch time, and 
they were forced to react to a dynamic situation. We are planning two 
more Aegis interceptor flight tests in 2006. Last March, we conducted a 
very successful cooperative test with Japan involving a simulated 
target to demonstrate the engagement performance of a modified SM-3 
nosecone developed by the Japanese in the United States/Japan Joint 
Cooperative Research project. One of the upcoming U.S. Aegis intercept 
tests will again involve a separating warhead. In 2007 we plan to 
conduct two tests of the sea-based interceptor against short and 
medium-range targets.
    Flight-testing involving the redesigned interceptor for the 
Terminal High Altitude Area Defense (THAAD) began last November when we 
successfully demonstrated the separation and operation of the 
production booster and kill vehicle. This year we will conduct four 
more tests to characterize performance of the new missile and the 
ability to integrate it into the BMD system. Later this year we will 
also conduct the first intercept test high in the atmosphere. In 2007 
we plan to conduct four intercept tests as part of our THAAD flight 
test program.
    Also planned in 2007 are two Arrow system flight tests and one 
Patriot combined developmental and operational test. The command, 
control, battle management, and communications infrastructure will be 
exercised in all of our system level tests.
    Ground tests, wargames and modeling and simulation help demonstrate 
interoperability, assess performance and specification compliance, and 
develop doctrine, tactics, techniques and procedures. In 2007 we will 
continue with our successful ground-testing, which involves warfighter 
personnel and test hardware and software in the integrated system 
configuration to demonstrate system connectivity and interoperability. 
Upcoming tests will verify integration of the sea-based, forward-based, 
and Fylingdales radars. The funds we are requesting also will support 
additional capability demonstrations and readiness demonstrations led 
by the warfighting community.

               COMPLETING THE NEXT INCREMENT--BLOCK 2006

    To keep ahead of rogue nation threats, we continue to hold to the 
fielding commitments we made to the President for Block 2006, which 
include investment in the necessary logistics support and command, 
control, battle management and communications infrastructure. In 2006 
and 2007, we will build on the successes we had in 2005 to improve 
protection against a North Korean threat, provide protection against a 
threat from the Middle East, expand coverage to allies and friends, 
increase countermeasure resistance, and improve protection against 
short-range ballistic missiles. We are also planning to field more 
mobile, flexible interceptors and associated sensors to meet threats 
from unanticipated launch locations.
    For midcourse capability against the long-range threat, the Ground-
based Midcourse Defense (GMD) element budget request for fiscal year 
2007 of $2.7 billion will cover continued development, ground and 
flight testing, fielding and support. This is about $125 million more 
than we budgeted for fiscal year 2007 in last year's submission. The 
risk-reduction work prescribed by the Mission Readiness Task Force has 
caused us to reduce the number of interceptors fielded in 2007. This 
request includes up to 4 additional ground-based interceptors, for a 
total of 20 interceptors in Alaska by the end of 2007, their silos and 
associated support equipment and facilities as well as the long-lead 
items for the next increment. The increase in fiscal year 2007 funding 
from last year to this year is attributed, in part, to increased 
sustainment, logistics and force protection requirements, as well as to 
other needs associated with preparing the system for operations. This 
budget submission also continues the upgrade of the Thule early warning 
radar in Greenland and its integration into the system.
    The Royal Air Force Fylingdales early warning radar in the United 
Kingdom will be fully integrated for missile defense purposes by fall 
2006. It will provide sensor coverage against Middle East threats.
    As part of our effort to make the system more robust, improve 
defense of our allies, and address threat uncertainties, we are 
continuing discussions with our allies in Europe regarding the 
deployment of radars and a third site for Ground-Based Interceptors. 
Later this year we will be able to give greater definition to this 
important evolutionary effort.
    To address the short- to intermediate-range threat, we are 
requesting approximately $1.9 billion to continue development and 
testing of our sea-based midcourse capability, or Aegis BMD, and our 
land-based THAAD terminal defense capability. System tests will involve 
further demonstrations of the sea-based interceptor, and we will 
continue enhancing the system's discrimination capability. We will 
continue Standard Missile-3 improvements. We added approximately $49 
million to the fiscal year 2007 request for Aegis BMD from last year to 
this year to address the Divert and Attitude Control System and other 
aspects of the system, including the development of a more capable 2-
color seeker for the SM-3 kill vehicle. We will continue purchases of 
the SM-3 interceptor and the upgrading of Aegis ships to perform the 
BMD mission. By the end of 2007 we will have three Aegis engagement 
cruisers, seven engagement destroyers, and seven Long Range 
Surveillance and Track destroyers. These sea-based sensors and weapons 
will improve our ability to defend the homeland and our deployed troops 
and our friends and allies. In fiscal year 2007 we will initiate work 
with Japan for follow-on SM-3 development in order to increase its 
range and lethality. We also will continue the THAAD development effort 
that will lead to fielding the first unit in the 2008-2009 timeframe 
with a second unit available in 2011.
    We will continue to roll out sensors that we will net together to 
detect and track threat targets and improve discrimination of the 
target set in different phases of flight. In 2007, we will prepare a 
second forward-based X-band radar for operations. We also are working 
towards a 2007 launch of two Space Tracking and Surveillance System 
(STSS) test bed satellites. These demonstration satellites will perform 
target acquisition and handover and explore approaches for closing the 
fire control loop globally for the entire BMD system. In fiscal year 
2007 we will undertake initial satellite check-out and prepare for 
tests involving live targets. We are requesting approximately $380 
million in fiscal year 2007 to execute this STSS activity, and $402 
million for the Forward-Based Radar work.
    For the ballistic missile defense system to work effectively, all 
of its separate elements must be integrated by a solid command, 
control, battle management and communications foundation that spans 
thousands of miles, multiple time zones, hundreds of kilometers in 
space and several Combatant Command areas of responsibility. C2BMC 
allows us to pass critical information from sensors to provide input 
for critical engagement decisions. Combatant Commanders can use the 
C2BMC infrastructure to enhance planning and help synchronize globally 
dispersed missile defense assets. These capabilities also can provide 
our senior government leadership situational awareness of ballistic 
missile launches and defense activities.
    This C2BMC capability allows us to mix and match sensors, weapons 
and command centers to dramatically expand our detection and engagement 
capabilities over what can be achieved by the system's elements 
operating individually. We cannot execute our basic mission without 
this foundation.
    With this year's budget request for $264 million for the C2BMC 
activity, we will continue to use spiral development to incrementally 
develop, test, and field hardware and software improvements. We will 
press on with the development of the initial global integrated fire 
control to integrate Aegis BMD, the forward-based radar, and Ground-
based Midcourse Defense assets. We plan to install additional planning 
and situational awareness capabilities to facilitate executive 
decision-making among the Combatant Commanders.
    The Missile Defense Agency is committed to delivering the best 
capabilities to the warfighter in a timely manner, and warfighter 
participation and input is a critical part in the engineering process. 
Today, the Army National Guard's 100th Missile Defense Brigade, Air 
Force's Space Warfare Center, and Navy ships in the Pacific Fleet are 
on station and operating the system. Our fiscal year 2007 request 
continues to fund critical sustainment and fielding activities and 
ensure that system developers have financial resources to support 
fielded components. We will continue to work collaboratively with the 
Combatant Commanders and the Military Services as the system evolves to 
define and prioritize requirements. Exercises, wargames, and seminars 
continue to be important collaboration venues. We will also continue to 
support training activities to ensure operational readiness, combat 
effectiveness, and high-level system performance.

            MOVING TOWARD THE FUTURE--BLOCK 2008 AND BEYOND

    There is no silver bullet in missile defense, and strategic 
uncertainty could surprise us tomorrow. So it is important that we 
continue our aggressive parallel paths approach to building this 
integrated, multilayered defensive system. There are several important 
development efforts funded in this budget.
    In executing our program we continue to follow a strategy of 
retaining alternative development paths until capability is proven--a 
knowledge-based funding approach. That means we are setting specific 
targets, or knowledge points, that the development efforts have to 
reach within certain periods of time. Knowledge points are not reviews, 
but discrete activities in a development activity that produce data on 
the most salient risks. The approach involves tradeoffs to address 
sufficiency of defensive layers--boost, midcourse, terminal; diversity 
of basing modes--land, sea, air and space; and considerations of 
technical, schedule, and cost performance. This is fundamental to how 
we execute the development program, because it enables us to make 
decisions as to what we will and will not fund based upon the proven 
success of each program element.
    For example, we are preserving decision flexibility with respect to 
our boost phase programs until we understand what engagement 
capabilities they can offer. We have requested approximately $984 
million for these activities in fiscal year 2007. This past year the 
revolutionary Airborne Laser (ABL) reached its knowledge points when it 
achieved a full duration lase at operational power and completed 
initial flight tests involving its beam control/fire control system. 
The program's knowledge points for 2006 include flight testing of the 
lasers used for target tracking and atmospheric compensation. This 
testing, which will test the entire engagement sequence up through the 
point where we fire the laser, will require use of a low-power laser 
surrogate for the high-power laser. Once we have completed modification 
of the aircraft which has begun in Wichita, Kansas, we will start 
installation of the high-power laser modules in 2007. This will provide 
us with the first ABL weapon system test bed and allow us to conduct a 
campaign of flight tests with the full system. In addition to 
installation of the high-power lasers, we will continue integration, 
ground, and flight test activities in fiscal year 2007 to support ABL's 
low-power beam control/fire control and battle management systems. We 
will be working towards a lethal demonstration of the weapon system 
against a boosting ballistic missile in 2008.
    We still have many technical challenges with the Airborne Laser. 
Yet the series of major achievements beginning in 2004, when we 
achieved first light and first flight of the aircraft with its beam 
control/fire control system, gives me reason to be optimistic that we 
can produce an effective directed energy capability. An operational 
Airborne Laser could provide a valuable boost-phase defense capability 
against missiles of all ranges.
    The Kinetic Energy Interceptor (KEI) is a boost-phase effort in 
response to a 2002 Defense Science Board Summer Study recommendation to 
develop a terrestrial-based boost phase interceptor as an alternative 
to the high-risk Airborne Laser development effort. Last year we 
focused near-term efforts in our kinetic energy interceptor activity to 
demonstrate key capabilities and reduce risks inherent in the 
development of a land-based, mobile, very high acceleration booster. It 
has always been our view that the KEI booster, which is envisioned as a 
flexible and high-performance booster capable of defending large areas, 
could be used as part of an affordable, competitive next-generation 
upgrade for our midcourse or even terminal interceptors. A successful 
KEI mobile missile defense capability would improve significantly our 
ability to protect our allies and friends.
    This past year we demonstrated important command, control, battle 
management, and communications functions required for a boost intercept 
mission, including the use of national sensor data for intercept 
operations in the field. The key knowledge point for this program is 
the demonstration of a very high acceleration booster. We began a 
series of static firing tests of the first and second stages of the 
booster and had a successful firing this past January. We plan a flight 
test to verify the new booster in 2008.
    Development of the Multiple Kill Vehicle (MKV) system will offer a 
generational upgrade to ground-based midcourse interceptors by 
increasing their effectiveness in the presence of multiple warheads and 
countermeasures. We are exploiting miniaturization technology to 
develop a platform with many small kill vehicles to engage more than 
one object in space. This effort will supplement other innovative 
discrimination techniques we are developing for use in the midcourse 
phase by destroying multiple threat objects in a single engagement. In 
2005 we made progress in the development of the MKV seeker, but 
resource constraints and technical shortfalls have caused a delay in 
this development effort. We are now planning to conduct the hover test 
in 2009. Our first intercept attempt using MKV is now scheduled for 
2012. We are requesting $162 million in fiscal year 2007 to continue 
the MKV development effort.

                      INTERNATIONAL PARTICIPATION

    The global nature of the threat requires that we work closely with 
our allies and friends to develop, field, and operate missile defenses. 
We have made significant progress in fostering international support 
for the development and operation of a ballistic missile defense system 
capable of intercepting ballistic missiles of all ranges in all phases 
of flight. We have been working closely with a number of allies and 
friends of the United States to forge international partnerships. I 
would like to highlight a few of our cooperative efforts.
    The Government of Japan continues to make significant investments 
toward the acquisition of a multilayered BMD system, with capability 
upgrades to its Aegis destroyers and acquisition of the Standard 
Missile-3 interceptor. We have worked closely with Japan since 1999 to 
design and develop advanced interceptor components. This project 
culminated in the flight test of an advanced SM-3 nosecone earlier this 
year and ended this phase of our joint cooperative research. 
Additionally, the Missile Defense Agency and Japan have agreed to co-
develop a Block IIA version of the SM-3 missile, which will 
significantly improve the kinematics and warhead capability. We also 
have agreed to deploy an X-band radar to Japan, which will enhance 
regional and homeland missile defense capabilities. In addition, Japan 
and other allied nations continue upgrading their Patriot fire units 
with Patriot Advanced Capability-3 missiles and improved ground support 
equipment.
    In addition to the Fylingdales radar development and integration 
activities, we are undertaking a series of cooperative technical 
development efforts with the United Kingdom. Newly installed 
situational awareness displays in the United Kingdom also are 
indicative of our close collaboration with our British allies in the 
missile defense area.
    Last year we signed an agreement with Denmark to upgrade the radar 
at Thule and integrate it into the system. This radar will play an 
important role in the system by providing additional track on hostile 
missiles launched out of the Middle East.
    We will continue to expand cooperative development work on sensors 
and build on our long-standing defense relationship with the government 
of Australia. In April 2005 we concluded a Research, Development, Test 
and Evaluation agreement to enable collaborative work on specific 
projects, including high frequency over-the-horizon radar, track fusion 
and filtering, distributed aperture radar experiments, and modeling and 
simulation.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its capability to defeat longer-range 
ballistic missile threats emerging in the Middle East. This past 
December Israel conducted a successful launch and intercept of a 
maneuvering target using the Arrow missile. The United States and 
Israel are co-producing components of the Arrow interceptor missile, 
which will help Israel meet its defense requirements more quickly and 
maintain the U.S. industrial work share.
    We also have been in discussions with several allies located in or 
near regions where the threat of ballistic missile use is high for the 
forward placement of sensors, and we continue to support our North 
Atlantic Treaty Organization (NATO) partners in conducting a 
feasibility study to examine potential architecture options for 
defending European NATO population centers against longer-range missile 
threats. This work builds upon ongoing work to define and develop a 
NATO capability for protection of deployed forces. We have other 
international interoperability and technical cooperation projects 
underway and are working to establish formal agreements with other 
governments.

                                CLOSING

    Mr. Chairman, I want to thank this committee for its continued 
support of the Missile Defense Program. When I appeared before you last 
year, we faced numerous challenges. Over the past year, the dedicated 
men and women of the Missile Defense Agency and our industrial partners 
met these challenges head-on and overcame the difficulties we 
experienced in 2004 and early in 2005. The result was that in 2005 we 
made significant progress. We had a series of successful tests that are 
unparalleled in our development efforts to date. In 2006 and 2007 I am 
confident that we will continue this success. I am proud to serve with 
these men and women, and the country should be grateful for their 
unflagging efforts.
    There have been many lessons learned, and I believe the processes 
are in place to implement them as we field follow-on increments of the 
system. I also believe that our program priorities foster long-term 
growth in multilayered and integrated capabilities to address future 
threats. There certainly are risks involved in the development and 
fielding activities. However, I believe we have adequately structured 
the program to manage and reduce those risks using a knowledge-based 
approach that requires each program element to prove that it is worthy 
of being fielded.
    Thank you and I look forward to your questions.

    Senator Stevens. General Dodgen.

STATEMENT OF LIEUTENANT GENERAL LARRY J. DODGEN, 
            COMMANDING GENERAL, U.S. ARMY SPACE AND 
            MISSILE DEFENSE COMMAND/U.S. ARMY FORCES 
            STRATEGIC COMMAND, UNITED STATES ARMY
    General Dodgen. Thank you, sir.
    Mr. Chairman, Senator Inouye, and members of the 
subcommittee, thank you for your ongoing support of our 
military and for the opportunity to appear before this 
distinguished panel.
    This subcommittee continues to be a great friend of the 
Army and the missile defense community, particularly in our 
efforts to field missile defense forces for the Nation and our 
allies. I appear before this subcommittee in two roles. The 
first is as the warfighting member of the joint missile defense 
team. I am the Commander of the Joint Functional Component 
Command for Integrated Missile Defense, or JFCC-IMD, a part of 
United States Strategic Command. The JFCC is a joint user 
representative working closely with the Missile Defense Agency, 
services, and combatant commanders to ensure that our national 
goal of developing, testing, and deploying an integrated 
missile defense system is met.
    The second is as an Army commander for missile defense and 
a proponent for the ground-based midcourse defense system. In 
my role as the JFCC-IMD commander, I directly support the U.S. 
Strategic Command (USSTRATCOM) commander in planning the global 
missile defenses. The JFCC is truly joint, manned by Army, 
Navy, Air Force, and Marine Corps personnel, and is 
headquartered at the Joint National Integration Center at 
Schriever Air Force Base, Colorado.
    This arrangement allows us to leverage the existing robust 
infrastructure and our strong partnership with the Missile 
Defense Agency to execute the IMD mission. In the past year, 
the JFCC-IMD has aggressively executed USSTRATCOM's global 
mission to plan, coordinate, and integrate missile defense. In 
collaboration with geographical combatant commanders, we are 
developing the IMB plans that integrate theater and national 
assets to provide the best protection. STRATCOM, in partnership 
with MDA, is setting the stage to evolve the ballistic missile 
defense system (BMDS) beyond its current capabilities to 
provide a more robust missile defense for the homeland, 
deployed forces, friends, and allies.
    I would now like to highlight the Army fiscal year 2007 
budget submission for air and missile defense (AMD) systems.
    The President's budget, presented to Congress on February 
6, includes approximately $1.57 billion with which the Army 
proposes to perform current Army AMD responsibilities and focus 
on future development and enhancement of both terminal phase 
and short-range AMD systems. The Patriot system remains the 
Army's mainstay theater air and missile defense system and our 
Nation's only deployed land-based short- to medium-range 
ballistic missile defense capability. Today's Patriot force is 
a mixture of configured units. To maximize our capabilities and 
better support the force, the Army is moving toward updating 
the entire Patriot force to the PAC-3 configuration.
    The medium extended air defense system, or MEADS, is a 
cooperative development program with Germany and Italy to 
collectively field an enhanced ground-based air and missile 
defense capability. The MEADS program will enable the joint 
integrated air and missile defense community to move beyond the 
critical asset defense designs we see today. MEADS will provide 
theater-level defense of critical assets and continuous 
protection of a rapidly advancing maneuver force as part of a 
joint integrated AMD architecture.
    As I believe you are aware, the Patriot/MEADS combined 
aggregate program (CAP) has been established. The objective of 
the CAP is to achieve the objective MEADS capability through 
incremental fielding of MEADS major end items in the Patriot. 
Patriot/MEADS CAP is an important capability that will operate 
within MDA's BMDS. The Patriot and PAC-3 CAP research 
development and acquisition budget request for fiscal year 2007 
is approximately $916 million. This request procures 108 PAC-3 
missiles, purchases spares for the system, and reflects the 
necessary Patriot development to keep the system viable as we 
pursue development of the CAP capabilities.
    The fiscal year 2007 President's budget also includes a 
$264 million request for joint land attack cruise missile 
defense elevated netted sensor system, a program developing 
unique lightweight fire-control and surveillance radars to 
detect, track, and identify cruise missile threats. With the 
program funding, we expect first unit equipped occurring by 
2011. Surface launched advanced medium range air to air missile 
(SLAMRAAM) will provide a cruise missile defense system to 
maneuver forces within an extended battle space and a beyond-
line-of-sight engagement capability critical to countering the 
cruise missile and unmanned aerial vehicle threats we foresee 
in the future.
    I appreciate having the opportunity to speak on these 
important matters, and I look forward to addressing questions 
you and other members of the subcommittee may have. I also 
respectfully request that my written statement be submitted for 
the record.
    Thank you, Mr. Chairman.
    Senator Stevens. The statement has been included in the 
record, General.
    [The statement follows:]

        Prepared Statement of Lieutenant General Larry J. Dodgen

                              INTRODUCTION

    Mr. Chairman, Senator Inouye, and Members of the Committee, thank 
you for your ongoing support of our military and for the opportunity to 
appear before this distinguished panel. This Committee continues to be 
a great friend of the Army and the missile defense community, 
particularly in our efforts to field missile defense forces for the 
Nation and our allies. I consider it a privilege to be counted in the 
ranks with Lieutenant General Obering as an advocate for a strong 
global missile defense capability.
    I appear before this committee in two roles. The first is as an 
Army Commander for missile defense and a proponent for the Ground-based 
Midcourse Defense (GMD) System. The second is as a soldier in the Joint 
Missile Defense Team and Commander of the Joint Functional Component 
Command for Integrated Missile Defense (JFCC-IMD), a part of the United 
States Strategic Command (USSTRATCOM), and the joint user 
representative working closely with the Missile Defense Agency (MDA), 
other services, and Combatant Commanders to ensure that our National 
goals of developing, testing, and deploying an integrated missile 
defense system (IAMD) are met.
    Mr. Chairman, as I reported last year, Army soldiers are trained, 
ready, and operating the GMD System at Fort Greely, Alaska, and the 
Joint National Integration Center (JNIC) at Schriever Air Force Base in 
Colorado. Just a couple of years ago, we activated the GMD Brigade in 
Colorado Springs, Colorado, and a subordinate GMD Battalion at Fort 
Greely. These soldiers, as part of the Joint team, are our Nation's 
first line of defense against any launch of an intercontinental 
ballistic missile toward our shores. I am proud to represent them along 
with the other members of the Army's Air and Missile Defense (AMD) 
community.

                          USSTRATCOM JFCC-IMD

    The JFCC-IMD was established in January 2005 as one element of 
USSTRATCOM and reached full operational capability on early in 2006. 
This organization complements the capabilities inherent in other 
USSTRATCOM JFCCs and Joint Task Forces (JTFs) which plan, coordinate, 
and integrate USSTRATCOM's other global missions of Space and Global 
Strike, Intelligence Surveillance and Reconnaissance (ISR), Net Warfare 
and Global Network Operations, and the newest element, the USSTRATCOM 
Center for Combating Weapons of Mass Destruction (WMDs).
    The JFCC-IMD is manned by Army, Navy, Air Force, and Marine Corps 
personnel. It is headquartered at the JNIC at Schriever Air Force Base, 
Colorado. This arrangement enables us to execute the IMD mission by 
leveraging the existing robust infrastructure and our strong 
partnership with our collocated MDA team.
    In the past year, USSTRATCOM, through the JFCC-IMD, has 
aggressively executed its mission to globally plan, coordinate, and 
integrate missile defense. In collaboration with geographic Combatant 
Commands, we are developing IMD plans within a regional area of 
operations in the context of USSTRATCOM's global mission instead of 
individual theater plans.
    Based on guidance from the Commander, USSTRATCOM, we have also 
developed plans to take existing MDA assets, currently in test and 
development status, and rapidly transition them, in an emergency, to an 
operational warfighting capability. This allows USSTRATCOM to provide 
additional critical IMD capabilities to the Combatant Commands in times 
of crisis. Examples of this capability include early activation and 
deployment of the AEGIS SM3 Missile and the sea-based and Forward Based 
X-band Transportable (FBX-T) Radar to operational locations in the 
Pacific region, where, by the end of 2006, they will join a global 
network of radars. USSTRATCOM initiated planning efforts to integrate 
the capabilities of all the JFCCs to support the ``New Strategic 
Triad,'' as it determines the next steps needed to fulfill our 
commitment to an integrated missile defense capable of defending the 
United States, its deployed forces, friends, and allies.
    JFCC-IMD works closely with the other JFCC elements of USSTRATCOM 
and the Combatant Commands to make Offense-Defense Integration, ISR, 
and the other mission areas integral aspects of how we fight, to ensure 
the optimal application of limited resources.
    The IMD community, led by the USSTRATCOM Commander and his Unified 
Command Plan Authority, has conducted numerous capability and readiness 
demonstrations, integrated flight and ground tests, and Combatant 
Command exercises to develop and validate the operators' tactics, 
techniques, and procedures. As we work toward our system's future 
operational capability, increased warfighter involvement in the testing 
and exercising of the Ballistic Missile Defense System (BMDS) ensures 
both the viability of the defense and the confidence of its operators.
    USSTRATCOM, through the JFCC-IMD, is leading the planning of global 
missile defenses with the development of the global IMD Concept of 
Operations (CONOPS). The CONOPS relies on the development and 
coordination of engagement sequence groups (ESGs) and the advocacy of 
desired global missile defense characteristics and capabilities.
    USSTRATCOM-developed global IMD CONOPS serves as a roadmap for the 
warfighting community to guide the development of more detailed IMD 
planning and execution. These CONOPS contains two fundamental 
principles. First, the geographic component commanders execute the IMD 
fight within their Areas of Responsibility (AORs). Second, multi-
mission sensors are centrally tasked by USSTRATCOM Commander to 
optimize their use in forming ESGs.
    As a key requirement for IMD planning, the identification of ESGs 
as the optimal pairing of sensor and weapon capabilities required to 
provide active missile defense for the designated defended area is 
critical. The ESGs are a tool the IMD community uses to help operate 
the BMDS by balancing operational necessity with the realities of 
ongoing research, development, and testing in the near term. As more 
elements and components are made available, ESGs will serve to optimize 
our global missile defense system.
    The USSTRATCOM commander represents all the component commands as 
the advocate for IMD. He executes this responsibility at two levels. 
First, for those elements already deployed, Headquarters, USSTRATCOM 
J8, in collaboration with the JFCC-IMD, conducts the Warfighter 
Involvement Process (WIP) to evaluate the adequacy of the current 
capabilities of the BMDS. This process can encompass anything from 
identifying simple human interface changes or modifications to 
developing refined planning tools. These needs are prioritized by 
USSTRATCOM for review and approval and are provided to MDA for 
consideration. The second level of advocacy focuses on future 
capability needs. These future elements and components will provide 
additional capabilities that enable a more robust, reliable, and 
capable system.
    The critical element that ties the entire BMDS system together is 
the Command and Control Battle Management Communications, or C2BMC. 
C2BMC is an essential evolutionary component of the BMDS that will 
greatly enhance both planning and execution capabilities. C2BMC 
contributes to all phases of BMD from optimizing planning to 
synchronizing the automated execution of the BMDS. Upgrades to the 
Command, Control, Battle Management, and Communications System will 
extend situational awareness capability to Pacific Command and European 
Command by the end of 2006.
    As our planning processes have matured over the past year, JFCC-
IMD's innovative use of new collaborative planning capabilities in 
major combatant command exercises has demonstrated the effectiveness of 
distributed crisis action planning. JFCC-IMD was able to support the 
Combatant Commands with development of new defense designs and 
optimized locations for BMDS in exercises such as USSTRATCOM's GLOBAL 
LIGHTNING and PACOM's TERMINAL FURY.
    Through our partnership with MDA, the Services, and the warfighters 
at the Combatant Commands, USSTRATCOM is setting the stage to evolve 
the BMDS beyond its current capability to that of providing more robust 
missile defense for the homeland, deployed forces, friends and allies. 
We are actively engaged with MDA and the Services in the development 
and deployment of BMDS elements and components ensuring a layered, 
multi-phase operational capability for the Combatant Commands.

   AIR AND MISSILE DEFENSE--AN OVERVIEW OF THE FISCAL YEAR 2007 ARMY 
                           BUDGET SUBMISSION

    In addition to deploying a GMD system, MDA, the Services, and the 
Combatant Commanders are focused on improving Theater Air and Missile 
Defense (TAMD) capabilities within the context of the evolving BMDS in 
Integrated Air and Missile Defense (IAMD) Joint Integrating Concept. 
Both GMD and TAMD systems are vital for the protection of our homeland, 
deployed forces, friends, and allies. Air and missile defense is a key 
component in support of the Army's core competency of providing 
relevant and ready land power to Combatant Commanders.
    I would now like to focus on the Army's fiscal year 2007 budget 
submission for Air and Missile Defense (AMD) systems. The President's 
Budget, presented to Congress on February 6th, includes approximately 
$1.57 billion with which the Army proposes to perform current Army AMD 
responsibilities and focus on future development and enhancements of 
both terminal phase and short-range AMD systems. In short, the Army is 
continuing major efforts to improve the ability to acquire, track, 
intercept, and destroy theater air and missile threats.
    The Army, as part of the Joint team, is transforming its AMD forces 
to meet the increasingly sophisticated and asymmetric threat 
environment encountered by the Joint warfighter. The Army has the lead 
to conduct the IAMD Capabilities Based Assessment. This analysis will 
comprise the front end of the Chairman of the Joint Chiefs of Staff 
Joint Capabilities Integration Development System. The study will 
identify key joint, agency and combat command IAMD capability gaps and 
will recommend doctrine, organization, training, materiel, leadership 
and education, personnel and facilities (DOTMLPF) transformation 
actions. The document is envisioned to fulfill time-phased IAMD needs 
across the range of military operations.

                    INTEGRATED AMD SYSTEM OF SYSTEMS

    The Army is transforming its Air Defense Force from its current 
separate systems architecture to a component-based, network-centric, 
IAMD System of Systems (SoS). The IAMD SoS program focuses on systems 
integration, common battle command and control, joint enabling 
networking, and logistics and training, to ensure operational 
requirements, such as force protection, lethality, survivability, 
transportability and maneuverability are achieved. The IAMD SoS program 
will employ an evolutionary acquisition strategy consisting of a series 
of increments leading to the objective capability. This SoS approach 
calls for a restructuring of systems into components of sensors, 
weapons and Battle Management Command, Control, Communications, 
Computers, and Intelligence (BMC4I) with a standard set of interfaces 
among these components using a standardized set of networks for 
communication.
    Technology insertions to the IAMD SoS will continue throughout each 
increment as high-payoff technologies mature and are ready for 
integration. Incremental development of the IAMD SoS allows the Army to 
field new or improved capabilities to warfighters faster, by producing 
and deploying systems and components as the technologies mature. 
Funding in the proposed fiscal year 2007 President's Budget supports 
the first steps in achieving an IAMD SoS architecture.

                   AIR AND MISSILE DEFENSE BATTALIONS

    As part of Air Defense Transformation, the Army is creating 
composite AMD battalions. These battalions address capability gaps, 
which permit us to defeat cruise missiles and unmanned aerial vehicles 
(UAVs) while maintaining our ability to defend critical assets from the 
ballistic missile threat. The composite AMD battalions will capitalize 
on the synergies of two previously separate disciplines: short-range 
air defense and high-to-medium altitude air defense. The current plan 
is to organize eight battalions as PATRIOT-pure units, five battalions 
as AMD battalions, and create one battalion as a maneuver AMD battalion 
which will soon be our first pure SLAMRAAM Battalion. This 
transformation is underway.
    Within the context just provided, allow me to briefly discuss each 
of the programs that support the Army's AMD Transformation.

               TERMINAL PHASE BALLISTIC MISSILE DEFENSES

    The PATRIOT/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the Theater High Attitude Area 
Defense (THAAD) System capability being developed by MDA with a planned 
fielding in fiscal year 2009, brings an unprecedented level of 
protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
PATRIOT/PAC 3 and MEADS Overview
    Mr. Chairman, since the combat debut of the PATRIOT AMD System 
during Operation Desert Storm, the Army has continued to implement a 
series of improvements to address the lessons learned. During Operation 
Iraqi Freedom (OIF), we saw the debut of the improved PATRIOT 
Configuration-3 system, including the effective use of the Guidance 
Enhanced Missile and the PATRIOT Advanced Capability 3 (PAC-3) Missile. 
PAC-3 is the latest evolution of the phased materiel improvement 
program to PATRIOT. Combining developmental testing and operational 
data, this program has enabled the development and deployment of a new 
high-velocity, hit-to-kill, surface-to-air missile with the range, 
accuracy, and lethality necessary to effectively intercept and destroy 
more sophisticated ballistic missile threats. Today's PATRIOT force is 
a mixture of PAC-2 and PAC-3 configured units. To maximize the full 
advantage of the PAC-3 capabilities, the Army is moving toward pure-
fleeting the entire PATRIOT force to the PAC-3 configuration.
    As I highlighted last year, PATRIOT saved many lives when defending 
against Iraqi ballistic missile attacks during OIF. However, there were 
some operational deficiencies. The Army has undertaken steps to correct 
them and address lessons learned. The Army has pursued two thrusts--
identification and execution of a $41.6 million program for nine 
specific OIF fixes and continued aggressive participation in joint 
interoperability improvements in situational awareness. All funded OIF 
fixes are on schedule to be completed by the end of fiscal year 2007, 
pending any materiel release issues.
    The PATRIOT system remains the Army's mainstay TAMD system and our 
nation's only deployed land-based short-to-medium range BMDS 
capability. The current PATRIOT force must be maintained through 
sustainment and recapitalization efforts until 2028, until the MEADS 
begins fielding, projected to begin in 2017.
    MEADS is a cooperative development program with Germany and Italy, 
to collectively field an enhanced ground-based AMD capability. The 
MEADS program, which supports the President's goal for international 
cooperation in missile defense, will enable the joint integrated AMD 
community to move beyond the critical asset defense designs we see 
today. MEADS will provide theater level defense of critical assets and 
continuous protection of a rapidly advancing maneuver force as part of 
a Joint IAMD architecture. Major MEADS enhancements include 360-degree 
sensor coverage, a netted and distributed battle manager that enables 
integrated fire control, and a strategically deployable and tactically 
mobile, AMD system. While the PAC-3 missile is the baseline missile for 
the international MEADS program, the Missile Segment Enhancement (MSE) 
missile is being developed to meet U.S. operational requirements. MSE 
will provide a more agile and lethal interceptor that increases the 
engagement envelope.
Combined PATRIOT/MEADS Approach
    With the approval of the Defense Acquisition Executive, the Army 
embarked on a path to merge the PATRIOT and MEADS programs, 
establishing the PATRIOT/MEADS Combined Aggregate Program (CAP) with 
the objective of achieving the MEADS capability through incremental 
fielding of MEADS major end items into PATRIOT. PATRIOT/MEADS CAP is an 
important capability that will operate within MDA's BMDS. It is in 
fact, the number one Army priority system for defense against short and 
medium-range Tactical Ballistic Missiles and air breathing threats 
(i.e. cruise missiles and UAVs). The PATRIOT/MEADS CAP will be capable 
of operating within a joint, interagency, and multinational 
interdependent operational environment. It will provide wide-area 
protection at strategic, operational, and tactical levels.
    PATRIOT/MEADS CAP will also provide BMC4I, introduce lightweight 
deployable launchers, upgrade the PAC-3 missile, and eventually provide 
the full MEADS capability to the entire force. The MEADS system offers 
a significant improvement in the ability to deploy strategically while 
maintaining tactical mobility. The system uses a netted and distributed 
architecture with modular and configurable battle elements, which 
allows for integration with other Army and Joint sensors and shooters. 
These features and capabilities will allow MEADS to achieve a robust 
360-degree defense against all airborne threats. By establishing the 
CAP, the joint integrated AMD architecture has become more robust. 
First, MEADS enhancements are integrated into the existing system. 
Second, as lessons are learned from the present missile defense 
capability, they will be incorporated into the MEADS follow-on system. 
We are confident that this path will provide our service members, 
allies, friends, and the Nation with the most capable AMD system 
possible.
    The Army and the entire missile defense community continue to 
strive to improve our nation's missile defense capabilities. The 
PATRIOT and PAC-3/MEADS CAP research, development, and acquisition 
budget request for fiscal year 2007 is approximately $916.5 million. 
This request procures 108 PAC-3 missiles, purchases spares for the 
system, and reflects the necessary PATRIOT development to keep the 
system viable as we pursue development of PAC-3/MEADS CAP capabilities.

                         CRUISE MISSILE DEFENSE

    In the world today, there exists a real and growing threat from 
land attack cruise missiles. Cruise missiles are inherently very 
difficult targets to detect, engage, and destroy because of their small 
size, low detection signature, and low altitude flight characteristics. 
When armed with a WMD warhead, the effect of a cruise missile could be 
catastrophic. It is clear that the required systems and capabilities 
necessary to counter this emerging threat need to be accelerated to 
field a cruise missile defense (CMD) capability as soon as possible. 
The Army's CMD program is an integral piece of the Joint Cruise Missile 
Defense architecture, and we are proud of our contributions to this 
effort. Critical Army components of the Joint CMD architecture are 
provided by the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor (JLENS), the Surface-Launched Advanced Medium Range Air-
to-Air Missile (SLAMRAAM), the Patriot MSE missile, and an integrated 
fire control capability. We are also working closely with the Joint 
community to assure development of doctrine that synchronizes our 
military's full capabilities against the cruise missile threat.
JLENS Overview
    JLENS brings a critically needed capability to address the growing 
CM threat. To support an elevated sensor, the JLENS program is 
developing unique lightweight fire control and surveillance radars to 
detect, track, and identify CM threats. JLENS will support engagements 
using the SLAMRAAM/Complementary Low Altitude Weapon System (SLAMRAAM/
CLAWS), Navy Standard Missile, and PATRIOT/MEADS weapon systems. JLENS 
uses advanced sensor and networking technologies to provide precision 
tracking and 360-degree wide-area, over-the-horizon surveillance of 
land-attack cruise missiles. The fiscal year 2007 JLENS funding request 
of $264.5 million supports development of a full JLENS capability, with 
the first unit equipped by 2011.
SLAMRAAM Overview
    SLAMRAAM will provide a CMD system to maneuver forces with an 
extended battlespace and a beyond line-of-sight, non-line-of-sight 
engagement capability critical to countering the CM threat, as well as 
UAV threats. SLAMRAAM uses the existing Joint AMRAAM missile currently 
used by the Air Force and the Navy, thereby capitalizing on the Joint 
harmony that the Department of Defense (DOD) is striving to achieve. 
The Army and the Marine Corps are also executing a joint cooperative 
development for SLAMRAAM/CLAWS to meet the needs of soldiers and 
Marines in Homeland Defense as well as overseas deployments. The fiscal 
year 2007 funding request of $49 million supports the scheduled Initial 
Operational Capability (IOC) target of 2011.
Sentinel Radar Overview
    The Sentinel Radar is an advanced, three-dimensional, phased array 
air defense radar and a critical component in the Army's ability to 
conduct air surveillance for the maneuver force. Sentinel is a small, 
mobile battlefield radar that supports the joint air defense sensor 
network in detecting cruise missiles, UAVs, and helicopter threats, 
thereby contributing directly to the overall Single Integrated Air 
Picture (SIAP) and supporting multiple Homeland Defense missions. Its 
Enhanced Target Range and Classification (ETRAC) radar upgrades will 
enable it to support engagements at extended ranges and reduce the time 
required to perform target classification. Additionally, these upgrades 
support next generation combat identification for friendly air, thereby 
reducing the possibility of fratricide and providing an enhanced 
positive friendly and civil aviation identification capability. The 
fiscal year 2007 funding request of $17.6 million provides for joint 
identification and composite sensor netting development efforts, four 
ETRAC system upgrade kits, and development and integration of 
improvements to support joint interoperability.

          AIR, SPACE, AND MISSILE DEFENSE COMMAND AND CONTROL

    The Army is increasing its command and control capabilities on the 
battlefield. The Army's Air and Missile Defense Commands (AAMDCs) will 
help integrate TAMD operations, by integrating, coordinating, and 
synchronizing Joint attack operations, active defense, passive defense, 
and C4 operations in the theater, and also globally tie into our JFCC-
IMD.
    Concurrent with the creation of AMD composite battalions, the Army 
has developed, and is now in the process of fielding, air defense 
airspace management (ADAM) cells throughout the force. ADAM cells will 
perform four missions: plan AMD coverage, contribute to third-dimension 
situation awareness and understanding, provide airspace management, and 
integrate operational protection. With an emphasis on receiving and 
sharing the Joint air picture from multiple sources and assets through 
the battle command network, ADAM cells will provide commanders with 
situational awareness as well as the traditional friendly and threat 
air picture, enabling commanders to effectively manage their aerial 
assets. ADAM cells are already being fielded to the Army to meet 
modularity requirements, with two ADAM cells at the Division 
Headquarters and one to every Brigade in the Army, to include both the 
active and reserve forces. This high-priority system has been supported 
through supplemental appropriations to this point. The fiscal year 2007 
funding request of $49.5 million provides 15 ADAM Cells for the active 
and reserve components.
    Also in the past year, the Army activated the 94th Air and Missile 
Defense Command, supporting the U.S. Pacific Command (USPACOM) theater 
of operations. With the 94th AAMDC activation, there are three Army AMD 
Commands; two in the active component and one in the reserve component. 
The 94th AAMDC, designed for Joint and multinational operations, will 
provide for missile defense in the Pacific theater and will assist in 
planning theater-level air and missile defenses. The 94th AAMDC will 
provide the PACOM commander with a more robust theater-based 
capability. Moreover, the unit's presence in the Pacific adds depth, 
because its capability will be readily available to the warfighting 
commander.
    The Joint Tactical Ground Stations (JTAGS), forward deployed today 
in European Command (EUCOM), Central Command (CENTCOM), and PACOM, are 
providing assured missile warnings to Combatant Commanders and assigned 
forces through a direct downlink from space-based infrared assets into 
the joint theater communications architecture. In addition to 
protecting the deployed force, these systems alert the BMDS 
architecture and enhance attack operations. The fiscal year 2007 
funding request of $24.9 million sustains the forward deployed JTAGS 
units supporting Joint warfighters and postures the Army to participate 
with the Air Force in a future ground mobile system compatible with the 
Space-Based Infrared System (SBIRS) and follow-on sensors. The planned 
Multiple Mission Mobile Processor (MP3) Program is being restructured 
due to the delays in the SBIRS schedule.

               COUNTER-ROCKET, ARTILLERY, MORTAR (C-RAM)

    A significant danger in OIF/OEF today is posed by insurgents 
employing indirect-fire tactics of quick-attack, low-trajectory, urban-
terrain-masked rocket, artillery, and mortar (RAM) strikes against U.S. 
forward operating bases in Iraq. To combat this threat, the Army 
developed C-RAM, an integrated solution of capabilities to provide 
warning and intercept of RAM threats. C-RAM provides a holistic 
approach to the Counter-RAM mission. Horizontal integration across the 
core functions--command and control, shape, sense, warn, intercept, 
respond and protect--is providing an integrated modular and scalable 
capability. This capability provides timely warning of mortar attacks, 
intercept and defeat of incoming rounds, and accurate location of 
insurgent mortar crews, enabling a rapid, lethal response. C-RAM takes 
advantage of existing systems and capabilities, combining them in a SoS 
architecture to support the warfighter on today's battlefield. The 
current C-RAM solution is truly Joint, in that it uses fielded systems 
from the Army, Navy and Air Force along with a commercial-off-the-shelf 
(COTS) system. C-RAM has been supported through supplemental 
appropriations. The Army will request funding for continued C-RAM 
fielding in the upcoming supplemental request, and the C-RAM program 
will be included in the Army's POM beginning in fiscal year 2008.

                      DIRECTED ENERGY INITIATIVES

    The Army continues to explore directed energy capabilities for 
weapon system development and integration into Army Transformation 
applications. High Energy Laser (HEL) systems have the potential of 
being combat multipliers, meeting air and missile defense needs in the 
future and enhancing current force capabilities, such as addressing the 
RAM threats. The ability of a HEL system to shoot down RAM targets has 
been repeatedly demonstrated, with mature chemical laser technologies 
proven by the Tactical High Energy Laser (THEL) program.
    Meanwhile, the Army's fiscal year 2007 science and technology 
funding request of $32.8 million supports HEL technology development 
focused on solid state laser technologies that will offer electric 
operation and compatibility with the Future Combat System (FCS) by the 
year 2018. The Army is participating in a Joint high-powered solid 
state laser program with the Office of the Secretary of Defense High 
Energy Laser Joint Technology Office and the other Services to pursue 
several candidate solid state laser technologies with the operating 
characteristics necessary for weapon system development. In fiscal year 
2007, while leveraging the Joint program, the Army is initiating a HEL 
Technology Demonstrator (HELTD) that will, by fiscal year 2013, have 
the ability to shoot down RAM threats as a stepping stone toward 
deployment of HELs in a FCS configuration. Ultimately, HELs are 
expected to complement conventional offensive and defensive weapons at 
a lower cost-per-shot than current systems.

                               CONCLUSION

    Mr. Chairman, the Army, a full contributing member of the Joint 
team, is relevant and ready, fighting the war on terrorism, deployed in 
Southwest Asia and elsewhere, and deterring aggression throughout the 
world, while transforming to meet future threats. With its 
responsibilities for GMD and PATRIOT/MEADS, the Army is an integral 
part of the Joint team to develop and field the BMDS in defense of the 
Nation, deployed forces, friends, and allies. In my role as the Joint 
Functional Component Commander for Integrated Missile Defense, I will 
continue the development of a Joint BMDS capability to protect our 
warfighters and our Nation. The Army has stepped up to the land-attack 
cruise missile defense challenge by aggressively developing the joint, 
integrated, and networked sensor-to-shooter architecture necessary to 
defeat the emerging threat. The fiscal year 2007 budget proposal 
continues the transformation of the Army's ASMD Force to support the 
Army's Future Force, the Joint Integrated Air and Missile Defense 
System, and our global BMDS, building on the ongoing success of our 
theater AMD force in Operation Iraqi Freedom. Transformation will 
continue to define the characteristics of the emerging ASMD force and 
determine how it can best support the Future Force operating in a 
Joint, interagency, and multinational environment.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
Committee members may have.

                     MISSILE DEFENSE FLIGHT TESTING

    Senator Stevens. General Obering, the Graham panel 
recommended intensifying the flight and ground testing of your 
systems. And I am told that the Inspector General pointed out 
there were some issues concerning network communications 
security. Now, it seems that you have changed the confidence in 
the deployed system at both Greely and Vandenberg. As I 
understand it, and staff tells me, your plans call for only one 
ground-based missile defense interception in this year we're in 
now, 2006. Is that right?
    General Obering. Sir, we have three more flight tests that 
we have planned. We know that two of those will be before the 
end of the calendar year 2006, based on our current 
projections.
    Senator Stevens. That's calendar 2006----
    General Obering. Yes, sir.
    Senator Stevens. One will be over in----
    General Obering. Yes, Chairman. One, most likely, will 
slide into the early part of calendar year 2007. We will be 
flying against targets in all of those flights. This next 
flight that will occur to--the mid part to the latter part of 
July, we will have a target, but the interceptor's not that 
primary objective of that mission, because this will be the 
first time that we are able to match the radar, the Beale 
operational radar, with the kill vehicle characterization, the 
seeker characterization. So, while an intercept could occur, 
it's not the primary objective. We will fly against a target 
later this fall which--in which an intercept will be the 
primary objective, and then we will also fly against a target 
in the third flight test, which, as I said, will probably move 
on into 2007.
    Senator Stevens. General Dodgen, is this system on alert 
right now?
    General Dodgen. Mr. Chairman, currently the system is not 
on alert, however, we do have some capability that we can reach 
and put up at the Nation's disposal, if called.
    Senator Stevens. Well, what unit has operational control, 
then, if it's not on alert?
    General Dodgen. I command the unit, sir, at Colorado and at 
Alaska, as an Army commander, and they are operationally under 
the commander of Northern Command, who is charged with our 
homeland defense.
    Senator Stevens. Well, then, operationally, General 
Obering, are you satisfied with the number of interceptors and 
the various assets you have, surveillance and capabilities? Is 
this system ready now?

                         OPERATIONAL READINESS

    General Obering. Senator, if we had to use the system in an 
emergency, as I've said before, I fully--I believe that it 
would work, based on what we have done to date in our testing, 
and that the previous testing we conducted with the actual 
intercepts using a prototype of the kill vehicle that we did in 
the 2000 to 2002 timeframe, that the recent tests that we 
conducted this past year do nothing--I mean, do a lot more to 
bolster our confidence in the system, as well, because we 
actually flew the operational configuration of the interceptor 
that we have in the silo, and we also, for the first time, used 
the actual track information from an operationally configured 
radar--in this case, Beale--as part of our flight test. And 
that--the results of those tests were actually much more 
encouraging than we had originally even planned. The accuracy 
of that radar track and the ability of the system to accept 
that met all of our expectations. So, I feel confident that the 
system would work, if necessary. And, as General Dodgen can 
tell you, all of the operators have been trained and certified, 
and are ready, in that regard.
    Senator Stevens. General Dodgen, you mentioned upgrading 
all of the Patriots to PAC-3 level. Is that funded?
    General Dodgen. It is not funded, Mr. Chairman.
    Senator Stevens. In this budget?
    General Dodgen. It is not funded in this budget.
    Senator Stevens. When do you intend to budget--fund it?
    General Dodgen. The reason it was not funded in this budget 
is, that we just did a recent review of our worldwide posture 
of the Patriot system, a review of Iraqi Freedom, and also the 
timeline to MEADS, which is the system of the future where we 
want to go. When we did this review with the chief, it became 
clear that our operational requirements overseas and the 
ability to operate succinctly and from different places, we 
needed the ``pure fleet.'' In other words, we needed to take 
our last three battalions and bring them to Config-3, where we 
were holding those battalions in Config-2 until MEADS came on. 
So, the chief made a decision a couple of months ago that we 
needed the ``pure fleet,'' and told us to do that by 2009. So, 
you'll begin to see that in the next budget cycle that we 
submit.
    Senator Stevens. Thank you.

                             AIRBORNE LASER

    General Obering, we're pleased with the report on the 
airborne laser. Is there enough money in this bill, the request 
of--for 2007, to meet the key milestones you have to meet, in 
terms of that program?
    General Obering. Yes, sir. And what we are shooting for 
there, of course--we will roll the aircraft out, here, in about 
1 month, with the tracking lasers installed and the atmospheric 
compensation lasers installed. We will begin a series of ground 
testing this summer, and then we go to flight testing in the 
fall with that aircraft, where we will use, initially, a 
surrogate of the high-energy laser to make sure that we've got 
the jitter and the beam control completely addressed. Then we 
plan to take the high-energy laser modules and move them on the 
aircraft, beginning in 2007, and shoot toward a lethal shoot 
down of a boosting missile in the 2008 timeframe. So, yes, sir, 
what we have funded in the program will get us to that.
    Senator Stevens. Well, you call for funding a second 
aircraft, modification of the 747. Is that in this budget, too?
    General Obering. Yes, sir. The--across our future year 
defense plan (FYDP), it is. We have not allocated the long-lead 
items for that second aircraft yet, because what we want to do 
is make sure that we were able to take all the results of this 
testing that we'll be doing in the next 2 years, and fold that 
into the design of that second aircraft. So, we want to make 
sure we've gotten all of the lessons learned, and we need 
basically what we call a design turn between that and the 
procurement of the second aircraft.
    Senator Stevens. But do you have enough money in this 
budget, now, to meet the needs for that second aircraft, as far 
as the program is concerned that you have scheduled for this 
fiscal year?
    General Obering. Based on the schedule that we have laid 
out, yes, sir, we have enough money to do that.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. General Dodgen, we are very much encouraged 
by your success on the Aegis Missile Defense Program. Six out 
of seven intercepts is quite an impressive record. Assuming 
that the success continues, I would assume that it will be 
deployed. And, when that happens, who will be in charge--the 
Navy or will it be a national asset?
    General Dodgen. Of the SM-3 missile, Senator? The vision 
right now is that the Navy will man that system, and it'll be 
aboard the fleets. Currently, there are some missiles in 
Pacific Command (PACOM). JFCC is actually planning the command-
and-control relationships with the combatant commander to bring 
that capability into the family of ballistic missile defense 
systems. So, we're very encouraged by its performance. It has 
regional reach in its capabilities against these threats, 
combined with the Patriot system, and ultimately when the THAAD 
gets here, it'll be a tremendous combination of capabilities 
that we'll have in PACOM and in our other combatant commander 
regions.

              TERMINAL HIGH-ALTITUDE AREA DEFENSE PROGRAM

    Senator Inouye. You've mentioned terminal high-altitude 
area defense (THAAD). It's been very successful recently. 
You're going to be finishing your testing at White Sands. Where 
do you go from there?
    General Dodgen. Well, the testing done by the Missile 
Defense Agency, actually we are somewhat constrained, as I 
understand, by the testing that we do at White Sands, so we'll 
need more battle space in order to test against the threats we 
perceive for THAAD. And so, we'll go into the Pacific test 
range to do those things that we need to. General Obering could 
probably elaborate on that a little more, sir.
    General Obering. Yes, sir. We have a very aggressive 
program on track right now in our testing there. We will finish 
up the White Sands testing and then move out to the Pacific 
missile test range. Everything that we can see is on track. In 
fact, we have--the next flight will be tomorrow, of that 
system. And we're very encouraged by the progress that we've 
made to date.

                   KINETIC ENERGY INTERCEPTOR PROGRAM

    Senator Inouye. General Obering, 3 years ago your agency 
began the kinetic energy interceptor program. This is a 
multibillion dollar program that began as a boost-phase 
program. Over the last few years, the program has shifted. We 
have heard that it does everything from boost to midcourse to 
land and sea based, and it could be the replacement for the 
interceptors at Greely and Vandenberg. Can you straighten out 
the record and tell this subcommittee what MDA's intentions are 
for the KEI program?
    General Obering. Yes, sir. The KEI program started, as you 
said, 3 years ago, and it started at the recommendation of the 
Defense Science Board, because they felt that the airborne 
laser program, while it was very high payoff with respect to 
its directed energy, it was also very high risk from a 
technical perspective. And so, they recommended that we have a 
backup basically for the--for that program. So, what that 
indicated is that we needed a very, very high acceleration 
booster to be able to reach out in that boost phase, that very 
quick boost phase, to intercept the boosting threat missile. As 
we got into the program and we realized what that capability 
entails, that means that with that high acceleration, you also 
have a much-expanded footprint in a terminal role, for example, 
and you could also apply that in the midcourse, as well.
    So, what we're trying to do is be good stewards of the 
taxpayers' money. If we're developing this very high 
acceleration booster for the boost phase, could it be applied 
in other phases, as well, in other uses? The only thing you 
have to change is, you have to--you have to make sure that you 
integrated a different seeker as part of the kill vehicle. So, 
that's what we were looking for as--how could we exploit as 
much as we can of this capability?
    So, as it exists today, it is, in fact, still an 
alternative for our boost-phase defense. And if it pans out--
and it--we will know in fiscal year 2008, when we have planned 
for the first flight of that very high acceleration booster--if 
it pans out, then it could be applied to the other phases, as 
well. So, we're trying to keep an eye for the future to make 
sure that we have all of our bases covered. But what we're 
trying to do is take advantage of that very high acceleration.
    The other advantage it has is, it is a mobile missile. It 
is canisterized, and it is mobile. It is designed to be both 
land based and sea based. And, there again, you could take 
advantage of that mobile capability to be able to augment or 
bolster your overall ballistic missile defense system where you 
may need it worldwide. So, this is a system that you could fly 
into a location, for example, and provide long-range 
protection--coverage against long-range threat missiles and 
very high speed missiles. And so, it became very attractive 
from that perspective.
    But to make sure we've set the record straight, as you say, 
it is still our boost-phase defense alternative. We're still 
focused on the knowledge point in 2008, and then we will 
preserve our flexibility to determine what we would like to do, 
based on the achievement of those knowledge points.
    Senator Inouye. Is the funding request sufficient to keep 
this on track?
    General Obering. Yes, sir. The President's budget request 
is sufficient to keep this program on track.

                            COUNTERMEASURES

    Senator Inouye. One of the most difficult challenges facing 
the program is developing methods to overcome enemy 
countermeasures. There have been suggestions that we are 
building a very expensive system that can be foiled by an 
inexpensive countermeasure. How do you respond to that?
    General Obering. Well, first of all, Senator, the system 
that we're fielding today does not have a robust capability 
against very complex countermeasures, as we have stated in the 
past. However, the systems and the components that we're 
bringing online this year, for example, and the work that we 
have, being able to net together the sensors, and the 
algorithms that we've developed to install those in these 
sensors, get us very far down that path to be able to meet that 
very complex threat.
    In addition, we have a very important program that we call 
the Multiple Kill Vehicle Program. And what that does is, it 
takes a single interceptor and enables it to destroy multiple 
credible objects, so that you can handle the much more complex 
countermeasures and the much more complex threats suites that 
we may face in the future. And so, we are very much 
appreciative of that, the challenge that that represents. We, 
by the way, have probably these nations' leading experts in 
countermeasure, in counter-countermeasure technology. We have a 
very robust countermeasure test program. We actually fly 
missiles with very complex countermeasures on them, and we test 
our radars' and our sensors' capability to discriminate and to 
sort through those. And that's all part of this program. We 
want to make sure that we are not fielding a system that will 
only work against very simple threats, that we are, in fact, 
keeping an eye toward the future and keeping an eye for the 
robustness of this. And I'm very encouraged by what we have 
done in that area.
    Senator Inouye. And your funding request is sufficient to 
carry out this program?
    General Obering. Yes, sir, as long as we get the 
President's budget request, especially for the Multiple Kill 
Vehicle Program, which is that catchall, so to speak.
    Senator Inouye. Mr. Chairman, may I request that my other 
questions be submitted?
    Senator Stevens. Yeah. I'd appreciate it if you'll respond 
to the questions that are just submitted to you in writing.
    Senator Inouye. Thank you very much.
    General Obering. Yes, sir.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you.

             GROUND-BASED MIDCOURSE DEFENSE QUALITY CONTROL

    General Obering, a recent Government Accountability Office 
(GAO) missile defense report raised some doubt about the 
quality of the GMD kill vehicles. What actions have you taken 
to ensure that our ground-based midcourse interceptors are 
highly reliable?
    General Obering. Well, Senator, first of all, we have 
revamped the way that we are doing quality control across the 
program, and especially for the GMD, the EKV program.
    Senator Shelby. It's paid off, too, hasn't it?
    General Obering. Yes, sir, it has. In fact, the initial 
report--or the reports that I've got back as recent as just a 
couple of weeks ago about the changes that have been made now 
in the production facilities, for example, in Tucson and other 
areas, are very, very encouraging. We think that we've gotten 
over the hump there.
    What it primarily had to do with, by the way, is making 
sure that we had accountable engineering processes being 
applied, and we had folks accountable for the individual tail 
numbers that were going through the facility, and that we also 
had a much stronger supply-chain management approach to be able 
to control the quality of the vendors and the suppliers, and 
all of that is in place. We've also deployed more than 24 
mission assurance representatives across the Nation in these 
facilities, working day to day with the contractors. And so, in 
fact, I've had at least one CEO of a major defense corporation 
say that our mission assurance program is the best he'd ever 
seen, and he's actually incorporating that as part of his own 
internal documents.

                   KINETIC ENERGY INTERCEPTOR PROGRAM

    Senator Shelby. I'm glad to hear that.
    General Obering, the MDA budget request of $9.3 billion not 
only supports fielding missile defense capabilities, as you 
well know, but also funds the development of advanced 
technologies to make missile defense more robust and more 
effective. I believe our national defense needs to fully fund 
technology development in order to remain in front of the 
threat. One program currently threatened with cuts in the 2007 
budget, as I understand it, is the Kinetic Energy Interceptor 
Program. Would you address how KEI makes missile defense more 
robust? And what is the impact to the ballistic missile defense 
system if this program isn't fully funded?
    General Obering. Well--yes, Senator----
    Senator Shelby. To you both.
    General Obering. Yes, Senator. As I mentioned earlier, that 
is our program, which is an alternative to the airborne laser 
program. While both of those programs are currently on track, 
we won't know until we reach the knowledge point, in 2008, as 
to whether we can actually lethally shoot down a boosting 
missile with the airborne laser, and whether we can attain the 
very high acceleration that we need out of that KEI program. 
So, if we were to sustain the cuts that have been proposed for 
the KEI program, it removes that flexibility, number one, and 
it prematurely forces us to----
    Senator Shelby. You need that flexibility, do you not?
    General Obering. Yes, sir, because I can't tell you right 
now with confidence that the airborne laser could be an 
operational system. We may be able to technically shoot down a 
missile, but it may not be operationally viable, and we have a 
long way to go there. And it's making great progress, but I 
would not like our options limited too prematurely at this 
point.
    Senator Shelby. How much more money would you need for 
this, with this particular program?
    General Obering. Well, Senator, the President's budget 
request for 2007, I think, is about $386 million for the KEI 
program, and we need all of that.
    Senator Shelby. Need all of it.
    General Obering. Yes, sir.

                     MULTIPLE KILL VEHICLE FUNDING

    Senator Shelby. The multiple kill vehicle, as both of you 
know well, an initiative to provide increased effectiveness 
against potential countermeasures during midcourse engagement. 
It's presently under development. The 2007 request of $164 
million is a considerable increase from the 2006 request of $82 
million. General, will you be able to execute the funding of 
this requested increase? And what progress in MKV do you expect 
to realize in 2007? I think this is progress here, but what do 
you plan to do with it?
    General Obering. Yes, sir. Well, we actually have laid a 
divert and attitude control system test in the 2007 timeframe 
for that program--again, a key knowledge point for the program. 
We have transitioned and moved the management of that program, 
by the way, from the Washington area down to the Huntsville 
area, in terms of how we're executing that management. And so, 
I have no doubt that we'll be able to fully leverage the money 
that we've requested to be able to get us to--the next 
knowledge point is a hover test of that vehicle in 2009. And, 
again, as I mentioned with Senator Inouye, it is very, very 
important to be able to address emerging threats that we may be 
faced with in the future.
    Senator Shelby. Thank you.
    General Dodgen, the 2007 budget request includes proposed 
funding for long lead items necessary for GMD interceptors 41-
50. From your warfighter perspective, General, what would these 
additional interceptors provide, in terms of an increased 
ballistic missile defense capability? Is this request 
warranted? Do you need it?
    General Dodgen. Senator, I think they're very much 
warranted. I think the missile count, as strategically located 
as Fort Greely is----
    Senator Shelby. Absolutely.
    General Dodgen [continuing]. To go east and west----
    Senator Shelby. Sure.
    General Dodgen [continuing]. It's all about how many rounds 
you have in the ground, and the reach of those particular 
rounds. And our shot doctrine calls for us to use potentially 
more than one interceptor against a warhead. And so, we 
potentially could use every one of those rounds.
    Senator Shelby. That's just smart, isn't it?
    General Dodgen. It is smart. We have, in addition to that, 
our joint capability-mix studies played those full inventories 
of munitions and verified that we'll need every one of those 
rounds for the threats that we'll be facing.
    Senator Shelby. Well, you can't afford to be too thin when 
you're defending something, can you?
    General Dodgen. That's correct, sir.
    Senator Shelby. Thank you, Mr. Chairman. I might have some 
additional questions for the record.
    Senator Stevens. Thank you very much.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    I want to dwell on just a little bit of the development of 
the entire system and where we're going and to complete the 
mission. I've had an opportunity to visit facilities, as you 
well know, and also it appears to me, when we dwell on the 
development, I think, of the Patriot, the PAC-3, in the--and 
the Navy SM-3. We're not only developing a tactical weapon, but 
now--we have a weapon now that could probably go strategic as 
this develops out.
    I have some concerns about it, because I'm from Montana, 
and if you guys miss, you put us into business----
    Senator Stevens [continuing]. Up there. And so, we're--as 
those--these systems--can you comment on how you're using these 
multiple parallel paths, really, to create a competition or 
synergy for our ground-based terminal missile system programs, 
because we understand that competition does create a certain 
synergy, and how those two programs play out? General Obering, 
I--yes.

                            LAYERED DEFENSE

    General Obering. Yes, sir. Well, first of all, we are 
designing the system so that we have layers of defense that 
work together, so we can take a sea-based interceptor, like the 
SM-3, and the radar with the aegis program, and integrate that 
into the long-range defense system that is based in Alaska, 
California, and, of course, Colorado Springs. And so, it is 
designed to work together to be able to integrate these 
capabilities and greatly expand the detection and engagement 
zones over what we would have individually.
    Now, what you're referring to in the multiple paths is 
that--for example, with airborne laser and the kinetic energy 
interceptor, we have options that we can execute within the 
boost phase--in the boost phase, for example, to be able to 
make sure that we don't have all our eggs in one basket. And 
that's why I think it would be premature to cut either one of 
those programs until we get to those knowledge points.
    We also have laid in several midcourse capabilities against 
the long range and the Aegis, for example, with the shorter-
range threats. We have planned and have funded in the budget 
the ability to engage the longer-range threats with the sea-
based interceptor and the midcourse, as well. That's our SM-3 
block-2 capability. So, where we can, we like to make sure that 
we have options and flexibility. And we also are integrating 
all of these capabilities together to ensure that we get the 
most that we can out of the system.
    Senator Burns. Well, you were going down the path where 
each one of them sort of had their niche.
    General Obering. Yes, sir.
    Senator Burns. General Dodgen could probably address that.
    General Dodgen. Sir, I would add to that by saying, 
operationally, what we're doing is divorcing sensors from their 
normal role as a system and using them across all the systems 
we have so that multiple sensors can shoot different 
interceptors. When you do that, first of all, you probably 
don't need as many systems. That's what the joint capability-
mix study is telling us. And, second of all, you bring great 
flexibility in the ability to adjust the system for a 
particular threat and in a regional fight. So, we definitely 
plan to integrate the SM-3 missile onboard ships, with THAAD, 
and with Patriot in the regional fight, and some of those same 
sensors will be feeding the GBM system that's at Fort Greely 
and gaining great significance to that. And we're about dealing 
with the command and control to make that all work succinctly 
for the future.

                             ARROW PROGRAM

    Senator Burns. Let's talk about sharing of technology a 
little bit. I think most of us are pleased with the success of 
the Israeli Arrow, that missile in this past year. In fact, 
they had a pretty successful shoot the other--about 1 month 
ago, I understand. This subcommittee has funded that technology 
development with the Israeli Missile Defense Agency, and we're 
pleased that their system is really improving its capability, 
in light of recent developments in Iran. We--you know, it may 
play a larger role than we really think right now.
    Would you care to comment on the benefits of funding the 
Arrow program to your agency? And how has the sharing of 
technology--has it enhanced what we're trying to do here?
    And either one of you can----
    General Obering. Yes, sir. Well, first of all, we've 
learned an awful lot collaboratively together, working with the 
Israelis. We have a series of exercises that we execute with 
them on an annual basis that we learned even more. It played 
out very well in Operation Iraqi Freedom, where we actually had 
integrated and combined the Arrow system with the Patriot 
system to be able to provide coverage during the Operation 
Iraqi Freedom. But we've also, as you say, enjoyed the 
technology benefits. We've actually been able to incorporate 
some of the developments on the Arrow program back into other 
interceptor programs within the Missile Defense Agency. We 
continually do that. We continue to look at their advances in 
software, advances in human/machine interface, and those types 
of things, to see what advantages that we can take. So, it very 
much is a collaborative effort. And, of course, we need that 
even more so in the future as we expand the opportunities for 
missile defense cooperation. And we have several countries that 
are very much interested across the world, and that continues 
to grow almost on a weekly basis.
    Senator Burns. Well, I've had the opportunity to visit not 
only what they're doing there, but also what we're doing down 
in the South Pacific, General. And we stopped in down there 
in--now, let's follow up on that. How positive has it been with 
our North Atlantic Treaty Organization (NATO) friends? What--
and especially fielding the Joint Tactical Ground Station, the 
JTAGS--have we had the same kind of cooperation with our NATO 
friends?
    General Dodgen. Of course, I command the JTAGS, and----
    Senator Burns. Yes.
    General Dodgen [continuing]. Right now they're positioned 
with the combatant commanders to provide early warning for 
those forces. And we have a JTAGS located in Stuttgart with 
European Command (EUCOM). That early warning has been provided 
to our allies in some regard. And so, there is a great deal of 
cooperation there.
    Senator Burns. Are they holding up their share of the 
funding?
    General Dodgen. Well, the funding's totally United States 
at this particular time, but I think I'm encouraged by the fact 
that NATO is beginning to step up their missile defense 
efforts, and, to the most part, start to study and actually 
come forward with some recommendations as to what they want to 
field. They're certainly not where we are in missile defense, I 
would say, but they're certainly talking with us at the 
military level.
    Senator Burns. Well, I get the feeling, you know--we're 
really stretched for money, you know, in funding some of these 
programs, and I'm starting to ask myself, Why should we be 
funding their programs? The American taxpayers should know why 
we're doing that. Is there a reason? Because it is costly.
    General Obering. Senator, if I could address, from a 
different geographic area, Japan, we have entered into a co-
development program pending Japanese approval, for a block-2 
SM-3. And that is a--an equal share in the costing of that, 
which is great for us, and great for Japan, because we are able 
to get that capability, basically, at half the investment to 
the United States. So, that is, I believe, the model, and is 
something that we are very much interested in, in other 
programs, as we proceed in the future, too, to be able to 
leverage our allies.
    General Dodgen. I would add to that, that certainly other 
NATO nations have the Patriot system, like we do. And we have a 
great operational cooperation with them in their systems, in 
their force. Germany and The Netherlands and now the Greeks all 
have Patriot, and Spain is procuring a system. In addition to 
that, we're partners in MEADS with the Germans and the Italians 
to develop the next generation. But those are the short-range 
terminal systems, and cooperation in the longer-range systems 
is something that will be forthcoming, I believe.
    Senator Burns. Well, the reason I asked the question is 
because we have--at the present time, we are facing an enemy 
that offers none of those kind of weapons that would endanger 
our security, both to our troops that are deployed, in the 
Middle East or wherever, or our domestic security. And so, we 
have to look at those. Should we be funding these systems, when 
basically we're in support of boots on the ground, so to speak? 
I come from a different mentality. I served in the Marine 
Corps, and so my mentality is the support for the troops that's 
on the lines, so to speak. And so----

                            MISSILE DEFENSE

    General Obering. Senator, one thing I'd like to address 
there is, this missile defense, as you started out your 
statement, about the overall system----
    Senator Burns. Yes.
    General Obering [continuing]. It is designed not just to 
defend the United States, but also our deployed forces. And, as 
you know, they are deployed worldwide. And, as these ballistic 
missile threats continue to proliferate, I think it's important 
that we do provide that protection, whether they be from the 
shorter-range missiles, as well as the longer-range missiles, 
because, as we say, as we see this threat evolve, they will 
reach those capabilities. And that's why we're trying to expand 
out the umbrella of our defensive coverage to be able to give 
ourselves that flexibility and to prevent a nation--a threat 
nation from either coercing or threatening our allies or 
ourselves, so we can do something about the ballistic missiles 
that could be married with a weapon of mass destruction.
    Senator Burns. Well, I think the American taxpayer would 
thank you for that answer. I agree with you, but those are 
questions that come up, you know, when we talk about the 
security or the support of our troops on the ground. I have 
concern for those men and women, because they are really 
standing in harm's way. I thank you for your answer.
    General Obering. Thank you, Senator.
    Senator Burns. Thank you, Mr. Chairman.
    Senator Stevens. Senator Cochran, do you have questions, 
sir?
    Senator Cochran. Mr. Chairman, thank you very much. And let 
me join you and other members of the subcommittee in welcoming 
our witnesses to the hearing today.
    We have a genuine need for continuing to support a strong, 
robust, workable missile defense system across a broad range of 
threats that we see that are present today and that are 
evolving for future concern--and give us concerns for the 
future, as well. These are big, complicated, challenging jobs 
that you have, and we appreciate the dedication and the efforts 
that you are making to discharge your responsibilities and help 
carry out these important activities in the development and 
deployment of missile defense systems. So, thank you. That's 
the first point I want to make.
    Second, it appears that we are making good progress in 
developing technologies, improving old technologies, in helping 
stay ahead of the curve. And I think that investment of dollars 
is very important. We need to be careful not to waste money. 
And you realize that. We're concerned about keeping spending 
under control, making sure we're getting what we pay for.
    And, in that connection, I was interested in your 
observations about some of the programs I know that you've 
already talked about, the airborne laser and some of the other 
programs, maybe the kinetic energy interceptor, which are still 
under development, but with hope that we can deploy systems of 
this type to help ensure that we have the best possible 
protection.

                          COMMAND AND CONTROL

    Now, one thing that I was curious about is the command and 
control infrastructure. You're developing an integrated 
ballistic missile defense system, but the infrastructure of 
command and control is very important. I wonder what your 
assessment--of this is at this point. General Obering, could 
you give us an update or an overview on the progress you are 
making in integrating command and control capability for 
missile defense?
    General Obering. Yes, sir, be happy to.
    First of all, I have to say that I am extremely pleased 
with the progress that we have made in that area. If you stop 
and think about it, there's no other mission area that I'm 
aware of where you have to get simultaneous situational 
awareness across as many as 11 time zones or more, across the 
various combatant commanders and the geographic commanders, 
again, simultaneously, do the deconfliction and to the battle 
management that will have to be done in the missile defense 
arena, which is a--very much of a challenge.
    But, in fact, we have tackled that. We have rolled out a 
capability that is currently not only here in the National 
Capital but also at Omaha, at STRATCOM, at U.S. Northern 
Command (NORTHCOM) in Colorado Springs, out at PACOM, in 
Hawaii. We have plans to also continue to expand into EUCOM and 
U.S. Central Command (CENTCOM) and to give those capabilities--
those commanders that capability, as well. And so, from a 
command and control perspective, I think the program is very 
much on track.
    We have requested--the money we have requested in the 
President's budget is important for that work. It is important 
to continue that, because that is the heart and soul and the 
brain of the system. We can't do the necessary integration, as 
General Dodgen mentioned, of the sensors and the interceptors 
that we mentioned earlier, without that capability. And this is 
truly a force multiplication effect. For example, if we can 
integrate a land-based radar using this command and control and 
battle management capability with sea-based interceptors, you 
cut down on the number of ships that you need to provide 
protection for a given defended area dramatically. And that 
same effect happens over and over again through the system, 
where you can do this mixing and matching of sensors with 
weapons. And so, we think that it is very, very important.
    So, I think that the money that we've asked for this in the 
President's budget for 2007 is very much--is very important and 
very critical to the program.
    General Dodgen. Senator, could I add to that?
    Senator Cochran. Yes, please.
    General Dodgen. The command and control for the initial 
capability that we fielded in Fort Greely, Alaska, what we've 
called limited defensive operations, very mature tactics have 
been taught through, the foreign doctrine is there, the command 
and control through Northern Command is there. What we're about 
now in a JFCC is expanding that globally through the other 
combatant commanders. And what we do is, we understand the new 
capabilities, such as the sea-based SM-3 capability and when 
the THAAD comes on. We bring the warfighters in from PACOM and 
EUCOM. We fight the system in games. We develop a concept of 
how we're going to operate. We validate that concept. And then 
we feed those means in which we want to operate in terms of 
functionality to MDA, so that they can produce the command and 
control battle management communications (C2BMC) terminals that 
will populate the geographical combatant commanders. That 
process is just starting to go globally. And the funding will 
put that functionality into those command and control terminals 
that we'll use to fight the global fight.
    Senator Cochran. That leads me to my next question, which 
is about international cooperation. It's important for us to 
maintain a spirit of cooperation in order for us to deploy 
radars and other capabilities around the world that make the 
whole system work. At Fylingdales, for example, we have the 
radar there that England has permitted us to continue to use. 
Are there any other examples of problems that we're having in 
the international area?
    General Dodgen. Sir----
    General Obering. Well, sir, in terms of the overall--not 
only situational awareness, but the willingness to cooperate 
and to collaborate in missile defense, I have seen that 
dramatically increase just in my tenure as director of the 
Missile Defense Agency.
    To give you just one little anecdotal metric there, we 
cohost a missile defense international conference every year. 
The last one was held in Rome, last September. We had over 
1,000 delegates at this conference. We had more than 20 nations 
represented there. And we see an upswell of interest and of 
cooperative effort across the board. We have countries, like 
you said, the United Kingdom, who are working with us and 
hosting radar sites and allowing us to be able to use that 
information with respect to the missile defense system. We have 
countries like Japan who are investing their own money, 
significant amounts of it, over $1 billion a year, in missile 
defense, and are working with us not only procuring systems 
from us, but also co-developing new systems with us. And so, 
across the board, I see a dramatic increase in that 
collaboration and that cooperation.
    But I think it's only reasonable, in light of what we see 
happening with the threat. We know that there is a lot of 
activity, nearly 80 missile launches last year around the world 
in the threat communities. We know that this proliferation 
continues. We know it is a weapon of choice. When you marry it 
with a weapon of mass destruction, the ballistic missile 
becomes a convenient delivery vehicle, whether you're talking 
about short range or long range. And so, I think it's not only 
important, I think it's critical that we get this continued 
international development and cooperation.

                   EXPENDABLE LAUNCH VEHICLE PROGRAM

    Senator Cochran. One of the essential parts of this entire 
process is maintaining intelligent satellites and launching 
these satellites. You have the Evolved Expendable Launch 
Vehicle Program, which has produced a couple of families of 
capability. These have had only a few initial launches. But you 
were hoping to reduce the overall cost by agreements with 
commercial customers who are likewise interested in these 
capabilities. Tell us what the status of that is and what you 
foresee as the need, in terms of budget requirements, funding 
of this Expendable Launch Vehicle Program.
    General Obering. Senator, I don't have the Expendable 
Launch Vehicle Program. If you're referring to--I have the 
Multiple Kill Vehicle Program. I also have the space tracking 
and surveillance system programs. But the Expendable Launch 
Vehicle Program is an Air Force-run program. We benefit, 
obviously, from launch services that could be provided for our 
space satellites when we are getting ready to deploy those and 
getting ready to put those up.
    Senator Cochran. So, this is not a part of your budget 
request.
    General Obering. No, sir.
    Senator Cochran. I understood that $937 million is being 
requested in the budget for the Evolved Expendable Launch 
Vehicle Program.
    General Obering. No, sir, not for Missile--
    Senator Cochran. But that's not----
    General Obering [continuing]. Defense.
    Senator Cochran [continuing]. Your budget----
    General Obering. No, sir.
    Senator Cochran [continuing]. Request. That's Air Force----
    General Obering. It's not mine, sir.
    Senator Cochran. Okay.
    Thank you very much, Mr. Chairman.
    Senator Stevens. Thank you, sir.

                         X-BAND RADAR SECURITY

    General, the radar--the X-band radar, Shemya--or, no, the 
radar at Shemya, and the sea-based X-band radar, are going to 
be part of this system. I'm--as you know, I'm fairly interested 
in that. They're going to be, obviously, targets now. Would you 
care to discuss the security situation of those targets, or 
would you like to do it in closed session?
    General Obering. Any details of that, Senator, I'd prefer 
to do that in closed session. But I will tell you that we do 
have what we consider to be adequate security and force 
protection measures that we've employed on those--on the 
platform, on the sea-based X-band radar. We have security 
arrangements that we've--that we have procured for the Cobra 
Dane radar, as well. I am working with General Dodgen and 
STRATCOM and the combatant commanders, because the force 
protection responsibilities, especially in an operational 
environment, fall under the combatant commanders' 
responsibility--area of responsibility. And we're working with 
them to make sure that we have what is considered to be 
adequate force protection for the future, as well.
    But I would prefer the details of that to be in a closed 
session, if you don't mind.
    Senator Stevens. Well, we'll respect that, of course. We'll 
look forward to having a closed session, discussing some of 
these activities later this year.
    General Dodgen, when is this X-band radar going to 
transition to operational status?
    General Dodgen. It will do that later this year. I 
believe--I don't know what the exact month--is it December? 
It's going to leave Hawaii and go through some more trials up 
in the Adak region. Primarily, the software build that we're 
going to put into the GMD fire control (GFC) system will allow 
this radar to be used by the interceptors, will be tested and 
validated in those particular times. So, it won't just be the 
platform that'll be tested. It will be the command and control 
system that's going into the GFC now that will be tested by the 
operators and when I say the ``operators,'' I mean the soldiers 
at Fort Greely, Alaska, will verify this system. And all 
that'll be done before it's actually placed into the system on 
alert later this year.

                            SEA BASED X-BAND

    General Obering. And, Senator, if I may, we have had the 
radar in the vicinity of Hawaii for the past several months. We 
have been doing some corrosion control work on the platform. 
And then, we motored it off the coast to begin the radar 
calibration test, and we actually--I got a report this morning 
that we've completed that activity. So, we'll be coming back 
in, and then we'll be making our way--after a thorough review 
of readiness, we'll be making our way up to Adak, Alaska, in 
the next month or so.
    Senator Stevens. Well, I want to chat with you about it. 
I've been invited to participate in something in August 
pertaining to that X-band radar, and I was surprised, because I 
didn't expect it to be in our waters until later this year.
    General Obering. No, sir. It will be up in Alaska, should 
be there this summer, and then we will----
    Senator Stevens. It will be there this summer?
    General Obering. Yes, sir. And then, we will use the 
remainder of the time to complete its integration from that--
from the location near Adak into the system, do the full 
checkout using those satellite transponders, et cetera. And 
then we'll be available for operations this year, as General 
Dodgen said.
    Senator Stevens. You intend it to be in Adak sometime this 
summer?
    General Obering. Yes, sir.
    Senator Stevens. Do you know a time--any timeframe for 
that?
    General Obering. I will take that for the record and get 
back to you, but I believe it is in the latter part of July.
    [The information follows:]

    The SBX is currently scheduled to depart the Hawaii 
Operational Test Area upon completion of X-Band Radar 
Calibration testing, and will arrive at its loitering location 
50 nautical miles off Adak, AK in late summer.
    The MDA Mission Readiness Task Force, at Lieutenant General 
Obering's request, recently chartered an independent review 
team consisting of retired Navy and Coast Guard admirals, 
senior naval architects, and semi-submersible oil rig experts, 
to assess SBX operational viability with a focus on operations 
in the Bering Sea. The agency will implement some of the 
recommendations in the Hawaii region as well as perform low-
level repairs and maintenance required from calibration testing 
prior to departing for Adak.
    XBR calibration is scheduled to be completed in August, 
2006.

    Senator Stevens. Well, that fits in with the request I have 
had, then. Thank you.
    I was surprised. I didn't think it was going to be there 
that early.
    Well, gentlemen, I want to tell you that I, personally, am 
very pleased with everything I've heard about this, and I'm 
very pleased with the activities of the National Missile 
Defense Support Group that's out there, with Ricky Ellison. And 
I congratulate you on the way your information is being 
disseminated throughout the country about the importance of the 
program and how it's proceeding. I really think it meets up 
with the basic expectations we've had.
    I will tell you that we'd like to talk to you a little bit 
later about some of the aspects of this program. I think that 
it would be best to do that in that closed session we're 
talking about, in terms of how this money is going to be 
allocated.
    Do you, Senators, have any further questions?
    Well, we do thank you very much. And, again, we 
congratulate you. I think the decision to deploy these missiles 
while they're still in the development phase, has proven to be 
a wise decision, and we'd look forward to your keeping us 
advised on the schedule of further developments in the system.
    I failed to ask you about the Kodiak connection. Do you 
have anything scheduled with regard to the Kodiak launching 
system during this year?
    General Obering. Yes, sir. In fact, the targets that I 
mentioned earlier that we will be flying in our next series of 
tests next week, those targets will be launched from Kodiak. 
And I have to tell you that we've been very, very pleased with 
the performance and cooperation there.
    Senator Stevens. That's proved to be a very good place for 
that activity, and we're delighted that you're there.
    And we do thank you for your testimony. And----
    Senator Shelby.
    Senator Shelby. I just want to add something to what you 
said. I think General Obering and General Dogden both, their 
respective commands, Mr. Chairman, are showing real leadership 
and resourceful for the Nation. And this ought to be 
recognized.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. You're right, and I'm particularly 
pleased, as I said, with the transparency. I think everywhere I 
go, people have asked about it, and they've been stimulated by 
the appearances that you and so many members of your command 
have made throughout the country. So, it's very good to have 
that kind of transparency in a program like this.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
Questions Submitted to Lieutenant General Henry A. ``Trey'' Obering III
               Questions Submitted by Senator Ted Stevens
    Question. Over a year ago, the Graham panel recommended 
intensifying your flight and ground testing, while recently the 
Inspector General pointed out issues with your network communications 
security. How has your confidence in our deployed system, including the 
interceptors Fort Greely and Vandenberg, changed? Your plan calls for 
only one ground based missile defense intercept test in fiscal year 
2006; are you comfortable with that level and rate of testing?
    Answer. The Missile Defense Agency's confidence in our deployed 
BMDS is growing. If the deployed system were called upon in an 
emergency we believe that it would work based on the testing we have 
conducted to date. Recent tests conducted over the past year bolster 
our confidence as we have successfully flown the operationally 
configured interceptor. We hope to gain further confidence in our 
system's capability when we conduct an intercept flight test with an 
operationally configured GBI later this year.
    We are successfully executing our plan of continued laboratory and 
distributed asset testing at the component and system level, and are 
conducting a regimented flight test schedule with well-defined entrance 
and exit criteria in accordance with the recommendations of the 
Independent Review Team (IRT) and the Mission Readiness Task Force 
(MRTF). We have instituted a stringent pre-mission ground test program 
prior to our Ground Based Midcourse Interceptor flight test missions 
which allows us to fully exercise the ground components at Fort Greeley 
and Vandenberg prior to a flight test event. In addition, we have 
successfully demonstrated the ability to launch, fly and separate the 
Ground Based Midcourse Interceptor's Exo-atmospheric kill vehicle, 
thereby validating the modifications we made after previous flight 
tests. We have also recently conducted live tests of other key BMDS 
assets demonstrating the system's ability to detect and track live 
targets in flight using operational sensors, operational networks, and 
our operational battle management and fire control nodes.
    Our disciplined path to returning to a flight program required 
specific technical criteria to be met before the flight test could 
occur. This approach limited us to one intercept flight test in fiscal 
year 2006, but provided us with key insights to bolster confidence in 
each and every subsequent event. We plan to maintain this strategy as 
we strive to increase the flight test tempo in subsequent years, 
improve integration of Information Assurance (IA) Controls, and believe 
that this strategy helps balance the technical risks with additional 
confidence that comes from testing in more stressful intercept 
environments.
    Concerning the Department of Defense Inspector General (DOD IG) 
report on the Ground Based Midcourse Defense Communications Network 
(GCN), MDA is confident that the GCN will continue to perform safely, 
securely, and efficiently when called upon to defend this nation, our 
friends and allies against missile threats. The IG recommendations are 
matters that need attending to, and are being appropriately addressed.
                      ground-based missile defense
    Question. I'm pleased that the airborne laser has made technical 
strides during the last year. Will this program have the funding to 
meet its key milestones in 2007?
    Answer. The program has sufficient funding to accomplish the 
projected milestones in 2007. ABL is a high-risk/high-payoff program 
based on cutting edge technology in developing and integrating advanced 
optics and lasers on a flying platform. The program has made 
significant progress by successfully demonstrating long-duration lasing 
at lethal power levels in ground tests and completing flight testing of 
the integrated beam control/fire control and battle management systems 
on board the ABL prototype aircraft. The program is following a very 
aggressive schedule to complete both ground and flight tests of the 
beacon and tracking illuminators (including demonstration of 
atmospheric compensation) before the end of CY 2006, and completion of 
low power system testing in CY 2007, while the high energy laser 
component is refurbished in preparation for installation on board the 
aircraft in CY 2007. All these efforts are leading up to a lethal 
shoot-down of a ballistic missile in the 2008 timeframe.
    Question. Fielding Aegis and Ground Based Midcourse Defense are 
priorities for this committee. Can you assure this committee that the 
Missile Defense Agency has adequate resources allocated to the testing, 
fielding and operational aspects of the current system before embarking 
on the development of new capabilities?
    Answer. I share your views on the importance of fielding the 
Ground-based Midcourse and Aegis BMD elements of the Ballistic Missile 
Defense System (BMDS).
    In fiscal year 2007 we plan to continue the incremental fielding 
and sustainment of Ground-based Midcourse Defense interceptors; 
additional SM-3 missiles and upgrades to Aegis BMD ships; and the 
supporting sensors, command, control, battle management and 
communication capabilities required to integrate these interceptors 
into the BMDS. We have been steadily increasing the operational realism 
of Aegis BMD flight tests leading to deployment of a certified tactical 
capability later this year. In Aegis BMD, the Navy's Operational Test 
and Evaluation force is conducting concurrent testing as part of Aegis 
BMD flight test missions. We will also be pursuing a comprehensive and 
integrated approach to increasing the operational realism of our GMD 
and BMDS flight tests as well as making our ground testing program more 
robust. At the same time, we are not wavering from our commitment to 
sustaining these systems once they are in the field.
    The resources included in our fiscal year 2007 President's Budget 
request, as well as throughout the FYDP, are adequate to support our 
fielding, sustaining and testing commitments. Currently, we are 
fielding missile defense assets about as fast as we can and I can 
assure you that our budget request represents an appropriate balance 
between providing near term missile defense capabilities and preparing 
for the emerging threats of the future through our evolutionary 
development programs.
    Question. The radar at Shemya and the sea based X-Band are key 
elements of the ground based missile defense system. As such, they are 
likely high value targets in the initial phases of an attack. Does the 
Missile Defense Agency plan to protect these assets from our 
adversaries? Can you provide us that plan in a classified session?
    Answer. The overall protection strategy for the Cobra Dane Radar on 
Shemya Island, Alaska and the Sea-Based X-Band (SBX) is based upon an 
assessment of the current threat, the application of security measures 
to deter identified threats and appropriately protect the radar and 
personnel, and the Combatant Commanders planned response to actual 
threats.
Cobra Dane
    U.S. Strategic Command (USSTRATCOM) Strategic Directive 538-2, 
``Global Ballistic Missile Defense Systems (GBMDS) Physical Security 
Program'' directs protection standard at the SSL-A level. This 
specifies protection commensurate with assets for which loss, thefts, 
destruction or compromise would cause great harm to the strategic 
capability of the United States. Cobra Dane does not currently meet all 
SSL-A protection requirements. Remoteness of the asset, severe weather 
conditions, and cost vs. risk are considerations being evaluated 
towards a decision to properly updated existing security. MDA is 
working with USSTRATCOM and Pacific Air Forces (PACAF) to conduct a 
security assessment and develop a risk mitigation plan to identify 
security systems suitable for the Eareckson environment, including 
enhanced security for the Cobra Dane radar.
SBX
    SBX is currently protected as a System Security Level-A asset in 
accordance with DEPSECDEP direction, as implemented by U.S. Strategic 
Command (USSTRATCOM) Strategic Directive 538-2. USSTRATCOM has endorsed 
MDA security and force protection measures as consistent with 538-2 for 
SSL-A.
    Geographic Combatant Commands (GCC) are responsible under the 
Unified Command Plan (UCP) for force protection oversight of SBX-1 when 
operating in their area of responsibility. While MDA is responsible for 
antiterrorism/force protection (AT/FP) of the vessel, the GCC is 
responsible for responding to attacks by adversaries during increased 
threats/wartime. Based on the Force Protection Condition (FPCON) and 
current intelligence, GCCs will direct assigned forces or request 
additional forces to protect the SBX operations, as required.
    Question. Your agency is in the initial development stages of the 
Kinetic Energy Inteceptor, which appears to offer improved performance 
during boost and ascent phase engagements. For commonality, 
supportability, and cost have we examined all avenues of improvements, 
or modifications, to the existing ground based interceptors to provide 
this capability?
    Answer. The Missile Defense Agency did examine the possibility of 
improving or modifying the existing Ground-Based Interceptor to enable 
boost and early ascent phase defenses prior to starting the Kinetic 
Energy Interceptors program in 2003. What we and multiple industry 
teams determined is that a mobile, fast-burning, high acceleration 
booster capability is required to meet boost/ascent phase mission 
requirements. The Kinetic Energy Interceptor booster has approximately 
three times the acceleration of a Ground Based Interceptor with a 
similar payload volume and weight capacity. The Kinetic Energy 
Interceptor is also half the weight of a Ground Based Interceptor; its 
physical size (length and diameter) is constrained to allow rapid 
transport on a C-17 aircraft and future integration on a sea-based 
platform. The only way to achieve this mobile weapon capability is to 
design, develop, integrate and test new booster motors. The development 
of this unique booster vehicle capability is the primary focus of the 
Kinetic Energy Interceptors program through the 2008 booster flight 
knowledge point.
    Question. What milestones and testing events need to occur prior to 
announcing an initial operating capability of the ground-based missile 
defense system?
    Answer. Today, the Ballistic Missile Defense System (BMDS) could 
provide a limited defense if called upon as the initial set of 
capabilities necessary to defeat an incoming ballistic missile have 
been fielded and demonstrated. These capabilities are currently in a 
``shakedown period'' under which our crews are gaining valuable 
experience in their operations, and should some threat arise, we could 
transition from a test phase to an operational phase in a matter of 
hours. MDA is working with the warfighters to ensure they are ready to 
operate the system when directed as well developing the capability to 
operate and test the BMDS concurrently.
    A Secretary of Defense decision to put the system on a higher level 
of alert will be based on a number of factors. These factors include: 
the advice he receives from the Combatant Commanders, and other senior 
officials of the Department; our confidence in the operational 
procedures we have developed; demonstrated performance during both 
ground and flight tests; modeling and simulation; and the threat.
    Question. If the third stage rocket motor is removed from the 
ground-based interceptor, can it do boost phase intercept? What would 
its capabilities and characteristics, including size and mobility, be 
in comparison to the Kinetic Energy Interceptor?
    Answer. [Deleted].

          VALUE OF TEST RANGES TO MISSILE DEFENSE AGENCY (MDA)

    Question. White Sands is perhaps the most unique installation in 
all of DOD and, when combined with Fort Bliss (most of which is located 
in New Mexico) and Holloman Air Force Base, it gives the Department a 
highly valuable venue for combining operations and testing.
    Can you describe the value MDA places on its access to an 
installation like White Sands with its enormous geographic size and 
unrestricted airspace?
    Answer. MDA values access an installation like White Sands Missile 
Range (WSMR) for testing of Ballistic Missile Defense (BMDS) elements 
due to its geographic size and airspace. However, WSMR is not well 
suited for MDA test engagements across multiple time-zones which are 
necessary to increase confidence in the whole BMDS. We continue to 
integrate theater and regional missile engagement capabilities into the 
Ballistic Missile Defense System with a strategic engagement capability 
demonstrated for Block 04. With its size and airspace, WSMR will 
contribute to the success of the BMDS in future testing involving 
PATRIOT integrated with Command Control Battle Management and 
Communications (C2BMC) and the Theater High Altitude Area Defense 
system (THAAD). PATRIOT testing is required to assist in maintaining 
the Limited Defensive Capability of the BMDS as well as the development 
of future Blocks of the BMDS.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

          VALUE OF TEST RANGES TO MISSILE DEFENSE AGENCY (MDA)

    Question. Does this access provide the type of realistic testing 
environment needed to collect accurate data for your systems?
    Answer. Yes, at the developmental testing level, but not as much 
for operational testing:
    Airborne Laser (ABL).--WSMR is well suited for firing the laser in 
flight at diagnostic missiles during beam characterization, and for 
some test sorties where active laser operation is not required.
    THAAD.--For ground testing, THAAD will conduct a total of 26 
activities comprised of tests, demonstrations and New Equipment 
Training/Collective Training. These activities will exercise the 
Launcher, Radar, and Fire Control and Communication components of the 
THAAD element, at WSMR and other ranges, from 2007 through 2011.
    PATRIOT Advanced Capability (PAC)-3.--In fiscal year 2007 and 
fiscal year 2008 there will be a total of two BMDS tests that use the 
Army's PATRIOT tests at WSMR. The first test, set for the second 
quarter fiscal year 2007, will bring C2BMC and THAAD Hardware-In-the-
Loop (HWIL) to exercise the latest PATRIOT and C2BMC software. MDA will 
collect data on communications between THAAD and PATRIOT and will test 
PATRIOT's ability to receive C2BMC engagement-coordination direction. 
For the second test, set for the first quarter fiscal year 2008, MDA 
will bring C2BMC and THAAD HWIL to the PAC-2 Guidance Enhancement 
Missile (GEM) P6X-2 test to accomplish the same objectives. It should 
be noted that the Army will be conducting PATRIOT tests at WSMR in 
addition to MDA specific tests.
    Question. How will White Sands contribute to the success of the 
Ballistic Missile Defense System in the future?
    Answer. In Block 06 and beyond, the MDA has planned engagement 
sequences that include THAAD engagement on its X-band radars and on 
system-level tracks. The WSMR flight campaigns will contribute to 
proving key functionality and interfaces as the BMDS extends to 
integrated, layered, worldwide-defensive capabilities. Accordingly, the 
MDA testing program includes THAAD flight tests and Patriot flight 
tests to demonstrate early interoperability, then integration with the 
BMDS. The C2BMC element will participate in these flight tests to 
demonstrate the situational awareness and planning functions that are 
needed to conduct regional missile defense operations.
    Question. A range-wide environmental impact statement has not been 
completed for WSMR in more than ten years. Would the Missile Defense 
Agency benefit from such an EIS?
    Answer. A decision to conduct a range wide EIS at the Army's White 
Sands Missile Range would be made by the Army and White Sands Missile 
Range, and any value to the Missile Defense Agency would be indirect. 
The Missile Defense Agency (MDA) coordinates test planning at White 
Sands Missile Range with the Army, and as new missile tests are 
identified to meet our testing goals, and as the proponent of those 
tests, the Missile Defense Agency would initiate the necessary level of 
compliance with the National Environmental Policy Act for the specific 
action. Current planned Missile Defense Agency testing at White Sands 
Missile Range is compliant with the National Environmental Policy Act.
    Question. What does the Missile Defense Agency need from White 
Sands Missile Range and New Mexico?
    Answer. THAAD returned to flight testing in 2005, and the second 
flight test of five at WSMR occurred on May 11, 2006. The THAAD program 
currently plans to conduct three additional flight tests at WSMR over 
the rest of this year and into fiscal year 2007 before moving future 
testing to the Pacific Missile Range Facility (PMRF) at Barking Sands, 
HI, where we can conduct tests of more challenging engagement 
scenarios.
    WSMR provides support for many other MDA flight tests via our 
Pacific Range Support Teams (PRST) which are teams composed of staff 
from multiple DOD ranges to support broad ocean area tests, and to 
specific MDA dedicated mobile test assets. We need the WSMR team to 
continue their outstanding support of our MDA PRST, providing critical 
mobile equipment and expertise to remote locations around the Pacific. 
While the WSMR geography seems substantial for tactical systems, MDA 
systems must demonstrate their capabilities on both a broader theater 
and global scale. This large-scale testing will require us to use large 
areas within the Pacific oceans.
    MDA and DOD continually seek more commonality of testing processes 
and tools across the Major Ranges and Test Facility Base, to enable 
more efficient and flexible testing in the future. WSMR's continued 
support of these activities is crucial.
    The C2BMC element participates in THAAD and PATRIOT testing from 
WSMR to achieve early demonstrations of element interconnectivity and 
data message transfer during live fire events. This interconnectivity 
testing is made easy by WSMR's SIPRNET on-range connectivity and ease 
of set-up and troubleshooting.
    MDA's programs take advantage of a substantial amount of 
infrastructure and technical expertise from across New Mexico. Some of 
the other areas include: Holloman High Speed Test Track and WSMR for 
lethality and survivability testing; Kirtland Air Force Research Labs 
and the ABL program office support to our Directed Energy activities; 
and Sandia National Labs for support to our FT targets, threat 
analyses, survivability, among others.
                                 ______
                                 
       Questions Submitted to Lieutenant General Larry J. Dodgen
               Questions Submitted by Senator Ted Stevens

                    BALLISTIC MISSILE DEFENSE SYSTEM

    Question. Given that the system spans multiple departments, 
commands and areas of responsibility, can you describe the current 
operational control of the system? Is the system currently on alert, if 
not when do you project that it will be?
    Answer. The operational control of current Ballistic Missile 
Defense System (BMDS) begins with the Secretary of Defense (SECDEF) who 
retains direct control of the current capabilities. These capabilities 
are in a Research, Development, Test and Evaluation (RDT&E) status 
managed by the Missile Defense Agency (MDA). However, in an emergency, 
operational capabilities are available today and upon direction from 
the SECDEF, control transitions to an operational status. The 
operational control is executed by a combination of Geographic 
Combatant Commanders (GCCs), e.g. Commander STRATCOM, Commander 
NORTHCOM, and Commander PACOM. Control processes have been vetted by 
the GCCs in readiness exercises that verified necessary warfighter 
tactics, techniques and procedures to operate the system. MDA and GCCs 
continue to add capability to BMDS that remain in an RDT&E status until 
the SECDEF decides to place all or parts of the BMDS into a 24/7/365 
mode of operation.
    Question. I understand the 2007 budget cut the advanced procurement 
for the second aircraft. The airborne laser program calls for a fleet 
of modified 747 aircraft. How comfortable are you with the overall 
concept of operations provided the laser's range, aircraft on station 
time and deployment options?
    Answer. The Ballistic Missile Defense Concept of Operations has 
been vetted during developer (Missile Defense Agency) and warfighter 
(Geographic Combatant Commanders) exercises. In many of these 
exercises, use of current simulation resources to depict Airborne Laser 
(ABL) capabilities as part of the larger Ballistic Missile Defense 
System (BMDS) is exercised. Operator's tactics, techniques and 
procedures are refined as we learn more about how each element and 
component of the BMDS interacts in a dynamic, operational context over 
a range of potential adversarial operations. Once ABL technology and 
potential deployment advances, we will be able to better assess the 
state of ABL's concept of operations within the overall BMDS.
    Question. Operationally, to meet the current ballistic missile 
threat, are you comfortable with the number of interceptors, 
surveillance assets, and capabilities at your disposal? When will the 
Sea Based X-Band Radar transition to operational status, and who will 
operate it?
    Answer. As you are aware, the system continues to evolve within the 
Research, Development, Test and Evaluation (RDT&E) arena but, if 
necessary, it can provide an operational capability now. While we now 
have an operational capability, continuous assessments indicate that we 
need both present as well as programmed assets to defeat the evolving 
ballistic missile threat. Provided that planned assets are fielded, I 
am comfortable that the Nation will possess an effective global missile 
defense system. The Sea Based X-band radar (SBX) continues to undergo a 
series of sea trials and sensor calibration activities prior to moving 
to its area of operations later this year. Currently, the SBX is 
operated by a combination of Missile Defense Agency (MDA) provided 
contractors and security personnel. Negotiations are continuing with 
the Services to ensure long-term operations of the SBX.
    Question. Given uncertainty in the international community to 
support our missile defense efforts, what are the risks to the forward 
deployment concept?
    Answer. Capabilities of the Ballistic Missile Defense System (BMDS) 
remain in a Research, Development, Test and Evaluation (RDT&E) status 
under direct control of the Secretary of Defense. Limited, rudimentary 
capabilities are spread over a number of geographic areas that include 
the domains of friends and allies who are forthcoming in support of our 
forward deployment needs. To date, it appears there is a legitimate 
interest by additional friendly and allied entities to provide support 
necessary for stationing and operation of additional deployable 
elements and components and therefore, greatly mitigate any risks there 
may be. In fact, as countries like North Korea and Iran continue to 
develop and market ballistic missiles, there is a corresponding 
increase in international support for missile defense. Many elements 
and components are rapidly deployable from friendly and allied 
operating areas serving as forward basing for support and sustainment 
of BMD assets in adjacent operating areas. Sea and airborne BMDS 
elements and components are rapidly relocated to compensate for any 
loss of any ground stationing issues that may arise in any particular 
scenario. In addition, many friends and allies continue to make their 
own BMDS asset contributions fully integrating regional BMD 
architecture.

                          SUBCOMMITTEE RECESS

    Senator Stevens. We will stand in recess until Wednesday, 
May 17, when we will hear testimony from the Secretary of 
Defense and the Chairman of the Joint Chiefs.
    Thank you very much, gentlemen.
    [Whereupon, at 11:05 a.m., Wednesday, May 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 17.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MAY 17, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:14 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Specter, Domenici, Bond, 
McConnell, Shelby, Burns, Inouye, Byrd, Leahy, Dorgan, Durbin, 
and Feinstein.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF 
            DEFENSE
ACCOMPANIED BY:
        TINA JONAS, COMPTROLLER
        GENERAL H. STEVEN BLUM, CHIEF, NATIONAL GUARD BUREAU

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. We had a vote that 
held us up. We appreciate your courtesy of being with us this 
morning.
    We are going to hear from the Secretary of Defense, Donald 
Rumsfeld, and the Chairman of the Joint Chiefs of Staff, 
General Peter Pace. They are joined by Secretary of Defense 
Comptroller, Tina Jonas. We're pleased to have the Department-
level witnesses here before us, and we look forward to your 
testimony.
    Today we want to discuss the fiscal year 2007 budget 
request for your Department. The budget request is $423.2 
billion in discretionary budget authority for the whole 
Department for the fiscal year 2007. As we review the 
Department's request, we do so ever mindful of those patriotic 
warriors who are fighting for our freedoms every day.
    Mr. Secretary, General Pace, we're going to make your full 
statements a part of our subcommittee records. Let me turn 
first to the co-chairman of our subcommittee, and then we'll 
see if anyone else wishes to make opening remarks.
    Senator Inouye.
    Senator Inouye. Because of the time constraint, sir, I put 
my statement in the record.
    Senator Stevens. Thank you very much. I have also received 
a statement from the chairman of the full committee, Senator 
Cochran which I will insert into the record.
    [The statements follow:]

             Prepared Statement of Senator Daniel K. Inouye

    Good morning Mr. Secretary. I want to join our chairman in 
welcoming you and General Pace as the subcommittee continues 
its Defense Department hearings on the fiscal year 2007 budget 
request.
    During our hearings this year we received testimony from 
the military departments, the Guard and Reserves, the Missile 
Defense Agency, and the Surgeons General.
    Next week we will conclude our hearings as we take 
testimony from members of the general public.
    As we have listened to the testimony of officials in your 
Department, it is clear that they support your budget request.
    DOD budgets are at record high levels, so it stands to 
reason that funding levels in the request should be sufficient 
to meet all the needs of the Department.
    However, we find a number of areas where surprising 
shortfalls remain.
    In health care, your budget assumes savings in excess of 
$800 million for assumed legislative changes to increase 
beneficiary co-payments and efficiencies. Both House and Senate 
authorizing committees have rejected your proposals, so we now 
have a shortfall in this area.
    We learned when the Navy testified that it had assumed 
significant ``risk'' in its readiness accounts. Its ship 
operating budget is woefully underfunded.
    We are aware that the Air Force has used financial gimmicks 
to support a sustained production of the F-22, while the 
planned termination of the C-17 fails to take into 
consideration the need for more aircraft due to its overuse in 
Iraq.
    The Army has insufficient funds to keep its M-1 program on 
track and is assuming a great deal of risk in its base 
operations funding.
    So even in these times of record budgets we see that 
problems still exist. Add to that record high fuel prices and 
we know that our fiscal year 2007 Defense appropriations bill 
will require some major readjustment from the budget that you 
submitted.
    Gentlemen, I am sure you know how much we appreciate your 
services. Managing this Department, especially in these 
challenging times requires duty above and beyond the call.
    We thank you very much.
    Mr. Chairman, thanks to you for inviting our witnesses 
today, and I look forward to their testimony.
                                ------                                


               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to welcome Secretary of Defense 
Rumsfeld and the Chairman of the Joint Chiefs of Staff, General 
Pace here today.
    I join you in praising the efforts demonstrated by our 
military forces serving around the world. The state of 
Mississippi has over 500 of its servicemembers deployed in 
Iraq, Kuwait, and Afghanistan, and is proud to be supporting 
the Global War on Terrorism. Last month, I talked with troops 
in Anbar province. They were motivated, their morale was great 
and they seemed focused on their mission.
    As you know we are in the process of working through the 
differences between the House and Senate Emergency Supplemental 
Appropriations bills which contain funding for the operations 
in Iraq, Afghanistan and the Global War on Terrorism. I am 
working hard to ensure differences are worked out and funding 
is provided as soon as possible, so our troops have the 
resources necessary to accomplish their mission.
    It would be helpful for us to know how soon the 
Supplemental funds will be needed for the Global War on 
Terrorism and what impact there would be from any delay in 
receipt of this funding.
    I thank you for your leadership of our military as they 
defend our national security interests. I am sure your insights 
about the fiscal year 2007 budget request for the Department of 
Defense will be helpful to us in our appropriations process. 
Thank you for your assistance to the committee.

    Senator Stevens. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    And, as I mentioned to the Secretary and the chairman, we 
are extremely proud of the job that our military is doing in 
Iraq and Afghanistan. They don't seem to get credit for doing a 
great job, but we want our men and women in uniform, and the 
civilians who are working with them, to know that we appreciate 
the fact that they've been assigned a tough mission, they're 
doing it, and we appreciate it.
    Thank you, sir.
    Senator Stevens. Senator Burns.
    Senator Burns. I would just ask unanimous consent that my 
full statement be made part of the record.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Mr. Chairman, Secretary Rumsfeld, General Pace welcome.
    First of all, I would like to thank you for your 
exceptional service to our nation. I think it is important to 
remember that the strain that this nation took on September 
11th was one that you felt personally, we speak of heroes in 
our Armed Forces, I would submit that there are a number of 
great American heroes before us today.
    Our country has responded to the challenges faced by 
September 11th and we have sent a message to those who attack 
innocent civilians that we will not be victimized by terror. We 
will stand.
    Our young men and women serving overseas are a testament to 
that stand. There has been a great deal of talk about the path 
to war, and the justification. Much of the dissent over the 
decision to go to war in Iraq has been shown to be false by the 
declassification of thousands of pages of documents which 
detail Saddam Hussein's efforts to mislead the international 
community, and hide his efforts to develop WMD. It is a shame 
that this evidence goes seemingly unnoticed in the media.
    But, beyond that debate; I believe that it is important to 
remember that Americans, Iraqis, and our Allies are facing 
terrorists in Iraq today. Terrorists who believe that Iraq is 
the keystone to what they view as the beginning of a global 
jihad. If we lose in Iraq it will embolden our enemies. Enemies 
that seek nothing less than global war and conquest of everyone 
opposed to their radical agenda. I believe that we need to 
remember that we are fighting al Qaeda in Iraq, and if we don't 
defeat them there, we will be fighting them here.
    Victory in Iraq will be a victory of the Iraqi people. The 
Iraqis will overcome oppression and terrorism and defeat those 
who would seek to divide their nation. We need to support that 
emerging democracy, and we need to support the democratic voice 
of the Iraqi people who have voted their desire to build one 
Iraq.
    Our forces have been engaged around the world in the fight 
for democracy. I would like to take a moment to discuss our 
efforts to ensure that our young men and women and their 
families deployed around the world have a chance to participate 
in our democracy.
    As you know, my colleagues and I are concerned about 
military voting. 17 Senators from both parties including a 
number of Senators who sit on this committee sent a letter to 
your office in March expressing our support for fixing the 
military voting process. As you know, we have a number of 
concerns about the effectiveness of the military process.
    A major part of the problem is getting ballots to our 
service men and women in remote locations. I look forward to 
working with you to implement the Interim Voting Assistance 
System (IVAS) in order to be able to solve a portion of this 
problem by emailing blank ballots to our service members.
    In a recent report the GAO has cited concerns about the 
Federal Voting Assistance Programs (FVAP's) efforts to quantify 
military voter turnout. Low survey response rates, a lack of 
analysis of respondents, and a failure to conduct a sampling 
error analysis are all cited in the report. What this means is 
that the FVAP office cannot really tell us how many of our 
military service men and women voted, or what percentage of 
their votes were counted.
    On the other hand the Election Assistance Commission 
estimates that 18 percent of military votes were not counted in 
2004, another survey indicates the percentage may exceed 25 
percent. Whether one in four military voters is disenfranchised 
or one in five: either way, this is unacceptable.
    In addition the Election Assistance Commission is still 
waiting on the FVAP to provide a report of electronic voting 
efforts in the 2004 election. Without the results of this 
report it is difficult to determine how to move forward with 
the development of electronic voting initiatives.
    I am certain that you share my concern that our young men 
and women serving overseas have the right to vote. I look 
forward to speaking with you on the subject in the near future.

    Senator Burns. And about the only thing I want to highlight 
this morning is--and I'll ask no questions on it, but I want 
the Secretary and the chairman to be aware that we're trying to 
install a new Federal Voting Assistance Program in the military 
and trying to get most of the ballots to our fighting men that 
are scattered around the world, and to get those ballots back, 
and to be counted. We seem to think that this is a very 
important part of their participation in this great country.
    And we'd like to also acknowledge the great job that 
they're doing over there--and everywhere, in fact. And it's, I 
think, because we have great leadership here. And I thank you 
for coming this morning.
    Thank you, Mr. Chairman.
    Senator Stevens. Mr. Secretary, are there other witnesses 
you'd like to have identified for the record? I know you've got 
an array with you, but we're pleased to hear your comments.
    Secretary Rumsfeld. Thank you, Mr. Chairman. I would like 
to identify General Steve Blum, the Chief of the National Guard 
Bureau, who is also here with us.
    Senator Stevens. Thank you very much.
    General, nice to have you here.
    Pleased to have your statement, sir.

                     SECRETARY'S OPENING STATEMENT

    Secretary Rumsfeld. Thank you, Mr. Chairman, Members of the 
subcommittee. We appreciate this opportunity to meet with you 
on the President's budget request for 2007 for the Department 
of Defense.

                             TRANSFORMATION

    Yesterday, I met with a quite different gathering, the 
graduating class of the Virginia Military Institute (VMI). Many 
of them will be putting on the Nation's uniform and see service 
overseas in the months ahead. They'll join nearly 200,000 other 
talented young people who are slated to join the U.S. military 
this year, folks who could be something different, something 
easier, not to mention something safer, and for better pay, but 
who have chosen, instead, to raise their hands and step forward 
to defend our country.
    The U.S. military that they are entering today is 
profoundly different from the force that existed when they 
applied to college 5 years ago. Our armed forces are in the 
process of transforming, and I want to highlight just a few of 
the significant shifts that have taken place and that are 
reflected in this budget.
    First, the changes to our global posture. When I returned 
to this post in 2001, the U.S. military, though smaller, was 
arranged and operated much the same as it was when I was 
Secretary of Defense some 30 years before. In addition, U.S. 
forces were located around the globe in roughly the same places 
they were some 50 years ago, when Soviet armored divisions were 
poised to cross the Fulda Gap and South Korea was then an 
impoverished nation devastated by the Korean war.
    In a major overhaul of our country's global posture, 
thousands of U.S. troops and their families are returning to 
home bases in the United States, the first of some 170,000 
servicemembers and dependents worldwide who will be affected 
over the next decade.
    Just 3 or 4 years ago, the Army consisted of 48 deployable 
combat brigades organized within divisions, their basic 
building block since World War I. In the past, sending one 
brigade overseas required stripping out key headquarters and 
support elements from its parent division, essentially ending, 
or at least reducing, that division's ability to respond to any 
other contingencies.
    Today, the service is well along in reorganizing into a 
more expeditionary force of 70 modular brigade combat teams 
across the Army's Active and Reserve components. These more 
agile, lethal, and more autonomous units can deploy and fight 
quickly with enough of their own firepower, armor, logistics, 
and administrative assets to protect and sustain themselves 
over time. Furthermore, as a result of reorganizing and 
rebalancing skills and positions across the force, tens of 
thousands of soldiers have been shifted from the institutional 
army, the ``tail,'' which trains, supports, and administers the 
force, to the operational Army, that portion of the service 
that's organized, trained, and equipped to deploy and fight.
    The effect of these initiatives by the Army is that a 
relatively modest increase in the overall size of the Army is 
leading to a significant increase in the deployable ``boots on 
the ground,'' or ``teeth,'' the on-call combat power for our 
Nation's defense.

                             NATIONAL GUARD

    Five years ago, the Army Reserve and National Guard were 
configured as a strategic reserve to be called upon maybe once 
in a generation in the event of a major conflict on the scale 
of World War II. They were chronically undermanned, 
underequipped, and underfunded. For example, of the 34 Army 
National Guard combat brigades on paper, only 15 were even 
called ``enhanced brigades'' and supposedly ready for 
deployment. But even those brigades, year after year, were 
partly hollow and underequipped, and had to be augmented with 
people and equipment from other units before they could be 
deployed. Looking forward, instead of having only 15 so-called 
enhanced brigade--combat brigades, the Army Guard, aided by 
some $21 billion in new funding that will replenish equipment 
and accelerate modernization, we'll have 28 brigade combat 
teams that will be fully manned and fully equipped, like their 
active duty counterparts.
    We will see their flexibility with the President's proposal 
to temporarily increase the supporting role the Guard is 
already playing to secure our Nation's borders. The Department 
of Homeland Security is in the lead role, but Guard units may 
provide assistance, such as mobile communications, 
transportation, logistics training, and construction.
    Military forces will not be involved in apprehension or 
detention of illegal immigrants. The up to 6,000 guardsmen and 
guardswomen proposed for this effort represent less than 2 
percent of the total National Guard force of some 400,000 plus. 
And, for the most part, they will be deployed during their 2 or 
3 week ``active duty for training'' period. As such, this will 
not only not adversely affect America's ability to conduct the 
war on terror or respond to other domestic emergencies, it will 
actually provide useful, real-life training for the members of 
the National Guard.

                       OPERATIONS AND MAINTENANCE

    Further, in 2001, when I came back to the Department, the 
military had 132 unmanned aerial vehicles of all types and 
sizes. Today, it has more than 3,000. In 2001, prior to 
September 11, the Army had less than 500 up-armored Humvees. 
Today, it has more than 12,000.
    Next, some 20,000 positions that previously had been 
performed by uniformed military personnel are today being 
performed by civilians, thereby freeing up 20,000 U.S. 
servicemen and servicewomen for truly military tasks and 
assignments, and thousands of additional positions are 
currently slated to be converted from military billets to 
civilian billets over the next 5 years.

                                  NAVY

    As for the Navy, a few years ago three out of four ships in 
the U.S. Navy were not deployable at any given time because of 
long maintenance and training cycles, which was the product, 
really, of a peacetime culture and a peacetime mindset. By 
applying advanced research and development, innovative 
maintenance and training, and a variety of cost-savings 
initiatives, the Navy leadership has changed the way our fleet 
operates and deploys. Today, the percentage of the fleet 
routinely at sea has increased by more than 50 percent. The 
Navy then was able to deploy only three carrier strike groups, 
and surge to two within 30 days; today, it can have six and 
with the ability to surge one additional carrier strike group 
within 90 days.
    A word about special operations forces, very briefly. In 
the past, those forces were largely limited to augmenting 
conventional operations and training foreign militaries. Since 
2002, the special operations command (SOCOM) has grown by 6,000 
troops, its budget has nearly doubled. They've come a long way 
from the time when, as General Pete Schoomaker--he used to lead 
that unit--put it, ``The special operations forces were more 
like a sports car that was never driven for fear of denting the 
fender.''
    We've overhauled both the way we plan for contingencies and 
the way we deploy forces. The Department's deployment process 
was governed previously by a somewhat inflexible cold war 
process that was really designed for total peace or total war--
lever on, lever off, with very little in between. The 
Department has worked aggressively to overhaul the planning 
process so that contingency plans can be better kept up to date 
to reflect more current assessments.

                         MEETING NEW CHALLENGES

    The military has undertaken the historical changes I've 
mentioned while fighting wars in Iraq and Afghanistan and 
across the globe in the struggle against violent extremism. All 
of the many changes to personnel and the way the military plans 
and fights, to structure and organization, and to training and 
doctrine, have involved having the military challenge old 
assumptions and old habits. At various points along the way, 
the proposed changes have understandably met some resistance--
within the Department, in the Congress, in the industrial 
complex, and certainly in the press. Change is difficult in any 
large organization, particularly one like the U.S. military 
that's been so successful over the decades in doing what it 
does best, which has been to fight large armies, navies, and 
air forces in battles along the line of the first gulf war.
    But, increasingly, the challenge today is more than simply 
large armies. It is irregular and asymmetric threats. But if 
there was any doubt about the necessity and the urgency of 
these changes when President Bush first took office in January 
2001, it should have been dispelled 9 months later, when it 
took only 19 men, armed with box cutters and tourist visas, to 
kill nearly 3,000 of our fellow citizens. And today that enemy, 
though under constant pressure and on the defensive, is still 
conspiring to bring murder and suicide to our cities. This long 
war, this struggle against violent extremists is a central 
security issue of our time. The campaigns in Iraq, Afghanistan, 
and other theaters in the war on terror have added new impetus 
and urgency to the efforts to transform the Department.
    The unprecedented and complex task before us, in what could 
be a decades-long campaign against extremism, has prompted a 
series of shifts in the military's approach to its traditional 
missions, its tactics, its techniques, and its procedures. One 
of the most important shifts underway is in the role and 
importance of intelligence.
    The U.S. military has long excelled in engaging targets 
once they've been identified. We have begun a major effort to 
ascertain where the enemy is going next, rather than where the 
enemy was, and to be much better able to find and fix, as well 
as what the military has always done very well--namely, finish. 
This means significantly upgrading and refocusing U.S. 
intelligence capabilities, both human and technological, and 
more effectively linking intelligence to operations in realtime 
in the field. This is an enormous challenge for the dedicated 
and talented men and women in the U.S. intelligence community, 
and clearly it will take some time to achieve our goals.
    A word on the Department's role in the overall intelligence 
community since September 11. Thoughtful people across the 
Government have been trying to find the right structures, the 
right arrangements, so that we can provide the very best 
intelligence to protect the American people. Everything we're 
doing to upgrade and adjust the intelligence capabilities 
within the Department has been coordinated with the other 
agencies of the Government, the Director of National 
Intelligence (DNI), the Central Intelligence Agency (CIA), the 
State Department, the Federal Bureau of Investigation (FBI), 
and down the line. It is a constructive process, and, indeed, a 
continuous process, despite some of the breathless and 
fictitious speculation of bureaucratic intrigue that we see in 
the daily press.

                            PROGRESS IN IRAQ

    A word on Iraq. Iraq will soon be governed, for the first 
time, by a permanent government of national unity elected under 
a new Iraqi constitution that they wrote and they voted on. 
It's entered a hopeful new phase in what has been a long and 
difficult journey, from being ruled by one of the most brutal 
tyrannies in the 20th century to having a representative 
government and a free political system.
    Secretary Rice and I met with Prime Minister-designate 
Malaki and other Iraq elected leaders last month. They seemed 
to be very serious people who recognize that they have a window 
of opportunity to make headway on the serious challenges that 
their nation faces.
    These developments make it all the more important that the 
Congress approve the President's full supplemental request for 
operations in the global war on terror (GWOT). I know this 
hearing is on the 2007 budget, not the supplemental, but I have 
to say that delay in passing the supplemental puts the military 
services' critical accounts--in particular, operations, 
maintenance, and training accounts--at risk, as the services 
are already being forced to try to reprogram funds from other 
parts of their budgets under restrictions as to the amounts 
they can reprogram. The Army and Marine Corps are already being 
forced to defer contract obligations and supply requisitions 
due to impending budget shortfalls.
    In addition, cuts and delays in providing funds for the 
Iraqi security forces would undermine what has been truly 
significant progress in turning over greater responsibility and 
territory to Iraq's army and police forces. Please keep in mind 
that these kinds of cuts most certainly will increase the 
burden on the taxpayer over the long term.
    It costs some 10 times as much to recruit and train and 
deploy an American serviceman as it does an Iraqi soldier, and 
it costs more than twice as much to sustain a U.S. soldier in 
the theater than it does an Iraqi soldier. Any slowdown in 
funding for training and equipping the Iraqi security forces 
has the added harmful effect of postponing the day when our men 
and women in uniform can continue to pass off more 
responsibilities to the Iraqis and come home.
    Mr. Chairman, I started my remarks by mentioning a group of 
young people who are graduates, yesterday, donning their 
Nation's uniform for the first time. I'll end by referring to 
another group of young people that I encountered very recently, 
who are already serving the country and sacrificing.
    Two weeks ago, I went to the United Service Organizations 
(USO) station in Atlanta's Hartsfield Airport to visit with a 
large group of young Army soldiers, Active and Reserve and 
National Guard. They had been in Iraq for 6 months. They had 
been home for their 2 weeks. I had a chance to--and I hope 
others will do this--I had a chance to shake hands with them 
and visit and thank them personally for their service to the 
country. And it was interesting to me that when we left, and 
watched them, they went down the escalator into the terminal, 
people there, waiting for other airplanes, spontaneously 
clapped and stood up as these folks put their duffel bags on 
their shoulders and moved to charter flights, as I recall, to 
take them back over, and then into Iraq. It's a reflection, I 
think, not only of the high regard that our troops are held, 
but also of the fundamental decency and strength of the people 
of the country they serve. It reflects the appreciation and the 
support for their service that has been manifested by this 
subcommittee and by the Congress and the people you represent.

                           PREPARED STATEMENT

    So, I thank you for your support in this complex and 
difficult struggle. The troops have done everything that's been 
asked of them, and they have done so with courage. And we owe 
it to them, and to the country that they have sworn to protect, 
to see that we provide the resources and the capabilities that 
will not only win today's wars, but also best assure peace in 
the decades ahead.
    Thank you, Mr. Chairman.
    [The statement follows:]

                Prepared Statement of Donald H. Rumsfeld

    Mr. Chairman, Members of the Committee.
    With me today is General Peter Pace, the Chairman of the Joint 
Chiefs of Staff. We appreciate the opportunity to meet with you in 
support of the President's budget request for the Department of 
Defense.
    Yesterday, I met with quite a different gathering--the graduating 
class of the Virginia Military Institute. Many of those young men and 
women are putting on our nation's uniform, and will see service 
overseas in the months and years ahead. They will join nearly 200,000 
other talented young people who are slated to join the U.S. military 
this year--young men and women who could be doing something different, 
something easier, not to mention safer, and for better pay--but who 
have chosen instead to raise their hands and step forward to defend 
their country.
    The U.S. military that many of those graduates are entering today 
is profoundly different than the force that existed when they applied 
to college five years ago. And while our Armed Forces are in the 
process of transforming, it might be useful to highlight some of the 
most substantive and significant shifts that have taken place.

                             GLOBAL POSTURE

    First, consider changes to our global posture.
    When I returned to this post in 2001, the U.S. military, though 
smaller, was arranged and operated much the same as it was when I was 
Secretary of Defense some 30 years before. In addition, U.S. forces 
were located around the globe in roughly the same places they were some 
50 years ago--when Soviet armored divisions were poised to cross the 
Fulda Gap and South Korea was an impoverished nation devastated by war.
    In a major overhaul of our country's global posture, thousands of 
U.S. troops and their families are returning to home bases in the 
United States--the first of 170,000 service members and dependents who 
will be affected over the next decade. Heavy Army units that had 
previously been garrisoned in fixed positions to defend against 
particular adversaries--some of whom no longer exist--are being 
relocated and reconfigured to be able to move rapidly wherever needed.
    We have also undertaken a major revision of the military's force 
posture here at home, with the largest round of domestic base closings 
and adjustments in our history--reforms that will save American 
taxpayers billions of dollars in future decades.

                               U.S. ARMY

    Consider the dramatic changes to the U.S. Army.
    Just three years ago, the Army consisted of 48 deployable combat 
brigades organized within divisions--their basic ``building block'' 
since World War I. In the past, sending one brigade overseas would 
require stripping out key headquarters and support elements from the 
rest of its parent division, essentially ending or reducing that 
division's ability to respond to other contingencies.
    Under the leadership of Secretary Fran Harvey and General Pete 
Schoomaker, the service is well along in reorganizing into a more 
expeditionary force of 70 ``modular'' Brigade Combat Teams across the 
Army's Active Component and National Guard. These more agile, lethal, 
and more autonomous units can deploy and fight quickly--but with enough 
of their own firepower, armor, logistics, and administrative assets to 
protect and sustain themselves over time.
    Furthermore, as a result of reorganizing and rebalancing skills and 
positions across the force, tens of thousands of soldiers have been 
shifted from the ``Institutional Army''--the ``tail,'' which trains, 
supports, and administers the force--to the ``Operational Army'' that 
portion of the service organized, trained, and equipped to deploy and 
fight.
    The effect of these significant initiatives--combined with 
investments in new weapons and technologies like the Future Combat 
Systems--is that a relatively modest increase in the overall size of 
the Army is leading to a truly significant increase in the deployable 
``boots on the ground,'' or ``the teeth''--the combat power on call for 
our nation's defense.
    Consider that five years ago, the Army Reserve and National Guard 
were configured as a strategic reserve, to be called on once in a 
generation, in the event of a major conflict on the scale of World War 
II. They were chronically undermanned, under equipped, and under 
funded. For example, of the 34 Army National Guard combat brigades on 
paper, only 15 were called ``enhanced,'' and supposedly ready for 
deployment. But even those brigades, year after year, were partially 
hollow and under equipped, and had to be augmented with people and 
equipment from other units before being ready to deploy.
    Looking forward, instead of having only 15 so-called ``enhanced'' 
combat brigades, the Army Guard--aided by $21 billion in new funding 
that will replenish equipment and accelerate modernization--will have 
28 Brigade Combat Teams that will be fully manned and fully equipped, 
like their Active Duty counterparts.
    Today, the Army National Guard and the Army Reserve is becoming an 
``operational reserve,'' capable of taking on a range of missions at 
home and abroad. We have seen this in Iraq, in Afghanistan, and in the 
Guard's impressive response to Hurricane Katrina.

                      NATIONAL GUARD ON THE BORDER

    We will see it again with the President's initiative to increase 
the supporting role the Guard is already playing to secure our nation's 
borders. The Department of Homeland security is in the lead role, but 
Guard units may provide assistance such as mobile communications, 
transportation and logistics training, and construction. Military 
forces will not be involved in the apprehension or detention of illegal 
immigrants. The up to 6,000 Guardsmen and women proposed for this 
effort represent less than two percent of the total National Guard 
force of some 400,000, and for the most part they will be deployed 
during their active duty for training. As such this will not adversely 
effect America's ability to conduct the War on Terror or respond to 
other domestic emergencies.

                            WEAPONS SYSTEMS

    Weapons systems such as the Crusader artillery system and the 
Comanche helicopter, conceived during and designed for the Cold War, 
have either been cancelled or reduced. In other cases, we have made new 
and innovative use of older platforms, such as the SSGN--a 20-year old 
Trident nuclear ballistic missile submarine that has been converted to 
carry Navy SEALs and capable of launching conventional cruise missiles.
    Further:
  --In 2001 when I came back to the Department, the military had 132 
        unmanned aerial vehicles of all types and sizes. Today it has 
        more than 3,000; and
  --In 2001, prior to 9/11, the Army had less than 500 up-armored 
        Humvees. Today, it has more than 12,000.

                           MANAGING THE FORCE

    Some 20,000 positions that previously had been performed by 
uniformed military personnel are today being performed by civilians, 
thereby freeing up 20,000 U.S. servicemen and women for truly military 
tasks and assignments. And, thousands of additional positions are 
slated to be converted from military billets to civilian billets over 
the next five fiscal years.
    About 10,000 civilian employees are for the first time being 
managed under the new National Security Personnel System that allows 
for greater flexibility in hiring, promotion, and assignment.

                       BALLISTIC MISSILE DEFENSE

    When President Bush took office, the United States had no defense 
against long-range strategic nuclear ballistic missiles. An initial 
capability has now been deployed that will increase over time.

                           NEW ORGANIZATIONS

    In light of the new global threats, the Department has set up new 
organizations, commands, and leadership positions, including:
  --An Under Secretary of Defense for Intelligence, and an Assistant 
        Secretary of Defense for Homeland Defense;
  --A new Northern Command to help to defend our country--which showed 
        its value in the military's response to Hurricane Katrina; and
  --A Strategic Command that now oversees, among other things, defenses 
        against ballistic missiles, and various other unconventional 
        capabilities.

                                  NAVY

    A few years ago, three out of every four ships in the U.S. Navy 
were not deployable at any given time because of long maintenance and 
training cycles--the product of a peacetime culture and mindset.
    By applying advanced research and development, innovative 
maintenance and training, and a variety of cost savings initiatives, 
Navy leadership has changed the way our fleet operates and deploys.
    Today, the percentage of the fleet routinely at sea has increased 
by more than 50 percent. The Navy then was able to deploy only three 
Carrier Strike Groups and surge two within 30 days. Today it can surge 
six, with the ability to surge one additional Carrier Strike Group 
within 90 days.

                           SPECIAL OPERATIONS

    A word about special operations forces.
    In the past, these forces were largely limited to augmenting 
conventional operations and training foreign militaries.
    Today, the Special Operations Command, or SOCOM, is also a 
supported command, and has recently added a Marine Corps element.
    Since 2002, SOCOM has grown by 6,000 troops and its budget has 
nearly doubled. They have come a long way from the time when, as 
General Pete Schoomaker once put it, the special operations forces were 
like a sports car that was never driven for fear of denting the fender.

                         LEADERSHIP APPROACHES

    In the past, certain positions were reserved for those from certain 
services who had followed a certain career path. Given the new 
challenges our forces face, we now have, for the first time:
  --A Marine as a Chairman of the Joint Chiefs;
  --A Marine leading NATO and Strategic Command; and
  --A Navy Admiral leading Northern Command and NORAD.
    In addition, the President picked a former Special Forces officer 
out of retirement to become Army Chief of Staff.
    Not only are these flag and general officers doing a fine job at 
fulfilling the traditional duties of these positions, they have brought 
a fresh joint perspective and approach to the Commands they now lead.

                              WAR PLANNING

    We have overhauled the way we plan for contingencies and the way we 
deploy forces. In the past, an enormous amount of effort and many 
months went into assembling detailed contingency plans that would then 
sit on the shelf while the world and the conditions in it continued to 
evolve and change. And the Department's deployment process was governed 
by an inflexible Cold War process that was designed for total peace or 
total war--a ``lever-on, lever-off'' system--and nothing in between.
    A case in point. As General Franks and his team at Central Command 
went to work to provide the President with a proposal for liberating 
Iraq, he felt that a modified approach was needed. His plan and 
deployment process were designed to do several things:
  --Preserve options and flexibility for the President as the United 
        States and our allies pursued a diplomatic solution;
  --Try to ensure that Saddam Hussein did not provoke a wider war by 
        attacking Israel, as he had done in 1991 with Scud missiles; 
        and
  --Wish to prevent Hussein from torching Iraqi's oil wells, and 
        creating an environmental catastrophe similar to what he left 
        behind in Kuwait.
    And there were other factors to consider:
  --The Iraqi military was weaker than it had been during the First 
        Gulf War, while the U.S. military, though smaller, was 
        significantly more capable in emphasizing a number of 
        technology advances;
  --A prolonged war could inflame the publics of the region--there was 
        no Al Jazeera in 1991--and potentially destabilize key allies 
        and partners; and
  --Garrisoning Iraq with many hundreds of thousands of American 
        troops--which would have entailed moving a large part of the 
        active U.S. Army to the Middle East--could provoke resentment 
        on the part of ordinary Iraqis at such a visible and intrusive 
        foreign presence.
    The plan General Franks and his CENTCOM team developed, with 
consultation and input from the Department's senior leadership--
including the Joint Chiefs of Staff on numerous occasions--was designed 
to:
  --Maintain an element of surprise;
  --Move with speed and agility;
  --Depose Saddam Hussein as quickly as possible before he could do 
        more damage to the Iraqi people and to the region; and
  --Maintain force levels high enough to provide a level of protection 
        and security, but without such a heavy intrusive presence that 
        might feed an insurgency and impede Iraqis from transitioning 
        to governing and defending themselves--which they are now 
        gradually doing.
    The Department has worked aggressively to overhaul the planning 
process for the Combatant Commands so that contingency plans are being 
kept up to date to reflect more current assessments.

                          RESISTANCE TO CHANGE

    The military has undertaken the historical changes I've mentioned 
while fighting wars in Iraq and Afghanistan, and across the globe in 
the long struggle against violent extremism.
    All of the many changes--to personnel, to the way the military 
plans and fights, to structure and organization, and to training and 
doctrine--have involved challenging assumptions and habits. At various 
points along the way proposed changes have understandably met some 
resistance within the department, the military, the press, the 
government, the Congress, and the industrial complex.
    Change is difficult in any large organization, particularly one 
like the U.S. military that has been so successful over the years at 
doing what it does best--which has been to fight other large Armies, 
Navies and Air Forces in battles along the lines of the First Gulf War. 
But increasingly the challenge today is more than only large armies--it 
is irregular or asymmetric threats. There is truth to the saying that 
``if you do something, some people are not going to like it.'' And they 
will be heard from, let there be no doubt.

                              THE LONG WAR

    But if there was any doubt about the necessity or urgency of these 
changes when President Bush first took office in January 2001, it 
should have been dispelled 9 months later when--despite the expenditure 
of more than $2 trillion on defense and intelligence over the previous 
decade--it took only 19 men, armed with box cutters and tourist visas, 
to kill nearly 3,000 of our fellow citizens and bring our nation to a 
virtual standstill.
    And today, that enemy, though under constant pressure and on the 
defensive, still conspires to bring its cult of murder and suicide to 
our cities--and to those of our allies as well.
    This ``long war''--this struggle against violent extremists--is a 
central security issue of our time. The campaigns in Iraq, Afghanistan 
and other theaters in the Global War on Terror have added new impetus 
and urgency to the efforts to transform underway in this Department.
    Our enemies challenge free societies through non-traditional, 
asymmetric means, using terror as their weapon of choice. Their goal is 
to break America's resolve--the will of our free people--through the 
aggressive use of propaganda and carefully plotted attacks to garner 
headlines and instill fear.
    They are willing to employ every means--every lie, every atrocity 
and every available technology--to achieve their aims. They have become 
experts at manipulating the global media to both inspire and 
intimidate.

                         SHIFTING OUR EMPHASIS

    The unprecedented and complex tasks before us in what could be a 
decades-long campaign against violent extremism has prompted a series 
of shifts in the military's approach to its traditional missions, 
tactics, techniques, and procedures.
    One of the most important shifts underway is the role and 
importance of intelligence. The U.S. military has long excelled at 
engaging targets once they have been identified. We have begun a major 
effort to ascertain where the enemy is going next, rather than where 
the enemy was--to be much better able to ``find'' and ``fix,'' as well 
as what we have always been able to do--namely to ``finish.'' This 
means significantly upgrading and refocusing U.S. intelligence 
capabilities--both human and technological--and more effectively 
linking intelligence to operations in real time in the field. This is 
an enormous challenge for the dedicated men and women in the U.S. 
intelligence community. And it will take some time to achieve.
    The U.S. military is the largest consumer of intelligence. In the 
past, that term usually referred to tactical battlefield information, 
such as the size, location, and disposition of enemy forces, and the 
like. In the 21st Century, however, intelligence information can no 
longer be put into neat little categories. A single piece of 
information can simultaneously be of tactical intelligence value to the 
local military commander on the ground, but also of potential strategic 
intelligence value to our government.
    A word on the Department of Defense's role in the overall 
intelligence community: since September 11, and indeed since President 
Bush first took office, thoughtful people across this government have 
been trying to find the right formulas, the right structures, and the 
right arrangements so that we can provide the very best intelligence to 
protect the American people.
    Everything we are doing to upgrade and adjust the intelligence 
capabilities within the Department of Defense has been worked out and 
coordinated with the other appropriate agencies of the government--the 
Director of National Intelligence, the CIA, the State Department, the 
FBI, and on down the line. It is a constructive and open process, and 
indeed a continuous process--despite some of the breathless fictitious 
accounts of bureaucratic rivalry and intrigue that are repeatedly 
published in the press.
    In addition, not just the military, but our government, needs to 
shift from reacting to crises--as has been the case for much of our 
country's history--to preventive action to keep problems from becoming 
crises, and crises from becoming conflicts. We are also shifting from 
the natural American impulse to try to do everything ourselves to 
helping partners and allies develop their capacity to better control 
their territory and to better defend themselves and us against these 
new challenges. This is particularly important in a Global War on 
Terror where many of our nation's most dangerous enemies function 
within the borders of countries that we are not at war with.
    These new priorities have prompted the military to undertake some 
non-traditional missions in non-traditional places. For example, a 
joint task force headquartered in Djibouti conducts civil affairs, 
training, and security operations with Ethiopia, Eritrea, Kenya, 
Uganda, and Yemen. The weapons in this unconventional conflict are 
schools, clinics, and shovels. As one serviceman said, ``We're fighting 
a war down there and [we] haven't fired a shot.''
    This shifts are so important because of the nature of the conflict 
we are in. The enemy would like to define this war as a conflict 
between Islam and the West--but it is not. It is, in fact, a struggle 
within the Muslim world--between the overwhelming majority of Muslims 
and that small number of violent extremists. The vast majority of 
Muslims do not share the violent ideology of al-Qaeda. They have 
children and families they care about. They hope for a better future 
for themselves and for their countries. They do not want the extremists 
to win. And many are courageously opposing them at every opportunity.

                                  IRAQ

    We see this dynamic at work in Iraq, soon to be governed for the 
first time by a permanent government of national unity, elected under 
their new Iraqi constitution. Iraq has entered a hopeful new phase in 
what has been a long and difficult journey--from being ruled by one of 
the most brutal tyrannies of the 20th Century, to having a 
representative government and a free political system.
    Secretary Rice and I met with Prime Minister-designate Maliki and 
Iraq's other newly elected leaders last month. They seem to be serious 
people who recognize that they have a window of opportunity to make 
headway on the serious challenges their nation faces.
    The security situation in Iraq remains a serious challenge. But 
every day, every week, and every month, Iraqi forces grow in size, 
confidence, and capability, and are taking over more and more 
responsibility for larger swaths of their own country. U.S. military 
and Coalition forces continue to play an important role, but their 
mission has shifted fundamentally over the past year--from conducting 
military operations to assisting Iraqi forces as they take the fight to 
the criminals and the terrorists who threaten their sovereign nation.
    More than a quarter million trained and equipped Iraqi Security 
Forces are now in the fight on behalf of the Iraqi people.
    The size and disposition of U.S. forces in Iraq are continuously 
being assessed by General Casey and his commanders on the ground. 
Decisions about Coalition troop levels will be based on their 
recommendations, as has been the case since the earliest planning phase 
of Operation Iraqi Freedom.
    Since being liberated three years ago, Iraq has been governed by a 
series of temporary arrangements--a governing council under the 
Coalition Provisional Authority, an appointed sovereign government, and 
then an elected interim government. Though these were necessary 
arrangements, they were nonetheless temporary, and thus, 
understandably, engendered a certain amount of uncertainty about the 
future. The establishment of a new permanent government, under a 
Constitution the Iraqis wrote, and which was overwhelmingly ratified by 
the Iraqi people, is a significant step forward--it is truly historic.
    Iraq is today the central front in the War on Terror. Our enemies 
know this, even if some commentators in the West seem not to. Osama Bin 
Laden, referring to the United States, recently said: ``Their defeat in 
Iraq will mean defeat in all their wars.'' Ayman al-Zawahiri, his 
deputy, said: ``The arena of jihad in Iraq is now the most important 
arena of jihad in this age.'' And let there be no doubt, while the 
priorities of the extremists are focused on Iraq, their ambitions do 
not end there, especially if the free world were to lose its will just 
as the Iraqi people have begun to chart a hopeful new course.

                          SUPPLEMENTAL REQUEST

    These developments make it all the more important that the Congress 
approve the President's full Supplemental Request for operations in the 
Global War on Terror.
    In addition to paying for ongoing deployments and operations by 
U.S. forces in the Afghanistan and Iraq theaters, this supplemental 
request includes funds to:
  --Train and equip Afghan and Iraqi security forces--a critically 
        important initiative;
  --Counter the threats posed by Improved Explosive Devices;
  --Continue the needed transformation of the U.S. Army into more 
        capable modular Brigade Combat Teams and support brigades; and
  --Repair and replace damaged or destroyed equipment.
    Delay in passing this Supplemental puts the military services 
critical accounts--in particular operations, maintenance, and training 
accounts--at risk as the services are forced to try to reprogram funds 
from other parts of their budgets. The Army and Marine Corps are 
already being forced to defer contract obligations and supply 
requisitions due to impending budget shortfalls.
    In addition, cuts and delays in providing funds for Iraqi Security 
Forces will undermine what has been truly significant progress in 
turning over greater responsibility and territory to Iraq's Army and 
Police forces. Keep in mind that these kinds of cuts most certainly 
will increase the burden on the U.S. taxpayer. After all, it costs some 
than ten times as much to recruit, train, and deploy an American 
service member versus an Iraqi soldier, and more than twice as much to 
sustain a U.S. soldier in theater. Any slowdown in training and 
equipping the Iraqi Security Forces has the added harmful effect of 
postponing the day that our men and women in uniform can return home.
    Finally, the addition by Congress of non-requested, non-emergency 
related items in the supplemental legislation will have the effect of 
forcing trade-offs concerning support for our troops in the field.
    At $439.3 billion, the President's Department of Defense budget 
request for fiscal year 2007 represents a 7 percent increase from what 
was enacted last year. This is a great deal of money, though at about 
3\1/2\ percent of gross domestic product, it represents a considerably 
smaller fraction of America's gross domestic product then when I came 
to Congress during the Kennedy Administration.
    I understand that on the House side some significant reductions 
have been made in the President's budget submission. It is important 
that the President's defense request be fully funded.

                             MENTAL HEALTH

    Before closing, I would like to draw your attention to an issue 
that has been the source of some coverage and commentary in recent 
days--much of it inaccurate--and that is the Department's programs for 
screening and treating mental illness amongst service members. For 
starters, no military in history has done more to identify, evaluate, 
prevent, and treat mental and other health needs and concerns of its 
troops and their families. We have screened more than 1 million service 
members before, during, and after deployments.
    The Department has put in place a number of programs and processes 
to address this issue. They include:
  --Placing combat stress and mental health teams in theater;
  --Setting up world-wide support systems for soldiers and their 
        families; and
  --Implementing a new program to assess and meet with every service 
        member three to six months after they return home from an 
        overseas deployment.
    The conclusion in the draft Government Accountability Office report 
that only 22 percent of returning service personnel identified as at 
risk for Post-Traumatic Stress Disorder are referred for mental health 
support is misleading. The 22 percent figure does not account for 
numerous other service members who were identified and referred to 
their primary care physician or other professional counseling. This is 
exactly what we designed the surveys to do--help us identify issues and 
provide the proper level of care for our people.

                               CONCLUSION

    Mr. Chairman, I started out this testimony by talking about one 
group of young people who are donning our nation's uniform for the 
first time.
    I will end by referring to another group of young people I recently 
encountered who have been serving and sacrificing for our country now 
for a good many months and years.
    Two weeks ago I stopped by the USO station at Atlanta's Hartsfield 
Airport to visit with several dozen Army soldiers--Active, Reserve and 
National Guard. They were about to return to Iraq after their mid-tour 
break. I shook hands and I was able to personally thank them for their 
superb and courageous service to our country. And then the troops slung 
their duffle bags on their shoulders and quietly filed down the 
escalator en route to the charter flight that would take them back to 
Iraq. As they entered the main airport area below, various travelers in 
the waiting area started to take notice, and they began to stand up and 
clap--first in ones and twos, until just about everyone in that airport 
was applauding. Quite a different reception than that which many U.S. 
soldiers received just over a generation ago.
    I am told this type of scene is being replayed often in airports 
all across the nation.
    This is a reflection not only of the high regard in which our 
troops are held, but of the fundamental decency and strength of the 
people of the nation they serve. It reflects the appreciation and 
support for their service that has been manifested in this Committee 
and by the Congress.
    I thank you for your support. In this complex and difficult 
struggle the troops have done everything asked of them--and done so 
with courage. We owe it to them--and to the country they have sworn to 
protect--to provide the resources and the capabilities that will not 
only win today's wars, but also best to assure peace in the decades 
ahead.
    Thank you.

    [Disruption in the audience.]
    Senator Stevens. Whoever that is, will security please 
remove them?
    Mr. Secretary, thank you very much. What you've said, at 
just the end, about total respect for our men and women in 
uniform, I think, was demonstrated last night at the Olympic 
dinner. There was just overwhelming reaction to the young men 
and women there that came from Walter Reed to be with us. And 
it is something to witness, and we are all very proud of that.
    You mentioned the supplemental, so let me also mention it. 
I have had a talk with General Pace and with other officers 
involved in the departmental activity. We are approaching a 
Memorial Day recess, and that recess will take us into June. 
It's my understanding that the--finishing that and getting it 
to the President is absolutely necessary before that recess 
starts. Do you share that opinion?

                          SUPPLEMENTAL FUNDING

    Secretary Rumsfeld. Absolutely. General Pace is correct. We 
simply do need the supplemental passed, and signed, and those 
funds available by the end of this month.
    Senator Stevens. Well, there are a whole series of issues 
involved in that. I'm no longer chairman of that full 
committee, but I know that Senator Akaka has a very difficult 
job. But I do appreciate that. We must carry that word to the 
conferees, that it just has to be done.
    When you look at the problems we have, you also mentioned 
the National Guard. We're glad that General Blum is here to 
discuss that. You have mentioned that there is adequate funding 
for--or personnel for this activity that the President has 
announced--I'm sure we'll all support--and that is the 
deployment of 6,000 of the guardsmen and guardswomen to assist 
in the border activities. Will you need immediate funds for 
that? Can you--can the Department handle that between now and 
September, or do we have to have a supplemental for that, also?
    Secretary Rumsfeld. I think the Office of Management and 
Budget is considering that at the moment, as to what the 
Department of Homeland Security, which is in the lead in this 
respect--I do not have any recent information on that.
    Do you know? Tina Jonas may have an answer.
    Senator Stevens. Ms. Jonas.
    Ms. Jonas. Thank you, Mr. Chairman, I appreciate it. We are 
working currently with the Office of Management and Budget to 
understand the resources that will be needed to do this. My 
understanding is that they will be forwarding to Congress some 
details on those resource requirements shortly.
    Senator Stevens. Thank----
    Secretary Rumsfeld. The----
    Senator Stevens [continuing]. You very much.
    Secretary Rumsfeld. The Department of Homeland Security is 
in the process, and should, by today or tomorrow, provide the 
Department of Defense the tasks that they would like us to 
consider performing to support their efforts--they, being in 
the lead. And, as you know, our forces would not be doing law 
enforcement or standing on the border arresting people or 
anything like that. They would be more in the technical area of 
unmaned aerial vehicles (UAVs) and language translations, and 
various types of communications support, and that type of 
thing----
    Senator Stevens. Thank you. General----
    Secretary Rumsfeld [continuing]. As well as construction.
    Senator Stevens. General Pace, my apology. Did you have a 
separate statement you wished to make?

STATEMENT OF GENERAL PETER PACE, UNITED STATES MARINE 
            CORPS, CHAIRMAN OF THE JOINT CHIEFS OF 
            STAFF
    General Pace. Mr. Chairman, thank you. I will be brief, but 
if I may say just a few things, sir.
    Senator Stevens. Yes. Good.
    General Pace. Thank you, Mr. Chairman, Senator Inouye, 
Members of the subcommittee. It is my distinct honor to sit 
before you for the first time as the Chairman of the Joint 
Chiefs of Staff to represent the 2.4 million men and women in 
the Armed Forces--Active, Guard, and Reserve--who are doing a 
fabulous job for this country--they have never let us down--
and, on behalf of them, to thank each of you for your support, 
not only the resources you provide, but, equally importantly, 
the time you take to visit our troops in the field, the time 
you take to visit them in the hospitals--it makes a 
difference--and to take this opportunity in front of you to 
thank not only our military members, but their families. Their 
families serve this country equally well as anyone who has ever 
worn the uniform. They sit silently at home and pray for their 
loved one, wait for news of their return, and then silently 
stand back and pretend that they had nothing to do with our 
success; whereas, in fact, it's the love and support of our 
families that makes all the difference in the world to all of 
us who wear the uniform.
    I'm also proud to tell you that, for myself and for the 
Joint Chiefs, as a whole, that we clearly--your Armed Forces 
clearly are ready and fully resourced to conduct all the 
missions that this Nation expects of us. Over the last 12 to 18 
months, we've had--the work that has been done on the 
Quadrennial Defense Review (QDR), on the budget for fiscal year 
2007, on the national military strategy--this has included 
literally hundreds and hundreds of hours of deliberations 
amongst the senior uniformed and civilian leadership of the 
Department--to my knowledge, in an unprecedented way. It is 
focused in on winning the war on terrorism, on accelerating the 
transformation, on enhancing our joint warfighting, and in 
improving the quality of life for our servicemembers. And this 
collaboration continues as we develop the roadmaps ahead to 
execute the QDR.
    As the Secretary pointed out, we are in a long war. Our 
enemy is ruthless and patient, and they have a plan. And they 
know that they cannot defeat us on what we consider to be a 
traditional battlefield, but their battlefield is different 
from ours. They are focused on our will, our cohesion as a 
Nation. And it will require our Nation's long-term patience and 
endurance to defeat this enemy.
    There are two areas in which I think Congress can help, for 
sure, as we look to the future, because as we seek to defeat 
this enemy, we are going to need a very robust application of 
all the elements of national power, which means, in my mind, 
among other things, an interagency collaboration and process 
that is effective, efficient, and quick to decide. We need to 
find ways, as you all did for us with the Goldwater-Nichols 
Act, and the results of that Goldwater-Nichols Act being a 
military that is interoperable, leading quickly to 
interdependent. We need to find ways in the interagency process 
to encourage and reward cross-agency work experience, 
education, and training, and also to find a way to encourage 
and reward those in other agencies who deploy with our troops 
overseas and do our Nation's important business that they are 
the experts in doing.

                           PREPARED STATEMENT

    Last, we have an All-Volunteer Force. In truth, it's an 
all-recruited force. They have not let us down. They will not 
let us down. But we need the Nation's assistance, and all of 
the leaders and mentors in the Nation, to impress upon our 
young folks how honorable it is to serve this Nation, not only 
in uniform, but in any way that fits their own roles in life. 
If we do that collectively, then those of us who receive our 
most precious products, our young men and women, our sons and 
daughters, and who are taking care of them, will be able to 
sustain the force that we have and continue to fight this 
Nation's battles.
    Mr. Chairman, thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]

                Prepared Statement of General Peter Pace

    Chairman Stevens, Senator Inouye, distinguished members of the 
Committee, it is my pleasure to report to you on the posture of the 
U.S. Armed Forces. On behalf of all Soldiers, Sailors, Airmen, Marines, 
Department of Defense Civilians, and our families, thank you for your 
continued bipartisan support. That support has been exemplified this 
past year by Congressional visits to our troops in Iraq, Afghanistan, 
and elsewhere around the world; visits to those hospitalized; your 
funding for operations; your support of transformation and 
recapitalization initiatives; and the improved pay and benefits you 
have provided to our Service members and their families.
    Our successes in the War on Terrorism are due in large measure to 
the dedicated and patriotic sacrifice of our Nation's Service members. 
I want to thank them and their families for all they have done and 
continue to do to maintain our freedom.
    We are in a long war. Our enemy intends to destroy our way of life. 
They seek to expel American influence from the Middle East, overthrow 
the existing secular governments of the region, and establish a 
fundamentalist religious empire on which to base eventual global 
domination. To accomplish this they intend to defeat the United States 
and our Allies--not militarily, but by targeting our unity and our 
will. They aim to undermine our resolve by attacking civilians; taking 
hostages; inflicting casualties on Coalition forces; and using 
propaganda. They believe they can win against the world's most powerful 
nation because they see us as lacking the moral stamina to persevere in 
defense of our beliefs.
    This is not a struggle between America and Islam. Rather it is a 
conflict between those who love freedom and a terrorist minority 
attempting to take power from the majority. Our opponents are loosely 
networked and transnational. They are ruthless, adaptive, and convinced 
that they will win. They intend to do so by destroying the resolve of 
the America people by gradual attrition. They are a patient foe.
    For the first time, America's All Volunteer Force is fighting a 
long war. Our troops and their families know their Nation truly 
appreciates their service and values their sacrifice. Sustaining our 
troops and upholding the resolve of our Nation requires our collective 
leadership. We must underscore for the American public both the nature 
and importance of the conflict we are fighting.
    We traditionally think of war in conventional terms such as the 
Second World War during which the average American had a family member 
serving in combat, and shared their sacrifice on the home front through 
the rationing of goods. This is not the conflict in which we find 
ourselves today. Thankfully, the daily life of the average American 
citizen reflects none of the hardships or shortages we associate with a 
nation at war.
    Unlike past wars, territory conquered and enemy armies destroyed 
are not apt measures of success. The true metrics are public perception 
and the resolve of free peoples to determine their own future. Our 
national commitment to a long-term effort is key in this fight, because 
the enemy neither expects nor intends to defeat us in the short term.
    It is also important to acknowledge that the U.S. military has a 
significant role to play but that it will not win this war operating 
alone. Our interagency partners play vital roles in bringing to bear 
all the elements of national power to ensure long term success.
    To defeat our enemies and protect our Nation, we must 
simultaneously prevail in the War on Terrorism and prepare for the 
future. The proposed fiscal year 2007 Budget ensures we have the 
ability to conduct a broad spectrum of operations. Major conventional 
conflict, counter-insurgency, counter-terrorism, antiterrorism, 
stability operations, humanitarian assistance at home and abroad, 
disaster relief, forward presence, global deterrence, support to civil 
authorities, and homeland defense each require the application of 
tailored forces. The proposed budget funds this wide range of military 
capabilities, and provides our forces with the superbly trained and 
equipped men and women we need to defend America and its interests.
    As stated in our biennial review of the National Military Strategy, 
we are well positioned to accomplish our missions. Our Armed Forces 
stand ready to defend the homeland, deter conflict, and defeat 
adversaries. Allies and coalition partners play important roles in 
meeting these challenges. If an unanticipated contingency should occur, 
our formidable capabilities and those of our many partners around the 
world will ensure we prevail.
    The Quadrennial Defense Review (QDR) underscores the need to 
address today's operational requirements and those of tomorrow. It 
emphasizes the importance of winning the War on Terrorism, accelerating 
transformation, strengthening Joint Warfighting, and taking care of our 
most precious resource--our people. The QDR represents a significant 
effort to understand what capabilities are needed over the next two 
decades and is part of an ongoing continuum of change for the nation's 
armed forces. In particular, it underscores the value of speed and 
precision as force multipliers. The QDR reflects an unprecedented level 
of collaboration and teamwork amongst the senior civilian and military 
leaders of the Department. Our senior defense leaders are continuing 
this dialogue, and we are developing roadmaps to achieve the Review's 
goals for the future.

                        WIN THE WAR ON TERRORISM

    Iraq remains the central front in the War on Terrorism. Our mission 
there is clear. We are fighting to defeat terrorists and to help the 
Iraqis build a democratic, secure, and economically sound nation--an 
ally in the War on Terrorism. Our ultimate victory in Iraq will 
profoundly affect the security of the United States, our allies, and 
the entire globe.
    The past year in Iraq has seen significant challenges, but also 
remarkable successes. The Defense Department's Report to Congress on 
``Measuring Stability and Security in Iraq'' describes the situation in 
detail. The steadily growing participation in three national elections 
in 2005 vividly illustrated the determination of the Iraqi people--
Shia, Sunni, and Kurd--to embrace democracy, as does their formation of 
a new government. Entrepreneurial activity has significantly increased. 
Most importantly, the Iraqi people are increasingly taking greater 
responsibility for their own security. These successes demonstrate 
genuine progress and flow directly from the hard work of our troops and 
interagency partners.
    Effective governance, the rule of law, economic growth, and social 
well-being can only flourish on a strong foundation of security. We 
will continue to aggressively assist Iraqi security forces to assume 
greater responsibility for a stable and secure Iraq. Commanders on the 
ground will continue to make force level recommendations based on 
conditions not timetables.
    The War on Terrorism is not restricted to the boundaries of Iraq. 
As the events of the past few months have shown, we continue to combat 
terrorists in Afghanistan. In partnership with the Afghan National 
Army, our forces are actively engaged in rooting out the Al Qa'ida and 
Taliban. Likewise, our Provincial Reconstruction Teams, consisting of 
civilian and military professionals from the United States and our 
Coalition partners, assist Afghans at the local level in building a 
stable and free society. An indicator of our accomplishments in 
Afghanistan, as well as a catalyst for continued success, is the North 
Atlantic Treaty Organization's initiative to take on a greater role in 
strengthening security and development. This summer, NATO will assume 
responsibility for the southern sector of Afghanistan and position 
itself to later do so throughout the entire country. These 
international efforts reach beyond Afghan borders and help the region 
choose stability over conflict.
    We are combating terrorism in Southeast Asia. The Abu Sayaf Group 
in the southern Philippines and Al-Qa'ida's partner Jemaah Islamiyah in 
Indonesia present these friendly nations unique challenges. We are 
forging relationships, building capacity, sharing information, and 
conducting focused training with these valued allies. We are also 
working with other nations to strengthen maritime security in the 
Strait of Malacca and other strategic waterways. Our efforts contribute 
substantively to regional security and freedom of the seas.
    In Africa, we continue to partner with regional organizations and 
individual nations to improve their capacity to combat terrorism, 
secure borders and coastlines, and reduce ungoverned space. The 
Combined Joint Task Force--Horn of Africa and the Trans-Sahara Counter-
Terrorism Initiative--developed in coordination with the Department of 
State--improve the ability of countries to foster security and 
stability within their own borders.
    In addition to regional initiatives, an array of coalition and 
interagency partners continue to work with us globally against the 
proliferation of Weapons of Mass Destruction. Legislation authored over 
a decade ago for cooperative threat reduction and counter-proliferation 
of Weapons of Mass Destruction anticipated one of today's most serious 
challenges. We continue that effort. The Proliferation Security 
Initiative expands international intelligence sharing, coordinated 
planning, and capabilities integration. Similarly, our ability to 
execute counter-proliferation operations is enhanced by the Weapons of 
Mass Destruction Maritime Interdiction initiative.
    Defense of the homeland itself remains a key mission in the War on 
Terror. Our efforts to defeat employment of Weapons of Mass Destruction 
by terror groups, as well as a strong response capability should those 
efforts fail, are critical. Terrorist attacks here at home against the 
Nation's citizens, its infrastructure, and its leadership must be 
prevented. Our efforts to date have been successful but constant 
vigilance is necessary.
    We are also confronting the threat of narco-terrorism. Ongoing 
multilateral operations promote security, improve effective border 
control, deny safe havens, and impede the ability of narco-terrorists 
to destabilize societies. Combating drug trafficking has particular 
importance for strengthening security and democracy in our hemisphere. 
Engagement with our Latin American neighbors to shape events and 
forestall crises is vital to protecting democracy for us all.
    Strategic communication is a significant component of the War on 
Terror. Terrorists rely upon propaganda to deliver their message and 
justify their actions and are not constrained by truth. We must counter 
those efforts. Our actions, policies, and words must reflect and 
reinforce our strategic goals and national ideals. What we communicate 
to our friends and foes is at least as important, if not more so, as 
what we do on the battlefield. We need a more cohesive U.S. government 
effort in this area.
    In the War on Terror, our allies and coalition partners execute key 
roles in defeating terrorists on and off the battlefield. Their 
capabilities and regional expertise are complementary to our own. As we 
move ahead in combating terror, we do so increasingly in combination 
with other nations who understand the danger terrorism poses to their 
citizens.

                       ACCELERATE TRANSFORMATION

    As the threats to our Nation evolve, so must the capabilities of 
our Armed Forces. Transformation today remains vital to the defense of 
the United States tomorrow. It is a process, not an end state.
    Transformation is more than harnessing advanced technology. 
Transformation includes rethinking our doctrine and operational 
concepts; adapting professional education and training to meet new 
challenges; restructuring our organizations and business practices to 
be more agile and responsive; improving our personnel policies; and 
reforming our acquisition and budget processes. Nowhere is this more 
evident than in our effort to increase interagency collaboration. 
Defeating terrorists requires more than the use of military force. We 
must harness and synchronize all the instruments of national power to 
win the War on Terrorism.
    Advancing a transformational mindset and culture that readily 
embraces interagency integration begins with our Nation's strategic 
guidance documents. Interagency collaboration is a theme throughout our 
National Security Strategy, Quadrennial Defense Review, National 
Defense Strategy, National Military Strategy, Joint Strategic 
Capabilities Plan, Security Cooperation Guidance, and Unified Command 
Plan.
    Nonetheless, we can still do more to enhance interagency 
effectiveness. Twenty years ago, there were serious institutional 
obstacles to our Armed Services operating as a Joint team. Today, in no 
small part due to the 1986 Goldwater-Nichols legislation, the U.S. 
military is increasingly a true Joint force, interoperable and moving 
towards interdependence.
    The Goldwater-Nichols legislation established a system of 
incentives and requirements to foster Jointness among military 
officers. We need to find similar ways to encourage interagency 
expertise. Rewarding interagency work experience, education, and 
training will facilitate better synergy between departments. Likewise, 
we need and should reward individuals and agencies that rapidly deploy 
and sustain civilian expertise in tandem with our military. Shared 
deliberate and crisis planning capacity among our interagency partners 
will also improve our Nation's readiness for contingencies.
    We are working to better integrate our Nation's diplomatic, 
military, intelligence, information, and economic instruments to 
forestall and address crises overseas, and to be ready to deal with 
catastrophic terrorism, natural disasters, and pandemic disease at 
home. Defense support to civil authorities is an essential component of 
protecting the Nation. Hurricanes Katrina and Rita brought this home. 
The American people expect their Armed Forces to respond in times of 
crisis. Teamwork among our Armed Forces and federal, state, and local 
government agencies--as well as private and volunteer organizations--is 
vital to the security of our Nation's citizens. Accordingly, we are 
preparing now to deal with circumstances that have the potential to 
overwhelm local government and private institutions. U.S. Northern 
Command is expanding its ability to take action swiftly in a variety of 
incidents, including providing military support to large-scale disaster 
relief operations and responding to the outbreak of pandemic disease.
    While transformation will allow us to better deal with 
contingencies at home, it will also improve our ability to boost the 
capacity of other nations to defeat terrorism and stop its spread while 
contributing to the security and stability of nations. The Army's Joint 
Center for International Security Force Assistance at Fort Leavenworth 
and the Marine Corps' Foreign Military Training Units are breaking new 
ground in this endeavor. Likewise, International Military Education and 
Training is a proven means of creating friendships that pay long term 
dividends when international classmates later work alongside U.S. 
forces in overseas operations. Constraints on our ability to implement 
this important program warrant review. These and other initiatives are 
examples of the value of developing capabilities and relationships to 
help promote security and stability worldwide, potentially precluding a 
need to commit significant amounts of U.S. resources to stabilize 
troubled nations abroad.
    Our foreign assistance framework was designed to influence and 
reward behavior during the Cold War. We need a new foreign assistance 
framework for the War on Terrorism to develop the security capabilities 
of fledging democracies and advance regional stability. Thank you for 
the Section 1206 legislation, which has empowered our capacity to boost 
the counter-terrorism training of other nations. It has made a positive 
difference in fighting the War on Terrorism. The support we provide our 
partners is essential to helping them police their own land and 
eradicate terrorist safe havens. Continual assessment of the countries 
that we assist, and the aid we allot, ensures that we are helping 
appropriate nations in the right way.
    It is not enough for us to be successful in responding to today's 
challenges. We need to shape the future with like-minded allies and 
partners. An essential element of this process is the transformation of 
our Global Posture. We are implementing a new Global Posture for 
defeating terrorism, deterring conflict, and bolstering the security of 
both established and nascent democratic states. This realignment will 
better position us to shape the future. This is well illustrated in 
U.S. European Command's reorientation of its forces from Cold War-era 
basing to an expeditionary forward presence that supports our friends 
and helps deny havens for our foes.
    In addition to transforming our conventional force posture, while 
maintaining a reliable nuclear force, we are shifting from our Cold War 
strategic deterrence to a New Triad with broadened focus on 
conventional long range strike. Prompt global conventional strike 
capabilities are required in the War on Terror as well as in future 
contingencies. In parallel with our efforts to develop a conventional 
long range strike capability, we are improving our missile defenses and 
national command capability. Your support for these efforts will turn 
our traditional triad into a strategic deterrence capability relevant 
to tomorrow's challenges.
    Finally, as we transform our warfighting forces, the Department 
will do the same for the acquisition and budget processes that provide 
material resources for our troops. Transforming the way capabilities 
are developed, fielded, and integrated enhances our capacity to execute 
a wide range of missions.

                      STRENGTHEN JOINT WARFIGHTING

    The U.S. Armed Forces' capacity to operate as an integrated joint 
team is one of America's chief advantages on the battlefield. By 
jointly employing our Armed Services we leverage their complementary 
capabilities as a team.
    We can and should go beyond our current level of Jointness. 
Strengthening our Joint Warfighting ability enables us to make strides 
forward in the War on Terrorism. It also accelerates transformation. To 
maximize our operational performance, we will transition from an 
interoperable force into an interdependent force. While doing this, we 
must maintain the expertise, culture, and traditions of the Services 
from which our military competence flows.
    Joint Professional Military Education of our military and civilian 
professionals provides the foundation of our force. We intend to better 
integrate our interagency and international partners in these 
successful education programs. In addition, our Joint Exercise Program 
provides valuable training for the Combatant Commanders' Joint and 
multi-national forces. At home, we are working with the Homeland 
Security Council and the Department of Homeland Security to establish a 
national security exercise program to help prepare senior leaders 
across the Federal government to confront crises more effectively.
    In strengthening Joint Warfighting, we continue to review, develop, 
and disseminate doctrine and operating concepts. The Joint Chiefs in 
consultation with the Combatant Commanders ensure that our doctrine and 
concepts provide a solid foundation for Warfighting. Those same 
concepts and doctrine also help shape the strategic guidance which 
drives operational execution.
    Our education and training, as well as our doctrine and operational 
concepts, are kept relevant by capturing lessons gained from 
experience. Our professional development and organizational agility is 
significantly enhanced by lessons observed from the War on Terrorism, 
and other operations, including disaster relief at home and abroad.
    As seen in deployments to the Asian Tsunami, Hurricane Katrina, and 
the Pakistan earthquake, our standing, rapidly deployable Joint Task 
Force headquarters dramatically improve our operational responsiveness. 
To enhance this capability, we will organize, man, train, and equip 
selected three-star and two-star Service headquarters to rapidly deploy 
as Joint Task Force headquarters.
    We are adapting our organizational structure to better exploit the 
intelligence we collect. The creation of Joint Intelligence Operations 
Centers at our Combatant Commands increases support to units in the 
field. In addition, the Joint Functional Component Command--
Intelligence, Surveillance and Reconnaissance, set up this year under 
the leadership of U.S. Strategic Command, deconflicts competing demands 
by coordinating the allocation of intelligence collection assets. These 
initiatives bring the analytical firepower of the Intelligence 
Community to bear for our troops on the ground, in the air, and on the 
sea.
    We are also harnessing technological developments to enable faster 
sharing of data among agencies, but we cannot rely solely upon 
technology. Intelligence collection, analysis, fusion, and 
dissemination depend upon our intelligence professionals. Human 
Intelligence is a vital enabler for collecting, understanding, and 
communicating information on threats and contingencies. Service 
programs for recruiting, training, and retaining key intelligence 
specialties have been refined to ensure we meet the increasing demand 
for intelligence personnel.
    We continue to examine how best to re-capitalize and invest in our 
Intelligence, Surveillance, and Reconnaissance capabilities. Sensor 
platforms that collect across multiple mediums are one approach. High 
altitude, long loiter unmanned aerial vehicles are another. Space based 
platforms should focus on surveillance capabilities that we cannot 
readily replicate elsewhere.
    In addition to benefiting our surveillance, space based platforms 
also play a central role in communications. Our deployed forces' 
strategic, operational, and tactical connectivity depends on the use of 
global, high bandwidth communications currently only available via 
satellites. As the gap between operational demands and military 
satellite communications capacity grows, we will continue to rely upon 
commercial vendors for the foreseeable future. We are also exploring 
alternatives to space-based communications.
    Networked ground, air, and maritime communications systems are the 
means with which the U.S. Armed Forces share information and work 
together as a team. New Joint acquisition strategies to replace 
Service-unique communications systems will advance our communications 
capacity across the electromagnetic spectrum. Common secure networks 
with allies will further increase coalition capability. In addition, 
the exponentially increasing importance of cyberspace requires that we 
increase our efforts to operate effectively both offensively and 
defensively throughout the Information Domain.
    In the realm of logistics, we are actively working to leverage our 
unmatched capabilities. The Joint Staff, the Services, the U.S. 
Transportation Command, and the Defense Logistics Agency work together 
to meet the personnel, equipment, and materiel needs of our Combatant 
Commanders. However, both the challenge of adapting to changing 
operational requirements and the demand to increase efficiencies 
require that we continue to enhance our logistics capabilities. Along 
these lines, we are working to improve unity of effort, domain-wide 
visibility, and rapid and precise logistics response. For example, as 
our distribution process owner, U.S. Transportation Command has 
strengthened our supply chains from factory to foxhole.
    Reconstituting the force presents real challenges. Our weapons 
systems and vehicles have experienced extensive use in Iraq and 
Afghanistan. Supplemental appropriations have helped us repair and 
refit during combat operations, nonetheless, we have more work ahead to 
ensure our forces remain combat-ready. Your support for resetting the 
future force is critical.
    As we reset, the combat power of our Total Force is being 
increased. By moving the Reserve Component from a strategic reserve to 
an operational reserve, we ensure it will be accessible, ready, and 
responsive. The Services have already rebalanced approximately 70,000 
positions within or between the Active and Reserve Components. We plan 
to rebalance an additional 55,000 military personnel by the end of the 
decade and also continue converting selected military positions to 
civilian billets. This revised Total Force structure will provide us 
with greater combat capability and leverage the complementary strengths 
of our Active, Reserve, and Civilian workforces.
  improve the quality of life of our service members and our families
    Taking care of our people is fundamental to the ethos of the 
American Armed Forces. Our men and women in uniform are our most 
precious resource. We must continue to ensure their welfare and that of 
the families who support them. The most advanced ship, aircraft, or 
weapon system is of limited value without motivated and well-trained 
people. Our experiences in Iraq and Afghanistan remind us that the 
Nation's security rests in the capable hands of the individual Soldier, 
Sailor, Airman, and Marine.
    Quality of life, of course, transcends material considerations. Our 
young men and women join the Armed Services to patriotically and 
selflessly serve something larger than themselves. They serve with 
pride, and their families willingly bear the burden of sacrifice, 
because they believe they make a difference.
    A clear indication that our personnel in uniform understand the 
importance of their service and appreciate the quality of life that we 
provide them is their decision to stay in our Armed Forces. Our 
retention levels are over one hundred percent of Service goals. To 
underscore the point that our men and women serve because they know 
they are making a difference, units that have deployed multiple times 
to combat have seen the highest rates of retention. We are also seeing 
success in our recruiting.
    We are grateful to the Administration and to the Congress for 
closing the pay gap between the private sector and the military, as 
well for vastly improving military housing and enabling our family 
members to enjoy a good standard of housing if they choose to live in 
the local community.
    To our families, protecting our troops in combat is the most 
important measure of quality of life. Since April 2004, all Defense 
Department personnel in Iraq, both military and civilian, have been 
provided Interceptor Body Armor. However, as the threat has changed, we 
have continually improved body armor to ensure our troops have the 
latest and the best possible protection. Our latest improvements defeat 
armor piercing rounds and include shoulder armor and side plates.
    In addition to body armor, armored vehicles are important to force 
protection. Thanks to your support we have had great success increasing 
production and fielding up-armored Humvees to protect our troops. 
Nearly all the approximately 40,000 tactical wheeled vehicles in the 
U.S. Central Command area of responsibility now have armor protection. 
We will continue to adapt as the threat evolves.
    Improvised Explosive Devices illustrate the asymmetric challenges 
we will face in the future. The Joint Improvised Explosive Device 
Defeat Organization spearheads our work to meet that threat. Bringing a 
senior commander's operational perspective to this effort, retired Army 
General. Montgomery Meigs, former commander of U.S. Army forces in 
Europe and NATO's peacekeeping force in Bosnia, is leading this fight. 
With the development and testing of technologies, tactics, techniques, 
and procedures we are learning to defeat the tactics of our adversaries 
and increasing the survivability of our Service members. Our 
transformational work with private industry to experiment with emerging 
technologies promises to break new ground in this vital endeavor. Thank 
you for helping us provide the best possible protective equipment for 
our troops.
    Taking care of our troops and their families also means taking care 
of our wounded. During World War II, Korea, Vietnam, and Desert Storm 
twenty-four to thirty percent of Americans injured in combat eventually 
died from their wounds. Today, due to tremendous improvements in our 
military medical system, nine of ten troops wounded in Iraq and 
Afghanistan survive. This dramatic improvement is the direct result of 
the hard work of our Forward Surgical Teams and Combat Support 
Hospitals, and the rapid evacuation of the seriously wounded to higher 
level care facilities in the United States. In Vietnam, it took forty-
five days on average to return wounded back to the United States. It 
now takes four days or less.
    Our remarkable medical professionals return to duty over half of 
our wounded in less than seventy-two hours. Advances in medicine, 
technology, and rehabilitation techniques enable us to provide much 
better care for those more seriously wounded. We make every attempt to 
bring willing Service members back to duty--or return them to society 
empowered to continue to make a difference. Congressional funding for 
this effort is greatly appreciated. In particular, thank you for your 
support for our two new Advanced Amputee Training Centers--at Walter 
Reed Army Medical Center, here in our Nation's capital, and Brooke Army 
Medical Center at Fort Sam Houston, Texas.

                               CONCLUSION

    I testify before you today with tremendous pride in the bravery, 
sacrifice and performance of today's Armed Forces. Around the world, in 
every climate, and often far from home and family, America's men and 
women in uniform are making a difference. They do so willingly and 
unflinchingly--volunteers all. Their valor and heroism are awe 
inspiring and they serve this nation superbly, as have so many who have 
gone before them. It is an honor to serve alongside them.
    The past year saw the U.S. Armed Forces engaged in combat in Iraq 
and Afghanistan while we also provided humanitarian assistance to 
victims of the Asian tsunami, hurricanes along the U.S. gulf coast, and 
the earthquake in Pakistan. There are likely equal challenges and 
opportunities ahead for the U.S. Armed Forces. The imperatives to 
defend our homeland, defeat global terrorism, and transform for the 
future remain. With your continuing support, our military stands ready 
for the challenges and opportunities ahead.
    Thank you for your unwavering support in time of war.

    Senator Stevens. Let me resume my questioning, and then----
    Mr. Secretary, we understand that there has been a 
particular increase, a growth, in problems and in cost of the 
satellite programs. And there have been some suggested changes 
presented by Air Force Secretary Wynne and Under Secretary 
Sega. I don't--some of them are classified, but can you tell 
us, are these steps going to slow down this rate of growth 
and--do you believe the Department has that under control now?

                           SATELLITE PROGRAMS

    Secretary Rumsfeld. I would be reluctant to say that it's 
under control. My experience in the space business, both the 
intelligence side and the Air Force side, is that there has 
been, over time, a cost growth in those programs. I think there 
may be some reasons for that. One reason might be the fact 
that, for many years, as the Department of Defense and the 
intelligence community moved into these areas, they put in a 
factor--of some percentage--that reflected the reality, and 
their realization, that it was very difficult for them to 
calculate precisely when they were on the cutting edge and 
reaching into new areas. And, as a result, once that factor was 
taken out, whatever that percentage was, there tended to be a 
fairly regular pattern of cost growth or increases over what 
had been projected. Part of it is because it's new 
technologies. It is a difficult task. And I would be happy to 
take a look at some of the numbers and supply something for the 
record, unless, Tina, you want to comment.
    Ms. Jonas. Thank you. Mr. Chairman, one of the satellite 
systems that has had some difficulty has been the----
    Senator Stevens. Pull the mike towards you, please.
    Ms. Jonas [continuing]. Has been the SBIRS-High program. 
There are funds in the budget, of $700 million, for that, and I 
will tell you that Under Secretary Krieg and Under Secretary 
Cambone were just out this weekend and the other day on a 
review of that. So, I do know that, particularly Under 
Secretary Krieg, who is the head of the acquisition technology 
area, is--this is very much in his oversight. He's very 
attentive to this area. And he's quite active in it, sir.
    Senator Stevens. My last question, Mr. Secretary, would 
be--you mentioned the updating of the security forces and 
Iraq's own forces. We're told now that compared to September 
2005, when there were 2 brigades, 19 battalions, the Iraqi 
security forces now have two divisions, 14 brigades, and 57 
battalions. What is the goal? I mean, where do you think they 
would have to be, to be in control?

                            PROGRESS IN IRAQ

    Secretary Rumsfeld. The target that exists today is from 
the prior government, and it is to go up to a total of 325,000 
Iraqi security forces, when you take into account the ministry 
of defense and the ministry of interior forces, but do not 
include infrastructure protective services, or personal 
protective services for the people in the country. Whether the 
new government will stick with the 325,000 ceiling target that 
they have, I don't know. Until the minister of defense is 
appointed, which should be this week or next week, we won't 
have had the chance to talk with these new ministers and 
discuss that. But every single week and every month, the 
progress is going forward. And more real estate is being turned 
over, more bases are being turned over, more responsibilities 
are being turned over to the Iraqi security forces.
    I will say this. The new Prime Minister-designate has been 
very firm in all the negotiations thus far, that the minister 
of defense and the minister of interior must be a person who is 
competent, must be a person who is willing to govern from the 
center and not take a sectarian view to it.
    Senator Stevens. Thank you very much.
    For Members of the subcommittee, Senator Inouye and I have 
discussed, and we've decided on, a limit of 7 minutes per 
Senator. There are--we expect 9 to 10 Senators during this 
period. I hope that's agreeable.
    I'll yield to my colleague and co-chairman for 7 minutes.
    Senator Inouye. Thank you very much.
    Mr. Secretary, the lead story in every network news and 
major papers reported that the intelligence community was 
monitoring U.S. telephone service through what is known as data 
mining. Now, I don't wish to get into the specifics, but 
apparently it was authorized under the auspices of the Director 
of National Intelligence. But because of the rumors and 
allegations that seem to be spreading around, can you assure 
this subcommittee that the Department of Defense is not 
conducting any of its own domestic data mining activities, to 
collect the records of U.S. citizens, or monitoring phone 
calls?

                         DOMESTIC SURVEILLANCE

    Secretary Rumsfeld. Senator, let me respond this way. There 
are several things that have been discussed in this general 
category. One was the one you mentioned, which is the one that 
was authorized by the President, the National Security Agency 
(NSA), approved by the Attorney General, where Members of 
Congress were briefed from appropriate committees. And that is 
a separate set of activities which the administration believes 
are perfectly legal, and that appropriate consultation with 
Congress has taken place.
    There is a second category of activities. And I think they 
were called the ``Talon''----
    General Pace. Yes, sir.
    Secretary Rumsfeld [continuing]. Activity. And that 
involves the fact that the Department of Defense has the 
principal responsibility for providing force protection for our 
forces, in the United States and overseas. And, in that 
process, as they do observation of people observing military 
facilities, that could conceivably constitute a threat to those 
facilities, they gather information.
    The person who oversees that is Dr. Steve Cambone. When an 
issue came up about it, he immediately instigated an 
investigation of it, determined that some of the data should 
not have been retained, because it was not relevant, and, in 
one particular case, it had been some information that had been 
actually gathered by a different department, the Department of 
Homeland Security, sent to the Department of Defense, because 
it seemed to be relevant. It turns out it was not relevant, and 
he has instituted new procedures so that unnecessary 
information of that type is not retained in the files of the 
Department of Defense. However, we are clearly continuing to 
provide force protection to our forces here and elsewhere 
around the world, as we must.
    Senator Inouye. I realize this is a very difficult problem, 
but we'll have to work on it.
    Mr. Secretary, we have had many dozens of boards, blue 
ribbon panels, commissions, examine the issue of defense 
acquisition. However, it still takes a long time, about 20 
years, to produce an F-22 or V-22. Ships continue to have 
projected cost overruns. And we're still procuring, basically, 
for the Army, the same equipment it was purchasing in 1981. 
What can we do to help you to resolve this problem, or is that 
the way it's going to be done?

                          ACQUISITION PROCESS

    Secretary Rumsfeld. Well, I wish I had a good answer, 
Senator. As we've watched the acquisition process over 40, 50 
years, we've seen that it takes longer and longer to produce 
and manufacture and procure a weapons system. And we've seen 
that the costs tend to be greater than those projected. And all 
of that's been happening at a time when technologies have been, 
in fact, advancing at a much greater rate. Under the Moore's 
Law that computer power will double every 18 months, and 
technologies advance very rapidly, one would think that our 
capabilities and our technologies within the defense 
establishment would have to advance at a similar pace. Instead, 
just the opposite's happening.
    There have been so many studies--you could sink a 
battleship with the acquisition studies. We've got very 
talented people working on it. We've had talented, interested 
people in the Congress working with it. There have been outside 
organizations and studies. I wish I could say that we can be 
assured that that process will improve.
    I do think that one thing good has happened, and that's the 
concept of spiral development, where you reach in and bring 
forward some of the technologies that would otherwise have to 
be delayed until you had completed the entire acquisition of 
that weapons system. And, to the extent you bring forward those 
advances in technology, it mitigates some of the delays that 
will occur with respect to major weapons systems.
    Senator Inouye. Mr. Secretary, every year this subcommittee 
is told that the Defense Health Program is underfunded--we've 
heard this in hearings and private meetings--while the costs of 
providing healthcare to our servicemembers and their families 
continue to rise. Your budget assumes $735 million in savings 
from increased fees in the Defense Health Program. However, 
since the House and Senate Armed Services Committees restricted 
the Department from implementing these changes, how are you 
going to absorb these shortfalls?

                         DEFENSE HEALTH PROGRAM

    Secretary Rumsfeld. Well, we're hopeful that the Congress 
will not do that. As you point out, healthcare costs for the 
Department have at least doubled in the last 5 years, from $19 
billion to $38 billion, and the design of the system is such 
that there will not be constraints. It will continue to be 
unconstrained. And it will continue--if the healthcare costs in 
the society go up the way they have, it will continue to eat 
into our other needs.
    The Chairman of the Joint Chiefs of Staff, General Pace, 
and his colleagues on the Joint Chiefs, have spent a lot of 
time on this. And I'd like General Pace to comment, if I may.
    General Pace. Sir, we did look very hard at the healthcare 
program. The healthcare program that you all enacted in 1995 
for servicemembers was a very, very good program, and we want 
to protect the benefits of that. The premiums had not changed 
since 1995, and the recommendation of the Joint Chiefs was that 
we re-norm today's fees to the 1995 levels.
    Secretary Rumsfeld. But in the----
    Senator Inouye. Thank----
    Secretary Rumsfeld [continuing]. Event that Congress stays 
with where it looks like it's heading, we'll end up with at 
least $735 million that we'll have to cut out of force 
structure or modernization or some other portion of the budget, 
because we simply will have no choice. And we need the 
flexibility we requested, and we need the additional 
authorization we requested.
    Senator Inouye. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Out of deference to the ranking member of the full 
committee and the senior Member of the Senate, we'll yield, to 
Senator Byrd, 7 minutes.
    Senator Byrd. Mr. Chairman, today's hearing could not come 
at a more important time. In addition to having troops deployed 
in large numbers to Iraq and Afghanistan, the President 
recently proposed a new mission for our National Guard, to 
assist in securing our borders. I have been a strong voice on 
border security. I have offered nine amendments in the last 5 
years to train and deploy thousands of new border patrol 
agents. Regrettably, the administration opposed all of my 
amendments, asserting that the spending for border security was 
extraneous, unnecessary, spending that would expand the size of 
Government. If we had spent that money beginning in 2002, we 
would not today be calling on the National Guard. This latest 
proposal to send troops to the border should not distract from 
the administration's consistent record of opposing my 
amendments to tighten our borders.
    This hearing is also an opportunity to ask questions about 
what is going on in Iraq, the cost of the war, this spiraling 
out of control. We still don't have answers to the most basic 
questions about the war. How much more is this war going to 
cost? When is this mission really going to be accomplished? How 
much longer until our troops start coming home?
    The President said in his speech on Monday that the 
National Guard would be deployed to the border to perform 
missions like building fences, barricades, and roads. Wouldn't 
it make more sense to have the Department of Homeland Security 
contract this work to the private sector and allow the National 
Guard to preserve its readiness to respond to natural disasters 
and its other traditional missions? How about that, Mr. 
Secretary?

                            BORDER SECURITY

    Secretary Rumsfeld. Senator Byrd, the proposal, as I 
understand it, is for the Department of Homeland Security to, 
on a very accelerated basis, increase its size and capability 
to deal with the border security issues. On an interim basis--
up to 2 years, is my understanding--the President is proposing 
that the National Guard assist the Border Patrol, not in law 
enforcement, and not in arresting people, but doing the kinds 
of things you mentioned in your remarks. It seems to me that it 
will not, in any way, degrade or damage the National Guard's 
capabilities. We're talking about up to 6,000 the first year, 
and up to 3,000 the second year, out of a National Guard and 
Reserve component of 400,000 plus people.
    Second, the intention is for us not to activate the Guard 
and deploy them, as we do to Bosnia or Kosovo or Iraq or 
wherever, but, rather, to use their 2-week active duty for 
training, as we have been doing in support of the 
counternarcotics mission along the border for some time, and as 
we currently do, for example, with respect to hurricane damage 
and other activities. So, we believe the large portion of the 
individuals will be doing it on their active duty for training, 
and it will be beneficial to the Guard, because they'll be 
doing the very same things they would be doing if they were 
training their 2 weeks on an exercise basis, as opposed to 
doing something that the country really needs.
    Senator Byrd. Well, I don't think I've heard the answer to 
my question. Wouldn't it make more sense to have the Department 
of Homeland Security contract its work to the private sector 
and allow the National Guard to preserve its readiness to 
respond to natural disasters and its other traditional 
missions?
    Secretary Rumsfeld. I think that it does make sense for the 
Department of Homeland Security to use its own assets, as well 
as its contracting authorities, to do the things that it's 
appropriate for them to do. What the President's proposing is 
for the National Guard to provide some assistance with respect 
to some of those activities, on an interim basis, as the 
Department of Homeland Security ramps up to a greater level of 
capability.
    Senator Byrd. Do you intend, Mr. Secretary, to deploy 
National Guardsmen from West Virginia and other non-border 
States?
    Secretary Rumsfeld. Senator Byrd, the plan, as I understand 
it--we have General Blum here, who will be deeply involved in 
it--the plan is this, that first the four border States 
involved--California, Arizona, New Mexico, and Texas--would use 
their own National Guard people to the extent they have the 
skill sets needed to support the Border Patrol. Second, the 
National Guard Bureau would then advise the State Governors, 
who would be in charge of these forces, where in the country 
those skill sets that are still needed exist, and then they 
would work out arrangements with those States. And to the 
extent a State Governor did not want to--for example, if West 
Virginia decided they did not want to participate, they would 
not participate. To the extent States would like to, on a 
reciprocal basis, which States demonstrated they do like to do, 
and are willing to do--and thank goodness they were, in 
Katrina; we went from zero to 50,000 guardspeople down in that 
area in a week or two--then General Blum would direct those 
States to some other State to make that request. Is that 
roughly right?
    General Blum. Mr. Secretary, you have it exactly correct. 
Senator Byrd, this is building on a long-lasting, time-proven 
model. If you remember, right after 9/11, when the Guard was 
put into the airports of this Nation until Transportation 
Security Administration could recruit and train enough people 
to take over that niche. The Guard provided that capability for 
this Nation on an interim basis until the proper Federal agency 
could stand up, train, and equip their people. They then took 
over the mission, the Guard left that mission and went back to 
being--doing other things. We did the same thing on the 
Southwest border with the cargo handling inspection mission. 
The National Guard, for several years, was on the Southwest 
border inspecting cargo until we could get the Customs people 
to get their own cargo inspectors recruited, trained, and 
equipped. Then, the National Guard came off of that mission.
    It would be my intent to work the National Guard out of 
this mission as quickly as the Department of Homeland Security 
can stand up their capabilities. What Secretary Rumsfeld said 
about the partnership of the States with the Federal Government 
on this, and the autonomy and the control of the Governors of 
their National Guard forces will remain in affect.
    To me, sir, I think the National Guard is superbly ready to 
be the military force of choice for this interim mission, until 
the Department of Homeland Security can stand up and assume 
this mission on their own.
    Senator Byrd. General, my time is running out. Let me ask 
you, how do we know that these deployments won't detract from 
the ability of guardsmen to respond to emergencies in their 
home States?
    General Blum. Sir, that is a commitment that I pledge to 
the Secretary of Defense and the Governors of this Nation. We 
have a very robust force of 445,000 citizen soldiers and 
airmen. We will leverage the joint capabilities out of the Air 
National Guard. We have sufficient soldiers to do the overseas 
warfight, prepare for the upcoming hurricane season, and still 
have the forces that we need to respond for terrorism in this 
country, or a weapons of mass destruction (WMD) event. As the 
Secretary said, the high-end limit of 6,000, only represents a 
little less than 2 percent of our available force, and I think 
we can manage that. If any State has a particular issue or 
problem, and cannot send their forces, we have many, many other 
choices that we can make, sir.
    Senator Stevens. The Senator's time has expired. I'm sorry.
    Senator Byrd. Very well.
    Senator Stevens. Senator Bond is recognized for 7 minutes.
    Senator Bond. Thank you very much, Mr. Chairman.
    Mr. Secretary, I was encouraged to hear your comments about 
the coordination, the defense intelligence, and the rest of the 
intelligence community. And I believe it was indirectly 
referenced by--Chairman Pace. Clearly, we found, as a member of 
the Intelligence Committee, that we had a long way to go. And 
we look forward to that progress. We hope we can get Michael 
Hayden confirmed as head of the Central Intelligence Agency and 
move forward in that. I know that generally, your intelligence 
responsibilities are tactical; whereas, the other agencies have 
more strategic plans. That's not a hard-and-fast dichotomy, but 
it is one where there needs to be full communication both ways, 
in terms of both of those missions.
    Well, as you are well aware from questions and from our 
discussions, many of us on this committee and in the Senate are 
concerned that the Guard has been pushed around in policy and 
budget decisions within the Pentagon. And, Mr. Secretary, 
clearly we feel that needs to change. When the Guard's given a 
mission, the Guard's there to do the job, whether it's Iraq, 
Afghanistan, or Katrina. But too often when critical decisions 
were made that impacted them, the Guard leaders were shut out.
    As you know, 75 of us wrote to urge the Pentagon not to 
reduce the National Guard end strength, in December. But I have 
found it very troubling that the--there was--when the 
Quadrennial Defense Review came out, as you noted in your 
preface, quote, ``In the pages that followed, the Department's 
senior leadership sets out where the Department of Defense 
currently is and the direction we believe it needs to go in 
fulfilling our responsibilities to the American people. Now, in 
the fifth year of this global war, the ideas and proposals in 
this document are provided as a roadmap for change leading to 
victory,'' close quotes.
    Well, that sounds good, but we understand that the Guard 
was not at the discussion--not even at the discussion table. 
Now, we do know--I have been advised that, in this latest 
mission, assigned by the President to the Guard, the Guard was 
fully involved. And that's why the Guard has been able to 
adapt, and will use normal training times. And I think this is 
the way it should work.
    I also appreciate very much your encouraging words about 
the resourcing and support of the Guard. But I guess my first 
question would be, Can you explain how the Pentagon can develop 
a roadmap for change leading to victory with a key strategic 
partner in the total force, the National Guard, not even at 
the--in the discussions, or even at the discussion table?
    General Pace. Sir, may I respond----
    Senator Bond. General.
    General Pace [continuing]. Because I was at--I was at the 
table, as was General Blum.
    The process that you all have set out through recent 
legislation that allows the head of the National Guard Bureau 
to wear three stars, to have two-star officers on my staff, one 
representing the Guard, one representing the Reserves, worked 
extremely well during the QDR. During the QDR process, General 
Blum and my two general officers were at the table. So, it was 
not the QDR, sir, that got off track.
    What happened was, near the end of the QDR process, but 
separate from it, during a budget analysis that the Army did in 
November, that's when the Guard was not at the initial 
meetings, and that's when all this misinformation about how 
many troops, how much money, et cetera, took place. General 
Blum can speak for himself as to whether or not he believes he 
was properly represented. I was there at all those meetings. It 
is true that, came the time for making budget decisions, that 
the first meeting or two did not have enough representation. 
That was quickly corrected by the Army. But then what happened 
was, all the rumors that were out there, about x number of 
people being cut, et cetera, took on a life of their own.
    At the end of the day, the only thing that was ever 
presented to the Secretary of Defense from the QDR and from the 
budget process was that the authority would be for 350,000, 
that there were currently 333,000, and that, rather than put 
the money in the budget for the other 17,000, that that money 
would be reallocated inside the Army budget as the recruiting 
force was successful in getting those other 17,000, sir.
    Senator Bond. General, I'm sure we're going to hear from 
General Blum in a minute, but let me ask, When the--the way the 
military works when there are a bunch of--when there are four 
stars sitting at a table, do--does a three-star general have 
equal footing in that discussion?
    General Pace. Sir, you bet, if he's representing something 
as strong and as solid as the National Guard. Three stars, 
majors, whoever it is who's representing and has a knowledge 
base is what we're looking for. I'm not looking around the 
table counting stars; I'm looking around the table for the 
expertise.
    Senator Bond. General Blum, I guess I was misinformed. Have 
you been fully involved in all of the participations in all of 
these plans?
    General Blum. Sir, you have not been misinformed. What 
General Pace said is exactly accurate. I think it was a perfect 
record of what happened in the QDR, and then what didn't happen 
at the end of the QDR, that really was not QDR, it was really 
budget and programming decisions that had to be made. At that 
time, frankly--and I've told this subcommittee, and I've told 
others--that I was not consulted, at that particular time. The 
Secretary of the Army and the Chief of the Staff of Army have 
come in here and told this subcommittee, in their own words, 
that that part could have been done better. They are 
committed--and certainly this Secretary and this Chairman of 
the Joint Chiefs, are committed--to not repeating the long and 
sordid past that the Guard has had with its parent services. 
They're committed----
    Senator Bond. General----
    General Blum [continuing]. To a different path.
    Senator Bond [continuing]. I'm about to run out of time, 
excuse me, but I just wanted to point out that the Government 
Accountability Office, in talking about Katrina, said that poor 
planning and confusion about the military's role contributed to 
problems after the storm struck on August 29, and, without 
immediate attention, improvement is unlikely. And was the Guard 
not fully involved in the planning for the Guard's response? 
What happened?
    General Blum. Are you talking about for the hurricane 
response----
    Senator Bond. Katrina.
    General Blum [continuing]. To Katrina? I sat with the 
Chairman of the Joint Chiefs and the acting Secretary of 
Defense from the very beginning of that--it was Secretary 
England, because Secretary Rumsfeld was out of the country when 
Katrina first hit. They were fully aware of everything that the 
Guard was doing, total transparency. We, in fact, did have a 
very prominent voice at the table during that entire process, 
and it worked magnificently well as a result--that piece.
    Senator Bond. Thank you, Mr. Chairman.
    Senator Stevens. Yes.
    Senator Feinstein.
    Senator Feinstein. Thank you very much.
    Welcome, Mr. Secretary. One National Guard question, and 
then I'd like to talk about Iraq. According to recent testimony 
of the chief of the Border Patrol, the Border Patrol currently 
has 11,300 people. If I understand posse comitatus correctly, 
the Guard, under Federal control, is restricted to logistics 
and support services. If there are 11,300 Border Patrol 
officers, how many support and logistical jobs are there that 
Border Patrol can be freed up from?

                            BORDER SECURITY

    Secretary Rumsfeld. Senator, I'm told that an analysis is 
being completed, and is supposed to be submitted to the 
Department of Homeland Security this afternoon. And, at that 
point, they will come to the Department of Defense--and, 
particularly, General Blum--and say, ``Here are the things we 
would like to backfill or the additional things we would like 
done, some additional UAVs or some additional technical support 
or language support or construction support.'' And then, 
there'll be a matching of those capabilities.
    Is that right?
    General Blum. I think that's a very accurate description, 
Mr. Secretary--Senator.
    Senator Feinstein. Yeah. Because one of my big concerns is, 
we have doubled the Guard since 1995. Apprehensions at the 
border have gone down 31 percent. Apprehensions inland have 
gone down 36 percent. And the flow has continued. Something is 
problematic, in my view. But if you have 11,000 active Border 
Patrol--I've been trying to find out how many logistical and 
support positions there are, but I suspect they should be far 
below 6,000. And so, I will just leave you with that.
    Secretary Rumsfeld. Sure. Yeah, I don't know, but I think 
you're probably correct.
    I mean, I'll give you one example of something that we can 
do. There is a training range in Arizona that has a 37-mile 
border with Mexico. And in the last year, something like 15 
percent of the training time, down near Yuma, we lost, because 
of immigrants coming across that border, and it was too 
dangerous to use it. There have been people who have died out 
there from not enough water or food, who were misled as to the 
distances they'd have to go. So, from a humanitarian 
standpoint, from a training standpoint, and from an illegal 
immigration standpoint, we could go to work, for example, and 
do the kind of fencing, that's been done in other parts of that 
border, in our training range, and advantage everybody by doing 
it.
    Now, that is not something that would be replacing 
something that the Border Patrol is currently doing, but it 
would be a very useful thing to do----
    Senator Feinstein. Right.
    Secretary Rumsfeld [continuing]. We believe, or at least 
we're looking----
    Senator Feinstein. Right.
    Secretary Rumsfeld [continuing]. At it.
    Senator Feinstein. Thank you. I understand.
    Let's turn to Iraq for a minute. As I understand the 
situation--and I know you'll correct me if I'm wrong--the Prime 
Minister has until May 21 to appoint the Minister of Defense. 
They are wrangling. If he doesn't meet that time deadline, my 
understanding of the constitution is that the Prime Minister is 
replaced. Is that your understanding?

                       IRAQI GOVERNMENT FORMATION

    Secretary Rumsfeld. My understanding, as of this morning, 
is that he has made a decision with respect to the Minister of 
Defense, that there are two open ministries. I think they're--
one is Ministry of Interior, and the other may be finance or 
oil--do you recall?
    General Pace. Yes, sir. That's finance, sir.
    Secretary Rumsfeld.--Finance----
    General Pace. Yes, sir.
    Secretary Rumsfeld [continuing]. That are still being 
debated, and that the hope or expectation is that, by the 
deadline, they will make an announcement.
    Senator Feinstein. Good.
    It's my understanding that both you and General Pace have 
expressed a desire to see a reduction of United States troops 
in Iraq from our current level, but you've stated this can't 
take place until a permanent cabinet is formed and that any 
downsizing would be based on the security situation on the 
ground and the readiness of Iraqi security forces. Could you 
provide this subcommittee with your personal assessment of 
where things stand with respect to downsizing the American 
troop presence, in terms of the security situation, the 
training of Iraqi security forces, and political developments? 
I'd be interested in what must happen, in your view, before we 
begin a major downsizing of the American troop presence in 
Iraq.
    Secretary Rumsfeld. Senator, we supply the Congress, I 
think, every quarter, a report that responds to that, in the 
broad sense. And it would reflect, I'm sure--General Pace's 
staff and I both go over it----
    General Pace. We do.
    Secretary Rumsfeld [continuing]. And it reflects our best 
judgment at that moment.
    If General Casey were here, he would say that there must be 
good--reasonable security, there must be a reasonable economic 
opportunity; and, to have either one, you've got to have a 
unity government. So, you're not going to get the security 
that's needed, in my--in his view, unless the new government 
engages the country, has a reconciliation process, and proceeds 
in demonstrating to the Iraqi people that they have a stake in 
the success of that government.
    Now, that's general. The second key thing, obviously, is, 
how many Iraqi security forces are there going to be, and how 
good are they, and how fast can they take over that 
responsibility? And we know what that trajectory is.
    Senator Feinstein. I think the point is--of many of us--and 
let me just speak for myself--is that we have reached a point, 
in Iraq, of major sectarian violence. If I had to take a guess, 
I am very worried about Muqtada al-Sadr, the Medhi militia, 
what's happening in the development. And the American presence 
becomes a kind of scapegoat for the militias to carry out 
operations against other civilians.
    I am really concerned about our people being caught in the 
middle of this. And it seems to me that the time is upon us to 
transition that mission and begin to confine our presence to 
logistics and support, and move our people out.
    Secretary Rumsfeld. Senator, we--I don't disagree with the 
construct that you've presented. We ought to be worried about 
Sadr and his militia. Armed militias, in a country of 
democracy, are inconsistent with the success of that democracy. 
And the new government, I will say, the Prime Minister-
designate, one of the first things he did was say, ``We're 
going to have to address the militia issue publicly.'' Second 
thing he did is, he went down and saw Sistani, the leading 
cleric in the country, and got him to say that the issue of 
militias has to be addressed. So, there's broad agreement with 
that point.
    The second thing I agree with is that, you're quite right, 
General Abizaid and General Casey wrestle every day with the 
tension that you described, the tension between having too few 
forces so that the political process can't go forward, and 
having so many forces and being so intrusive that you 
contribute to the insurgency and feed the argument that we're 
the problem. And so, it's an art, not a science. They're 
terribly competent individuals, and it varies from different 
section of the country to different section. It also, as you 
suggested, varies depending on the role that you're playing. If 
you're more in the background, less patrols, more in support, 
in the combat support, combat service support, quick-reaction 
forces, Medicare--medical evacuation capability, those kinds of 
things are less intrusive than patrols.
    And so, you have exactly described what General Abizaid and 
General Casey are wrestling with.
    General Pace. And, Senator, the turnover process continues. 
We had 110 facilities the beginning of this year. We're down 
to--we turned over 34, or closed--turned over or closed a total 
of 34, down to 76. And for the rest of this year we're going to 
close probably another 20 plus, or turn over. The Iraqi 
divisions, there are 10. They are building--two of them 
currently are in the lead. The other eight are building 
capacity to go in the lead. Their brigades are over 30. Fifteen 
of those brigades are in the lead, meaning they have territory 
they control. They are building to 120 infantry battalions, of 
which currently--65 currently are in the lead and on the 
ground.
    So, as this political process continues, so does the 
turnover responsibility for more and more of the territory of 
the country, sir--ma'am.
    Senator Feinstein. Thank you.
    I've exceeded my time. Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, sir.
    Mr. Secretary, the Air Force currently has an aging fleet 
of refueling tankers that are already experiencing problems. 
Given the age, the reliability issues, and maintenance 
challenges facing the current tanker fleet, the timely 
replacement of the KC-135s should be a priority of the 
Department of Defense. Could you give us your thoughts on how 
soon the Department is going to execute the new program? And 
how are we going to recapitalize the tanker fleet before the 
age issue and the recapitalization issue becomes too critical?

                        TANKER RECAPITALIZATION

    Secretary Rumsfeld. Senator, the last I heard, the request 
for information is out, the draft request for proposal is 
expected to be out in September of this year. And if things 
work out properly, it should end up with a formal request for 
proposals by January 2007.
    Senator Shelby. Isn't this very important to the Air Force?
    Secretary Rumsfeld. It is. And the Air Force clearly is 
interested in it, and addressing it. If that timeframe persists 
and doesn't get moved to the right, that would suggest a 
contract award in sometime late of 2007--fiscal year 2007, so 
it would be, you know, in the third quarter of next year.
    Senator Shelby. But it's going to happen, is it not? Is 
that what you're saying?
    Secretary Rumsfeld. The Air Force is determined that it 
happen, and that it be done in a proper and orderly way.
    Senator Shelby. It is a priority for you, Secretary of 
Defense?
    Secretary Rumsfeld. It is.
    Senator Shelby. One of your priorities?
    Secretary Rumsfeld. Sure. I mean, if you think of what we 
have to do in the world, we simply----
    Senator Shelby. Absolutely.
    Secretary Rumsfeld [continuing]. Have to have a competent, 
capable, ready tanker fleet. And we have to get about the task, 
over time, of seeing that the aging of that fleet is arrested.
    General Pace. Sir, and there's lead money in the 2007 
request for the first three aircraft that will allow us to, in 
fact, get on about building the airplanes, if, in fact, the 
contract is awarded.
    Senator Shelby. Thank you, General.
    Mr. Secretary, the joint cargo aircraft, just the subject, 
there's--we've been--a lot of us have been closely following 
the Joint Air--Cargo Aircraft Program. And a lot of us are 
concerned that the recent decision to transition the Army 
future cargo aircraft into a joint Army/Air Force program is 
delaying the Army's needed replacement of the organic fixed-
wing cargo lift that it needs. There's some discussion that 
it's the Air Force's lack of urgency here that led to the 
Senate Armed Services Committee, as you know, recently cutting 
the authorization for the joint cargo aircraft in the 2007 
budget. Ironically, all the money was taken from the Army's 
account there. Do you support, Mr. Secretary, the urgency of 
the Army's organic airlift requirement and the need to fully 
fund the joint aircraft--joint cargo aircraft in 2007?
    General Pace, you want to address that?
    General Pace. Senator, thank you. I am not knowledgeable 
about a problem with the Army's joint cargo aircraft.
    Senator Shelby. Okay.
    General Pace. All of our focus has been on getting the Army 
moved overseas, and that focus has been on the C-17 and the C-5 
fleet.
    Senator Shelby. Absolutely.
    General Pace. A very robust mobility capability study we've 
just completed determined that 180 C-17s and 112 C-5s was the 
right mix and that would allow us to do our business. I will 
have to get back to you, sir, with any particular problem at a 
lower level than that.
    Senator Shelby. Of course, we're interested in the Sherpa's 
replacement, you know, in a timely fashion----
    General Pace. Aye, sir.
    Senator Shelby [continuing]. As you know. Can you get back 
with me on that?
    General Pace. I will. I don't have the facts in my head.
    Senator Shelby. Okay.
    [The information follows:]

    The Administration's fiscal year 2007 budget request 
included $109.2 million in Aircraft Procurement, Army for the 
procurement of three Future Cargo Aircraft. I support this 
request. If funds are not made available for this request, it 
will delay Army platform fielding and replacement of their 
existing fixed wing logistics aircraft. The Army's Future Cargo 
Aircraft fills a Joint Requirements Oversight Council (JROC) 
validated capability gap and has Defense Acquisition Board 
(DAB) level endorsement as part of the Army's Aviation 
Modernization Program.

    Senator Shelby. The joint common missile. We've talked 
about that before here, and, of course, there was a decision in 
2004, a Presidential budget decision to terminate that, 
although a lot of people believe it's a remarkably healthy, 
low-risk program. It was on schedule, on budget, successfully 
demonstrating important new capabilities for the warfighter. 
Can you give us a status report, General Pace or Mr. Secretary, 
on where the joint common missile stands, in terms of cost, 
performance, and schedule? What's going on here?
    General Pace. Sir, the joint common missile was a item of 
great discussion during the QDR. It was fed by the Joint 
Requirements Oversight Committee's deliberations, looked at the 
Nation's total needs for precision weapons. The Hellfire II, 
the laser-guided bombs, the joint directed TAC munitions all 
were assessed as providing for this Nation, the amount of 
precision munitions needed for the perceived warfights. 
Therefore, the munition that you're speaking about was 
recommended to be taken out of the budget so we could apply 
that $3 billion plus to other programs that were more needed 
than it, sir.
    Senator Shelby. What happened to the $30 million that was 
appropriated by this subcommittee last year that the Office of 
Secretary of Defense (OSD) withheld, do you know, Mr. 
Secretary? Can you get back with us on that?
    Secretary Rumsfeld. I don't have that in my head. Do you, 
Tina?
    Ms. Jonas. Mr. Shelby, we will check, for the record, for 
you. My understanding, at this moment, is that it has not yet 
been spent, but we'll certainly----
    Senator Shelby. Yeah, it's----
    Ms. Jonas [continuing]. Will check, for the record, sir.
    Senator Shelby [continuing]. Been withheld, and we just 
wondered why it had not been spent.
    Ms. Jonas. Yes, sir.
    Senator Shelby. Will you get back with me on that?
    Ms. Jonas. We certainly will, sir.
    Senator Shelby. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Yes, sir.
    [The information follows:]

    The $30 million appropriated for Joint Common Missile in 
fiscal year 2006 is currently being withheld by the Office of 
the Secretary of Defense, as this weapon is a terminated 
program. Congressional report language encourages the 
Department to reevaluate this decision, and the Joint 
Requirements Oversight Council is studying the requirements for 
this type of close air support.

    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Mr. Secretary and General Pace, always good to see you. 
Always good to see all of you--General Blum. Some of these 
questions, I'd like to follow up.
    I listened to Senator Feinstein's question on Iraq. I get 
increasingly worried about that, that the--we just seem to have 
a policy of ``more of the same.'' The struggle to form a 
government goes on interminably. The President says there's a 
workable strategy in place that will allow for a significant 
troop withdrawal this year. But, since he said that, we've seen 
a huge rise in ethnic violence, the proliferation of militias 
that seem out of control, certainly a lengthening of the 
American casualty roster. Beyond that, it's anybody's guess how 
many Iraqis have been killed or injured.
    American taxpayers get the bill of over $1 billion a week. 
The meter is just running on and on. Former Senator from 
Illinois, Senator Dirksen, once said, ``That kind of money adds 
up.'' Now we're planning a $1 billion Embassy, the most 
expensive Embassy any country has ever built anywhere. And 
we're planning that at the same time we're saying we're not 
there to control anything. And then we build bases that are 
going to be the envy of military in most countries. Are we 
still going to see a significant troop withdrawal this year?
    Secretary Rumsfeld. Senator----
    Senator Leahy. I know that's--I know that question 
surprised you, Mr. Secretary.

                            TROOP WITHDRAWAL

    Secretary Rumsfeld. No, indeed, it didn't. Needless to say, 
we would hope so. And, as the President said, he will wait to 
receive the recommendations from General Casey and General 
Abizaid and General Pace as to what they believe the conditions 
on the ground will permit. And as you continue to go up in 
Iraqi security forces, both in numbers and equipment and 
experience, we are being successful in transferring more and 
more responsibility to them, which, if they get a government, a 
unity government, and if the government is persuasive to the 
people of Iraq that they should have a stake in its success, 
then we ought to be able to make a reduction.
    Senator Leahy. Well, let me ask you this----
    Secretary Rumsfeld. Let me just make a comment, though, on 
your ``interminable''--you said it was ``interminable,'' what 
was going on.
    Senator Leahy. Well, let me----
    Secretary Rumsfeld. Let me----
    Senator Leahy [continuing]. Let me----
    Secretary Rumsfeld. Let me just quickly respond. We go from 
election, November 4--this is a country with 250 years 
experience with democracy, and we go from an election, November 
4, and then it goes December, January, and the president's 
sworn in, and then the cabinet gets sworn in, in February and 
March, after confirmation.
    Senator Leahy. Mr. Secretary----
    Secretary Rumsfeld. I mean, it's not much difference from--
--
    Senator Leahy. Mr. Secretary, we're----
    Secretary Rumsfeld [continuing]. What we're doing, but 
they've never done it before.
    Senator Leahy. Mr. Secretary, we're not----
    Secretary Rumsfeld. They're breaking new ground.
    Senator Leahy [continuing]. We're not having sectarian 
violence in the streets all the time----
    Secretary Rumsfeld. True.
    Senator Leahy [continuing]. Either. And we have spent 
billions of dollars. We have rosy scenarios all the time. Is 
there any significant section of Iraq that the Iraqis could 
control the law and order with civil government, with the--with 
necessary services, without U.S. involvement?
    General Pace. Sir, there are 14 of the 18 provinces right 
now that are essentially calm, secure----
    Senator Leahy. So, we can withdraw from those 14.
    General Pace. To complete my answer to your question, sir, 
we are still in the process of assisting their armed forces in 
getting these skills they need. We have the battalions coming 
online--as I mentioned, 120 that are being built, 65 in the 
lead. There are still the logistics and command and control 
parts of their army that need to be built, for them to be able 
to sustain themselves completely. So, in those areas where they 
are currently in the lead on the ground, we are assisting them 
with logistics and command and control, and, over time, we are 
building that capacity for them, as well.
    Senator Leahy. General, in those 14, are there any one of 
them that the U.S. forces can withdraw completely in the next 3 
months?
    General Pace. No, sir.
    Senator Leahy. Thank you.
    It's been almost--Mr. Secretary, it's been almost like 
clockwork since September 11 that the National Guard is called 
up to carry out homeland security or disaster relief functions. 
And I think both you and I would join in praise of the way they 
have performed. They have been used to increase security at the 
Nation's airports, here at the Capitol after 9/11, and when I 
came to work, and thousands of others proudly came to work in 
this Capitol Building, just as thousands went proudly to work 
in the Pentagon, which was struck, we saw the Guard out here. 
They were at the Olympics, on the border, and then, after the 
Department of Homeland Security failed miserably after Katrina, 
they responded there and serving under the title 32 status on 
control of the Nation's Government.
    Now, I think it's the right way to call out the Guard in 
the United States, but it requires sensitivity to the needs of 
the State, adequate communication with the Nation's Governors. 
You've been asked this question by Senator Bond and others, and 
you and I have discussed this privately. It really seems, to 
me, that, with the Joint Chiefs of Staff, they--the highest 
advisory body to you and the Joint Chiefs, that you would be 
well served to have the chief of the Guard Bureau on this 
board. I referenced, when you and I were coming back on a 
flight from New York, that, when I raised that, there was an 
enormous amount of turbulence inside the airplane. It was very 
smooth flying outside.
    Have you had any change in your thought after you heard 
from Senator Bond, myself, and probably about 40 other 
Senators?

                             NATIONAL GUARD

    Secretary Rumsfeld. Senator Leahy, I have reflected on your 
recommendation in that regard, and I've talked to Pete Pace and 
other members of the Chiefs----
    Senator Leahy. I know you reflect on a lot I say. Go ahead.
    Secretary Rumsfeld [continuing]. And I guess the short 
answer is, no, I've not found myself migrating over to your 
viewpoint on that particular issue. I think the way we look at 
it is that the Army includes the total Army; and the Air Force, 
the total Air Force; and that to begin to segment them inside 
the Joint Chiefs of Staff is not a good idea. And the Guard and 
the Reserves have to be well represented in the Joint Chiefs, 
and we have to assure that we have those linkages that work and 
are effective. But to begin taking segments of the Army or the 
Navy, the Air Force or the marines, and add them in, I think, 
is not the best idea.
    Pete?
    General Pace. Sir, we worked real hard for the last 20 
years, under the leadership of the Goldwater-Nichols 
legislation, to kluge together a joint force. And we have one 
Army, one Navy, one Air Force, one Marine Corps, and they are 
working extremely well together now. To divide our Air Force, 
to divide our Army by having an additional member of the Joint 
Chiefs, who represents a segment of both of those services, 
would do a disservice to the country. That does not mean that 
we do not need to have a robust representation of the Guard. 
And this committee and the Congress, in recent legislation, 
increased the rank, to three stars, of Lieutenant General 
Blum's position, gave the chairman two two-star positions, both 
of which are filled by quality officers. I recommend, from the 
standpoint of the rank structure, that we look to the 
commission that Mr. Punaro is heading, to take a look at the 
entire Guard and Reserve structure, see what responsibilities 
they have, see how many stars are appropriate, and to see how 
that might impact the other Reserve and Guard forces. But as 
far as being a member of the Joint Chiefs, sir, I would find 
that disruptive, not helpful.
    Senator Leahy. Thank you, Mr. Chairman. My time is up. 
Obviously, I'll follow up more on this, because I still have 
the concerns about homeland security.
    Senator Stevens. Thank you.
    Senator McConnell, you're recognized for 7 minutes.
    Senator McConnell. Mr. Secretary, it strikes me that 
Members of Congress, and, to some extent, the American people, 
are having a hard time measuring progress in what has been 
described as the ``long war.''
    Let me suggest that there are at least two ways that I 
think we can measure progress. Number one, we haven't been 
attacked again here at home since 9/11. And, I want to commend 
you and your Department for that, because I think the only 
reason that we haven't been attacked again is, we've been on 
offense, going after the people who would do us harm, where 
they tend to hang out. Another way to measure progress, it 
strikes me, is the reduction in the number of states that 
sponsor terrorism. Qaddafi had an epiphany after witnessing 
what happened in Iraq, and has been busily trying to normalize 
his relationship with us. You've got an emerging democracy in 
Afghanistan, an emerging democracy in Iraq, which we've all 
been talking about here this morning.
    It seems to me that's clearly progress, both in terms of 
the absence of additional attacks here at home, which we all 
expected, even later in 2001, not to mention over the next 5 
years, and the reduction in the number of states that sponsor 
terrorism.
    I've heard it suggested, Mr. Secretary, that somehow the 
Middle East is in worst shape as a result of an emerging 
democracy in Iraq. And I'd be interested in your views about 
how a process of democratization in Iraq could possibly make 
things worse in the neighborhood. And, second, I'd like for you 
to touch on the Iranian influence in Iraq these days, and the 
extent to which that may be complicating our moving forward 
there.
    Secretary Rumsfeld. I missed that--what the word was, the--
about--the second part of your question? I didn't----
    Senator McConnell. Well----
    Secretary Rumsfeld [continuing]. Understand the word.
    Senator McConnell I'd like your response to the suggestion 
that somehow the Middle East is worse off as a result of----
    Secretary Rumsfeld. Right.
    Senator McConnell [continuing]. Of an emerging democracy in 
Iraq. And, rather than take up your time by asking another 
question, I went ahead and asked my follow-up question. I'm 
interested in your observations about the extent to which Iran 
is exacerbating the problem in Iraq.

                           DEMOCRACY IN IRAQ

    Secretary Rumsfeld. Yes, sir. I think one way to look at 
the first part of your question is to picture Iraq today, were 
we to withdraw and the democratic government to fail, and the 
Zarqawi/al Qaeda people take over that country and turn it into 
the kind of safe haven that they had in Afghanistan. These are 
the people who behead people. These are the people that are 
funding terrorist attacks in other countries. These are the 
people who would take that country, and, therefore, that part 
of the world, back to the dark ages. They want to reestablish a 
caliphate. And the dire consequences for the people of Iraq, 
the 25 million people--12 million of them went out and voted 
for their constitution in their democratic election. It is a 
country that's big, it's important, it has oil, it has water, 
it has history, and for it to be turned over to extremists 
would be a terrible thing for that part of the world and for 
the free world, and for free people everywhere, in my view.
    I also would say that if people are concerned about Iran, 
the thought of having the Iraqi constitution and the sovereign 
elected government fail there would be the best thing in the 
world, from Iran's standpoint. And if people are anxious to see 
Iran successful in the path they're on, it strikes me that 
tossing in the towel on Iraq would be a boost for them.
    The second part of your question is hard for me to answer. 
We know that Iran has access across that border. It's historic. 
Shi'a religious sites are in Iraq, and they've been going back 
and forth on pilgrimages for decades.
    We know that we're finding Iranian-manufactured weapons 
inside of Iraq. We have information that they are engaged in 
funding segments of that population to try to advantage 
themselves. Their position clearly cannot be characterized as 
benign or disinterested. I would characterize it as unhelpful. 
The problem we've got is, unless you catch somebody from Iran, 
from the Government of Iran, physically bringing a weapon into 
Iraq, and you can tie a string between the two, you can't 
assert that it necessarily was government sponsored.
    Pete, do you want to----
    General Pace. Sir, I think you hit it on the nail, sir. And 
there's more that we could talk about in closed session, sir, 
but I think that's about all we should say publicly.
    Senator McConnell. I was not here at the beginning of the 
hearing, and I apologize if you've already gotten this 
question, but I'm curious, since I think we would all agree, 
everyone in this room, that the quickest ticket out of Iraq is 
the adequacy of the Iraqi military and police. Has someone 
given an update on where they stand these days? If not, I would 
like to hear that.
    General Pace. Sir, we gave a partial answer to that 
question. I can go down it very quickly.
    Senator McConnell. All right.
    General Pace. We stand, today, at 254,000 total Iraqi 
security forces, en route to 325,000. Inside the Iraqi army, 
there are 10 divisions, two of which currently control 
territory on their own. There are over 30 brigades, 15 of which 
currently control Iraqi territory on their own. There are 120 
battalions, 65 of which currently control property on their 
own. In Baghdad, for example, just a little bit over half the 
city now is controlled by Iraqi army and Iraqi police. The 
Iraqi army is ahead of the Iraqi police with regard to its 
capacity to stand on its own, because we started with the Iraqi 
police a little bit later. But the Iraqi police are undergoing 
the exact same training process, embedded trainers, that we 
have with the Iraqi army. We are now adding to the Iraqi 
police, so they are coming along. And the process is on track 
so that by the end of this year, the vast majority, 95 percent 
plus, of the Iraqi army will be manned, trained, and equipped 
and in various stages of capacity, and then later on in 2007, 
the police will be complete.
    Secretary Rumsfeld. I would only add this thought, which I 
believe I mentioned earlier. The success of the Iraqi security 
forces is impressive. They're making excellent progress. The 
reality is that unless you have a government formed, and with 
strong, competent ministers that are going to govern in a 
nonsectarian manner in those key security ministries, the 
future of the Iraqi security forces can't be counted on, 
because they require a government structure above them, and 
ministries above them, that are capable and competent, so that 
there are chains of command and civilian control and linkages 
back to the government. And that's the process that's very 
close to happening.
    Senator McConnell. That's what we expect to happen by 
Saturday, I gather. We hope.
    Senator Stevens. The Senator's time has expired.
    Senator McConnell. Thank you, Mr. Secretary.
    Senator Stevens. Senator Durbin is recognized for 7 
minutes.
    Senator Durbin. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary and General Pace.
    Mr. Secretary, I've reviewed your testimony before this 
subcommittee since the invasion of Iraq, and it has been 
consistent. It consistently tells us the Iraqi forces are 
better than ever, the time is coming very soon when they will 
be ready to stand and fight for their own country. And yet, as 
the years have gone by, despite your testimony, we still have 
135,000 or more American soldiers with their lives on the line. 
We've lost 2,450 of our best and bravest. Over 20,000 have 
suffered serious, life-changing injuries and come home. And our 
Senate has spoken, that this is to be a year of significant 
transition. I have heard nothing in your testimony, as I've 
listened to it, as it's been related to me, to suggest that you 
have plans to make this a year for significant transition in 
Iraq. Can you tell us that, before the end of this calendar 
year, a significant number of American troops will be 
redeployed out of harm's way in Iraq?

                            TROOP WITHDRAWAL

    Secretary Rumsfeld. No. No one can. It's obviously our 
desire, and the desire of the troops, and the desire of the 
Iraqi people. No one wants foreign forces in their country. The 
President is the one who will make the decision in the 
executive branch of the Government. He has said that he's 
responsive to General Abizaid and General Casey and General 
Pace's recommendations, and that their recommendations are 
going to be based on conditions on the ground. We've gone from 
a high of 160,000. Today we're at about 133,000, I think. We 
have every hope that we'll be able to continue making 
reductions as the Iraqi security forces continue to take over 
responsibility, as General Pace has described they're currently 
doing.
    Senator Durbin. Mr. Secretary, I will believe the 
statements about the viability and strength of the Iraqi 
security forces when the first Iraqi soldier stands up and 
replaces an American soldier. And from what I'm hearing from 
you, it won't happen this year.
    Secretary Rumsfeld. Well, that's just not correct. I don't 
know quite what you mean by ``replaces an American soldier,'' 
but they can--they had the principal responsibility for 
security for the elections, for the constitutional referendum. 
They----
    Senator Durbin. Mr. Secretary, the American people want to 
know when our forces, currently in harm's way in Iraq, are 
going to be out of harm's way, redeployed to a safe location 
outside of Iraq. And you've said, ``No, it won't happen this 
year.''
    Secretary Rumsfeld. I did not. You're not listening 
carefully. I did not say it will not happen----
    Senator Durbin. Well, speak----
    Secretary Rumsfeld [continuing]. This year. I----
    Senator Durbin [continuing]. And I will listen carefully.
    Secretary Rumsfeld. I did not say it will not happen this 
year. I said I hoped it happens this year, but I can't promise 
it.
    Senator Durbin. Well, when we talk about significant 
transition, I'm afraid I don't have any evidence of it yet, in 
terms of----
    Secretary Rumsfeld. Well, there's been----
    Senator Durbin [continuing]. Our policy.
    Secretary Rumsfeld [continuing]. A lot of transition, 
Senator Durbin. And--maybe you wouldn't characterize it that 
way, but clearly there's been a shift in weight within the 
roles that the coalition forces are playing in Iraq away from 
patrolling and over toward the training and the equipping and 
the mentoring and the embedded process within, now, not just 
the ministry of defense forces, but also the ministry of 
interior forces. That's--that is a shift. At least I would 
characterize it. Wouldn't you, General?
    General Pace. Sir, there's a continuing process here. We 
started the beginning of this calendar year with almost 160,000 
troops on the ground. We're down to about 133,000, as the 
Secretary pointed out. We went from almost 20 brigades during 
the turnover and the election security, down to 15 brigades 
now. I----
    Senator Durbin. But, General, isn't it true that we ramped 
up the number of forces for the election?
    General Pace. We did, sir. And we're----
    Senator Durbin. And then brought them----
    General Pace [continuing]. And we're----
    Senator Durbin [continuing]. Back down after the election.
    General Pace. We ramped up from 18 to 20, and then we went 
back down to 17, and then we went down to 15, where we are 
right now. And about 2 weeks ago, General Casey and General 
Abizaid recommended to the Joint Chiefs, and we recommended to 
the Secretary, that we not move the brigade that's currently 
prepared to deploy from Germany into Iraq right now until we 
take a look at the current situation on the ground, work with 
the new government, because it appears that the Iraqi armed 
forces, having built as much as they have, will be able to take 
over more. So, they--the Iraqi armed forces are taking over 
more and more territory. And I can show you a map after--when 
we're done, sir, that shows you, basically in two colors, how 
much of the country, which is about 25 percent right now, has 
been--is under control of Iraqi forces. And about half of 
Baghdad is in that territory, sir.
    Senator Durbin. Thank you, General.
    Secretary Rumsfeld. Could I say one----
    Senator Durbin. Mr. Secretary, I'd--sorry, I have 2\1/2\ 
minutes, and there's one other issue I'd like to touch on, and 
that relates to the McCain torture amendment, which passed the 
Senate, 90 to 9. We were hoping that there would be a rewrite 
of the Army Field Manual consistent with the McCain amendment. 
And it appears that there have been some problems. I don't 
understand why. I want to ask you basically this. Do you 
believe that we should be working toward a consistent, uniform 
standard when it comes to the treatment, detention, and 
interrogation of prisoners? And do you believe, as the original 
Army Field Manual said, that every interrogation technique 
authorized should be--would be considered lawful--let me 
restate that. Can you assure us that every interrogation 
technique authorized by the new Field Manual would be 
considered lawful by the Pentagon if it was used on captured 
American servicemembers?

                         TREATMENT OF DETAINEES

    Secretary Rumsfeld. I'll try to answer. I'm not sure I 
understand the----
    Senator Durbin. Let me restate it.
    Secretary Rumsfeld [continuing]. Structure of the question.
    Senator Durbin. It wasn't clear, and I want to make sure it 
is. There's been a question as to whether you're going to make 
some distinctions in the Army Field Manual in the way we treat 
prisoners. And the standard that was published in the Army 
Field Manual, an unclassified document, was as follows, that we 
would not employ interrogation technique against prisoners that 
would be considered unlawful if it were employed against 
American servicemembers. Will that still be the standard--one 
single consistent standard?
    Secretary Rumsfeld. Let me try to respond. The Army Field 
Manual rewrite has been undertaken. It's completed. It's been 
completed for a number of weeks. I shouldn't say ``completed.'' 
It has been in a draft form for circulation for a number of 
weeks. I believe some portions of it have been discussed on the 
Hill. It is complicated, because of some definitional issues. 
It clearly is designed to comply with the law. Let there be no 
doubt about that.
    The--part of your question leads me to believe that it goes 
to the question----
    Senator Durbin. The law--it says there will be one uniform 
standard. That was the McCain amendment. There were no 
distinctions. Was that what the Army Field Manual will be 
recommending?
    Secretary Rumsfeld. Well, if you're asking me, ``Will the 
Army Field Manual be recommending that it be, in every sense, 
complying with the law?'' the answer is, it will.
    Senator Durbin. And the interrogation techniques that will 
be included would be interrogation techniques which we would 
find lawful if they were used on American servicemembers?
    Secretary Rumsfeld. Yeah, I am not a lawyer, as you know, 
and the reason I started to respond to that part of the 
question is, there is a debate over the difference between a 
prisoner of war, under the Geneva Convention, and an unlawful 
combatant, in a situation that is different from the situation 
envisioned by the Geneva Convention. And those issues are being 
wrestled with at the present time, but you can have every 
confidence that the Army Field Manual, which is, as far as I'm 
concerned, almost ready to come out, will be seen as, and, in 
fact, be, consistent with U.S. law.
    Senator Stevens. The time has expired----
    Senator Durbin. Thank you.
    Senator Stevens [continuing]. Senator.
    Senator Specter, recognized for 7 minutes.
    Senator Specter. Mr. Secretary, has there been any 
objection by the Department of Defense to the format of the 
defense appropriations bill with respect to earmarks?

                                EARMARKS

    Secretary Rumsfeld. I guess sometimes beauty is in the eye 
of the beholder. I can express, not a departmental view, 
because it hasn't been coordinated, but, to the extent that 
billions of dollars are taken out of things that we 
recommended, and to the extent things are proscribed from our 
doing them--for example, with respect to the military 
healthcare programs--and that we're restricted with respect to 
transfer funds and reprogramming in a manner that's harmful, 
then, obviously, it's inconsistent with what we recommended and 
the President recommended.
    Senator Specter. Do you think----
    Secretary Rumsfeld. And----
    Senator Specter [continuing]. Do you think----
    Secretary Rumsfeld [continuing]. Once money is taken away 
from one thing and put into something else--we wanted it where 
we recommended. On the other hand, the Congress's Article I of 
the Constitution, and the President proposes, and the Congress 
disposes. And----
    Senator Specter. Well, that was my next question. Do you 
think Congress has an appropriate role in the designation of 
earmarks?
    Secretary Rumsfeld. I obviously think Congress has an 
appropriate role. The way the Constitution's written, they 
control the budget.
    Senator Specter. Mr. Secretary----
    Secretary Rumsfeld. And I can read.
    Senator Specter. Mr. Secretary, without getting into the 
substance of the comments of complaints by retired generals, 
has there been any significant impact on the morale of the men 
and women in the Department of Defense because of those 
disagreements?
    Secretary Rumsfeld. I don't know that--I haven't done any 
polling or taken temperatures in that. I haven't noticed 
anything. Ask General Pace. He's around all the time.
    Senator Specter. How about it, General Pace?
    General Pace. Sir, certainly not within the building. I'll 
reserve my comments, because you haven't asked a question. But 
General Hagee is the most recent Joint Chief to come back from 
overseas. During this time, this was all bubbling in the press. 
He received zero questions from any servicemember of any rank. 
Sergeant Major Gainey, who is a senior enlisted advisor to the 
chairman, travels all the time, and he comes back and reports 
back to me, as recently as last week, that, in all of his 
travels, with as many people as he meets, not a single person 
has asked that question. So, as far as morale of the force, no 
impact, sir.
    Senator Specter. Mr. Secretary, according to congressional 
research, 80 to 90 percent of the intelligence budget goes 
through, or is controlled by, the Department of Defense. Is 
that accurate?
    Secretary Rumsfeld. Well, it's a matter of public record. I 
don't know what the percentage is. But a major portion is 
funded through the budget. And a portion of that ends up being 
administered by other intelligence agencies.
    Senator Specter. Has there been any reduction in that DOD 
control since the creation of the Director of National 
Intelligence?

                        INTELLIGENCE MANAGEMENT

    Secretary Rumsfeld. Oh, I think the answer is yes. I mean, 
clearly, once a law passes establishing the Director of 
National Intelligence and assigning certain responsibilities, 
we end up, technically, with somewhat less authority. On the 
other hand, before the law was passed I had a very close 
working relationship with the Director of Central Intelligence. 
Since the law has passed, I have worked very closely with the 
Director of CIA, as well as with the Director of National 
Intelligence. General Pace and I have lunch with him every 
week, and we've always had a very collegial relationship. And I 
wouldn't have thought of recommending to the President someone 
to head up a major DOD intelligence function without sitting 
down and talking to either the Director of CIA or the Director 
of National Intelligence, in this case, and discussing it. And 
the same thing's done on budgets. We do things with respect to 
the budgets on various satellite systems, for example, and 
we've established various memorandas of understanding and 
methods of operating together. And it's a very collegial, 
constructive, continuous relationship. At the top, down in the 
field. It's excellent. I mean, you talk to General Abizaid or 
General Casey, they feel they have superb linkages with the 
agency. And it's in the middle, where people, you know, chatter 
with the press and stuff like that, that suggest to the 
contrary. And I read these articles, and I go to Negroponte or 
Porter Goss or Steve Cambone, and say, ``What's this about?'' I 
don't see it. And it reads like fiction to me. Obviously, 
somebody's feeding that stuff, but I don't get it. I think it's 
mythology.
    Senator Specter. Mr. Secretary, were the media reports 
accurate that there was a disagreement between you and General 
Hayden as to whether NSA would come under DNI or DOD?
    Secretary Rumsfeld. Well, I'm glad you asked that, Senator. 
Let me just tell you what happened.
    Senator Specter. Thank you.
    Secretary Rumsfeld. I go to work every day and spend, you 
know, 12-13 hours working, and I meet with dozens and dozens of 
people all the time, and I hear their views all the time. I ask 
their views all the time. And if anyone thinks that everyone 
always recommends exactly what I think, they're wrong. It 
happens 20 times a day that someone makes a recommendation to 
General Pace or to me that I either don't have an opinion on--
now, in the case of Hayden, General Hayden came in to me during 
the debate in the Congress about where the National Security 
Agency should be located. The President had not taken a 
position at that stage, certainly had not taken a position that 
it should be transferred from the Department of Defense to the 
DNI. General Hayden said he thought that it would make sense to 
have it transferred to the DNI. Were you in the meeting?
    General Pace. I was, yes.
    Secretary Rumsfeld. Yeah. And others had a different 
opinion. And that was fine. And the President decided to not 
transfer it over to the DNI. And I agreed with the President.
    Senator Specter. Mr. Secretary, thank you very much for 
responding to my--letter from Senator Sessions and myself about 
the efforts in Colombia to liberate three men who were taken by 
the gangsters down there. And I've gotten a follow-up letter 
from General Sharp, and I appreciate that.
    I've--I know, from the correspondence, that you share the 
view that--and you say you are doing everything that can be 
done. And I appreciate your maintaining that. I think it might 
be useful to let the folks on the ground know all the things 
that are going on, because there is a sense there, that Senator 
Sessions and I heard, that they thought more could be done. 
But--I'm assured by what you have to say, but I think some 
assurances to them would be helpful, as well.
    Thank you very much, Mr. Secretary and General Pace, for 
your service.
    Secretary Rumsfeld. Thank you----
    Senator Stevens. The Senator's time----
    Secretary Rumsfeld [continuing]. Senator.
    Senator Stevens [continuing]. Has expired.
    Secretary Rumsfeld. General Pace--we deal with the Southern 
commander on this subject on a regular basis, and certainly he 
may know more than I know, but we don't know more than he 
knows.
    General Pace. No, sir, I think we--I think what you said, 
sir, is that you understand the answer you got, but that there 
are some folks in the field who don't quite yet know everything 
that's going on. Is that correct, sir?
    Senator Specter. Correct.
    General Pace. And that is in Colombia on the ground sir, is 
that what you're----
    Senator Specter. In Bogota.
    General Pace. Yes, sir. We'll work with Southern Command, 
sir, and make sure that the people who should know, know, 
although everybody should not know everything----
    Senator Stevens. Thank you very much. Your time has 
expired, Senator.
    Senator Domenici is recognized for 7 minutes.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Now, I'm not sure that I have 7 minutes worth of questions, 
but maybe I do.
    First, I want to--want to do my usual and say, to both of 
you, thank you for the work you do. I'm sorry that we don't get 
to have you appear before us more often and talk about what's 
going on, but you get plenty of opportunity to talk with the 
American people about how you think things are going in the 
American involvement in Iraq and elsewhere. And I want to 
personally thank both of you for what you do. I think your work 
is well received.
    Mr. Secretary, a couple of my questions will be parochial 
and not intended in any way to put you either on the spot or 
precipitate any decisionmaking. But you know we have Cannon Air 
Force Base over on the southern side of New Mexico. And it was 
created as a enclave, e-n-c-l-a-v-e, by the Base Realignment 
and Closure Commission (BRAC). I understand, from the Secretary 
of the Air Force, that the proposal for what to do with the 
enclaved facility, since you were charged with doing something 
with it, it was said you shall, and that it has now cleared all 
of the various interdepartmental reviews. I just wanted to ask 
a general question. Is it fair to assume that it's not going to 
be a lengthy time before the decision would take place as to 
what goes into the enclave, since all of the interdepartmental 
reviews have already been completed? Is it fair to assume it 
will take--the decision will take place rather soon?

                BASE REALIGNMENT AND CLOSURE COMMISSION

    Secretary Rumsfeld. Senator Domenici, my recollection is 
that there was an end date in the BRAC process by----
    Senator Domenici. Well, it's way out----
    Secretary Rumsfeld [continuing]. By which we had to have 
done it.
    Senator Domenici. That's years from now.
    Secretary Rumsfeld. Well----
    Senator Domenici. They leave the enclave open for a long 
time.
    Secretary Rumsfeld. Well----
    Senator Domenici. But you are finished with your work, and 
I'm wondering when the decision would then be made.
    Secretary Rumsfeld. Well, as I told you, we were very 
hopeful that we could get an answer to that well before that 
deadline date that the BRAC set. And I know you've met with the 
Secretary of the Air Force, and I've met with the Secretary of 
the Air Force, and they are not only aggressively looking to 
answer that question within the Air Force, but they're looking 
within other services and other agencies, as well. But I'd be 
reluctant to predict a date. This says the Air Force will 
complete its analysis in the late spring and apparently come up 
to me sometime midsummer. But then we have to see what we think 
about the recommendation. And they've been working closely with 
you throughout the process, and will continue to do so.
    Senator Domenici. Thank you very much.
    Now, I have a--kind of, a real interest in UAVs. And I want 
to ask you if my assessment has any chance of being accurate. I 
believe that the operative--the ability to operate UAVs, 
continental United States, is being greatly impeded by the 
Federal Aviation Administration (FAA), that the UAVs are not 
getting the fair chance to participate within the national 
airspace system, which is controlled by the FAA. If that is the 
case--and I understand it is--why don't we look for some other 
space in the United States that is not controlled by them, that 
we might do the research and do the training? I have a 
suggestion that you would look at something like the airspace 
that we have at White Sands Missile Range. In any event, leave 
out the suggestion, and just talk with me a moment about 
whether my observation and thought that the UAV is being 
impeded, in terms of being--its implementation capabilities, 
because we can't fit it within the national airspace system and 
the FAA holds things up. Is that a fair assessment, or am I 
wrong?

    FEDERAL AVIATION ADMINISTRATION COORDINATION ON UNMANNED AERIAL 
                                VEHICLES

    Secretary Rumsfeld. Well, I don't sit in the shoes of the 
FAA, so I can't say whether it's being impeded. It is clear 
that they are wrestling with the issue of how unmanned aircraft 
should be managed in airspace that they control. And it is, I 
think, probably not a simple question, and it's complicated. At 
the present time, these certificates of authorization for 
unmanned aircraft to operate in controlled airspace take, you 
know, 60 to 120 days to get through. I'm not in a position to 
judge it. All I can tell you is, we're working very hard with 
the FAA to try to develop the flexibility that would be 
desirable. This is a new thing, unmanned aircraft flying around 
in airspace where there are manned aircraft. And it is not a 
simple thing, I think. And they--we don't have the rules or the 
procedures or the arrangements or the understanding or the 
confidence, and we simply have to just work it through with 
them. And we are, as you know--we share your desire to see it 
get resolved as soon as possible.
    Senator Domenici. Well, Mr. Secretary, I just want to 
suggest to you that everything you have just said is correct, 
but when I look at how long it has been taking for all of this 
to evolve, it's not months, it's years--1964 is when all this 
started. I do at least want to close this little discussion by 
urging that everything possible be done to expedite this work, 
so we can take advantage of it. It's--they're needed on all 
different fronts, and we've got to train them within this 
American zone, and that's being deterred. So, I just lay that 
before you and urge it, and thank you for your response.
    I have another one that I just want to suggest, that things 
are being done well in one part of the Defense Department, and 
I wonder if you would consider broadening it. Water 
purification. And I address this issue to you, General Pace. As 
you know, it has been a tremendous problem for the Department, 
and it--right down to marines who are trying to have clean 
water as they go through the filthiest war zones you can 
imagine. And there are ways to produce clean water for them 
rather quickly, in scientifically different ways.
    I want to tell you that the United States Marine Corps has 
worked to develop an individual water purifier system that will 
enable soldiers to gather water from any source, anywhere, and 
purify it into drinking water that meets the Environmental 
Protection Agency (EPA) standards. I'm sure----
    Senator Stevens. Senator, this will have to be your last 
question, General. It's----
    Senator Domenici. Okay.
    Senator Stevens. Thank you.
    Senator Domenici. Fine. I just want to know, since those 
efforts are within one department, General Pace, would it be 
fair to say that, since they are so important, that these 
efforts are being considered for the broader Defense Department 
so that they are not just for one department, but for the 
entire military, because they all need these kinds of things?
    General Pace. Sir, that is exactly correct. It is fair to 
say that. And, in fact, when I was the chair of the Joint 
Requirements Oversight Council, we had the Marine Corps brief 
the other services on just those plans. And they are moving 
forward on that. It will be a joint effort, sir.
    Senator Domenici. It will be a joint effort.
    General Pace. Yes, sir.
    Senator Stevens. Thank you very much, Senator.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Stevens. Senator Dorgan is recognized.
    Senator Dorgan. Mr. Chairman, thank you. I'm sorry I was at 
another hearing, but I've read the testimony.
    General Pace, you indicated that, in your percentages to 
Senator McConnell, the number of Iraqi troops that have been 
trained. And you talked about the number of them that are 
controlling territory on their own, and the amount of territory 
they're controlling. And yet, you said, in response to Senator 
Durbin, that there is no territory that is sufficiently 
controlled by Iraqi troops that would allow the withdrawal of 
all American troops. Those two answers seem at odds, to me. Can 
you explain them?
    General Pace. Sir, thanks for the opportunity to clarify. 
The specific question that Senator Leahy asked me was, was 
there any of the 18 provinces that could be completely turned 
over to Iraqi forces? When I answered him, I said, ``No, sir.'' 
What I should have said, to make sure everyone understood, was 
that, for an entire province to take all U.S. and coalition 
forces out inside the next 3 months, the answer to that 
question is, ``No, sir.'' That----
    Senator Dorgan. So, the----
    General Pace [continuing]. Does not mean that they're not 
making great progress on the ground. As I said, in Baghdad they 
have over half, and other----
    Senator Dorgan. But----
    General Pace [continuing]. Locations.
    Senator Dorgan. But Senator Durbin made the point that I 
would make, as well. We have now been, I think, 2 years or 3 
years--I guess, 2 years--hearing a lot of good things about 
Iraqi security being trained up. And yet, it seems to me, at 
some point in a reasonable time, we should have trained up 
enough to be able to say to the Iraqi people, ``This is your 
country. The country of Iraq belongs to you, not us. And you 
have to decide whether you have the will and the capability, 
given the amount of money that we've spent training your 
security, to provide the security for yourselves in your own 
country.'' At some point, the Iraqi people have to make that 
judgment. And, at some point, it seems to me, we have to bring 
American troops home. I understand the importance of all of 
this, but I do think we've had a lot of discussion for a long 
time about how much progress we're making, and yet none of the 
territories that you've described--would we be able to bring 
American troops out of the territory and turn the territory--
the province completely over to the Iraqi troops.
    I want to just--I want to ask about the retired generals, 
Secretary Rumsfeld. And I wondered whether I should do this, 
but I want to do it. All the time that I have served here, and 
the decades before, I have not heard half a dozen retired 
generals or so, some four stars, some very significant military 
leaders, having retired, openly critical--in fact, I think, in 
a couple of cases, calling for your resignation. Let me ask the 
question of you. Do--you've heard these criticisms. Do you take 
them seriously? Are there--are these criticisms by retired 
generals, are they raising legitimate issues? Are they issues 
that resonate with you? Give me your assessment of what's 
happening with some very significant criticism from folks who 
used to be military leaders in this country.

                      RETIRED GENERALS' CRITICISM

    Secretary Rumsfeld. Well, sure I take things seriously. And 
I've wanted to reflect on it. I read a lot of history, and I 
guess I don't think there's ever been a war where there haven't 
been disputes and differences among generals, and between 
generals and civilians, and among civilians. Think back, 
General McClellan called Abraham Lincoln a ``gorilla'' and an 
``ape.'' So, this is not new. There hasn't been a time when 
there haven't been people of different views.
    There are 7,500 active and retired generals and admirals. 
You've characterized what some have said. It's a relatively 
unusual thing, and I quite agree with you in that regard. And 
then you say, Is any of it valid? There are those who have 
consistently disagreed with the size of the force. And I guess 
history's going to have to make that judgment. But the truth is 
that the size of the force was the size that was selected by 
General Tom Franks, approved by the Joint Chiefs of Staff, the 
Chairman and the Vice Chairman, one of whom is sitting next to 
me, recommended to the President. And that was the number.
    Now, if people don't like that number, and they want to 
blame somebody, fine, they blame me. That goes with the 
territory. It is a fact that it is a tough call. It's not a 
science; it's an art, coming up with those numbers.
    The second thing I would say is, I really honestly believe 
that if you undertake the kinds of transforming in this 
Department, any big department, and if you do something, 
somebody's not going to like it. And we've done a lot. We have 
a new personnel system that the Congress passed that a lot of 
people don't like, and they're arguing. We've put a marine in 
as Chairman of the Joint Chiefs for the first time, and there 
are people who don't like that. I brought a retired general in 
to run the Army, and there are people who didn't like that.
    Senator Dorgan. Mr. Secretary----
    Secretary Rumsfeld. We've done a lot to change that 
Department, and, in every instance, there's resistance, as 
there always will be in big organizations.
    Senator Dorgan. Mr. Secretary, we're stretched pretty thin 
on a range of--in a range of areas--National Guard and other 
areas. Do you foresee any circumstance under which, in the 
future, the Secretary of Defense will recommend the 
reinstitution of a military draft?

                             MILITARY DRAFT

    Secretary Rumsfeld. Well, I hate to answer the second part 
first, but I will. The answer is, flat, no. We don't need a 
draft. It would be harmful to reinstitute a draft. We have a 
country of, what, close to 300 million people, and we have an 
active duty force of 1.4 million, and Guard and Reserve of 
another 450,000. And all we need to do is what anyone else with 
a volunteer entity has to do, and that's adjust the incentives 
so that you can attract and retain the people you need and have 
to have to defend this country. And, thank the good Lord, there 
are plenty of people putting their hands up and volunteering to 
do that, even though they could possibly be in a safer position 
or a more comfortable position. And they're doing it.
    So I wouldn't even think of it. But, in my view, the 
premise of your question was wrong. You say the Guard and the 
Reserve and the force is stressed.
    Senator Dorgan. No, I said stretched pretty thin.
    Secretary Rumsfeld. Stretched pretty thin. Well, I mean, I 
think that they are doing a terrific job, and we are moving a 
number of military people out of civilian functions into 
military functions, tens of thousands. So, we're increasing the 
size of the force and reducing that stress. We have a meeting 
once a month, going over all--something like 37 things, 38 
things--to reduce stress on the force, and stretch--I forget 
the word you used--but----
    Senator Dorgan. Stretched thin. But let me make the point, 
I didn't suggest they weren't doing a great job. That wasn't 
the point of my question.
    Secretary Rumsfeld. No, I know that. But in terms of the 
``stretched thin,'' I mean, out of the blue, people are saying, 
``Oh, my goodness, the President wants to put 6,000 people down 
to help the Border Patrol, and the Guard's already exhausted.'' 
Well, the fact of the matter is, only about--the force over in 
Iraq is about 19 percent Guard and Reserve, I think, at the 
present time, General Blum. And we've got 450,000 Guard and 
Reserve. And he's talking about 6,000 for 1 year, and they're 
going to be doing it on their active duty for training. There's 
so much misinformation flying around about this, and it is not 
going to be a stress on the National Guard to do that function. 
They're going to be able to do what the Governors need them to 
do as well. I have every confidence that they can do that.
    General Pace. Senator, may I have----
    Senator Dorgan. Mr. Chairman, my time is--yes?
    General Pace. Mr. Chairman, may I impose on you to ask for 
1 minute?
    Senator Stevens. Yes, sir.
    General Pace. Thank you. Because it's important, as I sit 
here representing the uniformed military, that I speak my mind 
about the opportunity for the uniformed leadership to inform, 
digest, debate, have dialogue with the civilian leadership. And 
it is a daily ongoing process, whether it be a combatant 
commander who brings his ideas forward to ``The Tank'' and the 
Secretary, and we have the iterative process that goes on every 
day, or if it's the 2 to 3 to 4 to 5 hours every day that I 
spend with the Secretary of Defense listening to briefings. 
Every single officer who walks into the Secretary of Defense's 
office is expected to speak his or her mind, and is encouraged 
to do so. And our Armed Forces need to understand clearly from 
their chairman that all of their leaders are expected, 
encouraged, and are afforded the opportunity to have a very 
open, honest dialogue about what we believe and what we don't 
believe.
    Senator Dorgan. Mr. Chairman, let me thank both the General 
and the Secretary for coming and making themselves available 
for questions. And I expect you started, as we all would, to 
thank the men and women who wear America's uniform.
    Senator Stevens. Well, thank you very much.
    I'm constrained to say that I recall the days of the draft. 
And Senator Goldwater and I didn't believe that a draft should 
take place in a democracy, short of an all-out war. And I 
introduced an amendment to draft women. Did you know that, Mr. 
Secretary? And, of course, it failed the Senate. But the Senate 
woke up to the fact that it was discrimination, and it was not 
a time when we should have a draft. We still have registration 
for the draft, still have the possibility of a draft if we get 
into a world war.
    But, second, I think you were very fair in your questions, 
and we appreciate the Secretary's answer to clear up the thing.
    But I have been privileged, Mr. Secretary, at your 
invitation--and I think Senator Inouye's gone to some--to go to 
some of the dinners that you've had informally with your--
members of the Joint Chiefs and with other officers. And I can 
tell you that, in my 38 years, I've never seen the ambience 
that I have seen, in terms of the open dialogue, General, open 
discussion, and sometimes with wives, sometimes without them, 
the Secretary has had these gatherings. And I personally 
appreciate the openness that is existing now in the military. I 
think military officers feel free to stand up and say what they 
want to say, whether they're retired or otherwise. And that's--
this is the democracy. First amendment still applies to people 
in uniform, General. And I appreciate the fact that you're 
insisting on that, and that the Secretary encourages it.

                     ADDITIONAL COMMITTEE QUESTIONS

    So, we appreciate your coming. We appreciate both of your 
service to this Nation, and, really, can't tell you how much we 
all appreciate the overwhelming courage and commitment of the 
young people under your command.
    So, we'll stand in--
    Senator, do you have any further comment?
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]

            Questions Submitted by Senator Pete V. Domenici

    Question. Do you agree that, since these facilities are associated 
with BRAC recommendations, BRAC funds should be used for these 
construction projects?
    Answer. Yes, Base Realignment and Closure (BRAC) funds should be 
used for the construction requirements associated with Commission 
recommendation number 33 (Reserve Component Transformation in New 
Mexico) and Commission recommendation number 187 (Defense Research 
Service Led Laboratories).
    Question. What does Fort Bliss need from White Sands Missile Range 
and Holloman Air Force Base in order to conduct field testing relating 
to the Future Combat System in New Mexico?
    Answer. Fort Bliss, Texas, was selected as the home for field 
testing the Army's Future Combat System (FCS) because of its access to 
White Sands Missile Range (WSMR) and the proximity to the Holloman Air 
Force Base. The area provides the requisite land, airspace, and 
facilities for Evaluation Brigade Combat Team Soldiers to fully train, 
test and evaluate FCS capabilities. Other examples of support include 
air traffic control, frequency management, and range scheduling. We 
anticipate using these resources at all affected facilities. While the 
development, training and testing of an FCS-equipped force is a 
significant task, from a test/training event coordination perspective 
it is one that is not dissimilar from other major exercises such as 
Roving Sands. Success will depend on close coordination and 
communication between the FCS program management office, Fort Bliss, 
WSMR, and Holloman AFB. Much work has already occurred. WSMR and Fort 
Bliss have conducted regular interchanges in the past and continue to 
coordinate emerging detailed requirements. Similarly, there are joint 
agreements between WSMR and Holloman AFB that will be exercised as more 
detailed test plans are finalized.
    Question. Mr. Secretary, I would appreciate your perspective on the 
importance of basic research.
    Answer. Department of Defense (DOD)-sponsored basic research 
produces new knowledge and understanding that underpins the development 
of future military capabilities. Prior basic research enabled us to 
develop today's revolutionary military capabilities, including the 
Global Positioning System, stealth, night vision devices, and precision 
strike. We expect equally important new capabilities to emerge over the 
long-term from today's investments in basic research. Our support for 
basic research today will help to give future leaders the capability 
edge they need to deter potential adversaries and, if necessary, 
conduct military operations.
    Basic research has an additional long-term benefit to the DOD 
because universities are the predominant performers of basic research 
in this country and university research is inextricably linked with the 
training of scientists and engineers in fields important to national 
defense. DOD-supported basic research thereby helps to ensure the 
future availability of talent needed for defense research and 
development.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. Has the Department of Defense (DOD) determined which 
items from the War Reserve Stocks for Allies, Korea (WRSA-K) will be 
offered to the Republic of Korea (ROK)? Has a formal offer been made to 
the ROK? If so, please provide a comprehensive list with types and 
quantities. Please also indicate what items are not being offered.
    Answer. Yes, DOD has determined which items from the War Reserve 
Stocks for Allies, Korea (WRSA-K) will be offered to the Republic of 
Korea (ROK) in negotiations. Pending authority to negotiate a War 
Reserve Stockpile agreement, a formal offer has not been made to the 
ROK. Although a formal offer has not been made to the ROK, attached are 
seven lists of the types and quantities of items that will be offered 
to the ROK, and items that will not be offered, as follows: (1) U.S. 
Army WRSA-K munitions items that will be offered; (2) U.S. Army WRSA-K 
munitions items that will be retained, (3) U.S. Army WRSA-K non-
munitions items that will be offered; (4) U.S. Army WRSA-K non-
munitions items that will be retained, (5) U.S. Navy WRSA-K munitions 
items that will be offered, (6) U.S. Air Force WRSA-K munitions items 
that will be offered; and (7) U.S. Air Force WRSA-K munitions items 
that will be retained.
    Question. Has a formal offer been made to the ROK? If so, please 
provide a written copy.
    Answer. No, a formal offer has not been made to the Republic of 
Korea (ROK).
    Question. Please provide the number, quantity and type of 
antipersonnel mines and mine-related equipment, including delivery 
systems, now included in the War Reserve Stocks for Allies, Korea.
    Answer. The number of Claymore K143 mines now in War Reserve Stocks 
for Allies, Korea (WRSA-K) stocks is 166,895. Of that number, 57,625 
will be retained by the Army. The number of Claymore K145 mines now in 
WRSA-K stocks is 25,580. A total of 134,580 Claymore mines (K143 and 
K145) will be negotiated for transfer to the Republic of Korea (ROK). 
There also are 83,479 K092 mines and 480,267 K121 mines in WRSA-K 
stocks. All of the K092 or K121 mines will be retained by the Army. 
There is no other mine-related equipment, including delivery systems, 
in the WRSA-K stocks.

                                                        U.S. ARMY WRSA-K MUNITIONS TO BE RETAINED
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              RETAIN
              DODIC                         CC              QOH    TRANSFER  FOR U.S.           ACC                          NOMENCLATURE
                                                                   TO KOREA     USE
--------------------------------------------------------------------------------------------------------------------------------------------------------
K092.............................  A...................    24,543  ........    24,543  ROK.................  MINE ANTIPERSONNEL: M16 SERIES W/FU
K092.............................  H...................         2  ........         2  DRK.................  MINE ANTIPERSONNEL: M16 SERIES W/FU
K092.............................  N...................    58,934  ........    58,934  WRK.................  MINE ANTIPERSONNEL: M16 SERIES W/FU
K121.............................  A...................   480,267  ........   480,267  ROK.................  MINE ANTIPERSONNEL: M14 NON METALLI
K143.............................  A...................    57,625  ........    57,625  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
                                                                            ----------
      TOTALS.....................  ....................  ........  ........   621,371  ....................  ...........................................
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                        U.S. ARMY WRSA-K MUNITIONS TO BE OFFERED
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              RETAIN
              DODIC                         CC              QOH    TRANSFER  FOR U.S.           ACC                          NOMENCLATURE
                                                                   TO KOREA     USE
--------------------------------------------------------------------------------------------------------------------------------------------------------
K143.............................  E...................    99,736    99,736  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K143.............................  F...................     9,518     9,518  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K143.............................  H...................         6         6  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K143.............................  H...................        10        10  ........  DRK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K145.............................  E...................    25,580    25,580  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 WITHOUT F
                                                                            ----------
      TOTALS.....................  ....................  ........  ........   134,850  ....................  ...........................................
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Is the transfer of antipersonnel mines from the WRSA-K to 
the ROK permissible under the comprehensive U.S. moratorium on export 
of antipersonnel mines?
    Answer. It is permissible to transfer all the Claymore mines (K143 
and K145) in the War Reserve Stocks for Allies, Korea (WRSA-K) stocks 
to the Republic of Korea (ROK). None of the K092 or K121 mines will be 
included in the negotiations for possible transfer.
    Question. If the DOD plans to transfer antipersonnel mines and 
mine-related equipment to the ROK, please identify the items, quantity, 
cost to the ROK, and the country where they are located at this time.
    Answer. DOD will negotiate to transfer to the Republic of Korea 
(ROK) 109,270 of the K143 Claymore mines and 25,580 of the K145 
Claymore mines. The cost to the ROK is not known at this time. The cost 
will be based on fair market value as offset by concessions to be 
negotiated. All of the War Reserve Stocks for Allies, Korea (WRSA-K) 
Claymore mines are currently located in the ROK.
    Question. If antipersonnel mines are to be transferred, what is the 
timetable?
    Answer. There is no timetable established to transfer any of the 
War Reserve Stocks for Allies, Korea (WRSA-K) items to the Republic of 
Korea (ROK) government. It is likely that all items negotiated for 
transfer will be transferred at the same time. All transfers will be 
completed by December 2008. (Public Law 109-159 requires that all 
transfers authorized under the provision will be completed within three 
years of enactment of the provision.)
    Question. If the DOD does not intend to offer the antipersonnel 
mines in the WRSA-K to the ROK, or if the ROK government does not want 
the mines, how does the DOD intend to dispose of them?
    Answer. If during the negotiations the Republic of Korea (ROK) 
Government indicates it does not want the Claymore mines that are 
available for transfer, then DOD intends to demilitarize them in the 
ROK or retrograde them back to the United States for demilitarization.
    Question. Are any U.S. antipersonnel mines stored in Japan as part 
of WRSA-K? Would the transfer of any such mines out of Japan to the ROK 
be permissible under the 1997 Mine Ban Treaty (Ottawa Convention), to 
which Japan is party?
    Answer. None of the U.S. antipersonnel mines in War Reserve Stocks 
for Allies, Korea (WRSA-K) are stored in Japan. All of the WRSA-K mines 
are stored in the Republic of Korea (ROK).

                          SUBCOMMITTEE RECESS

    Senator Stevens. We'll stand in recess. We'll reconvene on 
Wednesday, May 24, when we're going to start hearing from 
public witnesses regarding the Department of Defense request 
for 2007.
    Thank you very much.
    Secretary Rumsfeld. Mr. Chairman, thank you very much for 
those remarks.
    General Pace. Thank you, Mr. Chairman.
    [Whereupon, at 12:20 p.m., Wednesday, May 17, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 24.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens and Inouye.

                       NONDEPARTMENTAL WITNESSES

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye [presiding]. At the direction of the 
chairman of the subcommittee, I will be convening the hearing. 
The first panel consists of Major General William Matz, Jr., 
United States Army, retired, President of the National 
Association for Uniformed Services; Dr. William J. Strickland, 
Ph.D., American Psychological Association; Lieutenant Colonel 
Paul N. Austin, CRNA, Ph.D., retired, American Association of 
Nurse Anesthetists; fourth, Chris Hahn, Executive Director, 
Mesothelioma Applied Research Foundation; and fifth, Captain 
Robert C. Hurd, United States Navy, retired, and PO1 Jessica A. 
Vance, 2006 Naval Sea Cadet of the Year, U.S. Naval Sea Cadet 
Corps. Please come forward.
    General Matz, welcome to the subcommittee, Sir.

STATEMENT OF MAJOR GENERAL WILLIAM M. MATZ, JR., UNITED 
            STATES ARMY (RETIRED), PRESIDENT, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES (NAUS)
    General Matz. Well, thank you, sir. Good morning. It is 
very good to see you again.
    In representing the National Association for Uniformed 
Services, it is an honor, sir, for me to testify before such as 
distinguished a veteran as yourself from World War II. And it 
is a privilege to be invited to give our view on key issues 
before your Defense Subcommittee.
    Sir, the annual defense appropriations is one of the most 
critical bills Congress considers. It serves a number of roles. 
First, it provides the wherewithal to insure that our military 
has the resources to meet any threat from abroad. And second 
and just as important, this measure provides for the men and 
women standing today on the frontlines of our Nation's defense. 
And third, the underlying bill can support not only troop 
morale, but can sustain morale by providing the resources 
necessary to help keep our promise to those who served in past 
conflicts to defend America.
    And as a veteran and as a career combat infantryman, it 
gives me great pride to ask you to support the most 
professional and dedicated military in the world. And so in 
this very short time allowed, let me touch on just a few issues 
taken from our more comprehensive written testimony that we 
have provided you.
    Senator Stevens. Your statement will be made part of the 
record.
    General Matz. Sir, quality health care is a very strong 
incentive to make military service a career. I know you are 
aware of that. And at a time when we are relying on our Armed 
Forces, the Defense Department's blueprint for military health 
care raises serious concerns to National Association of 
Uniformed Services (NAUS). This Department of Defense (DOD) 
proposal would result in increases in TRICARE fees and higher 
co-pays for pharmaceuticals for over 3 million retirees under 
the age of 65, and their families. If passed, these proposals 
would double and even triple annual fees for retirees and 
families. The value of the benefit earned by military retirees 
would clearly be certainly diminished.
    We ask the Appropriations subcommittee to work with your 
colleagues to reject these DOD proposed increases, and then, 
sir, to clearly ensure full funding is provided to maintain the 
value of the health care benefit provided these men and women 
who are in the military.
    All we are asking is what is best for our troops. NAUS 
urges you to confirm America's solemn moral obligation to 
support our troops, our retirees, and their families. They have 
kept their promise to our Nation, and we must continue to keep 
our promise to them.
    Clearly, care for our catastrophically wounded troops with 
limb loss is also a matter of national concern. Recently, I had 
the opportunity to visit wounded warriors at Walter Reed Army 
Hospital, and also at the DOD hospitals in both San Antonio and 
Chicago. And sir, I can report that their spirits are very, 
very high, but they need our help.
    Senator Stevens [presiding]. Go on.
    General Matz. Chairman Stevens.
    According to the commander of the Army's Physical 
Disability Agency, which is located at Walter Reed and 
responsible for evaluating whether a soldier is physically able 
to return to active duty, the caseload the agency reviews has 
increased by almost 50 percent since the wars in Iraq and 
Afghanistan. The need is great. The chief of rehabilitation at 
Walter Reed says about 15 percent of the amputees have lost 
more than one limb.
    In order to help meet the challenge, Defense Department 
research must be adequately funded to continue its critical 
focus on treatment of troops surviving these very grievous 
injuries. The research program also requires funding for 
continued development of advanced prostheses that will focus on 
the use of prosthetics with microprocessors that will perform 
more like a natural limb.
    And so accordingly, sir, we encourage the subcommittee to 
ensure that funding for the Defense Department's prosthetic 
research is adequate to support the full range of programs 
needed to meet current and future health challenges facing 
these very seriously wounded veterans.
    It is also our view that providing a seamless transition 
for recently discharged military is especially important for 
servicemembers leaving the military for medical reasons related 
to combat, particularly the most severely injured patients. So 
we call on the subcommittee to ensure adequate funding is 
available to DOD to cover the expenses providing for seamless 
care of our servicemembers.
    Also, NAUS supports a higher--sir?
    Senator Stevens. We have a joint session this morning, so 
we are just going to have to keep moving. We will read your 
accompanying statement.
    General Matz. Okay, sir. Thank you for the opportunity to 
come before you.
    Senator Stevens. Thank you very much.
    [The statement follows:]

          Prepared Statement of Major General William M. Matz

    Chairman Stevens, ranking member Inouye, and Members of the 
subcommittee, good morning. It is a pleasure to appear before you today 
to present the views of The National Association for Uniformed Services 
on the 2007 Defense appropriations bill.
    My name is William M. Matz, president of The National Association 
for Uniformed Services (NAUS). And for the record, NAUS has not 
received any Federal grant or contract during the current fiscal year 
or during the previous 2 years in relation to any of the subjects 
discussed today.
    As you know, Mr. Chairman, NAUS, founded in 1968, represents all 
ranks, branches and components of uniformed services personnel, their 
spouses and survivors. The association includes all personnel of the 
active, retired, Reserve and National Guard, disabled veterans, 
veterans community and their families. We love our country, believe in 
a strong national defense, support our troops and honor their service.
    Mr. Chairman, as our terrorist enemies remind us, the first and 
most important responsibility of our government is the protection of 
our citizens. As we all know, we are at war. That is why the measure we 
are working on is so very important. It is critical that we provide the 
resources to those who fight for our protection and our way of life. We 
must support our courageous troops. And we must recognize as well that 
we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    At the start, I want to express a NAUS concern about the amount of 
our investment in our national defense. Not since post-World War I has 
our provision for our military been so low a percentage--less than 4 
percent--of today's GNP. Resources are required to ensure our military 
is fully staffed, trained, and equipped to achieve victory against our 
enemies. Good-natured ignorance in a time when we face such serious 
threats is not a luxury we can afford. And we depend on leaders in 
Congress with the Nation's support to balance our priorities and ensure 
our defense in a dangerous world.
    Here, I would like to make special mention of the leadership and 
contribution this panel has made in providing the resources and support 
our forces need to complete their mission. Defending the United States 
homeland and the cause of freedom means that the dangers we face must 
be confronted. And it means that the brave men and women who put on the 
uniform must have the very best training, best weapons, best care and 
wherewithal we can give them.
    Mr. Chairman, you and those on this important panel have taken 
every step to give our fighting men and women the funds they need, 
despite allocations we view as insufficient for our total defense 
needs. You have made difficult priority decisions that have helped 
defend America and taken special care of one of our greatest assets, 
namely our men and women in uniform.
    And NAUS is very proud of the job this generation of Americans is 
doing to defend America. Every day they risk their lives, half a world 
away from loved ones. Their daily sacrifice is done in today's 
voluntary force. What they do is vital to our security. And the debt we 
owe them is enormous.
    In this regard, the members of NAUS applaud Congress for the 
actions you have taken over the last several years to close the pay 
gap, provide bonuses for specialized skill sets, and improve the 
overall quality of life for our troops and the means necessary for 
their support.
    Our association does have, however, some concerns about a number of 
matters. Among the major issues that we will address today is the 
provision of a proper health care for the military community and 
recognition of the funding requirements for TRICARE for retired 
military. Also, we will ask for adequate funding to improve the pay for 
members of our armed forces, to protect against expiring bonuses and 
allowances, and to address a number of other challenges including 
TRICARE Reserve Select and the Survivor Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD), the need for enhanced priority in the area of 
prosthetics research, and providing improved seamless transition for 
returning troops between the Department of Defense (DOD) and the 
Department of Veterans Affairs (VA). In addition, we would like to 
ensure that adequate funds are provided to defeat injuries from the 
enemy's use of Improvised Explosive Devices.

                 MILITARY QUALITY OF LIFE: HEALTH CARE

    Quality health care is a strong incentive to make military service 
a career. The Defense blueprint for military healthcare raises serious 
concern to NAUS. DOD recommends saving $735 million through sharp 
increases in TRICARE fees and higher copays for pharmaceuticals for 3.1 
million retirees under age 65 and their families.
    To achieve these savings, Defense officials want to triple annual 
enrollment fees for TRICARE Prime by October 2007 for officers, to $700 
from $230 a year for individuals and to $1,400 from $460 per year for 
families. For retired E-6 and below, the fee would jump nearly 50 
percent, to $325/$650 from $230/$460. And for E-7 and above, the jump 
would more than double to $475/$950 from $230/$460.
    The defense budget also requests the establishment of a TRICARE 
Standard enrollment fee and an increase in the annual amount of 
deductible charges paid by retirees using standard coverage. The 
standard beneficiary already pays a 25 percent cost share (and an added 
15 percent for non-participating providers). Should Congress approve 
the DOD request to increase deductibles and initiate an annual fee, the 
value of the benefit earned by military retirees using standard would 
be greatly diminished.
    DOD officials also recommend changes in TRICARE retail pharmacy 
copayments. The plan calls for reducing copays for mail order generic 
prescriptions to $0 (zero) from $3; and increasing copays for retail 
generic drugs to $5 from $3 and for retail brand drugs to $15 from $9. 
The copayment for non-formulary prescriptions would remain at $22.
    The assertion behind the proposals is to have working-age retirees 
and family members pay a larger share of TRICARE costs or use civilian 
health plans offered by employers. In recent testimony before your 
subcommittee, Dr. Winkenwerder indicated that the plan would force more 
than 100,000 retirees to leave their TRICARE coverage due to added 
costs.
    NAUS asks the appropriations panel to work with your colleagues to 
reject the DOD proposed increases; and then ensure full funding is 
provided to maintain the value of the healthcare benefit provided those 
men and women willing to undergo the hardships of a military career.
    When world events are in constant change and instability and 
uncertainty are the rule, we are concerned that the current 302(b) 
allocation given this subcommittee may not fully fill the gap from the 
lost ``revenue'' of the Pentagon's proposed TRICARE fees, which the 
administration estimated would bring in $735 million. We cannot believe 
this astonishing situation is something our elected Members of Congress 
would allow to go unfilled. Generations of us have fought to build a 
better Nation and now we are told that our health care benefits cost 
too much. Frankly, that kind of thinking can get America into trouble. 
You cannot recruit future military if the word gets out that America 
does not keep the promises made to those who served her.
    We urge the subcommittee to fill this funding gap. And we urge 
Congress to strip DOD's authority to raise certain TRICARE fees and 
copays unilaterally without partnership or even consultation with our 
elected Congress.
    NAUS firmly believes that the fiscal year 2001 landmark legislation 
establishing TRICARE providing new pharmacy and medical benefits to 
military retirees and their families represents an irreplaceable 
national investment, critical to the Nation and its warriors. The 
provision of quality, timely care is considered one of the most 
important benefits afforded the career military. What you have done 
reflects the commitment of a nation, and it deserves your wholehearted 
support.
    We urge the subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the Nation's 
military uniform. Clearly, when DOD does not receive adequate funding, 
it is forced to look toward benefits as a source of potential 
``revenue,'' and this should not be allowed to occur.
    All we are asking is what is best for our service men and women and 
those who have given a career to armed service. NAUS urges you to 
confirm America's solemn, moral obligation to support our troops, their 
families, military retirees, and theirs. They have kept their promise 
to our Nation, and now it's time for us to keep our promise to them.

                     MILITARY QUALITY OF LIFE, PAY

    For fiscal year 2007, the administration recommends a 2.2 percent 
across-the-board pay increase for members of the Armed Forces. While 
this is the lowest raise provided since 1994, the increase, according 
to the Pentagon, is designed to keep military pay in line with civilian 
wage growth. The Defense proposal also calls for an unspecified mid-
year targeted raise. NAUS trusts the panel will ensure that these 
targeted raises are aimed to reward certain necessary skills and aim as 
well at E-7s, E-8s and E-9s and warrant officers to help retention of 
experience.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The gap, which was as great as 14 percent in the late 1990s, has been 
reduced to nearly 4.3 percent with the January 2006 pay increase.
    The pay differential is important to recruitment. As an example, an 
electronic technician is currently paid approximately 3.5 to 4 percent 
less than his counterpart in the private sector. A few years ago, the 
differential was as much as 12 percent. We've got to get it down, and 
we have made significant strides. But we can do better and we should.
    To attract high-quality personnel, we urge the appropriations panel 
to never lose sight of the fact that our DOD manpower policy needs a 
compensation package that is reasonable and competitive. Bonuses have 
role in this area. Bonuses for instance can pull people into special 
jobs that help supply our manpower for critical assets, and they can 
also entice ``old hands'' to come back into the game with their skills.
    Understanding that congressional leaders have under consideration 
provisions to raise basic pay for all individuals in the uniformed 
services by 2.7 percent, NAUS asks you to do all you can to ensure in 
this tight budget situation that any increase above the standard 
calculation accrue solely to those in the military rather than the 
civilian federal employees. The frank truth is that our Armed Forces 
face far greater risks and dangers than our civilian workforce. And 
though we may never be able to fully compensate these brave men and 
women for being in harm's way, we should clearly recognize the risks 
they face and make every effort to appropriately compensate them for 
the job they do.

                  MILITARY QUALITY OF LIFE, ALLOWANCES

    NAUS strongly supports revised housing standards within the Basic 
Allowance for Housing (BAH). We are most grateful for the congressional 
actions reducing out-of-pocket housing expenses for servicemembers over 
the last several years. Despite the many advances made, many enlisted 
personnel continue to face steep challenge in providing themselves and 
their families with affordable off-base housing and utility expenses. 
BAH provisions must ensure that rates keep pace with housing costs in 
communities where military members serve and reside. Efforts to better 
align actual housing rates can reduce unnecessary stress and help those 
who serve better focus on the job at hand, rather than the struggle 
with meeting housing costs for their families.
    NAUS urges the subcommittee to provide adequate funding for 
military construction and family housing accounts used by DOD to 
provide our servicemembers and their families quality housing. The 
funds for base allowance and housing should ensure that those serving 
our country are able to afford to live in quality housing whether on or 
off the base. The current program to upgrade military housing by 
privatizing defense housing stock is working well. We encourage 
continued oversight in this area to ensure joint military-developer 
activity continues to improve housing options. Clearly, we need to be 
particularly alert to this challenge as we implement BRAC and related 
rebasing changes.
    NAUS also asks special provision be granted the National Guard and 
Reserve for planning and design in the upgrade of facilities. Since the 
terrorist attacks of September 11, 2001, our Guardsmen and Reservists 
have witnessed an upward spiral in the rate of deployment and 
mobilization. The mission has clearly changed, and we must recognize 
they account for an increasing role in our national defense and 
homeland security responsibilities. The challenge to help them keep 
pace is an obligation we owe for their vital service.

                         SURVIVOR BENEFIT PLAN

    There are two primary ways in which survivors of military personnel 
receive military related benefits: The Survivor Benefits Plan (SBP), 
which is based on time and service; and, Dependency and Indemnity 
Compensation (DIC), which provides a flat monthly payment after a 
service-connected death.
    Many military members and retirees have paid for SBP and have the 
most obvious of expectations to receive what was paid for. 
Surprisingly, that's not what happens. Under current law, SBP is 
reduced one dollar for each dollar received under DIC. A dollar is 
taken from one benefit for every dollar a survivor receives in the 
other.
    Survivors of retirees, upon eligibility for DIC, lose a majority--
or all too often--the entire amount of their monthly SBP annuity.
    In addition, military retirees age 70 and older, who have paid into 
the plan for more than 30-years, are required to continue to pay until 
October 2008. Military retirees who enrolled for SBP at the initial 
enrollment date in 1972 will this year be paying premiums for 34 years 
and by 2008 36 years.
    NAUS encourages members of the panel to provide financing to 
correct this unfair situation. Allow military survivors the benefit 
their loved one paid for their quality of life. And press to see that 
retirees age 70 or more who have paid into SBP are no longer required 
to pay premiums.

   DEPARTMENT OF DEFENSE, SEAMLESS TRANSITION BETWEEN THE DOD AND VA

    The President's Task Force (PTF) to Improve Health Care Delivery 
for Our Nation's Veterans report, released in May 2003 regarding 
transition of soldiers to veteran status, stated, ``timely access to 
the full range of benefits earned by their service to the country is an 
obligation that deserves the attention of both VA and DOD.'' NAUS 
agrees with this assertion and believes that good communication between 
the two Departments means our government can better identify, locate 
and follow up with injured servicemembers separated from the military.
    It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    Most important in the calculus of a seamless transition is the 
capacity to share information at the earliest possible moment prior to 
separation or discharge. It is essential that surprises be reduced to a 
minimum to ensure that all troops receive timely, quality health care 
and other benefits earned in military service.
    To improve DOD/VA exchange, the hand-off should include a detailed 
history of care provided and an assessment of what each patient may 
require in the future, including mental health services. No veteran 
leaving military service should fall through the bureaucratic cracks.
    Another area that would enhance a seamless transition for our 
uniformed services is the further expansion of single-stop separation 
physical examinations. A servicemember takes a physical exam when he is 
discharged. While progress is being made in this area, we recommend 
expanding the delivery at discharge (BDD) program to all discharge 
locations in making determination of appropriate benefits before 
separation. This will allow more disabled veterans to receive their 
service-connected benefits sooner.
    NAUS compliments DOD and VA for following through on establishing 
benefits representatives at military hospitals. This is an important 
step and can often reduce the amount of frustration inherent in the 
separation process for service members and their families.
    NAUS calls on the subcommittee to ensure adequate funding is 
available to DOD and VA to cover the expenses of providing for these 
measures. Taking care of veterans is a national obligation, and doing 
it right sends a strong signal to those currently in military service 
as well as to those thinking about joining the military.

                  DEFENSE DEPARTMENT FORCE PROTECTION

    NAUS urges the subcommittee to provide adequate funding to rapidly 
deploy and acquire the full range of force protection capabilities for 
deployed forces. This would include resources for up-armored high 
mobility multipurpose wheeled vehicles and add-on ballistic protection 
to provide force protection for soldiers in Iraq and Afghanistan, 
ensure up-activity for joint research and treatment effort to treat 
combat blast injuries resulting from improvised explosive devices 
(IEDs), rocket propelled grenades, and other attacks; and facilitate 
the early deployment of new technology, equipment, and tactics to 
counter the threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very efficient weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of the changing enemy and 
to decrease casualties caused by IEDs.

             DEFENSE HEALTH PROGRAM--TRICARE RESERVE SELECT

    Mr. Chairman, another area that requires attention is Reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of September 11, 2001. The 
mission has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a full share of the load.

               DEPARTMENT OF DEFENSE, PROSTHETIC RESEARCH

    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    As of December 31, 2005, 16,329 troops had been wounded but 
survived their injuries, according to U.S. Defense Department figures. 
And according to Col. Daniel Garvey, USA, deputy commander of the U.S. 
Army Physical Disability Agency, located at Walter Reed and responsible 
for evaluating whether a soldier is physically able to return to active 
duty, the caseload the agency reviews has increased by almost 50 
percent since the wars in Afghanistan and Iraq began.
    The need is great. Lt. Col. Paul Pasquina, chief of physical 
medicine and rehabilitation at Walter Reed, says about 15 percent of 
the amputees at Walter Reed have lost more than one limb. And according 
to Lt. Col. Jeffrey Gambel, chief of the amputee clinic, about one-
third of the amputations done on recently injured service members have 
involved upper extremities, because of the types of munitions used by 
the enemy.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its intent on treatment of troops 
surviving this war with grievous injuries. The research program also 
requires funding for continued development of advanced prosthesis that 
will focus on the use of prosthetics with microprocessors that will 
perform more like the natural limb.
    NAUS encourages the subcommittee to ensure that funding for Defense 
Department's prosthetic research is adequate to support the full range 
of programs needed to meet current and future health challenges facing 
wounded veterans. To meet the situation, the subcommittee needs to 
focus a substantial, dedicated funding stream on Defense Department 
research to address the care needs of a growing number of casualties 
who require specialized treatment and rehabilitation that result from 
their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
    NAUS looks forward to working with you, Mr. Chairman, to see that 
priority is given to care for these brave men and women who in defense 
of freedom and our way of life were seriously wounded.
 department on veterans affairs, post traumatic stress disorder (ptsd)
    NAUS supports a higher priority on Defense Department care of 
troops demonstrating symptoms of mental health disorders and treatment 
for PTSD.
    The mental condition known as PTSD has been well known for over 100 
years under an assortment of different names. For example more than 50 
years ago, Army psychiatrists reported, ``That each moment of combat 
imposes a strain so great that psychiatric casualties are as inevitable 
as gunshot and shrapnel wounds in warfare.''
    According to a recent Government Accountability Office draft 
report, nearly four in five service members returning from the wars in 
Iraq and Afghanistan who were found to be at risk for PTSD were never 
referred for further help. The Defense Department has not explained why 
some troops are referred for help and some are not.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the Gulf War demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment. However, not only does DOD need programs to assess 
a service member's medical status and a method to evaluate their health 
during time in war, it also needs to administer treatment quickly and 
effectively to mitigate injuries and save lives.
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist servicemembers found to be at risk.
    NAUS applauds the extent of help provided by the Defense 
Department, however we encourage that more resources be made available 
to assist. Early recognition of the symptoms and proactive programs are 
essential to help many of those who must deal with the debilitating 
effects of mental injuries, as inevitable in combat as gunshot and 
shrapnel wounds.
    NAUS encourages the Members of the subcommittee to provide for 
these funds and to closely monitor their expenditure to see they are 
not redirected to other areas of defense spending.
    While Defense Department officials and congressional leaders have 
taken important steps to advance better care for those with mental 
health problems, many challenges still remain. NAUS urges the 
development of a consistent, seamless, and working approach that allows 
DOD to screen returning service members and provide more effective 
early intervention that leads to healing.

              MILITARY QUALITY OF LIFE, CONCURRENT RECEIPT

    Since the fiscal year 2003 National Defense Authorization Act 
(NDAA) authorized a special compensation for certain military retirees 
injured in combat, Congress has advanced NAUS-supported concurrent 
receipt to include benefits to most military retirees with combat 
related disabilities and personnel with service-connected VA disability 
ratings of 50 percent or higher.
    In last year's NDAA, Congress accelerated the phase in of 
concurrent receipt for individuals rated 100 percent disabled as a 
result of individual unemployability. NAUS urges members to press 
legislation for full and complete concurrent receipt to all disabled 
retirees, including those individuals medically discharged from service 
prior to achieving 20 years of service.
    NAUS would also like to see the availability of concurrent receipt 
to all those forced into retirement with less than 20 years service. 
Currently combat related special compensation is denied to those 
warriors who were so severely wounded they couldn't serve out their 
full careers. Retired short of their 20-years, through no fault of 
their own, they continue to pay for their battle wounds. We urge 
members of this panel to encourage Congress to care for these troops 
and never forget the price they paid for service to country.

                      ARMED FORCES RETIREMENT HOME

    NAUS is pleased to note the subcommittee's continued interest in 
providing funds for the Armed Forces Retirement Home (AFRH). As you 
know, home residents were evacuated for care and treatment to the 
Washington, DC, retirement home the day after Hurricane Katrina struck 
and damaged the facility at Gulfport, Mississippi. While the District 
of Columbia facility is currently undergoing transformation to absorb 
the change, we are seriously concerned about the future of the Gulfport 
home. We urge the subcommittee to provide adequate funding to help 
alleviate the strains on the Washington home. And we urge funding be 
set aside to do the planning and design work to rebuild the Gulfport 
home.
    NAUS also asks the subcommittee to investigate administration plans 
to sell great portions of the Washington AFRH to developers. The AFRH 
home is a historic national treasure, and we recommend that Congress 
find an alternate means to continue providing a residence for and 
quality-of-life support to these deserving veterans without turning 
most of this pristine campus over to developers.

          UNIFORMED SERVICES UNIVERSITY OF THE HEALTH SCIENCES

    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the Nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    NAUS supports the USUHS and requests adequate funding be provided 
to ensure continued accredited training, especially in the area of 
chemical, biological, radiological and nuclear response. In this 
regard, it is our understanding that USUHS requires funding for 
training and educational focus on biological threats and incidents for 
military, civilian, uniformed first responders and healthcare providers 
across the Nation.

                JOINT POW/MIA ACCOUNTING COMMAND (JPAC)

    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve. And as President 
Bush said, ``It is a signal that those who wear our country's military 
uniform will never be abandoned.''
    In this regard, it is our understanding that the priority has been 
lowered for the mission of the Joint POW/MIA Accounting Command (JPAC). 
DOD funding has been redirected to other activities and POW/MIA 
operations in South East Asia have been canceled or scaled back. We 
request you look into this report and ensure that the $65 million 
required to support the JPAC mission for fiscal year 2007 is fully 
funded and allocated as needed.

                APPRECIATION FOR OPPORTUNITY TO TESTIFY

    As a staunch advocate for our uniformed service men and women, NAUS 
recognizes that these brave men and women did not fail us in their 
service to country, and we, in turn, must not fail them in providing 
the benefits and services they earned through honorable military 
service.
    Mr. Chairman, NAUS appreciates the subcommittee's hard work. We ask 
that you continue to work in good faith to put the dollars where they 
are most needed: in strengthening our national defense, ensuring troop 
protection, compensating those who serve, providing for DOD medical 
services including TRICARE, and building adequate housing for military 
troops and their families, and in the related defense matters discussed 
today. These are some of our Nation's highest priority needs and we ask 
that they be given the level of attention they deserve.
    NAUS is confident you will take special care of our Nation's 
greatest assets: the men and women who serve and have served in 
uniform. We are proud of the service they give to America every day. 
They are vital to our defense and national security. The price we pay 
as a Nation for their earned benefits is a continuing cost of war, and 
it will never cost more or equal the value of their service.
    We thank you for your efforts, your hard work. And we look forward 
to working with you to ensure we continue to provide sufficient 
resources to protect the earned benefits for those giving military 
service to America every day.
    Again, NAUS deeply appreciates the opportunity to present the 
association's views on the issues before the Defense Appropriations 
Subcommittee.

    Senator Stevens. Our next witness is Dr. William Strickland 
of the American Psychological Association. We do apologize for 
the timeframe here. We are going to have a vote at 9:30, and 
then a joint session--two votes at 9:30.
    Thank you, Dr. Strickland.

STATEMENT OF DR. WILLIAM J. STRICKLAND, Ph.D., VICE 
            PRESIDENT, HUMAN RESOURCES RESEARCH 
            ORGANIZATION, ON BEHALF OF THE AMERICAN 
            PSYCHOLOGICAL ASSOCIATION
    Dr. Strickland. Mr. Chairman, Senator Inouye, I'm Bill 
Strickland. I'm the former Director of Human Resources Research 
for the Air Force, and I'm currently the Vice President at the 
Human Resources Research Organization. I want to thank you for 
the opportunity to testify today on behalf of the American 
Psychological Association, or APA, a scientific and 
professional organization of more than 150,000 psychologists 
and affiliates.
    Although I'm sure you're both aware of the large number of 
psychologists providing clinical services to our military 
members and families here and abroad, you may be less familiar 
with the extraordinary range of research conducted by 
psychological scientists within DOD. Behavioral researchers at 
work on issues critical to national defense with support from 
the Army Research Institute, and Army Research Laboratory, the 
Office of Naval Research, the Air Force Research Laboratory, 
and smaller, human systems research programs in the office of 
the Secretary of Defense, Defense Advanced Research Projects 
Agency (DARPA), the Marine Corps, and Special Operations 
Command.
    In fiscal year 2006, the administration requested $10.52 
billion for defense, science, and technology; a huge cut from 
fiscal year 2005. Congressional appropriators in turn provided 
a significant increase to a total of $13.24 billion. For fiscal 
year 2007, the President's budget request of the $11.08 billion 
for defense service and technology (S&T) again falls short. The 
request for basic and applied defense research represents a 
16.3 percent decrease from the enacted fiscal year 2006 level. 
We ask the Appropriations subcommittee's help in restoring 
critical defense research funding. APA joins the coalition for 
national security research, a group of over 40 scientific 
associations and universities, in urging the subcommittee to 
reverse this cut.
    APA requests a total of $13.4 billion for defense S&T. This 
would maintain DOD spending on applied 6.2 and 6.3 research, 
and support a 10 percent increase in 6.1 research in fiscal 
year 2007, as recommended in the National Academy of Science's 
report, ``Rising Above the Gathering Storm.''
    The total spending on behavioral and cognitive research; in 
other words, human-centered research, within DOD also has 
declined in the President's fiscal year 2007 budget. In 
addition, the Senate Armed Services Committee has proposed 
cutting human-centered research in fiscal year 2007 in the 
fiscal year 2007 defense authorization. As one example, the 
authorizers recommend cutting by one-third a Navy research 
program on human factors.
    Behavioral and cognitive research in the broad categories 
of personnel, training, and later development; warfighter 
protection, sustainment, and physical performance; system 
interfaces and cognitive processing; and intelligence-related 
processes such as detection of deception; is absolutely 
critical to national security. And it is critical that DOD 
sponsor this research directly. As DOD noted in its own report 
to the Senate Appropriations Committee, quote: ``Military 
knowledge needs are not sufficiently like the needs of the 
private sector that retooling behavioral, cognitive, and social 
science research carried out for other purposes can be expected 
to substitute for service-supported research, development, 
testing, and evaluation. Our choice, therefore, is between 
paying for it ourselves and not having it,'' close quote.
    In today's environment, who would knowingly choose to live 
without research that enhances the recruiting, selection, 
training, and retaining of that fighting force required to 
operate, maintain, and support the advanced weapons systems we 
are supporting today? We urge you to support the men and women 
on the frontlines by reversing another round of dramatic, 
detrimental cuts to both the overall defense S&T account, and 
more specifically, to the human-oriented research programs 
within the military laboratories.
    Thank you for your time this morning.
    Senator Stevens. Thank you very much. We appreciate that. 
We are quite worried about those numbers. We will do our best.
    Dr. Strickland. Thank you, sir.
    [The statement follows:]

              Prepared Statement of William J. Strickland

    Mr. Chairman and Members of the subcommittee, I'm Dr. Bill 
Strickland, former director of Human Resources Research for the Air 
Force and current vice president of the Human Resources Research 
Organization. I am submitting testimony on behalf of the American 
Psychological Association (APA), a scientific and professional 
organization of more than 150,000 psychologists and affiliates.
    Although I am sure you are aware of the large number of 
psychologists providing clinical services to our military members here 
and abroad, you may be less familiar with the extraordinary range of 
research conducted by psychological scientists within the Department of 
Defense (DOD). Our behavioral researchers work on issues critical to 
national defense, with support from the Army Research Institute (ARI) 
and Army Research Laboratory (ARL); the Office of Naval Research (ONR); 
the Air Force Research Laboratory (AFRL), and additional, smaller human 
systems research programs in the Office of the Secretary of Defense, 
the Defense Advanced Research Projects Agency (DARPA), the Marine 
Corps, and the Special Operations Command.
    I would first like to address the fiscal year 2007 human-centered 
research budgets for the military laboratories and programs within the 
context of the larger DOD Science and Technology (S&T) budget, and 
close by mentioning a tremendous new Defense Graduate Psychology 
Education program to better train military and civilian psychologists 
who provide clinical care to our military personnel and their families.

                   DOD SCIENCE AND TECHNOLOGY BUDGET

    The President's budget request for basic and applied research at 
DOD in fiscal year 2007 is $11.08 billion, a 16.3 percent decrease from 
the enacted fiscal year 2006 level of $13.24 billion. APA joins the 
Coalition for National Security Research (CNSR), a group of over 40 
scientific associations and universities, in urging the subcommittee to 
reverse this cut. APA requests a total of $13.40 billion for Defense 
S&T. This would maintain DOD spending on applied (6.2 and 6.3 level) 
research and support a 10 percent increase for basic (6.1) defense 
research in fiscal year 2007, as recommended in the National Academies 
report ``Rising Above the Gathering Storm''.
    As our Nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    In fiscal year 2006, the administration requested $10.52 billion 
for defense S&T, a huge cut from fiscal year 2005. Congressional 
appropriators in turn provided a significant increase, for a total of 
$13.24 billion. For fiscal year 2007, the President's budget request of 
$11.08 billion for DOD S&T again falls short, and we ask for the 
Appropriations Subcommittee's help in restoring critical defense 
research funding.
    Despite substantial appreciation for the importance of DOD S&T 
programs on Capitol Hill, and within independent defense science 
organizations such as the Defense Science Board (DSB), total research 
within DOD has remained essentially flat in constant dollars over the 
last few decades. This poses a very real threat to America's ability to 
maintain its competitive edge at a time when we can least afford it. 
APA, CNSR and our colleagues within the science and defense communities 
recommend increasing the 6.1 basic research account within DOD S&T by 
10 percent and at a minimum, maintaining the current funding levels for 
the 6.2 and 6.3 applied research programs in order to maintain global 
superiority in an ever-changing national security environment.

      BEHAVIORAL RESEARCH WITHIN THE MILITARY SERVICE LABS AND DOD

    The Department of Defense met a previous Senate Appropriations 
Committee mandate by producing its report on ``Behavioral, Cognitive 
and Social Science Research in the Military''. The Senate requested 
this evaluation due to concern over the continuing erosion of DOD's 
support for research on individual and group performance, leadership, 
communication, human-machine interfaces, and decision-making. In 
responding to the committee's request, the Department found that ``the 
requirements for maintaining strong DOD support for behavioral, 
cognitive and social science research capability are compelling'' and 
that ``this area of military research has historically been extremely 
productive'' with ``particularly high'' return on investment and ``high 
operational impact.''
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL). These military service 
laboratories provide a stable, mission-oriented focus for science, 
conducting and sponsoring basic (6.1), applied/exploratory development 
(6.2) and advanced development (6.3) research. These three levels of 
research are roughly parallel to the military's need to win a current 
war (through products in advanced development) while concurrently 
preparing for the next war (with technology ``in the works'') and the 
war after next (by taking advantage of ideas emerging from basic 
research). All of the services fund human-related research in the broad 
categories of personnel, training and leader development; warfighter 
protection, sustainment and physical performance; and system interfaces 
and cognitive processing.
    Behavioral and cognitive research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''

    The following are brief descriptions of important behavioral 
research funded by the military research laboratories:

 ARMY RESEARCH INSTITUTE FOR THE BEHAVIORAL AND SOCIAL SCIENCES (ARI) 
                   AND ARMY RESEARCH LABORATORY (ARL)

    ARI works to build the ultimate smart weapon: the American soldier. 
ARI was established to conduct personnel and behavioral research on 
such topics as minority and general recruitment; personnel testing and 
evaluation; training and retraining; and attrition. ARI is the focal 
point and principal source of expertise for all the military services 
in leadership research, an area especially critical to the success of 
the military as future war-fighting and peace-keeping missions demand 
more rapid adaptation to changing conditions, more skill diversity in 
units, increased information-processing from multiple sources, and 
increased interaction with semi-autonomous systems. Behavioral 
scientists within ARI are working to help the Armed Forces better 
identify, nurture and train leaders.
    Another line of research at ARI focuses on optimizing cognitive 
readiness under combat conditions, by developing methods to predict and 
mitigate the effects of stressors (such as information load and 
uncertainty, workload, social isolation, fatigue, and danger) on 
performance. As the Army moves towards its goal of becoming the 
Objective Force (or the Army of the future: lighter, faster and more 
mobile), psychological researchers will play a vital role in helping 
maximize soldier performance through an understanding of cognitive, 
perceptual and social factors.
    ARL's Human Research & Engineering Directorate sponsors basic and 
applied research in the area of human factors, with the goal of 
optimizing soldiers' interactions with Army systems. Specific 
behavioral research projects focus on the development of intelligent 
decision aids, control/display/workstation design, simulation and human 
modeling, and human control of automated systems.

                     OFFICE OF NAVAL RESEARCH (ONR)

    The Cognitive and Neural Sciences Division (CNS) of ONR supports 
research to increase the understanding of complex cognitive skills in 
humans; aid in the development and improvement of machine vision; 
improve human factors engineering in new technologies; and advance the 
design of robotics systems. An example of CNS-supported research is the 
division's long-term investment in artificial intelligence research. 
This research has led to many useful products, including software that 
enables the use of ``embedded training.'' Many of the Navy's 
operational tasks, such as recognizing and responding to threats, 
require complex interactions with sophisticated, computer-based 
systems. Embedded training allows shipboard personnel to develop and 
refine critical skills by practicing simulated exercises on their own 
workstations. Once developed, embedded training software can be loaded 
onto specified computer systems and delivered wherever and however it 
is needed.

                  AIR FORCE RESEARCH LABORATORY (AFRL)

    Within AFRL, Air Force Office of Scientific Research (AFOSR) 
behavioral scientists are responsible for basic research on manpower, 
personnel, training and crew technology. The AFRL Human Effectiveness 
Directorate is responsible for more applied research relevant to an 
enormous number of acknowledged Air Force mission needs ranging from 
weapons design, to improvements in simulator technology, to improving 
crew survivability in combat, to faster, more powerful and less 
expensive training regimens.
    As a result of previous cuts to the Air Force behavioral research 
budget, the world's premier organization devoted to personnel selection 
and classification (formerly housed at Brooks Air Force Base) no longer 
exists. This has a direct, negative impact on the Air Force's and other 
services' ability to efficiently identify and assign personnel 
(especially pilots). Similarly, reductions in support for applied 
research in human factors have resulted in an inability to fully 
enhance human factors modeling capabilities, which are essential for 
determining human-system requirements early in system concept 
development, when the most impact can be made in terms of manpower and 
cost savings. For example, although engineers know how to build cockpit 
display systems and night goggles so that they are structurally sound, 
psychologists know how to design them so that people can use them 
safely and effectively.

         DEFENSE GRADUATE PSYCHOLOGY EDUCATION PROGRAM (D-GPE)

    Military psychologists also serve in roles other than researchers 
within the DOD system--many provide direct clinical care (mental and 
behavioral health services) to military personnel and their families 
and are responsible for training the next generation of military 
psychologists. The Defense Graduate Psychology Education (D-GPE) 
Program was launched in fiscal year 2006 to better train both military 
and civilian psychologists in providing this care, and APA requests $6 
million for D-GPE in fiscal year 2007. The foci will be on mental 
health for the severely medically injured (including those with 
traumatic brain injury and amputations), trauma and resilience for 
those suffering from depression and post traumatic stress disorder, and 
post-deployment reintegration and adjustment.
    The D-GPE program includes a tri-service Center for Deployment 
Psychology (CDP) at the Uniformed Services University of the Health 
Sciences (USUHS) with a board of directors from the Army, Air Force, 
and Navy Psychology Departments. A website will be developed for 
servicemembers, veterans and their families seeking assistance for 
mental health related issues, including contact information for 
psychologists in their geographic areas. Furthermore, curriculum will 
be developed designed to meet the specific needs of returning military 
personnel and their families, on topics including trauma and 
resilience. In the second year, Postdoctoral Fellows will be added to 
the clinical teaching faculty at USUHS and a research component would 
be initiated.

                                SUMMARY

    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decision-making, stress resilience, recruitment and 
retention, and human-systems interactions. We urge you to support the 
men and women on the front lines by reversing another round of 
dramatic, detrimental cuts to the overall defense S&T account and the 
human-oriented research projects within the military laboratories. We 
also urge you to support military personnel and their families even 
more directly by providing funds for the new D-GPE program.
    Below is suggested appropriations report language for fiscal year 
2007 which would encourage the Department of Defense to fully fund its 
behavioral research programs within the military laboratories:

                         DEPARTMENT OF DEFENSE

    Research, Development, Test, and Evaluation:
    Behavioral Research in the Military Service Laboratories.-- The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the committee has provided 
increased funding to reverse cuts to basic and applied psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research.

    Senator Stevens. Our next witness is Chris Hahn, executive 
director of Mesothelioma--I cannot pronounce that--pardon me, 
what's this? Lieutenant Colonel Paul Austin. Pardon me.
    Colonel Austin. Good morning, Chairman Stevens.
    Senator Stevens. Good morning.
    Colonel Austin. Hello, ranking member Inouye.

STATEMENT OF LIEUTENANT COLONEL PAUL N. AUSTIN, 
            CERTIFIED REGISTERED NURSE ANESTHETIST, 
            Ph.D., ON BEHALF OF THE AMERICAN 
            ASSOCIATION OF NURSE ANESTHETISTS (AANA)
    Colonel Austin. It is an honor and pleasure to provide 
testimony on behalf of the American Association of Nurse 
Anesthetists. My name is Dr. Paul Austin. I'm a certified 
registered nurse anesthetist (CRNA), and I retired last year 
from the U.S. Air Force after 24 years of proudly serving my 
country. For most of this time I served as a nurse anesthesia 
educator, serving as the director of the Air Force and 
Uniformed Services University nurse anesthesia programs, as 
well as the chief consultant to the Air Force Surgeon General 
for nurse anesthesia.
    The AANA is a professional organization representing 34,000 
CRNAs in the United States, including approximately 483 active 
duty and 790 reserve military CRNAs. CRNAs participate in about 
65 percent of the anesthetics given to patients each year in 
the United States. Nurse anesthetists are also the sole 
anesthesia providers in more than two-thirds of rural hospitals 
assuring access to surgical, obstetrical, and other health care 
services. Over 364 nurse anesthetists have been deployed to the 
Middle East in support of Operation Iraqi Freedom and Operation 
Enduring Freedom.
    Military CRNAs are often the sole anesthesia providers at 
certain facilities both at home and forward deployed. For 
example, Army CRNA Lieutenant Colonel Bruce Schoneboom, 
Director of the Uniformed Services Nurse Anesthesia Program, is 
currently deployed as a nurse anesthetist and a detachment 
commander for the Fourteenth Combat Surgical Hospital at 
Salerno forward operating base in Afghanistan.
    In addition, military CRNAs are called upon to assist with 
humanitarian efforts, both at the home front and abroad, and 
this subcommittee must ensure that we retain and recruit CRNAs 
now and in the future to serve in these military overseas 
deployments and humanitarian efforts, and to ensure the maximum 
readiness of America's armed services.
    Today, maintaining adequate numbers of active duty CRNAs is 
of the most importance to the Department of Defense to meet its 
military medical readiness mission. For several years, the 
number of CRNAs serving in active duty has fallen short of the 
number authorized by DOD. This is complicated by the strong 
demand for CRNAs, both in the public and private sectors. This 
considerable gap between civilian and military pay was 
addressed in the fiscal year 2003 Defense Authorization Act, 
with an incentive special pay, or ISP increase from $15,000 to 
$50,000.
    Earlier this month, the three services' Nurse Corps leaders 
testified before this subcommittee that there is an active 
effort to work with the Surgeons General to evaluate and adjust 
ISP rates and policies needed to support the recruitment and 
retention of CRNAs. The AANA thanks this subcommittee for its 
support of the annual ISP for nurse anesthetists. The AANA 
strongly recommends the continuation and an increase in annual 
funding of the ISP for fiscal year 2007. The ISP continues to 
recognize the special skills and advanced education that CRNAs 
bring to the Department of Defense health care system.
    Last, the establishment of the joint United States Army 
Veterans Administration Nurse Anesthesia Program at Fort Sam 
Houston in San Antonio continues to hope promise to make 
significant improvement to the military and VA CRNA workforce, 
as well as improving retention of VA-registered nurses in a 
cost-effective manner. These DOD partnerships are a cost-
effective model to fill the needs of the military and VA health 
care system.
    In conclusion, the AANA believes that recruitment and 
retention of CRNAs in the armed services is critical to 
America's readiness. By Congress supporting the efforts to 
recruit and retain CRNAs, the military can meet the unique 
mission of its health care system. The AANA would like to thank 
the Surgeons General and Nurse Corps leadership for their 
support of the profession within the military workforce, and we 
commend and thank this subcommittee for their continued support 
of CRNAs in the military.
    [The statement follows:]

                  Prepared Statement of Paul N. Austin

    Chairman Stevens, ranking member Inouye, and Members of the 
subcommittee:
    The American Association of Nurse Anesthetists (AANA) is the 
professional association representing over 34,000 certified registered 
nurse anesthetists (CRNAs) in the United States, including 483 Active 
Duty and 790 Reservists in the military reported in May 2005. The AANA 
appreciates the opportunity to provide testimony regarding CRNAs in the 
military. We would also like to thank this committee for the help it 
has given us in assisting the Department of Defense (DOD) and each of 
the services to recruit and retain CRNAs.

              BACKGROUND INFORMATION ON NURSE ANESTHETISTS

    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today, CRNAs participate in 
approximately 65 percent of the anesthetics given to patients each year 
in the United States. Nurse anesthetists are also the sole anesthesia 
providers in more than two-thirds of rural hospitals, assuring access 
to surgical, obstetrical and other healthcare services for millions of 
rural Americans.
    CRNAs have a personal and professional commitment to patient 
safety, made evident through research into our practice. In our 
professional association, we state emphatically ``our members' only 
business is patient safety.'' Safety is assured through education, high 
standards of professional practice, and commitment to continuing 
education. Having first practiced as registered nurses, CRNAs are 
educated to the master's degree level and meet the most stringent 
continuing education and recertification standards in the field. Thanks 
to this tradition of advanced education, the clinical practice 
excellence of anesthesia professionals, and the advancement in 
technology, we are humbled and honored to note that anesthesia is 50 
times safer now than 20 years ago (National Academy of Sciences, 2000). 
Research further demonstrates that the care delivered by CRNAs, 
anesthesiologists, or by both working together yields similar patient 
safety outcomes. In addition to studies performed by the National 
Academy of Sciences in 1977, Forrest in 1980, Bechtholdt in 1981, the 
Minnesota Department of Health in 1994, and others, Dr. Michael Pine MD 
MBA recently concluded once again that among CRNAs and physician 
anesthesiologists, ``the type of anesthesia provider does not affect 
inpatient surgical mortality'' (Pine, 2003). Thus, the practice of 
anesthesia is a recognized specialty in nursing and medicine. Both 
CRNAs and anesthesiologists administer anesthesia for all types of 
surgical procedures from the simplest to the most complex, either as 
single providers or together.

                   NURSE ANESTHETISTS IN THE MILITARY

    Since the mid-19th Century, our profession of nurse anesthesia has 
been proud to provide anesthesia care for our past and present military 
personnel and their families. From the Civil War to the present day, 
nurse anesthetists have been the principal anesthesia providers in 
combat areas of every war in which the United States has been engaged.
    Military nurse anesthetists have been honored and decorated by the 
U.S. and foreign governments for outstanding achievements, resulting 
from their dedication and commitment to duty and competence in managing 
seriously wounded casualties. In World War II, there were 17 nurse 
anesthetists to every one anesthesiologist. In Vietnam, the ratio of 
CRNAs to physician anesthesiologists was approximately 3:1. Two nurse 
anesthetists were killed in Vietnam and their names have been engraved 
on the Vietnam Memorial Wall. During the Panama strike, only CRNAs were 
sent with the fighting forces. Nurse anesthetists served with honor 
during Desert Shield and Desert Storm. Military CRNAs have provided 
critical anesthesia support to humanitarian missions around the globe 
in such places as Bosnia and Somalia. In May 2003, approximately 364 
nurse anesthetists had been deployed to the Middle East for the 
military mission for ``Operation Iraqi Freedom'' and ``Operation 
Enduring Freedom.''
    Data gathered from the U.S. Armed Forces anesthesia communities' 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. U.S. Air Force Medical 
Special Operation Teams are staffed solely by CRNAs. Anesthesiologists 
rarely substitute into these billets. Military CRNAs have a long proud 
history of providing independent support and quality anesthesia care to 
military men and women, their families and to people from many nations 
who have found themselves in harm's way.
    In the current mission ``Operation Iraqi Freedom'' CRNAs will 
continue to be deployed both on ships and on the ground, as well as in 
U.S. special operations forces. In addition, military CRNAs are called 
upon to assist with humanitarian efforts on the home front and abroad. 
This committee must ensure that we retain and recruit CRNAs now and in 
the future to serve in these military overseas deployments and 
humanitarian efforts, and to ensure the maximum readiness of America's 
armed services.

CRNA RETENTION AND RECRUITING: HOW THIS COMMITTEE CAN HELP THE DEFENSE 
                               DEPARTMENT

    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty has fallen somewhat short of the number 
authorized by the Department of Defense (DOD). This is further 
complicated by strong demand for CRNAs in both the public and private 
sectors.
    However, it is essential to understand that while there is strong 
demand for CRNA services in the public and private healthcare sectors, 
the profession of nurse anesthesia is working effectively to meet this 
workforce challenge. Our evidence suggests that while vacancies exist, 
there is not a crisis in the number of anesthesia providers. As of 
January 2006, there are 99 accredited CRNA schools to support the 
profession of nurse anesthesia. The number of qualified registered 
nurses applying to CRNA schools continues to climb. The growth in the 
number of schools, the number of applicants, and in production 
capacity, has yielded significant growth in the number of nurse 
anesthetists graduating and being certified into the profession. The 
Council on Certification of Nurse Anesthetists reports that in 2005, 
our schools produced 1,790 graduates, an 89 percent increase since 
1999, and 1,595 nurse anesthetists were certified. The growth is 
expected to continue. The Council on Accreditation of Nurse Anesthesia 
Educational Programs (COA) projects CRNA schools to produce over 1,900 
graduates in 2006.
    This committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.

           INCENTIVE SPECIAL PAY (ISP) FOR NURSE ANESTHETISTS

    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by the Department of 
Defense, a large pay gap existed between annual civilian and military 
pay in 1992. This study concluded, ``this earnings gap is a major 
reason why the military has difficulty retaining CRNAs.'' In order to 
address this pay gap, in the fiscal year 1995 Defense Authorization 
bill Congress authorized the implementation of an increase in the 
annual Incentive Special Pay (ISP) for nurse anesthetists from $6,000 
to $15,000 for those CRNAs no longer under service obligation to pay 
back their anesthesia education. Those CRNAs who remain obligated 
receive the $6,000 ISP. New nurse anesthesia graduates should be 
eligible to receive the full ISP and not a reduced portion when they 
are completing their obligated service.
    Both the House and Senate passed the Fiscal Year 2003 Defense 
Authorization Act Conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. There had been no change in 
funding level for the ISP since the increase was instituted in fiscal 
year 1995, while it is certain that civilian pay has continued to rise 
during this time. Per the testimony provided earlier this month from 
the three services Nurse Corps leaders, the AANA is aware that there is 
an active effort to work with the Surgeons General to closely evaluate 
and adjust ISP rates and policies needed to support the recruitment and 
retention of CRNAs. Major General Gale Pollock, MBA, MHA, MS, CRNA, 
FACHE, Deputy Surgeon General, Army Nurse Corps of the U.S. Army stated 
earlier this month in testimony before this subcommittee,

    ``I am particularly concerned about the retention of our certified 
registered nurse anesthetists (CRNAs). Our inventory of CRNAs is 
currently at 73 percent. The restructuring of the incentive special pay 
program for CRNAs last year, as well as the 180 (day)-deployment 
rotation policy were good first steps in stemming the loss of these 
highly trained providers. We are working closely with the Surgeon 
General's staff to closely evaluate and adjust rates and policies where 
needed.''

    Military CRNAs face frequent and lengthy deployments. The fewer 
military CRNAs, the more frequent the deployments, the more frequent 
the deployments, the greater the attrition. Congress needs to continue 
to support Military education of CRNA programs such as USUHS and FT Sam 
that produce our ``replacement'' military CRNAs.
    In addition, there still continues to be high demand for CRNAs in 
the healthcare community leading to higher incomes, widening the gap in 
pay for CRNAs in the civilian sector compared to the military. The 
fiscal year 2005 AANA Membership Survey measured income in the civilian 
sector by practice setting. The median income in a hospital setting is 
$135,000, anesthesiologist group $120,000, and self-employed CRNA 
$160,000. These median incomes include salary, call pay, overtime, 
bonus/incentives and other income. The median incomes in the Army, Navy 
and Air Force are $80,000, $87,750, and $88,824 respectively. These 
figures also include salary, call pay, overtime, bonus/incentives and 
other income, if applicable.
    In civilian practice, all additional skills, experience, duties and 
responsibilities, and hours of work are compensated for monetarily. 
Additionally, training (tuition and continuing education), healthcare, 
retirement, recruitment and retention bonuses, and other benefits often 
equal or exceed those offered in the military. Civilian practice offers 
a more stable lifestyle without threat of frequent moves or deployment 
into harms way. Salaries in the civilian sector will continue to create 
incentives for CRNAs to separate from the military, especially at the 
lower grades without a competitive incentive from the military to 
retain CRNAs. Therefore, it is vitally important that the Incentive 
Special Pay (ISP) be increased to ensure the retention of CRNAs in the 
military.
    The AANA thanks this committee for its support of the annual ISP 
for nurse anesthetists. The AANA strongly recommends the continuation 
and an increase in the annual funding for ISP for fiscal year 2007. The 
ISP recognizes the special skills and advanced education that CRNAs 
bring to the Department of Defense healthcare system.

             BOARD CERTIFICATION PAY FOR NURSE ANESTHETISTS

    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain healthcare professionals, including advanced practice 
nurses. AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this type of pay may assist in closing the 
earnings gap, which may help with retention of CRNAs.
    The AANA encourages the Department of Defense and the respective 
Services to continue to support board certification pay. We greatly 
appreciate the support since it contributes to minimizing the Military/
Civilian pay gap.

    DOD/VA RESOURCE SHARING: U.S. ARMY-VA NURSE ANESTHESIA SCHOOL: 
   UNIVERSITY OF TEXAS HOUSTON HEALTH SCIENCE CENTER, HOUSTON, TEXAS

    The establishment of the joint U.S. Army-VA program in nurse 
anesthesia education at Fort Sam Houston in San Antonio, Texas holds 
the promise of making significant improvements in the VA CRNA 
workforce, as well as improving retention of VA registered nurses in a 
cost effective manner. The current program utilizes existing resources 
from both the Department of Veterans Affairs Employee Incentive 
Scholarship Program (EISP) and VA hospitals to fund tuition, books, and 
salary reimbursement for student registered nurse anesthetists (SRNAs).
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. Due to continued success and 
interest by VA registered nurses for the school, the program increased 
to five openings for the June 2005 class. This program continues to 
attract registered nurses into VA service, by sending RNs the strong 
message that the VA is committed to their professional and educational 
advancement. The faculty director would like to expand the program with 
an additional three VA registered nurses for the June 2006 class. In 
order to achieve this goal, it is necessary for full funding of the 
current and future EISP to cover tuition, books, and salary 
reimbursement.
    The 30-month program is broken down into two phases. Phase I, 12 
months, is the didactic portion of the anesthesia training at the U.S. 
AMEDD Center and School (U.S. Army School for Nurse Anesthesia). Phase 
II, 18 months, is clinical practice education, in which VA facilities 
and their affiliates would serve as clinical practice sites. In 
addition to the education taking place in Texas, the agency will use VA 
hospitals in Augusta, Georgia, increasing Phase II sites as necessary. 
Similar to military CRNAs who repay their educational investment 
through a service obligation to the U.S. Armed Forces, graduating VA 
CRNAs would serve a 3-year obligation to the VA health system. Through 
this kind of Department of Defense--DVA resource sharing, the VA will 
have an additional source of qualified CRNAs to meet anesthesia care 
staffing requirements.
    At a time of increased deployments in medical military personnel, 
VA-DOD partnerships are a cost-effective model to fill these gaps in 
the military healthcare system. At Fort Sam Houston nurse anesthesia 
school, the VA faculty director has covered her Army colleagues' 
didactic classes when they are deployed at a moments notice. This 
benefits both the VA and the DOD to ensure the nurse anesthesia 
students are trained and certified in a timely manner to meet their 
workforce obligation to the Federal government as anesthesia providers.
    We are pleased to note that the Department of Veterans' Affairs 
Acting Deputy Under Secretary for Health and the U.S. Army Surgeon 
General approved funding to start this VA nurse anesthesia school in 
2004. With modest levels of additional funding in the EISP, this joint 
U.S. Army-VA nurse anesthesia education initiative can grow and thrive, 
and serve, as a model for meeting other VA workforce needs, 
particularly in nursing.
    Department of Defense and VA resource sharing programs effectively 
maximize government resources while improving access to healthcare for 
Veterans.

                               CONCLUSION

    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. By Congress 
supporting these efforts to recruit and retain CRNAS, the military is 
able to meet the mission to provide benefit care and deployment care--a 
mission that is unique to the military. The AANA would also like to 
thank the Surgeons General and Nurse Corp leadership for their support 
in meeting the needs of the profession within the military workforce. 
Last, we commend and thank this committee for their continued support 
for CRNAs in the military.

    Senator Stevens. Thank you. We note you have suggested that 
the incentive pay be increased to $50,000. How did you arrive 
at that figure?
    Colonel Austin. Actually, the authorization already went 
through for it to be increased to $50,000, and that is 
currently being implemented, depending on the number of years 
that the member signs his contract.
    Senator Stevens. It is already authorized at that level?
    Colonel Austin. It is.
    Senator Stevens. I didn't understand. Senator Inouye.
    Senator Inouye. What is the shortage among nurses?
    Colonel Austin. I'm sorry, sir?
    Senator Inouye. What is the shortage in the nurse 
anesthetist field?
    Colonel Austin. Currently, nationwide the vacancy rate is 
approximately 10 to 12 percent.
    Senator Inouye. Thank you.
    Senator Stevens. Well, thank you very much.
    Colonel Austin. Thank you, sir.
    Senator Stevens. Appreciate your testimony. Now, we will 
turn to Chris Hahn with the Applied Research Foundation.

STATEMENT OF CHRIS HAHN, EXECUTIVE DIRECTOR, 
            MESOTHELIOMA APPLIED RESEARCH FOUNDATION 
            (MARF)
    Mr. Hahn. Chairman Stevens, ranking member Inouye, and the 
distinguished members of the U.S. Senate Defense Appropriations 
Subcommittee, thank you for this opportunity a few days before 
Memorial Day to address a fatal disease afflicting our 
veterans.
    My name is Chris Hahn. I am the Executive Director of the 
Mesothelioma Applied Research Foundation, the national 
nonprofit advancing research to develop treatments for 
mesothelioma.
    Mesothelioma, or Meso, is an aggressive cancer caused by 
asbestos exposure. It is among the most painful of cancers, as 
the tumor invades the chest wall, destroys vital organs, and 
crushes the lungs. It is also among the worst prognoses. Meso 
patients survive 4 to 14 months average. There is no cure.
    From the 1930s through the 1970s, asbestos was used 
literally everywhere on Navy ships, from engine rooms to living 
spaces. Millions of servicemen and shipyard workers were 
exposed. Today, many of them are developing mesothelioma 
following the disease's 10 to 50 year latency period.
    These are heroes who served our country's defense. Former 
Chief of Naval Operations Elmo Zumwalt developed mesothelioma 
in 2000, and died just 3 months later. His son, Colonel James 
Zumwalt, is here with us today. Louis Dietz volunteered for the 
Navy at age 18. He was decorated for his courage in combat in 
Vietnam. On the U.S.S. Kitty Hawk, he tended the boilers. At 
age 55, he developed mesothelioma, and died 3 months later.
    Admiral Zumwalt's and sailor Dietz's stories are all too 
common. Of the 3,000 Americans each year who die of 
mesothelioma, one-third were exposed on U.S. ships and 
shipyards. That is 1,000 U.S. servicemen and shipyard workers 
each year lost through service to our country, just as if they 
had been on a battlefield. Many more heroes are being exposed 
now, and will develop the disease in the next 10 to 50 years. 
9/11 first responders were exposed to hundreds of tons of 
pulverized asbestos, and even though asbestos usage is not as 
heavy today as in the past, even low dose incidental exposures 
can cause Meso.
    Minnesota Congressman Bruce Vento happened to work near an 
asbestos-insulated boiler at his summer job while putting 
himself through college. In 2000, he developed mesothelioma and 
died.
    Despite this deadly toll on our heroes and patriots, 
mesothelioma research has been an orphan. The National Cancer 
Institute has provided virtually no funding. Of the $3.75 
billion spent so far through the DOD congressionally directed 
medical research program, none has been invested in Meso 
research, despite the military service connection. As a result, 
treatments for mesothelioma lag far behind other cancers. In 
fact, for decades, there was no treatment better than doing 
absolutely nothing at all.
    The hopelessness is starting to lift. Brilliant researchers 
and physicians are dedicated to mesothelioma. Just 2 years ago, 
the first drug ever for mesothelioma was approved when Doctor 
Nicholas Vogelsang, the head of the Nevada Cancer Institute and 
a member of our board of directors, proved that it was 
effective against the cancer. Dr. Harvey Pass, the Chief of 
Thoracic Surgery at NYU, is developing promising biomarkers for 
the disease. Gene therapy, anti-angiogenesis, and other 
promising approaches are being developed.
    There is hope, but we need the Federal Government to make a 
concerted investment. So we ask the DOD to include mesothelioma 
in the peer-reviewed medical research program. This will enable 
Meso investigators to compete for Federal funds, and will 
provide urgently needed resources to develop new treatments.
    Thank you very much, and we look to the subcommittee for 
your leadership to provide hope to our veterans who develop 
this cancer.
    Senator Stevens. Thank you very much, Mr. Hahn.
    [The statement follows:]

                    Prepared Statement of Chris Hahn

    Chairman Stevens, Ranking Member Inouye, and the distinguished 
members of the U.S. Senate Defense Appropriations Subcommittee:
    Thank you for this opportunity, a few days before Memorial Day, to 
address a fatal disease afflicting our military veterans, and those who 
helped build and protect our Nation. My name is Chris Hahn, I am the 
Executive Director of the Mesothelioma Applied Research Foundation, the 
national nonprofit collaboration of researchers, physicians, advocates, 
patients and families dedicated to advancing medical research to 
improve treatments for mesothelioma.

                         MALIGNANT MESOTHELIOMA

    Mesothelioma or meso is an aggressive cancer of the lining of the 
lungs, abdomen or heart, caused by asbestos exposure. The mesothelioma 
tumor is among the most painful of cancers, as it invades the sensitive 
chest wall, destroys vital organs, and crushes the lungs. It is also 
among the worst prognosis of cancers. Meso patients survive an average 
of 4 to 14 months; today there is no cure.

            THE ``MAGIC MINERAL''--EXPOSURES WERE WIDESPREAD

    As you may know, asbestos has so many beneficial properties that, 
until its fatal toxicity became fully recognized, it was regarded as 
the magic mineral. It has excellent fireproofing, insulating, filling 
and bonding properties. By the late 1930's and through at least the 
late 70's the Navy was using it extensively. It was used in engines, 
nuclear reactors, decking materials, pipe covering, hull insulation, 
valves, pumps, gaskets, boilers, distillers, evaporators, soot blowers, 
air conditioners, rope packing, and brakes and clutches on winches. In 
fact it was used all over Navy ships, even in living spaces where pipes 
were overhead and in kitchens where asbestos was used in ovens and in 
the wiring of appliances. Aside from Navy ships, asbestos was also used 
on military planes extensively, on military vehicles, and as insulating 
material on quonset huts and living quarters.
    As a result, military defense personnel, especially servicemen and 
shipyard workers, were heavily exposed. A study at the Groton, 
Connecticut shipyard found that over 100,000 workers had been exposed 
to asbestos over the years at just this one shipyard. Because of the 10 
to 50 year latency of the disease, many of the millions of exposed 
servicemen and shipyard workers are just now developing meso.

                     MESOTHELIOMA TAKES OUR HEROES

    These are the people who served our country's defense and built its 
fleet. They are heroes like former Chief of Naval Operations Admiral 
Elmo Zumwalt, Jr., who led the Navy during Vietnam and was renowned for 
his concern for enlisted men. Despite his rank, prestige, power, and 
leadership in protecting the health of Navy servicemen and veterans, 
Admiral Zumwalt died at Duke University in 2000, just 3 months after 
being diagnosed with mesothelioma.
    Lewis Deets was another of these heroes. Four days after turning 
the legal age of 18, Lewis joined the Navy. He was not drafted. He 
volunteered, willingly putting his life on the line to serve his 
country in Vietnam. He served in the war for over 4 years, from 1962 to 
1967, as a ship boilerman. For his valiance in combat operations 
against the guerilla forces in Vietnam he received a Letter of 
Commendation and The Navy Unit Commendation Ribbon for Exceptional 
Service. In December 1965, while Lewis was serving aboard the U.S.S. 
Kitty Hawk in the Gulf of Tonkin, a fierce fire broke out. The boilers, 
filled with asbestos, were burning. Two sailors were killed and 29 were 
injured. Lewis was one of the 29 injured; he suffered smoke inhalation 
while fighting the fire. After the fire, he helped rebuild the boilers, 
replacing the burned asbestos blocks. In 1999 he developed 
mesothelioma, and died 4 months later at age 55.
    Admiral Zumwalt's and Boilerman Deets' stories are not atypical. Of 
the approximately 3,000 U.S. citizens who die each year of meso, it is 
estimated that one-third were exposed on U.S. Navy ships or shipyards. 
That's 1,000 U.S. veterans and shipyard workers per year, lost through 
service to country, just as if they had been on a battlefield.
    In addition to these heroes, exposed 10 to 50 years ago and 
developing the disease today, many more are being exposed now and will 
develop the disease in 10 to 50 years. There is grave concern now for 
the heroic first responders from 9/11 who were exposed to hundreds of 
tons of pulverized asbestos at Ground Zero and throughout the city. 
Asbestos exposures have been reported among the troops now in Iraq. The 
utility tunnels in this very building may have dangerous levels. While 
active asbestos usage is not as heavy today as in the past, even low-
dose, incidental exposures can cause meso. Congressman Bruce Vento, the 
distinguished Member from Minnesota, happened to work near an asbestos-
insulated boiler in a brewery in Minneapolis for two summers while 
putting himself through college. As a result, he died of meso in 2000. 
His wife Susan now champions efforts to raise awareness about this 
deadly disease and the need for a federal investment in research toward 
a cure.

                 MESOTHELIOMA FUNDING HAS NOT KEPT PACE

    Despite this deadly toll on our heroes and patriots, meso has been 
an orphan disease. With the huge federal investment in cancer research 
through the NCI, and $3.75 billion spent in biomedical research through 
the DOD Congressionally Directed Research Program since 1992, we are 
winning the war on cancer and many other diseases. But for meso, the 
National Cancer Institute has provided virtually no funding, in the 
range of only $1.7 to $3 million annually over the course of the last 5 
years, and the DOD does not yet invest in any meso research despite the 
military-service connection. As a result, advancements in the treatment 
of mesothelioma have lagged far behind other cancers. In fact, for 
decades, there was no approved treatment better than doing nothing at 
all.

                           NEW OPPORTUNITIES

    But there is good news. A small but passionate community of 
physicians and researchers is committed to finding a cure. The decades-
long hopelessness that treatment was futile is no longer true. Two 
years ago, the FDA approved a drug shown to be effective against the 
tumor. This was based on the largest phase III trial ever conducted in 
meso, led by Meso Foundation Board of Directors member Nicholas 
Vogelzang, head of the Nevada Cancer Institute. Two very promising 
biomarkers have just been identified. Two of the most exciting areas in 
cancer research generally--gene therapy and anti-angiogenesis--look 
particularly applicable in meso. With its seed-money grant funding, the 
Meso Foundation is supporting research in these and other areas. To 
date we have funded over $3 million to investigators working on novel, 
promising research projects. The scientific community believes that we 
can continue to advance the treatment of this disease and increase its 
survivability if the federal government makes a concerted investment.
    Therefore, we urge the DOD to partner in the progress being made, 
by including meso as an area of emphasis in the DOD's Peer Reviewed 
Medical Research Program. Inclusion in the list of congressionally 
identified priority research areas will enable mesothelioma researchers 
to compete for Federal funds based on the scientific merit of their 
work. This will provide urgently needed resources to explore new 
treatments and build a better understanding this disease. We look to 
the Senate Defense Appropriations Subcommittee to provide leadership 
and hope to the servicemen and women and veterans who develop this 
cancer after serving our Nation. Thank you for the opportunity to 
provide testimony before the subcommittee and we hope that we can work 
together to develop life-saving treatments for mesothelioma.

    Senator Stevens. Our next witness is--you do not have any 
questions, Senator? Senator Inouye, you have any questions?
    [No response.]
    Senator Stevens. Next is Captain Robert Hurd and Jessica 
Vance, a Naval Sea Cadet.

STATEMENTS OF:
        PETTY OFFICER FIRST CLASS JESSICA A. VANCE, 2006 NAVAL SEA 
            CADET OF THE YEAR, U.S. NAVAL SEA CADET CORPS
        CAPTAIN ROBERT C. HURD, U.S. NAVY (RETIRED)
    Captain Hurd. Good morning, Mr. Chairman, Senator Inouye. 
It is my pleasure to introduce Petty Officer Vance, who is 
selected as a Naval Sea Cadet Corps cadet of the year, out of 
10,000 cadets last year. This Friday, she graduates from high 
school and is off to the Naval Academy almost immediately 
following that. Petty Officer Vance?
    Petty Officer Vance. Good morning. I am Naval Sea Cadet 
Corps Petty Officer Jessica Vance, leading Petty Officer of the 
Spruance Division in Fort Lauderdale, Florida, as well as a 
senior at Pine Crest School.
    It is an honor to address you on behalf of the Naval Sea 
Cadet Corps. There are now just under 10,000 young men and 
women ages 11 to 17 and adult volunteers proudly wearing the 
Naval Sea Cadet uniform in 374 units throughout the country. We 
are a congressionally chartered youth development and education 
program sponsored by the Navy League of the United States and 
supported by the Navy and Coast Guard. The program's main goals 
are development of young men and women while promoting interest 
and skill in seamanship and aviation, and instilling a sense of 
patriotism, courage, commitment, self-reliance, and honor, 
along with other qualities that mold strong moral character and 
self-discipline in a drug and gang-free environment.
    After completing boot camp, sea cadets choose from a 
variety of 2-week summer training sessions, including training 
aboard Navy and Coast Guard ships. Last summer, I was 
privileged to train aboard a Russian ship as one of the first 
U.S. participants in an international exchange program with 
Russia. During the year, we drill every weekend, and may 
complete Navy correspondence courses for advancement: this 
being the basis for accelerated promotion if a cadet should 
choose to enlist in the Navy or Coast Guard after leaving the 
program.
    Four hundred seventy-three former sea cadets now attend the 
United States Naval Academy, and approximately 400 former 
cadets annually enlist in the armed services, pre-screened, 
highly motivated, and well-prepared. I will be joining them in 
a few weeks as a new midshipmen at the Naval Academy. Knowing 
nothing about the military, the sea cadet program has prepared 
me for a life of service. Prior sea cadet experience has proven 
to be an excellent indicator of a potentially high career 
success rate, both in and out of the military.
    Whether or not we choose a service career, we all carry 
forth the forged values of good citizenship, leadership, and 
moral courage that we believe will benefit us and our country. 
A major difference between this and other federally chartered 
youth programs is that we are responsible for our own expenses, 
including uniforms, travel, insurance and training costs, which 
can amount to over $500 a year.
    The Corps, however, is particularly sensitive that no young 
person is denied access to the program because of socioeconomic 
status. Some units are financed in part by local sponsors. Yet 
this support, while greatly appreciated, is not sufficient to 
support all cadets. Federal funds over the past 6 years have 
been used to help offset cadets' out-of-pocket training costs. 
However, for a variety of reasons, current funding can no 
longer adequately sustain the program. These include inflation, 
base closures, and reduced base access, reduced afloat training 
opportunities, a lack of previously provided transportation, 
on-base berthing and based transportation, increase needs-base 
support for the cadets.
    We respectfully request your consideration and support for 
funding that will allow for the full amount of $2 million 
requested for the next year. Unfortunately, time precludes 
sharing the many stories that Captain Hurd has shared with your 
staffs this year, pointing out the many acts of courage, 
community service, and successful youth development of my 
fellow sea cadets, as well as those ex-cadets who are serving 
in our Armed Forces in Iraq, Afghanistan, and around the world. 
These stories and many more like them are unfortunately the 
youth stories that you do not always read about in the press.
    Thank you for this opportunity to speak to you today. I and 
the entire Sea Cadet Corps appreciate your support for this 
fine program that has meant so much to me over the past 5\1/2\ 
years, and will continue to influence me for the rest of my 
life. Thank you.
    Senator Stevens. Thank you very much. That is a nice 
statement. And Captain, we appreciate your support and we will 
do our best.
    Do you have any questions, Senator?
    [No response.]
    Senator Stevens. Thank you very much. Good luck to you at 
the Academy.
    Petty Officer Vance. Thank you.
    [The statement follows:]

                  Prepared Statement of Robert C. Hurd

                                REQUEST

    It is respectfully requested that $300,000 be appropriated for the 
NSCC in fiscal year 2007, so that when added to the Navy budgeted 
$1,700,000 will restore full funding at the $2,000,000 level. Further, 
in order to ensure future funding at the full $2,000,000 requirement, 
consideration of including the following conference language is 
requested:

    ``Congress is pleased to learn that Navy has funded the U.S. Naval 
Sea Cadet Corps in the fiscal year 2007 budget as urged by the Senate 
and House in the 2006 Defense Budget Conference Report. Conferees 
include an additional $300,000 for the U.S. Naval Sea Cadet Corps, that 
when added to the $1,700,000 in the fiscal year 2007 budget request 
will fund the program at the full $2,000,000 requested. Conferees urge 
the Navy to continue to fund this program and increase the POM level to 
$2,000,000 for the U.S. Naval Sea Cadet Corps.''

                               BACKGROUND

    At the request of the Department of the Navy, the Navy League of 
the United States established the Naval Sea Cadet Corps in 1958 to 
``create a favorable image of the Navy on the part of American youth.'' 
On September 10, 1962, the U.S. Congress federally chartered the Naval 
Sea Cadet Corps under Public Law 87-655 as a non-profit civilian youth 
training organization for young people, ages 13 through 17. A national 
board of directors, whose chairman serves as the National Vice 
President of the Navy League for Youth Programs, establishes NSCC 
policy and management guidance for operation and administration. A 
full-time executive director and small staff in Arlington, Virginia 
administer NSCC's day-to-day operations. These professionals work with 
volunteer regional directors, unit commanding officers, and local 
sponsors. They also collaborate with Navy League councils and other 
civic, or patriotic organizations, and with local school systems.
    In close cooperation with, and the support of, the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently over 374 Sea Cadet units with a program total 
of over 10,000 participants (2,500 adult officers and instructors and 
10,000 cadets (about 33 percent female). This is an all time high 
enrollment for the program.

                            NSCC OBJECTIVES

    Develop an interest and skill in seamanship and seagoing subjects.
    Develop an appreciation for our Navy's history, customs, traditions 
and its significant role in national defense.
    Develop positive qualities of patriotism, courage, self-reliance, 
confidence, pride in our Nation and other attributes, which contribute 
to development of strong moral character, good citizenship traits and a 
drug-free, gang-free lifestyle.
    Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11 through 13. While it is 
not part of the Federal charter provided by Congress, the Navy League 
of the United States sponsors NLCC. NLCC was established ``. . . to 
give young people mental, moral, and physical training through the 
medium of naval and other instruction, with the objective of developing 
principles of patriotism and good citizenship, instilling in them a 
sense of duty, discipline, self-respect, self-confidence, and a respect 
for others.''

                                BENEFITS

    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young cadet the opportunity to 
experience self-reliance early on, while introducing this cadet to 
military life without any obligation to join a branch of the Armed 
Forces. The young cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, 188 cadets have received financial assistance 
in continuing their education in a chosen career field at college.

                               ACTIVITIES

    Naval Sea Cadets pursue a variety of activities including 
classroom, practical and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of sea cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the cadet's previous experience and 
desires).

                           SENIOR LEADERSHIP

    Volunteer Naval Sea Cadet Corps officers and instructors furnish 
senior leadership for the program. They willingly contribute their time 
and effort to serve America's youth. The Cadet Corps programs succeed 
because of their dedicated, active participation and commitment to the 
principles upon which the Corps was founded. Cadet Corps officers are 
appointed from the civilian sector or from active, reserve or retired 
military status. All are required to take orientation, intermediate and 
advanced officer professional development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space available air travel in conjunction with carrying 
out training duty orders.

                  DRUG-FREE AND GANG-FREE ENVIRONMENT

    One of the most important benefits of the sea cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug and gang free environment. Supporting 
this effort is a close liaison with the U.S. Department of Justice Drug 
Enforcement Administration (DEA). The DEA offers the services of all 
DEA Demand Reduction Coordinators to provide individual unit training, 
as well as their being an integral part of our boot camp training 
program.
    Among a variety of awards and ribbons that cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in he areas of leadership, perseverance and courage. 
Requirements include intensive anti-drug program training and giving 
anti-drug presentations to interested community groups.

                                TRAINING

Local Training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps officers and 
instructors, as well as Navy and Coast Guard instructors.
    Cadets receive classroom and hands on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, Navy history, naval customs and traditions and 
other nautical skills. Training may be held aboard ships, small boats 
or aircraft, depending upon platform availability. In their training 
cadets also learn about and are exposed to a wide variety of civilian 
and military career opportunities through field trips and educational 
tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged and scheduled, to 
participate in civic activities and events to include parades, social 
work and community projects, all part of the ``whole person'' training 
concept.
    For all Naval sea cadets the training during the first several 
months is at their local training site and focuses on general 
orientation to and familiarization with, the entire program. It also 
prepares them for their first major away from home training event, the 
two weeks recruit training which all sea cadets must successfully 
complete.
    The Navy League Cadet Corps training program teaches younger cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability and a sense of responsibility for shipmates. In 
accordance with a Navy-oriented syllabus, this education prepares them 
for the higher level of training they will receive as Naval sea cadets.
Summer Training
    After enrolling, all sea cadets must first attend a 2-week recruit 
training taught at the Navy's Recruit Training Command, at other Naval 
Bases or stations, and at regional recruit training sites using other 
military host resources. Instructed by Navy or NSCC Recruit Division 
Commanders, cadets train to a condensed version of the basic training 
that Navy enlistees receive. The curriculum is provided by the Navy and 
taught at all training sites. In 2005 there were 19 recruit training 
classes at 18 locations, including one class conducted over the winter 
holiday break and another held over spring break for the first time. 
About 18 nationwide regional sites are required to accommodate the 
steady demand for quotas and also to keep cadet and adult travel costs 
to a minimum. Approximately 2,000 cadets attended recruit training in 
2005 supported by another 300 adult volunteers.
    A cadet who successfully completes recruit training is eligible for 
advanced training in various fields of choice. Cadets can experience 
the excitement of ``hands-on'' practical training aboard Navy and Coast 
Guard vessels, ranging from tugboats and cutters to the largest 
nuclear-powered aircraft carriers. Female cadets may also train aboard 
any ship that has females assigned as part of the ship's company. 
Qualified cadets choose from such sea cadet advanced training as basic/
advanced airman, ceremonial guard, seamanship, sailing, SEAL training, 
amphibious operations, leadership, firefighting and emergency services, 
homeland security, mine warfare operations, Navy diving submarine 
orientation and training in occupational specialties, including health 
care, legal, music, master-at-arms and police science and construction.
    The Cadet Corp programs excel in quality and diversity of training 
offered, with more than 8,000 training orders carried out for the 2005 
summer training program. Cadets faced a myriad of challenging training 
opportunities designed to instill leadership and develop self-reliance, 
enabling them to become familiar with the full spectrum of Navy and 
Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of Federal funding for 
2001 through 2005. The NSCC still continues to experience an average 
increased recruit and advanced training attendance of well over 2,000 
cadets per year over those years in which Federal funding was not 
available.
    While recruit training acquaints cadets with Navy life and Navy 
style discipline, advanced training focuses on military and general 
career fields and opportunities, and also affords the cadets many 
entertaining, drug free, disciplined yet fun activities over the 
summer. The popularity of the training continues to grow not with just 
overall numbers but also as evidenced with numerous cadets performing 
multiple 2-week training sessions during the summer of 2005.
    Training highlights for 2005: The 2005 training focus was once 
again on providing every cadet the opportunity to perform either 
recruit or advanced training during the year. To that end emphasis was 
placed on maintaining all traditional and new training opportunities 
developed since Federal funding was approved for the NSCC. These 
include more classes in sailing and legal (JAG) training, expanded SEAL 
training opportunity, more SCUBA and diving training classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, more aviation related training and additional honor guard 
training opportunities. Other highlights included:
  --With Federal funding continuing to be available, maintained once 
        again national recruit training opportunities for every cadet 
        wanting to participate with 19 training camps in 2005.
  --In spite of escalating costs and increased competition for base 
        resources, kept cadet summer training cost at only $40 per week 
        for the second consecutive year.
  --Continued NSCC's expanded use of Army and National Guard facilities 
        to accommodate demand for quotas for recruit training.
  --Maintained an aggressive NSCC Officer Professional Development 
        Program with three different weekend courses tailored to 
        improving volunteer knowledge and leadership skills. Between 
        400 and 500 volunteers attended 2005 training at over 37 
        different training evolutions. In support of this adult 
        volunteer training, maintained for a second year NSCC's program 
        for reducing volunteer out-of-pocket expenses.
  --Expanded opportunity for culinary arts training for cadets from one 
        to three classes at three different locations.
  --Implemented for the first time naval engineering classes for NSCC 
        cadets at the Naval Training Command, Great Lakes.
  --Increased attendance at the NSCC Petty Officer Leadership Academies 
        and implemented a pilot junior petty officer leadership program 
        for younger and more junior cadets new to the program.
  --Expanded sail training to include two additional classes onboard 
        ``tall ships'' in Newport, Rhode Island.
  --Conducted first NSCC marksmanship program at ANG Camp Perry, Port 
        Clinton, Ohio with the assistance and support of the Civilian 
        Marksmanship Program headquartered there.
  --Conducted first NSCC military vehicle maintenance class at Fort 
        Custer Training Center, Battle Creek, Michigan.
  --Placed cadets aboard USCG Barque Eagle for an orientation cruise 
        from Lisbon, Portugal to New London, Connecticut.
  --Placed cadets onboard U.S. Navy ships and USCG stations, cutters 
        and tenders.

                     INTERNATIONAL EXCHANGE PROGRAM

    For 2005 the NSCC again continued for the fourth year its' 
redesigned and highly competitive, merit based and very low cost to the 
cadet, International Exchange Program. Cadets were placed in Australia, 
United Kingdom, Sweden, Netherlands, Hong Kong, Korea and Bermuda to 
train with fellow cadets in these host nations. The NSCC and Canada 
maintained their traditional exchanges in Nova Scotia and British 
Columbia and the NSCC hosted visiting cadets in Newport. Rhode Island 
and at ANG Gowen Field in Boise, Idaho for 2 weeks of NSCC sponsored 
training. New in 2005 were exchanges to Saint Petersberg, Russia and 
also to Scotland.

                       NAVY LEAGUE CADET TRAINING

    In 2005, over 1,120 Navy league cadets and escorts attended 
orientation training at 17 different sites. This diversity in location 
made training accessible and reasonably available to each cadet who 
wished to attend. Over 373 league cadets and escorts attended advanced 
training at several sites. The advanced program was developed in 
recognition of the need to provide follow-on training for this younger 
age group to sustain their interest and to better prepare them for the 
challenges of Naval Sea Cadet Corps training. Navy league cadets who 
attend recruit orientation training are exceptionally well prepared for 
sea cadet ``boot camp.''

                              SCHOLARSHIPS

    The Naval Sea Cadet Corps Scholarship program was established to 
provide financial assistance to deserving cadets who wished to further 
their education at the college level. Established in 1975, the 
scholarship program consists of a family of funds: the NSCC Scholarship 
Fund; the Navy League Stockholm Scholarship and the NSCC ``named 
scholarship'' program, designed to recognize an individual, 
corporation, organization or foundation. In 2005, Morgan & Helen Fitch 
Scholarship was added to this group. Since the inception of the 
scholarship program, 198 scholarships have been awarded to 188 cadets 
(includes some renewals) totaling over $229,500.

                           SERVICE ACCESSIONS

    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing presentations 
illustrate to Naval sea cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    While there is no service obligation associated with the Naval Sea 
Cadet Corps program, many sea cadets choose to enlist or enroll in 
officer training programs in all the Services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of cadets making this career decision. This survey is conducted 
during the annual inspections of the units. The reported cadet 
accessions to the services are only those that are known to the unit at 
that time. There are many accessions that occur in the 2-5 year 
timeframe after cadets leave their units, which go unreported. With 
about 80 percent of the units reporting, the survey indicates that 408 
known cadets entered the Armed Forces during the reporting year ending 
December 31, 2004. Further liaison with the USNA indicates that in 
fact, there are currently 482 Midshipmen with sea cadet backgrounds--
almost 10 percent of the entire Brigade. Navy accession recruiting 
costs have averaged over $14,500 per person, officer or enlisted, which 
applied to the number of sea cadet accessions represents a significant 
financial benefit to the Navy. Equally important is the expectation 
that once a more accurate measurement methodology can be found, is, 
that since sea cadets enter the Armed Forces as disciplined, well 
trained and motivated individuals, their retention, graduation and 
first term enlistment completion rates are perhaps the highest among 
any other entry group. USNA officials are currently studying graduation 
rates for past years for ex-sea cadets as a group as compared to the 
entire Brigade. Their preliminary opinion is that these percents will 
be among the highest. It is further expected that this factor will be 
an excellent indicator of the following, not only for the USNA, but for 
all officer and enlisted programs the sea cadets may enter:
  --Extremely high motivation of ex-cadets to enter the Service.
  --Excellent background provided by the U.S. Naval sea cadet 
        experience in preparing and motivating cadets to enter the 
        Service.
  --Prior U.S. Naval Sea Cadet Corps experience is an excellent pre-
        screening opportunity for young men and women to evaluate their 
        interest in pursuing a military career. This factor could 
        potentially save considerable tax-payer dollars expended on 
        individuals who apply for, then resign after entering the 
        Academy if they decide at some point they do not have the 
        interest or motivation.
  --U.S. Naval sea cadet experience prior to entering the Service is an 
        excellent indicator of a potentially high success rate.
    Data similar to the above has been requested from the United States 
Coast Guard Academy and the United States Merchant Marine Academy.
    Whether or not they choose a service career, all sea cadets carry 
forth learned values of good citizenship, leadership and moral courage 
that will benefit themselves and our country.

                            PROGRAM FINANCES

    Sea cadets pay for all expenses, including travel to/from training, 
uniforms, insurance and training costs. Out-of-pocket costs can reach 
$500 each year. Assistance is made available so that no young person is 
denied access to the program, regardless of social or economic 
background.
    Federally funded at the $1,000,000 level in fiscal year's 2001, 
2002, and 2003, and at $1,500,000 in fiscal year 2004 and $1,700,000 in 
2005 (of the $2,000,000 requested), all of these fund were used to 
offset individual cadet's individual costs for summer training, conduct 
of background checks for adult volunteers and for reducing future 
enrollment costs for cadets. In addition to the Federal fund received, 
NSCC receives under $700,000 per year from other sources, which 
includes around $226,000 in enrollment fees from cadets and adult 
volunteers. For a variety of reasons, at a minimum, this current level 
of funding is necessary to sustain this program and the full $2,000,000 
would allow for program expansion:
  --All time high in number of enrolled sea cadets.
  --General inflation of all costs.
  --Some bases denying planned access to sea cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of available ``Space Available'' transportation for group 
        movements.
  --Lack of on-base transportation, as the Navy no longer ``owns'' 
        busses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual cadet's meal costs.
    Because of these factors, cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases.
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be authorized and appropriated for fiscal 
year 2005.

    Senator Stevens. Our next witness is Sherry Salway Black, 
Executive Director of the Ovarian Cancer National Alliance.

STATEMENT OF SHERRY SALWAY BLACK, EXECUTIVE DIRECTOR, 
            OVARIAN CANCER NATIONAL ALLIANCE
    Ms. Black. Good morning Chairman Stevens, Senator Inouye, 
and other members of the subcommittee. My name is Sherry Salway 
Black, and I am a 4-year survivor of ovarian and endometrial 
cancers. As such, I am lucky to stand before you today as the 
Executive Director of the Ovarian Cancer National Alliance. On 
behalf of the Alliance, thank you for the opportunity to 
testify about the Ovarian Cancer Research Program at the 
Department of Defense.
    As a national organization with 50 regional, State, and 
local groups, the Alliance unites and reaches more than 800,000 
grassroots activists, women health advocates, health care 
professionals, and the public, to bring national attention to 
ovarian cancer. Since its inception 9 years ago, the Alliance 
has worked to increase awareness of ovarian cancer and boost 
Federal resources to support scientific research into 
diagnostics and treatments of the disease.
    Among the most urgent challenges in the ovarian cancer 
field is late detection, which leads to poor survival rates. To 
that end, the Alliance respectfully requests the subcommittee 
to provide a federal investment of $15 million for the DOD 
Ovarian Cancer Research Program in fiscal year 2007. This 
amount would be a $5 million increase, and would be the first 
increase for the program in 4 years. According to the Centers 
for Disease Control and Prevention, $2.2 billion is spent on 
treatment for ovarian cancer yearly. This figure could be 
greatly reduced with an earlier diagnosis, which could only be 
achieved through an effective screening tool. Research 
conducted through the ovarian cancer research program aims at 
developing such a tool.
    Like many women, I was lucky when I received my diagnosis. 
I am considered truly one of the lucky ones. My two cancers 
were found early in stage one when I had the best chance of 
surviving, something only 19 percent of women with this disease 
can claim. Most of the 20,000 women who will receive a 
diagnosis of ovarian cancer this year will never have the 
opportunity to speak before this subcommittee, because they 
will fight ovarian cancer until it claims their lives. 
Currently, almost half, 45 percent, of women with ovarian 
cancer die within 5 years of diagnosis.
    Like most women diagnosed early, my good fortune was not 
the result of my awareness of the symptoms or knowledge that I 
was a higher risk, and it was not the result of my having 
access to a currently nonexistent early screening test. My good 
fortune was the lucky result of my perseverance with my doctor 
and my subsequent treatment by an appropriate gynecologic 
oncologist specialist.
    All women should have the opportunity to survive ovarian 
cancer. No one should have to rely on luck for survival. 
Consistent investment in ovarian cancer research is vital in 
our fight against this deadly disease. The DOD Ovarian Cancer 
Research Program is essential in our national research 
portfolio. This program strives to fill the myriad of gaps in 
our knowledge, and is searching for innovative unique 
approaches to solve the enigma of early detection.
    Awards made by the DOD ovarian cancer research program are 
designed to stimulate research that will attract new 
investigators into the field, challenge existing paradigms, and 
support collaborative ventures including partnerships with 
private and public institutions. The innovation grants offered 
by the DOD Ovarian Cancer Research Program are paramount to our 
success, since traditional research models have failed to make 
timely progress against ovarian cancer.
    Today, we rely on the grace of luck for protection against 
ovarian cancer, and therefore, mortality rates have not 
significantly decreased in decades. If your wife, mother, 
daughter, or friend, were diagnosed with ovarian cancer this 
year, her chances of surviving ovarian cancer would not be 
significantly different than your grandmother's chances. In the 
21st century, it is no longer acceptable to depend on luck to 
save women's lives. We must continue to learn more about this 
disease so we can definitively change the future for our 
daughters, granddaughters, and all women.
    The DOD Ovarian Cancer Research Program is small but it 
does tremendous work for the Nation. It is financially and 
scientifically sound, with a track record of success. The 
program operated with only a 6 percent management cost in 2005, 
and has received accolades. Just last week we learned that the 
House committee subcommittee agreed to appropriate $15 million 
for the DOD Ovarian Cancer Research Program. For the second 
year in a row they have recognized the urgent need to support 
this program with a $5 million increase, despite a tough budget 
climate.
    It is my sincere hope that this subcommittee will join them 
by appropriating $15 million to the Ovarian Cancer Research 
Program in fiscal year 2007. Thank you for the opportunity to 
testify, and I'm happy to answer any questions you might have.
    Senator Stevens. Thank you very much. Since this 
subcommittee first added money to the defense budget in 1981 
for medical research, and it was breast cancer at the time, and 
AIDS I think in 1982, it has grown from $25 million a year to 
over $1 billion. I expect we will get requests from every 
segment here today to increase that funding, but it really has 
reached its level where it would be very difficult to increase 
that much further, and maintain the support we have to maintain 
for our troops in the field. But we will try. Thank you very 
much.
    Ms. Black. Thank you very much.
    [The statement follows:]

               Prepared Statement of Sherry Salway Black

                   OVARIAN CANCER'S DEADLY STATISTICS

    According to the American Cancer Society, in 2006 more than 20,000 
American women will be newly diagnosed with ovarian cancer, and more 
than 15,000 women will lose their lives to it, making this disease the 
fifth leading cause of cancer death in women. Currently, almost half 
(45 percent) of women with ovarian cancer will die within 5 years of 
diagnosis. More than 75 percent of women with ovarian cancer are 
diagnosed in later stages, when the 5-year survival rate drops below 30 
percent. When detected early, the 5-year survival rate increases to 
more than 90 percent. The key to increased survival rates is early 
detection, but a valid and reliable screening test does not yet exist.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Graph 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Graph 2

    Today, it is both striking and disheartening to see that despite 
progress made in the scientific, medical and advocacy communities, 
ovarian cancer mortality rates have not significantly decreased. Behind 
the sobering statistics are the lost lives of our loved ones, 
colleagues and community members. While we have been waiting for the 
development of an early detection test, hundreds of thousands of our 
loved ones have lost their battle to ovarian cancer.
    Today, early diagnosis is rarely a result of a patients' awareness 
of symptoms or their physicians' awareness. Rather, early diagnosis is 
often the result of pure luck. In a country as wealthy and 
scientifically advanced as the United States, women should not have to 
rely on luck for their survival. Ovarian cancer research must continue 
through all possible avenues, building a comprehensive knowledge of its 
symptoms, causes and treatments. All women should have access to 
treatment by a specialist. All women should have access to a valid and 
reliable screening test. We must deliver new and better treatments to 
patients and the health care professionals who treat them. Research 
conducted through the DOD Ovarian Cancer Research Program works toward 
a better understanding of this cancer in collaboration with the 
National Cancer Institute (NCI) and the National Institutes of Health 
to avoid duplication of research.

    THE OVARIAN CANCER RESEARCH PROGRAM AT THE DEPARTMENT OF DEFENSE

    Congress has appropriated funds for the DOD Ovarian Cancer Research 
Program since 1997. The program was charged to attract new 
investigators into the field and fund multidisciplinary research that 
investigates innovative study methods for learning about early 
detection, screening and treatment of ovarian cancer. The program 
offers awards that specifically seek to fill gaps in ongoing research 
and to complement initiatives sponsored by other agencies.
    Since its inception, the DOD Ovarian Cancer Research Program has 
lead to numerous discoveries, including:
  --Risk Factor Breakthrough.--The discovery that the hormone progestin 
        is a key agent in oral contraceptives' activity in reducing the 
        risk of ovarian cancer.
  --Treatment Breakthrough.--The recognition of three new anti-
        angiogenesis agents; in cancer, excessive angiogenesis feeds 
        the cancerous tissue oxygen and nutrients, destroying 
        surrounding healthy tissues while allowing tumor cells to 
        metastasize. The development of anti-angiogenesis agents 
        through ovarian cancer research has had implications for all 
        cancers.
  --Early Detection Breakthrough.--The identification of new biomarkers 
        which have the potential to improve early detection. Increased 
        funding will allow investigators to begin early stage clinical 
        trials to determine the utility of their discoveries.
  --Treatment Breakthrough.--The use of alpha radiation to treat 
        advanced ovarian cancer; alpha radiation efficiently kills 
        ovarian cancer cells with multivesicular liposomes to control 
        negative results.

                        SPRINGBOARD OF DISCOVERY

    Research conducted through the DOD Ovarian Cancer Research Program 
has contributed 246 publications and 274 abstracts, serving to bolster 
and expand the limited body of scientific knowledge of ovarian cancer. 
Perhaps most significantly, the Ovarian Cancer Research Program is 
responsible for the recruitment of 28 new investigators. Additionally, 
the Fox Chase Cancer Center and the Fred Hutchinson Cancer Research 
Center reported that the progress made through their DOD Program 
Project Awards enabled both institutions to successfully compete for 
NCI SPORE (Specialized Programs of Research Excellence) funding to 
pursue additional long-term ovarian cancer research.
    This body of scientific accomplishments would enjoy significant 
growth with expanded funding. In fiscal year 2005, the Ovarian Cancer 
Research Program was only able to fund less than 15 percent of its 
received research proposals. With increased funding, additional 
research initiatives could be supported, resulting in an increase in 
our scientific knowledge of ovarian cancer.
    The maturation of the DOD Ovarian Cancer Research Program 
infrastructure and management, plus the culmination of past investments 
have combined for an explosion of exciting scientific discoveries in 
the past 2 years. In 2005 the pace of discovery increased notably. 
Researchers funded by the DOD Ovarian Cancer Research Program made 
substantial progress with the following breakthroughs:
  --Early Diagnosis.--Identification of three genes that control the 
        development of ovarian cancer, which may serve as molecular 
        markers for improved early diagnosis.
  --Early Diagnosis.--Recognition of two new serum biomarkers expressed 
        in early stage ovarian cancer, which may serve as the basis for 
        an early detection test.
  --Treatment Improvement.--Discovery of immune cells' role in ovarian 
        cancer, leading to the development of a new therapy that will 
        help prevent tumors from receiving the nutrients necessary to 
        grow and metastasize.
  --Treatment Improvement.--Detection of the inhibitory qualities of a 
        genetically-engineered protein on the growth of ovarian cancer, 
        which may develop into a viable treatment option.
  --Treatment Improvement.--Findings on the benefits of squalamine (an 
        organic compound) in increasing the effectiveness of classic 
        ovarian cancer chemotherapy treatments.
    These breakthroughs demonstrate that the science is ripe for 
significant advancement in our knowledge of ovarian cancer. We must 
take advantage of this opportunity by supporting the DOD Ovarian Cancer 
Research Program through sustained appropriations in fiscal year 2007.

                      INCREASED INVESTMENT NEEDED

    In fiscal year 2005, the DOD Ovarian Cancer Research Program 
received 225 proposals, but due to resource limitations, was only able 
to fund 16 awards. The program has achieved great success, but to 
decrease ovarian cancer mortality rates we must sustain our investment 
in ovarian cancer research. Without enhanced funding the discoveries 
outlined in this testimony will never be translated into clinical 
research.
    Funding allocated in fiscal year 2006 will support grants in three 
research areas: (1) etiology and tumor biology, (2) preclinical 
development of targeted therapeutics, and (3) early detection and 
diagnosis. If granted, fiscal year 2007 funds would help expand these 
research areas.
  --Concept Awards are grants that focus on attracting researchers who 
        wish to challenge current approaches in ovarian cancer 
        research, explore innovative concepts and pursue under-explored 
        hypotheses.
  --Idea Development Awards are grants for researchers who wish to 
        improve current approaches to prevention, detection, diagnosis 
        and treatment of ovarian cancer. These awards focus on the 
        implementation of innovative methods of research or novel 
        adaptations of existing methods of research.
  --Historically Black Colleges & Universities/Minority Institutions 
        Collaborative Research Awards link novice investigators with 
        well-established ovarian cancer researchers to encourage the 
        involvement of minority institutions in the fight against 
        ovarian cancer.
    The DOD Ovarian Cancer Research Program has received $10 million 
for each of the past 5 years for which we thank the subcommittee. 
However, when biomedical inflation is taken into account, the 
allocation represents an overall diminished level of funding--at the 
same time ovarian cancer mortality rates remain constant. With 
additional funding, the DOD Ovarian Cancer Research Program can support 
new grants, provide funding to promising young investigators, and 
allocate additional resources to grants that should be extended or 
renewed.

                         SUMMARY AND CONCLUSION

    We still do not fully understand the risk factors, symptoms or 
causes of ovarian cancer. We still do not have an early detection test 
for ovarian cancer. As a result, mortality rates for this deadly 
disease have remained constant far too long. Previous appropriations 
Congress has made for the DOD Ovarian Cancer Research Program are 
appreciated and have helped move the field forward. New resources are 
needed in the coming year to sustain current efforts, but more 
importantly to continue to reap benefits from previous and current 
Federal investments.
    The Alliance maintains a long-standing commitment to work with 
Congress, the administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research and communication. Please know we appreciate 
and understand that our Nation faces many challenges and Congress has 
limited resources to allocate; however, we are concerned that without 
increased funding to bolster and expand ovarian cancer research 
efforts, the Nation will continue to see growing numbers of women lose 
their battle with this terrible disease.
    Thank you for your consideration of our views and for providing $15 
million in fiscal year 2007 for the DOD Ovarian Cancer Research 
Program.

    Senator Stevens. Our next witness is Captain Marshall 
Hanson, the National Military Veterans Alliance. Good morning.
    Captain Hanson. Thank you, Mr. Chairman.

STATEMENT OF CAPTAIN MARSHALL HANSON, UNITED STATES 
            NAVY RESERVE (RETIRED), CO-DIRECTOR, 
            NATIONAL MILITARY VETERANS ALLIANCE
    Captain Hanson. As co-director of the National Military 
Veterans Alliance (NMVA), I am honored to testify on behalf of 
the National Military and Veterans Alliance. The Alliance has 
grown to 30 military retiree, veterans, and survivor 
associations, representing over 3.5 million members. The 
overall goal of the NMVA is a strong national defense.
    In the long war, recruiting and retention has become 
paramount. The willingness of our young people today to serve 
in this war will relate to their perception of how the veterans 
of this war are being treated. The NMVA supports various 
incentives and bonuses to encourage participation. Our serving 
members are patriots willing to accept peril and sacrifice to 
defend the value of this country. All they ask for is fair 
recompense for their actions. At a time of war, compensation 
really offsets the risks. Let's not undervalue our young 
warriors. These payments are an investment toward our national 
security.
    The targeted pay increases included in Senate Bill 2766 
align with NMVA's goals. It is also crucial that the military 
health care is funded. NMVA is concerned that the President's 
DOD health care budget may have been underestimated because of 
some suggested Pentagon initiatives. We ask that you continue 
to fully fund military health care in fiscal year 2007. We do 
not want our serving members to be distracted from their 
mission with worries about their families' health care. And if 
our servicemembers pay that ultimate sacrifice, we need to 
provide every financial support to their families to help them 
in transition.
    The survivor benefit plan dependency and indemnity 
compensation offset is a conflict between a purchased annuity 
and an indemnity program. It affects our serving members. 
Recently, Congress created active duty survivor benefit plan 
(SBP) as a benefit intended for families who lost 
servicemembers. With the present offsets, the vast majority of 
our enlisted families receive no benefit from this new program 
because SBP is completely offset by dependency and indemnity 
compensation (DIC). This affects both younger and older 
surviving families.
    Senate Bill 2766, section 642, repeals the requirement of 
reducing SBP to offset DIC. The NMVA respectfully requests that 
this subcommittee fund that provision.
    Further, NMVA supports funding section 606, which extends a 
continuation of housing allowances for spouses and dependents 
of members who have died on active duty. The NMVA also supports 
funding of full payment of premiums for coverage under the 
servicemembers' group life insurance program during service in 
Operation Enduring Freedom, or Operation Iraqi Freedom.
    Our Active and Reserve serving members face enough 
challenges as they adapt to a lifestyle with an ever-present 
war. The NMVA is confident in your ongoing support, and the 
Alliance would like to thank the subcommittee for its efforts, 
and this opportunity to testify. Please let us know how we can 
assist.
    Senator Stevens. Well, thank you very much. I think a lot 
of the things you suggested require the authorization 
subcommittee's concurrence first, before we can appropriate the 
moneys, but will follow their lead if we----
    Captain Hanson. Right, and they have been placed in the 
markup of the bill, and of course the Senate will be looking at 
that in the next couple of weeks.
    Senator Stevens. All right. Thank you very much.
    [The statement follows:]

                 Prepared Statement of Marshall Hanson

                              INTRODUCTION

    Mr. Chairman and distinguished Members of the committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense funding issues. The overall goal of the National 
Military and Veteran's Alliance is a strong National Defense. In light 
of this overall objective, we would request that the committee examine 
the following proposals.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A phrase often quoted ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to General George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young veterans of 
this war. This phrase can now read ``The willingness with which our 
young people, today, are willing to serve in this war is how they 
perceive the veterans of this war are being treated.''
    In a long war, recruiting and retention becomes paramount. The 
National Military and Veterans Alliance, through this testimony hope to 
address funding issues that apply to the veterans of various 
generations.

                          PAY AND COMPENSATION

    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise equals or exceeds the Employment Cost Index (ECI).
    Further, we hope that this committee supports targeted pay raises 
for those mid-grade members who have increased responsibility in 
relation to the overall service mission.
    NMVA would apply the same allowance standards to both Active and 
Reserve when it comes to Aviation Career Incentive Pay, Career Enlisted 
Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty Incentive 
Pay and other special pays. We thank Congress for recognizing, last 
year that foreign language professional pay was for a special skill 
needing to be maintained 365 days a year.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals.
    NMVA urges the inclusion of bonus/cash payments (Incentive 
Specialty pay IPS) into the calculations of retirement pay for military 
health care providers. NMVA has received feedback that this would be 
incentive to many medical professionals to stay in longer.

                       FORCE POLICY AND STRUCTURE

End Strength
    The NMVA supports funding increases in support of the end strength 
boosts of the active duty component of the Army and Marine Corps that 
have been recommended by Defense authorizers. New recruits need to be 
found and trained now to start the process so that American taxpayer 
can get a return on this investment. Such growth is not instantaneously 
productive. NMVA also hopes that this subcommittee would include 
language reminding the Department of Defense that once appropriated 
that each service should proactively recruit to try to attain these 
numbers.
    The NMVA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. With the Commission on the Guard and 
Reserve now active, it makes sense to put a moratorium on changes to 
End Strength until after they report back to Congress with 
recommendations. NMVA urges this subcommittee to fund to last year's 
levels.

         SURVIVOR BENEFITS PLAN (SBP) AND SURVIVOR IMPROVEMENTS

    The Alliance wishes to deeply thank this subcommittee for your 
funding of improvements in the myriad of survivor programs.
    However, there are still two remaining issues to deal with to make 
SBP the program Congress always intended it to be:
  --Ending the SBP/DIC offset and
  --Moving up the effective date for paid up SBP to October 1, 2006.
    SBP/DIC Offset affects several groups. The first is the family of a 
retired member of the uniformed services. At this time the SBP annuity 
he or she has paid for is offset dollar for dollar for the DIC survivor 
benefits paid through the VA, this puts a disabled retiree in a very 
unfortunate position. If he or she is leaving the service disabled it 
is only wise to enroll in the Survivor Benefit Plan (perhaps being 
uninsurable in the private sector). If death is service connected then 
the survivor looses dollar for dollar for what the DIC pays.
    SBP is a purchased annuity, an earned employee benefit. It is a 
retirement plan for the surviving spouse. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to his or her military service. They are 
different programs created to fill different purposes and needs.
    A second group affected by this dollar for dollar offset is made up 
of families whose servicemember died on active duty. Recently Congress 
created active duty SBP. These service members never had the chance to 
pay into the SBP program. But clearly Congress intended to give these 
families a benefit. With the present off-set in place the vast majority 
of families receive no benefit from this new program, because the vast 
number of our losses are young men or women in the lower paying ranks. 
SBP is completely offset by DIC payments.
    Other affected families are servicemembers who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    Thirty Year Paid-Up SBP.--In the fiscal year 1999 Defense 
Authorization Act Congress created a simple and fair paid up provision 
for the Survivor Benefit Plan. A member who had paid into the program 
for 30 years and reached the age of 70 could stop paying premiums and 
still have the full protection of the plan for his or her spouse. 
Except that the effective date of this provision is October 1, 2008. 
Many have been paying for as long as 34 years.
    The NMVA respectfully requests this subcommittee fund the SBP/DIC 
offset and 30 year paid-up SBP if authorized.
    current and future issues facing uniformed services health care
    The National Military and Veterans Alliance must once again thank 
this committee for the great strides that have been made over the last 
few years to improve the health care provided to the active duty 
members, their families, survivors and Medicare eligible retirees of 
all the Uniformed Services. The improvements have been historic. 
TRICARE for Life and the Senior Pharmacy Program have enormously 
improved the life and health of Medicare Eligible Military Retirees 
their families and survivors. It has been a very successful few years.
    Yet there are still many serious problems to be addressed:
Full Funding For The Defense Health Program
    The Alliance applauds the subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of health care has risen throughout the country, 
you have provided adequate increases to the DHP to keep pace.
    This is again one of the Alliance's top priorities. With the 
additional costs that have come with the deployments to Southwest Asia, 
Afghanistan and Iraq, we must all stay vigilant against future 
budgetary shortfalls that would damage the quality and availability of 
health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, NMVA is concerned that the budget saving have 
already been adjusted out of the President's proposed budget. NMVA is 
confident that this subcommittee will continue to fund the DHP so that 
there will be no budget shortfalls.
    The National Military and Veterans Alliance urges the subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.
TRICARE Pharmacy Programs
    DOD is suggesting an increase in co-payments at retail pharmacy 
from $3 to $5 for generic prescriptions, and from $9 to $15 for brand 
drugs. Generic pharmacy mail order prescriptions would drop from $3 to 
$0 to align with military clinics.
    DOD's rationalize is that it costs the government twice as much for 
a drug through the TRICARE Retail Pharmacy program (TRRx) than it does 
for the same drug through the TRICARE Mail Order Pharmacy Program 
(TMOP). DOD believes the rise in the TRRx co-payments will increase 
revenue and force beneficiaries migrate to the TMOP program, where the 
costs for their prescriptions are lower.
    NMVA may understand the motives for this change, but has concerns 
about how it is being implemented. Often times the retail pharmacy 
network is the only source to immediately fill a prescription, as many 
pharmacy beneficiaries are unable to go to a military clinic for the 
initial prescription. To truly motivate beneficiaries to a shift from 
retail to mail order adjustments need to be made to both generic and 
brand name drugs co-payments.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for retail pharmacy, but . 
. . .
    NMVA suggests that if pharmacy co-payments are adjusted that:
  --(1) The higher retail pharmacy co-payments not apply on an initial 
        prescription, but on refills of a serial maintenance 
        prescription, and
  --(2) If co-payments must be raised on retail pharmacy, that both 
        generic and brand name mail order prescriptions be reduced to 
        zero $ co-payments.
    The National Military and Veterans Alliance urges the subcommittee 
to adequate fund adjustments to co-payments in support of 
recommendations from defense authorizers.
TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
global war on terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince health care providers to accept TRICARE 
Standard patients. Health care providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance was pleased and relieved by the administration's and Congress' 
recent corrections and improvements in Medicare reimbursement rates, 
which helped the TRICARE program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find health care providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
health care providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.

TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. Several years ago we saw the need to modify the TRDP 
legislation to allow the Department of Defense to include some dental 
procedures that had previously not been covered by the program to 
achieve equity with the active duty plan.
    With ever increasing premium costs, NMVA feels that the Department 
should assist retirees in maintaining their dental health by providing 
a government cost-share for the retiree dental plan. With many retirees 
and their families on a fixed income, an effort should be made to help 
ease the financial burden on this population and promote a seamless 
transition from the active duty dental plan to the retiree dental plan 
in cost structure. Additionally, we hope the Congress will enlarge the 
retiree dental plan to include retired beneficiaries who live overseas.
    The NMVA would appreciate this committee's consideration of both 
proposals.

                 NATIONAL GUARD AND RESERVE HEALTH CARE

Funding Improved Tricare Reserve Select
    It is being suggested that the TRICARE Reserve Select healthcare 
plan be changed to allow the majority of Selected Reserve participate 
at a 28 percent co-payment level with the balance of the premium being 
paid by the Department of Defense.
    NMVA asks the committee for funding to support a revised TRICARE 
Reserve Select program.
Mobilized Health Care--Dental Readiness Of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world this would be universal dental coverage. Reality 
is that the services are facing challenges. Premium increases to the 
individual Reservist have caused some junior members to forgo coverage. 
Dental readiness has dropped. The military services are trying to 
determine how best to motivate their Reserve Component members but feel 
compromised by mandating a premium program if Reservists must pay a 
portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but without funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military and Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall dental readiness.
Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve who were ordered to active duty for more than 30 days in 
support of a contingency and have 180 days of transition health care 
following their period of active service.
    Similar coverage is not provided for dental restoration. Dental 
hygiene is not a priority on the battlefield, and many Reserve and 
Guard are being discharged with dental readiness levels much lower than 
when they were first recalled. At a minimum, DOD must restore the 
dental state to an acceptable level that would be ready for 
mobilization, or provide some subsidize for 180 days to permit 
restoration from a civilian source.
    Current policy is a 30 day window with dental care being space 
available at a priority less than active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payment for the 6 months following demobilization if DOD is unable to 
do the restoration.

                       OTHER RESERVE/GUARD ISSUES

MGIB-SR Enhancements
    Approximately 7.8 percent of the enlisted Reservists have a 
Bachelors degree or higher. This makes the Montgomery G.I. Bill for 
Selective Reserves (MGIB-SR) an important recruiting and retention 
tool. With massive troop rotations the Reserve forces can expect to 
have retention shortfalls, unless the government provides incentives 
such as a college education. Education is not only a quality of life 
issue or a recruiting/retention issue it is also a readiness issue. 
Education a Reservist receives enhances their careers and usefulness to 
the military. The ever-growing complexity of weapons systems and 
support equipment requires a force with far higher education and 
aptitude than in previous years.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. Other than cost-of-living 
increases, only two improvements in benefits have been legislated since 
1985. In that year MGIB rates were established at 47 percent of active 
duty benefits. The MGIB-SR rate is 27 percent of the chapter 30 
benefits. Overall the allowance has inched up by only 7 percent since 
its inception, as the cost of education has climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over 10.
Bonuses
    Guard and Reserve component members may be eligible for one of 
three bonuses, prior enlistment bonus, reenlistment bonus and Reserve 
affiliation bonuses for prior service personnel. These bonuses are used 
to keep men and woman in mission critical military occupational 
specialties (MOS) that are experiencing falling numbers or are 
difficult to fill. During their testimony before this committee the 
reserve chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress and civilian competition for jobs make bonuses a 
necessary tool for the DOD to fill essential positions. Though the 
current bonus program is useful there is a change that needs to be 
addressed to increase effectiveness.
    The primary requirement for eligibility and payment of a bonus upon 
reenlistment is that the member must have completed less than 14 years 
of total military service and not be paid more than one 6-year bonus or 
two 3-year bonuses under this section. Increasing the eligibility for 
reenlistment bonuses to 20 years of total military service and 
increasing the number of bonuses that can be paid under this section 
could expand the available force pool, as mid-level enlisted Reserve 
members could take advantage of the new bonus criteria. Using a 20 year 
service cutoff instead of a 14 year period would encourage selected 
experienced mid-level subject matter experts to reenlist to established 
high year of tenure or mandatory separation dates and the added 
retained experience would boost each service's retention effort in 
critical skill areas. As each Service uses members of the Selected 
Reserve in different capacities, each Service Secretary may use this 
new authority as required as a force management tool.
    The NMVA would like to see the Reserve chiefs receive the funds and 
the authority to an increase in eligibility from 14 to 20 years and the 
ability for Reservists to receive bonuses while on active duty orders.
Reserve/Guard Funding
    We are concerned about ongoing DOD initiatives to end ``2 days pay 
for 1 days work,'' and replace it with a plan to provide one-thirtieth 
of a month's pay model, which would include both pay and allowances. 
Even with allowances, pay would be less than the current system. When 
concerns were addressed about this proposal, a retention bonus was the 
suggested solution to keep pay at the current levels. Allowances differ 
between individuals and can be affected by commute distances and even 
zip codes. Certain allowances that are unlikely to be paid uniformly 
include geographic differences, housing variables, tuition assistance, 
travel, and adjustments to compensate for missing health care.
    The NMVA strongly recommends that the Reserve pay system ``2 days 
pay for 1 days work,'' be funded and retained, as is.
    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills, and 15 annual training days per member, per year. 
DOD has been tempted to expend some of these funds on active duty 
support rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip and support the robust 
Reserve force that has been so critical and successful during our 
Nation's recent major conflicts.

                     ARMED FORCES RETIREMENT HOMES

    Following Hurricane Kristina, Navy/Marine Corps residents from 
AFRJ-Gulfport were evacuated from the hurricane-devastated campus and 
were moved to the AFRH-Washington DC campus. Dormitories were reopened 
that are in need of refurbishing.
    NMVA urges this subcommittee to fund upgrades to the Washington DC 
facility, and also provide funding to rebuild the Gulfport facility.

                               CONCLUSION

    Mr. Chairman and distinguished Members of the subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's Members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the Members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Senator Stevens. Our next witness is Seth Benge, the 
Associations for America's Defense. Good morning.

STATEMENT OF SETH BENGE, DIRECTOR OF LEGISLATION, 
            RESERVE ENLISTED ASSOCIATION, ON BEHALF OF 
            THE ASSOCIATIONS FOR AMERICA'S DEFENSE 
            (A4AD)
    Mr. Benge. Mr. Chairman, good morning.
    As a sergeant in the Marine Corps Reserve, I was deployed 
last year to Ramadi, Iraq for 7 months, from March to October. 
Presently, I serve as the legislative director for the Reserve 
Enlisted Association. I am testifying on behalf of the 
Associations for America's Defense. A4AD looks at national 
defense, equipment, force structure and policy issues not 
normally addressed by the military support community.
    First, we would like to thank the subcommittee for the 
ongoing stewardship on defense issues at a time of war. Its 
pro-defense, nonpartisan leadership sets the example.
    Support for our troops fighting the global war on terror is 
of primary importance and warrants top priority. The military 
needs to continually train with not only the tactics, 
techniques, and procedures, but with the equipment they will 
use while deployed. It is tempting to focus only on those that 
are in the fight. And they should be given what they need to 
complete the mission. But before any soldier gets to combat, 
they first must be trained, and we should continue to follow 
the axiom, ``train as you fight.''
    If we could buy enough equipment for units before 
deployment, the commanders would have a better chance to 
evaluate new gear and give our forces time to become more 
proficient in its use. Prior training frees soldiers to engage 
in more important aspect of their mission. Armored Humvees, 
personal body armor, and improvise explosive device (IED) 
jamming devices are saving lives. But we would rather stop the 
IEDs before they explode. I saw vehicles with their front ends 
blown off, or hit by rocket powered grenades (RPG), with 
relatively minor injuries to the crew. Conversely, the 
terrorists have tried to overcome the armor by larger 
explosives, and changing their tactics.
    Having Iraqis tell us the location of the IEDs, individual 
soldiers spotting them, or explosive ordnance disposal teams 
finding and clearing them, are the most common and preferred 
methods of defense against roadside bombs. Trying to master a 
vehicle can be a distraction from these important measures.
    Equipment is only a tool, and is far more effective when 
soldiers are given the time in advance to develop the skills to 
use it. A vehicle that weighs several tons more than an 
unarmored one drives differently. It turns, accelerates, and 
decelerates, and stops differently. The skills required to 
operate this equipment need to be learned before driving out 
the front gate of a base in a foreign land.
    Individual movement with personal gear should be a matter 
of muscle memory brought on by months of use. Just moving in 
and out of an armored vehicle with full gear and weapons is not 
the same as simply getting out of an unarmored Humvee with just 
a flack and Kevlar on. Running down streets or climbing over 
walls, or going into and out of houses, is also different in 
full combat gear. Without practice, it is easy to get tangled, 
tripped up, slowed down, and become an easy target.
    Recently, there was some debate in the media regarding 
marines being issued even more body armor; specifically, side 
plates. Many troops feel that the 70-plus pounds of gear, 
armor, and ammo, that today's marines and soldiers wear, is too 
much. These troops need to wear the gear earlier to adjust. 
Otherwise, it may not be worn or shed in the heat of battle.
    Another glaring area is with communication equipment. 
Currently, we have small handheld radios used to speak among 
individuals. But we didn't receive these until we were in the 
country for several weeks. In an environment where the enemy 
can appear and disappear into the crowd, where there are 
firefights around the corner, the ability to share information 
horizontally among the soldiers is as important as the ability 
to send information up the chain of command. Combat is not the 
time or place for hands-on training with such important tools.
    In the Guard and Reserve this training is especially 
difficult because they have become increasingly underequipped. 
With the shift to have these troops train, mobilize, deploy, so 
that they can be more operational, we need to assure that the 
Guard and Reserve also have the proper funding for equipment.
    As you continue to buy new equipment and start to put money 
into resetting the force, I would urge the subcommittee to 
remember that victory in combat begins the moment that young 
men and women step off of a bus and into basic training.
    Thank you again for this opportunity to testify before this 
subcommittee.
    Senator Inouye [presiding]. I thank you very much, sir.
    Mr. Benge. Thank you, Senator.
    [The statement follows:]

                    Prepared Statement of Seth Benge

                              INTRODUCTION

    Mr. Chairman and distinguished Members of the committee, the 
Associations for America's Defense (A4AD) are very grateful for the 
invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of 11 
military and veteran associations that have concerns about national 
security issues that are not normally addressed by either The Military 
Coalition, or the National Military and Veterans Alliance. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy. Collectively, we represent about members, who are 
serving our Nation, or who have done so in the past.
    A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.

              CURRENT VERSUS FUTURE; ISSUES FACING DEFENSE

    The Associations for America's Defense would like to thank this 
subcommittee for the on-going stewardship that it has demonstrated on 
issues of defense. At a time of war, its pro-defense and non-partisan 
leadership continues to set the example.
    Lessons learned from the war have only fueled the debate on what is 
needed for National Defense. Your committee faces numerous issues and 
decisions. You are challenged at weighing people against technology, 
and where to invest dollars. Multi-generations of weapons are being 
touted, forcing a competition for limited budgetary resources.
    Members of A4AD group are concerned that hasty recommendations 
about U.S. Defense policy could place national security at risk. 
Careful study is needed to make the right choice. A4AD is pleased that 
Congress and this subcommittee continue oversight in these decisions.
    Pentagon criticism is that our Armed Forces are archaic; structured 
for a Cold War. Yet it has been those legacy systems that have brought 
success in Iraq and Afghanistan.
Are Business Practices Practical?
    The 2005 QDR emphasizes the needs of the area combat commanders, 
and seeks a ``demand driven'' approach to ``reduce unnecessary program 
redundancy, improve joint interoperability and streamline acquisition 
and budgeting processes.'' In industry ``demand driven'' flow is called 
Just-in-Time (JIT) management.
    JIT attacks waste in the manufacturing process, working to identify 
and reduce or eliminate excess set-up and lead times, inventory, and 
scrap by exposing problems and bottlenecks and streamlining production.
    DOD's JIT concept is to reduce the amount and length in the 
logistics tail. The idea is to minimize investment, and get the bullet 
and spare parts to the troops on the line as they need them. The 
Pentagon wants to eliminate a ``steel mountain'' of supplies.
    Industry has been trying to perfect JIT for 30 years. A few 
industries have been able to use it, in others it causes hiccups. The 
risk is a shut down in production, and the more complex the system, the 
higher the risk. In many cases, the inventorying costs are shifted from 
producer to supplier to stock parts at a different site, which 
increases the costs of spare parts. Shipping expenses go up, as 
shortages tend to be ``overnighted'' when the scheduling goes haywire. 
In most cases, the bottom line is a more expensive product, which for 
the Pentagon would mean a higher DOD expense.
    The Pentagon has suggested the reduction of redundancy by 
consolidation and the elimination of military positions which would be 
replaced by contractors. The question that arises is ``What are the 
elements that ensure successful implementation outcomes between the 
government purchasing offices and various commercial contractors?'' If 
outcomes become less predictable the risk is not to contractors but to 
soldiers, sailors, marines, and airman and the war effort.
Dependence On Foreign Partnership
    The QDR highlights DOD's move ``from a large institutional force to 
a future force that is tailored for expeditionary operations.'' The QDR 
also states that ``the future force must be more tailored, more 
accessible to the joint commander, and better configured to operate 
with other agencies and international partners in complex operations.'' 
and that ``combatant commanders will expand the concept of contracting 
volunteers . . . ''
    Echoing the QDR, Gordon England, the deputy defense secretary 
stated in March at the Defense Security Cooperation Agency Worldwide 
Conference that in order ``to meet the diverse security challenges of 
the future, DOD must strengthen and adapt long-term alliances, as well 
as form relationships with new international partners, enabling them to 
enhance their capabilities.''
    "Effective multinational efforts are essential to solve the 
problems we face together,'' England added.
    The Navy seeks a ``1,000-ship Navy.'' The Chief of Naval 
Operations, Admiral Mike Mullen, called for ``a fleet-in-being . . . 
comprised of all freedom-loving nations, standing watch over the seas, 
standing watch over each other.'' Mullen's concept is to build on 
existing international security agreements to extend the global reach 
of sea power. ``We need to be a team player, a leader, for that 1,000-
ship Navy and a citizen in good standing for the city at sea,'' he 
said.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasing uncertainty because the United 
States does not necessarily control our foreign partners, countries 
whose objectives may differ with from own. This is more an exercise of 
consensus building rather than security integration. Alliances should 
be viewed as a tool and a force multiplier, but not the foundation of 
National Security.
    While an idea or a vision can be a catalyst to enthusiasm, this 
should not lead directly to change. Ideas should be tested and be 
judged not by a logic structure but by an outcome. The United States 
will always need a minimum force structure that permits us to defend 
ourselves.

                  IS THERE A PLACE FOR LEGACY WEAPONS?

    A4AD suggests that existing legacy weapons be shifted from the 
active component to the Reserve. The last war's legacy may be the next 
war's necessity. Before 9/11 the Navy wanted to eliminate its USNR CB 
battalions as being a Cold War legacy. In Operation Iraqi Freedom, not 
only is the integrated Active and Reserve CB force national rebuilding, 
but is also involved in explosive disposal. In both the Army and the 
Marine Corps, artillery units are being retrained in civil affairs, but 
if military conflict breaks out in Korea, the units will be needed with 
their artillery.
    Both the Pentagon and the Task Force on a Unified Security Budget 
for the United States have suggested cutting $62 billion from what has 
been labeled as Cold War weapons programs. While the Pentagon 
emphasizes the need to seek new technologies, the Task Force wants to 
use this ``dividend'' for homeland security, halt the spread of nuclear 
weapons.
    The F-22 fighter, Joint Strike Fighter, the Virginia-class 
submarine, the DD(X) destroyer, the V-22 tilt-rotor aircraft and the C-
130J cargo plane are just examples of new technology that has been 
labeled as legacy weapons. The key is that these weapons are needed to 
replace earlier aging weapons systems.

                            AGING EQUIPMENT

    Crash Highlights An Aging Fleet.--A giant C-5A Air Force cargo 
plane that crashed and broke apart while making an emergency landing at 
Dover Air Force Base was part of an aging fleet whose future is being 
debated. The 21-year-old aircraft that crashed was one that's been 
modernized.
    The U.S. Military has a number of aging air frames, besides the C-
5A, the Air Force has the F-15 fighter. The Navy and the Marines are 
flying C-9 transports and H-46 helicopters. GAO Report 01-163 reported 
that tactical Aircraft modernization plans would not reduce the average 
age of these aircraft. Nearly 5 years of war have just added to the 
wear and fatigue.
Tactical Air
    The rapidly aging F-15 Eagle first flew in the 1970s. In mock 
combat against MiG, Sukhoi and Mirage fighters, foreign air forces have 
scored unexpected successes against the Eagles. Modern, Russian-
designed ``double-digit'' surface-to-air missile systems (SAMs) now 
available on the export market have also caught up to the F-15 in 
capability. New air dominance platforms are urgently needed. The F/A-22 
Raptor and the Joint Strike F-35 fighters represent vital and 
complementary capabilities must be fully funded.
    The recent Quadrennial Defense Review has cut the Air Force's 
planned F-22 buy in half--from 381 to 183 fighters. To compensate, the 
Air Force will be forced to extend the service lives of other fighters 
and depend more on advanced unmanned systems. Congress should reinstate 
full procurement of 381 fighters for a minimum deployment of one 
squadron for each of the service's 10 Air Expeditionary Forces.
    Air National Guard needs E-8C, A-10, F-16 block 42 re-engining.
    A4AD supports modernization of critical USMC aviation capabilities 
available through MV-22, JSF-STOVL, and HLR programs. The JSF 
development and support of constructive cost-control practices should 
be fully funded for both the Navy and Marine Corps.
    The Navy and Marine Corps are also approaching aging aircraft in a 
different fashion. They are transferring tactical F-18 aircraft from 
the Reserve to the Active Component. This will leave Reserve Component 
units without hardware this will either reduce readiness of Reserve 
operational units, or cause units to be disbanded.
Airlift
    Air Mobility Command assets fly 36,478 hours per month and 
participate in major operations including earthquake and hurricane 
relief, Operation Enduring Freedom, Operation Iraqi Freedom, Operation 
Noble Eagle, and SOUTHCOM. Their contributions in moving cargo and 
passengers are absolutely indispensable to American warfighters in the 
Global War on Terrorism. Both Air Force and Naval airframes and air 
crew are being stressed by these lift missions.
    As the U.S. military continues to become more expeditionary, it 
will require more airlift. DOD should complete the planned buy of 180 
C-17s, and add an additional 60 aircraft at a rate of 15 aircraft per 
year to account to ensure an adequate airlift force for the future and 
allow for attrition--C-17s are being worn out at a higher rate than 
anticipated in the Global War on Terrorism.
    DOD should also continue with a joint multi-year procurement of C-
130Js and press ahead with a C-5 Reliability Enhancement and Re-
engining Program test to see where airlift funds may be best allocated.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft. The Navy requires Navy Unique Fleet Essential Airlift. The 
maximum range for the C-40A is approximately 1,500 miles more than the 
C-9 with a greater airlift capacity. The C-40A, a derivative of the 
737-700C is a Federal Aviation Administration (FAA) certified, while 
the aging C-9 fleet is not compliant with either future global 
navigation requirements or noise abatement standards that restrict 
flights into European airfields. Twenty-two aircraft remain to be 
replaced.
Tankers
    In need for air refueling is reconfirmed on a daily basis in 
worldwide DOD operations. A significant number of tankers are old and 
plagued with structural problems. The Air Force would like to retire as 
many as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade.
    The controversy that surrounded the KC-767 tanker-lease proposal 
has delayed acquisition of a new tanker. DOD and Congress must work 
together to replacement of these aircraft. A replacement could come in 
the form of a hybrid tanker/airlifter aircraft, which when produced 
could ``swing'' from one mission to the other as required. Congress 
should also look at re-engining a portion of the KC-135 fleet as a 
short-term fix until newer platforms come online.
    Procurement F-22, F-35, MV-22A, C40A and a replacement for the KC-
135 needs to be accelerated and modernized, and mobility requirements 
need to be reported upon.
Navy Fleet Size
    The number of ships in the fleet is dropping to 281 ships. The 
Chief of Naval Operations, Admiral Mike Mullen, has set the target for 
the new fleet at 313 ships.
    The Administration procurement rate has been too low.
    A4AD favors a fleet no smaller than 313 ships because of an added 
flexibility to respond to emerging threats. Congress should explore 
options to current methods of ship design, configuration, and 
shipbuilding that have created billion dollar destroyers.

                              OTHER ISSUES

Increasing End Strength
    Op tempo and deployment rotation will begin to wear. The official 
position of rotation of 1 year deployed for 3 years duty for active 
duty and 1 year in 6 for the Guard and Reserve are targets, but not yet 
reality. Increases are needed in the active component to reduce the 
building stress, and to reduce the need for Guard and Reserve call-up. 
Any unfunded end-strength increases would put readiness at risk.
    The A4AD supports funding increases in support of the end strength 
boosts of the Active Duty Component of the Army and Marine Corps that 
have been recommended by Defense authorizers.
    A4AD also hopes that this subcommittee would include language 
reminding the Department of Defense that once appropriated that each 
service should proactively recruit to try to attain these numbers.
    Now is not the time to be cutting the Guard and Reserve. Incentives 
should be utilized to attract prior service members into a growing 
Reserve. Additionally, a moratorium on changes to end strength of the 
Guard and Reserve should be put into place until Commission on the 
Guard and Reserve can report back to Congress with recommendations.
    The A4AD would like to also put a freeze on reductions to the Guard 
and Reserve manning level, holding to the fiscal year 2006 levels.
Regeneration/Resetting of Equipment
    A4AD would like to thank this committee for the regeneration money 
that was included in the supplemental.
    Aging equipment, high usage rates, austere conditions in Iraq, and 
combat losses are affecting future readiness. Equipment is being used 
at 5 to 10 times the programmed rate.
    Additionally, to provide the best protection possible for soldiers 
and marines in the combat theater, many units have left their equipment 
behind for follow-on units, and are returning with no equipment. 
Without equipment on which to train after de-mobilization, readiness 
will become an issue.
    The Army, Army Reserve, Army National Guard, Marines and Marine 
Forces Reserve need continued funding by Congress for equipment 
replacement.
Counter-measures to Improvised Explosive Devices
    A4AD would like to commend the committee for supporting enhanced 
countermeasures for air and ground troops now deployed. For ground 
troops, the biggest threat to safety continues to be the improvised 
explosive device or IED.
    Cost effective solutions that can provide an enhanced degree of 
safety do exist, however, in the form of electronic countermeasures. 
These devices work in one of two ways: either by pre-detonating an IED 
or by preventing the detonation through jamming of the signal. Officers 
returning from the field indicate the better choice is pre-detonation. 
Insurgents seem to be able to adapt to jamming technologies.
    Also, insurgents can overcome armored protection by increasing the 
explosive payload. With the right technology, it could be possible to 
detonate these weapons in the workshops.
    We encourage the committee to look at specifying additional funds 
for the purpose of researching, purchasing and deploying more 
electronic countermeasures for ground troops. In this way we can 
provide a greater degree of safety to all of the troops facing the IED 
threat, no matter what type of vehicle they may be operating.
    Continued emphasis is needed for the procurement of sufficient 
quantities of electronic countermeasures to protect personnel deployed 
in the battle space.
Aircraft Survivability Equipment
    Air crews face non-traditional threats used by non-conventional 
forces and deserve the best available warning and countermeasure 
equipment available to provide the greatest degree of safety possible. 
The majority of funds have been expended on fixed aircraft protection; 
approximately 75 percent of U.S. air losses have been rotary wing.
    A4AD hopes that the committee will continue to support the purchase 
and deployment of warning and countermeasures systems with an emphasis 
on rotary wing aircraft across all of the services and insure that the 
latest and most advanced versions of these protections are made 
available to all units now deployed or slated for deployment in the 
future--be they Active Duty, Guard or Reserve.
Maintaining the National Guard and Reserve Equipment List
    A single equipment appropriation for each service would not 
guarantee that the National Guard and Reserve Components would get any 
new equipment. The National Guard and Reserve Equipment Account (NGREA) 
is vital to ensuring that the Guard and Reserve has some funding to 
procure essential equipment that has not been funded by the services. 
Without congressional oversight, dollars intended for Guard and Reserve 
equipment might be redirected to Active Duty non-funded requirements. 
This will lead to decreased readiness.
    This move is reminiscent of the attempt by DOD to consolidate all 
pay and O&M accounts into one appropriation per service. Any action by 
the Pentagon to circumvent congressional oversight should be resisted.
    A4AD asks this committee to continue to provide appropriations 
against unfunded National Guard and Reserve equipment requirements. To 
appropriate funds to Guard and Reserve equipment would help emphasize 
that the Active Duty is exploring dead-ends by suggesting the transfer 
of Reserve equipment away from the Reservists.
Unfunded Equipment Requirements. (The services are not listed in 
        priority order.)

                        [In millions of dollars]
------------------------------------------------------------------------
                         Agency                               Amount
------------------------------------------------------------------------
Air Force:
    F/A-22 and F/35 Joint Strike Fighter................  ..............
    Accelerate C-17 and C-130J procurement..............  ..............
    Update Tanker Fleet.................................  ..............
    E-10 multi-sensor Command and Control Aircraft......  ..............
    Space Radar & Transformational Satellite (TSAT)       ..............
     system.............................................
Air Force Reserve:
    C-5A ADS............................................            11.8
    LAIRCM (Large Aircraft I/R Counter Measures)........           228.5
    F-16 ALR-69A........................................            18.8
    C-130 APN-241 Radar.................................            21.0
    MC-130E CARA/ETCAS..................................            14.6
Air Guard:
    Helmet Mounted Cueing System (HMCS).................           270.8
    A-10 SATCOM Radio...................................             6.3
    KC-135 Night Vision Compatibility Lighting..........            47.5
    C-130, C-5, C-17 LAIRCM/C-5 ADS.....................             656
    F-16, A-10, C-130, C-5 Simulators...................  ..............
Army:
    M88 Improved Recovery Vehicles......................           331.9
    C-47 Chinook Helicopters............................           331.5
    UH-60 Blackhawk replacement Helicopters.............              71
Army Reserve:
    Light Medium Tactical Vehicles [LMTV]...............             306
    Medium Tractors.....................................             304
    Night Vision systems................................  ..............
    Chemical/Bio/Radiological detection/alarm systems...              .8
    Medical Equipment...................................               3
Army Guard:
    High Mobility Multi-Purpose Wheeled Vehicle (HMHWV).           3,285
    Family of Medium Tactical Vehicles..................           4,582
    Single Channel Ground Air Radio Sys (SINCGARS                    222
     replaces VRC-12)...................................
    Small Arms..........................................              96
    Night Vision (AN/PVS-14/PAS-13).....................           1,439
Marine Corps:
    V-22 Osprey Aircraft in fiscal year 2007 (2)........             154
    (APN) KC-130J Aircraft Procurement (8)..............           678.7
    (PMC) High Mobility Artillery Rocket System (HIMARS)           170.7
    (PMC) M777A1 Lightweight 155MM Howitzer (LW 155)                12.4
     Program............................................
Reserve Marine Corps:
    (OMMCR)--Infantry Combat Equipment (ICE)--Reserves..            11.7
    Field Medical Equipment (FFME)......................             3.5
    Shelter and Tents (Command Post Large Tactical                   2.2
     Shelter)...........................................
    Shelters and Tents (Ultra Lightweight Camouflage Net             5.3
     System.............................................
    Individual First Aid Kit (IFAK).....................             3.5
    Infantry Combat Equipment (ICE).....................            11.7
    Portable Tent Lighting..............................             3.5
Navy:
    Improvised Explosives Device Countermeasure.........            16.8
    MH-60S/MH-60R procurement...........................             140
    Lease (3) commercial Scan Eagle (SHUAV) Systems.....            39.7
    Expeditionary Riverine Funding......................              20
    Accelerate (2) LCS..................................             520
Naval Reserve:
    Naval Coastal Warfare Table of Allowance Equipment..            24.3
    Explosive Ordnance Disposal Table of Allowance                   2.4
     Equipment..........................................
    NCF Tactical Vehicles and Support Equipment.........            30.1
    C-40 A Combo cargo/passenger Airlift................              76
------------------------------------------------------------------------

                               conclusion
    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense.
    Cuts in manpower and force structure, simultaneously in the Active 
and Reserve Component are concerns in that it can have a detrimental 
effect on surge and operational capability.
    This testimony is an overview, and expanded data on information 
within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Senator Inouye. The next witness will be Lieutenant General 
Dennis McCarthy.

STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            UNITED STATES MARINE CORPS (RETIRED), 
            EXECUTIVE DIRECTOR, RESERVE OFFICERS 
            ASSOCIATION OF THE UNITED STATES
    General McCarthy. Senator Inouye, thank you very much. And 
to the chairman and the members of the subcommittee, I 
appreciate the opportunity to give a brief statement.
    The magnificent contributions of over 500,000 members of 
the Reserve components have enabled our Nation to conduct the 
first extended war to be fought with an all volunteer force. 
When the concept of an all volunteer force was originated in 
the 1970s, it was considered primarily a peacetime solution. 
Most believed that an extended war would force the Nation to 
return to the draft. Instead, no draft has been necessary 
because the Reserve components have surged forward to augment 
and reinforce the Active component. In a very real sense, the 
Reserve components have saved the country from a draft.
    The Reserve component that surged in the past 5 years was 
not formed after September 11. It was formed in the 1990s based 
on the investments made by the Congress and by the dedication 
of its leaders, both Active and Reserve. The condition of the 
Reserve today is different than it was 5 years ago. In some 
ways, it is better. Almost every leader is a combat-tested 
veteran, and experience and confidence abound.
    In other ways, however, the condition is worse. Equipment 
has been destroyed, worn out, or left overseas. Financial 
resources are stressed. And although every defense leader has 
recognized the need to reset the force, my concern is that we 
are not putting sufficient resources toward resetting the 
Reserve force. I see a number of ominous signs.
    First, funding for Reserve training has been cut. Aviation 
units of several services are transferring aircraft from the 
Reserve component to the Active component, and decommissioning 
or putting into cadre status squadrons that flew just recently 
in combat. There is a widespread lack of equipment needed for 
homeland security and consequence management; primarily, 
engineering and vehicles. And there continues to be a serious 
lack of interoperable communications equipment.
    The rationale for these conditions is that current 
operations must be funded first, and that maybe the Reserve 
should just take a few years off and rest up. I believe that 
approach is fatally flawed. The caliber of young men and women 
that we have today are not going to sit around empty training 
centers and twiddle their thumbs because they do not have the 
equipment or funds to train. If the country is not interested 
in funding them, they will find other things to do.
    History teaches a valuable lesson. At the end of the Korean 
War, just about everybody in the Guard and Reserve was a combat 
veteran. And the units were probably at the high water mark of 
their combat capability. Ten or so years later, in the 1960s, 
those same units were in very poor shape. The country lacked 
confidence in them, called them ``weekend warriors,'' and used 
the draft to fill out the Active force.
    If we do not reset the Reserve force starting now, we will 
begin the trip down the same road. The next time the Nation 
needs its Guard and Reserve, whether at home or abroad, will 
they be the combat-capable citizen warriors of 2006, or will 
they be the next generation of weekend warriors? Put another 
way, will the Reserves be as ready for the next crisis as they 
were for this one? If they are not, is the Nation ready for a 
draft?
    These are tough questions, and I understand the competing 
priorities. I thank you and the subcommittee for your 
willingness to take action on them. Thank you, sir.
    Senator Inouye. Thank you, General McCarthy. And I can 
assure you that my colleagues and I are very sensitive to the 
questions you just raised.
    General McCarthy. Thank you, sir. We know you are.
    [The statement follows:]

                Prepared Statement of Dennis M. McCarthy

    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.'' The mission of ROA is to advocate strong Reserve 
Components and national security, and to support Reserve officers in 
their military and civilian lives.
    The association's 75,000 members include Reserve and Guard 
soldiers, sailors, marines, airmen, and coast guardsmen who frequently 
serve on active duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security. ROA is represented in each 
State with 55 departments plus departments in Latin America, the 
District of Columbia, Europe, the Far East, and Puerto Rico. Each 
department has several chapters throughout the State. ROA has more than 
450 chapters worldwide.
    ROA is a member of The Military Coalition where it co-chairs the 
Tax and Social Security Committee. ROA is also a member of the National 
Military/Veterans Alliance. Overall, ROA works with 75 military, 
veterans and family support organizations.

                             ROA PRIORITIES

    The Reserve Officers Association calendar year 2006 legislative 
priorities are:
  --Full funding of equipment and training requirements for the 
        National Guard and Reserves.
  --Providing adequate resource and authorities to support the current 
        recruiting and retention requirements of the National Guard and 
        Reserves.
Issues To Help Fund, Equip, and Train
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and 2 weeks training for each selected Reservist in every 
service.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation and 
operational support.
    Regenerate the Reserve Components (RC) with current field, combat, 
and communication compatible equipment.
    Keep Active and Reserve personnel and Operation and Maintenance 
funding separate.
    Equip Reserve Component members with equivalent personal protection 
as Active Component Forces.
Issues To Assist Recruiting and Retention
    Support incentives for affiliation, reenlistment, retention and 
continuation in the RC. Allow RC bonus payments through 20 years of 
service.
            Pay and Compensation
    Differential pay for federal employees.
    Professional pay for RC medical professionals.
    Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and 
Hazardous Duty Incentive Pay.
            Education
    Increase MGIB-Selected Reserve to 47 percent of MGIB-Active.
            Health Care
    Expand the 28 percent co-payment to TRICARE Reserve Select to 
unemployed and uninsured Ready Reservists.
    Extend military coverage for restorative dental care for up to 180 
days following deployment.
            Spouse Support
    Repeal the SBP-Dependency Indemnity Clause (DIC) offset.
    ROA's goals come from our members as they identify problems or 
suggest improvements to the situations they encounter. Since we are not 
in the Department of Defense's chain of command we provide a source for 
candid discourse without fear of retaliation. ROA will continue to 
support the troops in the field in any way we can.
      national guard and reserve equipment and personnel accounts
Resetting the Force
    Resetting or reconstitution of the force is the process to restore 
people, aircraft and equipment to a high state of readiness following a 
period of higher-than-normal, or surge, operations. The purpose of 
force reconstitution is to restore optimum combat power.
    Operations Iraqi Freedom and Enduring Freedom are consuming the 
force's equipment. Wear and tear is at a rate many times higher then 
planned. Battle damage expends additional resources. Factors affecting 
equipment availability:
  --Equipment Left in Theater.--Leaving equipment behind for follow is 
        practical. Yet, it also affects the returning units from which 
        the equipment was the original allowance. Future training is 
        downgraded, directly affecting readiness.
  --Repair.--Encompasses cost of parts, stand-down of assets while 
        waiting for parts, scheduling backlogs for added contingency 
        equipment into a normal repair cycle. This may require hiring 
        additional personnel to reduce scheduling overloads.
  --Depot Level Maintenance.--Factors in delayed scheduled maintenance 
        resulting in aircraft and equipment being in violation of 
        maintenance requirements during engagements.
  --Cannibalization.--Can be commonplace as units strip essential parts 
        and components from already ``broken'' equipment in order to 
        spare parts. This practice can lead to equipment loss.
  --Replace.--Loss of inventory that can't be salvaged and must be 
        replaced must be considered as part of the reconstitution 
        effort.
Personnel
    Training.--When Reserve Component personnel participate in an 
operation they are focused on the needs of the particular mission, 
which may not include everything required to maintain qualification 
status in their military occupation specialty (MOS, AFSC, NEC).
    There are many different aspects of training that are affected.
  --Skills that must be refreshed for specialty.
  --Training needed for upgrade but delayed.
  --Ancillary training missed.
  --Professional military education needed to stay competitive.
  --Professional continuing education requirements for single-managed 
        career fields and other certified or licensed specialties 
        required annually.
  --Graduate education in business related areas to address force 
        transformation and induce officer retention.
    Loss.--There are particular challenges that occur to the force when 
a loss occurs during a mobilization or operation and depending on the 
specialty this can be a particularly critical requirement that must be 
met.
  --Recruiting may require particular attention to enticing certain 
        specialties or skills to fill critical billets.
  --Minimum levels of training (84 days basic, plus specialty 
        training).
  --Retraining may be required due to force leveling as emphasis is 
        shifted within the service to meet emerging requirements.
End Strength
    The ROA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. ROA urges this subcommittee to fund to last 
year's levels.
    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. The 
Commission on National Guard and Reserve will be examining Reserve 
Force Structure, and will make recommendations as to size in its report 
to the Congress in March 2007.
    As Congress maintained the Army Guard strengths, it is essential 
that the end strength of the Army Reserve should not be cut either. We 
urge you to fund the USAR at 205,000.
    To meet the challenge of changes in end strength, the AF Reserve 
Command has prioritized all of its unit and IMA personnel positions. 
Until recommendations are made by the Commission on the Guard and 
Reserve, end strength should not be changed.
    The Navy's Reserve has been cut over 18 percent in the last 5 years 
and by half in the last 15 years. We need to pause to permit force 
planning and strategy to catch-up with budget reductions.
Readiness
    Readiness is a product of many factors, including the quality of 
officers and enlisted, full staffing, extensive training and exercises, 
well-maintained weapons and authorized equipment, efficient procedures, 
and the capacity to operate at a fast tempo. The pace of wartime 
operations has a major impact on service members.
    The Defense Department does not attempt to keep all active units at 
the C-1 level. The risk is without resetting the force returning Active 
and Reserve units will be C-4 or lower because of missing equipment, 
and without authorized equipment their training levels will 
deteriorate.

                         NONFUNDED ARMY RESERVE

    Funding must be increased across the board for the Department of 
Defense. Shortfalls are especially glaring relative to the Army and the 
Army RC components of the Reserve and Guard. We urge substantial 
increases in funding for all these Army entities.
    If the USAR is to be an operational force in a high OPTEMPO then an 
investment must be made. The AR will have a deficit of over $632 
million for fiscal year 2007 in its Personnel ($446 million) and 
Operations and Maintenance ($186 million) accounts.
    The AR is projecting a long-term shortfall of nearly 5,000 company 
grade officers, yet its budget for the Army Reserve Basic Officer 
Course, which trains both new officers entering the Army Reserve and 
the Army National Guard, is funded for about 850 of the 2,300 AR and 
ARNG officers programmed for attendance. Similar major shortfalls will 
occur in recruiting and retention incentives ($322 million), 
sustainment training ($41 million), tuition assistance ($20 million), 
and in a variety of programs related to recruiter support ($14 
million), family ($9 million), marketing program ($11 million) and 
chaplain support ($8 million), and other areas as well.
New Usar Equipment Strategy--How It Works
    The Army Reserve has developed a new strategy to make the most 
effective and efficient use of its equipment. The new strategy supports 
the Army Force Generation and the Army Reserve Expeditionary Force 
(AREF) management systems. It ensures the best available equipment is 
provided to Army Reserve soldiers where and when they need it, as they 
move through the pre-mobilization training phase of the AREF cycle 
toward mobilization and deployment.
    Individual equipment, such as weapons and masks, will be maintained 
at unit stations, with enough of a unit's major items--trucks, 
forklifts, etc.--to allow for effective training and to support 
homeland defense requirements.
    In the new model, units will be moved to the equipment located at 
the training sites, rather than moving equipment to the units. Creating 
centrally located equipment pools to support directed and focused 
training, will enable the Army Reserve to yield efficiencies in 
resourcing and maintaining its equipment.
                   ARMY RESERVE EQUIPMENT PRIORITIES

                        [In millions of dollars]
------------------------------------------------------------------------
                        Equipment                             Amount
------------------------------------------------------------------------
Procurement of equipment to support modularity:
    Light-medium trucks (25 percent compatibility)......             306
    Medium tractors (50 percent compatibility)..........             305
    Night vision systems................................  ..............
    Chemical/biological/radiological detection/alarm                   8
     systems............................................
    Medical Equipment...................................               3
Sustainment:
    Sustainment of depot maintenance levels.............  ..............
    Recapitalization of tactical truck inventory........  ..............
    Army Reserve tactical maintenance contract labor to   ..............
     reduce mobilization and training equipment backlogs
------------------------------------------------------------------------

                 AIR FORCE RESERVE EQUIPMENT PRIORITIES

    ROA continues to support military aircraft Multi-Year Procurement 
(MYP) for more C-17s and more C-130Js for USAF. The Air Force Reserve 
(AFR) is working to continue as an interoperable member of the Total 
Air Force to support mission requirements of the joint warfighter. To 
achieve interoperability in the future, the Air Force Reserve top five 
priorities for ``Other Equipment'' are:
C-5A Airlift Defensive System (ADS)--$11,800,000
    Install ADS systems onto AFRC C-5As at Lackland and Wright-
Patterson AFBs where current aircraft do not have defense systems 
against IR threats.
Large Aircraft Infrared Countermeasures (LAIRCM)--$228,500,000
    Program of record for Mobility Air Forces (MAF) aircraft. The 
system increases crew-warning time, decreases false alarm rates and 
automatically counters advanced infrared missile systems. The missile 
warning subsystem will use multiple sensors to provide full spatial 
coverage for C-5B, C-17, C-130 H2/H3/J and HC-130s.
Advanced Threat Warning/Targeting System (ALR-69A-V) for F-16B30/32--
        $18,800,000
    Program of record for MAF and Air Force Special Operations Forces. 
The world's first all-digital radar warning receiver (RWR), the ALR-
69A(V) features capabilities previously unattainable in a tactical RWR: 
suppression of enemy air defenses, easy cross-platform integration, and 
enhanced spectral and spatial coverage for high-sensitivity detection 
in dense signal environments.
Low Power Color Radar (AN/APN-241) for C-130--$21,000,000
    Program of record for C-130 Avionics Modernization Program. Radar 
capabilities include high-resolution ground mapping that enables 
accurate low-level navigation and precision aerial drops.
Enhanced Traffic Alert and Collision Avoidance System (ETCAS) for MC-
        130--$14,600,000
    Install ETCAS (APN-241) all weather, color radar on MC-130s.

                   NAVY RESERVE EQUIPMENT PRIORITIES

Naval Coastal Warfare Table of Allowance Equipment--$24,300,000
    Replacements of over-aged and unreliable tactical vehicles, CSCE 
and communications equipment are needed to improve operational support 
of Combatant Commanders.
Explosive Ordnance Disposal Table of Allowance Equipment--$2,400,000
    Explosive Ordnance Disposal (EOD) Reserve personnel require dive 
and protective gear, up-armored vehicles, boats and communications gear 
to improve operational support of Combatant Commanders.
NCF Tactical Vehicles and Support Equipment--$30,100,000
    Tactical vehicles, CESE and communications equipment are needed to 
improve operational support of Combatant Commanders.
C-40 A Combo cargo/passenger Airlift--$75,000,000
    The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
Aircraft. This aircraft was designated as the C-40A and will replace 
the aging C-9 fleet. The maximum range for the C-40A is approximately 
1,500 miles more than the C-9.
    The C-40A, a derivative of the 737-700C is a Federal Aviation 
Administration (FAA) certified, high performance, fixed wing aircraft 
that will accommodate 121 passengers, or eight pallets of cargo (40,000 
lbs), or a combination configuration consisting of 3 pallets and 70 
passengers. The Navy's aging C-9 fleet is not compliant with either 
future global navigation requirements or noise abatement standards that 
restrict flights into European airfields. Twenty-two aircraft remain to 
be replaced.

               MARINE CORPS RESERVE EQUIPMENT PRIORITIES

                        [In millions of dollars]
------------------------------------------------------------------------
                        Equipment                             Amount
------------------------------------------------------------------------
Field Medical Equipment (FFME)..........................             3.5
Shelter and Tents (Command Post Large Tactical Shelter).             2.2
Shelters and Tents (Ultra Lightweight Camouflage Net                 5.3
 System)................................................
Individual First Aid Kit (IFAK).........................             3.5
Infantry Combat Equipment (ICE).........................            11.7
Portable Tent Lighting..................................             3.5
------------------------------------------------------------------------

             NATIONAL GUARD AND RESERVE EQUIPMENT ALLOWANCE

    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state for mobilization.
    With the war, the Reserve and Guard are faced with mounting 
challenges on how to replace worn out equipment, equipment lost due to 
combat operations, legacy equipment that is becoming irrelevant or 
obsolete, and in general replacing that which is gone or aging through 
normal wear and tear. In the past, the use of ``cascading'' equipment 
from the Active Component to the Reserve Component has been a reliable 
source of serviceable equipment. However, with the changes in roles and 
missions that have placed a preponderance of combat support and combat 
service support in the reserve components, there has not been much left 
to cascade. Funding levels, rising costs, lack of replacement parts for 
older equipment, etc. has made it difficult for the Reserve Components 
to maintain their aging equipment, not to mention modernizing and 
recapitalizing to support a viable legacy force. The Reserve Components 
would benefit greatly from a National Military Resource Strategy that 
includes a National Guard and Reserve Equipment Appropriation.
    To optimize the readiness of the Guard and Reserve it is also 
imperative to maintain separate Reserve funds from the Active duty.
Recruiting and Retention
    The Reserve Officers Association would like to thank this committee 
for it support with funding recruiting and reenlistment bonuses for 
both the Active and Reserve.
            Army Reserve
    As combat operations in Iraq and Afghanistan become ``stability'' 
operations, it is expected that the Army Reserve and National Guard 
will make up 50 percent or more of the force. Both the Active Component 
and the Reserve Component will move to a rotational plan that will 
provide both predictability and stability for soldiers. Recruiting and 
retention bonuses are helping meet these requirements. The Army Reserve 
needs to fully fund their bonus program with $332 million and increase 
AGR recruiter positions with funding to $59.1 million.
            Navy Reserve
    In March, the Navy Reserve recruited 757 sailors, 87 percent of its 
goal. While the Navy's Reserve is downsizing to reach the new end-
strengths set by Congress of 73,100 from 83,400. There still remains a 
need to recruit. The enlistment bonus program supports the Navy's 
emerging human capital strategy. It enables the Navy to enlist 
personnel with the right skill and education mix to meet the needs of 
the force.
            Air Force Reserve
    In a 10-year period the Air Force Reserve went from accessing 
50,507 prior service members in 1992 to 14,950 in 2005. This has meant 
increased funding of $20.4 million for recruiting of non-prior service 
personnel to meet recruitment quotas.
    It can take from 1 to 2 years before an individual can perform 
military duty somewhat independently. Each year for the past 5 years, 
AF Reserve has enhanced its advertising effort due to the need to 
compete in the demographic pool with the Active and National Guard 
recruiters. The recruiting competition will be stiffer and the 
advertising dollar will produce less results.
    ROA recommends supporting bonus incentives and reverse cost 
avoidance reduction trends that cut the reserve personnel and 
technician accounts.

                       CIOR/CIOMR FUNDING REQUEST

    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and its affiliate organization, The Interallied 
Confederation of Medical Reserve Officers (CIOMR) was founded in 1947. 
The organization is a nonpolitical, independent confederation of 
national reserve associations of the signatory countries of the North 
Atlantic Treaty (NATO). Presently there are 16 member delegations 
representing over 800,000 reserve officers.
    CIOR is recognized as the representative of NATO's Reserve Forces, 
formalized in 1976. An International Staff Liaison Officer is 
designated and has, on behalf of the NATO Secretary General, 
responsibility for formal contacts between NATO and CIOR and for 
providing political advice. A Reserve Affairs Advisor has been 
appointed at Supreme Headquarters Allied Powers Europe (SHAPE). This 
officer's principle duties include liaison with CIOR for Allied Command 
Europe (ACE).
    CIOR supports four programs to improve professional development and 
international understanding.
    Military Competition.--The CIOR Military Competition is a strenuous 
3 day contest on warfighting skills among Reserve Officers teams from 
member countries. These contests emphasize combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body, operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French at proficiency levels 1, 2 and 3 as specified by NATO 
Military Agency for Standardization. The Language Academy affords 
national junior officer members the opportunity to become fluent in 
English as a second language.
    Partnership for Peace (PfP).--Established by CIOR Executive 
Committee in 1994 with the focus of assisting NATO PfP nations with the 
development of reserve officer and enlisted organizations according to 
democratic principles. CIOR's PfP Committee, fully supports the 
development of civil-military relationships and respect for democratic 
ideals within PfP nations. CIOR PfP Committee also assists in the 
invitation process to participating countries in the Military 
Competition.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops and individual countries help fund 
the events. The Department of the Army as Executive Agent hasn't been 
funding these programs.

                             ROA LAW CENTER

    It was suggested that ROA could incorporate some federal military 
offices, such as recruiting offices, into the newly remodeled ROA 
Minuteman Memorial building. ROA would be willing to work with this 
committee on any suggestion.
    The Reserve Officers Association's recommendation would be to 
develop a Servicemembers Law Center, advising Active and Reserve 
servicemembers who have been subject to legal problems that occur 
during deployment.
    A legal center would help encourage new members to join the Active, 
Guard and Reserve components by providing a non-affiliation service to 
educate prior service about USERRA and Servicemember Civil Relief Act 
(SCRA) protections, and other legal issues. It would help retention as 
a member of the staff could work with Active and Reserve Component 
members to counsel those who are preparing to deploy, deployed or 
recently deployed members facing legal problems.
    The Legal Center could advise, refer by providing names of 
attorneys who work related legal issues and amicus curiae briefs, 
encourage law firms to represent service members, and educate and 
training lawyers, especially active and reserve judge advocates on 
servicemember protection cases. The center could also be a resource to 
Congress.
    ROA would set-aside office spaces. ROA's Defense Education Fund 
would hire an initial staff of one lawyer, and one administrative law 
clerk to man the Servicemembers Law Center to counsel individuals and 
their legal representatives.
    Anticipated startup cost, first year: $750,000.

                               CONCLUSION

    DOD is in the middle of executing a war and operations in Iraq are 
directly associated with this effort. The impact of the war is 
affecting the very nature of the Guard and Reserve, not just the 
execution of roles and missions. Without adequate funding, the Guard 
and Reserve may be viewed as a source to provide fund to the Active 
Component. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects about 3.8 percent 
of GDP. ROA has a resolution urging that defense spending should be 5 
percent to cover both the war and homeland security. While these are 
big dollars, the President and Congress must understand that this type 
of investment is what it will take to equip, train and maintain an all-
volunteer force for adequate national security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Senator Inouye. Our next witness is Dr. Gene E. Feigel, 
President of the American Society of Mechanical Engineers. 
Welcome, doctor.
    Dr. Feigel. Thank you.

STATEMENT OF GENE E. FEIGEL, Ph.D., PRESIDENT, AMERICAN 
            SOCIETY OF MECHANICAL ENGINEERS (ASME)
    Dr. Feigel. Good morning, Mr. Chairman. My name is Gene 
Feigel. I'm President of ASME, a 120,000 member professional 
organization focused on technical, educational, and research 
issues of importance to the engineering community.
    Engineers are a major portion of this Nation's technology 
base, a base that is essential for our defense and our economic 
vitality. We appreciate the opportunity to present our views on 
the DOD's science and technology programs, the S&T programs, 
which include basic and applied research, and advanced 
technology development programs at DOD.
    I want to specifically thank this subcommittee and 
especially you, Mr. Chairman, for the past and ongoing support 
you've shown for the defense S&T programs.
    The President's fiscal year 2007 budget request for defense 
S&T is $11 billion, which is $2 billion less than the fiscal 
2006 appropriated amount of $13 billion, representing a steep 
16 percent reduction.
    The 2001 Quadrennial Defense Review (QDR), the Defense 
Science Board, as well as senior Defense Department officials 
and commanders from the Air Force, Army, and Navy, have voiced 
strong support for the future allocation of at least 3 percent 
of the overall DOD budget for S&T programs. The fiscal 2007 
request if implemented would represent a significantly reduced 
investment in defense S&T.
    We strongly urge this subcommittee to consider additional 
resources to maintain at least stable funding in the S&T 
funding portion of the DOD budget. At a minimum, $13.2 billion, 
or approximately $2.1 billion above the President's request, is 
required to meet the 3 percent of total obligation authority 
guideline set in the 2001 QDR, and is also supported by many 
members of Congress.
    We also urge this subcommittee to support the university 
research initiative by restoring funds for the program to the 
fiscal 2006 level of $272 million for the forthcoming budget. A 
recent study by the National Academy of Sciences entitled, 
``Rising Above the Gathering Storm; Energizing and Employing 
America for a Brighter Economic Future,'' evaluated the 
position of the United States in several critical measures of 
technology, education, innovation, and high-skilled workforce 
development. While the report indicated that the United States 
maintains a slight lead in research and discovery, the academy 
committee observed that it is, quotes, ``deeply concerned that 
the scientific and technological building blocks critical to 
our economic leadership are eroding at a time when many other 
nations are gaining strength.''
    Proper attention should be given to the vital role that DOD 
S&T programs play in meeting this challenge. Study after study 
has linked over 50 percent of our economic growth over the past 
50 years to technological innovation. The ``Gathering Storm'' 
report places special emphasis on information sciences and 
basic research conducted by the DOD, because of its large 
influence on technological innovation and workforce 
development.
    The DOD funds 40 percent of all engineering research 
performed at our universities. The technological superiority of 
our young men and women in the services and in the campaigns 
waged in Afghanistan and Iraq is a direct result of investments 
made in S&T several decades ago.
    Moreover, this research is truly dual-use. As well as 
directly being critical to national security, it is critical to 
educating new generations of scientists and engineers.
    Thank you for the opportunity to present our views on this 
very important subject.
    Senator Inouye. Thank you very much, Dr. Feigel.
    [The statement follows:]

              Prepared Statement of Gene E. Feigel, Ph.D.

                              INTRODUCTION

    Greetings Mr. Chairman, ranking member, and Members of the 
committee. My name is Gene Feigel and I am honored to be here as the 
President of the American Society of Mechanical Engineers (ASME) to 
share our perspectives on the fiscal year 2007 budget request for the 
Research, Development, Test and Evaluation (RDT&E) and the Science and 
Technology (S&T) portion of the Department of Defense budget request.
    With 120,000 members, ASME is a worldwide engineering society 
focused on technical, educational and research issues. It conducts one 
of the world's largest technical publishing operations, holds 
approximately 30 technical conferences and 200 professional development 
courses each year, and sets many industry and manufacturing standards. 
This testimony represents the considered judgment of experts from 
universities, industry, and members from the engineering and scientific 
community who contribute their time and expertise to evaluate the 
budgets requests and legislative initiatives the DOD sends to Congress.
    Our testimony addresses three (3) primary funding areas: overall 
Engineering (RDT&E); Science and Technology (S&T); and the University 
Research Initiative (URI). Our testimony also outlines the consequences 
of inadequate funding for defense research. These include a degraded 
competitive position in developing advanced military technology versus 
potential peer competitors, which could harm the United States' global 
economic and military leadership.
    The fiscal year 2007 request, if implemented, would represent a 
significantly reduced investment in Defense S&T. We strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $13.2 billion, or 
about $2.1 billion above the President's request is required to meet 
the 3 percent of Total Obligational Authority (TOA) guideline set in 
the 2001 Quadrennial Defense Review and by Congress.

                         DOD REQUEST FOR RDT&E

    The administration requested $73.156 billion for the Research, 
Development, Test and Evaluation (RDT&E) portion of the fiscal year 
2007 DOD budget. These resources are used mostly for developing, 
demonstrating, and testing weapon systems, such as fighter aircraft, 
satellites, and warships. This amount represents growth from last 
year's appropriated amount of $71.046 billion of about 3.0 percent. 
Therefore, when adjusted for inflation, this represents a reduction of 
about 0.8 percent in real terms. Funds for Operational Test and 
Evaluation (OT&E) function remain low, where the proposed funding of 
$182 million is little more than half of the 2005 appropriated amount 
of $310 million. The OT&E organization and the testing it conducts was 
mandated by Congress, and is intended to insure that weapon systems are 
thoroughly tested so that they are effective and safe for our troops.
    While this testimony focuses on the fiscal year 2007 budget, the 
task force notes that the last multi-year spending plan from 2006, as 
provided in the Future Years Defense Program (FYDP), generally shows 
reduced spending in RDT&E accounts over the next 5 years, with spending 
in fiscal year 2011 being just $59.7 billion, or a 18.4 percent 
reduction from current levels. This reduced spending in R&D is 
inconsistent with the goal of developing new systems with advanced 
capabilities that support military transformation.

                 DOD REQUEST FOR SCIENCE AND TECHNOLOGY

    The fiscal year 2007 budget request for Defense Science and 
Technology (S&T) is $11.083 billion, which is $2.11 billion less than 
the fiscal year 2006 appropriated amount of $13.191 and represents a 16 
percent reduction. The S&T portion of overall DOD spending of $439 
billion would remain at 2.5 percent. The 2001 Quadrennial Defense 
Review (QDR), the Defense Science Board (DSB), as well as senior 
Defense Department officials and commanders from the Air Force, Army, 
and Navy have voiced strong support for the future allocation of at 
least three (3) percent for S&T programs. Clearly, this budget request 
is inadequate to meet the country's need for robust S&T funding.
    A relatively small fraction of the RDT&E budget is allocated for 
S&T programs. While the fiscal year 2007 S&T request represents only 
about 15 percent of the RDT&E total, these accounts support all of the 
new knowledge creation, invention and technology developments for the 
military. Funds for Basic Research (6.1), Applied Research (6.2), and 
Advanced Technology Development (6.3) and all categories are programmed 
for significant funding reductions.
    Basic Research (6.1) accounts would decrease from $1.47 billion to 
$1.43 billion, a 2.7 percent decline. While basic research accounts 
comprise only a small percentage over all RDT&E funds, the programs 
that these accounts support are critically important to fundamental, 
scientific advances and for maintaining a highly skilled science and 
engineering workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 States. Almost all of the current high-technology weapon 
systems, from laser-guided, precision weapons, to the global 
positioning satellite (GPS) system, have their origin in fundamental 
discoveries generated in these basic research programs. Proper 
investments in basic research are needed now, so that the fundamental 
scientific results will be available to create innovative solutions for 
future defense challenges. In addition, many of the technical leaders 
in corporations and government laboratories that are developing current 
weapon systems, such as the F-22 and Joint Strike Fighter, were 
educated under basic research programs funded by DOD. Failure to invest 
sufficient resources in basic, defense-oriented research will reduce 
innovation and weaken the future scientific and engineering workforce. 
The Task Force recommends that Basic Research (6.1) be funded at a 
minimum level of $1.7 billion.
    Applied Research (6.2) would be reduced from $5.17 billion to $4.48 
billion, a 13 percent reduction. The programs supported by these 
accounts apply basic scientific knowledge, often phenomena discovered 
under the basic research programs, to important defense needs. Applied 
research programs may involve laboratory proof-of-concept and are 
generally conducted at universities, government laboratories, or by 
small businesses. Many of the successful demonstrations led to the 
creation of small companies, like the Small Business Innovative 
Research (SBIR) programs. Some devices created in these defense 
technology programs have dual use, such as GPS, and the commercial 
market far exceeds the defense market. However, without initial support 
by Defense Applied Research funds, many of these companies would not 
exist. Failure to properly invest in applied research would prevent 
stifle a key source of technological development and stunt the creation 
and growth of small entrepreneurial companies.
    The largest reduction would occur in Advanced Technology 
Development (6.3), which would experience a 21.5 percent decline, from 
$6.603 billion to $5.183 billion. These resources support programs that 
ready technology to be transitioned into weapon systems. Without the 
real system level demonstrations funded by these accounts, companies 
are reluctant to incorporate new technologies into weapon systems 
programs.
    The individual service's S&T accounts reflect the general trend of 
large reductions described above. However the largest reductions are in 
the Army's accounts, where Basic Research would be cut by 16.2 percent, 
Applied Research by 45.2 percent, and Advanced Technology Development 
by 48.0 percent. The only major S&T components with increases are 
``Defense-Wide'' Basic Research (6.1) and Applied Research (6.2) where 
9.1 percent and 6.5 percent increases are proposed respectively. We 
strongly support these increases, especially the 10.6 percent boost in 
the Defense Advanced Research Project Agency (DARPA) to $3.3 billion.

        DOD REQUEST FOR THE UNIVERSITY RESEARCH INITIATIVE (URI)

    The University Research Initiative (URI) supports graduate 
education in Mathematics, Science, and Engineering and would see a $23 
million decrease from $272 million to $249 million in fiscal year 2007 
next year, a 3.2 percent reduction. Sufficient funding for the URI is 
critical to educating the next generation of engineers and scientist 
for the defense industry. Since the URI programs were devolved, the 
services have not given a high priority to these programs. A lag in 
program funds will have a serious long-term negative consequence on our 
ability to develop a highly skilled scientific and engineering 
workforce to build weapons systems for years to come. While DOD has 
enormous current commitments, these pressing needs should not be 
allowed to squeeze out the small but very important investments 
required to create the next generation of highly skilled technical 
workers for the American defense industry. This would be shortsighted.

       REDUCED S&T FUNDING THREATENS AMERICA'S NATIONAL SECURITY

    Since World War II the United States has led the world in science, 
innovation, and defense technology. However, this lead is quickly 
eroding and within the next few years may be substantially reduced or 
may completely evaporate in some areas. A recent study performed by the 
National Academy of Sciences, entitled ``Rising Above the Gathering 
Storm: Energy and Employing America for a Brighter Economic Future,'' 
evaluated the position of the United States in several critical 
measures of technology, education, innovation, and high skilled 
workforce development. While the report indicated that the U.S. 
maintains a slight lead in research and discovery, the committee states 
that it is ``deeply concerned that the scientific and technological 
building blocks critical to our economic leadership are eroding at a 
time when many other nations are gaining strength.'' Proper attention 
should be given to the vital role that DOD S&T programs play in meeting 
this challenge.
    S&T have played a historic role in creating an innovative economy 
and a highly skilled workforce. Study after study has linked over 50 
percent of our economic growth over the past 50 years to technological 
innovation. The ``Gathering Storm'' report places a ``special emphasis 
on information sciences and basic research'' conducted by the DOD 
because of large influence on technological innovation and workforce 
development. The DOD, for example, funds 40 percent of all engineering 
research performed at our universities. U.S. economic leadership 
depends on the S&T programs that support the Nation's defense base, 
promote technological superiority in weapons systems, and educate new 
generations of sciences and engineers.
    Prudent investments also directly affect U.S. national security. 
There is a general belief among defense strategist that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense. Many Members of 
Congress also hold this view. A number of disconcerting trends, such as 
outsourcing of engineering activities and low participation of U.S. 
students in science and engineering, threaten to create a critical 
shortage of the native, skilled, scientific and engineering work force 
is required. Programs that boost the available number of highly 
educated workers who reside in the United States are important to stem 
our growing reliance on foreign nations, including potentially hostile 
ones, to fill the ranks of our defense industries and to ensure that we 
continue to produce the innovative, effective defense systems of the 
future.

                            RECOMMENDATIONS

    In conclusion, we thank the subcommittee for its ongoing support of 
Defense S&T. This committee appreciates the difficult choices that 
Congress must make in this tight budgetary environment. We believe, 
however, that there are critical shortages in the DOD S&T areas, 
particularly in those that support in basic research and technical 
education that are critical to U.S. military and economic leadership.
    The Task Force recommends the following:
  --We urge this subcommittee to support an appropriation of $13.2 
        billion for S&T programs, which is 3 percent of the overall 
        fiscal year 2007 DOD budget. This request is consistent with 
        recommendations contained in the 2001 Quadrennial Defense 
        Review and made by the Defense Science Board (DSB), as well as 
        senior Defense Department officials and commanders from the Air 
        Force, Army, and Navy, who have voiced support for the future 
        allocation of 3 percent as a worthy benchmark for science and 
        technology programs.
  --We also recommend that the subcommittee support the University 
        Research Initiative by restoring funds for the program to the 
        fiscal year 2006 level of $272 million to the URI program for 
        fiscal year 2007. A strong investment in advanced technical 
        education will allow the Nation's armed services to draw from a 
        large pool of highly-skilled, native-born workers for its 
        science and engineering endeavors.
    ASME International is a non-profit technical and educational 
organization with 125,000 members worldwide. The Society's members work 
in all sectors of the economy, including industry, academic, and 
government. This statement represents the views of the ASME Department 
of Defense Task Force of ASME's Technical Communities and is not 
necessarily a position of ASME as a whole.

    Senator Inouye. Our next witness is Command Chief Master 
Sergeant Mark H. Olanoff, United States Air Force, retired, 
representing the Armed Forces Top Enlisted Association.

STATEMENT OF COMMAND CHIEF MASTER SERGEANT MARK H. 
            OLANOFF, UNITED STATES AIR FORCE (RETIRED), 
            ON BEHALF OF THE ARMED FORCES TOP ENLISTED 
            ASSOCIATION
    Sergeant Olanoff. Good morning, Senator Inouye.
    Senator Inouye. Good morning, sir.
    Sergeant Olanoff. It is nice to see you again. Thank you 
for everything that you've done for us in the past. And we know 
sometimes that we are preaching to the choir to you and Senator 
Stevens, because you've both done so much for us. I know time 
is short. There were comments earlier about the issues that we 
have to deal with--with the authorization committee, and we 
realize that, and you know that we brought up the issues here 
to you about the survivor benefits and the increases in 
retirement pay, the TRICARE problems, and those things.
    But there is one thing from a standpoint of appropriations 
that I think that is interesting. I've put it in my full 
statement, but I want to read you a portion of what the 
Government Accountability Office (GAO) said about ways to 
increase collections for health care for DOD, which is very 
similar to what the Department of Veterans Affairs can do. GAO 
says that: ``DOD's failure to effectively bill and collect from 
third-party insurers in effect reduces the amount third-party 
private sector insurance companies must pay out in benefits and 
unnecessarily add to DOD's increasing health care budget 
financed by taxpayers. While DOD has limited control over the 
burgeoning cost of providing health care benefits to DOD 
retirees and their dependents, and active duty dependents, DOD 
has an opportunity to offset the impact of its rising health 
care costs by collecting amounts due from its third-party 
collection program.''
    Now you know, Senator, that the Defense Department has 
proposed that military retirees pay more, and both the House 
and the Senate have rejected that. However, they haven't put 
the funding back into place, and it is about $735 million that 
needs to be funded.
    But overall, there is an imbalance between the 
discretionary funding and the mandatory funding; the 
operational cost and the personnel cost. And many of us have 
come before you over the years here, many of the associations, 
to bring this up. And we realize that although the 
authorization committees have to do things, we bring these 
things to your attention because many of us get to come here, 
and unfortunately the Armed Services Committee hearings are 
very limited. So we ask you to fully fund health care, and to 
look at all these other programs that we talk about in our 
statements, although we realize that the authorization 
committees have to do some things.
    The last issue I want to talk about is the Reserve 
component. You just heard a little bit of testimony about that. 
In the President's budget, he has asked to cut the Reserve 
components by 22,800 people, specifically the Army National 
Guard by 17,100. And as someone who's very familiar with the 
Guard and Reserve, I find it very unbelievable that the 
Secretary of Defense and others come before these committees 
and ask you, and explain to you that the Guard and Reserve need 
to do more, but now we want to propose cuts in their manning. 
It just doesn't make a whole lot of sense.
    And as you know, the National Guard is going to be 
supporting a mission to go to the border. And although the 
Secretary of Defense testified to you last week and said that 
most of that is going to be done through annual training tours, 
that can only be sustained for a very limited period of time.
    So I realize time is short, and I have provided detailed 
explanation in my written statement, and hopefully the 
subcommittee will do what they can this year to support the 
programs. Thank you, Senator Inouye.
    Senator Inouye. I can assure you that we will study your 
proposal very carefully, because we are concerned about the 
cutback.
    Sergeant Olanoff. Thank you, Senator Inouye.
    [The statement follows:]

                 Prepared Statement of Mark H. Olanoff

                             AFTEA MISSION

    The AFTEA mission is to advocate a strong national defense that 
will protect the security of the United States. We support a defense 
budget that will provide modern and sufficient equipment so that our 
military personnel can safely and effectively accomplish their mission.
    We seek to educate the public and Members of Congress about the 
uniformed services and their most important asset, its people.
    We promote improved quality-of-life and economic fairness that will 
support the well-being of the men and women of America's Uniformed 
Services and their families. We give voice to members' concerns about 
military pay, health care, pension and disability, survivor benefits, 
education, housing, child care, and other quality-of-life programs.
    The Armed Forces Top Enlisted Association is a non-profit 501C(19) 
veteran's organization, representing the professional and personal 
interests of Active Duty and retired men and women of America's 
Uniformed Services, National Guard and Reserve. Members in AFTEA are 
Sergeant Majors, Master Chief Petty Officers, Master Gunnery Sergeants, 
and Chief Master Sergeants from all branches of the Uniformed Services: 
Army, Navy, Air Force, Marine Corp, and Coast Guard. We are unique in 
that each member must have either retired as or currently hold the 
grade of E-9.
    Mr. Chairman and distinguished Members of the subcommittee: On 
behalf of our National President, Command Sergeant Major Albert G. 
Ybanez, USA (Ret), we are grateful to the subcommittee for this 
opportunity to express our views concerning the fiscal year 2007 
Department of Defense budget as it relates to issues affecting the 
uniformed service community.

           IMBALANCE BETWEEN OPERATIONAL AND PERSONNEL COSTS

    Our National President recently said: ``Faced with a budget that 
forced choices between costly weapons systems, first envisioned for war 
against the Soviets, and ground troops to fight wars like those in 
Afghanistan and Iraq, the Pentagon went for hardware. The 2007 budget 
gives hardware higher priority than men and women in uniform.''
    This budget proposes sharp increases in health care costs 
(enrollment fees, co-payments and deductibles) for the men and women of 
the armed services who served a career for their Nation, and are not 
yet eligible for TRICARE for Life (TFL). Further, this budget proposes 
increases in health care costs for those currently serving in reserve 
components. With the Nation at war, this is not the time to increase 
fees and co-payments for those who are currently serving and those who 
have served.
    Over the past years, Congress has significantly improved pay for 
the men and women serving on Active Duty and in the Reserve Components. 
Also, Congress has improved benefits for those who have served, 
including significant progress in receipt of retired pay for those with 
service-connected disabilities, full commissary benefits for grey-area 
reserve retirees, and increased survivor benefits for widows and 
widowers of military retirees.
    Yet, senior Defense Department officials have publicly stated in 
numerous newspaper ``op-eds'' and in testimony before committees of the 
Congress that these increased benefits are a ``drain on the defense 
budget.''
    Pentagon officials told the Senate Armed Services Subcommittee on 
Personnel that ``. . . a rich benefits package, coupled with expanded 
retiree coverage, has thrust the Pentagon into the same financial 
predicament that is threatening the profitability of such major 
companies as General Motors Corp.'' Dr. William Winkenwerder Jr., 
Assistant Secretary of Defense for Health Affairs, told the 
subcommittee ``. . . the facts show that our expansion of health 
benefits, such as those for our senior retirees, underlies the growth, 
and that growth could put today's operations and sustainability at 
risk.'' He went on to say ``. . . caring for military retirees is the 
principle underlying factor of the rising costs.''
    DOD has also convinced the Joint Chiefs of Staff to endorse these 
fee increases, saying the budget savings are needed to help fund 
weapons and other needs. Only a few years ago, then chairman of the 
Joint Chiefs General Shelton told the Congress that the Nation had a 
moral obligation to those who served their Nation and are now retired.
    So if the budget savings from these sharply higher costs to the men 
and women who served our Nation are needed to help fund weapons and 
other needs, let's take a look at DOD's track record of defense 
acquisitions according to the Government Accountability office (GAO).
    According to the Government Accountability Office (GAO), GAO-06-
391, Defense Acquisitions: Assessments of Selected Major Weapon 
Programs, dated March 31, 2006, ``In the last 5 years, the Department 
of Defense has doubled its planned investments in new weapon systems 
from about $700 billion in 2001 to nearly $1.4 trillion in 2006''. 
Further, GAO states ``GAO's reviews over the past 30 years have found 
consistent problems with weapon acquisitions such as cost increases, 
schedule delays and performance shortfalls''. GAO also states ``DOD 
often exceeds development cost estimates by approximately 30 to 40 
percent and experiences cuts in planned quantities, missed deadlines, 
and performance shortfalls. Such difficulties, absent definitive and 
effective reform outcomes, are likely to cause great turmoil in a 
budget environment in which there are growing fiscal imbalances as well 
as increasing conflict over increasingly limited resources''.
    On April 14, 2006 the GAO reported again, GAO-06-368, Defense 
Acquisitions: Major Weapon Systems Continue to Experience Cost and 
Schedule Problems under DOD's Revised Policy. GAO states ``The 
Department of Defense (DOD) is planning to invest $1.3 trillion between 
2005 and 2009 in researching, developing, and procuring major weapon 
systems. How DOD manages this investment has been a matter of 
congressional concern for years. Numerous programs have been marked by 
cost overruns, schedule delays, and reduced performance. Over the past 
3 decades, DOD's acquisition environment has undergone many changes 
aimed at curbing cost, schedule, and other problems. In order to 
determine if the policy DOD put in place is achieving its intended 
goals, we assessed the outcomes of major weapons development programs 
initiated under the revised policy. Additionally, we assessed whether 
the policy's knowledge-based, evolutionary principles are being 
effectively implemented, and whether effective controls and specific 
criteria are in place and being used to make sound investment 
decisions. Changes made in DOD's acquisition policy over the past 5 
years have not eliminated cost and schedule problems for major weapons 
development programs. Of the 23 major programs we assessed, 10 are 
already expecting development cost overruns greater than 30 percent or 
have delayed the delivery of initial operational capability to the 
warfighter by at least 1 year. The overall impact of these costly 
conditions is a reduction in the value of DOD's defense dollars and a 
lower return on investment. Poor execution of the revised acquisition 
policy is a major cause of DOD's continued problems. DOD frequently 
bypasses key steps of the knowledge-based process outlined in the 
policy, falls short of attaining key knowledge, and continues to pursue 
revolutionary--rather than evolutionary or incremental--advances in 
capability. Nearly 80 percent of the programs GAO reviewed did not 
fully follow the knowledge-based process to develop a sound business 
case before committing to system development. Most of the programs we 
reviewed started system development with immature technologies, and 
half of the programs that have held design reviews did so before 
achieving a high level of design maturity. These practices increase the 
likelihood that problems will be discovered late in development when 
they are more costly to address. Furthermore, DOD's continued pursuit 
of revolutionary leaps in capability also runs counter to the policy's 
guidance. DOD has not closed all of the gaps in the policy that GAO 
identified nearly 3 years ago, particularly with regard to adding 
controls and criteria. Effective controls require decision makers to 
measure progress against specific criteria and ensure that managers 
capture key knowledge before moving to the next acquisition phase. 
However, DOD's policy continues to allow managers to approach major 
investment decisions with many unknowns. Without effective controls 
that require program officials to satisfy specific criteria, it is 
difficult to hold decision makers or program managers accountable to 
cost and schedule targets. In this environment, decision-making 
transparency is crucial, but DOD is lacking in this area as well.
    It appears to us that the country (and the tax payers) would be 
best served by the Defense Department ``cleaning up'' its acquisition 
policies and practices, and stop trying to balance their budget on the 
backs of the uniformed services men and women who serve and have 
served. A record budget that focuses more on modernization than people 
programs is forgetting that it is people who make the military run.
    AFTEA was unable to find any GAO reports about planned investments 
in ``people programs''.
    AFTEA recommends an oversight hearing to include a complete review 
of the issues of entitlement and discretionary spending for the 
Department of Defense.

                            DOD HEALTH CARE

    Over the past few years, Congress has recognized the contributions 
of the men and women in the armed services who served a career for 
their Nation, and then retired. One important recognition is now 
referred to as TRICARE for Life (TFL).
    Now, the administration has proposed sharp increases in enrollment 
fees, co-payments and deductibles for those who have retired and are 
not yet eligible for TFL, specifically those under the age of 65. We 
view the Defense Department's proposal as a ``roll-back'' in the health 
care benefit that career military men and women earned.
    A great deal of the Pentagon's concern over rising health care 
costs involves the nearly $9 billion annual deposit to the Medicare-
Eligible Retiree Health Care Fund that the administration wrongly 
counts against the defense budget.
    Two years ago, when Defense leaders said the administration was 
making them take this deposit ``out of hide'' at the expense of other 
Defense programs, the Armed Services Committees acted to change the law 
to shift that deposit from the Defense budget to the U.S. Treasury 
budget. The clear intent was that TFL expenses were not to come at the 
expense of other readiness needs. Congress passed that provision as 
part of the fiscal year 2005 Defense Authorization Act (Public Law 108-
375). Section 725 provided revised funding methodology for military 
retiree health care benefits. Section 1116 of title 10, United States 
Code was amended. Section 1116(a) states: ``At the beginning of each 
fiscal year after September 30, 2005, the Secretary of Treasury shall 
promptly pay into the Fund from the General Treasury''. Subsections (1) 
and (2) provide for how the amount is determined. This section deals 
with the accrual amount for military retiree health care for those 
using TRICARE for Life.
    But the Office of Management and Budget has since worked against 
the clear letter of the law and has continued to charge the deposit 
against the defense budget. That's why the administration has wrongly 
forced the Joint Chiefs of Staff to choose between retiree health 
funding and weapons programs.
    The fiscal year 2007 NDAA that was marked-up by the House Armed 
Services Committee includes a provision (section 589) to correct this 
error. Section 589(b) states ``No funds authorized or appropriated to 
the Department of Defense may be used to fund, or otherwise provide 
for, the payments required by this section''.
    The President's budget request for the Office of Personnel 
Management (OPM) for fiscal year 2007 includes funding for the 
government's share of the cost of health insurance for annuitants, 
which includes retirees (Title 5, USC 8901, subsection 3A). This 
section also covers Members of Congress and the President. The funding 
requested for fiscal year 2007 is $8.78 billion.
    AFTEA urges the subcommittee to:
  --Fully fund DOD's health care account.
  --Appropriate the costs for military health care similar to federal 
        civilians and retirees enrolled in the Federal Employee Health 
        Benefits Plan (FEHBP). Provide the accrual funding for TRICARE 
        For Life and the deposit to the Medicare-Eligible Retiree 
        Health Care Fund by the Treasury, and not the Department of 
        Defense.
  --Direct report language that specifically prohibits the Department 
        of Defense from raising any TRICARE co-payments or enrollment 
        fees to include TRICARE Prime, TRICARE Extra, TRICARE Standard, 
        TRICARE for Life, TRICARE Reserve Select, TRICARE Dental and 
        TRICARE Prescriptions in fiscal year 2007.
    On February 20, 2004, the General Accounting Office (now Government 
Accountability Office), sent a report to the House Subcommittee on 
National Security, Emerging Threats and International Relations, 
Subject: Military Treatment Facilities: Improvements Needed to Increase 
DOD Third-Party Collections. On page 2 under ``Results in Brief'', GAO 
stated ``Based on our previous audit work and our analysis or reports 
issued by military service auditors, conservatively, tens of millions 
of dollars are not being collected each year because key information 
required to effectively bill and collect from third-party insurers is 
often not properly collected, recorded, or used by MTFs. DOD's failure 
to effectively bill and collect from third-party insurers, in effect, 
reduces the amount third-party private sector insurance companies must 
pay out in benefits and unnecessarily adds to DOD's increasing health 
care budget--financed by taxpayers. While DOD has limited control over 
the burgeoning cost of providing health care benefits to DOD retirees 
and their dependents and active duty dependents, DOD has an opportunity 
to offset the impact of its rising health care costs by collecting 
amounts due from its Third Party Collection Program.''
    AFTEA urges the subcommittee to:
  --Direct DOD to improve its collection of third-party insurance as 
        recommended by the GAO.
  --Support the House Armed Services Committee version of the fiscal 
        year 2007 NDAA that directs a complete study of DOD's 
        Healthcare system.

                               CONCLUSION

    AFTEA is very concerned about the imbalance between ``operational'' 
and ``personnel'' costs. We are also concerned that DOD has proposed 
shifting greater health care costs to beneficiaries to help fund 
weapons and other hardware needs.
    Defense Department officials would have the public believe that the 
growth in personnel costs, particularly for health care and retiree and 
survivor entitlements, is impacting on the military funding needed to 
carry out the Nation's wartime mission. They have complained about the 
cost of TRICARE for Life, concurrent receipt, SBP, and argued that 
these and other recent improvements in military and retirement benefits 
are unwarranted and will somehow bankrupt the defense budget.
    We believe that argument by the DOD to be false. Instead of 
balancing the budget on the backs of the men and women who serve and 
have served, our leaders should be honestly considering the requisite 
level of defense funding during this time of war. They must realize 
that defending the Nation costs money and the cost goes up with demand 
during wartime.
    This is a Nation of enormous wealth and it has not been the 
American tradition since the Civil War to spend, in support of war, 
with the intensity of war itself. Health care and other personnel costs 
are an ongoing cost of war. The administration and Congress need to 
adequately fund the war in all its dimensions, and mobilize and unit 
the country for the effort, and share in the sacrifice. However we 
fight the war, and whatever combination of military and nonmilitary 
means we use to win it, the war effort depends on the ability of the 
country to muster the needed resources and political will to pay for 
it.
    AFTEA is very grateful for this opportunity to testify before the 
Defense Appropriations Subcommittee and would like to thank Chairman 
Stevens and ranking member Inouye for their military service and many 
years of support to the defense of our country.
    We look forward to supporting a fiscal year 2007 Defense 
Appropriations bill that will not increase DOD's bottom line with ill-
timed increases for those beneficiaries who have made a significant 
contribution to our Nation.

    Senator Inouye. Our next witness is Colonel Steven 
Strobridge, United States Air Force, retired, co-chairman of 
the Military Coalition. Colonel, welcome, sir.

STATEMENT OF COLONEL STEVEN P. STROBRIDGE, UNITED 
            STATES AIR FORCE (RETIRED), DIRECTOR, 
            GOVERNMENT RELATIONS, THE MILITARY 
            COALITION
    Colonel Strobridge. Thank you very much, Senator Inouye, 
for the opportunity to be here today.
    The Military Coalition is concerned, like the previous 
witnesses have stated, that the defense budget is being 
squeezed significantly on a variety of fronts. We are 
particularly troubled that this is happening even as our 
military members and their families, who comprise less than 1 
percent of Americans, are being asked to bear virtually 100 
percent of the national burden of sacrifice in the global war 
on terror. Our forces are undermanned for the mission they are 
being asked to bear. We are having difficulty recruiting new 
servicemembers, and increasing numbers of today's forces are 
wondering whether the rewards inherent in a military career are 
worth the sacrifices.
    These concerns are being compounded as some in government 
now seek to carve funds from programs that are essential to 
sustain our troops and families through their extended trials. 
Our fervent hope is that the subcommittee will not allow that 
to happen.
    We urge full funding for the troop levels recommended 
earlier this month by the Armed Services Committee, an increase 
of 30,000 for the Army, 1,000 for the Marine Corps, and 17,000 
for the Army National Guard. These are all above the amounts 
requested in the President's budget, and additional funding is 
essential to ensure that the Pentagon is not forced to absorb 
these added costs in an already constrained budget.
    Ensuring full funding of the defense health program is 
another top priority. Both the House and the Senate Armed 
Services Committees have already categorically rejected 
Pentagon plans to double or triple military retiree health 
fees. The problem is that the President's budget already 
reduced the defense health program by $735 million in the 
expectation that these fees would dramatically reduce demand. 
And that is just not going to happen, and the $735 million 
needs to be restored, or military medicine is going to run out 
of money next summer.
    The House Appropriations Committee did not restore the 
necessary funding, saying it would wait to see what the 
authorizers would do. That has now been decided. They are not 
going to allow the fees. So it falls on this subcommittee to 
protect the integrity of the defense health program, and 
hopefully restore that vital $735 million.
    The coalition also asks the subcommittee to fund the full 
military pay raise proposed by the Armed Services Committee, 
including the additional targeted raises proposed for warrant 
officers and certain enlisted members. Family support funding 
is another vital area of interest. Military members will endure 
a lot in serving their country. Retention is a family issue. 
And military families are under a great deal of stress. 
Programs for Guard and Reserve families, most of whom do not 
live near military installations, are a continuing special 
priority.
    As base realignment and closure (BRAC) and global re-basing 
begins, we will be relocating large numbers of families between 
installations. Funding simply has to be provided to ensure that 
support facilities at closing bases continue until the families 
are gone, and we must fund housing, schools, health care 
networks, and child care needs, among other things, so those 
facilities are fully ready at gaining installation before the 
incoming thousands of families arrive.
    Finally, we've just seen reports that at least some 
services are dramatically curtailing funding for some on-base 
facilities, such as libraries, swimming pools, gymnasiums, and 
other base support facilities, in order to make up for 
operations and equipment shortfalls. We hope you will provide 
the operation and maintenance (O&M) funding as needed, and 
check into that so that these services do not have to further 
compound the already inordinate sacrifices the families are 
observing through these kinds of penny-wise and pound-foolish 
tradeoffs.
    Thank you, Mr. Chairman, Senator Inouye, for this 
opportunity to provide the coalition's inputs.
    Senator Stevens [presiding]. Thank you for your testimony. 
Senator, do you have any questions?
    [No response.]
    Senator Stevens. No. We appreciate, and we share your 
feelings.
    [The statement follows:]

               Prepared Statement of Steven P. Strobridge

    Mr. Chairman and distinguished Members of the committee. On behalf 
of The Military Coalition, a consortium of nationally prominent 
uniformed services and veterans' organizations, we are grateful to the 
committee for this opportunity to express our views concerning issues 
affecting the uniformed services community. This testimony provides the 
collective views of the following military and veterans' organizations, 
which represent approximately 5.5 million current and former members of 
the seven uniformed services, plus their families and survivors.
  --Air Force Association
  --Air Force Sergeants Association
  --Air Force Women Officers Associated
  --American Logistics Association
  --AMVETS (American Veterans)
  --Army Aviation Association of America
  --Association of Military Surgeons of the United States
  --Association of the United States Army
  --Chief Warrant Officer and Warrant Officer Association, U.S. Coast 
        Guard
  --Commissioned Officers Association of the U.S. Public Health 
        Service, Inc.
  --Enlisted Association of the National Guard of the United States
  --Fleet Reserve Association
  --Gold Star Wives of America, Inc.
  --Jewish War Veterans of the United States of America
  --Marine Corps League
  --Marine Corps Reserve Association
  --Military Chaplains Association of the United States of America
  --Military Officers Association of America
  --Military Order of the Purple Heart
  --National Association for Uniformed Services
  --National Guard Association of the United States
  --National Military Family Association
  --National Order of Battlefield Commissions
  --Naval Enlisted Reserve Association
  --Naval Reserve Association
  --Non Commissioned Officers Association
  --Reserve Enlisted Association
  --Society of Medical Consultants to the Armed Forces
  --The Retired Enlisted Association
  --United Armed Forces Association
  --United States Army Warrant Officers Association
  --United States Coast Guard Chief Petty Officers Association
  --Veterans of Foreign Wars of the United States
  --Veterans' Widows International Network
    The Military Coalition, Inc., does not receive any grants or 
contracts from the Federal Government.
    Mr. Chairman, The Military Coalition (TMC) thanks you and the 
entire subcommittee for your continued, unwavering support of our 
active duty, Guard, Reserve, retired members, and veterans of the 
uniformed services, to include their families and survivors.
    In testimony today, The Military Coalition offers its collective 
recommendations on what needs to be done to address these important 
issues and sustain long-term personnel readiness.

                              HEALTH CARE

    Full Funding for the Defense Health Program.--The Defense 
Department, Congress and The Military Coalition all have reason to be 
concerned about the rising cost of military health care. But it is 
important to recognize that the bulk of the problem is a national one, 
not a military-specific one. It's also important, in these times of 
focus on deficits, to keep in perspective the government's unique 
responsibility as the recruiter, retainer, employer, and custodian of a 
career military force that serves multiple decades under 
extraordinarily arduous conditions to protect and preserve our national 
welfare.
    In this regard, the government's responsibility and obligations to 
its servicemembers go well beyond those of corporate employers. The 
Constitution itself puts the responsibility on the government to 
provide for the common defense, and on Congress to raise and maintain 
military forces. No corporate employer shares any such awesome 
responsibility and obligation, and there is no other employee 
population upon whom the entire Nation depends for its very freedom.
    Congress has pursued its responsibilities with vigor on behalf of 
those who are sacrificing, have sacrificed, and will continue to 
sacrifice so much for the rest of America. Continuing those vigorous 
efforts will be essential in addressing the budget challenges of the 
years ahead.
    The Military Coalition urges the subcommittee to ensure continued 
full funding for Defense Health Program needs.
    Protecting Beneficiaries Against Cost-Shifting.--The administration 
is proposing a significant increase in fees paid by retired uniformed 
services beneficiaries under age 65, including doubling or tripling 
enrollment fees for TRICARE Prime and tripling or quadrupling fees for 
TRICARE Standard. In addition, the President's budget recommends a 67-
percent increase in retail pharmacy fees for all Active Duty, Guard, 
Reserve, retired, and survivor beneficiaries.
    Eroding benefits for career service can only undermine long-term 
retention/readiness. Today's troops are very conscious of Congress' 
actions toward those who preceded them in service. One reason Congress 
enacted TRICARE For Life is that the Joint Chiefs of Staff at that time 
said that inadequate retiree health care was affecting attitudes among 
active duty troops.
    Reducing military retirement benefits would be penny-wise and 
pound-foolish when recruiting is already a problem and an overstressed 
force is at increasing retention risk.
    The Coalition believes strongly that these proposed increases are 
disproportional, inequitable, inappropriate, and unwise.
    The Coalition recommends against implementing any increases in 
health fees for uniformed services beneficiaries this year. The 
Coalition believes strongly that America can afford to and must pay for 
both weapons and military health care.
    Unrealistic Budget Assumptions Will Leave TRICARE Underfunded.--The 
DOD budget proposal assumes the proposed fee increases and co-payment 
changes will save money by shifting 14 percent of pharmacy users away 
from retail outlets and causing hundreds of thousands of current 
beneficiaries to exit TRICARE by 2011. Thus, DOD has reduced the amount 
budgeted for health care on the assumption that it will be treating 
fewer beneficiaries.
    Many Defense and Service analysts believe it is unrealistic to 
assume that this number of beneficiaries will leave TRICARE if such 
fees are introduced, largely because switching to civilian coverage 
usually would entail even larger fees for beneficiaries.
    Because the assumed level of beneficiary flight is extremely 
unlikely to occur, the Department almost certainly will experience a 
substantial budget shortfall before the end of the year. This would 
then require supplemental funding, further benefit cutbacks, and even 
greater efforts to shift more costs to beneficiaries in future years.
    Thus, the most likely result of this misguided cost-shifting 
proposal would be to disproportionately penalize retirees, undermine 
military health benefits, and further threaten future retention and 
readiness.
    Alternative Options to Make TRICARE More Cost-Efficient.--The 
Coalition believes strongly that the Defense Department has not 
sufficiently investigated other options to make TRICARE more cost-
efficient without shifting costs to beneficiaries. The Coalition has 
offered a long list of alternative cost-saving options, including:
  --Eliminating DOD-unique administrative requirements that drive 
        higher overhead fees.
  --Changing the law to limit incentives private firms can offer 
        employees to shift to TRICARE, or require such matching 
        payments to TRICARE.
  --Improving education on the advantages of using the mail-order 
        pharmacy.
  --Centralizing the military treatment facility pharmacy budget/
        funding process, with emphasis on accountability.
    Pharmacy Copayment Changes.--The Coalition is concerned that, 5 
years after pharmacy copayment levels were established, the Department 
is proposing a 67-percent increase in retail copayments. The rationale 
for the proposed increase is the rapid growth in retail pharmacy use 
since enactment of TRICARE For Life.
    The Coalition believes strongly that uniformed services 
beneficiaries deserve more stability in their benefit levels, and that 
DOD has not performed due diligence in exploring other ways to reduce 
pharmacy costs without shifting such increased expense burdens to 
beneficiaries. Thus far, the Department has refused to negotiate with 
drug companies for discounts in the retail arena. Not enough has been 
done to educate beneficiaries and providers on the advantages of the 
mail-order program. The Department has failed to centralize purchasing 
and filling of prescriptions for high-cost drugs, as the Air Force has 
done successfully.
    The Department has ignored what the Coalition believes would create 
the most powerful incentive for beneficiaries to shift from the more 
costly retail program to the mail order program--eliminating mail-order 
copays. The average drug purchased in the mail-order system saves the 
government $58 to $157 relative to providing the drug through the 
retail system. If all mail-order copayments would be eliminated, the 
savings would still be at least $50 per prescription. Elimination of 
mail-order copays would save the government $20 million for each 1 
percent of prescriptions that migrate from the retail to the mail-order 
pharmacy system.
    The Coalition recommends eliminating beneficiary copayments in the 
mail-order pharmacy system for generic and brand name medications to 
incentivize use of this lowest-cost venue and generate substantial cost 
savings.

                          ACTIVE FORCE ISSUES

    The Coalition appreciates the subcommittee's many actions to help 
relieve the stress of repeated deployments--end strength increases, 
bonus improvements, family separation, and danger area pay increases, 
and more.
    From the servicemembers' standpoint, the increased personnel tempo 
necessary to meet continued and sustained training and operational 
requirements has meant having to work progressively longer and harder 
every year. They are enduring longer duty days; increased family 
separations; cutbacks in installation services; less opportunity to use 
education benefits; and significant out-of-pocket expenses with each 
permanent change of station move.
    Intensified and sustained operations in Iraq and Afghanistan are 
being met by servicemembers' patriotic dedication, but retention must 
be an increasing concern as 1 percent of Americans continue to bear 
virtually 100 percent of the burden of national sacrifice in the global 
war on terrorism. Service leaders may tout seemingly high retention 
figures, but the Coalition cannot reconcile this with the ever-
increasing stresses on military families.
    Military families have continued to demonstrate their exceptional 
support of servicemembers' long, recurring deployments; yet, many 
servicemembers and their families debate among themselves whether the 
rewards of a service career are sufficient to offset the attendant 
demands and sacrifices inherent in uniformed service. Unless they see 
some prospect of near-term respite, many of our excellent soldiers, 
sailors, airmen and marines will opt for civilian career choices, not 
because they don't love what they do, but because their families just 
can no longer take the stress. High retention simply cannot continue to 
co-exist with such levels of high operations tempo and family 
separations, despite the reluctance of some to see anything but rosy 
scenarios.
    The Coalition views with alarm the Defense Department's 
determination to sacrifice troop levels to pay for weapons systems, 
with seemingly little regard for the impact these decisions will have 
on servicemembers and their future retention. The finest weapon systems 
in the world will be of little use if the services don't have enough 
high quality, well-trained people to operate, maintain and support 
them.
    The Coalition believes the ``weapons or people'' debate is a 
patently false one--akin to forcing a choice between one's left and 
right arms.
    Pay Raises.--Since 1999, when the cumulative gap between military 
and private sector pay raises reached 13.5 percent--resulting in 
predictable readiness crises--this subcommittee has provided funding 
for increased military raises--reducing the pay gap to 4.5 percent in 
2006.
    The subcommittee also has supported previous Department of Defense 
plans to fix problems within the basic pay table by authorizing special 
``targeted'' adjustments for specific grade and longevity combinations 
in order to align career servicemembers' pay with private sector 
earnings of civilians with similar education and experience.
    The Coalition believes it is essential to continue that progress as 
the global war on terror enters its sixth year.
    The Military Coalition strongly recommends providing military pay 
raises that exceed the Employment Cost Index until such time as full 
military pay comparability has been restored. The Coalition further 
recommends targeted increases for selected non-commissioned officers/
petty officers and warrant officers as needed to attain the 70th-
percentile comparability standard.
    Maintain Well-funded Family Readiness, Support Structure, and 
Morale, Welfare and Recreation (MWR) Programs.--Today, two-thirds of 
active duty families and virtually all Guard and Reserve families live 
off military installations, and more than one-half of these 
servicemembers are married. A fully funded family readiness program to 
include financial education and benefit information has never been a 
more crucial component to the military mission and overall readiness 
than it is today, especially when military families are coping with the 
increased deployments and separation.
    More needs to be done to ``connect'' servicemembers and their 
families with important resources. Military One Source has provided a 
great start to improve family readiness; however, a more aggressive 
outreach effort is needed to educate servicemembers and their families 
on the benefits and programs to which they are entitled. These outreach 
efforts need to address the unique needs of National Guard and Reserve 
families to include transitioning to and from active duty status. 
Traditional delivery systems of ``build it and they will come'' no 
longer serve the transforming military community of today that is 
increasingly non-installation based. More robust outreach delivery 
systems and programs are called for that can be accessed anywhere and 
anytime.
    Because of multiple DOD modernization efforts (global rebasing, 
Army modularity, and BRAC initiatives) that are occurring 
simultaneously, TMC is concerned about the synchronization, pace of 
planning, implementation timetables, timing of budgets and resource 
allocations, and the evaluation of the rebasing and BRAC plans. TMC 
asks Congress to ensure necessary family support/quality of life 
program dollars are in line with the DOD/Military Services overseas 
rebasing and BRAC plans. Further, the Coalition urges Congress to 
insist that support services and infrastructure remain in place at both 
the closing and the gaining installations, throughout the transition 
period.
    The Coalition appreciates the recent congressional enhancements in 
military childcare, family readiness, and supportive counseling 
programs to assist families in dealing with deployments and the return 
of servicemembers. Family support, Quality of Life, and MWR programs 
are especially critical to the readiness of our forces and the support 
of their families during periods of conflict and extended separations. 
In order for these programs to flourish, they require consistent 
sourcing, deliberate outreach, and must remain flexible to meet 
emerging challenges.
    The Military Coalition urges Congress to maintain a well-funded 
family readiness and support structure to enhance family well-being and 
to improve retention and morale.
    The Coalition also asks Congress to highlight and protect the 
interests of all beneficiaries impacted by overseas rebasing, Army 
modularity, and BRAC and ensure support services and infrastructure 
remain in place throughout the entire transition period for all 
beneficiary populations.
    Personnel Strengths.--The Coalition has been disappointed at the 
Defense Department's annual resistance to Congress' repeated offers to 
permanently increase service end strength to relieve the stress on 
today's Armed Forces. While we are encouraged by the subcommittee's 
work to fund increased Army and Marine Corps end strength and much 
needed recruiting and retention bonuses; however, we are deeply 
concerned that administration-proposed plans rely too heavily on overly 
optimistic retention assumptions, overuse of the Guard and Reserves, 
optimistic scenarios in Southwest Asia, and the absence of new 
contingency needs.
    The Department has indicated that it prefers to ``transform'' 
forces, placing non-mission essential resources in core war fighting 
skills, and transferring certain functions to civilians. However, any 
such implementation will take a long time while we continue to exhaust 
our downsized forces.
    In addition, the Department is already cutting back even on those 
plans, proposing to reduce six Army National Guard brigades, reduce 
planned growth in the number of active duty brigades, continue 
systematic personnel reductions within the Navy, and impose further 
dramatic reductions in Air Force personnel. Media reports indicate that 
previous plans to civilianize military positions have been changed, and 
that substantial numbers of military positions now will simply be 
eliminated, without civilian replacements--imposing even greater stress 
on the remaining force.
    Force reductions envisioned in the Quadrennial Defense Review are 
being undertaken not because of any reduction in mission, but simply to 
free up billions of dollars for weapons programs.
    Defense leaders warn that the long-term mission against terrorism 
will require sustained, large deployments to Central Asia and 
elsewhere, but the Services are being denied the manpower to meet those 
requirements without unacceptable impacts on members' and families' 
quality of life.
    If the administration does not recognize when extra missions exceed 
the capacity to perform them, Congress must assume that obligation. 
Deferral of additional meaningful action to address this problem cannot 
continue without risking serious consequences.
    The Military Coalition strongly urges funding to sustain end 
strengths to meet mission requirements, and opposition to force 
reductions that have the primary purpose of paying for other programs.
    Dependent Education Needs.--Quality education is an instrumental 
retention tool for DOD--we recruit the member, but retain the family. 
However, many ongoing initiatives--housing privatization, Service 
transformation, overseas rebasing, and BRAC--will have a direct impact 
on the surrounding communities that provide educational programs for 
our military families. A positive step in the right direction is 
reflected by the subcommittee's efforts that provided increased Impact 
Aid funding for highly impacted school districts with significant 
military student enrollment.
    The Coalition urges the subcommittee to continue its priority of 
providing additional funding to support schools educating military 
children.

                        GUARD AND RESERVE ISSUES

    More than a half million members of the National Guard and Reserve 
have been mobilized since September 11, 2001, and many thousands more 
are in the activation pipeline. Today, they face the same challenges as 
their active counterparts, with a deployment pace greater than at any 
time since World War II.
    Guard/Reserve operational tempo has placed enormous strains on 
Reservists, their family members, and their civilian employers that 
were never anticipated by the designers of Guard and Reserve personnel 
and compensation programs.
    The Coalition fully supports the prominent role of the Guard and 
Reserve forces in the national security equation. However, many Guard 
and Reserve members are facing increased family stresses and financial 
burdens under the current policy of multiple extended activations over 
the course of a Reserve career. Many Reserve component leaders are 
rightly alarmed over likely manpower losses if action is not taken to 
relieve pressures on Guard and Reserve troops.
    The Coalition believes it is essential to substantively address 
critical Guard and Reserve personnel, pay, and benefits issues--along 
with active duty manpower increases--to alleviate those pressures and 
help retain these qualified, trained professionals.
    We believe that more must be done to ensure that Guard and Reserve 
members' and their families' readiness remains a viable part of our 
national security strategy. It is clear that our country is absolutely 
dependent on these valuable members of our national military team to 
meet ongoing readiness requirements.
    Guard/Reserve Health Care.--The Military Coalition recognizes 
Congress' significant progress over the last 2 years in authorizing and 
funding ``TRICARE Reserve Select'' coverage for all drilling Guard and 
Reserve members. Nevertheless, the Coalition believes strongly that the 
program approved last year fall short of meeting the needs of these 
members and their families.
    We believe the enrollment fees will prove cost-prohibitive for 
members who have not been mobilized since 9/11, and the high fees 
represent an ill-advised deterrent to members we need to retain in the 
Reserve components. Such fees are particularly unfair for members who 
do not have access to other health insurance coverage.
    The Coalition strongly recommends funding to increase subsidy 
levels for TRICARE coverage for drilling Guard/Reserve members not yet 
mobilized and having one premium for all members of the Guard and 
Reserve who continue to be drilling members.
    Guard and Reserve Family Support Programs.--The increase in Guard 
and Reserve operational tempo is taking a toll on the families of these 
servicemembers. These families are routinely called upon to make more 
and more sacrifices as the global war on terror continues. Reserve 
component families live in communities throughout the Nation, and most 
of these communities are not close to military installations. These 
families face unique challenges in the absence of mobilized members, 
since they don't have access to traditional family support services 
enjoyed by active duty members on military installations.
    Providing a core set of family programs and benefits that meet the 
unique needs of these families is essential to meeting family readiness 
challenges. These programs would promote better communication with 
servicemembers, specialized support for geographically separated Guard 
and Reserve families, and training (and back-up) for family readiness 
volunteers. Such access would include:
  --Web-based assistance programs such as Military OneSource and Guard 
        Family.org;
  --Expanded programs between military and community religious leaders 
        to support servicemembers and families during all phases of 
        deployments;
  --Robust preventive counseling services for servicemembers and 
        families and training so they know when to seek professional 
        help related to their circumstances;
  --Enhanced education for Guard and Reserve family members about their 
        rights and benefits;
  --Meeting needs for occasional child care, particularly for 
        preventive respite care, volunteering, and family readiness 
        group meetings and drill time;
  --A joint family readiness program to facilitate understanding and 
        sharing of information between all family members, no matter 
        what the service.
    TMC urges Congress to continue and expand its emphasis on providing 
consistent funding and increased outreach to connect Guard and Reserve 
families with these support programs.
     overseas rebasing, base realignment and closure (brac) issues
    Thousands military members and families will be under great stress 
in the months and years ahead as a result of rebasing, closure, and 
transformation actions. But the impact extends beyond the active duty 
personnel currently assigned to the affected installations. The entire 
local community--school districts, chambers of commerce, Guard/Reserve, 
retirees, survivors, civil servants, and others--experiences the 
traumatic impact of a rebasing or closure action. Jobs are lost or 
transferred, installation support facilities are closed, and 
beneficiaries who relied on the base for support are forced to search 
elsewhere.
    The Coalition urges the subcommittee to ensure rebasing plans are 
not executed without ensuring full support funding is available to 
families as long as they are present at losing installations and before 
they arrive at gaining installations. The critical family support/
quality of life programs include MWR, childcare, exchanges and 
commissaries, housing, health care, education, family centers, and 
other traditional support programs.
    The Coalition will actively be engaged in ensuring the 
implementations of the BRAC decisions, Service transformation 
initiatives, global repositioning, and Army modularity initiatives not 
only take each beneficiary community into consideration, but also to 
advocate for beneficiaries significantly impacted by these initiatives.
    The Military Coalition urges the subcommittee to monitor the 
implementation of rebasing, BRAC, and Service Transformation 
initiatives to ensure protection of funding for support services for 
all military members and their families.

                               CONCLUSION

    The Military Coalition reiterates its profound gratitude for the 
extraordinary progress this subcommittee has made in funding a wide 
range of personnel and health care initiatives for all uniformed 
services personnel and their families and survivors in recent years. 
The Coalition is eager to continue its work with the subcommittee in 
pursuit of the goals outlined in our testimony. Thank you very much for 
the opportunity to present the Coalition's views on these critically 
important topics.

    Senator Stevens. Our next witness is Dr. Edwin Thomas from 
the Institute for Soldier Nanotechnologies. Good morning.

STATEMENT OF DR. EDWIN THOMAS, PROFESSOR, FOUNDING 
            DIRECTOR, INSTITUTE FOR SOLDIER 
            NANOTECHNOLOGIES, MASSACHUSETTS INSTITUTE 
            OF TECHNOLOGY (MIT)
    Dr. Thomas. Good morning, Chairman Stevens, Senator Inouye. 
I'm a professor at MIT, and it is a great honor to be able to 
testify before this subcommittee. I have written testimony, and 
I have some Powerpoints, and I do not know if you can find 
them. I might take you through them. My testimony is somewhat 
visual, but perhaps I can do it with words, as well.
    Key thing here is that 4 years ago, the Army decided to put 
together a competition for a university affiliated research 
center that would focus on soldier protection using 
nanotechnology. About 50 schools competed, and this university 
affiliated research center was placed at MIT in 2002.
    Well, nanotechnology is certainly in the news these days, 
and the notion here is to try to use nano approaches for 
soldier protection. Of course, a millennia-old problem of how 
to protect soldiers.
    One of the sort of visions of the Institute for Soldier 
Nanotechnology (ISN) is to look at a typical paratrooper, who 
is carrying 120 pounds, a very bulky, heavy, good equipment but 
very burdensome. And these young men and women that we send 
into battle are not as well protected as one would hope, and 
they are burdened with heavy amounts of weight. So the notion 
and the vision of the ISN is to really use nanotechnology to 
dramatically decrease the weight and the volume that the 
warfighters need. So it is basic 6.1 research. It is 
nonclassified on-campus research.
    Our vision is something called a dynamic battle suit. And 
if I might, when you get in your vehicle in the morning, you do 
not ask yourself the question whether or not you take your 
airbag. It is always there. And if you are in an accident, you 
do not reach over and say, ``Ah, time to activate the airbag.'' 
The airbag system is all autonomous. It senses a threat, and it 
deploys to mitigate that threat.
    Our notion for soldiers is in fact a dynamic battle suit 
that would have attributes of, kind of, airbags, except these 
would be defense mechanisms that would sense bio and chemical 
threats. They would sense ballistic and blast threats, and they 
would then act quickly, using nanotechnologies to mitigate 
those threats, and protect the soldier.
    Let me take you through three kinds of examples of things 
we've been working on. Some are further off in the future, and 
some are in fact in Iraq right now. The first one is on 
situational awareness. We envision fibers that can actually see 
color and hear. So part of the fabric of the soldier's battle 
suit of the future would have these fibers that would have the 
ability to detect whether a soldier was being lazed, and by 
what wavelength the laser was. So in a sense, they could see in 
color, 360 degrees. This could be terrific, for example, 
avoiding fratricide, identification of friend or foe.
    Another technology that we are working on is body armor. As 
you know, the interceptor body armor right now has been 
improved. I guess if you're not wearing it, it is improved. If 
you're wearing it, it went from 16 pounds to 31 pounds, and so 
we are asking our men and women to carry 31\1/2\ pounds of 
Kevlar and ceramic, not including the batteries and the bullets 
and the water, and all the rest of the kit that they have to 
carry. So a clear need that nano may be able to do something 
about is improved body armor.
    And finally, an area that is something that is actually 
molecules, I'm proud to say, that are made in Cambridge, 
Massachusetts, are working to protect men and women in Iraq. 
These are molecules that can detect TNT, which is the main 
component in the IED threats. Working with an industrial 
partner called Nomadics, a sensor has been developed. The 
sensor works in the hands of an 18-year-old when it is hot and 
muddy and wet. It will actually work underwater. It will work 
in diesel fuel. It is being mounted and incorporated onto 
robots. They've been putting these at checkpoints, and instead 
of having a soldier go up with a handheld device to be able to 
check for TNT in a vehicle or on a person, they are actually 
able to send a robot up and thus get standoff, and save lives.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Edwin L. Thomas

    The Institute for Soldier Nanotechnologies (ISN) is dedicated to 
the development of nano-enabled technologies to protect dismounted 
soldiers. Nanotechnological research approaches have not previously 
been significantly applied to soldier protection, thus presenting many 
opportunities for revolutionary advances in soldier survivability. 
Nanoscience and nanoengineering will lead to the development of new 
materials and properties unattainable with conventional materials. Nano 
allows minaturization and increased response speed for devices, key 
attributes for dramatic improvements of the soldier's kit.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The ISN mission is to increase capabilities while simultaneously 
decreasing the weight soldiers must carry. Present day soldiers, like 
the young paratrooper from northern Iraq, often carry in excess of 120 
pounds of equipment, which reduces their effectiveness and 
survivability in the field. The ISN is an on-campus basic, 6.1 research 
center (a University Affiliated Research Center (UARC)) started in 
2002. The ISN vision is to design from the ground up, a new battlesuit 
with a number of integrated systems that sense for threats and 
automatically activate protection-on-demand, much in the same way as 
airbags deploy in automobiles. The future battlesuit will include 
sensing subsystems to detect chemical and biological threats as well as 
perform physiological monitoring. It will further provide mechanical 
performance enhancements, integrated power, and informational systems. 
Blast and ballistic protection are of key importance. Novel lightweight 
materials that can adapt and transform their properties are essential 
enabling components. Nanotechnology will help us to realize new 
properties and attributes and to integrate these many functions into 
the uniform. One materials platform we envision is the fabric of the 
uniform itself wherein a diversity of functional nanostructured fibers, 
will be developed which provide massive new capabilities to the soldier 
with an insignificant increase in weight and no loss of mobility. The 
ISN has over 30 active research projects, but today I will focus on 
three examples of new nanotech systems for enhanced situational 
awareness, flexible body armor and IED detection.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    New nanostructured fibers have been developed to detect specific 
wavelengths of light from targeting lasers or to detect a local change 
in surface temperature, for example, from a wound. These fibers are 
comprised of semiconductors, metals and polymers and are produced by a 
drawing process. When illuminated with light, electrical currents are 
generated between the electrodes or if a fiber is exposed to a higher/
lower temperature, the electrical current is altered. Thus, these 
fibers can ``see'' and ``feel''. We are currently working on additional 
fibers with piezoelectric materials inside, so that the future 
battlesuit can also ``hear.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A huge need is to provide future soldiers with lightweight, 
flexible body armor that not only protects from ballistic threats 
(bullets, shrapnel etc.) but also protects from blast pressure waves. 
Current body armor weights 15 lbs. and the new add-on body armor pushes 
the weight up to 31.5 lbs. Engineers create lightweight, stiff and 
strong structures--such as cellphone towers using truss designs. Our 
idea is to extend this concept down to the nanometer regime using 
photolithography to sculpt polymers into ultralight, breatheable 
microtrusses for unprecedented soldier protection. Interestingly, the 
``nano'' sized nature of the struts in the truss structure imparts 
exciting new toughed mechanical behavior, highly promising for soldier 
protection.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We have also developed networks of photonic molecular wires for the 
detection of explosives. These materials are electronic plastics that 
absorb and emit light and have a high sensitivity to explosives like 
TNT. The polymer chains have the unusual ability to self-amplify their 
own sensory responses due the transport of energy packets throughout 
the network. This process behaves similarly to a string of holiday 
lights wherein only one light need be broken to cause the entire system 
to become dark. When illuminated using ultraviolet light, the set of 
sensor wires glows green. When molecules of TNT vapor bind to the 
polymers, the fluorescence is quenched--that is the green light goes 
out signaling detection of TNT. To transition our 6.1 proof of concept 
to an actual fieldable technology for the military, the ISN works with 
partner companies, both large and small, distributed throughout the 
United States. MIT has licensed our explosives detection technology to 
Nomadics, a small company based in Oklahoma, which has developed small, 
ultra-sensitive explosive detectors. The Nomadics sensor, known as 
Fido<SUP>TM</SUP>, detects vapors of explosives as they pass through a 
capillary containing a nanocoating of the MIT electronic plastic. These 
systems can rapidly detect explosive vapors at distances more than 2 
meters away from the source. Only trained dogs are capable of similar 
detection limits, and hence Fido represents an important new capability 
for our soldiers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fido sensors are undergoing evaluation in Iraq both as hand held 
systems and on robotic platforms. This integrated system can be used at 
checkpoints for vehicle interrogation at safe distances. It can also be 
used for investigating potential roadside bombs and identifying 
individuals who have recently handled explosives. The feedback from 
soldiers in Iraq to date has been very promising. This is a great 
example of how basic research at universities guided by Army needs with 
close coupling to industry has paid off.
    The research portfolio of the ISN continues to evolve as faculty 
bring their ideas on how nano can provide for soldier and first 
responder needs. Exciting new areas of research have been initiated via 
a combination of applications-pull and fundamental discovery-push. 
Science for the soldier is one way that universities can both work at 
the cutting edge of research and help with national needs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Stevens. Well, thank you. I do not understand that 
one exhibit you have, which shows the bullet still traveling 
through the fabric. What's that meant to mean?
    Dr. Thomas. What we imagined they are on the bullet going 
to the fabric, these are fibers that would sense temperature. 
So one of the problems is when someone is wounded, the medic 
who comes up doesn't know where the wound is, generally, and 
has to strip search the person, taking off that 120 pounds 
worth of stuff to find the worst wound.
    The notion here is that these fibers would be incorporated 
into the uniform next to the body, and would measure the 
temperature of the body at all times. So when you are wounded, 
the notion is there would be blood flow, say, and then there 
would be a local excursion of temperature that would be a way 
to wirelessly communicate to the medic that (a) ``tell the 
person, tell the medic that someone's down,'' and (b) where to 
look on that person to look for the wound.
    Senator Stevens. Well, we appreciate your statement. We are 
quite interested in that, and we will be pleased to follow up 
on it. I do think that there's a lot to reducing the weight. We 
had one young woman who came to testify, and she weighed less 
than the pack she jumped with. So it is a real problem.
    Dr. Thomas. Yes, sir.
    Senator Stevens. Thank you very much.
    Our next witness is Master Chief Joseph Barnes, the 
National Executive Secretary of the Fleet Reserve Association.

STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, UNITED 
            STATES NAVY (RETIRED), NATIONAL EXECUTIVE 
            SECRETARY, FLEET RESERVE ASSOCIATION
    Chief Barnes. Mr. Chairman, thank you for the opportunity 
to present the Fleet Reserve Association's (FRA's) views on the 
2007 defense budget.
    FRA's top priority is supporting adequate funding for 
protective devices, body armor, equipment, and specially 
outfitted combat vehicles, to protect personnel serving in 
Operations Iraqi Freedom and Enduring Freedom.
    We must also ensure that resources are available so that 
wounded troops, their families, and the survivors of those 
killed in action, are cared for by a grateful nation.
    Fleet Reserve Association is committed to working with 
Congress and DOD to ensure full funding of the defense health 
budget, and ensure access to the health care system for all 
uniformed services beneficiaries. This is critical to readiness 
and the retention of qualified uniform services personnel. FRA 
opposes the establishment of a TRICARE standard enrollment fee, 
and supports the restoration of $735 million to the defense 
health care budget. FRA believes other cost-saving initiatives 
should be implemented as alternatives to DOD's drastic plan to 
shift health care costs to military retirees.
    The association also supports appropriations to make 
TRICARE available on an optional basis for all selected 
reservists and families, on a cost-sharing basis. FRA supports 
appropriations necessary to implement a 2.7 percent across-the-
board military pay increase on one January 2006, plus funding 
for additional targeted pay increases for senior enlisted 
personnel, and certain officer grades.
    These increases will help achieve additional progress 
toward closing the pay gap between military and civilian pay 
levels. Adequate Active and Reserve end strengths are important 
to maintaining readiness, and FRA strongly supports increasing 
the Marine Corps end strength to 180,000. If force size is 
inadequate and op tempo too intense, the performance of 
individual servicemembers is negatively affected.
    An issue important to FRA's membership is the acceleration 
of SBP paid update from 2008 to 2006 for participants having 
paid premiums for 30 years, and being at least 70 years of age. 
If authorized, the association asks for support from this 
distinguished subcommittee to fund this enhancement.
    FRA also supports funding to maintain the commissary 
benefit, increase Reserve Montgomery G.I. bill (MGIB) education 
benefits, fund family readiness and spouse employment 
opportunities, and supplemental impact aid funding for school 
districts with large numbers of military-sponsored students.
    Thank you, Mr. Chairman, for the opportunity to present the 
association's recommendations.
    Senator Stevens. Thank you, Chief. We appreciate your 
testimony.
    [The statement follows:]

                 Prepared Statement of Joseph L. Barnes

    Mr. Chairman and other distinguished Members of the subcommittee: 
The Fleet Reserve Association (FRA) is most grateful for your support 
of our military men and women and, particularly, those serving or 
having served in Afghanistan, Iraq and other troubled spots around the 
globe. At the top of the association's gratitude list is the quality of 
life improvements funded during the First Session of the 109th 
Congress. Thanks so much for the effort. FRA appreciates the support to 
making a tough life much easier for those that might make the ultimate 
sacrifice in the service of this Nation. BRAVO ZULU.
    This statement lists the concerns of our members, keeping in mind 
that the association's primary goal is to endorse any positive safety 
programs, rewards, and quality of life improvements that support 
members of the uniformed services, particularly those serving in 
hostile areas, and their families, and survivors.
    FRA remains concerned that many of our sailors, marines and coast 
guardsmen serving in Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) may not be fully armed with the best protective 
devices available for their personal safety. Advocating the funding for 
and receipt of these protective devices; including vehicle protection, 
armor and electronic equipment to disrupt IEDs for every uniformed 
member sent into harm's way is FRA's No. 1 priority.
    The association's next priority is to ensure adequate resources so 
our wounded troops, their families, and the surviving families of the 
men and women killed in action are cared for by a grateful Nation.

                              HEALTH CARE

    Full Funding for the Defense Health Program: A top priority for FRA 
is to continue to work with Congress and DOD to ensure adequate funding 
for the Defense Health Program in order to meet readiness needs, and 
improve access to all beneficiaries regardless of age, status, or 
location. FRA believes other cost saving options should be reviewed by 
DOD before TRICARE fees are increased as proposed in the 
administration's fiscal year 2007 budget request. DOD has not 
sufficiently investigated other options to make TRICARE more cost-
efficient as alternatives to shifting costs to retiree beneficiaries 
who have earned this benefit by serving their country.
    FRA recommends making TRICARE a true second-payer to other health 
insurance. The association questions DOD's assumptions about driving 
some 150,000 retirees with other health care coverage away from 
TRICARE.
    DOD should also negotiate with drug manufacturers for retail 
pharmacy discounts, or change the law to mandate Federal pricing for 
the retail pharmacy network. FRA believes this change could result in 
significant savings to the Defense Health System.
    DOD should eliminate all mail-order co-pays to boost use of this 
lowest cost option for beneficiaries to receive prescription 
medications. The elimination of all co-pays will help drive many more 
beneficiaries to this pharmacy cost-savings benefit option. 
Accelerating DOD/VA cost sharing initiatives will ensure full 
implementation of seamless transition, including electronic medical 
records and one stop military discharge physicals--all strongly 
supported by FRA.
    The proposed future fee adjustments which are pegged to health care 
inflation will also significantly erode the value of retired pay, 
particularly for enlisted retirees who retired prior to larger and 
targeted recent pay adjustments enacted to close the pay gap. Military 
service is very different from work in the corporate world and requires 
service in often life threatening duty commitments and the associated 
benefits offered in return must be commensurate with these realities.

                       PROTECT PERSONNEL PROGRAMS

    FRA is concerned about DOD's apparent decision to reduce end 
strength to pay for weapons systems. DOD's priority of money for 
weapons before people will have an impact on retention and recruitment.
    Active Duty Pay.--FRA supports additional annual active duty pay 
increases that are at least .05 percent above the Employment Cost Index 
(ECI) along with increases for mid-career and senior enlisted personnel 
to help close the pay gap between active duty and private sector pay, 
and work to restore the ratio of pay between junior and senior enlisted 
personnel which existed prior to the advent of the All Volunteer Force.
    For fiscal year 2007, the administration recommended a 2.2 percent 
across the board basic pay increase for members of the Armed Forces. 
This increase will be the smallest increase since 1994.
    The statutory requirement to peg annual active duty pay adjustments 
at 0.5 percent above the Employment Cost Index (ECI) expired in fiscal 
year 2006. Compensation is directly related to recruitment and 
retention of quality personnel in an all-volunteer environment and FRA 
believes that maintaining a high level of morale and readiness is 
critical in winning the war on terror. With the addition of targeted 
raises authorized by Congress since fiscal year 2001, the formula has 
reduced the pay gap with the private sector from 13.5 percent to 4.4 
percent. These targeted pay increases for middle grade and senior petty 
and noncommissioned officers and warrant officers have contributed 
significantly to improved morale, readiness, and retention, and the 
Association strongly supports targeted increases for fiscal year 2007.
    Military service is very different from work in the private sector 
and often involves life threatening duty assignments, with long periods 
of separation from service member's families. Their pay and benefits 
must reflect these realities.
    Commissaries.--FRA supports adequate funding for the Defense 
Commissary Agency (DeCA) to preserve the value of the current benefit 
for all patrons. FRA is concerned about store closures, staff 
reductions, or other initiatives that may diminish the scope and 
quality of the benefit.
    Family Readiness and Support.--FRA supports a well-funded family 
readiness and support structure to enhance family cohesion that will 
improve retention and recruitment. It's most important that DOD and the 
military services concentrate on providing information and education 
programs for the families of our service members. There are a number of 
existing spousal and family programs that have been fine tuned and are 
successfully contributing to the well-being of this community. The 
Navy's Fleet and Family Centers and the Marines' Marine Corps Community 
Services (MCCS) and Family Services programs are providing 
comprehensive, 24/7 information and referral services to the service 
member and family through its One Source links. One Source is 
particularly beneficial to mobilized reservists and families who are 
unfamiliar with benefits and services available to them.
    It's true that ``the servicemember enlists in the military 
service--but it's the family that reenlists.'' To ensure the family 
opts for a uniformed career, the family must be satisfied with life in 
the military. To assist in bringing that satisfaction, FRA recommends 
the following.
    Child and Youth Programs.--Both programs rank high in priority for 
the families of sailors and marines. As an integral support system for 
mission readiness and deployments, its imperative these programs 
continue to be improved and expanded to cover the needs of both married 
and single parents. Currently, the Navy's program cares for over 31,000 
children 6 months to 12 years in 227 facilities, and in 3,180 on and 
off base licensed child development homes. However the Navy continues 
to fall short on child care development homes. Access to child care is 
important and FRA urges Congress to authorize adequate funding for this 
important benefit.
    Spousal Employment.--The association urges Congress to continue its 
support of the military's effort to affect a viable spousal employment 
program and to authorize sufficient funds to assure the program's 
success. Today's all-volunteer environment requires the services to 
consider the whole family. It is no longer adequate to focus only on 
the morale and financial well-being of the member. Now, his or her 
family must be considered. A major consideration for spousal employment 
is that it could be a stepping-stone to retention of the service 
member--a key participant in the defense of this Nation.
    DOD Schools.--FRA recommends that the subcommittee provide the 
necessary funds to continue the effective operation of the Department 
of Defense's school system and to cease and desist from using 
appropriated funds to find ways and means to close or transfer its 
school system to local school districts. Further threats of closures 
impact the morale of our Nation's military personnel and families. FRA 
notes with concern the Department of Defense's (DOD's) repeated quest 
to close some or all DOD-sponsored schools operating on military 
installations in CONUS. FRA is adamantly opposed to reducing the 
quality of education now enjoyed by the children of military personnel 
by forcing them to enroll in public schools.
    Morale, Welfare, and Recreation Programs (MWR).--FRA recommends the 
subcommittee increase funding for MWR programs. FRA believes these 
programs are vital to supporting the servicemember and his or her 
family. They include recreation, fitness, social and community support 
activities, spouse employment, personal financial management, 
counseling, family advocacy, safety, transition and relocation 
programs--all having a positive affect on fleet readiness. Sailors have 
consistently ranked fitness centers and gyms available to them a top 
priority and are the most used MWR program.
    Currently, the shortage of funds is curtailing or closing some of 
the activities while the costs of participating in others have recently 
increased. Regarding Navy fitness centers, the biggest challenge is to 
update older fitness structures and providing the right equipment, and 
ensure availability of trained staff.
    Active Duty and Reserve Component Personnel End Strengths.--FRA 
strongly supports adequate end strength to win the war on terror and to 
maintain other needed military commitments around the world. America is 
at war and FRA believes the Sea Services should have adequate numbers 
of personnel to meet the demands of fighting the war on terror and 
sustain other operational commitments. Many are concerned that the 
fiscal year 2007 DOD budget request sacrifices manpower for technology 
and does not address adequate service end strengths. Accordingly, FRA 
strongly supports increased USMC end strength of 180,000. The 
association is also concerned about the impact of Navy end strength 
reductions of 12,000, a 3 percent cut from last year. Inadequate end 
strengths increase stress on the military personnel and their families 
and contribute to greater reliance on the Guard and Reserves.
    Education Funding.--FRA strongly supports supplemental Impact Aid 
for highly impacted school districts. FRA is most appreciative for the 
Impact Aid authorized in previous defense measures. FRA believes it is 
important to ensure our service members, many serving in harm's way, 
have less concern about their children's educations but more to do with 
the job at hand.
    Reform of PCS Process.--FRA supports upgrading permanent change-of-
station allowances to reflect the expenses members are forced to incur 
in complying with government-directed relocations. Specifically, the 
overwhelming majority of service families own two privately owned 
vehicles, driven by the financial need for the spouse to work, or the 
distance some families must live from an installation and its support 
services. FRA supports funding necessary to ship a second POV at 
government expense to overseas accompanied assignments. In many 
overseas locations, families have difficulty managing without a second 
family vehicle because family housing is often not co-located with 
installation support services. FRA also continues to support resources 
necessary to provide full replacement value for lost or damaged 
household goods during the PCS process.

                             RESERVE ISSUES

    FRA stands foursquare in support of the Nation's Reservists. They 
were once known as ``weekend warriors.'' But today, it's a different 
story. Given the pressure of the war on terror, Reserve units are now 
increasingly being mobilized to augment active duty components. Up to 
75 percent of the U.S. Coast Guard Reserve has been mobilized, with 
many members serving multiple tours of active duty in support of 
contingency operations. More than 5,000 Reserve sailors are mobilized, 
mostly in the desert. In fact, wherever active-duty marines are engaged 
around the world, Marine Reservists are there.
    Inadequate benefits for Reservists and the Guard can only undermine 
long-term retention and readiness. Because of increasing demands on 
these personnel to perform multiple missions abroad over longer periods 
of time, it's essential to improve compensation and benefits packages 
to attract recruits and retain currently serving personnel.
    Healthcare.--FRA supports making the TRICARE program available on 
an optional basis for all selected Reservists and families on a cost-
sharing basis. FRA recommends funding to increase subsidy levels for 
TRICARE coverage for drilling Reserve members not yet mobilized and 
having one premium for all members of the Guard and Reserve who 
continue to be drilling members. TRICARE Reserve Select is a very 
important benefit, particularly because consistency of healthcare 
benefits and continuity of care are major concerns for Reserve 
personnel and their families. DOD must rely more heavily upon the Guard 
and Reserve personnel to prosecute the war and sustain other 
operational commitments. In addition, deployments are also becoming 
longer and more frequent and these personnel are indispensable to our 
Armed Forces.
    Retirement.--FRA recommends that Congress reduce the age when 
Reserve members are eligible for retirement pay, particularly for those 
members who have experienced extended mobilizations.
    Family Readiness.--FRA supports more emphasis on providing 
consistent funding and increased outreach to connect Guard and Reserve 
families with these support programs. FRA therefore supports increasing 
funding for family readiness especially for those geographically 
dispersed and not readily accessible to military installations and 
inexperienced with the military. Unlike active duty families who often 
live near military facilities and support services, many Reserve 
families live in civilian communities. This poses a major challenge for 
them, because military information and support is not readily 
available. Congressional hearing witnesses have indicated that many of 
the half million mobilized Guard and Reserve personnel have not 
received transition assistance services they and their families need to 
make a successful transition back to civilian life.

                             BASE CLOSINGS

    BRAC.--FRA strongly supports resources to support retention of 
military treatment and other facilities at BRAC sites that are 
patronized by sizeable retiree and Reserve populations. Thousands of 
military members and families will be under great stress in the months 
and years ahead as a result of rebasing, closure, and transformation 
actions. But the impact extends beyond the active duty personnel 
currently assigned to the affected installations. The entire 
beneficiary community--Reserve, retirees, survivors, veterans, and 
others--experience the traumatic impact of a realignment and closure 
actions. Support facilities are usually closed, and beneficiaries who 
relied on the base for support are forced to search elsewhere.

                               CONCLUSION

    FRA is grateful for the opportunity to present the organization's 
views to this distinguished subcommittee. The association reiterates 
its profound gratitude for the extraordinary progress this subcommittee 
has made in advancing a wide range of military personnel benefits and 
quality-of-life programs for all uniformed services personnel and their 
families and survivors. Thank you again for the opportunity to present 
the FRA' views on these critically important topics.

    Senator Stevens. Our next witness is Lesli Foster of 
Channel 9 News.
    I hope you all realize what we are doing. There are votes 
going on on the floor, and Senator Inouye goes to vote, and 
then he comes back, and then I go to vote. Thank you.
    Good morning.

STATEMENT OF LESLI FOSTER MATHEWSON, WEEKEND ANCHOR, 
            CHANNEL 9 NEWS, WASHINGTON, DC
ACCOMPANIED BY JOHN MATHEWSON, EXECUTIVE VICE PRESIDENT, THE HSC 
            FOUNDATION

    Ms. Foster. Good morning. Chairman Stevens, thank you for 
the opportunity to share my thoughts. My name is Lesli Foster 
Mathewson, and I am a news anchor and reporter for WUSATV9 in 
Washington, DC. I am here today with my husband, a proud 
prostate cancer survivor, to share our story about fighting 
this disease.
    I feel it is personally important for us to be here because 
cancer happens to the family, not just the man who is impacted 
by the disease.
    Our story is that 89 days after we got married in September 
2004, my husband was diagnosed with prostate cancer. I was 
stunned, scared, and worried about the prospect of what I'd do 
without the love of my life. And I thought, like many, that 
prostate cancer was a disease that struck only older men. My 
grandfather succumbed to prostate cancer just 4 years earlier.
    It is still hard for me to reconcile this in my head some 
days, because John was active and committed to healthy living, 
and we had a lifetime ahead of us. Why him? Why us?
    Surgery was the best option because of the age and stage of 
his particular cancer, but his treatment did present one 
significant challenge. We would have a good chance to eradicate 
the cancer from his body, but in doing so we would lose our 
opportunity to conceive children naturally. We only had 6 weeks 
prior to his surgery to try and conceive, and thankfully, we 
were able to get pregnant with what we call our miracle baby 
before my husband had his surgery in February 2005 at Johns 
Hopkins. We gave birth to our daughter, Jordan Elise, in 
October of last year, and best of all, John has remained 
cancer-free.
    I am relieved and feel incredibly blessed to know that John 
is healthy, and we certainly hope that he will be around for us 
to celebrate many more years together, and he'll be able to see 
our daughter grow up. But I am always concerned about his 
cancer because we still need to do more research to determine 
why young men like him are being stricken at alarming rates, 
and what if anything we can do to prevent this disease.
    Mr. Mathewson. Senator Stevens, thank you also for the 
opportunity to share my thoughts. My name is John Mathewson, 
and I serve as Executive Vice President of the HSC Foundation, 
a nonprofit hospital system based here in Washington. I am 
especially proud to be here with my rock and pillar, my wife. I 
am so fortunate that she was and is unwavering in her support.
    Shocked, scared, queasy, why me. At 45 years old, at the 
time I was too young. It doesn't run in my family. I do not 
smoke. How long do I have to live? Will it hurt? My wife is 
only 30. Those are just some of the thoughts that ran through 
my mind on December 2, 2004. I understand how to access the 
health care system. Outside of my age, my greatest risk factor 
for prostate cancer was being an African-American male.
    And like so many other diseases, the incidence among black 
men compared to other culture groups is agonizing. We tend to 
be diagnosed later, have a form of the disease that advances 
faster, and have a higher mortality rate than whites. Good 
treatment options are fine, but wouldn't it be better if we 
could do a better job of preventing the disease in the first 
place?
    I should share that since I had been treated, one of my 
older brothers has also now been diagnosed with the disease. He 
was 62 at the time, and had never had a PSA exam. So now all 
the remaining four of my brothers must get checked annually.
    If I could leave you with two things today, they would be 
this: the public as well as primary care physicians need better 
education about prostate cancer. I had a false sense of 
security about my health, largely revolving around the 
education that is available for prostate cancer prevention, 
because I didn't know enough until I was finally treated at 
Hopkins.
    The next is that it takes 5 to 7 years to develop this 
disease. So waiting until age 40 to educate African-American 
men is too late. It needs to begin in their 30s.
    I also hope that there is a significant acknowledgment 
about how deadly this disease is for all men. All men are at 
risk.
    In closing, I want to say that we support the National 
Prostate Cancer Coalition, and I urge you to fund the Prostate 
Cancer Research Program in the Department of Defense at $85 
million for fiscal year 2007. We urge you to continue to 
support these programs that provide access to new discoveries 
that will help us understand and cure prostate cancer.
    This concludes our testimony. Thank you for the privilege 
to present our story.
    Senator Stevens. And thank you very much, both of you. I 
guess you know I'm a survivor of prostate cancer also, so I 
appreciate your testimony very much.
    I'm going to go out of order and ask Dr. Polly to come up 
now, with Senator Inouye's consent. I am going to have to leave 
and not come back because I'm one of the people that has to go 
meet the Speaker for the joint session. But Dr. Polly, Senator 
Inouye knows, is the only reason I'm sitting up here, and can 
walk and run and play tennis and lift weights. So I honor you, 
Doctor, and would like to hear your statement.

STATEMENT OF DR. DAVID W. POLLY, JR., M.D., ON BEHALF 
            OF THE AMERICAN ACADEMY OF ORTHOPAEDIC 
            SURGEONS
    Dr. Polly. Thank you, Mr. Chairman. My name is Dr. David 
Polly, and I'm speaking on behalf of the American Academy of 
Orthopaedic Surgeons.
    As a graduate of West Point and an airborne ranger who 
served as a line officer in the Army, I subsequently attended 
medical school at the Uniformed Services University, and then 
trained in orthopaedic surgery at Walter Reed. I have 
personally cared for injured soldiers at Walter Reed during 
four different military conflicts, and have served in a war 
zone as a military orthopaedic surgeon. My last assignment 
before retiring was as chair of Orthopaedic Surgery at Walter 
Reed.
    I'm here today to thank the members of the subcommittee for 
establishing and funding the fiscal year 2006 orthopaedic 
trauma research program at the Institute of Surgical Research, 
at Brooke. I urge continuation of funding for this vital 
program. More than half of the trauma out of Afghanistan and 
Iraq is orthopaedic related, with a vast majority being to the 
upper and lower extremities, as well as the spine.
    Body armor, as you've heard earlier, does a remarkable job 
of protecting the soldier's torso, but his or her extremities 
are particularly vulnerable, especially to IEDs. Wounded 
soldiers who have died in previous conflicts are now surviving, 
and have to recover from these devastating injuries. These 
injuries are producing unprecedented numbers of mangled 
extremities, with severe reconstructive challenge. And 
infection is often a problem.
    What has been done so far? An extremity war injury 
symposium was held here in Washington, DC, in January 2006 as a 
partnership between organized orthopaedic surgery industry and 
military surgeons. And I'd like to thank you, sir, for 
attending that conference. Proceedings of the symposium 
included a list of prioritized research needs that closely 
parallels those released on February 13 for the Orthopaedic 
Trauma Research Program.
    Among these priorities include reduction of infection, 
improved healing of segmental bone defects, and many others.
    The intent of the Orthopaedic Trauma Research Program is to 
foster collaboration between civilian and military orthopaedic 
surgeons and researchers. Civilian researchers have the 
expertise and the resources to assist their military colleagues 
with the growing number of musculoskeletal war wound 
challenges, to augment military research efforts. This 
collaboration will provide wide-ranging benefits to civilian 
trauma patients, as well.
    Senator Stevens. Doctor, I'm summoned. I do thank you for 
coming. And again, I honor you, my friend. Thank you.
    Dr. Polly. Thank you, sir.
    Early stages of the program revealed a strong interest. 
Close to 100 pre-proposals have been received, totaling over 
$20 million in requests. Of these, 76 merited full proposal 
submission, and will be reviewed in July. Intelligence 
surveillance reconnaissance (ISR) expects to receive much 
higher numbers of proposals in subsequent years when the time 
line is less compressed.
    With orthopedic trauma being the most common form of trauma 
seen in military conflicts, it is crucial that there be funding 
dedicated specifically to the enhancement of orthopaedic trauma 
research. The academy has worked closely with top orthopaedic 
surgeons in the military to identify the gaps in research and 
care, and the needs are overwhelming. Especially considering 
that military trauma is not a research focus for the National 
Institutes of Health (NIH).
    I commend Congress for its commitment to amputee care 
funding, but our goal must be to do everything we can to avoid 
having this need to provide this care, and to salvage these 
injured limbs in the first place. Expanded Federal commitment 
to the orthopaedic extremity trauma research program would move 
us closer to this goal. On behalf of America's soldiers, 
military orthopedic surgeons, and the American Academy of 
Orthopaedic Surgeons, I respectfully request that the 
subcommittee continue the Orthopaedic Trauma Research Program 
at a funding level of $25 million. As this program is only in 
its infancy, continuity is critical to its future success.
    Thank you once again for this opportunity, and I'd be glad 
to answer any questions.
    Senator Inouye [presiding]. You may be assured that we will 
do our best, sir.
    Dr. Polly. Yes, sir. Thank you for your efforts in the 
past, and your continuing efforts today.
    Senator Inouye. Thank you.
    [The statement follows:]

               Prepared Statement of David W. Polly, Jr.

    Chairman Stevens, ranking member Inouye, Members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
testify today. My name is David W. Polly, Jr., M.D., and I speak today 
on behalf of the American Academy of Orthopaedic Surgeons (AAOS), of 
which I am an active member, as well as on behalf of military and 
civilian orthopaedic surgeons involved in orthopaedic trauma research 
and care.
    I am a graduate of the United States Military Academy at West Point 
and as an airborne ranger, served as a line officer in the Army. 
Subsequently, I attended medical school at the Uniformed Services 
University of the Health Sciences and trained in orthopaedic surgery at 
Walter Reed Army Medical Center. I have personally cared for injured 
soldiers at Walter Reed during four different military conflicts and 
have been deployed to a war zone as a military orthopaedic surgeon. My 
last assignment was as chair of the Department of Orthopaedic Surgery 
and Rehabilitation at Walter Reed. I retired at the end of 2003 after 
more than 24 years of service. I am currently professor of Orthopaedic 
Surgery and Chief of Spine Surgery at the University of Minnesota.
    First and foremost, I am here today to thank the Members of this 
subcommittee for establishing funding in fiscal year 2006 for the 
Orthopaedic Trauma Research Program (OTRP) and urge continuation of 
funding for this vital program. I will discuss the common types of 
orthopaedic trauma seen out of Iraq and Afghanistan and offer a 
military perspective on the direction in which orthopaedic research 
should head in order to better care for soldiers afflicted with 
orthopaedic trauma. Finally, I will provide an update on the progress 
of OTRP, which is administered by the U.S. Army Institute of Surgical 
Research (USAISR).

ORTHOPAEDIC TRAUMA FROM OPERATION IRAQI FREEDOM AND OPERATION ENDURING 
                                FREEDOM

    The Armed Forces are attempting to return significantly injured 
soldiers to full function or limit their disabilities to a functional 
level in the case of the most severe injuries. The ability to provide 
improved recovery of function moves toward the goal of keeping injured 
soldiers part of the Army or service team. Moreover, when they do leave 
the Armed Forces, these rehabilitated soldiers have a greater chance of 
finding worthwhile occupations outside of the service to contribute 
positively to society. The Army believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country.
    It probably comes as no surprise that more than half of the trauma 
seen out of Iraq and Afghanistan is orthopaedic-related, especially 
upper and lower extremity and spine. From October, 2001 through 
January, 2005, extremity injuries alone accounted for 54 percent of the 
wounds sustained in Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) according to the Joint Theater Trauma Registry, 
a database of medical treatment information from a theater of combat 
operations treated at U.S. Army medical treatment facilities. Other 
reports suggest this number is closer to 60-70 percent for OIF, and 
these estimates do not include non-American and civilians receiving 
medical care through U.S. military facilities. By comparison to 
previous wars, the current conflicts are experiencing a greater 
proportion of upper extremity fractures in particular.
    Of 256 battle casualties treated at the Landstuhl Regional Medical 
Center in Germany during the first 2 months of OIF, 68 percent 
sustained an extremity injury. The reported mechanism of injury was 
explosives in 48 percent, gun-shot wounds in 30 percent and blunt 
trauma in 21 percent. As the war has moved from an offensive phase to 
the current counter-insurgency campaign, higher rates of injuries from 
explosives can be expected. (Johnson BA. Carmack D, Neary M, et al. 
Operation Iraqi Freedom: the Landstuhl Regional Medical Center 
experience. J Foot Ankle Surg. 2005; 44:177-183.) According to the 
JTTR, between 2001 and 2005, explosive mechanisms accounted for 78 
percent of the war injuries compared to 18 percent from gun shots.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. While body armor does a great job of 
protecting a soldier's torso, his or her extremities are particularly 
vulnerable during attacks.
Characteristics of Military Orthopaedic Trauma
    According to the New England Journal of Medicine, blast injuries 
are producing an unprecedented number of ``mangled extremities''--limbs 
with severe soft-tissue and bone injuries. (``Casualties of War--
Military Care for the Wounded from Iraq and Afghanistan,'' NEJM, 
December 9, 2004). The result of such trauma is open, complex wounds 
with severe bone fragmentation. Often there is nerve damage, as well as 
damage to tendons, muscles, vessels, and soft-tissue. In these types of 
wounds, infection is often a problem. According to the JTTR, 53 percent 
of the extremity wounds are classified as penetrating soft-tissue 
wounds, while fractures compose 26 percent of extremity wounds. Other 
types of extremity wounds composing less than 5 percent each are burns, 
sprains, nerve damage, abrasions, amputations, contusions, 
dislocations, and vascular injuries.
Military Versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted. First, with 
orthopaedic military trauma, there are up to five echelons of care, 
unlike in civilian settings when those injured are most likely to 
receive the highest level of care immediately. Instead, wounded 
soldiers get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be medevaced to receive care and 
transportation is often delayed due to weather or combat conditions. It 
has been our experience that over 65-percent of the trauma is urgent 
and requires immediate attention.
    Second, soldiers wounded are often in fair or poor health, are 
frequently malnourished, and usually fatigued due to the demanding 
conditions. This presents many complicating factors when determining 
the most appropriate care.
    Third, the setting in which care is initially provided to wounded 
soldiers is less than ideal, to say the least, especially in comparison 
to a sterile hospital setting. The environment, such as that seen in 
Iraq and Afghanistan, is dusty and hot, leading to concerns about 
sterilization of the hospital setting. For example, infection from 
acinetobacter baumanni, a ubiquitous organism found in the desert soil 
of Afghanistan and Iraq, is extremely common. In addition, the surgical 
environment is under constant threat of attack by insurgents. In fact, 
a considerable percentage of the care provided by military surgeons is 
for injured Iraqis, both friendly and hostile. Finally, the surgical 
team is faced with limited resources that make providing the highest 
level of care difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, such as the external fixateur, 
which has been used extensively during the current conflict as well as 
in civilian care.
Future Needs of Orthopaedic Trauma Research
    An Extremity War Injuries (EWI) Symposium was held in Washington, 
DC on January 24-27, 2006. This extraordinary symposium was a 
partnership effort between organized orthopaedic surgery, military 
surgeons and industry. It was attended by 98 military and civilian 
physicians and researchers committed to the care of extremity injuries. 
The symposium addressed current challenges in the management of 
extremity trauma associated with recent combat in Iraq and Afghanistan.
    The focus of the symposium was to identify opportunities to improve 
the care for the sons and daughters of America who have been injured 
serving our Nation. Proceedings from the symposium included a list of 
prioritized research needs:
    Timing of Treatment.--Better data are necessary to establish best 
practices with regard to timing of debridement, timing of temporary 
stabilization and timing of definitive stabilization. Development of 
animal models of early versus late operative treatment of open injuries 
may be helpful. Prospective clinical comparisons of treatment groups 
will be helpful in gaining further understanding of the relative role 
of surgical timing on outcomes.
    Techniques of Debridement.--More information is necessary about 
effective means of demonstrating adequacy of debridement. Current 
challenges, particularly for surgeons with limited experience in wound 
debridement, exist in understanding how to establish long-term tissue 
viability or lack thereof at the time of an index operative 
debridement. Since patients in military settings are typically 
transferred away from the care of the surgeon performing the initial 
debridement prior to delivery of secondary care, opportunities to learn 
about the efficacy of initial procedures are lost. Development of 
animal models of blast injury could help establish tissue viability 
markers. Additional study is necessary to understand ideal frequencies 
and techniques of debridement.
    Transport Issues.--Clinical experience suggests that current air 
evacuation techniques are associated with development of complications 
in wound and extremity management although the specific role of 
individual variables in the genesis of these complications is unclear. 
Possible contributing factors include altitude, hypothermia and 
secondary wound contamination. Clinical and animal models are necessary 
to help develop an understanding of transport issues. Development, 
testing and approval of topical negative pressure devices for use 
during aeromedical transport should be facilitated.
    Coverage Issues.--Controlled studies defining the role of timing of 
coverage in outcome following high-energy extremity war injuries are 
lacking. Also necessary is more information about markers and 
indicators to help assess the readiness of a wound and host for 
coverage procedures. Both animal modeling and clinical marker 
evaluation are necessary to develop understanding in this area.
    Antibiotic Treatments.--Emergence of resistant organisms continues 
to provide challenges in the treatment of infection following high-
energy extremity war injuries. Broader prophylaxis likely encourages 
development of antibiotic resistance. In the context of a dwindling 
pipeline of new antibiotics, particularly those directed toward gram-
negative organisms, development of new technologies to fight infection 
is necessary. This patient population offers opportunity to assess 
efficacy of vaccination against common pathogens. Partnerships with 
infectious disease researchers currently involved in addressing similar 
questions should be developed.
    Management of Segmental Bone Defects.--A multitude of different 
techniques for management of segmental bone defects is available. These 
include bone transport, massive onlay grafting with and without use of 
recombinant proteins, delayed allograft reconstruction, and acute 
shortening. While some techniques are more appropriate than others 
after analysis of other clinical variables, controlled trials comparing 
efficacy between treatment methods are lacking. Variables that may 
affect outcome can be grouped according to patient characteristics 
including co-morbidities, injury characteristics including severity of 
bony and soft-tissue wounds, and treatment variables including method 
of internal fixation selected. Evaluation of new technologies for 
treatment of segmental bone defects should include assessment of 
efficacy with adequate control for confounding variables and assessment 
of cost-effectiveness.
    Development of an Animal Model.--A large animal survival military 
blast injury model is necessary to serve as a platform for multiple 
research questions including: VAC v. bead pouch v. dressing changes; 
Wound cleaning strategy; Effect of topical antibiotics; Modulation of 
inflammatory response; Timing of wound closure; and Vascular shunt 
utilization.
    Amputee Issues.--Development and validation of ``best practice'' 
guidelines for multidisciplinary care of the amputee is essential. 
Treatment protocols should be tested clinically. Studies should be 
designed to allow for differentiation between the impacts of the 
process versus the device on outcome. Failure analysis as a tool to 
evaluate efficacy of treatment protocols and elucidate shortcomings 
should be utilized. Clinically, studies should focus on defining 
requirements for the residual limb length necessary to achieve success 
without proceeding to higher level amputation. Outcomes based 
comparisons of amputation techniques for similar injuries and similar 
levels should be performed. Use of local tissue lengthening and free 
tissue transfer techniques should be evaluated. In the context of 
current results and increasing levels of expectation for function 
following amputation, development of more sensitive and military 
appropriate outcomes monitors is necessary.
    Heterotopic Ossification.--Animal models of heterotopic 
ossification should be utilized to develop early markers for 
heterotopic ossification development that could identify opportunities 
for prevention. Better information is needed about burden of disease 
including prevalence following amputation for civilian versus military 
trauma and frequency with which symptoms develop. Treatment methods 
such as surgical debridement, while effective, necessarily interrupt 
rehabilitation. Prevention could expedite recovery and potentially 
improve outcome.
    Data Collection System.--A theme common to virtually all 
discussions on research and patient care for our soldiers has been the 
need for access to better longitudinal patient data. Current patient 
care processes both in theatre and at higher echelon care centers do 
not include data captured in a way that allows simple electronic 
linkage of medical records from one level of care to the next. At least 
two electronic medical records systems are in use, and they are not 
necessarily compatible with one another. Any electronic medical record 
used should be web based to allow for linkage of patient data from the 
earliest echelon of documented care through the VA system. The system 
must be user friendly and not cumbersome to encourage entry of 
information critical to outcomes analysis. An example of one system 
with some of the necessary components is the current Joint Patient 
Tracking Application (JPTA). The system unfortunately lacks integration 
with a trauma registry or database to allow for retrospective or 
prospective analyses of specific injuries and treatments. Funding is 
necessary for platform development, information systems infrastructure 
and data entry personnel.
Stories from the Frontlines
    There have been many heroic stories of injured soldiers struggling 
to regain function and to return to normal life, or even back to 
service. A story highlighted in a March 2005 National Public Radio 
(NPR) series titled ``Caring for the Wounded: The Story of Two 
Marines,'' followed two Marines injured in Iraq: 1st Sgt. Brad Kasal 
and Lance Cpl. Alex Nicoll. Lance Cpl. Nicoll had to have his left leg 
amputated as a result of his injuries from gunshot wounds. Nicoll has 
undergone physical therapy at Walter Reed to adjust to his new 
prosthetic leg, made from graphite and titanium. While Sgt. Kasal was 
so seriously injured that he lost four inches of bone in his right leg, 
due to medical advances in limb salvaging, he did not have to have his 
leg amputated. Kasal underwent a bone growth procedure, called the 
Illizarov Technique, which grows the bone one millimeter a day.
    The Iraq war has created the first group of female amputees. Lt. 
Dawn Halfaker is one of approximately 11 military women who have lost 
limbs from combat injuries in Iraq, compared to more than 350 men. She 
lost her arm to a life-threatening infection, after sustaining major 
injuries, along with another soldier, when on a reconnaissance patrol 
in Baqouba, Iraq, a rocket-propelled grenade exploded inside her 
armored Humvee. Maj. Ladda ``Tammy'' Duckworth lost both legs when a 
rocker-propelled grenade slammed into her Black Hawk helicopter near 
Balad. Juanita Wilson, an Army staff sergeant, lost her left hand when 
an improvised bomb exploded near her Humvee on a convoy mission north 
of Baghdad. All three women are successfully moving forward in military 
or civilian careers.
    Bone problems, seldom seen in soldiers from previous wars who have 
lost limbs, have complicated recoveries for Iraq and Afghanistan-
stationed soldiers. Heterotopic ossification, or H.O., a condition in 
which bone grows where it doesn't belong, has developed in nearly 60 
percent of 318 amputees treated at Walter Reed Army Medical Center. 
Nearly 70 patients from across the military have been treated for H.O. 
at Brooke Army Medical Center. Rarely occurring in civilian amputees, 
high-intensity blasts, which can shred muscles, tendons and bone, 
appears to stimulate adult stem cells to heal damage, but repair 
signals often go awry. Advances in body armor resulting in higher 
survival rates and ability to preserve more damaged tissue, have lead 
to the high number of H.O. cases where little research exists on how to 
treat the condition among amputees. (``Bone condition hampers soldiers' 
recovery,'' USA TODAY, February 12, 2006)
    These stories clearly illustrate the benefits of, and need for, 
orthopaedic trauma research for America's soldiers.
Orthopaedic Trauma Research Program
    The AAOS and military and civilian orthopaedic surgeons and 
researchers are grateful that the subcommittee included language in the 
fiscal year 2006 Defense Appropriations Bill to create the 
``Orthopaedic Trauma Research Program'' (OTRP) as part of the Medical 
Research and Material Command's (MRMC) medical research program, 
administered by the U.S. Army Institute of Surgical Research (USAISR) 
at Fort Sam Houston, Texas.
    The OTRP is the first program created in the Department of Defense 
dedicated exclusively to funding peer-reviewed intramural and 
extramural orthopaedic trauma research. Having the program administered 
by the USAISR ensures that the research funding follows closely the 
research priorities laid out by the Army and the Armed Forces, and 
ensures collaboration between military and civilian research 
facilities. USAISR has extensive experience administering similar grant 
programs and is the only Department of Defense Research laboratory 
devoted solely to improving combat casualty care.
    The intent of the OTRP is to foster collaboration between civilian 
and military orthopaedic surgeons and researchers. Civilian researchers 
have the expertise and resources to assist their military colleagues 
with the growing number of patients and musculoskeletal war wound 
challenges, to build a parallel research program in the military. 
Civilian investigators are interested in advancing the research and 
have stepped up to engage in these efforts, which will also provide 
wide ranging benefits to civilian trauma patients as well.
    It is important to note that military orthopaedic surgeons, in 
addition to personnel at the U.S. Army Medical Research and Materiel 
Command, Fort Detrick, have had significant input into the creation of 
this program and fully support its goals. The $7.5 million awarded for 
OTRP in fiscal year 2006 is hopefully the beginning of a stronger focus 
of a core mission in the military to dedicate Department of Defense 
research resources to injured soldiers.
    The Broad Agency Announcement (BAA) for the OTRP grants was 
released on February 13, 2006, and identified the following basic, 
transitional and clinical research funding priorities: Improved healing 
of segmental bone defects; improved healing of massive soft tissue 
defects; improved wound healing; tissue viability assessment and wound 
irrigation and debridement technologies; reduction in wound infection; 
prevention of heterotopic ossification; demographic and injury data on 
the modern battlefield and the long-term outcomes of casualties (i.e. 
joint theatre trauma registry); and improved pre-hospital care of 
orthopaedic injuries.
    The number of full proposals submitted under this program will be 
up to 76 grant applications by the time they are reviewed, expected in 
July of this year. This number is relatively high considering the 
shortened time period this year for submitting pre-proposals, due by 
the first week in May, and considering the funding level of $7.5 
million. Close to 100 pre-proposals were received for consideration, 
with 76 invited to compete with a full proposal. An upper limit of 
$500,000 has been established for any one grant, to give a reasonable 
number of grantees an opportunity to participate. Ordinarily grants 
would generally be awarded for much higher amounts to support the 
research required. Larger multi-institutional studies had to limit what 
they were proposing.
    More funding would allow for a broader scope of work and multi-
institutional collaboration. The requests from these 76 proposals for 
year one of the grants totaled over $20 million and several grants 
requested funding for multiple years. USAISR expects to receive a much 
higher number of pre-proposals in subsequent years, when the timeline 
for submission will be longer, with more lead time in notification.
    With orthopaedic trauma being the most common form of trauma seen 
in military conflicts, it is crucial that there be funding dedicated 
specifically to the advancement of orthopaedic trauma research. The 
AAOS has worked closely with the top military orthopaedic surgeons, at 
world-class facilities such as the U.S. Army Institute of Surgical 
Research, Brooke Army Medical Center, and Walter Reed Army Medical 
Center to identify the gaps in orthopaedic trauma research and care and 
the needs are overwhelming. Especially considering military trauma is 
not a research focus for the National Institutes of Health (NIH).

                               CONCLUSION

    I hope that I have given you a well-rounded perspective on the 
extent of what orthopaedic trauma military surgeons are seeing and a 
glimpse into the current and future research for such trauma. Military 
trauma research currently being carried out at military facilities, 
such as WRAMC and the USAISR, and at civilian medical facilities, is 
vital to the health of our soldiers and to the Armed Forces' objective 
to return injured soldiers to full function in hopes that they can 
continue to be contributing soldiers and active members of society.
    Mr. Chairman, the American Academy of Orthopaedic Surgeons, as well 
as the entire orthopaedic community, stands ready to work with this 
subcommittee to identify and prioritize research opportunities for the 
advancement of orthopaedic trauma care. Military and civilian 
orthopaedic surgeons and researchers are committed to advancing 
orthopaedic trauma research that will benefit the unfortunately high 
number of soldiers afflicted with such trauma and return them to full 
function. It is imperative that the Federal Government, when 
establishing its defense health research priorities in the fiscal year 
2007 Defense Appropriations bill, ensure that orthopedic trauma 
research is a top priority.
    I urge you to continue the Orthopaedic Trauma Research Program at a 
funding level of $25 million. While Congress funds an extensive array 
of medical research through the Department of Defense, with over half 
of military trauma being orthopaedic-related, no other type of medical 
research would better benefit our men and women serving in the war on 
terror and in future conflicts. Especially as this program is only in 
its infancy stage, continuity is critical to its success.

    Senator Inouye. Our next witness, Dr. Robert Recker, 
National Coalition for Osteoporosis and Related Bone Diseases. 
Dr. Recker.

STATEMENT OF DR. ROBERT RECKER, M.D., DIRECTOR, 
            OSTEOPOROSIS RESEARCH CENTER, CREIGHTON 
            UNIVERSITY, ON BEHALF OF THE NATIONAL 
            COALITION FOR OSTEOPOROSIS AND RELATED BONE 
            DISEASES
    Dr. Recker. Mr. Chairman and members of the subcommittee, I 
am Dr. Robert Recker, Director of the Osteoporosis Research 
Center at Creighton University in Omaha, Nebraska, and I am 
testifying on behalf of the National Coalition for Osteoporosis 
and Related Bone Diseases, the Bone Coalition.
    The Bone Coalition is committed to research and education 
that reduces the impact of bone diseases. It includes the 
American Society for Bone and Mineral Research, the National 
Osteoporosis Foundation, the Osteogenesis Imperfecta 
Foundation, and the Paget Foundation. We appreciate this 
opportunity to discuss funding of the Bone Health and Military 
Medical Readiness Research Program within the Department of 
Defense.
    The purpose of this program is to improve the bone health 
of our military personnel. Current efforts focus on eliminating 
stress fractures during training and deployment. Stress 
fractures occur in military recruits and trainees who undergo 
rigorous physical conditioning in a brief period of time. 
Increases in military recruitment have led to an upsurge in 
stress fracture cases. In soldiers on lengthy deployments, 
medical dispensaries report stress fractures in unprecedented 
numbers.
    Among new recruits, approximately 40 percent of men and 60 
percent of women with stress fracture do not complete basic 
training. Those who do return to duty must first undergo a 
rehabilitation period of 80 to 120 days. Stress fractures are a 
significant health and financial burden, increasing training 
time, program costs, and time to military readiness.
    It is critical that we continue to build on recent findings 
that have led to the following advances: one, an Army-wide 
physical training program with reduced running and increased 
resistance training, without compromising physical fitness. 
Studies of this new program continue.
    Modifications in the physical fitness program for female 
Marine Corps recruits in training, without compromising 
physical fitness.
    Animal studies showing that short-term exercise training 
improves material and structural properties of bone, improving 
fatigue resistance by 80-fold. Studies are underway in humans.
    Discovery that a nonsteroidal anti-inflammatory medication 
slows stress fracture healing in animals. A study of these 
medications in humans is nearing completion.
    To eliminate stress fracture in basic training, to optimize 
physical training and nutrition standards, and to develop 
practical methods to predict impending injury; expanded 
research is needed that will one, utilize genetic, lifestyle, 
and other risk factors, to establish a risk factor profile that 
identifies individuals at high risk for stress fracture; expand 
on pulmonary findings of gender differences in their response 
of bone to physical training; study the relationship between 
exercise training regimen: timing, type, volume of training, 
and onset of micro damage in bone; examine the impact of load 
bearing and muscle fatigue on bone during prolonged standing 
and marching; and finally, to test promising interventions that 
might improve bone quality prior to entry into basic training.
    These studies and other DOD studies in progress will 
determine cost effective approaches to diagnose, prevent, and 
treat stress fractures, and accelerate return to duty.
    Mr. Chairman and members of the subcommittee, stress 
fractures continue to be a critical obstacle to military 
readiness and deployment. It is imperative that the Department 
of Defense build on recent findings, and maintain an aggressive 
and sustained bone health and military medical readiness 
program. The National Coalition for Osteoporosis and Related 
Bone Diseases urges you to fund this program at a level of $5 
million in fiscal year 2007. We appreciate the opportunity to 
express our concerns.
    Senator Inouye. Doctor, we assure you we will do our utmost 
on this one.
    Dr. Recker. Thank you.
    [The statement follows:]

                  Prepared Statement of Robert Recker

    Mr. Chairman and Members of the committee: I am Robert Recker, 
M.D., Director of the Osteoporosis Research Center at Creighton 
University in Omaha, Nebraska and I am testifying on behalf of the 
National Coalition for Osteoporosis and Related Bone Diseases (the Bone 
Coalition).
    The Bone Coalition is committed to reducing the impact of bone 
diseases through expanded basic, clinical, epidemiological and 
behavioral research leading to improvement in patient care. The 
Coalition participants are leading national bone disease 
organizations--the American Society for Bone and Mineral Research, the 
National Osteoporosis Foundation, the Osteogenesis Imperfecta 
Foundation, and the Paget Foundation for Paget's Disease of Bone and 
Related Disorders.
    We appreciate this opportunity to discuss with you the necessity 
for continued funding of the Bone Health and Military Medical Readiness 
Program within the Department of Defense.
    The purpose of this small, but important, program is to improve the 
bone health of our military men and women. An effort currently underway 
is targeting the elimination of stress fractures that occur during 
training and deployment. Stress fracture has been a principal concern 
to military readiness and a major cause of low soldier retention during 
basic training and thereafter.
    Stress fractures are usually reported in young military recruits 
and trainees who are subjected to rigorous physical conditioning over a 
relatively short period of time. According to the Bone Health and 
Military Medical Readiness program, recent increases in military 
recruitment have led to an upsurge in the number of reported stress 
fracture cases. An additional concern is the increased number of 
documented stress fractures over the last 2 years in soldiers who have 
recently returned from lengthy deployments. Reports from troop medical 
clinics indicate that these soldiers are sustaining stress fractures in 
unprecedented numbers.
    Among new recruits, approximately 40 percent of men and 60 percent 
of women who sustain a stress fracture do not complete basic training. 
For soldiers who are able to return to duty, a rehabilitation period of 
80-120 days is necessary prior to resumption of training. The high 
incidence of stress fractures has a marked impact on the health of 
recruits and imposes a significant financial burden on the U.S. Armed 
Forces by increasing the length of training time, program costs and 
time to military readiness.
    It is critical that we continue to build on the promising results 
emanating from this research program. Recent findings have led to:
  --Recommendations to implement a new Army-wide physical training 
        program that emphasizes reduced running and increased 
        resistance training without compromising physical fitness at 
        the end of basic training. Studies are underway to determine 
        the efficacy of this new program in reducing stress fracture 
        and other overuse injuries in soldiers.
  --Modifications in the physical fitness conditioning programs for 
        female Marine Corps recruits in training, again without 
        compromising physical fitness of trainees.
  --Animal studies revealing that short-term exercise training improves 
        both material and structural properties of bone that increase 
        fatigue resistance by 80-fold. Studies are ongoing to determine 
        if similar exercise programs lead to improved bone strength in 
        humans.
  --Research demonstrating that the use of a non-steroidal anti-
        inflammatory medication slows stress fracture healing in rats. 
        A study to assess the effect of these commonly used medications 
        on bone in humans is nearing completion.
    To eliminate stress fracture in basic training in the military; to 
optimize physical training and nutrition standards for healthy young 
men and women; and to develop practical methods and markers to predict 
impending injury, expanded investigations are needed that will:
  --Utilize genetic, lifestyle, and other risk factors to establish a 
        risk factor profile that identifies individuals at high risk 
        for stress fracture injury.
  --Expand on preliminary findings that revealed gender differences in 
        the response of bone to physical training.
  --Study the relationship between exercise training regimen (timing, 
        type and volume of training) and onset of microdamage in bone.
  --Examine the impact of load bearing and/or muscle fatigue on bone 
        strain during prolonged standing and marching activities.
  --Test promising interventions that might improve bone quality prior 
        to entry into basic training.
    These studies, along with other DOD studies in progress, will 
determine the most cost effective approach to diagnosis and treatment 
of stress fracture, and accelerate return to duty. An improved 
understanding of these injuries will also form the basis of potential 
preventive measures.
    Mr. Chairman and members of the committee, stress fractures 
continue to be a critical obstacle to military readiness and time to 
deployment. Therefore, it is imperative that the Department of Defense 
build on recent findings and maintain an aggressive and sustained Bone 
Health and Military Medical Readiness program. The National Coalition 
for Osteoporosis and Related Bone Diseases urges you to fund this 
program at a level of $5 million in fiscal year 2007.
    We appreciate the opportunity to testify before the committee.

    Senator Inouye. Our next witness is the President of the 
National Breast Cancer Coalition, Fran Visco. Ms. Visco.

STATEMENT OF FRAN VISCO, J.D., PRESIDENT, NATIONAL 
            BREAST CANCER COALITION
    Ms. Visco. Thank you, Senator Inouye, and I want to thank 
you for your continued leadership and support for the DOD peer-
reviewed Breast Cancer Research Program, and also of course 
thank Chairman Stevens and the other members of the 
subcommittee.
    As you know, this program has been an enormous success. And 
I am here today as a wife, a mother, and as the head of the 
National Breast Cancer Coalition (NBCC). When I was 39 years 
old, I was diagnosed with breast cancer. My son was 14 months 
old. I'm fortunate, because after surgery, a very toxic 
treatment with lifelong side effects, I am still here today to 
testify to you about this extraordinary program, and on behalf 
of NBCC, a coalition of more than 600 member organizations, and 
tens of thousands of individuals.
    The DOD peer-reviewed Breast Cancer Program is incredibly 
efficient. More than 90 percent of the funds appropriated fund 
research. It is unbelievably effective. It fills gaps in 
traditional funding mechanisms and supports new ideas. And our 
collaboration among the advocacy community, the worldwide 
scientific committee, and the United States Army, has created 
new models for biomedical research and for decisionmaking, that 
have been copied by other Army programs, by other institutions, 
agencies, even States and other countries.
    This program has had an independent review on three 
separate occasions. And those reviews have stressed the unique 
role the program plays, that it is not duplicative, and has 
given incredibly high praise for the substance of the program. 
It is transparent. It is accountable to the public. It is--
every 2 years we have an Era of Hope meeting where everything 
that has been funded with taxpayer dollars is reported to the 
public.
    We are proud to be partners with the Army in this program. 
The women across the country, their families, their friends, 
their supporters, look to this program because this is where we 
are saving lives of breast cancer. So I want to again thank you 
so very much for your continued support, and I look forward to 
continuing our collaboration and partnership.
    Thank you very much.
    Senator Inouye. I thank you very much, Ms. Visco. As you 
know, we will do our best.
    Ms. Visco. Yes, I know. Thank you.
    [The statement follows:]

                    Prepared Statement of Fran Visco

    Thank you, Mr. Chairman and Members of the Appropriations 
Subcommittee on Defense, for the opportunity to talk to you about a 
program that has made a significant difference in the lives of women 
and their families. You and your committee have shown great 
determination and leadership in searching for answers by funding the 
Department of Defense (DOD) Peer-Reviewed Breast Cancer Research 
Program (BCRP) at a level that has brought us closer to eradicating 
this disease. Chairman Stevens and ranking member Inouye, we have 
appreciated your support of this program in the past. I am hopeful that 
you and your committee will continue that determination and leadership.
    I am Fran Visco, a breast cancer survivor, a wife and mother, a 
lawyer, and President of the National Breast Cancer Coalition (NBCC). 
On behalf of NBCC, and the more than 3 million women living with breast 
cancer, I would like to thank you again for the opportunity to testify. 
As you know, the National Breast Cancer Coalition is a grassroots 
advocacy organization made up of hundreds of organizations and tens of 
thousands of individuals and has been working since 1991 toward the 
eradication of breast cancer through advocacy and action. NBCC supports 
increased funding for breast cancer research, increased access to 
quality health care for all women, and increased influence of breast 
cancer activists at every table where decisions regarding breast cancer 
are made. That is why this program is so important in the fight against 
this disease.
    Much of the progress toward ending breast cancer has been made 
possible by the Appropriations Committee's investment in breast cancer 
research through the DOD BCRP. This program has launched new models of 
biomedical research that have benefited other agencies and both public 
and private institutions. It has changed for the better the way 
research is performed and has been replicated by programs focused on 
other diseases, by other countries and individual States. To support 
this unprecedented progress moving forward, we ask that you support a 
separate, $150 million appropriation for fiscal year 2007. In order to 
continue the success of this program, you must ensure that it maintains 
its integrity and separate identity, in addition to the requested level 
of funding. This is important not just for breast cancer, but also for 
all biomedical research that has benefited from this incredible 
government program. In addition, as an Institute of Medicine (IOM) 
report concluded in 2004, there continues to be excellent science that 
goes unfunded, but for this program. It is only through a separate 
appropriation that this program is able to continue to focus on breast 
cancer yet impact all other research, rapidly respond to changes and 
new discoveries in the field and fill the gaps created by traditional 
funding mechanisms.
    Despite the enormous successes and advancements in breast cancer 
research made through funding from the DOD BCRP, we still do not know 
what causes breast cancer, how to prevent it, or how to cure it. It is 
critical that innovative research through this unique program continues 
so that we can move forward toward eradicating this disease.

           OVERVIEW OF THE DOD BREAST CANCER RESEARCH PROGRAM

    The DOD Peer-Reviewed Breast Cancer Research Program has 
established itself as model medical research program, respected 
throughout the cancer and broader medical community for its innovative 
and accountable approach. The groundbreaking research performed through 
the program has the potential to benefit not just breast cancer, but 
all cancers, as well as other diseases. Biomedical research is being 
transformed by the BCRP's success.
    This program is both innovative and incredibly streamlined. It 
continues to be overseen by a group of distinguished scientists and 
activists, as recommended by the IOM. Because there is little 
bureaucracy, the program is able to respond quickly to what is 
currently happening in the scientific community. Because of its 
specific focus on breast cancer, it is able to rapidly support 
innovative proposals that reflect the most recent discoveries in the 
field. It is responsive, not just to the scientific community, but also 
to the public.
    Since its inception, this program has matured from an isolated 
research program to a broad-reaching influential voice forging new and 
innovative directions for breast cancer research and science. The 
flexibility of the program has allowed the Army to administer this 
groundbreaking research effort with unparalleled efficiency and 
effectiveness.
    In addition, an integral part of this program has been the 
inclusion of consumer advocates at every level. As a result, the 
program has created an unprecedented working relationship between the 
public, scientists and the military, and ultimately has led to new 
avenues of research in breast cancer. Since 1992, over 400 breast 
cancer survivors have served on the BCRP review panels. Their vital 
role in the success of the BCRP has led to consumer inclusion in other 
biomedical research programs at DOD. This program now serves as an 
international model.
    It is important to note that the DOD Integration Panel that designs 
this program has a plan of how best to spend the funds appropriated. 
This plan is based on the state of the science--both what scientists 
know now and the gaps in our knowledge--as well as the needs of the 
public. This plan coincides with our philosophy that we do not want to 
restrict scientific freedom, creativity or innovation. While we 
carefully allocate these resources, we do not want to predetermine the 
specific research areas to be addressed.

                      UNIQUE FUNDING OPPORTUNITIES

    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the science of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. The IDEA grants have been instrumental in the development of 
promising breast cancer research. These grants have allowed scientists 
to explore beyond the realm of traditional research and have unleashed 
incredible new ideas and concepts. IDEA grants are uniquely designed to 
dramatically advance our knowledge in areas that offer the greatest 
potential.
    IDEA grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health, and private research programs. Therefore, they 
complement, and do not duplicate, other federal funding programs. This 
is true of other DOD award mechanisms as well.
    For example, the Innovator awards are structured to invest in world 
renowned, outstanding individuals, rather than projects, from any field 
of study by providing funding and freedom to pursue highly creative, 
potentially breakthrough research that could ultimately accelerate the 
eradication of breast cancer. The Era of Hope Scholar is intended to 
support the formation of the next generation of leaders in breast 
cancer research, by identifying the best and brightest independent 
scientists early in their careers and giving them the necessary 
resources to pursue a highly innovative vision toward ending breast 
cancer.
    Also, Historically Black Colleges and Minority Universities/
Minority Institutions Partnership Awards are intended to provide 
assistance at an institutional level. The major goal of this award is 
to support collaboration between multiple investigators at an applicant 
Minority Institution and a collaborating institution with an 
established program in breast cancer research, for the purpose of 
creating an environment that would foster breast cancer research, and 
in which Minority Institution faculty would receive training toward 
establishing successful breast cancer research programs.
    These are just a few examples of innovative approaches at the DOD 
BCRP that are filling gaps in breast cancer research. It is vital that 
these grants are able to continue to support interest in breast cancer 
research--$150 million for peer-reviewed research will help sustain the 
program's momentum.
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. A major feature of the awards offered by the BCRP is that they 
are designed to fill niches that are not offered by other agencies. The 
BCRP considers translational research to be the application of well-
founded laboratory or other pre-clinical insight into a clinical trial. 
To enhance this critical area of research, several research 
opportunities have been offered. Clinical Translational Research awards 
have been awarded for investigator-initiated projects that involve a 
clinical trial within the lifetime of the award. The BCRP expanded its 
emphasis on translational research by offering five different types of 
awards that support work at the critical juncture between laboratory 
research and bedside applications.
    The Centers of Excellence awards mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
major contribution towards the eradication of breast cancer. These 
centers put to work the expertise of basic, epidemiology and clinical 
researchers, as well as consumer advocates to focus on a major question 
in breast cancer research. Many of these centers are working on 
questions that will translate into direct clinical applications.

                        SCIENTIFIC ACHIEVEMENTS

    The BCRP research portfolio is comprised of many different types of 
projects, including support for innovative ideas, infrastructure 
building to facilitate clinical trials, and training breast cancer 
researchers.
    A groundbreaking outcome of research funded by the BCRP was the 
development of Herceptin, a drug that prolongs the lives of women with 
a particularly aggressive type of advanced breast cancer; and has been 
shown in recent studies to decrease relapses in women with this type of 
breast cancer, which constitute about 25 percent of those diagnosed. 
This drug could not have been developed without first researching and 
understanding the gene known as HER-2/neu, which is involved in the 
progression of some breast cancers. Researchers found that over-
expression of HER-2/neu in breast cancer cells results in very 
aggressive biologic behavior. Most importantly, the same researchers 
demonstrated that an antibody directed against HER-2/neu could slow the 
growth of the cancer cells that over-expressed the gene. This research, 
which led to the development of the drug Herceptin, was made possible 
in part by a DOD BCRP-funded infrastructure grant. Other researchers 
funded by the BCRP are currently working to identify similar kinds of 
genes that are involved in the initiation and progression of cancer. 
They hope to develop new drugs like Herceptin that can fight the growth 
of breast cancer cells.
    Another example of success from the program is a study of sentinel 
lymph nodes (SLNs). This study confirmed that SLNs are indicators of 
metastatic progression of disease. The resulting knowledge from this 
study and others has lead to a standard of care that includes lymph 
node biopsies. If the first lymph node is negative for cancer cells, 
then it is unnecessary to remove all the lymph nodes. This helps 
prevent lymphodema, which can be painful and have lasting 
complications.
    Those are just two example of success stories come out of the DOD 
BCRP. In addition, there are still other studies in earlier stages of 
research coming out of the program that could lead to important 
breakthroughs in our knowledge of the disease, as well as how to treat 
it. For example, some studies are using advances in gene expression 
profiling technologies to allow them to identify breast cancer 
``types''. Researchers have found that there are different kinds of 
breast cancer, each responding differently to different treatments. The 
recognition that breast cancer is a heterogeneous disease will allow 
for more targeted therapies and better selection of patient subgroups 
for clinical trials.
    Finally, some studies are using nanotechnology to identify the 
location and size of a cancerous tumor. In addition, that same 
technology is being studied to determine whether it is possible to 
deliver treatment directly to the tumor and destroying it, but leaving 
other, non-cancerous tissue in tact.

                        FEDERAL MONEY WELL SPENT

    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
program allows the Army to administer it in such a way as to maximize 
its limited resources. The program is able to quickly respond to 
current scientific advances, and fulfills an important niche by 
focusing on research that is traditionally under funded. This was 
confirmed and reiterated in an IOM report released in 2004. It is 
responsive to the scientific community and to the public. This is 
evidenced by the inclusion of consumer advocates at both the peer and 
programmatic review levels. The consumer perspective helps the 
scientists understand how the research will affect the community, and 
allows for funding decisions based on the concerns and needs of 
patients and the medical community.
    Since 1992, the BCRP has been responsible for managing $1.81 
billion in appropriations. From its inception through fiscal year 2004, 
4,293 awards at over 420 institutions throughout the United States and 
the District of Columbia have been awarded. Approximately 150 awards 
will be granted for fiscal year 2005. The areas of focus of the DOD 
BCRP span a broad spectrum and include basic, clinical, behavioral, 
epidemiology, and alternative therapy studies, to name a few. The BCRP 
benefits women and their families by maximizing resources and filling 
in the gaps in breast cancer research. Scientific achievements that are 
the direct result of the DOD BCRP grants are undoubtedly moving us 
closer to eradicating breast cancer.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
9,500 publications in scientific journals, more than 9,600 abstracts 
and more than 300 patents/licensure applications. The Federal 
Government can truly be proud of its investment in the DOD BCRP.

               INDEPENDENT ASSESSMENTS OF PROGRAM SUCCESS

    The National Breast Cancer Coalition has been the driving force 
behind this program for many years. The success of the DOD Peer-
Reviewed Breast Cancer Research Program has been illustrated by several 
unique assessments of the program. The IOM, which originally 
recommended the structure for the program, independently re-examined 
the program in a report published in 1997. They published another 
report on the program in 2004. Their findings overwhelmingly encouraged 
the continuation of the program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD Peer-Review Breast Cancer Research 
Program commended the program and stated that, ``the program fills a 
unique niche among public and private funding sources for cancer 
research. It is not duplicative of other programs and is a promising 
vehicle for forging new ideas and scientific breakthroughs in the 
Nation's fight against breast cancer.'' The IOM report recommended 
continuing the program and established a solid direction for the next 
phase of the program. The 2004 report reiterated these same statements 
and indicated that is important for the program to continue. It is 
imperative that Congress recognizes the independent evaluations of the 
DOD Breast Cancer Research Program, as well as reiterates its own 
commitment to the program by appropriating the funding needed to ensure 
its success.
    The DOD Peer-Reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people at a 
biennial public meeting called the Era of Hope. The 1997 meeting was 
the first time a federally funded program reported back to the public 
in detail not only on the funds used, but also on the research 
undertaken, the knowledge gained from that research and future 
directions to be pursued. The transparency of the BCRP allows 
scientists, consumers and the American public to see the exceptional 
progress made in breast cancer research.
    At the 2005 Era of Hope meeting, all BCRP award recipients from the 
past 2 years were invited to report their research findings, and many 
awardees from previous years were asked to present advancements in 
their research. Themes for the 2005 meeting included: Understanding 
Risk--A Different Perspective; Understanding Who Needs Intervention and 
Understanding Treatments--Effectively Treating Primary and Metastatic 
Disease. Researchers presented their research on many important topics 
ranging from the development of new techniques for detecting breast 
cancer to identifying and destroying progenitor breast cancer cells to 
determining ways to stop tumor growth by preventing angiogenesis to 
applying new models for developing and implementing communications 
strategies in order to enhance decision making and improve quality of 
life for breast cancer patients.
    The DOD Peer-Reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and has continued to facilitate new thinking in 
breast cancer research and research in general. A report on all 
research that has been funded through the DOD BCRP is available to the 
public. Individuals can go to the Department of Defense website and 
look at the abstracts for each proposal at http://cdmrp.army.mil/
bcrp/.

           COMMITMENT OF THE NATIONAL BREAST CANCER COALITION

    The National Breast Cancer Coalition is strongly committed to the 
DOD program in every aspect, as we truly believe it is one of our best 
chances for finding cures and preventions for breast cancer. The 
coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this program at a level that allows 
this research to forge ahead.
    Over the years, our members have showed their continuing support 
for this program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
through the country asking for support of the DOD BCRP.
    As you know, there are 3 million women living with breast cancer in 
this country today. This year more than 40,000 will die of the disease 
and nearly 220,000 will be diagnosed. We still do not know how to 
prevent breast cancer, how to diagnose it truly early or how to cure 
it. While the mortality rate seems to be decreasing, it is not by much 
and it is not for all groups of women. The incidence of breast cancer 
continues to rise. It is an incredibly complex disease. We simply 
cannot afford to walk away from these facts, we cannot go back to the 
traditional, tried and not so true ways of dealing with breast cancer. 
We must, we simply must, continue the innovative, rapid, hopeful 
approach that is the DOD BCRP.
    Just a few weeks ago, many of the women and family members who 
supported the campaign to gather the 2.6 million signatures came to 
NBCCF's Annual Advocacy Training Conference here in Washington, D.C. 
More than 600 breast cancer activists from across the country, 
representing groups in their communities and speaking on behalf of tens 
of thousands of others, joined us in continuing to mobilize our efforts 
to end breast cancer. The overwhelming interest in, and dedication to 
eradicate this disease continues to be evident as people not only are 
signing petitions, but were willing to come to Washington, D.C. from 
across the country to tell their Members of Congress about the vital 
importance of continuing the DOD BCRP.
    Since the very beginning of this program in 1992, Congress has 
stood with us in support of this important investment in the fight 
against breast cancer. In the years since, Mr. Chairman, you and this 
entire committee have been leaders in the effort to continue this 
innovative investment in breast cancer research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what you have initiated. You have set in 
motion an innovative and highly efficient approach to fighting the 
breast cancer epidemic. What you must do now is support this effort by 
funding the program at $150 million and maintaining its integrity. This 
is research that will help us win this very real and devastating war 
against a cruel enemy.
    Thank you again for the opportunity to testify and for giving hope 
to the 3 million women in the United States living with breast cancer.

    Senator Inouye. Our next witness is Rear Admiral Casey 
Coane, the United States Navy Executive Director of the Naval 
Reserve Association. Admiral.

STATEMENT OF REAR ADMIRAL CASEY COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, NAVAL 
            RESERVE ASSOCIATION
    Admiral Coane. Senator Inouye, on behalf of the 22,000 
members of the Naval Reserve Association and the 70,000 serving 
Navy reservists, I want to thank you and the entire 
subcommittee for your continued unwavering support of our Navy, 
Navy Reserve, Navy veterans, and their families. We are 
grateful for the opportunity to submit testimony, and for your 
efforts in this hearing.
    Your willingness to address and correct issues facing 
Reservists affirms their value to the defense of our great 
Nation. Your willingness to look at issues related to the use 
of the Reserve on the basis of national security and homeland 
defense is very important.
    In the interest of time, I will depart from our written 
testimony and get straight to the point. I will raise two broad 
issues, and then get to Navy Reserve equipment.
    First, we see a trend developing whereby the Active 
components are taking Guard and Reserve equipment from those 
units in order to replace shortfalls on the active ledger. The 
long war is using up mechanized equipment and flying years off 
of our aircraft of all types. We do not see a plan within DOD 
for the replacement of this equipment. The subcommittee is 
certainly aware of that within Navy, all Navy Reserve squadrons 
are being decommissioned--that is Navy Reserve patrol 
squadrons--are being decommissioned, and their aircraft have 
already been transferred to the Active squadron. The same thing 
is happening now with our Navy Reserve FA-18 squadrons, 
including VFA-201 in Dallas, which was mobilized and carried 
out some of the very first strikes as Operation Iraqi Freedom 
began. Navy Reserve combat support helicopter squadrons HCS-4 
and -5 have had detachments in Baghdad for over 3 years 
straight. They are set to merge with three other Reserve 
squadrons, with the result being that what was once five will 
become three, with three squadrons' worth of aircraft.
    All this is being accomplished under the banner of 
integration. We believe it is a fiscal decision, not a national 
readiness decision. Second, Guardsmen and Reservists need 
equipment on which to train. It is what motivates them and 
brings them to the table. It is what allows our country to 
maintain the reservoir of combat skill sets that enable the VFA 
201 to respond to the call, and out perform every other 
squadron in its air wing.
    History tells us that when that squadron decommissions, the 
vast majority of its reservists will leave the service, those 
hard-earned combat skills lost to the country forever. Now, the 
Navy Reserve does have an unfunded list this year. Greater Navy 
chose not to put any of those items on its unfunded list. The 
Navy had begun to buy C-40 aircraft to replace its rapidly 
aging DC-9's. Boeing has made a very attractive accelerated 
purchase offer to the Navy, which would save the taxpayers 
millions of dollars.
    All Navy airlift is in the Reserve component. And if the C-
9s are not replaced, the Navy will lose the capability that it 
has argued for years that it must have. We particularly urge 
the subcommittee to fund these aircraft, at least two of them, 
this year.
    For years, the Navy Reserve has been the Navy leader in 
port security in the brown water Navy. The Reserve tactical 
vehicles and communications gear is aging and needs replacement 
now. The Navy has just stood up its new Riverine Squadron, and 
while the second squadron is to be a Reserve squadron, the 
Reserve piece is not in the program objective memorandum (POM). 
We urge the subcommittee to fund this squadron.
    We also ask the subcommittee to address the other items on 
the Navy unfunded list, and ensure that reservists continue to 
have equipment on which to train.
    We thank you for your time.
    Senator Inouye. Admiral, I thank you very much, and I'm 
certain the chairman joins me. We will do our very best, sir.
    Admiral Coane. Thank you, sir.
    [The statement follows:]

             Prepared Statement of Rear Admiral Casey Coane

                      THE NAVY RESERVE ASSOCIATION

    Chairman Stevens, Senator Inouye and distinguished Members of the 
subcommittee: The Naval Reserve Association thanks you and the entire 
subcommittee for your continued, unwavering support of our Navy 
Reserve, Navy Active Duty, retired members, and veterans of the 
uniformed services, to include their families and survivors.
    On behalf of our 22,000 members, and in advocacy for the 72,000 
active Naval Reservists and the interest of all Guard and Reserve 
personnel, we are grateful for the opportunity to submit testimony, and 
for your efforts in this hearing. Your willingness to address and 
correct issues facing Reservists affirms their value to the defense of 
our great Nation. Your willingness to look at issues related to the use 
of the Reserve on the basis of national security sets the Legislative 
Branch apart from the Executive Branch which seemingly develops its 
positions on the basis of cost.
    We hope that many of these equipment issues will be addressed by 
the Commission on the Guard and Reserve. We look forward to that body 
giving Congress and the administration a holistic view of the myriad 
issues facing today's Guard and Reserve but, as you know, they have 
just begun their review.

                         NAVY RESERVE EQUIPMENT

    That said, there are equipment issues that need to be addressed by 
this committee and this Congress, now. As you know, DOD and the 
services have not provided all necessary hardware for the Guard and 
Reserve forces throughout recent history. The Senate has led the way in 
providing the right equipment at the right time for our Guard and 
Reserve forces, and especially for the Navy Reserve force.
    It is imperative that at this time you recognize that in 
transforming and rebalancing the Navy Reserve, Navy has made a decision 
to disestablish Navy Reserve hardware units. We believe this is based 
solely on budgetary reasons, since no vision of the Navy Reserve exists 
for review.
    To put this in perspective, in 2003 the Chief of Naval Reserve 
testified before this committee that he needed a variety of additions 
and upgrades to Reserve equipment. In 2004 a different chief testified 
before this committee and while he thanked the committee for the 2004 
National Guard and Reserve equipment appropriation; he made no further 
request for equipment or upgrades to equipment. He did tout the 
extraordinary performance of Strike Fighter Squadron 201 which had been 
mobilized aboard Theodore Roosevelt and Helicopter Combat Support 
Squadrons 4 and 5 for their deployments to Iraq.
    These were the first Navy Reserve squadron fighter and helicopter 
squadron call-ups since Korea and, as was testified to by their Chief 
of Navy Reserve, they performed superbly--better than other air wing 
squadrons in the case of VFA-201. HCS-4 and 5 have no Active Component 
counterparts but performed equally well. These deployments validated 
the wisdom of having assets in reserve that the country could call 
upon. Today those same squadrons are scheduled to be decommissioned!
    Within the last 5 years, Navy, has disestablished--60 percent of 
the Navy Air Reserve force, with most of the remaining force on the 
books to disestablish. 33 percent of the Navy Surface Reserve force has 
been lost. This has occurred in a time of increased usage of Reservists 
by the Navy. Some of these units are described as excess, yet they have 
proven the wisdom of having them available.
    While it may be understandable that Navy has the right to shape the 
force, it seems to me that for the tax payers--the Navy Reserve 
hardware units are a fantastic buy for the tax payer's dollar. They 
cost one-third less, and provide surge capabilities when called. VFA-
201 is serving as the Navy's surge ready fighter/attack squadron at 
this time. And, they do respond when called. VFA-201 (Texas), HSC 4-5 
(California, Virginia), Naval Coastal Warfare (nationwide), Seabees 
(nationwide), ELF (nationwide), and VR (nationwide)--are just some 
examples of Naval Reservist doing what the country needs and wants--
when we need and want them! Yet--Navy is well on the way to 
disestablishing all air assets for budgetary reasons. We believe you 
must provide for these capabilities, and maintain these capabilities 
that are being utilized, are needed, and do respond to our national 
security requirements and to our national homeland defense 
requirements.
    The recent QDR indicates a continued requirement for our Armed 
Forces to be engaged worldwide. To meet the national security strategy, 
the homeland security strategy and to ensure that our country meets the 
emerging threats of the long war and global war on terrorism it is 
evident that we will need the Navy Reserve well into the 21st Century 
to meet world wide threats. We are activating these citizen sailors 
today for OIF, OEF, and worldwide GWOT operations. I hasten to add that 
when concerns are raised by our association we are often accused of 
living in the past; of not understanding the newly-integrated Navy 
Reserve mission. It is not the past that concerns us but the 
unpredictability of the future and future military requirements.
    The Senate has frequently reminded DOD that they do not plan well 
for the next war. That is why we have maintained assets and skills in a 
Reserve force--because we can't predict accurately. The Navy now seems 
bent on a Reserve force that functions only as a day to day operational 
manpower pool. We have strong reservations that going forward this will 
not provide surge capability nor will it result in the retention of 
skill sets that are maintained today because Reservists have their own 
equipment on which to train.
    Within the units that the Navy says it will retain, there are 
significant Navy Reserve equipment shortages that need your attention. 
The following items are both necessary and affordable for the country, 
in this time of increased utilization and requirements as forecast by 
the QDR.
    C-40A.--Navy Reserve transport squadrons provide 100 percent of the 
Navy's intra theater logistic requirements. The C-40 will replace aging 
and expensive C-9B aircraft. Boeing has made significant accelerated 
purchase offers to the Navy at great savings to the taxpayer. We urge 
you to fund these aircraft, and to provide resources for two (2) C-40s 
this year.
    Naval Coastal Warfare Equipment.--The Navy Reserve has been the 
leader in port security and the brown-water Navy. These units have 
existed in the Navy Reserve for sometime. Their equipment is ageing and 
needs replacement. They supplied initial response during 9/11, and have 
responded to our Nations call for OIF and OEF. As the Active component 
moves into addressing the brown water Navy requirements--we have to 
keep the Navy Reserve fully equipped with reliable tactical vehicles, 
communications equipment, and combat support equipment.
    Naval Expeditionary Equipment.--The Navy Reserve expeditionary 
forces are actively and constantly engaged in OIF and OEF. They are an 
integral part of the Defense Department's homeland defense strategy. 
Tactical vehicles and small arms simulators are critically needed to 
make sure Navy Reservist are effectively and efficiently trained for 
deployments.
    The Naval Reserve Association asks that you provide committee 
language to cease disestablishment of Navy Reserve hardware units, 
maintain and fund hardware units in the Navy Reserve before the 
capabilities are cut, and that you fund the three critical equipment 
shortages listed.
  other critical navy reserve, guard and reserve programs requirements
End Strength
    The NRA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. With the Commission on the Guard and 
Reserve now active, it makes sense to put a moratorium on changes to 
end strength until after they report back to Congress with 
recommendations. NRA urges this subcommittee to fund end strength for 
Navy Reserve to last year's levels.
Survivor Benefits Pan (SBP) and Survivor Improvement
    The Naval Reserve Association thanks this subcommittee for your 
funding of improvements in the myriad of survivor programs. However, 
there are still two remaining issues to deal with to make SBP the 
program Congress always intended it to be:
  --Ending the SBP/DIC offset and
  --Moving up the effective date for paid up SBP to October 1, 2006.
    SBP is a purchased annuity. It is an earned employee benefit. It is 
a retirement plan for the surviving spouse. Dependency Indemnification 
Compensation's (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to his or her military service. They are 
different programs created to fill different purposes and needs.
    SBP/DIC Offset affects several groups.
  --The first is the family of a retired member of the uniformed 
        services. At this time the SBP annuity he or she has paid for 
        is offset dollar for dollar for the DIC survivor benefits paid 
        through the VA. This puts a disabled retiree in an unfortunate 
        position. If death is service connected then the survivor 
        looses dollar for dollar for what the DIC pays.
  --A second group affected by this dollar for dollar offset is made up 
        of families whose servicemember died on Active Duty. Recently 
        Congress created Active Duty SBP. These servicemembers never 
        had the chance to pay into the SBP program. But clearly 
        Congress intended to give these families a benefit. With the 
        present off-set in place the vast majority of families receive 
        no benefit from this new program, because the vast number of 
        our losses are young men or women in the lower paying ranks. 
        SBP is completely offset by DIC payments.
  --Other affected families are servicemembers who have already served 
        a substantial time in the military. Their surviving spouse is 
        left in a worse financial position that a younger widow. The 
        older widow's will normally not be receiving benefits for her 
        children from either Social Security or the VA and will 
        normally have more substantial financial obligations. This 
        spouse is very dependent on the SBP and DIC payments and should 
        be able to receive both.
    Thirty Year Paid Up SBP.--In the fiscal year 1999 Defense 
Authorization Act Congress created a simple and fair paid up provision 
for the Survivor Benefit Plan. A member who had paid into the program 
for 30 years and reached the age of 70 could stop paying premiums and 
still have the full protection of the plan for his or her spouse. 
Except that the effective date of this provision is October 1, 2008. 
Many have been paying for as long as 34 years.
    The Naval Reserve Association respectfully requests this 
subcommittee fund the SBP/DIC offset and 30 year paid-up SBP if 
authorized.
Full Funding for the Defense Health Programs
    The Naval Reserve Association thanks the subcommittee's role in 
providing adequate funding for the Defense Health Program (DHP) in the 
past several budget cycles. As the cost of health care has risen 
throughout the country, you have provided adequate increases to the DHP 
to keep pace.
    This is again one of our membership's top priorities. With the 
additional costs that have come with the deployments to Southwest Asia, 
Afghanistan and Iraq, we must all stay vigilant against future 
budgetary shortfalls that would damage the quality and availability of 
health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, NRA is concerned that the budget saving have 
already been adjusted out of the President's proposed budget. We ask 
this subcommittee to continue to fund the DHP so that there will be no 
budget shortfalls.
    The Naval Reserve Association urges the subcommittee to continue to 
ensure full funding for the Defense Health Program including the full 
costs of all new TRICARE Reserve Select programs.
MGIG-SR Enhancements
    The Department of the Navy has changed requirements for enlisted to 
advancement. Future enlisted leaders will be required to have associate 
and bachelor degrees in order to advance. This requirement will apply 
to Navy Reservists and will be difficult to obtain. This makes the 
Montgomery G.I. Bill for Selective Reserves (MGIB-SR) an important 
recruiting and retention tool as well as mandatory for those currently 
serving. With massive rotations the Reserve forces can expect to have 
retention shortfalls, unless the government provides incentives such as 
a college education. Education is not only a quality of life issue or a 
recruiting/retention issue it is also a readiness issue. Education a 
Reservist receives enhances their careers and usefulness to the 
military. The ever-growing complexity of weapons systems and support 
equipment requires a force with far higher education and aptitude than 
in previous years.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. Other than cost-of-living 
increases, only two improvements in benefits have been legislated since 
1985. In that year MGIB rates were established at 47 percent of active 
duty benefits. The current MGIB-SR rate is 27 percent of the Chapter 30 
benefits. Overall the allowance has inched up by only 7 percent since 
its inception, as the cost of education has climbed significantly.
    The NRA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the Active Duty benefit.
    The Naval Reserve Association is fully appreciative of the 
subcommittee's actions and concerns for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee. 
We are very grateful for the opportunity to submit these issues of 
crucial concern to our collective memberships.
    I thank the committee for consideration of these equipment and 
manpower requirements that greatly impact our Active Duty and Reserve 
Component programs to assist the Navy Reserve in an age of increased 
sacrifice and utilization of these forces.

    Senator Inouye. Our next witness is the President of the 
Morris Heritage Foundation, Robert V. Morris.

STATEMENT OF ROBERT V. MORRIS, PRESIDENT, MORRIS 
            HERITAGE FOUNDATION, INC.
    Mr. Morris. Thank you, Senator Inouye, and it is certainly 
nice to see you again.
    The historic educational recognition opportunity--HERO--
pilot program is critical to the future of America's armed 
forces and the long-term defense of our Nation. HERO seeks to 
stimulate the learning environment of America's diverse teenage 
population with accurate portrayals of black and female 
contributions to military history and their impact on equal 
opportunity in greater society. This youth education will 
enhance their understanding of and support for America's armed 
forces leading to escalating enlistment in the face of sharp 
declines, and of the long-term educational and socioeconomic 
benefits of military service.
    The number of blacks and females enlisting in America's 
armed forces has been in steady decline, reaching 40 percent 
for blacks over the past 5 years while black high school 
dropout, unemployment, and incarceration rates continue to 
increase. Black Army troops declined from 23.5 percent in 
fiscal year 2000 to 14 percent in fiscal year 2005, with 
females sliding from 22 to 17 percent over the same period. 
Contributing factors such as an improving economy, increased 
college enrollments, and fear of combat death in Iraq and 
Afghanistan, are shrinking black and female enlistment levels.
    In a rapidly expanding war against terrorism and 
aggression, direct and long-term action is needed to reverse 
this trend and revive black and female interest in military 
service. According to recruiters, respect for and knowledge of 
military service within a recruit's family, race, or gender, 
are proven determinants of enlistment, and current recruitment 
efforts are not going far enough.
    The HERO pilot program will create multicultural non-sexist 
academic lessons promoting the racial and gender equality 
legacy of the American military in the spirit of our patriarch, 
Lieutenant James B. Morris, who graduated the first Army black 
officers candidate class at Fort Des Moines in 1917, and led 
the U.S. Army 92d division, 366th infantry, in World War I 
France in 1918.
    The 5-year pilot program funding will be replaced by long-
term private sector support and will initially target six 
public school districts of various sizes and geographic areas. 
The success of the bipartisan HERO pilot program will allow 
expansion to other minority groups in the future to invigorate 
the military enlistment pool for years to come.
    The HERO pilot program has been affirmatively reviewed by 
the U.S. Army recruiting command and consulting educators at 
the University of Iowa and U.S. Military Academy, among others. 
HERO has also been personally reviewed and acknowledged by a 
number of prominent military leaders and educators, including 
former Secretary of State General Colin Powell, and Major 
General Thomas Bostic, the Commander of the U.S. Army 
Recruiting Command.
    With this testimony, we request a $3.25 million 
appropriation for the HERO pilot program as a direct grant 
through the U.S. Army operations and maintenance funding.
    Thank you very much.
    Senator Inouye. I thank you, sir. Would you care to have 
this pamphlet made part of the record?
    Mr. Morris. Yes.
    Senator Inouye. Without objection, so ordered.
    Mr. Morris. Thank you.
    Senator Inouye. And I thank you, sir.
    [The information follows:]

 Historic Educational Recognition Opportunity (HERO) Pilot Program 2006

                              THE MISSION

    To win the hearts and minds of American's diverse teenage 
population with an accurate portrayal of black and female contributions 
to military history and their impact on equality in greater society 
through a consulting relationship with two legendary educational 
institutions. This youth education will stimulate their understanding 
of and support for America's Armed Forces leading to escalating 
enlistments in the face of sharp declines and of the long-term 
educational and socio-economic benefits of military service.

                              THE PROJECT

    With youth education a primary goal of the Morris Heritage 
Foundation, Inc. (MHF), and in consultation with the University of Iowa 
and the United States Military Academy, we are creating multi-cultural, 
non-sexist academic lessons promoting the racial and gender equality 
history of the U.S. military in the spirit of our founders. The target 
audience for the lessons will be black and female youth who possess a 
limited historical knowledge of multi-cultural military contributions 
to the Nation. Initial public funding for the program will be replaced 
with long-term private sector support through success and exposure. 
This pilot program will target public school districts in six (6) 
target States representing diverse geographic and population 
characteristics. Pilot program success will key expansion to include 
other minority groups including Hispanic, Native, Asian and Pacific 
Islander. The HERO program is bi-partisan and non-political regarding 
any current issues or events.

                            THE ORGANIZATION

    MHF is an educational not-for-profit (IRS 501c3) organization based 
in Des Moines, Iowa founded in 2004. Our patriarch, Lt. James B. 
Morris, Sr., (1890-1977) graduated the Army's first black officer 
candidate class at Fort Des Moines, Iowa on October 15, 1917 and served 
with the American Expeditionary Force 3rd Battalion, 92nd Division, 
366th Infantry on the battlefields of WWI France where he survived two 
combat wounds in 1918. He returned to Iowa in 1919 where he began a 
legendary career as lawyer, educator and publisher of the oldest black 
newspaper west of the Mississippi River while co-founding the National 
Bar Association (NBA) in 1925 and the National Newspaper Publishers 
Association (NNPA) in 1940. His son, Captain James B. Morris, Jr. 
(1919-1976) served with the 6th Army in the WWII South Pacific where he 
won 4 bronze star medals of valor with an integrated intelligence unit 
within a racially segregated Army. His youngest son and MHF president 
Robert V. Morris created the $10 million Fort Des Moines Memorial Park 
to honor the original black officer class 1997 and chronicled Morris 
military achievements in Tradition And Valor: A Family Journey 
(Sunflower Press 1999). Fort Des Moines was also the birthplace of the 
WWII Women's Army Auxiliary Corps (WAAC) in 1942.

            THE PROBLEM: BLACK AND FEMALE ENLISTMENT DECLINE

    The number of blacks and females enlisting in America's Armed 
Forces has been in steady decline reaching forty percent over the past 
5 years while black high school drop outs, unemployment and 
incarceration rates continue to increase. Black Army troops have 
declined from 23.5 percent in fiscal year 2000 to less than 14 percent 
in fiscal year 2005 with females sliding from 22 percent to 17 percent 
over the same period. Questionable factors including an improving 
economy, increased college enrollment, long-term engagements and fear 
of combat deaths particularly in Iraq are pushing black troop levels 
toward general population levels of 12 percent. In a rapidly expanding 
war against terrorism and aggression, direct action is needed to 
reverse this trend and revive black and female interest in military 
service. According to recruiters, respect for and knowledge of military 
service within a recruit's family, race or gender have long been key 
determinants of potential military service. These factors are the 
direct target of the HERO program.

                             THE CURRICULUM

    To implement the program, 40 lessons will be developed which focus 
upon the stories and ideals representative of racial and gender 
equality in the Armed Forces and greater society. The lessons will 
focus upon the backgrounds, goals, motivations and achievements of 
black and female troops throughout history. Other lessons will present 
the social contexts of race and gender by defining the status and roles 
of blacks and women in America during the first half of the 20th 
century so the uniqueness and far-sightedness of the military can be 
appreciated. Twenty lessons will be created for upper-elementary or 
middle school students and 20 for high school students taking United 
States History during their sophomore and junior years. At each level, 
the curriculum will also be adult friendly. Besides content and appeal, 
the lessons will share the following qualities:
    Self-Contained.--Because most teachers are severely overworked and 
have little time to research and develop quality lessons themselves, 
each lesson will be self-contained so that teachers will have all the 
materials and directions needed to implement the lesson in their 
classroom whether it be in a large city or small, isolated rural 
community.
    Interactive Nature.--Every lesson will include interactive 
materials of high interest to students. For example, a lesson about the 
traits and backgrounds of those who entered the black officers training 
program at Fort Des Moines in 1917 will direct students to existing 
data bases in order to develop hypotheses about the socio-economic 
characteristics of those attracted to the program. Another lesson could 
do the same on the women of the WAC.
    Diverse Learning.--In order to broaden the appeal and use of 
lessons they will appeal to diverse learning styles and abilities. For 
example, students who learns hands-on will use gaming programs in the 
lessons which present problems such as issues of racial and gender 
discrimination while younger learners deal with how to survive boot 
camp in which both groups develop strategies for overcoming the 
obstacles.
    Primary Source Materials.--Drawing from the MHF data base, the 
lessons will include primary source materials including reproduced 
letters, photos, film clips, training manuals, newspaper articles and 
other documents. Not only will students use primary sources as 
essential components of the lessons, but will the MHF data base and 
other sources.
    Independent Nature.--One problem teachers of history and social 
sciences experience is the dilemma of too much material and too little 
time to teach it which discourages teachers from using materials which 
do not fit the learning objectives of courses they teach.
    Independent Study.--All lessons will be linked to an ``independent 
study'' strand utilizing the data base so that students (and adults) 
individually may work the lessons without teacher assistance.
    Internet Distribution.--Lessons will be made available to teachers, 
students and adults via MHF website and other curriculum distribution 
sites. This is essential because printed lessons are often lost or 
discarded making them unavailable to new teachers of the subjects.
    Teacher Guide.--Each lesson will include a teacher guide, student 
pages, related research and primary sources and internet links to other 
sites. The Internet pages will be exciting, youth friendly, and will 
include animation and simulations. It is estimated that each lesson 
will require approximately 15 internet pages, so the entire project 
will require over 600 new pages on the website.

                    CURRICULUM DISTRIBUTION METHODS

    In order to market the lessons to school districts and teaching 
professionals, project staff will conduct workshops at selected teacher 
conferences and market the program through educational like the 
Association of Supervision and Curriculum Development and the National 
Middle School Association. In addition, our staff will utilize existing 
educational distribution sources like Scholastic, Channel One and 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="11505e5d514252595e5e5d">[email&#160;protected]</a> and link to key websites.

                         TELEVISION PRODUCTION

    MHF will produce five (5) high definition (HD) television 
documentaries of 28:00 in length which will be broken into 14:00 shorts 
for classroom use. The documentaries will bring history to life and 
feature animation and celebrity narrators in bi-lingual formats and 
also be available for telecast on Armed Forces Television world-wide.

                         INITIAL LESSON TOPICS

    The original eleven (11) lesson topics analyze how the military led 
greater American society toward racial and gender equality, including:
    The Revolution.--Black freeman Crispus Attucks became the first 
soldier to die in the Revolutionary War. The tragic incident began the 
long history of black military service in support of the United States 
of America.
    Slavery and the Civil War.--The slave revolts of Nat Turner and 
abolitionist John Brown highlight the cruel and savage industry of 
American slavery. How the slaves reacted to the Civil War and black 
troop participation in the Union Army changed America forever. Lessons 
will examine slave culture, the underground railroad and black military 
participation in the Civil War as well as post-war freemen flight to 
the north and western United States that often ended in disaster.
    Buffalo Soldiers and Western Expansion.--After the Civil War, many 
Union Army soldiers and freemen formed four legendary black units on 
the plains and in the southwest. The U.S. Army's 9th and 10th Cavalry 
``Buffalo Soldiers'' and the 24th and 25th Infantry fought Indians, 
Mexicans and whites in a variety of settings and also performed tedious 
and dangerous assignments rooted in racial discrimination. Lessons will 
separate fact from fiction as to who these men were and what they did 
during and after their military service.
    WWI Black Officers Take Charge.--The Army's first officer candidate 
class for blacks drew an elite group of men to Fort Des Moines, Iowa in 
1917. Although three blacks had previously graduated West Point, the 
1,250 candidates of the 17th Provisional Training Regiment represented 
the first group training ever performed. The class consisted of 1,000 
college graduates and faculty and 250 non-commissioned officers from 
the 9th and 10th Cavalry ``Buffalo Soldiers'' and the 24th and 25th 
Infantry stationed on the plains and in the southwest. The 639 
graduating captains and lieutenants served valiantly with the 3rd 
Battalion 92nd Division of the American Expeditionary Force on the 
battlefields of World War One France in 1918 as the first black combat 
regiment commanded by black officers. Lessons will explore who these 
men were and their impact on the military command structure and greater 
society.
    WWI Negrophilia and the New Negro.--The black officers of the U.S. 
Army played a major role in the European avant-garde cultural 
revolution during and after World War One. Lt. John Reece Europe's 
fabulous ``Hell Fighters Band,'' along with others, introduced the 
continent to the jazz craze that drove Paris wild and impacted every 
aspect of European culture between 1918 and 1930. Paralleling the 
Harlem (New York) Renaissance, participants ranged from entertainers 
Josephine Baker and Paul Robeson to legendary French artist Picasso. 
The highly educated black officers, labeled ``New Negroes'' by the 
French, presented a direct contradiction to the popular European 
colonial concept of primitivism. These lessons are culture and arts 
oriented.
    WWII Women at War and Beyond.--Over 72,000 women trained at Fort 
Des Moines, Iowa between 1942 and 1945 including 7,000 college educated 
officers becoming the first female Army troops. The racially integrated 
training contained 3,600 black enlisted women and 118 officers. Lessons 
will preview who they were, where they came from and what they did 
during and after World War Two. What they and their military 
descendants' impact was on gender equality throughout the military and 
greater society.
    WWII Tuskegee Airmen.--Within a legendary World War Two combat 
unit, Iowan Luther Smith could be the greatest Tuskegee Airmen story of 
them all. After 133 combat missions, a fiery plane crash with severe 
injuries and 7 months as a Nazi POW, how could Captain Smith survive to 
become NASA's first black aerospace engineer and one of seven veterans 
invited to accompany President William Clinton to Europe for the 50th 
anniversary of WWII? Lessons will study unit history and individual 
stories of the Tuskegee Airmen themselves and their impact of greater 
society.
    Korea and Combat Integration.--After President Truman's 1948 
executive order ending racial segregation in America's Armed Forces was 
effectively ignored by military leaders, China's entrance into the 
Korean conflict made black troopers the combat replacement of choice. A 
new level of popularity and danger led to heroic service by black 
troops in the midst of discrimination and hatred but opened the door 
for integration on the battlefield. Lessons will discuss the many 
contradictions of the Korean War and the fledgling civil rights 
movement back home.
    Black Troops in Vietnam.--From the ``Black Power'' movement of 
urban America to the dangerous jungles of Vietnam, black troops served 
with distinction in an unpopular war. The Vietnam War contradicted the 
racial segregation of WWII by loading combat units with black draftees 
resulting in disproportionately high casualty rates. Lessons will 
examine the racial, socio-economic and political reasons black troops 
fought overseas and protested at home and what American society learned 
from this controversial period.
    The War on Terrorism.--International relations from century old 
European colonialism to religious, ethnic and racial intolerance 
provide a bloody history creating today's events. Distinguish players 
in the deadly game of international and domestic terrorism and their 
impact on American society before and after 9/11 are identified and 
analyzed. Lessons will concentrate on understanding all aspects of 
terrorism and its roots.
    Today's Military.--Discusses the socio-economic and educational 
opportunities and risks of service in today's modern military in every 
branch and the future. The impact of military service alternatives on 
black and female high school drop-out, teen-pregnancy, unemployment and 
incarceration rates are analyzed. Lessons will also review selected 
military careers and resulting career opportunities after service.

                             ACADEMIC NEED

    According to the U.S. Department of Education, youth residing in 
both urban and rural areas have limited exposure to accurate multi-
cultural historical curricula and thus possess a narrow interpretation 
of American history. The Federal Government, and most States, mandate 
multi-cultural non-sexist education. Although very worthy, little has 
been done by educational agencies to help teachers fulfill their multi-
cultural non-sexist goals. The problem is particularly critical for 
teachers in small rural school districts where they are often assigned 
many duties and academic preparations and have little time to develop 
effective lessons with multi-cultural, non-sexist themes. The problem 
is accentuated by the reality that because an aging national teacher 
workforce, more young, inexperienced teachers are assigned to teach 
history courses.

                           PROGRAM EVALUATION

    HERO pilot project success will be evaluated in a number of ways 
including:
  --Number of hits on project website and internet surveys.
  --Evaluations from teachers who attend in-service presentations 
        conducted by project staff and follow-up questionnaires.
  --Evaluations from focus groups of teachers from targeted school 
        districts.
  --Surveys from participating faculty and students in targeted school 
        districts.
  --Increase in black and female military enlistments from targeted 
        school districts.

                             PILOT PROGRAM

    This original program will be implemented in selected school 
districts in six (6) States and school districts representing the 
Nation's geographic resources and large to small black population areas 
according to the 2004 U.S. Census and National Center for Education 
Statistics, including:

----------------------------------------------------------------------------------------------------------------
                                               Black                                    High School     Black
                   State                     Population         School District           Students     Percent
----------------------------------------------------------------------------------------------------------------
New York..................................    3,361,053  New York City................    1,049,831         34.4
Texas.....................................    2,633,219  Houston ISD..................      210,950         31.3
Georgia...................................    2,612,936  Atlanta City.................       56,586         89.2
California................................    2,436,678  Los Angeles Unified..........      735,058         12.4
Michigan..................................    1,450,583  Detroit City.................      166,675         90.8
Iowa......................................       67,596  Des Moines Independent.......       32,010         15.3
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
               Program Budget (estimated)                      Total
------------------------------------------------------------------------
Website development.....................................         $50,000
HD Television production................................         400,000
Project staff...........................................         980,000
Equipment and office expenses...........................         250,000
Marketing and distribution..............................         950,000
Travel and entertainment................................         270,000
School District Participation Fee (6)...................         250,000
Education consultants (curriculum and program                    100,000
 development)...........................................
                                                         ---------------
      Total.............................................       3,250,000
------------------------------------------------------------------------

                            BUDGET NARRATIVE

    Website Development.--A new website with over forty (40) new web 
pages requires a professional developer who will also provide on-going 
updates and maintenance. This expense includes creation, page design 
and 60-months of website hosting, $50,000.
    Documentary Production.--The expense includes pre-production 
including script development, high definition (HD) production and post-
production services with 3D and 2D digital effects of the ten 28:00 
programs broken into 14:00 blocks. It also includes program satellite 
uplink, website upload or DVD and VHS bicycling as needed to distribute 
the products. This category also includes director and crew services 
and remote and post-production equipment and services, $400,000.
    Project Staff.--The project team will include full time director 
and administrative assistant with two part-time researchers and two 
teacher advisory committees totaling $980,000.
  --Project Director will be an experienced educator and energetic 
        self-starter with solid leadership and communications skills. 
        The director will possess considerable teaching, writing and 
        research skills and a firm command of the Internet, anticipated 
        costs are $75,000 salary and $15,000 (20 percent) for benefits 
        or $90,000 for 5 years totaling $450,000.
  --Project Coordinator supports project director with administrative 
        and managerial services and provides secondary leadership to 
        project operations. This position includes non-profit 
        managerial and accounting experience working with accounting 
        and auditing support to insure financial, insurance and 
        institutional efficiency and support, $50,000 salary and 
        $10,000 (20 percent) benefits.
  --Administrative Assistant is a full-time position including all 
        administrative and clerical duties over a 5 year period. Salary 
        is $20,000 plus $4,000 (20 percent) benefits or $24,000 at 5 
        years $120,000.
  --Research Assistants consist of two (2) experienced part-time 
        researchers for content and curriculum development and then 
        statistical recovery, interpretation and analysis throughout 
        the project term. They will assist director and pre-production 
        script development. Anticipated cost for each part-time 
        researcher are $25,000 salary and $5,000 (20 percent) for 
        benefits with a 5 year total of $300,000.
  --Teacher Advisors will consist of eight (8) experienced history 
        teachers, including military history, who possess knowledge of 
        electronically provided lessons at the upper elementary, middle 
        and high school levels. This group will also participate in 
        focus groups and receive $2,400 per year and related expenses 
        for their 2 years of time for a total of $40,000.
    Equipment Expenses at base office consist of computer hardware and 
software and additional office rent, utilities, equipment and furniture 
totaling $250,000 including:
  --Office rent, utilities, etc.
  --Desk (3) and laptop (3) computers with software.
  --Color printer, scanner, copy and fax machines with telephone 
        system.
  --HD video recorder/players with time code readers and monitor for 
        logging tapes and pre-paring rough edit cuts will reduce final 
        edit costs.
    Marketing and Public Relations includes professional agency 
services to directly reach high school administrators, educators, 
students and parents with an uplifting and positive message about the 
program and its long-range benefits. These activities include 
developing press releases and custom kits, fact sheets, Q&As and 
testimonials from successful black and female veterans and selected 
celebrities. Establishing distribution collaborations with <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e1f11121e0d1d16111112">[email&#160;protected]</a>, 
scholastic and other existing educational networks and scheduling 
interviews for radio, television, print media and direct group 
presentations by staff, veterans and selected celebrities, $950,000.
    Travel and Entertainment consists of staff travel to selected 
educational, historical and military conferences and for meetings with 
participant school districts, media entities and corporate sponsors. 
All per diem and related expenses will be consistent with federal 
government guidelines, $270,000.
    School District Participation Fees will reimburse six public 
districts for efforts in implementing and reporting the program results 
in their respective cities reducing political and anti-military 
resistance, $250,000.
    Educational Consultants include industry professionals, the 
University of Iowa and U.S. Military Academy providing assistance in 
curriculum development, program implementation and success reporting 
and interpretation from participating districts, $100,000.

                          COMPLETION SCHEDULE

    Upon funding confirmation and team hiring, the following schedule 
will be completed over a 24-month development and 36-month maturation 
period are as follows:
  --Month 1: Identify teacher advisory teams and website and 
        distribution experts.
  --Month 2-7: Perform research, interviews including research trips as 
        mentioned in the narrative.
  --Month 8: Present research to teacher teams and develop lesson 
        formats.
  --Month 9-14: Develop lessons and perform lesson planning and 
        documentary pre-production.
  --Month 15: Perform lesson revisions including evaluation process and 
        conference presentation formats.
  --Month 16-19: Pilot lessons ready, finish website, data base and 
        documentary production.
  --Month 20: Final revisions of lessons with modifications from 
        teacher advisors.
  --Month 21-24: Website, data base and documentary post-production 
        completed with marketing activities in full swing.
  --Month 25-60: Marketing to grow project to full pilot state and 
        national recognition.

                           PROJECT LEADERSHIP

    The project leadership team includes a wide-variety of 
distinguished professionals and educational institutions bringing 
considerable expertise to all elements of the HERO project including:

                    MORRIS HERITAGE FOUNDATION, INC.

    Morris Heritage Foundation, Inc. (MHF) is a 501c3 not-for-profit 
Iowa corporation specializing in mass communications and educational 
projects and based in Des Moines, Iowa. MHF president Robert V. Morris, 
who created the HERO program, is a consultant, educator, publisher, 
author and television producer. A 1982 graduate of the University of 
Iowa and former Iowa State University journalism instructor (1994), he 
founded the $10 million Fort Des Moines Memorial Park in 1997, the Iowa 
Tuskegee Airmen Memorial in 2002 and the Architecture, Construction and 
Engineering (ACE) Mentor Iowa program in 2005. Morris has produced 
numerous educational mass media projects including the award winning 
documentary Tradition And Valor (56:00) with Iowa Public Television in 
1994. MHF board of directors includes Steven T. Berry, a masters 
graduate of the prestigious UCLA Film School and a professor of mass 
communications at Howard University in Washington, DC., Robert A. 
Wright, Sr., a noted attorney and former national board member of the 
NAACP and Luther H. Smith a legendary WWII Tuskegee Airman, aerospace 
engineer and educator.

                           UNIVERSITY OF IOWA

    Professor Frederick Woodard is an intellectual historian heading 
the African-American English department at the prestigious Big 10 
University and will lead a graduate student consulting team on an as 
needed basis. Professor Woodard is the author of Reasons To Dream (UI 
Press) and has produced international documentaries on Africa for the 
U.S. Information Agency.

                     UNITED STATES MILITARY ACADEMY

    Col. Lance Betros, history department head at the historic United 
States Military Academy at West Point, New York will provide historical 
consultation on a voluntary as-needed basis.
    NOTE: Additional professional consultants could be utilized on an 
as needed basis.

                    GEN. COLIN L. POWELL, USA (RET)

    The HERO Program was reviewed by former U.S. Secretary of State and 
Chairman of the Joint Chiefs of Staff Gen. Colin L. Powell who 
responded affirmatively on April 2, 2006.

                      U.S. ARMY RECRUITING COMMAND

    M/Gen. Thomas P. Bostick, commander, U.S. Army Recruiting Command 
at Fort Knox. Kentucky since October 2005 is a West Point and Stanford 
University graduate who personally reviewed the HERO program. HERO was 
also evaluated by USAREC G-5 office of marketing, partnerships and 
outreach and a program content support letter was released on March 28, 
2006.

 PILOT PROGRAM PARTICIPATING SCHOOL DISTRICT CONTACTS (PENDING CONTACT 
                           AND CONFIRMATION)

    Atlanta Public School District--Beverly L. Hall, Ed.D, 
superintendent, 130 Trinity Avenue, SW, Atlanta, Georgia 30303. Tel: 
404-802-2820.
    Des Moines Independent School District--Linda Lane, superintendent, 
1801 16th Street, Des Moines, Iowa 50314-1902, Tel: 515-242-7837.
    Detroit Public Schools--Beverly A. Gray, Ed.D, curriculum 
development, Albert Kahn Building, 7430 2nd Avenue, 3rd Floor, Detroit, 
Michigan 48202, Tel: 313-873-7705.
    Houston Independent School District--Dr. Abelardo Saavedra, 
superintendent, 3830 Richmond Avenue, Houston, Texas 77027. Tel: 713-
892-6300.
    Los Angeles Unified--Roy Romer, superintendent, 333 South Beaudry 
Avenue, 24th Floor, Los Angeles, California 90017, Tel; 213-241-7000.
    New York City Public School District--Laura Kotch, executive 
director of curriculum development, 52 Chambers Street, New York, New 
York 10007, Tel; 212-374-0396.

                       POTENTIAL FUNDING SOURCES

    Funding ($3.25 million) for the HERO pilot program will be sought 
from one or a combination of the following sources upon proposal 
finalization.
  --U.S. Congressional Defense (O-1) ``Civilian Education and 
        Training'' earmark for fiscal year 2007 submitted to the Senate 
        Defense Appropriations Subcommittee chaired by Senator Ted 
        Stevens (R-AK) with ranking member Sen. Daniel Inouye (D-HI) 
        sponsored by appropriations committee member Senator Tom Harkin 
        (D-IA) with support from finance committee chairman Senator 
        Charles Grassley (R-IA). Note: MHF President Morris has 
        testified four times before the committee winning $8.5 million 
        in three earmarks for Fort Des Moines Memorial Park between 
        1998-2002.
  --Corporate Prime Defense Contractor foundations of top industry 
        companies will be approached including: Northrop Grumman, 
        Lockheed Martin, General Dynamics, Raytheon, Boeing, etc.

    Senator Inouye. Our next witness is the Deputy Director of 
the American Legion, Mr. Dennis Duggan.

STATEMENT OF DENNIS DUGGAN, DEPUTY DIRECTOR, AMERICAN 
            LEGION
    Mr. Duggan. Good morning, Senator Inouye. It is good to see 
you again, sir.
    Senator Inouye. Welcome, sir.
    Mr. Duggan. On behalf of the Nation's largest organization 
of wartime veterans, the American Legion is always grateful to 
you and members of the subcommittee, in order to present its 
views on defense appropriations for fiscal year 2007. We have 
always valued your leadership, as well as your extensive 
experience as a veteran, sir, and the most highly decorated 
one, at that, in assessing and authorizing adequate 
appropriations for a strong national defense, especially during 
this challenging war on terrorism, in which are Active, 
Reserves, and National Guard, are fighting, and are being 
wounded and killed practically daily.
    Although the President's 2007 defense budget represents 
about 3.9 percent of the gross domestic product, we understand, 
we have been reminded, particularly by the Army, that past 
defense budgets during time of war and in some buildups have 
been nearly twice that percentage at about 8 percent of gross 
domestic product.
    We are aware that there is an accompanying supplemental 
budget also to pay for the cost of the war, as well.
    This defense budget has several--in fact, a number of 
major, major, hefty objectives; that is, to continue to advance 
ongoing efforts to prevail in the global war on terror, defend 
the homeland against threats, maintain America's military 
superiority, and to support servicemembers and their families.
    The administration's proposed 2.2 percent pay raise in the 
face of an increasing inflation rate, we believe needs to be 
raised to 2.7 percent in the Senate, as was previously done in 
the House.
    As mentioned previously, the American Legion also believes 
that the Army and Marine Corps manpower strength should be 
statutorily increased to 30,000 more for the Army, 1,000 for 
the Marine Corps, and some 17,000 for the National Guard.
    With the Army's recruiting picture somewhat improved, the 
Army has indicated that they have been trying to recruit 
actually for an increased authorization, and they are making 
some progress in that regard.
    Likewise, TRICARE fees for working military retirees under 
the age of 65 should not be increased, we believe. We believe 
that should be set aside, and for sure not increased for fiscal 
year 2007. What we are saying here is that the defense health 
program, as originally programmed, we believe should be fully 
funded.
    Likewise we believe, though, that the premium-based TRICARE 
health care plan--and I know this will be expensive--should be 
extended to drilling reservists and guardsmen, or what they 
call a Select Reserve, a measure which we believe passed the 
Senate last year, but not the House.
    We are particularly supportive of a bill also, and it was 
sponsored by Senator Boxer from California, and recognizably, 
this is an authorization issue and not strictly an 
appropriations one. But it would provide for the posthumous 
awarding of purple hearts for American prisoners of war who 
died in or due to hostile captivity. Amazingly, that provision 
is not provided for in service or Purple Heart regulations. And 
we would like to see it taken back, applied to any member of 
the Armed Forces who was held as a prisoner of war in any 
conflict after December 7, 1941.
    Finally, Senator Inouye, we would ask that the defense 
prisoner of war (POW) missing in action (MIA) personnel office 
be fully funded now and in the future years, so they can 
continue in their essential function of attempting to achieve 
full accounting, mainly through excavations, in Vietnam and 
Korea.
    Mr. Chairman, this concludes my statement, and again we 
appreciate this opportunity very much, and thank you for all 
you do for the national defense of this country.
    Senator Inouye. I thank you very much. Your recommendation 
on POW purple hearts and the MIA is not only reasonable; I 
think it should be done right away.
    Mr. Duggan. Okay, sir.
    Senator Inouye. Thank you, sir.
    Just in case some of you are wondering why this empty 
chamber, at this moment the House and Senate Members are 
gathering to listen to the speech of the new prime minister of 
Israel. And so I'm here to listen to you.
    [The statement follows:]

              Prepared Statement of Dennis Michael Duggan

    Mr. Chairman: The American Legion is grateful for the opportunity 
to present its views on defense appropriations for fiscal year 2007. 
The American Legion values your leadership in assessing and authorizing 
adequate funding for quality-of-life (QOL) features of the Nation's 
Armed Forces to include the Active, Reserve and National Guard forces 
and their families, as well as quality of life for military retirees 
and their dependents.
    Since September 2001, the United States has been involved in the 
war against terrorism in Operations Iraqi Freedom and Enduring Freedom. 
American fighting men and women are again proving they are the best-
trained, best-equipped and best-led military in the world. As Secretary 
of Defense Donald Rumsfeld has noted, the war in Iraq is part of a 
long, dangerous global war on terrorism. The war on terrorism is being 
waged on two fronts: overseas against armed insurgents and at home 
protecting and securing the homeland. Casualties in the shooting wars, 
in terms of those killed and seriously wounded, continue to mount 
daily. Indeed, most of what we as Americans hold dear is made possible 
by the peace and stability that the Armed Forces provide by taking the 
fight to the enemy.
    The American Legion adheres to the principle that this Nation's 
Armed Forces must be well-manned and equipped, not just to pursue war, 
but to preserve and protect the peace. The American Legion strongly 
believes past and current military downsizing were budget-driven rather 
than threat-focused. Once Army divisions, Navy warships and Air Force 
fighter squadrons are downsized, eliminated or retired from the force 
structure, they cannot be reconstituted quickly enough to meet new 
threats or emergency circumstances. The Active-Duty Army, Army National 
Guard and the Reserves have failed to meet their recruiting goals, and 
the Army's stop-loss policies have obscured retention and recruiting 
needs. Clearly, the Active Army is struggling to meet its recruitment 
goals. Military morale undoubtedly has been adversely affected by the 
extension and repetition of Iraq tours of duty.
    The administration's fiscal year 2007 budget requests more than 
$441 billion for defense or about 17 percent of the total budget. The 
fiscal year 2007 defense budget represents a 6.8 percent increase in 
defense spending over current funding levels. It also represents about 
3.9 percent of our Gross National Product. Active duty military 
manpower end-strength is now over 1.41 million. Selected Reserve 
strength is about 863,300 or reduced by about 25 percent from its 
strength levels during the Gulf War of 14 years ago.
    Mr. Chairman, this budget must advance ongoing efforts to prevail 
in the global war on terrorism, defend the homeland against threats, 
maintain America's military superiority, and to support servicemembers 
and their families. A decade of over-use of the military and past 
under-funding, necessitates a sustained investment. The American Legion 
believes the budget must continue to maintain Army end-strengths, fully 
fund Tricare programs, accelerate improved Active and Reserve 
Components' quality of life features, provide increased funding for the 
concurrent receipt of military retirement pay and VA disability 
compensation (``Veterans Disability Tax'') and elimination of the 
offset of survivors benefit plan (SBP) and Dependency and Indemnity 
Compensation (DIC) that continues to penalize military survivors.
    If we are to win the war on terror and prepare for the wars of 
tomorrow, we must take care of the Department of Defense's greatest 
assets--the men and women in uniform. They do us proud in Iraq, 
Afghanistan and around the world. They need our help.
    In order to attract and retain the necessary force over the long 
haul, the Active Duty force, Reserves, and National Guard continue to 
look for talent in an open market place and to compete with the private 
sector for the best young people this Nation has to offer. If we are to 
attract them to military service in the Active and Reserve Components, 
we need to count on their patriotism and willingness to sacrifice, to 
be sure, but we must also provide them the proper incentives. They love 
their country, but they also love their families--and many have 
children to support, raise and educate. We have always asked the men 
and women in uniform to voluntarily risk their lives to defend us; we 
should not ask them to forego adequate pay and allowances, adequate 
health care and subject their families to repeated unaccompanied 
deployments and sub-standard housing as well. Undoubtedly, retention 
and recruiting budgets need to be substantially increased if we are to 
keep and recruit quality servicemembers.
    The President's fiscal year 2007 defense budget requests over $10.8 
billion for military pay and allowances, including a 2.2 percent 
across-the-board pay raise. This pay raise is inadequate and needs to 
be substantially increased. It also includes billions to improve 
military housing, putting the Department on track to eliminate most 
substandard housing by 2007--several years sooner than previously 
planned. The fiscal year 2006 budget further lowered out-of-pocket 
housing costs for those living off base. The American Legion encourages 
the subcommittee to continue the policy of no out-of-pocket housing 
costs in future years and to end the military pay differential with the 
private sector.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained soldiers, sailors, airmen, marines and coast guard 
personnel.
    The American Legion National Commander has visited American troops 
in Europe, Iraq, Guantanamo Bay, and South Korea as well as a number of 
installations throughout the United States, including Walter Reed Army 
Medical Center and Bethesda National Naval Medical Center. During these 
visits, he was able to see first-hand the urgent, immediate need to 
address real quality of life challenges faced by servicemembers and 
their families. Severely wounded servicemembers who have families and 
are convalescing in military hospitals clearly need to continue to 
receive the best of care, particularly for PTSD, and the DOD interface 
with the VA must be seamless. Also, the medical evaluation board 
process needs to be expedited so that military severance and disability 
retirement pays will be more immediately forthcoming. The soldiers' 
best interests must be fairly represented before the medical evaluation 
boards. Our national commanders have spoken with families on Women's 
and Infants' Compensation (WIC), which is an absolute necessity to 
larger military families. Quality-of-life issues for servicemembers, 
coupled with combat tours and other operational tempos, play a role in 
recurring recruitment and retention efforts and should come as no 
surprise. The operational tempo and lengthy deployments, to include 
multiple combat tours, must be reduced or curtailed. Military missions 
were on the rise before September 11 and deployment levels remain high. 
The only way to reduce repetitive overseas tours and the overuse of the 
Reserves is to recruit and fill authorized Army endstrengths and 
perhaps Reserve endstrengths for the services.
    Military pay must be on a par with the competitive civilian sector. 
Activated Reservists must receive the same equipment, the same pay and 
timely health care as Active Duty personnel. The Reserve Montgomery GI 
Bill must be as lucrative as the MGI Bill for Active Duty personnel. If 
other benefits, like health care improvements, commissaries, adequate 
quarters, quality child care and impact aid for DOD education are 
reduced, they will only serve to further undermine efforts to recruit 
and retain the brightest and best this Nation has to offer.
    To step up efforts to bring in enlistees, all the Army components 
are increasing the number of recruiters. The Army National Guard sent 
1,400 new recruiters into the field last February. The Army Reserve is 
expanding its recruiting force by about 80 percent. If the recruiting 
trends and the demand for forces persist, the Pentagon under current 
policies could eventually ``run out'' of Reserve forces for war zone 
rotation, a Government Accountability Office expert warned. The 
Pentagon projects a need to keep more than 100,000 Reservists 
continuously over the next 3 to 5 years. The Defense Appropriations 
bill for fiscal year 2005 provided the funding for the first year force 
level increases of 10,000. The Army's end-strength increased 30,000 and 
the Marine Corps end-strength increased 3,000.
    Army restructuring would have increased the number of Active Army 
maneuver brigades by 30 percent by fiscal year 2007. Neither Active 
Duty nor National Guard combat brigades should be reduced. Clearly, 
reducing combat units during wartime should not be the bill payer for 
modernization.
    The budget deficit is projected to be $427 billion which is the 
largest in U.S. history, and it appears to be heading higher perhaps to 
$500 billion. National defense spending must not become a casualty of 
deficit reduction.

                     FORCE HEALTH PROTECTION (FHP)

    As American military forces are again engaged in combat overseas, 
the health and welfare of deployed troops is of utmost concern to The 
American Legion. The need for effective coordination between the 
Department of Veterans Affairs and the DOD in the force protection of 
U.S. forces is paramount. It has been 15 years since the first Gulf 
War, yet many of the hazards of the 1991 conflict are still present in 
the current war.
    Prior to the 1991 Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health examinations 
nor were they properly briefed on the potential hazards, such as 
fallout from depleted uranium munitions they might encounter. Record 
keeping was poor. Numerous examples of lost or destroyed medical 
records of Active Duty and Reserve personnel were identified. Physical 
examinations (pre/and post-deployment) were not comprehensive and 
information regarding possible environmental hazard exposures was 
severely lacking. Although the government had conducted more than 230 
research projects at a cost of $240 million, lack of crucial deployment 
data resulted in many unanswered questions about Gulf War veterans' 
illnesses.
    The American Legion would like to specifically identify an element 
of FHP that deals with DOD's ability to accurately record a 
servicemember's health status prior to deployment and document or 
evaluate any changes in his or her health that occurred during 
deployment. This is exactly the information VA needs to adequately care 
for and compensate servicemembers for service-related disabilities once 
they leave active duty. Although DOD has developed post-deployment 
questionnaires, they still do not fulfill the requirement of 
``thorough'' medical examinations nor do they even require a medical 
officer to administer the questionnaires. Due to the duration and 
extent of sustained combat in Operations Iraqi Freedom and Enduring 
Freedom, the psychological impact on deployed personnel is of utmost 
concern to The American Legion. VA's ability to adequately care for and 
compensate our Nation's veterans depends directly on DOD's efforts to 
maintain proper health records/health surveillance, documentation of 
troop locations, environmental hazard exposure data and the timely 
sharing of this information with the VA.
    The early signs of PTSD must be detected early-on and completely 
treated by the military and the VA. The American Legion strongly urges 
Congress to mandate separation physical exams for all servicemembers, 
particularly those who have served in combat zones or have had 
sustained deployments. DOD reports that only about 20 percent of 
discharging servicemembers opt to have separation physical exams. 
During this war on terrorism and frequent deployments with all their 
strains and stresses, this figure, we believe, should be substantially 
increased.

                        MILITARY QUALITY OF LIFE

    Our major national security concern continues to be the enhancement 
of the quality of life issues for Active Duty servicemembers, 
Reservists, National Guardsmen, military retirees and their families. 
During the last congressional session, President Bush and the Congress 
made marked improvements in an array of quality of life issues for 
military personnel and their families. These efforts are vital 
enhancements that must be sustained.
    Mr. Chairman, during this period of the war on terrorism, more 
quality of life improvements are required to meet the needs of 
servicemembers and their families as well as military retiree veterans 
and their families. For example, the proposed 2.2 percent pay-raise 
needs to be significantly increased. The 4.4 percent military 
comparability gap with the private sector needs to be eliminated; the 
improved Reserve MGIB for education needs to be completely funded as 
well; combat wounded soldiers who are evacuated from combat zones to 
military hospitals need to retain their special pays and base pay and 
allowances continued at the same level so as not to jeopardize their 
family's financial support during recovery. Furthermore, the medical 
evaluation board process needs to be expedited and considerate of the 
soldiers' best interest so that any adjudicated military severance or 
military disability retirement payments will be immediately 
forthcoming; recruiting and retention efforts, to include the provision 
of more service recruiters, needs to be fully funded as does recruiting 
advertising. The Defense Health Program and, in particular, the Tricare 
healthcare programs need to be fully funded.
    The Defense Department, Congress and The American Legion all have 
reason to be concerned about the rising cost of military healthcare. 
But it is important to recognize that the bulk of the problem is a 
national one, not a military specific one. It is also extremely 
important, in these days of record deficits, that we focus on the 
government's unique responsibility and moral obligation to fully fund 
the Defense Health program, particularly its Tricare programs, to 
provide for the career military force that has served for multiple 
decades under extraordinarily arduous conditions to protect and 
preserve our national welfare. In this regard, the government's 
responsibility and obligations to its servicemembers and military 
retirees go well beyond those of corporate employers. The Constitution 
puts the responsibility on the government to provide for the common 
defense and on the Congress to raise and maintain military forces. No 
corporate employer shares such awesome responsibilities.
    The American Legion recommends against implementing any increases 
in healthcare fees for uniformed services and retiree beneficiaries. 
Dr. William Winkenwerder, Assistant Secretary of Defense (Heath 
Affairs), briefed The American Legion and other VSOs/MSOs that rising 
military healthcare costs are ``impinging on other service programs.'' 
Other reports indicate that the DOD leadership is seeking more funding 
for weapons programs by reducing the amount it spends on military 
healthcare and other personnel needs. The American Legion believes 
strongly that America can afford to, and must, pay for both weapons and 
military healthcare. The American Legion also believes strongly that 
the proposed defense budget is too small to meet the needs of national 
defense. Today's defense budget, during wartime, is less than 4 percent 
of GDP, well short of the average for the peacetime years since WWII. 
Defense leaders assert that substantial military fee increases are 
needed to bring military beneficiary costs more in live with civilian 
practices. But such comparisons with corporate practices is 
inappropriate as it disregards the service and sacrifices military 
members, retirees and families have made in service to the Nation.
    The reciprocal obligation of the government to maintain an 
extraordinary benefit package to offset the extraordinary sacrifices of 
career military members is a practical as well as moral obligation. 
Eroding benefits for career service can only undermine long-term 
retention and readiness. One reason why Congress enacted Tricare for 
Life is that the Joint Chiefs of Staff at the time said that inadequate 
retiree healthcare was affecting attitudes among active duty troops. 
The American Legion believes it was inappropriate to put the Joint 
Services in the untenable position of being denied sufficient funding 
for current readiness needs if they didn't agree to beneficiary benefit 
cuts.
    Reducing military retirements budgets, such as Tricare healthcare, 
would be penny-wise and pound-foolish when recruiting is already a 
problem and an overstressed and overstrengthened force is at increasing 
retention risks. Very simply the DOD should be required to pursue 
greater efforts to improve Tricare and find more effective and 
appropriate ways to make Tricare more cost-effective without seeking to 
``tax'' beneficiaries and making unrealistic budget assumptions.
    The American Legion applauds Congress for extending Tricare Reserve 
Select coverage to all members of the Selected Reserve. DOD is relying 
on the Guard and Reserve more heavily and deployments are becoming 
longer and more frequent as they are indispensable parts of our Armed 
Forces, and many Reservists and their families have no medical 
insurance.
    Likewise, military retiree veterans as well as their survivors, who 
have served their country for decades in war and peace, require 
continued quality of life improvements as well. First and foremost, The 
American Legion strongly urges that FULL concurrent receipt and Combat-
Related Special Compensation (CRSC) be authorized for disabled retirees 
whether they were retired for longevity (20 or more years of service) 
or military disability retirement with fewer than 20 years. In 
particular, The American Legion urges that disabled retirees rated 40 
percent and below be authorized CRPD and that disabled retirees rated 
between 50 percent and 90 percent disabled be authorized non-phased-in 
concurrent receipt. Additionally, The American Legion strongly urges 
that all military disability retirees with fewer than 20 years service 
be authorized to receive CRSC and VA disability compensation provided, 
of course, they're otherwise eligible for CRSC under the combat-related 
conditions. The funding for these military disability retirees with 
fewer than 20 years is a ``cost of war'' and perhaps should be paid 
from the annual supplemental budgets.
    Secondly, The American Legion urges that the longstanding inequity 
whereby military survivors have their survivors benefit plan (SBP) 
offset by the Dependency and Indemnity Compensation (DIC) be 
eliminated. This ``Widows' Tax'' needs to be corrected as soon as 
possible. It is blatantly unfair and has penalized deserving military 
survivors for years. A number of these military survivors are nearly 
impoverished because of this unfair provision. As with concurrent 
receipt for disabled retirees, military survivors should receive both 
SBP AND DIC. They have always been entitled to both and should not have 
to pay for their own DIC. The American Legion will continue to convey 
that simple, equitable justice is the primary reason to fund FULL 
concurrent receipt of military retirement pay and VA disability 
compensation, as well as the SBP and DIC for military survivors. Not to 
do so merely perpetuates the same inequity. Both inequities need to be 
righted by changing the unfair law that prohibits both groups from 
receiving both forms of compensation.
    Mr. Chairman, The American Legion as well as the Armed Forces and 
veterans continue to owe you and this subcommittee a debt of gratitude 
for your support of military quality of life issues. Nevertheless, your 
assistance is needed in this budget to overcome old and new threats to 
retaining and recruiting the finest military in the world. 
Servicemembers and their families continue to endure physical risks to 
their well-being and livelihood as well as the forfeiture of personal 
freedoms that most Americans would find unacceptable. Worldwide 
deployments have increased significantly and the Nation is at war. The 
very fact that over 300,000 Guardsmen and Reservists have been 
mobilized since September 11, 2001 is first-hand evidence that the 
United States Army desperately needs to increase its end-strengths and 
maintain those end-strengths so as to help facilitate the rotation of 
Active and Reserve component units to active combat zones.
    The American Legion congratulates and thanks congressional 
subcommittees such as this one for military and military retiree 
quality of life enhancements contained in past National Defense 
Appropriations Acts. Continued improvement however is direly needed to 
include the following:
  --Completely Closing the Military Pay Gap with the Private Sector.--
        With U.S. troops battling insurgency and terrorism in Iraq and 
        Afghanistan, The American Legion supports a proposed 3.1 
        percent military pay raise as well as increases in Basic 
        Allowance for Housing (BAH).
  --Commissaries.--The American Legion urges the Congress to preserve 
        full federal subsidizing of the military commissary system and 
        to retain this vital non-pay compensation benefit for use by 
        Active Duty families, Reservist families, military retiree 
        families and 100 percent service-connected disabled veterans 
        and others.
  --DOD Domestic Dependents Elementary and Secondary Schools (DDESS).--
        The American Legion urges the retention and full funding of the 
        DDESS as they have provided a source of high quality education 
        for military children attending schools on military 
        installations.
  --Funding the Reserve Montgomery GI Bill for Education.
  --Providing FULL concurrent receipt of military retirement pay and VA 
        disability compensation for those disabled retirees rated 40 
        percent and less; providing non-phased concurrent receipt for 
        those disabled retirees rated between 50 percent and 90 percent 
        disabled by the VA; and authorizing those military disability 
        retirees with fewer than 20 years service to receive both VA 
        disability compensation and Combat-Related Special Compensation 
        (CRSC).
  --Eliminating the offset of the survivors benefit plan (SBP) and 
        Dependency and Indemnity Compensation (DIC) for military 
        survivors.

                   OTHER QUALITY OF LIFE INSTITUTIONS

    The American Legion strongly believes that quality of life issues 
for retired military members and their families are augmented by 
certain institutions which we believe need to be annually funded as 
well. Accordingly, The American Legion believes that Congress and the 
administration must place high priority on insuring these institutions 
are adequately funded and maintained:
  --The Uniformed Services University of the Health Sciences.--The 
        American Legion urges the Congress to resist any efforts to 
        less than fully fund, downsize or close the USUHS through the 
        BRAC process. It is a national treasure, which educates and 
        produces military physicians and advanced nursing staffs. We 
        believe it continues to be an economical source of CAREER 
        medical leaders who enhance military health care readiness and 
        excellence and is well-known for providing the finest health 
        care in the world.
  --The Armed Forces Retirement Homes.--The United States Soldiers' and 
        Airmen's Home in Washington, D.C. and the United States Naval 
        Home in Gulfport, Mississippi, have been under-funded as 
        evidenced by the reduction in services to include on-site 
        medical health care and dental care. Increases in fees paid by 
        residents are continually on the rise. The medical facility at 
        the USSAH has been eliminated with residents being referred to 
        VA Medical Centers or Military Treatment Facilities such as 
        Walter Reed Army Medical Center. The Naval Home at Gulfport, 
        Mississippi was destroyed by Hurricane Katrina, The American 
        Legion recommends that the Congress conduct an independent 
        assessment of the USSAH facilities and the services being 
        provided with an eye toward federally subsidizing the Home as 
        appropriate. The facility has been recognized as a national 
        treasure until recent years when a number of mandated services 
        had been severely reduced and resident fees have been 
        substantially increased.
  --Arlington National Cemetery.--The American Legion urges that the 
        Arlington National Cemetery be maintained to the highest of 
        standards. We urge also that Congress mandate the eligibility 
        requirements for burial in this prestigious Cemetery reserved 
        for those who have performed distinguished military service and 
        their spouses and eligible children.
  --2005 Defense Base Realignment and Closure Commission.--The American 
        Legion was disappointed that certain base facilities such as 
        military medical facilities, commissaries, exchanges and 
        training facilities and other quality of life facilities were 
        not preserved for use by the Active and Reserve components and 
        military retirees and their families. We urge that Walter Reed 
        Medical Center be rebuilt at the National Naval Medical Center 
        and that the Fort Belvoir Medical Facility be expanded.
  --Finally, The American Legion urges that the Navy continue to 
        maintain 12 aircraft carriers as the minimum essential.

               THE AMERICAN LEGION FAMILY SUPPORT NETWORK

    The American Legion continues to demonstrate its support and 
commitment to the men and women in uniform and their families. The 
American Legion's Family Support Network is providing immediate 
assistance primarily to activated National Guard families as requested 
by the director of the National Guard Bureau. The American Legion 
Family Support Network has reached out through its departments and 
posts to also support the Army Wounded Warrior program (AW2). Many 
thousands of requests from these families have been received and 
accommodated by the American Legion Family across the United States. 
Military family needs have ranged from requests for funds to a variety 
of everyday chores which need doing while the ``man or woman'' of the 
family is gone. The American Legion, whose members have served our 
Nation in times of adversity, remember how it felt to be separated from 
family and loved ones. As a grateful Nation, we must ensure than no 
military family endures those hardships caused by military service, as 
such service has assured the security, freedom and ideals of our great 
country.

                              CONCLUSIONS

    Thirty-three years ago, America opted for an all-volunteer force to 
provide for the national defense. Inherent in that commitment was a 
willingness to invest the needed resources to bring into existence and 
maintain a competent, professional and well-equipped military. The 
fiscal year 2007 defense budget, while recognizing the war on terrorism 
and homeland security, represents another good step in the right 
direction. Likewise our military retiree veterans and military 
survivors, who in yesteryear served this Nation for decades, continue 
to need your help as well.
    Mr. Chairman, this concludes our statement.

    Senator Inouye. Our next witness is the Deputy Director of 
Government Relations of the National Military Family 
Association, Ms. Kathleen Moakler.

STATEMENT OF KATHLEEN B. MOAKLER, DEPUTY DIRECTOR, 
            GOVERNMENT RELATIONS, NATIONAL MILITARY 
            FAMILY ASSOCIATION
    Ms. Moakler. Thank you, Senator Inouye. The National 
Military Family Association (NMFA) would like to thank you and 
Chairman Stevens for the opportunity to present testimony to 
this subcommittee on quality of life issues affecting 
servicemembers and their families. We thank you for your 
continued focus on these issues.
    In our written testimony we discuss many issues of 
importance to military families. This morning I will highlight 
some of the most critical.
    Family member readiness is imperative for servicemember 
readiness. Family readiness requires the availability of 
coordinated, consistent family support provided by well-trained 
professionals and volunteers. Adequate child care, easily 
unavailable preventative mental health counseling, as well as 
therapeutic mental health care. Employment assistance for 
spouses, and youth programs that assist parents to effectively 
address the concerns of their children, especially during times 
of deployment.
    Paramount among these issues is the family's ability to 
access quality health care in a timely manner and at a cost 
that is commensurate with the sacrifices made by both 
servicemembers and families.
    This year, with the proposal by DOD to raise TRICARE fees 
by exorbitant amounts, families are concerned. They see the 
proposal as an effort to change an earned entitlement to health 
care into an insurance plan. We appreciate congressional 
recognition that more study is needed before increases are 
imposed. NMFA is most concerned however about the $735 million 
shortfall that will exist because DOD deducted this from the 
budget proposal in anticipation of fee increases. NMFA urgently 
requests that this amount be reinstated to maintain quality 
health care for our servicemembers and their families.
    As the length and danger of deployments increase, there is 
a greater need for confidential preventative mental health 
services. NMFA believes that Government-provided access to 
appropriate services for both servicemembers and their families 
need to be available for the long term.
    In 2005, NMFA received almost 1,600 responses to its web 
survey on the cycles of deployment. The message from military 
families came through loud and clear: Families cannot, nor 
should they have to make it through a deployment alone. Though 
much has been done to improve existing deployment support 
programs and develop new initiatives, deployment support 
requires consistent funding, training of family readiness 
support volunteers, and information and support provided across 
the board. Military Onesource, DOD's virtual assistance 
program, continues to be an excellent resource for military 
families. NMFA is pleased that DOD has committed to funding the 
counseling provided under the Onesource contract, and 
appreciates congressional support for this program.
    NMFA recently asked military service family program 
personnel what they needed to meet the challenges their 
families faced. Each identified unfunded requirements within 
their service budgets, and requested additional dedicated 
resources for family readiness. Common in all requests was the 
need for additional funding to improve outreach and support to 
Active duty, National Guard, and Reserve families, through 
programs and increased staff, enhanced counseling services and 
resources, the ability to make childcare more available, and 
the ability to provide additional support for volunteers.
    NMFA asks Congress to provide the services with sufficient 
resources to sustain robust quality of life and family support 
programs through the entire deployment cycle, and recommends 
that at least $20 million be allocated to the individual 
military service, operations, and maintenance accounts to be 
directed toward these programs, with more dedicated to services 
bearing the largest deployment burden.
    Thank you for your kind attention this morning, and I'm 
ready to answer any questions you may have.
    Senator Inouye. I thank you very much. How large is your 
membership?
    Ms. Moakler. We represent all military family members, 
whether they are members of our organization or not.
    Senator Inouye. Thank you very much.
    Ms. Moakler. You're welcome.
    [The statement follows:]

               Prepared Statement of Kathleen B. Moakler

    Mr. Chairman and distinguished Members of this subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony on quality of life issues 
affecting servicemembers and their families. Once again, we thank you 
for your focus on many of the elements of the quality of life package 
for servicemembers and their families: housing, health care, family 
support, and education.

                            FAMILY READINESS

    Servicemember readiness is imperative for mission readiness. Family 
readiness is imperative for servicemember readiness. Family readiness 
requires the availability of coordinated, consistent family support 
provided by well trained professionals and volunteers; adequate child 
care; easily available preventative mental health counseling as well as 
therapeutic mental health care; employment assistance for spouses, and 
youth programs that assist parents to more effectively address the 
concerns of their children, particularly during stressful times. 
However, no one issue is more important to family readiness than the 
family's ability to access quality health care in a timely manner and 
at a cost that is commensurate with the sacrifices made by both 
servicemembers and families.
Health Care
    NMFA thanks this subcommittee for continued funding to provide for 
a robust military health care system. This system must continue to meet 
the needs of servicemembers and the Department of Defense (DOD) in 
times of armed conflict. It must also acknowledge that military members 
and their families are indeed a unique population with unique duties, 
who earn an entitlement to a unique health care program.
    The proposal by DOD to raise TRICARE fees by exorbitant amounts has 
resonated throughout the beneficiary population. Beneficiaries see the 
proposal as a concentrated effort by DOD to change their earned 
entitlement to health care into an insurance plan. NMFA appreciates the 
concern shown by Members of Congress since the release of DOD's 
proposals regarding the need for more information about the budget 
assumptions used to create the proposals, the effects of possible 
increases on beneficiary behavior, the need for DOD to implement 
greater efficiencies in the Defense Health Care Program (DHP), and the 
adequacy of the DHP budget as proposed by DOD. We appreciate the many 
questions Members of Congress are asking about these proposals and urge 
Congress to continue its oversight responsibilities on these issues.
    NMFA believes DOD has many options available to make the military 
health system more efficient and thus make the need for large increases 
in beneficiary cost shares unnecessary. We encourage DOD to investigate 
cost saving measures such as: a systemic approach to disease 
management, a concentrated marketing campaign to increase use of the 
TRICARE Mail Order Pharmacy, eliminating contract redundancies, 
delaying the recompetition of the TRICARE contracts, speeding 
implementation of the Uniform Formulary process, and optimizing 
military treatment facilities.
    NMFA is especially concerned about DOD's proposal to create a 
TRICARE Standard enrollment fee. The precursor to TRICARE Standard, the 
basic benefit provided for care in the civilian sector, was CHAMPUS, 
which was then, as TRICARE Standard is now, an extension of the earned 
entitlement to health care. Charging a premium (enrollment fee) for 
TRICARE Standard moves the benefit from an earned entitlement to an 
opportunity to buy into an insurance plan. Also, because TRICARE Prime 
is not offered everywhere, Standard is the only option for many 
retirees and their families and survivors who need to access their 
military health care benefit.
    In the current debate about whether or not to raise beneficiary 
fees for TRICARE, NMFA believes it is important to understand the 
difference between TRICARE Prime and TRICARE Standard and to 
distinguish between creating a TRICARE Standard enrollment fee and 
raising the Standard deductible amount. TRICARE Prime has an enrollment 
fee for military retirees; however, it offers enhancements to the 
health care benefit: lower out-of-pocket costs, access to care within 
prescribed standards, additional preventive care, assistance in finding 
providers, and the management of one's health care. In other words, 
enrollment fees for Prime are not to access the earned entitlement, but 
for additional services. These fees, which have not changed since the 
start of TRICARE, are $230 per year for an individual and $460 per year 
for a family.
    DOD's proposal to increase TRICARE Prime enrollment fees, while 
completely out-of-line dollar wise, is not unexpected. In fact, NMFA 
was surprised DOD did not include an increase as it implemented the new 
round of TRICARE contracts last year. NMFA does have concerns about the 
amount of DOD's proposed increases for TRICARE Prime and the plan to 
impose a tiered system of enrollment fees and TRICARE Standard 
deductibles. We believe the tiered system is arbitrarily devised and 
fails to acknowledge the needs of the most vulnerable beneficiaries: 
survivors and wounded servicemembers.
    Acknowledging that the annual Prime enrollment fee has not 
increased in more than 10 years and that it may be reasonable to have a 
mechanism to increase fees, NMFA has presented an alternative to DOD's 
proposal should Congress deem some cost increase necessary. NMFA 
suggests DOD apply the cumulative retiree cost of living adjustment 
(COLA) to the base annual Prime enrollment fee of $230 for an 
individual and $460 for a family. Using the 31.4 percent cumulative 
COLA for the years from 1995 through 2006, the annual fee would rise to 
approximately $302 for a single retiree and $604 for a family. If DOD 
thought $230/$460 was a fair fee for all in 1995, then it would appear 
that raising the fees simply by the percentage increase in retiree pay 
since then is also fair. NMFA also suggests that, to avoid another 
``sticker shock,'' fees be raised annually by the same percent as the 
retiree COLA. NMFA further believes adjusting the current fees over a 
2-year period would decrease the effect of ``sticker shock'' and allow 
families to adjust their budgets. We are aware the current system does 
require retirees/survivors with smaller incomes to pay a higher 
percentage of their pension/annuity for Prime than those with higher 
incomes; however, we believe the benefits of simply updating the 
current fees are greater for almost all concerned than devising another 
option, especially an arbitrarily-designed tier system. NMFA also 
suggests it would be reasonable to adjust the TRICARE Standard 
deductibles in the same manner: cumulative COLA for the years since 
1995 and then tie future increases to the percent of the retiree annual 
COLA.
    NMFA applauds DOD's proposal to encourage migration to the TRICARE 
Mail Order Pharmacy (TMOP) by removing cost shares for generic 
medications. NMFA and other associations have long encouraged DOD to 
launch a concentrated marketing effort to promote use of the TMOP, as 
it provides significant savings to beneficiaries as well as huge 
savings to the Department. The proposed beneficiary cost share 
increases in the pharmacy retail network program (TRRx) are not as 
exorbitant as the proposals for increases in Prime enrollment fees, the 
premium to access TRICARE Standard, or the increase in Standard 
deductibles, but do represent a 67 percent increase for all 
beneficiaries. If some additional cost share for TRRx is instituted, 
NMFA believes it should not be implemented until all of the medications 
available through TRRx are also available through TMOP and DOD joins 
the associations in actively and strongly promoting use of the TMOP.
    It is imperative that adequate funding be restored to the Defense 
Health Budget should Congress reject TRICARE fee increases for this 
year. Based on beneficiary input--most recently in an NMFA web survey 
completed by approximately 600 respondents--NMFA believes the military 
health system is operating close to the financial edge and that the 
strains of meeting the military mission and providing care to active 
duty families, military retirees, their families, and survivors are 
taking a toll on the system, especially in the direct care system. 
Beneficiaries repeatedly tell NMFA of difficulties in obtaining timely 
appointments and that prescribed access standards are not being met for 
enrolled TRICARE Prime beneficiaries at military treatment facilities 
(MTFs). No one is more cognizant of the need for superior health care 
to be provided to servicemembers in harm's way than their families. In 
addition, no one is more willing to change providers or venues of care 
to accommodate the need for military health care providers to deploy 
than the families of those deployed. However, a contract was made with 
those who enrolled in Prime. Beneficiaries must seek care in the manner 
prescribed in the Prime agreement, but in return they are given what 
are supposed to be guaranteed access standards.
    MTFs must have the resources and the encouragement to ensure their 
facilities are optimized to care for the most beneficiaries possible 
and must be held accountable for meeting stated access standards. If 
funding or personnel resource issues are the reason access standards 
are not being met, then assistance must be provided to ensure MTFs are 
able to meet access standards, support the military mission, and 
continue to provide quality health care. NMFA urgently requests that 
the $735 million deducted by DOD from the budget proposal for the 
Defense Health Program to reflect its savings due to increased TRICARE 
fees be reinstated.
    As servicemembers and families experience numerous lengthy and 
dangerous deployments, NMFA believes the need for confidential, 
preventative mental health services will continue to rise. The Services 
must balance the demand for mental health personnel in theater and at 
home to help servicemembers and families deal with unique emotional 
challenges and stresses related to the nature and duration of continued 
deployments. NMFA remains concerned about access to mental health care, 
both preventative and therapeutic, for the long haul. Unfortunately the 
costs of war may linger for servicemembers and their families for many 
years. It is imperative that whether or not the member remains on 
active duty and entitled to military health care there are provisions 
for both servicemembers and their families to access appropriate mental 
health services paid for by their government.
Caring for Military Children and Youth
    Frequent deployments and long work hours make the need for quality 
affordable and accessible child care critical. We thank Congress for 
making additional funding available for child care since the beginning 
of the global war on terror. Currently, DOD estimates it has a shortage 
of 31,000 child care spaces within the system, not counting the demand 
from the mobilized Guard and Reserve community. While efforts are being 
made to bridge this gap, thanks in part to congressional funding for 
child care over the past few years, innovative new strategies are 
needed--sooner rather than later. We congratulate the Navy for the 
incredible 24-hour centers they have opened in Norfolk and Hawaii. 
These centers provide a home-like atmosphere for children of sailors 
working late night or varying shifts. More of these centers are needed, 
but they need to be funded at a level that enables them to provide the 
same quality of care as the standard the Navy has established in its 
first two centers. Providing high quality, after-hours care for service 
members working long hours in support of the mission is a cost of that 
mission.
    Families continually tell NMFA that respite and drop-in care is in 
critically short supply worldwide. Families who cannot access military 
child development centers or family child care providers talk about the 
expense and difficulty they face in finding quality, affordable care. 
Programs such as Military Child Care in Your Neighborhood and Operation 
Military Child Care, which assist military families in finding and 
paying for child care, are welcome pieces of the solution, but are 
insufficient to completely meet the needs of our families.
    Older children and teens cannot be overlooked. Schools want to be 
educated on issues affecting military students. Teachers and 
administrators want to be sensitive to the needs of military children. 
To achieve this goal they need tools. Parents are the primary advocates 
for their children and they also want the resources to help them 
accomplish this task. NMFA is working to meet this need through 
programs such as our Operation Purple summer camps and a pilot after 
school program for children of deployed servicemembers.
    Schools serving military children, whether DOD or civilian schools, 
need the resources to meet military parents' expectation that their 
children receive the highest quality education possible. Because Impact 
Aid funding from the Department of Education is not fully funded and 
has remained flat in recent years, NMFA recommends increasing the DOD 
supplement to Impact Aid to $50 million to help districts better meet 
the additional demands caused by large numbers of military children, 
deployment-related issues, and the effects of military programs and 
policies such as family housing privatization. Initiatives to assist 
parents and to promote better communication between installations and 
schools should be expanded across all Services.
Spouse Employment
    DOD has sponsored a variety of programs, including a partnership 
with Monster.com, to promote spouse employment. Spouses can also 
receive career counseling through Military OneSource. However, with 
700,000 active duty spouses, the task of enhancing military spouse 
employment is too big for DOD to handle alone. Improvements in 
employment for military spouses and assistance in supporting their 
career progression will require increased partnerships and initiatives 
by a variety of government agencies and private employers. NMFA was 
concerned by recent press reports chronicling the end of a Department 
of Labor grant program that provided employment assistance to military 
spouses at several installations across the United States. We urge 
Congress to ensure funds are available to assist the military Services 
in initiatives to encourage more private employers to step up to the 
plate and form partnerships supporting military spouse employment and 
career progression. We encourage DOD to reach out to potential 
employers and acquaint them with the merits of hiring members of this 
talented and motivated work force. DOD must also encourage military 
spouses to use all available resources to educate themselves about 
factors to consider regarding employment benefits, to include 
investments, health care, portability and retirement.
What's Needed for Family Readiness?
    NMFA recognizes and appreciates the continued focus that all the 
Services are placing on the issue of family readiness. In particular, 
the increased access to information for family members has had a 
tremendous positive impact on their ability to sustain ``normal'' lives 
while dealing with the issues that arise in military life. There is, 
however, still much to be done. DOD must continue to refine and improve 
family readiness programs not only because it is the right thing to do, 
but also to retain highly trained and qualified servicemembers.
    NMFA has found Military OneSource, DOD's virtual assistance 
program, to be an excellent resource for military families. OneSource 
provides 24/7 access to counselors and information through the web 
(www.militaryonesource.com) and toll-free phone number. Because it is 
available 24/7, families do not have to wait for the installation 
family center to open or for someone to return a call. It also helps 
returning servicemembers and families access local community resources 
and receive up to six free face-to-face mental health visits with a 
professional outside the chain of command. NMFA is pleased DOD has 
committed to funding the counseling provided under the OneSource 
contract and appreciates congressional support for this program. This 
counseling is not medical mental health counseling, but rather 
assistance for family members in dealing with the stresses of 
deployment or reunion. It can be an important preventative to forestall 
more serious problems down the road.

                        FAMILIES AND DEPLOYMENT

    From April through November, 2005, NMFA received 1,592 responses to 
its web survey on the Cycles of Deployment. The message from military 
families came through loud and clear: families cannot, nor should they 
have to, make it through a deployment alone. They expect family support 
to be available to all military families, regardless of their Service 
component or where the family lives. Respondents acknowledged they had 
a role to play in their own family readiness; however they looked to 
their commands, their unit volunteers, and their communities to 
recognize their sacrifice and help them make it through a deployment.
    NMFA could not agree more. Although much has been done to improve 
existing deployment support programs and develop new initiatives to 
meet emerging needs, deployment support requires consistent funding, 
training of family readiness/support volunteers, and information and 
support provided across installations, services, and components. 
Deployment support programs must also have the potential to be 
``purple.'' According to our survey respondents, ``The Military'' has 
established an expectation that the uniformed services are family 
friendly. Families assume all the support systems should work together. 
They do not know (and do not really care) who is in charge of what, who 
is paid or not. How far the family lives from the unit does not really 
matter, nor do service or component distinctions. What does matter is 
that the promised support and information are provided.
    The Services are making strides in providing more staffing--whether 
uniformed or civilian--to support the logistics of family support, but 
NMFA believes they must have additional resources to meet ongoing 
deployment needs and be ready to meet emerging ones. NMFA recently 
asked family readiness professionals from each Service what they needed 
to meet the challenges their families faced. In addition to initiatives 
funded at the Defense-wide level, each identified unfunded requirements 
within their Service budgets and requested additional dedicated 
resources for family readiness in their individual Service Operations 
and Maintenance accounts. Common in all requests was the need for 
additional funding to improve outreach, communication, and support to 
Active Duty, National Guard, and Reserve families; increase the 
availability of counseling resources; make child care services more 
available; and provide additional support for volunteers.
    Higher stress levels caused by open-ended and multiple deployments 
require a higher level of community support. We ask Congress to provide 
the Services with sufficient resources to sustain robust quality of 
life and family support programs during the entire deployment cycle: 
pre-deployment, deployment, post-deployment, and in that critical 
period between deployments. To ensure a solid, but by no means gold-
plated family readiness program to support families throughout this 
cycle, NMFA recommends additional funding be provided in the individual 
military Service Operations and Maintenance accounts to be directed 
toward enhancing family support initiatives such as outreach, 
counseling, aligning Guard and Reserve support programs with their 
active counterparts, child care, and providing assistance and training 
for family support volunteers. NMFA recommends that at least $20 
million be allocated to each Service Operations and Maintenance 
account, with more dedicated to Services bearing the largest deployment 
burden.

                        FAMILIES AND TRANSITION

    Transitions are part of the military life. For the individual 
military family, transitions start with the servicemember's entrance in 
the military and last through changes in duty station until the 
servicemember's separation or retirement from the service. Another 
transition comes with the injury or death of the servicemember. 
National Guard and Reserve families face a transition with each call-up 
and demobilization of the member. The transition to a restructured 
military under Service transformation initiatives, Global Rebasing, and 
Base Realignment and Closure (BRAC) will affect servicemembers, their 
families, and their communities.
Transformation, Global Rebasing, and BRAC
    As the Global Rebasing and the BRAC process are implemented, 
military families look to Congress to ensure key quality of life 
benefits and programs remain accessible. Members of the military 
community, especially retirees, are concerned about the impact base 
closures will have on their access to health care and the commissary, 
exchange, and MWR benefits they have earned. They are concerned that 
the size of the retiree, survivor, Guard, and Reserve populations 
remaining in a location will not be considered in decisions about 
whether or not to keep commissaries and exchanges open. In the case of 
shifts in troop populations because of Service transformation 
initiatives, such as Army modularity and changes in Navy home ports, or 
the return of servicemembers and families from overseas bases, 
community members at receiving installations are concerned that 
existing facilities and programs may be overwhelmed by the increased 
populations.
    Quality of life issues that affect servicemembers and families must 
be considered on an equal basis with other mission-related tasks in any 
plan to move troops or to close or realign installations. Maintaining 
this infrastructure cannot be done as an afterthought. Ensuring the 
availability of quality of life programs, services, and facilities at 
both closing and receiving installations, and easing servicemembers and 
families' transition from one to another, will take additional funding 
and personnel. NMFA looks to Congress to ensure that DOD has programmed 
for costs of family support and quality of life as part of its base 
realignment and closure calculations from the beginning and receives 
the resources it needs. DOD cannot just program for costs of a new 
runway or tank maintenance facility. It must also program in the cost 
of a new child development center or new school, if needed.
    NMFA cannot emphasize enough the urgency for DOD and Congress to 
allocate resources now to support communities involved in movements of 
large numbers of troops. The world in which the American overseas 
downsizing occurred a decade ago no longer exists. Troop movements and 
installation closings and realignments today occur against the backdrop 
of the ongoing war on terror and a heavy deployment schedule. The 
military of today is more dependent on contractors and civilian 
agencies to perform many of the functions formerly performed by 
uniformed military members. Changes in the military health care system 
and the construction and operation of military family housing will have 
an impact on the ability of an installation to absorb large numbers of 
servicemembers and families returning from overseas. Increased 
visibility of issues such as the smooth transition of military children 
from one school to another and a military spouse's ability to pursue a 
career means that more family members will expect their leadership to 
provide additional support in these areas.
    We thank Congress for providing funds to assist schools in meeting 
the additional costs that come with the arrival of large numbers of 
military students. We believe this DOD funding--$7 million appropriated 
for this year--will be needed in larger amounts for several years until 
districts are able to secure resources from other Federal, State or 
local resources. We want these districts to welcome military children 
and not blame them for cutbacks in services because the schools could 
not receive DOD funds to assist them in supporting these children.
    NMFA looks to Congress to ensure DOD's plans for these troop shifts 
will maintain access to quality of life programs and support facilities 
until the last servicemember and family leaves installations to be 
closed. In the same manner, we ask you to ensure that housing, schools, 
child development and youth programs, and community services are in 
place to accommodate the surge of families a community can expect to 
receive as a result of the movement of troops to a new location.
Survivors
    We believe the obligation as articulated by President Lincoln, ``. 
. . to care for him who shall have borne the battle and for his widow 
and his orphan,'' is as valid today as it was at the end of the Civil 
War. NMFA appreciates the work done this year by DOD and Services to 
improve the education of casualty assistance officers and to make sure 
survivors are receiving accurate information in a timely manner. While 
we still hear from some widows that they received wrong or incomplete 
information from their casualty assistance officer, these problems are 
quickly resolved when surfaced to the higher headquarters. We are 
concerned, however, about the widows or parents who still do not know 
who to call when there is a problem.
    A new DOD publication is now available on the DOD Military 
Homefront website (www.militaryhomefront.DOD.mil) for each surviving 
spouse and/or parent outlining the benefits available to them. This on-
line document can be easily updated as changes occur. It will be 
supplemented by Service-specific information. NMFA also looks forward 
to the results of the GAO study on the casualty notification and 
assistance process.
    NMFA believes the benefit change that will provide the most 
significant long term advantage to the surviving family's financial 
security would be to end the Dependency Indemnity Compensation (DIC) 
offset to the Survivor Benefit Plan (SBP). DIC is a special indemnity 
(compensation or insurance) payment that is paid by the Department of 
Veterans Affairs (VA) to the survivor when the servicemember's service 
causes his or her death. It is a flat rate monthly payment of $1,033 
for the surviving spouse and $257 for each surviving child. The SPB 
annuity, paid by the Department of Defense (DOD) reflects the longevity 
of the service of the military member. It is ordinarily calculated at 
55 percent of retired pay. Those who give their lives for their country 
deserve more fair compensation for their surviving spouses. NMFA urges 
Congress to authorize legislation to eliminate the offset and to 
provide funding necessary to implement such legislation.
Wounded Service Members Have Wounded Families
    Post-deployment transitions could be especially problematic for 
injured servicemembers and their families. NMFA asserts that behind 
every wounded servicemember is a wounded family. Spouses, children, 
parents, and siblings of service members injured defending our country 
experience many uncertainties. Fear of the unknown and what lies ahead 
in future weeks, months, and even years, weighs heavily on their minds. 
Other concerns include the injured servicemember's return and reunion 
with their family, financial stresses, and navigating the transition 
process to the VA. When designing support for the wounded/injured in 
today's conflict, the government, especially the VA, must take a more 
inclusive view of military families. Those who have the responsibility 
to care for the wounded servicemember must also consider the needs of 
the spouse, children, and the parents and siblings of single 
servicemembers.

                       COMPENSATION AND BENEFITS

    NMFA appreciates the pay raises for servicemembers over the past 
several years. They serve as both an acknowledgement of service and 
recognition of the need for financial incentives as a retention tool. 
As DOD prepares its Quadrennial Review of Military Compensation, NMFA 
hopes that Congress, in evaluating its recommendations, considers the 
effects of those recommendations on the whole pay and compensation 
package. Changes in individual elements of that package can have 
unintended consequences on other elements or on the package as a whole. 
And, while pay raises are important, equally important is the need to 
maintain the non-pay benefit package that makes up such a vital part of 
military compensation.
Funding for Commissaries, MWR and Other Programs
    Commissaries, exchanges, recreational facilities and other Morale, 
Welfare, and Recreation (MWR) programs are an integral part of military 
life and enhance the overall quality of life for servicemembers and 
their families. Respondents to NMFA's recent survey on military 
benefits spoke emphatically about the value of commissaries, exchanges, 
and MWR programs. This spring, as in previous years, NMFA has been 
dismayed to hear from families and installation leaders that 
installations are being forced to cut MWR services, reduce child 
development center hours, and limit access to facilities because of the 
shortage of base operating funds. At high deployment installations, 
just when families needed them the most, they are routinely being asked 
to do without. Commanders should not have to make a choice between 
paying the installation utility bills or providing family support 
services. While we understand the Services have obligated additional 
funds to installation operations accounts, we still hear from families 
that some services are being cut back or that these accounts are being 
funded at less than 100 percent of the need. We urge increased funding 
for installation operations so that valuable support programs remain 
available to communities undergoing the multiple stresses of deployment 
and high operations tempo at home.

                         FAMILIES AND COMMUNITY

    Military families are members of many communities. NMFA has heard 
how these communities want to help the uniformed service families in 
their midst. As the sacrifice of servicemembers and families continue 
in the global war on terror, many States have implemented military 
family friendly programs and passed legislation to support families. 
NMFA applauds the States assisting servicemembers and their families 
with in-State tuition, unemployment compensation for spouses, licensing 
reciprocity, and education and sports provisions for military children. 
The DOD State Liaison office works to promote these policies and 
publicizes them on the DOD website USA4MilitaryFamilies.org, a web 
forum for sharing information about State and local initiatives to 
support military families.
    Concern for deployed servicemembers from North Carolina, and 
compassion for their loved ones left behind, prompted the creation of a 
unique partnership to help the combatants' families, particularly those 
in remote areas. The Citizen-Soldier Support Program (CSSP) is a 
collaborative effort, funded by Congress through a DOD grant, and 
coordinated by the University of North Carolina at Chapel Hill. CSSP is 
designed to mobilize communities and make them aware of the needs of 
local military families so people can reach out and help when help is 
needed. The program is designed as a preventative measure, as opposed 
to a crisis-response structure, to help with little things before they 
become big things. The support program uses existing agencies within 
counties and communities to broadcast the needs of military families. 
Other States have expressed interest in starting similar programs. We 
hope North Carolina will be the training center to expand the program 
to other States and communities.
    NMFA recommends increased funding for community-based programs, 
including the North Carolina Citizen-Soldier Support Program, to reach 
out to meet the needs of geographically dispersed servicemembers and 
their families.
    NMFA would like to thank these military community members, 
especially the community organizations, schools, youth groups, 
fraternal and service groups, and churches, who reach out the military 
families in their midst and offer them support, a hug, a listener, a 
lawn mowed, a tire changed. They too are part of the tapestry of 
support. By keeping military families strong, they are ensuring the 
force will remain strong.

    Senator Inouye. Our next witness is Brigadier General 
Stephen Koper, retired, President of the National Guard 
Association of the United States. General Koper, welcome, sir.

STATEMENT OF BRIGADIER GENERAL STEPHEN KOPER, UNITED 
            STATES NATIONAL GUARD (RETIRED), PRESIDENT, 
            NATIONAL GUARD ASSOCIATION OF THE UNITED 
            STATES
    General Koper. Thank you, Senator Inouye, and thanks to 
you, Chairman Stevens, and members of the subcommittee for the 
opportunity to testify before you again today. The National 
Guard Association thanks you for your many years of outstanding 
support to the National Guard.
    I want to share with you a couple of critical resources so 
necessary for the National Guard to carry out its growing role 
in the Nation's defense. It comes as no surprise to this 
subcommittee that these items are holdovers from our testimony 
1 year ago.
    While we are encouraged by the establishment of TRICARE 
Reserve Select 2 years ago, a program where members earn 
medical coverage through deployments, and then the addition of 
a tiered system which provides for two more categories of 
health care coverage for the Guard and Reserve, we do not 
believe it offers the final answer. More importantly, we have 
created a system of haves and have-nots within the Guard and 
Reserve, each category of member having a level of merit for 
health care coverage as reflected by a higher or lower premium 
rate.
    This is the sixth year that our association has brought the 
health care issue before you. We appreciate the efforts made 
here on the Hill to provide for our soldiers and airmen, and we 
hope that you will join with the House in providing language 
that would bring us to a simple one level of premium program 
for all members of the Guard and Reserve who are members of 
drilling units.
    Another issue of serious concern is full-time manning for 
the Army National Guard. While already engaged in conflicts 
worldwide, the Army National Guard continues to prepare for 
future missions. The vision of a more responsive force capable 
of full spectrum dominance to meet threats whenever and 
wherever they arise is a reality for the National Guard. The 
National Guard Association has worked with Congress to effect 
an Army National Guard full-time manning ramp to 71 percent 
over a 10-year period by 2012.
    The United States Army validated the ramp and began funding 
in fiscal year 2003, and has continued funding this requirement 
through fiscal year 2006.
    The National Guard Association believes there is a 
requirement to reach the 71 percent of full-time manning level 
by 2010, versus the target of 2012. The full-time manning issue 
will bear even closer scrutiny as the Army National Guard 
continues to transform, modularize, and reset. No matter what 
final decisions are made on Guard end strength and force 
structure, the availability of full-time manning is paramount 
to the Guard's continued success.
    I want to turn now to a concern that goes to the very heart 
of the National Guard. Bold and innovative Members of the 
Senate and the House and have recently introduced Senate 2658 
and its companion, H.R. 5200, the National Defense Enhancement 
and National Guard Empowerment Act of 2006. This legislation 
offers solution to the institutional bias within the Active 
components that has plagued the National Guard, or militia, 
since the birth of the Republic. In our view, this situation 
can no longer be swept under the rug. We must do all that we 
can to provide the American people the most cost-effective 
defense structure. Certainly we believe that structure in many 
cases is the National Guard.
    The Department of Defense announced this week its 
opposition to all sections of S. 2658, and launched a campaign 
in Congress to either delay consideration of the legislation by 
referring it to the Commission on the National Guard and 
Reserve, or to dismiss the bill completely on the grounds that 
neither the Chairman of the Joint Chiefs, nor the Secretary of 
Defense, believe the changes are either necessary or warranted.
    Unfortunately, this same dismissive response to the Guard 
reaching out to be heard as strategic level force structure, 
policy, and funding decisions are being made, is the very 
reason this legislation is needed. Senior Pentagon officials 
will openly tell you that the Guard has been and is at the 
table, and that except for a few isolated incidences, their 
inputs are being regularly factored into decisionmaking.
    If that were true, then why wasn't the Guard in the huddle 
for the Quadrennial Defense Review, and other high-level budget 
debates that ultimately led to proposed cuts of 17,000 
personnel in the Army Guard, and 14,000 less in the Air 
National Guard? The fact of the matter is that senior Guard 
leadership has only been involved in Pentagon decisionmaking as 
an afterthought, requiring the Adjutants General, Governors, 
Congress, this association, and others, to launch vigorous 
campaigns to reverse decisions that were made without adequate 
Guard input. Action by the Senate was necessary to remind the 
Army of this very fact earlier this year.
    The Guard's only goal is to have a seat at the table, and a 
relative voice in the decisions that affect our readiness. 
Based on the Pentagon's standard response to these entreaties, 
we now have the National Guard Empowerment Act of 2006 as a 
means to achieve the level of Defense Department involvement we 
have earned and deserve.
    In closing, NGAUS would ask that this subcommittee lend its 
full support to favorable consideration of S. 2658. While the 
Secretary of Defense is wont to say the war on terror could not 
be fought without the National Guard, clearly a serious 
disconnect still exists. Senator Inouye, our thanks to you and 
Chairman Stevens and the subcommittee, for the opportunity. 
I'll be glad to answer any questions.
    [The statement follows:]

                 Prepared Statement of Stephen M. Koper

    Chairman Stevens, Members of the committee, thank you for this 
opportunity to testify before you again today and the National Guard 
Association thanks you for your many years of outstanding support to 
the National Guard.
    I want to share with you a couple of those critical resources so 
necessary for the National Guard to carry out its growing role in the 
Nation's defense. It comes as no surprise to this committee that these 
items are hold-overs from our testimony 1 year ago.
    At the top of that list of resources is access to health care. The 
National Guard Association believes every member of the National Guard 
should have the ability to access TRICARE coverage, on a reasonable 
cost-share basis, regardless of duty status.
    While we are encouraged by the establishment of TRICARE Reserve 
Select 2 years ago, a program where members ``earn'' medical coverage 
through deployments, and the addition of the ``tiered system'' which 
provides for two more categories of health care coverage for the Guard 
and Reserve, we don't believe it offers the final answer. More 
importantly, we have created a system of haves and have-nots within the 
Guard and Reserve, each category of member having a level of merit for 
health care coverage as reflected by a higher or lower premium rate.
    This is the sixth year that our association has brought the health 
care issue before you. We appreciate the efforts made here on the Hill 
to provide for our soldiers and airmen. From the beginning we have felt 
that there were some underlying justifications for our health care 
proposal:
  --Healthcare coverage for our members is a readiness issue. Guard 
        members called to duty are expected to be ``ready for duty''.
  --TRICARE coverage for all would finally end the turbulence visited 
        on soldiers and their families who are forced to transition 
        from one health care coverage to another each time they answer 
        the Nation's call.
  --Access to TRICARE would also be a strong recruitment and retention 
        incentive. In an increasingly challenging recruiting/retention 
        environment, TRICARE could make a significant difference.
    Currently TRICARE language to accompany H.R. 5122 (NDAA) is in 
place. This section would provide coverage under the TRICARE Standard 
program to all members of the Selected Reserves and their families 
while in a non-active duty status. Participants would be required to 
pay a premium that would be 28 percent of the total amount determined 
by the Secretary of Defense as being reasonable for the TRICARE 
coverage. Further, it would repeal the three tiered cost share TRICARE 
program for reserves established by the fiscal year 2006 National 
Defense Authorization Act. We believe this is the appropriate solution. 
We are seeking similar language from the long-time TRICARE stalwarts 
here in the Senate. We earnestly request this committee's support for 
such action.
    Another issue of serious concern is full time manning for the Army 
National Guard. While already engaged in conflicts worldwide, the Army 
National Guard continues to prepare for future missions. The vision of 
a more responsive force capable of full-spectrum dominance to meet 
threats whenever and wherever they arise is a reality for the National 
Guard.
    The National Guard Association of the United States has worked with 
Congress to affect an Army National Guard full-time manning ramp to 71 
percent over a 10-year period (by 2012). The United States Army 
validated the ramp and began its funding in fiscal year 2003 and has 
continued funding this requirement through fiscal year 2006. The 
National Guard Association of the United States believes there is a 
requirement to reach the 71 percent full-time manning level by 2010 
versus the current target of 2012.
    The full-time manning issue will bear close scrutiny as the Army 
National Guard continues to transform, modularize and reset. No matter 
what final decisions are made on Guard end strength and force 
structure, the availability of full-time manning is paramount to the 
Guard's continued success.
    This committee has always been particularly sensitive to the 
equipment needs of the National Guard and generous in funding the 
National Guard and Reserve Equipment Account (NGREA). Mr. Chairman, 
each and every dollar that has been appropriated over the years in this 
account has purchased combat capability. This account is absolutely 
essential to both the Army and Air National Guard and we thank you for 
your continued support of NGREA.
    I want to turn now to a concern that goes to the very heart of the 
National Guard. Bold and innovative Members of the Senate and House 
have recently introduced S. 2658 and its companion H.R. 5200, The 
National Defense Enhancement and National Guard Empowerment Act of 
2006. This legislation offers solutions to the institutional bias 
within the active components that has plagued the National Guard 
(militia) since the birth of the Republic. In our view, this situation 
can no longer be swept under the rug. We must do all that we can to 
provide the American people with the most cost effective defense 
structure. Certainly we believe that structure, in many cases, is the 
National Guard.
    The Department of Defense announced this week its opposition to all 
sections of S. 2658 and launched a campaign in Congress to either delay 
consideration of the legislation by referring it to the Commission on 
the National Guard and Reserves or dismiss the bill completely on the 
grounds that neither the Chairman of the Joint Chiefs or Secretary of 
Defense believes the changes are either necessary or warranted.
    Unfortunately, this same dismissive response to the Guard reaching 
out to be heard as strategic level force structure, policy, and funding 
decisions are being made is the very reason this legislation is needed. 
Senior Pentagon officials will openly tell you that the Guard has been 
and is ``at the table'' and that except for a few isolated incidences, 
their inputs are being regularly factored into strategic 
decisionmaking. If that were true, then why wasn't the Guard ``in the 
huddle'' for the Quadrennial Defense Review (QDR) and other high level 
budget debates that ultimately led to proposed cuts of 17,000 personnel 
in the Army National Guard and 14,000 less in the Air National Guard.
    The fact of the matter is that senior Guard leadership has only 
been involved in Pentagon decisionmaking as an afterthought, requiring 
the adjutant's general, governors, Congress and NGAUS to launch 
vigorous campaigns to reverse decisions that were made without adequate 
Guard input. Action by the Senate was necessary to remind the Army of 
this very fact earlier this year.
    The Guard's only goal is to have a seat at the table and a relative 
voice in the decisions that affect our readiness. Based on the 
Pentagon's standard response to these entreaties, we now have the 
National Guard Empowerment Act of 2006 as a means to achieve that level 
of Defense Department involvement we have earned and deserve.
    In closing, NGAUS would ask that this committee lend its full 
support to favorable consideration of S. 2658. While the Secretary of 
Defense is wont to say, ``The War on Terror could not be fought without 
the National Guard'', clearly a serious disconnect still exists.
    Mr. Chairman, Members of the committee, I sincerely thank you for 
your time today and am happy to answer any questions.

    Senator Inouye. I thank you very much, General. What are 
the latest statistics relating to recruiting and retention in 
the Army National Guard?
    General Koper. The Army National Guard recruiting slope is 
definitely strongly up. We did suffer a minor setback in April. 
However, we believe, the Chief of the National Guard Bureau has 
said in testimony, he believes they will meet the 350,000 
authorized strength by the end of the fiscal year. They have a 
tremendously innovative Guard Recruiting Assistant Program (G-
RAP) recruiting program that is doing wonders. Individual 
guardsmen are bringing other recruits in and receiving bonuses 
for that, and true to the American spirit, they are great 
marketeers. They are doing a pretty fantastic job.
    Senator Inouye. That is encouraging. Thank you very much, 
sir.
    General Koper. Thank you, sir.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Inouye. That is the last of the witnesses.
    If there are any additional statements from witnesses, they 
will be included in the record.
    [The statements follow:]

Prepared Statement of the National Brain Injury Research, Treatment, & 
                          Training Foundation

    My name is Dr. George Zitnay, and I am the founder of the National 
Brain Injury Research, Treatment and Training Foundation (NBIRTT) \1\ 
and a co-founder of the Defense and Veterans Head Injury Program 
(DVHIP). On behalf of the thousands of military personnel sustaining 
brain injuries, I respectfully request $19 million be provided in the 
Department of Defense (DOD) Appropriations bill for fiscal year 2007 
for the Defense and Veterans Head Injury Program (DVHIP). This request 
includes the $7 million in the DOD's POM, and an additional $12 million 
to allow the important work of the program to continue during this 
critical time in the war on terrorism.
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment and training.
---------------------------------------------------------------------------
 traumatic brain injury is the signature injury of the war on terrorism
    Over 1,500 military personnel involved in the global war on terror 
have been seen and treated by DVHIP. At Walter Reed alone, over 650 
soldiers with brain injuries from Iraq and Afghanistan have been 
treated. Forty percent of those injured in a blast/explosion and seen 
at Walter Reed had a traumatic brain injury. A little more than half 
(50 percent) of these injuries are moderate to severe and will require 
life long support.
    One of the greatest challenges the military health care and 
veterans systems face is to assure that no one falls through the 
cracks. More than ever we need congressional support to provide for 
active duty soldiers and veterans who suffered a brain injury in Iraq 
and Afghanistan, as a result of explosions, penetrating head injury, 
crashes, and other assaults.
    Improved body armor, the significance of even mild brain injury, 
and the high frequency of troops wounded in blasts all lead to blast-
induced TBI being an important health issue in this war. Many of the 
soldiers and veterans with brain injury treated by DVHIP also have Post 
Traumatic Stress Disorder and other medical complications.

          THE DEFENSE AND VETERANS HEAD INJURY PROGRAM (DVHIP)

    The DVHIP is a component of the military health care system that 
integrates clinical care and clinical follow-up, with applied research, 
treatment and training. The program was created after the first Gulf 
War to address the need for an overall systemic program for providing 
brain injury specific care and rehabilitation within DOD and DVA. The 
DVHIP seeks to ensure that all military personnel and veterans with 
brain injury receive brain injury-specific evaluation, treatment and 
follow-up.
    Clinical care and research is currently undertaken at seven DOD and 
DVA sites and two civilian treatment sites.\2\ In addition to providing 
treatment, rehabilitation and case management at each of the nine 
primary DVHIP centers, the DVHIP includes a regional network of 
additional secondary veterans' hospitals capable of providing TBI 
rehabilitation, and linked to the primary lead centers for training, 
referrals and consultation. This is coordinated by a dedicated central 
DVA TBI coordinator and includes an active TBI case manager training 
program.
---------------------------------------------------------------------------
    \2\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, Florida; Naval Medical Center San Diego, San 
Diego, California; Minneapolis Veterans Affairs Medical Center, 
Minneapolis, Minnesota; Veterans Affairs Palo Alto Health Care System, 
Palo Alto, California; Virginia Neurocare, Inc., Charlottesville, 
Virginia; Hunter McGuire Veterans Affairs Medical Center, Richmond, 
Virginia; Wilford Hall Medical Center, Lackland Air Force Base, Texas; 
Conemaugh Health System, Johnstown, Pennsylvania.
---------------------------------------------------------------------------
    DVHIP continues to ensure optimal care, conduct clinical research, 
and provide educational programs on TBI for Active Duty military and 
veterans. All DVHIP sites have maintained and many have increased 
treatment capacity. This has been a direct response to the influx of 
patients seen secondary to Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF). WRAMC receives more casualties from theater 
than all of the other military treatment facilities (MTFs) in the 
continental United States. Patients are often seen at WRAMC within a 
week or two after injury and many of these patients have multiple 
injuries (e.g., TBI, traumatic amputations, shrapnel wounds, etc.).
    To meet the increased demand, screening procedures were developed 
by DVHIP headquarters and clinical staff. The DVHIP clinical staff 
reviews all incoming casualty reports at WRAMC and screens all patients 
who may have sustained a brain injury based on the mechanism of injury 
(i.e., blast/explosion, vehicular accident, fall, gunshot wound to the 
head, etc.). DVHIP screening is catching TBI patients that might 
otherwise go undetected, posing a potential threat to patients and, in 
the case of premature return to Active Duty, military readiness.
    To date, DVHIP staff has accomplished the following:
Clinical Care
    Developed the Military Acute Concussion Evaluation (MACE) for use 
in all operational settings, including in-theater.
    Developed management guidelines for mild, moderate, and severe TBI 
in-theater.
    Established a telemedicine network linking DVHIP's military and VA 
sites.
    Initiated a care coordination capacity for persons with TBI in 
regions remote from one of the DVHIP core sites. Still needed (and 
planned if funding is available) are greater treatment capacity, 
particularly at the community reentry level, and an expanded care 
coordination system that meets the special needs of persons with TBI 
and is widely distributed across the country.
Research
    Commenced multiple new projects and collaborations focused on 
defining and understanding blast-related TBI.
    Continued active medication treatment trials for TBI-related 
symptoms.
    Presented preliminary scientific reports on patterns of TBI 
emerging from OIF and OEF.
    Initiated development of a clinical platform for the testing of a 
promising novel rehabilitation intervention for TBI based on animal 
experiments with environmental enrichment.
    Still needed (and planned if funding is available) are more DVHIP-
based investigators and other research personnel to address further the 
many TBI-related issues emerging from OIF and OEF.
Education and Training
    Developed a syllabus for training first responders in the 
management of moderate and severe TBI in-theater.
    Developed the first two modules of a course for first responders 
and other clinicians in the assessment and management of mild TBI.
    Initiated a public awareness campaign on TBI called ``Survive, 
Thrive, & Alive,'' the centerpiece of which is a documentary on TBI in 
military and veterans that will be released this summer.
    Developed an outreach team to train clinical personnel at non-DVHIP 
sites in the assessment and management of mild TBI.
    Still needed (and planned if funding is available), is to build on 
the public awareness campaign and develop a broadly available 
multimedia educational capacity for military and veteran TBI patients, 
their families, clinicians, and all other persons who are touched by 
this significant public health problem.

                    OUR INJURED TROOPS NEED SUPPORT

    There is no cure for brain injury. That is why the research being 
carried out by DVHIP is critical. We must find a way through research 
to help our injured soldiers with brain injury to return to as near 
normal life as possible.
    Since many of the soldiers with brain injuries will have life long 
needs resulting from their injuries, we need to make sure community 
services are available wherever the soldier lives. This will be done 
through local case management program and linkage to DVHIP sites.
    DVHIP has reached out to screen troops returning from the field to 
make sure no one with a brain injury falls through the cracks. Teams 
from DVHIP have been sent to Fort Dix, Fort Campbell, Fort Knox, Camp 
Pendleton, Fort Carson, Fort Irwin, Fort Bragg, Tripler Army Medical 
Center and others as requested by base commanders. Teams have also 
traveled to Landstuhl Regional Medical Center in Germany to provide 
evaluation and treatment on an ongoing basis. The DVHIP is an important 
tool to assure a continuum of care, but the program requires additional 
resources to assure that no TBI is overlooked or misdiagnosed.

        $19 MILLION IS NEEDED IN FISCAL YEAR 2007 FOR THE DVHIP

    The DVHIP needs a plus up of at least $12 million to care for these 
injured soldiers and their families. Last year Congress instructed the 
DVHIP to move to Fort Detrick. This has been accomplished. Our request 
for the DVHIP is simple. In addition to the $7 million in the POM, the 
DVHIP needs a minimum of $12 million dedicated to the work of the DVHIP 
to provide state-of-the-art care to brain injured soldiers regardless 
of where they live, and to continue our scientific research aimed at 
improving outcomes from brain injury, especially from blast injuries.
    Please support $19 million for the DVHIP in the fiscal year 2007 
Defense Appropriations bill under AMRMC, Fort Detrick to continue this 
important program.
    Thank you.
                                 ______
                                 

           Prepared Statement of Vietnam Veterans of America

    Chairman Stevens, ranking member Inouye, and distinguished Senators 
of the Defense Subcommittee of the Committee on Appropriations, on 
behalf of VVA National President John P. Rowan and all of our members, 
we thank you for giving Vietnam Veterans of America (VVA) the 
opportunity to make our views known about the fiscal needs of America's 
service persons and our soon-to-be veterans.

                   THE SEARCH FOR AMERICA'S MIA/POWS

    First and foremost, I wish to note that the highest priority of VVA 
for 25 years has been, achieving the fullest possible accounting of 
those who are still unaccounted for in Vietnam. Today there are 1,805 
missing and unaccounted for since the end of the Vietnam War since 
1975; 1,380 in Vietnam, 364 in Laos, 54 in Cambodia and 7 in PRC 
territorial waters. VVA commends the Defense Prisoners of War and 
Missing in Action Office (DPMO) for their outstanding work in assisting 
with the recovery of our missing Americans.
    The Joint POW/MIA Accounting Command (JPAC) budget for 2006 fell 
about $3.6 million short and caused the cancellation and scaling back 
of many investigative and recovery operations. VVA urges Congress to 
ensure JPAC receives the dedicated funding level of $65 million in 
fiscal year 2007 and that JPAC funding be a mandatory single line item 
budget just as DIA's Stoney Beach Team and DPMO so that these 
accounting operations don't have to compete with other funding 
priorities.
    Mr. Chairman, every President since President Gerald Ford has noted 
that the Nation's highest priority is the fullest possible accounting 
for our Missing in Action (MIAs), whether they be Prisoners of War or 
that this activity be recovery of remains, and returning these remains 
to American soil. In any case, resolution for the families involved is 
essential and we urge this distinguished body, as we approach Memorial 
Day and as ``Rolling Thunder'' is bearing down on the Capitol in honor 
of POW/MIAs, and to press for the fullest possible accounting of our 
MIAs and POWs, to ensure that the resources are there to do the job 
right.

                                TRICARE

    VVA strongly opposes the inordinate and unfair increases being 
discussed for TriCare recipients. These increases would impose yet 
another disincentive for patriotic Americans to serve their career in 
uniform defending our Nation, and do great injustice to those who have 
already done so, and to their families.
    DOD claims rising health costs impinge on weapons programs. The 
Joint Chiefs endorse the fee hikes because their leaders tell them that 
this is the only way there will be enough money to fund needed weapons 
systems, new equipment, and other materiel needed for the defense of 
the Nation.
    For senior Department of Defense leadership to juxtapose caring for 
service members and former service members when they become veterans 
with acquiring hardware is so outrageous that it should be cause for 
public chastisement by the President. If memory serves, the leadership 
of the Senate Armed Services Committee did rebuke that official at the 
first public declaration, in a bi-partisan manner. Yet the persistent 
pattern that would translate this unfortunate attitude into policy and 
practice continues unabated. You have the ability to call a halt to 
this affront to the men and women of our Armed Forces by stopping the 
proposed sharp increases in TriCare cost-shifting to the service 
members and their families.
    Those who prepare the Defense budget request assume the changes 
will save money by causing hundreds of thousands of retirees to stop 
using their earned military benefits. This is a morally wrong policy. 
Top DOD leaders continue to say fees should bring military closer to 
civilian practices. Military service is not analogous to civilian-
sector jobs. Some of those who maintain that it is would better 
understand if they had personally had the honor and privilege of 
serving our country in the military, particularly during wartime. Any 
comparison with private sector benefits and health care practices is 
simply mistaken and inappropriate.
    Traditionally, providing first rate military medical and retirement 
benefits have helped make up for the pay differentials with the private 
sector, and serve as something of a reward for enduring many years of 
often very difficult service. The medial care of retirees is not low-
cost or no-cost. Rather, it is a ``pre-paid'' medical cost by virtue of 
a hard 20 years or more of military service and sacrifice. Recruiting 
problems today show few Americans are willing to pay that heavy premium 
for that benefit.
    VVA notes that the DOD proposed increases for health care would far 
outstrip annual retired pay increases and would greatly erode retired 
compensation value. Again this year, as was the case in the last few 
years, Congress wisely has refused to accept VA health fee increases 
for veterans who are not service connected disabled who had served as 
few as 2 years.
    Tripling and quadrupling fees for those who served their best adult 
years in uniform would be even more inappropriate than charging non-
career veterans exorbitant fees at VA. Our government has a moral 
obligation to provide benefits commensurate with the extraordinary 
commitments it demands from career service members.
    VVA notes that dramatically raising TriCare to what for many 
retirees will be virtually unaffordable levels will also drive many 
retirees, particularly those who are service-connected disabled, into 
what is already an overburdened and under-funded VA healthcare system. 
While the care at VA is excellent when access is gained, there just are 
not enough personnel to meet the demand as it is. The additional burden 
of driving retirees to that system will only displace the burden in an 
inappropriate manner.
    Although we would certainly hope this is not the case, perhaps it 
is the explicit or inadvertent wish of some at DOD to foist their 
responsibilities for the health of service members and former service 
members off onto the VA in a less than responsible manner. Whether this 
is the intent or not, it would certainly be the effect. However, we 
trust that this subcommittee will not allow such tactics, recognizing 
that caring for the men and women who have faithfully and honorably 
served our Nation is in fact an indispensable element of the essential 
cost of national defense, and keeping America free.

                      ELIMINATE THE ``WIDOWS'' TAX

    VVA strongly urges that fiscal year 2007 must be the year that we 
as a Nation move to eliminate the ``widow's tax.'' I speak of course of 
the situation in which there is a dollar-for-dollar reduction in 
Dependency and Indemnity Compensation (DIC) vs. the Survivor Benefits 
Plan (SBP) annuity payments. VVA encourages the Senate not wait for the 
Veterans' Disability Benefits Commission report to do what is so 
clearly the right thing. VVA urges that you end the dollar-for-dollar 
deduction of VA benefits for service-connected deaths from survivors' 
SBP annuities.
    Further, we urge that you move the effective date of the 30-year 
paid-up SBP coverage to October 1, 2005, (this measure affects retired 
military who pay for SBP). VVA believes that there is no justification 
for further delay in eliminating what is essentially an unjust tax on 
widows of our service members.

           RESEARCH: EXTRACORPOREAL SHOCKWAVE THERAPY (ESWT)

    The number and variety of burns and other terrible wounds 
afflicting OIF/OEF veterans have caused great problems with 
regenerating tissue and skin over significant sections of the bodies of 
our wounded soldiers and marines. VVA participated in a briefing last 
weekend with Admiral Donald Arthur, Surgeon General of the Navy, and 
many key staff of the Walter Reed Army Medical Center and the National 
Naval Medical Center (Bethesda) regarding ESWT or a private company, 
Tissue Regeneration Technologies (TRT), which is bringing this 
technology to the United States, made this compelling presentation. All 
are intersted in bringing this hopeful new technology to our wounded.
    The MTS 180 multiwave device is quite simple to use, takes minimal 
time and effort to apply, and most importantly has been demonstrated 
clearly to do no harm. There will be a direct benefit for U.S. soldiers 
wounded in battle should this be approved. TRT believes, as does the 
clinical staff at WRAMC and NNMC, that the multiwave device can provide 
much quicker healing of the war wounds presented and thus save limbs 
from amputation and have each young man and woman return to a more 
normal life with their families after their duty in the military. The 
device promises to have a huge impact on those patients who have a 
difficult time recovering from wounds received in the line of duty.
    Research on this therapy worldwide has demonstrated ingrowth of new 
blood vessels in areas lacking such, destruction of bacterial 
pathogens, production of growth factors and other processes that lead 
to healing of tissues (bone and skin) in a rapid fashion. TRT has 
agreed to donate a device to the WRAMC, assist in writing the protocol, 
and provide Dr. Wolfgang Schaden (with TRT) expertise, training and 
guidance for a study involving those wounded men and women. The Henry 
M. Jackson Foundation has agreed to assist in supporting this effort. 
The end goal, should the device prove efficacious, would be to provide 
devices on the field of battle that would readily support limb- and 
life-saving therapy.
    What is needed is approximately $17 million specifically designated 
large-scale study that would involve WRAMC, NNMC, and hopefully the 
Uniformed Services University (USU), and the National Institutes of 
Health (NIH) in assembling a combined Institutional Review Board (IRB), 
and for actually conducting a rigorous clinical outcomes study of this 
seemingly extraordinary tool.
    An additional benefit of ensuring that this is collaborative effort 
or with a common protocol IRB is to set the stage for many other 
vitally needed clinical research projects that are likely to directly 
and immediately help to provide even more magnificent care than our 
grievously wounded are already receiving today. The cooperation of the 
Department of Veteran Affairs is all that is needed to make this a 
complete loop, and assist with strengthening the continuum of care for 
the seriously wounded and injured.

  DISPOSITION OF THE AIR FORCE HEALTH STUDY (AFHS) DATA AND SPECIMENS

    The Air Force Health Study (AFHS), more commonly known as the 
``Ranch Hand Study,'' is coming to a close. This study, which has 
spanned more than 25 years (1979 to the end date of September 30, 
2006), has produced a wealth of data about the participants. In 
addition, there are more than 60,000 blood and tissue samples 
(biospecimens) that the AFHS never had the time or resources to even 
test, much fully analyze.
    In response to the mandate of being directed to do so pursuant to 
Public Law 108-183, the Secretary of Veterans Affairs contracted with 
the Institute of Medicine (IOM) of the National Academies of Sciences 
to consider the question of whether this data and biospecimens should 
be retained for future analysis and additional study; and, if so, where 
the repository of these biospecimens and data sets should be, in order 
that the integrity of the data and physical samples be preserved and 
that the chain of custody be maintained.
    The IOM recommended three possible sites for this repository, 
assuming that arrangements and permission can be obtained from the 
National Archives: one of the two Epidemiological Information and 
Research Centers (ERICs) of the Department of Veterans Affairs; and, 
the Medial Follow-Up Agency (MFUA) of the Institute of Medicine.
    Vietnam Veterans of America testified that the only one of these 
three that everyone could have full confidence in was MFUA, as it has a 
history of exemplary and impartial scientific work extending back to at 
least World War II. However, any of these three options need additional 
resources to take on this burden. The IOM estimated that it will take 
up to $300,000 per year to manage and support the custodian's data 
management responsibilities, and approximately the same amount to care 
for the biospecimens. First-year costs would be higher because of the 
transfer and set-up costs.
    The time is short, and the funds to maintain the data and 
biospecimens must be available on October 1, 2006 in order to maintain 
the chain of custody, keep the freezers on for the biospecimens, and 
handle all the myraid activities that must be done. Further, the IOM 
recommended that a minimum of 5 years would be needed, with at least 
$250,000 for small grants, to discover whether the reposited material 
and data are of the unique scientific value they are assured to have.
    For all of the reasons outlined above, VVA strongly urges the 
subcommittee to make available $1 million for fiscal year 2007, with a 
commitment of $800,000 in each of the succeeding 4 fiscal years, and 
direct that the data be transitioned to the Medical Follow-Up Agency 
(MFUA) of the Institute of Medicine (IOM) of the National Academies of 
Science (NAS). Further, VVA asks that report language direct the Air 
Force to ensure that there is no lapse in the transition, and that the 
physical integrity and chain of custody be fully maintained, whether by 
Air Force personnel or by the current contractors working on the AFHS.
        health care screening for deploying and returning troops
    The force readiness plan being developed by the Pentagon at the 
behest of Congress must include a full medical examination, to include 
a blood draw and a psychosocial history by a qualified clinician, for 
all troops prior to their deployment overseas and upon their 
redeployment. This must include a face-to-face mental health care 
encounter. VVA is greatly perturbed by reports of troops on heavy 
medications being sent to the war zones, and of those who receive 
mental health profiles while in Iraq or Afghanistan being sent back 
into combat situations.
    The traditional role of military medicine has always been ``Force 
Readiness,'' i.e., how quickly can service members be returned to full 
duty with a minimal expenditure of resources, and delivery of treatment 
as far forward as possible. In the past 10 years, there has been an 
effort to shift to a model of ``Force Health Protection'' that seeks to 
safeguard to long-term health of the individual service member and 
reduce or avoid severe health consequences of military service in the 
future. However, when there is a situation such as exists today, where 
virtually every service member (or member of the National Guard or 
Reserves) is needed to maintain the mission, ``Force Readiness'' trumps 
all other considerations.

                         MENTAL HEALTH AND PTSD

    The problem is that sending troops back into the war zone for a 
forced second or third tour, including those who already have Post-
Traumatic Stress (PTSD) problems, is to ensure that the severity and 
chronicity of the problems that these individuals will suffer in the 
future will be much more acute. News reports that many who are already 
on medication, including psychotropic and/or heavy anti-depression 
medications because of mental health problems stemming from their 
previous tour(s), are also being forced to deploy yet again are really 
disturbing.
    DOD has long discriminated against anyone who has come forth to 
report any such problems, causing service members who wish to stay in 
the service and wish to be promoted not to seek help from military 
medical personnel, but rather to self medicate and/or seek help at 
their own expense from civilian sources. Now it seems that DOD wants to 
have it both ways, i.e., not promote these service members but still 
send them back to the war zone knowing this will worsen and/or 
exacerbate their condition. How many suicides or breakdowns in the 
field will it take to stop this shortsighted approach?
    Similarly disturbing are reports that both Army and Navy physicians 
have been forbidden to use the diagnosis of Post Traumatic Stress 
Disorder, which is in the Diagnostic and Statistical Manual (DSM-IV), 
as a valid diagnosis. Rather, we understand that military physicians at 
many sites are instructed to use ``combat stress,'' or ``personality 
disorder,'' or other euphemisms in their notes, despite the fact that 
these euphemisms are not defined, validated, or recognized by the 
American Psychiatric Association (APA), the American Medical 
Association (AMA), or any other legitimate medical entity. This is 
apparently being done despite the fact that many of these individuals 
clearly meet all or many of the 14 classic symptoms of PTSD. Why would 
anyone do that? The answer is that because it is not a recognized 
diagnosis, it does not qualify the service member for a medical 
retirement.
    Because our newest veterans appear to be suffering the 
psychological stresses and disorders in far greater numbers than even 
the Vietnam generation, it is imperative that after deployments a 
system of acute stress counseling and PTSD counseling be emplaced, a 
system that is funded by DOD and delivered by VA personnel and private 
practitioners. What is needed is some sort of ``firewall.'' If the 
individual gets better, then he or she will pass their pre-deployment 
face-to-face mental health encounter, and be stronger for having 
admitted to the problem and getting effective help. If they are 
experiencing mental health difficulties, then that same clinical 
encounter will screen them out, whether they have sought treatment or 
not.
    This counseling must be made available to Reservists and members of 
the National Guard and their families in addition to active-duty troops 
when they have returned. As about 60 percent of the Guard and Reserve 
members live in towns of 2,500 or less, there needs to be creative 
solutions in order to get these folks the help they and their families 
so often need. To treat PTSD in the service member or veteran, one must 
treat the whole family or the chances of success are greatly 
diminished. Currently there is little or nothing being done for the 
Guard and Reserve members, or their families, who are far from any 
military hospital, or even a VA facility.
    In this same regard, reports persist that the problem documented by 
Senators Bond and Leahy (co-chairs of the National Guard and Reserve 
Caucus in the Senate) 3 years ago that National Guard and Reserve 
troops were waiting inordinately long periods for medical care at 
military medical facilities has not gone away, and in fact is again 
becoming widespread. Much of the problem, VVA believes, is that like 
most of the military, the military medical organizational capacity has 
been too far downsized in the name of ``streamlining'' and 
``modernizing.'' We urge the subcommittee to increase the funding 
allocation for the number of physicians and allied healthy care 
personnel for fiscal year 2007, with appropriate report language that 
directs DOD to track the care and waiting periods of these individuals, 
who are so vital to the total force concept, to ensure that they are 
not being treated as ``second class citizens'' in the military medical 
system, thereby worsening the medical conditions of these soon-to-be 
veterans.

                         MILITARY SEXUAL TRAUMA

    It has become clear in the last decade that sexual harassment and 
sexual abuse are far more rampant than what had been acknowledged by 
the military. Reported instances of sexual harassment and abuse 
represent only the tip of the proverbial iceberg. While we are pleased 
that both the Departments of Defense and Veterans Affairs seem now to 
be taking this seriously, finally explicitly acknowledging sexual 
trauma as a crime under the Uniform Code of Military Justice (UCMJ) in 
the Defense Authorization Act of 2005, there is still a long road to 
travel to change the current atmosphere that conditions victims of 
sexual abuse to not report this abuse to authorities. VVA urges you to 
include report language directing a comprehensive review of the 
penalties for military sexual trauma under the Uniform Code of Military 
Justice to determine if the penalties are commensurate with the 
offenses, and to act to ensure uniform enforcement in all branches of 
the military, and to explore such mechanisms to achieve quality 
assurance on uniformity of enforcement such as a worldwide Internet 
address and a nationwide toll-free number, that would be staffed by 
counselors 24/7 trained to effectively assist, counsel, and refer 
service members (or family members) who have been the victim of sexual 
assault. VVA believes that only by means of such a mechanism that is 
not dependent on local command can there be uniformity of quality 
assistance and equal application of justice.
    Further, VVA urges that report language direct DOD to do a better 
job of establishing a continuum of care for victims with the VA, so 
that these individuals go from the military into appropriate care at 
the VA nearest to their home.

          NATIONAL VIETNAM VETERANS LONGITUDINAL STUDY (NVVLS)

    While it is not specifically within the purview of this 
subcommittee, VVA brings to your attention the requirement in Public 
Law 106-419, The Veterans' Benefits and Health Care Improvement Act of 
2000, that the VA contract to do a follow-up to the National Vietnam 
Veterans Readjustment Study, done some 20 years ago. Several of the 
distinguished Senators on this subcommittee are also on the Military 
Construction and VA Subcommittee, and all of the distinguished Senators 
are on the full Appropriations Committee. VA has delayed, dithered, and 
is now refusing to do the replication of the earlier study, utilizing 
the very same people--veterans who served in Vietnam, veterans who 
served in the Vietnam Era but who did not serve in Southeast Asia, and 
a non-veteran cohort matched for socio-economic and educational 
factors. The VA is now refusing to do the study, and is in defiance of 
the law and of the Congress. VVA believes that some in the VA and the 
Office of Management and Budget do not want to complete this study 
because of what they believe the results will be in terms of lifetime 
mortality and morbidities of combat veterans. As such, they are being 
contemptuous of the law and the Congress by their continued refusal.
    As the Judiciary is loath to do so in cases such as this (where 
there is a dispute between the other two branches of government such as 
a study mandated by the Congress and the Executive branch does not do 
it), only the Congress can compel the Executive branch to complete this 
legally mandated study, and the only means to that is by means of the 
appropriations process. This study, known as the National Vietnam 
Veterans Longitudinal Study (NVVLS), must be funded--and the VA 
compelled to immediately re-initiate this statutorily mandated study 
and bring it to an early and proper conclusion.
    The NVVLS represents the last best chance we have of understanding 
the nature and scope of the health problems of Vietnam veterans. The 
results of this study will also greatly assist Congress in planning not 
just for the health care needs of Vietnam veterans, but anticipating 
the long-term health care problems of our troops risking their lives in 
Iraq, Afghanistan, and elsewhere in the world today.
    Line item funding for this study and strong explicit report 
language are needed to compel the VA to fulfill its responsibility to 
comply with the mandate set by Congress.

     TRANSITION ASSISTANCE PROGRAM MUST BE MANDATORY FOR COMMANDERS

    The greatest barrier to benefits and entitlements that soon-to-be 
separated veterans face is that they simply do not know about them. The 
``Transition Assistance Program'' (TAP) has been developed in the past 
20 years to help remedy this situation. Unfortunately, this program is 
very uneven. This is due partly because it is an ancillary duty for 
most of the people involved, whether they be from the VA, the State 
workforce development agency (funded by the Department of Labor-
Veterans Employment and Training Service), or others in the veterans 
service matrix. The most important thing that this committee can do is 
direct that sufficient resources be allocated for this program, and 
that successfully and effectively mounting TAP sessions for all 
personnel be made a mandatory item on the Officer Efficiency Report and 
evaluation for commanders.
    It is imperative for their future and the well-being of the Nation 
that the transition from service member to fully employed veteran be 
achieved in the overwhelming majority of cases. This includes providing 
all the assistance needed especially for disabled veterans, to be able 
to obtain and sustain meaningful employment at a living wage. Much of 
the key to accomplishing this goal is simply provides useful 
information and educating the departing service member. Former service 
members who successfully transition into civilian life are the very 
best recruiters the services have, and a better-administered TAP 
program will greatly aid that effective and speedy transition.
    Mr. Chairman, this concludes my remarks. Again, VVA thanks you for 
the opportunity to present our views here today regarding a number of 
essential points regarding the fiscal year 2007 Defense Appropriations 
legislation.
                                 ______
                                 

       Prepared Statement of the Coalition of EPSCoR/IDeA States

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to submit this testimony regarding the Department of 
Defense basic scientific research program and the Defense Experimental 
Program to Stimulate Competitive Research or ``DEPSCoR.''
    I am Royce Engstrom, Provost and Vice President for Academic 
Affairs at the University of South Dakota. I am also chair of the 
Coalition of EPSCoR/IDeA States, which is a non-profit organization 
that promotes the importance of strong science and technology research 
infrastructure, and works to improve the research competitiveness of 
States that have historically received less federal research funding. 
Previously, I was Vice President for Research at USD. I mention my 
background because I have had the opportunity to observe from several 
career points that there is great truth in the concept that all States 
and regions have impressive science and technology resources that can 
benefit mission agencies like the Department of Defense.
    I am submitting this statement on behalf of the Coalition of 24 
EPSCoR States in support of increasing the fiscal year 2007 budgets of 
both the Department of Defense's science and engineering research 
program for basic research, and an important component of that program, 
DOD's Experimental Program to Stimulate Competitive Research (DEPSCoR). 
These States have one-fifth of the Nation's academic science and 
engineers and represent an important resource for developing the pool 
of S&T talent that can serve DOD.
    First, I would like to thank the chairman and the rest of the 
subcommittee for your leadership and long-term support of the Defense 
Departments science and technology programs. America's uniformed men 
and women benefit greatly from the high tech products produced through 
DOD funding. Academic basic research is the first step in the process 
of bringing discovery in the research labs to applied research and 
ultimately to development and product creation and availability for the 
front line.
    The Coalition of EPSCoR/IDeA States strongly support increasing the 
Department's budget for basic research. The coalition urges the 
Congress and the administration to provide a significant investment in 
the Science and Technology (S&T) programs of the Department of Defense. 
The EPSCoR/IDeA States are in full agreement with the recommendation 
contained in the National Academies (NAS) report, Rising Above the 
Gathering Storm, and call for a 10-percent increase in basic defense 
research in fiscal year 2007.
    DOD-funded research is an essential component to meeting both the 
economic and security challenges facing our Nation now and in the 
future In the past, national defense investments in science and 
engineering have helped to create a well-trained cadre of U.S. 
scientists and engineers and have provided important educational 
opportunities for several generations of soldiers, veterans, and 
citizens while strengthening our national and economic security.
    DEPSCoR is a small, but significant, part of this larger, multi-
faceted DOD research program. The coalition recommends that Congress 
appropriate $20 million to the Department of Defense budget for the 
DEPSCoR Program in fiscal year 2007. DEPSCoR was initially authorized 
by section 257 of the National Defense Authorization Act of 1995 
(Public Law 103-337), and was created to help build national 
infrastructure for research and education by funding research 
activities in science and engineering fields that are important to 
national defense. DEPSCoR's objectives are: (1) To enhance the 
capabilities of institutions of higher education in DEPSCoR States to 
develop, plan, and execute science and engineering research that is 
competitive under the merit review systems used for awarding federal 
research assistance; and (2) To increase the probability of long-term 
growth in the competitively awarded financial assistance that DEPSCoR 
universities in eligible States receive from the Federal government for 
science and engineering research.
    I would now like to highlight a few ``DEPSCoR-funded'' success 
stories of research projects that have and are, presently, contributing 
to our national defense interests. In my own State of South Dakota, 
three significant research projects at the South Dakota School of Mines 
and Technology are under investigations through the DEPSCoR program. In 
one project, aluminum nanoparticles are being studied for their unique 
energy release characteristics, which can increase the metal 
acceleration from an explosive weapon. The particles also have 
potential use in primers, low-collateral warheads, and solid propellant 
additives. In another project, novel polycarbonate polymers are being 
developed for incorporation into transparent armor for face shields, 
goggles, and windshields. Finally, scientists are developing new 
``spintronic'' devices that combine electronic, magnetic, and optical 
properties into a single chip, resulting in powerful devices that 
operate on a fraction of the energy of today's devices and with much 
less weight.
    Projects from other EPSCoR states include:
  --The University of Alaska Fairbanks' researchers at the Institute of 
        Arctic Biology are examining the central human nervous system 
        with potential applications for reducing the severity of combat 
        casualties by extending the window of opportunity for transport 
        to medical facilities.
  --The University of Hawaii at Manoa's researchers are using DEPSCoR 
        funding to improve tropical cyclone forecasts for the Joint 
        Typhoon Warning Center, which is DOD's operational center for 
        tropical cyclone forecasting in the Pacific and Indian Oceans.
  --University of Kentucky researchers are working on a novel high-
        throughput Piezoelectric Technology, and have built and tested 
        working prototypes and signal processing software. This will 
        allow, for the first time, high-throughput genetic approaches 
        that may answer fundamental questions about sleep and wake 
        behavior. In turn, this knowledge is likely to suggest both new 
        pharmacological and non-pharmacological approaches to deal with 
        performance decrements from sleep disruptions that are so 
        common during military operations.
  --University of Montana researchers are working to understand the 
        cause of oxidative stress in war fighters. This will have a 
        direct impact on every soldier working in extreme environments 
        while carrying heavy equipment. Often these men and women 
        suffer from short-term impairment of metabolic function and 
        cognitive ability. Long-term effects of oxidative stress 
        include neurodegenerative disease and cancer. Understanding 
        this condition in military personal will allow for the design 
        of treatment protocols to minimize this aberrant metabolic 
        state and its subsequent short- and long-term health effects.
  --University of Nevada, Las Vegas researchers are working to further 
        the number of applications for wireless sensor networks in 
        military surveillance and civilian areas. For DOD, the use of 
        unmanned surveillance and monitoring systems using wireless 
        senor networks is of great practical importance, bringing 
        energy efficiency, scalability, dependability, and security to 
        military efforts. These characteristics obviously also can 
        enhance civilian endeavors as well.
  --North Dakota State University is conducting research aimed at 
        lengthening the life of ship structures. This research will 
        lead to significant savings in military spending on marine 
        fuel, maintenance and replacement of ships.
    Again, these are only a few of the many DEPSCoR-funded research 
initiatives that add to our national body of knowledge on varying 
national security issues.
    DEPSCoR awards are provided to mission-oriented individual academic 
investigators to conduct research that has practical military 
applications. However, the program as it is currently implemented has 
not taken into account the significant benefits that can be derived 
from pooling individual investigators efforts into ``centers'' of 
research that meet the ever-increasing challenges and needs of the 
Department of Defense and the Services.
    The DEPSCoR States propose restructuring the program into two 
components. The first component would retain the current structure 
whereby the single investigators are invited to compete for research 
awards in areas identified by the Department and the Services. The 
second and new component would award funding to mission-oriented 
``centers.'' These centers of defense excellence would be 
interdisciplinary areas and would build defense research capacity.
    To achieve important defense research objectives of both the 
components of the program, the DEPSCoR States suggest that the program 
be funded at $20 million for fiscal year 2007 with $10 million 
obligated to the individual investigator awards and $10 million for the 
mission-oriented centers initiative. This twin approach to funding will 
enhance the Department's ability to tap into the best ideas that the 
DEPSCoR States have to offer in support of the Nation's security needs.
    In conclusion, it is important that DOD is able to utilize the 
resources of all States and regions universities and the science and 
technology talent that reside in these institutions. DEPSCoR works to 
enable these resources to be available to advance the DOD mission. 
DEPSCoR is a wise and worthwhile investment of scarce public resources, 
and will continue to contribute research that supports national defense 
needs. Thank you for your consideration of this request.
                                 ______
                                 

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the Members of the 
subcommittee for this opportunity to present testimony before this 
committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
university serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Science. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $182 
million this past year in research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The university is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. We 
consistently rank in the top 25 among U.S. colleges and universities in 
attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me briefly tell you about the projects we are 
pursuing this year. The first project is an FSU-led DARPA project that 
involves several other State universities in Florida. The work will 
focus on an Integrated Cryo-cooled High Power Density System, 
particularly as it relates to these systems and their applications in 
electric power systems. The objective of this multi-university research 
program is to achieve cryo-cooled high power densities through improved 
management and integration within the electric power system of heat 
generation and removal. This systems approach to solving this critical 
issue begins with identifying the enabling technologies needed, and 
then pursuing new systems approaches to advance the enabling 
technologies necessary for solution of these problems. Immediate 
applications could be with various electric drive systems currently 
under development by the various services and would include electric-
drive ships, land vehicles, and other emerging electric drive power 
systems.
    The research activities supported within this project will be 
directed in several areas that include development of new materials 
that could be included in conductors, semi-conductors, and insulation 
that would become critical components in cryo-thermal systems and 
system components. The systems integration approach will be critical to 
this entire effort at FSU. We are requesting $3,000,000 for this very 
important new project.
    Our next project is entitled Nanotubes Optimized for Lightweight 
Exceptional Strength (NOLES)/Composite Materials, and is a continuing 
project with the U.S. Army. The U.S. Army's objective of developing a 
lighter fleet of fighting and personnel vehicles may be achieved 
through the diminutive single-walled carbon nanotubes that (1) are the 
strongest fiber known, (2) have a thermal conductivity two times higher 
than pure diamond, and (3) have unique electrical conductivity 
properties as either semi-conducting or metallic based on their 
structure. Work under previous Army funding has led the development and 
production of lightweight multifunctional composite structures. These 
structures are uniquely-created by resins impregnated with carbon 
nanotubes; these new composite materials hold the promise of creating 
structures, which, pound for pound, will be the strongest ever known, 
and hence offer maximum personnel and vehicle protection. Benefits are 
apparent not only to defense, but also throughout the commercial world.
    Partnered with the Army Research Laboratory and a number of defense 
companies, Florida State University's team of multi-disciplinary 
faculty and students has developed unique computational, analytical, 
and experimental capabilities in the field of nano-composite research. 
This research is leading to vital defense applications. For instance, 
in a partnership with Lockheed Martin Missiles and Fire Control-
Orlando, FSU researchers are developing nanotube/polycarbonate (CNT/PC) 
composites that are expected to exhibit outstanding properties for an 
armor program. Initial testing showed that the FSU CNT/PC materials 
demonstrated favorable properties and deserved further investigation. 
The FSU researchers recently delivered the second batch of test 
materials. Additional field tests of the materials have been scheduled. 
In addition, FSU's nanotube composites are being tested for missile 
wings, UAVs, thermal management and missile guidance systems by Boeing, 
Lockheed Martin, Northrop Grumman, and Raytheon.
    Three foci are envisioned for fiscal year 2007: (1) to develop 
nanotubes as a material platform for a new generation of devices and 
systems, giving special attention to the design and demonstration of 
defense applications; (2) to use nanotubes and biological polymers in 
harvesting and conversion of solar and RF energy across the electro-
magnetic spectrum; and (3) to develop processing technology for ultra 
lightweight, exceptionally strong composite materials to improve glass 
transition temperature, through-thickness strength and fire retardance. 
We are requesting $3,000,000 for this project in fiscal year 2007.
    Our third project involves the U.S. Navy, and it examines experts' 
ability to maintain superior performance under stress. The project is 
entitled, Refined Assessment and enhances Acquisition of Skilled 
Performance in the U.S. Navy. It includes a focus on designing 
assessment and training procedures to enhance performance. This project 
will be undertaken by FSU's Learning Systems Institute (LSI), which is 
used for multidisciplinary research on performance; in addition, the 
Virtual Human Performance Laboratory (vHPL) at LSI will enable the 
remote assessment and training of Navy fighter pilots. Researchers will 
utilize the results of studies of expert performance conducted with ONR 
together with new data on real-world and simulated performance under 
stress collected to design assessment and training procedures for 
skilled performance for these key Navy personnel. This research is 
designed to support ``An Evolving Joint Perspective: U.S. Joint Warfare 
and Crisis Resolution in the 21st Century,'' and is being conducted in 
accordance with current CNO guidance. We are requesting $1,500,000 for 
this project.
    Our final project involves the Integration of Electro-kinetic 
Weapons into Next-Generation Navy Ships. The U.S. Navy is developing 
the next generation war ship that will be based on an all-electric 
platform of propulsion loads and electric power systems with rapid 
reconfigurable distribution systems for integrated fight-through power 
(IFTPS). Through the IFTP system, large amounts of energy could be made 
available to new pulsed power weapon systems and other directed energy 
weapons. Many challenging technical issues arise before implementing a 
combat ready system. These include the appropriate topology for the 
ship electric distribution system for rapid reconfiguration to battle 
readiness and the energy supply technology for the weapon systems.
    The goal of this initiative is to investigate the energy delivery 
technologies for electro-kinetic weapons systems and investigate the 
integration and interface issues of these weapons as loads on the ship 
IFTPS through system simulations and prototype tests, and assess the 
capability and security of various system topologies and control 
schemes to operate the weapon systems. The results will provide the 
Navy and its ship-builders with vital information on design of the ship 
power system and weapon power supplies.
    With significant support from the Office of Naval Research (ONR), 
FSU has established the Center for Advanced Power Systems (CAPS). CAPS 
has integrated a real-time digital power system simulation and modeling 
capability and hardware test-bed, capable of testing IPS power system 
components at ratings up to 5MW, offering unique hardware-in-the-loop 
simulation capabilities hitherto unavailable anywhere in the world.
    In support of the proposed initiative, the National High Magnetic 
Field Laboratory (NHMFL) will utilize its world-class research 
expertise and infrastructure for the proposed development. FSU's 
partnership with University of Florida and Los Alamos National 
Laboratory is a key part of the NHMFL. This initiative will be also 
conducted in cooperation with the University of Texas-Austin and 
University of Missouri-Columbia. Each institution offers unique 
capabilities in design and prototyping of the energy storage and pulse 
forming networks needed. We are requesting $3,000,000 for this project.
    Mr. Chairman, we believe the research described above is vitally 
important to our country and the various military services. We would 
appreciate your support.
                                 ______
                                 

       Prepared Statement of the Air Force Sergeants Association

    Mr. Chairman and distinguished subcommittee Members, on behalf of 
the 130,000 members of the Air Force Sergeants Association, thank you 
for this opportunity to offer the views of our members on the fiscal 
year 2007 funding priorities of the Department of Defense. This hearing 
will address issues critical to those serving and who have served our 
Nation. AFSA represents Active Duty, Guard, Reserve, retired, and 
veteran enlisted Air Force members and their families. Your continuing 
efforts toward improving the quality of their lives has made a real 
difference, and our members are grateful. In this statement, I will 
list several specific goals that we hope this committee will consider 
funding during fiscal year 2007 on behalf of current and past enlisted 
members and their families. The content of this statement reflects the 
views of our members as they have communicated them to us. As always, 
we are prepared to present more details and to discuss these issues 
with your staffs.

                           HEALTH CARE ISSUES

    Defense Health Program Funding.--AFSA urges the subcommittee to 
ensure continued full funding for Defense Health Program needs. AFSA 
maintains that this Nation can afford to and must be dedicated to 
funding the weapons systems and the military health care system. We 
strongly recommend against DOD's desire to establish an annual 
enrollment fee for TRICARE Standard. We urge the subcommittee to 
require DOD to pursue greater efforts to improve TRICARE and find more 
effective and appropriate ways to make TRICARE more cost-efficient 
without seeking to shift the burden to those who have already paid a 
great price for their retirement health care benefits. Additionally, 
the DOD plan is based upon questionable assumptions of prospective 
changes in human behavior--a dangerous way to steer a fiscal course. 
Furthermore, if the assumptions upon which the DOD TRICARE plan is 
based are incorrect, military beneficiaries would likely face an ever-
increasing cost for benefits they already paid for by facing unlimited 
liability for an entire career.
    Promoting TRICARE Standard Providers.--One of the great problems 
with TRICARE itself is that many doctors refuse to participate because 
it is not worth their while. AFSA urges this subcommittee to designate 
sufficient funding that will enhance provider participation and thus 
contribute to denying beneficiaries access to care.
    Pharmacy Copayments.--AFSA asks the subcommittee to provide the 
necessary funding prevent DOD plans to once again change the copayment 
rates for prescriptions until all medications are available in the mail 
order program and limiting any future pharmacy copayment increases to 
the lesser of the percentage increase in basic pay or retired pay, 
rounded down to the next lower dollar. The coalition recommends 
eliminating beneficiary copayments in the mail-order pharmacy system 
for generic and brand name medications to incentivize use of this 
lowest-cost option and to generate substantial cost savings.
    Dental Care Support.--AFSA asks this committee to take a serious 
look at additional funding for the dental care program for military 
members and their families. Some members report that the reimbursement 
rates for providers are not adjusted to the various regions. That being 
the case, dentists avoid participation in the program. The situation in 
Alaska, in particular, has been brought to our attention; however, the 
situation needs to be examined across the board to determine where 
there are inadequate providers to support the families of military 
members and the retirees in each region.
    Optometry Benefit for Retirees.--The earned career military benefit 
does not include a funded retiree optometry benefit. This is certainly 
fundamental to the health and well-being of those who have served, and 
AFSA requests this subcommittee's consideration toward supporting the 
implementation of such a benefit.

                            EDUCATION ISSUES

    Increase the value of the MGIB to cover the costs of tuition, 
books, and fees at an average 4-year college or university. Despite 
recent increases in the MGIB which brought the value of the MGIB up to 
$1,034, more needs to be done. If this Nation is going to have a 
program that sincerely intends to satisfy the purpose of the program, 
it certainly should mirror civilian industry by providing a 
comprehensive educational program and not an insufficient one. 
According to the ``College Report,'' an annual evaluative report 
published by the education ``industry,'' average monthly educational 
costs are more than $1,500 at this time. This figure reflects the cost 
of books, tuition, and fees at the average college or university for a 
commuter student. Of course, that average cost will increase in the 
future due to inflation. Payment for full books, tuition, and fees for 
a 4-year degree with annual indexing to maintain the value of the 
benefit, at least, ought to be provided for those who make the military 
a career. In recent months, several members of Congress have expressed 
interest in developing a new, improve ``Total Force MGIB.'' AFSA 
supports such an initiative and encourages this subcommittee to espouse 
it as well.
    An MGIB Enrollment Opportunity for VEAP-Era Military Members.--The 
education program for military members that preceded the Montgomery 
G.I. Bill (MGIB) was the Veterans Educational Assistance Program 
(VEAP). This was a program where you put in up to $2,700 and the 
government matched the amount you used for education on a 2-for-1 
basis. The maximum government contribution was $5,400. Hundreds of 
thousands of military members declined enrollment in that program due 
to very poor educational counseling. Many tell us they were advised by 
education officials not to enroll in the VEAP since a better program 
was coming along. Unfortunately, when the MGIB came along, those who 
didn't enroll in the VEAP were not allowed to enroll in the far-more-
beneficial MGIB. DOD estimates last year indicated that there are still 
serving between 50,000 and 70,000 service members who declined 
enrollment in VEAP. S. 2091, sponsored by Senator Tim Johnson would 
correct this unfortunate situation. These members served since the mid 
1980s, helped preserve peace, and deserve an opportunity to enroll in 
the MGIB program. AFSA urges the subcommittee to fund that opportunity.
    Correct MGIB Enrollment Procedures.--At basic military training or 
boot camp, new servicemembers must make a decision. If they want to 
enroll in the MGIB, they must agree to have $100 per month deducted 
from their pay for each of their first 12 months of military service. 
This is twice as difficult for noncommissioned members because they 
make roughly half the pay of a newly commissioned officer. We urge the 
subcommittee to either eliminate the $1,200 user fee or allow enlisted 
members to make the payments over a 24-month period.
    Allow Transferability of MGIB Benefits to Family Members.--AFSA 
believes the MGIB benefit is earned, and military members ought to also 
be able to share the benefit with their family members, if they chose 
to do so. It would certainly serve to improve the quality of the lives 
of noncommissioned families. Transferability could be offered as a 
career incentive. For example, transferability could become an aspect 
of the program for all enrollees after they complete 12 or 13 years in 
service.
    Full Impact Aid Funding.--Impact Aid is supplemental funding 
provided to local school districts to compensate for the impact of 
having military members in that community. Local schools are primarily 
funded through property taxes. Those military members who reside on 
base do not pay into the property tax base. Recognizing this, each year 
Congress has provided supplemental dollars to such school districts. 
This funding is critical to quality education and the protection of the 
finances of military families; AFSA urges the subcommittee to continue 
the great work it has done on this front in recent years.
    In-state Tuition Rates for Military Members.--Military members are 
relocated from one military reservation to another at the pleasure of 
the government. Of course, servicemembers serve the entire Nation, and 
every State benefits from their service. Although we believe this issue 
would not require any additional funding considerations, we urge the 
subcommittee to do what it can to urge States to provide immediate in-
state tuition rates at State colleges and universities as soon as 
military members and their families are relocated into that State. This 
should apply to the military members, their spouses, and their 
children.

       COMPENSATION AND PERMANENT-CHANGE-OF-STATION (PCS) ISSUES

    Senior NCO Pay Targeting.--AFSA urges the subcommittee to provide 
the necessary appropriations to allow further pay targeting toward the 
senior noncommissioned ranks. These members are critical to the success 
of the military mission, and their roles and responsibilities have 
increased significantly in recent years. It is no exaggeration to state 
the many jobs formerly handled by commissioned officers are now handled 
by senior enlisted members. As such, it is important for the 
subcommittee to take a critical look at the military pay charts and 
increase the pay levels of senior noncommissioned officers.
    Standard Reenlistment Bonus.--Each time military members reenlist, 
they commit to subjecting themselves to unlimited liability--putting 
their lives at risk, if need be, to defend the interests of this 
Nation. As all men and women, these people are choosing to devote a 
significant portion of their days on Earth to freedom. The current 
reenlistment bonus structure is strictly a force manipulation mechanism 
to adequately man hard-to-fill jobs. AFSA urges the subcommittee to 
provide the necessary funding which allows a standard reenlistment 
bonus each time a military member extends their military commitment.
    Increased Household Good (HHG) Weight Allowances for Senior NCOs 
During PCS Moves.--AFSA thanks this subcommittee for role in the modest 
increase in household goods weight allowances for senior NCOs approved 
last year. However, we recommend that these allowances be increased 
even further. Currently, the highest ranking enlisted members (E-9s) 
who are generally career-committed and have served the Nation for over 
two decades are afforded approximately the same HHG weight allowances 
as a commissioned officer who has served only 4 years. An E-7, probably 
at the average career point of 15 years, is given roughly the same HHG 
weight allowance as an O-1, just entering military service. HHG weight 
allowances should have some relation to average time in service, family 
size, probably accumulation of goods as a family grows, etc. It 
certainly should not be significantly different for commissioned and 
enlisted members. We believe the ethical, common-sense, way to provide 
this allowance would be parallel increases between the commissioned and 
enlisted rank charts with an E-1 and O-1 receiving the same HHG Weight 
Allowance, an E-2 receiving the same allowance as an O-2, etc. Such 
changes would require the support and therefore, funding considerations 
of this subcommittee.

                        GUARD AND RESERVE ISSUES

    Age 55 Retirement.--What has been true for years has become 
particularly evident in recent years--that members of the Guard and 
Reserve are full players in the defense of this Nation. Yet they are 
the only federal employees that have to wait until age 60 to enjoy 
their retirement benefits. As it is, their retirement pay is a fraction 
of that received by retired Active Duty members. Guard and Reserve 
retirement is based on an accumulation of service points. AFSA believes 
the right thing to do for the members of the Guard and Reserve is for 
this subcommittee to designate the necessary appropriations enabling a 
change to the law and allow these members the receipt of their 
retirement pay at age 55.
    Health Care.--In recent years, Congress has made great strides in 
addressing the Guard and Reserve health care situation, in part due to 
the great work of this committee. We urge that you continue along this 
path and provide a robust plan by expanding the current provisions and 
decreasing the fees for TRICARE Reserve Select.

                   RETIREMENT/VETERAN/SURVIVOR ISSUES

    Seamless DOD-VA Transition.--AFSA cannot stress enough the 
importance of properly funding programs that allow common use of 
medical records between DOD and the Veterans Administration, and to 
support other aspects of the transition from military service to 
veteran status. You have made great strides in recent years, and AFSA 
appreciates them. The issue of a common-sense transition from one 
status to the other, and the funding of programs to support it, has 
become even more critical during the time of the global war on 
terrorism.
    Concurrent Retirement and Disability Pay (CRDP) and Combat-Related 
Special Compensation (CRSC).--Congress has made progress on this matter 
in each of the last 5 or 6 years, and AFSA urges that it continue. We 
ask that you support expansion of CRSC for those Chapter 61 retirees 
(medically retired) who, through no fault of their own, were unable to 
complete 20 years of service. This would most effectively address those 
with the most serious disabilities and help to serve those fighting in 
the current actions in Iraq and Afghanistan.
    SBP ``Paid Up'' Provision.--This subcommittee acted on this several 
years ago by making this paid up feature effective in 2008. Some of 
these retirees have now been paying into SBP for many more years than 
30. We urge the subcommittee to implement the paid-up provision 
effective October 1, 2006.
    Eliminate the Survivor Benefit Plan (SBP)-Dependency and Indemnity 
Compensation (DIC) Offset.--Currently, survivors receiving DIC from the 
VA see a dollar-for-dollar reduction in their SBP payments (provided by 
DOD). Similar to the CRDP issue, this is a matter that we hope the 
subcommittee can provide funding for this year.
    Allow DIC Survivors to Remarry After Age 55 Without Losing Their 
DIC Entitlement.--Congress provided some relief to these survivors for 
setting the remarriage age without losing DIC entitlement at 57. To 
parallel other federal programs, we urge the subcommittee to change the 
allowable remarriage age for these survivors at 55.
    In conclusion, Mr. Chairman, we thank you for this opportunity to 
present the views of the Air Force enlisted community. As you work 
toward your appropriations decisions, the Air Force Sergeants 
Association and its 130,000 members urge you to ensure sufficient 
funding to provide for the integrity of the entire Department of 
Defense and related programs. Now, more than ever, this funding and 
this Nation's commitment to our servicemembers must be above reproach. 
On behalf of all AFSA members, we appreciate your efforts and, as 
always, are ready to support you in matters of mutual concern.

                         CONCLUSION OF HEARINGS

    Senator Inouye. I thank you all for your testimony this 
morning, and the subcommittee will stand in recess.
    [Whereupon, at 10:49 a.m., Wednesday, May 24, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Air Force Sergeants Association, Prepared Statement of the.......   676
Arthur, Vice Admiral Donald C., M.D., Surgeon General, Department 
  of the Navy, Medical Health Programs, Department of Defense....   361
    Prepared Statement of........................................   362
    Questions submitted to.......................................   425
Austin, Lieutenant Colonel Paul N., Certified Registered Nurse 
  Anesthetist, Ph.D., on Behalf of the American Association of 
  Nurse Anesthetists (AANA)......................................   548
    Prepared Statement of........................................   549

Barnes, Master Chief Joseph L., United States Navy (Retired), 
  National Executive Secretary, Fleet Reserve Association........   614
    Prepared Statement of........................................   615
Benge, Seth, Director of Legislation, Reserve Enlisted 
  Association, on Behalf of the Associations for America's 
  Defense (A4AD).................................................   574
    Prepared Statement of........................................   576
Bergman, Lieutenant General Jack W., Commander, Marine Corps 
  Reserve, United States Marine Corps, Department of the Navy, 
  Department of Defense..........................................   322
    Biographical Sketch of.......................................   333
    Prepared Statement of........................................   322
    Question Submitted to........................................   349
Black, Sherry Salway, Executive Director, Ovarian Cancer National 
  Alli- 
  ance...........................................................   563
    Prepared Statement of........................................   565
Blum, Lieutenant General H Steven, Chief, National Guard Bureau, 
  National Guard, Department of Defense........................243, 479
    Opening Statement of.........................................   247
    Prepared Statement of........................................   250
    Questions Submitted to.......................................   297
Bond, Senator Christopher S., U.S. Senator From Missouri:
    Prepared Statements of.....................................109, 246
    Statements of..............................................109, 246
Bradley, Lieutenant General John A., Chief, Air Force Reserve, 
  Department of the Air Force, Department of Defense.............   334
    Prepared Statement of........................................   334
    Question Submitted to........................................   350
Bruzek-Kohler, Rear Admiral Christine M., Director, Navy Nurse 
  Corps, Department of the Navy, Medical Health Programs, 
  Department of Defense..........................................   397
    Prepared Statement of........................................   399
    Questions submitted to.......................................   433
Burns, Senator Conrad, U.S. Senator From Montana:
    Prepared Statements of.................................21, 439, 481
    Questions Submitted by................................175, 234, 237
    Statements of..............................................180, 244

Chanik, Vice Admiral Marty, Director of Force Structure, 
  Assessments and Resources, Joint Chiefs of Staff, Department of 
  Defense........................................................     1
Coalition of EPSCoR/IDeA States, Prepared Statement of the.......   672
Coane, Rear Admiral Casey, United States Navy (Retired), 
  Executive Director, Naval Reserve Association..................   634
    Prepared Statement of........................................   635
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statements of.....................................438, 480
    Questions Submitted by....18, 20, 161, 171, 232, 236, 298, 349, 350
Cotton, Vice Admiral John G., Chief, Naval Reserve, Department of 
  the Navy, Department of Defense................................   317
    Prepared Statement of........................................   317

Dodgen, Lieutenant General Larry J., Commanding General, U.S. 
  Army Space and Missile Defense Command/U.S. Army Forces 
  Strategic Command, United States Army, Missile Defense Agency, 
  Department of Defense..........................................   450
    Prepared Statement of........................................   451
    Questions Submitted to.......................................   477
Domenici, Senator Pete V., U.S. Senator From New Mexico, 
  Questions Submitted by.........................95, 173, 299, 476, 532
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Statements of................................................111, 281
Duggan, Dennis, Deputy Director, American Legion.................   646
    Prepared Statement of........................................   647

Feigel, Gene E., Ph.D., President, American Society of Mechanical 
  Engineers (ASME)...............................................   588
    Prepared Statement of........................................   590
Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by.............................163, 176, 235, 238
Florida State University, Prepared Statement of..................   674

Hagee, General Michael W., Commandant, Marine Corps, Department 
  of the Navy, Department of Defense.............................    19
    Prepared Statement of........................................    64
    Questions Submitted to.......................................   103
Hahn, Chris, Executive Director, Mesothelioma Applied Research 
  Foundation (MARF)..............................................   553
    Prepared Statement of........................................   554
Hanson, Captain Marshall, United States Navy Reserve (Retired), 
  Co-Director, National Military Veterans Alliance...............   568
    Prepared Statement of........................................   569
Harvey, Hon. Francis J., Secretary of the Army, Office of the 
  Secretary, Department of the Army, Department of Defense.......   107
    Prepared Statement of........................................   114
    Questions Submitted to.......................................   166
Helmly, Lieutenant General James R., Chief, Army Reserve, 
  Department of the Army, Department of Defense..................   303
    Prepared Statement of........................................   304
    Question Submitted to........................................   350
Hurd, Captain Robert C., U.S. Navy (Retired).....................   556
    Prepared Statement of........................................   558

Ickes, Major General Charles, II, Acting Director, Air National 
  Guard, Department of the Air Force, Department of Defense......   279
    Question Submitted to........................................   302
Inouye, Senator Daniel K., U.S. Senator From Hawaii:
    Opening Statement of.........................................   535
    Prepared Statements of.............................2, 180, 438, 480
    Questions Submitted by.................................97, 101, 105
    Statement of......................................20, 108, 244, 354

James, Lieutenant General Daniel, III, Vice Chief, National Guard 
  Bureau and Director, Air National Guard, Department of Defense, 
  Prepared Statement of..........................................   263
Jonas, Hon. Tina, Under Secretary of Defense (Comptroller), 
  Department of Defense..........................................1, 479
    Prepared Statement of........................................     5

Kiley, Lieutenant General Kevin C., M.D., Surgeon General, 
  Department of the Army, Medical Health Programs, Department of 
  Defense........................................................   353
    Prepared Statement of........................................   357
    Questions submitted to.......................................   423
Koper, Brigadier General Stephen, United States National Guard 
  (Retired), President, National Guard Association of the United 
  States.........................................................   661
    Prepared Statement of........................................   663

Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by...................................................   533

Mathewson, John, Executive Vice President, The HSC Foundation....   618
Mathewson, Lesli Foster, Weekend Anchor, Channel 9 News, 
  Washington, DC.................................................   618
Matz, Major General William M., Jr., United States Army 
  (Retired), President, National Association for Uniformed 
  Services (NAUS)................................................   535
    Prepared Statement of........................................   537
McCarthy, Lieutenant General Dennis M., United States Marine 
  Corps (Retired), Executive Director, Reserve Officers 
  Association of the United States...............................   581
    Prepared Statement of........................................   582
Mikulski, Senator Barbara A., U.S. Senator From Maryland, 
  Statement of...................................................   245
Moakler, Kathleen B., Deputy Director, Government Relations, 
  National Military Family Association...........................   653
    Prepared Statement of........................................   654
Morris, Robert V., President, Morris Heritage Foundation, Inc....   638
Moseley, General T. Michael, Chief of Staff, Office of the 
  Secretary, Department of the Air Force, Department of Defense..   179
    Questions Submitted to.......................................   236
Mullen, Admiral Michael G., Chief of Naval Operations, Department 
  of the Navy, Department of Defense.............................    19
    Biographical Sketch of.......................................    62
    Prepared Statement of........................................    39
    Questions Submitted to.......................................    99

National Brain Injury Research, Treatment, & Training Foundation, 
  Prepared Statement of the......................................   665

Obering, Lieutenant General Henry A. ``Trey'', III, United States 
  Air Force, Director, Missile Defense Agency, Department of 
  Defense........................................................   437
    Prepared Statement of........................................   442
    Questions Submitted to.......................................   473
Olanoff, Command Chief Master Sergeant Mark H., United States Air 
  Force (Retired), on Behalf of the Armed Forces Top Enlisted 
  Association....................................................   593
    Prepared Statement of........................................   594

Pace, General Peter, United States Marine Corps, Chairman of the 
  Joint Chiefs of Staff, Department of Defense...................   494
    Prepared Statement of........................................   496
Pollock, Major General Gale, Chief, Army Nurse Corps, Department 
  of the Army, Medical Health Programs, Department of Defense....   387
    Biographical Sketch of.......................................   396
    Prepared Statement of........................................   389
    Questions submitted to.......................................   432
Polly, Dr. David W., Jr., M.D., on Behalf of the American Academy 
  of Orthopaedic Surgeons........................................   620
    Prepared Statement of........................................   621

Rank, Major General Melissa A., Assistant Surgeon General for 
  Nursing Services, Department of the Air Force, Medical Health 
  Programs, Department of Defense................................   404
    Prepared Statement of........................................   406
    Questions submitted to.......................................   430
Recker, Dr. Robert, M.D., Director, Osteoporosis Research Center, 
  Creighton University, on Behalf of the National Coalition for 
  Osteoporosis and Related Bone Diseases.........................   626
    Prepared Statement of........................................   628
Rumsfeld, Hon. Donald H., Secretary of Defense, Office of the 
  Secretary, Department of Defense...............................   479
    Prepared Statement of........................................   487

Scherling, Major General Terry L., Director of the Joint Staff, 
  National Guard Bureau, Department of Defense, Prepared 
  Statement of...................................................   270
Schoomaker, General Peter J., Chief of Staff, United States Army, 
  Office of the Secretary, Department of the Army, Department of 
  Defense........................................................   107
    Prepared Statement of........................................   114
    Questions Submitted to.......................................   161
    Statement of.................................................   150
Shelby, Senator Richard C., U.S. Senator From Alabama, Questions 
  Submitted by.................................................301, 350
Specter, Senator Arlen, U.S. Senator From Pennsylvania, Questions 
  Submitted by.................................................172, 299
Stevens, Senator Ted, U.S. Senator From Alaska:
    Opening Statements of...........1, 19, 107, 179, 243, 353, 437, 479
    Prepared Statement of........................................   437
    Questions Submitted by.......................................   16,
   93, 99, 103, 166, 232, 297, 301, 302, 423, 425, 427, 430, 432, 433, 
                                                               473, 477
Strickland, Dr. William J., Ph.D., Vice President, Human 
  Resources Research Organization, on Behalf of the American 
  Psychological Association......................................   543
    Prepared Statement of........................................   545
Strobridge, Colonel Steven P., United States Air Force (Retired), 
  Director, Government Relations, The Military Coalition.........   597
    Prepared Statement of........................................   599

Taylor, Lieutenant General George Peach, Jr., M.D., Surgeon 
  General, Department of the Air Force, Medical Health Programs, 
  Department of Defense..........................................   367
    Prepared Statement of........................................   369
    Questions submitted to.......................................   427
Thomas, Dr. Edwin Professor, Founding Director, Institute for 
  Soldier Nanotechnologies, Massachusetts Institute of Technology 
  (MIT)..........................................................   604
    Prepared Statement of........................................   606

Vance, Petty Officer First Class Jessica A., 2006 Naval Sea Cadet 
  of the Year, U.S. Naval Sea Cadet Corps........................   556
Vaughn, Lieutenant General Clyde A., Vice Chief, National Guard 
  Bureau and Director, Army National Guard, Department of Defense   278
    Prepared Statement of........................................   257
    Question Submitted to........................................   301
Vietnam Veterans of America, Prepared Statement of...............   667
Visco, Fran, J.D., President, National Breast Cancer Coalition...   629
    Prepared Statement of........................................   630

Winter, The Honorable David C., Secretary of the Navy, Department 
  of the Navy, Department of Defense.............................    19
    Biographical Sketch of.......................................    37
    Prepared Statement of........................................    22
    Questions Submitted to.......................................    93
Wynne, Hon. Michael W., Secretary, Office of the Secretary, 
  Department of the Air Force, Department of Defense.............   179
    Prepared Statement of........................................   183
    Questions Submitted to.......................................   232


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                                                                   Page

Additional Committee Questions...................................    16
Basic Allowance for Housing......................................    16
Budget...........................................................     7
Contracting......................................................    11
Corrosion Costs..................................................    18
Costs............................................................    14
    Of the War...................................................     9
Defend the Homeland..............................................     6
Department of Defense Fiscal Year 2007 Budget....................     7
End Strength of Army Guard.......................................     8
Funding:
    Flexibility..................................................    13
    For Veterans.................................................    12
Maintain U.S. Military Superiority...............................     6
Military:
    Health Care..................................................     7
    Pay..........................................................     6
Oversight........................................................    15
Prevail in Irregular Warfare Operations..........................     5
Special Forces...................................................     9
Strategic Priorities.............................................     5
Summary Statement................................................     2
Supplemental.....................................................     7
Supporting Service Members and Their Families....................     6

                      Department of the Air Force

                        Office of the Secretary

Additional Committee Questions...................................   232
Aging Aircraft...................................................   237
Air Force Personnel Cuts.........................................   237
Air and Space Power:
    Today--Building on Our Heritage..............................   186
    For Tomorrow--Aiming for the Unlimited Horizon...............   195
Alternate Engine Program.........................................   232
Bomber Modernization.............................................   215
B-52 cuts........................................................   234
Competitor States................................................   237
C-17 Transport:
    And Army Mobility............................................   241
    And Strategic Airlift Requirements...........................   239
    General Issues...............................................   238
500 Missiles.....................................................   234
ICBM Force Reduction.............................................   234
Introduction--Heritage to Horizon................................   184
Joint Cargo Aircraft:
    Program Allied Participation.................................   236
    And Multinational Operations.................................   236
Joint Strike Fighter.............................................   232
    Competitive Procurement......................................   233
Keesler Training Pipeline........................................   233
Personnel End Strength Reductions................................   236
Robust Nuclear Earth Penetrator..................................   235
Sled Test:
    Assistance From Sandia.......................................   235
    Status.......................................................   235
Spaced-based Infrared Systems High Program.......................   233
Summary--Heritage to Horizon.....................................   208
Supplemental Funding.............................................   232

                         Department of the Army

                        Office of the Secretary

Acronyms.........................................................   147
Additional Committee Questions...................................   161
All Volunteer Force..............................................   113
Army:
    Force Generation Model (ARFORGEN)............................   153
    Heritage and Education Center................................   172
    Modular Force..............................................112, 163
    Transformation and the C-17 Aircraft Program...............164, 170
Army National Guard:
    End Strength.................................................   171
    Force Structure..............................................   152
Balancing Risk: The Tension Between Current and Future Demands...   144
Base Realignment and Closure (BRAC)............................169, 172
Business Transformation..........................................   167
Civil War in Iraq................................................   165
Depot Funding....................................................   157
Equipment:
    Modernization................................................   155
    Readiness....................................................   171
Future Combat Systems (FCS)...............................113, 166, 174
Hyperbaric Treatment.............................................   161
Improvised Explosive Devices.....................................   173
Integrated Global Presence and Basing Strategy (IGPBS)...........   169
Intra-theater Airlift............................................   162
Iraq's Influence in Iraq.........................................   166
Joint:
    Cargo Aircraft (JCA).........................................   159
    Common Missile (JCM).........................................   159
    Tactical Radio System (JTRS).................................   170
Light Utility Helicopter (LUH)...................................   172
Mission: Providing Forces and Capabilities.......................   126
Modularity.......................................................   166
National Guard...................................................   175
National Museum of the United States Army/Army Heritage and 
  Education Center--Complementary Projects.......................   173
Preserving Peace and Freedom for the Nation......................   146
Provide Infrastructure and Support to Enable the Force to Fulfill 
  Its Strategic Roles and Missions...............................   142
Provide Relevant and Ready Landpower for the 21st Century 
  Security Environment...........................................   130
Purpose and Organization of the 2006 Army Posture Statement......   114
Quadrennial Defense Review.......................................   153
Receipt of Supplemental Funds....................................   171
Recruiting and Retention:
    Budget for Fiscal Year 2007..................................   157
    Incentives...................................................   156
Resetting the Force..............................................   167
Restructuring the Force--AC/RC Rebalance.........................   169
Retention........................................................   150
Science and Technology (S&T) Investments.........................   174
Soldiers.........................................................   175
Stryker Brigade Combat Teams.....................................   156
Sustain an All-Volunteer Force Composed of Highly Competent 
  Soldiers That Are Provided an Equally High Quality of Life.....   139
TRICARE..........................................................   154
The Army Plan to Enable Mission Accomplishment...................   128
The Army Vision: Relevant and Ready Landpower in Service to the 
  Nation.........................................................   125
Train and Equip Soldiers to Serve as Warriors and Grow Adaptive 
  Leaders........................................................   135
Training of Iraqi Security Forces..............................163, 177
Troop Reductions...............................................165, 166
    Training of Iraqi Security Forces............................   166
2006 Army Posture Statement Executive Summary....................   115
21st Century Security Environment: An Era of Uncertainty and 
  Unpredictability...............................................   119
Unfunded Requirements............................................   160
Unmanned Aerial Vehicles (UAVs)..................................   158
War Costs........................................................   176
Warfighter Information Network--Tactical (WIN-T).................   169

                         Department of the Navy

Additional Committee Questions...................................    93
Basic Allowance for Housing (BAH) Budget Shortfall...............    99
Building the Future Force........................................    47
Capabilities Development.........................................    74
Changing the Way We Fight........................................    30
Cost Estimate to Reset the Force.................................   103
C-130 Cancellation...............................................    97
Declining Budget and the 313 Ship Navy...........................    99
Developing 21st Century Leaders..................................    54
Equipment........................................................    28
Fiscal Year 2007 Budget Priorities...............................    23
Funding for Recruiting and Retention Incentives, Bonuses and 
  Advertising....................................................    99
Health Benefit:
    Cost--Affect on Recruiting/Retention.........................   103
    Costs........................................................   102
Improving Business Practices.....................................    35
KC-130 Inventory Objective.......................................   105
LPD-17 Amphibious Ship...........................................    87
Long Wavelength Array............................................    97
MV-22............................................................    83
    Osprey.......................................................   104
Magdalena Ridge Observatory......................................    97
Marine Corps:
    End Strength.................................................    84
    Equipment Replacement........................................    88
    Recruitment..................................................    89
    Reserve......................................................    88
    Special Operations Command...................................   105
    Training.....................................................    89
Mental Health Care...............................................    82
Naval Workforce..................................................    25
Navy Expeditionary Combat Command................................    80
    Equipping Strategy...........................................    94
    Global War on Terror.........................................    93
Navy High Energy Laser Testing...................................    96
Operations.......................................................    26
Pacific Missile Range Facility (PMRF) Performance................   102
Preparing for the Future: The Last Year..........................    67
Recruiting and Retention.........................................    85
Reserve Health Benefits..........................................   105
Resetting the Force and Preparing for the Next Contingency.......    65
Restore Private Shipyards........................................   102
SEAL Recruiting..................................................   101
SEALs Effect on End Strength.....................................    94
Sea-based Missile Defense........................................   101
Selective Reenlistment Bonuses...................................   105
Service Members' Absentee Votes..................................    90
Shape Our 21st Century Workforce.................................    29
Shipbuilding:
    And Operations Costs.........................................    97
    Plan.........................................................    87
Special Operations Forces........................................    81
Steaming Days....................................................    83
Supplemental:
    Funding:
        And USMC Equipment Reset.................................   104
        For V-22.................................................   104
    Request......................................................    86
Sustaining Readiness.............................................    42
313 Ship Plan....................................................   100
Unmanned Combat Air Vehicles (UCAV).............................90, 100
War Definition...................................................    92
Water Purification Program.......................................    95

                        Medical Health Programs

Additional Committee Questions...................................   423
Addressing Billet Shortfalls and Meeting Mission.................   433
Aeromedical Evacuation...........................................   371
Base Realignment and Closure.....................................   368
Changes in Navy Medicine.........................................   364
Clinical Successes...............................................   409
Combat Casualty Care.............................................   363
Deployment Health................................................   372
Deployments......................................................   371
    And Quality of Care..........................................   364
EMEDS............................................................   370
Education Programs and Policies..................................   402
Emerging Missions................................................   365
Expeditionary Nursing............................................   407
Force Health Protection..........................................   362
Global War on Terrorism..........................................   370
Hurricanes Katrina and Rita......................................   408
Installations as our Flagships...................................   358
Medical Recruiting.............................................365, 427
    Goals........................................................   433
Mental Health....................................................   364
Mid-level Leadership/Senior Leadership Development...............   403
Our Way Ahead....................................................   412
Partnership With the Department of Veterans Affairs..............   363
People...........................................................   374
Post Traumatic Stress:
    Disorder...................................................428, 430
    Return to Duty...............................................   434
Readiness and Clinical Proficiency...............................   399
Recapitalization.................................................   374
Recruiting:
    And Retention....................................357, 410, 429, 430
    Goals........................................................   428
Requirements and Force Shaping...................................   401
Research.........................................................   411
    And Development..............................................   359
Skill Sustainment................................................   410
Sustain the Benefit..............................................   359
Sustaining the Benefit/Health Care Costs.........................   366
TRICARE..........................................................   375
Technological Edge...............................................   373

                         Missile Defense Agency

Additional Committee Questions...................................   473
Air and Missile Defense:
    Battalions...................................................   454
    An Overview of the Fiscal Year 2007 Army Budget Submission...   453
Air, Space, and Missile Defense Command and Control..............   456
Airborne Laser...................................................   459
Arrow Program....................................................   466
Ballistic Missile Defense System.................................   477
Building Confidence Through Spiral Testing.......................   444
Command and Control..............................................   468
Completing the:
    Fielding of Block 2004.......................................   443
    Next Increment--Block 2006...................................   446
Counter-Rocket, Artillery, Mortar (C-RAM)........................   457
Countermeasures..................................................   461
Cruise Missile Defense...........................................   455
Directed Energy Initiatives......................................   457
Evolving Security Environment....................................   442
Expendable Launch Vehicle Program................................   470
Ground-based:
    Midcourse Defense Quality Control............................   462
    Missile Defense..............................................   474
Integrated AMD System of Systems.................................   453
International Participation......................................   448
Kinetic Energy Interceptor Program.............................460, 463
Layered Defense..................................................   465
Missile Defense..................................................   467
    Approach--Layered Defense....................................   442
    Flight Testing...............................................   458
Moving Toward the Future--Block 2008 and Beyond..................   447
Multiple Kill Vehicle Funding....................................   464
Operational Readiness............................................   458
Sea Based X-Band.................................................   471
Terminal:
    High-Altitude Area Defense Program...........................   460
    Phase Ballistic Missile Defenses.............................   454
USSTRATCOM JFCC-IMD..............................................   452
Value of Test Ranges to Missile Defense Agency (MDA)...........475, 476
X-Band Radar Security............................................   471

                             National Guard

Additional Committee Questions...................................   297
Air National Guard F-15 Modernization............................   285
America's 21st Century Minutemen--Always Ready, Always There!....   250
Emergency:
    Power Sources for the National Guard.........................   300
    Preparedness for Natural Disasters...........................   286
Equipment:
    Funding......................................................   283
    Readiness....................................................   284
    Wear and Depletion...........................................   294
Hollaran Air Force Base: F-22 Construction.......................   289
Joint Staff Overview.............................................   270
Kirtland National Guard's Role With F-16 Squadrons...............   299
Length of Deployment.............................................   293
Mission Readiness................................................   295
National Guard:
    And Playas...................................................   300
    And Reserves Operation Tempo.................................   281
    And the Army's Air Defense Artillery.........................   300
    End Strength and Force Structure.............................   282
    Role in the Quadrennial Defense Review.......................   285
    Seat on the Joint Chiefs of Staff..........................289, 294
National Guard's Role in Border Security.........................   300
Retention in the Army National Guard.............................   288
Role of the National Guard.......................................   296
State Adjutants General..........................................   277
Total Force Integration and North Dakota.........................   292

                        Office of the Secretary

Accelerate Transformation........................................   498
Acquisition Process..............................................   504
Additional Committee Questions...................................   532
Ballistic Missile Defense........................................   489
Base Realignment and Closure Commission..........................   526
Border Security................................................506, 510
Defense Health Program...........................................   505
Democracy in Iraq................................................   519
Domestic Surveillance............................................   504
Earmarks.........................................................   523
Federal Aviation Administration Coordination on Unmanned Aerial 
  Ve- 
  hicles.........................................................   527
Global Posture...................................................   487
Improve the Quality of Life of our Service Members and our 
  Families.......................................................   501
Intelligence Management..........................................   524
Iraq.............................................................   491
Iraqi Government Formation.......................................   511
Leadership Approaches............................................   489
Managing the Force...............................................   488
Meeting New Challenges...........................................   484
Mental Health....................................................   493
Military Draft...................................................   530
National Guard.................................................483, 517
    On the Border................................................   488
Navy...........................................................484, 489
New Organizations................................................   489
Operations and Maintenance.......................................   484
Progress in Iraq...............................................486, 503
Resistance to Change.............................................   490
Retired Generals' Criticism......................................   529
Satellite Programs...............................................   502
Secretary's Opening Statement....................................   482
Shifting our Emphasis............................................   491
Special Operations...............................................   489
Strengthen Joint Warfighting.....................................   499
Supplemental:
    Funding......................................................   494
    Request......................................................   492
Tanker Recapitalization..........................................   513
The Long War.....................................................   490
Transformation...................................................   482
Treatment of Detainees...........................................   522
Troop Withdrawal...............................................516, 521
U.S. Army........................................................   487
War Planning.....................................................   489
Weapons Systems..................................................   488
Win the War on Terrorism.........................................   497

                                Reserves

Activation:
    Impact.......................................................   326
    Philosophy...................................................   326
    Time Limits..................................................   349
Additional Committee Questions...................................   349
Army Reserve History.............................................   305
Base Realignment and Closure.....................................   337
Changing Demand Signals--New and Non-Traditional Missions........   319
Closing..........................................................   340
Equipment......................................................327, 343
    Shortfalls...................................................   347
Equipping the Force..............................................   312
Family Support...................................................   337
Fiscal Year:
    2006 NGREA...................................................   339
    2007 Funding.................................................   340
Historical Background and Today..................................   305
Homeland Contingency Support.....................................   335
Managing Change..................................................   306
Manning the Force................................................   313
Marine Corps Reserve Capabilities................................   327
Mission Contributions 2005.......................................   335
Modular Support Brigades.........................................   350
One Tier of Readiness............................................   338
Our People: Mobilization vs. Volunteerism........................   336
Personnel Reductions.............................................   350
Providing Trained and Ready Units................................   308
Purpose and Organization of the Posture Statement................   304
Quality of Life..................................................   330
Readiness........................................................   321
Reconstitution...................................................   340
Recruiting.....................................................320, 344
    And Retention....................................329, 336, 343, 345
Return on Investment.............................................   324
Shaping the Reserve Force........................................   336
Size and Shape of the Force......................................   320
Strategic Overview...............................................   306
The Way Ahead....................................................   317
Today's Army Reserve.............................................   304
Transformation...................................................   322
Your Marine Corps Reserve Today..................................   323

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
